<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-201]
[From the U.S. Government Printing Office]


                                                 S. Hrg. 110-201, Pt. 1
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1547

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2008 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 1

                            MILITARY POSTURE
                              ARMY POSTURE
                           AIR FORCE POSTURE
                          COMBATANT COMMANDERS
                              NAVY POSTURE
 WHETHER THE ARMY AND MARINE CORPS ARE PROPERLY SIZED, ORGANIZED, AND 
                                EQUIPPED
                          COMBATANT COMMANDERS
                            CENTRAL COMMAND
                            EUROPEAN COMMAND

                               __________

    FEBRUARY 6; MARCH 15, 20, 22, 29; APRIL 17, 24; MAY 3, 17, 2007


         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

39-435 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  











































                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
EVAN BAYH, Indiana                   LINDSEY O. GRAHAM, South Carolina
HILLARY RODHAM CLINTON, New York     ELIZABETH DOLE, North Carolina
MARK L. PRYOR, Arkansas              JOHN CORNYN, Texas
JIM WEBB, Virginia                   JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           MEL MARTINEZ, Florida

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                  (ii)






































                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
                            Military Posture
                            february 6, 2007

                                                                   Page

Gates, Hon. Robert M., Secretary of Defense; Accompanied by Hon. 
  Tina W. Jonas, Under Secretary of Defense (Comptroller)........     4
Pace, Gen. Peter, USMC, Chairman, Joint Chiefs of Staff..........     9

                   Posture of the United States Army
                             march 15, 2007

Geren, Hon. Preston M., ``Pete'' III, Acting Secretary of the 
  Army...........................................................   116
Schoomaker, GEN Peter J., USA, Chief of Staff, United States 
  Army; Accompanied by LTG James J. Lovelace, USA, Deputy Chief 
  of Staff, U.S. Army; LTG Clyde A. Vaughn, ARNG, Director, Army 
  National Guard; LTG Jack C. Stultz, USAR, Commanding General, 
  U.S. Army Reserve Command; and LTC Coll S. Haddon, USA, Deputy 
  Director, Operations Program Manager, Future Combat Systems, 
  Brigade Combat Team............................................   182

                 Posture of the United States Air Force
                             march 20, 2007

Moseley, Gen. T. Michael, USAF, Chief of Staff, United States Air 
  Force..........................................................   291
Wynne, Hon. Michael W., Secretary of the Air Force...............   342

  United States Southern Command, United States Northern Command, and 
                   United States Joint Forces Command
                             march 22, 2007

Keating, ADM Timothy J., USN, Commander, United States Northern 
  Command/Commander, North American Aerospace Defense Command....   454
Smith, Gen. Lance L., USAF, Commander, United States Joint Forces 
  Command/North Atlantic Treaty Organization Supreme Allied 
  Commander for Transformation...................................   463
Stavridis, ADM James G., USN, Commander, United States Southern 
  Command........................................................   475

                   Posture of the United States Navy
                             march 29, 2007

Winter, Hon. Donald C., Secretary of the Navy....................   541
Mullen, ADM Michael G., USN, Chief of Naval Operations...........   696
Conway, Gen. James T., USMC, Commandant of the Marine Corps......   726

 Whether the Army and Marine Corps are Properly Sized, Organized, and 
   Equipped to Respond to the Most Likely Missions over the Next Two 
     Decades While Retaining Adequate Capability to Respond to all 
               Contingencies Along the Spectrum of Combat
                             april 17, 2007

McCaffrey, GEN Barry R., USA (Ret.), President, BR McCaffrey 
  Associates, LLC................................................   810
Korb, Dr. Lawrence J., Senior Fellow, Center for American 
  Progress.......................................................   816
Scales, MG Robert H., Jr., USA (Ret.), President, Colgen, Inc....   824
Krepinevich, Dr. Andrew F., Jr., President, Center for Strategic 
  and Budgetary Assessments......................................   830

 United States Pacific Command, United States Forces-Korea, and United 
                   States Special Operations Command
                             april 24, 2007

Keating, ADM Timothy J., USN, Commander, United States Pacific 
  Command........................................................   891
Bell, GEN Burwell B., III, USA, Commander, United Nations Command 
  and Republic of Korea/United States Combined Forces Command 
  Commander, United States Forces-Korea..........................   905
Olson, VADM Eric T., USN, Deputy Commander, United States Special 
  Operations Command.............................................   920

                     United States Central Command
                              may 3, 2007

Fallon, ADM William J., USN, Commander, United States Central 
  Command........................................................  1015

                     United States European Command
                              may 17, 2007

Craddock, GEN Bantz J., USA, Commander, United States European 
  Command, and Supreme Allied Commander, Europe..................  1072


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                       TUESDAY, FEBRUARY 6, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                            MILITARY POSTURE

    The committee met, pursuant to notice, at 9:34 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, Byrd, 
Lieberman, Reed, Bill Nelson, E. Benjamin Nelson, Bayh, 
Clinton, Pryor, Webb, McCaskill, McCain, Warner, Inhofe, 
Sessions, Collins, Ensign, Chambliss, Graham, Dole, Cornyn, 
Thune, and Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearing clerk.
    Majority staff members present: Jonathan D. Clark, minority 
counsel; Daniel J. Cox, Jr., professional staff member; Evelyn 
N. Farkas, professional staff member; Richard W. Fieldhouse, 
professional staff member; Creighton Greene, professional staff 
member; Michael J. Kuiken, professional staff member; Gerald J. 
Leeling, counsel; Peter K. Levine, general counsel; Michael J. 
McCord, professional staff member; William G.P. Monahan, 
counsel; and Michael J. Noblet, research assistant.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Gregory T. Kiley, professional staff member; 
Derek J. Maurer, professional staff member; David M. Morriss, 
minority counsel; Lucian L. Niemeyer, professional staff 
member; Christopher J. Paul, professional staff member; Lynn F. 
Rusten, professional staff member; Sean G. Stackley, 
professional staff member; Diana G. Tabler, professional staff 
member; and Richard F. Walsh, minority counsel.
    Staff assistants present: David G. Collins, Fletcher L. 
Cork, and Jessica L. Kingston.
    Committee members' assistants present: Sharon L. Waxman, 
assistant to Senator Kennedy; Frederick M. Downey, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Caroline Tess, assistant to Senator Bill Nelson; Eric Pierce 
and Benjamin Rinaker, assistants to Senator Ben Nelson; Todd 
Rosenblum, assistant to Senator Bayh; Andrew Shapiro, assistant 
to Senator Clinton; Lauren Henry, assistant to Senator Pryor; 
Gordon I. Peterson, assistant to Senator Webb; Nichole M. 
Distefano, assistant to Senator McCaskill; Sandra Luff, 
assistant to Senator Warner; Arch Galloway II, assistant to 
Senator Sessions; Mark J. Winter, assistant to Senator Collins; 
D'Arcy Grisier, assistant to Senator Ensign; Clyde A. Taylor 
IV, assistant to Senator Chambliss; Adam G. Brake, assistant to 
Senator Graham; Lindsey Neas, assistant to Senator Dole; 
Russell J. Thomasson, assistant to Senator Cornyn; and Stuart 
C. Mallory and Bob Taylor, assistants to Senator Thune.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets this morning to receive the testimony from Secretary of 
Defense, Robert Gates; Chairman of the Joint Chiefs of Staff, 
General Peter Pace; and the Comptroller of the Department of 
Defense, Tina Jonas.
    The subject is the President's fiscal year 2008 budget 
request for the Department of Defense (DOD), including both the 
so-called base budget of $481 billion and the additional $141 
billion requested for operations in Iraq and Afghanistan. In 
addition, our witnesses will present the $93 billion 
supplemental that is being submitted for the rest of fiscal 
year 2007 for operations in Iraq and Afghanistan, which is in 
addition to the $70 billion so-called bridge supplemental for 
fiscal year 2007 that Congress provided last fall.
    I want to welcome all of our witnesses this morning. 
Secretary Gates, we know that most of the work of putting this 
budget together took place before you took office, and we 
understand if you turn to the Comptroller to answer, perhaps, 
more questions than usual this year. However, some of the most 
significant proposals contained in this budget and the 
supplemental reflect administration decisions that were made in 
the past month, such as the proposal to surge additional troops 
to Iraq this year and the proposal to seek a large permanent 
increase in the size of the Army and Marine Corps. These are 
key decisions which you, Mr. Secretary, were intimately 
involved.
    I appreciate the effort that all of you made to submit a 
budget that includes the full year's cost of continuing 
operations in Iraq and Afghanistan. This was in compliance with 
a provision in last year's National Defense Authorization Act 
(NDAA). It is a step forward, in terms of both budget honesty 
and proper oversight, and I'm pleased that, through the 
leadership of Senators McCain and Byrd, and others, that we 
have gotten to this point.
    I hope we're now moving to an era of real transparency of 
the financial costs of these operations. That still leaves us 
plenty of other work to do on the policy underlying these costs 
and, as the reports of the Special Inspector General for Iraq 
Reconstruction remind us, on the contracting and spending of 
these funds. Making it clear how much we spend and what we plan 
to spend it for is an essential part of congressional oversight 
and accountability to the taxpayer.
    One of the benefits of seeing the full cost of the defense 
program proposed in this budget is that it brings home the 
enormous growth in defense spending we've seen in this 
administration. The fiscal year 2008 base budget is 30 percent 
larger than the defense budget that President Bush inherited in 
2001, and that's in constant dollars. When the cost of 
operations in Iraq and Afghanistan are included, the defense 
budget is now 60 percent larger than it was then, yet it is 
difficult to see how we, as a Nation, are more secure.
    Nowhere are the costs of this administration's policies 
more vivid than in the budget request before us today for 
operations in Iraq. Our Nation has already made an investment 
of over $330 billion and a sacrifice of over 3,000 lives lost 
and 22,000 wounded in Iraq. But this has not brought us the 
secure and stable Iraq that we all wish to see.
    This morning, the administration is presenting to Congress 
and the American people a request to invest an additional $174 
billion in a more robust version of that same Iraq policy for 
the balance of 2007 and 2008. That would bring the total 
invested in military costs in Iraq to $505 billion by the end 
of fiscal year 2008.
    The costs of our policy in Iraq are not limited to those 
enormous sums of money, all of which are borrowed, by the way. 
The heavy deployment of our forces to Iraq has increased the 
stress on our force and reduces the ability of our military to 
train for, and react to, challenges in other parts of the 
world, if need be. The proposed surge of at least 21,500 
additional forces to Iraq will worsen that stress.
    There are other aspects of this request for funds in Iraq 
and Afghanistan that are of concern. The request for over a 
billion dollars of military construction funds in Iraq and 
Afghanistan implies that a long-term presence may be 
envisioned.
    Secretary Gates, a month ago Senator McCain and I wrote to 
you expressing our concern that the directive issued by Deputy 
Secretary England in late October meant that the rules for what 
would be allowed in future supplemental requests were being 
relaxed. We wrote to you, urging that ``a supplemental should 
be limited to expenditures that are directly required in 
connection with ongoing military operations.'' It appears that 
our concerns were well-founded.
    Last fall, we were told that reset requirements for fiscal 
year 2007 would reach about $23 billion, including a 
significant one-time catchup for costs the Army was not able to 
get the administration to request in 2006, but we were told 
that recurring costs would be lower after that. Instead, we now 
see those costs balloon up to $37 billion a year, including the 
purchase of large numbers of aircraft that do not appear to 
meet the definition of emergency spending and which won't be 
delivered for years.
    Finally, in a rather marked change of position for this 
administration, the budget proposes to add 92,000 Active-Duty 
Army and Marine Corps personnel to the force over the next 5 
years, an increase of almost 14 percent in the size of our 
ground forces. This proposed increase is substantially larger 
than increases proposed by Senator Jack Reed and others over 
the past several years, that the DOD had opposed. The 
Department estimates the 5-year cost of this increase at $95 
billion from fiscal years 2008 to 2012, and there are 
additional costs in fiscal year 2007, as well. An increase of 
this size will require us to either permanently increase the 
size of the defense budget or cut back on weapons programs to 
offset the cost of these additional personnel. Once adopted, 
such increases are not easily undone, especially once we invest 
in the equipment and facilities to support these new units.
    We all understand the stress on our forces in Iraq, but 
only some of these additional people would be trained and ready 
to help relieve that stress in the next year or 2. Therefore, 
it is important that we understand exactly what these 
additional personnel are needed for in the long-term that was 
not foreseen in the Quadrennial Defense Review submitted a year 
ago that rejected such increases. Do we intend to stay in Iraq 
for years to come? Does the administration think the long war 
with terrorism is going to be won with large ground forces 
operating in foreign nations?
    Our men and women in uniform are risking their lives 
representing our Nation around the world. All of us support 
them. We appreciate their hard work and the sacrifices that 
they and their families make. We owe it to them to give them 
the tools to succeed, but we also have a duty to them and all 
of America's taxpayers to approve only those funding requests 
that we believe are necessary and appropriate.
    Let me call on Senator Warner. I know that Senator McCain 
is on his way, but--Senator Warner?
    Senator Warner. That's correct. Let's proceed with the 
testimony. At such time as he gets here, he'll make his opening 
remarks.
    Chairman Levin. Thank you, Senator Warner.
    Secretary Gates?

   STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE; 
 ACCOMPANIED BY HON. TINA W. JONAS, UNDER SECRETARY OF DEFENSE 
                         (COMPTROLLER)

    Secretary Gates. Thank you, Mr. Chairman.
    Mr. Chairman, members of the committee, I thank the 
committee, first of all, for all you have done over the years 
to support our military for many years, and I appreciate the 
opportunity to provide an overview of the way ahead at the DOD 
through the budgets being proposed this week.
    First, the President's fiscal year 2008 defense budget, 
which includes the base budget request and the fiscal year 2008 
global war on terror request; and, second, the fiscal year 2007 
emergency supplemental appropriation request to fund war-
related costs for the remainder of the fiscal year. We have 
provided a more detailed statement--opening statement for the 
record, and I'll just be very brief here.
    Joining me today is General Pete Pace, Chairman of the 
Joint Chiefs of Staff, and Tina Jonas, the Comptroller of the 
DOD.
    In summary, the budget being requested by the President 
will make the strategic investments necessary to modernize and 
recapitalize key capabilities in the Armed Forces, sustain the 
All-Volunteer Military by reducing stress on the force and 
improving the quality of life for our troops and their 
families, improve readiness through additional training and 
maintenance and by resetting forces following their overseas 
deployment, and fund U.S. military operations in Iraq, 
Afghanistan, and elsewhere, in the ongoing campaign against 
violent jihadist networks around the globe.
    I believe it is important to consider these budget requests 
in some historical context, as there has been, understandably, 
sticker shock at their combined price tags, more than $700 
billion. But consider that at about 4 percent of America's 
gross domestic product (GDP), the amount of money the United 
States is projected to spend on defense this year is actually a 
smaller percentage of GDP than when I left government 14 years 
ago, following the end of the Cold War, and a significantly 
smaller percentage than during previous times of war, such as 
Vietnam and Korea.
    Since 1993, with a defense budget that is a smaller 
relative share of our national wealth, the world has gotten 
more complicated and arguably more dangerous. In addition to 
fighting the global war on terror, we also face the danger 
posed by Iran and North Korea's nuclear ambitions and the 
threat they pose not only to their neighbors, but globally, 
because of their record of proliferation; the uncertain paths 
of Russia and China, which are both pursuing sophisticated 
military modernization programs; and a range of other potential 
flashpoints and challenges. In this strategic environment, the 
resources we devote to defense should be at the level to 
adequately meet those challenges.
    Someone once said that experience is that marvelous thing 
that enables you to recognize a mistake when you make it again. 
Five times over the past 90 years, the United States has either 
slashed defense spending or disarmed outright in the mistaken 
belief that the nature of man or the behavior of nations had 
somehow changed, or that we would no longer need capable, well-
funded military forces on hand to confront threats to our 
Nation's interests and security. Each time, we have paid a 
price.
    The costs of defending the Nation undoubtedly are high. The 
only thing costlier, ultimately, would be to fail to commit the 
resources necessary to defend our interests around the world 
and failure--and to fail to prepare for the inevitable threats 
of the future.
    Before closing, Mr. Chairman, I would like to take this 
opportunity to announce something that is not referenced in my 
statement that was submitted yesterday, but that I wanted to 
bring to the committee's attention.
    The President has decided to stand up a new unified 
combatant command, Africa Command (AFRICOM), to oversee 
security cooperation, building partnership capability, defense 
support to nonmilitary missions, and, if directed, military 
operations on the African continent. This command will enable 
us to have a more effective and integrated approach than the 
current arrangement of dividing Africa between Central Command 
(CENTCOM) and European Command (EUCOM), an outdated arrangement 
left over from the Cold War. This Department will consult 
closely with Congress and work with our European and African 
allies to implement this effort.
    We look forward to taking your questions.
    Thank you, sir.
    [The prepared statement of Secretary Gates follows:]
               Prepared Statement by Hon. Robert M. Gates
    Mr. Chairman, Senator McCain, and members of the committee: I thank 
the committee for all you have done to support our military these many 
years, and I appreciate the opportunity to provide an overview of the 
way ahead at the Department of Defense (DOD) through the budgets being 
proposed this week: First, the President's fiscal year 2008 defense 
budget, which includes the base budget request and the fiscal year 2008 
global war on terror request; and second, the fiscal year 2007 
Emergency Supplemental Appropriation Request to fund war-related costs 
for the remainder of this fiscal year.
    I believe it is important to consider these budget requests in some 
historical context as there has been, understandably, sticker shock at 
their combined price tags--more than $700 billion in total.
    But, consider that at about 4 percent of America's Gross Domestic 
Product (GDP), the amount of money the United States is expected to 
spend on defense this year is actually a smaller percentage of GDP than 
when I left government 14 years ago following the end of the Cold War--
and a significantly smaller percentage than during previous times of 
war, such as Vietnam and Korea.
    Since 1993, with a defense budget that is a smaller relative share 
of our national wealth, the world has gotten more complicated, and 
arguably more dangerous. In addition to fighting the global war on 
terror, we also face:

        <bullet> The danger posed by Iran and North Korea's nuclear 
        ambitions, and the threat they pose not only to their 
        neighbors, but globally, because of their record of 
        proliferation.
        <bullet> The uncertain paths of China and Russia, which are 
        both pursuing sophisticated military modernization programs; 
        and
        <bullet> A range of other potential flashpoints and challenges. 
        In this strategic environment, the resources we devote to 
        defense should be at the level to adequately meet those 
        challenges.

    Someone once said that ``Experience is that marvelous thing that 
enables you to recognize a mistake when you make it again.''
    Five times over the past 90 years the United States has either 
slashed defense spending or disarmed outright in the mistaken belief 
that the nature of man or behavior of nations had somehow changed, or 
that we would no longer need capable, well funded military forces on 
hand to confront threats to our Nation's interests and security. Each 
time we have paid a price.
    The costs of defending our Nation are high. The only thing 
costlier, ultimately, would be to fail to commit the resources 
necessary to defend our interests around the world, and to fail to 
prepare for the inevitable threats of the future.
                      fiscal year 2008 base budget
    The President's fiscal year 2008 base budget request of $481.4 
billion is an increase of 11.3 percent over the projected enacted level 
of fiscal year 2007, and provides the resources needed to man, 
organize, train, and equip the Armed Forces of the United States. This 
budget continues efforts to reform and transform our military 
establishment to be more agile, adaptive, and expeditionary to deal 
with a range of both conventional and irregular threats.
    Some military leaders have argued that while our forces can support 
current operations in the war on terror, these operations are 
increasing risks associated with being called on to undertake a major 
conventional conflict elsewhere around the world. This budget provides 
additional resources to mitigate those risks.
    The fiscal year 2008 base budget includes increases of about $16.8 
billion over last year for investments in additional training, 
equipment repair and replacement, and intelligence and support. It 
provides increases in combat training rotations, sustains air crew 
training, and increases ship steaming days.
                         increase ground forces
    Despite significant improvements in the way our military is 
organized and operated, the ongoing conflicts in Iraq and Afghanistan 
have put stress on parts of our Nation's ground forces.
    Last month, the President called for an increase in the permanent 
active end strength of the Army and Marine Corps of some 92,000 troops 
by fiscal year 2012. The base budget request adds $12.1 billion to 
increase ground forces in the next fiscal year, which will consist of 
7,000 additional soldiers and 5,000 additional marines.
    Special Operations Forces, who have come to play an essential and 
unique role in operations against terrorist networks, will also grow by 
5,575 troops between fiscal year 2007 and fiscal year 2008.
                  strategic investments--modernization
    The base budget invests $177 billion in procurement and research 
and development that includes major investments in the next generation 
of technologies. The major weapons systems include:

        <bullet> Future Combat System ($3.7 billion)--The first 
        comprehensive modernization program for the Army in a 
        generation.
        <bullet> Joint Strike Fighter ($6.1 billion)--This next 
        generation strike aircraft has variants for the Air Force, the 
        Navy, and the Marine Corps. Eight international partners are 
        contributing to the JSF's development and production.
        <bullet> F-22A ($4.6 billion)--Twenty additional aircraft will 
        be procured in fiscal year 2008.
        <bullet> Shipbuilding ($14.4 billion)--The increase of $3.2 
        billion over last year is primarily for the next generation 
        aircraft carrier, the CVN-21, and the LPD-17 amphibious 
        transport ship. The long-term goal is a 313-ship Navy by 2020.
Missile Defense
    I have believed since the Reagan administration that if we can 
develop a missile defense capability, it would be a mistake for us not 
to do so. There are many countries that either have or are developing 
ballistic missiles, and there are at least two or three others--
including North Korea--that are developing longer-range systems. We 
also have an obligation to our allies, some of whom have signed on as 
partners in this effort. DOD is proceeding with formal negotiations 
with Poland and the Czech Republic on establishing a European missile 
site. The missile defense program funded by this request will continue 
to test our capability against more complex and realistic scenarios. I 
urge the committee to approve the full $9.9 billion requested for the 
missile defense and Patriot missile programs.
Space Capabilities
    The recent test of an anti-satellite weapon by China underscored 
the need to continue to develop capabilities in space. The policy of 
the U.S. Government in this area remains consistent with the 
longstanding principles that were established during the Eisenhower 
administration, such as the right of free passage and the use of space 
for peaceful purposes. Space programs are essential to the U.S. 
military's communications, surveillance, and reconnaissance 
capabilities. The base budget requests about $6.0 billion to continue 
the development and fielding of systems that will maintain U.S. 
supremacy while ensuring unfettered, reliable, and secure access to 
space.
Recapitalization
    A major challenge facing our military is that several key 
capabilities are aging and long overdue for being replaced. The prime 
example is the Air Force KC-135 tanker fleet, which averages 45 years 
per plane. It is becoming more expensive to maintain and less reliable 
to operate. The Air Force has resumed a transparent and competitive 
replacement program to recapitalize this fleet with the KC-X aircraft. 
The KC-X will be able to carry cargo and passengers and will be 
equipped with defensive systems. It is the U.S. Transportation 
Command's and the Air Force's top acquisition and recapitalization 
priority.
          quality of life--sustaining the all-volunteer force
    Our Nation is fortunate that so many talented and patriotic young 
people have stepped forward to serve, and that so many of them have 
chosen to continue to serve.
    In December, all active branches of the U.S. military exceeded 
their recruiting goals, with particularly strong showings by the Army 
and Marine Corps. The fiscal year 2008 request includes $4.0 billion 
for recruiting and retention to ensure that the military continues to 
attract and retain the people we need to grow the ground forces and 
defend the interests of the United States.
    We will continue to support the All-Volunteer Force and their 
families through a variety of programs and initiatives. The budget 
includes:

        <bullet> $38.7 billion for health care for both Active-Duty and 
        retired servicemembers;
        <bullet> $15 billion for Basic Allowance for Housing to ensure 
        that, on average, troops are not forced to incur out-of-pocket 
        costs to pay for housing;
        <bullet> $2.9 billion to improve barracks and family housing 
        and privatize an additional 2,870 new family units; and
        <bullet> $2.1 billion for a 3-percent pay increase for military 
        members.

    In addition, recently announced changes in the way the military 
uses and employs the Reserves and National Guard should allow for a 
less frequent and more predictable mobilization schedule for our 
citizen soldiers.
    Combined with other initiatives to better organize, manage, and 
take care of the force, these recent changes should mean that in the 
future our troops should be deployed or mobilized less often, for 
shorter periods of time, and with more predictability and a better 
quality of life for themselves and their families.
                      train and equip authorities
    Operations in Iraq, Afghanistan, and elsewhere have shown the 
critical importance of building the capacity and capability of partners 
and allies to better secure and govern their own countries.
    In recent years we have struggled to overcome the patchwork of 
authorities and regulations that were put in place during a very 
different era--the Cold War--to confront a notably different set of 
threats and challenges.
    The administration has, with congressional support, taken some 
innovative steps to overcome these impediments. A significant 
breakthrough was the section 1206 authority that allows the DOD and 
State Department to more rapidly and effectively train and equip 
partner military forces. In the fiscal year 2008 base budget, we are 
seeking dedicated funding of $500 million to use this authority. I 
would ask for a serious, collaborative effort with Congress to develop 
the right interagency funding mechanisms and authorities to meet 
critical national security needs.
                     global war on terror requests
    The President's two war-related requests are the fiscal year 2007 
Emergency Supplemental request for $93.4 billion, and the fiscal year 
2008 global war on terror request for $141.7 billion.
    The fiscal year 2007 Supplemental Request is in addition to the $70 
billion that has already been appropriated for war-related costs in 
this fiscal year. If these additional funds are delayed, the military 
will be forced to engage in costly and counterproductive reprogramming 
actions starting this spring to make up the shortfall. Timely enaction 
of the fiscal year 2007 supplemental is critical to ensuring our troops 
in the field have the resources they need.
    The additional U.S. ground and naval forces being sent to the Iraq 
theater are projected to cost $5.6 billion. This total includes funding 
for personnel costs, supplies, spare parts, contractor support, and 
transportation.
    The fiscal year 2008 global war on terror request complies with 
Congress's direction to include the costs of ongoing operations in Iraq 
and Afghanistan in the annual DOD budget. Given the uncertainty of 
projecting the cost of operations so far in the future, the funds 
sought for the fiscal year 2008 global war on terror request are 
generally based on a straight-line projection of current costs for Iraq 
and Afghanistan.
    The war-related requests include $39.3 billion in the fiscal year 
2007 supplemental and $70.6 billion in the fiscal year 2008 global war 
on terror request to provide the incremental pay, supplies, 
transportation, maintenance, and logistical support to conduct military 
operations.
Reconstitution
    The fiscal year 2007 supplemental requests $13.9 billion--and the 
fiscal year 2008 global war on terror request $37.6 billion--to 
reconstitute our Nation's Armed Forces--in particular, to refit the 
ground forces, the Army and Marine Corps, who have borne the brunt of 
combat in both human and material terms. These funds will go to repair 
or replace equipment that has been destroyed, damaged, or stressed in 
the current conflict.
    All Army units deployed, or about to deploy, for missions overseas 
are fully trained and equipped, often with additional gear for their 
particular mission. In an expeditionary, rotational force one can 
expect that units returning from their deployment will decline to a 
lower readiness level as personnel turn over and equipment is repaired 
or replaced. The $13.6 billion in reset funds in the fiscal year 2008 
global war on terror request for the U.S. Army will go a long way 
towards raising the readiness levels across the force.
Force Protection
    The war-related requests include $10.4 billion in the fiscal year 
2007 Supplemental, and $15.2 billion in the fiscal year 2008 global war 
on terror request for investments in new technologies to better protect 
our troops from an agile and adaptive enemy. Programs being funded 
would include a new generation of body armor, vehicles that can better 
withstand the blasts from improved explosive devises (IEDs), and 
electronic devices that interrupt the enemy's ability to attack U.S. 
forces. Within this force protection category, the fiscal year 2007 
supplemental includes $2.4 billion and the fiscal year 2008 global war 
on terror includes $4.0 billion to counter and defeat the threat posed 
by IEDs.
Afghan/Iraqi Security Forces
    The fiscal year 2007 supplemental requests $9.7 billion, and the 
fiscal year 2008 global war on terror requests $4.7 billion, to stand 
up capable military and police forces in Afghanistan and Iraq.
    The bulk of these funds are going to train and equip Afghan 
National Security Forces (ANSF) to assume the lead in operations 
throughout Afghanistan. As of last month, some 88,000 have been trained 
and equipped, an increase of 31,000 from the previous year.
    The $5.9 billion for the ANSF in the fiscal year 2007 Supplemental 
is a substantial increase over previous years' appropriations. It 
reflects the urgent priority of countering increased activity by the 
Taliban, al Qaeda, and narcotics traffickers to destabilize and 
undermine the new democracy in Afghanistan. These funds will 
significantly upgrade the capability of Afghan forces to conduct 
independent counterinsurgency operations.
    In Iraq, more than 300,000 soldiers and police have been trained 
and equipped, and are in charge of more than 60 percent of Iraqi 
territory and more than 65 percent of that country's population. They 
have assumed full security responsibility for 3 out of Iraq's 18 
provinces and are scheduled to take over more territory over the course 
of the year. These Iraqi troops, though far from perfect, have shown 
that they can perform with distinction when properly led and supported. 
Iraqi forces will be in the lead during operations to secure Baghdad's 
violent neighborhoods. By significantly increasing and improving the 
embedding program, Iraqi forces will operate with more and better 
coalition support than they had in the past.
Non-Military Assistance
    Success in the kinds of conflicts our military finds itself in 
today--in Iraq, or elsewhere--cannot be achieved by military means 
alone. The President's strategy for Iraq hinges on key programs and 
additional resources to improve local governance, delivery of public 
services, and quality of life--to get angry young men off the street 
and into jobs where they will be less susceptible to the appeals of 
insurgents or militia groups.
    Commanders Emergency Response Program (CERP) funds are a relatively 
small piece of the war-related budgets--$456 million in the fiscal year 
2007 supplemental, and $977 million in the fiscal year 2008 global war 
on terror request. But because they can be dispensed quickly and 
applied directly to local needs, they have had a tremendous impact--far 
beyond the dollar value--on the ability of our troops to succeed in 
Iraq and Afghanistan. By building trust and confidence in coalition 
forces, these CERP projects increase the flow of intelligence to 
commanders in the field and help turn local Iraqis and Afghans against 
insurgents and terrorists.
                               conclusion
    With the assistance and the counsel of Congress, I believe we have 
the opportunity to do right by our troops and the sacrifices that they 
and their families have made these past few years. That means we must 
make the difficult choices and commit the necessary resources to not 
only prevail in the current conflicts in which they are engaged, but to 
be prepared to take on the threats that they, their children, and our 
Nation may face in the future.

    Chairman Levin. General Pace?

 STATEMENT OF GEN. PETER PACE, USMC, CHAIRMAN, JOINT CHIEFS OF 
                             STAFF

    General Pace. Mr. Chairman and members of the committee, 
thank you very much, sir, for this opportunity to be with you 
today.
    If I may ask, Mr. Chairman, that my written statement be 
made part of the record.
    Chairman Levin. It will be.
    General Pace. I would like to, on behalf of all of us in 
uniform, thank this committee and the Members of Congress for 
your strong bipartisan support, and especially for the trips 
that you make to the region and to the hospitals. Your visits 
make a difference.
    I'd like to thank our troops and their families. They are 
just magnificent, both when they serve overseas and with their 
families here at home. We owe them a great debt of gratitude, 
and I am proud to represent them in front of you this morning.
    I'd also like to thank the employers of our National Guard 
and Reserve. We could not be doing what we're doing without the 
National Guard and Reserve. These military members are key 
parts of our team, and we recognize that they are also key 
parts of business teams from where they come, and we appreciate 
the employers' patience and support as they perform their 
duties for the Nation.
    As you look out across the globe for the next 12 months or 
so, it's hard to see where the demand is going to diminish. 
Without predicting, you can take a lap around the globe, start 
with Pakistan, Afghanistan, Iran, Iraq, Syria, Lebanon, Yemen, 
Somalia, Sudan, Colombia, Venezuela, Philippines, Indonesia, 
Malaysia, North Korea, and back around to Pakistan. I'm sure I 
missed a few, but there are multiple challenges out there for 
our Armed Forces, which, to me, solidifies the need for more 
troops, as has already been mentioned, and the opportunity, in 
the mid-grade levels and mid-grade enlisted--to be able to 
expand those groups, because they're the ones we depend on 
heavily to help train and equip our partners. We need to look 
at how we have authorized our military and our Department of 
State (DOS) to work with our partners and find those 
impediments to effective and efficient assistance, and work 
with Congress to overcome them.
    We should also look at the expeditionary capabilities of 
other parts of our Government, other than the U.S. military, to 
see what the impediments are there that we might be able to 
employ more efficiently all the powers of national government 
and not just your military.
    Lastly, we should take a good hard look at our interagency 
effectiveness, take a look at, for example, the empowerment 
that the Goldwater-Nichols Act gave us in jointness in the 
military, and see which, if any, of those kinds of ideas would 
help us be more effective and efficient in the way we operate 
in interagency here in and across the planet.
    With that, Mr. Chairman, I thank you, again, for this 
opportunity, and I'll look forward to your questions.
    [The prepared statement of General Pace follows:]
              Prepared Statement by Gen. Peter Pace, USMC
    Chairman Levin, Senator McCain, and distinguished members of the 
committee, it is my privilege to report to you on the posture of the 
U.S. Armed Forces. On behalf of 2.4 million Active-Duty, Guard, and 
Reserve soldiers, sailors, airmen, marines, and our families, thank you 
for your continued support. Your visits to troops in Iraq, Afghanistan, 
and beyond; comfort to the wounded; and funding for transformation, 
recapitalization, pay and benefits are deeply appreciated.
    America's military is the world's finest, due in large measure to 
the patriotic sacrifices of our Nation's servicemembers. I want to 
thank them and their families for all they have done, and continue to 
do, to maintain our freedom. For the first time, America's All-
Volunteer Force is fighting a long term war with a significant 
commitment of combat forces. Our troops are serving with extraordinary 
dedication and distinction. They are an inspiration to us all and I am 
honored to represent them here today.
    Winning the war on terrorism is and will remain our number one 
priority. At the same time, we will continue to transform our Armed 
Forces, strengthen joint warfighting capabilities, and improve the 
quality-of-life of our servicemembers and their families.
                         strategic environment
    My biennial National Military Strategy Risk Assessment was recently 
submitted to Congress. That classified document and the Secretary of 
Defense's plan for mitigating risk depict the challenges we face around 
the globe and discuss how we will overcome them. Sustained deployments, 
equipment utilization, and operational tempo each impart risk from a 
military perspective. The current heavy demand for ground, sea, and air 
capabilities is not likely to dissipate in the immediate future.
    As stated in my assessment, our Armed Forces stand ready to protect 
the homeland, prevent conflict, and prevail over adversaries. These 
missions present simultaneous and interrelated challenges of varying 
intensity, immediacy, and danger.
    America's Armed Forces are in our sixth year of sustained combat 
operations. We are fighting sectarian violence, insurgency, and 
terrorism in Iraq and Afghanistan. Al Qaeda and its allies threaten the 
safety of our homeland and our overseas partners--threats made more 
alarming by the proliferation of weapons of mass destruction. We face 
other threats and challenges as well:

        <bullet> Iran sponsors operations in Lebanon and Iraq that are 
        destabilizing those governments. In addition, Iran's drive to 
        enrich uranium highlights its desire to assert greater 
        influence in a region of vital interest to our Nation.
        <bullet> North Korea's pursuit of nuclear weapons and 
        associated missile technologies poses another strategic 
        challenge. The launch of multiple ballistic missiles on the 
        Fourth of July 2006 coupled with the apparent successful 
        detonation of a nuclear device in October 2006 undermines 
        counterproliferation efforts, threatens many, and could provoke 
        a regional arms race.
        <bullet> China's military build-up continues unabated, to 
        include offensive strike missiles, expanded sea and air control 
        capabilities, antisatellite systems, cyberattack technologies, 
        and an increasingly capable Navy and Air Force.
        <bullet> Pakistan requires continued international support to 
        maintain stability. Given its possession of nuclear weapons and 
        pivotal location, a stable government in Pakistan is critical 
        to guard against transnational terrorism and ease tensions with 
        neighboring India.
        <bullet> The Abu Sayaf Group in the southern Philippines and al 
        Qaeda's partner Jemaah Islamiyah in Indonesia threaten 
        international maritime security in strategic waterways.
        <bullet> Narcoterrorists in Latin America destabilize 
        societies, harm nations, and hold American citizens hostage.
        <bullet> The governments of Venezuela and Cuba are openly anti-
        U.S. Together, they actively seek to create alignments to 
        oppose us throughout the region.
        <bullet> Succession questions in Cuba may lead to mass 
        migration.
        <bullet> Political and humanitarian challenges in Africa are 
        myriad, including the specter of growing instability, genocide, 
        civil war, and safe havens for terrorists.

    Given the breadth of these challenges, their complexity, and their 
potential long duration, we must increase our overall capacity in order 
to reduce strategic risk. The proposed fiscal year 2008 budget, the 
fiscal year 2007 supplemental, and the fiscal year 2008 global war on 
terrorism request match resources to these tasks. These budget requests 
represent a significant investment, but that investment is 
approximately 3.9 percent of our gross national product--relatively 
modest in historic terms.
                        win the war on terrorism
    We must prevail in the global war on terrorism. Sustaining 
operations in Iraq and Afghanistan, while maintaining readiness to 
respond to new contingencies around the globe, is a heavy burden for 
our current force structure. Nearly a million American men and women in 
uniform have deployed to Iraq and Afghanistan, and more than 400,000 
have been deployed more than once. Presently, more than 200,000 troops 
are deployed to the Central Command area of responsibility; another 
210,000 are elsewhere overseas. Most of our Army Brigade Combat Teams 
and their Marine Corps regiment equivalents receive only 1 year at 
their home station before deploying again--and that year is spent 
actively preparing to redeploy overseas to fight. We will have 20 
Brigade/Regimental Combat Teams deployed to Iraq, with another 3 in 
Afghanistan, 1 in Korea, and 1 in Kosovo. This drives our units to 
operate at about a 1:1 ``deployed:at-home'' ratio--which is about half 
the time we believe is necessary to sustain readiness for the long-
term.
    To accomplish our missions in Iraq and Afghanistan and remain 
prepared for other challenges, the President and Secretary of Defense 
have announced a number of personnel initiatives. These include the 
increase of force structure for the Army and Marine Corps, and policy 
changes to the way we mobilize our Reserve Component. The Army and 
Marine Corps are both focused on using this added troop strength to 
grow their operational forces. We are committed to building an active 
Army of 48 Brigade Combat Teams. That is an increase from a previous 
goal of 42. For the Marine Corps, we are adding one Regimental Combat 
Team. The Army is also civilianizing military positions, cutting its 
non-operational force structure, and reallocating those manpower 
savings to combat units. The Marine Corps is also implementing policy 
to ensure all marines have the opportunity to serve in a combat zone.
    Approximately 38,000 individual augmentees have deployed to 
headquarters such as Multi-National Force-Iraq, the International 
Security Assistance Force in Afghanistan, and U.S. Central Command. 
Nearly 13,000 others have helped train Afghan and Iraqi forces. Most of 
these positions are filled by mid-grade leaders normally serving in 
operational units. Increased manning in these mid-grade ranks, to 
include the Army's request for an additional 2,852 field grade 
officers, will fill requirements without undermining combat units.
    Our weapons, equipment, and supplies have been reduced by combat 
loss and consumption in Iraq and Afghanistan during the past 5\1/2\ 
years. We have also used significant resources in disaster relief 
operations responding to the Asian Tsunami, Hurricane Katrina, and 
Pakistan's earthquake. The fiscal year 2007 supplemental and fiscal 
year 2008 global war on terrorism request include a total of $51.5 
billion to reconstitute our Joint Forces. While it will take some time 
for newly authorized troops to become available for deployment and for 
reconstitution of equipment to take effect, our men and women in 
uniform are grateful for the much needed additional manpower and 
resources that are on the way.
    The challenges we face are not ours alone; they threaten many 
others. Working with partners improves our ability to defeat terrorist 
networks and increases regional stability and security. Our regional 
security cooperation efforts in Latin America, particularly in Colombia 
where great progress is occurring, help local militaries protect 
democratic governments and build partnership capacity to counter 
terrorist, narcotic, and other illicit activity. In the Far East, our 
support for Southeast Asia maritime security in the Strait of Malacca 
and the Sulu and Sulawesi Seas helps fight terrorist and criminal 
activity. Combined Joint Task Force-Horn of Africa and the Trans-Sahara 
Counterterrorism Initiative deter terrorist activity, provide 
humanitarian assistance, and improve the ability of African countries 
to foster security within their own borders. We are establishing a new 
unified command for Africa to better integrate U.S. interagency efforts 
and partner with other nations and international organizations.
    Boosting the capability of other countries' forces and providing 
direct action support to commanders in the field requires that we 
expand our irregular warfare capabilities. Irregular warfare includes 
long duration unconventional warfare, counterterrorism, 
counterinsurgency, clandestine operations, and military support for 
stabilization and reconstruction. Our Special Operations units perform 
these missions in Iraq and Afghanistan, and deploy to approximately 40 
other countries around the world. To answer these demands, we are 
expanding the size of our Special Operations Forces and we have 
established the Marine Special Operations Command. We are also moving 
forward with the Global Special Operations Force Posture plan that will 
maximize the number of Special Operations Units forward deployed.
    In addition to physical battlefields, the global war on terrorism 
has a significant information component. Our enemies use propaganda to 
deliver their message and justify their actions. We counter the enemy's 
efforts most effectively when our actions and words reinforce America's 
strategic goals and national ideals. We deny our foes success in 
mobilizing sympathizers when local and global audiences understand the 
enemy's true intent. The Joint Staff, the combatant commands, and the 
Office of the Secretary of Defense are working together to ensure 
greater consistency and timeliness in our strategic communication 
efforts.
    At its most basic level, winning the war on terrorism means 
defending our homeland. To better protect the United States from direct 
attack, our Armed Forces are working closely with civilian leadership 
in Federal, State, and local governments to provide an effective 
response in time of crisis. The Navy and Coast Guard are strengthening 
maritime domain awareness. The Air Force maintains surveillance and 
interceptor alerts to provide air sovereignty protection. The Army is 
investing in expanded biological weapons detection equipment and 
vaccines. We are continuing to increase the capability of our Chemical, 
Biological, Radiological, Nuclear, and High Yield Explosive Consequence 
Management Response Forces and seeking more resources to better respond 
to multiple events in different locations. Contingency plans are 
continually refined so that the Armed Forces are prepared to assist 
civil authorities in the event of another terrorist attack. We are 
creating additional weapons of mass destruction response teams. 
Moreover, we are working with coalition partners, through intelligence 
sharing, coordinated planning, and agreements such as the Proliferation 
Security Initiative to prevent the spread of weapons of mass 
destruction.
    Additionally, your Armed Forces are prepared to assist in 
responding to natural disasters. In such events, we would provide 
support in the form of manpower, logistics, transportation, 
communications, and planning, just as we did following the devastation 
of Hurricane Katrina. Likewise, military planners are focused on the 
dangers of a possible global Pandemic Influenza, to ensure our 
readiness to execute military missions and support civil authorities.
                       accelerate transformation
    The evolving diverse threats to our Nation make it imperative that 
we adapt and innovate. Transformation is a continual effort to 
significantly increase our ability to deter and defeat America's foes. 
It is an ongoing process of rethinking our doctrine and operational 
concepts; fashioning professional education and training to meet new 
challenges; restructuring our organizations and business practices to 
be more agile; improving our personnel policies; adapting our planning 
systems to be more responsive; reforming our acquisition and budget 
processes; and harnessing advanced technology. It is not an end state. 
It is a mindset and a culture that encourages innovation and fresh 
thinking.
    We need a dramatic leap forward in our relationship with 
interagency and international partners. Today's many challenges--
conventional, insurgency, terrorism, and the proliferation of weapons 
of mass destruction--require that our Armed Forces work closely with 
our civilian government counterparts and multinational partners. Much 
like Goldwater-Nichols accomplished for our Armed Forces two decades 
ago, we should assess what new or revised authorities are needed to 
enhance interagency coordination, and build a more joint and integrated 
process. To increase our Government's overall effectiveness in the war 
on terrorism, we must improve three areas.
    First, we must improve our ability to build partnership capacity. 
Our struggle against violent extremists requires that we fight people 
who hide in countries with whom we are not at war. In many cases, the 
best way to do this is by augmenting the capacity of those countries to 
defeat terrorism and increase stability--helping them overcome problems 
within their borders and eliminate terrorist safe havens. Legislation 
proposed by the Department of Defense and Department of State, the 
Building Global Partnerships Act, extends and expands past enacted 
1206, 1207, and 1208 authorities for educating, training, and equipping 
foreign forces for counterterrorism and stability operations. In 
addition, an interagency National Security Initiative Fund, to better 
invest in countering terrorism with other countries is required. In a 
time when national security priorities require integrated action by 
multiple government agencies, resource sharing and coordination among 
departments is essential. Authorization for a National Security 
Initiative Fund, under congressional oversight and managed jointly by 
the Departments of State and Defense, will provide us with needed 
flexibility. Such a fund will be instrumental in harnessing resources 
across agencies to address changed circumstances and policies, and will 
complement congressionally granted transfer authority and emergency 
supplemental appropriations.
    Second, we need greater expeditionary capabilities in U.S. 
Government civilian agencies for stabilization and reconstruction 
operations. Our civilian agencies are underresourced to meet the 
requirements of the 21 century. Greater investment in these agencies is 
required if they are to be more effective in the global war on 
terrorism. To increase their expeditionary capability, the President 
has proposed the creation of a Civilian Reserve Corps for the State 
Department. We strongly support this initiative to boost our Nation's 
capability to deploy civilian expertise in tandem with our military.
    Third, we must enhance interagency effectiveness. Just as the 
Goldwater-Nichols Act established a system of incentives and 
requirements to foster jointness among military officers, we need to 
find ways inside of our Government to encourage interagency expertise. 
Rewarding interagency education, interagency experiences, interagency 
collaboration, and interagency planning will facilitate better synergy 
between departments. We can go beyond the education we provide our 
military and civil servant professionals by transforming our National 
Defense University into a National Security University. We can build on 
the success of interagency centers such as the National 
Counterterrorism Center and Joint Interagency Coordination Groups at 
the combatant commands--which increase our operational effectiveness 
while providing personnel with interagency experience. We can increase 
planning capacity in civilian agencies. We can improve our planning, 
coordination, and operational execution through interagency exercises. 
Shared deliberate and crisis planning capacity among our interagency 
partners will improve our Nation's readiness for operations, and better 
integrate our Nation's diplomatic, military, intelligence, information, 
and economic instruments to forestall and address crises.
Strengthen Joint Warfighting
    To win the war and continue the process of transformation, we are 
strengthening our joint warfighting capabilities. By employing our 
Service branches in a joint manner, we leverage their complementary 
capabilities. We can and should, however, go beyond our current level 
of jointness by moving from an interoperable force to an interdependent 
force. We have already had some successes. For instance, naval aviation 
is now responsible for all airborne electronic warfare. Air Force 
Unmanned Aircraft Systems provide key intelligence for all Services. 
Moreover, Navy and Air Force security, communications, and logistics 
elements fill joint requirements in Iraq and Afghanistan.
    Combatant commanders have identified shortfalls in our persistent 
intelligence, surveillance, and reconnaissance capabilities, such as 
shortages of platforms, sensors, and processing infrastructure. To 
better support our intelligence, surveillance, and reconnaissance 
needs, we are budgeting for more capacity. We are also refining 
integration between our unmanned assets, human intelligence operations, 
and our analysis capabilities--improving all.
    Warfighter demands for satellite platforms and related terminal 
programs continue to grow as we field more bandwidth-intensive systems, 
deploy to austere locations, and connect more tactical users to our 
Global Information Grid. To meet our requirements for beyond-line-of-
sight and reachback communications, we must maintain military satellite 
communications launch schedules, leverage commercial capabilities, 
pursue efficiencies, and continue research and development initiatives.
    America and our friends around the globe are increasingly dependent 
on networked communications systems to store, modify, and exchange 
data. Interruption of our access to cyberspace could significantly 
damage national defense and civil society. The Armed Forces' new cyber 
strategy sets a course that calls for the development of new 
organizations, intellectual capital, and greater interagency 
coordination. To ensure unity of effort, U.S. Strategic Command's Joint 
Task Force--Global Network Operations is working with the combatant 
commands, the Services, and the interagency to strengthen and integrate 
defensive and offensive cyber capabilities. We are reviewing the 
authorities and responsibilities required for dealing with cyberspace 
threats, particularly as they apply to our relationship with other U.S. 
Government agencies. Changes in authority and policy must ensure that 
the entire U.S. Government is able to meet current and emerging 
threats.
    We must also enhance our capability to engage targets globally and 
rapidly to strengthen strategic deterrence and response. We are 
developing conventional long-range strike capability, improving missile 
defense, and modernizing our national command and control. These 
efforts will ensure our strategic deterrence capabilities remain 
relevant.
   improve the quality of life of our servicemembers and our families
    Our men and women in uniform are our most precious resource. We 
must continue to ensure their welfare and that of their families. The 
most advanced ship, aircraft, or weapon system is useless without 
motivated and well-trained people. Every day, our soldiers, sailors, 
airmen, and marines serve our Nation with distinction. We do well to 
honor their service by providing for them and their loved ones.
    As of the submission of this statement, the fiscal year 2007 
military construction, quality of life, and veteran's affairs 
appropriation is being considered for funding by a House Joint 
Resolution. Congressional approval of the proposed resolution without 
amendment will cause a $3.1 billion shortfall in the Base Realignment 
and Closure (BRAC) appropriation. This shortfall will jeopardize our 
ability to complete BRAC actions within statutory deadlines and create 
negative effects on the movement of our troops and their families in 
support of our global defense posture restructuring.
    Predictability of deployments for all servicemembers is a key 
factor to quality of life. Sustainable force rotation policies are 
needed to spread the burden across the Active and Reserve components. 
Greater mobilization predictability for Reserve component members, and 
their families and employers is required. To accomplish this, the 
Secretary of Defense has established a new Total Force Policy. The 
mobilization of Reserve component forces will be managed on a unit, 
instead of an individual, basis--and with a goal of one year maximum 
mobilization, followed by 5 years at home. This predictability will 
improve the quality of life in our National Guard and Reserve while 
fostering greater unit cohesion. Stop Loss for both Active-Duty and 
Reserve Forces will be minimized.
    To our families, protecting our troops in combat is the most 
important measure of quality of life. All DOD personnel in Iraq and 
Afghanistan have state-of-the-art body armor. As technology improves we 
are procuring the next generation of body armor. Likewise, thanks to 
your continued support, currently all of our tactical vehicles that 
operate off forward operating bases in Central Command's area of 
responsibility have armor protection. We are purchasing vehicles 
explicitly designed from the wheels up to limit Improvised Explosive 
Device damage. To further counter Improvised Explosive Devices, we 
established the Joint Improvised Explosive Device Defeat Organization. 
Teaming with private industry, we continue to make progress in this 
vital endeavor.
    Providing for our troops and their families also means caring for 
our wounded. Our military medical system saves lives everyday--and 
helps them heal here at home. The efforts of our medical professionals 
and recent advances in medicine, technology, and rehabilitation 
techniques make a huge difference. Injury survivability rates are at a 
historic high--nearly 9 in 10 of all wounded troops survive, many of 
whom would have died in past conflicts. We are also working to address 
the effects of Post Traumatic Stress Disorder. Many injuries have a 
profound impact on troops and their families, and our health care 
system is dedicated to doing everything possible to bring them back to 
duty, if they wish--or, through our Military Severely Injured Center 
and the Services' wounded warrior programs, help our wounded return to 
society empowered to make a positive difference.
                               conclusion
    I testify before you today with tremendous pride in the performance 
of your Armed Forces. Some are in combat. Others stand guard. All are 
at war helping deter attacks on our Nation and allies.
    Like World War II did for the Greatest Generation, this war will 
define this generation, and our troops are doing an extraordinary job. 
They serve this Nation superbly, willingly, and unflinchingly--
volunteers all. The sacrifices they and their families bear for our 
entire Nation warrant our deepest gratitude. Like so many who have gone 
before them, their heroism is awe inspiring. It is an honor to serve 
alongside them.
    Thank you for your support.

    Chairman Levin. Thank you, General.
    Ms. Jonas?
    Ms. Jonas. I have nothing for the record, sir, and I'll be 
glad to answer questions.
    Chairman Levin. Thank you.
    Let's have a 8-minute round for our first round.
    General, the Chief of Staff of the Army, General 
Schoomaker, has expressed some real concern about our readiness 
situation, particularly the readiness of our nondeployed ground 
forces. Are you concerned?
    Secretary Gates. Sir, I am concerned. We have had this 
discussion with the Chiefs multiple times. I'm satisfied that 
the amount of money in the budget, about $51 billion, give or 
take a little bit over the Future Years Defense Program (FYDP), 
addresses the need for reconstitution of the force. We also are 
taking a look at the training time available, and that's why 
the increased size of the force would really help. Mr. 
Chairman, right now our Army units are about 1 year out and 1 
year back, and then 1 year out again. In that 1 year that 
they're back, they get a little bit of leave, some family time, 
and then they retrain to go back to either Afghanistan or Iraq. 
Therefore, they do not have the opportunity that they would 
normally have on our 2-year cycle to train for the combined 
arms that they may be required to execute elsewhere in the 
world. So, there's a collection of things out there that can be 
mitigated by the budget that's before us.
    Chairman Levin. There recently was an article in the 
Washington Post that indicated that plans to surge additional 
U.S. forces into Iraq are placing an unacceptable strain on the 
Army's capability to provide deploying units with required 
equipment. The DOD Inspector General (IG) released a report on 
January 25 indicating that troops in the theater are already 
experiencing shortages of force-protection equipment, 
electronic countermeasure devices, crew-served weapons, and 
communications equipment.
    There's also some anecdotal evidence of problems. The San 
Francisco Chronicle reported on Sunday that the 1st Brigade of 
the 3rd Infantry Division had so little time between 
deployments to Iraq that they had to cram more than a year's 
worth of training into 4 months.
    Can you give us assurance that troops arriving in the 
theater are going to be fully equipped and trained before they 
enter combat in Iraq?
    General Pace. Sir, the short answer to your question is, 
yes, sir. I had a discussion, as recently as yesterday, with 
General Conway, the Commandant of the Marine Corps, and General 
Schoomaker and General Cody, the Chief of Staff and the Vice 
Chief of the Army, and they are looking at the deployment plan 
to get the additional troops to Iraq. The timeline that our 
troops are on will allow us to fully man, train, and equip the 
units before they deploy to Iraq. There's one area that is not 
going to be 100-percent equipment, and that has to deal with 
the uparmored Humvees and some of the armored trucks. We have 
about 41,000-plus armored vehicles in theater. There's a small 
delta that that number will not be able to cover all of the 
troops that are deploying. But the mandate from General Casey 
is, and will remain, that no one will leave operating bases 
unless they are in properly uparmored Humvees. So, we do have a 
delta there. That will be closed by July of this year. But 
that's the only place, sir, where the troops will not have the 
equipment before they deploy.
    Chairman Levin. Why should they be deployed before they 
have that equipment?
    General Pace. Sir, they'll be able to have about 98 percent 
of the vehicles that are required. There's a small delta. The 
commanders on the ground have talked with the Chief of Staff of 
the Army and the Commandant of the Marine Corps, and have 
agreed that they will be able to share the assets on the ground 
so that no soldier or marine will leave the compound without 
proper protection.
    Chairman Levin. I thank you.
    Secretary Gates, although it's been suggested that we will 
be able to----
    [Audience interruption.]
    Ma'am, if you'd be seated, we would appreciate it.
    Although it has been suggested, Secretary Gates, that we be 
able to measure Iraqi performance on their commitments, the new 
National Intelligence Estimate (NIE) on Iraq indicates that 
bringing down the level of violence in Baghdad could take more 
than a year and a half, and that's if things go better than 
expected. How long are you planning for the increased number of 
U.S. troops to be deployed? How much funding are you requesting 
and planning to request for this increase? Very specifically, 
is it true that there are no dollars for the surge in the 
fiscal year 2008 request?
    Secretary Gates. The answer to your last question is yes, 
Mr. Chairman, there is no money in there for the surge.
    Chairman Levin. Starting October 1.
    Secretary Gates. Yes, sir. As I testified earlier, I think 
those of us involved in the decisionmaking process anticipated 
that this reinforcement would take months, not 18 months to 2 
years. As we've indicated, the fiscal year 2008 global war on 
terror request is basically a straight-line projection of our 
costs in fiscal year 2007, based on 140,000 troops in Iraq and 
20,000 troops in Afghanistan.
    Chairman Levin. But is the bottom line, because of the time 
limitation that you are assuming in your budget, that the surge 
will not last longer than September 30?
    Secretary Gates. Well, we are----
    Chairman Levin. In terms of budgeting.
    Secretary Gates. We are basically--in the budget, there is 
no assumption to that effect, but we have allowed as----
    Chairman Levin. There is no assumption to what effect?
    Secretary Gates. That the reinforcement lasts beyond the 
end of this year.
    Chairman Levin. The fiscal year.
    Secretary Gates. This fiscal year. But we have allowed as 
how the fiscal year 2008 global war on terror request is a 
straight-line projection that probably will need to be 
adjusted, one way or the other, depending on events on the 
ground.
    Chairman Levin. All right, thank you. General Casey, at his 
confirmation hearing, said that two of the three Iraqi brigade 
headquarters and four of the seven battalions which the Iraqis 
have promised have arrived in Baghdad. He said that they're in 
the range of only 55- to 65-percent strength. Is that 
acceptable?
    Secretary Gates. When I was asked this at a press 
conference last Friday, I said no, that 55 percent wasn't good 
enough.
    Chairman Levin. Now, we do have off-ramps, I understand, in 
the brigades as they arrive, so that each month we'll make a 
decision--in the next few months--as to whether the next 
month's arrival should continue. Is that accurate?
    Secretary Gates. All of the brigades that are part of the 
reinforcement have orders to deploy. As I indicated in an 
earlier testimony, there will be the opportunity to evaluate 
the situation on the ground, and the commander on the ground 
will evaluate the situation, in terms of whether all those 
forces ultimately are needed or deploy.
    Chairman Levin. Now, is one of the reasons they might not 
be utilized, although the current order exists, is because the 
Iraqis have not come through with their committed forces? Could 
that be a reason not to proceed with those--actual utilization 
of the forces? Could that be?
    Secretary Gates. Yes, sir. I've testified several times 
that I believe that the performance of the Iraqis is absolutely 
critical to the success of this operation.
    Chairman Levin. Now, is that going to be left to General 
Petraeus, that decision, or is that going to be ultimately 
yours and the President's?
    Secretary Gates. That decision, sir, I think, would 
ultimately be the President's. It would clearly be informed by 
the recommendations of the commander in the field, the Chiefs, 
and myself.
    Chairman Levin. I want to be really clear here that you are 
leaving open the possibility that troops, even though there is 
an order to deploy them, may not be, in fact, utilized, and 
that decision will be made month to month, and could be based 
on whether or not the Iraqis come through with their committed 
troops. I want to be real clear on that.
    Secretary Gates. Trying to be equally clear, I would say 
that we will have a continuing evaluation going on, in terms of 
the Iraqis' performance, but the troops are, at this point, all 
under orders to deploy.
    Chairman Levin. All right. In terms of Iraqi performance, I 
want to get the word ``could'' and ``would'' and ``should'' 
straight here--I think it ``should'' be--you're not testifying 
on a ``should.'' I'm asking you on the ``could'' word. Could 
the failure, if it happens, of Iraq to provide the troops 
committed--could that be a factor as to whether or not troops--
although currently ordered to deploy, are, in fact, utilized? 
Could that be a factor?
    Secretary Gates. Yes, sir.
    Chairman Levin. Thank you.
    My time is up. Senator Warner?
    Senator Warner. Thank you, Mr. Chairman.
    We welcome our guests today. It's a very difficult task to 
try and do the budgetary calculations for the most uncertain 
future that faces our military. In my first view of it, you've 
done as well as you could under the circumstances.
    I would like to follow on to the Chairman's question about 
the readiness of the Iraqi army. Three hundred and twenty 
thousand is the overall figure, of army and police, that the 
United States have been training. It's interesting, the quote 
is, ``The Iraqi security forces are 2\1/2\ years into 3\1/2\-
year development process.'' So, it takes us from 2\1/2\ to 3\1/
2\ years to train these forces? I have never, in my 
recollection, heard those types of estimates given to this 
committee heretofore. Furthermore, the equipment that they will 
need--which of you witnesses--the general?--could respond--on 
the status of the equipment--because some months ago, when I 
was chairman of the committee, I think Senator Levin and I sent 
a series of letters urging that we expedite the equipping of 
the Iraqi forces so they could become a more viable partner in 
this conflict. What's your understanding of the status of that 
equipping?
    General Pace. Sir, the original 328,000 Iraqi army and 
police that were due to be trained and equipped by the end of 
December 2006 have, in fact, been trained and equipped. What 
has been added to that is up to 362,000 in addition, by Prime 
Minister Maliki, to be trained during 2007 and what we had 
already planned to do, which was, in 2007, train their 
logistics elements. So, I'm not--I guess if you do the math, 
it's 2\1/2\ years plus 1 year--probably 2\1/2\ years of 
training to date plus 1 year of training in 2007, but the 
328,000 that were supposed to be done has been done, and the 
new add for 2007 will be done in 2007.
    Senator Warner. So, generally speaking, can you make the 
statement that the Iraqi troops that are going to be engaged in 
the Baghdad campaign, as enunciated by the President on January 
20, are trained and equipped adequately.
    General Pace. Yes, sir, I can.
    Senator Warner. It's interesting that it takes 2\1/2\ years 
to train the Iraqi forces. If you look at the NIE that was just 
issued, ``nonetheless, the term `civil war' accurately 
describes key elements of the Iraqi conflict, including 
hardening ethnosectarian identities, a sea of change in the 
character of the violence, ethnosectarian mobilization, and 
population displacements.'' Really, there's so many definitions 
of the different types of individuals striking at the coalition 
forces, and principally the United States, they haven't had 
2\1/2\ years of training, yet they're fighting, I would say, 
somewhat effectively. So, I've just never been able to 
comprehend why we've put 2\1/2\ years into training an Iraqi 
force, when these people, almost overnight, train themselves, 
equip themselves, and are becoming formidable combatants.
    General Pace. Sir, the 2\1/2\ years is done, as of December 
2006, for the first 328,000. We had to recruit and form up into 
units, learned lessons along the way about some of the recruits 
not being loyal to the central government, but being loyal to 
sects, and having then to be brought offline and retrained. To 
properly man, train, and equip an army, sir, is different than 
training somebody to take an artillery shell and plant it on 
the side of the road and be effective.
    Sir, there have been no effective attacks of enemy units on 
any coalition forces. Where they are effective is in the 
improvised explosive devices (IEDs), and it does not take 2\1/
2\ years to train somebody how to build and deploy an IED.
    Senator Warner. Right, and the snipers have been very 
effective.
    General Pace. Some of their snipers have been very 
effective, sir, and they've received weapons from outside the 
country that have helped in that effectiveness, that's true.
    Senator Warner. We witnessed here what was described as one 
of the largest explosions ever experienced in the history of 
this conflict, when that marketplace was hit and some 150 
killed and some several hundred seriously wounded. Give us your 
own feeling about the progression by which this polyglot of 
enemies that are coming against us--whether it's sectarian 
violence or all of these phrases I've never seen before--
ethnosectarian mobilization, so forth--what is the status of 
their weaponry? Is it not improving? Are our forces now subject 
to similar risk associated with this bombing that took 150 
lives? It seems to me that was a truck loaded with some type of 
explosives. Can you give us a degree of the increasing risk due 
to the weaponry that is now facing--or in the hands of these 
polyglot of people coming after us?
    General Pace. Sure. Let me give you some information about 
the IEDs, if I may, sir, and I'll see if that answers your 
question.
    First of all, the number of IEDs that has been emplaced has 
doubled over the course of the last year. The equipment that we 
have provided, thanks to Congress, to our troops, plus, the 
tactics, techniques, and procedures that we use against them, 
plus the jammers and the like that we provide, technology wise, 
have resulted in much fewer of those explosions and having less 
casualties against our troops. But, the increase in the number, 
despite the decrease in their effectiveness, has resulted in 
about a sustained level of casualties from IEDs.
    The basic material for an IED is ammunition. So far, we 
have cleared 430,000 tons of ammunition from over 15,000 sites 
in Iraq. The amount of ammunition available is incredible. You 
add that to the new explosively formed projectiles, which are a 
much more deadly form, that are coming into Iraq from Iran, and 
the combination has maintained the level of casualties, despite 
the fact that we have been more effective against each 
explosion.
    Senator Warner. Secretary Gates, I've supported the 
President in his conclusion that we cannot let the Iraq 
sovereign nation, which we have had so much of our sacrifice to 
achieve, be lost, and that it must be this government and any 
successive government, supported so that that country can 
continue to exercise, as best it can, the reins of sovereignty.
    Yet recently, people have described the surge operation--
and I quote are, ``the last chance,'' or ``the last best 
chance.'' To me, that type of rhetoric is inviting almost--it's 
a timetable for the Baghdad operation, ``If it doesn't succeed, 
it was our last chance.'' I have to believe that we're thinking 
beyond the Baghdad operation, and if it doesn't meet all of its 
goals, we still have to, if we're going to stick with the 
President, say that we have to come up with some formulation to 
see that we can continue to try and help this government and 
the people of Iraq maintain their sovereignty. Am I correct?
    [Audience interruption.]
    Chairman Levin. Excuse me. Excuse me, ma'am. Please sit 
down.
    Senator Warner. Is this our last chance in your judgment?
    Secretary Gates. It is not the last chance. I think 
everyone agrees that--or most people agree that it would be a 
serious consequence for this country and for the region were we 
to leave Iraq in chaos. Clearly, part of the debate, if I 
understand it correctly, that is going on, is, how best do you 
incentivize the Iraqi Government to take responsibility for the 
future of their own country, and in a way that allows us, over 
some period of time, to draw down our forces, because they have 
performed and have accepted responsibility for their country? I 
think that if this operation were not to succeed--and we 
clearly are hoping it will succeed, planning for it to succeed, 
allocating the resources for it to succeed--but I would tell 
you that I think I would be irresponsible if I weren't thinking 
about what the alternatives might be if that didn't happen. But 
we are planning for its success.
    Senator Warner. I certainly hope it is successful. I just 
have my thoughts about this operation, as we stated in the 
resolution I've drawn up, to put greater and greater emphasis 
on the Iraqis taking the lead. We've trained 300,000-plus of 
these individuals, and now is the time for them to show that 
that training can enable them to take the brunt, the major 
portion, of this Iraqi Baghdad operation, and perhaps we don't 
need to reach the level of troops that are forecast by the 
President, some 20,000 additional. Then, there's a subsidiary 
question raised by various budget authorities, If the 21,500 is 
all, are there not other supplemental troops that have to 
accompany those troops, and, therefore, the figure is bigger 
than 21,500?
    Secretary Gates. The----
    Chairman Levin. The gentleman's time has expired, and we 
also have a quorum, if we could just, before we call on Senator 
Kennedy.
    [Recess.]
    Senator Kennedy.
    Senator Warner. Mr. Chairman, the witness was about to 
answer the question I posed as to whether or not the 21,500 
needs to be increased by an additional group of soldiers, 
sailors, airmen, and marines, to provide the infrastructure.
    Secretary Gates. Each of the brigades that is included in 
the 21,500 has inherent in it combat support elements that the 
number of 21,500 might go up modestly or go down modestly, 
depending on the requirements on the ground.
    General Pace, do you want to add anything to that?
    General Pace. Yes, sir. The bulk of the combat support--
combat service support will be provided by the units that are 
already there or inherent in the units that are going. There 
may be some unmanned aerial vehicle (UAV) support needed and 
some military police support needed. But, as the Secretary 
said, it would be a modest amount, perhaps within 10 percent, 
plus or minus, of that number.
    Chairman Levin. Thank you.
    Senator Kennedy.
    Senator Kennedy. Thank you very much.
    Thank you for your service.
    Just to go back to this issue about the number of troops, 
because it seems to me we have the President's surge and then 
sort of a hidden surge. The President said, ``We'll have a 
little over 20,000 more troops.'' Then, the next day, DOD said, 
``Other combat support may be deployed.'' Then, we have the 
Congressional Budget Office (CBO) that talks about the 
additional troops indicating that it could go as high as 
48,000. It could go from 35,000 to 48,000. So, that is the 
question we're having. The American people want to know, 
honestly, what the numbers are going to be. We can have our 
differences of whether we're for surge or against the surge, 
but we ought to know what are going to be the numbers that 
we're talking about. The President mentions one figure; CBO has 
figures that go double that if they're going to be deployed; 
the DOD itself said ``other combat support may be deployed.'' 
Obviously, they understand whether they're going to be 
deployed. This is the concern that the American people have. 
Are they getting the facts? Are they getting the true numbers 
on this? What can you do to help them out so that they will 
understand what will be the total numbers?
    Secretary Gates. Yes, sir. Very fair question.
    First of all, one of the reasons for the cost difference 
between the CBO and our own cost is that they project the cost 
through the end of fiscal year 2009. Our cost projection is 
through the end of fiscal year 2007.
    Second, as we've just been discussing, we think that the 
figure--the five brigades that are being put forward as part of 
this reinforcement are comprised approximately of 21,500. Most 
of them have the combat support. Frankly, I don't know what 
CBO's assumptions were that would allow them to more than 
double that number, where you would have more than one combat 
support person for each person being deployed. But, as the 
Chairman and I were just saying, we think that the number is 
going to be around 21,500. It could be a little more, it could 
be a little less, but it would not be more than 10 percent more 
than the 21,500--10 to 15 percent.
    Senator Kennedy. I'd rather keep moving along, but they say 
over the past few years the DOD's practices has been to deploy 
about 9,500 personnel per combat brigade to arrive, including 
about 4,000 combat troops and 5,500 support troops. So, they're 
looking at the past deployment schedules. I'm less interested 
in just the figures, the costs for the purposes of this 
discussion, but the total number of troops, because I think we 
ought to understand whether it's going to be at the 20,000 that 
the President said or whether, as CBO has estimated, in the 
past, could be considerably higher. So, what should we conclude 
now, finally, would be if we could get the numbers so that we 
all understand what we're dealing it with?
    General Pace. Sir, if I may.
    Senator Kennedy. Sure.
    General Pace. If you do the pure math today, and they talk 
about 9,500, that's probably a fair number to point to based on 
the troops on the ground; however, the folks that are in that 
9,500 are--have additional capacity to handle the additional 
support needed for the troops that are coming in. So, when you 
add the 21,500 additional troops, which may or may not be that 
exact number, you're going to need no more than another 2,000, 
2,500 troops on the ground to do the additional wrench-turning, 
food delivery, and UAVs, military police, and the like. But 
within 10 to 15 percent, sir, at max.
    Senator Kennedy. All right. So, we're looking at somewhat--
approximately 25,000.
    Senator Levin went through this article in the San 
Francisco Chronicle. I hope you'll have an opportunity to look 
through it, because it's rather particular in the areas of 
training. But it talks about--``this is talking about the 1st 
Brigade, 3rd Infantry Division had only a few days to learn how 
to fire new rifles. They are deployed to Iraq for the third 
time. They had no access to the heavily armored vehicles 
they'll be using in Iraq, so they're trained in a handful of 
old military trucks instead. Some soldiers were assigned to the 
brigade so late, they had no time to train in the United States 
at all. Instead of the year-long training recommended prior to 
deployment, they prepared for war during the 2 weeks they spend 
in Kuwait en route to Anbar, Iraq's deadliest province.''
    Then, towards the end, it talks about the--``it also leaves 
the troops in the United States to train on equipment that is 
often completely different from the gear they'll use in Iraq. 
The 2-7 battalion had to train on obsolete models of Humvees 
that are no longer used in Iraq,'' said Chrissman, the 
battalion commander. ``We trained with a smaller set of 
equipment. I'll admit, that presented some challenges,'' 
Chrissman told the Chronicle before his unit for Iraq. ``The 2-
7 had no time to train at Fort Irwin, California's Mojave 
Desert, where Arabic-speaking roleplayers and trainers simulate 
conditions and battle Iraqi insurgents. Instead, they conducted 
a 3-week exercise in a forest of towering pines and oaks hung 
with Spanish moss outside the division base at Fort Stewart, 
Georgia. Such deficiencies decrease the level of troop 
readiness.''
    So, perhaps you can--if you'd give us at least your chance 
to--review that article, General Pace, and give us a response?
    General Pace. Certainly, sir.
    [The information referred to follows:]

    The unit was placed on a condensed timeline in order to meet surge 
requirements. The training pace was accelerated but soldiers were not 
deployed unless they were ready. The commander makes the determination 
as to whether his/her unit is ready to deploy. The Chief of Staff of 
the Army will not allow troops to deploy unless they are properly 
trained, manned, and equipped. As far as training locations that were 
addressed in the article, it was a conscious decision not to send the 
brigade to the National Training Center (NTC) at Fort Irwin, 
California. The command determined training at home station would allow 
more time to train/focus on specific mission essential tasks versus 
using valuable time deploying the unit to and from the NTC. Everything 
was done to set the conditions during home station training to prepare 
for deployment to Iraq.
    The unit did not have the uparmored M1114 high mobility 
multipurpose wheeled vehicles (HMMWVs) to train-on at home station; 
instead, they used a different version of the HMMWV (or Humvee). The 
unit will fall-in on the uparmored version of the Humvee once they 
arrive in theater. The uparmored vehicles are left in theater because 
of the real world mission need, so the access to these vehicles is very 
limited for units to train on at their home station. Training 
accomplished at home station fully enabled personnel to rapidly adjust 
to the uparmored Humvee in theater before operational employment.

    General Pace. If I may, sir, just because those families 
need to know.
    Senator Kennedy. Yes, sure, please.
    General Pace. The Chief of Staff of the Army, the 
Commandant of the Marine Corps, and the Joint Chiefs are 
steadfast that we are not going to deploy troops until they are 
properly trained, manned, and equipped. The timeline that these 
brigades are on allows us to do just that. It is true that the 
best armed vehicles we have are currently in Iraq, and that's 
what the troops will fall in on. Therefore, some of the 
vehicles that they are training up here in the States are not 
the exact model of Humvee that they'll be falling in on. So, 
they'll be falling in on better equipment, but that does not 
preclude them from training properly, sir.
    Senator Kennedy. Now, just on the training equipment and 
the fact that you have some deficit that's going to be finished 
in the next few months, are you talking about those V-shaped 
hulls, the Mine-Resistant Ambush (MRAP) vehicle, which is V-
shaped underneath, for practical purposes, which has been more 
effective in reducing casualties? There have been other 
articles about whether all of the military personnel that are 
going out on patrol are going to have that equipment. Is this 
the vehicle that you were describing earlier, when you were 
talking about the shortages of equipment?
    General Pace. That is not the vehicle, sir. Senator, as we 
go along, we learn what works and what does not work. The V-
shaped bottom is more effective and is now in the request for 
the supplemental budget, and in the main budget to be able to 
buy into the future. The vehicles I'm talking about are the 
vehicles, right now, that are providing protection for our 
troops on the ground. The uparmored Humvees that are factory-
made, have been very effective against the roadside bombs. It 
is those current vehicles, of which there will be a small 
shortage, that will be covered by not letting our troops go 
anyplace without them.
    Senator Kennedy. General, my time is going to be up. On the 
V-shaped hull, which, as you just mentioned, are by far the 
most effective. By your own testimony, how long will it be 
before the troops in the field are going to have really the 
very best in terms of equipment and the V-shaped hull? How long 
will it take for them to have that equipment?
    General Pace. Sir, I need to take that for the record, 
because I do not know the industrial line, how quickly it can 
produce.
    [The information referred to follows:]

    Mine Resistant Ambush Protected (MRAP) vehicles are currently in 
use in the U.S. Central Command area of responsibility. MRAPs are 
primarily being used in theater for clearing vehicle routes of 
improvised explosive devices to ensure other armored vehicles are less 
likely to encounter them. MRAP vehicles are moving to theater as fast 
as the assembly line can produce them.

    Senator Kennedy. But you're going to do it as fast as 
possible, and that you've given the green light to go ahead and 
produce as many as they can as quick as they can and get them 
over there as fast as they can?
    General Pace. Well----
    Senator Kennedy. Would that be an overstatement?
    General Pace.--sir, I need to get back to you for the 
record.
    Senator Kennedy. All right.
    General Pace. I do not know what the requirement is. I 
don't have that in my head.
    [The information referred to follows:]

    The ability to get these vehicles to the troops is limited by the 
current manufacturers' ability to produce the vehicles. The Army and 
Marine Corps are working together to alleviate the manufacturing 
bottleneck by initiating a larger open competition for new mine 
resistant ambush protected type vehicle contracts. An evaluation of 
nine different vehicles, including some currently in use, is underway 
and is scheduled for completion in May 2007. At that time, based on the 
performance and the capability to meet accelerated fielding timelines, 
contracts will be awarded. Multiple vehicles may be chosen to get more 
of this level of protection to the troops as quick as possible.

    Senator Kennedy. All right.
    General Pace. I don't know how long it will take industry. 
But I can tell you, sir, that just like the small-arms 
protective inserts for our body armor, as our industry produces 
new and better equipment, this Congress has provided the 
funding to allow us to procure it as quickly as possible. I 
will get you the specific answer on the vehicle.
    Senator Kennedy. Thank you very much.
    Secretary Gates. Senator, I might just add, on this MRAP 
vehicle that you referred to, which I've been told is the best 
of these new vehicles, it is my understanding that the plant in 
South Carolina that produces these is operating at full 
capacity, and we have put out bids for eight additional 
companies to provide demonstration models of a similar vehicle, 
to see if we can increase the production as we go along.
    Senator Kennedy. Thank you.
    Thank you, Senator.
    Chairman Levin. Thank you, Senator Kennedy.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Secretary Gates, I would like to say I appreciate the fact 
that this budget that has been sent over is far more realistic 
than those in the past, as this committee has urged over the 
course of this war, rather than by emergency supplementals. I 
think it gives us a chance to more carefully scrutinize the 
requests for the funding of our obligations, both in Iraq and 
Afghanistan. So, I would like to say thank you for this new 
revised process.
    Senator Byrd. Me, too.
    Senator McCain. Whenever Senator Byrd agrees, it is a good 
thing. [Laughter.]
    Recent reports, Secretary Gates, indicate that Iraqi army 
units are showing up in Baghdad significantly under strength. 
Is that accurate? If so, is it of concern to you?
    Secretary Gates. I received a report the end of last week 
that one of the Iraqi brigades had showed up at 55-percent 
strength, and I told reporters at a press roundtable at the 
Pentagon that that wasn't good enough. I learned in a report 
from General Casey yesterday that, in fact, they have showed up 
at 60 percent, and that 25 percent were on leave to either take 
their pay back home or to protect their home base. So, he felt 
that the level of turnout for the brigade, in his opinion, and 
I don't think I'm misquoting him--was better than expected.
    Senator McCain. Senator Levin and I requested the so-called 
benchmarks that were laid out a long time ago, which we were 
unable to obtain. Some of those benchmarks were achieved, as we 
noted, but a number of those were not. Are you seeing any signs 
now that the Iraqi Government is taking the necessary measures 
that we have all sought for the last several years: revenue-
sharing, provincial elections, and sufficient commitment of the 
Iraqi military? Have you gotten an assessment of how you regard 
the performance of the Iraqi Government and military here in 
the last several weeks?
    Secretary Gates. Yesterday was to be the start of the 
Baghdad operation, and it's probably going to slip a few days, 
and it's probably going to be a rolling implementation. What I 
have asked for, and I have learned is already being addressed--
is to put together a more sophisticated checklist or matrix of 
these benchmarks and what our expectations are and what the 
performance is, so that in the weeks to come, we can evaluate 
this. My hope is that the detailed approach will be available 
to us literally within a matter of days so that we can begin 
measuring against our expectations and the Iraqi Government's 
commitments.
    As we've talked before, the military commitments are going 
to be the ones where we can evaluate performance first. Are 
they showing up? What numbers are they showing up in? Are they 
going into all neighborhoods? and so on. The political and 
economic benchmarks, in terms of the Iraqis paying--putting up 
their own money, getting elections, authorizing a provincial 
elections law, a hydrocarbons law, and so on, will probably 
take a little longer--but, in my opinion, we ought to be in a 
position to provide regular briefings to you all on that, 
beginning fairly soon.
    Senator McCain. I think it would be very helpful if you 
would keep us up to speed on that matrix that you are setting 
up. It has been somewhat frustrating to us in the past that we 
have not been able to have access to specific benchmarks or 
specific progress, or lack of. So, I thank you for that.
    Do we have enough troops going into Afghanistan? Everybody 
says it is going to be a very hot spring, Mr. Secretary.
    Secretary Gates. Yes, sir, I've extended a brigade of the 
10th Mountain Division by 120 days. We will be surging in 
another brigade from the 82nd Airborne, which was scheduled to 
be in there, is coming in. So, we will be up about 3,200 
troops. We have met the request of the North Atlantic Treaty 
Organization (NATO) commander, and the need for additional 
forces. There is a requirement outstanding for additional 
trainers, and I will be going to a NATO ministerial tomorrow 
afternoon, and one of my requests of those folks, and one of 
the issues that I'll be pressing very hard, is that they meet 
the commitments that they made at Riga, and help us out in 
this.
    Senator McCain. I think if you talk to General Jones, which 
a lot of us do, the former head of NATO, who we have the 
greatest respect for, our allies are not only not sufficiently 
assisting us in troops, but in rules of engagement, helping in 
setting up the judicial system, and the training of police. I 
hope that in this meeting that we can talk in a straightforward 
manner to our NATO allies, that we need a lot more from them 
than we're getting, not only rules of engagement for the 
troops, but also in various commitments they have made, such as 
assistance in setting up a judiciary, et cetera.
    General Pace, in his testimony, General Casey stated he 
requested two Army brigades to help quell the violence in 
Baghdad, versus the five brigades. He also said that the 
previous policy had not failed, that he thought it was 
succeeding. How do you explain the discrepancy between what 
General Casey requested and the President's plan?
    General Pace. Sir, what General Casey requested was about 
4,000 additional marines for al Anbar and 2 brigades for 
Baghdad, for a total of about 3 brigade equivalents. When we 
looked at that, back here amongst the Joint Chiefs, and we had 
a dialogue here in Washington and back down with General Casey 
and General Abizaid, we recommended an increase of the total 
number committed to ensure that the commanders on the ground 
had not only what they asked for immediately, but had 
additional troops to be able to take care of unforeseen 
problems. When we said that we thought we should put six 
brigades total into the pipeline instead of the three, both 
General Abizaid and General Casey were happy to have those 
additional troops, even though they did not ask for them up 
front.
    Senator McCain. How do you explain the testimony of General 
Casey, who said that the present strategy, which you said we 
are not winning and we are not losing, others have said the 
past strategies have failed, that is why we are changing it. In 
General Casey's testimony, he said that he thought it was 
succeeding. How do you reconcile those two points of view, 
General Pace?
    General Pace. Sir, I cannot speak for General Casey.
    Senator McCain. I am telling you what his testimony was.
    General Pace. Yes, sir. I can tell you that General Casey, 
in July, was the person who came forward to the Joint Chiefs 
and said that he could not go down below 15 brigades, as he 
projected he would do at one time, and then that started us 
all--General Casey, the Joint Chiefs, and General Abizaid--into 
the review that led to his requesting to go up from 15 to 18, 
and us recommending going beyond that. Clearly, from my 
perspective, where we were, and where we were supposed to be, 
were not the same place. Continuing on the track that we were 
on was not going to provide success, and we needed to have a 
different plan to get there. That we did, collectively, with 
General Casey, General Abizaid, the Joint Chiefs, and with the 
group here in Washington.
    Senator McCain. I thank you, Mr. Chairman, but I still find 
it hard to reconcile General Casey's continued assertion that 
the previous strategy was working, this in contravention of the 
view of most any observer, and at the same time, we are now 
going to put him in charge of the training and equipping 
responsibilities, for this new strategy. All this, when 
obviously he believes the old one was just fine.
    Mr. Chairman, thank you.
    Chairman Levin. Thank you, Senator McCain.
    Senator Byrd.
    Senator Byrd. Mr. Chairman, Mr. Secretary, General Pace, I 
voted not to go into Iraq. Everybody knows it. I was against 
it. Everybody knows that. There's nothing new about that. But 
we're there.
    General Pace, Secretary Gates, how much longer do you think 
the United States is going to be in Iraq before we begin to 
bring our people home? How much longer are you planning for?
    Secretary Gates. Mr. Chairman, as you say, it's hard to 
make any kind of a real prediction, especially where our 
adversaries have a vote. But it seems to me that if the plan to 
quiet Baghdad is successful, and the Iraqis step up, as I was 
discussing with Senator Warner, accept their responsibilities 
and assume leadership and successfully assume the leadership in 
trying to establish order and then beginning their political--
or further carrying out their political reconciliation process, 
I would hope that we would be able to begin drawing down our 
troops later this year. If we have to look at other alternative 
strategies, then that would depend on what those strategies 
might be. But as I say, and as you say, it's a very difficult 
question to answer with any precision, because it so depends on 
what's going on, on the ground.
    [Audience interruption.]
    Senator Byrd. Excuse me.
    Chairman Levin. Ma'am, you're going to need to sit down. 
You're going to need to sit down and not interrupt. You're 
going to not be allowed to interrupt again. I'm afraid that 
we're going to have to ask you to leave or we're going to have 
to remove you now.
    Senator Byrd. Right. Now, we mean business.
    Now, Mr. Secretary, would you, again--I don't believe you 
answered my question. Perhaps you can't. When do you think we 
can, I guess, begin to bring our troops home?
    Secretary Gates. If the circumstances on the ground permit, 
Senator, I would hope later this year.
    Senator Byrd. I hope so. I don't believe we will, but I 
hope so. What is the cost of this war, thus far? Just if you 
can state within reason.
    Ms. Jonas. Mr. Chairman, thank you, the cost so far that 
Congress has appropriated is $452 billion in supplementals and 
another $3 billion in the base budget, we include Operation 
Noble Eagle in those costs. As the Secretary has stated, we're 
asking for additional funds here today.
    Senator Byrd. Those are supplementals?
    Ms. Jonas. Yes, sir.
    Senator Byrd. What is the cost, thus far?
    Ms. Jonas. So far, what we refer to as ``obligations,'' 
sir, $372 billion, of which $276 billion is for Iraq.
    Senator Byrd. Iraq.
    Ms. Jonas. Operation Iraqi Freedom, sir.
    Senator Byrd. Very well. Can you give us some idea as to 
how much longer we're going to have our men over there? Do you 
have some projected cost estimate of having our people there? 
The cost in dead and wounded, as of now? We can probably get 
that from the newspapers, but do you have it?
    Ms. Jonas. Sir, I can only give you what we have in terms 
of our expenditures for DOD, which I just articulated, and what 
we're projecting for the remainder of this year, in terms of 
funding that will be required, approximately $93 billion for 
2007, and then we're projecting, for fiscal year 2008, for the 
entire year, about $141.7 billion, sir.
    Senator Byrd. That's 2007 and 2008.
    Ms. Jonas. Yes, sir.
    Senator Byrd. Mr. Secretary, do you want to add anything to 
that? This is going to go beyond that. Surely you're projecting 
some estimates for that eventuality.
    Secretary Gates. I think the Office of Management and 
Budget (OMB), Mr. Chairman, has put $50 billion in the budget 
for fiscal year 2009 as part of their longer-term plan. I don't 
know of any allocations beyond fiscal year 2009.
    Senator Byrd. No allocations. I don't know whether we're 
beginning to understand what we're talking about or not. What 
do you see, as far as the cost is concerned, what it is now for 
the military operations and so on there, and what it's 
anticipated to be over the foreseeable future? How long do you 
see this war going on?
    Secretary Gates. Sir, I think that there's very likely to 
be at least some American presence in Iraq for a number of 
years. We obviously don't seek any permanent bases, but there's 
going to be some need for forces. But my hope would be that, 
over the longer-term, that it would be a fraction of what we 
have there now.
    Senator Byrd. A fraction of what?
    Secretary Gates. Of the force that we have there now, sir.
    Senator Byrd. My time is up. But I don't think we ought to 
have gone into Iraq. I said that to begin with. We are there. I 
don't see any end to it. So, I just anticipate that 5 years 
from now, or 10, my successor--I guess in 10 years there will 
be a successor--he won't be on this committee, because he'll be 
a new man. But somebody's going to be asking, ``I see where 
Senator Byrd said thus and so, and asked thus and so. How much 
longer, Mr. Secretary''--you may not be Secretary--``how much 
longer are we going to be in Iraq?'' This is a question that 
will be asked again, and it will reverberate down through the 
halls of Congress and the ages. How much longer do you think 
we'll be in Iraq? Number one. Number two, what is the cost now, 
and what's it going to be? I wouldn't want to be in your chair, 
but I would have some idea that Senator Byrd's going to ask 
questions like that. How much longer is this war going on in 
Iraq? Of course, you can't foresee every eventuality, but how 
much longer, at the present rate, do you think we'll be there?
    Secretary Gates. I would hope that, if our operations are 
successful this year, that we would be able to begin drawing 
down our forces toward the end of the year.
    Senator Byrd. Right. That's what you said earlier. My 
time's up?
    Chairman Levin. Yes, thank you.
    Senator Byrd. My time is up. I can understand why it takes 
him about 2 minutes to ask a question, the same question that I 
could ask in 6 minutes. [Gesturing towards Chairman Levin.]
    Thank you.
    Chairman Levin. Thank you, Senator Byrd.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, Mr. Chairman, there are several members of 
this committee that are also on the Environment and Public 
Works Committee. We're having a very significant meeting right 
now at the same time in the same building, so we'll be coming 
in and out.
    Mr. Secretary, you said, during your opening statement, 
there was something that was not in your printed statement, and 
it kind of went by me a little bit too fast, but I think it's 
good news. Are you saying that we're now making progress 
toward--well, Africa's been divided between EUCOM and CENTCOM 
now for--and I've been complaining about it for about 10 years. 
Are they talking about, now, a new AFRICOM that you think is 
working into the process?
    Secretary Gates. Yes, sir. We're moving to stand it up.
    Senator Inhofe. That's very, very good news now, I wanted 
to make sure everyone heard what you said.
    You also said--and I looked it up in your opening 
statement; I kind of like this one--it said, ``Experience is 
that marvelous thing that enables you to recognize a mistake 
when you make it again.'' It reminds me a little bit of going 
back to the 1990s, when there was this euphoric attitude that 
the Cold War is over and we no longer need a military, and we 
started drawing down. I went back and checked, and found that 
more than once every month during that entire period of time, I 
was on the Senate floor saying that we will regret that it 
happened.
    So, I'd like to get into something that others haven't 
talked about yet, and it goes back to, many years ago, when the 
first confirmation hearing of Secretary Rumsfeld, when I made 
the observation that we all try to look into the future 10 
years or so and determine, what are our needs going to be? The 
American people have always expected that we would be number 
one in all of our equipment, in our abilities, that, when we 
send our kids into battle, that we have the very best, whether 
it's an artillery piece, strike vehicles, lift capability, and 
all of that. So, we have these hearings. I go back to my days 
in the House, on the House Armed Services Committee. I can 
recall, in 1994, we had someone testify that in 10 years we 
would no longer need ground troops.
    So, I guess what I'm saying, General Pace, is that you have 
a lot of smart generals around that are going to try to guess 
what in the lead time that we have right now for--preparing for 
10 years from now--what are our needs going to be? As smart as 
the generals are, they're going to be wrong. The only answer to 
this, as I said to Secretary Rumsfeld during that confirmation 
hearing, is, What's the answer to this? He, from memory, drew 
upon some facts that I didn't know he had, because he didn't 
know I was going to ask it. He said, ``If you'll take the 
entire 20th century for 100 years, the average amount spent on 
defense as related to GDP was 5.7 percent. That's in wartime, 
peacetime. That is the average. At that time--this is right 
after the drawdown of the 1990s, it was down to 2.9 percent.'' 
I said, where do you think it should be? He said, at that time, 
maybe around 5 percent.
    In anticipating coming into this job, Secretary Gates--and 
you and I talked, the day before it was even announced that you 
were going to be in there; we talked about this--have you given 
thought as to where we should be? Right now, we are at 3.8 
percent, which I think is totally inadequate, and where we 
should be looking into the future, in terms of the 
prioritization of military, you can express it anyway you want, 
percentage of GDP or any other way?
    Secretary Gates. I think that the historical figure of 
about 5 percent probably is on an ongoing basis, I think, is a 
good one. I would tell you that, in my experience in 
government, from the mid-1960s to the early 1990s, if you were 
to graph American defense spending, it would look a little bit 
like the electrocardiogram on a fibrillating heart. I think 
what's as important as the amount is the predictability of it--
being able to know that you can invest today, knowing that you 
will be able to maintain a level of investment over a period of 
a decade or more. So, you don't have to try and rush to get 
things done in a hurry because you're scared to death that the 
defense budget will be cut badly the next year or 2 years 
later. I was in the position of having invested almost $1 
billion of the taxpayers' money in a very sensitive program 
before, and having to kill it because the money wasn't there to 
finish it.
    Senator Inhofe. Well, and we understand we're here----
    Secretary Gates. The reliability, I think, is as important 
as the amount.
    Senator Inhofe. Yes. We're here today talking about the 
crisis we're currently in but I just want to get us thinking, 
in the future, as to where we should be. General Pace, you and 
I have talked about this. We talked about the fact that General 
Jumper came down, in the late 1990s, and admitted that some of 
our strike vehicles weren't as good as the--I think it was SU-
35s that were on the market by the Russians at that time, which 
is totally unacceptable to the American people. They don't know 
that this is the case.
    Now, in this brief period of time, one of the major 
concerns I have--and it doesn't necessarily fit into this 
discussion of the 2008 budget, but in a way it does, because 
we're talking about the inadequacy of funding the military 
construction under the Base Realignment and Closure (BRAC). To 
go back--this last BRAC round, I remember that I was opposed to 
it, having one more BRAC round, and it was a very close vote, 
but we went ahead and had it. The comment that I made is, yes, 
we know we're going to save money in the future, but it's going 
to cost money for the next 5 or 6 years. It always costs more 
money when you go into closing bases and that type of thing. 
Well, we went ahead and had it, maybe we were right on 
projecting that $20 billion will be saved, in the long run, but 
right now we are $3.1 billion short in the 2007 budget. Now, I 
think this is a real crisis right now, and I'd like to get the 
response from both of you. Let's start with you, General Pace, 
as to what do you think is the consequence of not adequately 
funding our BRAC process for this last round?
    General Pace. Sir, the continuing resolution has resulted 
in the money made available in fiscal year 2007 being $3.1 
billion less than was projected. Therefore, absent that money, 
we will not be able to meet the statutory requirements to 
complete the BRAC process by the end of the period that was 
allowed. Immediately, it means that the kinds of things that we 
need to do for our families that we're trying to move back from 
Germany, for example, back to the United States, that the 
housing, the schools, the hospitals, all the infrastructure 
that needs to be built on the bases here isn't going to happen, 
so we are in jeopardy of not abiding by the law, which is, 
``get it done within a certain time period,'' because we don't 
have the funding to be able to do that.
    Senator Inhofe. What kind of an effect would this have on 
individuals out there considering whether or not to re-enlist, 
looking down the road, after the promises that have been made 
to them?
    General Pace. Sir, I don't know that it would have a direct 
impact on that piece, because I don't know what they'd actually 
be able to----
    Senator Inhofe. That may be true.
    General Pace.--think through the BRAC part.
    Senator Inhofe. Any comments on that, Secretary Gates?
    Secretary Gates. I know that, if I recall correctly, one 
piece of that $3.1 billion is $300 million in housing 
allowances. So, as General Pace is indicating, to help the 
military pay for their housing. I will say that I paid a 
courtesy call on both the Republican and Democratic leadership 
of the Senate last week, and we discussed this, and they 
expressed concern, and indicated a willingness to try and do 
something about it.
    Senator Inhofe. I really think we're going to need to do 
that. I looked, and it's not in the supplemental. So, I'd like 
to have your prioritizing that as much as you could.
    Lastly, on the reset, we've talked about that a little bit. 
I had an occasion to go to Texas, in both Red River and Corpus 
Christi, and look at the problems that we're having down there 
right now, and--where do you think we are on that, on our reset 
of the Army, General Pace?
    General Pace. Sir, the funding that is proposed in this 
budget, and in the supplementals, will allow us to use the 
capacities of our depots, to the maximum extent possible. If 
you were to stop creating any more damage to any more vehicles 
right now, if the war stopped today----
    Senator Inhofe. Yes.
    General Pace.--we'd have about 2 more years of about $14 to 
$15 billion for the Army and about $3 billion per year for the 
Marine Corps, for them to work off their backload of repair of 
equipment that would then begin.
    Senator Inhofe. Those lines are still long out there today, 
and it's very much of a concern.
    Thank you very much.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Mr. Secretary, I want to ask you a question on the 
reliability of the Iraqi army. When you were in front of our 
committee last January, I asked you, ``how long would it take 
you to make a determination that things were working out as in 
the President's plan so that you would know that this was the 
right thing to do?'' At the time, you said, ``about 2 months.'' 
I said, ``well then, come March, I'm going to be asking you 
that question.'' In the meantime, a senior officer on the Joint 
Staff has testified in another committee--and this is a senior 
officer with significant military experience in Iraq, and I'm 
about to repeat is unclassified--and he said that, of about the 
325,000 army and police in Iraq, that 130,000 are army that are 
trained and equipped, and, of them, about 65,000 are nationally 
recruited, as opposed to being recruited in areas that they 
would not want to move out of. So, you have 65,000. He said of 
those 65,000, he expected about 30,000 of them would be in 
Baghdad.
    Now, I come back to my initial question that I've asked in 
every one of these hearings in three committees--Senate Select 
Committee on Intelligence, Armed Services Committee, and the 
Foreign Relations Committee--regarding the reliability of those 
troops. I would like your perspective now, as opposed to when 
we talked to you in January, on that reliability, particularly 
in light of what you said today, that you expect 60 percent of 
troops are reporting in Baghdad, and you also said today that 
25 percent of those troops are going to be on leave. Bring us 
up-to-date.
    Secretary Gates. That information was on one brigade that 
General Casey had reported to me on, in terms of accounting for 
85 percent of their soldiers. At this early stage, it's still 
very impressionistic, and I would say that--I think that 
General Casey's words have been, ``So far, so good.'' There 
have been some cases where the Iraqis have been very aggressive 
and out in front and doing exactly what we want them to do. 
There have been some cases where they haven't fought so well. 
They fought very well in this attack in the south, where they 
took out this Shiite group, with many hundreds of casualties on 
the part of the Shiite. It was an entrenched group, and we 
brought in some air support and so on. It sounded to me like 
the kind of operation we were hoping would actually happen, 
where they do the ground fighting, the bulk of the ground 
fighting, and we provide some additional combat support.
    So, I would say, based here, right at the very beginning, 
and really only as they are beginning to flow into Baghdad, on 
balance, they're probably doing okay. But you will always find 
instances where they aren't performing. There will always be a 
patrol or something, I think, where our soldiers will say they 
were disappointed. But maybe General Pace has a little broader 
perspective than I do.
    General Pace. Just two things to add to that, sir, if I 
may, in addition to Najaf. One is the Ashura Holy Day, which 
was January 30, where millions of pilgrims visit the holy 
mosques, went off without any incidents at all, all of that 
being handled by the Iraqi army and the Iraqi police. In years 
gone by, there have been bombings and the like. So, they did a 
very, very credible job there. In addition, the Iraqi commander 
in Baghdad, Lieutenant General Aboud, has assembled his team 
together, and is showing very, very balanced approach to Sunni/
Shiite neighborhoods. So, the initial indications--not to be 
giddy about, but the initial indications on the execution of 
the Iraqi piece of Baghdad, on the military part, are 
promising.
    Senator Bill Nelson. So, he's screening to screen out the 
criminals? He's screening out those who would support the 
militia that's inside the Iraqi army? Is that what's happening 
with those Iraqi troops that are going in to Baghdad?
    General Pace. Sir, what's happening right now is, they are 
flowing into Baghdad on the timeline that they're supposed to 
be flowing in. Two brigades are there now, the third brigade is 
arriving as we speak. So, it'll be a little while longer before 
full operations begin. But in those instances, so far, where we 
have had the opportunity to go against Shiite criminals and 
Sunni criminals, he has been very balanced in his approach to 
that.
    Senator Bill Nelson. I'm asking this because this senior 
military official that testified on this unclassified material 
said, of those troops showing up in Baghdad, he expects 80 
percent of them to be reliable. Therefore, 20 percent are going 
to be unreliable. If that's true--and I don't know what's true; 
I'm the one who keeps asking the questions about reliability--
if the President's plan is predicated on the reliability of the 
Iraqi troops, when we go in to clear, before we hold, with more 
Iraqi troops than American troops, then they have to be 
reliable. I'm trying to get my hands around this question, are 
they reliable or not?
    Secretary Gates. Senator, I think that's the question we 
all have, and I think that we've talked here a lot about. We're 
going to have to see how it actually plays out on the ground. 
People have their theories about how this is going to work and 
how many are reliable, and this, that, and the other thing, and 
we have a mutual interest in an honest evaluation of how these 
guys are doing, because it's our kids that are there at risk. I 
probably shouldn't say ``kids,'' but it's our men and women out 
there----
    Senator Bill Nelson. I understand.
    Secretary Gates.--who are the front lines. As I was 
mentioning earlier to Senator McCain, we are trying to put 
together a fairly complete checklist, matrix, whatever you want 
to call it, of how to evaluate these guys as we go forward and 
how the Iraqis are doing, because so much depends on their 
performance in so many different areas. I think that, as I 
indicated, it's probably premature, but, in a certain period of 
time, when we have enough data to begin to be able to come up 
and brief you all and your House colleagues every couple of 
weeks on how we think they're doing.
    Senator Bill Nelson. Mr. Chairman, I'll just say, in 
conclusion, that what bothers me is this, if the President's 
plan--and Senator Warner is nodding his head, because we've 
talked about this--is predicated on the reliability of the 
Iraqi troops, and yet no one has a handle as to whether or not 
they're reliable until we see them in action, that doesn't 
sound to me to be the good way to implement a plan.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Collins.
    Senator Collins. Thank you.
    General, just last week, at a hearing before the Commission 
on National Guard and Reserves, the National Guard Bureau 
Chief, Lieutenant General Steve Blum, stated that 88 percent of 
the National Guard forces that have returned from Iraq and 
Afghanistan are, ``very poorly equipped'' today in the Army 
National Guard. He also went on to say that the Air Guard, for 
the first time in 30 years, has 45 percent of its units with 
less than a C-2 readiness rating because of lack of equipment. 
He further testified that 9 out of every 10 Army National Guard 
units that are not serving in Iraq and Afghanistan have less 
than half the equipment that is needed to respond to domestic 
crises. The general went on to estimate that it would take $40 
billion to bring the National Guard up to an acceptable level 
of readiness. As the ranking member of the Homeland Security 
and Governmental Affairs Committee, I'm very concerned about 
the ability of the National Guard to respond to a domestic 
crisis, whether it's a hurricane, an ice storm, or a terrorist 
attack on our homeland.
    The budget does not appear to have anywhere close to the 
amount of money that General Blum has estimated is necessary to 
restore the equipment levels to an acceptable readiness level. 
Could you comment on the adequacy of the budget and also the 
impact on the National Guard's ability to respond to domestic 
missions?
    General Pace. Yes, ma'am. It is absolutely true that, as 
both Active-Duty and National Guard and Reserve units go over 
to Iraq and Afghanistan, that the equipment they take over 
there with them that is not damaged is left behind for the 
units that are coming in. That just makes good management 
sense, so we're not shipping the same kinds of equipment back 
and forth by sea all the time. We have about 40 percent of our 
inventory of equipment either currently deployed or in the 
depots for repair. That means, almost by definition, then, that 
the units that are home are going to have about 60 percent or 
less of their equipment today.
    The budget includes some $51 billion over the FYDP for 
reconstitution, and the Army specifically has focused $21 
billion in their budget to flesh out the needs of the National 
Guard and Reserve. The only number you used, ma'am, that I 
can't talk to is the $40 billion, because I do know, because 
I've talked to General Blum about this, that the Army National 
Guard leadership, including General Blum, is very comfortable 
with the $21 billion that have been allocated to flesh out the 
equipment that's missing in the National Guard, plus the money 
that's been allocated to refurbish the things that have been 
damaged. So, from the equipment standpoint, I believe that all 
of their concerns are addressed in this budget. With regard to 
responding, we were able to very quickly, in the response to 
Hurricane Katrina, have 70,000 troops into Louisiana and the 
Gulf region; about 50,000 of those were National Guard and 
Reserve, the other 20,000 were Active-Duty. The Governors have, 
amongst themselves, agreed on how to share troops and share 
equipment so that, as we approach things like the hurricane 
season, we have worked through the details of who would 
respond, what equipment they would have.
    The other piece of this that is working right now, and is 
very important, is, the Department of Homeland Security, under 
Secretary Chertoff, is looking at natural disasters and manmade 
disasters. What capacities does the Nation need? Of those 
capacities that we need, what exists right now, and where are 
the gaps? Of the gaps, what should the Nation look to their 
military for, so that we can properly fund those?
    The other piece that's very important is a new force-
generation model that calls for 1-year deployed and 5 years at 
home, as a goal for our National Guard and Reserve, 
automatically puts those units into a system that ensures that 
their manning, their training, and their equipment are all 
properly addressed as they come up toward--as they get closer 
to their deployment window.
    So, there are several things ongoing, ma'am, that I think 
mitigate the factors that you mentioned.
    Senator Collins. Thank you.
    Secretary Gates. Senator, I might just add, very quickly on 
this, that there is, in the fiscal year 2007 supplemental and 
fiscal year 2008 global war on terror, together, something like 
$8.8 billion for equipment for the National Guard, 
specifically. Between fiscal year 2005 and fiscal year 2013, we 
will invest $36 billion strictly in the National Guard for 
equipment. I've also been assured by both the Chief of Staff of 
the Army and the head of the National Guard Bureau that they 
have surveyed the National Guard units, the National Guard in 
the eight States that are susceptible to hurricanes, and 
those--and the National Guard in those States have 100 percent 
of the equipment they need in order to be able to respond in 
the event of a disaster.
    Senator Collins. Thank you.
    I would note that this testimony was given by General Blum 
just last week, and the $40 billion is a direct quote from his 
testimony. He breaks it down as $24 billion for the Army Guard 
and 13.8 billion for the Air National Guard. So, I would ask 
that you get back to me on that specific issue.
    [The information referred to follows:]

    The $40 billion figure mentioned by General Blum includes all 
shortfalls across the Army and Air Guard, to include operation and 
maintenance, personnel, and equipping costs. According to General Blum, 
the Army shortfall is $24 billion and is fairly consistent with the 
Army's documented shortfall. At the time he released the information, 
the Army had programmed $21.1 billion against that shortfall. With the 
release of the fiscal year 2008 budget, the funding programmed from 
2008-2013 is $36.7 billion, which addresses their shortfalls and 
continues to address modernization.

    Senator Collins. I appreciate the explanation you both have 
given.
    General, I'd now like to switch to the issue of 
shipbuilding. It would be very rare for me to go through a 
budget hearing without bringing up shipbuilding at least once. 
[Laughter.]
    While I'm still concerned about the adequacy of the 
shipbuilding budget, I do commend you for continuing to 
progress toward the Chief of Naval Operations' goal. 
Development is progressing well, as you're aware, on the guided 
missile destroyer, or DDG-1000. We talk a lot about the 
advantages of the DDG-1000, in terms of increased firepower, 
the greatly reduced profile on radars, the electric propulsion 
system, but something that isn't discussed as often is the far 
smaller crew size that the ship is going to be operating with. 
Could you discuss the positive impact on the budget of being 
able to operate a destroyer of this size with a far smaller 
crew size than is required for the DDG today?
    General Pace. Yes, ma'am. Just one ship will be manned at 
about half the crew that a current-day destroyer requires, so 
all that that implies, as far as training, family support, 
housing, medical, retirement, as you add all that up, that's an 
enormous savings over time, when you multiply it times the 
number of ships that are involved. So, I applaud the Navy, not 
only in the way that they have reduced the size of the ships, 
but in the way that they have redesigned the Navy's tempo so 
that we can surge when we need to and have many more of our 
ships readily available to the Nation when it's needed and when 
we don't know that they're going to be needed.
    Senator Collins. Thank you.
    Chairman Levin. Thank you--Senator Collins, thank you.
    Senator Collins. Thank you.
    Chairman Levin. Okay. Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service for our men and 
women at home and abroad.
    Mr. Secretary, you've heard a lot about the surge and the 
concerns that have been raised. At your nomination hearing, I 
asked about the consequences if the Iraqis don't step forward 
as a result of the President's decision to surge the forces in 
Baghdad. It's one of the reasons I've been pushing benchmarks 
for more than 2 years, so that we have a way to measure 
progress. It appears that we're in the process now of being 
able to do that. If, in spite of all the best efforts, the 
Iraqis can't take the lead, they can't quell the violence in 
their neighborhoods, I think you've said it isn't necessarily 
the consequence that we're going to withdraw or leave Iraq, it 
just means that we'll have to make another plan. General Casey 
said, about that question, that it's a political judgment that 
we would work with the government. So, I guess what I'd like to 
ask you, because you're in a policymaking position, and you 
have to make political judgments as well, what are the 
consequences? What are the consequences if the Iraqi military 
doesn't show up, if the Iraqi Government doesn't create an oil 
agreement, doesn't work to protect the rights of the minority, 
and fails to hold up their end of the bargain? What are the 
consequences to that? Because that's not simply a military plan 
that has to be readjusted. It goes way beyond the military. It 
is now a question of whether they are an adequate partner in 
this process. The question is, what do they want to do?
    Secretary Gates. I think what we have to bear in mind is 
there has often been, at these hearings, a long list of broken 
promises by the Iraqi Government. I think it is useful to 
maintain some perspective that none of these guys were in 
government a year ago. Most of them were in opposition, some of 
them were in jail, some of them were in exile. They're trying 
to do something that's never been done in the history of their 
country before. So, frankly, I think sometimes their failure to 
fulfill their commitments is more a question of capacity than 
it is will. It is clear that Prime Minister Maliki intends to 
fulfill the commitments that he's made. It's clear he wants 
Iraq to be in charge of this operation. If the Iraqi----
    Senator Ben Nelson. Well, excuse me----
    Secretary Gates. If the----
    Senator Ben Nelson. Is it really that clear? Because he, 
and some of his members of his government have raised questions 
about whether more U.S. troops were desirable or whether it was 
going to be an Iraqi military operation in Baghdad.
    Secretary Gates. No, that's absolutely right. I think that 
his original hope had been that this would be an entirely Iraqi 
operation, and it was when his military people began talking 
with our military people, that they, in essence, persuaded him 
that the Iraqis perhaps weren't ready to do it all by 
themselves, just like we had to provide air support in this one 
other attack that just happened last week. So, he has, I think, 
grudgingly accepted having U.S. support, where he wanted to do 
it all by themselves. We don't want them to fail.
    So, I think that they have the desire and the intent to 
make this work. I think what remains to be seen is whether they 
have the capacity to do it. If they can't make it work--we're 
planning on them fulfilling their commitments, and if they 
can't, then, as I have said, I think we have to revisit our 
strategy.
    Senator Ben Nelson. Is it a military strategy or is it a 
political strategy?
    Secretary Gates. I think it's both. The part that I feel 
that I have to take personal responsibility for is the military 
part of it.
    Senator Ben Nelson. Could you see any set of circumstances 
under which you might suggest, if this fails and there is not 
the capability, that you might recommend we withdraw?
    Secretary Gates. I think that a precipitous withdrawal by 
the United----
    Senator Ben Nelson. I don't mean precipitous, I mean, would 
you recommend that we withdraw, not in a precipitous fashion, 
but in a structured withdrawal scenario?
    Secretary Gates. I can see--I can envision--I hate to get 
into hypotheticals----
    Senator Ben Nelson. I know.
    Secretary Gates.--at this point, but I certainly see 
circumstances in which we would, first of all, reposition our 
forces, try and move them out of harm's way as much as 
possible, and then see where we go from there.
    Senator Ben Nelson. Isn't it true that the President said 
something to the effect, to Prime Minister Maliki, that we're 
not there forever?
    Secretary Gates. Absolutely.
    Senator Ben Nelson. All right.
    General Pace, I'm concerned about force protection, given 
what happened at Karbala. We happened to lose an Nebraskan in 
that effort, and I just received, while we were sitting here, 
notification that we just lost another Nebraskan whose sister's 
in the Army National Guard and brother is in Active-Duty. So, 
it's very personal, as it is for all of us, because we're all 
experiencing these losses. The question of force protection, 
really, doesn't that rise to a higher level if we're going to 
be positioned with the Iraqi forces in Baghdad to quell the 
violence? How will this work? Will there be one of ours out on 
point, as well as another Iraqi on point? What kind of unified 
command, or what kind of dual command, exists? It's true, we're 
not going to be just supporting behind the scenes, we're going 
to be out front. Isn't that correct?
    General Pace. Sir, we will not be out front by plan. What's 
planned is for each of the nine districts in Baghdad to have a 
Iraqi brigade. Co-located with that Iraqi brigade, teamed up 
with that brigade, would be a U.S. battalion. The Iraqis would 
be the ones going door to door, knocking on doors, doing the 
census work, doing the kinds of work that would put them out in 
front for the first part of a, if it develops, firefight. Our 
troops would be available to backstop them and to bring in the 
kind of fire support we bring in. But it would not be one Iraqi 
and one U.S. soldier. In the Iraqi units that are forward, we 
have our embedded trainers, some 30 or 40 groups will be 
traveling with them, but they would not be walking point. The 
Iraqis would be.
    Your point about the attack on Karbala is very important, 
Senator, and that is, that was a very sophisticated event. We 
are in the middle of investigating how that happened, where the 
equipment came from, how they got to be looking, as much as 
they did, like----
    Senator Ben Nelson. There could be complicity with Iraqi 
government and/or military forces, couldn't that be the case, 
as well?
    General Pace. It's possible, sir, but it doesn't look like 
that. It looks like this is a very well-designed operation by 
insurgents who had equipment that made them look like U.S. or 
coalition forces, that got them that close to that checkpoint. 
But that's still an ongoing investigation.
    Senator Ben Nelson. There is a concern about force 
protection for our troops that would be embedded. If they came 
upon, I think, as Senator Levin said, in talking--in one of the 
other hearings--if they met up with thousands of people in the 
street, I think we would not want them to have to depend on 
whether 60 percent of the Iraqi forces stayed and 40 percent 
left or some other significant departure occurred, because it 
would put them in harm's way in a way that we wouldn't expect 
it and we wouldn't want it. Is that correct?
    General Pace. Sir, we have taken precautions to ensure 
that, regardless of what happens on the battlefield, our guys 
and gals are ready. Those folks who are embedded with the 
battalions, instead of being 10 to 12, are going to be about 30 
to 40. A good number of those additional 30 to 40 are folks 
carrying rifles to ensure that our cell of U.S. folks can 
protect itself regardless of the event. Immediately behind them 
is the reinforcing unit of our U.S. battalion that's there to 
help the Iraqis, but is also there as a quick-reaction force to 
go help our folks. We have this thing lined up in a way that 
does not guarantee that U.S. troops will not get into harm's 
way, but it does guarantee that, if they are in harm's way, 
that they'll be properly armed, protected, and have lots of 
U.S. response available to them.
    Senator Ben Nelson. So, we shouldn't expect another Karbala 
incident, is that fair?
    General Pace. Two different things, sir. One is units in 
the attack, which is what I've been talking about; the other, 
in Karbala, was a stationary point to which insurgents, with 
vehicles that looked like coalition vehicles, with people 
inside wearing uniforms that looked like coalition uniforms, 
were able to approach that checkpoint. A totally different 
environment. But, again, that's under investigation to see what 
broke down, what are the lessons, so it doesn't reoccur.
    Senator Ben Nelson. Okay, thank you.
    Mr. Chairman, thank you.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Dole.
    Senator Dole. Secretary Gates, would you give us your views 
on the need for follow-on legislation similar in nature to the 
Goldwater-Nichols Act, building on that legislation, but 
involving all relevant departments and agencies? I'm assuming 
that you agree with the need for such legislation, but what 
steps could you initiate, what steps should Congress begin, in 
order to move this discussion forward? I'd appreciate both you 
and General Pace responding to this question.
    Secretary Gates. I've spent a lot of time working these 
problems, including almost 9 years, under four different 
Presidents, on the National Security Council, and just, sort 
of, the predicate for your question is that there are a lot of 
folks in the DOD who wonder where the rest of the Government is 
in this war, and our DOS friends sometimes, I think, wonder the 
same thing.
    There is clearly a need for greater interagency 
collaboration, and some of the legislation that we will be 
proposing for building the capacity of our partner nations that 
requires collaboration between the DOD and the DOS and other 
parts of the Government, their legislation can help us, where 
we can provide money from the DOD, perhaps to the DOS, to help 
train and equip some partner in Africa or someplace else, in 
terms of counterterrorism, that sort of thing.
    The concern that I have--and I know that General Pace has 
referred to the need for Goldwater-Nichols for the rest of the 
executive branch, and I would never disagree with the chairman, 
except that what made Goldwater-Nichols work for the DOD was, 
at the end of the day, there was one person making the 
decisions, and that was the Secretary of Defense. So, those who 
didn't want to play ball eventually all had to answer to the 
same person. That's much harder where you have a dozen or 15 
Cabinet Secretaries. In effect, the President becomes the 
action officer, if you will.
    I'm not quite sure what the right answer is, but what I 
know is that, as we look at these Provincial Reconstruction 
Teams (PRTs) in Afghanistan, Iraq, and where we're deploying 
elsewhere--where there's a need not just for State and Defense, 
but Agriculture, and so on, there is a need, somehow, for an 
interagency empowerment that requires these agencies to provide 
the personnel that are necessary to do the job. Whether that's 
something that the President does through an executive order or 
a directive, or whether there is some way legislation can 
enable that, I'm not sure. Frankly, I'm not optimistic that 
legislation is the answer. But there's clearly a need for there 
to be a greater ability to transfer funds and people and 
establish partnerships among the different parts of the 
Government, the executive branch, than now exists.
    Senator Dole. General Pace?
    General Pace. Senator, the Secretary and I have not had a 
chance to have a discussion about this, but, as it turns out, 
we are not at all in disagreement. I am not at all certain that 
it requires enactment of some kind of legislation. What I am 
certain of is that there are lessons to be learned from the 
Goldwater-Nichols Act. The things that created joint tasks 
forces, might there be something there that gets at what the 
Secretary just said about some way to have someone below the 
President of the United States empowered in the interagency 
process to make things happen? Might we reward things like we 
have in the joint world, such as tours between departments or 
individuals who volunteer to go overseas and serve their 
country in more dangerous locations? Are there ways that we can 
train ourselves, interagencywise, for better planning efforts? 
You can take every piece of Goldwater-Nichols, and we should, 
and see whether or not it applies prospectively to the 
interagency process, and then, if it does, do we need a law or 
do we need just executive decision? What is it that would allow 
us to get on about doing that business? Goldwater-Nichols has 
been so empowering to the military that something like it would 
be enormously effective for the rest of our Government.
    Secretary Gates. I would just lay down one marker. I would 
not give the National Security Council staff an operational 
role in managing the Government. Every time the President has 
done that, it's spelled trouble.
    Senator Dole. Thank you, both, for your answers, and I look 
forward to working with you in this respect.
    Secretary Gates, we briefly discussed at your nomination 
hearing the need for further improvements in the DOD financial 
management systems. In the time that you have been there, have 
you had an opportunity to look at this further, in terms of 
increased transparency, the need for accountability of dollars 
spent? As you have looked at it, if you've had an opportunity 
to really get into this one, what do you think the next steps 
would be? It's a very serious issue.
    Secretary Gates. Senator, in all honesty, I haven't had a 
chance to get into it, but I'm sure that Ms. Jonas would be in 
a position to answer your question.
    Senator Dole. Thank you.
    Ms. Jonas. Senator, thank you for the question. As you may 
know, we've been pretty hard at work at trying to obtain a 
clean audit opinion on the DOD's books. We have implemented an 
extensive program, called the Financial Improvement and Audit 
Readiness Program. To date, we have our line items on the 
balance sheet, we have about 15 percent of our assets, about 
$215 billion, that receive a clean opinion, and close to a 
trillion in assets that would receive a clean opinion. So, 
that's one part of the equation. The other part of it, in 
getting toward our 11 material weaknesses, is really deploying 
systems, financial systems, that will help us be able to trace 
all those transactions. We're working very hard at that. We 
have an extensive plan on that, called the Enterprise 
Transition Plan, and we've testified before some of the 
subcommittees here on that.
    So, we're working very hard at it. It's a very difficult 
problem, largely because of the systems. But we appreciate 
Congress's interest in it, and we hope we're making progress.
    Senator Dole. Thank you.
    Secretary Gates, Afghanistan now accounts for more than 90 
percent of the global opium supply. Since your confirmation 
hearing, let me ask, have you had the opportunity to look more 
closely at this issue? On the importance of undercutting the 
drug trade in Afghanistan, what must we do to effectively deny 
the Taliban the support of the population and the great revenue 
that they realize from the opium trade?
    Secretary Gates. Senator, I raised this problem with 
President Karzai when I was in Afghanistan a couple of weeks 
ago. He admitted that they had made a terrible mistake, that, 
in the first year, they basically bought the crop from the 
farmers, and, lo and behold, the next year, a lot more people 
were planting poppies, in the hope that it would be bought by 
the government.
    Our eradication efforts, with our NATO allies, have been 
stymied by the inability to get agreement on both aerial and 
ground spraying. We are going to continue to pursue that with 
the Afghans. Part of the problem with the money aspect of it is 
certainly not that the farmers get it, but that it fuels the 
Taliban and it fuels corruption. I told President Karzai that 
it corrodes the entire fabric of the state, and that if they 
don't get some kind of a handle on it, they're going to have a 
problem. The good news is that the economy is growing enough 
that opium is--or the poppies are becoming a smaller percentage 
of the GDP. But that doesn't mean there's less opium out there 
available. Most of it goes to the Europeans.
    All I can tell you is that the counternarcotics initiative 
is going to be part of the agenda at the NATO Defense Ministers 
meeting the end of this week. We intend to pursue it. We know 
it's important. It's important not only because of the drug 
aspect of it, but because of what I just said, in terms of its 
impact both on the Taliban and on official corruption. So, we 
will be pursuing it with our allies. To be honest, some of our 
allies have had the lead in this, and it hasn't gone quite as 
far as we would have hoped.
    Senator Dole. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Dole.
    Senator Reed.
    Senator Reed. General Pace, Secretary Gates, and Ms. Jonas.
    Secretary Gates, on January 11, you announced a permanent 
end strength of the Active-Duty Army would go up 65,000 over 
the next 5 years, beginning with 37,000 troops in fiscal year 
2008. It's my understanding that only 7,000 troops are being 
paid for in this base budget. Is that correct?
    Secretary Gates. There is a small amount--I'll try to 
answer, and then ask Ms. Jonas, I think there's a small amount 
in the fiscal year 2007 emergency supplemental, just to get 
started, in terms of facilities and so on. The troops will be 
recruited at a rate of 7,000 a year for 5 years. So, the 
funding for the base budget in fiscal year 2008, as I 
understand it, is for the first tranche of the 7,000 of the 
final 35,000.
    Ms. Jonas. Yes, Senator Reed, just to clarify, there's 
$12.1 billion in the base budget for the increase of 7,000 Army 
and 5,000 Marines, and that carries through the FYDP. The 
additional amount we have been carrying in the supplementals, 
36,000 Army and 9,000 Marines. That will appear in the 2007 
supplemental and also in the fiscal year 2008 global war on 
terror, which this committee will have. But it all becomes 
permanent in the 2009, every part of that. So, but----
    Chairman Levin. Could you just----
    Ms. Jonas. Yes, sir.
    Chairman Levin. I think some know what global war on terror 
means, but----
    Ms. Jonas. I'm sorry----
    Chairman Levin.--why don't you explain for the record.
    Ms. Jonas. Yes, I'm sorry. The global war on terror 
request. So, we have the full-year request that we're asking 
for from this committee, of $141.7 billion. Included in that is 
a portion of the over strength of 36,000 and the 9,000.
    Senator Reed. So that the request this year in this budget 
is the 7,000 additional soldiers.
    Ms. Jonas. The 5,000 marines.
    Senator Reed. 5,000 marines.
    Ms. Jonas. Yes, sir.
    Senator Reed. In the 2009 budget?
    Ms. Jonas. Yes.
    Senator Reed. The request will be for how many forces?
    Ms. Jonas. You will have the 7,000 Army, 5,000 Marines; in 
addition, the over strength that had been carried in the 
supplemental, of 36,000 Army and 9,000 Marines, will be 
included in the base. So, it will all become permanent.
    Senator Reed. So that you pull it out of the supplemental, 
put it in. That gets us to the point, where are we with respect 
to the increase in the Army? Are we going to 7,000 additional 
troops?
    We are carrying troops on the Army roles now in the 
supplemental, about 30,000-plus?
    Ms. Jonas. 36,000, sir.
    Senator Reed. 36,000 troops. The increase that the 
Secretary talked about was an additional, roughly, 37,000 
troops, correct?
    Ms. Jonas. There are two pieces.
    Senator Reed. Yes.
    Ms. Jonas. The 36,000 in the over strength for the Army 
which is carried in the supplemental, and that the Secretary 
just talked to you is an additional 7,000 Army.
    Senator Reed. Right.
    Ms. Jonas. For--yes, okay.
    Senator Reed. Fiscal year 2009.
    Ms. Jonas. Yes.
    Senator Reed. 36,000 troops that are in the supplemental 
roll into the baseline budget.
    Ms. Jonas. Yes, sir. Yes, Senator.
    Senator Reed. 7,000 plus 7,000 troops that are carried 
forward--new troops that carry forward from this 2008 budget.
    Ms. Jonas. Right.
    Senator Reed. Plus another 7,000 troops that will be 
recruited, is that correct?
    Ms. Jonas. There's only one 7,000.
    Senator Reed. Okay. So, that's----
    Ms. Jonas. We'd be happy to provide you a chart of all 
this, sir----
    Senator Reed. So, at the end of 2009, we have plus-42,000 
troops that are in the budget, regular Army troops.
    Ms. Jonas. Yes, sir.
    Senator Reed. I'm just trying to understand how that 
equates with an increase of 65,000 over 5 years, Mr. Secretary.
    Secretary Gates. We're starting with 482,000 as the Army 
base. An additional 30,000 were authorized in an earlier 
supplemental. That would take the Army to 512,000. Beginning in 
fiscal year 2008, we will begin recruiting 7,000 a year for 5 
years. That will take the Army to 547,000 in a 5-year period. 
Beginning in fiscal year 2008, the 35,000.
    Senator Reed. So, the 5 years really is that it's--it's not 
7,000 a year, it's maintaining a plus-7,000 over 5 years.
    Secretary Gates. Yes, it's the 30,000 that has been made 
permanent from the supplemental, plus 7,000 a year for 5 years, 
so a total of 65,000.
    Senator Reed. What are the chances of that transfer being 
delayed again, as it has been over the last several--Mr. 
Secretary, many on this committee have urged that that 
supplemental increase in forces that's paid by the supplemental 
should be in the permanent budget. Once again, that decision 
was not made. In lieu of that, there was a 7,000 increment in 
the baseline budget, I think. My concern, obviously, is that 
every time we come up to this tough budget decision, which 
takes money from other Services, potentially, or at least 
raises the bottom line of the Service, we tend to punt, as we 
are doing this time.
    Secretary Gates. Senator, this is an issue that I had some 
feelings about before I ever was asked to take this job, and I 
feel strongly about it. I will tell you, it'll be in the budget 
as long as I'm Secretary.
    Senator Reed. I hope so, Mr. Secretary.
    This is another issue of, the numbers. As I understand it--
and, Ms. Jonas, you can correct me--the budget includes $142 
billion for spending related to operations in Iraq and 
Afghanistan.
    Ms. Jonas. That's for 2008, yes, sir.
    Senator Reed. For fiscal year 2008.
    Ms. Jonas. Yes.
    Senator Reed. Plus a $93 billion supplemental for those 
related costs?
    Ms. Jonas. That's correct, in fiscal year 2007.
    Senator Reed. For a total in this budget, going forward, up 
until September 2008, costs related to Iraq and Afghanistan of 
about, if I do the math correctly, roughly $230 billion?
    Ms. Jonas. Yes, sir.
    Senator Reed. That's correct? You're showing a projection 
of war costs in the following budget, in fiscal year 2009, of 
$50 billion?
    Ms. Jonas. Yes, sir. That was OMB's decision to do that.
    Senator Reed. So, we go from $230 billion thats already on 
the table, and suddenly we go from $230 to $50 billion? How 
realistic is that assumption?
    Ms. Jonas. Sir, we were asked to do the best we could, gave 
our best judgment as to what we would require in fiscal year 
2008, and I think, as the Secretary has indicated, we're sure 
that the conditions will change, and that will be subject to 
some adjustment. I think we would be far less precise about 
predicting out in fiscal year 2009.
    Senator Reed. Frankly, if you looked at the level of 
spending--estimates in actual spending, it's always been up, 
not down. So, if I were a betting guy, I'd bet that it's not--
if it's $243 billion in this budget cycle, and it's not $50 
billion, it's probably $240-plus billion. Was that decision 
made by OMB to provide room for permanent tax cuts and for 
projected paper savings on the deficit?
    Ms. Jonas. Sir, I don't know, I've had no conversations 
with OMB about that.
    Senator Reed. Mr. Secretary, have you had any 
conversations?
    Secretary Gates. No.
    Senator Reed. Mr. Secretary, did you give them a number of 
projected spending for the follow-on budget?
    Secretary Gates. Not that I'm aware of.
    Ms. Jonas. No. No, sir.
    Senator Reed. So, this $50 billion is a fiction that has 
been agreed to by OMB.
    Ms. Jonas. What we have provided, sir, is--we've been 
asked, as provided in section 1008 of the NDAA, was to try do 
our best to give you a good projection, with detail to the 
budget. We believe we've done that for fiscal year 2008. I 
think that would be very difficult to do for fiscal year 2009 
with a detailed justification for fiscal year 2009.
    Senator Reed. I don't know, but General, I would have 
presumed that you have force-structure plans and a campaign 
plan that stretches out at least through 2009 into 2010. Is 
that fair?
    General Pace. Sir, the----
    Senator Reed. Rotation of troops and forces, at least 
conditional.
    General Pace. The force structure from fiscal year 2009 on 
is going to be in the budget as----
    Senator Reed. No, I'm talking about your projected force 
structure in Iraq and Afghanistan. Do you have a campaign plan 
that goes beyond September 1, 2008?
    General Pace. Do not have a campaign plan, sir, but if--for 
planning purposes, as we answer questions about what the 
future's going to hold, we are saying that what we have 
committed now is what we use to plan to. Not that we're saying 
that that's a decision, but what we have is what we have. 
Trying to argue it's going to go up or go down makes no more 
sense than having it stay stable----
    Senator Reed. All right, so----
    General Pace.--so we have it stay stable.
    Senator Reed. So, for operational planning purposes, you're 
looking at roughly 140,000 troops in Iraq, and yet, the 
budget----
    General Pace. No, for funding--I'm sorry, sir.
    Senator Reed. No, what are you looking at, past September 
of fiscal year 2008?
    General Pace. For funding purposes, we project straight 
line, so we have a base, off of which to go up or down, sir. 
That's as simple as it gets.
    Senator Reed. How many troops do you have projected to be 
in Iraq October 2008 and November 2008?
    General Pace. Sir, do not have a projection of troops, per 
se. Have a projection of continuing to spend about $7 billion a 
month----
    Senator Reed. Okay.
    General Pace.--on the war. It's a fine point, but it----
    Senator Reed. If I do the math, $7 billion a month is about 
$84 billion, and that's a little more than $50 billion.
    General Pace. Yes, sir.
    Senator Reed. So, there seems to be a huge disconnect 
between your plans and what OBM is showing as the cost.
    General Pace. Projection, if I could just--projection, sir, 
not plan.
    Senator Reed. Okay.
    My time's expired. Thank you.
    Senator Lieberman. [presiding]. In the absence of Senator 
Levin, who's had to leave the room for a while, I thank Senator 
Reed and call now on Senator Thune. [Audience interruption.]
    Ma'am, we're going to ask you to please be quiet or we will 
have to remove you from the room. Will the Capitol Police there 
please take action so Senator Thune can proceed with his 
questions. Thank you.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    General, thank you for your service. Mr. Secretary, thank 
you for your testimony today, as well, and for giving us an 
idea about where the DOD tends to go with the budget in the 
upcoming years.
    Secretary Gates, I know that it's difficult, with the ever-
changing situation on the ground, to get accurate estimates and 
knowing what future costs of operations in Iraq and the global 
war on terror, I'm sure, is no easy task and very difficult to 
predict. You stated in your testimony, however, that in fiscal 
year 2007, the emergency supplemental request is $93.4 billion 
and that that's all--and $70 billion you add to that in 2007, 
that's already been appropriated, brings the total war-related 
cost to about $163.4 billion for fiscal year 2007. The fiscal 
year 2008 global war on terror request is $141.7 billion, or 
$21.7 billion less than the fiscal year 2007 request. So I 
guess my question is, how do you explain a 13 percent decrease 
in the global war on terror request for fiscal year 2008 when, 
in fact, we're increasing troop strength and support in the 
region?
    Secretary Gates. I don't have the figure for the enacted 
fiscal year 2007 budget, but I know that, for the supplemental, 
we have $34.4 billion budgeted for operations. So, of the $93.4 
billion in the supplemental, $34.4 billion is actually for 
operations, and then the rest if reset and readiness, force 
protection, and so on. In the fiscal year 2008 global war on 
terror budget, of that $141.7 billion, about $65.7 billion is 
budgeted for operations. So, I don't know what the enacted 
figure was for 2007, but if you look at the difference between 
the fiscal year 2008 global war on terror budget and the fiscal 
year 2007 supplemental, it's almost twice as much in fiscal 
year 2008. Maybe Ms. Jonas could actually shed a little light 
on this subject.
    Senator Thune. Ms. Jonas, could you respond to that?
    Ms. Jonas. Okay. Thank you, Senator. [Laughter.]
    For 2008, if you looked in our operations costs, you'd come 
to a total of about $69.9 billion, if Congress acts favorably 
on our request. What we've asked for----
    Senator Thune. So $69 billion, you said?
    Ms. Jonas. $69.9 billion for operations, if Congress 
appropriates what we're putting before them now. In fiscal year 
2008, what we project is about $70.6 billion for operations. 
Your differences, the reasons that you're going to have 
differences are in policy--some of the policy changes. For 
example, your security forces numbers will go down. We project 
about $12.9 billion for security forces for fiscal year 2007, 
going down to $4.7 billion in fiscal year 2008. Then the pieces 
that we've been discussing here with regard to enhancing the 
forces, including the $5.6 billion for the reinforcement or 
plus-up, and we also have included in the 2007 an acceleration 
of two brigade combat teams and one regimental combat team. So, 
there are a few differences there.
    Senator Thune. When you said ``security force,'' which 
security are you referring to?
    Ms. Jonas. The Iraq and Afghan security forces.
    Senator Thune. So, we're assuming----
    Ms. Jonas. The training funds.
    Senator Thune.--that's going to go down a lot once 
they're----
    Ms. Jonas. Yes, sir.
    Secretary Gates. Actually, there's an imbalance in fiscal 
year 2008. The Afghans are actually getting quite a bit more 
than the Iraqis are.
    Senator Thune. Okay.
    General Pace, you had mentioned in your testimony that the 
global war on terror request includes a total of $51.5 billion 
to reconstitute our joint forces. This ground may have been 
plowed already, but I'd be interested in knowing what portion 
of that request is going to go to National Guard and Reserve 
units to improve warfighting readiness, and, second, to repair 
or replace equipment that has been lost or damaged in combat.
    General Pace. Senator, if I may ask Ms. Jonas to answer 
this specific question, because I know them--the macro number, 
and I don't want to misstate. I know that there's $21 billion 
going to the National Guard and Reserve, but that's on top of 
some $15 billion that's already been spent, so that adds up to 
$36 billion. Rather than start doing pluses and minuses, 
perhaps I can get a precise answer from her.
    Senator Thune. Okay.
    Ms. Jonas. Thank you, Senator.
    In total, for the base budget for the Army National Guard 
and the Air Guard, over the fiscal year 2008 to fiscal year 
2013 period, we have about $27.2 billion budgeted. In the 
fiscal year 2007 supplemental for the Army Guard, we have 
another billion, and for the fiscal year 2008 global war on 
terror, we have--meaning the request that's before you for 
fiscal year 2008 global war on terror, another $2.7 billion. On 
the reset costs, we had appropriated to us in title IX about 
$23.6 billion, and we're requesting in this supplemental 
another $13.9 billion. So, that would bring the total cost to 
about $37.6 billion for fiscal year 2007. Then, as we've 
discussed here, we've basically have about a $38 billion--$37.6 
billion also in reset for fiscal year 2008 in the global war on 
terror.
    Senator Thune. A follow-up question to that, does 
reconstituting the force include replacing weapons systems lost 
in combat with next-generation-technology weapons systems? Is 
that contemplated?
    Ms. Jonas. Senator, we have, in the past, upgraded, for 
example, helicopters, when certain helicopters have been lost 
in combat, we have replaced them with the V-22. One of the 
items in this supplemental, there are two Joint Strike 
Fighters, which I know is of some concern to some Members of 
Congress. The Air Force was asking for those replacements for 
three F-16s that have been lost in combat, and their concern is 
that we don't have an open production line for the F-16s. There 
is a foreign military sales open line, but we understand that 
that decision will have to be made by Congress.
    Senator Thune. So, the answer is yes, at least to some 
level.
    Ms. Jonas. Yes, sir.
    Senator Thune. Okay.
    Secretary Gates, the Army and the Marine Corps both are, as 
we all know, in a state of transition, both with regard to 
doctrine and equipment. In your testimony, you had mentioned 
that we'll spend about 4 percent of our GDP on defense, and 
that that is a lower percentage than what we've spent during 
other times of conflict. If you look back--and I have some data 
going back from 1940 on--in World War II, we were spending over 
a third of our GDP, and throughout other periods in history, 
including from the Cold War and post-Cold War period, we were 
spending considerably more than that. That dropped off in the 
mid/late 1990s. But at a 4-percent-of-GDP investment in our 
military, will the Army and the Marine Corps have enough 
funding to, one, fight the war on terror, two, meet 
recapitalization requirements, and, three, be able to 
transition to new weapons systems, like the Army's future 
combat system, without having to make cutbacks to the program?
    Secretary Gates. Senator, my understanding is that--and I'm 
not quite sure what percentage of GDP the budget you have in 
front of you for fiscal year 2008 represents, but enactment of 
the three pieces before you--the fiscal year 2008 base budget, 
the fiscal year 2008 global war on terror piece, and the fiscal 
year 2007 emergency supplemental--would meet all those needs, 
yes, sir--and I'm not quite sure what percentage of GDP the 
budget you have in front of you for fiscal year 2008 
represents, but enactment of the three pieces before you--the 
fiscal year 2008 base budget, the fiscal year 2008 global war 
on terror piece, and the fiscal year 2007 emergency 
supplemental--would meet all those needs, yes, sir.
    Senator Thune. Thank you, Mr. Chairman.
    Thank you. Thanks to the panel.
    Senator Lieberman. Thanks, Senator Thune.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    Secretary Gates, do you know, or perhaps you would maybe 
want to defer this to Ms. Jonas, what percentage of the fiscal 
year 2006 money that was spent by DOD was spent competitively?
    Ms. Jonas. Senator, we'd have to get back to you. I don't 
have that at my disposal here, but we've be happy to get that 
for the record.
    [The information referred to follows:]

    Department of Defense (DOD) reported 62.4 percent of total contract 
dollars were competitively awarded in 2006. Dollars awarded by another 
agency on DOD's behalf are not included in these calculations (see 
Note).
      Note: Our procurement database has a degree of reporting 
inaccuracy and there are differences of opinion as to how to measure 
competition. For example, DOD traditionally has considered orders made 
utilizing the Federal Supply Schedules as competitive. Others argue we 
should not consider these awards as competitive.

    Senator McCaskill. What percent of the money that the DOD 
spent in fiscal year 2006 was spent through interagency 
contracts?
    Ms. Jonas. Again, I would have to ask our acquisition, 
technology, and logistics (AT&L) folks to help with that. We 
could certainly get that for the record.
    [The information referred to follows:]

    In fiscal year 2006, approximately 6 to 7 percent of Department of 
Defense funds were spent through interagency contracts.

    Senator McCaskill. How much money was spent on sole-source 
contracts?
    Ms. Jonas. I'd have to again, I'd defer to our AT&L folks, 
they would have that data. I'm glad to provide that for the 
record.
    [The information referred to follows:]

    The Department of Defense (DOD) reported that 37.6 percent of total 
contract dollars awarded by DOD in 2006 were not competed (see Note).

         23.2 percent of dollars were attributed specifically to 
        actions citing the Competition in Contracting Act ``only one 
        source'' authority.
         6.1 percent of dollars were justified by other statutory 
        exceptions to competition.
         2.1 percent of dollars were follow-on actions to prior 
        competitions that are placed with a particular contractor to 
        continue or augment a specific competed program.
         6.2 percent of dollars were awards to Government activities, 
        mandated by international agreements, authorized by statute, or 
        were brand name purchases for resale in commissaries and 
        exchanges.

      Note: Our procurement database has a degree of reporting 
inaccuracy and there arc differences of opinion as to how to measure 
competition. For example, DOD traditionally has considered orders made 
utilizing the Federal Supply Schedules as competitive. Others argue we 
should not consider these awards as competitive.

    Senator McCaskill. Okay. The other one that I have 
specifically is how many Antideficiency Act (ADA) violations 
have been found on behalf of monies--personnel working for the 
Government, either in the DOD or in other agencies, in spending 
DOD dollars?
    Ms. Jonas. The overall figures would probably be held by 
OMB. I could get, for the record--we do review the 
antideficiency cases as a routine, and we try to make sure that 
people who violate those rules are held accountable for that. I 
can get you the specific number of cases for the record.
    [The information referred to follows:]

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator McCaskill. I would like, from your office, the 
numbers as to how many have been referred, how many 
investigations have been done, the average length of time those 
investigations have taken, and what has happened as an end 
result of those investigations. I'm particularly interested in 
how many are reversed with accounting entries. When we have 
expenditures in one fiscal year that is actually monies that 
were supposed to be spent in another fiscal year, and when 
they've been found out, someone has gone back in and reversed 
the accounting industry to cure it.
    Ms. Jonas. Okay. I'm unaware of that. I will tell you this, 
that we vigorously investigate these cases. I take them very 
seriously. I'd be happy to provide that data to you.
    [The information referred to follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator McCaskill. Okay. Further, have you had an 
opportunity to review the IG's report on interagency 
contracting that we have received here on this committee?
    Ms. Jonas. I have seen the data on that, yes.
    Senator McCaskill. Have you had a chance to review the 
Acquisition Advisory Panel's report--the independent advisory 
panel that has worked for 22 months and taken over 7,000 pages 
of testimony--concerning the way the DOD buys stuff?
    Ms. Jonas. I have not. I will say that the acquisition and 
procurement responsibilities are part of the AT&L section of 
the DOD. But I'd be happy to get with Ken Krieg about this as a 
concern. I know you've had AT&L witnesses up here, and we 
support your efforts there.
    Senator McCaskill. Frankly, I think it should be a concern 
for General Pace and Secretary Gates, and not just a 
department. It may surprise you to know that that Acquisition 
Advisory Panel says that you're not going to be able to give me 
the percentage of competitive spending, because it said, ``We 
can't tell, even, how much of the money that's being spent 
through interagency contracts is being spent competitively.'' 
What they have been able to tell is, in the years of fiscal 
years 2005 and 2004, that over $100 billion was being spent 
noncompetitively through the DOD. Does that sound--and that's 
without knowing how much of the interagency contracts are being 
spent noncompetitively.
    Ms. Jonas. Yes, I can't confirm that. What I can say is 
that the Defense Contract Audit Agency, which does report to 
me, evaluates about $320 billion of defense spending annually. 
Last year, they did over 35,000--actually 35,610 audits to try 
to help the DOD make sure that contracts are done correctly, 
according to the Federal Acquisition Regulations. I think they 
do a very good job. They recovered about $2.3 billion last year 
in potential costs to the Government. So, I appreciate your 
concern, and we will get back to you on that.
    [The information referred to follows:]

    The Department of Defense (DOD) reported 62.4 percent of total 
contract dollars were competitively awarded in 2006. Dollars awarded on 
DOD's behalf, by other agencies, are not included in these 
calculations. In fiscal year 2006, approximately 6-7 percent of DOD 
funds were spent through interagency contracts.
    As to whether these interagency contracts are competitive: our 
procurement database has a degree of reporting inaccuracy, and there 
are differences of opinion as to how to measure competition. For 
example, with regard to DOD funds spent through interagency contracts, 
the Department traditionally has considered orders made utilizing the 
Federal Supply Schedules to be competitive awards.

    Senator McCaskill. I have to tell you that, as somebody 
who's been auditing for a while, these reports I just referred 
to are absolutely stunning in terms of the news they deliver. 
If you think those 35,000 audits are, in fact, delivering--it's 
hard for me to believe that, if we have that percentage of our 
dollars being spent noncompetitively.
    Let me ask you specifically about the issue of 
noncompetitiveness. When we evaluate competing contracts at the 
DOD--and, Secretary Gates, you may want to address this--for 
example, when Quick Kill was selected by the Future Combat 
System (FCS) for the system that was supposed to repel rocket-
propelled grenades, a third of the members on that evaluation 
team worked for the company that received the contract. I would 
be curious as to whether or not that is common. Do we allow the 
companies that want to build these systems to be the ones to 
pick who gets to build the systems?
    Secretary Gates. Doesn't sound right to me, Senator.
    Senator McCaskill. That is a--and I noticed that the FCS in 
this budget has gone from several hundred million dollars to 
$3.7 billion. Is that correct?
    Secretary Gates. I think it's up $300 million.
    Ms. Jonas. Right. Senator, last year, I believe it was $3.4 
billion, and the increase this year is $300 million.
    Senator McCaskill. Okay. So, this system is $3.7 billion, 
and we know that a $70 million contract within there was given 
when the team that was making the technical specs and making 
the recommendations was--the huge chunk of it was, in fact, 
from the company that got the bid.
    I would be interested--Secretary Gates, would you have any 
problem in--or you may want to take time to answer this--in 
deciding that, from here on out, the companies that are 
participating in trying to win these bids can no longer be part 
of the team that decides who wins the bids?
    Secretary Gates. I would--in principle, I think that sounds 
right. I would like to look into it, myself, and find out what 
the circumstances were. The only circumstance I can think of 
would be that there's some kind of a rare technical skill that 
may not exist someplace else. Let me look into it. But, in 
principle, I think that sounds right.
    [The information referred to follows:]

    The standard Future Combat Systems (FCS) business model for 
selecting subcontracted efforts was used to select a developer for 
active protection systems. As the FCS prime contractor, Boeing has 
responsibility for selection of its subcontractors. Quick Kill was 
subsequently identified as a materiel solution to satisfy part of this 
requirement. Army has responsibility for oversight of the contractor's 
evaluation process and concurrence in the contractor's final selection 
decision. Boeing selected Raytheon from among three competitors as the 
best qualified to develop a robust, detailed active protection system 
architecture for manned ground vehicles. This effort is to be performed 
as a second tier subcontract in support of BAE, the first tier 
subcontractor that has responsibility to integrate hit avoidance 
capabilities into FCS. No employee of Raytheon participated in the 
source selection for the active protection system architecture 
developer. Following its selection of Raytheon, Boeing directed BAE to 
award a subcontract to Raytheon. The first task for Raytheon under its 
subcontract was to conduct a trade study to determine components to be 
used to satisfy the performance requirements in the architecture. 
Raytheon performed this study with oversight from Boeing, BAE, and the 
Army to ensure that appropriate processes were followed, the technical 
conclusions of the trade study were supported by the findings included 
in the trade study, and industry had fair and equitable participation. 
The Quick Kill system was identified as the FCS solution for the 
current force under the trade study. The trade study team consisted of 
30 members, including 8 members from Raytheon.

    Senator McCaskill. I especially hope that--Secretary Gates, 
that you and General Pace will take time to read the IG's 
report on the interagency contracting. I'll tell you one of 
things that stuck out in my mind, and that was the use of 
operational monies to build things and the use of service 
contracts to lease space. Let me hone in, because I know I 
don't have a lot of time--on the one example that I think is so 
egregious, and that is, to build a building--this is for the 
Materiel Command at the Fort in Virginia. They used operational 
money through General Services Administration to build a 
building. Now, I thought, well, this is obviously going to be a 
little, small building. If they are going around the 
requirements of military contracting to build a building, this 
is probably a small trailer or a modular unit. This building is 
230,000 square feet and houses over 1,400 civilian and military 
personnel.
    Now, I ran into the Secretary of the Army in the hallway 
the other day, and I told him that I may not be his favorite 
new member of the Armed Services Committee because of my focus 
in this area. I mentioned this building to him, and he looked 
at me with a perfectly straight face and said, ``Well, that's a 
temporary building.'' Now, I have to tell you, where I come 
from, a 230,000-square-foot building isn't temporary, that's 
pretty permanent. I would like to find out who's responsible 
for making that decision and why in the world, if we know why 
we need that kind of space for civilian and military personnel, 
would it be justified that--we're not talking about an 
emergency, in terms of something going on in Iraq, we're not 
talking about getting armor to our men and women in the field, 
we're talking about housing personnel. I would like a better 
answer than I've received so far as to who's responsible for 
this and what is going to be done to hold them accountable.
    Thank you. My time's up.
    Chairman Levin [presiding]. Senator, we're going to join 
you in that request. There wasn't an answer to your question, 
but it seems to me, Mr. Secretary, that the issues here are 
similar to the ones that we raised at lunch with you yesterday 
on this contracting and this offloading, which we used to call 
using other agencies' contracts, and that you really do need to 
get some answers for the record here on the number of questions 
which have been raised here.
    Senator McCaskill has a background here which is truly 
important and vital to us, and we're grateful that she's 
focusing on an area where we've spent a lot of time, but 
without, obviously, having the success which we need to have. 
So, I want to thank her, but I also want to, if you would, 
because of the way that last question was phrased, for the 
record, give us much more material in an effort to respond to 
the points that were raised.
    Secretary Gates. Yes, sir, we will.
    [The information referred to follows:]

    I cannot comment or provide the requested details at this time due 
to an ongoing investigation of a potential violation of the Anti-
Deficiency Act. The Department will be happy to brief the committee 
once the investigation is complete.

    Chairman Levin. Thank you.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Gentlemen, thank you for your continued service to our 
country. We can't overstate how much we appreciate and value 
that service.
    To both Secretary Gates and General Pace, you mention in 
your statements that the DOD is changing the way it looks at 
the employment of the National Guard and Reserve. Certainly, 
nobody can question that, over the last decade and a half, we 
have changed the way that we employ and deploy the National 
Guard and Reserve. We have made a number of changes in quality-
of-life benefits for our National Guard and Reserve, and if 
we're going to continue to be able to attract and retain the 
National Guard and Reserve, particularly in light of the way we 
intend to use them in the future, I think we have to continue 
to look at changing the benefits that are available to them, 
even though we will never, and should never, make it on an 
equal basis with the Active-Duty Force.
    I've had an amendment, for the last 3 years on the NDAA, 
that seeks to lower the retirement age for the National Guard 
and Reserve. It's the number-one issue now of the National 
Guard and Reserve, from a quality-of-life standpoint. Can you 
tell me what, if any, consideration has been given to that 
particular issue in this budget? Was there any discussion 
whatsoever about that as you prepared these numbers?
    Secretary Gates. This is a new issue to me, Senator. Let me 
ask Ms. Jonas.
    Ms. Jonas. I can get back to you, sir, on that.
    [The information referred to follows:]

    The Department has consistently opposed efforts to lower the 
retirement age for Guard and Reserve personnel due to the adverse 
impact it would have on controlling TRICARE costs. I have made Dr. 
David Chu, Under Secretary of Defense (Personnel and Readiness), aware 
of your concerns, and he would be happy to discuss this matter with you 
in greater detail.

    Senator Chambliss. Okay. We have added that amendment to 
the NDAA for the last 3 years, and it is critically important 
that we address it, and I'm amazed that it hasn't reached your 
level, Ms. Jonas.
    There are several States, of which Georgia is one, that, as 
a result of the BRAC, are going to see an influx of new troops 
coming in. We have about 10,000 new troops coming to Fort 
Benning alone with the movement of the Armor School from Fort 
Knox. As a result of that, the school systems that serve Fort 
Benning are going to have a critical shortage of space to be 
able to house the students that are going to be coming in. Now, 
I understand that not all of the 10,000 new troops will be 
coming in 1 month or maybe even 1 year, but we have been 
dialoging with the DOD on providing some funding to assist 
these school systems, in Georgia and the other States, with 
respect to the infrastructure that's needed to house those 
students.
    As best we can tell, there's about $2.4 million in the 
defense budget that is to be used for that. I'd like to ask you 
where that stands, what consideration is given to it, and do 
you think that's adequate to meet the needs that we're going to 
have here?
    Ms. Jonas. Sir, are you speaking of the impact aid?
    Senator Chambliss. No, I'm not speaking of impact aid.
    Ms. Jonas. Okay.
    Senator Chambliss. This is a different issue altogether.
    Ms. Jonas. Okay. I'll take a look at what we have in the 
budget. The $2.4 million sounds right. We'll get back to you on 
that specific piece.
    [The information referred to follows:]

    In fiscal year 2008, the Department has budgeted $2.4 million to 
ease the transition of military dependent students from attendance at 
DOD schools to attendance at local educational agencies consistent with 
section 574(d) of the National Defense Authorization Act for Fiscal 
Year 2007. The Department of Defense Dependents' Education (DODDE) will 
use these funds to share educational expertise and experience with 
school districts impacted by large influxes of students because of base 
closures, global rebasing, and force restructuring. The fiscal year 
2008 funds will be used to do initial assessments of school district 
needs and to begin developing partnerships with the affected school 
systems.
    The DODDE will first consider school districts that will be most 
impacted by force structure changes. Next, the DODDE will consider 
school districts that ask for educational assistance. Based on DODDE's 
record of building instructional programs that consistently produce 
students whose test scores are above average, the DODDE will offer 
educational enhancements and strategies to affected school systems to 
help them build instructional programs similar to those in DODDE 
schools.

    Senator Chambliss. All right. I'd like to know whether or 
not that's going to be an annual budgeted item for some period 
of time. If so, what's the length of time.
    Ms. Jonas. I can check with the folks who are responsible 
for that in the building and get back to you. I don't have any 
understanding of where that is right now, but if it's in the 
budget, the $2.4 million, I would guess it would be a 
continuing item.
    [The information referred to follows:]

    The Department will request additional funds in subsequent years as 
the troops and their families move and there is a need for such 
efforts. The goal is to ensure that the Department provides a high 
quality educational program to all military dependents regardless of 
where they live.

    Senator Chambliss. Okay. With respect to the operating 
tempo (OPTEMPO) we've seen in the Active-Duty Force, certainly 
there's no question we have seen an increase there, but, by the 
same token, with the fact that we have been wearing out the 
equipment that we're using in theater, the fact that we've had 
to change a lot of the equipment, the OPTEMPO at our depots has 
also increased significantly.
    Now, I note that there's a $51.5 billion figure in this 
budget for reconstituting our forces, and there's about a $4.7 
billion increase going to our depots. Because of the fact that 
we have seen that OPTEMPO at the depots increase, can you tell 
me what the thought process is, relative to whether or not 
we're going to be able to handle this surge in-house, or do we 
intend to contract more out, and what impact, again, does the 
DOD anticipate with respect to that ongoing surge at our 
military depots?
    Ms. Jonas. Senator, we have about $11 billion in the base 
budget for depot maintenance, and my understanding is that we 
project that they'll be operating at about 64 percent of 
capacity. So, my own understanding, and what I've been told, is 
that we should be able to handle the additional surge.
    Senator Chambliss. Do you intend to handle it in-house, or 
is there going to be a significant increase in contracting out?
    Ms. Jonas. I wouldn't anticipate that. Of course, we'd 
follow the law, which requires the 50 percent. So, I can get 
back to you, for the record, on that, but I'm sure that we 
would use the in-house capacity as we can.
    [The information referred to follows:]

    We'd use a combination of organic (in-house) and commercial based 
on the type of equipment being repaired. By law, no more than 50 
percent of the funds made available to the Department for depot 
maintenance may be used to contract for performance by non-Federal 
Government personnel. As workload demand increases, production output 
will also have to increase so equipment can be cycled back to the 
operating forces in a timely fashion. To accomplish this will require 
repair work done at a mix of organic and commercial activities based on 
the type of equipment that will need to be repaired. In April of each 
year, the Department submits a report to Congress showing the 
percentage of workload achieved organically and commercially for the 
prior year, and the percentage of workload planned for the execution 
year and beyond. This report will factor in supplemental funds for 
depot maintenance activities. Preliminary data supporting that report 
show the workload split by Military Service and Defense Agency is 
roughly 50 percent organic and 50 percent commercial.

    Senator Chambliss. The other issue, relative to depots, 
General Pace, you may be aware that at Marine Corps Logistics 
Base in Albany, we have done a lot of work for the Army, as 
well as for the National Guard. The cross-servicing issue is 
going to be critically important, particularly from an in-house 
standpoint. Has any consideration been given to the fact that 
we need to increase that cross-service work at our depots?
    General Pace. Sir, the short answer is yes, sir, and that's 
why, as you mentioned, you see what you do at Albany. As Ms. 
Jonas mentioned, the capacity of our depots is projected to be 
at about 54 percent, so there is the opportunity for more 
cross-servicing. But if I can take a second to just thank the 
great folks at Albany, because they have been doing fabulous 
work for us, and they deserve our thanks.
    Senator Chambliss. You're exactly right. If there is any 
legislative action that's necessary, obviously I hope, as we go 
through this budget process, you'll give us an indication of 
what legislation may be needed.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks, to the three witnesses, excellent testimony.
    General Pace, let me start with a specific question for 
you. I've been alarmed, and I'm sure you have, too, over the 
last 2 weeks, that four American helicopters, three military, 
one private contractor, have gone down. Apparently now there is 
a conclusion, tentative or otherwise, that those were not 
accidents, they were shot down. I presume this means that enemy 
forces have achieved some higher level of capability with 
shoulder-fired missiles. Am I right about that? What are your 
conclusions about it? Where do you think that weaponry is 
coming from? Obviously, we suspect that maybe--I suspect it may 
be from Iran; maybe it's not. What are we going to do about it?
    General Pace. Senator, first, you're right, all four have 
been accredited to enemy fire. Second, each of those 
investigations, as you would expect, is under a detailed 
investigation to figure out what they were doing at the time, 
how they were doing it, the tactics, techniques, and 
procedures. To my knowledge--I'll have to check this for the 
record, but, to my knowledge, each of those was shot down by 
small arms, not by missiles.
    [The information referred to follows:]

    [Deleted.]

    Senator Lieberman. Interesting.
    General Pace. At this point in time, I do not know whether 
or not it is the law of averages that caught up with us or if 
there had been a change in tactics, techniques, and procedures 
on the part of the enemy, which is what the investigations will 
do.
    Regardless of what the answer is to that particular 
question, the commanders on the ground have gone to--not safety 
stand-down, but stand-downs designed to share the information 
about the shoot-downs so that the pilots that continue to fly 
those aircraft have the latest information we have, and, as the 
investigations unfold, we'll make sure that it gets put into 
our training.
    Senator Lieberman. Could you indicate for the record what 
kind of protection systems those aircraft have on them? Is 
there something more than can be acquired for them if we come 
to a conclusion that the enemy forces have obtained more 
sophisticated capabilities to shoot down our helicopters?
    General Pace. I will, sir.
    [The information referred to follows:]

    The survivability and protection of rotary wing aircraft has been 
an ongoing issue since their advent in combat operations during the 
1940s. Through the Korean War, the Vietnam conflict, and the ongoing 
series of low and high intensity conflicts since then, helicopter 
losses or damage in combat continue to be an issue. The reality which 
cannot be avoided is that any slow moving, noisy, and relatively soft 
vehicle operating in close proximity to the ground and hostile ground 
forces is an inviting target for a wide range of weapons, be they man 
portable or carried by vehicles or other aircraft. Because Blackwater 
Corporation helicopters are utilized for contracted security and are 
beyond the oversight of the U.S. military, the responses to this 
question will only address protection systems for U.S. military 
aircraft.
    All tactical helicopters are equipped with a suite of Aircraft 
Survivability Systems (ASE) designed for each aircraft while performing 
their unique missions. ASE can be categorized in the three areas of 
aircraft signature reduction, situational awareness, and active 
countermeasures. To aid in signature reduction, all tactical 
helicopters are painted with non-reflective infrared absorbing paint. 
AH-64 Apache aircraft also have exhaust suppression that reduces the 
infrared signature and aids in the effectiveness of the AN/ALQ-144A 
infrared radar missile jammer on the aircraft. For situational 
awareness, all tactical helicopters are equipped with electronic 
systems that alert the aircrew of radar activity and laser activity. 
For active countermeasures when masking terrain is not available or 
time is unavailable for the aircrew to maneuver out of threat range, 
infrared radar threats can be jammed by the AN/ALQ-144A system. 
Additionally, radar threats can be decoyed by the M-130 system and 
associated chaff dispenser. There is little doubt that the significant 
ballistic tolerance to 7.62mm and 23mm weapons designed into the UH-60 
Blackhawk, the AH-64 Apache aircraft, and subsequent designs has had a 
large impact on fleet survivability and saved many lives.

    Senator Lieberman. Thanks.
    Secretary Gates, let me go to something you said in your 
opening statement, I thought quite a remarkable statement, and 
we should not let it go, at least unrepeated, which is that, 
``In December, all active branches of the U.S. military 
exceeded their recruiting goals, with particularly strong 
showings by the Army and Marine Corps,'' who are obviously 
bearing the largest burden of combat in Iraq and Afghanistan. 
How about retention? How are we doing on retention?
    Secretary Gates. Senator, they're meeting all of their 
goals on retention. The one area that the Army and the Navy 
believe is a temporary shortfall is in mid-level enlisted. Let 
me just check to make sure I get it right. It's E-5s and E-6s 
in the Army, where the retention is about 84 percent of their 
goal; and E-4s and E-5s in the Navy, which is about 89 percent 
of their goal. In some respects, the Navy figure is a part of 
their restructuring of their force, of their manpower, and the 
Army is confident that it will meet its goal. But, in truth--
and General Pace may want to say something--there's a lot out 
there in the press and elsewhere about the stress on the force 
and that the Army is broken and so on. In many respects--I'm 
told by all of the Chiefs that the best measure of the morale 
of the force is, in fact, in the retention numbers, and the 
retention numbers are excellent. That's looking back over the 
past year, which has been a pretty tough year for them. But I 
don't know, the General may want to add something.
    Senator Lieberman. I think it's a good point. That's a 
market test--and I use the word respectfully--of the morale of 
the forces, whether they want to stay in. I welcome your 
comments, General Pace, also whether you're at all alarmed 
about the slight drop below the goals in those mid-level 
positions. Obviously, those are people we would want to keep at 
100 percent.
    General Pace. Sir, the only thing I would add would be that 
this strong retention is something we should not assume, that--
--
    Senator Lieberman. Right.
    General Pace.--we need to continually check ourselves for: 
(a) the missions we're assigning our troops, and (b) how well 
we're taking care of them. One of the strong points of this 
budget is the request for funding to increase the size of the 
Army and increase the size of the Marine Corps. Soldiers and 
marines know that that will take some time to deliver, but they 
know that help is on the way. Just knowing that Congress and 
the leadership understands the need for these forces goes a 
long way in the value of service for them.
    Senator Lieberman. Good point.
    Secretary Gates. Getting back to these dwell periods that 
are goals of 1 year deployed, 2 years at home for the Active-
Duty Force, and 1 year deployed and 5 years back home, is also 
very important for retention and for their families. That's 
another reason why we changed the mobilization rules, in terms 
of how we're going to do this in the future. It'll take us a 
little while to get to where we need to be on that, but, again, 
they're both signs that things are going to get better.
    Senator Lieberman. I thank you for that.
    I want to talk about the overall budget, generally. As you 
point out, there's good news and challenging news, which is 
that the President is recommending an 11.3 percent increase in 
spending over the projected enacted level for fiscal year 2007. 
That's for next year. Overall, as you've indicated, the budget 
in the fiscal year 2008 will still be 3.8 percent, 
approximately--a little less than 4 percent of GDP, which is 
below not only the average, but certainly way below when we've 
been at war. If you look--and I honestly think that we are 
underfunding some needs we have. I think the Army needs more, 
and the National Guard needs more. I think we're heading 
rapidly to a 274-ship Navy. We're flat-funding research and 
development. If you look at the President's budget, it seems to 
me that one of the consequences of the 11.3 percent increase is 
that we're really squeezing some critical domestic programs.
    I'm about to say something that is, fortunately for you, 
outside of your orbit of responsibility, and this committee's. 
I think we have to start thinking about a war on terrorism tax. 
People keep saying that we're not asking a sacrifice of anybody 
but our military in this war, and some civilians who are 
working on it. When you put together the DOD budgets with 
homeland security budgets, we need to ask people to help us in 
a way that they know, when they pay more, will go for their 
security.
    But I want to ask, having said that, this question. Though 
I'd support more funding, I think we ought to aspire to go up 
to the 5 percent of GDP for the military and security at a time 
of war such as we're in. We obviously have to be able to 
convince our constituents and each other that you're spending 
the money we're giving you efficiently. Senator McCaskill's 
questions were excellent. I want to ask you a different kind of 
question.
    Critics will say--and it's started already on this budget--
that the DOD is still carrying on some outmoded, Cold War, 
major arms-systems programs that we really don't need anymore. 
If we stop them, it could save billions of dollars. I know 
that's a large question. I suppose, during the Service 
hearings, we'll come back and ask more specifically. But what 
would you say, when someone comes up and asks you whether--
you're asking for this increase after you've squeezed 
everything you could out of the budget that you have?
    Secretary Gates. As the chairman generously noted at the 
beginning of the hearing, I didn't put together most of this 
budget. [Laughter.]
    Senator Lieberman. You get a 1-year pass.
    Secretary Gates. But I'll tell you that I had three 
concerns when I was asked to do this job. One was whether the 
National Guard--whether the Army and the Marine Corps were the 
right size. The second was whether we were asking too much of 
the National Guard. The third was whether we were buying large 
systems that were more tied to Cold War needs than future 
needs. To be honest, I haven't gotten into it much. What little 
I have, I've been persuaded that the requirements make sense. 
But I think--I owe you an honest answer that I haven't really 
had the opportunity to satisfy myself as to the answer to your 
question, and that's clearly on my agenda. But let me ask 
General Pace his view.
    General Pace. Sir, as a taxpayer, I have to believe that 
there's money out there that's not being well spent. What's 
been visible in the process, as it's identified in the process, 
is changed. So, I feel good about the intent and the vigor with 
which those who are responsible for providing recommendations 
go after efficiencies. The Army, for example, has canceled more 
than 100 programs. But I'd be wrong to sit here and say that 
there wasn't more out there to be found. I can say: when found, 
we'll work with it, but that's about as far as I can go, sir.
    Senator Lieberman. I appreciate your answer, General Pace. 
I appreciate yours, Secretary Gates. We'll look forward, as you 
go on--as we go on this journey together, to hearing your 
evaluations of the spending of the DOD.
    Thanks very much.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I would just note, for our perspective, an interesting 
couple of editorials in the Washington Times about the overall 
rate of defense spending, which is high compared to recent 
years in real-dollar terms, but they note that, as of today, 
we're at 4.4 percent of GDP committed to defense and 19.6 
percent of our budget--total budget committed to defense. 
That's up a little from the time--at least as a percentage of 
budget. I think we got as low as 16 percent of the budget being 
committed to defense, and now, in this period of war, since 
September 11, we are up to 19 percent. But also, I would note 
that as a percentage of the GDP during Korea, we spent not 4 
percent on defense, as we do today, but 14.2 percent. During 
Vietnam, it was 9.5 percent of GDP that we spent on that war, 
more than twice what the current rate is for this war. During 
the peak of Reagan's time there, when we were not in a state of 
active war, it was 6.2 percent of GDP. That number has 
continued to fall to 4 percent. During Reagan's period, 28 
percent of the budget went to defense, not 19 percent.
    That gives us some perspective, I think, on where we are, 
although I have to tell you, you're going to have oversight, 
dollars are going to be tough to come by. This Senator is going 
to ask tough questions, other Senators are going to ask tough 
questions. We have to be sure we're not, even in this period of 
hostilities and soldiers at risk, wasting a dime. Just not 
wanting to do it.
    One of the things that troubled me, General Pace, is 
interagency support for the military. I know there's a lot of 
reasons for the difficulties that we've had. I'm just very 
uneasy about it, for several reasons. One is, under our plan, 
other agencies are expected to do things. In other words, when 
we develop a plan for Iraq in reconstruction and law and 
agriculture, we expect these other agencies to produce. That 
was the original plan. However, they're not really producing 
well at all, and it's falling on the DOD. For example, are you 
familiar with the DOS memorandum of January 25, 2007, to 
William Marriott, Executive Secretary, the Office of the DOD?
    General Pace. I am, sir. That's the one requesting 
assistance for the PRTs.
    Senator Sessions. I find it--yes--very troubling, because 
my understanding was that the DOS would organize other agencies 
and produce PRTs, which are critical to a peaceful and 
prosperous Iraq, at least they have been in our plans. They had 
to be deployed rapidly. But my understanding is that the DOD, 
the military, your soldiers, are overwhelmingly providing the 
resources to operate those, and not these other agencies. Could 
you give us a factual rundown on how that's developing?
    Secretary Gates. Maybe I could, Senator, since I've gotten 
involved in this, personally. Let me say a word, and then 
invite General Pace to comment.
    If you were troubled by the memo, that was mild compared to 
my reaction when I saw it, because, out of 129 positions that 
were being requested, I think 120 or 121 were being requested 
from the DOD for the PRTs, and for a period of 9 months to a 
year, which was contrary to my understanding.
    I've talked with Secretary Rice about this, personally, and 
I've been assured that the memo did not accurately reflect what 
their request to us is. They are asking for some help, but for 
a period of 30 to 60 days, or 60 to 90 days, while they recruit 
people from other parts of the Government, get them the right 
clearances, and so on; and, also, perhaps, up to 6 months to 
enable them to get contractors, who will have to be cleared and 
go through various procedures and so on. So, it's still a big 
number. Compared to the number of forces we have over there, 
it's a modest number. It's important to us to make sure that 
these PRTs work. Even with the shorter timelines that Secretary 
Rice has assured me are the case, it is illustrative of the 
problem that you were talking about, and that Senator Dole 
discussed earlier, in terms of the difficulty of getting other 
agencies to provide people on a timely basis. It's one of the 
reasons behind the idea of this Civilian Reserve Corps that 
people who could be called on short notice to do this. But 
these PRTs are critically important in both Iraq and 
Afghanistan, and having the civilians who can come in behind 
our military forces and do that, so that it isn't just our 
National Guard civic affairs officers and people like that who 
have to do it, is really important. We're happy to help in the 
short-term, but it's a government problem.
    General Pace. Sir, this is not at all a fingerpointing 
exercise, this is about the current status of our Government to 
be able to respond, and it goes to the expeditionary nature, or 
lack thereof, of most of the departments in the government--
understandably, based on the kind of wars we've faced in the 
past. This is totally different. If we're going to be able to 
prevent having to send thousands of troops, we need to be able 
to get folks over to be able to help with judiciary systems, be 
able to help with engineering, be able to help with electricity 
and the like, before a country devolves into a state where the 
terrorists can find a home. Because of that, and because of our 
current state, leads to the DOD asking us for this short-term 
help, which includes, as you see on the list, everything from 
engineers to folks who know how to manage governments to----
    Senator Sessions. Veterinarians.
    General Pace.--veterinarians, a whole----
    Senator Sessions. Public health advisors.
    General Pace.--yes, sir--a whole list of individuals who--
reasonably, we should expect the U.S. Government to provide 
from other than the U.S. military. So, my recommendation would 
be, sir, that we embrace this as a problem that needs to be 
fixed, that we take a look at who's able to deploy now, and 
who's not, and that we devise a plan for our Government that 
allows us to deploy. By the way, if we're going to ask Mr. 
Pace, from Department of Treasury, to go someplace, does he 
have the same benefits that General Pace has when I deploy? Is 
my family going to be taken care of? Is my medical going to be 
taken care of? If I get killed serving my country, will there 
be insurance? There's a whole list of things that we should 
take a look at, that we do for our military, that we are not 
currently doing for our civilians, and then help close that 
gap, because this will not be won militarily. Security can be 
provided militarily, but we're going to prevail in the war on 
terrorism through all the other kinds of capacities that are on 
that list, and the U.S. military is not the best instrument to 
do that.
    Senator Sessions. Secretary Gates and General Pace, either 
one of you, it seems to me that if we created, within all these 
agencies, certain designated slots--and maybe this is what the 
President's thinking about--that were called ``expeditionary 
slots,'' and, if you didn't want those jobs, you didn't take 
them, but, if you took them, perhaps you have better pay and 
you had to do some extra training, maybe with the military, so 
that you could be deployable to tough areas of the globe, where 
you may not have running water, and you may have to live in 
substandard housing, and you may have to be at risk, and you 
may be in some danger, and that people would voluntarily sign 
up for that, and they, then, wouldn't be able to object if 
called upon to go. Is something like that possible?
    Secretary Gates. I think so, Senator. I think that this is 
a matter of sufficient importance to both Congress and the 
executive branch, that this is an area where we, speaking for 
the DOD, because we obviously are the most affected by it, 
would be very happy to work with both you all and others in the 
executive branch to see if, together, we can figure out a way 
to solve this problem.
    Senator Sessions. Do you have any other ideas or thoughts 
about it?
    Secretary Gates. We talked about a few, with Senator Dole, 
in terms of whether there's some additional authorities that 
need to be given to the executive branch, in terms of being 
able to shift money from one Department to another. In other 
words, there are some of these things, where, frankly, if DOS, 
the Department of Treasury, or the Department of Agriculture 
had the people, we'd rather be able to transfer some of our 
money to them to help pay for it rather than send a soldier to 
do the job. So, there may be other options like that. But I 
think the first thing to do is--for a group of people to sit 
down and start putting together some options of how you'd go at 
this problem.
    Senator Sessions. Thank you.
    Chairman Levin. Following that up, can you report back to 
us on what effort will be made, along the lines that Senator 
Sessions has suggested?
    Secretary Gates. Sure.
    Chairman Levin. Could you take that up at the Cabinet 
meeting?
    Secretary Gates. Sure.
    [The information referred to follows:]

    Department of Defense (DOD) civilian employees have a long history 
of providing key supporting roles in accompanying the military on 
deployments around the globe. Current strategies rely on a mix of 
military members, DOD civilian employees, and contractor employees to 
ensure success. The DOD monies for civilian employees could be emulated 
by other agencies, and I will raise that issue at the cabinet level.
    Title 10, U.S.C., section 1580, authorizes the Secretary of Defense 
to designate as Emergency-Essential (E-E) any employee whose position 
provides immediate and continuing support for combat operations or 
support for maintenance and repair of combat essential systems of the 
Armed Forces, and whose duties must be performed in a combat zone after 
the evacuation of nonessential personnel from the zone in connection 
with a war, a national emergency declared by Congress or the President, 
or the commencement of combat operations of the Armed Forces in the 
zone. E-E employees are deployed to or retained in the zone as needed 
to support the operations.
    Generally, such E-E positions are designated in advance of hiring. 
As a result, when employees are hired for these positions, they 
understand the terms and conditions of their assignment. Current DOD 
policies regulate this authority, requiring E-E employees to sign an 
agreement to deploy or remain in place as the situation dictates. When 
positions are designated E-E subsequent to a hiring action based upon 
an emergent requirement for immediate and continuing support of combat 
operations, current DOD policy provides for advance notice to an 
employee, and the opportunity to seek volunteers for the position. When 
volunteers are not available to meet the requirement, DOD has the 
authority to compel the assignment of the DOD civilian to the E-E 
requirement.
    Prior to their deployment assignments, civilian employees undergo 
readiness processing and instruction, including specialized in-country 
training. For example, as part of their pre-deployment processing, DOD 
employees assigned to Iraq Provisional Reconstruction Teams (PRTs) 
receive the following:

         Department of State at the Foreign Service Institute--
        training on interagency engagement in the PRT effort;
         Department of State Foreign Area Counter Threat--training 
        designed to prepare employees entering areas of a higher risk/
        danger for terrorist activities;
         Army CONUS Replacement Center Pre-deployment Readiness 
        Processing--provides medical screening, outfitting, equipment 
        training, and validation of documentation prior to deployment; 
        and
         National Coordinating Team--specialized in-country training 
        on cultural and role awareness.

    The Department has been successful in enhancing benefits and 
incentives for deployed civilians. Many of these resulted from 
legislation while others required policy changes. The provisions of S. 
2600 (introduced by Senator Warner in April 2006), were incorporated 
into the Emergency Supplemental Appropriations Act for Defense, Global 
War on Terror and Hurricane Recovery Act 2006 (Public Law 109-234, 
section 1603). This provision authorized the Secretary of Defense to 
provide the same allowances, benefits, and gratuities which were 
currently provided to members of the Department of State Foreign 
Service who were serving the United States Government in Iraq and 
Afghanistan. The attached paper summarizes the allowances, benefits, 
and gratuities available for those civilian employees deployed to Iraq.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        Senator Sessions. I know Senator Levin has expressed some 
concern about this also, and maybe it's something we could 
facilitate, if you'll help us.
    Secretary Gates. This is an area of some real opportunity. 
The President raised it with the Cabinet yesterday, of the need 
for others to step up.
    Chairman Levin. If Senator Bayh would yield for just 1 
minute, Senator Warner would bring us up-to-date on some 
legislation we passed in this area.
    Senator Warner. This very issue was before the committee, 
and I solicited views of all the Cabinet officers, came back 
and wrote a bill, the bill passed, as to how to do these 
things. I know the President held a Cabinet meeting, was very 
assertive in the need to get done what you've described. So, I 
guess we have to go back and dig the corpse up and start all 
over again. [Laughter.]
    But we tried, on this committee, to do the very things that 
our colleagues said.
    Chairman Levin. We did it under Senator Warner's 
leadership, and perhaps you could bring us up-to-date as to 
what it led to.
    Secretary Gates. Yes. We'll find out.
    Chairman Levin. Thank you. Mr. Secretary, thank you.
    Thank you Senator Bayh.
    Senator Bayh. Thank you.
    Thank you all for your time today. I have one comment and 
three quick questions I hope we'll be able to get through.
    Mr. Secretary, I'd like to start by thanking you for your 
prompt response to the request that Senator Clinton and I 
submitted to you following our visit to Afghanistan. This was a 
country from which we were attacked. Many of us feel that it 
has been under-resourced, and we are at a critical juncture, 
and we need to step up to try and make sure that events there 
go in a better direction. So, adding the additional troops and 
other resources, we think, is vitally important.
    One thing I would like to ask you to follow up on--I think 
General Pace mentioned this in his submitted testimony, and we 
heard this very clearly from both our military commanders and 
our intelligence officials--there still aren't the Predator 
assets that we need to make the most of our opportunities 
there. This is a weapons system that kills terrorists in real 
time, and 6 years into this thing, it's somewhat mindboggling 
to me why we still don't have enough of those assets deployed 
in the hands of our commanders. So, I hope you'll follow up on 
that and tell us what we can do to rectify that situation.
    Secretary Gates. I would just comment, this is an area that 
I did look into, because they do seem so valuable to me. I 
heard plenty, in both Iraq and in Afghanistan, about the need 
for them. What I'm told is that the pipeline for production is 
completely full and out for several years. I think that there 
has been a reluctance--not knowing how long this war was going 
to go on, a reluctance to expand capacity at the factory. I 
think we now need to revisit that and look at it.
    Senator Bayh. I hope you will.
    There seems to be some--and I don't want to run out my time 
or my three questions, Ms. Jonas. Maybe we can follow up 
later--there seems to be, at least on the part of some of our 
people who have handled these kind of issues before, that 
perhaps on the private side they say the pipeline is full, but 
some things can done to expand the pipeline. Let's follow up on 
that.
    [The information referred to follows:]

    The Department of Defense (DOD) continues to explore all available 
means to accelerate the delivery of MQ-1 Predator unmanned aircraft 
systems (UAS) Combat Air Patrols (CAPs) to the Commander U.S. Central 
Command. In 2005, the Joint Requirements Oversight Council validated a 
Quadrennial Defense Review requirement for 21 MQ-1 Predator CAPs of 24 
hours per day, 7 days per week operations. The Air Force, using Air 
Combat Command (ACC), Air Force Special Operations Command (AFSOC), and 
Air National Guard (ANG) crews, currently provides 12 CAPs in Central 
Command's area of responsibility. The current Air Force plan is to grow 
available Predator CAPs to 16 by the end of fiscal year 2008 and 21 by 
the first quarter of fiscal year 2010.
    Aircraft production is not a limiting factor. In 2006, the Defense 
Contract Management Agency (DCMA) completed an industrial capacity 
assessment of General Atomics Aeronautical systems (GA), the 
manufacturer of the MQ-1B Predator, MQ-9 Reaper, and Army's MQ-1C 
Warrior. DCMA confirmed GA has excess production capacity to meet all 
planned procurements identified in the FY08 President's Budget.
    The most significant issue in expanding available Predator CAPs is 
training enough qualified crews to operate Predator. Last year, the Air 
Force trained 120 aircrews (with each crew consisting of one pilot and 
one sensor operator) to meet Predator crew requirements. Even though 
we've doubled aircrew training capacity in the last year and a half, 
the Air Force is taking action to further increase Predator crew 
production.
    The Air Force recently enacted several key changes to Predator 
pilot tour assignment policy: all tour assignments (in-place and new) 
are now 36 months in duration as measured from the qualification 
training completion date, adding approximately 4 months to the typical 
tour length--effectively freezing all in-place Predator pilots until 
spring 2008. Additional tour policy changes include requiring a 24-
month time on station payback for any Predator pilot accepting an 
instructor assignment. We will also begin immediately accepting 
volunteers for extended or repeat Predator tours. The Air Force plan 
increases crew training to match aircraft production.

    General Pace. Yes, sir.
    Senator Bayh. Vitally important.
    My three questions. First, following up on a couple of 
comments by my colleagues. Senator Nelson, from Florida, asked 
you about the reliability of Iraqi troops. I'd like to ask you 
about the reliability of the Iraqi political leadership. I 
think we all acknowledge that no matter what we do, how long we 
stay, how much we spend, how many of our brave forces die, this 
is not going to go well if they don't have the political will 
to get the job done. I think, Mr. Secretary, you mentioned 
that, in your opinion, it was clear that Maliki intends to 
fulfill his commitments. I'd like to ask you what are the 
reasons for your optimism there? Some of us are a little bit 
more skeptical, when you look at things like: he posted, on the 
presidential Web site last October a series of what they called 
benchmarks, which they have either not adhered to or, to me, 
looked like the path of least resistance, not some of the hard 
things that need to be done.
    Then, you look at what he said, apparently, to the 
President last November in Amman, and he said to Senator 
Clinton and myself, just a few weeks ago, which was his 
preferred course of action in Baghdad was for us to arm his 
forces more heavily and for us to get out of the way. He's 
reluctantly come around to supporting this surge, but it was 
clear from reading between the lines, that wasn't his 
preference.
    You look at some of the constraints that have been put on 
us of our ability to act in the past, why do you have 
confidence in the political leadership of the Iraqis to get 
this done?
    Secretary Gates. What I said, Senator Bayh, was that I 
believe that he had the intent to follow through on these 
commitments. I think that at times, they lack the capacity to 
follow through.
    Senator Bayh. Could I just interject for a second here? I 
always listen to what people say. I think a better indication 
of someone's intent is what they do. We have a series of 
actions here which belie what he said. Which leads me to be a 
little more skeptical.
    Secretary Gates. I think that's one of the reasons why, as 
we've discussed, it's so important to put together--and, as I 
mentioned at the beginning of the hearing, a matrix or a 
checklist that basically allows us to measure progress here 
with this Baghdad plan. The first thing that we will be able to 
measure is military performance. Are the brigades showing up on 
time? Are they fully staffed, and so on?--so we can tell 
whether the intent has led to the action. The answer, so far, 
from General Casey, is, ``So far, so good.''
    Senator Bayh. As we've discussed before, there's a military 
component to this and there's a political component to this, 
and some of those steps, in the hands of the politicians, are 
going to need to be taken if we're going to deal with the root 
causes of the insurgency, not just its superficial 
manifestations.
    So, that gets me to my second question, which is following 
up on something Senator Ben Nelson said, which was--and I never 
think we got to his question--the consequences. Senator Clinton 
has been very good on this. We can measure progress, but, if 
there aren't specific consequences for failure to make the 
decisions necessary to achieve that progress, this is not going 
to work very well.
    So, here's my question. It seems to me, for the last 
several years we've pursued the theory of reassuring them, 
telling them we're standing by them to try and boost their 
confidence so the political leaders will feel secure enough to 
take some of the difficult steps that need to be taken. That 
hasn't worked real well. Some of us have concluded that there 
need to be some specific adverse consequences for them if they 
don't start doing the right thing, making some of the hard 
decisions. What will those specific consequences for their 
failure to act be under this plan?
    Secretary Gates. If they fail to act, as General Petraeus 
told you in his testimony during his confirmation hearing, 
first, obviously, we're going to try and persuade them to do 
what they promised to do, but then there is always the 
potential of withholding assistance or of changing our approach 
over there, in terms of how we interact with that government. 
The President has said that Americans' patience is not 
unlimited. We've said from the very beginning, the success of 
this strategy is dependent entirely on the Iraqis' willingness 
to fulfill the commitments that they've made to us. If they 
don't fulfill those commitments, then we clearly have to change 
what we're doing.
    Senator Bayh. Many of us have concluded, Mr. Secretary, 
that the moment of truth has arrived, and we have to have a 
pretty direct dialogue with them and actually lay out some 
specific consequences that will matter to them so that they 
will know very clearly the price of their failure to perform. 
It's only human nature for people to take the path of least 
resistance. What we have to do is convince them that that path 
is not one that they can follow any longer. You'd think it 
would be in their own self-interest, but that doesn't seem to 
have worked. So, specific things, like cutting off resources to 
them and other things that will matter--many of us have 
concluded there needs to be a wake-up call here. I hope it will 
be something more than vague public statements, because that 
doesn't seem to have worked very well, to date.
    Secretary Gates. No, I agree with that.
    Senator Bayh. My final question has to do with what we're 
doing in Iraq and how that might affect the larger strategic 
picture with regard to Iran. We've been told that the Iranians, 
in the short run, really like the fact that we're bogged down 
in Iraq, that we're being bled both literally and financially 
there, because we can't offer the kind of credible, deterrent 
to them that they would fear. In the longer term, what they 
would like to see is an Iraq dominated by the Shiite, closely 
allied to Iran, that that's their short-term and their long-
term interest. But, in the long-term, they also fear a real 
Sunni/Shiite split across the Islamic world, because that might 
operate as a constraint to their ambitions.
    Our policy seems to have the current state of affairs in 
Iraq, suits their purposes. We are bogged down there. Might it 
not be in our interest, vis-a-vis Iran, to say, ``Look, if the 
Iraqis don't do the right thing here to give us any chance of 
success, we will begin to extricate ourselves.'' That takes 
away their short-run objective, which is bogging us down, and 
it confronts them with their long-term fear, which is a real 
Shiite/Sunni split.
    So, my question, Mr. Secretary, might it not be that the 
path that some of us have recommended to them, which is saying 
to them, ``Look, if you don't get this right, we are going to 
begin to leave,'' gives us a better chance to constrain Iran in 
the long run, because it removes their short-term objective, it 
confronts them with their long-term fear. They will never do 
anything in our best interest, but they might conclude that 
greater stability in Iraq is in their best interest and begin 
to behave more responsibly there.
    Secretary Gates. Senator, it seems to me that--in essence, 
that the debate here on the Hill is not about the war on 
terror, and is not about taking on our adversaries. At the end 
of the day, it has seemed to me that it is more about, how best 
do you incentivize the Iraqi Government to take responsibility 
for their own government and their own people so that we can 
leave? There is clearly a difference of view, in terms of how 
you do that, how you incentivize that government.
    I would say that doing it--giving the President's effort a 
try does not foreclose them being able to do the other.
    Senator Bayh. My time is expired, Mr. Secretary, but my 
point is that having specific timelines, real benchmarks for 
progress, and real adverse consequences for not doing those 
things that we could reasonably expect them do, not only 
incentivizes the Iraqis, but, if they fail, might then 
incentivize the Iranians to behave more responsibly.
    Chairman Levin. Thank you, Senator Bayh.
    One factual issue, if I could, Senator. Senator Bayh, your 
reference to that Web site, there is some suggestion that that 
was removed from the Web site. The benchmarks, to the extent 
that they existed--Senator McCain and I have written to 
Secretary Rice asking if, in fact, they were removed from the 
Web site. If so, why? So, that's a new development there, which 
I know you'd be interested in, given your line of questions.
    Senator Bayh. Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    I guess we'll talk about the budget maybe a little bit in 
the 8 minutes, but we'll pick up where my good friend Senator 
Bayh left off, because I think this is the heart and soul of 
where we're at as a Congress, where we're at as a Nation.
    One of the concerns I have is that whatever we do here, 
particularly in a nonbinding fashion, may incentivize our 
enemies. Are you concerned about that?
    Secretary Gates. Sir, I think that, from time immemorial, 
that if you think that your adversary is divided, it is a 
source of strength. I would say that there's unfortunately a 
history of our enemies misunderstanding our robust debate in a 
democracy for weakness that actually wasn't there. I think that 
as I just suggested, that there is no division and no 
irresolution and no weakness in this Government, including 
Congress, in terms of taking on terrorism, taking on our 
adversaries. So, I hope that our adversaries don't 
misunderstand this robust debate as being a sign of weakness. I 
think it's a sign of strength.
    Senator Graham. Mr. Secretary, with all due respect, one, I 
think you're doing an outstanding job with an incredibly 
difficult hand being dealt, but if we did put--some of our 
former colleagues are suggesting, of pulling out 50,000 troops 
in the next 3 months. I am no foreign policy expert or military 
expert, but if I was an al Qaeda member, I would say, ``Aha.'' 
Do you think it would be wise for us to withdraw 50,000 troops 
in Iraq in the next 3 to 4 months?
    Secretary Gates. No, sir, I don't. That's because I don't 
envision the situation on the ground improving to that----
    Senator Graham. Do you think it would be wise to tell our 
enemy, ``This war is over January 2009, no matter what''?
    Secretary Gates. I think we have said, all along, that 
having any kind of timeline is probably a mistake.
    Senator Graham. Well, see, that's the point. The point is 
that the American public is genuinely frustrated, because it 
hasn't gone as well as we'd like. How old is the Maliki 
government? How many years old is it?
    Secretary Gates. I think it's just about a year old.
    Senator Graham. It's about 9 months old, and to the 
American public, as imperfect as the Maliki government is, it's 
a heck of a lot better than anybody else in town. Whether it 
succeeds or fails is eventually up to them, but I am convinced 
that no politician in anyone's history, including ours, could 
bring about democracy with this level of violence in Iraq. Do 
you agree that the level of violence in Baghdad, and Iraq in 
general, is counterproductive to political reconciliation, at 
this point?
    Secretary Gates. Certainly, Senator.
    Senator Graham. As to this idea that the pathway to success 
and peace in Iraq runs through Tehran and Damascus, to me, is 
just naive, at best. I think the Syrians and the Iranians are 
united around one fact and one event, ``We're not going to let 
a democracy emerge in Iraq, because it's a threat to our own 
dictatorships.'' Do you agree with that?
    Secretary Gates. I've always believed, Senator, in the line 
of Frederick the Great, that negotiations without arms are like 
notes without instruments.
    Senator Graham. The reason that Syria is funding Hezbollah 
in Lebanon is not because they desire a Shiite-dominated 
Lebanon, they just fear democracy. If you're a dictator, a 
police state in Syria, your worst nightmare is not a 
dysfunctional Iraq, it's men and women getting together of 
different religious backgrounds, picking their own leaders. If 
you're a religious theocrat in Iran who wants to dominate the 
region through a Shiite theocracy that has no other place for 
any other religion, your biggest fear is: the Sunnis, the 
Kurds, and the Shiites in Iraq will actually live together in 
peace.
    So, this idea that we're going to go to Tehran and 
Damascus, and all of a sudden they're going to buy into a 
democracy in Iraq, is crazy. The only thing they're going to 
buy into, in my opinion, is a resolve by the United States 
that's unquestionable. We're in one of the biggest conflicts in 
the history of our Nation. Do you agree with that, General 
Pace? The war on terror?
    General Pace. This is a defining moment for our Nation, 
like World War II was for that generation.
    Senator Graham. Do you agree with that, Secretary Gates?
    Secretary Gates. Yes, sir.
    Senator Graham. So, here we are in one of the most defining 
moments in the history of the United States, and our spending 
on defense is below 4 percent of GDP.
    If everything works well with the surge, will we have an 
overwhelming force in Iraq to deal with the insurgency, General 
Pace? If we get every troop we can muster, will it still be 
overwhelming?
    General Pace. Let me make sure I'm hearing the question 
right. Our troops plus the Iraqi troops----
    Senator Graham. If everything works perfectly, would it 
come to the Powell Doctrine that we finally have, in Iraq, an 
overwhelming force to deal with the insurgency?
    General Pace. I cannot say yes to that, because the 
insurgency is different than the Powell Doctrine applied to 
conventional forces.
    Senator Graham. Will we have enough to meet the 
counterinsurgency doctrine of General Petraeus?
    General Pace. In pure math terms, no, sir. In terms of what 
is needed on the ground to get the job done, yes, sir, meaning 
that their talk about 50 to 1--or whatever it is to 1--that you 
need to quell a generic insurgency--we helped in El Salvador 
with 55, and that turned out the way we wanted it to, and we 
have 140,000 in Iraq, and that has not yet turned out the way 
we want it to. So, I'm just being careful not to say yes or no 
to precise math.
    Senator Graham. I understand. I guess I would just conclude 
with this whole budget debate in how to get the Iraqis to do 
better. I would like them to do better. I believe, over time, 
they will. But, if you're asking somebody, in 8 months, to 
solve a 1,400-year-old religious dispute, bring people together 
who have suffered under a dictatorship for 30 years, 
reconstruct an economy that was raped by a dictator, that's a 
pretty tall order. I am willing to give not only this new 
strategy a chance, I am willing to do whatever it takes to make 
sure we don't have a failed state in Iraq.
    Secretary Gates, is there any doubt in your mind that if we 
lose in Iraq, it becomes a failed state, that the war on terror 
suffers, and that we will be going back to the Middle East with 
a bigger war on our hands?
    Secretary Gates. If Iraq were to fall into chaos, I think 
those things would happen.
    Senator Graham. So, to my colleagues, we can't have 535 
commanders in chief, and we can't have 535 Secretaries of 
State. I hope we can muster the political will, at least for a 
few more months, to give what I think is a reasonable 
opportunity a chance to succeed. The elections are going to 
come, everybody's going to be held accountable politically for 
their positions, but what happens in Iraq is so much bigger 
than the 2008 election for anybody here, that I hope we don't 
lose sight of the big picture.
    This budget is, in my opinion, lean for the needs of this 
country at one of its most critical times, and if you need more 
money, spend what you have wisely, but never hesitate to ask 
for more.
    General Pace. Senator, may I give you a more complete 
answer on the overwhelming force?
    Senator Graham. Yes, sir.
    General Pace. Thank you.
    This isn't only about force, which is why ``overwhelming'' 
doesn't make the equation. It's about a three-legged stool: 
security, good governance, and good economy. The security plan 
that is laid out, with the forces that are allocated to it, is 
going to be sufficient to do that leg of the stool, but no size 
force, no matter how defined as ``overwhelming,'' will be 
sufficient absent the other two legs of the stool. I think 
that's a better answer to your question.
    Senator Graham. I totally agree. I would say the biggest 
mistake we have made--and I may be completely wrong--about 
Iraq, is we've always done it on the cheap, that we have never 
put in place, after the fall of Baghdad, the overwhelming force 
that would have kept the country intact. I don't want to 
compound those mistakes again.
    Thank you for your testimony.
    Chairman Levin. Thank you, Senator Graham.
    Senator Clinton.
    Senator Clinton. Thank you very much for your service and 
your patience. I'm grateful to each and every one of you for 
the work you do.
    It seems to me, Mr. Chairman, that we have a number of 
extremely important issues before the committee that have been 
highlighted by various members. We have the budget, which is 
going to deserve, and need, a lot more scrutiny. We've heard a 
lot of talk about the percentage of GDP in comparison to the 
percentage of GDP in other wars and conflicts. I might also 
add, the taxation rates were considerably different during 
those conflicts, as well. We are not paying for the military 
that we want, nor are we paying adequately for the global war 
on terrorism. So, this budget is going to have to be 
scrutinized, but we're going to be faced with the dilemma of 
whether we are adequately funding our troops and whether we 
will pay for adequately funding our troops.
    Second, we continue to have questions about how we ensure 
American troops are trained and equipped, something that I've 
raised in a series of our hearings with General Petraeus, 
Admiral Fallon, and others--General Casey, most recently--and I 
think you can hear, Secretary Gates, we're still not satisfied. 
Both you and General Pace have responded to questions, starting 
with the chairman's from the very beginning of this hearing, 
but there remains a considerable amount of anecdotal evidence 
about shortages. I will be reading the IG's report later this 
afternoon, but, from the reports that we have received, it 
appears that there was a lack of cooperation, perhaps, with 
appropriate officials in DOD and the chain of command in trying 
to get to the bottom of whether or not we have adequate 
training and equipping of our troops. So, this will continue to 
be an issue that I and others will pursue.
    We also have heard about the need to enlist the entire 
government to participate effectively in the war on terrorism, 
and, as Senator Warner said--I can remember when he was on the 
floor, introducing his bill and speaking about it--we actually 
have made a stab at this. I think it's fair to say none of us 
are either fully aware of, or satisfied with, what direction it 
has taken us. I think Senator Sessions' suggestions are really 
serious ones that should be carefully considered by the 
administration.
    Senator Warner. Senator, if you'd yield.
    Senator Clinton. Yes, sir.
    Senator Warner. I have here the reference to legislation 
and you cosponsored that legislation.
    Senator Clinton. Yes, I did.
    Senator Warner.--together with Senator Lugar and myself.
    Senator Clinton. That's exactly right. We did, under 
Senator Warner's leadership, pass that legislation, but it's 
clear that none of us has a handle on what, if anything, has 
been done to implement it. So, we really do wish to have some 
additional information and feedback on that.
    We've also begun to examine--and I appreciate very much 
Senator McCaskill's lead on this--the way our Government has 
outsourced so much of the work of preparing and defending our 
Nation to private contractors who may be neither cost-effective 
nor free of conflict. I think this will be a very important 
issue for this Congress that we will be exploring, and, again, 
looking for assistance from you.
    Finally, your words, Secretary Gates, ``how we best 
incentivize the Iraqi Government,'' there are those who think 
that the era of carrots has to end, that we've been, in effect, 
ignored by giving them a blank check and the blood and treasure 
of our Nation, especially the lives of our young men and women 
and the injured that have come home with such grievous wounds, 
and we don't believe that's an effective way to get their 
attention. This part of the world, which you have studied--you 
were certainly part of the Iraq Study Group before being asked 
to be Secretary of Defense, you know very well that--I'm not 
sure carrots are part of the diet. So, I think that many of us 
have been searching for more effective ways that can get the 
attention not only of the nominal Iraqi government, but of the 
sources that support it.
    To that end, in addition to our concerns about the attack 
on Karbala and what that meant--and I appreciate General Pace 
referencing the likelihood that it was well-organized 
insurgents, which I translate to be Sunni elements--we also are 
concerned about the Mahdi army militia obtaining not only 
trained men who we have trained, but also equipment. A recent 
article on February 2, from McClatchy newspapers, titled 
``Mahdi Army Gains Strength Through Unwitting Aid of U.S.,'' 
and ``The U.S. military drive to train and equip Iraq's 
security forces has unwittingly strengthened Sadr and his 
militia.''
    These are deep concerns to us, and we don't believe that 
we, at least speaking for myself, see much change in the 
testimony we hear, in the plans that are being implemented, as 
to how we're going to get a handle on these very serious 
challenges.
    But, Mr. Secretary, I want to change direction just 
somewhat abruptly, because I want to ask you about a letter 
that, on January 16, along with 21 of my colleagues, including 
several members of this committee, sent to President Bush 
asking for an explanation of what Plan B steps he was 
considering with respect to Darfur, including possible punitive 
military action, such as a no-fly zone or blockade of Port 
Sudan. Obviously, we are facing, once again, the repeated and 
blatant violations of numerous cease-fires, peace agreements, 
and U.N. obligations by the government of President Bashir.
    It is worth noting, I think, that this does not need to be 
a no-fly zone on the scale of what we formerly ran over Iraq, 
but could be accomplished with a significantly smaller outlay 
of resources by directing punitive strikes against Sudanese 
planes known to have taken part in illegal bombing missions in 
Darfur.
    I've made this suggestion on several occasions to our NATO 
commander in the past, and to others within the administration, 
and I'd like to ask you if you have been instructed by the 
President to begin planning or preparing any such measure, and 
whether or not you would look into that, if you have not yet 
been asked to do so.
    Secretary Gates. I have not been asked to. I would defer to 
General Pace, in terms of whether the Joint Chiefs have done 
any contingency planning along those lines. I'm certainly 
willing to pursue it.
    Senator Clinton. General Pace?
    General Pace. Have not been asked to do that, ma'am.
    Senator Clinton. I think that, obviously, from the 
perspective of many of us, the ongoing genocide in Darfur and 
the blatant refusal by the Sudanese Government to act has been 
deeply concerning. We have about 7,000 African Union (AU) 
troops there. They are the sole line of defense for the 
hundreds of thousand civilians facing genocide. Twenty million 
dollars was included in the 2007 Defense Appropriations Bill to 
provide assistance to these troops. They are obviously woefully 
underfunded, they don't have logistics support, they have no 
airlift capacity. I understand the DOS, which has been 
administering all U.S. funding going to the AU troops, has 
requested that this new $20 million be transferred to them. Is 
your office considering that request? Do you have an opinion, 
as the Secretary of Defense, whether that meets our desire, 
having put this into the DOD appropriations rather than DOS 
appropriations?
    Secretary Gates. This is the first I've heard of it, 
Senator. I'll have to look into it.
    [The information referred to follows:]

    We are aware of this requirement. My staff has prepared the 
transfer documentation, which should be signed shortly.
    These funds were specifically designated within the Defense 
Appropriations Bill to support peacekeeping operations in Sudan. In the 
future, these funds should be placed within the Department of State's 
appropriations.

    Senator Clinton. Thank you.
    Finally, Mr. Secretary, the Defense Appropriations Bill for 
Fiscal Year 2007 contains a provision I sponsored requiring the 
DOD to submit a detailed report on the DOD's role in assisting 
the parties to implement the Darfur Peace Agreement of May 5, 
2006. The report is envisioned to contain information on issues 
of critical importance to stabilizing Darfur, such as an 
assessment of assets that the U.S. military and NATO are able 
to offer the AU mission in Sudan and any efforts made by the 
DOD to leverage troop contributions from other countries to 
serve in the proposed hybrid AU/U.N. peacekeeping mission for 
Darfur. This report was supposed to be available no later than 
January 15, 2007. That was 90 days after enactment of the bill, 
as of October 17, 2006. May I ask you, Mr. Secretary, if you 
know the status of this report?
    Secretary Gates. No, ma'am, and I'll find out.
    [The information referred to follows:]

    The Report to Congress on the Implementation of the Darfur Peace 
Agreement that is contained within the Defense Appropriations Act, 2007 
(Public Law 109-289) requires coordination with the Department of State 
and that is presently ongoing. The report should be ready shortly.
    We have offered up to 11 staff officers to the Africa Union (AU) to 
assist them with Africa Union Mission in Sudan (AMIS) operations; the 
AU accepted 6. Difficulties in obtaining Sudanese visas resulted in 
only two officers being able to work at the AMIS Headquarters in Al 
Fashir. The other four officers are presently waiting in Djibouti for 
permission from the Government of Sudan to enter the country.

    Senator Clinton. I would appreciate it being promptly 
delivered to me and to this committee.
    Secretary Gates. Yes, ma'am.
    Senator Clinton. Thank you very much.
    Chairman Levin. Thank you, Senator Clinton.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    I share Senator Clinton's concerns about conditions in 
Darfur, and yesterday the Judiciary Committee, Subcommittee on 
Human Rights, had a hearing on the humanitarian crisis 
occurring there.
    I'm struck that when I visited Iraq in July 2003/August 
2003, we had an opportunity to stand on the edge of mass grave 
sites where Saddam had reportedly killed as many as 400,000 of 
his countrymen. I guess my question, since obviously, Iraq is 
on all of our minds--is, if you, General Pace, could tell us 
what sort of humanitarian crisis do you think we could 
anticipate if, in fact, the United States Government cut off 
funds to support our military efforts in Iraq or if we 
precipitously pulled out? What kind of humanitarian crisis 
would you anticipate?
    General Pace. Sir, as best I can tell, from a military 
standpoint, that the current Iraqi army and police would not 
have the strength to do all the work that they need to do, to 
keep sectarian violence quelled. Therefore, I believe that, 
based on that, the numbers of killed and murdered because of 
sectarian violence would spike.
    Senator Cornyn. Would you anticipate that if, in fact, it 
appeared that the Shiite in Iran were taking advantage of that 
lack of order, and the sectarian violence did spike, that that 
might cause other nations, principally Sunni-majority nations, 
to get very directly involved, in a military way, to defend the 
Sunni minority in Iraq?
    General Pace. Sir, I think an Iraq that was clearly 
disintegrating would be of great concern to all the neighbors, 
and they would all try to find ways to influence their concerns 
inside of Iraq.
    Senator Cornyn. Secretary Gates, I think there was a 
question earlier asked to you about if we left a destabilized 
Iraq and it descended into either a regional conflict of the 
kind that General Pace and I are talking about, whether it 
would, in all likelihood, necessitate our return, to try to 
salvage a chaotic regional situation. Is that your testimony?
    Secretary Gates. I would say that that certainly is one 
possible outcome, particularly if other regional states became 
involved.
    Senator Cornyn. I'd like to ask, Mr. Secretary, a question 
about the appropriation bill that we'll be considering here 
very soon. I know Senator Inhofe asked you about the issue of 
the BRAC Commission issue. The Senate will soon consider an 
appropriation bill, sometimes called a continuing resolution, 
but I think it's really more of an omnibus appropriation bill, 
that will cut $3.1 billion from the DOD account for BRAC. I'm 
strongly opposed to that, but, unfortunately, we're being told 
that, in all likelihood, this bill will come to the floor with 
no opportunity to offer any amendments and merely be given an 
up or down vote on the bill without any amendments. Texas has 
approximately $750 million in BRAC funding that will be in 
jeopardy if, in fact, this transpires. Can you tell me how this 
$3.1 billion deficit will impact the DOD's ability to fund 
military construction projects that will help our military men 
and women and their families?
    Secretary Gates. It will, Senator, make it impossible for 
us to meet the statutory deadline for the completion of BRAC. 
It will have a direct impact on facilities being built at the 
receiving end of units that are being consolidated to new 
locations. I think there is about $300 million in the $3.1 
billion for housing allowances for the troops. So, there is a 
huge impact, frankly, on us. As I had indicated, I think that--
I mentioned this to leadership here in the Senate, and I think 
there's a real understanding of the magnitude of the problem 
and a willingness to consider some alternatives. One 
possibility is adding it to the fiscal year 2007 emergency 
supplemental. That really is an issue for the Senate--for 
Congress to decide. But clearly that $3.1 billion is very 
important to our troops and to us.
    Senator Cornyn. I agree with you that it's very important. 
I would just say that adding it to the supplemental will 
basically mean that there will be no offset and that, in 
essence, Congress will get to spend that $3.1 billion on other 
things, and not the BRAC construction that was originally 
intended.
    Can you tell me, Secretary Gates, since we have an All-
Volunteer Military, nobody is required to serve in the military 
involuntarily, would this sort of denial of funding for our 
troops and their families have any impact, in terms of our 
ability to not only recruit, but also to retain our volunteer 
troops, in your opinion?
    Secretary Gates. Let me give you a brief answer. General 
Pace is probably in a better position to answer the question 
than I am. But, I think, clearly the troops feel strongly about 
fulfilling our commitments to them. We're asking a lot of them, 
particularly units that have been extended, people who are 
being deployed early, or mobilized and deployed early, so we 
are asking a lot. I think that when it comes to things, 
particularly that affect their homes and their families, that 
they feel pretty strongly about that. Retention is not a 
problem for us, at this point, as we talked about earlier, but 
clearly somebody's decision whether or not to remain in the 
military is impacted by these kinds of things. But I also 
wouldn't underestimate their loyalty and their willingness to 
put up with temporary hardships--particularly if they saw it as 
temporary. But let me ask the General.
    Senator Cornyn. General Pace, would you care to add to 
that?
    General Pace. Sir, hard to draw a straight line between 
$3.1 billion less in BRAC and X-percent change in retention. 
Congress has been very good at making sure we've have the 
resources we've needed to support our troops. Certainly, 
though, as troops come home--if they're not able to come home 
because the facilities aren't there, or if they come home and 
the facilities aren't done, that certainly impacts their vision 
of whether or not they are being adequately taken care of. But, 
sir, to draw a straight line between those two, I think, is a 
bit of a stretch.
    Senator Cornyn. I understand. Of course, we're not just 
talking about recruiting and retaining the current level of our 
end strength. We're also talking about growing that end 
strength by a large number. But my impression would be that 
anything we can do to make their lives better and to fulfill 
our commitments is a good thing. Anything we do to disappoint 
their expectations or to not live up to our commitments, in 
terms of how we treat them, is a bad thing. Maybe I look at it 
too simplistically.
    General Pace. No, I agree with that, sir.
    Senator Cornyn. In closing, let me just ask for one brief 
comment. Secretary Gates, then General Pace, China's new 
demonstrated ability to destroy U.S. satellites in a low-earth 
orbit raises a lot of questions about whether we're doing 
enough to counter such threats and maintain our freedom of 
action in space. I realize we're in an open session here, and 
several of us have attended a closed session where some of this 
has been discussed, but in this open session would you comment 
on your strategic assessment, to the extent you can, of the 
recent Chinese anti-satellite test (ASAT) and what you believe 
the DOD--and whether you believe the DOD is doing enough 
towards countering those threats at this time? Secretary Gates 
and then General Pace.
    Secretary Gates. First of all, I think that the Chinese 
ASAT test is very troubling. Perhaps what is as troubling as 
the technical achievement is how one interprets it as a part of 
their own strategic outlook and how they would anticipate using 
that kind of a capability in the event of a conflict, and the 
consequences for us of that. This is one of those areas where 
I've received some very preliminary kinds of briefings, in 
terms of our capabilities, but, since I'm not sure enough of my 
ground to know what's classified and what's not, let me ask 
General Pace if he can thread that needle.
    General Pace. Sir, first of all, very worrisome, capacity 
on behalf of the Chinese. A threat, sir, is defined two ways: 
one, capacity; and, two, intent. There's no belief, on my part 
right now, that the Chinese intend to use this capacity anytime 
soon. On the other hand, it is a unique capacity in the world, 
and we need to, in a very separate conversation, take a look 
at: Where are we with regard to that capacity? Where should we 
be? If there is a gap, how we close it? That is something that 
deserves very close attention, sir.
    Senator Cornyn. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Senator Cornyn, thank you.
    I think we'll try another round of, maybe, 3 minutes.
    Senator Warner. How about 4?
    Chairman Levin. Three and a half minutes. [Laughter.]
    Chairman Levin. Senator Warner and I always are going to 
split the difference somehow. We'll try 4 minutes.
    Mr. Secretary, the President, last year, said, ``that the 
presence of the United States will be in Iraq, so long as the 
Government of Iraq asks us to be in Iraq.'' Sounded mighty 
open-ended. Is that still our policy, that we're going to be 
there as long as the government asks us to be there?
    Secretary Gates. We certainly have no desire for permanent 
bases in Iraq, but I think that there clearly is going to be a 
prolonged need for U.S. military assistance over some period of 
years, but I think it would be a very small fraction of the 
number of forces that we have there now.
    Chairman Levin. Is our presence left up to the Iraqis, or 
do we make the decision?
    Secretary Gates. We will make that decision, sir.
    Chairman Levin. You made reference to the word 
``incentivize,'' and the Iraq Study Group said that incentive 
is necessary on the Iraqis to take the political action, and 
that--in the absence, in their words, of such incentive, the 
Iraqi Government might continue to delay taking those difficult 
actions. So, would you agree that there needs to be an 
incentive if the Iraqis are going to be taking difficult 
political decisions?
    Secretary Gates. To pick up on a point that others have 
made, I think the Iraqis need to know that there are 
consequences for failing to follow through on their commitments 
in this reinforcement.
    Chairman Levin. Is that what you mean by ``incentivize''?
    Secretary Gates. Yes, sir. It's both carrots and sticks. It 
works both ways.
    Chairman Levin. Yes. But the incentives, the sticks, have 
to be there. The argument, as you pointed out, is, what will 
incentivize the Iraqi government?
    Secretary Gates. Exactly.
    Chairman Levin. Would you agree that, whatever the level of 
troops, that, in the absence of a political settlement by the 
Iraqis, we're not going to see the violence reduced or ended?
    Secretary Gates. I think we cannot succeed in Iraq without 
a political settlement.
    Chairman Levin. By the Iraqis.
    Secretary Gates. By the Iraqis.
    Chairman Levin. Success means the reduction or end of 
violence.
    Secretary Gates. Correct, an Iraq that basically is able to 
govern itself.
    Chairman Levin. Which means that we avoid, or we end, the 
current level of violence. Would that be fair?
    Secretary Gates. Yes, sir.
    Chairman Levin. Now, there's been certain circumstances, 
which were set forth by some of the questions a few moments 
ago, where you said that the violence would likely spike if 
those circumstances existed, such as a precipitous withdrawal 
of American troops. My question is, will we be able to see a 
reduction of that violence, an avoidance of spikes, unless 
there is a political settlement in Iraq? In other words, is 
this settlement the absolutely essential ingredient in there 
being a end of violence or avoidance of the spikes?
    Secretary Gates. I think so, yes, sir.
    Chairman Levin. All right. Now, I just want to outline, 
it's a nightmare scenario. General, I want to ask you about 
this. We're putting troops in 30 joint security locations in 
Baghdad. I'd like to know what are the rules of engagement if 
there is a major civil disturbance--10,000 Iraqis, in anger, 
come to one of those locations, they're angry, whatever 
triggers it--could be a number of things--we don't know what 
can trigger it; we saw what happened in Mogadishu--what are the 
rules of engagement now if that happens? Let's say, unarmed, 
but approaching one of these sites in a violent way so that our 
troops feel like there could be a violent end to themselves 
unless they take action--what do they do in that circumstance? 
What are the rules of engagement?
    General Pace. Sir, the rules of engagement are going to be 
what they have been and will continue to be, which is: our 
servicemembers, feeling threatened, are authorized to take 
whatever measures they must to protect themselves and those 
around them.
    Chairman Levin. That includes----
    General Pace. Having said that, sir, if they have the 
ability to, if these are unarmed people--but they're 
threatening--disengage and move back away from that point, 
that's what we would expect them to do. We're not expecting 
them to take on unarmed civilians. You're asking a hypothetical 
question.
    Chairman Levin. That's correct.
    General Pace. Fundamentally, and most important for our 
troops to know today and tomorrow, is that we expect them to 
defend themselves, and we would support them if they defend 
themselves. Inside of that construct, then, we expect them to 
take reasonable measures to not escalate something--as you 
pointed out, the crowd being unarmed.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Thank you very much, Mr. Chairman.
    Secretary Gates, I like the way you have a long-range 
approach to this situation. Nevertheless, we're faced with a 
short-term debate here. I speak ``short-term,'' in the next few 
days, whenever it occurs. You said, ``If they fail to act''--in 
other words, consistent with certain benchmarks--``we will 
change our course.'' I agree with you, just how best to do this 
is to incentivize the Iraqi people. So, it seems to me there's 
a careful balance here that we have to be guarded against. No 
matter how strong we all feel, there has to be benchmarks, if 
we pile up too many benchmarks and ask for too much, we might 
topple this government. There is a risk of that. We don't know 
how fragile this thing is. Then, what takes its place? So, I 
would hope, as we look at this very critical issue of 
benchmarks, that it's you and the DOD, together with the 
Secretary of State and perhaps others, that carefully begin to 
strike the balance of how hard we push on certain benchmarks, 
for fear that we could dislodge this government. Do you agree 
with that?
    Secretary Gates. Senator, I agree, but I have this 
perspective. I think the Iraqi government knows what it needs 
to do and what our expectations are. I think, now what we need 
to focus on, first of all, it's initially, certainly in the 
first instance, up to General Petraeus to keep the pressure on, 
in terms of them fulfilling--and our Ambassador--their 
commitments. But I think the other thing that we need to do 
here in Washington is something that I spoke about earlier to 
Senator McCain, and then later, we need to evaluate how they're 
doing against the commitments that they've made.
    Senator Warner. I agree with all of what you say.
    Secretary Gates. We need to do it on an ongoing basis with 
some understanding that this isn't going to be like D-Day, it's 
going to unfold probably over a period of time, but, overall, 
are they doing--and a brigade is certainly going to show up 
later than we expected, but if it shows up within a few days, 
maybe that's good enough. We'll need to make a qualitative, as 
well as a quantitative, evaluation of how they're doing against 
their commitments.
    Senator Warner. I support everything you say, but I just 
want to throw out a caution. There is a fragility to this 
situation, and----
    Secretary Gates. Right.
    Senator Warner.--we'd better know what happens--if this one 
fails, what comes up in its place.
    Second, on a procurement item, this committee worked very 
hard on the Joint Strike Fighter. We have good support across 
the board here. We have adequate funding. But there's a 
question of whether to not the DOD wants to revisit this issue 
of going forward with two engines. If we have but a single 
engine, then we're, in effect, giving a sole-source contract to 
one contractor which could amount to $100 billion. I've 
calculated that out. Do you know anything about the budget as 
it relates to that engine, as to whether or not you're going to 
pursue a single engine now, reverse what Congress has asked you 
to do?
    Secretary Gates. I know there was an issue last year, but, 
to be honest, I'm not sure about this year's budget.
    Senator Warner. Ms. Jonas, do you wish to comment?
    Ms. Jonas. Yes, Senator, appreciate the question. This 
budget does not include funds for the second engine. The DOD 
had evaluated that, and continues to evaluate the need for a 
second engine, but I believe that the savings that the DOD 
believes that it could get by----
    Senator Warner. Canceling.
    Ms. Jonas.--not doing it was about $1.8 billion. But we'll 
be happy to work with you on this, sir.
    Senator Warner. Well, I'm going to ask you, Mr. Secretary, 
to look at that.
    Ms. Jonas. Yes, sir.
    Senator Warner. We, on this committee, invested a lot of 
time in it, and I really think the importance of that fighter 
and the credibility of the United States to have a joint 
program which involves a number of countries, some of which 
want to use other than the one engine--they want to look at 
both. Would you just commit to look at it?
    Secretary Gates. Yes, sir.
    [The information referred to follows:]

    The Department assessed all aspects of the F-35 Lightning II Joint 
Strike Fighter program in preparation for this year's budget 
submission. The Department continues to believe the risks associated 
with a single source engine program are manageable and do not outweigh 
the investment required to fund a competitive alternative engine. The 
three congressionally-directed engine studies have now completed. The 
conclusions, while supportive of competition in general, are consistent 
with the Department's initial findings that the expected savings from 
competition do not outweigh the investment costs.
    The F-35 international partners support the overall direction the 
program is headed, as evidenced by all eight partners signing the 
Production, Sustainment, and Follow-on Development Memorandum of 
Understanding.

    Senator Warner. Thank you very much.
    General, we were greeted in the paper this morning with the 
following: ``An Iraqi general took charge''--repeat--``An Iraqi 
general took charge of the security operation in Baghdad.'' 
Now, I understand what that is. We have now, I think, gotten in 
place a general that has a high degree of confidence with 
General Casey and presumably General Abizaid. Is that correct?
    General Pace. Sir, it is.
    Senator Warner. But when they say ``take charge,'' we have 
a dual command there, do we not?
    General Pace. We have a single chain of command for U.S. 
troops.
    Senator Warner. For U.S. troops.
    General Pace. There's a single chain of command for Iraqi 
troops and there is a mechanism between the commanders to work 
collaboratively together, pared down to the battalion and 
brigade level, to be able to provide support--U.S. supporting 
Iraqi troops.
    Senator Warner. But some of us are concerned as to how that 
might work; when we get down to company level, whether or not 
two company commanders or two platoon commanders, one Iraqi, 
one American, get into a quarrel, what do we do. Now, I 
understand you're going to look at that very carefully, and you 
have a high degree of confidence that this system can work, is 
that it?
    General Pace. Sir, I have a high degree of confidence that 
the U.S. officers in the chain of command understand from whom 
they take their orders and what they're supposed to do.
    Senator Warner. But if that's in conflict with what the 
Iraqis want to do, who resolves the conflict?
    General Pace. Sir, there's a mechanism for that. If it's 
immediately on the ground and there's a disagreement, then the 
U.S. commander will simply just not do whatever it is that the 
Iraqi commanders ask them to do.
    Senator Warner. Well, I hope it works. I repeat that, I 
hope it works.
    General Pace. It is not as clean as we would like, sir, 
that's for sure.
    Senator Warner. No, it's not. I don't know of a precedent 
in our contemporary military history where we've engaged in 
such a duality of command as this.
    General Pace. Yes, sir. Our troops, though, will not have a 
duality of command; they will have a single command.
    Senator Warner. I understand. All right.
    On the intelligence, reading through the stories this 
morning--and it just--the story of the American GI trying to 
carry out these orders in the face of this polyglot or 
diversity of people who are angry and--whatever reason it is. 
To what extent do we have to give that GI, that platoon, or 
that squad down there, sufficient intelligence and efficient--
sufficient language capability to go in on this daunting task 
of, in the crowded slums and communities, trying to sort out 
whom to shoot at and whom to help?
    General Pace. Sir, in the operations where we have the 
lead, which is mostly with our Special Operations Forces, the 
intelligence that's developed and provided is very good, and 
has led to the killing and capturing of high-value targets.
    Senator Warner. All right. So, you can tell us it's 
adequate, then, in your judgment.
    General Pace. Sir, the rest of my answer, if I may, because 
your question is very important. With regard to the troops on 
the ground in Baghdad, that's why it's important to have the 
Iraqi troops in front, because it'll be the Iraqi citizens and 
Iraqi human intelligence that will provide to Iraqis the 
ability. We do not have enough troops who have the kind of 
language capacity and cultural understanding to take the lead 
in those regards. We can provide support to them. So, from the 
standpoint of conventional force, Iraqis in the lead, us 
supporting. But as far as the high-value targets, our 
intelligence is what we use.
    Senator Warner. I thank you for that, because my resolution 
just simply says we should put greater reliance on the Iraqi 
forces and less need for perhaps 21,000 troops.
    General Pace. Yes, sir.
    Senator Warner. But that'll come to pass. We just give the 
best judgment we can to the President.
    Lastly, Secretary Gates, you quite correctly pointed out 
that this program in Baghdad has three parts--a diplomatic 
part, an economic part, and a military part--and you very 
cautiously stayed in your lane and addressed the military part. 
But it's essential that all these parts converge at the same 
time. You've committed to this committee that you will keep us 
informed with regard to the success or the lack of success with 
this program as it goes forward, but do we have in place, Mr. 
Chairman, a similar commitment from the DOS and other areas of 
the Federal Government as to whether or not the other two 
components are going to keep pace with the military? I suggest, 
Mr. Chairman, we look at some means by which to get reports, 
comparable to that which Secretary Gates said he'll give this 
committee, from others who are responsible for the economic and 
diplomatic.
    So, I just close out by saying I think it's terribly 
important, and I hope it does not fail, but if it does, I just 
don't want the military to take the blame because of the 
shortfall of the other two parts.
    So, I thank the Chair.
    Secretary Gates. Senator?
    Senator Warner. Yes?
    Secretary Gates. One thing that we might look at is seeing 
if--when we make a presentation to you all, that it's vetted on 
an interagency basis so that we give you the information on 
each of the elements that are involved.
    Senator Warner. Mr. Secretary, I think that's very wise. 
Therefore, to constitute the panels, Mr. Chairman, as they come 
before the committee, with representatives from the other. I 
think that's an excellent way to approach it.
    I thank you, again. We've had a very good hearing, and I 
wish you well.
    Thank you, sir.
    Chairman Levin. Before I call on Senator Sessions, on that 
last point is the matrix you referred to just a DOD matrix, or 
is that going to be joint with other agencies?
    Secretary Gates. Mr. Chairman, the package that I saw a few 
days ago had a piece being done by the DOD, another piece was 
being done interagency, and, frankly, the whole thing--and a 
part being done by the Joint Staff--and I think the whole 
thing, right now, is still a work in progress. I'm not quite 
sure how it's going to look. It also was short-term, medium-
term, and long-term.
    Chairman Levin. Just wondering, while Senator Warner is 
still here, that may help address the issue that you very 
effectively raised.
    Senator Warner. Yes.
    Secretary Gates. Yes, sir.
    Chairman Levin. Which is, if the matrix that you referred 
to is a multi-agency matrix, that may, at least, go some 
distance in addressing Senator Warner's point.
    Senator Warner. That would give us the benefit of cross-
examination.
    Chairman Levin. Right. That's correct. I'm very glad that 
you raised this question. Also, will you be giving us a copy of 
the matrix that you're working on?
    Secretary Gates. I see no reason not to. My notion would be 
that if we came up here and briefed, every 2 or 3 weeks, that 
there might be some charts that we could present or something.
    Chairman Levin. If you can give us an answer to that, that 
document, which you call a checklist or a matrix--whatever that 
document is, you will share that with us every couple of weeks, 
just brief it to us.
    Secretary Gates. Sure.
    Chairman Levin. That would be helpful.
    Senator Sessions.
    Senator Sessions. With regard to the BRAC process that 
Senator Cornyn asked about, I think it's a very important 
issue. As I understand it, the John Warner NDAA for Fiscal Year 
2007, had $5.6 billion, really crucial money, to fund the 
realignment of our bases, fund people coming back from foreign 
bases in Europe, Korea, and other places, and to provide the 
housing and support they need. So, this is a 55-percent 
reduction that we now see that has occurred this year under the 
new leadership here in the Senate. What I want to mention to 
you, Secretary Gates, and why this is painful to us, is because 
that money was spent on social projects or other projects, 
nondefense projects, essentially, and we have to have it. So, 
now we're going to be reduced to putting it into the 
supplemental, which will raise the supplemental and will shift 
more debt to our children and grandchildren, because the 
supplemental is unpaid-for and whereas, before, it was paid for 
within our budget. So, it increases the debt by that much. Do 
you understand the difficulties that we face there?
    Secretary Gates. Yes, sir.
    Senator Sessions. Now, General Pace, there's been some 
interest in how to improve the Iraqi army and military. Are we 
being too slow to equip them with more capable equipment? 
What's your theory about the rate we're on, do we need to 
accelerate that? Do we need just to give them the equipment and 
try to make sure that--and won't that help them be more 
effective?
    General Pace. Sir, the goal which was attained, as of 
December 2006, was to have 328,000 army and police manned, 
trained, and equipped, and the equipping was done to about the 
98 percent level. Added to that for fiscal year 2007 has been 
an increase up to 362,000, and the money for that is being 
provided partially by us and partially from Prime Minister 
Maliki's budget for his government. So, everything we were 
supposed to do by the end of 2006, we did. The additional delta 
is now being provided for, both in this budget and primarily 
from the Iraqi budget, to buy the equipment for the increased 
number of troops they wanted to have.
    Senator Sessions. I'm thinking about vehicles, armaments, 
more modern weapons, or better movement capability, that kind 
of thing. Should we do more there? Wouldn't that be a step 
toward improving their morale and their self-confidence and 
their capability to respond to attacks on their units?
    General Pace. Sir, let me take that for the record, because 
we designed the equipment in 2006 to be delivered. We've now 
had some experience with the units operating with it, and I do 
not know whether or not that experience has led us to believe 
that there's some other kind of equipment that ought to be 
delivered. So, if I may, let me check with the folks in theater 
and find out, because I just don't know.
    [The information referred to follows:]
System capabilities:
    Mine resistant ambush protected (MRAP) will replace uparmored 
HMMWVs in theater but MRAPs are not HMMVW replacements. Additional MRAP 
vehicles will be used in theater to augment current levels of 
protection. Three categories of MRAP provide the improved protection 
and enable our forces to survive underbody and other forms of attack.
    CAT I - Mine Resistant Utility Vehicle for urban combat patrol 
operations; CAT II - Larger Joint EOD Rapid Response Vehicle for multi-
mission operations such as convoy lead, troop transport, ambulance, 
EOD, and combat engineering; CAT III--Buffalo; mine/improvised 
explosive device clearance operations. Mine detection vehicle--MRAPs 
can reduce the number of vehicles required to perform a mission.
    For example, 9 MRAPs may take the place of 12 HMMWVs.
    The validated joint requirement on 6 February 07 was 6,738 vehicles 
(3,700-USMC, 2,500-USA, 538-USN).

    Senator Sessions. Secretary Gates, one final question. With 
regard to Korea and Iran and their missile program, are there 
any indications that you're aware that would indicate we should 
reduce our plans to build a missile defense system capable of 
defending against potential attacks from those countries, or 
other rogue nations, for that matter?
    Secretary Gates. No, sir.
    Senator Sessions. Fact, it would seem that they've stepped 
up their efforts rather publicly to achieve missile strike 
capability against the United States.
    Secretary Gates. Yes, sir.
    Senator Sessions. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    We thank all of our witnesses for their testimony. It was a 
very helpful, very useful hearing. I'm sorry it went on so 
late, but it was better than having a recess and coming back, 
we hope.
    We stand adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
justification for navy and air force aircraft purchases with emergency 
                                funding
    1. Senator Levin. Secretary Gates, in the fiscal year 2007 
supplemental and the fiscal year 2008 Global War on Terrorism Emergency 
requests the Department of Defense (DOD) is requesting $5.3 billion for 
the purchase of new manned aircraft for the Departments of the Navy and 
the Air Force. Please provide a full justification for the purchase of 
each of these aircraft as follows:

        <bullet> For aircraft requested to replace a combat loss, the 
        type of aircraft lost in combat and the date and location of 
        the loss.
        <bullet> For new aircraft that are not being requested to 
        replace a combat loss, the justification should include, for 
        each new aircraft to be purchased, the aircraft type or model 
        to be replaced, the expected service life (in flight hours) of 
        that aircraft, the total hours flown on that aircraft, and the 
        number of those total flying hours that were charged to 
        Operation Iraqi Freedom or Operation Enduring Freedom.

    Dr. Gates. The following chart lists the Air Force aircraft loss 
during contingency operations and replaced either in the fiscal year 
supplemental request, fiscal year 2008 supplemental request, or 
replaced by fiscal year 2006 global war on terror or prior funds.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                         science and technology
    2. Senator Levin. Secretary Gates, this 2008 request reduces your 
investment in science and technology (S&T) programs by over $500 
million in constant dollars with respect to the 2007 budget request and 
over $2.5 billion relative to 2007 appropriations. It represents only 
2.2 percent of the total DOD budget, far short of the goal of 3 percent 
investment in innovative S&T programs. These programs are investing in 
industry, universities, and our defense laboratories to develop next 
generation capabilities for the military.
    What effect will this severe reduction have on the Department's 
ability to support the Nation's technology base and to develop needed 
capabilities to meet future threats? Please provide the committee with 
a list of research and technology areas where additional funding could 
be used well to support the development of needed next generation 
capabilities.
    Dr. Gates. The level of S&T funding requested in the fiscal year 
2008 President's budget request (PBR) appears to be lower than the 
Department's fiscal year 2007 request due to the realignment of $316 
million of Air Force Special Programs funding from the Budget Activity 
3 to other non-S&T accounts. There was no real impact to the Air Force 
S&T program since the $316 million was used to fund small projects that 
were not managed by the Air Force S&T community. If a funding 
adjustment of $316 million is made to the fiscal year 2007 PBR, then 
the fiscal year 2008 request is 2.1 percent lower than the adjusted 
fiscal year 2007 request, in constant dollars. The Department's request 
for S&T is still very high in historical terms. The seven highest 
requests for S&T, in constant dollars, have occurred in the last seven 
years. We have looked hard at all DOD investments, and had to fund the 
priorities within the Department. The same is true in portfolios like 
S&T. Within S&T, we believe we have funded the highest priority items.

                 hydrogen technology and infrastructure
    3. Senator Levin. Secretary Gates, what investments are you making 
in this budget to move DOD towards the adoption of hydrogen as a 
logistics fuel--for example, in the development of hydrogen vehicle 
technologies, hydrogen storage systems, and in the development and 
installation of hydrogen infrastructure--such as production or 
distribution systems?
    Dr. Gates. The DOD investments in hydrogen technology and 
infrastructure are focused on furthering DOD's experience with 
hydrogen. In the near-term we are working with the Department of Energy 
as an ``early adopter'' where hydrogen shows potential for benefiting 
DOD industrial and non-tactical operations. For example, we are 
piloting the replacement of lead acid batteries with hydrogen fuel 
cells in forklifts used by DOD warehouses. Fuel cell forklifts provide 
important productivity improvements and reduce environmental impact 
while advancing the fuel cell technology. Establishing hydrogen fueling 
stations that are available to the public as well as the DOD is also 
helping to meet the Energy Policy Act and the President's Executive 
order to reduce petroleum consumption. We have considerable work to do 
before we will understand the requirements for using hydrogen as 
mobility fuel. We are partnering with the Services, Department of 
Energy, and Department of Transportation on all of the hydrogen work so 
that DOD's investments complements the ongoing work across the 
Government. The fiscal year 2008 budget request supports this effort. 
The Defense Logistics Agency (DLA) is requesting $0.4 million and $1.5 
million in fiscal year 2009 to fund the continued program development 
of the DOD Roadmap and Strategy for Hydrogen. The fiscal year 2008 
phase of the program also supports the development of synthetic fuel 
specifications with industry and finalization of the schedule in 
preparation of the initial deployment of a limited hydrogen technology 
and infrastructure capability. The military Services also have S&T 
investments on tactical use of hydrogen--primarily for man-pack 
applications.

                training and equipping of afghan forces
    4. Senator Levin. Secretary Gates, in your written testimony, you 
indicate that as of the end of January some 88,000 Afghanistan National 
Security Forces (ANSF) have been trained and equipped, an increase of 
31,000 over the previous year. Please provide a breakout of the total 
number of ANSF in terms of how many are Afghan National Army (ANA) and 
how many are Afghan National Police (ANP).
    Dr. Gates. There currently are 32,300 ANA and 61,100 ANP personnel 
trained and equipped.

    5. Senator Levin. Secretary Gates, according to a November 2006 
report issued jointly by the Inspectors General of the DOD and 
Department of State, the Combined Security Transition Command 
Afghanistan (CSTC-A) established new criteria for reporting readiness 
of the ANP to plan, execute, and sustain independent law enforcement 
operations. As of last month, how many ANP personnel met these 
readiness criteria?
    Dr. Gates. No ANP personnel currently meet the readiness criteria 
to conduct, plan, execute, and sustain independent law enforcement 
operations. One ANP battalion is capable of planning, executing, and 
sustaining law enforcement operations with coalition support. Funds 
requested for the ANP in the fiscal year 2007 supplemental request and 
the fiscal year 2008 global war on terror request will be used to train 
and equip the ANP to operate independently.

    6. Senator Levin. Secretary Gates, did the CSTC-A also establish 
new criteria for reporting the readiness of the ANA? If so, as of last 
month, now many ANA personnel met these readiness criteria?
    Dr. Gates. The CSTC-A did not change its criteria for reporting 
readiness of the ANA. CSTC-A now is training and equipping the ANA to 
conduct fully independent operations. In the past, CSTC-A was training 
and equipping the ANA to lead operations with coalition support.
    No ANA units are able to plan, execute, and sustain independent 
counterinsurgency operations at the battalion level. Thirteen 
battalions are capable of planning, executing, and sustaining 
operations with coalition support. Funds requested for the ANA in the 
fiscal year 2007 supplemental request and the fiscal year 2008 global 
war on terror request will be used to train and equip the ANA to 
operate independently.

                       quadrennial defense review
    7. Senator Levin. General Pace, the Quadrennial Defense Review 
(QDR) submitted to Congress in February 2006 called for no increase in 
the size of the Active Army or the Marine Corps, and called for a 
reduction in the size of the Army National Guard. The fiscal year 2008 
budget request proposes to increase the end strength of all three above 
both the current levels and the levels that were determined by the QDR 
to be sufficient to execute the National Military Strategy. Has the 
National Military Strategy been changed since the QDR was submitted?
    General Pace. The National Military Strategy has not changed. 
However, my assessment of the risk in executing that strategy in the 
current and foreseeable strategic operating environment has changed. 
America faces increasingly complex and dangerous threats, resulting in 
increased risk. Sustaining operations in Iraq and Afghanistan, while 
maintaining readiness to respond to new contingencies around the globe, 
is a challenge with our current force structure. While we are fully 
ready to respond to any new contingency, we would rely more heavily on 
less precise munitions and the length of time necessary to succeed 
would be longer than we would like. The increases in Army and Marine 
Corps active end strength proposed by the budget are consistent with 
this need to increase our overall capacity and will reduce strategic 
risk.

    8. Senator Levin. General Pace, given these substantial changes, 
does the QDR still represent the position of the DOD?
    General Pace. Yes, the QDR and the fiscal year 2008 budget reflect 
our priorities. The QDR represented a snapshot in time of the overall 
strategy; the report itself noted that we must continuously reassess 
and apply lessons learned if it is to be successful. It recognizes that 
the strategic environment is not static, and that we must continue to 
transform along a continuum that reflects our best understanding of a 
changing world. The focus areas of the QDR (defeating terrorist 
networks, defending the Homeland in depth, shaping the choices of 
countries at strategic crossroads, and preventing hostile states and 
non-state actors from acquiring or using weapons of mass destruction) 
are still relevant. Additionally, the Secretary of Defense has 
established five priorities for the DOD. These priorities are: 
increasing end strength, resetting the force, operationalizing our 
Reserve component, strategic modernization, and transformation.

    9. Senator Levin. General Pace, what is the detailed rationale for 
these proposed increases?
    General Pace. My biennial National Military Strategy Risk 
Assessment was recently submitted to Congress. This assessment and the 
Secretary of Defense's plan for mitigating risk depict the challenges 
we face around the globe and discuss how we will overcome them. 
Sustained deployments, equipment utilization, and operational tempo 
each impart risk from a military perspective. The current heavy demand 
for ground, sea, and air capabilities is unlikely to dissipate in the 
immediate future.
    As stated in my assessment, our Armed Forces stand ready to protect 
the Homeland, prevent conflict, and prevail over adversaries. These 
missions present simultaneous and interrelated challenges of varying 
intensity, immediacy, and danger.
    America's Armed Forces are in our sixth year of sustained combat 
operations. We are fighting sectarian violence, insurgency, and 
terrorism in Iraq and Afghanistan. Al Qaeda and its allies threaten the 
safety of our Homeland and our overseas partners--threats made more 
alarming by the proliferation of weapons of mass destruction. We face 
additional threats and growing challenges in other regions of the world 
where we are currently unable to provide the military support desired 
by our allies and combatant commanders to meet their presence, 
training, and deterrence objectives.
    Given the breadth of these challenges, their complexity, and their 
probable long duration, we must increase our overall military capacity 
to reduce strategic risk. Sustaining operations in Iraq and 
Afghanistan, while maintaining readiness to respond to new 
contingencies around the globe is a heavy burden for our current force 
structure. Presently, more than 200,000 troops are deployed to the U.S. 
Central Command (CENTCOM) area of responsibility (AOR); another 210,000 
are elsewhere overseas. The size of our Army and Marine Corps is not 
large enough to accommodate these multiple missions in the long-term. 
Currently, most of our Army Brigade Combat Teams and their Marine Corps 
regiment equivalents are experiencing only 1 year or less at their home 
station before deploying again--and that year is largely spent actively 
preparing to redeploy overseas to fight.
    Currently, we have at least 20 Brigade/Regimental Combat Teams 
deployed to Iraq, with another three in Afghanistan, one in Korea, and 
one in Kosovo. This operational tempo drives our units to operate at 
close to a 1:1 ``deployed:at-home'' ratio--which is approximately half 
the time necessary to sustain enduring readiness. This year at ``home'' 
is usually spent training for missions relevant to Operations Iraqi 
Freedom or Enduring Freedom and not on the full scope of reset and 
retrain requirements needed to meet global threats. Additionally, this 
usually intense pre-deployment training takes time away from families 
during the year at ``home''.
    The current rotation requirements conflict with our policy goal--
which is to deploy Active Duty individuals for 1 year and then provide 
2 years at home; our policy for the Reserve component is to deploy 
individuals for 1 year and then provide 5 years at home. Because the 
forces are deployed in a wide variety of places, especially in Iraq, we 
have had to break that commitment. The minimal time our troops spend 
with their families between deployments has induced significant stress 
on our forces. In addition, their inability to train for the full range 
of missions has decreased readiness and increased associated risk.
    The Army and Marine Corps are both focused on using this added 
troop strength to mitigate current, serious shortfalls and ensure their 
operational forces are balanced across the range of military 
capabilities that will continue to be in high demand for the duration 
of the long war. These forces will enhance the combat capability of the 
United States, reduce stress on deployable personnel and units, and 
provide the necessary forces for success in the long war.

                   paying for end strength increases
    10. Senator Levin. General Pace, do you support the proposed 
increases in Army and Marine Corps end strength regardless of how they 
are paid for, or only if the entire cost of these additional personnel 
are added to the DOD topline?
    General Pace. Given the complex strategic environment that we 
expect to face, we must increase the overall capacity of our forces to 
reduce risk. Specifically, to accomplish our missions in Iraq and 
Afghanistan and remain prepared for other challenges, we must increase 
the ground force structure of the Army and Marine Corps. Growing our 
ground forces is a top priority that reduces the risk to the execution 
of our National Military Strategy. The ground force increase initiative 
will compete for resources such that the overall DOD budget provides 
funding for a strategic approach that includes this effort along with 
operations, modernization, and personnel.

    11. Senator Levin. General Pace, I understand that DOD estimates 
the additional cost at about $95 billion over 5 years. Are you willing 
to cut modernization or other programs to make room for the significant 
increase in personnel and operating costs that these additional 
personnel would entail?
    General Pace. The ground force increase initiative will compete for 
resources such that the overall DOD budget provides funding for a 
strategic approach that includes this effort along with operations, 
modernization, and personnel.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy
                          joint strike fighter
    12. Senator Kennedy. Secretary Gates, last year, one of the most 
contentious issues in Congress was the Joint Strike Fighter (JSF) 
alternate engine program. The Department had decided to terminate the 
General Electric/Rolls Royce engine and rely solely on the Pratt & 
Whitney engine that is a derivative of the F-22 engine. I understand 
that DOD is again proposing to terminate the JSF alternate engine 
program. Why would the Department again propose this alternative? Have 
you completed all the life cycle cost analyses and other reviews 
required by Congress that were so notably absent from last year's 
deliberations?
    Dr. Gates. The three congressionally-directed independent analyses 
are due by March 15, 2007. The Department believes it is prudent to 
await the results of these studies prior to making new investments in a 
second engine source for the F-35.

                          university research
    13. Senator Kennedy. Secretary Gates, as you are well aware 
university research has been the engine that has developed a vast array 
of military capabilities that we depend upon today. Capabilities that 
we take for granted--such as radar, stealth, and robotics--all were 
developed only with significant contributions from the academic 
community. You recently served on a National Academy of Sciences 
committee that produced a report called ``Rising Above the Gathering 
Storm'' that noted ``The Federal Government should increase our 
investment in long-term basic research . . . by 10 percent annually 
over the next 7 years. It should place special emphasis on . . . basic 
research conducted by the DOD.'' The 2008 budget request falls well 
short of this goal, and in fact reduces investments in the critical 
University Research Initiatives program run by each of the military 
Services. What is your view of the value of university research in the 
overall S&T investment plan of the DOD?
    Dr. Gates. For the past half century DOD has invested in 
fundamental research in the physical sciences and engineering. A 
significant amount of that research has been conducted at our Nation's 
universities. Today's warfighter enjoys technological superiority as a 
consequence of the application of that investment to defense systems. 
In my most recent position as the President of Texas A&M University, I 
was privileged to lead an organization proficient in executing basic 
research. As a result of that experience future DOD 6.1 budgets will 
reflect a strong commitment to university research.

    14. Senator Kennedy. Secretary Gates, how is this reduced 
investment in university research and minor overall increase in basic 
research consistent with the conclusions you reached in the National 
Academy of Sciences study?
    Dr. Gates. My personal experience in government, my tenure in 
academia, membership on the ``Gathering Storm'' committee and numerous 
other National Research Council Boards provide a basis for reviewing 
DOD basic research levels. However, I remain mindful of the many 
factors and urgent considerations that will attend all DOD budget 
decisions in the future. I expect to weigh, carefully, the full 
spectrum of demands on defense budget dollars, factoring in the long-
term needs of the Defense Department, as set by future funding levels 
for basic research.

                                patriot
    15. Senator Kennedy. Secretary Gates, we just received the fiscal 
year 2007 supplemental along with the fiscal year 2008 budget. My 
understanding is that the Department approved the Army's request to 
include funds in the supplemental for upgrading the remainder of the 
Patriot fleet to Configuration 3, thereby making every Patriot launcher 
in the Army capable of firing our most advanced missile, the PAC-3. 
Unfortunately, the administration (OMB) denied this request and removed 
Patriot upgrade funds from the supplemental. The President even 
mentioned in his speech to the Nation on January 10, 2007 that he 
ordered more Patriots to the Middle East to reassure our friends and 
allies. Obviously, Patriot is a very important defensive weapon system 
in the global war on terror and our combatant commanders need the most 
capable Patriot systems to defend our forces. I further understand that 
the Army did not request funding for these upgrades in the fiscal year 
2008 budget. What is the Department's, and the Army's, plan to fund the 
remaining upgrades to make all of the Patriots Configuration 3?
    Dr. Gates. The Army will address the PAC 3 upgrades through the 
normal budget process since the supplemental request was not supported.

    16. Senator Kennedy. Secretary Gates, it is my understanding that 
the Army conducted an internal Mission Area Assessment to review the 
types and quantities of capabilities they required for air and missile 
defense against global requirements. That assessment came to the 
conclusion that Patriot remains the cornerstone of our current 
capabilities to protect our troops and coalition allies. The assessment 
also concluded that the current Patriot force required three battalions 
to be upgraded to the latest Configuration 3 capable of using the most 
capable interceptor missile the PAC-3. How is the Army and the 
Department addressing the upgrade of these three battalions which is 
nearly one-third the force to PAC-3 capability? What is the funding 
plan and the schedule to which you are working to address this 
capability shortfall?
    Dr. Gates. The Army will address the PAC 3 upgrades through the 
normal budget process since the supplemental request was not supported. 
The Chief of Staff of the Army directed these upgrades to be complete 
by fiscal year 2009. The Army is unable to meet this timeline unless 
funding is available by June 2007. If funding is not provided, a 2- to 
3-year delay in fielding the PAC 3 capability will result.

    17. Senator Kennedy. Secretary Gates, it is my understanding that 
the Patriot air and missile defense system is considered by the DOD to 
be a ``High Demand/Low Density'' resource and that almost all our 
combatant commanders see Patriot critical to their war plans. How is 
the Army and the Department addressing the fact that nearly one-third 
of the Patriot 10 battalion force is not capable of employing the 
latest hit-to-kill Patriot PAC-3 missile because required ground 
equipment upgrades have not been funded? When does the Department 
intend to fix this problem?
    Dr. Gates. The Army will address the PAC 3 upgrades through the 
normal budget process since the supplemental request was not supported. 
A 2- to 3-year delay in fielding the PAC-3 capability is the result.

    18. Senator Kennedy. Secretary Gates, recent press stories indicate 
the Army has determined the need to activate two additional Patriot 
battalions raising the force from 10 current battalions to 12. How and 
by what means does the Department intend to activate these two 
battalions and what will it do to equip these two plus three existing 
battalions incapable of firing the PAC-3 missile to that configuration?
    Dr. Gates. The Army currently has 10 PAC-3 battalions and 3 PAC-2 
battalions. The Army assessed a need, due to ongoing commitments of the 
Patriot force, for two additional PAC-3 battalions. This addition to 
the force, coupled with modernization of the PAC-2 units to PAC 3, 
would pure-fleet the Army with 15 PAC-3 battalions. Fifteen battalions 
are essential to meeting combatant commander's requirements, meeting 
rotational objectives for soldiers and families, and continuing 
transformation.
    Funding to support the additional two battalions will be included 
as part of the ``Grow the Army'' effort.

    19. Senator Kennedy. Secretary Gates, the Department testified in 
the past as to the critical need for the PAC-3 missile to protect our 
troops and coalition partners from weapons of mass destruction (WMD); 
yet more than a third of the planned Patriot force structure is 
incapable of using that missile because the ground equipment has not 
been modified. What is the Department doing to address this critical 
force protection shortfall for our troops?
    Dr. Gates. The Army currently has 10 PAC-3 battalions and 3 PAC-2 
battalions. The Army is deploying or has deployed its most advanced 
Patriot systems to Southwest Asia and Southeast Asia to protect forward 
deployed troops and coalition partners. The Army maintains PAC-3 units 
ready to deploy in case the need arise. The next opportunity to address 
the upgrade of units to PAC-3 to support overseas rotations is during 
the normal budget process.

    20. Senator Kennedy. Secretary Gates, why is the Department 
procuring in excess of 108 PAC-3 missiles annually while they fail to 
program funding to modify the Patriot ground equipment systems to use 
the missile? It appears this acquisition strategy is flawed. We buy the 
missiles while only upgrading two thirds of the systems to use it. 
Which combatant commanders won't receive PAC-3 capable units in their 
force flow when they need them?
    Dr. Gates. The Army has deployed its most advanced PAC-3 capable 
units to combatant commanders in Southwest Asia and Southeast Asia. The 
acquisition strategy of procuring in excess of 108 PAC-3 missiles 
allows us to meet the PAC-3 missile requirements of our combatant 
commanders in these regions more rapidly. The Army prioritizes 
distribution of available PAC-3 units to meet COCOM requirements and 
maintains PAC-3 units ready to deploy in case they are needed by any 
combatant commander.

                           defense accounting
    21. Senator Kennedy. Secretary Gates, when confronted by this 
committee during his confirmation hearings to become Secretary of 
Defense, Donald Rumsfeld admitted that the Department had lost track of 
over $2 trillion and said it would take a few years to get the 
Pentagon's books in order. The DOD now comes before Congress asking for 
another half trillion dollars. Is the DOD now ready for a full and 
complete audit of its books?
    Dr. Gates. The Department has significantly increased the accuracy 
and validity of its financial information since 1999, and reduced the 
undocumented accounting entries problem by $63 billion in 2005 alone, 
with an overall reduction of 86 percent from $2.3 trillion in 1999.
    Although the Department is not ready for a complete audit of its 
books, it has made and continues to make significant progress toward 
that goal. For fiscal year 2006, it received unqualified (``clean'') 
audit opinions on 15 percent of its assets and 49 percent of its 
liabilities. In addition, it received a qualified opinion on 6 percent 
of its assets and 28 percent of its liabilities. Finally, it received 
favorable audit results on three accounts at the Department level, 
i.e., Appropriations Received, Federal Employees Compensation Act 
Liabilities, and Investments.
    Although there are a number of initiatives to move us toward our 
goal of a clean audit opinion on all of the Department's statements, 
the two most significant are contained within its Financial Improvement 
and Audit Readiness and the Enterprise Transition Plans.
    The Financial Improvement and Audit Readiness Plan focuses the 
Department's efforts for improving business processes, internal 
controls, and resolving material weaknesses. The September 2006 plan 
projects that by 2011 the Department will have unqualified opinions on 
72 percent of its assets and 79 percent of its liabilities.
    The Enterprise Transition Plan details the schedules, milestones, 
and costs for 106 key transformational programs and initiatives across 
the Department of which 44 impact financial improvement and audit 
readiness.

                  medical free electron laser program
    22. Senator Kennedy. Secretary Gates, the Medical Free Electron 
Laser (MFEL) program has been around for many years. It is a world-
recognized national resource that is dedicated to developing new 
medical diagnostics and treatments for our young men and women in the 
military, especially for injuries associated with combat casualty. For 
example, a unique system to diagnose and treat burns is in use today to 
care for our injured soldiers. I was one of eight Senators who recently 
sent a letter to Deputy Secretary Gordon England in support of the 
program. We asked the Department to increase the funding for the MFEL 
program so that the program would continue to have the needed 
resources. In fact, Congress has increased the requested budget time 
after time because this program is a model for the way successful 
medical interventions that benefit our troops, should be developed. But 
instead of increasing the funding for the program, it was zeroed out. I 
cannot understand why such a valuable medical program, which directly 
helps our wounded warriors, was so abruptly terminated. This action has 
the potential to stop in its tracks all the impending interventions 
which are primed to give us treatments for leishmaniasis (Baghdad 
boil), nerve and blood vessel bonding, novel wound healing, smart 
needles, miniature endoscopes, and field-deployable diagnostic tools--
just to name a few. What is the reasoning behind the decision to cut 
the funding for this proven program?
    Dr. Gates. The Department's Military Health System will continue to 
benefit from the contributions that the MFEL program has made to 
diagnosis and treatment of battlefield-related and civilian medical 
problems. I recognize the history of congressional support for this 
program and especially by Senator Kennedy's recognition of the 
Department's achievements in its management and execution. This 
confidence was well-placed, and the citizens of our country--both in 
and out of uniform--have benefited.
    With your encouragement and support we have pushed laser medicine 
into general medical use in U.S. domestic health care. After 22 years 
and almost $400 million, I believe it is time for the MFEL program to 
transition to a more broadly competitive research environment. Program 
performers and their ideas are ready to compete for support by the 
Department of Health and Human Services and other sources that invest 
in a broad set of health care challenges. This is not to say that the 
Department has no further interest in the promise of this technology. 
We expect current MFEL centers and other qualified entities to compete 
for funding under DOD Broad Agency Announcements for medical S&T 
focused on combat casualty care and infectious diseases.
    In research, as in procurement, the Department must make careful 
investment choices that reflect its understanding of both experience 
and likely needs. The MFEL program has long been a part of our research 
portfolio but we now have higher priorities in general and, 
specifically, higher human-centered priorities. Fortunately, the choice 
regarding the MFEL program is made easier by this program's maturity 
and readiness for expanded competition.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                      weapons systems acquisitions
    23. Senator Akaka. Secretary Gates and General Pace, according to 
an October 2006 study by the Congressional Budget Office (CBO), CBO 
projects that ``the demand for defense resources averages about $492 
billion annually (in 2007 dollars) . . . [but, when] . . . factoring in 
the potential risk of higher-than-anticipated costs raises the 
projected long-term demand for defense funding to an annual average of 
about $560 billion. . . .'' This is $80 billion more than the 
Department's base budget for fiscal year 2008. CBO indicated that part 
of the increase is based on weapon systems currently under development 
and the fact that these systems usually have cost overruns.
    While this study gives me great concern, one area that I am 
extremely troubled by is the fact that many of these weapon systems on 
order are having delays and cost overruns. These delays not only hurt 
our men and women in the Armed Forces, but also hurt the American 
people. What is the DOD doing to ensure that unwanted delays and cost 
overruns are being addressed?
    Dr. Gates. The Defense acquisition business is about managing risk, 
and the Department is committed to ensuring that Defense acquisition 
programs have predicable and achievable cost, schedule, and performance 
outcomes.
    In order to satisfy warfighting needs within cost and schedule, we 
need to continually identify and manage risk. We've found that as 
programs slide farther in time, it becomes more difficult to hold 
requirements and funding stable enough to mitigate or even sustain 
risk. We are focusing a great deal of effort on reforming our three 
primary decision processes: acquisition, requirements, and funding. Our 
plan is to integrate, synchronize, and focus on output, such that 
relevant data is both transparent and readily available to senior 
decisionmakers, appropriate performance metrics are developed and 
applied, and continuous improvement is assured. We've had some early 
success by putting into practice a Concept Decision methodology, 
identifying specific capabilities for portfolio management, and 
implementing capital budgeting for selected programs. These reforms 
have been generally well-received. We find that success is more likely 
where stakeholder organizations--and specifically the people who will 
implement the practice--both support the reform's objective and are 
involved in implementation. We remain focused on fulfilling warfighting 
needs within cost and schedule.
    General Pace. I share your concerns and I have taken measures to 
address unwanted delays and cost overruns. These measures include 
revisions to existing policies, pilot projects that provide greater 
inclusion of all stakeholders in the acquisition process, a systems-
based approach to fielding new capabilities, and the establishment of 
early tripwires to identify potential problem areas.
    The Joint Requirements Oversight Council (JROC), as an advisory 
body to the Secretary of Defense and the Defense Acquisition Executive 
(DAE), has increased consideration of cost, schedule, and technology 
readiness in addition to the performance information that was 
previously evaluated. The pending revision of the governing instruction 
(CJCS 3170.01) mandates that the timeframe of required capabilities be 
incorporated into the analysis and development of the program 
acquisition strategy. This approach will allow the JROC to make better 
recommendations to the DAE on the initiation, continuation, 
modification, or cancellation of acquisition programs.
    Additionally, the Joint Staff is participating in a series of OSD-
led pilots on a tri-chaired concept decision process that will evaluate 
the needs and the resources required earlier in the development of a 
capability. Resources will then be committed based on the maturity of 
the proposed solutions. This concept decision approach is designed to 
permit early and regular trade-offs between cost, schedule, and 
performance among alternative approaches within capability areas, 
increase confidence and decrease risk through early program definition, 
and decrease acquisition risk through early senior leadership 
engagement (including Service Chiefs) in corporate investment 
decisions.
    We are also addressing affordability earlier in the JROC process 
with a systems-based approach. This requires sponsors to describe the 
desired capability in the context of a family of systems. This change 
enables better definition of the system inter-relationships, 
dependencies, and synchronization with complimentary systems. We are 
also requiring sponsors to assess the technology readiness and identify 
the top cost drivers.
    The JROC directs programs to return when program cost exceeds 10 
percent of the approved acquisition baseline to get ahead of potential 
Nunn-McCurdy breaches. The JROC can then act early to adjust 
requirements while favorable alternatives still exist and before 
options for successful resolution become increasingly limited. The JROC 
will have a stronger role in the approval process of rebaselining 
acquisition programs--ensuring all requirements are still valid under 
proposed changes in cost and schedule parameters.

                            budget requests
    24. Senator Akaka. Secretary Gates, you said that you would listen 
to the Service Chiefs and other military officers about matters that 
affect the Services. However, in an article I read in the Los Angeles 
Times, Army Chief of Staff General Schoomaker did not agree with the 
administration's budget request for the Army and he made a point to 
ensure that the administration understood that he was not pleased with 
the request. In doing so, the Army was provided more funding. However, 
it is my understanding that some of the other Service Chiefs were not 
pleased that their Services were not provided more money because they 
``were being penalized for playing by the rules.''
    I am a bit concerned by the article because we, in Congress, and 
the American people have been told time and time again that should the 
Services need more funding, equipment, personnel, et cetera, that they 
would get it. However, now it seems that there is an unspoken process 
that has certain rules that must be played. Could you enlighten us on 
this matter?
    Dr. Gates. Our Government has a very open and transparent process 
for deciding military Service needs for more funding, equipment, 
personnel, et cetera. Resources, however, are not unlimited. The 
administration evaluates and funds the highest priorities of the 
military department to ensure that U.S. Forces have what they need to 
accomplish their military mission. Congress plays a major role in this 
process since it controls much of the process through its 
constitutional responsibility for military appropriations.

    25. Senator Akaka. Secretary Gates, now that we have seen the 
budget request and supplemental request, I am concerned by reports that 
are indicating that more money will be necessary to meet the strategic 
needs outlined by the DOD. Do you believe that the missions outlined by 
the Pentagon may be unrealistic to achieve with the current budget 
request and supplemental?
    Dr. Gates. I believe that the missions assigned to the DOD are 
realistic, if circumstances change, the Department will reassess our 
budget estimates and that the current budget request and supplemental 
are sufficient to support those missions.

                          defense acquisition
    26. Senator Akaka. Secretary Gates, I am very supportive of making 
sure that our troops have everything they need to perform their 
mission, including the latest and best technology. However, we have 
recently received two audit reports on DOD contracting that have some 
very disturbing findings. The first was Government Accountability 
Office (GAO) report GAO-07-20, titled, ``Defense Acquisitions, Tailored 
Approach Needed to Improve Service Acquisition Outcomes'' dated 
November 2006. The second report is DOD Inspector General (IG) report 
D-2007-044, titled, ``Fiscal Year 2005 DOD Purchases Made Through the 
Department of the Interior,'' dated January 16, 2007. These reports 
highlight significant weaknesses in DOD's contract management and 
oversight.
    Specific problems identified by the DOD IG include a finding that 
both DOD and the Department of the Interior (DOI) did not comply with 
laws and regulations. Specific examples of problems found include:

        <bullet> DOD used DOI contracting officials who did not 
        adequately document and support that the prices paid were fair 
        and reasonable. Also, competition was not usually obtained. 
        Therefore, DOD has no assurance that it is obtaining best value 
        for its purchases.
        <bullet> The Southwest Acquisition Branch contracting officer 
        granted contract-ordering authority to a DOD employee who 
        issued $135 million in contract awards without having a 
        contracting officer warrant.
        <bullet> The Counterintelligence Field Activity did not follow 
        the required procedures for obtaining leased office space in 
        the National Capital Region. The Counterintelligence Field 
        Activity, through GovWorks, obtained a 10-year, $100 million 
        lease that violates a myriad of laws including potential 
        violations of the Antideficiency Act. The contracting process 
        also circumvented the required congressional review for leases 
        of this size. The lease may have cost the Counterintelligence 
        Field Activity up to $2.7 million annually more than if leased 
        through the General Services Administration (GSA).
        <bullet> The DOD internal controls over management of 
        appropriated funds were not adequate.

    Similarly, GAO found significant problems with DOD contracting 
concluding that

          ``Over the past 10 years, DOD has seen large growth in the 
        acquisition of services, to the point where the value of these 
        acquisitions exceeds the value of major weapon systems. To a 
        large extent, this growth has not been a managed outcome. 
        Congress, concerned over these rapid increases, has directed 
        DOD to take several actions to promote more oversight and 
        discipline in service acquisition. DOD has taken action, but 
        action has not necessarily equated to progress. At this point, 
        DOD is not in a good position to say where service acquisition 
        is today in terms of outcomes, where it wants service 
        acquisition to be in the next few years, or how to get there. 
        This makes it difficult to set the context within which 
        individual organizations can make informed judgments on service 
        acquisition transactions.''

    What basis can you give me for confirming to the American people 
that DOD is ensuring that they get the best value possible for their 
tax dollars?
    Dr. Gates. Since 2005, the DOD leadership and the DOD IG have been 
working very closely with the DOI, the GSA, and other assisting 
agencies regarding the proper policies and procedures that should apply 
when the Department utilizes other agencies to contract for goods and 
services for the Department. Obviously our goal is to ensure that the 
Department is getting the best value for the American taxpayer and the 
right products and services for our warfighters. We are focused on 
ensuring that when we utilize interagency acquisitions to meet 
Department needs, not only are they done properly--in accordance with 
statute, regulation, and policy--but that our actions are fundamentally 
sound from a business point of view. We have addressed identified 
deficiencies in a series of policy memoranda, dating back to 2003, 
issued by the Under Secretary of Defense for Acquisition, Technology, 
and Logistics (AT&L); the Under Secretary of Defense (Comptroller); and 
the Director of Defense Procurement and Acquisition Policy, on such 
topics as, ``Proper Use of Non-DOD Contracts,'' ``Non-Economy Act 
Orders,'' ``Use of Federal Supply Schedule and Market Research,'' 
``Contracts for Services,'' ``Advance Payments to Non-DOD Federal 
Agencies for Interagency Acquisitions,'' and ``Leasing Office Space.'' 
The Department recently signed a Memorandum of Agreement (MOA) with 
both the GSA and the DOI to ensure that all parties understand that DOD 
acquisition and funding policies will be observed when DOD funds are 
transferred to other agencies. Each MOA individually addresses, in a 
corresponding action plan, specific actions the Department and the 
corresponding assisting agency are taking to correct known 
deficiencies. All relevant information related to the Department's use 
of Interagency Acquisitions, including the MOAs, policy memoranda, and 
audits are available on the Defense Procurement and Acquisition Policy 
Web site at: http://www.acq.osd.mil/dpap/specificpolicy/index.htm.

    27. Senator Akaka. Secretary Gates, what steps are you taking to 
eliminate or minimize the effects of the systemic weaknesses identified 
in these reports?
    Dr. Gates The Department takes these issues very seriously and has 
elevated them to the highest levels of management attention. We are 
taking a number of steps to respond to recent congressional direction 
and to eliminate the systemic weaknesses identified in these and other 
reports. These include:

          I. In section 812 of the National Defense Authorization Act 
        for Fiscal Year 2006, Congress directed the Department to 
        establish and implement a management structure for the 
        acquisition of services. The Under Secretary of Defense for 
        Acquisition, Technology and Logistics issued a policy 
        memorandum on October 2, 2006, implementing the requirements of 
        section 812 by providing updated policy for DOD's acquisition 
        of services, and by requiring all DOD components to establish 
        and implement a management structure for the acquisition of 
        services, based on dollar values.
          II. The Director of Defense Procurement and Acquisition 
        Policy, in conjunction with the Senior Procurement Executives 
        of the military departments, DLA, and Defense Contract 
        Management Agency, is developing a new, comprehensive DOD-wide 
        architecture for the acquisition of services. Basic tenets of 
        the architecture include:

                  (1) Maximum use of competition.
                  (2) Use of acknowledged best practices.
                  (3) Appropriate application of performance-based 
                approaches.
                  (4) Enhanced contract performance management 
                supported by: early identification of appropriate 
                performance metrics, quality assurance or written 
                surveillance plans included in the contract, 
                appointment of properly trained contracting officer 
                representatives, enhanced application of past 
                performance information, and strategic approach to 
                achieving Department socio-economic goals.

          III. DOD, in conjunction with the GAO and the Office of 
        Management and Budget's Office of Federal Procurement Policy, 
        has established the DOD Improvement Plan for the GAO High Risk 
        Area Contract Management, with action items specifically 
        targeted at systemic weaknesses identified in these and other 
        reports. We have made significant progress in completing these 
        action items, which are at the tactical level, and we are in 
        the process of establishing a follow-on plan that is oriented 
        to implementing the strategic DOD-wide architecture for 
        acquiring services.

    28. Senator Akaka. Secretary Gates, DOD's acquisition workforce has 
gradually been reduced over the last decade while DOD has significantly 
increased its reliance on contract services support. Considering the 
findings of these two reports, can you tell me if DOD's civilian 
workforce is sufficiently staffed to properly process contracts and to 
maintain appropriate oversight of those contracts? If yes, how? If not, 
why not?
    Dr. Gates. The DOD acquisition workforce has been impacted by 
downsizing and, since September 11, by the need for updated skills and 
new mission challenges. With the growth in contracting for services, we 
are re-assessing all of our acquisition oversight processes to improve 
acquisition outcomes. For example, the Under Secretary of Defense for 
AT&L has established a management structure, to include defined roles 
and responsibilities, for the review and approval of the Services' 
acquisitions. The Under Secretary took this action to ensure that the 
Services' acquisition is improved in compliance with statutes, policy, 
and other requirements.
    In addition to contract oversight, we continue to expand our 
training infrastructure and available training resources to provide the 
acquisition workforce with better knowledge sharing tools and Web-based 
performance support resources. Although we are very successful today 
with hiring and high retention, we will face significant challenges as 
the highly experienced Baby Boomer generation departs the workforce. 
Approximately 78 percent of our current acquisition workforce is in the 
Baby Boomer generation. We must address recruiting replacements from a 
smaller national workforce. We are working hard on many fronts to 
ensure we have the right acquisition capability now and into the 
future.
    In June 2006, we published both the DOD Civilian Human Capital 
Strategic Plan (HCSP) and the AT&L HCSP. Meanwhile, the AT&L Workforce 
Senior Steering Board has been working aggressively to position the DOD 
to be successful in the future. The Board has met three times since May 
2006, and it is now planning to meet quarterly to develop and implement 
strategies for identifying capability gaps and for improving the 
effectiveness of the acquisition workforce. The Under Secretary 
deployed a joint competency management initiative in October 2006 in 
alignment with the QDR, the DOD Human Capital Strategy, the AT&L HCSP, 
and the AT&L Implementation Plan. This initiative is expected to update 
and assess acquisition competencies for 12 functional communities 
within the DOD acquisition workforce. Each update will identify 
behaviors and underlying knowledge, skills, and abilities for 
successful performance.
    We have made significant progress in the development of competency 
models for program management, life cycle logistics, and contracting. 
Between now and June 2008, the Department will begin pilot workforce 
assessments for program management and life cycle logistics. In the 
fourth quarter of fiscal year 2008 it will commence a DOD-wide 
assessment of the contracting workforce. These competency assessments 
will help our senior leaders to reallocate resources, target 
recruitment, improve retention strategies, and expand education and 
training resources.
    The combination of our competency assessment initiative and other 
leadership actions to address workforce quality and capability will 
allow us to more accurately assess and address staffing sufficiency. We 
have the right sense of urgency, and I am confident we will shape the 
acquisition workforce in an intelligent manner.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                           atlantic security
    29. Senator Bill Nelson. Secretary Gates, senior DOD civilian and 
military leaders have previously noted the importance of having a 
second nuclear aircraft carrier port on the Atlantic coast. Do you 
believe that two Atlantic ports will reduce the risk to our carrier 
fleet by dispersing our carriers and necessary support facilities? Does 
this budget account for that?
    Dr. Gates. The retirement of the U.S.S. John F. Kennedy (CV 67) in 
March 2007 leaves Naval Station, Mayport without an aircraft carrier 
and will reduce overall carrier inventory to 11. In January 2006 the 
Chief of Naval Operations (CNO) directed the Commander, U.S. Fleet 
Forces Command (CFFC) to prepare an Environmental Impact Statement 
(EIS) that will examine 13 alternatives for best utilizing the 
facilities and capabilities of Naval Station Mayport after the 
retirement of CV 67. The options being evaluated by the Navy include:

        <bullet> The capacity to homeport of one or more large 
        amphibious ships, such as an LHA or LHD;
        <bullet> The capacity to homeport a nuclear-powered aircraft 
        carrier (CVN);
        <bullet> The capacity to serve as a dispersal location but not 
        a homeport for a CVN;
        <bullet> The capacity to homeport additional surface combatants 
        (cruisers andlor destroyers [CRUDES]);
        <bullet> Seven different combinations of the above;
        <bullet> The homeporting of an Amphibious Ready Group (LHA or 
        LHD, LPD, LSD);
        <bullet> No Action.

    The Navy is being both environmentally and fiscally responsible 
awaiting the conclusion of the EIS in January 2009 before making any 
decisions regarding Mayport and the issue of two carrier ports on the 
east coast.
    The EIS process will be deliberate, balanced, and take into account 
aspects essential for our east coast naval forces. The Navy will take 
the time to ensure that all aspects of the decision, including national 
security requirements, total cost, impact on sailors and their 
families, and the effect on local economies, have been evaluated fully. 
Any corresponding programming of execution funds, if required, will 
occur after the final Record of Decision in January 2009.

                     drilling oil in gulf of mexico
    30. Senator Bill Nelson. Secretary Gates, I have successfully 
fought the expansion of oil drilling in the Gulf of Mexico in order to 
protect restricted military training areas. What is your position on 
oil drilling east of the military mission line in the Gulf of Mexico, 
where important military testing and training activities take place?
    Dr. Gates. The DOD supports the national goal of exploration and 
development of offshore energy resources, and understands that the 
administration's outer continental shelf oil and gas leasing program is 
critical to the Nation's energy security, economic stability, and 
national defense.
    The DOD, the DOI, and affected States have worked together 
successfully for many years to ensure unrestricted access to critical 
military testing and training areas, whle enabling oil and gas 
exploration in accordance with applicable laws and regulations. Through 
this relationship, we have been able to maintain the proper balance 
between our Nation's energy and national security goals. The current 
program proposal for the eastern Gulf of Mexico does not propose oil 
and gas exploration and leasing in areas used for military testing and 
training, and excludes from exploration and leasing those areas east of 
the Military Mission Line used by the DOD for testing and training. We 
support this proposal. Drilling structures and associated development 
in those areas east of the Military Mission Line would be incompatible 
with military activities, such as missile flights, low-flying aircraft, 
weapons testing, and training.

                      space situational awareness
    31. Senator Bill Nelson. Secretary Gates, most of the senior 
leaders in the Air Force and the U.S. Strategic Command have indicated 
that increased Space Situational Awareness (SSA) is one of the highest 
priorities for space spending. The Air Force budget request for SSA 
increases from $121.7 million in fiscal year 2007 to $187.8 million in 
fiscal year 2008. However, there is apparently no funding to upgrade 
the aging radars that track space objects. Is there any money in the 
fiscal year 2008 budget to upgrade these radars or otherwise improve 
the ability of the United States to improve SSA?
    Secretary Gates. In the fiscal year 2008 budget, the Air Force has 
requested $216.6 million to maintain and improve its array of SSA 
capabilities, which provide timely detection, tracking and 
characterization of objects in space. The Air Force is fully funding 
the replacement of aging components in the Air Force Space Surveillance 
System (AFSSS) radar in order to maintain its viability. Likewise, the 
fiscal year 2008 budget request supports the service life extension 
effort on the Eglin phased array radar to allow continued operations 
through fiscal year 2015. The Air Force is also upgrading the Haystack 
X-band radar to a higher frequency (W-band) imaging capability which 
will improve the ability to provide detailed characterization of 
smaller space objects.
    The fiscal year 2008 budget also supports investment in next 
generation SSA programs. One such system is the Space Fence, a new SSA 
radar which will replace the aging AFSSS with a multiple-ground-site 
system and provide a capability to detect and track smaller space 
objects. Additionally, the Space Based Space Surveillance (SBSS) 
program will continue building a new optical sensing satellite to 
provide frequent observations of space objects in, or traveling to, 
geosynchronous orbits. Finally, the Air Force is improving the ability 
to integrate and assess SSA data on shorter timelines by developing a 
replacement for the current Space Defense Operations Center computer.

                          test and evaluation
    32. Senator Bill Nelson. Ms. Jonas, last summer, there was a budget 
decision to reduce funds for Air Force test and evaluation and to close 
some test labs in Florida, New Mexico, and California. How did the DOD 
come to the decision to try to reduce our test and evaluation?
    Ms. Jonas. The Department did not reduce the funding for the Air 
Force test and evaluation program and has not made a final decision on 
closing labs in Florida, New Mexico, and California. Many times during 
budget preparation internal discussions occur on how the Department 
might best optimize our resources and operations. The Department 
continues to review the DOD lab structure and will comply with 
congressional direction to provide an analysis of any proposed 
realignments.
                                 ______
                                 
                Question Submitted by Senator Evan Bayh
                         printed circuit boards
    33. Senator Bayh. Secretary Gates, the National Research Council 
recently released a report that identified printed circuit board 
technology as critical in nearly every weapons system. The report 
concluded that the ability of the domestic printed circuit board 
industry to innovate and manufacture printed circuit boards in a secure 
environment is diminishing. What actions are you taking and investments 
are you making with this budget to ensure that DOD has a reliable and 
trusted supply of printed circuit boards for future and legacy systems 
and to ensure necessary innovation in the design and manufacture of 
this critical technology?
    Dr. Gates. The Department requested and received appropriated funds 
from Congress in fiscal year 2007 for logistics research and 
development of printed circuit board technologies and demonstrations. 
Included in this appropriation was funding for the preservation of 
access to reliable printed circuit board manufacturing in the United 
States. One of our centerpiece efforts is the DLA sponsorship of 
logistics research and development technology demonstrations under an 
Emerging Critical Interconnection Technology (ECIT) program. The ECIT 
program is providing the means for DLA to support organic printed 
circuit board centers at the Naval Surface Warfare Center and the 
Warner Robins Air Logistics Center. The increased support for these 
printed circuit board centers is intended to address the Department's 
continuing printed circuit board requirements. In addition, the 
Department has formed a task force of stakeholders and subject matter 
experts to identify and evaluate ongoing and possible future actions 
for protecting access to trusted and reliable printed circuit boards. 
The formation of the taskforce was directed in the John Warner National 
Defense Authorization Act (NDAA) for Fiscal Year 2007. The NDAA also 
directed a congressional reporting requirement on implementing the 
recommendations of the National Research Council Committee on 
Manufacturing Trends in Printed Circuit Board Technology. The report is 
due in July 2007 and will address in greater detail current and future 
actions the Department is taking in this area. This report will help 
inform future budget and program decisions on circuit board technology.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                            homeland defense
    34. Senator McCain. Secretary Gates and General Pace, since 
September 11, the DOD has acknowledged an expanded role and mission for 
its forces in the Homeland--both to defend against external threats and 
to provide support to civil authorities. In light of the strains placed 
on our military manpower and material due to our commitments in Iraq 
and Afghanistan, do you believe the DOD is fully prepared to provide 
the support to civil authorities that the Department of Homeland 
Security (DHS) is expecting of the DOD under the most extreme planning 
scenarios (such as the detonation of a nuclear device or multiple 
terrorist attacks)?
    Dr. Gates and General Pace. The DOD stands ready to provide all 
available resources to fulfill our roles and responsibilities 
identified in existing Federal plans such as the National Response Plan 
and the National Implementation Plan for Pandemic Influenza--one of the 
15 National Planning Scenarios. As the interagency planning effort 
based on the 15 National Planning Scenarios matures, DOD will be 
actively engaged to fill shortfalls in the Federal response 
capabilities.
    DOD is currently developing plans that address the 15 National 
Planning Scenarios and has advocated that other Federal departments and 
agencies do the same. Detailed advance planning such as this will 
identify those local, State, or Federal capabilities and/or resource 
gaps that DOD may be called upon to fill.
    DOD stands ready to assist our interagency partners with their 
planning efforts. DOD is providing planners to the DHS's Incident 
Management Planning Team and providing training allocations at our 
institutions that train DOD planners.

                            missile defense
    35. Senator McCain. Secretary Gates and General Pace, Admiral 
Fallon, Commander of Pacific Command--and soon to be Commander of 
CENTCOM, has told this committee that our missile defense capabilities 
need to pace the threat. Likewise, General Craddock, Commander of U.S. 
European Command, has told this committee that ``rogue states in the 
Middle East and Southwest Asia possess a current ballistic missile 
capability that threatens a major portion of Europe.'' In light of 
these comments by the combatant commanders, do you agree that the DOD 
should accord a priority to the successful testing and fielding of the 
current generation of ballistic missile defense capabilities in numbers 
sufficient to stay ahead of the growing threat?
    Dr. Gates. Testing and fielding BMD capabilities to defeat the real 
and growing ballistic missile threat has been and remains a priority 
for DOD.
    In 2002, the President directed us to develop and deploy, at the 
earliest possible date, ballistic missile defenses drawing upon the 
best technologies available. In 2004, we began fielding land- and sea-
based interceptors and radars. These systems were available to defend 
the U.S. Homeland if necessary during the North Korean test launches in 
2006. We will continue to build our interceptor inventories to counter 
the growing threat while we test and improve our current capabilities.
    General Pace. The current threat will grow and is growing in sheer 
numbers as existing ballistic missile capabilities are spread around 
the world as we have seen. Increasing the quantity and deployment of 
current ballistic missile capabilities can address the proliferation 
challenge. While more inventory is important, the continued 
development, integration, and test of missile defense technologies will 
yield capabilities that will mitigate the risk posed by future, more 
sophisticated threats.
    The advancements we have made since 2004, utilizing the Missile 
Defense Agency's unique capability-based acquisition approach which 
implements an integrated development, test, and fielding strategy, gave 
us the flexibility we needed to respond to the recent, near-term threat 
posed by North Korea. We want to be as ready and as confident, if not 
more so, against future threats as we were then.

                          prompt global strike
    36. Senator McCain. Secretary Gates and General Pace, the 2001 
Nuclear Posture Review (NPR) stated the need to provide the President 
with a broad array of nuclear and non-nuclear capabilities to bolster 
deterrence and defense against the new threats we face today. One such 
recommendation was the development of long-range, conventionally armed 
strike systems, also known as ``prompt global strike'' capabilities. 
The 2006 QDR reinforced this recommendation. Yet 5 years since the NPR 
we seem to be without a viable prompt global strike system under 
development. Please explain the strategic requirement for prompt global 
strike capabilities and summarize current plans to acquire such 
capabilities.
    Dr. Gates and General Pace. As the 2006 National Security Strategy 
notes, the new security environment differs radically from that of the 
Cold War and requires new approaches to international diplomacy, 
deterrence, and defense. In particular, deterrence can no longer rely 
on a one-size-fits-all approach, but must be tailored to address a wide 
range of threats including the prospect of WMD acquisition or use by 
both state and non-state actors. In this new security environment, 
crises can quickly develop to threaten U.S. national interests. Such 
crises could occur in areas that are beyond the range of existing U.S. 
forces, or in heavily defended areas that cannot be penetrated by 
existing systems without jeopardizing mission success or putting U.S. 
lives at risk. Today, however, nuclear-armed ballistic missiles are the 
only means the United States possesses for striking virtually anywhere 
in the world promptly (within minutes to hours from the time of a 
presidential decision). The President must be afforded a broader range 
of options to strike time-sensitive, high-value targets, including the 
conventional capability for worldwide, prompt response.
    Current plans for a prompt Global Strike capability consist of:

        <bullet> Development of Conventional Trident Modification to 
        provide a non-nuclear prompt Global Strike capability from 
        existing SSBNs;
        <bullet> Conversion of ballistic missile submarines (SSBNs) to 
        guided missile submarines (SSGNs) armed with conventional 
        Tomahawk cruise missiles to provide a prompt Global Strike 
        capability in scenarios where SSGNs are on station within range 
        of a target; and
        <bullet> Deployment of the Joint Air-to-Surface Standoff 
        Missile-Extended Range (JASSM-ER), with a range of over 500 
        nautical miles and capability for loitering and transmitting 
        imagery to planners, to provide a prompt Global Strike 
        capability in scenarios where U.S. aircraft are within range of 
        a target.

    The 2006 QDR recommended the Conventional Trident as the best near-
term, low-cost, low-risk technical solution for acquiring a prompt 
Global Strike capability. DOD has requested $175 million in fiscal year 
2008 to begin modifying 24 D5 Trident missiles to Conventional Tridents 
by removing their nuclear warheads and replacing them with up to four 
conventional warheads per missile. IOC would be within 2 years of full-
funding. For the longer-term, the Navy, Air Force, and Army are 
studying concepts for advanced prompt Global Strike systems that use a 
combination of ballistic missiles and hypersonic reentry systems to 
maneuver or extend range. These systems involve technological 
challenges and are years away from providing operational capability. 
Once fielded, however, these systems would provide a range of effects 
against a wider spectrum of targets, and a greater number of options 
for decisionmakers. Finally, non-kinetic systems, including information 
operations, are also envisioned as part of the suite of prompt Global 
Strike capabilities. The Prompt Global Strike Report to Congress for 
Fiscal Year 2006 and the Conventional Trident Modification Report to 
Congress of 1 February 2007, provide expanded discussion on the need 
for prompt Global Strike, Conventional Trident, and follow-on 
capabilities.

                   threats to u.s. space capabilities
    37. Senator McCain. Secretary Gates and General Pace, China's newly 
demonstrated ability to destroy U.S. satellites in low earth orbit 
raises the question of whether the United States is doing enough to 
counter such threats and maintain its freedom of action in space. The 
NDAA for Fiscal Year 2006 required the DOD to assess whether the 
Department is allocating sufficient resources to the space control 
mission. While the report is classified, it can be said that the DOD 
understands there are areas where additional effort is needed. What is 
your strategic assessment of the recent Chinese anti-satellite test and 
do you believe the DOD is devoting sufficient resources toward 
countering such threats?
    Dr. Gates and General Pace. The Chinese ASAT test represents a 
threat to the United States' superiority in space and the Department is 
paying close attention to its continued development, as we are for all 
threats to our space systems. With this emerging threat, we are 
increasing our priority on space protection and reconstitution efforts. 
Improvements are being made to our SSA and our ability to automate 
attack detection and characterization of ASAT and other threats. We are 
also developing the Operationally Responsive Space program to enhance 
our augmentation and reconstitution capabilities. The fiscal year 2008 
budget request will allow us to meet the milestones necessary to field 
new capabilities required to ensure our freedom to operate in space. We 
are continuing to evaluate the necessity/opportunity to accelerate 
capabilities as threats mature.
    This year, the Department has submitted to Congress several space 
control programs on the Unfunded Priority List. This additional funding 
would enable us to accelerate delivery of critical space protection 
capabilities such as the Rapid Attack Identification, Detection, and 
Reporting System (RAIDRS), the SBSS system, and Self-Awareness Space 
Situational Awareness (SASSA).
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                    defense contracts for the f-22a
    38. Senator Chambliss. Secretary Gates, the Department has 
requested approximately $4.6 billion for F-22As in fiscal year 2008 
based on a multi-year procurement (MYP) plan. However, a multi-year 
contract has not been entered into yet, although it is authorized in 
the NDAA for Fiscal Year 2007. Is it appropriate for the Department to 
request funding for a multi-year contract that has not yet been entered 
into?
    Dr. Gates. It is appropriate to request funding for a MYP contract 
that has not yet been entered into. If the President's budget had not 
requested funding needed for the F-22 MYP, the Department could not 
make the certifications required by Section 134 of the John Warner NDAA 
for Fiscal Year 2007, Public Law 109-364 (NDAA for Fiscal Year 2007), 
10 U.S.C. 2306b and 10 U.S.C. 2306b(i)(l)(A). The NDAA for Fiscal Year 
2007 and the DOD Appropriations Act, 2007, Public Law 109-289, approved 
MYP of the F-22 and associated engines beginning in fiscal year 2007. 
The Department plans to exercise the MYP authority provided by these 
statutes and plans to award the MYP contracts for the aircraft and 
engines in the August 2007 timeframe after providing the required 
certification. Prior to contract award, the Department must comply with 
the multiyear criteria set forth in 10 U.S.C. 2306b. The Secretary's 
certification must validate that there is a reasonable expectation 
throughout the contemplated contract period that the Secretary of the 
Air Force will request funding for the contract at the level required 
to avoid contract cancellation. Additionally, 10 U.S.C. 2306b(i)(l)(A) 
requires the Secretary to certify that the current Future Years Defense 
Program fully funds the support costs associated with the multiyear 
program already authorized by law. The fiscal year 2008 President's 
budget submission must include the funds needed for the MYP before the 
Secretary can complete the required certifications and execute the MYP 
contracts. The Department will comply with the law relating to the MYP 
contract award, and we will work with this committee and the entire 
Congress to provide sufficient information to permit Congress to act 
prudently to promote our national security needs.

    39. Senator Chambliss. Secretary Gates, is the Air Force on track 
to meet all the conditions required by the NDAA for Fiscal Year 2007 by 
30 days prior to award of the multi-year contract?
    Dr. Gates. The Air Force is on track to award the F-22A MYP 
contracts in August 2007. The Under Secretary of Defense for 
Acquisition, Technology, and Logistics and his staff are working very 
closely with the Air Force on all of the requirements which must be 
satisfied before award of the F-22 MYP contracts. We share the Air 
Force's goal to award the MYP contracts in the August 2007 timefiame. 
We are currently on track to complete contract negotiations and make 
the certifications required by the NDAA for Fiscal Year 2007, section 
134, and 10 U.S.C. 2306b(i)(l)(A) in July 2007, to permit contract 
award in August 2007. In addition, the NDAA requires the Secretary 
provide for a federally funded research and development center cost 
report on the MYP savings to be submitted no later than 30 days prior 
to contract award. The Department commissioned RAND to complete the 
required report which is on schedule to be delivered in July 2007.

    40. Senator Chambliss. Secretary Gates, can you explain why the 
Secretary of Defense did not certify the savings related to the 
proposed F-22A multi-year contract prior to submission of the fiscal 
year 2008 President's budget?
    Dr. Gates. Section 134 of the John Warner NDAA for Fiscal Year 
2007, Public Law 109-364, requires certification to the 10 U.S.C. 2306b 
criteria at least 30 days prior to award of the MYP contracts. The 
Department plans to exercise the MYP authority provided in the NDAA for 
Fiscal Year 2007 and the Defense Appropriation Act for F-22 beginning 
in fiscal year 2007. The fiscal year 2008 President's budget submission 
includes the funding needed for the MYP. The Department will comply 
with the law relating to the certification requirement, including the 
verification of savings. We anticipate the contract award in the August 
2007 timefiarne. We will comply with that congressional mandate, and 
the Department will work with this committee and the entire Congress to 
provide sufficient information to permit this Congress to act prudently 
to promote our national security needs.

                       air force c-130 and c-130j
    41. Senator Chambliss. Secretary Gates, the Air Force is requesting 
authority to retire 24 C-130Es in fiscal year 2008. The fiscal year 
2008 budget also requests funding for 9 C-130Js, the fiscal year 2008 
global war on terror request requests funding for 17 C-130Js, and the 
fiscal year 2007 supplemental requests funding for 5 C-130Js. Please 
explain the request to retire older model C-130s, rather than repair or 
upgrade them, in favor of purchasing new C-130Js. Is the Department's 
request in this regard based on an analysis of what is most cost 
effective in the long-term, or based on a desire to replace older, less 
capable aircraft with more modern, reliable, and capable new aircraft?
    Dr. Gates. The 24 C-130E retirements are not directly related to 
the 31 C-130Js requested. The planned 24 C-130E retirements are a fleet 
management and cost avoidance measure to retire the least capable, most 
problematic C-130s in the Air Force fleet. In recent analysis, the 
required cost to bring these C-130Es to viable status (approximately 
$26.9 million per aircraft) will only delay future issues relating to 
aircraft structural integrity (i.e. outer wings, empennage, et cetera) 
The nine C-130Js in the fiscal year 2008 budget are the last aircraft 
in the MYP stated to assist in the recapitalization of the C-130E fleet 
supporting EUCOM. The 5 C-130Js in the fiscal year 2007 global war on 
terror and 5 of the 17 C-130Js in the fiscal year 2008 global war on 
terror are supporting replacement of 12 C-130H2s given to SOCOM to 
support their Combat Loss Recapitalization (CLR) efforts. Seven of the 
remaining 12 C-130Js in the fiscal year 2008 global war on terror are 
to support an overstressed fleet which, if continued to fly under 
current operations tempo, will accelerate problems plaguing existing 
fleet, such as center and outer wing structures. Three of the remaining 
five C-130Js are for replacement due to non-combat loss. The last two 
C-130Js are to support MC-130 recapitalization efforts.

------------------------------------------------------------------------
             C-13OJs                    Funding             Purpose
------------------------------------------------------------------------
9...............................  2008 President's    C-130J MYP
                                   budget.
5...............................  2007 global war on  Replacement to
                                   terror.             support 12 C-130s
                                                       given to SOCOM
                                                       for CLR
5...............................  2008 global war on  Replacement to
                                   terror.             support 12 C-130s
                                                       given to SOCOM
                                                       for CLR
7...............................  2008 global war on  Alleviate stressed
                                   terror.             fleet due to
                                                       overfly
                                                       supporting global
                                                       war on terror
3...............................  2008 global war on  Replacement for
                                   terror.             non-combat losses
2...............................  2008 global war on  Support MC-130
                                   terror.             recapitalization
                                                       effort
------------------------------------------------------------------------


    42. Senator Chambliss. Secretary Gates, please explain the 
relationship between the numbers of C-130s the Air Force needs with the 
number of Joint Cargo Aircraft the Air Force and Army intend to 
purchase.
    Dr. Gates. The Mobility Capabilities Study (MCS) identified 395 C-
130s is the lowest point in a range of acceptable risk the Air Force 
needs to support the National Military Strategy with intratheater 
airlift. Air Mobility Command (AMC) forecasted the number of usable C-
130s in the fleet will drop below the 395 threshold by 2011. Until we 
are able to recapitalize our aging C-130s, the Air Force must retain 
its oldest aircraft longer than planned to keep the intratheater force 
structure above 395. The Joint Cargo Aircraft (JCA), C-130Js, and 
center wing box (CWB) repaired C-103s are all candidates to fill the 
shortfall in meeting the intratheater capabilities identified in the 
MCS. RAND had just completed a Functional Solutions Analysis (in draft 
now) that preliminarily concluded, ``no viable non materiel solution 
was found that can delay the need for C-130 recapitalization more than 
a few years.'' As the next step, an Intratheater Fleet Mix Analysis let 
by RAND will begin soon and we anticipate these study results as early 
as December 2007. These study results should provide details about the 
optimum mix of JCAs and C-130s needed to preserve our intratheater lift 
capabilities at acceptable levels of risk.

                      base realignment and closure
    43. Senator Chambliss. Secretary Gates and General Pace, as a 
result of the Department's Base Realignment and Closure (BRAC) process, 
tens of thousands of military personnel, and their families, will be 
relocating to new bases in CONUS. The Conference Report accompanying 
the NDAA for Fiscal Year 2007, states:

          The committee understands that the number of personnel and 
        dependents who will be relocated as a result of the 2005 BRAC 
        round, in concert with global rebasing, may well be 
        unprecedented in the history of our country. The committee 
        finds it alarming that neither the DOD nor the Department of 
        Education appears, at this point, to have taken seriously the 
        impact these relocations will have on local communities and, in 
        particular, local school districts. The committee believes it 
        is premature to assign specific cost sharing formulas regarding 
        what costs should be paid by Federal, State, or local 
        governments. However, the committee believes the Department 
        needs to carefully consider this and other issues as it 
        develops a comprehensive plan for addressing the off-base 
        impacts of BRAC and assorted other personnel movements.

    As a supplement to the report directed in the NDAA for Fiscal Year 
2006, the committee directs the DOD, in coordination with the 
Department of Education, to report to the Committees on Armed Services 
of the Senate and the House of Representatives every 6 months in 
relation to their plans to work with State and local education agencies 
to accommodate the growth in local school districts resulting from BRAC 
and assorted troop movements, to include: specific recommendations 
regarding cost sharing; grants and matching grants; planning grants; as 
well as specific recommendations from the DOD's Office of Economic 
Adjustment related to how local communities can prepare for and raise 
resources to accommodate the large influx of school students they 
expect as a result of DOD initiated actions.
    I understand the Department's fiscal year 2008 budget request 
provides $2.4 million in start-up costs to begin developing educational 
partnerships with local school systems impacted by base closures, 
global rebasing, and force restructuring; and that the purpose of these 
partnerships is to ease the transition of military dependent children 
from DOD Education Activity (DODEA) schools to stateside schools. 
Please explain the types of initiatives and projects these 
``educational partnerships'' include.
    Dr. Gates and General Pace. The $2.4 million requested in the DODEA 
fiscal year 2008 budget is in direct response to section 574(d) of the 
NDAA for Fiscal Year 2007, wherein Congress directed the Secretary to 
ease the transition of military dependent students from attendance at 
DOD schools to attendance at local educational agencies (LEAs). These 
funds will not go toward school system infrastructure, but will be used 
to share DODEA educational expertise and experience with school 
districts impacted by large influxes of students resulting from base 
closures, global rebasing, and force restructuring. The $2.4 million 
for fiscal year 2008 will be used to do initial assessments of school 
districts' needs, and to begin developing partnerships with the 
affected school systems.
    Through educational partnerships, the Department will work to 
increase the academic performance of K-12 students in partner schools 
and districts, and increase the opportunities and successes in foreign 
language courses in grades K-12. Below are descriptions of the types of 
programs and projects the Department plans to offer impacted school 
systems:

          a. High Quality Educational Program. This program seeks to 
        increase the academic performance of students through the 
        alignment of curriculum, instruction, assessment, and program 
        evaluation to promote data-driven decision making; outline 
        processes for ongoing program review; and maintain an effective 
        communication program so all military families are aware of 
        educational opportunities that are available to them. This 
        program also provides opportunities for DODEA and the LEA to 
        further enhance school administrator and teacher leadership 
        through joint training, mentorship programs, and collaborative 
        exchanges.
          b. High School Program. This program seeks to add rigor to 
        the high school program through enhanced offerings, highly 
        trained teachers, and by facilitating student participation and 
        success in the following assessments: Preliminary Scholastic 
        Assessment Test, Scholastic Assessment Test or American College 
        Test, Advanced Placement, International Baccalaureate, and End-
        of-Course Exams.
          c. Academic Support. This program specifically provides 
        transitioning students with continuity across school systems, 
        and opportunities to access and complete courses not available 
        locally.
          d. Social/Emotional Support. This program addresses the 
        unique needs of military dependents who may have a parent 
        deployed in a war zone; have lost a parent or have one with a 
        severe injury; have moved frequently during their early 
        academic careers; or have encountered other situations not 
        experienced by their non-military sponsored classmates. DODEA 
        will work to increase the participation rates of students and 
        their sponsors/parents in programs implemented to address the 
        unique needs of military families (summer school in high 
        deployment locations, after-school academic and co-curricular 
        programs, et cetera) in partner schools and districts.
          e. Educator Placement. This program provides opportunities 
        for DODEA educators to become employed in locations serving 
        large military populations, thus sharing their expertise in 
        working with military children and their families.
          f. President's Foreign Language Initiative. This program 
        provides ongoing support for the President's Foreign Language 
        Initiative where DODEA is working to increase the number and 
        levels of foreign language proficiency of K-12 students in its 
        schools. DODEA will provide its expertise to plan and guide 
        implementation of foreign language programs (especially in 
        Mandarin Chinese and Arabic) in LEAs.


    44. Senator Chambliss. Secretary Gates and General Pace, is the 
Department's intent for this to be an annual funding request, or is it 
only for fiscal year 2008?
    Dr. Gates and General Pace. Global rebasing, force restructuring, 
and unique requirements for military dependents will continue to affect 
DOD even after base closures occur. To accommodate the impact of these 
issues, this will be an annual funding request. The amount will vary as 
troops move and LEAs request assistance.

    45. Senator Chambliss. Secretary Gates and General Pace, is the 
Department considering other cost sharing initiatives to assist local 
school systems, and does the Department have additional plans for 
working collaboratively with other Federal agencies and local/State 
education agencies to ensure that military children have access to 
sufficient educational resources and facilities when they arrive at one 
of the new, highly impacted installations? If so, please explain the 
extent of these cost sharing initiatives and plans.
    Dr. Gates and General Pace. The Department encourages LEAs to work 
with the Department of Education which has information that enables 
communities to understand and access opportunities to expand their 
range of choices (public, private, and charter). These choices include 
funding and financing alternatives designed to supplement traditional 
construction financing arranged through county and State government 
resources. Federal programs provide excess property, funding to assist 
LEAs secure favorable rates on loans, and grants to assist LEAs with 
facility repair and refurbishment. Many States have already considered 
alternative funding for construction, along with alternatives to 
traditional school facilities, to contend with capacity requirements.
    Additionally, the Department is partnering with national 
associations representing State governments to obtain support. For 
example, the Department is working with the Council of State 
Governments to establish an interstate compact, which is designed to 
ameliorate differences in school systems ranging from differing age 
requirements to start kindergarten through varying requirements to 
graduate from high school.
    The Department recently hosted the ``Department of Defense 
Conference on Education for Military-Connected Communities'' for 17 of 
the most heavily impacted military communities to share information 
from a range of experts who have experience with educational 
facilities, financing, and funding. The after action report is 
available online at www.militarystudent.org.
    Finally, part of the plan to assist schools includes utilizing the 
expertise of DODEA, which has developed successful practices to educate 
military children. Congress extended the DODEA charter to share this 
expertise and experience with LEAs. Such resources include 20 
exportable component programs that include foreign language curriculum 
and support, access to virtual/distance learning technology 
capabilities and related applications, teacher training, and high 
quality teaching and learning programs.

                     president's state of the union
    46. Senator Chambliss. Secretary Gates and General Pace, in his 
State of the Union address, President Bush proposed the development of 
a Civilian Reserve Corps. DOD is already relying on the deployment of 
civilians to support contingency operations, and is looking at 
strategies to create a more expeditionary workforce. How is the support 
of DOD civilian deployment accounted for in the budget, and what 
policies and initiatives are in development to enhance the Department's 
ability to attract and mobilize the civilian workforce in support of 
the global war on terrorism?
    Dr. Gates and General Pace. The Department primarily funds support 
for civilian deployments through global war on terror. The Emergency 
Supplemental Appropriations Act for Defense, the global war on terror, 
and Hurricane Recovery Act of 2006, contained a provision that 
authorized the Secretary of Defense to match the benefits offered to 
Defense civilian employees to those offered by the State Department for 
its employees in the Foreign Service. These benefits include a 
provision to provide a death benefit equivalent to 1 year of an 
employee's salary for those serving in Iraq and Afghanistan. The 
Department also offers its deploying civilians the option of enrolling 
in life insurance, specific training related to the area of deployment, 
and rest and recuperation trips out of contingency zones. We are 
grateful to Congress for continuing to waive the limitations on the 
amount of premium pay that may be paid to a Federal civilian employee 
while the employee performs work in an overseas location that is in the 
AOR of the Commander, U.S. CENTCOM, and in direct support of, or 
directly related to, a military operation or operation in response to a 
declared emergency.

    [Whereupon, at 1:30 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                        THURSDAY, MARCH 15, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                   POSTURE OF THE UNITED STATES ARMY

    The committee met, pursuant to notice, at 9:41 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Bill Nelson, E. Benjamin Nelson, Bayh, Pryor, Webb, 
McCaskill, Warner, Inhofe, Collins, Chambliss, Thune, and 
Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Daniel J. Cox, Jr., professional staff member; Gabriella Eisen, 
professional staff member; Richard W. Fieldhouse, professional 
staff member; Creighton Greene, professional staff member; 
Michael J. Kuiken, professional staff member; Gerald J. 
Leeling, counsel; Peter K. Levine, general counsel; Michael J. 
McCord, professional staff member; William G.P. Monahan, 
counsel; and Michael J. Noblet, research assistant.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Paul C. Hutton IV, research assistant; Gregory T. 
Kiley, professional staff member; Derek J. Maurer, minority 
counsel; David M. Morriss, minority counsel; Lucian L. 
Niemeyer, professional staff member; Sean G. Stackley, 
professional staff member; Diana G. Tabler, professional staff 
member; and Richard F. Walsh, minority counsel.
    Staff assistants present: Fletcher L. Cork, Kevin A. 
Cronin, and Micah H. Harris.
    Committee members' assistants present: Frederick M. Downey, 
assistant to Senator Lieberman; Elizabeth King, assistant to 
Senator Reed; Darcie Tokioka, assistant to Senator Akaka; 
Caroline Tess, assistant to Senator Bill Nelson; Eric Pierce, 
assistant to Senator Ben Nelson; Todd Rosenblum, assistant to 
Senator Bayh; Lauren Henry, assistant to Senator Pryor; Gordon 
I. Peterson, assistant to Senator Webb; Stephen C. Hedger and 
Jason D. Rauch, assistants to Senator McCaskill; John A. 
Bonsell and Jeremy Shull, assistants to Senator Inhofe; Mark J. 
Winter, assistant to Senator Collins; Clyde A. Taylor IV, 
assistant to Senator Chambliss; Lindsey Neas, assistant to 
Senator Dole; Russell J. Thomasson, assistant to Senator 
Cornyn; Jason Van Beek, assistant to Senator Thune; and John L. 
Goetchius and Brian W. Walsh, assistants to Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. Today Secretary 
Geren testifies for the first time in his new capacity as 
Acting Secretary of the Army. General Schoomaker testifies for 
probably the last time as Chief of Staff. I say probably 
because, although there are no current plans to invite you 
again before your change of command, General, we obviously 
don't know when issues affecting the Army today may necessitate 
your appearance before the committee before that change of 
command.
    We welcome you both. We again want to give special thanks 
to you, General, for your decades of service to the Nation and 
especially for your willingness to answer the call from 
retirement to lead the Army over the last 4 years during this 
time of war. We wish you the best of luck in all of your future 
endeavors and again our gratitude to you for your special 
service coming out of retirement.
    We also want to welcome our visiting soldiers, representing 
the Active Army, the Army Reserve, and the National Guard, and 
we thank you for your service and all those that you represent 
in uniform.
    This is indeed an Army at war. The Army has been engaged in 
Afghanistan for over 5 years, will soon be entering its fifth 
year of war in Iraq. None of the administration's rosier 
predictions have come true, I am afraid, but with this surge 
the number of soldiers engaged in Iraq will approach previously 
high level marks. Some Army units are on or entering their 
third year of Afghanistan or Iraq service and some individual 
soldiers are on their fourth.
    While individual Americans may differ in their opinions 
about these operations, especially about Iraq, all Americans 
recognize and honor the bravery, the self-sacrifice, the 
devotion to duty of our soldiers and their families, indeed 
that of all of our military personnel and their families. For 
those of us in Congress, no matter how we voted on authorizing 
the war, whether we have been critics or supporters of the 
handling of the war, we are determined to see that our troops 
and their families are supported in every possible way. That 
determination unifies this Nation, unifies Congress. We're 
going to support our troops and their families.
    We were dismayed to learn that the Army did not meet its 
obligation to provide for the proper care of injured and 
wounded soldiers recuperating at Walter Reed Army Medical 
Center. The concerns expressed by the soldiers in medical hold 
and holdover status at Walter Reed are more than about physical 
conditions of the buildings. The bureaucracy is often mind-
numbing in its roadblocks and delays. For example, the Army's 
physical disability evaluation process is in disarray. Soldiers 
are frustrated because they don't understand the process, they 
don't understand why it takes months and months to get a 
disability rating, they don't understand why their disability 
ratings are so low when compared to disability ratings awarded 
by the Veterans Administration (VA).
    The recent Army Inspector General (IG) report describes a 
system which is dysfunctional, does not clearly give our 
wounded soldiers the treatment that they deserve, and which our 
laws require. We are committed to shaking up this system so 
that our soldiers will get a fair and a prompt disability 
rating.
    The heaviest burden in this war has fallen on the Army. 
Although it appeared somewhat fashionable to question the 
relevance of ground forces prior to September 11, that can 
hardly be the case now. The reality of warfare in the 21st 
century demands both the high intensity force on force combat 
as characterized in the early weeks of the Iraq war and the 
grinding, all-encompassing stability and support and 
counterinsurgency operations of the last few years.
    Almost all types of warfare require, in Army parlance, 
boots on the ground. They require an Army that is optimally 
organized, trained, and equipped for anything we might ask it 
to do. The challenge for the Army, for this Nation, and for 
this Congress is sustaining an Army fully engaged in current 
operations while also modernizing and transforming that Army to 
meet future threats. This hearing will help us understand what 
needs to be done to ensure an Army that is ready for all of its 
potential missions, both today and in the future.
    With respect to current operations, in order to sustain the 
necessary higher readiness levels in our deployed forces the 
readiness of our non-deployed forces has declined. Most of 
those units are not ready, the non-deployed force units. 
Consequently, getting these units fully equipped and trained 
for their rotation to Iraq or Afghanistan or other places is 
that much more difficult and risky. It substantially increases 
the risk that this Nation faces should those forces be required 
to respond to other full-spectrum requirements of the National 
Military Strategy.
    The President's plan to plus-up U.S. forces in Iraq with an 
additional five Army brigade combat teams (BCTs) and a still-
evolving combat support commitment puts pressure on an already 
strained readiness situation. This morning we look forward to 
an update on the preparation of this plus-up force so that we 
can be assured that these units will be fully trained and fully 
equipped before they deploy.
    Long before the President announced his new strategy in 
Iraq, military leaders raised questions about the Nation's 
readiness to deal with other contingencies in a world which has 
many dangers and uncertainties. In testimony to this committee 
just last month, General Schoomaker was direct in his concern 
for the strategic depth of our Army and its readiness. He was 
clear in his apprehensions about the short- and long-term risks 
resulting from the lower readiness levels of our non-deployed 
forces.
    In a marked change of position for the Defense Department, 
the Army is proposing this year to increase its Active Duty end 
strength by 65,000 soldiers to 547,000 over the next 5 years. 
As we enter year 5 of the Iraq war, the proposed increases come 
late and are substantially larger than increases proposed by 
Senators on this committee over the past several years, 
proposals that the Defense Department previously opposed.
    We all understand the stress on our forces in Iraq, but few 
of these proposed additional soldiers, if any, would be trained 
and ready in time to help relieve that stress. Therefore it is 
important that we understand why additional personnel of this 
magnitude are needed in the long-term when that need was not 
foreseen by the 2006 Quadrennial Defense Review (QDR) that 
rejected such force increases. How did the Army arrive at 
547,000 as the appropriate size of its Active Force? Do these 
numbers reflect more what can be achieved rather than what 
should be achieved? Is the Department of Defense (DOD) 
committed to funding this proposed increase or does the Army 
intend to identify offsets within its own budget to grow the 
additional forces and, if so, at what cost to transformation, 
modernization, and future readiness?
    The administration's proposal to increase the permanent end 
strength and structure of the Army is welcome, although late. 
Had we started in earnest to grow the Army even 4 years ago, 
our forces today would be less stressed and more ready.
    We must guard against merely creating a larger version of a 
less ready force. Army plans for expansion must be 
comprehensive, detailed, and fully resourced. Congress must 
understand what is needed to bring our ground forces to the 
levels of strength and readiness necessary to avoid the 
unacceptable risks and readiness shortfalls that exist today 
and to modernize our Army to meet our national security 
requirements into the future.
    Finally, through this hearing we would like to know the 
impact of the Iraq surge on the Army, including the National 
Guard and Reserve.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. Mr. Chairman, I 
will put a statement in this morning's record on behalf of the 
ranking member, Senator McCain.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    Thank you, Chairman Levin. I join you in welcoming our witnesses 
here today.
    Secretary Geren, welcome. You have been in this job for only a few 
days, but I would like to commend you on your years in public service 
that date to 1989, when you took a seat in the United States House of 
Representatives, representing the 12th Congressional District in Texas, 
for 4 terms. After returning to the private sector, you joined the 
Department of Defense in September 2001 to serve as Special Assistant 
to the Defense Secretary. In July 2005, President Bush appointed you as 
the Acting Secretary of the Air Force until November 2005 and you 
assumed the post as Under Secretary of the Army in February 2006.
    Mr. Chairman, I would particularly like to welcome General 
Schoomaker--to what will likely be his last appearance before the 
committee.
    General Schoomaker, I join my colleagues in recognizing decades of 
selfless service that started at the end of the Vietnam War and 
included participation in Operation Desert One in Iran; Urgent Fury in 
Grenada; Just Cause in Panama; Desert Storm in Southwest Asia; Uphold 
Democracy in Haiti; and many other worldwide joint contingency 
operations as a commander of Special Forces units. I would like to 
principally acknowledge your last assignment as the 35th Chief of Staff 
of the Army. Your return to Active Duty from retirement was a 
remarkable act of selfless service and devotion to duty. Our Nation has 
benefited greatly from your professionalism, especially during one of 
the most challenging chapters in the history of this country. In times 
of enormous uncertainty and high operational tempo, you stayed focus on 
the mission and guided the Army with a steady hand.
    America has been engaged in this long war against global extremists 
since the September 11 attacks, and then in combat operations, first 
against the Taliban beginning in October 2001, and then in a military 
campaign to oust Saddam in March 2003. It has been a joint service 
endeavor from the start, but the Army, Marine Corps, and our special 
forces who have borne a larger share of the combat. Since September 11, 
over 750,000 Active, Guard, and Reserve soldiers have been, at one 
time, deployed overseas in support of the war on terror, primarily in 
the Central Command area of operations. They are all volunteers who 
have served unselfishly and with great bravery, distinction, and 
devotion to duty.
    While the Army is fighting two land campaigns, it must also 
transform its structure and capabilities to meet future challenges; 
sustain the All-Volunteer Force; and cope effectively with the 
increasing level of stress that our soldiers and their families are 
weathering. We have a great Army--but, it has been under enormous 
strain. General Schoomaker, in December 2006, in testimony before the 
Commission on the National Guard and Reserves you warned that the 
Active-Duty Army ``will break'' under the strain of today's war-zone 
rotations. This is an area of vital concern to the committee.
    At today's hearing, the witnesses will be asked about: the Army's 
readiness; the proposed growth in the Army end strength; Army progress 
towards modular conversion; balancing the current structure between the 
Active and Reserve Forces; mobilization policies; the Army's request 
for multi-procurement authority for the Army Chinook helicopter, Abrams 
tanks, and Bradley upgrades; the Army's commitment to resource the 
National Guard's role as an operational force and the States' homeland 
defense and civil support missions; the Future Combat Systems program; 
the investment in Army aircraft; and Army plans to remedy conditions 
found to exist in the Army Medical Command.
    In the fiscal year 2008 budget request of $130 billion, the Army, 
along with the other Services, presented long lists of priorities that 
were left without funding. I am concerned about the size of the 
unfunded requirements lists which were submitted with the fiscal year 
2008 budget. The Army's fiscal year 2008 budget request is $20 billion 
more than the 2007 request, and the fiscal year 2007 supplemental 
request increased by $49 billion, and yet the Army's 2008 unfunded 
requirements list increased by almost $3 billion.
    In closing, people are the Army's most valuable resource. More than 
30 years ago, General Creighton Abrams, the 26th Chief of Staff of the 
Army, said, ``The Army is people.'' These are America's sons and 
daughters who, each and every day, put themselves in harm's way 
prosecuting the long war against global extremists--away from those 
they love and often on multiple tours. Finally, I would like to 
recognize, with our most sincere gratitude, the Army families who have 
sacrificed so much, especially those who have lost loved ones, and 
those who are caring for those wounded in service to our Nation.
    I look forward to today's testimony. Senator Levin.

    Senator Warner. I would just like to add my personal 
observations here, first to our long-time associate here, 
Secretary Geren. My recollection is you came to the DOD 6 years 
ago; would that be correct?
    Mr. Geren. Yes, sir.
    Senator Warner. In that period of time you have had six 
different jobs, is that right?
    Mr. Geren. Just four, sir.
    Senator Warner. Four. You have currently been in the Army 
secretariat as Under Secretary now for a year and we are 
fortunate that you are available to take on this assignment as 
the acting until such time as the Secretary and the President 
make their determination for a successor. Now, I would hope 
that they would consider you among the candidates. I think it 
would be well deserving. I just offer that because you bring an 
unusual experience of having been a part of the Congress of the 
United States, which, as we can see by this hearing this 
morning, an understanding of Congress and an ability to work 
with them, which you have displayed in all of your assignments, 
is very, very key to the position of being a Service Secretary.
    So I wish you well, my good friend.
    Mr. Geren. Thank you, sir. I appreciate your kind words.
    Senator Warner. General Schoomaker, my distinguished 
colleague here, the chairman, has reviewed your record, but I 
would just like to add. It is extraordinary. You joined the 
Army in the closing period of Vietnam, and you and I have 
talked about that period and your recollections of the Army at 
that time and how everything you have done is to avoid any 
repetition of what you witnessed in that very stressful 
situation post-Vietnam when transitioning from the draft to the 
All-Volunteer Army and how hard you have fought to keep the 
All-Volunteer Army concept viable and working, I can say I 
think you have achieved in large measure.
    But in that period since the closing year of the Vietnam 
War when you joined the United States Army, you participated in 
Operation Desert 1 in Iran, Urgent Fury--these are military 
combat operations--Urgent Fury in Grenada, Just Cause in 
Panama, Desert Storm in Southwest Asia, Uphold Democracy in 
Haiti, and many other worldwide joint contingency operations as 
commander of Special Forces units; and now your last 
assignment, as the 35th Chief of Staff of the United States 
Army. I would say without reservation, well done, sir.
    Now, in the final weeks that you have or whatever period it 
may be, we are going to have to look to you to give us the 
guidance here in Congress to make sure that we can continue the 
modernization of the Army and the transformation initiated on 
your watch.
    I have always been an admirer of the force with which you 
speak and you have spoken out very forcefully on these 
situations. Let me call your attention to December 2006, just 
last December, testimony before the Commission on the National 
Guard and Reserves. You warned that the Active-Duty Army, 
``will break,'' under the strain of today's war zone rotations.
    This is an area of vital concern to this committee and I 
hope today you will continue without reservation to express 
your personal opinions. Sometimes we get lost in all these 
carefully prepared statements by staff. No disrespect to staff, 
but every now and then when you just look us straight in the 
eye and tell us as it is, drawing on all of that incredible 
experience that you have rendered in uniform on behalf of the 
United States Army and this Nation. Well done, sir.
    General Schoomaker. Thank you, sir.
    Chairman Levin. Thank you, Senator Warner, so much.
    Secretary Geren.

    STATEMENT OF HON. PRESTON M. ``PETE'' GEREN III, ACTING 
                     SECRETARY OF THE ARMY

    Mr. Geren. Thank you, Mr. Chairman, Senator Warner, and 
members of the committee. It is truly an honor to be before you 
today representing your United States Army.
    Senator, if I could, I am here to talk about our budget and 
our posture statement, but I would like to speak to the Walter 
Reed issue. You raised it in your remarks. You said the 
response of Congress was dismay. I can assure you in the Army 
the dismay was profound. Part of the Army ethos is we will 
never leave a fallen comrade. That is part of the heart and 
soul of every soldier in uniform and every civilian that serves 
in the Army, and what happened at Walter Reed violated that 
principle, and I can assure you that this Army is committed to 
making sure that it does not happen again and we are taking 
steps to ensure that it does not.
    I would like to talk about that in a little more detail, 
though. There is really, the issue that brought some of the 
problems to light, which was a facilities and the treatment of 
one outpatient area, but as we have studied this, in fact as we 
studied it over the past year, we have learned that the system 
has need of great reform, as you noted in your remarks.
    But in order to address the immediate challenges, I would 
like to tell you what we have done. The infamous Building 18, 
there is not a single soldier left in Building 18. Every one of 
those soldiers has been moved out to the Abrams Barracks on the 
Walter Reed campus. Those are barracks that are appropriate to 
serve these fine soldiers. They are up-to-date, they are 
modern. They have computers in them. They have telephones, 
televisions in them, and they are getting the treatment that 
they deserve in those quarters.
    We have also taken some steps and I think the most 
important step we have taken is personnel changes, new 
leadership at Walter Reed, leadership that is charged and feels 
deeply this responsibility and going to act on it. We happen to 
have another General Schoomaker out there, General Eric 
Schoomaker, the Chief's brother. He was appointed in the 
position as commander of Walter Reed on a Friday afternoon. He 
was there within hours on the ground with his command sergeant 
major, and she went to every single room where these soldiers 
were going to be quartered. That kind of commitment to these 
soldiers was evidenced from the very beginning.
    We have also created a new office that did not exist 
before. It is a brigadier general. It is a deputy commanding 
general at Walter Reed, and this general's job is going to be 
the bureaucracy-buster. In your opening remarks you alluded to 
the mind-numbing bureaucracy that so many of these soldiers are 
trapped in. I agree with you, and the job of this general--he 
is a one-star general, he is a combat veteran. He took this job 
with enthusiasm. In fact, he was there the next morning after 
he was notified of his assignment and he is working his full-
time deployment to Walter Reed right now. But he shares your 
commitment and he will be our bureaucracy-buster.
    We have also established a new Wounded Warrior Transition 
Brigade, an O-6 colonel in charge of it, and it has a command 
sergeant major by the name of Sergeant Major Hartless. He 
happens to be a combat veteran himself, a severely wounded 
veteran. He was at Walter Reed and I can tell you from day one 
his commitment to these soldiers was demonstrated and 
heartfelt, and he is going to be their advocate. He is going to 
work with them and make sure that they have the leadership they 
deserve.
    Long-term, we are creating a one-stop soldier family and 
assistance center out there to make sure a soldier knows where 
to go and where he can get the assistance he deserves. We are 
creating a wounded warrior and family hotline that will be up 
and operational March 19, 2007, and this is going to come into 
the Army headquarters; it is not going to be staffed at a low 
level. This is going to come up, so we make sure that we hear 
from the grassroots people who can get something done.
    We have a team of experts, and Vice Chief of Staff General 
Richard A. Cody, USA, is heading up an action plan--a team of 
experts that is going to every single major medical facility, 
going to report back to the Vice Chief of Staff and to me 
within 30 days. We have a similar team that is going to examine 
all the community-based health care organizations that are out 
there serving our Reserve component soldiers who are assigned 
to recover and rehabilitate closer to their homes. The Vice 
Chief of Staff has a teleconferencing initiative where he meets 
by secure video teleconferencing system with the hospital 
commanders regularly, hears what their needs are, and we are 
creating a formal patient advocacy program.
    You also mentioned the DOD IG. The IG began his work a year 
ago, his report very timely, and the Army leadership is 
embracing that report and we are working to update the Army 
regulations. As he has noted there, the timeliness standards 
were not up to standard. Training standards needed updating, 
quality controls, automated systems. I have already met with 
Major General Gale S. Pollock, USA, Acting Surgeon General, and 
this is her top priority and she is working with that, and the 
IG is going to remain engaged to make sure we get it done.
    We also have the issue that has come up and some of your 
colleagues have raised, appropriate and timely pay to these 
wounded warriors. We are reviewing that system and making sure 
we do everything we can to make sure they get paid on time and 
get the benefits they deserve.
    Senator, again the dismay that we experience as an Army, 
the pain that this institution felt when we let wounded 
warriors down, I can assure you is profound, it is heartfelt, 
and our soldiers are moving out. There are going to be long-
term fixes proposed. Congress will be working these. 
Legislation has already been proposed. The President has 
proposed commissions under the able leadership of former 
Senator Robert J. Dole, and former Secretary of Health and 
Human Services, Donna E. Shalala.
    We have internal investigations under way. We have to look 
at the overall system. But I can assure you we are not waiting 
on those policy decisions. We are moving out to the extent we 
can and we are going to be a part of the long-term solution as 
well.
    Two weeks ago the last combat veteran of World War I died. 
He was 109 years old. That gives you a sense of the kind of 
challenge we have ahead of us. We live longer today than we did 
then. We have severely-wounded warriors that are surviving 
wounds they would not have survived in the past, and we as a 
Nation have to make up our minds that we are going to step up 
and meet their needs, and I can assure you your Army is 
committed to doing our part.
    Let me turn now to the posture statement. Our budget lives 
up, I believe, to our commitment to soldiers and their 
families. They are our priority. I know they are this 
committee's priority. Let me say at the beginning, thank you 
for the support you have given the Army over the decades, over 
the centuries frankly. The soldier has no better friend than 
this committee and we thank you for that.
    Our top priority is meeting the needs of the soldiers and 
their families. There are 130,000 soldiers in combat, soon to 
be 150,000. They are the best-trained, best-led, best-equipped 
soldiers we have ever put in the field, and this budget is 
going to ensure that we continue to be able to provide that 
kind of combat-trained soldier in the field.
    This budget also assures that we are going to have a 
quality of life for our soldiers that matches the quality of 
their service. This has a 3 percent pay raise in it. It has 
base operating support and facilities sustainment, restoration, 
and modernization at 90 percent.
    Four years ago, the operating account for the facilities 
was 40 percent lower than it is now. We are making a commitment 
to soldiers and their families to make sure that they have the 
quality of life that they deserve.
    We are putting a heavy burden on the soldiers, it is well 
known, but a heavier burden on the families, and all of you who 
work so closely with our soldiers and their families, you 
appreciate the stress on those families, and this investment is 
an investment in those families.
    The stress on the force is obviously the war. But even 
without the war this is an extraordinarily busy Army. We are 
working through the Active component and the Reserve component 
rebalancing. We are undertaking the modularity initiative. We 
are adding end strength, 65,000 in the Active, 8,000 in the 
Reserve, and 1,000 in the Guard. The reset and modernization 
and business transformation--we are asking a lot of our 
soldiers and families, and this budget makes those investments.
    Another point that I would like to make is this budget 
represents an investment in the total force, one Army, Active, 
Guard, and Reserve. They train as one and they fight as one. 
Our budget from 2005 to 2013 has a $36 billion investment in 
the Guard equipment, $36 billion, unprecedented. Sixty-five 
percent of all of our new trucks are going to the Guard. Forty 
percent of our new helicopters are going to the Guard and 
Reserve. The Guard and Reserve are no longer part of the 
strategic Reserve. The Guard and Reserve are part of the 
operational force and this budget and this Program Objective 
Memorandum (POM) reflects that.
    Force protection. This makes a continuing investment in 
force protection and we commend this committee for its 
leadership in this area, but this continues to ensure that we 
have the best equipped and best protected soldiers.
    Let me mention one thing in closing. We have a supplemental 
and Base Realignment and Closure (BRAC) funding before you 
today to communicate to you the urgency of moving that 
supplemental and moving that BRAC funding on time. We 
experienced last summer a delay and the impact on soldiers and 
their families and our training opportunities was serious. I 
just urge Congress to help us meet our financing needs by 
getting our supplemental to the President, to us, by late 
April.
    Mr. Chairman, thank you very much for the opportunity to 
address the committee and I stand ready to answer questions. 
Pardon me, let me say one thing about my colleague to the left. 
There is little I could add to what you and Senator Warner said 
about Pete Schoomaker. But I would say, having worked with him 
fairly closely for the last couple years, he is a leader of 
extraordinary ability. I think that when history looks at the 
last 4 years that he served it will note that Pete Schoomaker 
was one of the great leaders in our United States Army. The 
work before this, how he helped make the Special Forces that we 
have today and how he has transformed the force right now--
extraordinary leader.
    Yesterday Pete Schoomaker said to me, he recalled a country 
music song. He said: I would rather have 10 minutes in the 
saddle than a lifetime in the stands. Well, he has had a 
lifetime in the saddle and he claims that he is heading for the 
stands now. I do not believe it. I will believe it when he sees 
it--when we all see it.
    Pete Schoomaker, thank you for your service to our Army. 
Thank you for your service to our soldiers. A great American. 
Thank you very much, chief.
    [The 2007 Army Posture Statement follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
        
    Chairman Levin. Secretary, thank you so much for your 
commitment to the troops that you laid out relative to the 
Walter Reed, so-called, type problem, which is much broader 
than Walter Reed, for your other comments about the needs of 
the Army, and for your comments about General Schoomaker. Thank 
you for all of that.
    General Schoomaker.

  STATEMENT OF GEN PETER J. SCHOOMAKER, USA, CHIEF OF STAFF, 
UNITED STATES ARMY; ACCOMPANIED BY LTG JAMES J. LOVELACE, USA, 
 DEPUTY CHIEF OF STAFF, U.S. ARMY; LTG CLYDE A. VAUGHN, ARNG, 
   DIRECTOR, ARMY NATIONAL GUARD; LTG JACK C. STULTZ, USAR, 
COMMANDING GENERAL, U.S. ARMY RESERVE COMMAND; AND LTC COLL S. 
   HADDON, USA, DEPUTY DIRECTOR, OPERATIONS PROGRAM MANAGER, 
           FUTURE COMBAT SYSTEMS, BRIGADE COMBAT TEAM

    General Schoomaker. Sir, thank you very much. Mr. Chairman, 
distinguished members of the committee: Chairman Levin, thanks 
very much for your kind words. Pete, thanks very much. I could 
not be prouder of the United States Army and the young men and 
women that are in it, and it has been a distinct privilege to 
be able to be associated once again with these young people.
    I am not going to provide a long opening statement because 
I want to introduce these soldiers, but also because I would 
like to associate myself officially with your statement that 
you just read. I think that I could not make a better opening 
statement than the one that you just did and I hope that we 
continue to achieve the support out of this committee that we 
have enjoyed over the 4 years of my tenure, because I think it 
is important.
    I would like to introduce these three soldiers that 
represent our young men and women. They do represent each of 
the components. The first one is Staff Sergeant David W. Hatton 
from Macon, Georgia. He is a member of the Georgia Army 
National Guard. He deployed to Iraq for Operation Iraqi Freedom 
3 as a military police squad leader in the headquarters company 
of the 48th BCT serving out of Camp Stryker in Baghdad.
    Staff Sergeant Hatton and his squad provided security for 
explosive ordnance disposal personnel for destroying improvised 
explosive devices (IEDs) detected by patrols, and on one such 
mission Staff Sergeant Hatton was injured in an IED strike. 
Although injured, he continued to set the example for courage 
in the face of adversity as he resumed leading his squad and 
was then given added responsibility for providing security for 
other logistics convoys delivering supplies to the forward 
operations base (FOBs) and camps throughout Iraq.
    Staff Sergeant Hatton conducted more than 250 combat 
patrols from May 2005 through May 2006, and for his leadership 
and courage he has been awarded the Purple Heart Medal, the 
Bronz Star Medal, and the Army Commendation Medal with the V 
Device for Valor. Staff Sergeant Hatton. [Applause.]
    From our Army Reserve, Sergeant First Class Robert Groff. A 
native of Bartonville, Illinois, he currently works as a 
recruiter in Peoria, Illinois. As a soldier on Active, Guard, 
or Reserve status, Sergeant First Class Groff also represents a 
critical aspect of what our Reserve component soldiers provide, 
full-time support to enable our Guard and Reserve units to 
sustain a high operational tempo to support both their 
mobilization and recruiting activities.
    I have invited Sergeant First Class Groff to be here today 
because from February 2004 through February 2005 he served as a 
platoon sergeant in the 724th Transportation Company during 
Operation Iraqi Freedom 2. On 9 April 2004, Sergeant First 
Class Groff was the assistant commander for a critical fuel 
convoy. The ground convoy consisted of 42 personnel and 26 
vehicles, manned largely by civilian drivers, with soldiers 
providing security and command and control. Of the 26 vehicles, 
17 were fuel tankers, each loaded with 7,500 gallons of JP-8 
jet fuel.
    Sergeant First Class Groff was responsible to ensure that 
the convoy stayed together and that each vehicle made the 
proper turns. Although inherently dangerous, the convoy should 
have been a routine mission. Instead it became one of the 
largest enemy ambushes in the history of Operation Iraqi 
Freedom. Over a 4.5 mile stretch of the convoy route, an enemy 
force of 200 to 300 insurgents armed with small arms, heavy 
machine guns, rocket-propelled grenades (RPGs) and mortars, 
augmented by IEDs along the street, sat waiting for the convoy 
to enter into the kill zone.
    Within minutes, the convoy was ambushed and the convoy 
commander was among the first casualties, leaving Sergeant 
First Class Groff in charge and at the rear of a now very 
intense firefight. Several vehicles were disabled or destroyed, 
including a number of fuel tankers, leaving the vehicle crews 
and passengers stranded in the kill zone.
    Sergeant First Class Groff acted quickly and decisively, 
ordering his driver to enter the kill zone and move to the 
front of the convoy. He then exposed himself to further danger 
by proceeding slowly in order to check the disabled and burning 
vehicles for personnel left behind. Under fire, he proceeded to 
extract ten personnel, two soldiers and eight civilians, who 
would have otherwise been killed or captured by an overwhelming 
enemy force.
    As a result of his actions, he was awarded the Bronze Star 
Medal with V Device for Valor. However, I am told that an 
official effort is under way to have his Bronze Star upgraded 
to the Silver Star. [Applause.]
    Finally, Sergeant Christopher Fernandez, a native of 
Tucson, Arizona, an Active Duty soldier, an artilleryman 
assigned to the fires brigade of the Fourth Infantry Division. 
Sergeant Fernandez was deployed most recently as the 
noncommissioned officer (NCO) in charge of the personnel 
security detachment responsible for protecting the command 
group.
    In that role, he led more than 200 highly successful escort 
missions in the Multi-National Division Bravo area of 
operations. Like many of our soldiers, Sergeant Fernandez owes 
much of his knowledge to previous training and real life 
experience. Nearly 3 years ago, then Private Fernandez played a 
pivotal role in protecting the lives of his fellow First 
Cavalry Division soldiers when their convoy was suddenly and 
violently struck by an IED and immediately came under attack by 
small arms and automatic weapons.
    On the night of 5 May 2004, the three-vehicle convoy with 
soldiers from the 21st Field Artillery was returning to base 
after a night of dismounted patrols in a Baghdad neighborhood. 
The blast from the IED left two of the convoy's three vehicles 
disabled in the kill zone. They were dangerously exposed and 
receiving heavy volumes of enemy fire.
    With complete disregard for his own safety and in order to 
protect the occupants of the disabled vehicles and prevent the 
enemy from employing RPGs, Private Fernandez took up an 
unprotected position in front of his vehicle. He provided 
suppressive fires with the squad automatic weapon. After 
expending all of his ammunition and without prompting or 
hesitation, Private Fernandez ran through the enemy fire to 
retrieve a second machine gun from one of the disabled 
vehicles. He then shouldered the machine gun and, despite the 
fact that it did not have protective hand rails because it was 
a vehicle-mounted machine gun, he continued firing. Private 
Fernandez eventually suffered burns to his hands from the 
machine gun's unguarded barrel, but his efforts allowed the 
casualty recovery team to move the wounded to an operational 
vehicle without further loss of life.
    For his heroic and selfless deeds that night, Sergeant 
Fernandez was awarded the Silver Star Medal and the Combat 
Action Badge. He has subsequently earned the Bronze Star Medal. 
However, the thing that he would probably tell you he is most 
proud of is the work that he does in San Antonio in the Fort 
Hood community, where he actively volunteers to serve our 
wounded warriors and their families. [Applause.]
    These three soldiers epitomize why I am so absolutely proud 
of the young men and women that serve with us.
    I would like to very quickly show some things that our 
Future Combat System (FCS) is now providing, spinouts, to help 
these soldiers as they put their boots on the ground. If you 
will notice the screen up here, we will run the little robot 
out. This robot represents--we have several hundred of these 
deployed right now in Iraq. These are the kind of things you 
can throw into a building, run down into a cave, run along a 
route, find wires. As you can see, it has a camera on it. Turn 
it around. It can climb stairs with a 12-inch rise.
    These in fact are in Iraq today and are part of the 
spinouts that we are doing out of our FCS program. Turn that 
thing around to show the members.
    Chairman Levin. You said this can climb stairs?
    General Schoomaker. It can climb stairs with a 12-inch 
rise. There is a larger version of this that we have several 
hundred of them now in Iraq.
    Then on the table over here to my left--and what is 
interesting is, because of the communications systems now that 
we have and because we are building the FCS around a very 
robust transport system, communications, information system, 
all of this is available all the way from the top of the chain 
all the way down to the lowest tactical level in terms of these 
pictures and the other sensors.
    The same is true with these unattended ground sensors on my 
left here. These sensors also connect into the same bandwidth 
and they provide acoustic or seismic or aural kinds of sensors, 
to include infrared, electro-optical, and the rest, and also 
allow us now to cover ground, where you do not have to put 
soldiers on the ground and you can watch things, like where 
people may be implanting IEDs or where you have cleared a piece 
of urban terrain and need to watch it and all this.
    Again, this is part of this network that we are building 
and part of the spinouts. It is in the first spinout, as a 
matter of fact, of our FCS.
    Finally, you see this little thing that looks like a beer 
can down here. You start it like you would start a lawnmower, 
but that thing is an unattended aerial vehicle that a soldier 
can carry. That thing will fly and hover, so that you can hover 
up on top of a building or you can hover in a space and stare 
at things.
    Chairman Levin. Which are you pointing to now, because 
there is a number of items there.
    Senator Warner. It is that rather large beer can that he 
referred to.
    Chairman Levin. Yes, because I never saw a beer can that 
looked quite like that. I have seen a few in my life, too. 
[Laughter.]
    General Schoomaker. Maybe it is more like a beer mug. But 
you saw he picked it up with one hand and carried it out there.
    Chairman Levin. That flies? That can fly and it is mobile, 
easily carried?
    General Schoomaker. This thing can be carried with a 
soldier. He starts it and it will fly and hover. So you can sit 
and stare at something, which is a lot different than having to 
orchestrate orbits. Again, there is a larger version of this as 
well that of course has more station time, and you can put all 
kinds of sensors on it. You can also put on there such things 
that, like laser designation. It has global position system on 
it. So you can direct fires, precision fires with this kind of 
thing.
    Chairman Levin. Is that deployed now?
    General Schoomaker. This will be. This will be deployed.
    There are 50 units with the 25th Infantry Division and they 
will be deploying with these things. They will be the first 
unit that will deploy with this level of unmanned aerial 
vehicle (UAV).
    Mr. Geren. The signal comes out and hooks up into the 
network, so it does not just go to a single soldier; all levels 
will be able to use it. It is situational awareness all the way 
from the company level up to the brigade level.
    General Schoomaker. So all of these enter the network and 
all of them are available. This is what now allows very agile 
units with a great deal of precision, a great deal of 
lethality, to now operate in this irregular warfare 
environment. This is not Cold War stuff. This is stuff that 
takes a very lethal force and extends it into the irregular 
warfare arena in a way that is very, very important to us.
    So when people talk about the FCS and we tell them that the 
most important things we are doing in that is this 
communications system that is associated with it and the 
spinouts of technology that we are putting on our current 
units--this is not something way down the road. This is 
something that is helping our units today as we transform the 
Army.
    So I wanted to show that because it is this kind of 
technology coupled with these kinds of young men and women that 
make such a difference and are so important as we go forward in 
the future.
    So with that, sir, I would like to close. Again, I thank 
you very, very much for your kind words. The one thing I would 
like to say about the Walter Reed situation that needs to be 
reinforced is that the medical professionals associated in Army 
medicine, we must never forget that these are great heroes out 
there and that they are performing every day in ways that--I am 
talking about the doctors and the nurses and the clinical 
technicians that are taking care of our wounded warriors. I 
would hope that as we fix the system, which needs to be fixed, 
that we recognize that these people 24-7 are operating and 
performing heroic efforts in support of our soldiers.
    So thank you very much.
    Chairman Levin. Thank you, General.
    Senator Warner. One question on these. Chief, what is the 
vulnerability and the battlefield survivability of these units? 
You must have some estimate of that.
    General Schoomaker. These things basically can be 
destroyed. They are throw-away kinds of things. They are not 
armored. Their survivability has to do with the ability to 
maneuver them and to hide them and this kind of thing. For 
instance, these sensors, these are all prototype sensors, but 
these would all be camouflaged, some of them being fake rocks 
and trees and things like that.
    Chairman Levin. The UAV, though, is not a prototype. That 
is being deployed.
    General Schoomaker. These are prototypes.
    Chairman Levin. Okay.
    General, thank you, and again thank you for introducing the 
soldiers. We share your pride in them. We share your gratitude 
for their work, their bravery, their patriotism. They 
represent, of course, their own courage, but as well the 
courage of their buddies, their families that support them. I 
know that everybody in the country who could have heard just 
about what your heroics were would join that applause that you 
received from the committee. So we thank you. We join your 
Chief in thanking you.
    Secretary Geren, on the Army--we will have 8-minute rounds, 
by the way.
    The Army posture statement points out that the defense 
budget allocation by Service has changed very little over time, 
with the Air Force and the Navy around 30 percent and the Army 
around 25 percent. Since the Army is manpower intensive and 
personnel costs eat up a large part of its budget, only 25 
percent of the Army's budget goes toward research, development, 
and acquisition, as compared to 38 percent in the Navy and 43 
percent in the Air Force.
    The Army's overall share of the DOD investment dollar is 
only 17 percent as compared to 33 percent for the Navy and 35 
percent for the Air Force. As a result, the Army has been 
unable to invest in capabilities that are needed to sustain a 
rising operational tempo and to prepare for emerging threats. 
That is according to the Army posture statement.
    Now, Secretary Geren, have you discussed this with the 
Secretary of Defense, this problem? If so, what is his 
response?
    Mr. Geren. Sir, over the last year we have been working 
with the Secretary of Defense and working with the Office of 
Management and Budget and working hand-in-glove on developing 
the Army budget. It has been a process that has involved a good 
deal of give and take. The percentages are important, but we 
are very manpower intensive, obviously, and so we are always 
going to have a disproportionate share of our budget in 
manpower. But the Secretary certainly understands our need for 
modernization and supports the FCS, which is our primary 
modernization investment.
    Over the POM we are going to be able to make the investment 
in FCS and in our modernization that our plan requires. The 
readiness issues and many of the other investments, we have to 
look more broadly at the benefit to the Army. But we are 
rebalancing the active component and the Reserve component. We 
are moving people from low demand positions to high demand 
positions. We are doing a better job of utilizing the Guard and 
Reserve. We are making a greater investment in the Guard and 
Reserve.
    So overall we are, the Army is stepping up to meet the 
challenge. But we understand that in time of war particularly 
the difficulty of making the modernization investment. Over the 
history of this country, we often have neglected modernization 
in time of war. We are trying to make sure we do not make that 
mistake this time, sir.
    Chairman Levin. There is a discrepancy here which your own 
posture statement points out. General, have you talked about 
the specific effects of that funding discrepancy with the 
Chairman of the Joint Chiefs and what does he say about it? How 
will this discrepancy be addressed?
    General Schoomaker. Yes, sir, I have. I have testified over 
the last several years in terms of my concerns about our 
funding profiles. My personal belief is the Nation can afford 
to raise the top line of defense and that we should not do this 
on the backs of the Navy and the Air Force. That is exactly the 
discussion I have had with the other chiefs.
    We need a strong Navy and Air Force and Marine Corps. But I 
do believe the Army has been traditionally underfunded and that 
we find ourself always trying to catch up. It is just the way 
that it works.
    My view has been that this is not just about dollars; it is 
about readiness. I know that you have had several readiness 
hearings and I have personally spoken with you and the ranking 
member about my readiness concerns and strategic depth. But I 
have had those conversations in spades with the Chairman of the 
Joint Chiefs and the Secretary of Defense, both the previous 
Secretary of Defense and the current one.
    Chairman Levin. General, you submitted a list of unfunded 
requirements which total over $10 billion. The top two unfunded 
requirements in your 2008 list are $2.25 billion for mine-
resistant ambush-protected (MRAP) armored vehicles and $207 
million for aviation survivability equipment. I am just 
wondering whether or not those items were requested for your 
budget and did the Office of the Secretary of Defense turn them 
down, and if so why?
    General Schoomaker. The MRAP vehicle, that requirement came 
in after the budget was closed and so it was included--we asked 
for it--in the supplemental.
    Chairman Levin. It is in the supplemental?
    General Schoomaker. We did, we asked for it in the 
supplemental.
    Chairman Levin. The other one?
    General Schoomaker. We are funded only partially in the 
supplemental for that. The aircraft survivability equipment is 
part of the effort that we had in the Comanche cancellation and 
what we are asking for there is to accelerate it. The answer is 
yes, we did request that.
    Mr. Geren. Sir, if I can just make sure we are clear on 
that. In the supplemental we have approximately $770 million 
requested for the MRAPs, for 700 MRAPs, not that full amount 
that you read on there, just to be clear, make sure the record 
is clear.
    Chairman Levin. You got $700 million of the total $2.25 
billion which is needed for it. So it is only one-third funded 
in the supplemental?
    General Schoomaker. Sir, those vehicles are a million 
dollars apiece, not just for the vehicle but for 1 year of 
contracted logistics service and basically a turnkey operation. 
So our current funding provides us about 700 vehicles.
    Chairman Levin. But it is still one-third of the 
requirement, is that correct?
    General Schoomaker. That is correct.
    Mr. Geren. I have had a discussion with the Deputy 
Secretary on that very point. We have production issues. These 
are not in production yet. We will enter into contract this 
summer. As we identify additional requirements and also examine 
the production capacity, he is going to work with us to 
identify reprogramming and ensure that we are able to buy and 
work towards meeting the total requirement.
    Chairman Levin. Is the constraint here then production 
capability or is it financial?
    Mr. Geren. We do not have a line up and going at this 
point, so we are projecting into the future.
    Chairman Levin. Is this as many of those vehicles as can be 
produced? Does that $700 million cover all that can be 
produced, or is it a financial deal?
    Mr. Geren. I could not answer that right now, but I would 
expect that we would have a difficult time spending all of that 
money between now and the fall considering where we stand in 
relation to that production line. It is a joint program with 
the Marines. We will be entering into a contract soon. But you 
have the uncertainty of predicting when the production will 
come off the line, and that is what I discussed with the Deputy 
Secretary. As we understand better the production capacity, we 
want to revisit this issue.
    General Schoomaker. Sir, if I could add to that. I think we 
owe you an answer for the record with some specifics, but my 
information is that this is a matter of funding, not capacity 
for some of these vehicles.
    Chairman Levin. We need to know that fact, is it a funding 
issue or is it a capacity issue. If you would let us know for 
the record. Check it out, because this is an area where we have 
been determined that we are going to provide whatever is 
needed. This is an area we have taken an awful lot of losses.
    [The information referred to follows:]

    The maximum production capability for Mine Resistant Ambush 
Protected (MRAP) systems is a function of funding amounts, the timing 
of funding, each individual firm's production capacities, the complex 
interrelationships and interdependence of the prime and subcontractors, 
and the distribution of vehicles between the four Services and Special 
Operations Command. Given the number of unknowns, the Army believes the 
440 vehicle per month estimate to be reasonable and achievable.
    The Army's intent is to limit the number of manufacturers and 
thereby ease the burden on theater to train, utilize, and maintain 
MRAP. Our estimates are based on using a portion of the capacity from 
two of the larger manufacturers. If enough manufactures make it through 
testing and the other Services do not order through the same 
manufacturers as the Army, production capacity should be greater. If 
only a few manufacturers are able to produce the systems, then 
production will likely be lower.

    Chairman Levin. General or Secretary, either one. Let me in 
fact address this to the Secretary first. Everybody understands 
that a disability rating of 30 percent or more results in 
medical retirement and eligibility for military health care for 
the member and his family, the wounded member and his family, 
and that a rating of less than 30 percent results in separation 
pay and eligibility for care for the member, but not for the 
family, from the VA.
    What we do not understand and what the soldiers do not 
understand is why the disability ratings from the Army are so 
much lower than disability ratings awarded by the VA and, for 
that matter, so much lower in terms of the percentage that 
reach that 30 percent threshold than the Air Force. I 
understand that the Army awards disability ratings of 30 
percent or higher in only about 4 percent of the cases of our 
wounded troops, while the Air Force awards 30 percent or higher 
in about 25 percent of its cases. So it is about six times as 
many percentagewise.
    What is the explanation for the disparity in the disability 
ratings awarded by the Army compared to the VA and the Air 
Force?
    Mr. Geren. That 4 percent that you cited, Mr. Chairman, 
understates actual numbers of disability ratings that qualify 
for medical retirement. We have a category where a soldier goes 
into a hold position. If you add that category in, we get up 
into the low 20s.
    But the fundamental question that you ask, is this system 
fair, is it right, is it up-to-date, does it meet the needs of 
the soldier today, why is it different from the VA? Both 
systems in my opinion are out-of-date. Both systems do not 
reflect many of the types of threats and the injuries and the 
illnesses that soldiers experience today and also what we are 
able to do for those soldiers long-term.
    Part of our charge both in the Army and as an 
administration is to examine those and look at our disability 
rating. I would not stand here and try to defend it. I think it 
is out-of-date. I think it has not been looked at for a very 
long time, and that is one of the charges that we have taken on 
as an Army, to review that system and make sure that it 
reflects the needs of soldiers and their families. I do not 
believe it does right now.
    Chairman Levin. Are you saying that over 20 percent then of 
the Army disability ratings end up at 30 percent or more so 
that they are eligible then for a medical retirement?
    Mr. Geren. Yes, sir.
    Chairman Levin. That figure is not 4 percent, but it is 
over 20?
    Mr. Geren. 4 percent understates it.
    Chairman Levin. But it is over 20 that are eligible----
    Mr. Geren. Yes, sir. I believe the number is 21 percent, 
but I will get it for you for the record.
    [The information referred to follows:]

    The 4 percent figure and disparity with the other Services comes 
from the following quotation from the February 25, 2007, Washington 
Post Magazine, ``The Defense Department reports that the Army, which 
handles more than half of the military's disability cases, put less 
than 4 percent of the 10,460 active duty soldiers and reservists it 
evaluated last year on permanent disability retirement and less than 15 
percent on the temporary list. (Temporary retirees undergo periodic 
reassessments of their conditions for as much as 5 years before a final 
decision.) By comparison, the Navy (including the Marine Corps) retired 
about 35 percent of its injured, temporarily or permanently, and the 
Air Force about 24 percent the Defense Department says.'' Although not 
stated in the article, these Department of Defense figures are from 
fiscal year 2006 only.
    Approximately 19 percent (4 percent plus 15 percent mentioned 
above) is the appropriate Army disability retirement figure to compare 
to Navy and Air Force. Further refinement of the Army disability 
retirements: fiscal year 2006--18.7 percent and fiscal year 2007 
through February 28, 2007--21.36 percent.

    Chairman Levin. That are medically retired, not discharged; 
medically retired?
    Mr. Geren. Yes, sir.
    Chairman Levin. Thank you.
    Mr. Geren. Let me confirm that for the record, but that is 
within a percentage point or two.
    Chairman Levin. Then we also need the explanation as to why 
the VA is significantly higher than that.
    Mr. Geren. They have a totally different rating system. 
They look at different criteria, different issues. That is 
also, it does not make sense to a soldier. It is confusing. We 
have to rationalize those two systems and bring them----
    Chairman Levin. This committee is going to be making that 
effort with our Veterans Committee. We are going to have joint 
hearings. We are going to attempt to see what the reasons are 
for those discrepancies between the VA and the military, 
because it is incomprehensible to our troops. It sounds unfair. 
It probably is unfair. We are going to do everything we can 
from the congressional side to eliminate the delays, which is 
one big problem we are determined to in any event going to 
correct, but also the conflicts between the approaches taken 
between the VA and the military in terms of what that 
disability rating is. We are going to work on both of those 
jointly, both those issues, the long delays as well as the 
discrepancies between VA and military disability ratings. We 
are going to work on those jointly with our Veterans Committee.
    Mr. Geren. We welcome the opportunity to work with you. 
Just real quickly, the Army rating system rates their ability 
to serve in the Army and VA aims at a different evaluation 
entirely. We are looking, can the soldier continue to serve, 
and it is a different approach.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Mr. Chairman, the Committee on Environment 
and Public Works is having a hearing and I am going to now 
yield to the ranking member of that committee such that he can 
join his hearing upstairs.
    Senator Inhofe. Thank you, Senator Warner. I have made this 
request of you several times and you are always so generous to 
do this, and I appreciate it.
    I hope, Mr. Chairman, that maybe we can get together with 
some of the other chairmen and try to avoid some of these 
conflicts. It is very difficult to deal with.
    Let me say to both Petes here, you are great guys and you 
came in and served at a most difficult time. We all know that. 
You have both conventional and unconventional types of 
conflicts, resetting, retraining. Of the 92,000 increases in 
ground forces, you have 65,000 in the Army. You are going to 
have to put that together, transform the Army through the BRAC 
process that is underfunded right now, and modernize the FCS.
    We have talked about these things, and you two have done a 
great job under the most difficult of circumstances and I 
compliment you. If this is your last hearing, General 
Schoomaker, thank you so much for coming out of retirement and 
helping us along.
    Last year when the supplemental was delayed, General Cody 
came over and several others and talked about how serious it 
was. A week ago when the Democrats came out with their $124 
billion supplemental plans, that both increases spending and 
sets limits on the war and the upcoming war supplemental and 
sets the stage for withdrawal from Iraq--now, I am going to 
read the Army's posture statement and I want you to listen 
carefully: ``Full, timely, and predictable funding of the 
Army's budget request and supplemental appropriations will 
ensure the Army is ready, fully manned, trained, equipped to 
sustain the full range of its global commitments and to achieve 
victory in the war on terror.''
    Now, I would like to know right now in advance, not when it 
is too late, not when we find out that we are getting down to 
the wire, not when we have to be looking at the possibility of 
not being able to pay widows benefits or having reenlistment 
bonuses shelved for a period of time. Just imagine what the New 
York Times would do with something like that.
    So before that happens, I would like to have each one of 
you, maybe starting with you, Mr. Secretary: In this 
supplemental, if it gets delayed in a similar fashion as last 
year's, what are the consequences? Now is the time to be very 
bold about answering that question.
    Mr. Geren. Thank you, Senator. We do not have to imagine 
what would happen if the supplemental is delayed. We 
experienced it last summer and the impact on the soldiers and 
on training and on soldiers' families was significant. Last 
summer we had to lay off temporary workers. We had to lay off 
contract workers. We had to cut back on recreation 
opportunities for children in the summer. We had to reduce a 
wide range of services, and we also had to cut back on many 
essential contracts on programs that were supporting 
procurement and refit operations around the country.
    So we had to slow everything down. We had to start 
reprogramming. In the words of Dick Cody, we had to do a lot of 
dumb things in order to make sure that we had the resources for 
the soldiers that are on the front line. I have a list of 
specific actions that we took last summer. Those were draconian 
actions. They affected a lot of folks. But it was necessary in 
order to meet the obligation to the 130,000 troops on the 
ground, and if this slides into the summer again we are going 
to be faced with those same kind of decisions. We are going to 
have to pull those same levers and we are going to have to----
    Senator Inhofe. Is it overreacting for me to say--and 
General Schoomaker, I would like to have your answer, too--that 
it could infringe upon widows benefits and reenlistment 
bonuses? It could get that serious; could it?
    General Schoomaker. Sir, again going back to last year, the 
answer is yes. It impacted a lot of things. Of course, the 
place that we have to go is to our personnel accounts to help 
fund the kind of things we need to do to operate. That is how 
you have to reprogram.
    So if you take last year as an example, a fiscal year runs 
from October 1 to September 30. Last year we received our base 
funding and the first increment of the supplemental after 
Christmas, 3 months into the fiscal year, and we received the 
second piece of the supplemental for the war at the end of 
June. So we had to take great draconian measures.
    This year, through the help of this committee and others, 
we received our reset funding in time for the fiscal year to 
start and we have obligated that money and are on a great roll. 
But if you take a look at--we still do not have a veterans 
bill. We do not have our BRAC and we do not have our military 
construction bill, and we are 6 months into the year right now.
    So on top of that, a delay in getting the supplemental, 
which we must have by April--we have to have it in April. 
Otherwise we will have to start doing the kind of lever-pulling 
that we did last year.
    Senator Inhofe. I did not mean to cut you off, Secretary 
Geren. But I think I have the drift of the seriousness of this.
    Let me ask you another question for both of you here, I 
would say primarily you, General Schoomaker. In terms of a 
program that is going to have benchmarks and time lines, we 
have heard from General Peter Pace, we have heard from General 
David H. Petraeus, and Lieutenant General Raymond T. Odierno, 
and I think that they feel, and they have made the statement, 
that if you give them a road map it is not to our benefit. But 
the argument is always, what other ways do we have to hold, to 
apply pressure to the Iraqis, to tell them that they have to 
come forward in doing this.
    I personally disagree with both time lines and benchmarks, 
but I would like to hear your comments about that, General 
Schoomaker.
    General Schoomaker. Sir, that is, quite frankly, a little 
bit out of my lane, although at the strategic level as a member 
of the Joint Chiefs we do discuss strategy.
    Senator Inhofe. They have already expressed themselves on 
this and you are the only military at the table right now, so 
go ahead.
    General Schoomaker. Right. So I would have to associate 
myself with their assessment, because they are very close to 
it. My day-to-day life is looking forward several years trying 
to make sure that we have the resources to be able to support 
people like General Odierno and General Petraeus and others.
    Senator Inhofe. One last thing, because I do not want to go 
over my time. The Non-Line-of-Sight Cannon (NLOS-C) and the FCS 
is still on the Spinout 1. I have taken a lot of time going out 
and looking at it, seeing why this is so necessary. I went to 
Fort Lewis, I say to my friend Senator Warner, Fort Lewis, 
Washington, when they were actually working on this and rode in 
it at that time and observed it, then went over to Mosul the 
day that it arrived over there and saw it in action.
    The chief complaint about that, of course, it was supposed 
to be self-propelled and it is not self-propelled. Obviously 
the first step of the NLOS-1 on the FCS is. Are we seriously 
looking at filling that requirement and eventually putting the 
NLOS-C in the Stryker Brigade?
    General Schoomaker. I do not know about putting it in 
Stryker. It is the lead vehicle in our FCS.
    Senator Inhofe. That answers the question. Thank you very 
much. I appreciate it. I would hope, Mr. Secretary, that we 
will have a chance to talk in the future because this is a very 
serious thing looking down the road. The propensity right now, 
with all the problems we have, is let us put out the current 
fires without preparing for the future, and this is an area I 
think it is very important that we attend to, the FCS.
    Thank you, Senator Warner, for giving me your time.
    Senator Warner. Senator Reed, I think it's your turn.
    Senator Reed. Thanks very much.
    Secretary Geren, welcome. It is good to see you as a 
colleague and friend from the House of Representatives, now as 
the acting Secretary. Good luck.
    General Schoomaker, thank you for your service, courageous 
service over many, many years.
    General Schoomaker. Thank you, sir.
    Senator Reed. Looking forward to getting back in that 
pickup truck, I think.
    Shortly, I believe that the Army is going to have to 
generate nine brigades of Reserve component forces for the 
sustainment operation in Iraq. When is that notice going to 
come down to these units, or it already has? General 
Schoomaker?
    General Schoomaker. I missed right at the tail end. What 
is--
    Senator Reed. My understanding is that the current surge is 
being supported by regular component forces, but that within 6 
months you are going to have to generate up to nine brigades of 
Reserve component forces for Iraq. When are you prepared to 
notify those forces? What is the strain on the Reserve 
component, since they have been through the mill a couple of 
times? Their equipment status is poor. I think you have seen 
all the reports.
    Can you give me an update on that situation?
    General Schoomaker. Under the current rules as approved now 
by Secretary Gates, under the new mobilization deal our 
intention is to alert units 1 year prior to their mobilization 
date. So Reserve component brigades that you are describing--
and I cannot attest to nine of them, but I do know we have 
several--they should get 1 year alert, and we should get 
focused attention on those brigades prior to mobilization, and 
their mobilization time should be limited to 1 year.
    Senator Reed. To sustain, though, the increase in forces--
right now we have a plus-up of about 30,000 forces in Iraq. The 
first tranche is regular forces----
    General Schoomaker. The first two brigades have gone.
    Senator Reed.--extending people. My understanding, though, 
is that at some point very quickly you have to get additional 
Reserve Forces in. Are you saying that you will not deploy 
Reserve Forces into Iraq unless they have 1 year's notice?
    General Schoomaker. No. I was talking specifically about 
BCTs. Obviously, during this transition period there are 
smaller units of the Reserve component, both Guard and Reserve, 
that have less notice than that; talk about detachments, 
companies, in some cases battalions. But the transition we are 
moving to is that Reserve component units under the new 
mobilization criteria should receive a year's alert and get the 
focused attention I am talking about.
    Senator Reed. I think that is a very sensible approach. But 
I am just wondering in terms of the manpower that you are going 
to need to sustain. Again, General Odierno now is talking about 
this operation stretching into next February or March. You are 
going to need brigade-sized units and I cannot understand how 
you are going to get them unless you bring in National Guard 
and Reserve component brigades.
    General Schoomaker. It is absolutely essential that we have 
National Guard and Army Reserve units to help us meet this 
demand.
    Senator Reed. Well then, I would think these notices would 
go out immediately if you are going to give them a year's 
notice and training opportunities. Is that fair?
    General Schoomaker. It is fair, and notices are going out, 
and in some cases people are getting less than a year's notice. 
But what I am saying is as we transition through it, once this 
thing gets in balance, our intention is to give people a year's 
alert.
    Senator Reed. When do you think you will reach the point 
where you are on a steady state year-to-year notice? Not right 
away?
    General Schoomaker. No. No, I think--in fact, the G3 is 
here. I do not know if you have an estimate. Where is he?
    Senator Reed. General Lovelace?
    General Lovelace. Sir, we are more than 18 months out.
    Senator Reed. So in the intervening 18 months we are going 
to be notifying at some point upwards of nine brigades of 
National Guard with short timeframes?
    General Lovelace. Sir, I am like the Chief; I cannot 
testify to the number nine. I do not have that. Several is the 
current number. We are giving them more notification--we are 
giving as much notification as we can. We are trying to get to 
a year, just like the Chief said. We have recently held a 
sourcing conference for what is, in fiscal year 2008, to begin 
to attempt to understand, to identify those units, in order to 
be able to notify them, like the Chief said, in this 
transitional period.
    Senator Reed. Thank you.
    There is another issue that is I think a reflection of the 
great operational tempo that the Army is serving, the increase 
in promotion rates to cover the shortfall in company grade 
officers, which I think you are acutely aware of. One of the 
first signs that the organization is showing stress is that 
company-grade officers, E-6s, E-7s, the good ones start 
leaving.
    Are you concerned that these promotion rates are beginning 
to pick up, that we cannot maintain the same level of quality 
that we have over the last several years?
    General Schoomaker. First of all, of course we are 
concerned when we see good people leaving the Army. But I have 
a different perspective on this perhaps. We started combat 
operations in both Operation Enduring Freedom (OEF) and 
Operation Iraqi Freedom (OIF) back in 2001 with a shortage of 
captains. The reason we had a shortage of captains was because 
we underassessed lieutenants when we drew the Army down to only 
40 percent of the size that it was in the Cold War.
    So one of the ways that you have to do that is you have to 
cut off the numbers of lieutenants you bring in. Of course, 
that bubble then goes through the system. So we started the 
fight short of company-grade officers. Those shortage of 
captains is now a shortage of majors, because 5 years has gone 
by and we have moved into that.
    Second, we are now growing the Army bigger, and of course 
as we grow it bigger we now have an additional I think about 
8,000 requirements for captains and majors. So we stared in the 
hole, we have a bigger threshold to jump, and so we have this.
    The acceleration of promotion--for instance, to major, we 
moved the promotion date from 11 years time in service to 10 
years time in service. That is consistent with what the other 
Services are doing. We were promoting a little bit slower. But 
I will remind you that during the Vietnam period we were 
promoting some people to major with 5, 5\1/2\ years. We were 
promoting people to captain with 2 years.
    Senator Reed. That might be my point.
    General Schoomaker. Yes, and we do not want to go there. We 
were making staff sergeants in 6 months. We do not want to do 
that.
    So I think that the fact that we are promoting captains now 
at 38 months of service, which is over 3\1/2\ years of service, 
and the fact that we are promoting majors at 10 years, my view 
is this is realistic. I think it is a necessary move. But I do 
not think it is anywhere near being a crisis. I think it is the 
appropriate thing to do and proper management.
    Senator Reed. Do you see this as a trend, though, that if 
it continues to accelerate will cause problems?
    General Schoomaker. I think that if we started approaching 
the kind of things we had to do in the Vietnam War it would be 
a big problem. I would never advise that we do that. I think 
that would be very, very dangerous. But I think that what we 
are doing right now is appropriate.
    Senator Reed. Can you give us a feel for the status of 
equipment in the prepositioned stocks, particularly in 
conjunction with the surge?
    General Schoomaker. I could tell you that the--in an 
unclassified sense, and you know I have testified in closed 
hearings--that without the prepositioned stocks we would not 
have been able to meet the surge requirement. So we have used a 
certain percentage of them. It will take us 2 years to rebuild 
those stocks. That is part of my concern about our strategic 
depth. So unless you want to go to a closed session, I think I 
probably ought to leave it about there.
    Senator Reed. Just a final question which may or may not be 
appropriate here. That is, does this budget contain the 
resources to replenish those stocks in a 2-year time?
    General Schoomaker. It contains some of the resources to 
start that replenishment.
    Senator Reed. But not all?
    General Schoomaker. In fact, let me----
    General Lovelace. Not all of it, sir.
    Senator Reed. Thank you very much.
    Chairman Levin. Senator Warner.
    Senator Warner. Thank you very much, Mr. Chairman.
    I want to first deal with this issue of Walter Reed. I am 
going to read what I understand was testimony given yesterday 
before the Senate Appropriations Committee. In a hearing 
yesterday before the Senate Appropriations Defense 
Subcommittee, General Schoomaker, you are represented as 
saying, ``Rather than reopening BRAC and changing the decision 
on Walter Reed, we need to make sure that Walter Reed is fully 
operational, able to deliver 100 percent quality care up until 
the moment that the Bethesda Center and the Belvoir Center are 
open and ongoing.'' You went on to note that not all the 
facilities currently available at Walter Reed will be 
duplicated at Bethesda.
    Now, here is where I have communicated my views to the 
Secretary of Defense. I think it would not be wise to try and 
alter BRAC by pulling Walter Reed out. The BRAC process--and 
Senator Levin and I in our 29 years here have seen it all. All 
five of them we worked on together. To the best of my 
knowledge, we have never gone back and altered a BRAC decision, 
because Walter Reed is certainly a very important issue to 
address by Congress working with DOD. But if we do make a 
substantial change by eliminating Walter Reed or so forth in 
BRAC, it could provide a precedent for other Members to bring 
forth their problems at home, which may not be as serious as 
Walter Reed, but in the view of their States and those Members 
of Congress it could be.
    So what is the best thing to do? It seems to me we could 
look at what I call a stay of the date, simply make the most 
modest modification, just saying we will not try and meet the 
dates, or put in some contingency to make certain that the 
Bethesda and Belvoir objectives are up and running so there can 
be a seamless turnover of Walter Reed's responsibilities to 
those two institutions.
    I am going to try and work with DOD and others in Congress 
to see whether or not that can be done. So it would be just a 
minor modification in my judgment, while in some sense it would 
be precedent-setting. It seems to me this situation drives the 
requirement to do it that way.
    Then at the same time, take such steps to accelerate the 
funding provided by Congress for both Bethesda and Belvoir such 
that those projects can hopefully be advanced in their startup 
time and then move forward. So I do not necessarily put this in 
the form of a question, but I would simply ask both of our 
witnesses today to frankly give me your comments on the 
approach that I have outlined.
    Mr. Geren. Senator Warner, I think it makes great sense. 
having lived through three of those BRACs myself, I appreciate 
the intensity of emotion associated with those decisions, how 
hard they are. We have to make sure--and the Army and DOD and 
Congress are all committed to make sure--that our soldiers and 
their families receive the best quality care, whatever we need 
to do to make sure that happens--accelerate Bethesda, 
accelerate Belvoir. Get it done, but make sure that we do not 
stop delivering quality care before those open, and make sure 
that there is a seamless transition between the Walter Reed 
facility and the two new facilities.
    But I agree with you, reopening BRAC would be a dangerous 
precedent and not only impact what we have done in this BRAC, 
but I think make future realignments and closings very 
difficult for our Congress to ever consider again. So I agree 
with you, sir.
    Senator Warner. Do you wish to add a word, Chief?
    General Schoomaker. Sir, since you quoted me----
    Senator Warner. Did I quote you accurately? I want to make 
sure.
    General Schoomaker. Yes, sir, I think so. What I meant by 
that quote, I was glad to hear--I was not recommending 
reopening BRAC. I do not think that is a smart idea.
    Senator Warner. No, I am not saying you did.
    General Schoomaker. No, my concern is that we are 
underfunded in BRAC and that we are not right now currently 
replicating--we do not have the funding to replicate some of 
the things that are at Walter Reed.
    Senator Warner. That is troublesome. For instance, what is 
it, the pathologic center?
    General Schoomaker. There is that. There are things like 
the Mologne House, the Fisher House, barracks for soldiers. 
There are lots of things that need to be done. So what my 
statement was intended to do was to say exactly what you have 
said, and that is we need to accelerate the build at Belvoir 
and accelerate the build out at Bethesda. Until those things 
are in place and we can make a seamless transition, we should 
not underfund Walter Reed. We should not be in a retrograde 
motion at Walter Reed, because there are lots of unknowns in 
this long war we are in and Walter Reed is essential to provide 
the care to our wounded warriors that we need. That was what my 
concern was and I am sorry that I was not more clear.
    Senator Warner. No, I was not suggesting you were not 
clear. But I just picked that out because what I would like to 
ask of the Secretary is that we work together. Now, there may 
be others that are going to be participating. But I am going to 
take the initiative and see what I can do to provide both 
legislative actions.
    But I agree with the Chief. Walter Reed has to be fully 
operational up until there is a turnkey type of transfer from 
Walter Reed to this new bifurcated sort of Bethesda and Belvoir 
situation. Now, no shovel has gone in the ground at Belvoir. So 
that gives you some idea of how quickly we have to move. I do 
not look at this simply because I am privileged to represent 
that region of Belvoir. I am doing this in the interest of our 
Defense Department and particularly the Army.
    But this is the direction in which I am going to move. 
Secretary Geren, I think my staff and your legislative team, 
the great team you have, are working this. But I wonder if you 
could give it your own personal attention as we go along.
    Mr. Geren. I assure you that I will, Senator.
    Senator Warner. I thank you very much.
    Senator Reed and others talked about the readiness issue. 
Was there any further comment you might wish to make, because I 
keep going back to your comment about what will it take to 
prevent the breaking of the Army. That we have to do. I think 
you put us on alert. Do we have the steps in place so that that 
statement which you made just 3 months ago--that was before the 
surge, the surge was finalized. It may well be that you were in 
the process, and I hope you were, in the planning process for 
the surge. But that statement ranks right up there with old Shy 
Meyer's statement, we have a hollow Army.
    So what can we do to prevent that breaking that you 
referred to? Are those steps in place today?
    General Schoomaker. Sir, the----
    Senator Warner. This is the greatest army in the world.
    General Schoomaker. It is. The Army we fielded is the 
greatest we have ever fielded and I think it is the greatest in 
the world. But we are paying a price at home, providing the 
equipment at the rates that we are, and we are turning the Army 
too fast.
    If you go back to the QDR, in normal times we ought to have 
one increment of deployment for three increments of dwell. When 
you go to a surge situation, it should be two increments of 
dwell for every increment of deployment. We are now at one 
increment of dwell for one increment of deployment. That is not 
sustainable. I have said this now for quite some time. It is 
not sustainable to do that for a long time and that is why we 
have to have the Guard and Reserve, the operational Reserve, 
more readily available to sustain this deal.
    Now, that means that they are going to have to deploy more 
frequently than what we would like the normal situation to be, 
with 5, in some cases 6, years of dwell for an increment of 
deployment. So any way you cut it, if we need to use the force 
at the speed that we are using this force and we are going to 
train the force to perform the missions we are asking them to 
do, then what we give up is the recuperation period, the 
respite with family, and the rest of it.
    This is where I have deep concerns. I know we are training 
and equipping and leading these forces correctly for what they 
are doing. But I am concerned about the back side price that is 
being paid.
    I am on the supply side of this equation. I do not have 
control of the demand side of it, and if the demand is going to 
be where it is then we are going to need a significantly larger 
Army. Again, I go back and say that the Army is about 40 
percent the size it was during the Cold War and it is being 
used at 300, 400 percent of the rate that it was, and we still 
have people, even in the DOD, that say that we do not have 
needs for boots on the ground and that there is going to be a 
day when we are not going to have to have an Army and all that 
stuff. I just think it is ludicrous.
    Senator Warner. You point out quite accurately that, while 
you are on the supply side and you do not have control over the 
operating requirements, but you have on your desk a requirement 
to do 21,500 plus another, what is it, about 5,000 individuals? 
What is that add-on?
    General Schoomaker. It is continuing to evolve. So it could 
get bigger.
    Senator Warner. It even could get bigger above the 5,000? 
In your professional judgment, can you meet that?
    General Schoomaker. With National Guard and Reserve. We 
would need National Guard and Reserve to meet that and we will 
meet it. But again, I was concerned before the surge with the 
strategic depth of the Army and the resourcing of the Army, and 
of course with additional things it deepens my concerns. I have 
already testified that we have used our prepositioned stocks, 
which is a concern for me. That has a lot to do with our 
strategic agility.
    Senator Warner. All right. But you are on record you feel 
you can meet it.
    General Schoomaker. Sir, we will meet the surge as we know 
it right now. But sustainment of that is going to continue to 
be a challenge.
    Senator Warner. Lastly, and I do not say this by way of 
criticism of any Member of Congress, but there has been a lot 
of publicity about a formulation which would go to some 
criteria by which the President is going to have to certify 
that each of the units that you as a supplier are providing to 
the operators are fully trained and fully equipped, and I am 
not sure to whose standards. I would be hopeful that Congress 
is not going to set the standards, but that the DOD and 
specifically the Department of the Army is going to set the 
standard.
    Do you have any comment on how, if that formulation--and I 
hope it will not become law--but should it become law, what 
problems it would cause you?
    General Schoomaker. I think, first of all, only we can 
determine what standards are required to meet things. I need to 
remind everybody that we have a requirement to be a full-
spectrum force, but once we get a requirement for, let us say, 
a brigade and they tell us what they are going to use that 
brigade for, that is what we focus our training on. So we are 
sure that the brigades and the other units that we are sending, 
that they ask for, and they tell us what it is they want them 
to do, we are sure that we train them and equip them to do the 
mission.
    Now, the problem is if they want units to do something 
different, and we have seen in the past, especially with some 
of our Reserve component units, where they have been asked for 
to do one thing and they have re-missioned them over there, 
where there has been difficulties in the re-missioning process. 
So I think we are working through that. I am very confident 
that we are sending trained and equipped and well-led units.
    But again, what I am concerned about is the depth we have 
and what it is costing us to be able to sustain that. Again, I 
will tell you a surge in my view means that it is a temporary--
--
    Senator Warner. I do not know what your definition of 
temporary is. This original surge was characterized to those of 
us in Congress as perhaps a couple of months, and then slowly 
with Odierno and now Petraeus this thing looks like it is going 
to be maintained at full tempo once you reach the 21,500 plus 
the add-ons through the end of this calendar year. Would that 
be correct?
    General Schoomaker. I think that is in discussion. Again, I 
want to go back. In my view there is a difference between a 
surge and a plus-up. A surge in my view is a temporary 
condition, whether it is 4 months, 6 months, 8 months, but 
there is a plan to come off of that. A plus-up, which means you 
are raising up to another level that is going to be expected to 
be sustained, is a whole different story. My view is this is 
not a plus-up.
    Senator Warner. You are operating it as it is on a surge 
basis.
    General Schoomaker. I am operating on the belief it is a 
surge basis.
    Senator Warner. Which means we will have some terminal end 
where you do not have to maintain this?
    General Schoomaker. That is my understanding.
    Senator Warner. That could be what duration?
    General Schoomaker. Sir, that is in discussion. Right now 
my understanding is somewhere between August and the end of the 
year.
    Senator Warner. That is pretty indefinite.
    Thank you. My time is up, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to thank you, Mr. Secretary and General, for being 
here. This hearing is of particular importance and interest to 
me as chairman of the Subcommittee on Readiness and Management 
Support, and I am very concerned with ensuring that our 
military has everything it needs to be able to respond whenever 
our Nation calls. We all are trying to do the same.
    I believe the Army's posture statement outlines many of the 
challenges the Army faces in transforming itself into an Army 
that is ready to deal with and carry out the missions of 
support for our Nation in the 21st century. The briefings we 
have had already on it are very compelling and I look forward 
to carrying that out.
    But General Schoomaker, in the posture statement it says, 
``Changes are needed to eliminate unintended constraints on 
programs such as the Commander's Emergency Response Program 
(CERP), the Logistics Civil Augmentation Program (LOGCAP), and 
the administering security cooperation and assistance programs, 
as well as furnishing humanitarian assistance.''
    Can you elaborate on what these changes are being referred 
to, whether these changes will be in the Defense Department 
policies, and are they changes that may require congressional 
action?
    General Schoomaker. Sir, I think it is well-accepted that 
all of us have been saying that this war is not going to be won 
militarily; it is going to be won in political and in a hearts 
and minds way by changing the nature of life for people. One of 
the most important tools that commanders have in this war both 
in Afghanistan and in Iraq has to do with their ability to 
influence the local population through things like the CERP 
funds, to be able to put people to work, to be able to get 
projects that make a difference in the towns, villages, and 
people's lives. I think that is well accepted, that people now 
understand that this is a very, very important tool.
    So all that was is reinforcement of this notion. I think 
that we need to continue to enable our commanders out there to 
have tools beyond bullets coming out of the end of the gun, but 
actually changing people's lives in a way that would bring them 
over and establish the kind of stability and security that is 
required for governance to take hold and to return to normalcy.
    So that is what that statement is intended to do. My belief 
is that the DOD understands this very well and that certainly 
the commanders on the ground understand it.
    Senator Akaka. Secretary and General, I am pleased to see 
that the Army is trying to achieve targeted efficiencies 
through management reform, acquisition reform, comprehensive 
redesign of the organization and business processes that 
generate, deploy, and reset forces, consolidation of bases and 
activities, military to civilian conversion programs, and 
performance measurement enhancements.
    Again as chairman of the Readiness and Management Support 
Subcommittee, I have been concerned about the problems in DOD's 
acquisition program. DOD's IG and the Government Accountability 
Office have identified significant problems, and we call those 
high risks, with DOD's acquisition program that has led to 
significant waste of taxpayer dollars.
    Mr. Secretary and General, can you please elaborate on the 
efficiencies you are targeting for acquisition and how you are 
intending to achieve these efficiencies? Mr. Secretary?
    Mr. Geren. There are many challenges in the field of 
acquisition. We have seen the acquisition budget increase 254 
percent over the last 5 years. It has put an extraordinary 
strain on our dedicated professionals in that area. We also 
have an aging workforce in that area. We have 34 percent are 
eligible to retire, 20 percent are expected to retire. It is an 
area that Secretary Harvey focused on a great deal of his time. 
It is not just an Army issue. It is across the DOD. Under 
Secretary Krieg has just delivered a report to Congress on 
defense acquisition transformation.
    It is going to be something that all the Services are going 
to work together. I believe former Secretary of the Army, Dr. 
Francis J. Harvey, made great advances in that area with his 
Lean 6 Sigma and other transformation, get the depots working 
better, get the acquisition workforce working better. But we 
have a lot of work to do in that area. We have to make 
investment in people. We have to make investment in training, 
make sure that we have the high performing and agile and 
ethical workforce. That is our commitment going in. We have to 
have cost-effective logistics support. We have to have improved 
governance and decisionmaking.
    Again, this was a focus of Dr. Harvey. We made steps 
forward. The DOD is going to work together on this issue and I 
can assure you it will remain a high priority for me and the 
DOD as we move into--it is a big challenge, though. We are 
asking a lot of that acquisition workforce, just as we are a 
lot of our soldiers, and we are going to have to make 
investments in them to ensure that they are able to do the job.
    Senator Akaka. Thank you.
    General, would you comment on that?
    General Schoomaker. Sir, I think Secretary Geren has 
answered very well. I would just reinforce one thing. If you 
are frustrated with bureaucracy, the acquisition community is 
one of the places that can take you right over the top. I do 
not know of a bureaucracy that is worse. I do not know of a 
system that is built on risk avoidance. It will not, under the 
current method of doing business, be able to keep up with the 
demands of this century. It is not agile enough, it is not 
focused enough.
    So I agree with Secretary Geren. I think we have made great 
progress in this regard and I think that the transformation is 
absolutely essential.
    Senator Akaka. In the early 1970s the Army was reorganized 
so that the regular Army could not conduct an extended campaign 
without mobilizing the Guard and Reserve. This was asked by 
Senator Reed as well. It is not clear, however, that the 
Defense Department leadership at the time anticipated the kind 
of protracted conflict we are facing today with the global war 
on terror.
    Secretary Geren and General Schoomaker, will the Army, 
looking at the 21st century, be more reliant on National Guard 
and Reserves to meet its global commitments? Also, have we 
reduced our capability to deal with threats and natural 
disasters at home by being so reliant on the National Guard and 
the Reserve to support national interests abroad?
    Mr. Geren. The role of the Guard and Reserve has changed 
from being a strategic Reserve to part of the operational 
force. It is a total force now. We train as one, we fight as 
one. A third of the combat veterans of OIF and OEF have come 
out of the Guard and Reserve. So unquestionably they are part 
of the total force today, and this budget reflects that--$38 
billion worth of investment in equipment for the Guard over 5 
years.
    We are making a large investment in aviation modernization 
for the Guard and Reserve. The Light Utility Helicopter and the 
Armed Reconnaissance Helicopter that we are purchasing, 40 
percent of those are going into the Guard. Sixty-five percent 
of all our medium and heavy trucks are going into the Guard.
    So part of this is making up for underinvestment in the 
past, but part of it is just recognizing the role that the 
Guard plays now, the Guard and Reserve play, and will continue 
to play. We will not be able to meet our global commitments 
without having them part of the operational Reserve.
    You raise the issue of domestic crises, whether it is 
hurricanes, floods, or another terrorist attack. The Guard has 
left some of its equipment behind in theater, some of its best 
equipment. Part of the refit money that you gave us last 
summer, $2 billion of that, is going to replace that equipment 
for the Guard.
    We also have under way, and we did it last year in 
anticipation of the hurricane season and we are doing it right 
now, working with the The Adjutants General (TAGs) and working 
with the governors to assess what the needs are, anticipating 
the hurricane and storm season. The Active Army and the Reserve 
are going to provide resources, provide people, provide 
transportation. We looked first across the Gulf States and then 
the States that go up the east coast, but we are looking ahead, 
we are planning ahead, to make sure that, just as we are 
looking for the Guard to be part of everything we do around the 
world, we are going to stand in support of them in meeting 
domestic crises as well, looking ahead, planning together.
    But bottom line, they are part of the operational force 
now. The total force is a reality and our budget reflects that, 
sir.
    General Schoomaker. Sir, I think Secretary Geren said it 
very well, but I would just like to simplify this whole thing. 
The Army is 40 percent of what it was in the Cold War. Today 55 
percent of the total Army is Guard and Reserve, over 50 
percent. So if we are going to operate at 300 percent of what 
we used to operate on when we had an Army that was 60 bigger, 
it is unreasonable to not expect 55 percent of the total force 
not to participate.
    So it is out of necessity that the Guard and Reserve, both 
for operations outside the United States as well as operations 
inside the United States in homeland security, homeland 
defense, are going to be called on more than they have in the 
past. I think it is that simple.
    Senator Akaka. I thank you both for your responses. General 
Schoomaker, I want to say that you have done such a great job 
for our country and God bless you and your family.
    General Schoomaker. Thank you very much.
    Senator Akaka. Thank you.
    Senator Lieberman [presiding]. Thank you, Senator Akaka.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    General Schoomaker, let me also thank you for your 
extraordinary service to our country and wish you well in a 
well-deserved retirement. We will see how long this retirement 
lasts.
    To soldiers who are here, thank you so much for the 
extraordinary work you do day in and day out to keep our 
country safe and strong and secure.
    Secretary Geren, welcome and good to see you again, and we 
look forward to working with you again in your new 
responsibilities.
    General Schoomaker, the 2007 Army Posture Statement 
identifies a set of core objectives which the Army must 
achieve, one of which is to modernize by accelerating the 
fielding of advanced technologies to our soldiers today. This 
objective requires funding for the Army's FCS, as you mentioned 
earlier, which is a critical investment program that will 
protect troops and enhance combat effectiveness.
    I want to point out there was a February 2007 Congressional 
Budget Office (CBO) report, I guess you would call it, that 
developed various budget options for altering Federal spending. 
One of the options presented in that report was--and this is a 
copy of the report--was to cancel the Future Combat Program and 
invest more in existing heavier combat vehicles that have a 
proven track record.
    Now, since the Army must continue to sustain their current 
mission while transforming at the same time to meet future 
challenges, could you just explain why cancelling or delaying 
the FCS program would be such a mistake?
    General Schoomaker. Sir, I would be glad to. First of all, 
it is prohibitively expensive to take the current force and 
carry it into the future for another 40 or 50 years or even 25 
years.
    Second, the kinds of threats that we are facing and the 
kinds of systems that we are facing, we must put these new 
technologies on these systems to be able to survive these kind 
of threats, and we must have the kinds of capabilities, some of 
which are demonstrated here, to be able to enhance the human 
dimension of war to meet the kind of irregular challenges that 
we face as well as the future conventional challenges.
    So I would tell you it is both an issue of affordability 
and it is an issue of necessity. We do not manufacture tanks 
and Bradleys any more. What we are doing is remanufacturing the 
hull. We are taking old hulls and upgrading them. But we are 
going to run into a point that this is just financially 
unattainable, to do this any more.
    So I think in the long run the FCS is not only a more 
effective solution, but it is also the most affordable solution 
to the kind of things that we have to do. It is the first 
modernization program we have had in what, 40 years, for the 
United States Army.
    Senator Thune. Of course, we all know and anybody who has 
visited Walter Reed knows very well that most of the injuries 
that our soldiers are sustaining, the guys who are coming back 
wounded are IED-related. That unmanned ground vehicle, that 
unit that you had rolling around out here today, is that 
currently being used? Can it be used to detect or to trip those 
IEDs before personnel come in or our convoys come in?
    It seems to me that if that thing is effective at doing 
that, we ought to be using it.
    General Schoomaker. Sir, we have several hundred of these 
deployed right now, the smaller ones going into buildings and 
in caves and wells and things and larger ones that are doing 
precisely what you said. Of course, these things are becoming 
more sophisticated and are absolutely essential to provide the 
stand-off that we need to deal with--and again, it goes back 
to, this is FCS technology.
    Senator Thune. I know it is a part of FCS. I guess the 
reason I ask the question is you mentioned they are deployed 
over there, but specifically with regard to the IED threat, if 
that is an effective counter to that.
    One just more broader philosophical question. The Services 
have to balance near-term requirements with long-term 
investments and ongoing operations with military modernization. 
When faced with the budgetary constraints, oftentimes you are 
forced to spend on today's forces rather than invest in 
tomorrow's. I do not believe that we can afford to take another 
procurement holiday, so how do you recommend that the Army 
balance their immediate needs against those long-term 
modernization needs?
    General Schoomaker. From my perspective, I think that's 
exactly the program that we presented. What we are doing is we 
are bringing our current force into the future and we are 
augmenting it with future capabilities like this that we are 
bringing down into the force, and we are actually transforming 
ourselves as we fight by bringing the current to the future and 
pulling some of the future back on top of the current.
    I know that sounds a little bit strange, but this is not 
peacetime and this is not a time that we can afford to run an 
old system up to some kind of a point of then introducing 
comprehensively new systems. These things have to be brought in 
as we fight.
    So I think we have presented a program that does precisely 
what you are saying, and this is the most dramatic 
transformation that this Army has been through, quite frankly, 
since World War II, and we are doing it in a very accelerated 
fashion. Of course, our experiences that we have in combat are 
helping us focus and giving us the sense of urgency that is 
required to do this.
    Senator Thune. Secretary Geren, I appreciated your comments 
about the expansive investment in the National Guard, the Army 
National Guard. We all had our TAGs in town last week and we 
all heard the stories about the wear and tear on equipment. I 
am just wondering maybe if you could give me a little bit of 
perspective. You talked about $38 billion over 5 years for 
equipment, and how that compares with previous investment, what 
the sort of trend line has been there, because they do--and 
General Schoomaker, you mentioned that 55 percent of the total 
Army is Guard and Reserve. We are riding those guys hard, our 
Guard units across this country and in my State of South 
Dakota, and everybody is feeling the consequences of that.
    So could you just give me a little bit, put in perspective 
the $38 billion in equipment that you are talking about and how 
that compares?
    Mr. Geren. I am not able to give you an historical trend 
line, but I know that as a general principle we have 
underfunded the investment in the Guard and the Reserve. The 
Guard had many, to use the words of the Chief, holes in the 
yard, had many of the units that did not have the equipment 
that they needed, and we are working now to fill those backlogs 
and equipment needs and invest into the future so that they 
have the same kind of equipment, they are able to train and 
fight just as the Active Duty is.
    As I mentioned, we are not limiting it to any area. It is 
aviation modernization, they are going to participate in that. 
Trucks; the modernization of the tanks and the Bradley fleets 
in the Guard is actually going to get accomplished before the 
active component. It is going to finish in 2011.
    We are making up for lack of investment in the past. We are 
reorganizing. We are also, when you look at the nature of the 
Guard force as we are moving forward, moving more from heavy 
combat into combat service and combat support, more versatile 
Guard units that will not only be able to help us around the 
world, but also be able to better help us here at home.
    General Schoomaker. Sir, I think, rough order of magnitude, 
the level of funding from 2005 to 2013 for the Guard and 
Reserve is an order of magnitude about five over historical 
levels, about five times. If you take a look, one of the 
important things to understand is we complete the total 
transformation of the Army out by 2019. So from what, 2013 to 
2019, there is another $52 billion. Inside that $52 billion is 
another $24 billion required for Guard and Reserve to complete 
their transformation out there.
    My view is what we ought to be looking at is how much of 
that can we accelerate to the left. How much of that can we 
pull closer to where we are, not only for the Guard and 
Reserve, but for the active Force, to complete this 
transformation more quickly.
    Senator Thune. I appreciate again your testimony and your 
service. I would share your view that we have to do better on 
the top line, and I think that the telling in your 
presentation, this chart, which I think is always very telling, 
about percentage of gross domestic product that we spend on the 
military. Relative to times throughout our history whenever we 
have been at war, we are spending less today than we ever have. 
We have a lot more needs, as you have pointed out. So I share 
your view on that and look forward to working with you to 
address that.
    So thank you, Mr. Chairman.
    Chairman Levin [presiding]: Thank you, Senator Thune.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    First let me express my respect for both of you and 
certainly acknowledge that the action on the part of the Army 
as it relates to Walter Reed has embraced accountability, and 
especially the very difficult decisions in terms of change of 
leadership. I want to express how pleased I am with that and 
thank you for it.
    I want to ask some questions also about the FCS. One of the 
things that I have learned is that there is an issue in terms 
of the manned ground vehicles, the weight; that the original 
plans for that had a weight at a certain level and now we are 
contemplating that weight going as high as 24 tons.
    My question to you today is if the plans all along had been 
to transport with the C-130s and that if now you are 
contemplating using the C-17s because of the efficiencies that 
would be gained and in terms of how much you would be--in terms 
of the type of runways you could use and how many you could 
move, what I am concerned about is it does not appear to me 
that the Army has expressed this to the Air Force.
    We are getting ready to take the C-17s off line and it 
seems to me that if we are going to need the C-17s, if we are 
going to rely on FCS in the future--and I think the rationale 
you have expressed, General, is certainly valid--then why would 
we not at this point be going, whoa, whoa, whoa, we need the C-
17 as it relates to the future of FCS?
    General Schoomaker. We do need the C-17 as it relates to 
the future FCS, because one of the reasons we used C-130 sizing 
constructs is so that we could get three of these systems on a 
C-17. That is the whole point. Currently, one C-17 can only 
carry one system of that current heavy armor.
    We have expressed our requirements and, quite frankly, 
General Norton A. Schwartz, USAF, out at Transportation 
Command, who is responsible for all this in terms of managing 
the C-17s, C-5s, and the strategic deployability issues, has 
been working with the Air Force about what he views his 
requirements to be. The discussions that I have been involved 
in, I think that they are adequately being addressed and that 
people do understand what the--it is not just purely an Air 
Force-Army discussion. There is a discussion of the owner of 
these systems, which is U.S. Transportation Command, that 
enters. They feel that they are building sufficient C-17s to 
meet the requirement.
    Senator McCaskill. But you know they are going to shut it 
down. They are in the process of shutting down these lines and 
not going to build any more C-17s. That is the plan, which is 
what I am confused about.
    General Schoomaker. Again, the planners for all of this--
first of all, the FCS reduces the requirement for the numbers 
of aircraft. Today we have a higher requirement if we are going 
to air transport our systems. What General Schwartz has looked 
at is the combination of C-5 modernization, C-17s, and the 
other systems that they are talking about, to include what the 
future tanker is going to be and what its cargo capabilities 
will be.
    So I have listened to these discussions ad nauseam and I 
think that the people are putting their arms around what the 
total requirement is for armed forces. I would also state that 
we also move the preponderance of our stuff by sea, so we have 
equal concerns in terms of fast shipping to be able to move our 
units, et cetera. So I am confident that the right people are 
working this and I am not uncomfortable with where we are.
    Senator McCaskill. Okay. What I would hate to see is us 
coming back in one of these hearings in a couple of years and 
saying, after the line has been shut down and the costs 
associated with that, that we, the taxpayer, are going to pay 
again to start that line because we must have the C-17 to 
transport the FCS.
    General Schoomaker. I would hate to see that, too. But I 
believe the proper conversations are going on and I will leave 
it to the transporters to determine. They know what our 
requirement is.
    Senator McCaskill. Okay.
    The next question I would have for you, if you were going 
to decide, both of you, in terms of making a recommendation as 
to contracting processes as it relates to troop support in 
Iraq, not just reconstruction but troop support, would you 
think that we should look at a single unified contracting 
entity to coordinate all the contracting in the theater? Or do 
you think we should expand the jurisdiction of the Special 
Inspector General for Iraq Reconstruction to perform that 
function?
    Mr. Geren. I would have to look at that proposal with 
greater detail before I could offer you a recommendation on it. 
I can tell you, though, the way we operate as an Army or as a 
military, we depend on contractor support. When we downsized 
the military, we found ourselves in the position where we are 
not able to deploy without depending upon contractor support. 
Transportation, food, laundry, so many of the support services, 
we have moved into the support role of contractors, including 
much of security.
    So that is going to be, continue to be, part of the present 
and the future for your military. It also enables us to move 
more soldiers from tail to tooth and put them in warfighting 
roles rather than in support roles. But as far as your specific 
question about how to best manage that, I would like to get 
back with you for the record.
    [The information referred to follows:]

    I agree with having a single unified entity responsible for 
coordinating Department of Defense (DOD) contracting in Iraq. The 
Commander, U.S. Central Command (CENTCOM), has coordinating authority 
over all supporting DOD contracting organizations, and the Joint 
Contracting Command-Iraq/Afghanistan provides unity of contracting 
effort for the combined/joint operations areas Iraq and Afghanistan.
    In addition, the DOD is establishing new procedures aimed at 
improving coordination with contracting offices in a combatant command 
to verify whether contemplated acquisitions requiring performance in, 
or delivery to, the theater of operations will duplicate or conflict 
with existing work and whether economies of scope/schedule can be 
leveraged from existing contracts.
    Although the Special Inspector General for Iraq Reconstruction 
(SIGIR) has a crucial role in the oversight of those contracts 
obligating Iraq Relief and Reconstruction Funds, it is not the only 
organization providing oversight of contracting in Iraq. There have 
been nearly 200 major audits, reviews, or assessments of contracting 
activities in Iraq by the various oversight agencies. In addition to 
the SIGIR, the Government Accountability Office, Department of Defense 
Inspector General, Defense Contract Management Agency, Defense Contract 
Audit Agency, and the Army Audit Agency also have oversight of DOD 
contracting in Iraq.

    Senator McCaskill. I really would like your thoughts on 
that, because it seems to me that we need to do one or the 
other. We need to either have a single unified contracting 
entity for all of the support in Iraq or we need to expand the 
IG that is over there now looking at reconstruction to be able 
to look at this area also. I certainly would respect your 
opinion on that in terms of what you think would be most 
efficient and effective in terms of changing some of the things 
to avoid some of the serious, serious inefficiencies and 
problems we have had with some of these contracting practices.
    Mr. Geren. I know your background. You could offer us great 
expertise in this area and we look forward to working with you.
    Senator McCaskill. More auditors everywhere. Auditors, 
auditors. [Laughter.]
    Mr. Geren. I tell you, the LOGCAP contract, which has been 
much in the news and criticized by many people, the concept 
goes back to the early 1990s. Recognizing that we were going to 
limit many of those capabilities within the military and wanted 
to be able to look at the outside to be able to surge and 
support the military wherever we needed to go, whenever we 
needed it, we currently have that LOGCAP contract under 
negotiation right now, under source selection. Rather than 
having one contractor going forward, we are going to have 
three, so we do not put so much burden on a single LOGCAP 
contractor to support the military. So that is one of the 
changes that has been made going forward from this point. We 
are in the source selection now and we will be making the 
decision soon. I think that that will help address some of the 
issues that have come up over the last couple years.
    Thank you, Senator.
    Senator McCaskill. I have had an opportunity to look in 
some detail at the Army physical disability evaluation system 
inspection that was done by the IG. But I have to tell you, I 
do not know how many people are going to read this whole thing. 
I would be curious, General, as to whether or not you would 
comment on that. I was able to go through here and find the 
bottom line, a bottom line slide, and to some extent in the 
executive summary.
    But at some point in time, these products need to be 
consumed, and it is tough, tough reading to get through this 
thing. This is really important stuff. This is it. This is why 
these bureaucracies have frozen these families into a level of 
stress that we just simply cannot accept for our wounded and 
their loved ones.
    I am curious, how many people do you think in the Army have 
read this entire document, besides the people in the IG's 
office that wrote it and reviewed it?
    General Schoomaker. First of all, that document is the 
result of Secretary Harvey directing a year ago----
    Senator McCaskill. Right, in April 2006.
    General Schoomaker. April 2006, because of--and things have 
been getting fixed as we go along. So I do not know how many 
people are going to read it, but I can tell you the right 
people are going to read it. We have Tiger Teams on top of this 
thing. What I believe is that that will only be a piece of what 
we will find as we go through it. Because of the nature of what 
started that, I think we are going to find lots of things that 
we need to work on.
    One of the things I think we already testified to is, title 
10, which is what DOD operates under, has a different set of 
criteria than title 38, which is what the VA operates under, 
and I understand Social Security is in even different. So this 
really is going to require strategic level transformation and 
it is going to have to be driven all the way down into 
something that is coherent, because I believe that the 
fundamental distrust and frustration that people have in this 
business, compensation system, is as fundamental as the 
differences in compensation tables and all the kinds of stuff 
that are extraordinarily difficult to read, and it leads one to 
believe--I mean, if the VA can give 70 percent for something 
that DOD gives 40 percent for, there is a fundamental problem 
here in terms of people's confidence that this is a system that 
works.
    So I think that that is only going to be one piece of it, 
and I think a lot of people are going to read this and that 
they are going to be the people that need to read it so that 
the leadership can change it.
    Senator McCaskill. I hope that there will be some attempt 
to simplify some of the information that is contained in this 
report. Make sure the Physical Evaluation Board Liaison 
Officers (PEBLOs) read it systemwide. The PEBLOs need to read 
this. The people that are working, the doctor who signs the 
narrative summary and it takes 2\1/2\ weeks for it to go across 
the hall. The person responsible for getting that narrative 
summary across the hall needs to read this.
    I just think the nature of this document makes it tougher, 
and probably I should be having this conversation with the DOD 
IG. But I think that to pull out parts of it and simplify it 
and make it in a very consumable product for the people in the 
system, and then maybe they would realize that their part of 
the system may be part of the problem.
    General Schoomaker. I think that is a point very well 
taken.
    Senator McCaskill. Thank you very much. Thank you both.
    Mr. Geren. Let me just mention one thing in response to 
that. We are going to work to make this system work better and 
that is long-term. But in the short-term, there is--and you 
address it in the legislation you propose--really no substitute 
for having effective patient advocates for these soldiers that 
are in rehab and getting treated. We are not going to wait 
until that bureaucracy is fixed to stand up for these soldiers. 
The command sergeant major that works for them, this colonel 
that is going to head up this brigade, and this new position 
that was just created, a deputy commanding general at Walter 
Reed, a one-star general, his job is going to be bureaucracy-
buster. We are not going to wait for the final fix. These 
soldiers are going to have an advocate in that command sergeant 
major, are going to have an advocate in that colonel, and going 
to have an advocate at the top of the system, this deputy 
commanding general that is going to be working directly for 
Major General Eric B. Schoomaker, USA, and make sure that they 
are represented effectively and that their needs are met today, 
not weeks from now, years from now, or decades from now when 
this whole system is fixed.
    Senator McCaskill. I think that is great. I tell you what 
would really, you would get some--I would be clicking my heels 
if you could fix some of this stuff before all these 
commissions even finish meeting, because I have a feeling that 
might take a while.
    Mr. Geren. We did put some fixes in place and some of them 
are ones that you called for in your legislation. I would like 
to get with you and brief you and show you on the ground the 
things that we have already taken. In fact, your 800 line, we 
are going to have an 800 line up and operational by March 19.
    Senator McCaskill. Congratulations. That is great news.
    Chairman Levin. We welcome your assurance earlier in the 
hearing that you are not waiting for those panels. As Senator 
McCaskill says, that is not what your intent is. You are making 
these changes as soon as you possibly can and you are not going 
to delay them for any report of any of the panels which are 
going to be appointed.
    Mr. Geren. Changes have already been made. They are being 
made as we sit here today and they are going to continue, I 
assure you.
    Chairman Levin. Thank you. Senator McCaskill, thank you.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Gentlemen, let me echo the sentiments of my colleagues in 
thanking you for your service to our country. Pete, you and I 
go back to our early days, my early days in the House and our 
service together in the House Armed Services Committee, and you 
have once again stepped in to fill a position in a time of 
crisis and, on behalf of all of us, we thank you for your great 
service.
    General, we are sorry to see you moving on, but you also 
stepped forward in a very critical time in the history of our 
country and when you were called by the Secretary to put that 
uniform on once again you did not hesitate. So we thank you for 
your great service.
    I cannot tell you how much I appreciate your recognizing 
these three men you brought with you this morning. One of them 
happens to be a good friend of mine, Staff Sergeant David 
Hatton. He is a great Georgian, but most importantly he is a 
great American, and I have seen him operate in theater as well 
as out of theater, and he represents everything that is great 
about America.
    I am proud of all those members of the 48th Brigade, but 
folks like Staff Sergeant Hatton just exemplify why we have to 
continue to equip and train the National Guard and our Reserves 
so that they are a seamless operation with our Active-Duty 
Force. Under your leadership, we have certainly seen that 
continued and it is a true statement more so today than ever 
before that there is a seamless transition when they are thrown 
into combat together.
    Gentlemen, you mentioned in your written statement that you 
are in the process of rebalancing and redistributing forces 
within the active, Guard, and Reserve components to create the 
right mix of high-demand units in each of our Active Duty and 
Reserve components. Specifically, you are focusing on the units 
and the skills that are in the greatest demand, including 
infantry, engineer, military police, intelligence, civil 
affairs, and psychological operations, just to name a few of 
them.
    My question is that if I am a member of the Guard or 
Reserve who happens to be in one of those high-demand career 
fields, such as civil affairs or military police, and my 
position or unit gets shifted to Active Duty, what happens to 
me? Where do I go as a member of the Guard or Reserve in that 
instance?
    General Schoomaker. We are building greater capacity, both 
Active and Reserve component, in those kinds of things that you 
are talking about. However, there are some people that may 
require reclassification. In other words, on the Active side, 
we have reduced certain capabilities to increase others within 
the different components. We have had to reclassify soldiers, 
put them into another career field and do that. We have done 
some of that same thing in the Reserve components.
    Senator Chambliss. So does that Guard or Reserve member get 
a choice then as to where he is redirected?
    General Schoomaker. To a certain extent, yes, sir, in terms 
of--and I probably ought to have Clyde Vaughn or Jack Schultz 
talk about it a little bit, because I think they each have 
different challenges in that regard. Part of what they are 
doing as they are transforming both the Guard and Reserve is 
looking at what the relationships of this unit against the 
demographics are and how they are reassociating units in a 
better way in terms of how to sustain and retain the soldiers 
that way.
    I do not know if--where are you at?
    General Vaughn. Down here, sir.
    General Schoomaker. There you are. Go ahead.
    General Vaughn. Sir, with regard to high usage and military 
police (MPs)--we are all picking up a lot of MPs--what we are 
doing is, what we did some time back----
    Chairman Levin. May I suggest you get to a mike.
    General Vaughn. Yes, sir.
    What we did some time back with BCTs--there was a great 
discussion about what the requirement was. What our requirement 
was for was a lot of infantry forces along with the engineers 
and MPs, as you so well pointed out. So we went through a 
transition to move this into maneuver enhancement brigades, 
which actually makes it a more usable organization for our 
States. We will end up keeping actually more infantry 
battalions. We will grow MPs, we will grow engineers.
    There is some turbidity associated with modularity in terms 
of our combat forces and there will have to be some retraining 
that goes with that. But in the end soldiers will have an 
adjustment period. If they have to switch to another military 
occupational specialty, they will be offered the chance to go 
outside of the 50 miles. But we try to keep them within the 50 
miles. I think that overall what we are trying to do is to keep 
the turbulence down the best we can in the Army National Guard 
and the Army at a time of great turbulence just by design. So I 
hope we are trying to work through that in the best possible 
manner.
    Senator Chambliss. I think you are smart to try to make 
sure that in these high-demand fields we take advantage of the 
capabilities of each of these individuals and their respective 
professionals in the private sector. Obviously we are doing 
that and we do not want to lose that capability.
    Gentlemen, in your written statement you discuss your 
recruiting and your retention metrics for 2006 as well as 
recent years. What you say in your statement reflects what I 
have been hearing myself, which is that although you have not 
necessarily met every goal every year, the recruiting and 
retention remain strong across the Army.
    First I would like to commend you for that because I think 
it is a reflection of the great leadership that we have seen in 
the Army, and even as hard as we are working soldiers today, 
that they still want to sign up and resign up to be a part of 
the Army is a great testimony to that leadership.
    In particular I think it is important to note that the 
retention rate for soldiers in the Guard and Reserve components 
that are deployed is higher than those who have not, which is 
amazing in some respects. But it is truly a testimony to the 
type of people that we have serving in our military today.
    Now, I have introduced a bill in the Senate which would 
lower the age at which Guard and Reserve members can retire by 
3 months for every 90 days they spend on Active Duty in support 
of a contingency operation. One of the reasons I have 
structured that bill the way I have is to incentivize mid-
career personnel who are being deployed and stand to be 
deployed again to stay in the Service by giving them an 
additional incentive.
    Some observers of the military personnel system have noted 
that two unknowns related to how the current operations tempo 
is affecting our military are, number one, the long-term effect 
it will have on Guard and Reserve recruiting, and two, the 
effect multiple deployments will have on Guard and Reserve 
reenlistment. I would like for you to comment on what you think 
the long-term effect on multiple deployments will have on 
Reserve components, and are you seeing any trends in that area 
that cause you concern and what are some of the leading 
indicators that may indicate that we are having a problem or 
may not indicate that we are having a problem there?
    Mr. Geren. Let me first mention your legislation. I have 
reviewed your legislation. Across the Service--Active, Guard, 
and Reserve--we are looking at the retention issue and 
obviously recruiting as well, what type of incentives we need 
to build into the system to make sure that we do recruit and 
retain, some the force overall and some targeted specialties. 
As we work to--it will be an evolving process. We will continue 
to change the incentive packages both in regard to retirement 
and compensation and other career choices. That will change as 
the needs of the Service change and also as the recruiting 
challenges change. But your legislation is something we are 
reviewing as part of this package.
    As far as recruiting overall, you noted correctly we have 
enjoyed tremendous success. We have met in the active component 
our recruiting goals 21 straight months, and we have seen that 
the soldiers who have deployed have reenlisted at a higher rate 
than those who have not. So the commitment of the soldiers has 
been inspiring, the commitment of the soldiers and their 
families.
    But we recognize over the coming years as we ask more and 
more of the force, as the force ages, we are going to have to 
do things to keep up with these recruiting challenges. Up until 
now we have been successful. I would like to just congratulate 
the Guard for one of the most innovative recruiting 
initiatives. They have turned every guardsman into a recruiter. 
Remember about a year ago when folks were speculating that the 
Guard would not meet its 350,000-person goal? They are going to 
do that soon. They have had tremendous success with that 
program and both the Reserve and the active Duty are looking at 
and going to school on what the Guard has done and what they 
have accomplished.
    So we recognize the challenge here. We recognize as we have 
more deployments, we are an All-Volunteer Force in a long war. 
We have never had an All-Volunteer Force in modern times fight 
a war of this length. It poses some challenges that we have not 
addressed before. But we have soldiers that are willing to step 
up to the line and we have leaders that continue to adapt the 
system to make sure we meet the needs of these soldiers and 
their families.
    Senator Chambliss. Let me just say too, General Schoomaker, 
I have the same concern that Senator McCaskill does about the 
C-17 issue. We are flying that airplane today at 150 percent of 
projected mission rates, and shutting that line down is going 
to be a terrible mistake that we will regret. I just hope we 
are going to be able to figure out some way to make sure that 
that does not happen.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you. General, I not only thank 
you for your service, but I wish you godspeed and, to 
paraphrase another former general, I doubt that you are going 
to fade away. I think we are going to be hearing from you a 
good bit in the future.
    I would like to thank you and your staff also for the 
meetings that were arranged for me earlier this week. We had a 
great series of presentations with General Richard A. Cody, 
USA, and Major General Stephen Speakes, USA, which was really 
good for me as a former Assistant Secretary of Defense, where I 
was working with the Army every day on these force structure 
issues and this sort of thing to get up to speed on Army 
reorganization, streamlining the divisional structure, 
uniformity in terms of falling in on other people's gear when 
you are rotating in and out. Also, the streamlining of the 
Guard and Reserve missions, which have been mentioned here, and 
the hard work that has gone in to find compatibility with local 
needs of the different States, those sorts of things--just a 
tremendous amount of really forward thinking, and I would 
congratulate you and all your staff on that.
    General Schoomaker. Sir, thanks for taking, investing the 
time.
    Senator Webb. I would like to say something else I think 
that is really vitally important right now in the way that we 
are addressing this whole series of issues that spun out of 
Walter Reed. You made a comment which I think is really 
important in terms of the public understanding, and I would 
encourage the other Army leadership to be pretty 
straightforward in explaining it. That goes to the different 
nature historically in disability evaluations.
    It is one thing--we want the system to work better, no 
question about that. At the same time, there has been a 
different methodology over the years between what DOD looks at 
and what the VA looks at. I will give you a classic example, 
two brothers who are both good friends of mine. One is Colonel 
John McKay, former marine. He and I were wounded in the same 
bunker complex, although at different times. Had his eye shot 
out, could not even wear an artificial eye, shattered his 
sinus, busted his jaw. He fought to stay on Active Duty for 29 
years and was successful in doing that. When he retired from 
the Marine Corps, the Marine Corps gave him zero disability 
because they said: You are fit for duty; you returned to duty. 
He went over to the VA and got a very high percentage.
    His brother did the same thing. His brother was a 
helicopter crew chief in Vietnam, was wounded badly, took 
shrapnel in his back, lost his patella. But he went from the 
hospital and returned to Vietnam and did another tour. He got 
back out and the Marine Corps gave him zero disability. They 
said: You are fit for duty; you returned to your unit. He 
walked across the street to the VA and got 60 percent.
    There may be a way that we can match these two disability 
evaluation systems and we certainly want to work to move toward 
fairness. But at the same time, I hope that the leadership in 
the military will help the American public understand that 
these have historically been two different systems.
    I have one concern in this budget and I raised it with you 
personally before, and it is the end strength build. I think 
the great challenge for the Army is going to be to justify the 
build with the prospect of troop levels in Iraq being reduced. 
I know you build your manpower to the requirements and these 
are your requirements. At the same time, we all know what 
manpower does. It is probably two-thirds of your budget when 
you get into recruiting, training, deploying, retiring, caring 
for people, caring for dependents, dependent schools, all those 
sorts of things. It is very, very costly. We are very manpower-
intensive. We are the most manpower-intensive DOD budget in the 
world. That is why our budget looks so high when you put it 
next to China.
    When Secretary Gates was before us I asked him this 
question. He said to me that there would be what he called off-
ramps built into the plan, given possible force structure 
reductions. I am wondering if that is actually in your planning 
phase or how you are looking at justifying the builds?
    General Schoomaker. The answer is no, it is not. My view is 
that would be a bad mistake, for this Nation to again reduce 
the United States Army. I do not think we should reduce the 
Army, I do not think we should reduce the Marine Corps, and I 
do not think we should reduce our Special Operations Forces.
    Senator Webb. No one is saying we should reduce the size of 
the Army. What I am saying is, in justifying the build in your 
end strength, your challenge is to justify the build in the 
environment in which we may be reducing force structure in 
Iraq. No one is saying to reduce the actual size. It is in 
terms of justifying the growth of the Army. That is the matrix 
in which you are going to be asked to do it.
    General Schoomaker. I know of no off-ramping that is going 
on. I think that we have taken a conservative look at how large 
the Army should be. I think the future is going to justify even 
a larger Army than we are currently building, because I do not 
believe that we are going to see as we go into this century the 
kind of reduction in requirement that some people hope for, and 
``hope'' is the proper word.
    My view is that it is important that we pull this end 
strength growth inside the base budget, which all of it does 
come in starting in 2009. This year's budget, you see 7,000 of 
it coming inside, and I believe that what we are going to have 
to do is stay on course here and that the future is going to 
inform us on whether we have this about right or not.
    I am concerned about whether or not we have enough going 
towards building the institutional part of the Army that is 
required, because I think that is fundamental to some of these 
problems we have in things like training and at Walter Reed and 
other kinds of things. The Army right now of all the Services 
has the smallest percentage of its personnel end strength 
committed to the institution.
    Senator Webb. My instinct is to agree with you. I want to 
be able to justify that support based on numbers. But I did, I 
think as you and I discussed, I spent an entire year back in 
the 1980s analyzing Army force structure at the request of 
Secretary Weinberger. At that time the active-Duty Army was 
761,000.
    General Schoomaker. Much larger.
    Senator Webb. The bottom line justification after talking 
to Army force structure people was that, given the functions 
around the world, they have changed in some measure, but that 
12 divisions was about as low as the Army could afford to go if 
we are going to keep our place around the world.
    General Schoomaker. But you remember that the expectation 
of the Army's deployment was nothing compared to what we are 
experiencing.
    Senator Webb. True. We had 200,000 people in Germany at the 
time, arguably deployed, but not operational as they are now.
    General Schoomaker. That is correct. Living with their 
families, with basic quality of life, et cetera. We are talking 
about an Army that is operating at an extraordinary rate, and I 
think that this is not an anomaly. Now, there are a lot of 
people talking differently, but I hope that we do not find 
ourselves back into a position that we find ourselves needing 
an Army and Marine Corps and Special Operating Forces (SOF) 
again and we find ourselves back down at the bottom of the 
ramp.
    By the way, I go back to remembering when we were taking 
down SOF. When I first got into SOF many years ago, it was on 
the decline.
    Senator Webb. I remember that time.
    General Schoomaker. There was only three Special Forces 
groups left. It's just our nature, and I think what we ought to 
do is get informed about our nature and we ought to counter it, 
because it is a cycle.
    Senator Webb. I appreciate your comments. Thank you.
    Chairman Levin. Thank you, Senator Webb.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General, you pointed out this morning that 55 percent of 
our total force is now Guard and Reserve, if I understood you 
correctly; is that correct?
    General Schoomaker. That is correct, yes, ma'am.
    Senator Collins. That certainly explains to me why we have 
what I consider to be an overreliance on our Guard and Reserve. 
Are you comfortable with that proportion? If you were designing 
the total force from scratch today or had a magic wand, what 
proportion would be Guard and Reserve?
    General Schoomaker. I would be much more comfortable if 
there was something more on the order of 60 percent Active and 
40 percent Reserve. I think our Active Force is too small. I 
think we are doing the right thing now in building this active 
Force. Again, if we are going to maintain this level of balance 
then we are going to have to invest in the Guard and Reserve to 
make sure that they are effective as an operational Reserve, 
which I think we are doing.
    Senator Collins. I was really surprised that more than a 
majority of the force was Guard and Reserve, and that seems 
like an issue this committee should really take a hard look at 
in terms of whether we have the right force structure and 
whether we are asking too much of our Guard and Reserve.
    General Schoomaker. If I could be so bold, since this might 
be my last hearing----
    Senator Collins. That is why I am asking.
    General Schoomaker.--and it might not, but there is a lot 
more political constituency for Guard and Reserve, and I 
believe it was not taken down proportionately because of the 
political clout that the Guard and Reserve has as opposed to an 
Active Force. So there is no military rhyme or reason for us to 
be where we are. It has to do with the politics. I think that 
what we need to do is we need to get ourselves organized for 
the realities of the future and we ought to balance ourselves 
in such a way that is commensurate with how we are going to use 
these forces.
    Senator Collins. Since I chair, or used to chair rather, 
the Homeland Security Committee, I am also very aware of the 
role that the Guard plays in responding to natural disasters 
and other emergencies. I am just concerned about how much we 
are asking the Guard to do.
    General Schoomaker. Ma'am, if I could just say something 
here. I am a big fan of the Guard and Reserve.
    Senator Collins. As am I.
    General Schoomaker. I think that in this century that we 
had better have an effective Guard and Reserve, not only to 
reinforce us operationally away, but we better get better at 
our homeland security, homeland defense issues. I do believe 
that we are on borrowed time when it comes to what is going on 
in this century.
    Senator Collins. I certainly agree with you.
    I want to switch to a different issue and ask both of you 
to comment on the next question. All of us have seen how the 
advances in military medicine, the extraordinary treatment on 
the battlefield, have allowed far more of our injured troops to 
survive than in other conflicts. But in the last week I have 
met with constituents, including a neurologist, who have 
expressed to me significant concern about the increased number 
of traumatic brain injury (TBI) cases and whether they are 
being caught and screened.
    This neurologist from Maine in particular told me of a 
soldier who came to him who had been diagnosed with post-
traumatic stress disorder (PTSD) and that was not the problem 
at all. He had a TBI that had been missed.
    I also met with some other experts from Maine. I have had 
letters from constituents who have expertise in dealing with 
these injuries, and they are expressing a pattern that I am 
seeing here, a common concern that some of our troops are being 
diagnosed as just having--not ``just,'' because it is serious 
as well, but as having PTSD, when in fact they have a TBI.
    They explained to me that that is an injury that can be a 
silent killer if it is misdiagnosed. Many of these individuals 
have advocated that every servicemember should be screened for 
TBI upon their return from deployment, as well as at 
separation.
    General, I am going to ask you to comment first. Should we 
be doing more in this area? Are we providing sufficient 
funding? I am very concerned about this. It is coming up from 
people whom I really respect and who are giving me actual cases 
of Maine soldiers with brain injury who are misdiagnosed.
    General Schoomaker. I think I share your concern. I will 
tell you, of course I am not an expert on this, but my brother 
is commander at Walter Reed now and he has been my brother for 
a long time and he has been informing me about his concerns 
about the things we do not know about this and how it is 
emerging now, the body of knowledge is increasing on it. It is 
very confusing.
    I will tell you, yesterday I happened to be at one of our 
regional medical centers looking at, just checking things out 
and talking to the leaders and stuff. I will not name which one 
this is, but there was a soldier there that had been diagnosed 
with PTSD that never deployed. So we are finding--one would 
say, how could this be? The fact of the matter is there are all 
kinds of traumatic things that can occur in life that have 
these kinds of symptoms. Of course, when we have a soldier that 
is on Active Duty with this, whether it is Guard, Reserve, or 
an Active soldier, we have a responsibility to treat it 
regardless of the cost.
    So I think this is an area that has not been well-
understood, that because of this we are now learning a lot 
more. I believe your concerns are valid, that we must explore 
this and must make sure that we understand, because this is a 
readiness issue. If these effects are delayed effects, there is 
no commander that wants to have somebody with these kinds of 
problems committed back in another rotation into combat. That 
is not what any logical commander would want.
    So if we do not understand how to measure it and we do not 
know what it looks like and these things have delayed effects, 
then we have to get smarter pretty quick here because of the 
nature of how we are operating.
    Senator Collins. Secretary Geren.
    Mr. Geren. On that same point, does our disability system 
accurately reflect that injury and anticipate the impact of 
that injury later in that soldier's life? Those are issues we 
have to examine. The Surgeon General has appointed a task 
force, with the southeast medical commander, to look at TBI 
specifically. But there is much we have to learn about that.
    You also mentioned PTSD. We now estimate 10 to 15 percent 
of all of our soldiers that are coming back from deployment are 
experiencing some degree of PTSD. These are two issues that we 
are concentrating on, have deep concerns about, certainly share 
your concerns. But I would be the first to tell you we have a 
lot to learn in that area. When you think about it, the issues 
are varied as well. It is not just medical, not just clinical. 
But just as in civilian life, people are reluctant to come 
forward and deal with psychological or emotional problems. The 
culture is the same in the Army, maybe more so. There is a 
reluctance to admit you have a problem in that area.
    We now have a predeployment and postdeployment assessment, 
a mental health assessment for all of our soldiers. We are 
making headway in that area, but we have a ways to go. The 
long-term look at the disability system is going to have to 
look at these areas and make sure we are capturing the needs of 
the soldiers now and the needs of the soldiers long-term. I do 
not think right now we could say that we are doing that 
effectively.
    Senator Collins. I agree. Thank you.
    Chairman Levin. Thank you, Senator Collins.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    Thanks, Mr. Secretary, General Schoomaker. Thank you very 
much to the impressive group behind you, I might say. Thanks 
for your service to our country at a very challenging time. In 
fairness, thanks to Secretary Harvey in absentia for the great 
job that he did.
    General Schoomaker, I join everybody in wishing you well in 
the next chapter. It has been a real honor to get to know you. 
You have been in my opinion a very strong leader in the Army. 
You have also been a uniquely persistent and I think effective 
advocate for the Army, both within Congress and within the 
Pentagon. That is really very important for the Army and for 
our country.
    I want to just say a word about the last subject before I 
go to some questions about Walter Reed. I do not want to spend 
my time on a question, but I think I am going to put a letter 
to you, Mr. Secretary, maybe to the Surgeon General. At the 
hearing we had about the Walter Reed problems on this 
committee, I raised the question about whether we should take a 
second look at the BRAC decision about Walter Reed. I do not 
have a conclusion about it, but here is the question that I 
want to raise. I wonder whether there was adequate attention 
paid by the BRAC to the demands on our health care, our 
military health care system, that will be generated now and in 
the years ahead as a result of the very high level of activity 
of engagement that the Army will have in the war we are in with 
radical Islam, which is not going to end any time soon.
    It just seems to me that, notwithstanding the horrific, 
embarrassing conditions of Building 18, that some of the 
buildings out there are state-of-the-art. It could well be that 
it still makes sense to move them all to different places and 
build some new stuff, but I am thinking really more in terms of 
demands on the system and whether this is the right moment. I 
am not talking about not doing anything up at Bethesda, but 
whether this is the right moment to close down that facility as 
we see a lot more demand coming along.
    I am not going to ask you to answer that right now. I will 
send you a letter on it.
    Those thanks I offered for your service----
    Senator Warner. Senator, would you--before you joined us 
here, I raised that question. This is on my time. We will not 
take yours.
    I suggest--I am trying to work through, and I would enjoy 
your advice on it, a system by which recognizing Walter Reed is 
currently playing a vital role and recognizing there is some 
uncertainty about when Bethesda through additional construction 
and funding can take part of Walter Reed and a new hospital--
and a spade has not even been put in the ground down at Fort 
Belvoir--that Congress look at staying the timetable of the 
closure of Walter Reed and, as the Chief of Staff and the 
Secretary said, maintaining the quality of care with funds 
until there is a perfect meshing of the gear wheels as Walter 
Reed goes out and the other two medical centers come on line.
    So that is what we are looking at now.
    Senator Lieberman. Senator Warner, I think that is a very 
good proposal and I would support it. Here is the question. I 
go beyond that. I would like somebody who is much more of an 
expert on this than I am to make some projections about what 
the demands on the Army's medical system are going to be for 
the next 25, 30 years, and to decide whether, assuming a 
seamless transition, the new facilities that are contemplated 
are going to be enough to handle it, so that we do not look 
back and say, why the heck did we close some of those buildings 
at Walter Reed; they were just state-of-the-art. Besides we 
need the space.
    This is a non-expert question I am asking. That is why I am 
going to ask it of the experts. But in either case, I think 
your idea is an excellent idea.
    Mr. Geren. If I could just add one point.
    Senator Lieberman. Yes.
    Mr. Geren. This is addressing the need in the short-term. 
General Eric Schoomaker, the head of Walter Reed, one of the 
initiatives he has already undertaken in the short time he has 
been there is to look across the system outside of Walter Reed 
and where the services can be performed elsewhere in the 
medical system, make sure we are utilizing the capacity 
elsewhere as well. That kind of a look at the system I think is 
overdue, and I applaud General Schoomaker for looking out 
across the system and making sure that we are utilizing all of 
our capacity as best we can, making sure that we continue at 
Walter Reed to provide the highest quality care. I assure you 
he is committed to that.
    But he has undertaken a review and tasked his staff to look 
at other options to make sure that we use all the resources to 
meet all of our soldiers' needs and do not let any area go 
underutilized.
    Senator Lieberman. That is encouraging news and I 
appreciate it.
    When I thanked you earlier for the tremendous job you and 
your whole leadership team have done in the Army under 
difficult circumstances, I really mean it and I mean it in part 
because of what you two have said here today--and General, you 
have said it for quite a while now--which is that this is a 
classic where demands are going way up on the Army and to a 
certain extent supply has not gone up commensurately. By that I 
mean I believe the Army, as you do, is underfunded and 
understaffed, and it has been quite remarkable we have been 
able to do what you have been able to do. But this cannot go on 
the way it has been.
    As you come to the end of this career, assuming that no one 
convinces you to come back out of retirement, you said a few 
times that you do not think the current increase in end 
strength to 547,000--which incidentally does not happen until 
fiscal year 2013--that that is not enough, and that is my 
suspicion.
    Assuming for a moment that the money is not an issue, how 
high would you take the end strength of the Army?
    General Schoomaker. Well, sir, first of all, let me say 
that, remember the 30,000 that we have been growing is a down 
payment on the 74,000 that we are talking about.
    Senator Lieberman. Right.
    General Schoomaker. Our estimates were that we probably, 
our conservative estimates in the past, were we probably ought 
to see an active end strength somewhere around 565,000, 
something like that. But my concern really goes back to the 
institutional thing that I was talking to Senator Webb about. I 
worry that we have taken too much risk in the important aspects 
of the Army, like the medical system, like the education and 
training system, the kinds of things that support and are so 
important to the Army, because we have taken a lot of 
efficiencies there and I worry we have overreached a little.
    Senator Lieberman. Talk a little bit more, get down a 
little deeper into that, because that was the next question I 
was going to ask you. The institutional Army is, except in a 
moment of great unexpected public attention like the Walter 
Reed situation, is the part of the Army that nobody really sees 
or generally sees outside of the Army. So what is happening and 
why is it happening? Who are we talking about?
    General Schoomaker. We are talking about all of the 
business side of the Army. We are talking about drill sergeants 
and instructors and teachers and people that support 
maintenance, all of the kinds of things that happen. I am not 
just talking about headquarters now. I am talking about people 
who make--they are the people down in the engine room of the 
Army, that keep the--as an example, and this is--each of the 
Services is different and it is not fair to mirror image 
because they are not mirror images of each other. But the Navy 
and the Air Force, almost 50 percent of their structure is in 
the institution.
    Senator Lieberman. The Army?
    General Schoomaker. We are down, we have gone from about 31 
percent. We are on a move down I think to around 27 percent.
    Senator Lieberman. Much too low in your opinion?
    General Schoomaker. It is too low. So when you take a look 
at Walter Reed--I was talking yesterday; as I said, I was at a 
medical center. We have lots of soldiers now that are being 
supervised by civilians. I am not sure that is the smartest way 
to develop our medical personnel through the system, not just 
because of the technical thing, but because of the leadership 
side and because of the professional development aspect of it.
    So I applaud what we have done to move soldiers into the 
operational force, but we may be on a path of overreaching in 
terms of what is smart for the long-term.
    Senator Lieberman. That is what I was going to ask you. 
Maybe it is self-evident. Is the institutional Army down in 
percentage because you have had to take soldiers out of the 
institutional Army into the operational Army?
    General Schoomaker. Yes. Part of our program of trying to 
grow the Army in this time of war is to move civilians into 
positions that civilians can do that does not require a soldier 
totally to do. We just have to be careful with that. I am not 
suggesting it is not the right thing to do, but we have to be 
careful how far we go with that. There may be a couple areas 
where we have overreached a little.
    I am concerned about Training and Doctrine Command as an 
example, which is where we train and educate our force.
    Senator Lieberman. Yes, exactly.
    General Schoomaker. It is a very, very important part of 
what we do. The Medical Command is another. Our institutions--
part of the situation we had at Walter Reed is a direct result 
of the A-76 study and the garrison that is out there. All of 
our installations out there are run by garrisons. That is part 
of the institutional Army. It is not part of the operational 
Army. Somebody has to repair the roof and fix the plumbing and 
mow the grass and all the kinds of things you have to do so 
that we do not have these soldiers coming out of the 
battlefield and running lawnmowers and then going back to the 
battlefield. We have to train them and have them go.
    So that is the kind of thing I am talking about, and I 
think we may be on the path of overreaching just a little bit 
there.
    Senator Lieberman. Thank you very much for your words. I 
hope they resonate and echo throughout the years ahead and I 
wish you well and your family well. Thank you.
    General Schoomaker. Thank you.
    Chairman Levin. Thank you, Senator Lieberman.
    On the issue that Senator Lieberman raised and was talking 
to Senator Warner about, you have indicated that the new head 
of Walter Reed, General Schoomaker, is doing a study of the 
utilization of all of our medical facilities. I am wondering, 
who is doing this review?
    Mr. Geren. It is not a study. He actually instructed his 
staff to look to put patients where you have facilities that 
are underutilized; actually an operational decision, not a 
study, but to identify opportunities so we could make sure we 
could continue to meet the needs at Walter Reed and use 
capacity elsewhere.
    Chairman Levin. Who is going to be doing this review of the 
timing and the need for Walter Reed, whether or not we should 
reconsider? Is there someone who has the responsibility inside 
the Army to be taking another look at the Walter Reed BRAC 
issue plus the need issue which Senator Lieberman raises, the 
timing issue which Senator Warner raises? Is that 
responsibility assigned to somebody?
    Mr. Geren. There is a task force and the Army is 
represented on it. It is a joint task force that looks at all 
the issues, the planning for the new facility.
    Chairman Levin. No, not just that. But there is a new issue 
that has been raised, should we reconsider at least the timing, 
but maybe even the total desirability of the Walter Reed 
closing decision? Obviously we ought to be very careful because 
it is a BRAC issue and it is decided and once you reopen that 
issue all hell breaks loose in terms of a lot of other BRAC 
decisions which would like to be reviewed by some people.
    But my question is, is there such a review going on of, the 
review of Walter Reed's closing, both in terms of desirability 
and timing to do the seamless approach that Senator Warner 
talked about and the need issue which Senator Lieberman has 
raised? Is that assigned to somebody?
    Mr. Geren. At this point the decision is to proceed with 
BRAC. Dr. Robert M. Gates has focused on this personally and I 
have been at meetings with Dr. Gates and discussed this. We do 
not want to reopen BRAC. We want to make sure that Bethesda and 
Belvoir are done and done on time or sooner and make sure that 
we maintain the quality at Walter Reed up until that point. 
That is the commitment of the DOD.
    Chairman Levin. I think what you better do at a minimum is 
to get to this Mr. Chairman a letter telling us how that 
seamless transition is supposed to--what is the current plan, 
what is the capacity of Walter Reed, how is that capacity going 
to be handled seamlessly if we proceed on the course that we 
are on. Can you get us some kind of an overview of that so we 
have something specific, at least as a starting point?
    Mr. Geren. I will, Mr. Chairman.
    [The information referred to follows:]

    The Military Health System (MHS) Base Realignment and Closure 
(BRAC) 2005 actions in the National Capital Region (NCR) include the 
realignment of Walter Reed Army Medical Center (WRAMC) to the Walter 
Reed National Military Medical Center (WRNMMC) in Bethesda, MD; a new 
community hospital at Fort Belvoir, VA; and closure of the WRAMC main 
post.
    WRNMMC will be a combination of new construction and partial 
renovation of the existing National Naval Medical Center. As currently 
planned, construction at Bethesda will start in March 2008. 
Establishing the new Fort Belvoir community hospital will involve all 
new construction and will start in January 2008.
    At Bethesda, prior to initiation of construction, there will be a 
transition plan ensuring continuation of services and capacity 
throughout the duration of the project. This transition plan will 
likely involve use of ``swing space'' on the Bethesda campus, plus the 
potential need to consolidate clinical service(s) or support functions 
at WRAMC while portions of NNMC are under construction.
    In October 2010, construction of the new medical facilities will be 
complete. In mid-to-late fiscal year 2011, there will be a final 
transition from WRAMC to WRNMMC, plus a transition from WRAMC to the 
new Fort Belvoir community hospital. These late fiscal year 2011 
transitions will be part of closing the WRAMC main post.
    The transition plan at WRNMMC will be tightly linked to the 
construction schedule. The design effort for the WRNMMC is not 
sufficiently advanced to provide a construction schedule. Once a 
sequence of construction is established, then NCR planners will develop 
a parallel transition plan that migrates/moves services and functions 
such that NCA multi-service market maintains clinical capability and 
throughput. It is anticipated the transition plan will be completed 
late in calendar year 2007.
    In keeping with Joint Commission requirements, the transition 
planning will include specific attention to facility related life-
safety issues, infection control, and robust clinical case management 
to ensure no disruption in continuity of care. Transition planning will 
focus on aggregation of projects to minimize number and duration of 
moves. When physical movement of a service is necessary, the transition 
site will have all amenities required for patients and families. In 
addition to these non-negotiable clinical tenets, the transition plan 
will include a vigorous communications plan providing:

        <bullet> Advance notice of move
        <bullet> Education and training about new sites or pathways
        <bullet> Trained support staff to assist patients and families 
        with transition related issues/concerns

    On May 25, 2007, the Deputy Secretary of Defense approved the 
Acceleration/Enhanced Scope initiatives at WRNMMC and the new Fort 
Belvoir community hospital. The Acceleration/Enhanced Scope initiative 
at WRNMMC will simplify transition planning as the functions necessary 
to accomplish high acuity inpatient care will have optimal adjacencies, 
be consolidated at one location in the NCR, and include family support 
services.

    Chairman Levin. I have two questions. I know Senator Warner 
has a couple. On FCSs, General, the Army recently adjusted the 
FCS program and deleted 2 of the 18 planned systems, deferring 
two more, and taking $3.4 billion out of the program over the 
fiscal year 2007 to fiscal year 2013 POM years. Were there 
problems with the program or was that a budgetary decision?
    General Schoomaker. Sir, we were cut over. Over the last 
several years we have been getting cut a little bit each year. 
So what we are trying to do is set our priorities and keep it 
within executability.
    Chairman Levin. So that was a budget issue.
    Another medical question which has arisen recently has to 
do with reports that the Third Infantry Division (I.D.) has 
changed the medical profiles of soldiers who have medical 
conditions so that they could be sent to Iraq as part of the 
Third I.D.'s accelerated deployment to support the surge. Did 
the Third Infantry Division change the medical profiles of the 
Third I.D. soldiers so that they would be deployable?
    Mr. Geren. Sir, I am aware of those allegations and 
concerns. Major General Rick Lynch, the commander, has 
conducted a commander's inquiry into those allegations. I have 
requested that commander's inquiry. I have not received it yet. 
We take any allegation of that seriously, as did the commanding 
general on sight, and the commander's inquiry is completed and 
I have requested to have it sent to me and I will review it and 
share the results with you.
    [The information referred to follows:]

    The Department of the Army Inspector General conducted a thorough 
inquiry into this matter. The issue that soldiers with medical profiles 
assigned to the 3rd Brigade, 3rd Infantry Division (3rd BCT, 3 ID) were 
reevaluated and their physical profiles improperly changed was found in 
only 1 instance of the 75 cases reviewed.
    Of the 75 soldiers assigned to the 3rd BCT who were reevaluated by 
medical personnel in February 2007 at the direction of the commander, 
only one soldier's profile was improperly changed, allowing that 
soldier to be deployed in March 2007. That soldier had a permanent P3 
profile that was improperly changed. When the soldier continued to have 
medical issues, he was reevaluated in theater and redeployed to Fort 
Benning, GA, on April 9, 2007.
    This soldier's medical profile was improperly changed from ``P3'' 
(a permanent profile indicating one or medical conditions or physical 
defects that may require significant limitations) to ``P2'' (some 
medical condition or physical defect that may require activity 
limitations) and was subsequently deployed. However, the evidence 
indicated that the soldier's ``P3'' profile was changed to ``P2'' 
because the reviewing physician mistakenly believed that the ``P3'' 
profile had not been properly approved by two profiling officers, one 
of whom was a physician approving authority, as required by AR 40-501.
    Evidence also indicated that the profiles of five other 3rd BCT 
soldiers were properly changed from ``P3'' to ``P2''. These changes 
were authorized because these profiles had not been properly approved 
by two authorized physicians as required. After being reviewed, these 
profiles were properly changed and these soldiers deployed. Five other 
soldiers had their profiles changed from ``P2'' to ``P3'' and those 
soldiers did not deploy. The profiles of the remaining 64 soldiers 
under review were not changed. Evidence indicated that 34 of the 
soldiers whose profiles were reviewed actually deployed.
    The issue that commanders and leaders improperly ordered soldiers 
to perform duties and functions in violation of their physical profiles 
was not founded. In several cases, soldiers presumed that they could 
not be deployed to Iraq because of their temporary profiles and that 
deployment, in and of itself, would violate their profiles. AR 40-501, 
Standards of Medical Fitness, states that properly processed medical 
profiles do not, in and of themselves, determine a soldier's 
deployability. Rather, a medical profile is a recommendation from a 
medical professional. The decision to deploy a soldier remains with the 
commander. For example, a soldier with a properly processed profile 
could be assigned to serve in an administrative role. In most cases, a 
soldier could perform that duty, within the limits recommended by his 
or her profile, at his or her home station, or deployed. Although a 
commander that is responsible for accomplishing a wartime mission would 
likely want to deploy with as many of his or her soldiers as possible, 
no evidence suggested that 3rd BCT commanders tried or intended to 
compromise the medical welfare of their soldiers. Rather, the evidence 
reflected that soldiers were deployed and assigned duties and functions 
within their physical limitations and consistent with their profiles. 
If the soldiers had received properly authorized P3 or P4 profiles they 
could not have been deployed until their profiles were referred and 
reviewed by a Military Occupational Specially Medical Retention Board 
or the soldiers had been processed through the Physical Disability 
Evaluation System and found to be fit.
    The issue that 3rd BCT, 3ID soldiers were intimidated and harassed 
in retaliation for informing Salon.com about their unit's deployment of 
soldiers who had physical profiles was not rounded. Evidence does not 
indicate soldiers were the subject of retribution for contacting the 
media. Nor is there evidence to indicate that the soldiers' chain of 
command pursued or threatened any acts of reprisal in retaliation for 
the soldiers' communications with the media.

    Chairman Levin. You do agree, though, that it would be 
inappropriate for an Army unit to change a soldier's medical 
profile to qualify that soldier for deployment to a combat 
zone? Would you agree with that?
    Mr. Geren. Yes, sir, if that was the motivation, yes, sir.
    Chairman Levin. If that was the case.
    Mr. Geren. Circumstances may change and the profile may 
change, but as far as if that is the motivation, absolutely, 
sir.
    Chairman Levin. For that purpose it would be improper?
    Mr. Geren. Yes, sir.
    Chairman Levin. Senator Warner.
    Mr. Geren. Mr. Chairman, could I correct the record on one 
point? I said 21 percent earlier. I was passed a note: It was 
19 percent, not 21 percent.
    Chairman Levin. Thank you for that correction.
    Mr. Geren. Yes, sir.
    Senator Warner. Chairman Levin, this has been a very good 
hearing and we are going to do our best to support the Army in 
every respect with its request. But we should close out in a 
recognition of the Army family, the support system that is 
probably the most important of all. We saw examples in the 
distressing chapter of Walter Reed where families were often 
filling the gap in many respects.
    I just want to get the assurance from both of you that this 
budget keeps in place, as best you can, those family systems 
whereby they can step in and help their uniformed member of 
that family in all types of circumstances.
    Mr. Geren. Yes, sir.
    Senator Warner. Is that correct?
    Mr. Geren. It does. The commitment of the Army is to ensure 
that we maintain the quality of life and we give the families 
what they deserve. The strain the families are under right now, 
it is humbling to consider it, and I can assure you that is our 
commitment, sir.
    General Schoomaker. I tell you, sir, we still need to get 
that military construction budget and the BRAC, because we have 
quality of life issues in there, we have child care centers in 
there, and all kinds of things that are part of that issue that 
you are talking about.
    Senator Warner. I hope that will be forthcoming. Not to 
point fingers at anyone here in Congress, those issues so far 
as I know are being addressed by our leadership to try and have 
those funds which are badly needed forthcoming. You are under 
that impression?
    Chairman Levin. Yes.
    Senator Warner. Thank you, gentlemen, very much. Your 
staff, the very impressive support team you have here today.
    Chairman Levin. Just one clarification. General, you talked 
about the definition of the surge and contrasting it with 
something which was----
    Senator Warner. Plus-up.
    Chairman Levin. Plus-up, as you call it. You indicated a 
surge--a surge, as it is characterized, there has to be a plan 
to come off of that surge. You indicated that it was your 
understanding that the plan would be somewhere between August 
and the end of the year to come off the surge. Is that an 
understanding which is shared by the Secretary of Defense?
    General Schoomaker. Sir, I cannot speak for the Secretary 
of Defense, but it is certainly that which has been discussed 
by the Chiefs.
    Chairman Levin. They understand that? Do all the Chiefs 
understand that?
    General Schoomaker. We understand that--our belief is that 
a surge is different than a plus-up. The timing is going to be 
dependent upon the commander on the ground in Iraq and the rest 
of it. But in our view, a surge is different than a plus-up.
    Chairman Levin. Is there a shared feeling that that would 
mean somewhere between August and the end of the year, as you 
feel?
    General Schoomaker. That is my personal belief. Now, what I 
have understood----
    Chairman Levin. Not necessarily?
    General Schoomaker. I have not had anybody tell me that is 
the official----
    Chairman Levin. Or that that is shared by the other Chiefs?
    General Schoomaker. Sir, I could not speak for the other 
Chiefs.
    Chairman Levin. How about the Chairman?
    General Schoomaker. Nor could I speak for him. That is 
certainly my understanding of my conversations with the 
Chairman. Whether or not he agrees with that----
    Chairman Levin. Is it your understanding that that is his 
understanding or you just do not have any understanding about 
that? Is it your understanding that that is also his 
understanding, or you just do not have----
    General Schoomaker. He heard me say that. I have not heard 
him make a decision or a conclusion or do anything definitive 
with it. I think that--and I am talking about the Chairman and 
the Secretary of Defense, in conversation with the Central 
Command Commander and General Petraeus on the ground, and I 
think this is an issue here. My understanding was that that was 
the ballpark that we were talking about.
    Chairman Levin. Have you heard anything different from the 
Chairman?
    General Schoomaker. I have heard no decision.
    Senator Warner. Mr. Chairman, in view of the seriousness of 
the question, which both of us raised, perhaps we should 
collaborate on a letter to have this clarified, because it is, 
I think, extremely important to all, not only to Congress but 
to the DOD as it is carrying forth with this plan of the surge 
now.
    Chairman Levin. I do agree with that.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    I wanted to come back, General, just for one last question 
about the end strength of the Army, because we got off on a 
discussion about the institutional Army, which was important. 
Look, my concern is that, with what we are facing around the 
world, that we are going to get to a point where our military 
strategy is going to be determined by a shortage of personnel, 
not by what is the best military strategy.
    I agree with you that the idea that the high-tech equipment 
is enough and we can use a smaller Army--with the conflict we 
are facing now, with the enemy we are facing now, if I might 
quote your straight talk, it is ludicrous.
    So I want to give you a chance, since this is your last 
appearance before us, to leave us with a goal. When I asked you 
what you thought the end strength of the Army should be, you 
said, I believe you said, a minimum or a conservative estimate 
would be 565,000.
    General Schoomaker. Active.
    Senator Lieberman. Active, exactly. What should our goal be 
beyond the minimum, beyond the conservative estimate, for what 
the Active Army should be in the years ahead?
    General Schoomaker. Sir, I think you almost have to go back 
and think of this in kind of a generic context. Strategy is the 
application of ends, ways, and means.
    Senator Lieberman. Right.
    General Schoomaker. You and I have had this conversation 
before.
    Senator Lieberman. Yes, we have.
    General Schoomaker. There are people that are very loose 
with talking about what the end state is and how we are going 
to get there, but very few people want to sign up to what it 
costs you, the means to get there. My view is we have a 
strategy right now that is outstripping the means to execute it 
and to sustain it. I think our current tempo of operations 
exceeds what the QDR said that our strategy was going to be and 
I believe that our resources up to this point have undershot 
even what the QDR said they are supposed to be.
    Senator Lieberman. Well said.
    General Schoomaker. So I think what we have to do is take a 
look at what do we believe the demand is going to be on this 
force, the joint force, into the future and, looking at that 
demand, how are we going to sustain that? Again, I go back to 
what--the QDR rule said that in normal times a soldier, sailor, 
airman, or marine on Active Duty should have three increments 
of dwell for every increment of deployed. We agreed that a 
surge was going to two increments of dwell for every increment 
deployed.
    We are now operating at one to one and going short of that. 
That is not sustainable. So what it says is the strategy is not 
resourced or the equation is not balanced in the strategy. 
Therefore, I think that what we have to do is say, what is the 
demand, and do the equation back and figure out what means are 
required.
    Now, the reality is we may come up with a number that is 
unaffordable, which means you have to change what end state you 
want to go to, or you have to come up with a different way of 
getting to the end state that you want.
    Senator Lieberman. Or you have to decide that the end state 
is important enough that you have to find a way to afford it.
    General Schoomaker. So then you get into the old, what I 
have talked in front of this committee many times about before 
as George Marshall said in the middle of World War II: Before 
the war, I had all the time in the world and no money; and now 
here I am in the middle of World War II and I have all kinds of 
resources and no time.
    So we put soldiers ashore 3 years after the Germans invaded 
Poland, without rifles. Every tank we put ashore in North 
Africa was knocked out. Patton landed with training ammunition. 
It is well-documented. This Nation has always gone to war 
short, because we get into the roller coaster. We are always 
late to need and therefore we pay a huge premium to get ready, 
and we are always late to need.
    Body armor. The United States Army when I came on board, we 
were manufacturing body armor at the rate of about 1,200 sets a 
month. It was going to take over 40 years to put body armor on 
the entire United States Army. We were manufacturing some 34 
up-armored Humvees. I mean, hell, there was less than 500 of 
them in the entire Army. We had a requirement for only 235 of 
them in Iraq. Today we have a demand of over 15,000 up-armored 
Humvees in Iraq and we have been through all kinds of 
iterations of getting there. Now we are going to MRAP.
    So what I am saying is we are acting very consistent with 
our past. I believe we ought to educate ourselves. We ought to 
look at what we are paying, what we can afford to pay, what our 
strategy requires, and we ought to resource it. We ought to 
quit trying to go on the cheap and we ought to quit worrying 
about what the traditional pie has been and who gets what, and 
we ought to talk about what this Nation's priorities and what 
our affordability is.
    I have been very consistent in the last 4 years talking 
this way. I believe we have made some progress, but I still 
think that we are undershooting the obvious. This is a very 
dangerous time. This Nation is at great risk for an enemy that 
we are not accustomed to fighting. We are adapting to that 
enemy. This is not the Cold War and the Soviet Union any more, 
and we are at risk here at home and we are going to have to 
deal with an enemy that is fighting in an irregular fashion, 
and even our other potential foes are now looking at these 
irregular techniques to incorporate into their conventional 
forces. We are going to see this in the future. It is not going 
to go away.
    Yet, in our own Department we still hear people talking 
that when this is over we are going to go back down to normal. 
There is no normal. This is the new normal. So I hate to be--I 
am sorry to be pedantic on this, but I really do believe this 
is real. I really do believe that we must take a very strong 
look at how we should balance this and we ought to talk about 
what strategy really is, the application of ends, ways, and 
means, and we ought to figure out whether our appetite is 
affordable or whether we are going to reduce our appetite to 
our checkbook or whether we are going to come up with different 
ways of doing business.
    But we have to come to grips with this.
    Senator Lieberman. That is a very wise statement built on 
experience, and it should be heard as a clarion call because 
the appetite here we are talking about is national security. If 
this is a long war, which I believe it is, which we are all 
calling it, we are not, to use your appropriate word, 
resourcing to fight that war.
    Also, the enemy we are facing is not going to be taken out 
with a lot of high tech equipment alone. This enemy will be 
defeated with personnel, with people.
    So I hope we can live up to, in the years ahead, to the 
charge and challenge that you leave us with, and every now and 
then we will expect you to come back and shout a little more to 
make sure we are.
    General Schoomaker. Thank you.
    Chairman Levin. I think you also, though, would agree that 
it is not just a matter of adequacy of resources; it is a 
matter of where those resources and how those resources are 
allocated against a very different type of an enemy. It is not 
necessarily a larger amount, by the way. It may be. So we have 
to do it. But it also may be a very different way of allocating 
resources in terms of where we put our focus for a totally 
different kind of an enemy, for a much longer kind of a 
conflict.
    Senator Bill Nelson, I am going to not only call on you as 
our last questioner, but I am also going to ask you to close 
because I must leave. Senator Nelson.
    Thank you both, gentlemen, again.
    Senator Bill Nelson [presiding]. Mr. Chairman, adjusting to 
the new normal, maybe we ought to be listening to our generals, 
such as General Shinseki with regard to the occupation, and 
retired General Garner with regard to the disbanding of the 
Iraqi army once we were in.
    It is most revealing that in your comments about the 
equipment in adjusting to this new normal--it is not normal 
that mammas and daddies would be calling me in the early part 
of the war saying that their sons and daughters did not have 
the body armor, and that when the Florida National Guard got 
there that they did not have the kind of body armor that the 
other troops had. That is not normal.
    So it must be very frustrating to you as the Chief of Staff 
to have to deal with those kind of shortages.
    General Schoomaker. Sir, I would say that it is not right, 
but it has been consistent and normal with the way we have done 
business in the past, and it is not right. We should not 
continue to do business that way and we are not. We are 
resourcing the Guard and Reserve. We are resourcing the Active 
Force and we have asked for what we need and we are moving very 
fast.
    But quite frankly, my view is we should have started this 
fight resourced the way we are trying to get resourced now.
    Senator Bill Nelson. Amen to that.
    General Schoomaker. Which I think is your point.
    Mr. Geren. The differences that you refer to regarding the 
Guard, there were clear differences. They were not organized 
the same, they were not equipped the same, and they did not 
train the same. But our commitment now is to organize, train, 
and equip. It is one Army--Active, Guard, and Reserve--and we 
are making a significant investment to make sure that the Guard 
has the same kind of equipment that the Active-Duty does, over 
2005-2013 spending nearly $37 billion on Guard equipment alone, 
both modernization in aviation and in ground equipment.
    So the goal of this budget and this Department is to make 
sure they are organized, trained, and equipped the same, they 
are all one Army, best-led, best-trained, best-equipped Army we 
can put in the field.
    Senator Bill Nelson. Four years ago, as you said, they were 
not organized, equipped, or trained the same. Yet they were 
asked to do the same mission as the Active-Duty Forces.
    General Schoomaker. That is correct.
    Senator Bill Nelson. I want to ask you about recruiting. 
Your comments?
    General Schoomaker. We had the best year in 9 years in the 
Active Force and the best year in 13 years in the National 
Guard last year. We are on track again this year to have a very 
good recruiting year and meet our goals. I think it is 
extraordinary that 6 years into a wartime period that we are 
getting some very good young men and women that are stepping 
forward to do this. I think it is heartening.
    Senator Bill Nelson. How about the Reserves?
    General Schoomaker. The Army Reserves did about--Jack?
    General Stultz. Twenty-five percent higher than the year 
prior.
    General Schoomaker. Twenty-five percent higher than the 
year prior. They are still challenged a little bit more, but 
part of their challenge is that the primary source of Army 
Reserve soldiers is soldiers leaving Active-Duty, is one of 
their biggest. Of course, we are growing the Active Force and 
it really challenges the Army Reserve in that regard.
    Senator Bill Nelson. So the Army Reserves are meeting their 
goals in recruiting?
    Mr. Geren. They are not. The Army Reserve has fallen a 
little short. Active and Guard both are exceeding their goals 
in recruiting. They are all three exceeding their goals in 
retention. The Army Reserve I believe was at 90 percent last 
month--90 percent for recruiting, so 600 short of our goal.
    Senator Bill Nelson. So with regard to the Active Forces 
and the Guard, according to the last couple of years of 
recruiting it is going to meet our goals for not only keeping 
the force structure that we have, but increasing the force 
structure?
    General Schoomaker. That is correct.
    Senator Bill Nelson. That is a good report. What do you 
have to do about the Reserves to get them up?
    General Schoomaker. I will let the Chief of the Army 
Reserves talk about what he is doing, because he is pretty 
sharp and he is working hard.
    General Stultz. Yes, sir, and I happen to come from 
Florida.
    The Army Reserve right now, sir, we are about 600 short. 
Last year we recruited 25,000 soldiers. The year before we 
recruited 19,000. So we are on an upward slope of increasing. 
This year we have increased above what the 25,000--now we are 
saying we need about 28,000 to keep growing. What we are going 
to do is we are learning from the Guard and the Guard is saying 
that their strength is getting their soldiers to go out and 
recruit within their own communities. We are community-based. 
So we are taking that lesson and we are incorporating what 
Clyde Vaughn has already started and we are going out in our 
communities.
    But the other thing we are doing is, our soldiers are 
citizen soldiers and so what I have done is I have started 
talking to the employers of America and I have talked to police 
forces, I have talked to police departments in Florida, New 
York, California, Arizona. They are having a hard time filling 
their ranks. I have said: Why do we not work together? When I 
recruit a soldier, I am looking for a 17- to 24-year-old drug-
free physically fit high-aptitude soldier. The chief of police 
in Queens, NY, I had a conversation with him 3 weeks ago, he 
said: I am looking for the same guy. I said: Then why do we not 
work together? Why do I not go into a high school and a kid 
says, I want to be in law enforcement, I will say: Join the 
Army Reserve and I can give you a job; where do you want to 
live?
    Schneider Trucking, J.B. Hunt Trucking are looking for 
truck drivers. I have truck drivers. Why do I not become an 
enabler to employment. So that I think is the key to success, 
is take our citizen soldiers and help our employers of America 
grow in terms of their strength by the quality of their 
workforce by hiring our soldiers. That is going to be the key 
to, I think, making our numbers in the future.
    We are going to make our numbers. I am not worried about 
that. The quality of the force we are getting right now is 
better than we have ever had before. When I go to Iraq and I 
promote two young E-4s to E-5, one of which has a master's in 
financial planning, one of which is a young lady that just got 
a bachelor's in molecular biology, the quality of that force is 
enormously greater than where we were in 1979 when I joined the 
Army Reserve.
    So we are going to make our numbers, but we are going to go 
to school on what the Army Guard is doing in learn from them.
    Senator Bill Nelson. General Schoomaker, we have had 
upwards of 40 percent of the total force in Iraq is Guard and 
Reserve. As you project in the future, what percent of that 
force will be Guard and Reserve?
    General Schoomaker. I think we peaked during, what was it, 
2005?
    General Lovelace. 2004.
    General Schoomaker. 2004, where we were up approaching 40 
percent. I think now we are talking about being in the 20, 25 
percent. Where are we going to?
    General Lovelace. It is going to be about 30 percent.
    General Schoomaker. Thirty percent.
    General Lovelace. We dropped down to 20 percent and then 
it, with the new mobilization policy it's pushing back up to 30 
percent.
    General Schoomaker. So we were moving to 20 percent. With 
the new mobilization policy we will be approaching 30 percent 
again. We are looking at shorter mobilization periods, which 
means that what we will be doing is turning--actually, three 
rotations become four rotations because of the new mobilization 
policy.
    Senator Bill Nelson. General, since you were here last week 
on the issue of the hospitals, I have gone to one of the TBI 
hospitals, the one in Tampa. They are doing a very good job. 
They have an old facility that needs upgrading. They are 
crowded and especially so since so much of the care is often 
with a family member that is there with them. Their facilities 
are considerably crowded compared, for example, in the same 
hospital to the spinal cord injury unit, which also is having a 
great deal of success.
    I would call that to the attention of the Secretary as 
well, even though that is a VA hospital. As a result of last 
week's hearing, we see that we have to have the coordination 
and the cooperation between the two. I think those attempts are 
happening.
    But on the very day that I was there, which was Monday, we 
had another example of where a soldier at first on Active Duty 
and then released, had gotten bounced around in the system. 
This calls for greater cooperation. So that this particular 
soldier had been sent to another VA hospital and basically they 
said, ``we cannot help you,'' but nobody was there to tell him: 
``What you need to do is get to the Tampa hospital, to the TBI 
unit,'' and make him an appointment.
    It took that soldier calling his Senator in order for that 
to happen, and then once it did he is now getting the care, but 
delayed care. So we are going to have to confront that over and 
over.
    The other thing that we are going to have to confront is 
that Active-Duty soldiers are not being told that they can get 
treatment in private facilities; if the military hospitals and/
or the coordination with the VA hospitals is not occurring, 
that they have the ability under their insurance system to get 
care in private facilities, and they are not being told that. 
Now, that is directly Active-Duty, Mr. Secretary, and I would 
implore you to try to get that communication out into the 
organization.
    Thank you. The meeting is adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                           growth of the army
    1. Senator Levin. General Schoomaker, last year the Department of 
Defense (DOD) presented to Congress a Quadrennial Defense Review (QDR) 
that asserted that the National Military Strategy could be executed at 
low-to-moderate risk by holding the Active Duty manning levels of the 
Army at pre-Iraq war levels of 482,400. It further asserted the Army 
National Guard (ARNG) should be reduced from 350,000 to 333,000. The 
Department abandoned its position on the Army Guard within days of 
releasing the QDR. Now, 1 year later, the Department is proposing to 
increase the size of the total Army: the Active-Duty Army to 547,400, 
the ARNG to 358,200, and the Army Reserve to 206,000. What has changed, 
if anything, in the National Military Strategy since the QDR was 
submitted to warrant the proposed growth in the Army?
    General Schoomaker. There has not been a change in the National 
Military Strategy nor the QDR Force Planning Construct that has driven 
the Army to request an increase in its end strength. During QDR 2006, 
the Army was tasked with building 70 brigade combat teams (BCTs) (42 
Active component (AC), 28 ARNG) to meet the strategic challenges that 
threatened the Nation, while building supporting force structure that 
would enable the Army to shift its balance away from our traditional 
focus. This 70-BCT force relied on predictable, assured access to the 
Reserve component (RC) that would generate 18-19 BCTs per Army Force 
Generation (ARFORGEN) rotation once all conversions were completed in 
fiscal year 2013. However, current global demand on the Army has 
exceeded our capacity to provide forces within the ARFORGEN construct, 
compounded by the years of insufficient modernization investments. To 
meet the global demand for the long war and to provide strategic depth 
to the Nation, the Army proposed a plan to grow end strength across all 
three components to increase operating force capabilities, with modest 
increases in the Institutional Army and Individuals Account to retain 
structure needed to effectively recruit, train, and support the growth 
in the operating force. The proposed end-strength growth will provide 
the Army with 76 BCTs (48 AC, 28 ARNG) and over 200 multi-functional 
and functional support brigades. These 76 BCTs, and the additional 
Combat Support Brigade (Maneuver Enhancement) with supporting tactical 
combat formations, will generate 22-23 BCTs at a surge rotation rate 
(1:2 in the Active and 1:4 in the ARNG) by fiscal year 2013.

    2. Senator Levin. General Schoomaker, if the strategy has not 
changed, then in your view, did the DOD incorrectly assess the forces 
necessary to implement that strategy in the QDR?
    General Schoomaker. QDR 2006 was a collaborative effort between the 
Services, the Joint Staff, and the Office of the Secretary of Defense 
(OSD) to define the strategy to meet future war requirements. QDR 2006 
also provided insights for the Joint Staff and the Services to do 
additional analysis based on the effects of Phase IV/V (Stability/
Enabling Civil Authorities) operations on the joint force, and the 
means for building partnership capacity through the combatant 
commanders' security cooperation plans. The force assessments and 
associated resourcing decisions for Army forces supported that 
strategy. The challenge is that since QDR 2006 the sustained 
requirements for the Global Force Demand now exceed that strategy. OSD 
has acknowledged that capabilities shortfall and provided support to 
the Army's proposed plan to increase capabilities to mitigate the risk 
associated with that shortfall gap.

    3. Senator Levin. General Schoomaker, on what basis is the growth 
of the Army justified?
    General Schoomaker. A key objective of the proposed growth in the 
Army is to increase capabilities and improve readiness for both current 
and future challenges. This proposed growth reflects clear recognition 
on the part of the President, the Secretary of Defense, and Congress 
that we expect persistent conflict for the long war and need to build 
strategic depth. We know from our national experience that this is a 
time consuming process dependent upon an investment in manning, 
equipping, training, and caring for our people. Likewise, this growth 
will depend upon our capacity to build and maintain the infrastructure 
needed to recruit, train, and sustain these forces. Coming out of QDR 
2006, the Army was building toward 70 BCTs (42 AC, 28 ARNG) to provide 
18-19 BCTs per annual ARFORGEN rotation. To maintain the momentum of 
transformation while meeting the operational demands of the war on 
terror, the AC was growing by 30,000 with the temporary authority by 
Congress. Since QDR 2006, the global demand has exceeded that capacity. 
The Army is now seeking permanent growth to provide strategic depth and 
meet global demands of the long war. The proposed growth in the Army 
will provide 76 BCTs (48 AC, 28 ARNG) and over 200 support brigades 
with assured and predicted access to the RCs. Under surge rotation 
rates of 1:2 in the Active and 1:4 in the ARNG, the Army will be able 
to provide 22-23 BCTs per rotation when we include the Combat Support 
Brigade (Maneuver Enhancement) with its organic combat capabilities. 
This increase in Army rotational depth and capacity also will expand 
our ability to support requirements outside of the war of terror, 
participate in multi-national exercises, and peacekeeping operations 
around the world. This proposed growth will improve the Army's ability 
to meet the increasing global force demand and reduce stress across the 
force.

    4. Senator Levin. General Schoomaker, what will be the impact on 
organizational structure, including the operational and institutional 
parts of the Army, and on the manning, training, and equipping of the 
force, including transformation to the Future Combat Systems (FCS)?
    General Schoomaker. The proposed growth increases capabilities in 
the operating force and Institutional Army across all three components 
to include additional combat brigades, the reduction of high demand/low 
density capability shortfalls, and the addition of needed combat 
support and combat service support units. Under the growth plan, by 
fiscal year 2013, the Army's end-strength will increase in the AC to 
547,400; in the ARNG to 358,200; and in the Army Reserve to 206,000. 
The total end strength increase of 74,200, along with the rebalancing 
of force capabilities within the RC, will grow the operating force by 
over 80,000 spaces and reduce the military strength in the 
Institutional Army to 80,000 vice the 75,000 spaces as previously 
programmed. As we grow the Army we must retain an adequate 
Institutional Army capability to generate and sustain the force. One of 
the Army's strengths is its investment in formal training and 
development of leaders. Additionally, the ability of the Army to 
maintain and rest our forces for future contingencies is largely 
resident in the Institutional Army. In order to recruit, train, and 
care for soldiers and their families, the capacity of the Institutional 
Army must be preserved and strengthened. Under the proposed plan, the 
Army will complete organizing, manning, and training by fiscal year 
2013; equipping of the BCTs by fiscal year 2015; and equipping of the 
multi-functional and functional support brigades by fiscal year 2019. 
The plan is synchronized with the transformation timeline for the FCS.

                     supplemental request criteria
    5. Senator Levin. Secretary Geren, many of the funding requests for 
Army equipment appear to be distributed arbitrarily between the fiscal 
year 2008 regular budget request and the 2007 and 2008 global war on 
terror supplemental requests. What criteria have you used to determine 
what equipment is appropriate to include in the 2007 and 2008 
supplemental requests as opposed to the regular fiscal year 2008 budget 
request?
    Mr. Geren. Many lines of equipment have been requested in both the 
regular (base) budget request and the supplemental requests. While 
these requests may appear to be arbitrarily spread across the 2007 and 
2008 supplemental requests and 2008 base budget, they are in fact not 
arbitrary.
    The OSD establishes the criteria for supplemental funding requests. 
In short, this guidance is that emergency supplemental requests must 
address the incremental costs above the baseline funding needed to 
support specific forces and capabilities required to execute Operation 
Iraqi Freedom, Operation Enduring Freedom, and Operation Jump Start.
    Therefore a single line of equipment may be found in both the base 
budget and the supplemental requests depending on the nature of the 
requirement. If the requirement is for normal replacement of equipment 
or a programmed fielding, then the request is in the base budget. If 
the requirement is an incremental increase resulting from the ongoing 
global war on terror, or the acceleration of a capability required for 
global war on terror, then the request will be in the supplemental even 
though the same line item may be found in the base budget.

                     force protection technologies
    6. Senator Levin. Secretary Geren, the National Defense 
Authorization Act for Fiscal Year 2007 included language strengthening 
the role of the Director of Operational Test and Evaluation (DOT&E) 
with respect to the testing of force protection technologies. This 
includes direction to the Services to ensure that the DOT&E is made 
aware of all ongoing force protection technology development and 
acquisition programs. How are you working with DOT&E on the testing of 
force protection technologies?
    Mr. Geren. The Army will work with DOT&E with a view toward 
adequate testing and analysis of systems to ensure safety-of-use and to 
demonstrate the capabilities and limitations of materiel delivered to 
warfighters. Army will comply with DOT&E's April 9, 2007 request for 
support on force protection equipment and non-lethal weapons to ensure 
the soldiers, sailors, airmen, and marines get the very best test and 
evaluation on the force protection systems the Department provides.

    7. Senator Levin. Secretary Geren, what processes have been 
established to comply with the congressional directive on notifying 
DOT&E of Army force protection programs?
    Mr. Geren. On April 9, 2007, the Director of DOT&E issued a 
directive to the secretaries of the military departments requiring each 
to identify and submit a list of all force protection and non-lethal 
weapons programs as part of the established process for preparing the 
annual OSD Test and Evaluation Oversight List. In response to this 
directive, the Army has directed all program executive offices to 
provide a consolidated list of their programs that meet the criteria 
for force protection and nonlethal weapons identified within the 
directive for submittal to DOT&E.

               collaboration with israeli defense forces
    8. Senator Levin. General Schoomaker, I understand that the Israeli 
Defense Forces (IDF) are currently developing and evaluating a vehicle-
based active protection system to defend against rocket-propelled 
grenades and other threats. I also understand that the Army is 
attempting to develop similar systems. Are there any formal data 
exchange agreements or cooperative activities between the Army and IDF 
to better understand each other's technologies, capabilities, testing, 
collateral damage, or integration issues or the planned use of the 
active protection systems?
    General Schoomaker. The Army does not have any formal data exchange 
agreements with the IDF that cover active protection systems. With 
respect to cooperative activities, the Army participates in a 
Technology Round Table with the Israel Ministry of Defense and conducts 
staff talks with the IDF. Within these fora the Israelis have kept the 
Army current on the development of their active protection systems.

           deploying soldiers with medical conditions to iraq
    9. Senator Levin. Secretary Geren, the committee has received 
reports that state that the 3rd Infantry Division changed medical 
profiles of soldiers with medical conditions so that they could be sent 
to Iraq as part of the 3rd Infantry Division's accelerated deployment 
to support the surge. Both you and General Schoomaker testified that it 
would be improper to change a medical profile for the sole purpose of 
making a soldier deployable. You also indicated that a commander's 
inquiry was being conducted. Who is conducting the investigation for 
the Army?
    Mr. Geren. On March 13, 2007, the U.S. Army Forces Command 
(FORSCOM) Inspector General (IG) received an Inspector General Action 
Request from the Department of the Army IG (DAIG). The FORSCOM IG 
opened a case on March 13, 2007, and initiated an inquiry. DAIG will 
retain oversight of the inquiry.

    10. Senator Levin. Secretary Geren, will the investigation include 
interviews of the soldiers identified to the Army as having their 
profiles changed?
    Mr. Geren. Yes. DAIG conducted witness interviews of the soldiers 
identified as having their profiles changed. DAIG provided to FORSCOM 
IG audio files of six witness interviews conducted at Fort Benning, GA, 
on March 15-16, 2007. FORSCOM IG summarized the sworn testimony and 
DAIG provided verbatim transcripts of the sworn statements. The 
summarizations and transcripts will serve as exhibits of evidence in 
the Report of Investigative Inquiry (ROII).

    11. Senator Levin. Secretary Geren, has your investigation 
determined whether the 3rd Infantry Division downgraded medical 
profiles of 3rd Infantry Division soldiers so they could be deployed to 
Iraq?
    Mr. Geren. The ROII is ongoing and FORSCOM IG will submit the 
completed ROII to DAIG upon completion; at which time we can better 
answer this question.

    12. Senator Levin. Secretary Geren, do you know whether other Army 
units are changing soldiers' medical profiles to qualify more soldiers 
for deployment to a combat zone?
    Mr. Geren. There have not been any identified complaints at this 
level of other Army units changing soldiers' profiles to qualify more 
soldiers for deployment to a combat zone.

    13. Senator Levin. Secretary Geren, please provide a copy of the 
report of investigation to the Senate Armed Services Committee for the 
record.
    Mr. Geren. DAIG will submit a completed report to the Senate Armed 
Services Committee once it has been finalized.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                                comanche
    14. Senator Reed. Secretary Geren and General Schoomaker, when the 
Comanche program was terminated in 2003, the Army and Congress agreed 
to reinvest the entire program funding into Army aviation 
modernization. How is the revised aviation strategy being executed?
    Mr. Geren and General Schoomaker. The Army terminated the Comanche 
program in order to make funding available for restructuring Army 
aviation to reflect current and anticipated needs; increase aircraft 
survivability, sustainability, and operability; divest programs that no 
longer meet the needs of the changing operational environment; and 
extend aviation capabilities. The Comanche program reinvestment 
strategy modernizes Army aviation by accelerating development and 
procurement of Aircraft Survivability Equipment, Apache engines Block 
III conversions, Armed Reconnaissance Helicopters, Light Utility 
Helicopters, UH-60 Black Hawks, CH-47 Chinooks, and Future Cargo 
Aircraft (now called Joint Cargo Aircraft (JCA)). Reallocating Comanche 
funding also included investment in the common cockpit, fly-by-wire, 
aviation munitions, and investment in Army Unmanned Aerial Vehicle 
(UAV) requirements. Funding for Army aviation programs is being 
executed in accordance with the Army Modernization Plan. All funds 
resulting from the termination of Comanche remain within Army aviation 
to fix deficiencies.

    15. Senator Reed. Secretary Geren and General Schoomaker, how much 
money was transferred and for what purposes?
    Mr. Geren and General Schoomaker. A total of $14.7 billion became 
available from the Comanche termination which was reinvested in order 
to train, sustain, and equip Army aviation.

                    unmanned aerial vehicle programs
    16. Senator Reed. Secretary Geren and General Schoomaker, the Army 
Warrior UAV system is currently being developed and procured to provide 
direct support at the division level and below. Other systems are also 
being deployed today to serve in direct support for Army tactical 
operations. What is the status of the Warrior program?
    Mr. Geren and General Schoomaker. The Army Joint Requirements 
Oversight Council (JROC)-approved Extended Range/Multi-Purpose (ER/MP) 
Warrior Unmanned Aircraft System (UAS) program continues its success in 
system development and demonstration (SDD) of the acquisition system. 
The critical design review was completed in October 2006 and the design 
readiness review followed with completion on December 21, 2006. The 
milestone decision authority gave approval to proceed with the 
production of SDD hardware, with air vehicle deliveries to begin in 
October 2007. The hardware includes the One System Ground Control 
Station that is interoperable with other Army unmanned aircraft and 
common with the Navy/Marine Corps Shadow systems. The Product Manager 
continues activities in preparation for the limited user test scheduled 
to occur May-June 2008, prior to milestone C decision and low rate 
initial production contract award.

    17. Senator Reed. Secretary Geren and General Schoomaker, the Air 
Force has continued with its procurement of the Predator UAV system, 
also being used in Iraq and Afghanistan. How are the acquisition 
strategies and battlefield use of the two platforms coordinated between 
the Army and Air Force?
    Mr. Geren and General Schoomaker. Acquisition Strategies: The 
Predator UAV is a legacy advanced concept technology demonstration 
system, while the Army JROC-approved ER/MP Warrior UAS is an 
acquisition program. On November 8, 2006, Office of the Under Secretary 
of Defense for Acquisition, Technology, and Logistics requested the 
Army and Air Force collaborate on the Warrior and Predator programs to 
improve acquisition efficiency and provide better capability to our 
warfighters. A memorandum of agreement was drafted and the concept was 
endorsed by both Services. On January 23, 2007, the Chief of Staff, Air 
Force (CSAF) procured two Army Warrior air vehicles to determine the 
applicability for meeting future Air Force requirements. On March 5, 
2007, the CSAF requested to be executive agent within DOD for Medium-
High Altitude UAS. Due to the Air Force's executive agency activities, 
collaboration efforts ceased and have not resumed.
    Battlefield Coordination: The Air Force uses a method of strategic 
satellite ``reach back'' for operational control and UAS mission 
execution. These UAS missions are flown via satellite from Nellis Air 
Force Base. The Army operates its UAS within a division's battle space 
in direct support to commanders on the ground. Army UAS missions are 
planned, coordinated, and executed from start to finish from the same 
location as the supported ground commander. Air Force flies pre-planned 
mission sets with limited ability to respond to re-tasking while the 
Army conducts dynamic and responsive missions with on demand re-tasking 
capability as required to support the ground fight. Both Army and Air 
Force UAS missions are coordinated through the air coordination order 
and air tasking order and are under positive air traffic control.

    18. Senator Reed. Secretary Geren and General Schoomaker, should we 
have a single Service, such as the Army, serving as executive agent for 
both platforms?
    Mr. Geren and General Schoomaker. The Army does not support a 
single Service executive agent for medium and high-altitude UAVs. The 
Army recommends the OSD uphold the 2005 decision to use the Joint UAS 
Materiel Review Board (JUAS MRB) and the Joint UAS Center of Excellence 
(JUAS COE) in lieu of a single Service executive agent. The JUAS MRB 
and the JUAS COE can and will work and achieve the Air Force's 
executive agency goals. With full support, these organizations will 
enable full joint Service buy-in and resolution of issues. 
Additionally, to continue the research and development of UAS and meet 
the DOD's UAS requirements, we must create an environment of 
competition within industry. Competition promotes innovation, 
challenges industry to achieve a higher level of technological 
achievement, and spurs investment. The Army, Navy, Marine Corps, and 
Special Operations Forces have all benefited from competitively 
selected solutions and are already sharing UAS training, logistics, and 
systems development in three formal programs. The DOD should continue 
on its present course of developing inclusive, synergistic 
complementary capabilities to fuse the contributions of each Service.

                         science and technology
    19. Senator Reed. General Schoomaker, you showed a number of 
technologies here today that are the result of investments in science 
and technology (S&T). But your fiscal year 2008 budget request reduced 
S&T investment by over $1 billion with respect to fiscal year 2007 
appropriations and is even below the fiscal year 2007 original budget 
request. Do you think we are risking not developing the next generation 
of technologies like the ones you showed us with this low request?
    General Schoomaker. Despite the demands of the ongoing global war 
on terrorism, the Army has been able to maintain its S&T investment at 
over $1.7 billion for each of the past two budget requests. We believe 
this level of investment is sufficient to support our acquisition 
priorities consistent with our broad resource demands.

    20. Senator Reed. General Schoomaker, what areas of S&T investment 
do you think this committee should consider adding funds to as we look 
at your budget request?
    General Schoomaker. The area of force protection technologies 
continues to be our top priority investment and has shown promise in 
providing innovative solutions for platform and soldier protection.

                      bradley reactive armor tiles
    21. Senator Reed. General Schoomaker, what is your assessment of 
the effectiveness of Bradley Reactive Armor Tiles (BRAT) in dealing 
with current and future battlefield threats?
    General Schoomaker. The BRAT A2 tile defeats the current threat and 
is adequate against the projected near-term threat. A reactive tile 
technology improvement that is being tested now is expected to improve 
BRAT capability against the anticipated evolution of that threat. 
Active protective systems under development, combined with BRAT, also 
counter the projected anti-tank guided missile threat in the near- and 
mid-term.

    22. Senator Reed. General Schoomaker, is the current budget request 
sufficient to continue the development and fielding of this equipment?
    General Schoomaker. Overall, yes. To date, BRAT fielding has been 
funded with supplemental dollars and congressional additions to the 
Bradley budget modernization line; there were no dollars for BRAT in 
the base budget. We have sufficient BRAT procured to buy-out production 
for the next year, but we anticipate a delay in reaching the Army 
Acquisition Objective (AAO) due to redirecting funds for ``belly'' 
armor in Iraq. The Army will mitigate this shortfall by modifying the 
base budget request (expected in the President's budget requests for 
2009-2013) to ensure the AAO for BRAT is achieved. In regard to funding 
current BRAT technology development, efforts are on track and should 
result in some common reactive materiel solutions.

                   alternative landmine technologies
    23. Senator Reed. General Schoomaker, the Army has invested 
resources in the development of advanced mine warfare systems--
including Spider and the Intelligent Munitions Systems. Army 
requirements currently dictate that a deployed system have the ability 
to be operated in a ``target activation'' mode. Many experts and public 
citizens are advocating the banning of weapons systems that utilize 
this ``target activation'' mode and would require the Army to only use 
systems in a ``man-in-the-loop'' mode. What is the basis for the Army 
requirement for a ``target activation'' mode in the systems?
    General Schoomaker. The basis for the Army requirement for a 
``target activation'' mode in the Spider System resides in the Joint 
Requirement Oversight Council-approved Spider Capabilities Procurement 
Document, dated March 10, 2006. The basis for the Army requirement for 
a ``target activation'' mode in the Intelligent Munitions System (IMS) 
resides in the Future Combat System (FCS) Operational Requirements 
Document, dated December 16, 2005, Army Requirements Oversight Council 
Validated Change 2.
    The Spider/IMS military tactics, techniques, procedures, and self-
destruct/self-deactivation features will ensure that the target 
activation capability is not abused or does not result in 
indiscriminate effects. A field of Spider/IMS munitions is always under 
the control and observation of U.S. forces. If autonomous operation is 
permitted by the mission rules of engagement (and if autonomous 
operation was enabled during set-up of the munitions field), the 
operator decides whether the presence of hostile forces require 
autonomous operation. The operator can revert back to man-in-the-loop 
control of the field at any time. When operating autonomously, Spider/
IMS munitions will initiate a self-destruct/self-deactivation timer to 
prevent creating a residual hazard to civilians.

    24. Senator Reed. General Schoomaker, what technologies (sensors, 
data fusion, communications, munitions, others) would need to be 
developed in order to have systems operated in the ``person-in-the-
loop'' mode provide the same capability as those operated in the 
``target activation'' mode?
    General Schoomaker. Generally speaking, adding a ``person-in-the-
loop'' increases system complexity, cost, and response time between the 
sensor and the decisionmaker. Automated sensor systems are pursued to 
specifically reduce these cost drivers. Even with a ``person-in-the-
loop'' the greatest unknown in response activations to a threat is how 
to validate intent of subject(s) of interest. With a ``person-in-the-
loop,'' the most critical technologies to maintain relevant response 
times are those that enable networks, communications, and decision 
tools.

         joint improvised explosive device defeat organization
    25. Senator Reed. Secretary Geren, how are Army research, 
development, test, and evaluation (RDT&E) efforts coordinated with the 
Joint Improvised Explosive Device Office (JIEDDO)?
    Mr. Geren. In April 2006 the Army created the Army Asymmetric 
Warfare Office (AAWO) within the Army's Operations Directorate. One of 
the primary missions of the AAWO is to be the Army's link to the 
JIEDDO. The AAWO IED defeat division executes this mission by 
coordinating all Service IED defeat actions to validate, prioritize, 
integrate, and synchronize potential IED defeat initiatives. An 
important component of this effort is ensuring Army RDT&E efforts are 
coordinated, synchronized, and supportive of JIEDDO efforts. The AAWO 
consolidates Army input from the Army Research, Development, and 
Engineering Command, the Army Test and Evaluation Command, and the 
Office of the Assistant Secretary of the Army for Acquisition, 
Logistics, and Technology to represent the Army position on multiple 
JIEDDO research working groups, and as a voting member on JIEDDO review 
and funding boards. Each of the Army RDT&E entities also provides 
direct support to JIEDDO for their respective areas such as assessments 
and recommendations on technology, testing, and evaluations, and 
technology development.

                           rand arroyo center
    26. Senator Reed. Secretary Geren, how much of the work of the RAND 
Arroyo Center in fiscal year 2006 was in direct support of Army 
activities related to the global war on terror?
    Mr. Geren. Out of 55 total RAND studies conducted during fiscal 
year 2006, only 2 were specifically devoted to the global war on 
terror: they are the Continuing Military Operations in Afghanistan and 
Iraq, Comprehensive Data Collection and Defining the Behaviors of 
Adaptive Enemies--Theory to Tools.

                         army laboratory issues
    27. Senator Reed. Secretary Geren, in August 2006, six of the 
directors of Army laboratories wrote a letter to the OSD expressing a 
number of concerns regarding the state of the in-house laboratory 
system. Please review this letter and indicate whether you share these 
concerns and endorse some or all of the directors' proposed remedies.
    Mr. Geren. The Army recognizes the importance of having a highly 
competent workforce performing research and development. The Army 
recognizes the concerns of the laboratory directors regarding changes 
from the current S&T reinvention laboratory authorities as they 
transition to the National Security Personnel System. The Army is 
reviewing the laboratory directors' recommendations to assess their 
potential efficacy and feasibility.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                mine resistant ambush protected vehicles
    28. Senator Akaka. Secretary Geren and General Schoomaker, is the 
amount of the Army's funding request for Mine Resistant Ambush 
Protected Vehicles (MRAPs) limited by budget concerns, or by production 
capacity?
    Mr. Geren and General Schoomaker. The Army requires full funding, 
or $2.8 billion, in April 2007 to begin fielding by October 2007. If 
the funding is received, we can field the initial 2,500 vehicles by May 
2008. The exact number of MRAP vehicles to be procured hinges on the 
testing and performance of the initial MRAP vehicles. The next 
increment of funding is needed by October 2007 to buy beyond our 
initial request. Production capacity is dependant upon several factors, 
but we believe it supports our procurement plans to ramp up to 440 
vehicles per month.

    29. Senator Akaka. Secretary Geren and General Schoomaker, what is 
the total requirement for MRAPs?
    Mr. Geren and General Schoomaker. The Army will initially buy up to 
2,500 MRAP vehicles while maintaining the flexibility to buy up to 
17,770 vehicles. Incremental procurement will be based on theater 
commanders' performance assessment of the initial vehicles.

    30. Senator Akaka. Secretary Geren and General Schoomaker, how many 
MRAPs are funded in the current request?
    Mr. Geren and General Schoomaker. The fiscal year 2007 main 
supplemental request and fiscal year 2007 supplemental amendment 
provide for an expected 706 vehicles. We will have firm quantities once 
the Army down-selects to the chosen vehicles to be procured. If our 
fiscal year 2007 funding requirement--to include the $1.999 billion 
unfunded requirement--is resourced, we can procure about 2,500 MRAP 
vehicles. The Army will continue to work with the OSD to request and 
obtain this required funding.

             shortage of resources in modernizing equipment
    31. Senator Akaka. Secretary Geren and General Schoomaker, the 
posture statement states the challenges the Army must overcome to 
modernize its equipment. Specifically, 80 percent of its budget is 
committed to sustaining people, maintaining vital infrastructure, and 
preparing equipment for combat deployment. This limits the Army's 
ability to fund investment accounts. Given the significant commonality 
between the equipment needs of the Army, and that of the Marine Corps, 
what have you done to leverage your resources with the Navy to fund 
investment accounts for modernization of equipment, such as the FCS 
development?
    Mr. Geren and General Schoomaker. The Army and Marine Corps have 
been engaged in leveraging service resources to fund investment 
accounts for modernization of equipment, such as the FCS development. 
The Army and Marine Corps established the Army and Marine Corps Board 
(AMCB) in October 2003. Co-chaired by the Army G-8 and the Marine Corps 
Deputy Commandant for Programs and Resources, charter membership 
includes the service leadership responsible for requirements, concepts, 
and acquisition. There are also non-charter member-participants from 
other Services, staff agencies, the United Kingdom (or ``UK'', a 
coalition participant since January 2004), and Australia (requested 
selected participation in June 2006).
    AMCB's mission is to identify, develop, review, and resolve issues 
with Army and Marine Corps concepts, capabilities, and service-approved 
requirements and programs to pursue potential joint warfighting 
interoperability and material solutions that provide a single ``DOTML-
PF''--Doctrine, Organization, Training, Materiel, Leadership and 
Education, Personnel and Facilities--solution in order to save service 
costs in RDT&E and gain economies of scale through large order 
quantities. AMCB reviews address Army and Marine Corps-focused issues 
emerging from: the previous programming cycle; OSD reviews; and new 
internal and external initiatives or issues supporting current 
operations. Since its inception, the AMCB membership has addressed such 
issues as the Joint High Speed Vessel, Rapid Fielding Initiative, Army 
Operational Needs Statements, Marine Corps Universal Needs Statement, 
Army and Marine Corps Blue Force Tracking/Command and Control 
Convergence, UAVs (an expanded AMCB venue to include commanders in 
chief, allies, all Services, and the Coast Guard), Coalition Combat 
Identification, Aircraft Commonality, Tactical Wheeled Vehicle 
Strategy, and the MRAPs. Future issues scheduled for AMCB review are: 
Soldier as a System, Biometrics, and High Capacity Communications 
Capability.

 moral waivers, personnel shortages, and policy toward gay and lesbian 
                             servicemembers
    32. Senator Akaka. Secretary Geren and General Schoomaker, in your 
posture statement, you state that attracting and retaining high quality 
people is one of the Army's core objectives. There have been numerous 
media reports about how the Army has increased the number of waivers it 
has given to new recruits who have criminal records. At the same time, 
we continue to discharge quality soldiers who happen to be gay 
(although the numbers of people discharged for being gay has dropped by 
50 percent since September 11). Many of the discharged soldiers have 
had critical skills, such as Arabic speakers and other linguists, 
intelligence experts, and medical personnel. The Washington Post 
recently reported that in 2005 alone, 49 medical workers were 
discharged. Given the significant recruiting challenges the Army faces 
as it continues to grow, and given that Army regulations already 
address the appropriate conduct of troops both on and off duty, do you 
think it would be appropriate to consider the discontinuation of the 
``Don't Ask, Don't Tell'' policy for the military?
    Mr. Geren and General Schoomaker. Although there has been an 
increase in the number of moral waivers granted over the past 4 years 
(fiscal years 2003-2006), the increase is reflective and consistent 
with the increase in civil convictions nationwide. A majority of 
enlistees who were granted moral waivers committed the offenses in 
question while a juvenile and have had no subsequent legal problems. 
The Army does not anticipate negative trends resulting from their 
enlistment or adverse impacts on the overall quality or capability of 
the force at this time.
    The Army's policy on homosexuals implements DOD policy. DOD policy 
implements Federal law. Specifically, the DOD policy and Army policy 
flow from section 654 of title 10, U.S.C. Section 654 pertains to all 
branches of the Armed Forces and makes several findings with regard to 
homosexuals serving in the Armed Forces. As a result, any discussion of 
homosexuals in the Armed Forces must start with the congressional 
findings and involve all branches of the Armed Forces. Under this 
provision, the Army does not and will not ask a servicemember about his 
or her sexual orientation, nor is a servicemember required to tell 
anyone in uniform their sexual orientation. Further, the Army is bound, 
both ethically and by law, to prohibit harassment and takes appropriate 
punitive actions against those found guilty of harassment of any kind.

    33. Senator Akaka. Secretary Geren and General Schoomaker, can you 
explain why the military could not simply rely on regulations covering 
military conduct?
    Mr. Geren and General Schoomaker. The Army's policy on homosexuals 
implements DOD policy. DOD policy implements Federal law. Specifically, 
the DOD policy and Army policy flow from section 654 of title 10, 
U.S.C. Section 654 pertains to all branches of the Armed Forces and 
makes several findings with regard to homosexuals serving in the Armed 
Forces. As a result, any discussion of homosexuals in the Armed Forces 
must start with the congressional findings and involve all branches of 
the Armed Forces. Under this provision, the Army does not and will not 
ask a servicemember about his or her sexual orientation, nor is a 
servicemember required to tell anyone in uniform their sexual 
orientation. Further, the Army is bound, both ethically and by law, to 
prohibit harassment and takes appropriate punitive actions against 
those found guilty of harassment of any kind.

                         acquisition activities
    34. Senator Akaka. Secretary Geren and General Schoomaker, the Army 
posture statement states that one of the strategies to meet the core 
objectives is to accelerate the Army's efforts to transform and 
modernize. The need to ``develop FCS, new aviation systems, and over 
300 advanced technologies and systems'' is specifically cited. With the 
Army's budget being significantly increased to meet its increased 
demands, resets, and modernization, I am concerned about the Army's 
ability to manage the additional acquisition dollars. Numerous problems 
with DOD's acquisition activities have come to light recently, 
including improper use of sole-sourcing contracts and outsourcing of 
contract processing to other agencies It seems possible that the DOD 
acquisition workforce is understaffed. What steps are you taking to 
make sure that these problems are addressed, and that the Army's 
acquisition dollars are spent wisely?
    Mr. Geren and General Schoomaker. Growing the Army accelerates the 
pace of systems production while increasing the numbers of systems 
produced. Such activity requires collateral growth in the 
infrastructure that supports the acquisition of systems ranging from 
individual equipment to complex weapons systems that equip soldiers and 
units. Effective acquisition management of these systems is the 
responsibility of the program executive officers (PEOs).
    Current acquisition policy and procedures permit the flexibility 
for the PEO to develop and document the acquisition strategy that is in 
the best interest of the Army. We require the PEO or designee to 
carefully review and certify the use of any non-DOD contract vehicle 
over $100,000 and to fully justify the use of sole source procurements 
with approvals by the appropriate procurement officials.
    There has been an increase in procurement funds between 2006 and 
2007, most notably attributable to the $8.5 billion for reset 
requirements resulting from the global war on terror. To manage these 
additional resources, specific accountability measures were emplaced 
throughout the Army Secretariat and Army Staff to track the execution 
of the resources against requirements and outcomes with the results 
reported to us as the Secretary of the Army and Chief of Staff, Army. 
The PEOs provide monthly updates on the obligation of the dollars and 
commensurate weapon systems and equipment produced, which are 
integrated into the Army's reporting process.
    Accordingly, the Army acquisition workforce and Army acquisition 
corps are experiencing unprecedented workload in support of the global 
war on terror, which impact all Army acquisition organizations and a 
majority of the acquisition career fields. We recognized that our 
staffing levels may be inadequate to provide the requisite execution, 
oversight, and fiduciary responsibility for recent increases in 
funding. In order to relieve some of the stress on our PEOs and their 
respective project and product managers, the Army Acquisition Executive 
delegated authority to hire up to 110 percent of the respective PEO's 
authorized manpower to ensure they have the necessary staff to meet the 
warfighter's demands. We will also be conducting a functional 
organizational analysis of several acquisition organizations to ensure 
the organizations have the right structure to achieve mission success.
    The Army remains confident that appropriate oversight and execution 
of our programs supporting modernization and transformation are 
occurring at all levels.

                    army national guard and reserves
    35. Senator Akaka. Secretary Geren and General Schoomaker, during 
the early 1970s, the Army was reorganized so that the Regular Army 
could not conduct an extended campaign without mobilizing the Guard and 
Reserves. It is not clear, however, that the Defense Department 
leadership at that time anticipated the kind of protracted conflict we 
are facing today with the global war on terror, with an Army that is 
comprised of 55 percent National Guard and Reserves. With the current 
Army organization, is the Army too reliant on the National Guard to 
meet its global commitments? In other words, are we fighting a 
sustained war with a peacetime organization?
    Mr. Geren and General Schoomaker. The Army Generation (ARFORGEN) 
model, which is designed to supply a steady flow of ready forces, 
integrates the complementary Active and Reserve component capabilities. 
With ARFORGEN and sufficient resources, the Army will continue to field 
the best led, equipped, manned, and trained cohesive units. Once 
ARFORGEN is in place and generating a steady flow of ready forces, our 
models indicate that to maintain a 1 year at home to 2 years deployed 
ratio, and a 1 year deployed and 5 years home for the Reserve and 
National Guard, the Army could sustain a long-duration deployment of 
170,000 soldiers in any given time period.

    36. Senator Akaka. Secretary Geren and General Schoomaker, since 
our Army force structure consists of 55 percent National Guard and 
Reserves to 45 percent Active Duty, have we reduced our capability to 
deal with threats and natural disasters at home by relying on the 
National Guard to provide extended support to our national interests 
abroad?
    Mr. Geren and General Schoomaker. Army National Guard (ARNG) and 
Army Reserve contributions to the wars in Afghanistan and Iraq have 
affected the readiness of units at home. Still, important efforts are 
underway to increase and to improve response and support to incidents 
in the Homeland. We are investing approximately $36 billion in ARNG 
equipment from fiscal year 2005 to fiscal year 2013. The majority of 
this equipment will have utility for both domestic and warfighting 
missions. In the short-term, the States have negotiated Emergency 
Management Assistance Compacts to provide capabilities to each other if 
requested. Although the Army is taking risk with equipment procurement, 
all components working in concert will support the ARNG in its mission 
of aiding and assisting the States in responding to domestic 
emergencies and homeland defense missions. The Army is taking 
significant steps to address ARNG equipment requirements, and the 
fiscal year 2008 budget fully funded the ARNG's requirements.

    37. Senator Akaka. General Schoomaker, according to press reports, 
the head of the National Guard Bureau, General Blum, testified before 
the Commission on the National Guard and Reserves on January 31 that 
the Guard needs a total of $40 billion to get their equipment up to 
``an acceptable level of readiness.'' How would you assess General 
Blum's $40 billion unfunded requirement list, if you are familiar with 
it?
    General Schoomaker. The $40 billion figure mentioned by General 
Blum includes all shortfalls across the Army and Air Guard, to include 
operation and maintenance, personnel, and equipping costs. According to 
General Blum, the Army shortfall is $24 billion and is fairly 
consistent with our documented shortfall. At the time he released the 
information, the Army had programmed $21.1 billion against that 
shortfall. With the release of the fiscal year 2008 budget, the funding 
programmed from 2008-2013 is $36.7 billion, which addresses their 
shortfalls and continues to address modernization.

    38. Senator Akaka. General Schoomaker, how much of that is funded 
in the current Army Future Years Defense Program (FYDP)?
    General Schoomaker. The $40 billion figure mentioned by General 
Blum includes all shortfalls across the Army and Air Guard, to include 
operation and maintenance, personnel, and equipping costs. According to 
General Blum, the Army shortfall is $24 billion and is fairly 
consistent with our documented shortfall. At the time he released the 
information, the Army had programmed $21.1 billion against that 
shortfall. With the release of the fiscal year 2008 budget, the funding 
programmed from 2008-2013 is $36.7 billion, which addresses their 
shortfalls and continues to address modernization.

    39. Senator Akaka. General Schoomaker, in your view, if there are 
not sufficient funds to address every equipping shortfall in the 
National Guard structure, should the priority be on equipment that is 
useful for the homeland defense and disaster response mission, or on 
equipment that is useful only for combat missions?
    General Schoomaker. We are committed to resourcing the ARNG 
consistent with its roles as both an operational military force and as 
the first responder for homeland defense and civil support at the State 
level. Indeed, our ultimate goal is to equip the ARNG to full Active 
component-like structure. This would be accomplished both through the 
procurement of new equipment from the industrial base and by providing 
current on-hand equipment from the active inventory. We have made 
significant progress towards this goal since 2005, particularly in the 
areas of aviation, armor, and transportation. But we still have a long 
way to go, and we will need Congress's continued support in the future 
if we hope to remain on track.
    In terms of the total acquisition cost of equipment for the ARNG, I 
would like to say two things: First, that as a result of our most 
recent Army equipping and reuse conference in the first quarter of 
fiscal year 2007, we have identified approximately $10.6 billion of 
equipment for distribution to the ARNG between 2007 and the first 
quarter of fiscal year 2009. The intent is to help ensure that every 
ARNG unit deploying to Iraq or Afghanistan has the best equipment 
available, and that those remaining at home will be adequately equipped 
to respond to homeland defense and security missions as necessary.
    The second thing I can say is that the Army has programmed $36.8 
billion for new equipment procurement for the ARNG from fiscal year 
2005 to fiscal year 2013. While we acknowledge that this will still 
leave equipping holes to fill across the Army beyond 2013, we think 
this approach strikes the best balance between the competing needs of 
the Army as a whole and the total funding available. It also brings the 
ARNG to an equipping level that allows it to better manage risk in 
terms of cross-leveling equipment to deploying units while still 
maintaining the capability to mobilize, train, and respond to homeland 
defense and security missions.

                           islamic radicalism
    40. Senator Akaka. Secretary Geren and General Schoomaker, I find 
it interesting that one of the reasons cited in the posture statement 
for the complexity of the threat is the ``growing disparities among 
`haves' and `have-nots' in the international order, compounded by 
feelings of hopelessness and despair, which are creating fertile ground 
to sow the seeds of hatred and radicalism.'' Is it not possible that 
the U.S. actions, such as the invasion of Iraq, could be perceived by 
some in the Middle East as U.S. expansion into the Middle East?
    Mr. Geren and General Schoomaker. This question would be better 
addressed by the combatant commander.

    41. Senator Akaka. Secretary Geren and General Schoomaker, would 
not this also potentially sow the seeds of hatred and radicalism from 
those who resent our presence in their land? If so, would you suggest 
we take steps to mitigate both of these underlying causes of 
radicalism, and if so, how?
    Mr. Geren and General Schoomaker. This question would be better 
addressed by the combatant commander.

          army troop levels and overall size of ground forces
    42. Senator Akaka. Secretary Geren, the Army is proposing to add 
7,000 soldiers per year through 2011, and 1,000 more in 2012, for a 
total increase of 65,000. Yet the DOD FYDP for fiscal years 2008 to 
2013 shows the Army's budget peaking in 2009, flattening out at that 
level in 2010, in real terms, and then declining--again in real terms 
correcting for inflation--for 3 straight years in 2011, 2012, and 2013. 
How does the Army plan to grow the force while shrinking your budget?
    Mr. Geren. Funding peaks identified in 2008, 2009, and 2010 are for 
the equipment and military construction needs of the new growth. In 
fiscal years 2011 and 2012, funds remain in the Army program for 
military construction projects and procurement of equipment, but at a 
vastly lower figure. The front-loading of funds to military 
construction projects and procurement items ensures that sufficient 
facilities and equipment are available as the increase in soldiers 
occurs through the years. The first fiscal year where there are no 
funds programmed for military construction projects or equipment is 
2013, when operations and support and family housing operations 
comprise 100 percent of the projected costs.

    43. Senator Akaka. Secretary Geren and General Schoomaker, what are 
you planning to cut back on to pay for these additional people?
    Mr. Geren and General Schoomaker. There appears to be no need to 
reduce any other programs or capabilities to pay for additional end 
strength. Though we are assessing the need in relation to current pay 
rates and personnel grades, we believe adequate resources have been 
programmed to support the necessary equipment and facilities in the 
near-term and to sustain the personnel and training costs in the 
future.
    The augmentation of ground forces was a DOD-supported decision. 
This decision was accompanied by sufficient funds to support the 
procurement, military construction, personnel, and operation and 
maintenance funding necessary to support such an end strength increase. 
The Department did not request the Services reduce or eliminate current 
mission capabilities to support this increase. With the support of DOD, 
there are no plans to cut back existing programs to pay for this troop 
strength increase.

    44. Senator Akaka. General Schoomaker, do you support the proposed 
increases in Army end strength regardless of how they are paid for, or 
only if the entire cost of these additional personnel are added to the 
Army topline to reflect an increase in your Service's budget?
    General Schoomaker. The size and resourcing of the Army is not a 
question of cost, but rather national priorities. Given the Army's 
current funding levels, our Army cannot afford to internally resource 
such end strength increases without breaking our ability to field a 
properly trained, manned, and equipped force to meet the Nation's 
needs.

    45. Senator Akaka. General Schoomaker, are you willing to cut 
modernization or other programs in your budget to make room for the 
significant increase in personnel and operating costs that these 
additional personnel would entail?
    General Schoomaker. Though we are assessing current pay rates and 
personnel grades, the Army allocation appears to take the additional 
personnel into account so no reductions are necessary. It is critical 
that the Army not mortgage its future by reducing modernization 
programs to pay for current bills. Our current program strikes a 
balance between resourcing the current force while preparing for the 
future. Maintaining a ready Army now and in the future is a matter of 
national will and commitment, not an affordability issue.

                   training space and infrastructure
    46. Senator Akaka. Secretary Geren, the Army is in the process of 
moving three brigades from Europe to the United States over the next 
few years. Once those brigades are relocated, you will have excess 
capacity at your training center in Germany, but not enough capacity at 
your training centers in the United States, at Fort Irwin and Fort 
Polk. Given that the training and basing infrastructure are already in 
place to support additional forces in Germany, and noting that Germans 
were not asking us to leave (contrary to the situation the Marines have 
in Okinawa, for example), is the Army considering basing any of the 
additional six brigades you are seeking in Germany?
    Mr. Geren. The Army enjoys a strong reputation and friendly 
relationship with Germany, developed over years of Army presence. Under 
Integrated Global Posture and Basing Strategy (IGPBS) the Army has made 
many difficult decisions in order to strategically posture our forces 
to meet global commitments. As a result, the Army decided to return 
three brigades from Europe to continental United States (CONUS) 
beginning in fiscal year 2007 and finishing in fiscal year 2011. 
However, the Army is considering a full range of options for stationing 
the new BCTs, but any decision regarding force levels in Europe must be 
made in close cooperation with the combatant commander's input. In 
addition, the Army will carefully weigh the benefit of existing 
infrastructure in Europe to ensure the Army remains trained and ready 
to deploy. The range and training land capacity and capability in 
Germany is sufficient to meet the current training demand. The Army 
will optimize and adapt the training assets in Germany to meet the 
future needs of assigned and rotational units. However, there remains a 
significant Army presence in Europe, which includes a Stryker BCT and 
an Airborne BCT.

    47. Senator Akaka. Secretary Geren, have you made any irrevocable 
decisions to return property in Germany that would preclude basing 
forces there?
    Mr. Geren. Property that has been returned to the Federal Republic 
of Germany can be reacquired through the accommodation program request 
procedures outlined in the North Atlantic Treaty Organization (NATO) 
Status of Forces Agreement, Supplementary Agreements. Reacquiring land 
would be dependent upon its availability. Property that was sold, 
deconstructed, or reoccupied by someone other than the United States 
after its return to the Federal Republic of Germany's control would be 
unavailable for reacquisition. Property still retained by U.S. Forces 
may accommodate potential Grow the Force organizations and would not 
have to be reacquired from the Federal Republic of Germany. Most fiscal 
year 2006 and fiscal year 2007 released property remains under Federal 
Republic of Germany control so would likely be available, if needed.

    48. Senator Akaka. General Schoomaker, how would you assess the 
strategic case for basing one or more of these additional six brigades 
in Germany or elsewhere in Europe, in terms of both U.S.-only combat 
training and ability to deploy, but also cooperative training with our 
NATO allies on missions such as the International Security Assistance 
Force One in Afghanistan?
    General Schoomaker. The Army remains cognizant of the changes to 
the strategic landscape; and its requirement to maintain flexibility in 
defending emerging global threats. We have reviewed the impact of Base 
Realignment and Closure (BRAC) and the IGPBS, and specifically the 
decisions of maintaining or returning brigades from Europe. Any 
decision regarding force levels in Europe must be made in close 
cooperation with the combatant commander's input. Cooperative training 
with our NATO allies remains an important factor in any decision. In 
addition the Army will carefully weigh the benefit of existing 
infrastructure in Europe to ensure the Army remains trained and ready 
to deploy. U.S. forces continue to demonstrate the ability to operate 
along side its allies in Afghanistan and Iraq regardless of their home 
station.

                       combat ready troop levels
    49. Senator Akaka. General Schoomaker, I think we all agree with 
the Army's core objective of growing the All-Volunteer Force through 
the recruiting and retention of high quality people in order to expand 
the deployable pool of troops to meet the Army's global commitments. 
This committee has been told by the Army and the Secretary of Defense 
that it has sufficient troops to meet current commitments, including 
the escalations in Iraq and Afghanistan. Now, however, there have been 
reports that the Army has been re-evaluating troops who have been 
declared unfit for duty and reclassifying them as ready to deploy. They 
have then been almost immediately deployed to Iraq. In particular, 
media reports specifically state that the Army is deploying troops with 
serious injuries and other medical problems, including soldiers that 
doctors have previously said are medically unfit for battle. Some of 
the soldiers are reportedly too injured to wear their body armor, 
according to their medical records. The reports I have seen indicated 
that this reclassification of troops occurred for a unit of the Army's 
3rd Infantry Division at Fort Benning. Can you please comment on the 
accuracy of these reports? Please indicate if the Army is straining to 
meet the levels of combat ready troops necessary to support the surge.
    General Schoomaker. Our forces are stretched. The Army is currently 
too small. In order to meet the demands of the current operational 
environment and prepare for other potential contingencies we must 
increase end strength. Congress has approved growth of 65,000 soldiers 
in the Active component, 8,200 soldiers in the ARNG, and 1,000 in the 
U.S. Army Reserve. However, it will take time to recruit and retain the 
soldiers to meet these increased authorizations. The plan to grow the 
Army will go a long way towards alleviating strains on the Army and 
demands of future missions. Growing the Army will allow soldiers to 
remain at home at least 12 months between deployments. This will also 
allow more training for other potential scenarios. This is the best way 
to reduce the strain on the force.

    50. Senator Akaka. General Schoomaker, the posture statement 
repeatedly refers to the need for the Army to provide ``boots on the 
ground'' for the war on terror. It states that our Nation will be 
involved in a long struggle of continuous, evolving conflict. Given the 
level of uncertainty in the global war on terror, how can we be sure we 
have ``right-sized'' our forces?
    General Schoomaker. The Army was sized post-QDR to reflect the 
lessons learned from the global war on terrorism and to achieve 
strategic depth necessary to sustain increasing global commitments. The 
Grow the Army Plan was informed by QDR decisions, operational 
availability studies, current operational demands, combatant commander 
requests, and other DOD initiatives (e.g., homeland defense and 
building partnership capacity). Under the plan, the Army will grow all 
three components to build requisite rotational capacity available 
through recurrent, assured, predictable access to the Reserve 
components. The most recent analysis concluded the minimum size of the 
force to be 563,000 in the Active Army; 358,000 in the ARNG; and 
206,000 in the U.S. Army Reserve. In coordination with OSD, the Army 
has programmed for growth at 547,400 Active; 358,200 in the ARNG; and 
206,000 in the U.S. Army Reserve. This growth increases BCT surge 
capacity (1 year deployed, 2 years at home for the Active component, 
and 1 year deployed and 4 years at home for the Reserve component) from 
18-19 BCTs to 21-22 BCTs with up to 2 additional Maneuver Enhancement 
Brigades per rotation. This growth will improve Active component dwell 
by fiscal year 2013 with recurrent, assured access to the Reserve 
component. Additionally, the growth and rebalance of capabilities will 
reduce high demand/low density shortfalls and increase combat, combat 
support, and combat service support capacity in air defense, engineer, 
explosive ordnance disposal, medical, military police, military 
intelligence, transportation, and maintenance. However, the growth 
numbers are not without risk due to continuing demands for additional 
operating force and Institutional Army capabilities. We will continue 
to evaluate the impacts of global force demands on the balance and mix 
of capabilities across all three components to ensure we have ``right-
sized'' the force within our resources.

    51. Senator Akaka. General Schoomaker, please explain how the 
recommended end strength increases for the Army were determined.
    General Schoomaker. The Army analyzed the increasing Global Force 
demand required for the long war and the imperative to build strategic 
depth. To provide 20-21 BCTs at a rotation rate of 1:2 in the Active 
component and 1:5 in the Reserve components, the Army proposed a growth 
plan identifying the need for additional BCTs, along with growth in 
combat support and combat service support units to meet sustained 
operational demands and minimize high demand, low density capability 
shortfalls. Additionally, the Army reviewed the balance of capabilities 
within each component and across the three components to build the 
right force mix in the operating force. Finally, the Army identified 
reducing the military strength in the Institutional Army to 80,000 vice 
the 75,000 spaces as previously programmed to ensure its ability to 
man, equip, train, and station the increase in the operating force. The 
resulting plan proposed a total increase of 74,200 end strength (65,000 
in the Active component, 8,200 in the ARNG, and 1,000 in the Army 
Reserve).

    52. Senator Akaka. General Schoomaker, the surge of 21,500 
additional troops to Iraq that the President has proposed would be 
accomplished by extending some units that are there now, and 
accelerating the deployment of units that would ordinarily have 
deployed much later this year as part of the next rotation. Are you 
concerned that this will cause a problem several months down the road 
for the next rotation?
    General Schoomaker. There are impacts on the upcoming rotation. The 
five BCTs that form the plus-up all had their deployment timelines 
accelerated. This acceleration resulted in modifications to training 
schedules. In order to extend the plus-up through February 2008, a full 
12 months, the Army will be required to extend another 10 BCTs in 
theater. The plus-up could require a number of units to redeploy to 
Iraq and Afghanistan with less than 12 months of dwell time in the 
United States without employing other measures.

    53. Senator Akaka. General Schoomaker, what steps is the Army 
taking to identify, train, and equip the units that will have to fill 
in, several months from now, to cover the gaps this surge would create 
in your previous plan for preparing and deploying units to Iraq?
    General Schoomaker. In order the meet the plus-up, the OSD and the 
Joint Staff will have to use a combination of unit extensions 
(extending units in Iraq and Afghanistan beyond their 12 month 
rotation) and early deployments (sending units to Iraq and Afghanistan 
with less than 12 months at home). However, the Army will continue to 
only send units that are trained and ready for combat operations. 
Additionally, we are sensitive to and supportive of the challenges that 
face our forces as they accelerate manning, equipping, and training 
requirements to support the plus-up. Every deploying unit will be 
manned to no less than 100 percent of their authorized strength, they 
will be equipped with the most modern equipment available to the Army, 
and each will complete intensive training that will begin with a focus 
on individual and small unit (squad through platoon level training) and 
progress to company and battalion level collective training. Lastly, 
every unit will complete a BCT-level mission rehearsal exercise focused 
on counterinsurgency operations.

    54. Senator Akaka. General Schoomaker, the main rationale presented 
to Congress thus far for increasing your Active-Duty end strengths is 
that it would allow your Active-Duty Forces to spend 2 months back home 
for every 1 month deployed. It is impossible to assess whether or not 
these proposed end strength increases would achieve this goal by 
looking at your personnel levels in isolation. One also needs an 
assumption about how many of them would be deployed. How many soldiers 
could be deployed at the QDR force structure levels of 482,400 in order 
to live within this 1-to-2 ratio of time deployed to time at home?
    General Schoomaker. The ARFORGEN model would provide a steady 
supply of ready units, rely on assured access to the Reserve component, 
careful management of time deployed to time at home, and balanced 
demand across the Army. Once ARFORGEN is in place and generating a 
steady flow of ready forces, our models indicate that to maintain a 1 
year at home to 2 years deployed ratio, the Army could sustain a long-
duration deployment of 170,000 soldiers in any given time period. 
ARFORGEN has not yet been implemented because the current demand for 
forces in Iraq and Afghanistan far exceeds the available supply of 
fully manned and equipped units.

    55. Senator Akaka. General Schoomaker, how many more Active-Duty 
Forces could be deployed on a continuous basis, using the same 
assumptions on dwell time, if you were to add the 65,000 soldiers as 
you are proposing?
    General Schoomaker. Under the ARFORGEN construct, at a rotation 
rate of 1:2 for Active Forces, the Army will be able to deploy a total 
of 20 to 21 BCTs per rotation cycle, an increase in capacity of 2 to 3 
BCTs. Once we achieve programmed growth levels of 547,000 in the Active 
component, 358,200 in the ARNG, and 206,000 in the Army Reserve by 
fiscal year 2013, the Army will be able to generate a total of 165,000 
soldiers per rotation (115,000 Active, 35,000 ARNG, and 15,000 Army 
Reserve).

    56. Senator Akaka. General Schoomaker, do you believe, based on our 
experience to date, that ground forces will be necessary and effective 
in combating terrorism around the world in the coming years?
    General Schoomaker. Yes, the Army will be effective in combating 
terrorism around the world in the coming years. The Army's experience 
to date is that ground forces provide an effective, necessary, and 
essential capability in combating terrorists. The Army's modular force 
structure builds BCTs that are prepared to conduct a full-spectrum of 
operations, from force on force action to stability and support 
operations to homeland defense operations.

    57. Senator Akaka. General Schoomaker, to what extent is this the 
justification for your proposed end strength increases?
    General Schoomaker. The justification for the proposed end strength 
increases is based on more than the immediate mission of combating 
terrorism. Our Army's forces are postured to counter a wide spectrum of 
threats over the next 2 to 3 decades. To do this, the Army continues to 
responsibly use the funding provided by Congress to meet its title 10 
responsibilities of providing an Army that supports the Nation's 
interests, and meets the requirements of the National Military 
Strategy. The end strength increase ensures the Army's flexibility to 
respond to an evolving global security environment.

    58. Senator Akaka. General Schoomaker, do you believe that extended 
deployments of ground forces to other nations should be our primary 
method of combating terrorism?
    General Schoomaker. The Army's experience to date is that ground 
forces provide an effective, necessary, and essential capability in 
combating terrorists. The Army's modular force structure builds BCTs 
that are prepared to conduct a full-spectrum of operations, from force 
on force action to stability and support operations to homeland defense 
operations.
    Since combating terrorism is often conducted in the minds of 
people, the employment of ground forces is one of many methods of 
combating terrorism. For example, strategic communications is also an 
effective tool in combating terrorism. The U.S. Government may allocate 
resources to security cooperation and security assistance so that 
partner nations can, as may be required, both secure themselves and 
contribute to coalition efforts. However, the Army must continue an 
active role in both security and stability operations and retain the 
capability to respond to a range of challenges.

    59. Senator Akaka. General Schoomaker, last year the QDR asserted 
that the National Military Strategy could be executed at low-to-
moderate risk by holding the Active Duty manning levels of the Army at 
the pre-Iraq war levels of 482,400. It further asserted the ARNG should 
be reduced from 350,000 to 333,000. Now, 1 year later, the Department 
is proposing to increase the size of the Active-Duty Army to 547,400 
and the ARNG to 358,200. To your knowledge, has the National Military 
Strategy been changed since the QDR was submitted?
    General Schoomaker. There has not been a change in the National 
Military Strategy nor the QDR Force Planning Construct that has driven 
the Army to request an increase in its end strength. During QDR 2006, 
the Army was tasked with building 70 BCTs (42 Active component, 28 
ARNG) to meet the strategic challenges that threatened the Nation, 
while building supporting force structure that would enable the Army to 
shift its balance away from our traditional focus. This 70-BCT force 
relied on predictable, assured access to the Reserve component that 
would generate 18-19 BCTs per ARFORGEN rotation once all conversions 
were completed in fiscal year 2013. However, current global demand on 
the Army has exceeded our capacity to provide forces within the 
ARFORGEN construct, compounded by the years of insufficient 
modernization investments. To meet the global demand for the long war 
and to provide strategic depth to the Nation, the Army proposed a plan 
to grow end strength across all three components to increase operating 
force capabilities, with modest increases in the Institutional Army and 
Individuals Account to retain structure needed to effectively recruit, 
train, and support the growth in the operating force. The proposed end 
strength growth will provide the Army with 76 BCTs (48 Active 
component, 28 ARNG) and over 200 multi-functional and functional 
support brigades. These 76 BCTs, and the additional Combat Support 
Brigade (Maneuver Enhancement) with supporting tactical combat 
formations, will generate 22-23 BCTs at a surge rotation rate (1:2 in 
the Active and 1:4 in the ARNG) by fiscal year 2013.

    60. Senator Akaka. General Schoomaker, if the strategy has not 
changed, then in your view, did the DOD incorrectly assess the forces 
necessary to implement that strategy in the QDR?
    General Schoomaker. QDR 2006 was a collaborative effort between the 
Services, the Joint Staff, and OSD to define the strategy to meet 
future war requirements. QDR 2006 also provided insights for the Joint 
Staff and the Services to do additional analysis based on the effects 
of Phase IV/V (Stability/Enabling Civil Authorities) operations on the 
Joint Force, and the means for building partnership capacity through 
the combatant commanders' security cooperation plans. The force 
assessments and associated resourcing decisions for Army forces 
supported that strategy. The challenge is that since QDR 2006 the 
sustained requirements for the Global Force Demand now exceed that 
strategy. OSD has acknowledged that capabilities shortfall and provided 
support to the Army's proposed plan to increase capabilities to 
mitigate the risk associated with that shortfall gap.

    61. Senator Akaka. General Schoomaker, the number of forces 
deployed in Iraq today is fairly similar to the number there a year ago 
when the QDR was released. Do you believe a change in assumptions about 
how long our forces would be in Iraq explains this change in the 
Department's position?
    General Schoomaker. The number of troops on the ground is primarily 
determined by the military requirements of the commanders in Iraq. The 
QDR expressed the priority mission for the DOD is the war on terror, 
and that remains as true today as it was last year when the QDR was 
released. As the QDR indicated, we want to better utilize an indirect 
approach for defeating the terrorist threat in Iraq. This approach 
requires building the capability of Iraqi security forces to stand on 
their own. Until that is achieved, our continued security and stability 
operations will allow the necessary governance in Iraq.

                               readiness
    62. Senator Akaka. General Schoomaker, last year you made a 
presentation to the House Armed Services Committee on the Army's 
readiness situation in closed session that many of our colleagues found 
very disturbing. You presented those same charts to Senator Warner and 
I at a later date. Yet last August, about a month after your hearing 
with the House, when Secretary Rumsfeld and General Pace met with us, 
they were not willing to agree that the Army had a readiness problem. 
General Pace told us, ``to try to have a discussion that just lays out 
exactly precisely what readiness ratings are lends itself to 
misinterpretation and misunderstanding.'' The readiness reporting 
system has been around for a long time. Although we receive those 
reports in Congress in support of our constitutional responsibilities, 
those reports were not designed for us. They were designed for the 
decisionmakers inside the military--they were designed for you and 
General Pace. It causes confusion and concern when, nearly 
simultaneously, you tell Congress the Army has readiness problems and 
General Pace disputes that idea. Do the Army and the DOD leadership in 
the OSD and the Joint Staff have a common understanding of the Army's 
readiness situation today?
    General Schoomaker. The soldiers we have deployed into current 
theaters of operation are the best-trained, best-equipped, and best-led 
we have ever fielded. As I have explained in recent testimony, 
including last year's testimony before the House Armed Services 
Committee, our immediate challenge lies in the readiness of our 
nondeployed forces. I am greatly encouraged by the recent actions of 
Congress, the President, and the Secretary of Defense which reflect 
clear recognition of the compelling need to rectify our current 
situation. The Army needs your continued support to restore the 
necessary strategic depth so that we can respond decisively to 
potential strategic contingencies. I look forward to working with this 
Congress to enhance the readiness and strategic depth of our Army.

    63. Senator Akaka. General Schoomaker, last fall Congress provided 
an additional $17.1 billion in equipment repair and replacement funds--
known as ``reset''--to the Army. What impact will those additional 
funds have on your readiness levels?
    General Schoomaker. The additional $17.1 billion will address the 
decline in the readiness of our on-hand equipment and allow the Army to 
return existing equipment back to units in combat ready condition. 
Because reset is focused on replacing, repairing, and recapitalizing 
equipment, it has limited impact on equipment shortfalls.

    64. Senator Akaka. General Schoomaker, how much of an improvement 
do you expect, and how soon?
    General Schoomaker. Reset funding includes replacement of battle 
losses--primarily helicopters--and replacement of Reserve component 
equipment diverted to support theater requirements--primarily trucks 
and radios. The major systems will begin arriving in early fiscal year 
2008 and continue for several more years afterward.

    65. Senator Akaka. General Schoomaker, what impact will this 
additional ``surge'' of forces to Iraq proposed by the President have 
on the readiness of your forces to fulfill all their global 
commitments?
    General Schoomaker. The Army still retains the capability to 
respond to all of its global commitments. However, the Army is 
stressed, and response timelines are increasing as much of the Army is 
focused on Iraq and Afghanistan. The continued support of Congress in 
funding the Army will help to alleviate the stress on the Army. The 
Army is resourced with budget and wartime supplemental funding to 
execute the current OIF/OEF fight. However, additional funding is 
required to implement the full strategy outlined in the 2006 QDR.

    66. Senator Akaka. General Schoomaker, were these risks discussed 
and debated by the Joint Chiefs of Staff as part of the 
administration's decisionmaking process?
    General Schoomaker. Yes. The Chairman of the Joint Chief's 
classified risk assessment, provided to Congress in January, addresses 
the risks discussed and debated among the Joint Chiefs.

    67. Senator Akaka. General Schoomaker, to what extent will the 
requirement to pull additional equipment forward to Iraq cancel the 
benefits of the additional reset funds Congress provided last fall, 
which were designed to make more equipment available for our 
nondeployed forces to train with?
    General Schoomaker. The troop plus-up has had a modest impact on 
both fiscal years 2007 and 2008 reset plans, but not in the manner you 
mention. Three BCTs that were planned to begin reset in the fourth 
quarter of fiscal year 2007 will be delayed until the first quarter of 
fiscal year 2008. Further, the plus-up increases reset requirements in 
fiscal year 2008 by two BCTs. This represents a total increased 
requirement in fiscal year 2008 of five BCTs.
    The goal of reset is to restore returning units to a desired level 
of combat capability commensurate with full spectrum operations and 
potential future mission requirements. Reset is only one of several 
means to increase the equipment available to non-deployed units. The 
others include: moving equipment between units to meet training 
requirements prior to deployment; filling requirements from new 
production; and requesting additional funding to purchase needed 
equipment.

    68. Senator Akaka. General Schoomaker, some analysts point out that 
your conversion of Army brigades to a modular format with more combat 
elements per brigade automatically reduces your readiness levels by 
spreading the existing amount of available equipment over a larger 
number of reporting units, and that this reduced readiness will 
therefore exist until a significant amount of new equipment is 
delivered. Is that accurate, in your view?
    General Schoomaker. Attributing reduced readiness across the force 
to modular conversion is not accurate. We have been experiencing 
decreases in readiness since fiscal year 2002 but modular conversion 
did not start until fiscal year 2005, at which point only 6 percent of 
the force was converted. Currently, 32 percent of the force has 
converted to the organizational design. So modular conversion is not 
the primary reason for decreasing overall readiness, it is the pre-
existing shortage of unit equipment or what I call ``holes in the 
force,'' the subsequent cross-leveling to fill those holes, equipment 
left in theater, and replacement of outdated equipment.
    Currently, the Army is only resourced through base budget and 
wartime supplemental funding to execute the current OEF/OIF fight. 
Resources continue to fall short of the level necessary to implement 
the full strategy outlined in the 2005 QDR. The Army outlined specific 
areas of risk in the recent Chairman's Risk Assessment submitted with 
the President's budget in February 2007. Had the Army been funded to 
requested levels in recent years, and had endorsed policies that 
assured access to all of our capability, we would be in a better 
strategic posture today.
    Recent decisions to expand the Army reflect the clear recognition 
of the dangers we face and the strain that 5 years of sustained demand 
has placed on our All-Volunteer Force. We remain committed to 
generating whole, cohesive units that are fully manned, trained, and 
equipped--that are fully ready for the challenges they will face. This 
will require a national commitment to sustain predictable resourcing 
over time and to build our force in a balanced, coordinated fashion, 
while providing adequately for the needs of our All Volunteer soldiers 
and their families.
    The Army's transformation is improving our ability to support 
protracted campaigns by increasing the depth, breadth, and the overall 
capacity of our force. We are converting to more versatile and more 
capable modular formations while balancing the size and capabilities of 
our Active and Reserve components, and stabilizing our force. Your 
continued support is helping to fix our ``holes in the force.'' I ask 
you to increase your support for this effort as we work to break the 
historical cycle of unpreparedness.

    69. Senator Akaka. General Schoomaker, does your ``modular force'' 
conversion make your readiness look worse than it is?
    General Schoomaker. The resources that Congress has invested in the 
Army have greatly increased the capabilities of our Army. Today, 
brigades, the building blocks of our strategy, have enhanced and 
embedded battlefield enablers that greatly increase their effectiveness 
across the spectrum of military operations. In building these 
formations we have documented these units focusing on the true go to 
war requirements based on current and future military operations. We 
have not ``gamed'' our requirements process for political or budgetary 
expediency; instead we have deliberately developed formations based on 
real world feedback from our deployed units and combatant commander 
requirements. The resources granted the Army are being consumed by 
several demands and should be viewed as a cumulative and combined 
effect. Although the transformation to the Army Modular Force has 
impacted some units by creating artificial dips in equipment on-hand 
readiness rates, this is a marginal driver. One of the most significant 
reasons for lowered equipment on-hand readiness rates can be traced to 
equipment left behind to fill theatre provided equipment stocks. In-
theater equipment demands are above and beyond MTOE and require re-
deploying units to leave their equipment behind to equip follow-on 
forces. We cannot ignore the $56 billion equipment shortfalls in the 
Army prior to Operation Iraqi Freedom (OIF)/Operation Enduring Freedom 
(OEF).
    Additionally, the concentration of personnel and equipment in 
theatre greatly magnifies those shortfalls when spread across the 
remaining nondeployed force. High operational tempo, as experienced in 
OIF/OEF, causes un-forecasted equipment fatigue creating a large pool 
for depot-level repair and further creating a maintenance burden in-
theater. This is further compounded by battle damaged equipment. 
Finally, full, timely, and predictable funding is required to ensure 
Army units are fully manned, equipped, and trained to sustain the full 
range of global commitments in the war on terror.

    walter reed army medical center and base realignment and closure
    70. Senator Akaka. Secretary Geren, a bill has been introduced in 
the House to repeal the closure of the Walter Reed Army Medical Center 
mandated by the 2005 base closure round. In your opinion, would this be 
a wise move?
    Mr. Geren. No. Reversing the current Base Realignment and Closure 
(BRAC) recommendations for Walter Reed Army Medical Center (WRAMC) 
would not address the need for significant modernization and renovation 
at Dewitt Army Community Hospital at Fort Belvoir, Virginia, and 
establishing the Walter Reed National Military Medical Center at 
Bethesda, Maryland, nor would it account for the changing demographic 
of health consumers. As the Army implements the BRActive component law 
by building a new hospital at Fort Belvoir and significantly expanding 
the hospital at Bethesda, we will be better equipped to provide world-
class health care for soldiers, veterans, and their families well into 
the future.

    71. Senator Akaka. Secretary Geren, is it realistic to think we can 
reopen one BRActive component decision, in this case Walter Reed, 
without reopening other BRActive component decisions that are related 
to Walter Reed, such as Fort Belvoir, or even reopening the entire 
BRActive component round?
    Mr. Geren. The Department opposes any amendment that would alter 
the approved recommendations of the 2005 BRActive component Commission. 
Legislating a specific change to a BRActive component Commission 
recommendation would adversely affect the integrity of the BRActive 
component 2005 process.

    72. Senator Akaka. Secretary Geren, do you believe keeping Walter 
Reed open is the best way to provide the quality medical care our 
servicemembers deserve?
    Mr. Geren. No. Renovations required to update the hospital at WRAMC 
would be costly and disruptive to the care of patients as portions of 
the hospital would have to be closed for protracted periods. Such 
renovations would have the unintended effect of interrupting the 
medical system's ability to provide care to the same number of patients 
it handles at the present time. Building a new hospital with greater 
capacity and capability at Fort Belvoir and making significant 
enhancements to Walter Reed National Military Medical Center at 
Bethesda, MD, will significantly improve the quality of care for all 
beneficiaries.

    73. Senator Akaka. Secretary Geren, do you believe keeping Walter 
Reed open is the best solution to the recent problems there?
    Mr. Geren. No. The recently identified problems are being 
addressed. We are drafting an Army Action Plan to use as our blueprint 
for successfully fixing the problems we have identified. The solutions 
identified at Walter Reed will be transferred to the new sites, to 
ensure that the Army provides world-class inpatient care and outpatient 
support services.

    74. Senator Akaka. Secretary Geren, do you believe we can close 
Walter Reed in 2011 and still maintain the capacity we need to treat 
wounded soldiers at Bethesda or other locations?
    Mr. Geren. Yes. The Department developed a business plan with input 
from physicians, medical support personnel, architects, and engineers. 
The plans were formally coordinated with the Navy, Air Force, Medical 
Joint Cross Service Group, and TRICARE Management Activity and the 
Office of the Assistant Secretary of Defense (Health Affairs). All 
concurred that the scope and cost of the projects in the business plan 
addressed capabilities and facilities requirements at the designated 
receiving locations.

    75. Senator Akaka. Secretary Geren, because the President decided 
late in the process to propose an increase in the Army's end strength, 
the budget was submitted with essentially a $2 billion placeholder, or 
blank check, in the military construction accounts because no locations 
had been selected for basing these additional personnel, in particular 
the six additional infantry brigades the Army wants. I do not believe 
Congress will sign a $2 billion blank check. When do the Army and DOD 
leadership plan to make a decision on where you propose to base these 
forces?
    Mr. Geren. The fiscal year 2008 budget request supports the recent 
decisions to grow the Army for combat and combat support units. The 
Army is currently conducting thorough analyses for locations to station 
the six new BCTs using the BRActive component ``best military value'' 
process, which includes the opportunity to solicit public comment and 
interface with the local communities which may be affected by these 
actions.

    76. Senator Akaka. Secretary Geren, these basing decisions would 
rival the largest moves in the 2005 BRActive component round. That was 
an open process, with the data comparing the attributes of various 
bases available to everyone. What process does the Army envision using 
in making and defending these decisions?
    Mr. Geren. The Army is currently conducting our analysis and 
modeling of the possible BCT locations using the BRActive component 
``best military value'' decision support framework. Additionally, the 
Army intents to integrate the data collected from the Programmatic 
Environmental Impact Statement (PEIS) in order to have the opportunity 
to assess the input and comments of local affected communities. In the 
end, the combination of the data collected from the PEIS combined 
together with the analysis from the decision support framework will 
provide the bases of our selection for the new BCTs.

    77. Senator Akaka. Secretary Geren, how do you plan to consult with 
Congress on these basing decisions?
    Mr. Geren. The Army will not make its decision regarding the 
stationing locations of the new BCTs until we have completed our 
analysis and modeling using the BRActive component ``best military 
value'' decision support framework. Additionally, the Army intends to 
consider the impacts identified in the PEIS in order to have the 
opportunity to assess the input and comments of local affected 
communities. In the end, the combination of the data collected from the 
PEIS combined together with the analysis from the decision support 
framework will provide the bases of our selection for the new BCTs.
                                 ______
                                 
               Questions Submitted by Senator John McCain
               reconstitution of army prepositioned stock
    78. Senator McCain. Secretary Geren and General Schoomaker, the 
surge in troops and the requirements to create new brigades have caused 
a significant drawdown on Army prepositioned equipment stocks (APS). 
These stocks are important to our strategic flexibility. How do you 
plan to reconstitute those stocks?
    Mr. Geren and General Schoomaker. Since the first Gulf War, the APS 
program has expanded from its European-centric, Cold War origins to the 
array of global capabilities reached prior to the start of OIF. At the 
start of OIF, APS stocks afloat at Diego Garcia and ground-based in 
Southwest Asia, were drawn to equip units that conducted the initial 
assault to Baghdad. What remained in APS in the spring of 2003 is very 
similar to what we have today, though the equipment sets remaining are 
filled to a much higher level and of a modular design and with more 
modern equipment. Over the past 4 years, the assets used in the initial 
operations in Iraq were reconstituted in a manner that provided the 
maximum operational flexibility and strategic responsiveness.
    The Army will reconstitute its APS capabilities. They will be 
reconstituted in a manner that provides the maximum level of strategic 
flexibility and operational agility. Based on the availability of 
resources (requested funding and equipment returned for reset), the 
U.S. Army Materiel Command anticipates it will take approximately 18-24 
months to reset an APS set. The Army`s APS Strategy 2013 articulates 
the afloat and ashore equipment required to meet the future 
responsiveness needs of the combatant commanders.
    Once the current operational and equipping tempo stabilizes, the 
Army will develop an executable timeline within available resources to 
reset its APS sets according to the APS Strategy 2013.
    The Army could not have met the requirements of this most recent 
surge without APS. With the continued support of Congress to fully 
resource equipment, the Army will be able to return equipment to pre-
positioned stocks as it becomes available from new production, repair, 
and recapitalization.

    79. Senator McCain. Secretary Geren and General Schoomaker, does 
that reconstitution involve waiting for the surge in forces in Iraq and 
Afghanistan to end? If so, what are your plans if the surge is actually 
a plus-up, and doesn't end for the foreseeable future?
    Mr. Geren and General Schoomaker. Regardless of whether the plus-up 
remains in effect for the foreseeable future or not, the Army is 
committed to fully equipping all its organizations. The Army went into 
global war on terror with an equipping shortfall that has been 
magnified by consumption of equipment in OIF and OEF and growth through 
modularity. Additionally, the recently approved growth of the Army will 
result in higher overall equipping requirements. Overall Army equipment 
requirements will be addressed through procurement and reset/
recapitalization of current equipment funded through a combination of 
base budget and supplemental monies, as appropriate.
    APS is an important strategic asset that enables both the strategic 
responsiveness and the operational agility of our Army. As such, we 
have begun efforts to reestablish our most critical strategic 
capabilities, those that support force reception, and will continue to 
increase our prepositioned capabilities until we meet the level 
articulated in APS Strategy 2013. This strategy addresses both afloat 
and ashore equipment sets and is designed to meet the future 
responsiveness needs of the combatant commanders.
    Once the current operational and equipping tempo stabilizes, the 
Army will develop an executable timeline within available resources to 
reset its APS sets according to the APS Strategy 2013.
    Without APS, the Army would not have been able to meet the 
requirements of the current surge, and with the continued support of 
Congress to fully resource the administration's budget request for Army 
equipment, the Army will be able to return equipment to pre-positioned 
stocks as it becomes available from new production, repair, and 
recapitalization.

                     readiness of nondeployed units
    80. Senator McCain. Secretary Geren and General Schoomaker, part of 
the readiness problems for nondeployed units involved not having enough 
of the equipment they are supposed to have. If, in fact, the missing 
gear is not waiting to go through the depots or it is deployed to Iraq 
or Afghanistan, how do you plan to improve the availability of 
equipment for our nondeployed units?
    Mr. Geren and General Schoomaker. If unit equipping requirements do 
not change significantly over 2008-2013, the Army estimates that there 
are sufficient resources in the program (including the fiscal year 2007 
main supplemental, and fiscal year 2008 global war on terrorism 
requests) to procure all modified table of organization and equipment 
(MTOE) requirements for all BCTs by fiscal year 2013 and all MTOE 
requirements for support brigades by fiscal year 2017. Any additional 
resources received or applied above the program years, fiscal year 2007 
supplemental, or fiscal year 2008 global war on terror requests would 
accelerate fulfilling these requirements.

    81. Senator McCain. Secretary Geren and General Schoomaker, are you 
planning to buy more of the missing equipment?
    Mr. Geren and General Schoomaker. As stated previously, the Army's 
program for 2008-2013, plus fiscal year 2007 main supplemental and 
fiscal year 2008 global war on terrorism requests, will procure the 
MTOE equipment needed for all Army BCTs and support brigades by fiscal 
year 2017. This does not include the $13-14 billion a year, plus at 
least 2 years after the cessation of operations, the Army will need to 
reset its current forces.

    82. Senator McCain. Secretary Geren and General Schoomaker, is the 
procurement of equipment to replace that which is missing in the budget 
request? If not, is it in your unfunded requirements list?
    Mr. Geren and General Schoomaker. At the conclusion of the Army's 
programming process for 2008-2013, it realized that all critical 
requirements and essential needs for equipment for these years could 
not be met with the allocated resources. At that time, the Army 
generated its critical unfunded requirements list and forwarded a 
portion of these requirements, specifically those requirements for 
deployers and next-to-deploy units, through the OSD to Congress as part 
of the fiscal year 2007 main supplemental request. The Army also 
forwarded a subset of these requirements--specifically those 
requirements for deployers and next-to-deploy units that were not 
included in these requests--in its Unfunded Requirements List requested 
by Congress. To the extent that these unfunded requirements remain, 
they will be shifted to subsequent years for possible funding.

                    walter reed army medical center
    83. Senator McCain. Secretary Geren and General Schoomaker, Major 
General Pollack, Acting Surgeon General, has directed that for the next 
30 days, only soldiers with major amputations and critical needs whose 
unit is assigned east of the Mississippi will be accepted from theater 
for care at Walter Reed. Other severely injured patients will be sent 
to military treatment facilities elsewhere in the United States. Is 
this a rational response to the problems of outpatient treatment at 
Walter Reed? Or, is it recognition that it is time to reexamine the 
fundamental soundness of the Army policy that causes hundreds of 
patients to be brought to Walter Reed directly from the theater, and 
keeps them there until the physical disability evaluation system is 
exhausted?
    Mr. Geren and General Schoomaker. This policy allows for proper 
distribution of patients throughout our Army Medical Treatment 
Facilities (MTFs). The primary criteria for medically regulating 
soldiers to specific MTFs are the soldier's medical requirements. 
Unless medically contraindicated, all Active component soldiers are 
regulated to the MTF that supports their unit of assignment. All 
mobilized/demobilized Reserve component, as well as Active component 
soldiers assigned to Reserve component deployed units, are regulated to 
the closest MTF having geographical area of responsibility for their 
mobilization/demobilization site. A revision of this policy is 
currently being staffed that will allow the soldiers to be more 
involved with their treatment location. If the capacity and capability 
exist, the soldier can be moved to the MTF nearest the location 
providing an adequate support structure, (i.e. family or other support 
systems).

                        support to army families
    84. Senator McCain. Secretary Geren, our military forces cannot be 
sustained without tangible support to military families--programs for 
children and youth; morale, welfare, and recreation; educational and 
employment assistance to spouses. Are the resources provided in this 
budget keeping pace with the growing demand for services, and will 
they, as the Army grows?
    Mr. Geren. The Army is working hard to ensure that these programs 
keep pace with the demands for services. These programs are essential 
to sustain the All-Volunteer Force and provide our soldiers and 
families a quality of life that is commensurate with the duties they 
are asked to perform. As the Army grows, we will adjust resources to 
address these family needs. While plans to grow the Army are not yet 
finalized, we are confident that adequate funding for these programs is 
contained in the Army's request.

                    future combat system acquisition
    85. Senator McCain. Secretary Geren, since the inception of the FCS 
program, the Senate Armed Services Committee has exercised its 
authority to ensure that it meets the needs of the Army and the Nation. 
To protect taxpayers, the committee required the Army to revise the 
contract under the Federal Acquisitions Regulations and convert it into 
a proper military procurement contract, after the Army had inexplicably 
procured this system-of-systems as a commercial item. In the last 
year's Defense Authorization Act, the committee included language 
requiring that the Secretary submit a comprehensive report upon 
completing preliminary design review to determine if the program should 
be restructured and called for an independent cost estimate for the 
program. The Army restructured FCS in January 2007. Program adjustments 
include deferring two classes of UAVs, eliminating the IMS, and 
deferring two types of armed robotic vehicles. The Army has also pushed 
back the anticipated date for fielding FCS-equipped brigades. Army 
officials have stated that the program adjustments do not compromise 
the systems' capabilities. How can four unmanned systems that have been 
previously described as critical, be eliminated without losing combat 
capability?
    Mr. Geren. The Army continuously evaluates FCS program technical 
and cost metrics. The congressional funding cuts in fiscal year 2005-
2007 required the program to make an adjustment to some of its key 
milestones. Based on the assessment of the technical maturity of these 
unmanned platforms as well as anticipated average unit production cost, 
a decision was made to defer these systems until such time as the 
technology is more mature. To compensate for the BCT unmanned system 
reduction, an increase to the quantities of other unmanned systems, as 
well as adjustments in individual system requirements, has been 
addressed. The U.S. Army Training and Doctrine Command (TRADOC) is 
continuously assessing the FCS BCT capabilities under multiple 
scenarios with various mixes of platform systems, quantities, and force 
sizes to ensure that the capabilities meet the operational requirements 
documents (ORD) requirements.

    86. Senator McCain. Secretary Geren, does the Army have a plan to 
reevaluate the FCS program to see if the remaining 14 systems can be 
consolidated or have their functions consolidated to reduce costs while 
maintaining the program's original operational capabilities?
    Mr. Geren. The Army is undergoing the fiscal year 2007 and fiscal 
years 2008-2013 FCS program adjustment and has no additional plans at 
this time to consolidate functionality for the 14 systems. The FCS BCT 
utilizes each of the systems as an integrated fighting force following 
approved future fighting doctrine concepts while maintaining its 
survivability and lethality. U.S. Army TRADOC continually reviews the 
FCS BCT capabilities, and doctrinal concepts to ensure that the 
operational requirements are still valid.

    87. Senator McCain. Secretary Geren, the Joint Tactical Radio 
System Ground Mobile Radio (JTRS-GMR) is a key component of the FCS 
manned ground vehicle development. What is the status of that program?
    Mr. Geren. Your question has been forwarded to the Office of the 
Assistant Secretary of Defense for Acquisition, Technology, and 
Logistics, for appropriate response. Specifically, this program is 
managed by the JTRS-Joint Program Executive Office.

    88. Senator McCain. Secretary Geren, operations in Afghanistan have 
demonstrated the utility of light infantry. What benefit would FCS 
bring to such units?
    Mr. Geren. Light infantry is a former label used to distinguish 
between mounted and dismounted forces. Today we simply use infantry. 
Before the modular conversion, formations formerly labeled as light 
infantry lacked mobility and firepower. Modular infantry BCTs address 
some of these capability gaps, but formations still have limitations in 
individual and unit protection, situational awareness, and 
communications on the move, down to the lowest level. FCS addresses 
these shortfalls within FCS BCTs and within modular BCTs that receive 
selected FCS capabilities.
    For example, unmanned systems connected to the formations via the 
advanced integrated network will perform many more of the dangerous and 
dirty tasks soldiers perform today. Larger territory is covered with 
aerial and ground sensors. Unmanned aerial and ground sensors increase 
survivability and force protect from ambushes and raids. The ability to 
employ a wider range of precision fires increases infantry lethality 
while minimizing collateral damage. Infantry forces have great utility 
and the most flexibility across the spectrum of conflict including 
irregular warfare and operations in complex terrain like cities and 
mountains. Irregular warfare is normally of long duration, against 
adversaries who deliberately seek to avoid accepted rules in the 
conduct of war. This includes, but is not limited to, unconventional 
warfare, guerrilla warfare, counter-guerrilla warfare, subversion, 
sabotage, intelligence activities, and unconventional assisted 
recovery. Irregular warfare normally requires the support of the 
population. FCS BCTs are optimally configured for irregular warfare 
where information is the premium asset. The working design for FCS BCTs 
has the same number of infantry squads as today's modular infantry BCT, 
and due to the effectiveness of the FCS BCT, we have less total 
soldiers than a current heavy BCT with a much greater number of 
infantrymen in squads.

                         multiyear procurements
    89. Senator McCain. Secretary Geren, I understand that the Army 
proposes to procure Chinook helicopters, the Abrams M1A2 Systems 
Enhancement Package upgrades, and M2A3/M3A3 Bradley upgrades, under a 
multiyear contract. Do these proposed procurements comply with all of 
the requirements of the Federal multiyear procurement statute, title 
10, U.S.C., section 2306b?
    Mr. Geren. Yes. The Army is aware of the six conditions which must 
be met prior to the award of a multiyear procurement contract. The 
procedures and notifications to Congress IAW title 10, U.S.C. 2306(B) 
(Statutory) and DFARS 217.172 (Regulatory) will be followed and 
executed when appropriate. At this time, the six conditions required by 
the statute have been satisfied and are documented in the P-Forms and 
the multiyear exhibits with one caveat. The stability of funding for 
both the Abrams and Bradley MYP assumes a significant amount of global 
war on terror funding will be provided to the Army in fiscal year 2008. 
The remaining MYP years for both Abrams and Bradley Fighting Vehicle 
Systems (BFVS) will be funded in the base program. The Army will 
address the remaining certification requirements at the appropriate 
time.

    90. Senator McCain. Secretary Geren, will the expected savings 
obtained from the proposed multiyear procurements be ``substantial'' 
(as opposed to executing under a series of annual contracts) within the 
meaning of the statute?
    Mr. Geren. Yes, for Chinook helicopters, the Abrams M1A2 Systems 
Enhancement Package upgrades, and M2A3/M3A3 Bradley upgrades.
Chinook Helicopters
    The Multiyear Procurement Criteria Exhibits that were submitted 
with the President's budget indicate that the anticipated savings 
resulting from the requested multiyear contract would be $173 million, 
or slightly more than 4 percent of the total contract price. This was a 
conservative government estimate that was based on the information 
available to the program office at the time the exhibits were prepared.
    Since the submission of the President's budget, the program office 
has begun the early stages of alpha discussions and continues to refine 
the estimate. Currently the anticipated savings are estimated to be 
between 5 and 6 percent of the total contract price.
Abrams M1A2SEP and M2A3/M3A3 Bradley Upgrades
    The MYP for the Abrams M1A2 SEP tank would begin in third quarter 
of fiscal year 2008 for a period of 5 years with a total estimated 
savings of $178 million, or approximately 10 percent ($300,000 per 
vehicle) and an MYP contract for the BFVS/BFIST would begin in third 
quarter of fiscal year 2008 for a period of 4 years with a total 
estimated savings of $131 million, or approximately 5 percent ($135,000 
per vehicle).

    91. Senator McCain. Secretary Geren, will these multiyear contracts 
contain ``re-opener'' provisions? If so, please describe.
    Mr. Geren. For the Chinook it has not yet been determined if the 
multiyear contract will contain ``re-opener'' provisions. The program 
office is in the early stages of alpha discussions, as the anticipated 
contract award is not until December 2007. These provisions have been 
employed in some Army aircraft multiyear contracts in the past, but at 
this time neither the Government nor Boeing have identified a risk area 
that would require a ``re-opener'' provision. The issue will be 
considered as negotiations progress.
    For the Abrams M1A2SEP and M2A3/M3A3 Bradley upgrades, there is 
currently no plan to have any ``re-opener'' provisions concerning the 
prime contractors. The program office has not begun contract 
negotiations at this time since the anticipated contract award will not 
occur until 3rd quarter fiscal year 2008. However, it is possible that 
during contract negotiations some major ``subcontractors'' may have 
``re-opener'' provisions included in their contracts.

    92. Senator McCain. Secretary Geren, with respect to each of these 
multiyear procurement proposals, does the Army intend to obligate funds 
in an amount necessary to fully fund termination liability with respect 
to the advance buy or economic order quantities, as well as 
cancellation ceiling liability? If so, what are those values? If not, 
why not?
    Mr. Geren. The Army typically covers multiyear cancellation ceiling 
by using current year funding in the event of a cancellation. If a 
multiyear contract were cancelled, the termination liability would be 
paid for with a portion of the funding originally budgeted for that 
year's multiyear increment. MYP termination requires the commitment of 
the Army to set aside the necessary funding to cover the cancellation 
ceiling amount.
Chinook Helicopters
    Yes. The Chinook funding plan identifies a $90 million funded 
cancellation ceiling in the second year of the contract, which is 
reduced by $30 million per year for each subsequent year of the 
contract.
Abrams M1A2SEP and M2A3/M3A3 Bradley Upgrades
    The Abrams and BFVS MYP exhibits represent the Government's initial 
cost estimate only. Therefore, the exact cancellation ceiling amount 
will not be determined until the contractor proposals are received and 
negotiated. The PM HBCT has developed an initial estimate of the 
maximum termination liability based upon cancellation of all remaining 
years beyond the year of termination.

                        [In millions of dollars]
------------------------------------------------------------------------
                          Program
------------------------------------------------------------------------
Bradley....................................................       $145.0
Abrams.....................................................        111.5
------------------------------------------------------------------------


                          joint cargo aircraft
    93. Senator McCain. Secretary Geren, contrary to guidance from the 
congressional defense authorizing committees in the National Defense 
Authorization Act for Fiscal Year 2007, the Army continues efforts to 
acquire JCA. To quote last year's bill: ``The Air Force's LCA would 
provide intratheater lift mission support for the U.S. Transportation 
Command (USTRANSCOM) which is the distribution process owner for the 
DOD. The conferees note that intratheater lift using fixed-wing 
aircraft is performed most efficiently when it is coordinated by 
USTRANSCOM.'' Fixed-wing cargo delivery has been included in the roles 
and missions of the Air Force. What is your view of the proper roles 
and missions for the Army and Air Force in intratheater lift?
    Mr. Geren. The Army and the Air Force have partnered to shape 
complementary capability requirements for the JCA program. A Joint 
Army/Air Force JCA program provides for a balance between the 
operational efficiencies of common-use, centrally-managed intratheater 
airlift assets, and the tactical response and effectiveness gained from 
service operated assets. USTRANSCOM coordinates intratheater 
distribution through Joint Deployment and Distribution Operations 
Centers (JDDOCs). Both the Army and Air Force JCA operations will be 
visible to the JDDOC, allowing TRANSCOM to impact the distribution 
process. The Air Force will use the JCA to supplement the existing C-
130 intratheater airlift fleet, allowing for greater efficiencies for 
hauling smaller loads. The Army will use the JCA to focus on time-
sensitive mission-critical resupply and key personnel transport at the 
tactical level--the last tactical mile. The Army will use the JCA to 
replace three less capable and aging Army airframes (C-23, C-26, and 
some C-12s) with more capable cargo platforms while simultaneously 
modernizing the Reserve components. The Army JCA will also relieve a 
portion of the logistical burden currently carried by the CH-47. These 
logistical operations are costly, maintenance intensive, and serve to 
reduce the availability of CH-47 aircraft for tactical missions.

    94. Senator McCain. Secretary Geren, in the National Defense 
Authorization Act for Fiscal Year 2007, the Senate Armed Services 
Committee restricted the purchase of this aircraft until two critical 
studies, the JCS Intratheater Lift Capabilities Study Phase 1 and AMC's 
Mobility Roadmap, are complete. What is the status of these reports?
    Mr. Geren. The ITLCS study was a follow on to the Mobility 
Capabilities Study (MCS). ITLCS built on MCS intratheater lift insights 
and determined the preferred mix of lift platforms to accomplish 
intratheater lift at the operational level in support of the Defense 
Strategy in the 2012 program of record; the study was approved on March 
27, 2007. The insights from ITLCS determined that JCA would be well-
suited for lower volume standard terminal arrival routes; however, that 
more analysis would be needed to assess intratheater tactical airlift 
(the last tactical mile) requirements. This analysis is being executed 
by a combination of the Joint Intratheater Distribution Assessment 
(JITDA), an addendum to the JCA Analysis of Alternatives (AoA), and an 
Air Force Intratheater Airlift AoA. The JITDA goal, being led by the 
Joint Staff, is to conduct theater distribution assessments to 
determine required joint distribution capabilities to the point of 
effect, typically at the BCT level.

                         operational readiness
    95. Senator McCain. General Schoomaker, to what extent have you 
evaluated whether units are ready and trained to respond to operations 
other than Iraq or Afghanistan?
    General Schoomaker. More than 4,500 commanders report their 
readiness monthly. Readiness reporting requires commanders to assess 
their status against the mission their unit is organized/designed to 
perform, against any assigned missions. We place great value on 
commander assessments of their unit's readiness and these reports are 
reviewed in great detail with appropriate follow-on action at the 
Headquarters, Department of the Army level. Quarterly, the Army 
assesses its ability to provide trained and ready forces to the 
combatant commanders. These two levels of assessment allow the Army to 
measure its ability to respond to challenges throughout the world.

    96. Senator McCain. General Schoomaker, what, if any, impact have 
the large supplemental appropriations had on the readiness of Army 
units since operations in Iraq and Afghanistan began? When do you 
project that the funds will begin to have an impact on readiness?
    General Schoomaker. These resources have enabled us to increase 
readiness for counter-insurgency operations for the current fight but 
not increase readiness of the force overall. From fiscal year 2003 to 
2006, the Army has received over $200 billion in supplemental funding. 
Of these funds, $162 billion (79 percent) have gone to operations and 
support costs, which enabled us to support the conflict in Afghanistan 
and Iraq. Another $29 billion (15 percent) was allocated and executed 
in investment accounts to support specific in-theater requirements, 
force protection, and infrastructure. Of the remaining funds, $10 
billion was allocated for the modularity initiative, and only $4 
billion (2 percent) addressed Army equipment shortfalls, which directly 
affect readiness. Supplemental funding does not put us on a robust path 
to filling shortages that exist in the Army, which impact readiness.

    97. Senator McCain. General Schoomaker, in light of recent plans to 
increase end strength, do you have the capacity in terms of trainers, 
facilities, et cetera, to train a larger force, and if not, have you 
begun planning for the increased end strength from this perspective?
    General Schoomaker. Army will require additional military and 
civilian authorizations to support both the Active component and 
Reserve component training capacity. These additional authorizations 
will ensure that the training base can fully support the Army's 
increase in end strength through initial military training (IMT), 
functional training, and professional military education requirements. 
We may also require additional investment in facilities and equipment 
and these requirements are being assessed now.
    In the near-term, the combat training centers (CTC) have the 
capability to meet essential training requirements of deploying units, 
to include the additional six BCTs called to support the global war on 
terrorism. However, as the Army grows, the CTC program, in its current 
state, will not be able to support all training events envisioned in 
ARFORGEN training strategies. With 76 BCTs, the Army's worldwide annual 
maneuver CTC (MCTC) throughput capability requirement for Active 
component and Army National (ARNG) BCTs and one U.S. Army Special 
Operations Command rotation will be 38 to 40 rotations annually at 
objective ARFORGEN. The current MCTC capability of 33-36 rotations 
annually depends on establishing an exportable training capability 
(ETC) in CONUS and at the Joint Multinational Readiness Center (JMRC) 
by fiscal year 2010. Because the current MCTC capacity will not be able 
to meet throughput requirements at objective ARFORGEN, the Army is 
currently assessing whether to establish a second CONUS ETC in the next 
Program Objective Memorandum cycle.
    We have also analyzed training ammunition requirements. Increasing 
the Army force structure will increase training ammunition requirements 
approximately 7 percent annually. We do not anticipate any significant 
issues with the current ammunition industrial base to increase 
production to support potential training requirement increases.
    Finally, we are analyzing the training support systems at 
installations. There is an ongoing study, initiated in late November 
2006, to look at the Army's inventory of ranges, facilities, equipment, 
and other requirements necessary to support training a larger Army. The 
results of this study will be complete by mid-summer 2006.

    98. Senator McCain. General Schoomaker, to what extent have you 
analyzed the implications of increasing end strength in terms of 
maintaining overall readiness while growing the force?
    General Schoomaker. During the Army's plan to grow the force, the 
impact on manning, equipping, training, sustaining, and stationing the 
growth in the force to minimize the impact on readiness, while meeting 
current operational demands, was considered. The analysis of the 
required increase in capabilities to meet global force demands and the 
need to ensure the right force mix across all three components resulted 
in a timeline for the plan that builds a balance of combat, combat 
support, and combat service support capabilities in the operating force 
between fiscal years 2008-2013. Additionally, the impacts on the 
Institutional Army were evaluated and the results incorporated into the 
plan ensuring adequate capacity to generate and sustain the Operational 
Force. Finally, the funding to implement the plan, along with 
maintaining the Army's current transformation plan and operational 
requirements, was evaluated and integrated in the program and budget 
review process. The resulting Grow the Army Plan has been incorporated 
in current initiatives under the AFORGEN construct to maintain 
readiness of the units deployed to meet the Global Force demand.

    99. Senator McCain. General Schoomaker, what are your specific 
recommendations as to how to reduce the impact of high operations tempo 
operations on both near- and long-term readiness and modernization 
programs?
    General Schoomaker. The Army is resourced with budget and wartime 
supplemental funding to execute the current OIF/OEF fight. Resources 
continue to fall short of the level necessary to implement the full 
strategy outlined in the 2005 QDR. Long-term fixes are primary 
objectives of ongoing efforts toward force modernization and 
transformation coupled with the Grow the Army initiative. Each is a 
years-long effort with substantial funding requirements. Current 
projections are that, with sufficient reliable funding, we can meet 
operational requirements and execute the National Military Strategy by 
2013.
    In the interim, the Army continues to maximize available resources 
to ensure units in theater are fully manned, trained, and equipped to 
execute their missions. Critical to this near-term readiness is 
ensuring sufficient reset time for redeploying units to ensure 
personnel and equipment recovery can be completed prior to beginning 
collective training efforts for the next assigned mission. The Army 
recently enacted policy mandating that units have a minimum of 12 
months dwell time between deployments. Priority of personnel is to 
these units preparing to deploy. The goal is for every BCT to deploy to 
theater at 95 percent strength or better. Near-term equipment fixes 
include the forward repair activities: reset and recapitalization. The 
Army consistently meets equipment readiness standards due to 
supplemental funding supporting these programs. The Army is maximizing 
the use of Army pre-positioned stocks and is sustaining unit equipment 
availability and readiness with the help of supplemental funding. There 
still exists shortfalls in equipment fill and levels of modernization, 
training (both institutional and unit), and sustainment throughout all 
components of the Army. This impacts our strategic depth and 
flexibility to address unforeseen challenges.

                      readiness of the total army
    100. Senator McCain. General Schoomaker, your testimony before the 
Commission on the National Guard and Reserves in December 2006 was 
instrumental in bringing about change to the previous OSD policy 
regarding redeployment of soldiers of the National Guard and Reserve 
for deployments in excess of 24 months. You stated then that ``the Army 
is incapable of generating and sustaining the required forces to wage 
the global war on terror without its components--Active, Guard and 
Reserve--surging together.'' You indicated that the Active-Duty Army 
``will break'' under the strain of war-zone rotations without change, 
and Secretary Gates changed the policy. In 2004, however, you used your 
``rain barrel'' analogy to argue against added end strength and to make 
the point that the Army was incapable of making good use of its Reserve 
manpower. Please explain to us whether and how the rain barrel was 
emptied.
    General Schoomaker. The purpose of the ``rain barrel'' analogy was 
not to portray a degree of ``emptiness.'' Rather, it was used to show 
how operating force capabilities would be increased over time by 
rebalancing existing structure within the Army's approved end strength. 
Under our original plan, and with the support of Congress, Active 
component end strength would increase temporarily by 30,000 to allow 
that rebalance as we transformed the force to modular designs while 
meeting the operational demands of the war on terror. At the end of 
that transformation period we would have increased the Active component 
operating force from a baseline of 315,000 in fiscal year 2004 to 
355,000 by fiscal year 2011. Along with assured and predicted access to 
the Reserve components, the plan would have reduced stress in high 
demand capabilities, redistributed soldiers to ensure the right mix 
between our operational and institutional forces, and increased overall 
force effectiveness and readiness. The challenge since QDR 2006 is the 
increasing global force demand required by the long war. With demand 
exceeding resources and with limited access to Reserve component forces 
under previous mobilization policies, the impact on Army force 
capabilities was creating ``emptiness'' in the Army's capacity to meet 
that growing demand. The Army's proposed growth, along with new 
mobilization policies, will allow us to curtail that drain on capacity 
and build additional capability to retain the barrel at a safe level.

    101. Senator McCain. General Schoomaker, when did you first realize 
that adhering to the 482,400 end strength mandated by Secretary 
Rumsfeld was unsustainable?
    General Schoomaker. During my testimony to the Commission on 
National Guard and Reserves in December 2006, I first proposed growing 
the size of the Army as a course of action. I did not come to this 
conclusion without first being convinced that all other feasible 
alternatives had been exhausted. Even with 482,400 soldiers in the 
Active component, the Army was growing 30,000 temporarily to meet 
operational demands. Additionally, the Reserve components have become 
an integral part of the deployed Operational Force. The Army depends on 
recurrent access to the Reserve component to ensure integrity of the 
force and to maintain a reasonable dwell time under the ARFORGEN 
construct. Over the last 5 years, and, in particular since QDR 2006, 
the increasing strategic demand of deployed combat brigades and other 
supporting units is placing a strain on the Army's All-Volunteer Force, 
now being tested for the first time in an extended period of conflict. 
The dwell time between deployments for Active Duty units is less than 
the goal of 2 years, and in certain high demand/low density units, the 
dwell time is less than a year. Further, since almost all Reserve 
component units already have been partially or completely mobilized in 
support of the global war on terrorism, current mobilization policies 
and practices require the Army to rely on individual volunteers from 
those units. All this runs counter to the military necessity of 
deploying trained, ready, and cohesive units to meet operational 
demands. The realization is that we needed to make the temporary growth 
permanent and build additional capacity across all three components. If 
today's global demand is indicative of the future demand on our Army to 
provide combatant commanders with a wide range of forces and 
capabilities to prevail in the war on terror, to sustain our global 
commitments, and to build effective multinational coalitions, then we 
must build today to meet these challenges in the future.

    102. Senator McCain. General Schoomaker, what is your assessment 
today of the personnel readiness of the Active Army? What will it take 
to prevent ``breaking'' the Army as you warned about just 3 months ago?
    General Schoomaker. The foundation of personnel readiness in the 
Active Army is sustaining the All-Volunteer Force. The Army has 
continued to achieve its retention mission for the past 9 years. The 
Active Army is ahead of its year-to-date recruiting goal and expects to 
meet its goal for fiscal year 2007. The recruiting environment will 
remain challenging. With continued congressional support of new 
authorities and funding, the Army will meet accession and retention 
goals. To avoid ``breaking the Army,'' the Army is accelerating its end 
strength growth. This will decrease stress on soldiers and families and 
meet future demands. The Army consistently monitors the quality of life 
for soldiers and families and adjusts programs to ensure the All-
Volunteer Force is sustained.

                           military equipment
    103. Senator McCain. Secretary Geren and General Schoomaker, with 
the Army surging larger numbers of troops to Iraq, and given the 
difficulties in meeting equipment requirements for troops already 
deployed, how will the Army cope with the requirement to equip these 
additional units?
    Mr. Geren and General Schoomaker. First and most importantly, we do 
not compromise our standards in force protection for deploying units, 
and the Army has and will continue to meet the requirements of 
deploying forces, including those involved in the surge. The impact of 
sustaining equipment is felt in nondeployed units. For instance, the 
Army is moving UAH between units to ensure pre-deployment training 
requirements are met at home station, while units in theater are 
provided the quantities of UAHs required to perform their missions. The 
Army is addressing this problem by:

          (1) using reset to repair, replace, and recapitalize 
        equipment;
          (2) moving equipment between units to meet training 
        requirements prior to deployment;
          (3) filling requirements from new production; and
          (4) requesting additional funding to purchase needed 
        equipment.

    104. Senator McCain. Secretary Geren and General Schoomaker, how 
will this affect already low levels of nondeploying unit readiness?
    Mr. Geren and General Schoomaker. The current level of demand, 
combined with resource shortfalls, forces the Army to continually shift 
resources from nondeployed forces to sustain those currently in the 
fight. The pace of current operations and our commitment to fully man, 
train, and equip our deploying forces for their assigned missions 
leaves holes in the readiness of our next to deploy units. After years 
of insufficient investment in the Army, many of our units were under-
equipped and not ready for deployment, especially in our Reserve units. 
The low readiness of our nondeployed force impacts our strategic 
flexibility and depth. This practice increases risk in our ability to 
perform other critical missions. Through base and supplemental 
appropriations--we have addressed many of our equipment shortfalls. 
Supplemental appropriations, however, have not enabled the Army to 
recover, as they are intended to pay for the costs of war, principally 
through the purchase of consumable supplies and the replacement of 
battle losses.

    105. Senator McCain. Secretary Geren and General Schoomaker, how 
will this affect Army capability to respond to crises in other areas of 
the world?
    Mr. Geren and General Schoomaker. There are sufficient nondeployed 
units to respond to another major conflict, but the readiness of those 
units may result in longer timelines and increased risk in achieving 
mission success. For homeland defense missions and consequence 
management, there are a specified number of forces tasked and 
maintained in a high state of readiness to respond.

    106. Senator McCain. Secretary Geren and General Schoomaker, given 
steady trends over the last 2 to 3 years of decreasing levels of 
equipment readiness among nondeployed units, what specific equipment 
readiness areas are of the most concern to you?
    Mr. Geren and General Schoomaker. Due to theatre requirements, some 
equipment is unavailable for units to train with prior to deployment. 
The most common shortfall occurs with force protection equipment, where 
equipping solutions are developed to meet specific theatre threats, and 
production of these items go straight into theatre to meet demand. 
These items include: uparmored HMMWVs and medium and heavy trucks, 
armored security vehicles, the RG-31, Buffalo, Husky, Cougar, Counter-
Rocket, Artillery and Mortar and Counter Remote Controlled IED Warfare 
devices. Additionally, kits designed for standard Army equipment to 
increase survivability are also provided only in theatre. These include 
the Bradley and Tank Urban Survivability Kits, Frag Kits, Bradley 
Reactive Armor, and Surface-Launched Air-Targeted Armor for Strykers. 
Some new standard Army equipment is being sent directly to theatre as 
well, with little to none remaining for training units. These items 
include Profiler, Chemical Biological Protective Shelters, Command Post 
of the Future, Tactical Water Purification Systems, and Forward Area 
Water Point Supply Systems. There are also items that are only fielded 
in limited quantities due to new production (a force feasibility review 
reduced number), most importantly Thermal Weapon Sights.

    107. Senator McCain. Secretary Geren and General Schoomaker, how 
has this trend affected your ability to train and equip your deploying 
units?
    Mr. Geren and General Schoomaker. First and most importantly, we do 
not compromise our standards in force protection for deploying units, 
and the Army has, and will continue to meet, the equipping requirements 
of deploying forces, including those involved in the plus-up.
    The impact of sustaining equipment is felt in non-deployed units. 
For instance, the Army is moving Up-armored High Mobility Multipurpose 
Wheeled Vehicles (UAH) between units to ensure pre-deployment training 
requirements are met at home station, while units in theater are 
provided the quantities of UAHs required to perform their missions. The 
Army is addressing this problem by: (1) using reset to repair, replace, 
and recapitalize equipment; (2) moving equipment between units to meet 
training requirements prior to deployment; (3) filling requirements 
from new production; and (4) requesting additional funding to purchase 
needed equipment.

    108. Senator McCain. Secretary Geren and General Schoomaker, how do 
reset efforts address these problems?
    Mr. Geren and General Schoomaker. Reset prevents further erosion of 
readiness of the force and restores equipment to a desired level of 
combat capability commensurate with a unit's future mission. The $17.1 
billion provides the resources to replace, repair, and recapitalize 
equipment for 24 BCTs and support units. Contracts to replace battle 
losses are being put in place during fiscal year 2007, but most of the 
equipment will not be delivered to the Army until fiscal year 2008.
    The reset funding will meet the requirements to properly equip our 
deploying forces, but will not `fix' all equipment shortfalls or 
equipment still committed overseas in support of OIF and OEF.

    109. Senator McCain. Secretary Geren and General Schoomaker, given 
the surge in troop levels, how will the larger troop levels impact 
requirements to rotate equipment from overseas theaters back to the 
United States for reset?
    Mr. Geren and General Schoomaker. The troop plus-up has a modest 
impact on both fiscal years 2007 and 2008 reset plans. Three BCTs that 
were planned to begin reset in the fourth quarter of fiscal year 2007 
will be delayed until the first quarter of fiscal year 2008. Further, 
the plus-up also increases reset requirements in fiscal year 2008 by 
two BCTs. This represents a total increased requirement in fiscal year 
2008 of five BCTs.

    110. Senator McCain. Secretary Geren and General Schoomaker, if 
these rotations cannot occur, how will this impact Service plans to 
execute the funds allocated for reset in fiscal year 2007 and requested 
in fiscal year 2008?
    Mr. Geren and General Schoomaker. To manage the reset process, the 
Army has established a Reset Task Force comprised of staff elements 
throughout the Army Staff. While the Reset Task Force has made some 
adjustments due to extension of units in theater and equipment swaps 
between units, we are still on a glide path to fully execute our fiscal 
year 2007 reset program. Current assessments as a result of the plus-up 
in theater have identified an increase of five BCTs to the fiscal year 
2008 reset plan.
    The fiscal year 2008 global war on terrorism budget request was 
made prior to the current plus-up of forces in theater. The Reset Task 
Force, in coordination with other staff elements, is currently in the 
process of revalidating the fiscal year 2008 reset requirement and will 
make adjustments as necessary.

                  corrosion prevention and mitigation
    111. Senator McCain. Secretary Geren and General Schoomaker, the 
Government Accountability Office (GAO) previously reported that 
corrosion has significant impacts on the cost, readiness, and safety of 
military equipment. Corrosion prevention is considered to be the most 
cost effective way to reduce corrosion and its effects on DOD 
equipment. We understand that DOD and the Services are not doing as 
much as they can in incorporating corrosion prevention planning in many 
of our newest and most expensive weapons systems, despite considerable 
guidance calling for this planning. What are the challenges to having 
more effective corrosion prevention planning and what efforts have been 
taken or are planned to overcome these challenges?
    Mr. Geren and General Schoomaker. The Corrosion Prevention and 
Control (CPC) program has not been funded to develop and execute a plan 
to reduce the cost of corrosion on Army materiel.
    The immediate challenge to having more effective corrosion 
prevention planning is funding. The CPC program submitted a fiscal 
years 2008-2013 Program Objective Memorandum request of $32 million, 
$88 million, $90 million, $29 million, and $108 million. Although $180 
million of that requirement was validated, we have not received funding 
for the program.
    If the CPC program was funded we could execute the plan to reduce 
the cost of corrosion on Army materiel. The planned efforts to overcome 
these challenges include: 1) conduct more comprehensive corrosion 
prevention planning during equipment design, 2) obtain statistically 
significant data that identifies corrosion failure on equipment at the 
parts level, 3) obtain research funding to develop design improvements 
for fielded systems, and 4) obtain Army OMA funding to implement state-
of-the-art preventive maintenance and repair solutions.
    These are the impediments that prevent the Army from improving 
corrosion resistance for Army systems.

                          sheltering equipment
    112. Senator McCain. General Schoomaker, Army propositioning 
equipment in Kuwait is not under shelter, because the buildings that 
were supposed to provide that shelter have been taken for offices for 
U.S. forces stationed there. GAO has reported that this lack of shelter 
invites corrosion and contributes to decreased readiness levels. What 
actions have been taken to provide more shelters for Army equipment?
    General Schoomaker. Most available storage at Camp Arifjan has been 
diverted for other OIF purposes. Other Army Prepositioned Stocks (APS) 
construction projects are either not prioritized, funded, or have other 
(e.g., host nation) issues. A plan for cost-effective shelters and 
facilities for all APS equipment is under evaluation by the U.S. Army 
Materiel Command. The funding identified from this evaluation will be 
requested under MCA projects in the fiscal years 2010-2015 Program 
Objective Memorandum.
    Currently, APS-5 unit sets have been issued and are employed 
supporting the plus-up operations in Afghanistan and Iraq. Use of APS-5 
has repeatedly illustrated the value of the APS strategy. Prior to this 
recent full APS-5 draw, portions have repeatedly been drawn and 
subsequently reset since 2002. A testament to the high operational 
readiness of the APS sets occurred during the August 2006 draw when 
members of the supported task force commented that the equipment drawn 
from APS was better than their own unit equipment. Upon completion of 
the current missions the Army will reconstitute and reset APS to 
support the APS Strategy 2013 restoring the strategic and operational 
responsiveness required by the combatant commands.
    Contingency planning for APS shelter is an ongoing and dynamic 
process. For example, in APS-4 (Northeast Asia), once the new 
maintenance facility is finished in 2007, the humidity controlled 
warehouse currently being used for maintenance will be converted to 
provide 50,000 square feet of controlled humidity storage.

    113. Senator McCain. General Schoomaker, has the Army done a cost-
effectiveness study for acquiring more shelters and if it has, what are 
the results of the study?
    General Schoomaker. The Army has not done a specific cost-
effectiveness study for APS shelters, but relies on other similar 
studies and findings to support APS storage requirements. The June 14, 
2006, GAO report, Additional Measures to Reduce Corrosion of 
Prepostitioned Military Assets Could Achieve Cost Savings, noted the 
Army Cost and Economic Analysis Center study that found the return on 
investment for controlled humidity preservation storage of equipment to 
be 8:1 over 10 years. Mean time between failure for electronics 
improved by 30 percent and cyclic maintenance time was reduced by 50 
percent.
    Presently, all APS watercraft are supported by controlled humidity 
preservation systems, when not undergoing repairs/modifications or on-
condition-cyclic-maintenance. Part of the APS facility requirement plan 
is to prioritize construction of APS storage shelters for the critical 
equipment items that are of high dollar value, reduce expensive 
maintenance cycles, require controlled humidity for corrosion 
prevention, and where readiness rates are increased.

    114. Senator McCain. General Schoomaker, are there any plans to 
acquire sheltering for the rest of the equipment and if not, why?
    General Schoomaker. Presently, requirements for APS facilities 
(storage, maintenance, and other) are being evaluated as part of the 
comprehensive implementation plan for APS Strategy 2013. The employment 
of APS equipment follows the shift in focus for the combatant 
commanders as potential theater threats increase or decrease over time.
    The APS facility strategy is to develop unit set, operational 
project, and sustainment stock maintenance facilities and storage 
(controlled humidity) capabilities at strategic locations and sites 
that support contingency and operations worldwide. The goal is to have 
a fully coordinated ``end-state'' for APS facilities that can be 
executable with major construction funding and leveraging partner 
nation funding where feasible. The comprehensive facility plan aligned 
to the APS Strategy 2013 mission and structure will provide ready 
equipment to Army and Joint force execution authorities.

                             national guard
    115. Senator McCain. Secretary Geren and General Schoomaker, the 
ARNG has been stretched to meet its State and Federal missions. The 
Guard has been neither well-resourced nor, according to the Army staff, 
retained a high level of readiness. Experts in and out of uniform 
report that the National Guard currently faces a severe shortage of 
available equipment in the United States. Should the National Guard 
adopt an equipment modernization program to meet its own unique needs?
    Mr. Geren and General Schoomaker. At this time, the Army has no 
plan to initiate an equipment modernization program devoted to 
requirements found only in the National Guard. The Army uses an 
integrated and synchronized requirements and resourcing process to 
ensure that Army forces are manned, trained, and equipped for their 
mission requirements. Additionally, the ARNG annually receives National 
Guard and Reserve Equipment Appropriation (NGREA) funds directly from 
Congress to address its own unique needs.
    Furthermore, the ARNG leadership is a participant in the Army's 
cyclic requirements and resourcing meetings--such as the Army Campaign 
Plan, the Army Resource and Requirement Board, the Army Requirements 
Oversight Council, the Army System Acquisition Review Council, the Army 
Modular Force General Officer Steering Committee, the Army Equipping 
and Reuse Conference, and the Senior Review Group.
    The Chief of the National Guard Bureau and the Director of the ARNG 
have access to the Secretary of the Army and Chief of Staff of the Army 
to provide input and address issues and decisions affecting the 
organization, manning, equipping, training, and resourcing of the ARNG.
    Since the beginning of the global war on terror, the Department of 
the Army has significantly increased funding for ARNG equipment. We 
have allocated $36 billion over the fiscal years 2005-2013 period to 
equip and modernize the ARNG. This funding will bring the ARNG to 77 
percent equipment on hand by fiscal year 2014. The Army goal is to 
equip all components to 100 percent of the Active component standard. 
If the current funding stream progresses beyond the fiscal years 2008-
2013 POM, this goal could potentially be achieved by 2020.

    116. Senator McCain. Secretary Geren and General Schoomaker, what 
role should the Guard play in homeland defense?
    Mr. Geren and General Schoomaker. In its non-Federalized status, 
the National Guard is controlled by the Governor of the State or 
territory, and as such it works for the Governor, but also supports the 
combatant commander--U.S. Northern Command (NORTHCOM), U.S. Southern 
Command (SOUTHCOM), or U.S. Pacific Command, as specified in the 
supporting plans to that combatant command. In this case, the National 
Guard Bureau works with the combatant command to ensure their homeland 
defense plans facilitate achievement of unity of effort.
    In its Federalized status, the National Guard is controlled by the 
President, and as such it accomplishes homeland defense missions given 
to it by the combatant commander.

    117. Senator McCain. Secretary Geren and General Schoomaker, does 
the ARNG have the equipment and readiness to fill this role?
    Mr. Geren and General Schoomaker. As you are aware, the ARNG is 
experiencing serious equipping and readiness challenges. These 
challenges stem from decades of the ARNG being postured as a strategic 
Reserve. In that capacity, the Army accepted a certain amount of risk. 
The Guard was funded at levels appropriate for a strategic Reserve and 
fully equipped and trained when mobilized for their Federal mission. 
Currently, the ARNG is engaged in a demanding and complex transition to 
an Operational Force. The Guard's equipping and readiness shortfalls 
have been exacerbated by the global war on terror, high operational 
tempo, and the cross-leveling of equipment.
    While the ARNG has a diminished capability to respond to domestic 
emergencies, I am confident they have the capacity required to respond 
to all contingencies. LTG Blum, Chief National Guard Bureau, has stated 
that the issue is not whether the Guard will respond, it is about the 
time it will take to respond. The Guard's response time hinges on 
getting the right mix of people, equipment, and supplies to the right 
place on time.
    The Army and Congress have worked tirelessly to ensure the ARNG's 
equipment requirements are programmed. We are investing approximately 
$36 billion in ARNG equipment from fiscal year 2005 to fiscal year 
2013. The majority of this equipment will have utility for both 
domestic and warfighting missions. In the short-term, the States have 
negotiated Emergency Management Assistance Compacts to provide 
capabilities to each other, if requested. Although the Army is strapped 
for equipment, all components working in concert will support the ARNG 
in its mission of aiding and assisting the States in responding to 
domestic emergencies and homeland defense missions.

    118. Senator McCain. Secretary Geren and General Schoomaker, the 
Army's Stryker BCT concept has been suggested as a model by which to 
equip Guard units. I understand that such a unit exists in the 
Pennsylvania National Guard already. Are there plans to role out more 
Guard Stryker units?
    Mr. Geren and General Schoomaker. The mission of the Stryker was to 
fulfill an immediate requirement in the Army's transformation process 
to equip a strategically and operationally deployable brigade capable 
of rapid movement anywhere in the world in a combat ready 
configuration. The armored wheeled vehicle is designed to enable the 
Stryker Brigade Combat Team (SBCT) to maneuver easily in close and 
urban terrain while providing protection in open terrain.
    The Stryker is an excellent multi-functional platform that is a 
good fit within the ARNG brigade structure. However, the Army has not 
validated or programmed any additional requirements for the ARNG beyond 
the one Stryker brigade stationed in the Pennsylvania National Guard.

    119. Senator McCain. Secretary Geren and General Schoomaker, the 
Commission on the Guard and Reserves has recommended that the Chief of 
the National Guard Bureau be a four-star general and that the Commander 
or Deputy Commander of U.S. NORTHCOM should be an officer of the 
National Guard. Do you agree with those recommendations?
    Mr. Geren and General Schoomaker. The National Guard plays play a 
critical role as warfighters abroad defending our Nation and as the 
military first-responder at home when disaster strikes. The Army 
leadership recognizes this dual role as central to the National Guard's 
place in our Army. The Guard comprises about one third of our total 
force and National Guard soldiers in their local communities form the 
Army's strongest, most direct link to the American people. The Guard's 
expertise, versatility, and connectedness make it a force of choice in 
almost any situation where the Nation calls on its military Services. 
The Army has a vital interest in ensuring that the National Guard is 
trained and equipped to the same level as Active component units.
    The current Joint Chiefs of Staff structure has sustained the Army 
and the ARNG for many decades and that structure has ensured that the 
ARNG was always manned, trained, and equipped for all assigned 
missions. We do not support a change to the current structure that 
would add a four-star National Guard officer to it. With regard to the 
possibility of a National Guard officer being the Deputy Commander of 
NORTHCOM, we fully support and advise the Secretary of Defense to 
appoint the most qualified officers into combatant commander and deputy 
commander positions; there is no reason a National Guard officer could 
not perform in that capacity.

    120. Senator McCain. Secretary Geren and General Schoomaker, what 
about making the Chief of the National Guard Bureau a member of the 
JCS?
    Mr. Geren and General Schoomaker. The proposed change is not 
necessary. It would confuse command and control relationships and line 
of authorities that the Department has formed over the past 20 years 
since Goldwater-Nichols was enacted. The Chief of the National Guard 
Bureau (CNGB) plays a very important role, but he does not have 
responsibilities for organizing, manning, training, and equipping 
forces or for corresponding budget and programming responsibilities. 
All of those functions reside with the Army. While those areas are not 
his primary responsibilities, he does provide input for integration 
into all of them. The CNGB has unfettered access to every key official 
in the DOD and the Army.
    The Chairman of the Joint Chiefs of Staff has two assistants; one 
for the National Guard and one for the Reserve, and they participant in 
matters affecting the Reserve component. The National Guard Bureau 
assigns the Assistant to the Chairman of the Joint Chiefs of Staff for 
National Guard Matters (ACJCS NGM) and that assistant gives advice to 
the Chairman and the Secretary of Defense on National Guard matters on 
a permanent basis. The ACJCS NGM is responsible for providing the 
Chairman with information, advice, and counsel on matters concerning 
the National Guard. It also enhances and facilitates Reserve component 
utilization. Any actions that could affect these responsibilities or 
any issues that could impact the Reserve component must be coordinated 
through the ACJCS NGM.

    121. Senator McCain. Secretary Geren and General Schoomaker, what 
is your view about necessary changes, if any, to the duties of the 
Chief of the National Guard Bureau?
    Mr. Geren and General Schoomaker. The proposed change to the duties 
of the Chief of the National Guard Bureau is not necessary. It would 
confuse command and control relationships and line of authorities that 
the Department has formed over the past 20 years since Goldwater-
Nichols was enacted. The Chief of the National Guard Bureau (CNGB) 
plays a very important role, but does not have responsibilities for 
organizing, manning, training, and equipping forces or for 
corresponding budget and programming responsibilities. All of those 
functions reside with the Army. While those areas are not his primary 
responsibilities, he does provide input for integration into all of 
them. The CNGB has unfettered access to every key official in the DOD 
and the Army.

             detainee treatment and interrogation training
    122. Senator McCain. Secretary Geren and General Schoomaker, the 
Detainee Treatment Act directed that ``No person in the custody or 
under the effective control of the DOD or under detention in a DOD 
facility shall be subject to any treatment or technique of 
interrogation not authorized by and listed in the United States Army 
Field Manual on Intelligence Interrogation.'' In September 2006, the 
Army released the revised manual. How would you assess the training on 
the new field manual?
    Mr. Geren and General Schoomaker. The new field manual, FM 2-22.3, 
Human Intelligence Collector Operations, has been seamlessly integrated 
into Army training. Current training is adequate.
    Combat arms maneuver brigades and associated combat service support 
units normally conduct a CTC rotation prior to deployment. 
Interrogation training at the CTCs incorporates FM 2-22.3.
    In October 2006, the U.S. Army Intelligence Center (USAIC) deployed 
a mobile training team to the Central Command (CENTCOM) Area of 
Operations and trained all senior interrogators on the differences 
between the superseded Field Manual 34-52, Interrogation, and FM 2-
22.3.
    The USAIC, in conjunction with the Army G-2 and U.S. Army Forces 
Command, executes mobile training teams for units preparing for 
deployments, to update and reinforce their training. Training is 
tailored per unit request and addresses FM 2-22.3.
    The USAIC has also revised the Programs of Instruction for 
institutional or classroom training to incorporate lessons learned and 
reflect the expanded doctrinal guidance contained in FM 2-22.3 and the 
provisions of the Detainee Treatment Act.

    123. Senator McCain. Secretary Geren and General Schoomaker, what 
safeguards has the Army established to ensure that detainee abuse at 
Guantanamo and Abu Ghraib will not be repeated?
    Mr. Geren and General Schoomaker. The Army is committed to ensuring 
all of its soldiers live up to the Army values and the law of war, 
regardless of the environment or circumstances, and we are equally 
committed to ensuring that those responsible for detainee abuse are 
held accountable. The Army has established a wide range of safeguards 
to minimize the chance of detainee abuse incidents occurring in the 
future. The Army will also continue to aggressively investigate every 
credible allegation of detainee abuse to fix accountability where 
appropriate.
    The criminals who carried out detainee abuse at Abu Ghraib have 
been held accountable. There have been no substantiated cases of 
detainee abuse by soldiers at Guantanamo.
    The Army has incorporated detainee operations lessons learned into 
training guidance, CTC rotations, training support products, and 
updated institutional training Programs of Instruction. Several 
comprehensive training support packages which cover the full spectrum 
of detainee operations were distributed. We continue to provide mobile 
training teams focused on detainee operations for predeployment 
training and post deployment in theater training. The Army also 
provides detainee operations training for sister Service units, as 
required.
    Our policy never allowed for detainee abuse. We continue to address 
and provide detailed procedures for reporting and investigating even 
suspected abuse. The Abu Ghraib abuses were first reported by a 
soldier. Army leaders involved in theater detainee operations work 
closely with the International Red Cross to ensure they have required 
accessed to detainees and facilities. We also created new force 
structure which greatly enhances detainee operations capability.
    As executive agent for administration of DOD detainee operations 
policy we work across DOD to ensure results of reports and periodic 
inspections and assessments are analyzed across the policy, doctrine, 
organization, training, material, leader development, personnel, and 
facilities spectrum to ensure not only the best conditions, based on 
military necessity, for detainees, but for our service men and women as 
well. The all-Service FM 2-22.3, Human Intelligence Collector 
Operations, was released in September 2006 and the Army is currently 
staffing the revised all-Service policy, AR 190-8, Detainee Operations.

    124. Senator McCain. Secretary Geren and General Schoomaker, is 
detainee treatment sufficiently incorporated into courses of 
instruction at our military schools at all levels?
    Mr. Geren and General Schoomaker. Current detainee treatment 
training is sufficient and provides instruction and practical 
application of principles and policy at all levels of soldier and 
leader responsibility. Changes continue to be made to Programs of 
Instruction (POI) from initial military training to Professional 
Military Education courses based on a wide range of lessons learned. 
Specific changes as a result of detainee operations lessons learned 
have been extensive. The U.S. Army TRADOC has updated and published 
three field manuals (FMs), FM 6-22, Army Leadership; FM 2-22.3, HUMINT 
Collector Operations; and FM 3-19.17, Military Working Dogs; one 
interim manual, FMI 3-63.6, Command and Control of Detainee Operations; 
six student texts related to detainee operations; six training support 
packages for detainee operations; and the Center for Army Lessons 
Learned (CALL) Handbook No. 06-17, Detainee Operations at the Point of 
Capture, Tactics, Techniques, and Procedures, which was published in 
May 2006.
    Individual Entry Training (IET) including basic training and one 
unit station training (OSUT) provides all new soldiers with Law of Land 
Warfare/Rules of Engagement. IET soldiers conduct 43 hours of specific 
detainee operations instruction (roughly 50 percent academic and 50 
percent hands on practical exercises) including the use of role players 
and an 8-hour detainee operations facility culminating exercise.
    Basic Officer Leader Course conducts training on detainee 
operations. Additionally, Officer Intermediate Level Education (ILE) 
was updated in Academic Year 2004-05 to cover detainee operations. ILE 
students have the opportunity to enroll in electives covering detainee 
operations in depth.
    The U.S. Army Military Police School incorporates the humane 
treatment of detainees, pursuant to the internationally accepted 
protocols of the Geneva and Hague Conventions, at all levels of soldier 
and leader responsibility from IET to battalion and brigade pre-command 
courses. The MP School also recently opened a mock internment facility.
    The U.S. Army Intelligence Center and School (USAIC&S) has revised 
programs of instruction to incorporate lessons learned and reflects 
expanded doctrinal guidance contained in FM 2-22.3, Human Intelligence 
Collector Operations, and the provisions of the Detainee Treatment Act 
of 2005. USAIC&S has revised and expanded the Human Intelligence 
Collector Course to 18 weeks with 3 days of lecture and practical 
exercises.
    USAIC has deployed a mobile training team to the CENTCOM Area of 
Operations where they trained and certified all senior interrogators on 
the restricted technique and the differences between the superseded 
Field Manual 34-52, Interrogation, and FM 2-22.3.

                           counterinsurgency
    125. Senator McCain. General Schoomaker, counterinsurgency 
operations, conducted at the squad and platoon level in populated urban 
areas, stress cultural, language, and human intelligence skills over 
technological resources. How will the Army improve these capabilities?
    General Schoomaker. A counterinsurgency campaign is a mix of 
offensive, defensive, and stability operations conducted along multiple 
lines of operations. It requires soldiers to employ a mix of familiar 
combat tasks and skills more often associated with nonmilitary 
agencies. The balance between them depends on the local situation. 
Achieving this balance is not easy. It requires leaders at all levels 
to adjust their approach constantly. They must ensure that their 
soldiers are ready to be greeted with either a handshake or a hand 
grenade while taking on missions only infrequently practiced until 
recently at our CTCs. Soldiers are expected to be nation builders as 
well as warriors. They must be prepared to help reestablish 
institutions and local security forces and assist in rebuilding 
infrastructure and basic services. They must be able to facilitate 
establishing local governance and the rule of law. The list of such 
tasks is long; performing them involves extensive coordination and 
cooperation with many intergovernmental, host-nation, and international 
agencies. We are focused on ensuring our institutional organizations 
(TRADOC schools, centers of excellence, and training centers) provide 
our soldiers the requisite skills to execute our current 
counterinsurgency campaign in Iraq and Afghanistan while simultaneously 
maintaining skills across the full spectrum of combat operations.

     congressional earmarks in army science and technology programs
    126. Senator McCain. Secretary Geren, defense S&T funding lines are 
some of the most heavily earmarked accounts in the defense budget. A 
rough analysis of top-line figures shows that--setting aside the 
Defense Advanced Research Projects Agency which has not traditionally 
been earmarked--the DOD's basic and applied research funding is 
approximately 40 percent earmarked. I am interested in receiving more 
detailed information from the Department and each of the Services about 
the extent and execution--including the military utility--of these 
earmarks. Could you please provide a breakout of the Army fiscal year 
2007 S&T funding between requested programs and congressional earmarks?
    Mr. Geren. Yes. The Army had $1.2 billion in earmarks in fiscal 
year 2007 to the requested budget of $1.7 billion, a 40 percent 
increase over the request. This level of congressional earmarks has 
increased steadily over the past few years. In fiscal year 2003 the 
earmarks to S&T totaled $749 million. Our experience and assessments 
have shown that the majority of these earmarks have had marginal to no 
military utility. The additional appropriation funding has imposed more 
workload on S&T managers, principal investigators, and contracting 
offices. See Attachment.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      

    127. Senator McCain. Secretary Geren, could you include any 
evaluations you have done of the military utility of these projects?
    Mr. Geren. Our experience and assessments have shown that the 
majority of these earmarks have had marginal to no military utility.

    128. Senator McCain. Secretary Geren, does receiving your funding 
for basic and applied research in such a heavily earmarked fashion 
interfere with the Army's ability to conduct a coherent research and 
development program which meets the Army's technology needs?
    Mr. Geren. Yes. The additional earmark workload on S&T managers, 
principal investigators, contracting offices, and resource managers 
reduces the time available to manage the core programs that are vital 
to developing technologies that could enable new warfighting 
capabilities. Further, many of the earmarked efforts fund development 
of technology that is inconsistent with the Army's acquisition and 
warfighting investment strategies.

        urban combat, cultural awareness, and counterinsurgency
    129. Senator McCain. General Schoomaker, we are conducting 
counterinsurgency operations in a city of 6 million people, currently 
rife with sectarian discord. Can you describe the pre-deployment 
training that the brigades deploying to this operation receive?
    General Schoomaker. A unit's training strategy is focused on its 
assigned mission and culminates in a mission rehearsal exercise 
specifically designed to challenge soldiers and leaders with situations 
and conditions similar to those they will face when deployed. Training 
scenarios created for mission rehearsal exercises require units to 
execute complex operations involving multiple missions and requiring 
unit personnel to cope with rapidly changing circumstances. The 
training environment created for mission rehearsal exercises prepares 
units to operate in Iraq and Afghanistan, to include realistic convoy 
live-fire events, simulated IEDs, emphasis on detainee operations, 
dealing with large numbers of civilians in villages and towns for urban 
operations, cultural awareness training, use of interpreters, response 
to media on the battlefield, emphasis on information operations, 
increase medical training and medical rules of engagement, 
synchronizing medical and logistical task forces with the unit, 
counter-insurgency operations, greater use of Army Special Operations 
Forces, and greater use of UAVs. Rigorous mission rehearsal exercises 
are indispensable to preparing units for deployment, especially when 
redeploying within a year. Continued congressional support of Army 
supplemental funding requests is essential for the Army to adequately 
replicate the contemporary operational environment for mission 
rehearsal exercises.

    130. Senator McCain. General Schoomaker, what is the Army doing to 
improve the cultural awareness of its soldiers and leaders in general?
    General Schoomaker. Cultural training is in the curricula of IMT, 
for both officer and enlisted soldiers. The most important training 
conducted in each are the field exercises that challenge soldiers to 
apply what they learn in a realistic setting. The U.S. Army Accessions 
Command (USAAC) has woven cultural challenges into the fabric of the 
training environment so that outcomes are realistic and influenced by 
the use of appropriate tactics.
    The Army has established a TRADOC Culture Center (TCC), at Fort 
Huachuca, Arizona, to provide support to operational units and 
professional military education. The efforts of the TCC and the Defense 
Language Institute Foreign Language Center at Monterey, California, are 
closely coordinated. Culture and language are inherently linked and 
both organizations regularly coordinate training strategies and 
schedules to reduce redundancy, and ensure complimentary instructions.
    Almost one-third of the education provided at the Command and 
General Staff College (CGSC) involves improving the student's cultural 
and regional awareness. The current educational programs and ongoing 
initiatives in the areas of cultural awareness, language training, and 
regional studies address Joint Professional Military Educational 
objectives and the 2005 Defense Language Transformation Roadmap. The 
International Military Student program allows students to interact with 
officers from approximately 90 different countries and each student is 
required to take a regional or religion course elective. The CGSC, in 
collaboration with the Defense Language Institute, requires a language 
elective for students identified for assignments in Iraq and 
Afghanistan. Additionally, officers selected for Military Transition 
Teams in Iraq receive required language coursework in Iraqi Arabic.
    The CTCs are considered the cornerstones of Army training 
readiness. The CTCs further that reputation by providing the most 
realistic training feasible for units scheduled for deployment. The 
training is focused specifically on the area of operation where the 
unit will eventually deploy. To enhance a unit's level of cultural 
competency, the training received in this seminar is sequentially and 
progressively built upon with additional cultural awareness training 
and culminates during the mission rehearsal exercise.
    After action reports are a critical component of all CTC training. 
Feedback from units in theater suggests the training the unit received 
at the CTCs helped to prepare them for eventual operations in theater.

    131. Senator McCain. General Schoomaker, was the urban combat 
training adequate?
    General Schoomaker. Yes, the urban combat training afforded each 
brigade prior to deployment prepares soldiers for urban operations and 
to deal with large numbers of civilians in villages and towns. The Army 
has an extensive inventory of urban training facilities resulting from 
investments made in the 1980s. More recently, as part of a 
comprehensive overhaul of urban training, the Army has been investing 
in urban training facilities since 2002. The strategy to modernize 
urban training facilities began as a study conducted by the U.S. Army 
TRADOC that recommended a minimum, standardized set of facilities to 
enable rigorous, realistic live training in an urban environment. The 
study showed that each combat brigade should have home-station access 
to a shoot house, an urban assault course, and a ``capstone'' training 
facility called a Combined Arms Collective Training Facility (CACTF). 
The CACTF is a small village-like cluster of 12-28 robust building 
shells that enable units to develop and hone urban combat skills. 
Generally, units at company level and below train at home station using 
a shoot house, urban assault course, and CACTF. Brigade-level training 
in urban operations takes place at the CTCs. In cases where full MILCON 
projects are not practical or available, the Army uses inexpensive, low 
maintenance, pre-fabricated training facilities that support many of 
the critical tasks that lead to urban operations proficiency. Overall, 
the Army has a sound, deliberate, and economical program to achieve the 
number of urban training facilities that are needed by fiscal year 
2013.

    132. Senator McCain. General Schoomaker, does the Army have 
sufficient facilities to train for urban combat?
    General Schoomaker. The Army has an extensive inventory of urban 
training facilities resulting from investments made in the 1980s. More 
recently, as part of a comprehensive overhaul of urban training, the 
Army has been investing in urban training facilities since 2002. The 
strategy to modernize urban training facilities began as a study 
conducted by the U.S. Army TRADOC that recommended a minimum, 
standardized set of facilities to enable rigorous, realistic live 
training in an urban environment. The study showed that each combat 
brigade should have home-station access to a shoot house, an urban 
assault course, and a ``capstone'' training facility called a CACTF. 
The CACTF is a small village-like cluster of 12-28 robust building 
shells that enable units to develop and hone urban combat skills. 
Generally, units at company level and below train at home station using 
a shoot house, urban assault course, and CACTF. Brigade-level training 
in urban operations takes place at the CTCs. In cases where full 
military construction projects are not practical or available, the Army 
uses inexpensive, low maintenance, pre-fabricated training facilities 
that support many of the critical tasks that lead to urban operations 
proficiency. Overall, the Army has a sound, deliberate, and economical 
program to achieve the number of urban training facilities that are 
needed by fiscal year 2013.

            soldier-to-soldier combat identification system
    133. Senator McCain. General Schoomaker, are we near fielding a 
soldier-to-soldier combat identification system that could be central 
to reducing incidents of fratricide?
    General Schoomaker. Yes. We have fielded several solutions that 
reduce the risk of soldier-to-soldier fratricide. The Army currently 
fields glow tape patches to all soldiers. The new Army Advanced Combat 
Uniform has built in shoulder glow tape patches with cover flaps that 
aid in identification at night when a soldier is using night vision 
devices. Additionally, the camouflage helmet covers have button holes 
that allow Soldier Combat Identification Helmet Marking System to be 
inserted on the helmet and there are 1-inch square glow tape patches 
for additional uniform attachment for friendly force marking and 
identification. The Joint Combat Identification Marking System (JCIMS) 
includes a Soldier Dismounted Combat Identification Marking System 
(DCIMS)--a helmet cover that provides a negative thermal image when 
seen through thermal devices. The DCIMS is under consideration for 
deployment. There are 230 Land Warrior (LW) and 133 Mounted Warrior 
(MW) systems being deployed with the 4th Battalion, and the 9th 
Infantry Battalion under the 4th Stryker BCT. Both LW and MW systems 
provide enhanced soldier Situational Awareness (SA) along with 
networked communications. The results of this deployment will be looked 
at closely for its impact on the operational environment, to include 
anti-fratricide. Currently, this program is unfunded beyond 2007.
    Additionally, with very limited funds, we are currently engaged in 
several research related areas relative to soldier anti-fratricide:
          a. The Integrated Battlespace-Combat SA System program is in 
        its final stage investigating Position Navigation and Geometric 
        Pairing to provide more accurate soldier positions in urban 
        environments.
          b. Radio-based combat identification where there is a soldier 
        based query (radio frequency or laser based) of a region (or 
        individual) and a radio response is under investigation with 
        limited funding through fiscal year 2008. Additionally, the 
        examination of rifle-mounted active radio frequency tags is 
        underway.
          c. We continue to improve range and resolution of existing 
        sensors and optics. We have been leveraging limited funding 
        resources under a Phase I Small Business Innovation Research 
        project and have proposals submitted into the Defense 
        Acquisition Challenge Program to leverage and accelerate this 
        range identification technology to the soldier in the field. 
        Ideally, a soldier should be able to identify a potential 
        target at 1.5 times the maximum effective range of his weapon.

                           officer attrition
    134. Senator McCain. General Schoomaker, for the last few years, 
Army leaders have testified that retention of soldiers is strong both 
in the Active component and Reserve component. We're hearing now 
reports about an exodus of company grade officers who have reached the 
end of their obligated service and, effectively, 100 percent selections 
for promotion to captain, major, and lieutenant colonel. Some military 
analysts worry that the rush to promote officers may be lowering the 
overall quality of the officer corps. What can you tell us about mid-
grade and junior officer attrition?
    General Schoomaker. The Army Competitive Category (ACC) mid-grade 
officers serving in the rank of major have a 10-year historical average 
attrition rate of 5.9 percent. The projected ACC major attrition rate 
for fiscal year 2007 is below average at 5.0 percent. The ACC company-
grade historical average attrition rate following the drawdown period 
and prior to September 11, 2001 (fiscal years 1995-2001) was 9.0 
percent. The ACC company-grade average attrition rate from fiscal years 
2004-2006 was 8.3 percent. The projected ACC company-grade attrition 
rate for fiscal year 2007 is 8.5 percent which is slightly up from 8.1 
percent in fiscal year 2006. The attached chart provides specific 
numbers for company/field grade losses.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    135. Senator McCain. General Schoomaker, what were the rates of 
promotion to major and lieutenant colonel last year?
    General Schoomaker. There were two promotion boards during fiscal 
year 2006 for the rank of major due to reducing the pin-on time to 
major from 11 to 10 years in service. The promotion rate for majors in 
the primary zone in April 2006 was 97.1 percent. The promotion rate for 
majors in the primary zone in September 2006 was 98.0 percent. The 
promotion rate for lieutenant colonels in the primary zone for fiscal 
year 2006 was 90.9 percent.

    136. Senator McCain. General Schoomaker, is this something that 
concerns you?
    General Schoomaker. Promotion rates reflect the needs of the Army. 
The Army is committed to maintaining a quality force and will not 
compromise its standards for promotion selection.

    137. Senator McCain. General Schoomaker, while the ARFORGEN process 
may serve to identify units and personnel who will deploy to Iraq and 
Afghanistan, do you believe career officers and NCOs in general are 
ready in all respects for repeated tours of duty in the war zone?
    General Schoomaker. Yes, career officers and NCOs are more ready 
for repeated deployments than ever before. Army leaders understand that 
the Army is engaged in this prolonged war that will continue for 
sometime. These leaders have made a conscious decision to continue to 
serve their country and through experience of previous deployments, 
lessons learned, pre-deployment training, the latest equipment, and an 
increased emphasis on ensuring families are taken care of; our leaders 
are ready.
    The Army does everything it can to ensure our soldiers and leaders 
are prepared for the environment they will encounter in theater. As our 
leaders go on more deployments, they gain more experience. They gain a 
richer understanding of the culture and other challenges faced in this 
region. Understanding the culture and being able to interact with the 
people and their leaders (mayors, police, and local army) makes a 
significant difference in our success in counterinsurgency war. 
Experience counts for a lot in readiness.
    Mission and theater focused training is executed through a series 
of key training events prior to deployment. Commanders use this 
training program to continuously assess and validate their units' 
readiness for the assigned mission. This training includes but is not 
limited to:

         Mission-focused individual, battlestaff, and collective 
        training at home station.
         Battle command training seminars for BCTs.
         A CTC supported maneuver mission rehearsal exercise for BCTs.
         Collective training event(s) for non-BCT units.
         A full regimen of final preparatory training in Kuwait before 
        moving into combat.

    Prior to deployment, individual soldiers are trained in warrior 
tasks and battle drills, counter-IED, anti-terrorism awareness, media 
awareness, specific first aid tasks, combat life saving, detainee 
operations, basic language, and short-range marksmanship. Leaders must 
also be proficient in cultural awareness, interpreter operations, 
convoy operations, urban operations, risk management, traffic control 
supervision, and counter-IED (leader response).

                compensation for insufficient dwell time
    138. Senator McCain. Secretary Geren and General Schoomaker, in 
January, when announcing changes to policies affecting deployments of 
soldiers, Secretary Gates stated that the Department would offer 
financial compensation for those whose ``dwell time,'' or time at home 
station, did not meet certain prescribed standards. What is your 
understanding of the status of that pay policy change?
    Mr. Geren and General Schoomaker. In January the Secretary of 
Defense announced new force utilization goals and directed a 
compensation program be developed. The Chairman of the Joint Chiefs, 
the Service Chiefs of Staff, and Service Secretaries have been working 
with the OSD in developing a program that is flexible and meets the 
needs of each Service. At this time, a final program has not been 
developed.

    139. Senator McCain. Secretary Geren and General Schoomaker, do you 
think that soldiers should be compensated with additional payments 
every time an operational necessity requires deployment of additional 
troops?
    Mr. Geren and General Schoomaker. With the nature of today's 
expeditionary force we think it is important to recognize the changing 
global environment and increased pace of operations our soldiers are 
experiencing throughout their career. The global war on terrorism will 
be a long fight and soldiers can expect to be engaged in that fight 
potentially over the course of their career. It may very well be time 
to use a compensation program that rewards the experience gained in 
multiple deployments or mobilizations and provides an incentive to 
volunteer for duty with a deploying unit. A tool tailored to achieve 
these goals would be predictable, and recognizes the dedication and 
commitment our soldiers display.

    140. Senator McCain. Secretary Geren and General Schoomaker, do you 
think this ``sweetener'' to repeal of the 24-month policy is necessary?
    Mr. Geren and General Schoomaker. The Army in coordination with the 
other Services and the OSD is prepared to address any additional 
actions necessary to ensure we are capable of meeting our operational 
mission. Should that mean developing new policies in support of 
utilization of total force goals, then we would certainly consider all 
available resources and alternatives to accomplish these goals.

                     contractors on the battlefield
    141. Senator McCain. Secretary Geren and General Schoomaker, more 
and more of the DOD's maintenance and support functions are outsourced. 
These ``contractor logistics support'' agreements have resulted in the 
deployment and employment of civilian contractors in combat areas. What 
problems have emerged for the Department as a result of increased 
numbers of contractors on the battlefield?
    Mr. Geren and General Schoomaker. Accounting for the number of 
contractors on the battlefield emerged as a significant challenge 
because there was no single personnel system used by all Services and 
even within the Services, tactical-level personnel systems use by the 
military either did not accept data on contractors or those systems did 
not feed into operational personnel systems.
    In January 2007, the Synchronized Pre-deployment and Operational 
Tracker (SPOT) was designated by the Office of the Under Secretary of 
Defense for Personnel and Readiness (OUSD (P&R)) in coordination with 
the Office of the Under Secretary of Defense for Acquisition Technology 
and Logistics (OUSD (AT&L)) as the Joint Solution required by DOD 
Instruction 3020.41. This tracker is essentially a joint database to 
provide visibility over all contractor support to deployed forces, 
including a summary of services or capabilities provided and by-name 
accountability of contractors. On January 29, 2007, the Army published 
an All Army Activity message directing the use of SPOT and DOD is 
preparing a joint-level directive for its use as the designated 
enterprise system. In addition, an update to Defense Federal 
Acquisition Regulation Supplement Clause 252.225-7040 has been approved 
specifically naming SPOT for use in all Department contracts when 
contractors accompany the U.S. Armed Forces.
    Prior to the January 2007, designation of SPOT as the Department 
contractor personnel tracking system, the Department initiated the 
requirement for U.S. CENTCOM to conduct quarterly contractor census in 
2005. Census numbers reside with the Office of the Assistant Deputy 
Under Secretary of Defense for Program Support, where they are received 
on a quarterly basis.
    The goal for the Department and Coalition Force Land Component 
Command (CFLCC) was to gain total accountability over contractor 
personnel deployed and contractor capabilities resident within Iraq. A 
total of 128,888 contractor personnel in Iraq were reported in the most 
recent April 2007 census. The next quarterly census will provide the 
number of contractors in every country CFLCC conducts operations, to 
include Afghanistan. The DOD, Department of State, and U.S. Agency for 
International Development (USAID) have held a number of meetings the 
past few months to discuss whether State and USAID can also incorporate 
the SPOT system into their contract management process. The three 
agencies are currently exploring technical and logistical issues with 
using a common database for all three agencies.

    142. Senator McCain. Secretary Geren and General Schoomaker, do you 
support the DOD's initiative to review 300,000 DOD positions which 
could result in shifting logistics billets and other functions, such as 
civil affairs, away from uniformed personnel and into the civil service 
and private sector for potential outsourcing?
    Mr. Geren and General Schoomaker. DOD Instruction (DODI) 1100.22, 
Guidance for Determining Workforce Mix, implements DOD policy for 
determining the appropriate mix of military, civilian, and private 
sector manpower. The guidance specifies the criteria for designating 
DOD activities for military, civilian, or private sector performance. 
The policy designates activities for military performance when military 
incumbency is required by law, executive order, treaty, or other 
international agreements; for command and control of crisis situations; 
to maintain combat readiness or esprit de corps; to mitigate 
operational risk; when unique military knowledge or skill are required 
for successful completion of duties; or to maintain sufficient military 
manpower for rotation, career progression, or wartime assignments. In 
April 2007 the Army completed an annual inventory of inherently 
governmental and commercial activities. All military billets were 
evaluated with the DODI 1100.22 manpower mix criteria. All military 
billets in the Operational Force were coded for military performance. 
The 300,000 figure was simply based on an analysis performed in 1998 of 
military occupational specialties mapped to civilian skills. It is the 
number of military billets initially identified for review for possible 
conversion. Military positions are not identified for conversion if 
they are required for reasons stated above or if sufficient numbers of 
fully trained and qualified civilians are not available to perform the 
duties.

    143. Senator McCain. Secretary Geren and General Schoomaker, the 
extraordinary number of civilian contractors performing what were 
previously military duties, like security, has raised public concerns. 
Do commanders on the ground have sufficient oversight of civilian 
contractors who support them?
    Mr. Geren and General Schoomaker. Within the last 20 years, Army 
functions traditionally performed by soldiers have migrated to 
contractors. Examples of such functions include services for security 
guards, food service/dining facilities, and information technology (IT) 
automation. Motor pools, as well as soldier mechanics, are vanishing, 
and vehicle maintenance is being performed via service contracts and 
vehicle leasing (with maintenance performed by the contractor). All of 
these contracts require verification of services performed by a 
Government Contracting Officer's Representative (COR).
    The Army does not have enough contracting officers/contract 
administrators to provide the required level of contract administration 
on large contracts. These acquisition professionals are attempting to 
meet daily contract mission requirements and training the ever changing 
CORs who are normally in theater on deployments ranging anywhere from 4 
months to 1 year. On occasion, this has resulted in CORs who are not 
adequately trained to perform surveillance on their respective 
contracts.
    The number of unit-level COR personnel is normally adequate for the 
large contracts, but the high turnover of personnel in theater presents 
a constant challenge of training/appointing new CORs. Many have not 
completed the formal COR course offered by the Defense Acquisition 
University (DAU). Additionally, some COR duties require unique skill 
sets and training. For example, military occupational specialty, 92G 
(Food Service Specialist) is tracked and managed separately to ensure 
that a sufficient quantity of trained personnel are available to 
provide oversight for important dining facility contracts. Another 
problem is that being appointed as a COR in a unit is often an 
additional duty and is not normally someone's major function or sole 
position. This has resulted in COR duties not being given the attention 
they deserve which can impede performance. To help remedy this concern, 
the Deputy Assistant Secretary of the Army for Policy and Procurement 
issued a policy memorandum on February 9, 2007, titled ``Contract 
Administration and Surveillance for Service Contracts'' to all Army 
contracting offices. This policy memorandum requires the appointment of 
properly trained CORs, the preparation of Quality Assurance 
Surveillance Plans (QASPs), and requires COR's contributions to be 
included in their annual performance reviews in accordance with DOD 
policy.

    144. Senator McCain. Secretary Geren and General Schoomaker, does 
the Army have sufficient numbers of contracting officers, including in 
the field, to properly oversee the execution of contracts?
    Mr. Geren and General Schoomaker. Currently, there are 5,563 
contract specialists/contracting officers within the Army of which over 
500 are in non-contracting offices. This number is expected to decrease 
to 3,472 by 2011. This projected loss is due to retirement and 
attrition (migration to private industry, BRActive component actions, 
regional hiring difficulties due to lack of PCS funding, et cetera). 
Since 1995, the workforce numbers have decreased by 53 percent, while 
the workload actions have increased by 278 percent. The decrease in 
career field 1102s has resulted in a lack of contract administration 
(which has been validated by several outside audits), and a lack of 
contract planning. New hires (1102s) of 418 per year would result in 0 
percent growth over the next 5 years and new hires (1102s) of 529 per 
year would result in 10 percent growth over the next 5 years.
    The shortage is particularly severe for the Army's population of 
285 military contracting officers who support operations in Iraq and 
Afghanistan. The Army, along with the other military services, has been 
unable to provide the total number of Level II and III certified 
military contracting officers requested by commanders in Iraq and 
Afghanistan. This shortage is also evident within the Defense Contract 
Management Agency which, on a few occasions, was forced to turn down 
requests from the Army for the administration for theater support 
contracts citing a lack of resources.
    The small number of civilian and military contracting personnel is 
compounded by the fact that the contracting career field requires 
several years of training and experience to develop the business acumen 
necessary to craft contract arrangements and to negotiate the best 
interests of the United States Government when dealing with industry. 
Moreover, losses of senior contracting personnel result in fewer 
experienced trainers to acclimate and mentor the increasingly junior 
workforce in the business of Army contracting.

    145. Senator McCain. Secretary Geren and General Schoomaker, will 
an FCS-equipped brigade be able to maintain itself in the field without 
attached civilian contractors?
    Mr. Geren and General Schoomaker. The Program Manager, FCS intends 
to comply with the maintenance concept outlined by the FCS ORD, which 
does not require the use of contractor personnel below the Corps/
Division level except for scheduled services and unique troubleshooting 
situations. All field maintenance will be performed by the crew (80 
percent) and the combat repair team mechanics (20 percent).

         gap in army chemical and biological unit preparedness
    146. Senator McCain. Secretary Geren and General Schoomaker, 
according to a January 2007 report by the GAO, ``most Army units tasked 
with providing chemical and biological defense support are not 
adequately staffed, equipped, or trained to perform their missions.'' 
The report goes on to say that as of March 2006, ``most of the Army's 
chemical companies, particularly in the National Guard and Reserve, 
were reporting the two lowest states of readiness measured by the 
Army's Unit Status Reporting System.'' Moreover, ``Army chemical 
companies reporting the lowest levels of readiness doubled from 2000 to 
2006.'' Finally, the GAO reports that ``the absence of a plan to 
address the personnel and equipment shortfalls that are primarily 
responsible for these readiness problems makes it unclear whether and 
when these problems will be corrected.'' Would chemical and biological 
defense not be available in the event of a mass casualty weapons of 
mass destruction (WMD) attack at home?
    Mr. Geren and General Schoomaker. Chemical and biological defense 
would be available in the event of a WMD attack at home. The Army has 
completed certification of 45 of 55 WMD Civil Support Teams (CST) in 
the National Guard of each state and territory. Additionally, the 
National Guard is providing one of the three planned chemical, 
biological, radiological, or nuclear explosive consequence management 
forces for domestic emergencies.
    To improve training and equipping, the U.S. Army Chemical School 
provides training on increased emphasis of full spectrum chemical, 
biological, radiological, or nuclear explosive (CBRNE) hazards and 
operations and emergency response competencies. Additionally, new 
equipment, the Joint Service Transportable Decontamination System-Small 
Scale, will provide operational and thorough decontamination of 
equipment, aircraft, facilities, shelters, surface areas, and terrain. 
When fielded, the system will replace existing decontamination systems 
and provide enhanced decontamination capabilities for chemical units.

    147. Senator McCain. Secretary Geren and General Schoomaker, would 
you comment on GAO's assessment and, if it is correct, explain how the 
Army plans to restore the readiness levels of these important chem-bio 
units?
    Mr. Geren and General Schoomaker. The GAO assessment is generally 
accurate. To improve readiness assessments, in October 2006, the Army 
implemented the Defense Readiness Reporting System-Army (DRRS-A). Among 
other improvements, this system will allow commanders to evaluate their 
unit's ability to execute defined mission essential tasks (METs). Such 
METs are being identified and incorporated for units with homeland 
defense missions. This will allow the Army greater visibility on 
chemical units' ability to support the Joint Force Commander executing 
WMD related homeland defense missions. Additionally, the U.S. Army 
Chemical School provides training on increased emphasis of full 
spectrum CBRNE hazards and operations and emergency response 
competencies. Finally, new equipment, the Joint Service Transportable 
Decontamination System-Small Scale, will provide operational and 
thorough decontamination of equipment, aircraft, facilities, shelters, 
surface areas, and terrain. When fielded, the system will replace 
existing decontamination systems and provide enhanced decontamination 
capabilities for chemical units.

              funds for the sustainment of army facilities
    148. Senator McCain. General Schoomaker, in your testimony to our 
committee last week about out-patient care at Walter Reed Army Medical 
Center, you responded to a question about the causes of the deplorable 
conditions at Building 18 by noting that historically in the Army ``You 
can find years where we are funding maintenance at less than 50 percent 
of what was required.'' In fiscal year 2008, the Army has proposed a 
budget that only funds 86 percent of facility sustainment requirement, 
as opposed to the 100 percent goal established by the DOD. My concern 
is that this chronic underfunding of facility sustainment accounts has 
resulted in similar deteriorated facility conditions in barracks and 
working facilities around the Army. What is your assessment of the 
general condition of living facilities for our soldiers?
    General Schoomaker. Each year since 2002, the Army's Installation 
Status Report has reported a steady improvement in the quality of 
enlisted unaccompanied personal housing throughout the Army. From 
fiscal year 2005 to 2006, the percentage of barrack spaces receiving 
the lowest ratings decreased from 33 to 26 percent. These improvements 
are a direct result of the Army barracks modernization program that has 
been steadily improving barracks quality. Barracks continue to be a top 
priority in the overall facilities sustainment funding strategy.
    In fiscal year 2005, the Barracks Improvement Program was executed 
to correct life, health, and safety deficiencies in 339 permanent party 
barracks and improve the living conditions for 40,000 soldier spaces. 
In fiscal year 2006, the Training Barracks Improvement Program executed 
40 projects to correct life, health, and safety deficiencies in 148 
trainee barracks and improve the living conditions for 80,000 soldiers 
in trainee barracks world wide. That program is continuing today. In 
fiscal year 2007, the Army funded the Training Barracks Upgrade 
Program, which will modernize 19 barracks facilities this year.

    149. Senator McCain. General Schoomaker, in your view, are we 
spending enough money on facilities to ensure our soldiers have safe 
and adequate facilities to live and work? If not, is the Army committed 
in fiscal years 2007 and 2008 to making adjustments in the operations 
and maintenance accounts to increase funding for barracks and other 
critical facilities?
    General Schoomaker. Our soldiers have safe and adequate facilities 
to live and work, but we are not able to spend as much money on their 
facilities as we would like due to the numerous competing initiatives 
for scarce resources while also at war. In fiscal year 2006, the Active 
component stopped migrating facility sustainment dollars to Base 
Operations Support that had prevailed for many years. Our goal is to 
also end this practice in the Reserve components as well. Nonetheless, 
decades of underfunding facility sustainment have taken its toll, and 
we have much work to do to bring facilities up to where they should be.
    In fiscal year 2008, the Army is requesting 86 percent of the OSD 
Facilities Sustainment Model, but is committed to achieve 90 percent 
through efficiencies. Where year-end execution permits, we will shift 
funding to critical facilities.

              facility requirements for ``grow the force''
    150. Senator McCain. Secretary Geren, the President's budget 
request for fiscal year 2008 includes an authorization for military 
construction of $1.6 billion as the first installment of a multi-year 
program to provide facilities and barracks for an additional 65,000 
soldiers over the next 5 years. Very little detail is provided in the 
budget request beyond this statement. Since we do not historically 
offer vague authorizations for these type of investments, when will the 
Army come forward with details about the proposed locations of these 
forces, the specific facility projects required, and an estimate of the 
total investment required to support the increase in force structure?
    Mr. Geren. The Army will provide budget details by the end of March 
2007 for the fiscal year 2008 projects. After gathering and analyzing a 
full set of data to support stationing decisions this fall, the Army 
expects to provide proposed locations of forces by the end of the year.

    151. Senator McCain. Secretary Geren, how will your planning for 
the increase in force structure affect current plans for the Army's 
transformation to modular brigades, the Defense BRActive component 
Round, and the Global Posture Review?
    Mr. Geren. The Army is executing a tightly-woven, operationally-
synchronized stationing plan that integrates BRActive component, Global 
Defense Posture Realignment (GDPR), and Modular Transformation to 
posture the force for the long war, consolidate institutional functions 
to improve effectiveness, provide infrastructure necessary to grow the 
force, while meeting the high rotational demand for forces. While 
growing the force will increase operational capability and bring 
additive requirements, BRActive component, GDPR, and Modular 
Transformation will remain critical to fighting the global war on 
terrorism, ensuring soldier and family quality of life, and meeting the 
increased operational demands for the Army.

    152. Senator McCain. Secretary Geren, do you anticipate a need to 
reevaluate past decisions related to the reductions of installations 
and Army presence in Europe or Korea?
    Mr. Geren. The Army will conduct analysis and modeling using the 
BRActive component ``best military value'' to evaluate installations 
for their capacity to station, train, and provide quality of life for 
the increased forces associated with Army growth. The growth initiative 
will rely on existing facilities and installations in Europe and Korea 
to support increased forces and will not require revisiting past 
reductions of installations and Army presence in Europe and Korea.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
   realignment of department of defense supply and storage functions
    153. Senator Sessions. Secretary Geren, on February 9, 2007, the 
Under Secretary of Defense, Kenneth Krieg, directed the Army and the 
Director of the Defense Logistics Agency (DLA) to reach an agreement 
regarding realignment of the DOD supply and storage functions. This 
mandate instructed the Army and the DLA to reach an agreement within 45 
days. Many of us are concerned that a transition at this time is 
detrimental to the efficiency of the Army during the reset process. Is 
this assumption correct? If so, would you explain the Army's position 
on this issue?
    Mr. Geren. The realignment of supply, storage, and distribution 
functions at Army maintenance depots should not be detrimental to the 
efficiency of the Army during the reset process. The realignment 
requires an ``in-place'' transfer of functions and personnel to DLA, 
which means the same function will continue being performed, by the 
same workers, and in the same locations. Mr. Krieg's mandate required 
resolving differences between the Army and DLA on which specific 
functions should transfer, and to do so in 45 days. The actual transfer 
of these functions is not currently planned to occur until fiscal year 
2011.

    154. Senator Sessions. Secretary Geren, would a delay in the 
implementation of this policy until after the immediate challenge of 
the reset are completed address the Army's concerns on this issue?
    Mr. Geren. A delay in the implementation of this functional 
realignment is unnecessary because the Army feels that there will be no 
impacts on efficiency during the reset process. Additionally, 
implementation of this realignment at Army depots is not scheduled to 
occur until fiscal year 2011.

    155. Senator Sessions. Secretary Geren, how does the surge in Iraq 
impact the reset plan?
    Mr. Geren. The surge will result in a requirement to reset more 
equipment in fiscal year 2008 than originally planned. The Army's 
organic depots have ramped up their civilian and contractor workforce 
to reduce the previous year maintenance backlogs and to execute the 
current year reset requirements. The Army's depots are postured to 
accomplish the additional equipment reset requirements that will 
generate due to the surge.

air force as the executive agency for medium and high-altitude unmanned 
                            aerial vehicles
    156. Senator Sessions. Secretary Geren and General Schoomaker, the 
recent March 5 letter from the Chief of Staff of the Air Force, General 
Moseley, indicates the Air Force's interest in being the executive 
agency for medium and high-altitude UAVs. However, I am aware of the 
Army's well-established interest in the continuation of research and 
development of UAVs. What is the Army's position regarding this issue?
    Mr. Geren and General Schoomaker. The Army does not support a 
single Service executive agent for medium and high-altitude UAVs. The 
Army recommends the OSD uphold the 2005 decision to use the JUAS MRB 
and the JUAS COE in lieu of a single Service executive agent. The JUAS 
MRB and the JUAS COE can and will work and achieve the Air Force's 
executive agency goals. With full support, these organizations will 
enable full joint Service buy-in and resolution of issues. 
Additionally, to continue the research and development of UAS and meet 
the DOD's UAS requirements, we must create an environment of 
competition within industry. Competition promotes innovation, 
challenges industry to achieve a higher level of technological 
achievement, and spurs investment. The Army, Navy, Marine Corps, and 
Special Operations Forces have all benefited from competitively 
selected solutions and are already sharing UAS training, logistics, and 
systems development in three formal programs. The DOD should continue 
on its present course of developing inclusive, synergistic 
complementary capabilities to fuse the contributions of each Service.

    157. Senator Sessions. Secretary Geren and General Schoomaker, can 
the Air Force effectively control medium- and high-altitude UAVs, and 
provide timely support to the warfighter?
    Mr. Geren and General Schoomaker. Four years of combat operations 
in Iraq and Afghanistan reinforce the need to maximize all elements of 
combat power at the tactical level. The Army and Marine Corps have 
demonstrated the decisive benefits of employing UAS at the tactical 
level in concert with other air and ground systems to enable greater 
lethality, while reducing fratricide and collateral damage. Examples 
include: Warrior Alpha, Shadow, Raven, Apache, Kiowa, Aerial 
Reconnaissance Multi-System, and Constant Hawk. These systems need to 
remain in the tactical formations where they are most useful to our 
warfighters. The UASs perform distinct and unique roles and missions 
for the Services depending on their echelon and purpose of employment.
    Operations at the tactical level of war, in a distributed and 
dispersed non-contiguous environment, demand responsive UAS capability 
at division, brigade and battalion levels. Tactical-echelon battle 
captains are responsible for integrating all types of Army multi-
mission UAS systems to fully enable combat missions such as 
Intelligence, Surveillance, Reconnaissance, and Target Acquisition, 
communications relay, and manned-unmanned teaming with weaponized 
systems.
    At the strategic and operational levels of war, Joint and Theater 
Commanders shape the battlespace through deliberate planning afforded 
by time. As the Air Force memo explains, the UAS contribution at this 
level can be allocated to supporting activities such as ISR.

    158. Senator Sessions. Secretary Geren and General Schoomaker, do 
you believe the Army's interests will be fully represented if the Air 
Force is the executive agency of this program?
    Mr. Geren and General Schoomaker. The Army does not believe that 
the Army's UAS requirements will be fully represented if the Air Force 
is the executive agency for this program. The Army therefore recommends 
the OSD uphold the 2005 decision to use the JUAS MRB and the JUAS COE 
in lieu of a single Service executive agent. The JUAS MRB and the JUAS 
COE can and will work and achieve the Air Force's executive agency 
goals. With full support, these organizations will enable full joint 
service buy-in and resolution of issues.
                                 ______
                                 
              Questions Submitted by Senator Mel Martinez
                 funding the army end strength increase
    159. Senator Martinez. Secretary Geren, I was pleased to see the 
President propose an end strength increase for the Army (65,000 Active 
Duty soldier increase over 5 years) and I fully support that increase. 
Can you estimate how much will the first installment of that increase 
(7,000 troops) cost for fiscal year 2008 and how much it will cost over 
time?
    Mr. Geren. The incremental cost for the first installment of 7,000 
soldiers totals $630.4 million for pay and allowances. The estimated 
cost of pay and allowances for the 65,000 increase through fiscal year 
2013 is $24.7 billion.

    160. Senator Martinez. Secretary Geren, will this be funded from 
the Army's top line--or will the Army budget be increased to fund the 
increase?
    Mr. Geren. The Army budget received an increase to its topline to 
fund the pay and allowances to support the Active Army's end strength 
growth through fiscal year 2013.

     readiness of army reserve and army national guard force forces
    161. Senator Martinez. Secretary Geren, I am concerned about the 
state of both the Army Reserve and the ARNG. They must be properly 
resourced and that is a challenge in a constrained budget environment. 
The demands on both the Guard and Army Reserves have greatly expanded 
since September 11. The National Guard is deploying worldwide at a 
demanding pace, while playing an absolutely critical role in assisting 
our States meet their homeland security and natural disaster 
requirements. We know that this deployment pace means that we are 
incurring increasing risk. I know the Army is undergoing a shift of how 
the Reserve components are structured--our Reserve and ARNG Forces are 
being severely tested. Are there more legislative and/or policy changes 
needed in the way we can structure, resource, and use our Guard or 
Reserves?
    Mr. Geren. The Army is committed to resourcing the Reserve 
component at 100 percent of their documented authorizations with 
available resources. The Army has just finished a collaborative 
reorganization of the Active component and Reserve component to meet 
the operational needs of a nation at war and to posture ourselves to 
meet the future security needs of America. Additionally, the Army is 
implementing recent policy changes from the OSD to redefine the use of 
the Reserve component. Both the Army reorganization and the Defense 
policy changes will provide an Army ready to answer the requirements of 
this Nation. We are currently working to identify future training and 
equipping requirements for the Reserve component.

    162. Senator Martinez. Secretary Geren, I also understand that in 
an effort to reduce mobilization time and enhance preparation for 
combat deployments, more National Guard and Reserve training will be 
done at home station--before they get to a mobilization center. Does 
this fiscal year 2008 budget request include sufficient funding for 
State Adjutants General to do this home station training?
    Mr. Geren. The DOD recently revised its policy with respect to the 
mobilization of ARNG and Reserve Forces for service in contingency 
operations. Previously, ARNG units would spend 18 months or longer in a 
mobilized status in order to serve approximately 12 months of boots-on-
the-ground in theater. The extra 6 months or more of mobilized time was 
consumed primarily by individual and collective training that took 
place at the mobilization station prior to overseas deployment. The 
policy change now limits the mobilized time to no more than 12 months 
per specific contingency operation.
    The Army supports what is allocated in the fiscal year 2008 
President's budget. The new mobilization policy was enacted after the 
submission of the President's budget; therefore, the ARNG pre-
mobilization training requirements were not included. Current fiscal 
year 2008 budget funding levels allow National Guard units to achieve 
the minimal training requirement for a peacetime force. This is a risk 
that is no longer acceptable for an Operational Force. Resourcing for 
pre-mobilization training is essential to ensure trained and ready 
units prior to official mobilization dates. ARNG units conducting pre-
mobilization training in fiscal year 2008 are associated with fiscal 
year 2009/fiscal year 2010 rotations. The basic calculations include 
additional Inactive Duty for Training, Annual Training, and Active Duty 
for Training days, plus supporting operational tempo and associated 
operations and maintenance costs. These costs are considered global war 
on terrorism expenses for fiscal year 2008. The Army is updating its 
supplemental request to reflect these new requirements.

    163. Senator Martinez. Secretary Geren, will there need to be a 
further reallocation of funding to support this shift of responsibility 
to the States and regions?
    Mr. Geren. Funding for the recent change of the mobilization policy 
for the Reserve component will require some reallocation of funding. At 
this time, the Army is working with the ARNG and Army Reserve to 
determine what the fiscal year 2008 requirement will be to implement 
this policy. Previously, the majority of training was performed post 
mobilization and funded through Active component appropriations. The 
new policy will require training to be performed prior to actual 
mobilization. A reallocation of funding to the Reserve component 
appropriations may be needed to support this. The appropriate amount 
will be determined upon final decisions on training requirements and 
certification.

  national guard support to security operations on our southern border
    164. Senator Martinez. General Schoomaker, last year the President 
directed approximately 5,000 National Guard troops to protect critical 
infrastructure and patrol our southern border. Can you provide an 
update on how that mission is going and what its impact is on overall 
readiness?
    General Schoomaker. The mission of this operation is to provide a 
short-term enhancement to the ability of the Department of Homeland 
Security to secure our southwest border while additional border patrol 
agents are being hired and trained. This mission is being successfully 
accomplished and has allowed Customs and Border Protection to bring 
more agents on board and focus on reducing the number of illegal border 
crossings. The mission is staffed by National Guard volunteers. One of 
the Presidential directives for this mission was that it not degrade 
the National Guard's combat capability, and we have been successful in 
that regard.

                   u.s. army wounded warrior program
    165. Senator Martinez. General Schoomaker, during a recent visit to 
Walter Reed, I was briefed on the Army Wounded Warrior (AW2) Program 
(program designed to provide special help to the severely wounded in 
rehabilitation, retraining, and adjustment). It is a superb initiative. 
What more can be done to rapidly expand the AW2 Program?
    General Schoomaker. The Army thanks you for the compliment and 
remains committed that ``We Will Never Leave a Fallen Comrade.'' The 
AW2 Program is now tracking more than 1,500 severely injured and 
wounded soldiers. To ensure these soldiers receive the best treatment 
available to them the Army works closely with the VA to coordinate the 
medical care of seriously wounded and disabled soldiers while they are 
being treated.
    Our wounded warriors are treated with the dignity and respect they 
have earned and deserve. Since October 2005, the program has expanded 
by more than 400 percent. We have increased the number of Soldier-
Family Management Specialists (SFMS) from 9 to 46 with continuous 
hiring to reduce the average caseload to 33 soldiers to every 1 SFMS. 
Our SFMSs are currently embedded in 11 military medical treatment 
facilities and 19 VA medical centers throughout the United States with 
further expansion anticipated. This decentralization of operations 
allow our SFMSs to literally ``reach out and touch'' our soldiers and 
families.
    The Army is developing a more seamless transition to the VA for 
separating soldiers with moderate injuries and disabilities. In 
addition, we have extended current outreach programs to include Corps 
G1s, commanders at brigade level, and rear detachments of deployed 
units and their Family Readiness Groups. There are still some 
commanders at battalion and company level that are not aware of the AW2 
Program. We have to reach this population not only to ensure that we 
are providing the best possible care to the soldiers, but also to reach 
other veterans/soldiers unaware of the program. We have dozens of 
initiatives working including involvement with the Veterans Advisory 
Committee on Rehabilitation, the DOD Mental Health Task Force, the 
Office of Secretary of Defense FOR Health Affairs Family Transition 
Initiative, The Surgeon General of the Army's Traumatic Brain Injury 
Task Force, and the Assistant Secretary of the Army (Manpower and 
Reserve Affairs) directed Physical Disability Transformation 
Initiative.

    166. Senator Martinez. General Schoomaker, what more can Congress 
do to support the soldiers and their families as they transition--
oftentimes with life-changing injuries?
    General Schoomaker. Congress has provided all of the resources 
necessary for the Army to operate the Army Career Alumni Program 
(ACAP). The ACAP provides transition services to all separating/
retiring soldiers, including soldiers with life-changing injuries. The 
services provided by ACAP include congressionally mandated pre-
separation counseling and coordination with other Federal agencies such 
as the Department of Labor for an employment workshop and the VA for 
benefits briefings and a Disabled Transition Program briefing. ACAP 
also offers one-on-one counseling, use of automated employment tools, 
and special seminars. Our guidance and policies are established by DOD 
based upon current requirements in Public Law.

          narco-terror in the latin america and the caribbean
    167. Senator Martinez. General Schoomaker, the overall U.S. 
military support to the counterdrug effort is coordinated through 
SOUTHCOM. I think it is important that we continue to adequately fund 
military and non-military parts of our support to Colombia. Can you 
comment on the overall Army contribution to the U.S. effort in the 
Andean Counterdrug Initiative and Plan Colombia for fiscal year 2008?
    General Schoomaker. Currently in the Andean Ridge area (Colombia, 
Ecuador, Peru, Bolivia, and Venezuela) the Army has approximately 200 
soldiers, of which approximately 60 are permanently assigned to these 
countries. In Ecuador, Bolivia, Venezuela, and Peru the Army 
counterdrug effort is through the Military Assistance Groups and 
Military Advisory and Assistance Groups at the embassies. Most Army 
support to the region takes place in Colombia.
    U.S. Army South supports the overall U.S. effort in Colombia in a 
number of ways: For 3 years, U.S. Army South has been assisting in the 
development and improvement of the Colombian Army's Sergeant Major 
Academy Program in order to institutionalize a formal training system 
for Senior Noncommissioned Officers (NCOs) in the Colombian Army. Our 
intent is to help the Colombian Army develop and sustain an NCO 
education system adequate for their needs.
    The 204th Military Intelligence Battalion routinely deploys 
approximately 55 soldiers to Colombia with Airborne Reconnaissance Low 
(ARL) platforms. These soldiers provide real time information in 
support of U.S. and Colombian requirements. The unit deploys to 
Colombia for 9 months out the year (on a cycle of 135 days in country/
45 days reset at home station).
    U.S. Army South manages the U.S. portion of a Forward Operating 
Site in Apiay, Colombia. This Colombian Airbase provides the lodging, 
maintenance, planning, and operations support to U.S. aircraft, 
including the ARL aircraft, operating in the region.
    U.S. Army South provides a range of administrative and logistic 
support to the U.S. Military Group in Colombia. The U.S. Military Group 
is in turn working directly with the Colombian Armed Forces to support 
their counterdrug and counterterrorism efforts.
    U.S. Army South conducts several subject matter expert exchanges 
with the Colombian Army in order to share ideas, explain concepts and 
assist the Colombian Army. Topics for these exchanges include the use 
of military police working dogs, aviation logistics, personnel 
recovery, geospatial intelligence/terrain analysis, and military law. 
In fiscal year 2007, U.S. Army had over 45 engagement events with the 
Colombian Armed Forces at a cost of approximately $1.2 million.
    The Revolutionary Armed Forces of Colombia still hold three U.S. 
DOD contractors hostage and we are working with the Colombian Armed 
Forces to locate and free these three men.

    168. Senator Martinez. General Schoomaker, with all the demands on 
Army forces worldwide, will you have the numbers and specialties 
required to conduct these counterdrug training and operational programs 
in the Western Hemisphere?
    General Schoomaker. The Army meets the U.S. Army South requirements 
in support of subject matter expert exchanges, peacekeeping exercises, 
and small unit exchanges with the countries of Latin America. We remain 
engaged throughout the region and, through efficient use of resources, 
are able to maintain our presence in Latin America.

 building the military capacity of allies through security cooperation
    169. Senator Martinez. Secretary Geren, I am impressed with the 
counterpart programs being executed by the Army throughout the world--
particularly with our partner nations in the Western Hemisphere. These 
military-to-military programs of exercises, exchanges, and training 
provide our U.S. Ambassadors in the region with additional tools to 
encourage democracy and development. Our Army Officers and NCOs conduct 
these training and exchange programs and build necessary capacity. Just 
as importantly, they serve as role models for the military institutions 
that operate under civilian control. The example of El Salvador serving 
by our side is a great example of the success of these military-to-
military programs. Are we funding those programs adequately?
    Mr. Geren. The Army participates in numerous security cooperation 
programs, to include the types that are cited in your question: 
exercises, exchanges, and training. We refer to these and other 
international activities as security cooperation and execute them in 
accordance with the DOD's Security Cooperation Guidance. The Army and 
the other military Services are charged with providing assets to 
support the combatant commanders, especially the geographic combatant 
commanders, as they conduct their respective security cooperation 
efforts. However, the Army also uses security cooperation to improve 
its own abilities--whether to improve our ability to conduct closely 
coordinated military operations with allied forces, to develop and 
acquire the best available technology, or to increase the individual 
soldier's language and cultural skills.
    The geographic combatant commanders use Army assets in their 
efforts to encourage other nations to work with us to achieve mutual 
strategic objectives, thus shaping the strategic environment. They 
annually assess not only the effectiveness of their respective theater 
security cooperation efforts, but also the effectiveness of the support 
that they received from the military Services. These assessments are 
classified; nevertheless, we can say that each combatant commander 
reported some progress.
    There is an intense competition for funding amongst the many things 
the Army does. Factors other than funding play a major role in the 
conduct of security cooperation activities. For example, in the 
National Defense Authorization Act of 2007, Congress lifted 
restrictions previously imposed on the International Military Education 
and Training Program and we now have more flexibility in allocating 
future Army school spaces to foreign soldiers. Nevertheless, since 
there were no additional funds allocated, we will still not be able to 
meet all the demand for security cooperation support that came from the 
combatant commanders--we receive more requests for attendance at the 
Army War College and the Army CGSC than we can satisfy.
    In the interim, the Army continues to improve its security 
cooperation strategy and program management.

                         aviation modernization
    170. Senator Martinez. General Schoomaker, you are asking $4.18 
billion for aviation procurement and that includes new UH-60 Black 
Hawks to meet future force requirements--in addition to what you have 
requested in the supplementals. What is the state of readiness of the 
aviation fleet?
    General Schoomaker. The UH-60 fleet overall is in good shape in 
terms of readiness. Our deployed fleet maintained the highest state of 
readiness, followed by our nondeployed aircraft and National Guard 
aircraft. This level of readiness is due in large part to the 
supplemental appropriations which allowed the Army to continue to reset 
the force and maintain our readiness at Army standards. Readiness will 
further increase for the entire force as we resource the following 
modernization activities: AH-64D (remanufacture and new build), CH-47F 
(remanufacture and new build), UH-60M (new build) and the UH-72A (new 
build). The UH-72A will greatly benefit the readiness of National Guard 
aviation units and enhance their ability to respond to State and 
national disaster missions. Army aviation could not have addressed the 
needs of the aforementioned aircraft systems if not for the direct 
support of Congress in reprogramming Comanche budgetary authority.

    171. Senator Martinez. General Schoomaker, what are your key 
challenges and what are you doing to adapt to the increasing demand 
being placed on Army aviation resources?
    General Schoomaker. Understanding the stress of the global war on 
terrorism on the useful life of aviation platforms, Army aviation 
identified the need to initiate sustainment programs that allowed our 
aviation force to provide continuous operations in the protracted war. 
These sustainment programs include:

          a. Reset: returns aircraft to pre-deployment conditions.
          b. Preset: installs modification work orders to incorporate 
        lessons learned into our systems--reduce environmental impacts 
        and enhance Aircraft/Aircrew Survivability.
          c. Operational Losses: resources for replacement aircraft has 
        been funded through congressional supplemental fiscal year 
        2005-fiscal year 2007. Currently 90 of 126 aircraft have 
        approved for supplemental funding for replacement. Of the 
        remaining 36 to be replaced, 29 are OH-58Ds that will be 
        replaced with the Armed Reconnaissance Helicopter (ARH). As of 
        this date, the funding of these 29 aircraft has not been 
        provided in previous supplemental requests. The last seven 
        aircraft have been results of operational losses in January, 
        February, and April 2007 (two AH-64s, three UH-60s, one CH-47, 
        and one OH-58D) that have not been included in the supplemental 
        request.
          d. Recapitalization Program: returns a limited number of 
        aircraft to ``like new'' near zero time condition (193 UH-60 
        and 56 CH-47).
          e. Purchasing New CH-47Fs and UH-60Ms: new CH-47s and UH-60s 
        will eventually replace the oldest/most damaged aircraft of 
        their respective fleets after filling holes in the fleets. The 
        ARH will replace the antiquated OH-58D aircraft. The light 
        utility helicopter relieves the pressure on the UH-60 fleet.

    These sustainment programs have allowed Army aviation to maintain a 
flying operational tempo up to five times higher than peace-time rates.

                      joint cargo aircraft program
    172. Senator Martinez. Secretary Geren, it is my understanding that 
the Army is in the lead for the joint Army/Air Force JCA program to 
replace several old platforms (C-12, C-23, C-26). Can you give me an 
update on the status of the JCA program?
    Mr. Geren. The JCA is a fixed-wing cargo aircraft, providing light-
to-medium intratheater airlift capability for time-sensitive/mission-
critical cargo and troops in support of combat operations. JCA will 
support all five airlift missions (passenger/cargo movement, combat 
employment and sustainment, aero medical evacuation, special operations 
support, and operational support airlift), plus homeland security and 
relief missions.
    In October 2006 a Joint Program Office was established between Army 
and Air Force, with the Army as lead agent. The Army AoA update is 
complete, as requested by OSD, to enable a sufficiency review. The Air 
Force is studying initial fleet size requirements. The Deputy Secretary 
of Defense has approved continuance of the program as a Dual Service 
Army/Air Force program. The Capability Development/Production Document 
was approved by the JROC on April 19, 2007. Strategies addressing Joint 
Training and Sustainment are coordinated between the Army and Air Force 
and reside with the Director, Acquisition Executive pending formal 
approval. The source selection is ongoing and should be completed in 
May 2007. The Milestone C decision/Defense Acquisition Board is 
scheduled for May 2007 and source selection results will be announced 
following the Milestone C decision. We can expect to purchase two 
aircraft following this decision.

    173. Senator Martinez. Secretary Geren, how important is the JCA to 
the Army's strategic mobility?
    Mr. Geren. JCA is not a strategic mobility platform; this is a 
transformation piece to the Army's fixed-wing legacy fleet. The Air 
Force will use the JCA to supplement the existing C-130 intratheater 
airlift fleet, allowing for greater efficiencies for hauling smaller 
loads. The Army will use the JCA to focus on time-sensitive mission-
critical resupply and key personnel transport at the tactical level--
the last tactical mile.

    174. Senator Martinez. Secretary Geren, what effect will any delay 
in procuring this platform cause to our lift capability? At what cost?
    Mr. Geren. Operational impacts to the Army are twofold. The Army is 
currently meeting its critical needs with inadequate and costly 
platforms for this logistical mission--the C-23 Sherpa and the CH-47 
Chinook. The CH-47, from the onset of OEF and OIF, is conducting 
logistical resupply missions that could be performed by a JCA. 
Conservatively, over 25 percent of CH-47 usage in OIF is attributed to 
resupply missions, nontactical functions. In OEF, we have been forced 
to use contract aircraft due to the C-23's inability to meet lift and 
performance capabilities at high and hot altitudes present in 
Afghanistan. The impact of a delay will be an increase in lifecycle 
costs and a decrease in airframe life with longer reliance on rotary 
wing aircraft and ground vehicles on an asymmetrical battlefield and 
subsequent higher force protection risks. Operational impact to the 
Army fixed-wing fleet (C-23, C-26, and C-12) are specific modernization 
costs to include: upgrades and survivability as immediately associated 
with: global air traffic management, safety, aircraft survivability 
equipment, and night vision goggles, along with continued modifications 
and sustainment. This has future implications as legacy aircraft are 
programmed for retirement from the force.

                   florida national guard helicopters
    175. Senator Martinez. General Schoomaker, today more than ever, 
the National Guard is a full partner with the Army in performing vital 
war and local emergency needs. Every month the National Guard deploys 
their best equipment, including many HH-60 Blackhawk helicopters, to 
the war on terror. I remain concerned about the ability of the National 
Guard to respond to natural disasters in my State of Florida. What is 
your view of National Guard aviation readiness in light of the demands 
being placed on National Guard equipment?
    General Schoomaker. Our overall Army priority remains focused 
toward best meeting the warfighting needs of our deployed forces, and 
doing so to the greatest extent possible by providing both complete and 
coherent units. However, we also work closely with both the National 
Guard Bureau and the ARNG to do whatever is achievable to minimize and 
mitigate the impacts on any single State or region when some of their 
ARNG units are mobilized for overseas duty. In the case of Florida, 
this mitigation includes filling Florida's two UH/HH-60 units to 100 
percent of their authorized level vice the overall 80-83 percent fill 
level existing in the ARNG UH/HH-60 inventory; sequencing the 
mobilization of one Florida UH/HH-60 unit so that it is offset by the 
return and demobilization of Florida's other UH/HH-60 unit; and pre-
planned regional and national arrangements to rapidly reinforce 
Florida's UH/HH-60 force with assets from adjoining and nearby States, 
in the event of a disaster. Active Army aviation forces are also 
available to support disaster relief if requested by State authorities.

    176. Senator Martinez. General Schoomaker, how vital is the 
Blackhawk H-60 A to L modernization program?
    General Schoomaker. Currently, UH-60A to L is not part of the UH-60 
Modernization Program. The National Defense Appropriations Act for 
Fiscal Year 2007 identified $12.35 million towards UH-60 Black Hawk 
modifications, specifically A to L conversions. This will be used for 
engineering, production analysis, cost verification, and conversion of 
a pilot/demonstration aircraft within the next 12 to 18 months. Once 
complete, we will analyze the cost data to determine the feasibility of 
further conversions.

    177. Senator Martinez. General Schoomaker, does Congress need to 
set aside funding specifically for the National Guard so they can 
maintain their lift capability?
    General Schoomaker. The Army and the ARNG already have longstanding 
standard funding mechanisms in place for maintaining aircraft and 
training aviation units. The Army training resource model identifies 
the flying hour requirements and funding needed by each Army, ARNG, and 
Army Reserve aviation unit throughout the force. Efforts by Congress to 
fully fund aviation operational tempo would significantly help all Army 
units, including the National Guard, to sustain proficiencies. 
Additionally, should the UH-60 A to L recap pilot/demonstration 
aircraft prove feasible, funding for the remaining UH-60 aircraft 
scheduled to undergo this recap/upgrade would be important to the Army.

    [Whereupon, at 12:45 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                        TUESDAY, MARCH 20, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                 POSTURE OF THE UNITED STATES AIR FORCE

    The committee met, pursuant to notice, at 9:37 a.m. in room 
SR-325, Russell Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Bill 
Nelson, E. Benjamin Nelson, Clinton, Pryor, McCaskill, Warner, 
Inhofe, Chambliss, Dole, Cornyn, and Thune.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Creighton Greene, professional staff member; Gerald J. 
Leeling, counsel, and William K. Sutey, professional staff 
member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Gregory T. Kiley, professional staff member; 
Derek J. Maurer, professional staff member; David M. Morriss, 
minority counsel; Lucian L. Niemeyer, professional staff 
member; Christopher J. Paul, professional staff member; and 
Sean G. Stackley, professional staff member.
    Staff assistants present: Fletcher L. Cork, Micah H. 
Harris, and Benjamin L. Rubin.
    Committee members' assistants present: Frederick M. Downey, 
assistant to Senator Lieberman; Christopher Caple, assistant to 
Senator Bill Nelson; Eric Pierce, assistant to Senator Ben 
Nelson; Andrew Shapiro, assistant to Senator Clinton; Gordon I. 
Peterson, assistant to Senator Webb; Stephen C. Hedger and 
Jason D. Rauch, assistants to Senator McCaskill; Mark J. 
Winter, assistant to Senator Collins; Clyde A. Taylor IV, 
assistant to Senator Chambliss; Lindsey Neas, assistant to 
Senator Dole; Stuart C. Mallory, assistant to Senator Thune; 
and Brian W. Walsh, assistant to Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee will 
come to order.
    I want to welcome Secretary Wynne and General Moseley back 
to the committee this morning. Both of you have had outstanding 
careers of leadership and service to the Nation. We're grateful 
to you for that service. We know that you have some special 
guests with you this morning, too, and, in a moment, when we 
call on you, we would appreciate your introducing those 
wonderful people to the committee.
    You're faced with a number of critical issues that confront 
the Air Force. Although not at the same operating tempo as the 
Army and Marine Corps, the Air Force faces a difficult 
challenge in balancing its modernization needs against the 
costs of supporting ongoing operations in Iraq and Afghanistan.
    One of these acquisition challenges is in space systems. 
All of the Air Force space satellite systems are in the process 
of modernization and replacement and all have seen substantial 
cost growth and schedule delays. In many instances, the initial 
cost and schedule predictions were unrealistic; in others, the 
technical risk was greater than thought, or not well-
understood, and others suffered from poor management or 
execution. Some of these programs are showing improvement, but 
most are not out of the woods yet. As a result, the space 
program costs have increased substantially overall.
    During our deliberations on the National Defense 
Authorization Act for Fiscal Year 2007, it became clear that 
the Air Force could not meet its requirements with the 
reduction in the B-52 bomber fleet that was proposed in the 
Quadrennial Defense Review. Therefore, Congress did not approve 
the Air Force's request to reduce the number of B-52 bombers to 
56 aircraft. Congress did authorize the Air Force to retire up 
to 18 bombers from the current fleet of 93 B-52 bombers, 
leaving at least 75 B-52s in the force structure. That 
authorized reduction was predicated on the completion of a 
report that would analyze all aspects of the overall bomber 
fleet, including requirements and modernization plans. Our 
understanding is that this report will not be completed and 
submitted to Congress at least until the end of fiscal year 
2007. As a result, the Air Force will not be able to retire any 
of the 18 bombers until fiscal year 2008.
    Nevertheless, the Air Force is again requesting permission 
to retire more B-52s, and we need to hear from our witnesses 
this morning: Why does it makes sense for Congress to authorize 
more reductions prior to receiving the report from last year, 
as the questions remain the same and remain unanswered?
    In another area, last year Congress added 10 C-17 aircraft 
to the fiscal year 2007 bridge supplemental request. The Air 
Force budget request for fiscal year 2008 does not include any 
funding to keep the C-17 production line open. Nevertheless, 
General Moseley, you've been quoted as saying that you would 
like to retire C-5A aircraft and buy more C-17 aircraft. You 
are requesting two more C-17s on your unfunded priority list 
(UPL), at a cost of roughly $473 million. Also this year, some 
are asking that we add full funding for 16 more C-17 aircraft 
to the fiscal year 2008 budget, at a cost of more than $3 
billion. There have also been reports of cost increases in the 
C-5 re-engining program that was at one time intended to 
modernize the 49 C-5B and 62 C-5A aircraft in the fleet. So we 
need to hear about the Air Force's plans for airlift 
modernization and sustainment.
    Underlying all of these major acquisition concerns is an 
acquisition management issue. Secretary Wynne, when you came 
into the job, you recognized that you would have to take 
significant steps to build up the acquisition workforce and 
restore confidence in the Air Force acquisition system after 
the abuses and the poor decisions that were previously 
documented in the tanker lease program. We'd like to hear of 
your progress in that effort, this morning.
    On the tanker issue, we appreciate that the Air Force 
leadership has taken special measures to ensure transparency in 
the tanker acquisition process. Openness is an excellent model 
for how the Air Force and the Department of Defense (DOD) 
should deal with Congress and we are appreciative of the 
progress that you made relative to that in the tanker 
acquisition matter.
    So we look forward to hearing your testimony this morning 
on these and other issues facing the Air Force. For the 
information of all of our members, I believe there is a series 
of three votes that are scheduled to take place this morning, 
not later than 11:30 a.m., which will likely cause us to 
adjourn the hearing at that time. So our goal is to complete 
our hearing by the time the first vote is called.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman.
    On behalf of our distinguished ranking member, Senator 
McCain, I place in the record this morning his opening 
statement. I urge that our witnesses examine it with care, 
because Senator McCain, being an airman, has taken a very 
special interest in a number of the programs; likewise, he has 
a very special interest in acquisition. I think it's important 
that our witnesses examine carefully the strong and sage advice 
that he provides the Department of the Air Force in his opening 
statement.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    Chairman Levin, thank you.
    I join our chairman in welcoming our witnesses here today.
    While many focus on the Army and Marine Corps contributions in Iraq 
and Afghanistan, the efforts of the U.S. Air Force on behalf of our 
Nation are significant. The Air Force has been actively engaged in the 
Central Command area of operations for 16 years--the first Gulf War, 
enforcement of Iraq no fly zones along with the Navy, and, now, 
Operations Enduring Freedom and Iraqi Freedom. Those deployments, in 
addition to operations in Bosnia, Kosovo, and elsewhere throughout the 
world in support of humanitarian efforts, have made maximum use of the 
Air Force's Air Expeditionary Force concept. Allow me to express our 
gratitude to the men and women of the Air Force as they continue their 
selfless sacrifice.
    While we recognize the Air Force's invaluable contribution to the 
defense and security of our Nation, a few programs make this hearing 
seem like we are fighting the same budget and policy battles as last 
year.
    Once again, the F-35 Joint Strike Fighter program eliminates 
funding for the development of a second engine production source. Last 
year, we held extensive hearings on this subject, and are still 
awaiting the required reports discussing the pros and cons of ensuring 
that a competitive environment is maintained for the production of 
aircraft engines. Yet, contrary to expert opinion and congressional 
direction, this budget eliminates funding for a second source before 
the analysis is complete.
    Similarly, the Air Force is again sending conflicting messages that 
it has the minimum required strategic lift capability with the current 
fleet mix of C-17s and C-5s, and yet included C-17s in its unfunded 
priorities list (UPL). The Air Force has also argued it needs to retire 
C-5s--begging the question what is to replace that capability if 
allowed to retire C-5s, since the budget does not include funding for 
the C-17 program. This apparent brinkmanship approach to shutting down 
the C-17 production line has once again set off a lobbying effort 
within the halls of Congress to add additional C-17 aircraft to the 
defense budget.
    Let me remind my colleagues of one of the more egregious add-ons in 
the Defense Appropriations Bill for Fiscal Year 2007--the addition of 
$2.1 billion for 10 C-17 cargo aircraft that were not requested by the 
administration. The Air Force did not ask for these additional C-17s 
and the Quadrennial Defense Review clearly states a need for a total of 
only 180 aircraft. However, Congress agreed to add 10 more C-17s than 
our top military planners say they need to meet our National Military 
Strategy. Another reason why this earmark was particularly 
objectionable was that going into the Defense Appropriations Conference 
last year the House had only approved three additional C-17s and the 
Senate had approved only two. At a minimum, seven additional C-17 
aircraft were added by the conferees that were outside the scope of 
matter they were tasked to resolve.
    Again, the acquisition process within the Air Force is coming under 
scrutiny. In past years, as we are all well familiar, the focus has 
been on the tanker replacement program. While I am encouraged that 
program is finally on firmer footing with industry now preparing 
proposals for the Air Force to evaluate, concerns remain over other Air 
Force acquisition efforts.
    Last year, the Air Force proffered a multi-year procurement 
proposal in which ``substantial savings,'' as defined in applicable 
law, were suspect. This year alone, a bid protest for the next 
generation combat search and rescue helicopter was upheld by the 
Government Accountability Office; the C-130 aviation modernization 
program reported a Nunn-McCurdy cost breach; and both the planned C-5 
re-engining effort and the future core component jammer are on the 
brink of major cost and schedule breaches.
    Finally, the Air Force has submitted a UPL of items that did not 
make it into the final budget request that totals in the billions of 
dollars, despite the fact the Air Force budget has grown by nearly 30 
percent, in constant dollars, since 2001. The Air Force submitted a UPL 
totaling $16.9 billion for 2008. That amount is nearly twice as large 
as the Army's, six times as large as the Marine Corps', and triple the 
amount the Air Force requested just last year. A full $6.0 billion of 
the request is for military construction projects and appears to 
contain every military construction program in the Air Force's 5-year 
future defense program. The top ``unfunded'' request includes $2.6 
billion for aircraft recapitalization and modernization--a longstanding 
Air Force top priority.
    I have concerns in other areas, as well, that I hope the witnesses 
will address in their testimony, or during the question and answer 
period. The witnesses should expect questions on: the recent anti-
satellite test conducted by the Chinese; the impact on Air Force 
requirements resulting from planned Army and Marine Corps end strength 
increases; the Air Force certification of substantial savings for the 
F-22 multi-year procurement; and concerns over certain costs included 
in the President's supplemental requests--such as those added for 
additional F-35s and CV-22 Ospreys.
    I thank the witnesses and look forward to your testimony.

    Senator Warner. Mr. Chairman, I think all of us here on the 
committee are very grateful that you've brought these 
distinguished airmen here this morning to introduce. But, while 
we focus so much of our attention, and understandably, on the 
Army and the Marine Corps, as they're courageously carrying out 
the missions in Afghanistan and in Iraq, we are mindful of the 
support role, and in often cases, not just support, but direct 
interaction, at a very high risk, that the members of the 
United States Air Force are taking in these two operations, as 
well as other operations elsewhere in the world. So, all 
America has in its heart the men and women in uniform today. I 
say ``in its heart,'' because it is in sharp contrast to 
previous periods that I have experienced in my long and 
privileged association with the men and women in the military, 
not only the uniformed persons are in their hearts, but the 
families of these very brave men and women who go forward and 
depart from their families and take on these risks.
    So, I salute not only your honored guests this morning, 
but, I expect, thousands of others similar to them, elsewhere 
at various places throughout the world, and, indeed, in 
training, here in the United States. My very limited 
association with flying always reminds me that there's just as 
much risk on a takeoff as there is on a landing, whether that's 
abroad or right here at home. So, it's a high-risk business 
that many of your airmen are engaged in, and we are proud to 
salute them.
    I will just make two other observations. One, I listened 
very carefully to the distinguished chairman as he described 
the various disconnects, apparently, between Congress and the 
Department of the Air Force with regard to the management of 
aircraft. I would hope that we could quietly get together and 
sort these things out somehow. Having been in your position, 
Secretary Wynne, for some period of time myself many years ago, 
I just feel that these are decisions that can be worked out. 
You have to be given the maximum flexibility possible to manage 
your inventory of aircraft, be it the acquisition of the new 
ones or the retirement of those that have served our Nation 
well.
    So, I hope, Mr. Chairman, that you and others on this 
committee that have direct responsibility for these programs--
and I will join, also--see if we can't sort it out and give you 
the flexibility you need.
    Now, I do want to address, gentlemen, the question of the 
Joint Strike Fighter (JSF) and the two-engine program. Now, I 
fully recognize that each of you have bosses in this world in 
which we live. I know them very well, and have a high degree of 
respect for them. But I'll ask the question and you can ponder 
the answer before it comes. I don't know of any time in history 
that we have contemplated giving to a single contractor a $100 
billion contract, which could play out over the next 10 or 12 
years. Experience with high technology has shown us that we 
should have some backup. Experience has told us that 
competition can improve not only the price, but the quality of 
the product. So, I'll return to that, Mr. Chairman, in the 
course of my question period. It concerns me greatly.
    Having said that, I wish you well. Thank you very much.
    Chairman Levin. Thank you, Senator Warner.
    Secretary Wynne and General Moseley, we now turn to you. We 
would ask that you do take a moment and introduce your special 
guests, and our special guests, to the committee this morning. 
Why don't we start with that, if you would.
    Secretary Wynne. Senator, I'll defer to General Moseley and 
allow him to, in fact, do that.
    General Moseley. Mr. Chairman, if you'll allow me, instead 
of prepared remarks, I would like to introduce these great 
airmen.

  STATEMENT OF GEN. T. MICHAEL MOSELEY, USAF, CHIEF OF STAFF, 
                    UNITED STATES AIR FORCE

    General Moseley. First, Lieutenant Colonel Marty McBride. 
He currently commands the 81st Fighter Squadron in Spangdahlem, 
Germany. He's a Weapons School graduate, and he's recently 
returned from Afghanistan, where he led a total force--Guard, 
Reserve, and Active A-10s--through 24-hours-a-day, 7-days-a-
week combat operations from May until September 2006. His 
squadron flew over 2,000 missions and 7,000 combat hours, 
operating out of Bagram in northern Afghanistan. They 
accomplished over 520 troops in contact close-air-support 
missions. He delivered 102,000 rounds of 30-millimeter off the 
A-10, and delivered over 300 bombs. Sir, this is a squadron 
commander just back from Afghanistan. He's one of our great 
airmen.
    Next is Major Toby Doran. He's the chief of tactics at 
Headquarters Air Force Space Command. He's also a Weapons 
School graduate. His other assignments have included chief of 
tactics, chief of precision-guided munitions, and chief of 
operations. He was a previous enlisted airborne crypto-linguist 
aboard our RC-135 Rivet Joints. He served in Operations Desert 
Shield, Desert Storm, and Provide Comfort. Most recently, he 
served as the space weapons officer with the 1st Marine 
Expeditionary Force forward in Al Anbar province, from February 
to July 2006. His job was to ensure seamless connectivity from 
Air Force space systems into the Marine system and on to the 
ground parties. He helped ensure the Marines had accurate 
artillery, rocketfire, as well as navigation and 
communications. He is one of our great space warfighters.
    Sir, next is Captain Andi McElvaine, bomber pilot. She's 
from Minot Air Force Base, ND. She's a Weapons School graduate 
also, with 2,000 flight hours, including 360 combat hours. 
She's been an aircraft commander on unit deployments. She's a 
weapons and tactics officer. She's deployed to the Arabian Gulf 
for Operation Southern Watch, two times for Operation Enduring 
Freedom (OEF), and two times to Anderson Air Force Base, in 
Guam, as part of our Pacific Command's continuous bomber 
presence there. She represents everything that we hold dear 
about opportunities in the Air Force and our bomber community.
    Sir, next is somebody that is near and dear to every 
aviator's heart. He's a pararescueman (PJ). This is Tech 
Sergeant Jason Marfell. He's from the 38th Rescue Squadron at 
Moody Air Force Base, GA. He's the noncommissioned officer in 
charge of standardization and evaluation. He's won two Sikorsky 
Awards for skill and courage during two actual lifesaving 
missions. He's a winner of the 2006 Air Force Pitsenbarger 
Award for the year's top lifesaving rescue. He's deployed 
multiple times on a wide range of contingency and combat 
operations: Southern Watch, Northern Watch, and Enduring 
Freedom. Three times, he's deployed to support space shuttle 
transoceanic landing sites. He's deployed to southern Africa 
for Operation Atlas Response. He's provided humanitarian 
disaster relief after flooding in Mozambique in South Africa in 
2000. This is one of the guys that will come get you if you 
have to dismount from an airplane, and there's no better sight 
for anybody that flies airplanes than to be around a PJ.
    Sir, last is a boomer. She's the person responsible for 
transferring fuel from our tankers into a wide range of other 
aircraft. This is Staff Sergeant Christine Chavez. She's an 
instructor boom operator from McConnell Air Force Base, KS. In 
Airman Leadership School, she won the Levitow Award for being 
the top graduate. She's been a flight supervisor and refueling 
instructor. She's been a systems operator through numerous 
deployments including Operations Southern Watch, Enduring 
Freedom, and Iraqi Freedom. She's operated out of Diego Garcia; 
Sheik Isa, in Bahrain; Al Udeid, in Qatar; and Al Dhafra, in 
the United Arab Emirates. She has 1,000 hours and 163 combat 
missions.
    Sir, this is also everything that we hold dear about 
officers, enlisted folks, and people that fly.
    So, sir, behind me, you have a fighter guy, a space guy, a 
bomber, a boomer, and a PJ. This is the wide spectrum of 
everything that we do for this country. Sir, I'm so proud to 
serve alongside them and wear the same uniform. [Applause.]
    Secretary Wynne. Mr. Chairman and members of the committee, 
thank you very much.
    [The joint prepared statement of Mr. Wynne and General 
Moseley and the 2007 Air Force Posture Statement Package 
follow:]
   Joint Prepared Statement by Hon. Michael W. Wynne and General T. 
                         Michael Moseley, USAF
                       maintaining america's edge
    We are America's airmen. Our mission is to deliver sovereign 
options for the defense of the United States of America and its global 
interests--to fly and fight in air, space, and cyberspace.
    Our Air Force Core Values of Integrity First, Service Before Self 
and Excellence in All We Do--embodied in every airman--guide our 
actions and ensure your Air Force remains committed and ready to deter, 
dissuade or defeat any adversary anywhere in the world.
    As airmen, we are the Nation's premier multi-dimension maneuver 
force, with the agility, reach, speed, stealth, payload, precision, and 
persistence to achieve global effects. Control of the air, space, and 
cyberspace domains provides the essential bedrock for effective joint 
operations--securing freedom to attack and freedom from attack.
    In 2005, we revised the Air Force mission statement to include 
cyberspace. This inclusion of cyberspace reflects our recognition of 
cross-domain interdependence and emphasizes our non-negotiable 
commitment to deliver sovereign options for the U.S. through not only 
air and space but also cyberspace.
    Our 2007 Posture Statement articulates the major elements required 
to fulfill our mission. It reaffirms our commitment to focus our 
energies on the global war on terror; to develop and care for our 
airmen and their families; and to recapitalize and modernize our aging 
aircraft, spacecraft, and equipment.
    Our top acquisition priorities include: the KC-X Tanker; the CSAR-X 
Combat Search and Rescue Helicopter; space communications, space 
situational awareness and early warning programs; the F-35A Joint 
Strike Fighter (JSF); and Next Generation Long Range Strike--a new 
bomber.
    Our Posture Statement further reaffirms our commitment to be good 
stewards of the resources entrusted to us and our resolve to dominate 
air, space, and cyberspace in defense of our Nation now and in the 
future.
Challenges
    America's Air Force faces significant challenges. We have been 
engaged in combat for 16 years while transforming into a smaller, 
leaner and more capable force. Fiscal constraints combined with 
operational challenges and a dynamic international security environment 
translate into risks we continue to manage and mitigate in order to 
provide capabilities America needs. The Air Force continues to fight 
the global war on terror and prepares to face and overcome threats and 
conflicts of the future. In order to remain dominant, we must maintain 
our air, space, and cyberspace power advantages over potential 
adversaries.
    Modern warfare is changing. This is nothing new to America's 
airmen, whose heritage spans and embraces change and whose culture 
embodies courage and innovation for America. We are ensuring a lean, 
lethal, and agile Air Force for America. We are building and posturing 
our force structure to meet future threats emerging on the dynamic 
world stage, and we are strengthening the interdependent joint team.
    We face a security environment that poses an array of dynamic 
challenges and threats. The 2005 Quadrennial Defense Review (QDR) 
characterized this threat environment and mandated force structure 
goals for all of the Department of Defense (DOD). The Air Force and all 
of the Services must be able to operate and defend against traditional, 
irregular, disruptive and catastrophic threats. In the future, the Air 
Force and the entire joint team will operate within a strategic 
environment involving one or more of these challenges. We will prepare 
to defend against high-end conventional forces, asymmetric threats and 
irregular forces such as terrorists or insurgents. To mitigate 
potential for disruptive surprises, we will strive to stay ahead of 
adversaries' technology efforts. Most importantly, we will protect our 
Homeland from hostile states' and non-state actors' use of weapons of 
mass destruction (WMD) and attacks in and through cyberspace. The 
threat array requires that we prepare the Air Force for a broad 
spectrum of future conflicts. At the same time, several factors have 
created a difficult and challenging fiscal environment in which to 
organize, train, and equip for the future.
    The 2005 QDR specified a Force Planning Construct to shape the 
entire DOD force to protect our Nation, its ideals and interests now 
and in the future. Originally presented in the National Military 
Strategy (NMS), the Force Planning Construct provides guidance for 
determining the capacity and capabilities needed to meet both steady 
state and surge demands for homeland defense, irregular warfare, and 
conventional campaigns. As a result of the NMS guidance and 
comprehensive analysis, the QDR determined America's Air Force needs to 
organize, train, and equip 86 ``modern combat wings.''
    Emerging National Security Concerns and Threats
    While the global war on terror is our immediate priority, America's 
airmen must also stay ahead of competitors preparing for conventional 
conflict and attempting to counter the asymmetric advantage our air, 
space, and cyberspace power currently gives our joint team. Sustaining 
U.S. advantages in such conflicts will become increasingly more 
challenging as advanced air defense, aircraft, WMD, cyber and anti-
satellite (ASAT) capabilities proliferate.
    Integrated Air Defense Systems (IADS) continue to evolve, placing 
current generation aircraft at increasing risk. Modern IADS incorporate 
more data sources, process and pass information faster, and are 
increasingly mobile. Manportable air defense systems (MANPADS), 
shoulder-fired SAMs, also are an increasingly serious threat. Their 
availability, affordability, and proliferation increases the likelihood 
of modern MANPADS ending up in the hands of non-state actors, placing 
U.S. civil and military aircraft at risk around the world.
    The lethality and availability of fourth-generation combat aircraft 
is also increasing, and potential adversaries are already purchasing 
and fielding these complex and capable weapon systems. Many nations are 
enhancing the capabilities of their existing fighter and bomber 
aircraft through use of aerial refueling, signature reduction 
technology, and cyberspace weapons that inject confusion or mask 
operations. Ever greater numbers of states are not only acquiring 
advanced aircraft, but are developing indigenous production capability, 
increasing the likelihood of proliferation.
    Proliferation of WMD to countries and non-state actors remains a 
significant challenge to U.S. interests and a top priority in the QDR. 
While nuclear weapons and materials proliferation always pose grave 
dangers, chemical and biological weapons pose arguably greater 
detection challenges. Easier and less costly to make than nuclear 
weapons, chemical and biological weapons are easier to transport, 
produce and mask from detection because they can be camouflaged as 
dual-use civilian industrial products. Proliferation may also enable 
future adversaries, especially terrorist groups, to develop, use, or 
threaten to use WMD as an asymmetric response to American conventional 
warfighting dominance, which might otherwise deter them from directly 
challenging the U.S.
    Perhaps less obvious, but all the more insidious, is the 
adversary's use of the cyberspace domain to support and carry out their 
attacks worldwide and on our shores. The adversary knows that they can 
contest our use of the electromagnetic spectrum and conduct their war 
of ideas from a supposed sanctuary in this domain.
    Finally, we see challenges to our current advantages in the space 
domain. Employment of Global Positioning System (GPS) jammers in an 
attempt to reduce U.S. and coalition air strike precision is an 
example. While we can currently overcome this threat through a variety 
of methods, such a challenge presents a warning and a valuable lesson 
as we posture our air, space, and cyberspace forces for the future.
    Recent foreign testing of kinetic ASAT weapon capabilities further 
demonstrates an explicit willingness to challenge, disrupt, or destroy 
America's space assets and capabilities. This testing also demonstrates 
a disregard for both American and global concerns over space debris and 
the damage it may inflict upon any object stationed in or traversing 
through low Earth orbit.
    As technology matures and proliferates, and as access to space 
becomes available to more countries, organizations and individuals, 
threats to America's air, space, and cyberspace capabilities will 
continue to grow and evolve. America's airmen aim to be ready to meet 
these and all other threats to our Nation.
    Irregular Warfare
    Our Nation is now in its 6th year waging the global war on terror 
while the Air Force is entering its 17th year of engagement in 
Southwest Asia. Current conditions portend this to remain a long war. 
The enemy chooses not to operate as a ``uniformed military,'' but 
rather uses criminal networks and terror tactics to attack from the 
shadows. They use indiscriminate violence against combatants and non-
combatants alike. They extensively use propaganda to advance their 
radical ideology of tyranny and hatred. Iraq and Afghanistan are two 
current fronts in this war, but the struggle extends beyond these vital 
campaigns. The Air Force and the entire joint team must wage this war 
on a global scale, in multiple locations and domains at simultaneous 
times, and for a number of years.
    We are strengthening our ability to deter and defend against non-
state threats and our ability to conduct globally distributed irregular 
operations of varying duration. We stand ready to conduct a large-
scale, long-duration irregular warfare campaign as an integral part of 
the joint team, to include counterinsurgency, security, stability, 
transition, and reconstruction operations.
    Adapting to Nontraditional Roles
    Airmen are finding innovative new uses for our current systems 
while successfully executing irregular warfare operations in 
Afghanistan and Iraq. Airmen increasingly find themselves engaged in 
nontraditional roles requiring ingenuity and the use of joint 
warfighting technology. Our missions and taskings range from standard 
close air support and armed reconnaissance to non-traditional taskings 
like convoy escort, infrastructure protection, provincial 
reconstruction, and host nation election support.
    Still other airmen have stepped in to fill joint warfighter 
taskings in stressed skill areas in which other Services are 
shorthanded. The Air Force currently provides over 7,700 airmen to 
fulfill these ``In-Lieu Of'' (ILO) ground force taskings. These airmen 
fulfill ILO requirements in areas such as detainee operations, convoy 
operations and protection, Explosive Ordnance Disposal, Police Training 
Teams, Provincial Reconstruction Teams, Military Transition Teams, 
civil engineering, security, interrogation, communications, fuels, 
medical services, logistics, intelligence, and base operating support. 
The Air Force also fills another 1,200 Joint Individual Augmentee 
positions. Airmen began fulfilling these requirements in 2003 and will 
continue to do so through 2007 and beyond--until the ground force 
component recaptures these missions and our job is done.
    Finally, Air Force mission, training, and force structure 
requirements will necessarily increase correspondingly as joint ground 
force, Army and Marine Corps requirements and end strength increase. 
The full range of Air Force air, space, and cyberspace capabilities and 
personnel are interdependently woven into joint ground forces 
operations.
    Recognizing there will be an impact of increased ground forces on 
our budget, we are assessing our programs. We forecast there may be 
increased requirements in the areas of inter- and intra-theater 
airlift; command, control, communications, computers, intelligence, 
surveillance and reconnaissance (C\4\ISR) capabilities; Close Air 
Support (CAS); Tactical Air Control Party (TACP) personnel; and 
extended ILO personnel requirements. While the Army and Marine Corps 
reset and recapitalize, we are following through in every way with our 
joint teammates.
    Defending Our Homeland
    Future threats to our Homeland are constantly evolving. They 
present challenges to the established methods and structures of 
homeland defense. Development, fielding and proliferation of standoff 
weapons, such as long-range cruise missiles, provide potential 
adversaries with offensive capabilities of increasing accuracy and 
range. In addition, we can expect many of these future weapons to be of 
relatively small size, presenting an extremely difficult detection and 
tracking challenge.
    As we safeguard the aerial, maritime and cyber approaches to our 
Nation, the Air Force will continue to play a large role in providing 
the full spectrum of air sovereignty options, including air defense, 
missile defense and support to civil authorities for consequence 
management. Additionally, as illustrated by our response to Hurricane 
Katrina, the Air Force will surge and contribute to national responses 
in the event of natural disasters or catastrophic events, supplying 
airlift, communications, imagery from unmanned aerial vehicles (UAVs) 
and space assets, and combat search and rescue capabilities.
Cyberspace
    America's Air Force is redefining air and space power for the 21st 
century.
    Our current and potential adversaries already operate in 
cyberspace, exploiting the low entry costs and minimal technological 
investment needed to inflict serious harm. We cannot allow them to 
expand their foothold. We seek to deny our adversaries cyberspace 
sanctuary while ensuring our access and operations in this domain. Our 
Nation's ability to deliver effects in air, in space, on land, and at 
sea depends on control of this domain.
    Cyberspace dominance goes beyond communications and information 
technology. It requires superiority across the entire electromagnetic 
spectrum--DC to daylight--radio waves, microwaves, infrared, x-rays, 
directed energy, and applications we have not even begun to think 
about--to ensure global command and control, global reach, and global 
power. We have a well-established capability to operate in cyberspace. 
We take advantage of physics, technology, and synergies to operate in 
and through it. Therefore, we are establishing a new Cyberspace Command 
to stand alongside Air Force Space Command and Air Combat Command. 
America's airmen are force providers the President, combatant 
commanders (COCOMs) and the American people can rely on to preserve 
freedom of access and operations in air, space, and cyberspace.
    The newly designated Air Force Cyberspace Command will provide 
combat ready forces trained and equipped to conduct sustained combat 
operations through the electromagnetic spectrum and fully integrate 
these with air and space operations. In November 2006, we held a 
Cyberspace Summit and, in January 2007, we hosted the first-ever 
integrated cyber exercise, Cyber Vision 2007, at the U.S. Air Force 
Warfare Center (USAFWC). This exercise focused on dominating the 
cyberspace domain in a potential conflict. These events and future 
integration of Cyber Aggressor Teams into Red Flag will build upon the 
significant cyberspace capabilities we already contribute to homeland 
defense and the joint fight.
    Cyberspace Command will leverage, consolidate and integrate unique 
Air Force cyber capabilities and functions across the spectrum of 
conflict from peace, to crisis and war: Command and Control; Electronic 
Warfare; Network Warfare; and Intelligence, Surveillance and 
Reconnaissance (ISR). Many Air Force programs, while contributing to 
air and space power, also directly contribute to our dominance of the 
cyberspace domain.
Loss of Buying Power
    While the Air Force is postured to meet our Nation's near-term 
requirements, our ability to meet steady state and surge requirements 
over the long term hinges on our ability to organize, train and equip 
86 modern combat wings, as mandated in the QDR. Achieving these goals 
will be difficult, as we balance fighting the global war on terror, 
maintaining our readiness, maintaining America's air, space, and 
cyberspace advantages, modernizing our equipment and capabilities, and 
shaping our airmen, organizations and force structure for the future.
    Several factors have applied pressure to the Air Force budget: 
global war on terror and operations costs; increasing costs of fuel, 
utilities, manpower, and health care; increased costs to own, operate 
and maintain our aging aircraft; unforeseen base realignment and 
closure (BRAC) costs; and lost savings due to congressional 
restrictions on retirement and divestment of our least useful legacy 
aircraft. Although recent congressional support for planned legacy 
aircraft retirements has aided our divestment strategy, unnecessary 
restrictions draw critical resources away from our aircraft 
modernization programs and degrade our efforts to recapitalize our 
aircraft inventory.
    We are meeting our current wartime commitments. We are also 
operating within the resources entrusted to our service--we are staying 
in bounds. We are self-financing our modernization and recapitalization 
efforts to the maximum extent possible though initiatives such as Force 
Shaping, Air Force Smart Operations for the 21st Century (AFSO21) and 
aircraft retirements, while focusing on a ``mission first'' basis. 
Furthermore, we are committed to operate, organize, train, and equip to 
meet the projected demands of the future--they are many. The Future 
Years Defense Program (FYDP) involves taking acceptable risk in lower 
priority areas in order to meet future readiness, capability, force 
structure, and national security requirements.
Next Generation Air Force
    Our loss of overall buying power means the Air Force must attempt 
to rebalance our available resources and force structure to achieve 
Force Planning Construct goals. To reach our 2025 force structure 
objectives, we will synchronize our investments to maximize their 
effect.
    In 2005, we began divesting significant numbers of our oldest, 
least capable, and most costly and difficult to maintain aircraft. In 
2006, we also initiated a carefully calculated reduction in personnel 
end strength to match our declining force structure. As investments in 
research, development, and procurement grow, we will continue building 
our force structure towards 86 modern combat wings. Our personnel end 
strength must concurrently keep pace as we modernize our force 
structure. These two elements--force structure and personnel end 
strength--drive our resource requirements.
    The Air Force is committed--now and in the future--to not only 
defend our Nation but also provide good stewardship of the resources 
entrusted to us. We look forward to working closely with Congress to 
ensure our force structure and personnel investments are synchronized, 
and our efforts to posture, recapitalize and modernize America's Air 
Force fly together in close formation.
Air Force Priorities
    As the Air Force strives to defend America's interests within a 
dynamic strategic environment, we remain committed to our top service 
priorities, as stated by Air Force leaders and outlined in our Vision:

        <bullet> Fighting and winning the global war on terror
        <bullet> Developing and caring for our airmen and their 
        families
        <bullet> Recapitalizing and modernizing our aging aircraft and 
        spacecraft inventories

    These priorities, together with our Enduring Core Values of 
Integrity, Service and Excellence, provide America's airmen a steady 
beacon, guiding how we organize, train and equip in defense of our 
Nation. Our national strategic requirements, global complexities and 
threats, and fiscal elements within the overall strategic environment 
will continue to shape how we execute these priorities. We remain 
focused on the global war on terror, our people, and a modern, capable 
force.
    Your Air Force is dedicated to maintaining, evolving, and expanding 
America's capabilities in air, space, and cyberspace. These 
capabilities are America's Edge--the foundation of America's 
unparalleled Global Vigilance, Reach and Power.
             fighting and winning the global war on terror
    Our Air Force has been engaged in over 16 years of continuous 
combat in Iraq, currently a central front in the global war on terror. 
In addition to OIF, the Air Force is a critical player on the joint and 
coalition team in Operation Enduring Freedom (OEF) in Afghanistan. 
Airmen also vigilantly defend the skies of our Homeland in Operation 
Noble Eagle (ONE). Our enemies are vile, unrelenting, adaptive and 
global. They are motivated by extremist ideologies and bent on 
subjugation and denial of basic freedoms of expression, government and 
religion. It will ultimately require all elements of national power to 
defeat them. Militarily, the Air Force remains committed to finding and 
destroying our Nation's enemies wherever they seek sanctuary, fighting 
side by side with friendly nations in this struggle against violent 
extremism.
    America's airmen operate on a global scale every day. The full, 
complete impact of Air Force engagement includes airmen deployed 
outside of the Continental United States (OCONUS) to contingencies, 
forward deployed in Europe and the Pacific, and employed from their 
home stations as they execute global missions. The Air Force has nearly 
30,000 airmen deployed in Central Command conducting theater 
operations. Similarly, 60,000 Pacific Air Forces and U.S. Air Forces 
Europe airmen are fully engaged in the full spectrum of dissuasion, 
deterrence, coalition training, and military-to-military activities.
    Furthermore, the inherent qualities of air, space, and cyberspace--
speed, range, and payload--allow the forward deployed Air Force 
footprint to be smaller, less vulnerable, and vastly more flexible. 
Airmen are also fully engaged in the global war on terror from their 
home stations, controlling satellites, standing on alert with 
intercontinental ballistic missiles (ICBMs), providing intelligence 
assessments, operating UAVs, and launching airlift, tanker and other 
aircraft missions essential to joint operations worldwide. Every day 
over 200,000 Active, Guard, and Reserve airmen fulfill COCOM missions 
around the world.
A Day in the Life of America's Airmen
    The Air Force delivers Global Vigilance, Global Reach and Global 
Power for our Nation. America's airmen provide vigilance that is 
persistent, focused, and predictive; reach that is reliable, rapid and 
agile; and power that is flexible, precise, stealthy, and decisive.
    A snapshot of current Air Force operations illustrates the myriad 
ways in which COCOMs employ air, space, and cyberspace power to 
accomplish their missions.
    Global Vigilance
    Air Force Global Vigilance capabilities are critical elements of 
the global war on terror, at home and abroad. For instance, the Air 
Force currently operates and maintains satellites directly serving 
Central Command and providing the communications, sensor, and 
navigation capabilities on which the lives and missions of soldiers, 
sailors, airmen, marines, and coastguardsmen depend. From bases in the 
continental U.S., our airmen also maintain space situational awareness 
(SSA) for the region, tracking over 500 daily orbital passes over 
Baghdad of satellites of all nations.
    Theater-based aircraft have become critical elements in the 
Counter-Improvised Explosive Device (Counter-IED) effort by ``scanning 
and jamming.'' On a daily basis U-2s, Global Hawk and Predator UAVs, 
and E-8C Joint Surveillance Target Attack Radar System (Joint STARS) 
aircraft survey, track, identify--and sometimes destroy--insurgents and 
safe houses. In fact, the Air Force maintains over 10 24/7 UAV Combat 
Air Patrols (CAP) in Central Command, providing persistent ISR and--in 
the case of Predator--a lethal strike option. In addition to their 
global responsibilities, stateside Airborne Warning and Control System 
(AWACS) crews and airplanes fly and stand on alert as part of our 
homeland defense surveillance requirements.
    Global Reach
    Air Force airlifters and tankers provide the global reach that 
underwrites the joint effort in the global war on terror. An Air 
Mobility Command aircraft departs a runway somewhere on the planet 
every 90 seconds, 24 hours a day, 365 days a year. On a typical day, 
the Air Force flies over 250 airlift sorties, moves over 1,000 tons of 
cargo, and transports nearly 2,500 passengers. In Central Command, 
intratheater airlift aircraft like the C-130 and C-17 have borne heavy 
loads, taking thousands of convoys off dangerous roads and reducing the 
threat of IEDs to about 8,500 people each month.
    Aeromedical evacuation (AE) has emerged as a critical capability 
for the Joint Force. In fact, Air Force AE is responsible for the 
transport and care of over 36,000 patients in the global war on terror. 
Our airmen have achieved a recordsetting average patient movement time 
of 72 hours, a dramatic reduction from the 10-14 days required during 
the 1991 Persian Gulf War. Such rapid global movement provides U.S. 
service men and women the highest survival rates in the history of 
warfare.
    Air Force tankers provide global mobility and reach for Air Force 
aircraft, the joint team and coalition forces. While the average tanker 
is over 40 years old, KC-135s and KC-10s nonetheless fly 30 tanker 
missions on a typical day in Central Command and stand on alert to 
provide additional endurance for our aircraft performing homeland 
defense missions.
    Global Power
    At the sharp end of Air Force capabilities, America's airmen 
deliver Global Power in the global war on terror. Using UAVs, tight 
air-ground integration, and time sensitive targeting, we have 
eliminated several high-value terrorist and insurgent targets in 
Afghanistan, Somalia, and Iraq. In a war where intelligence is 
fleeting, the Air Force has made constant innovations to shorten the 
time cycle it takes to deliver rapid, precise effects. Fighters 
originally designed for strike missions are now using their targeting 
pods as nontraditional ISR sensors over Iraq and Afghanistan, providing 
a unique extension of both vigilance and power for the Joint Force 
Commander (JFC). Battlefield airmen serve side by side with our joint 
partners on the ground and use live streaming video from Predators or 
targeting pods to orchestrate rapid air and ground attacks on 
insurgents. The successful June 2006 strike against al Qaeda leader Abu 
Musab al-Zarqawi is only one illustration of how the active Duty, Air 
National Guard, and Air Force Reserve Command seamlessly integrate 
capabilities from around the globe into precise, dislocating, and 
decisive effect.
    Since the beginning of the global war on terror, the typical strike 
mission has evolved from a pre-planned sortie against a fixed target to 
a flexible, on-call mission profile responsive to a rapidly changing 
battlefield. In Central Command, fighters typically fly nearly 80 
strike, electronic warfare, or non-traditional ISR sorties each day. 
Back in the U.S., fighters stand guard over our Homeland, ready to 
launch at a moment's notice. Worldwide, Air Force fighters and bombers, 
coupled with the strength of America's space and cyberspace 
capabilities, are the tools of reassurance, deterrence and dissuasion. 
America's airmen are the global, strategic muscle behind U.S. 
diplomacy, providing a lethal over-the-horizon capability to directly 
influence events on the ground--whether based in Japan, Guam, or 
Whiteman Air Force Base (AFB), Missouri.
Fostering Joint Interdependence
    Air Force dedication to joint interdependence is illustrated in the 
global war on terror. Around the world, we are committed to providing 
COCOMs an increased ability to integrate air, space, and cyberspace 
capabilities and gain cross-dimensional synergies in pursuit of 
National Security Joint Force objectives.
    Fifth-Generation Fighters
    Currently in production and fully operational at Langley AFB, 
Virginia, the F-22A is the newest member of the Air and Space 
Expeditionary Force--our airmen are putting the world's first fifth-
generation fighter into action. Its attributes of speed, stealth, 
maneuverability, advanced sensors and adaptable, integrated avionics 
will meet our Nation's enduring national security requirement to gain 
and maintain joint air dominance, as well as enable precise engagement 
against a broad range of surface targets.
    America's airmen are understandably proud of their contributions to 
the joint fight. They have prevented enemy aircraft from inflicting any 
U.S. ground force casualties for over 50 years. We dedicate our efforts 
and risk our lives to sustain this record. Production in sufficient 
numbers of fifth-generation fighters--both the F-22A Raptor and the F-
35A Lightning II--remains the best guarantee of homeland air 
sovereignty and joint air dominance.
    Numbered Air Forces
    The Air Force has established component Numbered Air Forces (NAFs) 
dedicated to supporting each COCOM across the full range of military 
operations. Each component NAF provides an integrated and 
technologically advanced command and control capability, adaptable to 
contingencies across the spectrum of conflict. Over the next several 
years, we will continue to refine this command and control structure 
through the development of centralized ``reach back'' capabilities, 
integration of guardsmen and reservists, and more advanced cyber 
technologies.
    Air and Space Expeditionary Force
    The Air and Space Expeditionary Force (AEF) organizational 
construct is a modern design for the modern world.
    Since the end of the Cold War, the Air Force has evolved from a 
force based at large, permanent U.S. and overseas bases to an 
expeditionary force, requiring fewer permanent bases and using an 
expanded network of temporary forward bases. As we adapted to this new 
operating environment, we quickly recognized the deployment construct 
for our force also had to change. Since 1999, we have organized our Air 
Force combat forces into 10 AEFs that present capability to COCOMs, 
provide trained and ready forces for emerging threats and 
contingencies, and help manage high deployment tempo through a stable 
and predictable rotation schedule. When demand for American air power 
skyrocketed after September 11, the Air Force extended the deployment 
period from 90 to 120 days to accommodate the COCOMs' demands.
    We continue to adapt our people and organizational constructs to 
ensure airmen are highly motivated, exceptionally well-trained, and 
equipped with the right skill sets to present the joint warfighter with 
a broad set of capabilities. We realigned the AEF Center under the Air 
Force Personnel Center at Randolph Air Force Base, Texas, to leverage 
similar functions and merge permanent authorizations, wartime 
requirements, and assignments under a single commander. The Air Force 
is also moving forward with fielding of Contingency Response Groups 
(CRGs), organized, trained and equipped to provide an initial ``Open 
the Base'' capability to COCOMs. The CRG provides a rapid response team 
to assess the location-specific support requirements necessary to open 
an expeditionary airfield, as well as provide a rapid projection of 
America's vigilance, reach, and power.
    Joint Warfighting Integration
    Due to the dynamic demands of the global war on terror, airmen fly 
strike, ISR, combat search and rescue (CSAR), AE, electronic warfare 
and airlift sorties everyday over Afghanistan and Iraq. They also 
augment ground forces to provide security and stability in both 
countries. Airmen are working hand-in-hand with ground and naval forces 
training and augmenting both Iraqi and Afghan security forces, 
rebuilding critical infrastructure, and providing medical services to 
these war-torn countries.
    Air Force CSAR helicopters remain on alert in Iraq and Afghanistan, 
providing commanders with the capability to rescue isolated military 
and civilian personnel. Air Force CSAR crews answer the moral 
obligation to safely secure and return any and every member of our 
joint team.
    The effectiveness CAS provides soldiers and marines is another 
example of interdependence. Tactical training at the National Training 
Center provides soldiers and airmen the opportunity to see how they 
will deploy and fight together on future battlefields. The Army's 
Stryker Brigade Combat Teams now in service and the Future Combat 
System under development both rely heavily on Air Force strike 
capabilities to remain effective. Therefore, we are adding 700 TACP 
airmen to serve with ground components to ensure the Air Force's timely 
and precise effects are always available.
    Building Global Partnerships
    Fighting and winning the global war on terror requires commitment, 
capability, and cooperation from allies and partners around the world. 
We depend on our international partners to secure their territory, 
support regional stability, provide base access and overflight rights, 
and contribute a host of air, space, and cyber power capabilities as 
interoperable coalition partners. As the pace of economic, political 
and cultural globalization increases, the importance of strong global 
partnerships--both now and in the future--is abundantly clear.
    The Air Force leads the way in developing enduring air force-to-air 
force relationships around the world. To strengthen these 
relationships, we are expanding Red Flag access to our allies and 
partners. We are also working to establish the Gulf Air Warfare Center 
as a tactical center of excellence. In addition to integrating 
coalition partners into our most robust combat training scenarios, we 
have established the Coalition and Irregular Warfare Center of 
Excellence to facilitate development of relevant airpower capabilities, 
capacities, and relationships in partner nations in the global war on 
terror, and to facilitate development of innovative Air Force irregular 
warfare applications. We are also expanding the 6th Special Operations 
Squadron to bolster our ability to train foreign air forces and expand 
our repertoire of non-kinetic capabilities in the global war on terror. 
Furthermore, our aircrews, especially airmen executing global mobility 
and airlift missions, interact daily with host nation personnel, 
representatives and citizenry, enhancing America's image of strength, 
freedom, and hope.
    Through the Air Force Security Cooperation Strategy, we continue 
working with allies and friends to help them attain capabilities that 
complement our own air, space, and cyberspace capabilities. This 
document uses the Office of the Secretary of Defense (OSD) Security 
Cooperation Guidance as a foundation and aligns with COCOM Theater 
Security Cooperation strategies. This comprehensive, coordinated effort 
builds capability in potential partner air forces using the six U.S. 
Air Force Distinctive Capabilities as driving tenets.
    Recent commitments, such as procurement of C-17 airlifters by 
Australia and the NATO Alliance, and broad international participation 
in the F-35A JSF program, will further reinforce our current and future 
interoperability with global partners. Finally, we have infused 
expeditionary, regional, cultural and linguistic education throughout 
our training programs at every level. The Air Force executes a global 
mission. Our approaches to operations, interoperability and training 
exemplify our global, international perspective.
    Air Staff Intelligence Directorate
    Intelligence is becoming more critical in today's rapidly changing 
security environment. Collection, analysis, and timely distribution of 
information are essential to kinetic and nonkinetic approaches to our 
Nation's security challenges. Accordingly, we moved Intelligence 
directly under the Chief of Staff, creating the position of Deputy 
Chief of Staff for Intelligence (A2) and elevating the position to a 
three-star billet from its former two-star billet.
    Partnership with the National Reconnaissance Office
    The Air Force and the National Reconnaissance Office achieved a 
groundbreaking agreement on 7 June 2006 to share expertise and best 
practices. The agreement focuses specifically on sharing lessons 
learned in developing, acquiring, fielding and operating modern space 
systems. Both organizations recognize the need to enhance their 
respective capabilities, as well as to work collaboratively to respond 
to future challenges.
    Combat Search and Rescue Realignment
    The transfer of the CSAR mission from Air Force Special Operations 
Command to Air Combat Command provides a clearer presentation of forces 
to joint commanders and ensures a direct CSAR link to the Combat Air 
Forces and the personnel they serve. In addition, the Air Force's Next 
Generation Combat Search and Rescue aircraft (CSAR-X) will modernize an 
aging CSAR fleet, provide greatly improved all-weather combat search 
and rescue worldwide--an essential component of our commitment to the 
joint team and our allies.
    Air and Space Operations Centers
    In June 2005, we achieved an Initial Operational Capability with 
our Air and Space Operations Center (AOC) Weapon System and are well on 
our way to a Full Operational Capability for the entire AOC inventory. 
The Air Force leads the way in delivering sovereign options to defend 
our Homeland and our global interests by providing a global command and 
control (C2) capability to COCOMs, enabling them to orchestrate air, 
space, and cyberspace effects in pursuit of national military 
objectives. AOCs are the central operational nodes in this capability, 
and the Combined AOC in operation at Al Udeid, Qatar, exemplifies the 
most advanced and robust AOC system in the Air Force today.
    Aeromedical Evacuation
    Air Force AE contributes a unique, nationally vital capability to 
the joint fight. Air Force AE innovations include use of ``designated 
vs. dedicated'' aircraft, ``universally-qualified'' AE crewmembers, 
able to fly on any AE-configured aircraft, and the extensive use of 
Critical Care Air Transport Teams to transport stabilized patients.
    Air Force AE is combat proven. Since late 2001, we have 
orchestrated the care and transfer of more than 36,000 overseas 
patients to CONUS facilities. We continue to refine this remarkable 
capability and the ``en route care'' system built upon our 
expeditionary medical system.
    Air Force AE is a Total Force system, and both AE and en route care 
are built on teamwork, synergy, and joint execution. Technological 
advances such as the single integrated patient data system, high-flow 
ventilators, high deck patient loading system, and the Joint Patient 
Isolation Unit are under development and will further enable safe 
patient movement regardless of transportation mode.
    America's Air Force has provided soldiers, sailors, marines, 
coastguardsmen, and airmen the highest casualty survival rates in the 
history of warfare. By leveraging AE and en route care, we will 
continue to improve our ability to save and sustain lives.
Space Capabilities in Joint Operations
    The entire joint force depends on Air Force space-based 
capabilities to meet not only the needs of military operations, but 
also the full spectrum of civil, economic, and diplomatic activities. 
Moreover, rescue and recovery operations in 2005 following Hurricanes 
Katrina and Rita clearly demonstrated the humanitarian mission utility 
of space-based communications, positioning and navigation services, and 
environmental monitoring. America's airmen safeguard the high ground of 
space and ensure America's unimpeded access to vital space 
capabilities.
    Space Applications in Afghanistan and Iraq
    Operations in Iraq and Afghanistan highlight the importance of 
space-based capabilities to U.S. and coalition forces. An example of 
Air Force response to warfighter needs is the successful deployment of 
the Satellite Interference Response System (SIRS), a defensive 
counterspace prototype. It aids in the identification, geolocation and 
reduction of interference sources for critical satellite 
communications. SIRS has improved the response time to unknown 
interference sources within the CENTCOM AOR and reduced friendly 
interference sources from impacting operations.
    Blue Force Tracking capability is another success story. Joint Blue 
Force Tracking has fundamentally changed ground warfare. The ability to 
accurately locate friendly forces with GPS timing and positioning 
information, and then share that information, dramatically improves 
understanding on the battlefield and reduces the risk of friendly fire. 
The unprecedented real-time knowledge of friendly force locations 
renders all operations--especially night and urban operations--less 
dangerous and more effective.
    Joint Space Operations Center
    The 14th Air Force Air and Space Operations Center (Space AOC) at 
Vandenberg AFB, CA, serves as the core of the United States Strategic 
Command Joint Space Operations Center (JSpOC). The Space AOC/JSpOC is 
the primary command and control node for integrating the full resources 
of space-based sensor and command-control systems. The Space AOC/JSpOC 
proactively reaches forward to COCOMs, ensuring accomplishment of 
theater and global space objectives, while providing a continually 
updated space common operating picture for integration into current 
wartime and peacetime missions.
    The Space AOC/JSpOC consists of personnel, facilities, and 
resources providing long-term strategy development, short-term crisis 
and contingency planning, real-time execution, space asset 
reallocation, and space forces assessment. The Space AOC/JSpOC provides 
tailored space effects to joint forces worldwide.
    The Space AOC/JSpOC maintains SSA through the fusion of 
intelligence, space- and ground-based sensor readings, and operational 
indications to allow U.S. and allied forces unfettered access to space. 
The Space AOC/JSpOC also provides predictive analysis of adversary 
space activity and supports the protection of National Security Space 
assets.
    Counterspace
    Air, space, and cyberspace superiority are the foundational 
elements of joint success in any action. Counterspace and Countercyber 
technologies and operations provide America with the tools to achieve 
space and cyber superiority, allowing America freedom of action while 
denying freedom of action to an adversary or enemy. SSA, Defensive 
Counterspace (DCS) and Offensive Counterspace (OCS) capabilities 
comprise the main elements of Air Force counterspace efforts.
    SSA provides airmen with detailed knowledge of the space 
environment, enabling responsive, effective execution of DCS and OCS 
actions. Enhanced ground-based and new space-based SSA assets would 
provide the needed information. In the near-term, the Rapid Attack 
Identification Detection and Reporting System (RAIDRS), along with 
SIRS, will test detection and geo-location technologies. The Space 
Based Space Surveillance (SBSS) and Space Fence programs will deliver 
transformational capabilities to improve responsiveness, surveillance 
coverage, and small object detection. We expect to field these improved 
capabilities in the fiscal year 2009 and fiscal year 2013 timeframes, 
respectively.
    Air Force Defensive Counterspace efforts will protect National 
Security Space capabilities vital to joint success. Some defensive 
strategies comprise technical solutions integrated into satellite 
designs. We will design other systems specifically to counter 
adversarial threats. Additionally, our airmen are continuously 
developing new tactics to mitigate potential threats to our space 
systems.
    Offensive Counterspace technologies and operations seek to disrupt, 
deny, or degrade an adversary's ability to leverage space capabilities. 
The Counter Communications System (CCS) provides COCOMs a method to 
deny an adversary's access to satellite communications through 
temporary, reversible and nondestructive means. CCS expands the options 
available for the COCOM to address the proliferation of advanced space 
technologies and their availability to potential adversaries.
                  developing and caring for our airmen
    Your Air Force today is a seamless Total Force, with over 690,000 
airmen serving on Active Duty, in the Air National Guard (ANG), in the 
Air Force Reserve Command (AFRC) and as Air Force civilians. While 
modern equipment, technology and capability are essential to success, 
your airmen are the bedrock of America's ability to succeed in an era 
of challenge and uncertainty.
    While emphasizing our global expeditionary culture, organization 
and mission, we remain committed to providing and maintaining the 
highest possible standards of education, training, health care, and 
installation services for America's airmen.
Force Shaping
    When the Air Force began to develop a long-term force structure 
plan, we started with divestment of legacy aircraft. While we have 
achieved some success, significant investment gaps remain. Moreover, 
the costs of personnel continue to rise. Personnel costs have increased 
57 percent in the past decade. In early 2006, Program Budget Decision 
720 directed additional end strength reductions over the FYDP. As we 
manage this downsizing, we remain committed to a balanced force. We 
will increase manning in stressed career fields, and expand 
opportunities for career development and training. Our goal is a lean, 
more capable, more lethal Air Force, organized, trained, and equipped 
for our global, expeditionary mission.
    To tailor our personnel mix to the new security environment, we 
authorized implementation of annual Force Shaping Boards (FSBs). The 
purpose of the fiscal year 2006 FSB was to reduce officer overages by 
identifying eligible officers for separation, while balancing career 
fields and officer commissioned year groups. Prior to the board, 
eligible officers were offered voluntary options to transition to other 
forms of service in and out of the Air Force. The Air Force also waived 
most Active Duty Service Commitments (ADSC) to allow officers to 
separate early. In addition, the Air Force is offering Voluntary 
Separation Pay to officers in overage career fields, and we will 
convene a Selective Early Retirement Board to identify retirement-
eligible officers for early retirement if necessary.
    To achieve the required reductions of enlisted airmen, the Air 
Force instituted a date of separation rollback for personnel with 
limitations on their assignment or enlistment eligibility. We also 
offered a limited number of ADSC waivers for eligible members in 
overage career fields. These initiatives to shape the enlisted force 
join the tools already in place: Career Job Reservations, reduction in 
accessions, and the Noncommissioned Officer Retraining Program.
    Overall, the Air Force aims for a reduction of over 4,000 officers 
and 10,000 enlisted members by the end of fiscal year 2007. These 
reductions are difficult but necessary to ensure the Air Force 
maintains the right size and mix of forces to meet the fiscal and 
global challenges of today and tomorrow.
Total Force Integration
    A distinguishing hallmark of the Air Force is the ease with which 
airmen from Active Duty, ANG, and AFRC work together at home and 
abroad. From the build-up of the ANG after World War II, the first 
Reserve Associate unit in 1968 and the full integration of Guard and 
Reserve units into the Air and Space Expeditionary Force in the 1990s, 
the Air Force has a history of employing airmen from all components in 
innovative and effective ways.
    One of the Air Force's significant commitments to long-term 
transformation is Total Force Integration (TFI). The Total Force 
construct seeks to maximize the Air Force's overall joint combat 
capability with Active Duty, Air National Guard and Air Force Reserve 
airmen working together cohesively. TFI is critical to meeting the 
challenges of competing resource demands, an aging aircraft inventory, 
and emerging missions.
    New and Emerging Missions
    As the Air Force transforms to a smaller, more agile and lethal 
force, we will retain the strengths of the Guard and Reserve and use 
them in new ways to reflect a changing mission set. Increased 
integration allows Air Force personnel to capitalize on experience 
levels inherent in the Guard and Reserve, while building vital 
relationships necessary to sustain successful combat operations.
    Ongoing Total Force initiatives integrate Air Force components into 
missions critical to future warfighting, and include ISR, UAVs, space 
and cyberspace operations. Given the ease of employing these 
capabilities from home station, these missions are ideally suited for 
the Guard and Reserve. In a time of increasing demand for these 
capabilities, it only makes sense to use reachback technologies to tap 
into our Air Reserve component. Using this approach improves our 
operational effectiveness, reduces reliance on involuntary 
mobilization, and provides more stability for our airmen and their 
civilian employers. It also allows the Air Force to capitalize on the 
state-of-the-industry advanced skills and best practices residing in 
the ranks of the ANG and AFRC.
    Way Ahead
    The Air Force continues to make significant progress on our Total 
Force initiatives. We have identified 136, secured funding for 98 
opportunities and are executing 19. We have established associate units 
at several locations including F-22As in Virginia and Alaska, C-17s in 
Hawaii, F-16s in Utah, and C-130s in Wyoming. Additionally, Guardsmen 
are analyzing global war on terror intelligence in Kansas, and 
reservists are flying operational global war on terror UAV missions 
from Nevada. With over 100 initiatives in the planning phase and many 
more in the development phase, Total Force Integration is paving the 
way for a smaller, more capable, more affordable Air Force.
Improving Training Opportunities
    Spanning 6 decades of Air Force history, particularly over the past 
16 years, our airmen have proven themselves as the global first 
responders in times of crisis--taking action anytime, anywhere. The 
foundation for this well-deserved reputation is the quality and 
frequency of the training and education we provide. Our Air Force 
training initiatives continue to evolve, improving our ability to 
develop and retain the world's best air, space, and cyberspace 
warriors--expeditionary, knowledge-enabled, ethical, and prepared for 
the interdependent fight.
    Air Force Basic Military Training
    We changed Air Force Basic Military Training (BMT) curriculum to 
stress an expeditionary mindset in all phases of training, providing 
airmen with more expeditionary capability from day one. These changes 
are the most significant in BMT history. The Air Force basic training 
experience now mirrors the AEF cycle with a pre-deployment, deployment 
and reconstitution phases. We emphasize basic war skills and practical 
application throughout BMT. Beginning 1st quarter fiscal year 2009, BMT 
will incorporate 2 additional weeks of instruction--lasting 8.5 weeks 
total--to provide more opportunities for practical application and 
field exercises. Finally, we have added ``Airman's Time,'' mentoring 
sessions in which our veteran instructors share their real world 
experiences, relate daily training events to warrior and Airmanship 
qualities, and reinforce the Core Values expected of all airmen.
    Space Professional Development
    Space capabilities have become vital in the defense of our Nation 
and the continued growth of the U.S. and world economies. Developing, 
fielding, operating, and maintaining the Air Force's broad array of 
space systems demands a highly-trained, expertly managed workforce of 
space professionals. As we begin to field even more capable and complex 
systems, the demands on our space professionals will only increase. We 
have brought these personnel together within the Space Professional 
Development Program, ensuring our operations, acquisition and support 
personnel receive the training, education and experience necessary to 
accomplish our mission in space--now and in the future.
    U.S. Air Force Warfare Center
    The U.S. Air Force Warfare Center (USAFWC) integrates initiatives 
across the Air Force. USAFWC sets the standard for executing joint and 
coalition air, space, and cyberspace operations. The USAFWC provides 
advanced training designed to ensure our Air Force warfighting 
capability remains unrivaled. USAFWC provides performance assessment 
and joint integrated exercise venues for units from the USAF, USN, 
USMC, and USA--as well as our allies. They provide adversary analysis 
through a unified and coordinated ``Red Force'' ready to ``combat'' the 
United States' and their coalition partners during all phases of 
testing, tactics development, training programs, and integrated 
exercises.
    Red Flag
    In addition to its original location at Nellis AFB, NV, the Air 
Force now conducts Red Flag exercises in Alaska using Eielson AFB, 
Elmendorf AFB, and the Pacific Alaska Range Complex. The two exercises 
are designated Red Flag-Nellis and Red Flag-Alaska, respectively.
    Red Flag is expanding aggressor capabilities to provide enhanced 
training at both locations. The Air Force added an F-15 aggressor unit 
in Nevada and, starting in October 2007, we will establish an F-16 
Aggressor Squadron at Eielson AFB ready to participate in Red Flag-
Alaska exercises in 2008. Aggressor functions have expanded to include 
air defense, space, and cyber operations. This integrated aggressor 
force provides all Red Flag exercises with a consistent, world-class 
training capability. Bolstering the dissimilar combat experience, the 
Air Force also has taken steps to expand the participation of coalition 
partners and allies in Red Flag.
    Overall, enhanced aggressor operations and common training concepts 
will increase the quality of Red Flag training, and two locations will 
increase the quantity of training opportunities. When complete, these 
changes will make a great program even better--saving lives in the next 
fight.
    Military Personnel Exchange Program
    Through the Military Personnel Exchange Program, the Air Force 
builds, sustains, and expands international relationships that are 
critical enablers for our Expeditionary Air and Space Force. Long-term 
success in the global war on terror calls for broad international 
partnership and integration. Expanding our exchange programs to Eastern 
Europe, the Middle East, and Southeast Asia is critical to the conduct 
of the global war on terror and in building lasting partnerships with 
our Allies.
Quality of Life
    Your Air Force has been at war for nearly 17 consecutive years. 
These challenging times underscore the importance of properly 
maintaining the capabilities of the primary weapons in our Air Force 
arsenal--our airmen. Our focus on their quality of life ensures these 
vital ``weapon systems'' remain ready when called upon.
    Expeditionary Support
    We ensure the best possible facilities and programs at all our 
expeditionary locations. Our dining facilities are unequalled--
currently serving over 36,000 meals daily to deployed forces. We also 
provide fitness and recreation support to help maintain the health and 
morale of our airmen. Additionally, our Learning Resource Centers 
provide the necessary means for distance learning, continued 
professional development, and connectivity with friends and family.
    Our Airman and Family Readiness Program is an aggressive effort to 
prepare airmen and their families for deployment challenges. Mandatory 
pre-deployment briefings provide information on personal planning and 
stressors related to extended duty away from home, while mandatory 
post-deployment briefings prepare airmen for the dynamics of reuniting 
with their families.
    Language and Cultural Education Opportunities
    We are moving beyond traditional Air Force and joint warfighting 
skills development. Our educational programs provide increased 
opportunities for airmen to receive focused cultural and language 
training, facilitating greater professional interaction, deeper 
understanding, and more effective operations.
    The expanded instruction includes cultural awareness, regional 
affairs, and foreign language proficiency. All Air Force Academy cadets 
and Reserve Officer Training Corps (ROTC) nontechnical scholarship 
cadets will be required to take language courses. Additionally, both 
Academy and ROTC cadets have increased opportunities for Foreign 
Language and Area Studies degrees and have expanded Cultural Immersion 
and Foreign Exchange Programs. Our enlisted basic military training 
also will provide instruction on cultural sensitivity.
    Once in the Air Force, each level of Officer and Enlisted 
professional military education (PME) provides additional cultural, 
regional and foreign language instruction, developing leaders who can 
articulate U.S. policy and operate effectively in foreign settings. 
Furthermore, we will increase Developmental Educational opportunities 
for global skills, including overseas professional military education 
and the Olmstead Scholars Program. We will then vector these airmen 
into Political-Military Affairs or Regional Affairs Strategist career 
tracks, maximizing America's return-on-investment.
    Housing and Military Construction
    Air Force investments in housing underscore our emphasis on 
developing and caring for airmen. Through military construction 
(MILCON) and housing privatization, we are providing quality homes 
faster than ever before. Over the next 2 years, the Air Force will 
renovate or replace more than 4,200 homes through MILCON. We are on 
track to meet our fiscal year 2009 goal of eliminating inadequate 
housing at overseas locations.
    Investment in dormitories continues to provide superior housing to 
our unaccompanied members. We have over 3,000 dormitory rooms 
programmed for funding over the next 6 years. Approximately 75 percent 
of these initiatives rectify inadequate dormitory conditions for 
permanent party members. Our new ``Dorms-4-Airmen'' standard is a 
concept designed to increase camaraderie, social interaction and 
accountability. The remaining dormitory program modernizes inadequate 
``pipeline'' dormitories that house young enlisted students during 
their initial technical training.
    MILCON is an essential enabler of Air Force missions; however, we 
are accepting risk in facilities and infrastructure funding in order to 
bolster our efforts to recapitalize and modernize our aging aircraft 
and equipment. We have prioritized the most critical requirements to 
support the Air Force and DOD requirements. Our MILCON strategy 
supports these priorities by focusing on new mission beddowns, 
dormitories, fitness centers, childcare centers, and depot 
transformation.
    Joint Basing
    The Air Force has a long and successful history of working toward 
common goals in a joint environment, without compromising Air Force 
principles and the well-being of our people. Joint Basing initiatives 
are no exception. We want Joint Basing to be a raging success. 
Therefore, each Joint Base should be required to provide an attractive 
setting to all of its assigned personnel.
    To accomplish this end, we advocate the establishment of the 
highest Quality of Life standards of individual bases as the Joint Base 
Quality of Life standards. Joint Basing is an opportunity to improve 
efficiency, Quality of Life standards and common delivery of 
Installation Support Services. Joint Basing will consider best business 
practices to ensure enhancement of joint warfighting capabilities, 
eliminate duplication, and ultimately achieve synergy for base support 
services. These actions will optimize joint use of limited resources 
and result in more efficient installations from which all Services will 
project combat power for our Nation.
    Through the establishment of the highest level of Quality of Life 
standards at each joint base, our airmen, soldiers, sailors, marines, 
DOD civilians, and their families will benefit from efficient, 
consistent Installation Support Services. These standards will ensure 
the Air Force and our sister Services continue to provide all personnel 
with the level of Installation Support Services they deserve. As we 
work with OSD and our sister Services, we will ensure all Joint Basing 
initiatives guard against any interference with the DOD's ability to 
perform its mission. Joint Basing allows us to build closer 
relationships and forge stronger ties among the Services. We will not 
only train as we fight, we will live as we fight.
                recapitalizing and modernizing the force
    To meet the needs of our Nation at war and successfully build the 
86 modern combat wings necessary to maintain a credible defense posture 
in the future, we are committed to aggressively recapitalizing and 
modernizing our inventories of aircraft, space systems, equipment, and 
operational infrastructure. Executing a successful recapitalization 
plan is a balancing act. We will continue to meet today's operational 
needs while striving to ensure America and our future airmen inherit an 
Air Force that is ready, capable and sustainable. We are committed to 
maintaining air, space, and cyberspace advantages and America's 
unparalleled Global Vigilance, Reach and Power--America's Edge.
Comprehensive Plan
    Our recapitalization and modernization plan follows an integrated 
strategy of retirement, procurement, selective Service Life Extension 
Programs (SLEPs) and modifications--coupled with the broadest, most 
innovative science and technology program in DOD. We will progressively 
shed our oldest, most costly, and least capable legacy aircraft, while 
reinvesting in a smaller--but more capable--expeditionary force, 
emphasizing global and joint capabilities. While these strategies will 
sustain selected legacy systems for near-term, we will avoid billions 
of dollars on further SLEPs by working our stewardship of funds today. 
It has become far more expensive to continuously extend the life of 
older aircraft. We are fast approaching the point where it is cheaper 
to buy new aircraft.
    Our plan will allow effective, efficient modernization and 
replacement of our air superiority, strike, space, ISR, mobility, 
special operations, and combat support systems. Fully recapitalized, 
America's Air Force will remain dominant in the conduct of modern, 
networked, cross-dimensional 21st century warfare.
    An Aging Inventory
    The Air Force is meeting today's combat requirements--but not 
without increasing risks and costs. We have an aging and increasingly 
unfit inventory of aircraft, space systems, and equipment. Of our 
inventory of approximately 6,000 aircraft, a significant number operate 
under flight restrictions. Many transport aircraft and aerial refueling 
tankers are more than 40 years old. The average age of the bomber force 
exceeds 30 years. The fighter force is the oldest it has ever been, at 
an average age of more than 18 years. Additionally, our airmen operate 
and maintain many satellites well in excess of their originally 
designed mission durations. Across every mission, the Air Force is 
experiencing detrimental effects of high tempo operations and age, 
including engine and structural fatigue, deterioration, corrosion and 
increased rates of component failure.
    As a result, the Air Force's ability to meet the combat 
requirements of tomorrow is in question. The increased tempo of current 
operations delays routine maintenance and we find our systems becoming 
progressively less effective and more costly to own and operate. 
Aircraft and equipment modifications currently absorb 20 percent of the 
Air Force's procurement budget. This is the highest percentage in the 
history of the Air Force. In fact, 14 percent of our Air Force fleet is 
either grounded or operating under mission-limiting flight 
restrictions. Our comprehensive plan for modernization and 
recapitalization outlines the prudent investments necessary today to 
avoid the future capability risks and spiraling maintenance and 
modernization costs we currently experience with our legacy systems.
    Inventory Management
    Fiscal responsibility is a critical element of our plan. The Air 
Force is committed to planning and operating within our allocated 
resources. However, we face fiscal constraints that introduce risk into 
our efforts to successfully posture America's Air Force for the future. 
We appreciate congressional language in the 2007 National Defense 
Authorization Act supporting our efforts to retire older aircraft and 
manage our inventory of aging equipment. However, remaining legislative 
restrictions on aircraft retirements remain the biggest obstacle to 
efficient divestiture of our oldest, least capable, and most costly to 
maintain platforms and equipment. Keeping these legacy aircraft on the 
flightline levies additional operations and maintenance costs at the 
expense of modernization programs and funding. These costs cascade into 
procurement delays for future platforms and divert resources away from 
expanded joint capabilities. We welcome the opportunity to work with 
Congress to overcome these fiscal challenges, reduce risks to meeting 
our national security and joint requirements, and successfully prepare 
our Air Force for the future.
    Procurement Priorities
    We design and structure every Air Force program throughout our 
diverse, comprehensive recapitalization and modernization plan to meet 
critical Air Force, joint, and national requirements. Several programs 
currently receive our highest attention and represent our top 
priorities within the plan.
    Our top acquisition priorities include: the KC-X Tanker; the CSAR-X 
Combat Search and Rescue Helicopter; space communications, space 
situational awareness and early warning programs; the F-35A JSF; and 
Next Generation Long Range Strike--a new bomber. We will continue to 
advocate and advance these and many other modern elements of air, 
space, and cyberspace capability. Collectively they will strengthen 
America's advantages in Global Vigilance, Reach and Power for years to 
come.
Global Vigilance
    The Air Force acts as the global eyes and ears of the joint team 
and our Nation. Using a vast array of terrestrial, airborne, and 
spaceborne sensors, we monitor and characterize the Earth's sea, air, 
space, land, and cyber domains around the clock and around the world. 
Our command, control, communications, and computers (C\4\) networks 
link the joint team together and speed information to users at the 
point of action, from commanders in AOCs, to ground units engaged with 
the enemy, to a pilot dropping a precision-guided munition.
    The future vision of all the U.S. military Services is information-
driven. Success will hinge on America's cyberspace advantages. Air 
Force assets like Joint STARS, AWACS, Rivet Joint, Global Hawk, 
Predator and our constellations of satellites, contribute vital 
networking and C\4\ISR products and services to every aspect of every 
joint operation. Our recapitalization and modernization plan aims to 
increase dramatically the quantity and quality of C\4\ISR capabilities, 
products and services available to the joint team and the Nation. Our 
plan especially focuses on ensuring Air Force space communications, SSA 
and early warning missions provide uninterrupted continuity of service 
for America and our allies.
    Transformational Satellite Communications System
    The Air Force continues to pursue next-generation satellite 
communications technology with the Transformational Satellite 
Communications System (TSAT). The TSAT program will employ Internet 
Protocol networks, on-board routing and high-bandwidth laser 
communication relays in space, dramatically increasing warfighter 
connectivity. TSAT capabilities will enable the realization and success 
of all DOD and joint visions of future network-centric operations, such 
as the Army's Battle Command-on-the-Move and the Navy's Sea Power 21 
vision and Fleet FORCEnet/FORCEview concepts. In 2007, we expect the 
TSAT program to complete system design milestones.
    Advanced Extremely High Frequency System
    The Advanced Extremely High Frequency (AEHF) satellite 
communications system reaches Assembly Integration and Test in 2007, 
preparing for first launch in spring 2008. When deployed, AEHF will 
provide the secure, survivable, anti-jam communications that MILSTAR 
currently provides. AEHF will, however, also provide greater bandwidth, 
larger throughput, faster dissemination, and better service quality to 
U.S. and allied users.
    Wideband Global SATCOM System
    In 2007, the Air Force will take the first major step in the 
modernization of its satellite communications architecture with launch 
of the first satellite in the Wideband Global Satellite Communications 
(SATCOM) System (WGS), a program formerly known as Wideband Gapfiller 
Satellite. A single WGS satellite has more communications capacity than 
the entire Defense Satellite Communications System it replaces, 
enabling direct broadcast of digital multimedia, high-bandwidth imagery 
and digital video information directly from global and theater sites to 
deployed warfighters.
    Terminal Programs
    Air- and ground-based satellite communications terminals provide 
warfighters with critical links to America's space assets from anywhere 
in the world. Our terminal modernization programs are maintaining pace 
with the high performance satellites they support. Through programs 
like the Family of Advanced Beyond Line of Sight Terminals (FAB-T) and 
the Ground Multi-band Terminal, the Air Force will transform its air- 
and ground-based space capabilities with terminals that consolidate 
logistics support, provide increased communications throughput, and 
ensure seamless command and control.
    Space Based Missile Warning Capabilities
    The Air Force is America's only provider of Space-Based Missile 
Warning. Providing a robust missile warning capability to the Nation 
through enhanced space-based ISR systems remains a priority in 2007. We 
expect to launch the final Defense Support Program launch (DSP-23) in 
spring 2007, continuing 36 years of the DSP constellation's outstanding 
service.
    The Space Based Infrared System (SBIRS) represents the next 
generation of Early Warning satellites. The first SIBRS Highly 
Elliptical Orbit (HEO) payload is currently deployed on-orbit and 
undergoing operational testing. The HEO-2 payload has been delivered 
for integration. Launch of the SBIRS Geosynchronous Earth Orbit (GEO)-1 
satellite is scheduled for late 2008. Once fielded, SBIRS will provide 
a transformational leap in capability over our current DSP system.
    Space Radar
    Space Radar (SR), another key transformational space-based ISR 
program, will have the ability to look into denied areas and to cue 
additional sensors, such as those on Predator and Global Hawk. The SR 
will provide COCOMs unprecedented surface wide-area surveillance 
capabilities, updating its AOR coverage report several times per hour. 
SR will characterize objects and activities of interest for target 
development in conjunction with other assets to meet critical joint 
warfighter requirements. In 2007, the program will focus on building 
engineering development hardware while emphasizing risk reduction, 
integration, and systems engineering.
    National Polar-orbiting Operational Environmental Satellite System
    The National Polar-orbiting Operational Environmental Satellite 
System (NPOESS) is a tri-agency program sponsored by DOD, the 
Department of Commerce, and NASA. NPOESS will support DOD forces 
worldwide as well as Homeland Security agencies. The system will 
provide assured, timely and high-quality environmental data to our 
warfighters for weather forecasting, mission planning and weapons 
employment. NPOESS environmental data will also enhance our domestic 
preparedness when dealing with natural disasters.
    Rapid Attack Identification Detection and Reporting System
    Meeting the requirement to assist in the protection of our space 
assets, the Rapid Attack Identification Detection and Reporting System 
(RAIDRS) will provide a capability to detect and locate satellite 
communications interference using fixed and deployable ground systems. 
A fully operational RAIDRS Spiral 1 will be delivered in fiscal year 
2008 and provide detection and location of SATCOM interference. Future 
developments will automate data analysis and fusion, as well as provide 
decision support tools for near-real-time actions.
    Global Hawk
    The RQ-4A Global Hawk is a high altitude, long endurance UAV 
providing the joint warfighter with persistent vigilance and 
observation of targets in day, night and adverse weather. Global Hawk 
entered development in 2001 after completing a successful Advanced 
Concept Technology Demonstration. We plan to develop and field the 
aircraft in blocks of increasing capability, allowing accelerated 
delivery to the warfighter, while the system evolves and expands to its 
full potential.
    We have already employed block 10, the first of four production 
variants, in support of global war on terror. It provides an effective, 
persistent imagery capability using synthetic aperture radar (SAR) and 
electro-optical/infrared (EO/IR) sensors. The larger Block 20 aircraft, 
which will begin development test in early 2007, will provide 50 
percent more payload capacity carrying enhanced SAR and EO/IR sensors 
for even clearer images at greater ranges.
    In 2012, Block 30 will field a more versatile, multi-intelligence 
capability by integrating Block 20 imagery sensors with a robust 
signals intelligence (SIGINT) suite. The fourth Global Hawk variant, 
Block 40, will be available for operations in 2011. It will carry a 
single payload--a Multi-Platform Radar Technology Insertion Program 
sensor--to provide the warfighter a highly advanced radar imagery and 
moving target indicator capability. Global Hawk has demonstrated its 
combat value in global war on terror and the Air Force will continue to 
mature and enhance its capabilities in the coming years.
    MQ-1 Predator
    Leading the way in armed reconnaissance, the Air Force is currently 
flying MQ-1 Predator missions 24 hours a day, 7 days a week. The MQ-1 
Predator is a medium-altitude, multi-role, long endurance UAV, 
providing persistent ISR and strike capabilities to COCOMs. Predator 
aircraft are able to transmit live, full motion digital video to 
ground-based and airborne targeting teams equipped with the Remote 
Operations Video Enhanced Receiver (ROVER) system.
    The Predator is operational, and by 2010, we will expand its 
capability from 10 to 21 total CAPs to meet increased COCOM and 
warfighter demands. We also plan to incorporate Target Location 
Accuracy improvements to rapidly provide targeting data for GPS-guided 
munitions.
    Total Force airmen in Nevada and California control Predator 
aircraft operating in numerous locations around the world, including 
Iraq and Afghanistan. By 2010, this capability will spread to Air 
National Guard units in Arizona, North Dakota, and Texas. The Predator 
has transformed the way we fight, providing persistent ISR, reliable 
target acquisition and lethal strike capability for COCOMs and our 
joint warfighters.
    RC-135 Rivet Joint
    The RC-135 Rivet Joint continues its four decades of success in 
providing SIGINT capabilities across the full spectrum of joint 
operations and national information needs. Most missions directly 
support OEF and OIF tactical operations, adding to Rivet Joint's 
outstanding record of accomplishment and continuous presence in CENTCOM 
since 1990.
    In addition to mission equipment upgrades, we have completed re-
engining and cockpit modernization, keeping the force viable until 
2040. In 2007, the Air Force will procure Rivet Joint 17, a global war 
on terror acquisition for additional medium-altitude SIGINT capacity.
    Rivet Joint has become the cornerstone of an airborne targeting 
modernization effort known as Net-Centric Collaborative Targeting. 
Rivet Joint has demonstrated the capability to horizontally integrate 
C\4\ISR assets across the entire Joint Force and dramatically improve 
target location accuracy, timeliness and identification.
    Joint Surveillance Target Attack Radar System
    The E-8C Joint Surveillance Target Attack Radar System (Joint 
STARS) is an airborne battle management, command and control, 
intelligence, surveillance, and reconnaissance platform. Its primary 
mission is to provide theater ground and air commanders with surface 
moving target indications (SMTI) and tailored surveillance in support 
of operations and targeting. Joint STARS has been a significant 
contributor to U.S. Air Force fighting effectiveness in Operations 
Desert Storm, Joint Endeavor, Allied Force, OEF, and OIF. Continuing 
modifications and enhancements will sustain Joint STARS viability 
beyond 2034.
    E-3 Airborne Warning and Control System
    The E-3 AWACS is the premier airborne command and control platform 
in the DOD and a key element of all airborne operations. AWACS supports 
decentralized execution of the joint air component missions and 
provides theater commanders with the ability to find, fix, track, and 
target airborne or maritime threats, and to detect, locate, and 
identify radars. AWACS has been the key airborne asset in all 
operations since its fielding in 1983. Our ongoing modernization of the 
platform will position AWACS to remain a viable airborne command and 
control platform beyond 2035.
    Air and Space Operations Center
    The Air and Space Operations Center (AOC) Weapon System is the 
Combined/Joint Force Air Component Commander's (C/JFACC's) tool for 
employing air, space, and cyberspace power. The AOC enables decision-
makers to focus and synchronize our air, space, and cyber superiority, 
global attack, precision engagement, information superiority, and rapid 
global mobility capabilities across the full range of military 
operations in multiple, geographically separated arenas.
    The AOC weapon system, with its Theater Battle Management Core 
System (TBMCS), has evolved significantly since its designation as a 
weapon system in 2001. We used the Al Udeid Combined AOC model to 
establish the AOC Weapon System Block 10.1 baseline. Creating this 
baseline enabled us to standardize our development, procurement and 
presentation of C2 capabilities to Joint and Combined Commanders 
worldwide. Increment 10.1 standardizes configuration among the five 
deployed Falconer systems, providing operators with greater and faster 
access to air battle management information. The program team efforts 
continue to generate greater system performance for warfighters, with 
major improvements planned for delivery over the next 2 years.
    The Air Force has committed to continue evolving and modernizing 
our AOC Weapon System through the FYDP, building toward a fully 
operational, cross-dimensional C2 enterprise by fiscal year 2014.
    Battle Control System-Fixed
    The Battle Control System-Fixed (BCS-F) system is a cooperative 
program with Canada. The system provides air defense and surveillance 
capability for the entire North American continent. BCS-F supports ONE 
and serves as the Air Force's homeland defense battle management, 
command, and control system. The BCS-F system integrates data from 
multiple radar sensors providing tactical communications and data link 
capabilities with other military and civil systems responsible for air 
surveillance, air defense and control of sovereign U.S. air space.
    Battle Control System-Mobile
    The Battle Control System-Mobile (BCS-M) is the next generation of 
Low Density/High Demand (LD/HD) ground-based tactical C2 nodes 
supporting the warfighter with theater air defense, airspace 
management, aircraft identification, wide-area surveillance and 
tactical data link management. These are the same missions the current 
legacy system, the Control and Reporting Center, performs in support of 
OIF, OEF, and ONE, as well as homeland defense activities such as 
counter-drug operations and special security events.
    Air Force Distributed Common Ground System
    The Air Force Distributed Common Ground System (AF-DCGS) is the Air 
Force's premier ISR Tasking, Collection, Processing, Exploitation and 
Dissemination (TCPED) weapon system. From reach back locations, AF-DCGS 
operators collect raw sensor data from the Global Hawk, Predator, and 
other platforms around the world, turn it into decision-quality 
intelligence in near-real-time, and send it directly to those in need 
at the Joint Task Force level and below. Its proven capabilities in 
sharing and correlating multi-source SIGINT, imagery intelligence, and 
signature intelligence data will be enhanced with the fielding of the 
AF-DCGS Block 10.2, which is leading the way in DOD's net-centric ISR 
enterprise transformation.
Global Reach
    America's airmen provide not only the long legs and heavy lifting 
for joint warfighters' rapid global mobility, but also the long arms 
for global strike and high endurance for global persistence and 
presence. On a daily basis, Air Force mobility forces support all DOD 
branches as well as other government agency operations all over the 
world. Increased demand and decreased availability underscore the 
critical need for tanker recapitalization and investment to ensure the 
long-term viability of this national capability. Without prudent, 
timely investment, our national defense, global vigilance, reach, 
presence, and power are put in serious peril.
    Tanker Recapitalization
    Aerial refueling capability is essential to the expeditionary 
nature of America's Armed Forces. Aerial refueling serves as a joint 
force multiplier, providing American and coalition air forces with 
increased range, persistence, and endurance. We are committed to 
maintaining an inventory of tankers that guarantees the projection of 
U.S. combat power.
    For the past 50 years, the Air Force's primary tanker platform has 
been the KC-135, and it has served with distinction. However, we are 
carrying great risk operating this aircraft beyond expected service 
life. Some of the oldest models already operate well beyond the point 
of cost-effective repair. Tanker recapitalization is not a new idea. In 
1999, a thorough GAO report presaged the declining operational utility 
of our aging tankers and underscored the need for immediate investments 
in recapitalization. Given the increased operational requirements of 
the global war on terror, procurement of a new tanker aircraft--the KC-
X--has become both an operational necessity and the most fiscally 
prudent option to maintain America's global presence and expeditionary 
capabilities.
    The KC-X is our number one procurement priority. KC-X tankers will 
provide increased aircraft availability, more adaptable technology, and 
greater overall capability than the current inventory of KC-135E and 
KC-135R tankers they will replace. Enhancements in every aspect of 
aircraft operation will provide the joint warfighter with more flexible 
employment options. It is imperative we begin a program of smart, 
steady reinvestment in a new tanker--coupled with measured, timely 
retirements of the oldest, least capable tankers. Recapitalizing our 
tankers will ensure the viability of the vital national capability they 
provide.
    Intratheater Airlift
    The Air Force has a two-pronged approach to modernize America's 
intratheater airlift capabilities. First, we are striving to replace 
our oldest aircraft with a mixture of new C-130Js and Joint Cargo 
Aircraft (JCA). The JCA offers the potential for additional solutions 
to the Air Force's intra-theater airlift recapitalization strategy. JCA 
will provide a modern mobility platform suited to accessing an array of 
demanding and remote worldwide locations, including short, unimproved 
and austere airfields.
    Second, we will standardize remaining C-130s via the C-130 Avionics 
Modernization Program (AMP) and center-wing box replacement programs. 
C-130 modernization extends operational lifetime, reduces operation and 
sustainment costs, and increases the combat effectiveness of our 
intratheater airlift capability.
    For decades, C-130s have been the workhorses for intratheater 
airlift during numerous contingences. Additionally, the C-17 has done a 
superb job augmenting the C-130s in the intratheater airlift role. 
Similarly, the new C-130Js, which are far more capable than legacy C-
130s, have proved their worth supporting global war on terror and 
humanitarian operations since December 2004.
    Intertheater Airlift
    The C-17 continues its outstanding support for joint operations 
across the spectrum of conflict. During the past year, C-17s flew over 
44,000 sorties, bringing the total number of OEF and OIF missions to 
over 123,000. Additionally, the C-17 flew 900 humanitarian and disaster 
relief sorties following Hurricanes Katrina, Rita and Wilma, as well as 
the Southeast Asian tsunami, Pakistani earthquake, and the Lebanon 
noncombatant evacuation operations. Given this high operational tempo, 
the Air Force appreciates congressional action to procure additional C-
17s to sustain a fleet of 190.
    During 2006, the Air Force's other heavy lifter, the C-5 Galaxy, 
flew 5,500 sorties in support of the global war on terror. Since 11 
September 2001, C-5 have flown over 50,000 sorties in support of the 
joint warfighter and provided humanitarian aid around the world. To 
keep the C-5 mission capable and maximize capability, the Air Force is 
continuing the C-5 Avionics Modernization Program (AMP) and the 
Reliability Enhancement and Re-engining Program (RERP). The AMP and 
RERP efforts ensure compliance with emerging airspace requirements, 
upgrade aircraft propulsion, and improve over 70 other unreliable C-5 
systems, enabling this large airlifter to remain viable through 2040.
    Together, the C-17 and C-5 weapons systems provide complementary 
capabilities and are critical to meeting our U.S. intertheater airlift 
requirements today and in the future--for the entire joint force.
    Space Launch Operations
    The Air Force continues to fulfill its role as the guardian of the 
world's premier gateways to space and America's vital national space 
launch capabilities. Space launch is another element of Air Force space 
capability that is vital to American global military, political, and 
economic success.
    With 14 operational launch successes, the Evolved Expendable Launch 
Vehicle (EELV) program provides assured access to space in support of 
operational requirements. In fiscal year 2007, we expect to continue 
building upon our DOD launch successes with seven EELV and three Delta 
II launches.
    Launch and Test Range System. The Eastern and Western Ranges, 
located at Cape Canaveral Air Force Station, FL, and Vandenberg AFB, 
CA, respectively, comprise the Launch and Test Range System (LTRS). The 
LTRS, part of the DOD's Major Range and Test Facility Base (MRTFB) 
infrastructure, provides tracking, telemetry, communications, command 
and control to support the testing of ballistic missiles, precision 
weapons, national missile defense and advanced aeronautical systems. 
The LTRS also provides the vital infrastructure necessary to support 
manned and unmanned space launches for DOD, national, civil and 
commercial space missions. We will continue LRTS modernization and 
further reinforce our capabilities to ensure space launch safety and 
mission success.
Global Power
    The U.S. Air Force provides the joint team a historically 
unprecedented ability to deliver a precise, tailored effects whenever, 
and wherever and however needed--kinetic and nonkinetic, lethal and 
nonlethal, at the speed of sound and at the speed of light. It is an 
integrated cross-dimensional capability that rests on our ability to 
control air, space, and cyber. We exploit these domains to hold at risk 
any target on the surface of the Earth. As we continue to transform 
this capability, we will focus on expanding our effectiveness in 
multiple dimensions. We will continue to refine our abilities to 
deliver lethal and nonlethal effects at the time and place of our 
choosing, shortening the sensor-to-shooter ``kill chain.''
    Combat Search and Rescue
    Uniquely within DOD the Air Force organizes, trains and equips 
dedicated forces for Combat Search and Rescue (CSAR) mission. Air Force 
CSAR crews fulfill our absolute moral imperative to safely secure and 
return all of our airmen and any member of our joint team.
    We are recapitalizing this vital combat capability with the CSAR-X 
aircraft. This effort represents one of our top Air Force acquisition 
priorities. These modern aircraft will enable COCOMs to recover 
isolated joint or coalition personnel engaged across the spectrum of 
military operations as well as perform non-combatant evacuation and 
disaster relief operations. CSAR-X aircraft will relieve the high 
operations tempo (OPTEMPO) strain placed on the current LD/HD inventory 
of HH-60G Pave Hawk helicopters, and they will present COCOMs with key 
combat and noncombat mission options.
    This new aircraft will dramatically improve Air Force CSAR mission 
capabilities. It will provide our personnel recovery forces with an 
aircraft that is quickly deployable and capable of operations from 
austere locations. It will operate day or night, during adverse weather 
conditions, and in all environments including nuclear, biological and 
chemical conditions. On-board defensive capabilities will permit the 
CSAR-X aircraft to operate in an increased threat environment, and in-
flight refueling will provide an airborne alert capability and extend 
its combat mission range.
    These increased capabilities are crucial to meeting current and 
future joint operational needs, while providing greater capability to 
Air Force CSAR forces, ``that others may live.''
    F-35A Lightning II
    The F-35A Lightning II JSF is a fifth-generation multi-role strike 
fighter aircraft optimized for air-to-ground attack. The F-35A is the 
Conventional Take-off and Landing (CTOL) variant, and it will 
recapitalize F-117, F-16, and A-10 combat capabilities. The F-35A will 
complement the capabilities of the F-22A. Like the Raptor, the F-35A 
reaps the benefits of decades of advanced research, development, and 
field experience.
    The F-35A will provide affordable precision engagement and global 
attack capabilities for the Air Force, Navy, Marines, and our 
international partners. In 2006, the JSF program delivered the first 
CTOL variant test aircraft and completed its first flight on 15 
December 2006.
    Next Generation Long-Range Strike
    Range and payload are the soul of an Air Force. These elements form 
the foundation of strategic military deterrence. The LRS mission, a 
primary reason the Air Force became a separate Service in 1947, 
continues as a vital and unique Air Force contribution to national 
defense. The Air Force has a three-phased strategy to help ensure the 
U.S. meets its enduring LRS capability requirements. Phase One includes 
near-term maintenance and modernization of current bombers and air-to 
surface weapons.
    By 2018 and in accordance with QDR goals, Phase Two will deliver a 
new LRS bomber incorporating highly advanced technologies. This next 
generation bomber will combine speed, stealth, payload, and improved 
avionics/sensors suites. This new bomber will bring America's bomber 
forces up to the same high standard we are setting with our F-22A and 
F-35A fifth-generation fighters. It will ensure our bomber force will 
continue to be effective in meeting COCOMs' global needs across the 
full range of military operations. The Analysis of Alternatives will be 
complete in the spring of 2007.
    In Phase Three, the Air Force plans to field a revolutionary LRS 
capability in the 2035 time frame using an advanced system-of-systems 
approach. We expect technology maturation to yield advancements in 
several areas, including hypersonic propulsion, advanced materials and 
nonkinetic weapons.
    F-22A Raptor
    The F-22A Raptor is the Air Force's primary air superiority 
fighter, providing unmatched capabilities for operational access, 
homeland defense, cruise missile defense and force protection for the 
joint team. The F-22A's combination of speed, stealth, maneuverability, 
and integrated avionics gives this remarkable aircraft the ability to 
penetrate denied, anti-access environments. The F-22A's unparalleled 
ability to find, fix, track, and target enemy air- and surface-based 
threats ensures air dominance and freedom of maneuver for all joint 
forces. In addition, the F-22A is the only airborne system in the U.S. 
military that can conduct network-centric warfare and provide ISR 
capability from inside adversary battlespace in the opening moments of 
any contingency.
    Until the F-22A became operational in 2005, America's Air Force had 
not fielded a new fighter since the 1970s. Today, combat-capable 
Raptors are in full-rate production on the world's only fifth-
generation fighter production line. As of 1 January 2007, 84 aircraft 
have been delivered, including 44 combat coded aircraft, and another 25 
are in production. The first operational F-22A unit declared initial 
operational capability at Langley AFB, Virginia, in December 2005. The 
second operational F-22A unit will pick up the AEF rotation in May 
2007. Meanwhile, the third operational unit is standing up at Elmendorf 
AFB, Alaska with a projected AEF rotation of May 2008. We will also 
station a fourth unit at Elmendorf, followed by fifth and sixth units 
at Holloman AFB, New Mexico, and the seventh unit at Hickam AFB, HI.
    The F-22A flew its first operational mission in support of ONE in 
January 2006, participated in the Alaskan Northern Edge exercise in 
July 2006, and is preparing for upcoming AEF deployments.
    MQ-9 Reaper
    Similar to its smaller MQ-1 Predator sibling, the MQ-9 Reaper is a 
medium-altitude, multi-role, long endurance UAV that will provide 
persistent ISR and improved strike capabilities to COCOMs. MQ-9 
incorporates MQ-1 operational design improvements, a larger airframe, 
battle-proven sensors, full motion digital video, Rover connectivity 
and expanded munitions capability.
    Initial mission capability will begin at Nellis AFB, NV, with 
future expansion to New York ANG. In 2007, we expect to continue 
rigorous MQ-9 development and demonstration, as well as operational 
employment with pre-production aircraft to meet urgent joint warfighter 
needs.
    The MQ-9, like the MQ-1, will also incorporate Target Location 
Accuracy improvements to support GPS-guided munitions. Ultimately, the 
MQ-9 will provide theater commanders with expanded employment options 
in a vastly improved Hunter-Killer UAV, incorporating a larger payload, 
automatic cueing, and self-contained capabilities to strike time 
sensitive and hard targets.
    CV-22 Osprey
    The Air Force will procure 50 CV-22s, with an Initial Operational 
Capability scheduled for fiscal year 2009. The CV-22 is a V-22 tilt-
rotor aircraft designed to meet a U.S. Special Operations Command 
(USSOCOM) requirement for long-range infiltration, exfiltration, and 
resupply of Special Operations Forces. The CV-22's advanced systems 
include Terrain Following/Terrain Avoidance Radar, Integrated RF 
Countermeasures, Directional Infrared Countermeasures, the Multi-
mission Advanced Tactical Terminal, and additional fuel tanks and 
tactical communications gear.
    Global Positioning System
    The GPS constellation serves as a global utility for precision 
navigation and timing. GPS is yet another Air Force mission that has 
become vital to American military and global economic activity. As with 
all elements of the Air Force space mission, we are dedicated to 
ensuring uninterrupted continuity of GPS services.
    GPS modernization continues in 2007 with additional launches of GPS 
IIR-M satellites. The GPS IIR-M satellites will provide a new military 
signal more resistant to jamming and a new civil signal for improved 
position accuracy for civil, commercial, and recreational GPS users. 
The follow-on system, GPS IIF, will provide IIR-M capabilities plus an 
additional civil signal for aviation safety-of-flight services. The 
development of the next-generation GPS-III will further enhance 
navigation and precision-engagement capabilities and improve resistance 
to jamming, as well as add a third civil signal compatible with the 
European Galileo System.
    Counter Communications System
    As part of the broader Counterspace mission, the ground-based, 
theater-deployable CCS provides COCOMs with a non-destructive, 
reversible capability to deny space-based communication services to our 
adversaries. CCS enhances our capability to ensure air, space and 
cyberspace superiority for the Nation.
    We plan to procure three additional operational CCS and one 
training system. This comprises the full complement of systems for two 
Space Control Squadrons. We will continue block upgrades to the CCS to 
enhance our Offensive Counterspace capabilities and begin pre-
acquisition work for the next generation CCS.
    Intercontinental Ballistic Missiles
    America's ICBM force remains the foundation of our Nation's nuclear 
deterrent capability. Modernization programs are crucial to the 
Minuteman ICBM, which, when initially deployed in the 1960s, were 
designed to last 10 years. Service life extension programs are underway 
to ensure the Minuteman III remains mission capable through 2020. These 
programs replace obsolete, failing, and environmentally unsound 
materials, while maintaining missile reliability, survivability, 
security, and sustainability. These efforts are critical to sustaining 
the ICBM force and are vital to America's nuclear deterrent posture.
    Operationally Responsive Space
    The Air Force intends to continue its demonstration, acquisition, 
and deployment of an effective Operationally Responsive Space (ORS) 
capability in support of the DOD's focus on meeting the urgent needs of 
the COCOM.
    ORS includes the ability to launch, activate, and employ low-cost, 
militarily useful satellites to provide surge capability, reconstitute 
damaged or incapacitated satellites, or provide timely availability of 
tailored or new capabilities. ORS capabilities can lead to long-term 
benefits by advancing technology, improving space acquisitions, 
enhancing the skills of the technical workforce, and broadening the 
space industrial base.
    Space Development and Test Wing. In 2006, the Air Force established 
the Space Development and Test Wing (SDTW), headquartered at Kirtland 
AFB, New Mexico, to focus on the development and testing of orbital 
assets with the goal of encouraging innovation in the space mission 
area.
    One of the Wing's responsibilities is ORS. Working with other 
services and agencies, it will perform concept development, design, 
manufacturing, and operation of small satellites, as well as other 
activities required to support the fielding of ORS capabilities. As 
capabilities are developed and fielded, the wing will directly 
interface with user organizations responsible for employing ORS 
capabilities in joint and coalition operations.
    During fiscal year 2007, we will develop a plan further refining 
ORS. This plan will fully define ORS roles and missions, along with the 
organization and reporting structure. In addition, we plan to develop 
specific acquisition policies, implementation schedules, funding, and 
personnel requirements to support deployment of ORS capabilities.
Science and Technology
    True to our history over the past century of powered flight, the 
Air Force continues to maintain the most complex, diverse and ambitious 
science and technology (S&T) portfolio of all the Services. History 
clearly demonstrates the broad benefits to America of our S&T efforts, 
in terms of military power, industrial capability, economic growth, 
educational richness, cultural wealth, and national prestige. Examples 
include aerospace technology and propulsion, materials science, 
advanced computing and communications, atmospheric science, remote 
sensing and satellite navigation. What has been good for the Air Force 
has been great for America. We are committed to building upon this 
heritage.
    The Air Force S&T Program develops, demonstrates and tests 
technologies and advanced warfighting capabilities against the spectrum 
of 21st century threats. As we continue to adapt to a volatile and 
uncertain world, today's focused investment in our S&T Program will 
strive to produce the future warfighting capabilities needed to ensure 
America's continued technological pre-eminence and military 
flexibility. Additionally, Air Force S&T organizations work closely 
with the other Services, Defense Agencies, Intelligence Community, and 
other Federal agencies, such as the National Aeronautics and Space 
Administration, as well as partner nations. Through these partnerships, 
we leverage efforts, share information, and advance state-of-the-art 
technologies.
    The Air Force S&T Program provides the foundation for future joint 
warfighting capabilities, focusing on dominance of the air, space, and 
cyberspace domains for America.
    Improving Energy Efficiency
    The Air Force is taking the lead in reducing the DOD's dependence 
on foreign oil. As the DOD's leading consumer of jet fuel, we are 
currently engaged in evaluating alternative fuels and engine 
technologies leading to greater fuel efficiency. Air Force efforts 
focus on high-efficiency aerodynamic concepts, advanced gas turbines 
and variable cycle engines providing higher performance and greater 
efficiency.
    As a part of this effort, the Air Force is performing flight tests 
on a B-52 using a blend of MILSPEC JP-8 fuel and a synthetic fuel 
derived from natural gas. We plan to continue airworthiness 
certification testing of synthetic fuel.
    Cyber Technology
    Fulfilling its role as a leader in the Information Age, the Air 
Force is exploring technologies and concepts of operations within the 
cyberspace domain. Air Force Cyberspace initiatives will provide tools 
for offensive and defensive cyberspace operations as well as bolster 
our information assurance capabilities. The Air Force is investing in 
technology concepts to ensure reliable, operational links between 
individuals and systems--in addition to machine-to-machine interfaces--
to ensure cyberspace dominance, information delivery, situational 
awareness, and rich connectivity across the joint team.
    Small Satellites
    The Air Force is pursuing development of small satellite 
technologies, including modular buses with ``plug-n-play'' payloads, 
along with the development of low-cost launch systems. We aim to 
provide a greater range of responsive space applications for the 
tactical warfighter. Small satellite technology demonstrations have 
achieved lighter payloads and reduced development and integration 
timelines. Additionally, these achievements serve to mitigate 
technology risks for larger, more complex satellite programs in 
development. Small satellites with operationally responsive payloads 
could potentially provide either specifically tailored, stand-alone 
capabilities, or rapid augmentation capability for a satellite or 
constellation of satellites that suffer failure or attack.
    Directed Energy
    Directed energy weapons will profoundly transform how we fly, 
fight, and defend ourselves, and we are integrating them into our 
broader cyber operations effort. As lasers and radio frequency weapons 
find applications in the battlespace, their ability to operate at the 
speed of light will change both offensive and defensive capabilities 
and tactics. New designs and technology may be necessary to offer 
adequate protection for our people and capabilities.
    Weapons in development include the Airborne Laser (ABL), a large 
aircraft carrying the High Energy Laser for missile defense. 
Additionally, the active Denial System has demonstrated the viability 
for a long-range, nonlethal, anti-personnel weapon.
    These systems benefit from many years of technology development. 
Revolutionary technologies continue to be developed. These include 
versatile high power solid-state lasers; devices for aircraft self-
protection; higher power active denial components for airborne 
applications; relay mirrors to extend the range of systems like ABL; 
and high power microwave devices to disable electronics covertly 
without affecting structures or people.
    Hypersonics
    The Air Force is a world leader in the development of practical 
hypersonic air-breathing propulsion. Hypersonic research, relating to 
flight speeds greater than five times the speed of sound, offers 
dramatically reduced time-to-target for conventional weapons and, in 
the future, may provide ``airplane-like'' on-demand access to space. 
Our effort involving supersonic-combustion-ramjets (Scramjets)--
specifically our planned flight tests of the X-51 Scramjet Engine 
Demonstrator--highlights our commitment to maintaining America's 
leading role in this field.
    We also expect advanced hypersonic munitions technologies to 
improve penetration capabilities and decrease collateral damage. These 
characteristics will allow us to expand our target attack ability, 
particularly in urban environments and against time critical, hardened, 
and buried targets.
    Composites
    Air Force S&T is exploring advancements in composite structures and 
manufacturing technologies for lightweight unconventional aircraft 
shapes. Example applications include short take-off and landing 
capabilities, high-lift aircraft wing systems, integrated propulsion 
inlet/diffuser geometries, and integrated flight control surfaces. We 
expect these efforts to shorten development times for next generation 
aircraft with lighter, stronger airframes offering far greater mission 
utility than legacy aircraft.
    Simultaneously, we are addressing sustainment of composite 
structures, in order to ensure future aircraft built with these 
materials will be readily maintainable and serviceable.
    Nanotechnology
    Investment in nanotechnologies could provide stronger and lighter 
air vehicle structures including potential applications in unmanned 
vehicles. Other nano-materials show promise as high-performance water-
repellant coatings. These coatings may protect Air Force systems 
against corrosion and chemical/biological contaminants, providing 
significant savings in maintenance costs and extending the lifetime of 
aircraft and other military equipment.
                         delivering excellence
    Fighting the global war on terror, developing and caring for our 
airmen and their families, and recapitalizing and modernizing the Air 
Force all require substantial national resources.
    Throughout 2006, the Air Force embarked on several forward-leaning 
initiatives to improve our organization, efficiency, agility, and 
lethality. We are committed to good stewardship of America's resources, 
while strengthening America's current and future air, space, and 
cyberspace capabilities.
    The Air Force is making strides in a range of activities and 
through multiple, overlapping initiatives to improve what the QDR 
refers to as ``reshaping the defense enterprise.'' The Air Force is 
moving toward financial transparency and reinforcing our culture of 
efficiency and process improvement through the AFSO21 initiative. We 
are also transforming our approach to infrastructure and maintenance, 
executing an aggressive energy strategy, and reforming our acquisition 
practices--emphasizing a ``Back to Basics'' approach to space 
acquisitions, in particular.
    All of these efforts will lead to greater efficiency, lower 
operating costs, and greater availability of resources for 
recapitalization and modernization of critical Air Force capabilities. 
In short, our airmen are striving to provide an even higher return on 
America's national security investments.
Air Force Smart Operations for the 21st Century
    To meet the challenges of this environment and the road ahead, we 
have embarked on an Air Force-wide effort embracing efficiency and 
process improvement. AFSO21 applies many concepts developed and proven 
in industry--Lean, Business Process Reengineering, Six Sigma, and 
Theory of Constraints methodologies. We expect significant savings from 
this initiative.
    The AFSO21 vision is to increase combat capability by integrating 
process improvement into the culture of all of the active Duty, Air 
National Guard and Reserve airmen, as well as our civilians and 
contractors. All airmen must understand their role in improving daily 
processes. AFSO21 identifies and eliminates activities, actions and 
policies that do not contribute to efficient and effective operations.
    We seek several outcomes from AFSO21. First, we want all airmen to 
be fully aware of the importance of their work--how they contribute 
directly to the Air Force mission and national defense. Second, we will 
strive to improve safety and maintain quality of life for all Air Force 
personnel. Third, we push to decrease process cycle times, thereby 
increasing our ability to respond to rapidly changing demands. Fourth, 
we aim to cut costs and free up funds for modernization. Finally, we 
seek to eliminate waste.
    Process changes have occurred at every level of the Air Force, 
resulting in significant savings. We have more work to do, but 
institutionalizing AFSO21 concepts into daily operations allows us to 
meet the enormous challenges of the next decade and ultimately sustain 
and modernize the world's premier air, space, and cyberspace force.
    Business Transformation
    The Air Force vision of Business Transformation creates rapid and 
predictive operational support and leads to greater situational 
awareness for commanders. Our high-level Business Transformation goals 
include improving warfighter effectiveness through fast, flexible, 
agile, horizontally integrated processes and systems; establishing a 
culture of continuous process improvement; achieving efficiencies 
allowing us to return resources for the recapitalization of aging 
weapons systems and infrastructure; and creating an acquisition process 
unparalleled in the Federal Government.
    National Defense Authorization Act Certification and Portfolio 
Management. The Air Force fully leverages DOD enterprise transition 
planning and DOD-mandated certification reviews. We ensure business 
systems development supports the effects and capabilities articulated 
in the Agile Combat Support concept of operations. These certification 
reviews have resulted in the shutdown and elimination of hundreds of 
legacy systems and allowed us to redirect additional resources to 
critical warfighting requirements.
    Transparency. The Air Force is accelerating efforts to deliver 
authoritative information to decision makers at all levels, improving 
information availability and quality, realizing warfighter cross-
service information requirements, and implementing DOD-wide information 
priorities. We will achieve transparency by using correct information 
at all echelons--trustworthy, traceable, auditable, and valuable. We 
will support cross-domain or cross-mission efforts by defining 
architecture and information standards necessary for easy discovery, 
use and reuse of data.
    Clean Audit Quick Look
    Warfighters perform their missions with increasingly limited 
resources and manpower. Decisionmakers at every level need the best 
information when allocating these scarce resources. To achieve greater 
levels of information fidelity, the Air Force is committed to improving 
transparency in its business processes, to include Financial 
Management. A Clean Audit Opinion defines a major objective of this 
commitment. Financial transparency requires the Air Force to have 
processes and procedures in place ensuring data is accurately collected 
at the source, flows efficiently through to reporting systems and 
analytical tools, and is error-free.
    The Air Force Information Reliability and Integration (AFIR&I) plan 
is our road map toward financial transparency. It is a key component of 
the DOD Financial Improvement and Audit Readiness (FIAR) Plan aimed at 
improving DOD financial health. The AFIR&I Action Plan reinforces our 
ongoing commitment to ensuring the absolute highest level of 
stewardship of our Nation's investments in the Air Force.
Energy Conservation
    We are pursuing an aggressive energy strategy and are committed to 
meeting and surpassing the energy goals mandated by the Energy Policy 
Act of 2005 (EPAct 05) and other national policies. We successfully 
reduced our energy consumption in accordance with past legislation and 
continue to use a variety of programs aimed at reducing our use of 
fossil fuels and controlling cost growth. Our vision creates a culture 
where airmen make energy considerations in all their actions. We aim to 
implement our vision with solutions that include alternate sources of 
domestic energy as well as an aggressive drive for greater efficiency 
in our facilities and vehicles.
    The Air Force remains the largest renewable energy purchaser in the 
U.S. Our commitment to install 18 megawatts of solar photovoltaic 
energy at Nellis AFB is one example of our pursuit of on-base renewable 
power generation. Currently 37 bases meet some portion of their base-
wide electrical requirements from commercial sources of wind, solar, 
geothermal or biomass. We have several projects planned, in design, or 
under construction to expand this capability. With our combined 
purchase and production strategy, the Air Force is poised to surpass 
the renewable goals set by the Energy Policy Act.
    The Air Force applies sustainable development concepts in the 
planning, design, construction and operation of facilities using the 
Leadership in Energy and Environmental Design (LEED) certification 
process. Our long-term goal is to ensure 100 percent of eligible new 
facilities are LEED certifiable by fiscal year 2009. This complements 
our use of facilities construction and infrastructure improvement 
programs designed to create cost effective energy efficiencies in new 
and existing facilities.
    We have also taken an aggressive stance on replacing our existing 
general-purpose vehicles with low speed vehicles (LSVs) without 
adversely affecting peacetime or wartime mission requirements. This 
measure will reduce vehicle acquisition cost, fuel expenditures and 
ozone-depleting exhaust emissions and free up funds for use in other 
critical areas. Our goal is to replace 30 percent of general-purpose 
vehicles with LSVs by fiscal year 2010. Coupled with the goal to 
replace 100 percent our general-purpose vehicles with alternative fuel 
vehicles, the Air Force is taking the lead in the use of alternative 
energy technologies.
Acquisition Excellence
    The Air Force continues its goal of streamlining the acquisition 
process to providing efficient and responsive services to the 
warfighter. A number of completed and ongoing projects have contributed 
to the improvement of acquisition, and fiscal year 2008 promises more 
progress.
    We have revitalized the Acquisition Strategy Panel, providing a 
systematic and disciplined approach to develop an effective acquisition 
program roadmap. The newly developed Air Force Review Board process 
provides a structured and repeatable system that aids decision-making 
on critical aspects of selected acquisition programs. We have also 
streamlined periodic review processes by combining several independent 
reviews into a single event, saving preparation and travel time.
    In 2006, the Defense Acquisition Performance Assessment (DAPA) made 
a number of recommendations for improving the acquisition system. The 
Air Force is in the process of evaluating and implementing key 
recommendations of the DAPA report. For example, the Air Force is 
exploring the concept of Time Certain Development (TCD) as the next 
step in evolutionary acquisition. TCD involves structuring a program to 
deliver its initial capability to the warfighter at an explicitly 
specified (and much shorter) interval. Such a policy helps improve the 
responsiveness of the acquisition system and keeps our warfighting 
capabilities aligned to current threat conditions.
    To enhance the credibility of the acquisition system, the Air Force 
is strengthening its efforts to analyze risks prior to initiation and 
execution of a program. The Air Force is prototyping the Probability of 
Program Success model, a framework for identifying and reporting risk 
issues that threaten a developer's ability to deliver on time and 
budget. Use of this model has the potential to highlight risk areas 
requiring the program manager's attention.
    The Air Force is improving the source selection process, ensuring 
appropriate use of incentives, assessing current contracting 
organizational alignments, and implementing strategic sourcing 
strategies. We are committed to providing support of contingencies and 
to the warfighter by acquiring commodities and services by the most 
effective means possible. We continue to maintain the majority of the 
deployed contingency contracting assets in the Iraq/Afghanistan AOR, 
and we remain dedicated to supporting the COCOMs through joint and Air 
Force taskings.
    Space Acquisition
    The Air Force is committed to revitalizing and restructuring its 
overall space acquisition strategy. We will build upon our heritage of 
providing unmatched space capabilities to meet national, COCOM, and 
Joint Force objectives by developing and executing more deliberate 
plans focused on cost and schedule containment.
    The Air Force ``Back to Basics'' initiative is part of our plan to 
improve space acquisitions. The initiative promotes a renewed emphasis 
on management techniques and engineering practices that lead to better 
definition of requirements as well as deliberate acquisition strategy 
planning. Clear and achievable requirements, appropriate resources, 
disciplined systems engineering, and effective management are the basic 
elements--the foundation upon which successful acquisition depends.
    The ``Back to Basics'' initiative promotes a block approach 
strategy focused on delivering capability through value-added 
increments. This concept is consistent with current policy specifying 
``evolutionary acquisition as the preferred strategy'' for DOD 
acquisition. Specific capability increments are based on a balance of 
capability, delivery timeline, technology maturity, risk, and budget. 
Well-defined increments reduce many of the instabilities plaguing our 
past efforts. We will deliberately apportion cost, schedule, and 
technical risk across these increments to meet the primary objective--
delivering combat capability on a predictable timeline and at a 
predictable cost.
    In 2006, the Air Force restructured two major programs to comply 
with the ``Back to Basics'' strategy initiative. We have restructured 
the GPS III and TSAT programs to reduce risk and define executable 
block strategies. We expect these changes to deliver warfighting 
capabilities in the least amount of time.
    In 2007, the Air Force will expand the implementation of its ``Back 
to Basics'' initiative by deliberately and establishing block 
development strategies for a greater number of programs within the Air 
Force space portfolio. We will continue our conscientious efforts to 
stabilize requirements, funding, and workforce within program blocks. 
This strategy will place increased emphasis on cost estimating, systems 
engineering, and risk management to provide capability to our 
warfighters.
    Small Business Programs
    The Air Force employs over 129 small business professionals across 
the country. They strengthen our Nation's industrial base through their 
advocacy for the small business community. They also identify future 
procurement opportunities for small businesses and refer these 
companies to potential Air Force customers. We surpassed our small 
business goals for the third consecutive year across all Air Force 
primary small business programs. Small business prime contract awards, 
in both dollars awarded and percentage of total procurement, increased 
in every category. We awarded a record $8 billion in Air Force 
contracts to small businesses, accounting for 16.9 percent of all 
awarded contract dollars. Additionally, we awarded $86 million to 
Historically Black Colleges and Universities (HBCU) and other minority 
institutions, accounting for 9.1 percent of all awarded contract and 
grant dollars to institutions of higher education.
Operations and Maintenance Facility Projects
    The Air Force will continue to prioritize investments in facilities 
and infrastructure critical to mission operations. Maintenance and 
repair of runways, weapons system facilities, utility systems, and 
training facilities represent the Air Force's top projects. We will 
invest O&M funds to maximize the economic life and value of this 
critical infrastructure, minimizing mission disruptions. The Air Force 
continues to face significant challenges in preserving an aging 
inventory of utility systems, airfield pavements, and essential support 
facilities.
    Depot Maintenance Transformation
    Throughout Air Force history, our depots have been vital to 
success. Our commitment to retain technically relevant depot-level 
maintenance and repair capability will ensure sustainment of the 
world's dominant air, space, and cyberspace capabilities beyond the 
next decade. We programmed investments in depot infrastructure, 
equipment, and personnel throughout fiscal year 2004-fiscal year 2009 
in order to implement the Air Force Depot Maintenance Strategy and 
Master Plan. The Air Force strategy benchmarks industry standards to 
improve depot maintenance infrastructure, implement re-engineering 
initiatives, and transform depot processes to maintain ``world-class'' 
status.
    Repair Enterprise
    As an expeditionary air, space, and cyberspace force, we challenged 
our logisticians to develop agile combat support concepts that enhance 
our current and future warfighting capabilities. Repair Enterprise 
(RE21) is a lean logistics initiative and an integral part of the 
Global Logistics Support Center (GLSC) concept of providing global 
logistics support to the Air Force. RE21 leverages global visibility of 
all repair assets, centralized funds management, strategic sourcing, 
and partnerships with industry to provide the Air Force highly 
technical logistical support. The main RE21 goal is to establish an 
enterprise-wide single repair network supporting the entire Air Force 
supply chain and to optimize support to the warfighter through the 
GLSC.
                           minding the future
    September 18, 2007, will mark the 60th Anniversary of the creation 
of our independent United States Air Force. This year, we commemorate 
this anniversary of our proud Service--a service born of revolutionary 
ideas, forged in combat, and proven through decades of progress and 
achievement. The mission of the Air Force remains to fly, fight and 
win--in, through and from air, space, and cyberspace.
    While remembering our history and reaffirming our commitments to 
the current fight, we are ever mindful of the need for investment in 
future capabilities. We will remain focused on our top priorities: 
Fighting and Winning the global war on terror; Developing and Caring 
for Our Airmen; and Recapitalizing and Modernizing the Force. Meeting 
these priorities has become more challenging in light of current fiscal 
constraints. Nonetheless, we will move forward, striving to maintain 
the Global Vigilance, Reach and Power advantages America has come to 
expect. Our allies respect us, and our enemies fear us.
    The Air Force has faced challenging times in its past and is 
meeting the stress of today's operating environment. It is our heritage 
and mission to fly, fight, and win. Our legacy inspires us. Our mission 
propels us. Our core values guide us. We have inherited and will build 
upon a rich heritage--a heritage shaped through the ingenuity, courage 
and resolve of great airmen who preceded us. Our proud heritage, 
focused priorities, and enduring core values will serve to guide our 
actions and reaffirm our commitments today, over the next 60 years, and 
beyond.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        

    Chairman Levin. Let me just first thank the airmen and 
thank you for all you do, what you stand for, for your 
commitment to this Nation, and for the courage that you show. 
We also would appreciate it if you'd extend our thanks to your 
families, to those who give you the support that's so essential 
to keep you going. This committee is totally behind our men and 
women in uniform, as is the Nation. I hope you all feel it. 
It's heartfelt. Thank you for being with us today. It's an 
honor to be in your presence.
    Secretary Wynne.

 STATEMENT OF HON. MICHAEL W. WYNNE, SECRETARY OF THE AIR FORCE

    Secretary Wynne. Mr. Chairman, thank you so much for even 
taking the time to acknowledge and thank our airmen. It is an 
absolute privilege for General Moseley and I to be their 
leaders.
    We are grateful for this committee's steadfast support of 
our Nation's airmen. They are responsive, whether answering the 
call for humanitarian relief, providing commanders and 
combatants realtime intelligence, or striking with lethal and 
precise effect. They are agile, with the ability to provide 
America's strategic shield or form an air bridge from the 
continental United States halfway around the world to southwest 
Asia--an air bridge, our airmen have maintained now for 17 
years--or keep steadfast watch in space and in the skies. They 
even superbly perform our assigned ground-force missions, 
although all realize that the adage, ``Every airman a 
rifleman,'' sacrifices strategic leverage the Nation wants and 
needs from its airmen. We look for the ground-force reset to 
potentially rectify this. Given the age of our air and space 
equipment, there is no doubt that our freedoms are balanced on 
the courage, skills, and ingenuity of our Total Force airmen.
    Today, our airmen are incredibly busy and fully engaged in 
the global war on terror, not just in Iraq or Afghanistan, but 
around the world, and yet fully engaged in the strategic 
deterrence posture that keeps America safe in the long term.
    Our airmen are providing global vigilance through our 
manned and unmanned aircraft and space systems. For example, 
Air Force assets and airmen surveil, identify, track, and 
sometimes even kill enemies as a part of the joint force's 
critical counter-improvised explosive device (IED) mission.
    We are providing global reach. Our C-130s and C-17s execute 
precision airdrop and conventional cargo missions, which are 
saving countless lives by taking dangerous convoys off the 
road. Our aeromedical evacuation personnel are giving our 
soldiers, sailors, airmen, and marines the highest survival 
rate in the history of warfare.
    We provide global power, directing, conducting, or 
threatening strikes 24 hours a day, 7 days a week, 365 days per 
year.
    Our strategic mission in Iraq was completed long ago, when 
we swept the skies of aircraft, which allows the unimpeded 
operation of unmanned air vehicles (UAVs) and our fighters. For 
example, our battlefield airmen levy global power through 
technology like the ROVER platform, which is a laptop computer, 
which gives a new level of connectivity and situational 
awareness by linking users with a laptop terminal with full-
motion video sensors on our Predator UAVs and our advanced 
targeting pods on our fighters. ROVER-equipped users get 
realtime, full-motion video from these eyes in the sky and 
provide our ground commanders spherical awareness, not just 360 
degrees, but also a God's-eye view.
    We are also the only Service with dedicated combat search-
and-rescue forces, or PJs. As airmen, we consider combat 
search-and-rescue a moral imperative to be able to retrieve the 
airmen we send deep into enemy territory. But these combat 
search-and-rescue forces are equally adept at rescuing other 
Services' isolated personnel when they're required to do so.
    As in other domains, your Air Force is engaged daily in 
cyberspace. We have established within the 8th Air Force a new 
cybercommand to address how we can better train and present our 
forces to the U.S. Strategic Command, the combatant commanders, 
and other Government agencies engaged in this domain.
    It's these linkages where other Services and agencies rely 
on us to own our warfighting domains and we count on them to 
own theirs. That makes our military truly interdependent today. 
So, we owe our ground forces and our maritime partners the very 
best in leveraging our air, space, and cyberspace assets to 
meet their mission intent.
    We say that we set strategic and tactical conditions for 
victory, and we mean to do that. It has been 53 years since any 
American soldier has been strafed from the air, and we hope to 
push that for another 53 years.
    Today, we're doing just that, meeting our wartime 
requirements. But wear and tear and loss of buying power all 
translate into risk into our future readiness capacity and 
capability. Today's emerging threats also threaten our future 
dominance. Proliferation of advanced technologies and new 
threats, such as double-digit surface-to-air-missile systems, 
nuclear weapons in North Korea, and the recent Chinese 
antisatellite (ASAT) test--which proved that space is no longer 
a sanctuary--make it imperative that we adjust our inventories 
for this new century. We are responding by fielding a next-
generation long-range strike bomber by 2018 as well as funding 
new satellites, tankers, and combat search-and-rescue aircraft.
    Last year, I laid out a very difficult strategy to address 
this most pressing need: recapitalizing our aging air and space 
inventories. We've started this process, while remaining in 
bounds by essentially self-funding, to the maximum extent 
possible, our recapitalization. We have self-funded by 
essentially restructuring our force size and reshaping the 
Total Force on a mission-first basis, buying fewer, but more 
capable platforms, and implementing new initiatives to become 
yet more efficient.
    When I was a young officer leaving the Air Force in 1973, 
the average age of our equipment, including space assets, was 
approximately 8\1/2\ to 9 years old. Our inventory's age is now 
triple that, averaging 24 to 25 years old. With this in mind, I 
have advised our airmen that it is their duty to ensure that 
the airmen of tomorrow are as confident and as capable against 
the threat as we are today, and if part of that duty means that 
we have to leave the Air Force to provide that resource, we 
will do it. We can ensure this only by intensively husbanding 
every resource--people, flying hours, and expenses--and 
dedicating the freed resources to recapitalization.
    I want to thank Congress for its continued help in allowing 
the Air Force to manage our flying inventory and in assisting 
us in this duty to our future.
    I want to thank Congress also for its continued help 
recapitalizing our space inventory. We are taking the necessary 
steps in our fiscal year 2008 budget to ensure uninterrupted, 
continuous service in communications, early warning, position, 
navigation, timing, and environmental sensing satellites. We 
appreciate your support in the development, procurement, and 
fielding of these critical space capabilities because our 
military and the citizens of our great Nation depend upon their 
continuous service.
    We are providing our airmen access to safe, quality, 
affordable, well-maintained housing in a community where they 
choose to live, through housing privatization. In the Air 
Force, our tenet has long been, ``We recruit airmen, but we 
retain families,'' and we make quality of life on our bases a 
key component of this tenet.
    In summary, your Air Force is in the fight, not just in 
Iraq, but globally. Your airmen are the Nation's strategic 
edge. They are expeditionary, highly-trained warriors, and, 
with your help, we will provide them with the necessary 
training, equipment, and quality of life to keep this Nation's 
asymmetric advantage of global vigilance, reach, and power. 
Recapitalizing our aging equipment inventories is the key.
    Finally, I want to add my thanks to our airmen here and 
abroad. They are amazing, eager to serve, and mindful of their 
mission all around the world. I am proud to be their secretary, 
and look forward to your questions.
    Chairman Levin. Thank you very much, Mr. Secretary.
    General, do you have any additional comments?
    General Moseley. No, sir.
    Chairman Levin. Thank you.
    I think we'll try a 6-minute round of questions this 
morning, because of the looming vote we have here at 11:30.
    Mr. Secretary and General Moseley, both, do you believe 
that the fiscal year 2007 and fiscal year 2008 supplemental 
requests adequately fund your requirements?
    Secretary Wynne. Sir, I think they do adequately fund our 
requirements. But, as always, there's tension between strategic 
and tactical. If you gave me another dollar, I would know 
exactly where to spend it. Right now, it would probably be on 
C-130Js, because that is how we are taking more convoys off the 
road. Second, I would probably spend it on strategic 
deterrence, because of a fifth-generation fighter study, as 
well as a space event. That's what I would tell you, sir.
    Chairman Levin. Thank you.
    General, do you believe your 2007 and 2008 supplementals 
adequately fund your requirements?
    General Moseley. Sir, as we worked on the fiscal year 2008 
President's budget, the Air Force spent 2.2 million man-hours 
balancing the program objective memorandum (POM) that is the 
submission of the President's budget. That is the rest of the 
money moved around in the Department. We were able to catch up 
with the two supplementals as well as the UPL. So, with the two 
supplementals and the UPL, sir, I think we're adequate. But I 
also know where I would spend an extra dollar.
    Chairman Levin. When will you have to receive the 2007 
supplemental funding in order to avoid a major cash-flow 
problem?
    Secretary Wynne. Sir, I believe the Department is working 
against a late-April receipt, but we are very concerned that it 
could extend beyond Memorial Day. I understand that the 
Comptroller is beginning to take whatever preventive actions 
are necessary to cash-flow this engagement.
    Chairman Levin. Thank you.
    On the C-130 issue, the Department is asking to buy 17 new 
C-130Js in the 2008 supplemental. That seems to be a large 
number, given that the Air Force has only been buying nine 
aircraft a year in the regular 2008 budget. How is it, Mr. 
Secretary, that the Air Force would be asking for such a large 
number in the supplemental?
    Secretary Wynne. I think, at this stage of the engagement, 
sir, we have forecast, again, that we will be conducting an air 
bridge, both strategically and tactically, for some time to 
come. Right now, our C-130Es are excluded from theater, because 
they are so broken. We are running only C-130Hs, what used to 
be the backbone of the National Guard. We recognize that we are 
flying these on double time and are essentially going to 
forecast their exhaustion at some point in time. With that, we 
think we should backstop our tactical airlift with the request 
for C-130Js, and we think that they have shown a dramatic 
effect in direct delivery for getting convoys off the road--all 
of the Marine convoys except for troops, and about 9,000 per 
month of our Army, Air Force, and Navy personnel who are 
driving convoys every month. This, sir, I'd like to extend.
    Chairman Levin. So, why not part of the regular budget? Why 
is this in a wartime emergency supplemental?
    Secretary Wynne. I think, sir, the 2.2 million hours that 
the General referred to really addressed that part of our force 
structure that we think of as how we would operate in 
peacetime. I think the backfill to the special operators that 
we have been asked to do--and they have, therefore, taken, 
essentially, more C-130Hs from us than we anticipated--plus the 
dramatic increase in mission set that we find we can perform, 
has caused this.
    Chairman Levin. Okay. Tell us, if you would, about the C-17 
procurement, General. The fiscal year 2008 budget for the Air 
Force does not have any funding to keep the C-17 production 
line open. You've been quoted, General, as saying that you'd 
like to retire C-5A aircraft and buy more C-17s. Last year, 
Congress added 10 C-17 aircraft to the fiscal year 2007 bridge 
supplemental, and you had asked for 7 more C-17s in your 2007 
UPL. You have two C-17s on your UPL for this year. Some are 
asking--suggesting that we fund 16 more C-17 in the budget 
itself. On the other hand, looking at the C-5, and the question 
of whether or not we should re-engine the C-5, that would cost 
about $100 million per aircraft. 70 percent of its service life 
would be ahead of it if we re-engined that aircraft. It would 
cost about half as much as a C-17. So, given the top-line 
pressure, General, on the whole DOD, and the Air Force, in 
particular, and given the statement of Secretary Wynne about 
intensifying our effort to utilize every possible resource that 
we can, how do you reject, General, the C-5 re-engining option 
and, instead, put that focus on the C-17s and put those on your 
UPL?
    General Moseley. Sir, there are a couple of unknowns that 
we're working our way through now. One is the growth in the 
land component with the Army and the Marines, not just in this 
surge, but in overall growth. We're beginning to ask, ``does 
the Mobility Capability Study that we ran last year cover what 
potentially will be a larger land-component footprint?'' The 
answer is no, the original Mobility Capability Study did not 
cover this growth. So, we're looking now, with the Army, to see 
what the brigade combat teams (BCTs) and what the Marines' 
regimental combat team means to strategic airlift. We don't 
know the answer to that yet, and we'll work our way through 
that, this summer, because we've not seen the actual footprint 
from the Army or the Marines, other than raw numbers of growth.
    So, Mr. Chairman, we know that there will be a larger 
requirement for strategic lift. The baseline of the original 
Mobility Capability Study was about a minimum of 300 or so 
strategic airlifters, to include C-5A, B, C, and the C-17. What 
we have asked for is the ability to manage the C-5 fleet; to be 
able to ask Air Mobility Command to give us the worst actors, 
wherever those tail numbers are, and to be able to retire 
those. General McNabb believes that's about 25 or 30 C-5s. What 
I would like to do is be able to work with the committee, the 
Guard, Reserve, and Air Mobility Command to look at where those 
particular 25 or 30 airplanes are, and begin to look at 
something to replace those in those units. We had seven C-17s 
on the UPL last year to cover the attrition reserve in BAI 
aircraft, which we didn't buy. The two this year are to cover 
part of the NATO transfer of an airplane, and to cover that 
attrition reserve in backup aircraft inventory. We didn't put 
any more in there because we don't have the rationale, beyond 
the numbers that we have, given the C-5s, and not knowing what 
the growth in the Army and the Marines will do to us.
    What we would like to do is to be able to run the avionics 
modernization program, out on all of the remaining C-5s, and 
then run the re-engining program out on the C-5s that have the 
most life. We are complying with the guidance of the committee 
on the A model re-engining, and we'll have that data out, so 
we'll be much more informed about the A model. It may, in fact, 
be okay.
    But, sir, in the buy of the C-17, we're in a very 
interesting place right now, where our land-component brothers 
are growing, our strategic airlift inventory is static, our C-
5s are becoming much harder to maintain, and the reliability on 
them is in question. The C-17 line is about to be shut down. 
That's the concern. That's the crease in history that we're in 
right now, where we're going to have to make some decisions.
    I'll give you an anecdote on the C-5. The last presidential 
deployment support missions into Central and South America, 
where we took the majority of the strategic airlifters to 
support the presidential mission, the Nation of Argentina 
refused landing rights and overflight of the C-5s. When we 
asked to be able to bring the C-5s in to support the 
presidential mission, back through the assistant attache to our 
Tanker Airlift Control Center at Scott, we were told that the 
Government of Argentina refuses landing rights and overflight 
for six C-5s, because the last time we took them down there, 
they broke, and it took too long to get them off their 
airfield.
    So, there's a variety of concerns in being able to match 
the requirement that see ahead of us, with Army and Marine 
growth, with the global response, and being able to do this 
with strategic airlifters. So, sir, that's a long answer to a 
short question.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Just a quick follow-on of the 17 versus the 5. The 17 has 
operational advantages, particularly shorter takeoff and 
landing. Reverse thrust enables it to support land forces in a 
wide variety of airfields throughout the world. I would hope 
that you'd rely on that also, because it was at great expense 
that we built that technical capability into that aircraft.
    Gentlemen, I'll ask both of you to give us just a short 
report. Again, I focused, in my opening remarks, on the role 
that the Department of the Air Force is providing our operating 
forces the world over. We've heard reports, candid reports from 
the Chief of Staff of the Army and others, that the Army is, 
whatever word you wish, stretched, pushed. The Guard and 
Reserve are suffering. But they're still standing strong and 
carrying out the missions. Do you have any general quick 
description of your department and its impact. I don't say this 
by word of criticism to this surge concept, but, nevertheless, 
it has put, very swiftly, a larger tasking on all of our 
Services to meet the requirements for moving over this 
additional 21,500, now up to 30,000 individuals, and putting 
them in place. What is the impact on your department today?
    Secretary Wynne. Sir, it's primarily in our security 
forces, and then we actually have teams of battlefield airmen 
that deploy with each of the BCTs and the Marine regiments, 
much like our space weapons major here, so there is a direct 
impact. Then, of course, there's an indirect impact, because we 
are now providing what I will tell you is almost valet service, 
in that we can precision-drop supplies to our soldiers and to 
our marines. We can also precision-drop weapons. Our marines 
are fully equipped with the ROVER technology, so we have 
essentially stretched those forces to meet this surge.
    I would tell you that, for the Air Force, somebody 
brilliant in the 1990s who decided that we were in a long war, 
because we were in a long war at that time. We had been in 
southwest Asia for 6 years when we went to the rotating force 
concept called the air and space expeditionary force (AEF). We 
are benefiting from their brilliance, and our airmen are 
satisfied. We do not have a problem in recruiting, retention of 
our Guard, Reserve, or our Active Forces. In fact, it pains me 
every time that I have to reduce our force structure by 
restructuring our forces, because all of us are volunteers who 
add value to the Air Force.
    Senator Warner. Indeed, the story of the Air Guard is 
extraordinary, and that preceded these particular operations in 
Afghanistan and Iraq. We have to be mindful that you flew those 
missions over Iraq for many years, as the consequence of the 
first Iraq conflict, to comport with the understandings that we 
imposed on Iraq at that time.
    I then would turn to another issue. We have airlift 
capacity like no other nation. Unfortunately, other nations are 
not stepping up to augment their own force structures. Are we 
not carrying the bulk of the airlift requirements, for example, 
for Afghanistan, even though, there, NATO is taking over the 
major burden?
    General Moseley. Sir, we are. Remember, last year at this 
time, when we were working through the C-17 issues, we also 
were able to partner in the international market. I believe 
there are 12 or 18 C-17s that'll be built for Australia, the 
U.K., Sweden, NATO, and Canada. But those are yet to be 
delivered. The British Royal Air Force flies four or five C-
17s, and they've been very helpful in this. But the 
preponderance of our NATO and coalition partners operate C-130 
equivalents, or they contract or lease out big Russian Anatovs 
to be able to fly that lift.
    Senator Warner. We must be mindful that all of our 
rotations of personnel to and from these fronts are done by air 
now. No longer do we have the great troop ships that load up 
with a thousand or two and cross the ocean; it's all done by 
air, am I not correct?
    General Moseley. Correct, sir. That is the partnership also 
with the Civil Reserve Air Fleet and with contract carriers for 
our people.
    Senator Warner. Were you impressed with that Airbus 
yesterday? Do you have it in the back of your head that you'd 
like to have one or two in your inventory?
    General Moseley. Sir, I'm still a little fuzzy on how you 
get 600 people through Customs and get their bags, and have 600 
people so they can go to the restroom before they get on the 
airplane.
    Senator Warner. Wait a minute, wait a minute, back up. I'm 
saying, would that be a troop carrier of the future?
    General Moseley. Sir, let's see if it works. Yes, sir.
    Senator Warner. Good answer. But it was a spectacular, in 
overall aviation, achievement. None of us who admire aviation 
cannot be impressed by that.
    Let's get to the tough question, General. I don't know how 
long ago it was that you were sworn in as Chief of Staff of the 
Air Force, but I do remember visiting with you and having a 
small hand in getting your nomination to the floor very 
expeditiously. But, in the course of that hearing, we have a 
standard question we ask all of our uniform officers. There 
could come a time, and when you're before Congress, that you 
have to provide your personal views on tough issues. This issue 
of the single-engine or dual-engine requirement for the JSF is 
one of those tough issues. Drawing on your enormous experience 
with aviation--re-engining, new aircraft, all of that--don't 
you think it is a wiser, more prudent course for the United 
States to keep in competition two suppliers, given that it is 
proven to reduce cost, proven that you increase quality by 
virtue of that competition? Second, this JSF is a multi-mission 
aircraft. One model, of course, is the short take-off, vertical 
landing (STOVL). That STOVL could well require additional 
power, particularly on the takeoff mode. What is your personal 
opinion as to whether or not our Nation, which is taking the 
lead in developing and producing the JSF--with now, what, eight 
or nine other nations?
    General Moseley. Eight, and growing, sir.
    Senator Warner. Eight, and growing. Do not we have an 
obligation, not only to ourselves, but those partners, to 
provide the two-engine option?
    General Moseley. Sir, we've wrestled with this long and 
hard inside our world. The real answer is, it's $2 billion that 
we don't have. But if you're asking me my personal opinion, I 
believe there is always value in competition, and there's 
always value in having additional sources.
    But, sir, I go back to the notion of, I'm a satisfied 
customer. I've spent most of my life sitting on a Pratt & 
Whitney motor. I have no issues with that engine. We don't have 
$2 billion to do this.
    Senator Warner. I'm not suggesting anything against Pratt & 
Whitney. They've had a long and distinguished career of 
providing this country with engines. But I'm just concerned 
about the STOVL requirements of the aircraft. Does that not 
require additional thrust?
    General Moseley. Sir, we don't know yet, because we haven't 
got one built, and we haven't received one into the 
developmental testing (DT) and operational test and evaluation 
(OT&E) phases. If you're asking a fighter pilot, more thrust is 
always better because you don't know what you're going to be 
hanging on the airplane, and you don't know what the drag will 
be, and you don't know how big the weapons will be in the 
future. So, there's always a notion of increased thrust. Sir, 
at the end of the day, this is about money. It's $2 billion 
that we don't have.
    Senator Warner. Then we buy fewer aircraft or take some 
reduction to achieve the safety that is accompanied with that 
additional thrust.
    My time is up, Mr. Chairman.
    Chairman Levin. Thank you Senator Warner.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman, and thanks to both 
of you for being here.
    I just want to pick this up. I hadn't intended to do it 
first, but since we're on the flow about the alternative 
engine, my friend, Senator Warner, and I wrestled around a 
little bit with this last year too. Obviously, in the best of 
all worlds, with no limitations on funding, I'm sure everybody 
would like two engines instead of one. But I do think General 
Moseley made the point, which is the $2 billion. I'd ask you, 
General, or Mr. Secretary, if Congress ordered you to go ahead 
with an alternative engine for the JSF, where would the $2 
billion come from?
    Secretary Wynne. Sir, we are so delicately balanced within 
our budget, and I hesitate to say that, because our comptroller 
probably has her ear to the ground here on anything that I 
would give up, and I just don't have something I would give up. 
We are at a limit when we go down 40,000 people. I am not 
intending to take any further people out. So, I think General 
Moseley has this right. This is about money, in the worst way. 
In every case, we are buying weapons systems at too low a rate. 
Even the JSF, we're not going to get it at the rate we got the 
F-16. We had to take a trim-down of the F-22, from 28 to 20 per 
year.
    Senator Lieberman. Right.
    Secretary Wynne. We're not buying the tankers at the rate 
we bought in the past so, everything, sir, just as you've 
described, is about money.
    Senator Lieberman. At a minimum, I assume, if Congress 
pushed you to go ahead with the two engines for the JSF, it 
would delay the JSF, or narrow the program.
    Secretary Wynne. If the money came out of the program, that 
is correct, sir. If it were ``manna from heaven,'' I would say 
there is probably not the impact on the program, because there 
is a parallel path for the engine that the program manager 
already has.
    Senator Lieberman. Right. If there was not a monetary 
concern. But, obviously, if you had to take it out of the JSF 
budget, I presume it would delay the JSF?
    Secretary Wynne. It would hurt.
    Senator Lieberman. I remember a hearing we had last year 
with the Vice Chiefs of the four Services, and they were very 
strong on that fact. I remember, particularly, the Marines were 
concerned about it. I'm sure we'll come back to that. I 
appreciate your answers.
    I want to ask you a broad question at the beginning. In 
some sense, your opening statement answered it. Not to ask you 
to deliver another opening statement, but, in brief, we went 
through a period of time where, and I know this was never real, 
but there were a certain number of people who felt there was 
not a conflict that we couldn't win from the air. Now we're at 
a point in the war on terrorism where I think some people are 
beginning to think that we only win these conflicts on the 
ground, and that the role of the Air Force is less. Just speak 
for a moment or two, if you would, about the particular value-
added responsibility of the Air Force, in the context of the 
war on terrorism and conflicts like Iraq, Afghanistan, and 
other special operations kinds of missions that we'll have to 
perform for years to come with this war against radical Islam.
    Secretary Wynne. Sir, we believe we set the strategic and 
then the tactical conditions for victory. In that regard, our 
strategic imperative, when 2003 opened up, was, we had only 
stealth fighters go to downtown Baghdad to remove the air 
defense system. As a result of doing that, we swept the skies 
of enemy aircraft, and we opened up all of the altitudes for 
slow-moving UAVs or to fast-moving fighters or nonstealthy 
bombers to loiter overhead and essentially dispense weaponry. 
We feel like this ability to maintain total air dominance is 
key to our police action, which is what's going on now, on the 
ground, and our ability to restore stable governance in any 
part of the world where we so choose.
    I will tell you that when the mullahs in Tehran wake up in 
the morning, they really do not worry about an army coming over 
the Straits of Hormuz, they worry about the United States Air 
Force crushing their national interest. Same way when some of 
our patrons in North Korea wake up, and they look south, they 
are not looking south for an army invasion coming over the 
mountains, they're much more concerned about the United States 
Air Force essentially sweeping the skies and creating, 
strategically, a successful victory.
    Senator Lieberman. I presume you would say the same to 
those who say that we're about to invest much too much money in 
the F-22 and the JSF. The critics would say that these are 
geared for the Cold War that is no more. What's your quick 
defense to that, not just the war on terrorism, but, obviously, 
the possibility of a rising peer superpower that we would be in 
conflict with?
    Secretary Wynne. What I was shocked at, but not surprised, 
was the Chinese ASAT test. It follows the Chinese dramatic 
investment in naval and air superiority. The Chinese now have 
more Sukhois on the ground than we have in our F-15E program. I 
would tell you that the Chinese intend, very much, to be a peer 
competitor, and I am hoping, as all airmen do, that we can 
manage their entry well into the world using economic 
sweeteners, rather than military brickbats.
    Senator Lieberman. Right.
    General Moseley. Senator, there's another part of this. 
While we focus on a tactical fight, we can't forget the 
strategic-level challenges that we face. An air force and a 
navy are the strategic shield and long sword for this country. 
Mike Mullen, if he were sitting here, he and I could almost 
finish each other's sentences about aircraft production, the 
aerospace industry, the shipbuilding industry, and the 
requirement to get fifth-generation systems and the new 
technology out in ships. The ability for the Air Force to 
operate on a global scale is one of the asymmetric advantages 
that this country has, and, in my view, must maintain; that is 
a bomber, that is a tanker, that is strategic airlift, that is 
our satellite systems, that's our unmanned vehicles, and that's 
these new fifth-generation fighters that will dominate the air 
and space mediums. Because, again, we are very proud of the 
fact that the last soldier killed from the air was in April 
1953.
    Senator Lieberman. Right
    General Moseley. That is a testament to the partnership of 
the United States Army and the United States Air Force. It also 
says something about what we do in support of ground activities 
and also what we do in direct attack, whether it's strategic 
attack or long-range aviation or interdiction. So, sir, we're 
beginning to worry a bit about the recapitalization and the 
modernization path and how to operate these old systems against 
a growing threat.
    Senator Lieberman. Right. I appreciate your answers. My 
time is up. I would just add this, and not ask a question, that 
all the Services are under pressure here. I know the bottom 
line on the military budget is large, but we're still spending 
a percentage of our gross domestic product (GDP) below the 
historic average, let alone the average in a time of war. The 
fact that your Service plans to thin its ranks by about 57,000 
people by fiscal year 2011, which, factoring in Guard and 
Reserve personnel, is quite remarkable. You're doing it not 
because you want to, I take it, but because it's necessary to 
stay modern and be ready for the next generation of challenges, 
in terms of the equipment we're acquiring for you.
    General Moseley. Right.
    Senator Lieberman. So, anyway, I thank you. Well done. I 
look forward to working with you.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I was glad that Senator Lieberman ended on that note. All 
Services are on a starvation diet now. It goes back to the 
question of where we are in adequately funding our Services and 
looking into the future. You can't make these changes and get 
results in a year from now, it has to be planned out. I always 
go back to when I was on the House Armed Services Committee and 
someone testified in 1994, that in 10 more years we wouldn't 
need ground troops. The generals are all smart, General 
Moseley, but they're going to be wrong, when you say, ``what 
are our needs going to be in the future.'' That's the reason 
that I think that having gone through the entire 20th century, 
for 100 years, spending 5.7 percent of our GDP on military, and 
then dropping down as low as 2.7 percent at the end of the 
1990s, was something that was a mistake. It would be my goal to 
get back up there where you don't have to try to make these 
decisions and see where things are broken. I disagree with 
Senator Warner on the alternative engine, for the same reason 
that Senator Lieberman talked about, but it would be great to 
have that luxury. It would be. If we could afford it, that 
would be a great luxury to have.
    We went through this with the C-17 virtually every year 
since the late 1980s, as to problems we're going to have and 
how many we're going to have. I was honored, in 1995, to 
actually fly in the right seat to Altus, Oklahoma, on the first 
C-17 that came to Oklahoma. It's an incredible vehicle, and 
everything else is old. In the last 17 years, the things that 
we've gone through with our lift vehicles: Operations Desert 
Storm, Northern Watch, Southern Watch, Desert Fox, and Iraqi 
Freedom. So, here we are now faced with something that I 
consider to be a crisis, and that is, if we stop the C-17 at 
this point, what happens to the line?
    Now, I'd like to ask you, to the best of your knowledge, 
because I've heard a variety of figures, how many C-17s would 
it take to keep the line open?
    Secretary Wynne. Sir, I have been pushing Boeing for that 
for a long time, to try to make sure that they can tell us what 
they can do. I can only remember, back when we were talking 
about terminating the F-16 line, and I think the contractor, at 
that point, came back in with less than one a month, if he 
could continue to go out and get foreign military sales. I have 
taken that as a token number, as a target. But Boeing has not 
been back to me with what they could do. I think they could do 
with less than one a month, and I've told them, if they could 
come back, we would try to figure out how to fit them in. The 
problem is, on all of our programs, we're down to the minimum 
sustaining rate on so many of our programs, and one hiccup of 
cost and we're done. Most of the arguments we're all having on 
whether it's aircraft retirements or on some of the reliability 
aspects have to do with, we don't have the money to really 
overlap.
    Senator Inhofe. Yes, I understand that. General Moseley, I 
appreciate your telling the story, the Argentina story, because 
that means I don't have to do it on my time. [Laughter.]
    But it is pretty incredible to think that around the world 
there are countries that don't let us overfly and land because 
our equipment's so old and worn out. I know it's true. On 1 of 
our 12 trips to the Central Command area of responsibility--I 
think it was probably about a year ago--on a C-130, going into 
Baghdad--we didn't lose one engine, we lost two engines.
    Senator Warner. How old was it, though?
    Senator Inhofe. It was an E model.
    General Moseley. Sir, you have four engines on the 
airplane, so you had two left. [Laughter.]
    Senator Inhofe. I understand that. [Laughter.]
    But I also have been an aviator for 50 years now, and I 
don't want to lose two engines on a four-engine airplane.
    General Moseley. No, it's not good.
    Senator Inhofe. We do have a serious problem.
    I'd like to pursue this thing, just briefly, on the fifth-
generation fighters. We've talked about General John Jumper 
admitting that the Sukhoi SU series that you've referred to is 
better, in many ways, than our best strike fighters. Of course, 
I think it's important that they get in there. I notice, 
though, that the fifth-generation fighters were not in the 
supplemental. I understand that maybe two of them were in but 
they came out. Do you want to comment on that?
    Secretary Wynne. Yes, sir. I will tell you that our 
fighters have been the source for funding for other programs 
for several years, ever since PBD-753 essentially reduced the 
F-22 to its lowest level of affordability and funded some other 
programs that were bills facing the Department. Here, I think, 
in the supplemental, we had an increase in ground forces above 
the surge that we had expected, and the Department rallied 
around and essentially stripped out all the fixed-wing 
aviation, to include the fifth-generation fighters.
    Senator Inhofe. Yes.
    Secretary Wynne. Our argument, simply, was that we had 
taken combat losses. We've lost over 130 aircraft, 50 fighters, 
since 2001, although not all in combat.
    [Mr. Wynne provided the following clarifying information.]

    We've lost over 130 aircraft, 50 fighters, since 2001, although not 
all in combat.

    Secretary Wynne. We knew we did not want a fourth-
generation replacement, and so, we did try to get a fifth-
generation. I understand it caused controversy, and the 
Department reacted by removing it.
    Senator Inhofe. It's just one of these things where 
everything is bleeding, at this time. We don't have the 
resources for it.
    My time has expired, but I would like to have you mention 
one thing about the UAV taking the lead between the Army and 
the Air Force. It's a discussion that I'd like to at least get 
in the record, just very briefly, if that would be all right, 
Mr. Chairman.
    General Moseley. Senator, I would like to, if you would 
allow me, for the record, to provide the letter that I sent to 
the Deputy Secretary that outlined our position.
    [The information referred to follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
      
    General Moseley. I believe, if we're not careful, we are 
headed for a crisis, in acquisition, in deliveries and 
procurement, in command-and-control, the ability to field the 
system to support all requirements. We spend most of our day 
looking to support joint requirements for the joint warfighting 
commanders, but also our Army, Marine, and Navy brothers and 
sisters. We have 12 squadrons of these, and we're trying to 
flesh out more. I believe there is a cleaner, quicker, more 
effective and efficient path to being able to do this, and 
that's exactly what we've proposed.
    This is not a land-grab. General Schoomaker and I are the 
dearest of friends but I believe there is a better way to field 
these systems faster and streamline the command-and-control 
that exists, and be able to fight this long war on terrorism, 
and anything else ahead of us, better. So, if you would allow 
me, I'd like to put that in the record.
    Senator Inhofe. That would be fine.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    Let me first say to the incredible Americans that were 
introduced at the beginning of this hearing, I'm in awe of who 
you are and what you do. Congratulations to you and your 
families. Congratulations to the Air Force for producing these 
kind of fine heroes in our systems.
    I have about an hour's worth of questions on acquisition, 
but I'm going to try to limit it to 6 minutes. Have both of you 
read the Government Accountability Office (GAO) report that was 
issued last week on defense acquisitions concerning airlift and 
tanker programs?
    Secretary Wynne. No, ma'am, I have not read it in the 
detail that you expected.
    Senator McCaskill. That's probably a huge part of my 
concern. This report is incredibly important as we try to do 
what you're trying to accomplish, and that is using commercial 
technology to update old aircraft. If you read this report in 
detail, you have to really slow down. For example, the Mobility 
Capability Study (MCS) is clearly flawed, and it's the study on 
which you base your number one funding priority, which is the 
KC-X tanker. What this shows, if you look at the four major 
airlift programs is that none of them are on time, none of them 
are on budget. For example, the C-130 Avionics Modernization 
Program (AMP) that you have talked about in fiscal year 2008 is 
up $700 million, and the number of units that we can acquire 
has gone from 434 to 268. The development cost change since the 
beginning of this program is up 128 percent. The problems are 
pretty clear. How much money will it take to put commercial 
technology into a military system? Do we have a stable design 
before we get to the system demonstration stage? Most 
importantly, failure to show that it will work before we begin 
production investment.
    I guess my question to you, Mr. Secretary, is, who is 
accountable for moving forward on these incredible investments 
of billions of dollars without having this basic information at 
the critical junctures?
    Secretary Wynne. Many of the programs that you have talked 
about were actually started some time back. But I will tell you 
that myself, the service acquisition officer, the operation 
requirements people that lay in the requirements behave in a 
manner laid out in the DOD Directive 5000 to try to make sure 
that we do this correctly. We use the requirements that we get 
out of the requirements generation to lay in the key 
performance parameters (KPPs). Many times, our friends and 
associates in the GAO don't agree with our assessment, but we 
feel like we are making the best judgments we can along the 
way.
    Senator McCaskill. I have to tell you, it seems to me, if 
the best judgments were being made, we wouldn't consistently, 
in every single instance, have major, major cost shift, major 
reductions in units purchased, and delay. You're looking at a 
year and a half to 2 years delay before we can actually even 
utilize this technology that we are investing billions of 
dollars of taxpayer money in. I get the stresses that you're 
facing. What I don't get is a continuation of acquisition 
mistakes that don't appear to be taken seriously.
    Secretary Wynne. Ma'am, we take every acquisition 
governance issue very, very seriously, and we have established 
a transparency with Congress, and, frankly, with the GAO where 
we're reaching out to the GAO to make sure that we're certain, 
for example, on the combat search-and-rescue helicopter, of 
what we should be out to resolicit from our vendors. So we take 
it very seriously and we are working it very hard. But the 
citations that you cite are real, and we are working with the 
GAO on each of those instances to demonstrate to them that we 
think we're on a little bit better path than they have 
asserted.
    Senator McCaskill. Have you circled back to look at the MCS 
and look at that study and the conclusions that you've drawn 
from that, and taken into account the flaws that I think are 
very ably pointed out by this GAO report?
    Secretary Wynne. The MCS study is actually performed by the 
Office of Secretary of Defense (OSD). We have participated in 
it. We have had one every year for the last 15 years. We know, 
for example, that this one does not take into account the 
increase in ground forces that we see. We also know that it 
might not take into account the full requirement that the Army 
has when they move out on the Future Combat System. So, we have 
our concerns. However, I will tell you that the analysts who 
performed that model have claimed that they have asked folks 
about it and basically have told the Air Force that we should 
not submit even the two additional C-17s, because the MCS has 
been satisfied.
    Senator McCaskill. I would like to see a requirement that, 
when one of these reports comes out, that it be consumed 
immediately by a number of different people within the 
military, because you all have been on the high-risk list for 
longer than anyone else, and as we face budget constraints all 
of us want you to have what you need to do the incredible work 
you do, but it's awfully hard to ignore the detailed analysis 
that's factually based that is represented in some of these 
reports without shaking your head and wondering who is held 
accountable, who, within the military, steps up and says, ``We 
made a mistake, and this is costing too much because we made a 
mistake. We're not getting what we thought we were going to 
get.'' Because if somebody doesn't take responsibility, I don't 
know how we're ever going to get it changed.
    Secretary Wynne. We have, in fact, canceled some programs 
that have approached us when they have ballooned out of sight. 
The ones we cannot cancel are the ones that are actually 
satisfying a true operational need. I will tell you that it is 
a partnership between industry, the requirements people--
namely, the user--and the funding agency. For example, in the 
area of the F-22, when that was reduced from a rate of 28 to 20 
per year, we were actually asked to go get a multiyear contract 
to try to offset that. Frankly, that's very difficult. In the 
JSF, which we are forecasting to be a really good performing 
program, right now we're questioning what requirements we 
should put on that program. If we do it the way Senator 
Lieberman or even the way some of our fellows in OSD that are--
wanted to suppress the number, even the GAO says, ``Let's not 
do it at the rate that they originally forecast''--if we do 
that, the price of that program will increase.
    Senator McCaskill. I would really appreciate, after you 
have a chance to read this study, since you haven't had the 
chance to do it yet, if you would respond to my office or to 
the committee with what your answers would be to the very 
important points that are made in regard to the airlift and 
tanker acquisition program.
    [The information referred to follows:]

    The study you refer to is Government Accountability Office (GAO) 
report GAO-07-566T, ``Issues Concerning Airlift and Tanker Programs,'' 
published on 7 Mar 07. GAO submitted the report as testimony to the 7 
Mar 07 House Air and Land Forces Subcommittee hearing on ``Air Force 
and Army airlift and aerial refueling fixed-wing aircraft programs.'' 
Responses to the report's findings on KC-X, C-130 AMP, C-130J, and C-5 
AMP/RERP programs follow.
C-130J:
    The C-130J experienced some difficulties during the initial 
fielding in 1999. However, these issues have been aggressively worked 
and resolved by the Air Force and the contractor. The C-130J is now a 
vital member of the intra-theater fleet. To date, the C-130J has been 
deployed in support of Operation Iraqi Freedom and has completed over 
5,500 sorties (over 11,000 flight hours) since 2004, with a mission 
capable rate of 85 percent.
    The GAO report refers to three deficiencies that result in the 
aircraft being rated as partially mission capable: inability to meet 
airdrop operations requirements, ineffectiveness in non-permissive 
threat environments, and maintainability issues. As stated in the 
report, ``program officials plan to address the deficiencies as part of 
a C-130J modernization effort.''
    First, the aircraft is capable of performing all airdrop and 
airland operations except Instrument Meteorological Conditions (IMC) 
Formation Airdrop. Although a limitation is placed on C-130J formation 
IMC airdrops, no tasking for the C-130 has required this capability 
since the global war on terrorism began. The C-130J is cleared for and 
has accomplished formation airdrops in Visual Meteorological Conditions 
(VMC). The Air Force plans to address the IMC Station-Keeping Equipment 
(SKE) limitations when Block 6.0 is released in spring 2008.
    Second, with respect to the ``operation in a non-permissive threat 
environment'' limitation, the C-130E/H/J is not designed to operate in 
high threat environments and avoids operations at altitudes within the 
range of hostile surface-to-air missiles. Therefore, the limitations 
cited by DOT&E do not impact the ability of the C-130J to conduct its 
mission. Air Force Operational Test and Evaluation Command (AFOTEC) 
completed C-130J Phase 2 operational testing in December 2005 and 
concluded in their final report dated 28 Apr 06 that the C-130J was 
effective in a low- to medium-threat environment, and stated the C-130J 
is effective for single-ship all-weather airdrop and visual formation 
airdrop capabilities which meet the warfighter's approved requirements.
    Third, the ``maintainability issues'' resulted from a high false 
alarm rate with the C-130J Built in Test (BIT) experienced by AFOTEC 
during OT&E. Even with this shortfall, AFOTEC determined that the C-
130J was suitable for both airland and airdrop, with the aircraft's 
operational reliability exceeding capability requirements. During OT&E, 
the C 130J mission capable rate was 96 percent. The Air Force plans to 
address these shortfalls as part of the ongoing C-130J Block upgrade 
program.
C-130 AMP:
    C-130 AMP currently has two modified aircraft in flight test with 
38 test flights totaling 103 flight hours accomplished with no critical 
deficiencies noted. C-130 AMP recently declared a critical Nunn-McCurdy 
breach and is undergoing an Office of the Secretary of Defense (OSD) 
certification process in which the requirements, unit costs, and 
management processes are being revalidated. The Air Force is 
cooperating fully with OSD to restructure the program.
C-5 AMP and C-5 RERP:
    The C-5 AMP program is currently in production and continues to 
progress. Twenty-four C-5 aircraft have been AMP-modified and the 
program successfully reached Initial Operational Capability (IOC) on 1 
Feb 07. AMP-modified C-5s have flown more than 7,300 hours transporting 
more than 7,000 passengers and 15,000 short tons worldwide. The Air 
Force is correcting some AMP software deficiencies through a Block 
Cycle Change process, with the first to be installed on C-5 aircraft 
next year. As stated in the GAO report, C-5 RERP is facing cost growth 
challenges due to engines, pylons, and touch labor. A detailed Air 
Force cost estimating effort is underway to determine the extent of the 
cost growth and to develop a service cost position.
KC-X:
    The 7 Mar 07 GAO report you mention (GAO-07-566T) cites information 
from the final copy of a different KC-X GAO report (GAO-07-367R) issued 
on 6 Mar 07. DOD provided comments on the draft copy of GAO-07-367R, 
but has not yet responded to the new information included in the final 
drafts of both GAO-07-367R and GAO 07 566T. DOD is currently 
coordinating a response to the information included in both final 
reports, and we can respond to your question after DOD completes its 
response.

    Secretary Wynne. Thank you.
    Senator McCaskill. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Dole.
    Senator Dole. General Moseley, in a recent newspaper 
article, you were quoted as saying the following, ``In working 
the budget problem, I believe I'm seeing challenges that lead 
us to the notion that maybe it's time to have this discussion 
about a higher percentage of GDP. It's going to be very, very 
hard to get where we're going, as defined in the Pentagon's 
strategic plans, and to do this business on a global scale, 
with the resources that we have.''
    Now, given that statement, would you share with the 
committee your professional views on what you believe the 
budgetary requirements of the Air Force will be over the next 
several years and beyond, given our role in the world and the 
demands that are placed on the Air Force? Would you further 
describe for the committee the strategic implications for the 
Air Force and for the United States if, indeed, those adequate 
resources are not forthcoming on a sustained basis?
    General Moseley. Senator, thank you.
    Ma'am, I do believe it's perhaps time to have a discussion 
about percent of GDP for DOD outlays. As the Secretary has 
said, and I've said, for this budget, we've spent 2.2 million 
man-hours developing this POM, which became our piece of the 
President's budget. We've given up 40,000 people, which really 
touches about 57,000, when you add in the full-time 
equivalents, which is approaching the size of the French Air 
Force. We've given that up to self-finance and to be able to 
meet our procurement accounts and our priorities and stay 
within our fiscal guidance.
    Ma'am, we've run some of the numbers as it looks out over 
the Future Years Defense Program (FYDP) to be able to deal with 
fuel cost that is an unknown, inflation rates, exchange rates, 
and to be able to look at economic order quantities of 
deliveries of the procurement priorities. It looks like, on an 
average, it's about $20 billion more a year just for the Air 
Force. To be able to meet our global requirements and our 
global challenges in a very uncertain world out there takes you 
to the tanker, takes you to strategic airlift, takes you to the 
new bomber, and for sure takes you to the air dominance 
capabilities in the fifth-generation set of systems of the F-22 
and the F-35. So, ma'am, I believe it is time to look at that, 
and I believe, if we're not careful, we're going to continue to 
squeeze the budget with some of the other costs that are rising 
on our human capital. Our people are so precious, but they are 
costing more and more and more a year, which then squeezes the 
investment account. As we try to hold our quality of life and 
our infrastructure constant on our bases, and we try to hold 
our operation and maintenance accounts, our flying hours, and 
our depots constant, there's no other place to go but the 
investment account. That's been our challenge for the last few 
years.
    Senator Dole. Let me ask you, and Secretary Wynne, also, 
given these shortfalls, should we now be giving serious 
consideration to the 4 percent rule that will allocate no less 
than 4 percent of the GDP to the annual defense budget?
    General Moseley. Ma'am, I believe 4 percent would be a good 
starting point. I'm a little outside of my lane, but, since you 
asked me, I believe less than 4 percent is still going to 
continue to crunch the budgets while we're fighting a global 
war, while we're taking care of our land component, while we're 
looking to grow the Chief of Naval Operations' Navy back to a 
strategic setting, and while we attempt to modernize and make 
this Air Force what this country demands of it. So, I believe 4 
percent is a good starting point.
    Senator Dole. Secretary Wynne?
    Secretary Wynne. I'm pleased to see you enter the argument. 
I'm sure that the President, the Office of Management and 
Budget, as well as the Secretary of Defense, have this same 
argument amongst themselves. We spent 2.2 million hours trying 
to figure out how to balance this budget within ourselves. 
We're the only Service that balanced its budget. So, I think 
the argument is valid. I would say it should be resolved above 
my pay grade.
    Senator Dole. Secretary Wynne, let me ask you, how much has 
the aerospace industry consolidated, in terms of the number of 
prime aerospace contractors, over the past 15 years? Are you 
concerned that the aerospace industrial base has contracted too 
far? Are you seeing signs that portions of the second- and 
third-tier vendor base are thinning beyond what you would 
consider to be prudent?
    Secretary Wynne. I would tell you that they have 
consolidated dramatically. Starting in the early 1990s, they 
were the product of the peace dividend. I personally managed 
part of an operation in San Diego that had, at its peak, 35,000 
employees. It went to 200. So, I would say that that alone 
tells you that some places, geographically, paid a peace 
dividend well above others.
    The consolidation, as you pointed out, is not really there 
at the first tier, although, as Senator McCaskill pointed out, 
in the tanker world, we only had two, which I would call, free-
world competitors, one in France and one in the United States. 
The third maker of tankers is the Russians. We did not invite 
them to participate in the competition. I would tell you also 
that many foreign nations, India, for example, does invite all 
of them to participate, so they get the benefit of worldwide 
competition.
    It is our fourth tier, the forging-makers, who make landing 
gear forgings, that have an extraordinarily long lead on their 
products, that cause us, for example, to reach 2 years in 
advance to try to get into line on forgings for landing gears 
for our fighter aircraft and our bombers. It's these precision 
manufacturers that I am concerned about, because I think we're 
down to just one, or one and a half, and we do not have the 
money to restart the line. Our fear is, when the C-17 line goes 
cold, we won't have the money to restart that line. So, I'd 
love for somebody--and I don't know who--to have them 
available, but I can't expect it. It's one of the reasons we 
have to look hard at making sure we get full lifespan out of 
the C-5, because if we have to restart a strategic lifter in 
the 2025 timeframe, I'd love to have more than one supplier 
available. I don't think I will.
    Senator Dole. Thank you, Mr. Chairman. My time has expired.
    Chairman Levin. Thank you, Senator Dole.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Let me start with you, if I can, General. We have Little 
Rock Air Force Base in Arkansas, and they do C-130s. I was 
there just last month, and they came through base realignment 
and closure and all, fine. The C-130 has really developed into 
the workhorse of the global war on terror, with this lift 
capability. But the Little Rock Air Force Base also has a 
challenge, and that is, its runway needs to be resurfaced. I 
don't know if you knew that. They're working on a plan, 
apparently, with their higher-ups, whoever that is. I'd like to 
bring that to your attention for you to know about and maybe 
help me work with everybody to try to get them that new surface 
they need. Were you aware that they had that problem?
    General Moseley. No, sir.
    Senator Pryor. I think it's, in some ways, just kind of a 
typical maintenance problem, but, given the role the C-130 is 
playing now, and the role Little Rock Air Force Base plays in 
that, I just wanted to bring it to your attention.
    Speaking of the C-130s, they have a lot of wear and tear on 
them right now. They're being deployed left and right in 
Afghanistan and Iraq. The E models are old, and some of them 
are not able to fly. Do we have enough J models coming on line?
    General Moseley. Sir, I'll say no. Then let me tell you 
another vignette about the E models. Our special operations 
birds, which are E-model derivatives, that we have in theater 
right now, we operate them after we have the center-wing boxes 
fixed on them. The outer wings are still not right. So, after 
every 90 hours, we have to take the two outboard engines out of 
the airplane, take the skins off the outer wings, and conduct 
an inspection that takes 36 hours per airplane. We have to do 
this every 90 hours, whether it's in theater or in Little Rock 
or whether it's at Yokota or Ramstein. So, sir, this is 
beginning to be a very troublesome safety challenge, as well as 
an operational challenge, to have to break an airplane down 
every 90 hours in combat to inspect the outer wing boxes.
    Senator Pryor. I believe Secretary Wynne, a few moments 
ago, said that we're at a minimum sustaining rate on a lot of 
our programs. Is that also true for the C-130?
    General Moseley. Sir, it is. We have about to be completed 
an analysis of alternatives from Air Combat Command, Air 
Mobility Command, and Air Force Special Ops Command on looking 
at a follow-on to the tanker and a follow-on to the MC-130. 
I've not seen the results of that yet, but I suspect it'll take 
us to something that looks like a modernized C-130.
    Senator Pryor. Do you know when the results of that will be 
made public?
    General Moseley. Sir, I don't.
    Senator Pryor. Okay. Well, I'd love for you to share that 
with me when you get it in.
    General Moseley. Yes, sir.
    [The information referred to follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
           

    Senator Pryor. That also brings us to the question of the 
joint cargo aircraft, which I understand is a smaller aircraft, 
probably two engines and all that. But where are we on that? 
Where are we on the joint cargo aircraft?
    General Moseley. Sir, we have a joint program office which 
is an Army-led office, and they are looking at that. We have a 
memorandum with them, on looking at building a smaller cargo 
aircraft of some form. We are working our way through that. The 
Army has not got to a place where they're close to source 
selection, that I know of. We are also finishing a much more 
detailed requirements document on the Air Force side. Senator, 
this is important to us, not only for our Air National Guard 
and our Reserve squadrons, and some Active and Air Force 
Special Operations squadrons, but also in the international 
market. I've sent a letter--if you would allow me to put it in 
the record--to global air chiefs, that asks them to partner 
with us on the requirements for a joint cargo aircraft, so we 
understand emerging countries' capabilities for this sort of 
thing. I've also recently sent a letter to the Governors, and 
the territorial Governors, asking them to tell me what they 
think their State missions are for the joint cargo aircraft. 
So, sir, we're vested in this, because I believe it's a good 
idea, and I believe it's the right thing to do. We just don't 
have the programmatic detail yet, nor are we close to source 
selection.
    Senator Pryor. Mr. Chairman, I would like for that letter 
to be made part of the record.
    Chairman Levin. It will be made part of the record.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        General Moseley. Yes, sir.
    Senator Pryor. So, tell me the general timeframe. What's 
your goal to try to get this done and when would you like these 
to come into the fleet?
    General Moseley. Sir, I believe we, with the Army, will be 
looking at source selection sometime in the May or June 
timeframe. From there, it will depend on which airplane is 
selected and what we have to do to the airplane to make it 
mission-capable for our Guard, Reserve, Active, Special 
Operations, et cetera. So, sir, I think we'll know more about 
that in the May or June timeframe.
    Senator Pryor. Okay.
    Also, let me ask, in Iraq specifically, there have been a 
number of press reports about shoulder-fired missiles going 
after our helicopters. Are you seeing that same trend with the 
cargo aircraft and with other aircraft in Iraq?
    General Moseley. Sir, we've been shot at with the cargo-
carrying airplanes since the very beginning, because you have 
to eventually get off the ground and come back to the ground, 
and it's not lost on people that the airfield is where you do 
that. So, there are lots of people that wait around an airfield 
to fire at the C-130s, the C-5s, and the C-17s, which, of 
course, we've had them hit.
    We don't have the same challenge that the Army has with its 
helicopters at low altitude in a variety of other routes. We 
can stay out of most of that, which is an inherent benefit of 
fixed-wing aircraft, that you can get out of a lot of that 
stuff, other than landing and taking off.
    Senator Pryor. Okay. I want to ask, if I can, about the 
Iraqi air force. I know that in today's world, when you look at 
what's going on, say, for example, within Iraq, you're looking 
at close air support. One of your primary missions there is to 
try to have that close air support. How is the Iraqi air force 
doing? What are we doing to give them the capability to someday 
turn that role over to them?
    General Moseley. Sir, there are two parts to that. The 
first thing we've done is to provide them three C-130s. Their 
air force, right now, consists of some small aircraft that they 
fly around, and three C-130s that they operate. We trained them 
at Little Rock. Those were our crews that still fly with them. 
So, we're partnered with them.
    The second part of your question is, we have an effort 
ongoing with Central Command now to interface with both the 
Afghans and the Iraqis to look at the next set of decisions 
that they make on equipage, on training, and on what types of 
aircraft they'd be looking at, whether they're fixed wing or 
rotary wing. Sir, that is just beginning to play out.
    Senator Pryor. Is it your impression that the Iraqis have 
the personnel to do that?
    General Moseley. Sir, I don't know yet. From my dialogue 
with them, there is a desire to do that. I don't know that 
there is a capacity to do that yet. So, sir, there is more to 
follow on that as we have a team of about 600 airmen that are 
involved in this with Afghanistan and Iraq right now, doing 
exactly what you're asking.
    Senator Pryor. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Pryor.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Secretary Wynne, General Moseley, thank you for your great 
service to our country. I especially appreciate the service of 
the airmen that you introduced today, and everything that they 
are doing to keep our country safe. We are deeply appreciative 
of their commitment, their dedication, their skill, and I want 
to do everything we can do to continue to support them.
    Secretary Wynne, I have a question regarding the B-52 
synthetic fuels testing. My understanding is, that testing is 
complete. Can you comment on the results of the testing and the 
future Air Force plans for synthetic fuel?
    Secretary Wynne. Sir, we were very pleased with the outcome 
of the B-52 test at Minot Air Force Base. We went up there to 
cold-soak it to make sure that it would, in fact, start under 
cold conditions. All of the indications are that it performed 
well. We are now undergoing a 90- to 120-day teardown of the 
engine to try to prove or disprove the supposition that running 
this cleaner-burning fuel also helps in the maintenance of the 
engine, to try to discern whether there is a life-cycle 
benefit, recognizing that we may be faced with paying a premium 
for the fuel itself.
    We have also laid in plans to qualify other operating 
aircraft, and we hope to have the totality of the Air Force 
fleet available for synthetic fuel, partnered with JP-8 jet 
fuel, by about 2010.
    If we can do this, then we will form a small marketplace, 
because we want to be a buyer, not a supplier, in this 
marketplace. We had a great energy forum. We had a lot of 
people show up. Some great Americans came. Recognizing full 
well that what the Air Force is trying to spark is to change 
the environment in which we operate, politically. It may not 
change our national interest, but it certainly will change our 
temperament towards it.
    Senator Thune. Are you adequately funded to continue the 
synthetic fuel certification program?
    Secretary Wynne. Sir, I think it's on our UPL. We are, 
right now, essentially patchworking fiscal year 2007, and it 
would be my intention to continue doing that through 2008, but 
I have not truly identified the money. I would tell you that 
there are some that really believe that, as an Air Force, we 
would have first-priority call over the civilians if it was 
truly a need for our Air Force to secure fuel. I just don't 
think I ever want to be put in that position. I actually want 
to be the source of technology, so that my other airline 
colleagues can look elsewhere, and maybe not get us into that 
hedge. It's one of those hedge bets that I think somebody in 
government has to make, even though we hope it never comes 
true.
    Senator Thune. I appreciate very much the leadership role 
that you've taken in that regard. I think that this is 
critically important not only to our energy security needs that 
we have as a Nation, but I also believe it becomes a national 
security issue, and I think that the efforts that you're making 
to move into this whole area of synthetic fuels is critically 
important to our future.
    General Moseley, Congress has added funds to put an 
advanced targeting pod on the B-1 aircraft. How is the 
development and fielding progressing?
    General Moseley. Sir, that is working out very nicely. It's 
the same pod that we use on the F-15Es and the F-16s. There are 
a couple  of  versions  of  that.  We've  looked  at  putting  
them  on  the  B-52s, and we've used them on the B-52. The B-1 
is the remaining aircraft system. Sir, you know better than 
anyone, because they live  in  your  State,  24  hours  a  day, 
 7  days  a  week,  we  have  a  B-1 over Afghanistan with 
weapons bays full of ordnance. It's a great airplane to do 
that. The thing that will make it even better is that pod, so 
we can be able to see things from the flight deck of that 
bomber, like we can see from fighters and from UAVs. So, sir, 
that's progressing, and we appreciate the committee's help in 
doing that. That's a big deal for us.
    Senator Thune. I have a follow-up question to the line of 
questioning that was asked earlier regarding the C-5/C-17 
discussion. General, could you clarify your strategic airlift 
requirements, and how you would propose to meet those 
requirements, if authorized to retire C-5As?
    General Moseley. Sir, what we don't know yet is what the 
growth of the Army and the Marines is going to do to the 
overall strategic airlift requirement. We do know that the MCS 
that was conducted did not take into account the growth of the 
Army and the Marine Corps. So, there is a piece of this that is 
an unknown right now that we're working with the joint staff 
and OSD.
    I don't believe the numbers of strategic airlifters will go 
down. In fact, I believe we're probably at the minimum level 
now, with about 300. My desire would be to take out the worst 
actors of the C-5 fleet, which is about 25 or 30 airplanes, I'm 
told by Air Mobility Command, and be able, then, to look at 
retiring them, which will provide us some revenue and some 
offset to be able to continue the mods on the C-5 fleet, as 
well as perhaps look at additional C-17s.
    But, sir, as far as specific numbers, I don't have those 
for you, because we've not gone back. We've not had someone 
tell us what the results of that growth is for MCS.
    Secretary Wynne. I can tell you, sir, that the--right now, 
some worry about the entirety of the C-5 fleet. There are two 
things we should know about this. First is that we want to line 
up, worst to best, and we think there are between 20, 25, and 
30 bad actors that we would like to retire. We do not have bus-
fulls of pilots awaiting the retirement language, that would 
fly out to any base and begin to remove. What we would do is 
begin to really structure a plan, in conjunction with the base 
commander and the wing commanders, on, what we can do to 
backfill to make that mission whole and what we can do to make 
sure that the airmen that are there are fully satisfied and 
enticed to stay with our Air Force?
    Senator Thune. I thank you, again, for your service, and 
thank you for your responses.
    Thank you, Mr. Chairman. My time is up.
    Chairman Levin. Thank you, Senator Thune.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Gentlemen, welcome, as always, and thanks for the great job 
you do for our country in making us the world's greatest 
military power. Your leadership is critical at this point in 
the history of our country. Thanks for bringing these great men 
and women with you. They really are the face of the United 
States Air Force, and we appreciate the great job they do, day 
in and day out. Once again, I'm not biased or prejudiced at 
all, but knowing that Moody Air Force Base is the best fighter 
base in the Air Force, Sergeant Marfell, thank you for being 
here, thanks for the great job you do. We're particularly proud 
of you, back home.
    Gentlemen, over the past several months there has been 
considerable discussion relative to the C-17 and C-5 situation. 
I think both of you would agree that this is not an either/or 
situation. These two weapons systems complement each other, and 
there's a need that both systems work in coordination with each 
other to get the best for the money that we invest. But I have 
a couple of questions to ask you about the C-5 and C-17.
    First of all, how are the C-5Ms, that have received both 
AMP and reliability enhancement and re-engining program (RERP) 
modification, performing? If the Air Force were to cancel that 
C-5A RERP, when would that particular cancellation yield 
savings to the Air Force?
    Secretary Wynne. First of all, I think we're still taking 
data on the C-5Ms. The As have just been, I think, modified, 
and are going through the test programs right now. We intend to 
complete that action. So, we will have that. But, right now, 
all indications are that they're performing pretty well. I 
would tell you that the refit line always does outperform our 
expectations when it comes due.
    I would also tell you that where it stands now is that 
there are increasing cost pressures that are causing that, if 
they're going to live within their budgetary constraints, to 
stretch out a little bit. We will be later in the flow.
    This gets to the second part of your question, which is, 
what would happen if we were to, in fact, move to, cancel the 
re-engining which I'm not sure we're there yet. I think we are 
all for re-engining most of the Bs, and a good part of the As, 
to get there. It would be somewhere in the 2014 to 2016 
timeframe, where you would get the bulk of the savings.
    I think the immediate savings would literally come from not 
maintaining the aircraft that we would retire over the next 2 
or 3 years. So, there would be some modest amount of immediate 
savings, there would be some compounding by not completing the 
program, in the same way that some would say that there are 
savings from the C-17 program if you don't produce them. That's 
true, in that fiscal year, if you don't spend any money on C-
17, you could say you saved the money. I don't know whether 
that savings is prudent, strategically, or whether the C-17/C-5 
re-engining program might yet produce those economics that we 
expect. But that's where I am on it. We're really balanced on 
delicate tenterhooks. As you say, we would rather not see these 
as either/or. They provide us a very complementary strategic 
lift, and, by the way, as someone else pointed out, no one else 
in the world is providing this strategic lift.
    Senator Chambliss. Anything to add, General Moseley?
    General Moseley. Sir, I would just reiterate that from the 
baseline, this time last year, when we had this discussion, now 
we have the potential of a bigger Army and a bigger Marine 
Corps, which then does change the baseline of calculations on 
strategic airlift. I don't see the number going below 300. I 
see the number going higher. We need reliable airplanes, which 
is why the AMPs, and perhaps the RERP, make even more sense 
now, as long as we can continue to fund it.
    Sir, I applaud your notion that this is not either/or, this 
is a complementary set of operational imperatives for us, to be 
able to lift in a strategic setting on these global ranges.
    Senator Chambliss. Are the low C-5A reliability rates a 
factor of the aircraft or are there other factors there, such 
as lack of supplies and spare parts, from a support standpoint? 
Any comment on that issue?
    General Moseley. Senator, I would say it's a combination of 
being an old airplane and where the airplane is based. Our 
Guard and Reserve squadrons have the best maintenance of anyone 
in the world, but they work one shift. So, you have a 
reasonably old airplane that is prone to break, and if you work 
it one shift, then you'll have the in-commission rates that are 
inherently lower. You can address that by continuing to spend 
money on the airplane, increasing their manpower at those 
units, or asking them to work two shifts. There are any number 
of ways to address that. But I think there are a variety of 
factors for why you end up with low in-commission rates.
    Senator Chambliss. Moving to the F-22. Last year, we 
granted you the authority to enter into a multiyear contract 
for 60 F-22s, contingent upon some additional study being 
performed that outlines how much money is going to be saved in 
that contract. You requested this authority and I'm pleased 
that Congress granted it. Can you comment as to where we are 
now, relative to that study? Are we on target to enter into 
that multiyear later on this year?
    Secretary Wynne. Sir, thank you, and thank you to the 
committee for allowing us to pursue that multiyear. I think 
this is the only way we could bridge over and fund reliably 
this wonderful fifth-generation fighter that is going to be the 
backbone of our air superiority for years and decades to come.
    I will tell you, we are on track. I trade, every day, my 
pearl-handled whip for my silver-handled whip. But, frankly, 
the federally-funded research and development centers are 
cooperating and responsive. The contractors have been 
responsive and cooperating, and very diligent. Sir, they are, 
so far, reporting to me that we will be successful in our quest 
to document, to this committee and to Congress, that we, in 
fact, will achieve greater than the forecasted savings, but, at 
a minimum, the forecasted savings that we've asked for.
    I congratulate them in advance, but I hold them to their 
schedule. We should be able to award that contract this year.
    Senator Chambliss. I've talked to both of you in private 
conversations about the utilization of this aircraft now. I 
know we have a wing that has gone to Japan and is going to be 
in the rotation in theater here, hopefully sometime soon. This 
aircraft seems to be performing beautifully.
    General Moseley. Senator, its performance is outstanding. 
This is the second overseas deployment we've had of the 
airplane. First was to Alaska for Northern Edge, where we were 
able to participate in a joint exercise with our Navy brothers 
and sisters. The airplane performed magnificently, with the 
attendant kill ratios that you would expect from a fifth-
generation airplane, versus the others.
    It's deployed now in Okinawa. We have 12 airplanes there 
out of the Langley Wing, out of the 1st Wing. It's doing 
exactly what we're asking it to do, in a sense of dissuasion 
and deterrence, and being forward and performing. Sir, we will 
look at the options down the road, in some other places, if 
it's required. Then we'll certainly address that. The 
airplane's performing magnificently.
    Senator Chambliss. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Let's try a 4-minute second round.
    In testimony to the House Armed Services Committee on 
February 28, both of you explained that in order to protect Air 
Force modernization accounts and procurement of new aircraft, 
the Air Force was increasing the risk in its readiness 
accounts. The Air Force's fiscal year 2008 budget request 
includes funds for 1.5 million flying hours to keep our pilots 
trained and ready, but this is a 10 percent reduction in flying 
hours, compared to that which is funded for fiscal year 2007.
    Secretary Wynne, you pointed out that, in addition to 
assuming the authority to retire older aircraft, the Air Force 
is reducing personnel, and is challenging the flying hour 
program to try to find efficiencies, such as increased use of 
flight simulators, in achieving this same level of quality with 
fewer resources. At the same hearing, General Moseley, you 
expressed your lack of comfort with the reduction, and that 
you're already contemplating ways to migrate funds back into 
the flying hour program. This reduction is evidently driven by 
the budget, rather than by any rigorous analysis of strategic 
or operational requirements or risk.
    General, starting with you, what are the strategic, 
operational, and safety risks associated with this 10 percent 
reduction in flying hours?
    General Moseley. Sir, it's always a concern for an aviator 
to reduce flying hours, because there are just things that you 
can't do in a simulator that you have to do while you're 
airborne. The 7.5-percent or so reduction is at the low end of 
the risk scale. When you get from 7.5 to 10 percent, though, 
now I'm beginning to feel a bit uncomfortable. I have asked the 
staff to look at ways for the Guard, Reserve, and Active Forces 
to be able to go mitigate the return to those flying hours. 
Sir, this is directly relative to the utilization rates of our 
airplanes. One of the challenges we have is that some of the 
aircraft are so old that it's hard to generate the utilization 
rates per airframe, per squadron, per month to be able to meet 
those increases in flying hours. So, I'm working on the 
maintenance and parts pieces of this, as well as on the flying-
hour piece of this, to see if there's not some way we can get 
that back.
    I'm okay with simulators, to a certain extent, but a 
simulator is not airborne. There are certain things you have to 
do in an airplane. You can do procedural things or part-task 
trainers in a simulator, and some of the modern simulators are 
magnificent for what they do--but you are still not airborne. 
To deliver ordnance, to fire a gun, to drop a bomb, to provide 
instrument approaches into bad weather, you have to be airborne 
to do that.
    I'm sounding like a fighter pilot answering your question, 
but I am a fighter pilot answering your question, and I am a 
service chief that worries about my pilots and my crews.
    Chairman Levin. Does the reduction apply to all systems 
throughout the Air Force, or is the reduction targeted to 
certain aircraft or a certain training or operational 
community?
    General Moseley. Sir, it's across the Air Force, but some 
of our systems are more impacted than others, because, for 
instance, in the big airplanes, you can get airborne and do a 
variety of things on a mission that is 12 hours long. When I 
was up at Minot Air Force Base last week, they were preparing 
to launch a 12-hour mission, and you can get a lot of things 
done on a mission that long. On the small-airplane side, you 
can get fewer things done in an hour or an hour and a half. So, 
it varies by mission system.
    Chairman Levin. When we look at your list of 25 prioritized 
and 80 additional unfunded requirements, flying hours is not 
included.
    General Moseley. Sir, that is because I think inside our 
system I can move and reprogram some of that money around to 
address that. I did not want to exacerbate our overall top 
line, because we did spend over 2 million man-hours attempting 
to balance that budget. If I can do that internal to my major 
commands, I'm much better off than having to go outside our 
system to make that happen. I'd rather give it a shot, myself.
    Chairman Levin. All right. You've also, I see, requested 
only 74 percent of your projected depot maintenance 
requirements for repair and modification of the current 
systems. The Air Force's unfunded requirements list includes 
over $500 million for depot maintenance at priority number 
five. An additional half-billion dollars would allow the Air 
Force to meet 86 percent of its requirement. I'm just 
wondering, General, what are the risks involved with only 
meeting 74 percent of the Air Force's depot-level maintenance 
requirements on aircraft?
    General Moseley. Sir, that's another great question where 
you get a service chief becoming slightly uncomfortable, when 
you reduce the ability for the depots to do their job. I would 
offer that our three depots right now are operating at about 93 
percent capacity on one shift. So, the efficiencies in the 
depots are unbelievable. These people can do almost anything, 
in Utah, in Georgia, and in Oklahoma. So, taking slight risk in 
that is like the flying-hour program; we're forced to do this, 
because, to meet our physical guidance, we've had to make some 
hard decisions. On the flying-hours side, I'm sensitive to 
that, because that's people in flying machines that are 
airborne. On the depot side, I'm sensitive to that, because 
that's long-term sustainment.
    Chairman Levin. Senator Clinton.
    Senator Clinton. Thank you very much, Mr. Chairman.
    Secretary Wynne, General Moseley, thank you both for your 
service. I appreciate greatly that you each have visited Air 
Force installations in New York. I want to thank General 
Moseley for honoring my invitation to join me at the Niagara 
Falls Air Reserve Station last year. Secretary Wynne, thank you 
for accepting my suggestion that you visit the Air Force 
Research Laboratory in Rome. They do, obviously, in my opinion, 
remarkable work in support of our men and women in uniform.
    I have several questions about different items in the Air 
Force's budget request for fiscal year 2008. I have a series of 
questions about the combat search and rescue aircraft (CSAR-X) 
helicopters.
    The GAO recently ruled in favor of a bid protest regarding 
the Air Force's new the CSAR-X. I'm concerned about some of the 
public statements that the Air Force made in the aftermath of 
that decision. I recently wrote a letter to you expressing my 
concerns. Mr. Chairman, I request that my recent letter to 
Secretary Wynne be made part of the record.
    Chairman Levin. It will be made part of the record.
    [The information referred to follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Clinton. In late February, Mr. Secretary, you 
testified to the House Armed Services Committee that it was 
your view that the GAO decision should be interpreted narrowly. 
Both Reuters and Dow Jones reported that, after your appearance 
before the committee, you stated that the Air Force prefers to 
stay with what we got and get this product going as soon as 
possible. Could you please explain those statements for us?
    Secretary Wynne. Yes, ma'am. As usual, they tend to leave 
off the last part of your quotation, but I would say I always 
try to add that I would like to stay with the current system, 
but I have to satisfy the GAO and I have to satisfy the other 
competitors to make sure that they believe we have done this in 
a transparent and open method. We are actually partnering, as 
best we can, with the GAO and have asked them to reconsider, to 
make sure that we have a better read on all of the protested 
items, not just for Lockheed, but also for Sikorsky, so that, 
when we do resolicit--and we have an intention to resolicit--it 
will be against the findings that the GAO has alerted us to. 
Ma'am, I am agnostic as to which helicopter ultimately comes 
out, but, frankly, I would like to support the procurement 
system that we have; and so, therefore, would like to get on 
with providing this equipment.
    Senator Clinton. I really appreciate that very much, Mr. 
Secretary. There are a number of specific issues with respect 
to the GAO decision recommending that revised proposals should 
be solicited. I appreciate your commitment to resolicitation. I 
think it's important, given the GAO faulting the process 
followed by the prior source-selection team. I'd like to ask, 
do you plan to put new personnel in place to ensure the 
perception, as well as the reality, of transparency and 
fairness in the reevaluation process?
    General Moseley. Ma'am, what I intend to do is be very 
clear with the vendors as to what we have miscommunicated with 
them before. I intend to have that process be open to them so 
they can see how it affected the evaluation. I intend to 
debrief them on it. I do not see that we were unfair. I do 
believe there were some mistakes made, and we will provide 
additional oversight for that.
    Senator Clinton. Another matter of concern to me with 
respect to this solicitation was Secretary Ken Krieg's recent 
statement, again, reported in the media, that schedule was the 
most important selection criterion. That does not appear to be 
consistent with the request for proposals (RFP) that says 
schedule is the fifth of sixth priorities. The reason I'm 
asking these questions is because obviously the combat search-
and-rescue capacity of the Air Force is critical for our men 
and women in uniform, and, General Moseley, I am not aware of 
any military in the world that uses the CH-47 for dedicated 
CSAR. Are you?
    General Moseley. Ma'am, first, thanks for recognizing that 
CSAR is a core competency. We do that not just for ourselves; 
it's a solemn relationship between a guy that flies and the PJ 
that comes to pick him up. But we do this for the joint team, 
too, whether it's Navy, Marine, or Army. We have to be able to 
go fairly deep at range and pick people up. Remember, when we 
send people to do this, somebody shot somebody down, so it's a 
hostile place before you show up, and they're normally still 
milling around back there. So, to get the PJ there to pick the 
person up is a core competency for us.
    Ma'am, I'm not aware that anyone uses the CH-47 in a combat 
rescue role, but I would also tell you that my Army brothers 
and my special operations brothers use that airframe in some 
very difficult places. Today, they're flying those airplanes 
into some bad places in Afghanistan and Iraq. It is not CSAR, 
but it is a hostile place that they operate those airplanes.
    Senator Clinton. I appreciate that, General, because I 
share your strong commitment to make sure we get this right. 
I'm just wondering, General, whether the Air Force completed an 
analysis of alternatives for the CSAR-X program. Were any 
heavy-lift helicopters, such as the H-53 or the H-47, 
considered viable alternatives for the CSAR mission? If not, 
could you explain why not?
    General Moseley. Ma'am, an analysis of alternatives was 
conducted out of the Joint Requirements Oversight Council 
(JROC), and it was forwarded through the joint system. We asked 
for medium-lift helicopters as a nomenclature, but, as the 
request for information (RFI) went out, we got no reply back 
from anyone with any big helicopters. When the RFP went out, 
though, the CH-47 was competed, and it met the timelines. So, 
what you're asking is an interesting twist of the process. JROC 
conducted an analysis of alternatives, there was an RFI and 
then an RFP, and all along the way I would tell you that the 
process worked. The contractor just submitted the airplane that 
met those requirements in the RFP.
    Senator Clinton. General, I understand very well how 
important this is to all of us, but I believe that certain KPPs 
related to the terminal area were not listed as special-
interested items by the source-selection team, and I think that 
it might be appropriate at least to reconsider whether that 
would be something to include, going forward.
    General Moseley. Ma'am, can I, one more time, thank you for 
the recognition that this is a big deal for us. That's why the 
two of us have made this the number-two procurement priority 
for the Air Force. This is a big deal for the joint team, it's 
a big deal for everything that we do, and it's a moral and 
ethical imperative that we pick our people up.
    Senator Clinton. Obviously we want to get it right, and I'm 
worried about the weight and the maneuverability and some of 
the issues that have now been pushed into the public arena, 
because we do have to get it right.
    Mr. Chairman, I have several other questions, which I would 
ask unanimous consent to submit to the record for response by 
our witnesses.
    Chairman Levin. Thank you, they will be made part of the 
record for answers by our witnesses.
    Senator Clinton. Thank you, Mr. Chairman.
    Chairman Levin. Thank you so much, Senator Clinton.
    Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Welcome, and good morning. We have visited personally about 
many programs like military space and the Joint Surveillance 
and Target Attack Radar System (J-STARS) program. I hope we 
were going in the right direction when you canceled the E-10, 
and used the E-8 on the J-STARS program. I would like for you 
to comment on the capabilities that would have been sacrificed 
by canceling the E-10.
    But, Mr. Chairman, with your indulgence, I must bring up a 
personal snafu that I would like for you all to get into and 
see if you can unravel.
    Secretary Wynne, you and I are Brevard County boys and 
understand the great working relationship that the Cape 
Canaveral Air Force Station has had with Port Canaveral. 
Indeed, not only are joint uses made of this commercial port, 
there is the Naval Ordnance Test Unit that is there, where the 
Trident submarines come in and then go out into the Eastern 
Test Range to test. There's also a substantial Coast Guard 
presence in the port and so forth. There's a portion that is 
owned by the Air Force that is underutilized and has been in 
discussion and negotiations for some time between Port 
Canaveral, the entity, and the Air Force, on acquiring it 
either by lease or purchase. There is some bureaucratic red-
tape snafu that has gotten in the way. I wish you all would get 
to the bottom of it so I don't have to add something to the 
defense authorization bill in law that would direct that it be 
done. This is an administrative thing, and it ought to be 
handled.
    The port had one appraisal, the Air Force had a double 
appraisal. On top of that, the Air Force said, ``Oh, by the 
way, you come back and build us a new facility and you pay for 
all of that,'' and the Air Force said, ``That's it,'' a Mrs. 
Katherine Halverson, the Director of the Air Force Real 
Property Agency.
    The port needs to expand so that it can expand its 
commercial activity, but it also needs to expand so that it can 
accommodate the Coast Guard. Everybody agrees this is 
underutilized Air Force property that abuts right up there to 
the port. If there's a legitimate question on the value of the 
land, then normal practice is, if you have two appraisals that 
are as divergent as one being double the other, you usually go 
to a third party for an appraisal. But the Air Force says, 
``That's it.'' I shouldn't have to bring this up to you, but I 
have to.
    Secretary Wynne. I appreciate your doing it, sir.
    Senator Bill Nelson. If you all can solve this 
administratively, it'll save me a lot of effort, because we 
have to solve it and it's been such a great working 
relationship with the Cape Canaveral Air Force Station which 
wants to solve this. When it got into the problem is when it 
went up to the Washington level.
    Now, General, let's go back to the E-8 and the E-10. Are we 
sacrificing anything?
    General Moseley. Sir, the Multi-Platform Radar Technology 
Insertion Program radar that is the genesis of the E-10 is 
still alive and we have asked for money in the UPL to be able 
to continue with that radar.
    There are opportunities to put that radar and a smaller 
antenna on the J-STARS and we're evaluating that, also. The E-
10 itself, with a bigger antenna and a completely different 
airplane, as we looked at the fiscal year 2008 budget, and as 
we looked at the fiscal guidance that we had, there's not 
enough money to do this. The ability to see low-observable, 
low-altitude activities today and in the future is certainly a 
desired option for an air-component commander in theater. So, 
the notion is to keep the radar technology alive with the 
people that do this, and perhaps to put it on the J-STARS, 
until we get through with the KC-X opportunity and see which 
airframe we get and see what opportunities we have down the 
road to look at a follow-on to Airborne Warning and Control 
System, J-STARS, and the Rivet Joint, sir, I think we'll be 
okay. That's why we have--I think it's $408 million in the UPL, 
to continue that effort.
    Senator Bill Nelson. I want to continue the conversation 
with you in another setting, because there are other programs 
that would supplement this, and I just want to make sure that 
we're doing the right thing.
    General Moseley. Senator, remember also that a version of 
the MP-RTIP radar is also going on the Global Hawk. So, on our 
long-dwell unmanned systems we will also have a version of 
this. So, there are several parts and pieces of this radar 
picture that are critical for us.
    Senator Bill Nelson. I want to continue that conversation.
    Would you say, for the record, whatever you can say, given 
the fact that the Chinese have now successfully launched an 
ASAT, of which I have my own little program of trying to point 
out--and we will be holding hearings on what this has done with 
all of the space debris there. There are thousands and 
thousands and thousands of pieces that are not only threatening 
assets of the United States, but space assets of every 
spacefaring nation in the world. But, aside from that issue, 
the fact is that they now have the capability of knocking down, 
and that weather satellite of theirs that they knocked out was 
at about 500 kilometers high.
    Secretary Wynne. Senator, they actually shocked me, but did 
not surprise me. But, you're right, the debris field, I think, 
is even causing the International Space Station to consider a 
movement to try to avoid this debris, and you know a lot of 
nations are partnered on that. So, they availed themselves of a 
threat that I'm not even sure that their people fully advised 
them of. What shocked me was the cavalier nature of the burst, 
which could have been done even differently than it was, but it 
was a clear in-your-face demonstration that, ``We are here. 
You'd better pay attention to us. We are expanding our navy, we 
are expanding our air force, and here we are. We can now take 
out your low-flying satellites.'' I'll let General Moseley 
speak to that import.
    General Moseley. Senator, the concern now is that, for all 
to now see, space is not a sanctuary. It is not an opportunity 
to place an imaging system in orbit to have a free ride. Now 
that another nation is able to attrit and literally kinetically 
kill the satellites, it creates a whole set of challenges and 
second- and third-order questions.
    Sir, there's any number of ways that the Air Force is 
addressing this. One is to continue to focus on our space 
situation awareness so we know what's out there. We have a 
variety of ways to categorize and archive objects in orbit, 
from reasonably small to big. Of course, the debris field makes 
it a little bit more tricky to be able to categorize all of the 
parts and pieces of a debris field that big.
    Sir, the next thing you know very well that we do is 
attempt to harden our systems against attacks. We attempt to, 
in many ways, figure out how to shield them and be able to 
protect them from a variety of techniques, both kinetic and 
nonkinetic, to negate our capability of either weather 
navigation, early warning, or communications.
    So, beyond space situation awareness and defending the 
asset, I believe, is another set of policy discussions and 
another set of questions about what you want your Air Force to 
do next. We are not at that point yet, because we've not had 
guidance or a policy discussion that takes us beyond space 
situation awareness and defending the system.
    Senator Bill Nelson. Even something that we take for 
granted now, Mr. Chairman, in our everyday personal lives--
GPS--is now threatened, not only from a military standpoint, 
but from a personal, private-sector standpoint. I will have a 
hearing on this in the Commerce Committee. I have been 
absolutely dumbfounded by the deafening silence of anybody 
criticizing the Chinese as a result of this ASAT test, which, 
as General Moseley just said, does not only pose a military 
security threat to us, but poses, because of the debris field, 
a threat to everybody's satellite that's up there, whether it's 
military or commercial or weather or whatever it is.
    General Moseley. Senator, you could teach this course, but 
in October 1957 Sputnik was put in orbit. That fundamentally 
changed the notion of the relationship between air and space 
and the ability to put orbital systems up. This country then 
began to do some very energized things that ended up with a 
lunar landing. Now we have someone that can attrit systems in 
orbit at those altitudes and this is a different ball game. 
This is not a sanctuary anymore. So, we've had these 
discussions, and we would welcome that dialogue, as to what you 
want us to do next.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    I'm going to now call on Senator Warner. I will ask him to 
close.
    Again, our thanks to our witnesses and to our special 
guests.
    Senator Warner.
    General Moseley. Thanks, Mr. Chairman.
    Senator Warner [presiding]. Thank you, Mr. Chairman.
    Mr. Chairman, I'd like to follow on the line of questioning 
from our distinguished colleague from Florida, who, 
fortunately, brings firsthand experience regarding space to 
this committee. His customary humility prohibits him from 
dwelling on his experience, but we all well know it's very 
dedicated, and not just because of the interests of Florida, 
it's his personal interest in space.
    But I would want to follow on and bring to your attention 
that the 2006 National Defense Authorization Act required the 
DOD to assess whether the Department is allocating sufficient 
resources to the space control mission. While the report is 
classified, it can be said that the Department understands that 
there are areas where additional effort is needed. You've 
already give us pretty much your opinion of the Chinese ASAT 
test, but do you believe the DOD is devoting sufficient 
resources toward countering such threats?
    Secretary Wynne. Sir, at present, we are dedicating what I 
think are sufficient resources to develop technologies to 
counter this. We think that we have the right kind of programs, 
and we just have put into space some additional programs to 
provide some defensive capability to these satellites. What we 
don't do, and what we could do, but we know that it would 
probably break the bank a little bit, is to try to harden all 
of the satellites so that they are, in fact, impervious to 
ground-based intercepts or ground-based lasing. We see this as 
an encroaching requirement and we don't know how to do it 
inexpensively. So, that's the area where I would say if we had 
another dollar, we would probably put it into that aspect.
    We are, right now, though, trying to figure out how to do 
sufficient work to make sure that we have a protective device 
in front of our satellites, and that's about where we are.
    General Moseley. Senator, you know very well the space 
fence that's down at Dahlgren. That is one of the capabilities 
where we've continued to partner with the Navy, on how we 
categorize and archive objects out there. The first part of 
this equation is space situation awareness, to know what's out 
there and then be able to see the effect. The next step is 
defensive counterspace, which is where we are now. Senator, 
there's always something better you can do, and there's always 
a different technology. That's the challenge of staying ahead. 
Like Sputnik, now that space is not a sanctuary, this is 
getting to be serious business in orbit.
    Senator Warner. Let's get back to the debris issue and how, 
as the Senator from Florida pointed out, it affects so many 
nations. Here we have the superpower, the United States and the 
emerging ambitions of China to be a superpower. Perhaps it's 
time for an international consortium to sit down and examine 
this issue and, frankly, determine that it's in the interests 
of many, many nations, largely for peaceful efforts, that we 
have space operable in such a way that satellites can survive. 
Many nations cannot afford a fully hardened system to go up 
there. That adds weight, that adds thrust problems on launch.
    General Moseley. Sir, to include that the security of the 
downlinks and uplinks, which are the other part of the system, 
are very hard to defend unless you focus on that.
    Senator Warner. Anyway, somebody ought to look at who 
should try and come up with the formalized idea of calling for 
an international consortium to address this issue. I wonder if 
you might take it upon yourselves, at your convenience, to get 
back to me on that issue. I'd be quite interested in following 
that up.
    [The information referred to follows:]

    International consortia already exist to address the issue of 
voluntary space debris mitigation:

        <bullet> The 2006 ``National Space Policy,'' states ``[t]he 
        United States shall take a leadership role in international 
        fora to encourage foreign nations and international 
        organizations to adopt policies and practices aimed at debris 
        minimization and shall cooperate in the exchange of information 
        on debris research and the identification of improved debris 
        mitigation practices.''
        <bullet> The United States actively participates in the U.N. 
        Committee on the Peaceful Uses of Outer Space (UNCOPUOS) 
        Science and Technology Subcommittee (STSC), which formed a 
        Working Group on Space Debris to address the growing problem of 
        manmade debris and to outline debris mitigation steps that 
        spacefaring nations can take.

                <bullet> On 21 Feb 07, the Working Group (including the 
                Chinese delegation) adopted a set of international 
                voluntary ``Space Debris Mitigation Guidelines'', under 
                which member states and international organizations 
                will voluntarily take measures to ensure, to the 
                greatest extent feasible, space debris mitigation 
                practices and procedures are enacted and followed.
                <bullet> The Mitigation Guidelines will now be 
                forwarded to the UNCOPUOS for approval in June 2007 and 
                perhaps to a Special Resolution of the U.N. General 
                Assembly to endorse the Guidelines this fall. The STSC 
                agreed to include space debris as an item on next 
                year's agenda to focus on national reporting of debris 
                issues with an emphasis on implementation of mitigation 
                practices.

        <bullet> The United States also actively participates in the 
        International Agency Space Debris Coordination Committee 
        (IADC), a working group of technical experts from 11 
        international space agencies. The 11 space agencies are from 
        China, France, Germany, India, Italy, Japan, Russia, the United 
        Kingdom, the Ukraine, the United States, and the European Space 
        Agency. The primary purpose of the IADC is to exchange 
        information on space debris research activities between member 
        space agencies, to facilitate opportunities for cooperation in 
        space debris research, to review the progress of ongoing 
        cooperative activities, and to identify debris mitigation 
        options.
        <bullet> Finally, our National Space Policy states that the 
        United States believes space should be freely available to all 
        nations for peaceful use and that current treaties and 
        agreements are sufficient. Further, the United States ``will 
        oppose the development of new legal regimes or other 
        restrictions that seek to prohibit or limit U.S. access to or 
        use of space.'' For these reasons, the United States encourages 
        adoption of the voluntary Space Debris Mitigation Guidelines 
        developed by the UNCOPUOS.

    Senator Warner. Just one concluding question here then 
votes are going to require me to suspend.
    Now, Mr. Secretary, I don't know of anyone better qualified 
to have assumed the position as a Secretary of a military 
Service than you as it regards acquisition. You've devoted so 
much of your career to acquisition not only in the Department, 
but before you came to the Department. Do you think you're 
hitting the right balance to provide a workforce that can 
continue to demonstrate the transparency and confidence that 
Congress will require, and the taxpayer deserves?
    Secretary Wynne. Yes, sir, I do. I think that it's not that 
we have not stressed to them that we want them to take on, 
effectively, more responsibility; in other words, I think 
acquisition should return to blue so that we have more of our 
own internal expertise, and don't rely so much on contract 
support. That's one of the things that we're doing. We are 
dedicating some training to that. We have also reassessed the 
manpower reductions, if you will, and had our new systems 
acquisition executive go through a relook to make sure that we 
are well-balanced in that area. We are dedicating some terrific 
resources in--as far as knowledgeable individuals to it. So, I 
am watching it carefully. It is an area, much like the flying 
program, where I have concerns, and we're addressing them.
    Senator Warner. I thank you very much. That's reassuring, 
because, I tell you, if I look back over a fairly long career 
here in the United States Senate, I will never forget the 
stories about the cost of a hammer and the cost of a commode 
and all of those things that really were devastating to good 
procurement records for the DOD. Simple things like that get 
the attention of the public.
    Secretary Wynne. Right.
    Senator Warner. I think that I can also say, having had the 
privilege of being here for a number of years, the two of you 
provide a great team for leadership. You exemplify what a 
secretary and a chief of staff should do as working partners, 
yet there has to always be a little element of competition 
between the two of you.
    So, I wish you well, and I think this has been a very, very 
fine hearing, for those who followed it.
    Again, we commend our honored guests here today, knowing 
that there are literally tens of thousands behind you that 
recognize that, while you've been selected to represent all of 
them, you did it in a way that reflects honor and credit on all 
your other brethren, wherever they are in the world, not 
dressed in pristine outfits, as you are this morning, but 
working, sweating in dungarees, and taking on the risks 
associated with our deployed forces overseas.
    Thank you very much.
    Secretary Wynne. Thank you, Senator.
    General Moseley. Thank you, Senator.
    Senator Warner. The committee is adjourned.
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jack Reed
                air force science and technology funding
    1. Senator Reed. Secretary Wynne, the Air Force's fiscal year 2008 
science and technology (S&T) budget request has been reduced by nearly 
$200 million from the 2007 request and nearly $650 million from the 
2007 appropriated levels. Some of the reason for this reduction was the 
transfer of classified programs out of the S&T budget. Why were these 
classified programs put in the S&T budget originally?
    Secretary Wynne. Funding for the special programs line was 
originally put into the Air Force S&T program to cover classified S&T 
efforts. In conjunction with the fiscal year 2008 President's budget 
request, efforts were reprioritized and special programs funding was 
transferred out of the S&T program.

    2. Senator Reed. Secretary Wynne, did the classified programs 
artificially inflate the size of the Air Force S&T investment budget?
    Secretary Wynne. This Special Programs line funding was put into 
the Air Force S&T program to support valid classified S&T efforts. I 
don't know that this should be categorized as `artificial'.

    3. Senator Reed. Secretary Wynne, what areas of S&T investment 
would benefit from additional resources should more become available?
    Secretary Wynne. If additional resources should become available, 
there are many areas within the Air Force S&T program in which this 
funding could be wisely invested. The Air Force Unfunded Priorities 
List for Fiscal Year 2008 includes S&T efforts totaling $32 million in 
support of critical capability areas, such as Force Application and 
Protection, Create and Sustain the Force, Surveillance and 
Reconnaissance, Net Centric Enterprise, et cetera. A breakout of 
specific efforts is included in the attached spreadsheet.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                     manufacturing readiness levels
    4. Senator Reed. Secretary Wynne, how is the Air Force making use 
of manufacturing readiness levels to speed the transition of new 
technologies to the warfighter and reduce life cycle costs for deployed 
systems?
    Secretary Wynne. Implementation of Manufacturing Readiness Levels 
(MRLs) is a major step in Air Force efforts to strengthen its 
acquisition process and could lead to accelerated technology transition 
and reduced life cycle costs by providing risk assessments in terms of 
manufacturing similar to those provided by Technology Readiness Level 
assessments. The Air Force is currently incorporating MRLs into all of 
its Advanced Technology Demonstration (ATD) efforts, while also 
piloting application to Acquisition Category (ACAT) level programs. 
Conducting a Manufacturing Readiness Assessment (MRA) on key 
technologies for each ATD is a key component to MRL implementation. The 
MRA determines the initial MRL, a final desired MRL within a given 
timeframe, and major manufacturing risks associated with achieving the 
final target MRL. This process produces a Manufacturing Maturity Plan, 
which enables a program to achieve its final target MRL. The 
incorporation of MRLs into ATDs is forcing the producibility of the 
technology to be considered in parallel with technology development. 
Although in the early stages for these ATD programs, transition and 
affordability improvements have already been identified for systems 
using turbine engines, solar cells, and tactical sensors. While not 
fully implemented yet, the MRL methodology is being practiced in ACAT 
programs and recently yielded technology transition and production 
process benefits for the F-22A and Advanced Medium Range Air-to-Air 
Missile programs. To date three major themes have evolved from programs 
that have conducted MRAs and implemented this MRL methodology-
technology transition is being accelerated, innovative manufacturing 
technologies are being established, and technology transition risk is 
being reduced.

                   air force seismic research program
    5. Senator Reed. Secretary Wynne, the Air Force Research Laboratory 
(AFRL) conducts seismic research to support Air Force Technical 
Applications Center's (AFTAC) seismic monitoring mission. This nuclear 
test treaty monitoring mission was assigned to the Air Force 60 years 
ago by President Eisenhower. As such, it is a national mission. Does 
AFRL have sufficient funding to support all of the good proposals that 
it receives each year in response to its seismic research program 
solicitation? If not, what is the dollar level of the shortfall each 
year?
    Secretary Wynne. No, AFRL does not have sufficient funding to 
support all highly rated proposals. The current funding level for the 
research program is at about $4.5 million per year. The annual 
shortfall is about $21.5 million.

    6. Senator Reed. Secretary Wynne, what is the projected impact of 
not funding these proposals on AFTAC's current and future operational 
capability?
    Secretary Wynne. [Deleted.]

    7. Senator Reed. Secretary Wynne, what other Department of Defense 
(DOD) seismic research efforts directly support AFTAC's assigned 
missions?
    Secretary Wynne. [Deleted.]
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                aircraft retirement and recapitalization
    8. Senator Akaka. Secretary Wynne and General Moseley, in your 
posture statement, you discuss the need to recapitalize and revitalize 
the aging Air Force fleet. I understand that the average age of the Air 
Force's current aircraft inventory is 24 years and that this represents 
a significant increase over the Vietnam era when the average age was 9 
years. I also understand that 14 percent of Air Force planes are not 
mission ready or have mission limiting restrictions. Why is it that 
some of your aircraft have mission limiting restrictions or are unable 
to fly? Is the Air Force aircraft maintenance budget underfunded or is 
there some other cause?
    Secretary Wynne and General Moseley. Senator, as you have pointed 
out, our aircraft inventory is on average 24 years old. It is true that 
as of 31 December 2006, 14 percent of our inventory was grounded or 
mission-limited flight restricted. The primary reason for these 
groundings and restrictions is related to structural issues due to age 
and usage, not maintenance. Most of the grounded aircraft are the C-
130Es and KC-135Es that we have discussed during this hearing. But to 
reiterate, they both have structural issues that have surfaced as a 
result of extreme age and high use. Many of the grounded C-130E and KC-
135E aircraft are beyond economical repair. Additionally, most of the 
F-15A-E aircraft inventory is under peacetime mission-limiting flight 
restrictions due to vertical stabilizer structural issues. A depot 
level repair program is ongoing and will be complete on the F-15 fleet 
by 2009. In a nutshell, the structural problems we have are a result of 
old, tired aircraft. To address these issues, we are putting large 
amounts of funding toward service life extension programs and the like; 
however, some aircraft are so old that we believe those resources are 
better spent toward much needed recapitalization.

    9. Senator Akaka. Secretary Wynne and General Moseley, your posture 
statement states that ``Although recent congressional support for 
planned legacy aircraft retirements has aided our divestment strategy, 
unnecessary restrictions draw critical resources away from our aircraft 
modernization programs and degrade our efforts to recapitalize our 
aircraft inventory.'' Can you elaborate on what these ``unnecessary 
restrictions'' are and how they are inhibiting your recapitalization 
efforts?
    Secretary Wynne and General Moseley. Additional relief from 
legislative restrictions would allow for flexibility and increased 
options for fleet management. For example, if we were able to retire 
the older C-5s, we could recapitalize the airlift capability with C-17 
platforms off a production line that is still hot. If we wait we may 
not have that option without spending a lot more in procurement later. 
Restrictions translate to costs to modernize, operate, and support 
aircraft with funds that would otherwise be spent on newer platforms 
that would be relevant and sustainable for a longer period of time.

    10. Senator Akaka. Secretary Wynne and General Moseley, if funded 
at the requested funding levels, how long will it take to completely 
replace our older planes?
    Secretary Wynne and General Moseley. Under the fiscally constrained 
current program, it will take almost 50 years to completely replace our 
older planes, and for some major weapon systems, it is longer. Our 50 
year recapitalization rate is like planning to use P-51s in Vietnam or 
F-86s in Iraq.
    The Planning Force establishes a glide path to building a fully 
modernized 86 Combat Wing equivalent force as directed in the 2006 
Quadrennial Defense Review (QDR). The Air Force requires an average $20 
billion more per year to recapitalize and meet joint capability and 
capacity goals in the future. The plan is to recapitalize most of the 
fleet by 2030.

    11. Senator Akaka. Secretary Wynne and General Moseley, what will 
the average age of the aircraft inventory be after your 
recapitalization efforts are complete?
    Secretary Wynne and General Moseley. The United States Air Force 
has an aging fleet of aircraft that continues to get older, but won't 
last forever. The average age in 1973 was 8 years, today it is near 24 
years. Even if we divest and fund everything planned in the Future 
Years Defense Plan (FYDP), average age still climbs to 26 years by 
fiscal year 2013. The National Strategy provides guidance on shaping 
the force, but there are also manufacturing and resource limitations. 
In order to fully recapitalize the Air Force by 2030, and build a 
modern and ready 86 Combat Wing equivalent Air Force as directed by the 
2006 QDR, the Air Force will require additional resources to 
aggressively recapitalize while sustaining readiness and meeting the 
needs of the warfighter.

               validity of the quadrennial defense review
    12. Senator Akaka. General Moseley, the 2005 QDR appears to have 
already been somewhat overtaken by events. Specifically, 1 year later, 
DOD is proposing to increase the size of the Active-Duty Army, the Army 
National Guard, and the Marine Corps over the levels recommended in the 
QDR. To your knowledge, has the National Military Strategy (NMS) been 
changed since the QDR was submitted?
    General Moseley. Senator Akaka, the 2004 NMS has not changed since 
the 2006 QDR was released. The NMS provides a description of the Armed 
Forces' plan to achieve military objectives in the near-term. Those 
objectives: to protect the United States; prevent conflict and surprise 
attack; and prevail against adversaries, have not changed.

    13. Senator Akaka. General Moseley, do you believe the QDR threat 
environment assumptions and mandated force structure goals for the Air 
Force are still appropriate?
    General Moseley. The Air Force continues to support the goals and 
objectives laid down by both the NMS and the QDR. In turn, the Air 
Force's force structure--both present and future force, continues to 
support the United States and its allies against all threats, 
particularly those dictated in the QDR. While the Air Force's force 
structure may be adjusted to increases/decreases to air and space 
programs, none of the goals have changed. These goals remain 
appropriate given the demands of the war and other identified future 
military threats.

                          nontraditional roles
    14. Senator Akaka. General Moseley, the Air Force posture statement 
describes the need for the Air Force to adapt to nontraditional roles, 
such as convoy escort, infrastructure protection, provincial 
reconstruction, and host nation election support. Are these 
nontraditional roles factored into your new end strength numbers?
    General Moseley. We did not specifically budget for end strength to 
perform nontraditional roles, such as convoy escort, infrastructure 
protection, provincial reconstruction, and host nation election support 
where those represent missions normally performed by other Services. We 
will continue to perform these roles as requested as much as we can 
accommodate out of current end strength that was budgeted to perform 
Air Force missions.

    15. Senator Akaka. General Moseley, as the conflicts in Iraq and 
Afghanistan continue, are you expecting the level of effort for these 
nontraditional activities to remain constant or do you expect them to 
increase?
    General Moseley. Presently we are experiencing an increase in the 
level of effort required for nontraditional activities as a result of 
the additional combat support and combat service support required to 
enable the plus-up of combat forces called for by the President. To 
support this plus-up, roughly 93 percent of the enabler support our 
airmen provide is within our core competency. Aside from that resulting 
from the Presidential plus-up, we are seeing an increase in the 
nontraditional piece our airmen contribute due in large part to the 
vast amount of military, reconstruction, and civil transition training. 
Training teams involve skill sets where no service is the single 
preferred provider. In the near future we expect the number of training 
teams to increase and therefore we expect to see more of these 
requirements come our way.

    16. Senator Akaka. General Moseley, what are the drivers that cause 
the Air Force to be tasked with these nontraditional assignments? Is it 
because the Army or Marine Corps have insufficient troop levels and the 
Air Force and Navy are being used to make up the difference?
    General Moseley. I cannot speak to any of the other Services' end 
strength levels. The fact is the Air Force is tasked to provide support 
to the combatant commander (COCOM). U.S. Central Command (CENTCOM) and 
the Joint Staff have deemed these requirements as joint and therefore 
the Air Force fills them accordingly. As these requirements go up, so 
does the Air Force's contribution.

    17. Senator Akaka. General Moseley, how would you rate the morale 
of our airmen, and has performing these nontraditional tasks had any 
effect on morale?
    General Moseley. While the level of morale for any unit is 
dependent on the specific mission and the quality of the leadership, 
overall morale for airmen performing nontraditional in-lieu-of tasks is 
very high--they are extremely proud to serve the Nation. Leadership in 
these in-lieu-of deployments is pivotal and our senior airmen leaders 
in these settings do a great job keeping the group focused on the 
mission, taking pride in the adaptability they're building by 
performing these nontraditional missions, and leveraging the core 
skills they bring to the fight. Morale directly correlates to the 
amount and quality of Air Force interest these airmen get: it's 
important for them to know the Army values what they're doing, but it's 
critical to know that the Air Force values them, values their service, 
and hasn't just put them ``out there'' to serve on the end of a thread, 
and we reinforce this in leadership visits and media stories of their 
service.
    Finally, the way we as an Air Force value and employ these airmen 
when they return will be a long-term barometer that is important to the 
morale of subsequent groups of in-lieu-of airmen. We appreciate their 
service and leverage their experience by feeding it as appropriate back 
into the pre-deployment and other training. We have consistently 
received feedback from Army commanders that the airmen who work for 
them are outstanding. This is a direct reflection of the 
professionalism and morale of these airmen: they do good work, they 
know it's important and they excel because it's an Air Force core value 
to be excellent in all we do.
    We have outstanding airmen who are dedicated to executing their 
assigned mission, adapting and overcoming as necessary, and placing 
their lives on the line every day. Without question, they are doing the 
Air Force proud!

                               readiness
    18. Senator Akaka. General Moseley, it is my understanding that the 
Air Force's readiness level has decreased 17 percent since 2001. What 
are the causes of this readiness decrease, and how does this budget 
address the problem?
    General Moseley. The Air Force has been at war for 16+ consecutive 
years. In fact, we are currently flying at the same level as we did 13 
years ago, but with fewer aircraft, higher personnel tempo, and older 
equipment. While readiness levels are stable and manageable in most 
communities, continued tempo of operations (OPTEMPO) and aging 
equipment are causing degradation in the readiness of several stressed 
low density/high demand (LD/HD) communities including Special 
Operations Forces; Combat Search and Rescue (CSAR); Intelligence, 
Surveillance, and Reconnaissance (ISR); and Command and Control Assets. 
Personnel and training issues in certain communities resulting from 
exceeding the Air Force's Air Expeditionary Force (AEF) construct also 
contribute to the overall readiness decline.
    The Air Force's fiscal year 2008 budget prioritizes winning the 
global war on terror, caring for our airmen and families, and 
recapitalizing and modernizing our air, space, and cyberspace systems. 
This budget attempts to maintain a combat capable and ready force while 
modernizing for future challenges.

    19. Senator Akaka. General Moseley, how long will it take to bring 
the Air Force readiness level back up to its pre-2001 level?
    General Moseley. It could take several years to return to pre-2001 
readiness levels. The Air Force has been at war for 16+ consecutive 
years and we've been transforming and making strategic trades for 
years. We continue to execute plans to become more efficient and 
effective while simultaneously preparing for the long-term. Despite our 
best efforts, readiness, recapitalization, and modernization continue 
to decline. This downward trend is only slowed due to our dedicated 
manpower and adaptable capabilities. Current funding levels slow this 
decreasing readiness trend but will not reverse it.

    20. Senator Akaka. General Moseley, it is clear that the Army and 
the Marine Corps are either overextended, or are being stretched pretty 
thin by the conflicts in Afghanistan and Iraq. Given the decrease in 
readiness of the Air Force over the last 5 years, are we overextending 
the Air Force as well?
    General Moseley. With the exception of LD/HD career fields and 
assets, the Air Force maintains sufficient residual capability to 
support ongoing Operation Enduring Freedom/Operation Iraqi Freedom 
combat operations and act as the Nation's strategic Reserve. The Air 
Force's AEF construct is working as designed by reducing the 
possibility of overextending our forces. Despite several career fields 
surging (Security Forces, Civil Engineering, Transportation, 
Communications, Intelligence, Explosive Ordinance Disposal, some 
medical specialties, C-130s, and tankers), the AEF construct enables 
the Air Force to meet nearly all COCOM requirements. The AEF continues 
to fill its primary purpose of identifying which unit, and which 
personnel, are next to deploy while allowing Air Force leadership to 
see what forces are available to respond to the next contingency. AEF 
is flexible and will adapt to the changing environment and emerging 
needs. AEF allows the Air Force to continue to meet COCOM requirements.

    21. Senator Akaka. General Moseley, how prepared is the Air Force 
to deal with any additional emerging threats?
    General Moseley. The Air Force continues to possess sufficient 
capability to provide required capabilities for the current conflict 
and deal with emerging threats. Investments in modernization and 
recapitalization will increase Air Force capabilities to support the 
global war on terror as well as any Major Combat Operations against 
expanding and changing threats. The Air Force has a critical 
requirement to recapitalize its combat air forces. The Air Force is 
flying the oldest fleet in its history and the vast majority will 
complete its service life within 15 years.

    22. Senator Akaka. General Moseley, given the significant 
investment by other powers, such as China, in their military, is it 
your opinion that this budget is sufficient for our Air Force to 
maintain its superiority in the long-term? Please address whether we 
are investing sufficient resources into future generation aircraft and 
technology research and development (R&D).
    General Moseley. We are not investing sufficient resources into 
future generation aircraft and technology R&D. The global war on 
terror's duration and OPTEMPO has accelerated consumption of service 
life for numerous platforms. We must invest in current and future 
capabilities that guarantee entry against the anti-access capability of 
emerging threats--next generation fighters provide that capability. We 
must recapitalize at a faster rate to ensure U.S. advantage over any 
future adversary. To build a fully recapitalized, modern, and ready 
force as directed by the 2006 QDR, the Air Force will need additional 
resources.

                                  risk
    23. Senator Akaka. Secretary Wynne, in your posture statement, you 
say that ``The FYDP involves taking acceptable risk in lower priority 
areas in order to meet future readiness, capability, force structure, 
and national security requirements.'' Will you please elaborate on 
where in the budget request you are assuming risk, why this level of 
risk is acceptable, and what are the consequences of being wrong?
    Secretary Wynne. The Air Force has carefully balanced our readiness 
requirements with our recapitalization and modernization efforts to 
support the warfighter. However, higher aircraft and equipment 
utilization rates, loss of buying power, and aging aircraft have 
increased our risk both to our ability to ``fight tonight'' and to 
prepare for tomorrow's war.

         Air Force continues to operate above the steady state level 
        of two AEFs. Persistent surge operations drive increased 
        resourcing and readiness issues.
         Higher operating costs from utilities, fuel, aircraft 
        ownership, and manpower costs (retirement, DHP) impact our 
        ability to recapitalize our Air Force to meet emerging threats 
        from advanced technologies and air defenses that threaten U.S. 
        dominance and place ground forces at risk.
         Average Air Force aircraft age is 24 years which drives 
        higher operations and support, investment, and manpower costs 
        and negatively impacts aircraft availability. Retiring the 
        oldest, least capable aircraft allows the Air Force to realize 
        savings that can be used to buy new aircraft or selectively 
        modify some aircraft in the existing fleet.

    The Air Force will continue to assess potential impact to affected 
programs, force structure, and capabilities.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                         air force test assets
    24. Senator Bill Nelson. Secretary Wynne and General Moseley, what 
is the status of the planned reorganization of Air Force test assets 
that was initiated by Program Budget Decision (PBD) 720?
    Secretary Wynne and General Moseley. Funding was realigned during 
the development of the fiscal year 2008 President's budget to preclude 
closing or realigning those facilities. The Air Force faces a 
challenging fiscal environment and has little choice but to consider 
serious options to gain efficiencies. We continue to study the Air 
Force Test and Evaluation infrastructure. We look forward to working 
closely with Congress to ensure we have the resources such that the Air 
Force can preserve the necessary capability for our Nation in order to 
win the current conflict and to be prepared to win the next war.

    25. Senator Bill Nelson. Secretary Wynne and General Moseley, what 
is the status of the development and delivery of the reports required 
by the congressional authorization and appropriations conference 
reports regarding these proposed actions?
    Secretary Wynne and General Moseley. The Air Force is currently 
conducting a cost-benefit analysis as required by the Defense 
Appropriations Act for Fiscal Year 2007. This report is scheduled to be 
delivered to Congress no later than 30 April 2007. The results of this 
study will provide input for further analysis in the joint study 
required by the National Defense Authorization Act (NDAA) for Fiscal 
Year 2007.

    26. Senator Bill Nelson. Secretary Wynne and General Moseley, have 
actions been taken that presume the execution of any activities 
contemplated through the implementation of PBD 720?
    Secretary Wynne and General Moseley. The Air Force has undertaken 
no action to close, realign, or transfer any test and evaluation 
activities contemplated in the fiscal year 2008 Air Force Materiel 
Command test and evaluation proposal.

    27. Senator Bill Nelson. Secretary Wynne and General Moseley, what 
is the Air Force budget request for test and evaluation activities in 
fiscal year 2008 and how does this compare to the fiscal year 2007 and 
fiscal year 2006 requested and appropriated levels?
    Secretary Wynne and General Moseley. The fiscal year 2008 budget 
request for direct funding of Air Force Materiel Command Test and 
Evaluation infrastructure is $929.6 million. The fiscal year 2007 
request was $919.4 million and appropriated was $930.3 million. The 
fiscal year 2006 request was $867.3 million and appropriated was $881.8 
million.
                                 ______
                                 
           Questions Submitted by Senator E. Benjamin Nelson
                  total force integration initiatives
    28. Senator Ben Nelson. General Moseley, in your posture statement 
you state that ``a distinguishing hallmark of the Air Force is the ease 
with which airmen from Active-Duty, Air National Guard, and Air Force 
Reserve work together at home and abroad.'' You also note that 136 
total force integration initiatives have been identified and funding 
has been secured for 98. That leaves 38 initiatives unfunded, 2 of 
which happen to be proposed for Offutt Air Force Base (AFB), NE. What 
is your plan to resource those total force integration initiatives you 
do not fund in your fiscal year 2008 budget request?
    General Moseley. Most of the 38 initiatives, including the 2 
Nebraska initiatives you mention, are currently at the ``investigate'' 
stage of the process. The Air Force is working closely with the Air 
Force Reserve and the National Guard Bureau to resolve issues regarding 
TFI timelines, funding, manpower, potential locations for emerging 
missions, and new organizational constructs. The Air Force will pursue 
funding in the fiscal year 2010 Program Objective Memorandum (POM) for 
these initiatives if the decision is made, after further analysis, to 
proceed.

                          wc-135 modernization
    29. Senator Ben Nelson. General Moseley, I noted two of your stated 
priorities for the Air Force are ``fighting and winning the global war 
on terror,'' and ``recapitalizing and modernizing aging aircraft.'' I 
was pleased to see that you have requested funding to modernize two WC-
135 Constant Phoenix aircraft in your fiscal year 2008 global war on 
terror budget request. The WC-135 has been instrumental in monitoring 
the nuclear activities of our potential adversaries around the world. 
If you get the $143.8 million you have requested for WC-135 
modernization, will that extend the life of the aircraft to something 
comparable to the KC-135R tanker?
    General Moseley. The $143.8 million estimate is based on $118.8 
million for re-engining and $25 million to upgrade the cockpit 
avionics. The re-engining figure was based on procuring and installing 
two engine kits for the WC-135 aircraft in conjunction with several 
foreign military sales (FMS) re-engining initiatives. The FMS 
initiatives were later cancelled making re-tooling and re-opening the 
engine production line at the Boeing Wichita facility, for only two WC-
135 aircraft, cost prohibitive. The WC-135 re-engining initiative 
should be withdrawn from the Air Force fiscal year 2008 global war on 
terror request portfolio.
    However, the $25 million needed to upgrade the cockpit avionics of 
the two WC-135 aircraft is still needed. It will enable the two 
aircraft to meet worldwide navigation and communications requirements--
Communication Navigation Surveillance/Air Traffic Management (CNS/ATM).
    Specific to life extension: The Air Force will not need $118.8 
million to obtain the same life expectancy of the KC-135 fleet. The 
current cost of re-engining (without concurrent FMS cases) will be cost 
prohibitive, so the $118.8 million should no longer be considered. 
There are plenty of spare TF-33 engines available to support the WC-135 
aircraft until 2040. All the Air Force needs to do is upgrade the 
cockpit avionics to meet the CNS/ATM requirements for $25 million.

                                  e-4
    30. Senator Ben Nelson. General Moseley, the 2006 QDR proposed to 
retire the four E-4B National Airborne Operations Center aircraft 
assigned to Offutt AFB. I have been told that this decision has since 
been reversed and your posture statement does not show any E-4 aircraft 
being retired through 2013. Does your fiscal year 2008 budget request 
restore full-funding to the E-4 program?
    General Moseley. Sir, the fiscal year 2008 budget restores the 
funding necessary to operate a three aircraft E-4B fleet through the 
FYDP and beyond. The fiscal year 2008 budget also includes funding for 
the minimum number of modifications (mostly crypto updates) necessary 
to keep the three aircraft E-4B fleet mission capable through the FYDP 
and beyond. The fourth E-4B will be retired as soon as practical. The 
Air Force with DOD is conducting an Analysis of Alternatives in fiscal 
year 2008 to replace the E-4B.
                                 ______
                                 
                Questions Submitted by Senator Evan Bayh
                          global hawk shortage
    31. Senator Bayh. Secretary Wynne and General Moseley, what is the 
shortage of available Predators, Global Hawks and orbits to stated DOD 
requirements in the field, including for U.S. forces in Iraq; 
Afghanistan; Colombia; and East, South, and Southeast Asia?
    Secretary Wynne and General Moseley. The Joint Requirements 
Oversight Council (JROC) endorsed the U.S. Special Operations Command 
and U.S. CENTCOM global war on terror demand for increased unmanned 
aircraft systems (UAS) orbits (JROCM 283-05).
    At the same time, the JROC also validated the Air Force's planning 
and programming efforts to build 21 MQ-1 orbits to meet the increased 
global war on terror Predator demand. The Air Force programmed 
additional funds for MQ-1 Predator procurement and sustainment in 
fiscal years 2007-2011 to meet the increased combatant command demand. 
The Predator system architecture and concept of operations (CONOPs) is 
designed with the flexibility to support any COCOM regardless of 
geographic area.
    The RQ-4 Global Hawk is fielding aircraft as soon as they complete 
testing; the first two production models, Block 10, are supporting 
CENTCOM now. The establishment of forward operating locations in U.S. 
Pacific Command and European Command in fiscal year 2009 will add to 
the Air Force's ability to conduct worldwide operations. The program is 
the key element to the transition of high-altitude ISR from the U-2 to 
the Global Hawk and will be accomplished without diminishing required 
capability.

    32. Senator Bayh. Secretary Wynne and General Moseley, what is the 
timeline for fully closing this shortage?
    Secretary Wynne and General Moseley. The Predator will achieve its 
fielded requirement by fiscal year 2010 and the Global Hawk by fiscal 
year 2016.

    33. Senator Bayh. Secretary Wynne and General Moseley, has DOD 
requested all necessary funds to keep Predator, Global Hawk, and 
associated orbit production lines running at maximum capacity until the 
shortage is fully closed? If not, why not?
    Secretary Wynne and General Moseley. Yes, with the fiscal year 2007 
global war on terror Supplemental Appropriation, the fiscal year 2008 
President's budget request, and the Predator funding included on our 
fiscal year 2008 Unfunded Priority List (UPL), we have requested all 
the funds necessary to keep Predator production lines running at 
maximum capacity until the shortage, as it is presently defined, is 
fully met. The requirement for Predator combat air patrols (CAP)--
previously called orbits--continues to expand, and we will undoubtedly 
have to continue at maximum capacity longer than we had previously 
projected.
    The Global Hawk program is currently funded for maximum production 
capacity allowable under the June 2006 Nunn-McCurdy certification.

    34. Senator Bayh. Secretary Wynne and General Moseley, what steps 
do you recommend to close this gap?
    Secretary Wynne and General Moseley. We are currently delivering 
Predator aircraft and ground control stations faster than we can train 
the crews to operate them. We are taking steps to expand our training 
capacity by starting a training unit with the California Air National 
Guard. We also need to re-examine the usage rate of our existing crews 
and weigh the increased stress on the crew force against the urgency of 
providing additional CAPs to support our troops in combat.

    35. Senator Bayh. Secretary Wynne and General Moseley, does having 
a sole source producer delay meeting Predator production and 
procurement timelines? If so, how can we best open up the competition?
    Secretary Wynne and General Moseley. Thus far, having a single 
source for Predator production has not delayed delivery of combat 
capability. As stated previously, the current delay is in training 
flight crewmembers.
    Previous attempts to broaden the industrial base for this class of 
unmanned aerial vehicle (UAV) have not been successful--no other 
offerors came forward. The Air Force has just released another request 
for information to stimulate additional vendors.

    36. Senator Bayh. Secretary Wynne and General Moseley, would you 
please provide the 5-year Predator, Global Hawk, and orbit requirement?
    Secretary Wynne and General Moseley. The MQ-1 Predator program will 
attain its goal of 21 CAPs for COCOM support by fiscal year 2010; 
continued procurement throughout the rest of the FYDP will provide 
attrition reserve and training systems.
    The RQ-4 Global Hawk is building to its requirement of six Multi-
Intelligence (multi-INT) CAPs. Within this FYDP, all aircraft will have 
been procured. By fiscal year 2013, the Air Force will have fielded 
four multi-INT CAPs and two IMINT-only CAPs.

    37. Senator Bayh. Secretary Wynne and General Moseley, do you 
foresee both armed and ISR, long-endurance UAVs being a long-term and 
growing requirement for the United States Armed Forces?
    Secretary Wynne and General Moseley. As you well know, UAVs of all 
types are providing invaluable, timely information in support of the 
Joint Force Commander's priorities. They provide superb persistent 
support to the warfighter, whether that support is a lethal strike in 
support of troops, long-term eyes on a target of interest, or 
situational awareness on what's over the next hill. For these reasons, 
and all of the other missions fulfilled by UAVs, it is clear that 
demand for them will only increase over the coming years. Allow me to 
also say that it is because of this ever-increasing demand and our need 
for joint interdependence--our asymmetric combat edge that I am seeking 
to be Executive Agent (EA) for all medium- and high-altitude UAVs. The 
intent of the Air Force UAV EA proposal is to increase jointness, 
acquisition efficiency, and warfighting effectiveness in the DOD 
medium- and high-altitude UAV enterprise. We would deeply appreciate 
your support of the Air Force's request to be EA.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton
                          lab personnel issues
    38. Senator Clinton. Secretary Wynne and General Moseley, AFRL 
performs some of the most cutting edge research in the world and 
contributes directly and strongly to the global war on terrorism. There 
is concern that the Air Force is not doing enough to ensure that the 
laboratories have adequate facilities or are sufficiently empowered to 
attract and retain the highest quality technical workforce possible. 
Congress has authorized a successful laboratory personnel demonstration 
program that has been effective in addressing some of these issues. 
AFRL is exempted from inclusion into the National Security Personnel 
System (NSPS) until the Secretary of Defense has determined that NSPS 
provides more personnel flexibilities than the AFRL Laboratory 
Personnel Demonstration System authorities. Is the Air Force supportive 
of the AFRL's continued use and expansion of the authorities of the 
Laboratory Personnel Demonstration System?
    Secretary Wynne and General Moseley. The Air Force supports the 
DOD's goal of one personnel system for its civilian workforce--the 
NSPS. We also recognize the success the AFRL has enjoyed in shaping its 
Scientist and Engineer (S&E) workforce through the flexibilities 
afforded by the Laboratory Personnel Demonstration System, commonly 
referred to as Lab Demo, and will support AFRL's efforts while the 
current exemption remains in effect.

    39. Senator Clinton. Secretary Wynne and General Moseley, has the 
Air Force surveyed Air Force laboratory directors to determine if they 
feel that the Laboratory Personnel Demonstration System better supports 
the performance of their missions than the proposed NSPS system?
    Secretary Wynne and General Moseley. The Air Force has not formally 
surveyed the individual AFRL Technology Directorate Directors regarding 
personnel demonstration efforts; however, given the success that AFRL 
has enjoyed in shaping its S&E workforce through the flexibilities 
afforded by the Laboratory Personnel Demonstration System (i.e., Lab 
Demo), it is expected that most would be highly supportive of Lab Demo. 
However, only the S&Es at AFRL are covered by Lab Demo, leaving 
administrative and other support personnel under the current General 
Schedule (GS)/Wage Grade (WG) personnel systems. AFRL would prefer 
having the opportunity to move these non-Lab Demo employees into NSPS 
in the near-term since this system is better than the current GS/WG 
systems.

               small business innovation research program
    40. Senator Clinton. Secretary Wynne and General Moseley, what role 
does the Air Force Small Business Innovation Research (SBIR) program 
play in developing new technologies that are supporting Air Force 
missions?
    Secretary Wynne and General Moseley. The SBIR program funds early-
stage R&D at small technology companies and plays an important role in 
supporting Air Force missions by stimulating technological innovation 
and increasing private sector commercialization of Air Force R&D 
efforts. For a relatively small amount of funding--up to $100,000 in 
Phase I and up to $750,000 in Phase II with companies obtaining private 
sector and/or non-SBIR government funding for Phase III--small 
companies are provided an opportunity to test the scientific, 
technical, and commercial merit/feasibility of a particular concept in 
response to SBIR solicitations in topic areas of key interest to the 
Air Force. The fundamental function of SBIR is to seed new and 
innovative firms in the industrial base to meet our current and future 
supply needs by funding exploration and development of new and cost-
saving technologies relevant to the warfighter. For example, through 
Air Force SBIR and follow-on Manufacturing Technology program efforts 
to enhance the durability and service life of jet engines, LSP 
Technologies, Inc., developed a laser shock peening process that 
significantly improves the high-cycle fatigue properties of blades and 
greatly increases resistance to blade failure caused by foreign object 
debris. This technology has already resulted in the avoidance of tens 
of millions of dollars of fan blade replacement costs, significantly 
reduced secondary damage engine repair costs, and avoided cost from 
airfoil failures, with the potential for up to $1 billion of savings 
across the Air Force fleet going forward.

    41. Senator Clinton. Secretary Wynne and General Moseley, how is 
the Air Force ensuring that the best and most innovative small 
businesses in the country are assisting to address our national 
security challenges?
    Secretary Wynne and General Moseley. The Air Force has embraced the 
flexibility provided by the Commercialization Pilot Program (CPP) 
authorized in the NDAA for Fiscal Year 2006 as a key means to ensuring 
the most innovative small businesses are tapped to assist in addressing 
critical national security challenges. The Air Force has implemented 
CPP by placing ``transition agents'' in each Product Center plus the F-
22 and Joint Strike Fighter (JSF) Program Offices to enhance synergy 
among the Product Centers, the AFRLs, and small businesses. CPP 
promises to be a powerful tool for our technologists and acquisition 
officials to seed and leverage the best innovative solutions to produce 
technologies for the warfighter and enhance the vitality of the defense 
industrial base by funding these smaller entrepreneurial firms.

        air force command, control, and communications research
    42. Senator Clinton. Secretary Wynne and General Moseley, the Air 
Force's fiscal year 2008 budget request reduces funding for S&T 
programs in command, control, and communications capabilities, many of 
which are managed by AFRL in Rome, NY. Given the importance of these 
types of technologies to Air Force missions, to increasing our network-
centric operations capabilities, and to protecting our vital military 
cyber-infrastructure, what was the reason for the decrease in 
investment in this area?
    Secretary Wynne and General Moseley. The Air Force recognizes the 
importance of information technology and the valuable contributions of 
the AFRL at Rome, NY--especially with the stand-up of the new 
Cyberspace Command. While near-term reductions were necessary to meet 
higher priority warfighter needs, S&T investment in command, control, 
and communications across the FYDP increased by over $20 million in the 
fiscal year 2008 President's budget request and will continue to have 
great interest as Cyberspace Command's needs in network-centric warfare 
mature.

    43. Senator Clinton. Secretary Wynne and General Moseley, what 
risks are we taking by reducing Air Force investment in this area?
    Secretary Wynne and General Moseley. We have taken great measures 
to ensure reductions in this area were taken either in low risk areas 
or in areas that were acceptable to the warfighter. The elimination of 
funding for two research institutes created by the Information 
Directorate (the Information Assurance Institute and the Intelligent 
Information Systems Institute) means that 36 faculty and 18 graduate 
students must compete elsewhere for research grants. The risk 
associated with the reduction from 4 to 3 ATDs, and from 11 to 9 
Critical Experiments planned for the year, as well as scaled back 
participation in both Joint-Service and Air Force exercises in 2008 was 
deemed acceptable by the warfighter.

                      c-5a refurbishment and c-17s
    44. Senator Clinton. Secretary Wynne and General Moseley, the Air 
Force's strategic airlift capability depends, to some extent, upon what 
the Air Force plans to do to its C-5 fleet. The Air Force seems to face 
several challenges in addressing the modernization of its C-5 fleet and 
in particular, the C-5A. A recent study, referred to on the Air 
Mobility Command's (AMC) official Web site, shows that 80 percent of 
the C-5 airframes' service-life remains, and that the AMC has begun an 
aggressive program to modernize the C-5. This is to be conducted in two 
parts. First, the C-5 Avionics Modernization Program (AMP) which would 
include upgrading its avionics to comply with the Global Air Traffic 
Management requirements, improving navigation and safety equipment, and 
installing a new autopilot system. The second part would re-engine the 
aircraft under the Reliability Enhancement and Re-Engining (RERP) 
program which would include new engines, pylons, and auxiliary power 
units, as well as upgrades to the aircraft's skin, frame, landing gear, 
and pressurization systems. The website does not, however, specify 
which model C-5s will undergo this modernization. In this regard, what 
is the Air Force's vision for the future of the C-5A fleet?
    Secretary Wynne and General Moseley. The program of record is to 
fully modernize (AMP and RERP) all 111 C-5s in the inventory to comply 
with the 2005 Mobility Capabilities Study (MCS), as informed by the 
2006 QDR, to meet current and projected strategic airlift needs. 
However, C-5 modernization, specifically RERP, is facing increasing 
cost pressures, bringing into question the cost effectiveness of the 
program for a fleet of 111 aircraft. Additionally, the C-5A fleet is 
showing some significant structural issues (metal corrosion and stress 
cracking) adding to the investment required to maintain the viability 
of this fleet. The average age of the current Air Force fleet is 24 
years with the C-5A fleet being over 35 years old on average. The Air 
Force must consider all these factors for managing our intertheater 
airlift fleet. The Air Force is currently refining the intertheater 
force mix studies with regards to C-5 modernization, C-5A retirement, 
and further C-17 procurement.

    45. Senator Clinton. Secretary Wynne and General Moseley, how can 
AMC support its long-term strategic airlift needs, particularly for the 
transportation of out-sized cargo, if the C-5As are not modernized?
    Secretary Wynne and General Moseley. The Air Force is committed to 
maintaining a strategic airlift fleet capable of meeting the Nation's 
needs. AMC identified seven critical, time-sensitive items or National 
Security Sensitive items that are only airlifted via the C-5. All 
options are being studied to determine the most effective fleet mix of 
strategic airlifters to meet passenger, bulk, over-size, and out-size 
cargo. Current options being considered include retiring a portion of 
the C-5A fleet and recapitalizing with C-17s. The Air Force plans to 
fully modernize the right number of C-5 aircraft to ensure meeting the 
Nation's needs.

    46. Senator Clinton. Secretary Wynne and General Moseley, what will 
happen to units currently flying the C-5A if they are not modernized 
under the AMP and RERP programs?
    Secretary Wynne and General Moseley. Under options being studied by 
the Air Force, units currently flying C-5A aircraft would retain a 
strategic airlift mission. There are no plans to close existing units 
or stand up new units at this time.

             new york air national guard 106th rescue wing
    47. Senator Clinton. Secretary Wynne and General Moseley, New York 
is proud to have the Air National Guard's 106th Rescue Wing whose Para-
Rescuemen (PJs) have deployed on multiple occasions in support of 
combat operations to both Afghanistan and Iraq since September 11, 
2001. This is in addition to the search and rescue work they perform at 
home during peacetime. Additionally, Cable News Network recently aired 
a special on PJs stationed at the 106th Rescue Wing, West Hampton 
Beach, NY, and highlighted their intense training and the dangerous 
mission profile they support.
    The depleted Air National Guard military construction (MILCON) 
budget cannot afford to fund the construction of the facility or repair 
the housing, storage, and training facilities that the 106th PJ unit 
currently operates from. How can we let such a high value unit, whose 
value and service to country are without question, continue to operate 
in buildings which don't meet the Air Force's own requirements for PJ 
facilities?
    Secretary Wynne and General Moseley. The 106th Rescue Wing is 
essential to the Air National Guard's future mission capability, as 
well as to the citizens of West Hampton Beach and the Northeast, who 
depend upon their capabilities in peacetime. However, in an era of 
fiscal constraints, there was not sufficient funding available to 
support the first phase of the PJ facility replacement in the 
President's budget in fiscal year 2008.

    48. Senator Clinton. Secretary Wynne and General Moseley, with the 
106th preparing to return to Iraq this fall, what are the Air Force's 
plans to provide funding to begin Phase I?
    Secretary Wynne and General Moseley. The project is currently shown 
on the Air National Guard MILCON FYDP in fiscal year 2013 at $8.4 
million.

    49. Senator Clinton. Secretary Wynne and General Moseley, will the 
Department take appropriate action to budget for the second phase of 
this project in fiscal year 2009?
    Secretary Wynne and General Moseley. The $15.4 million project 
(Phase 1 and 2) will be considered with all other high-priority 
requirements in the Air Force's fiscal year 2009 budget deliberations. 
If sufficient funding can be made available, we are hopeful the project 
will be included with the President's budget submittal for fiscal year 
2009.

                 the northeast defense sector facility
    50. Senator Clinton. Secretary Wynne and General Moseley, the 
Northeast Defense Sector (NEADS) facility in Rome, NY, will be assuming 
responsibility to monitor all air traffic in the eastern sector of the 
United States and provide Air Combat Command (ACC) with threat warning 
of any hostile aircraft. The NEADS headquarters facility was phased 
with funding provided in fiscal year 2006 for Phase I. While Phase II 
was authorized in the NDAA for Fiscal Year 2007, the project was not 
executed since the Guard's MILCON budget was not sizeable enough to 
enable it to be in the President's budget request, necessitating that 
it be added by Congress. Indeed, the 2007 Continuing Resolution in 
essence struck congressional construction adds for fiscal year 2007, 
which means the project remains unfunded.
    Given the criticality of the NEADS mission and the need to complete 
this facility so that all the NEADS personnel can be housed in a 
centralized facility to ensure maximum command, control, and 
communication among its personnel in this time-sensitive mission, what 
steps is the Air Force taking to address the NEADS Phase II project, 
and systemically, the need to mitigate this Guard MILCON shortfall?
    Secretary Wynne and General Moseley. The NEADS unit is essential to 
the Air National Guard's future mission capability, as well as to the 
citizens of the Northeast. Congress added MILCON funding for Phase I of 
the NEADS program in fiscal year 2006. As part of the fiscal year 2007 
budget process, Congress authorized, but did not appropriate, $6.6 
million for NEADS Phase II. If Congress can provide an appropriation 
for this previously-authorized project, it will be executed as soon as 
possible. Should the second phase not be appropriated, the project will 
be considered with all other high-priority requirements in the Air 
Force's fiscal year 2009 budget deliberations, and if sufficient 
funding can be made available, the project may be included with the 
President's budget submittal for fiscal year 2009.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill
                government accountability office reports
    51. Senator McCaskill. Secretary Wynne, when a Government 
Accountability Office (GAO) report concerning the Air Force is 
released, who within the Air Force is responsible for reading and 
evaluating the report?
    Secretary Wynne. My Financial Policy and Compliance Office, 
Financial Operations, Financial Management, and Comptroller, receive 
GAO reports that address the Air Force, read and assign reports to the 
appropriate Air Force Office of Primary Responsibility (OPR). The Air 
Force OPR reads, evaluates, prepares, and submits comments to the 
responsible DOD office. The responsible DOD office prepares and submits 
the Department's position and comments to the GAO. Our Air Force 
Instruction 65-401, relations with the GAO, implements the DOD audit 
policy and procedures. The GAO issues all reports to the GAO Liaison 
Office, Inspector General, DOD. The GAO Liaison Office releases all 
reports to the appropriate DOD office and the military Services, 
including the Air Force.

    52. Senator McCaskill. Secretary Wynne, what do you think is the 
quality and caliber of GAO reports relating to the Air Force?
    Secretary Wynne. The GAO reports are usually of high quality and 
another effective management tool.

    53. Senator McCaskill. Secretary Wynne, what are your specific 
concerns with GAO reports relating to the Air Force and what would you 
like to see done differently with the reports and investigations?
    Secretary Wynne. We have always and will continue to support the 
GAO projects within the Air Force. We have a great working relationship 
with the GAO.

    54. Senator McCaskill. Secretary Wynne, does the Air Force formally 
respond to GAO reports that contain unfavorable findings? If so, how is 
this done?
    Secretary Wynne. The Air Force responds to all GAO reports through 
the responsible DOD office.

    55. Senator McCaskill. Secretary Wynne, how has the Air Force 
responded to GAO's findings associated with the C-130 AMP, C-130J, C-5 
AMP, and C-5 RERP programs covered in the testimony of William Solis 
and Michael Sullivan (captured in GAO-07-566T)? This testimony captures 
findings from previous GAO reports and I would like to know precisely 
how the Air Force has addressed and/or rebutted the findings that 
concern each of these programs.
    Secretary Wynne. The referenced GAO product is a testimony (GAO-07-
566T) and the GAO Liaison Office normally issues testimonies as 
information and not for comments. Upon receipt, we distribute 
testimonies to our responsible office. For the GAO subject testimony, 
we provided our comments to the appropriate DOD office for the two GAO 
reports addressed in this testimony. The Department's comments usually 
reflect our concerns or rebuttals of the GAO findings.

                             heavy airlift
    56. Senator McCaskill. Secretary Wynne, you have indicated that 
based on known, communicated airlift requirements, you do not believe 
that the Air Force should purchase additional C-17 aircraft. Can you 
please clarify what the precise known, communicated requirements are 
that have led you to this conclusion?
    Secretary Wynne. The 2006 QDR, as informed by the MCS, identified 
the number of organic and commercial strategic airlift assets needed to 
support the NMS. The study concluded that the capabilities provided by 
180 C-17s and 112 modernized and reliability improved C-5s support the 
strategy with acceptable risk. The current program of record includes 
the 10 additional C-17s from the fiscal year 2006 Defense 
Appropriations Act Conference Report which will bring our strategic 
airlift fleet to 301 (190 C-17s and 111 fully modernized C-5s). This 
programmed fleet, when fully mobilized and augmented by the Civil 
Reserve Airlift Fleet, provides sufficient airlift capacity to support 
U.S. strategic and operational objectives during large-scale 
deployments, while concurrently supporting other high priority 
operations and sustainment of forward deployed forces.
    We fully recognize that circumstances have developed beyond the 
scenarios studied in the MCS which must be addressed. The Office of the 
Secretary of Defense (OSD) is currently planning a follow-on mobility 
study to address these changes and the Air Force will be an active 
participant. Additionally, AMC, through the United States 
Transportation Command (TRANSCOM), is currently engaged with the joint 
community to help define the scope of the planned Army/Marine Corps end 
strength increase and its impacts on air mobility.
    Neither the most recent MCS published in 2005 nor the follow-on 
excursions in MCS-06 included the force structure increases. OSD and 
the Joint Staff anticipate the next MCS round to begin in the Spring of 
2008. This study should fully incorporate and examine the changes to 
Service force structure and concepts of operation, as well as impacts 
on mobility (air, land, sea, and prepositioning).

    57. Senator McCaskill. Secretary Wynne, in your understanding, who 
is responsible for communicating and determining airlift requirements?
    Secretary Wynne. The determination of airlift requirements is a 
joint collaborative effort led by AMC. AMC works with U.S. TRANSCOM and 
other combatant commands to identify gaps and shortfalls in the Air 
Force's ability to meet warfighter needs. These gaps and shortfalls are 
determined using a capabilities-based approach that assesses both 
current and future operational needs against overarching strategic 
guidance (National Defense Strategy, QFR, Strategic Planning Guidance, 
et cetera). The requirements are born ``joint'' from the results of the 
capabilities-based planning and analyses phases of the requirements 
development process.
    Once the airlift requirements have been determined they are 
communicated across the Air Force and joint communities to ensure 
redundancy is eliminated and the proposed requirements will fulfill the 
needs, or mitigate the majority of operational risk associated with the 
identified capability gaps and shortfalls. Inputs from across the Air 
Force and Joint communities are addressed and incorporated, as 
appropriate, prior to the final Air Force validation step, conducted by 
a formal Air Force requirements council. Once the Air Force has 
validated the airlift requirements, they are forwarded to the JROC via 
the established Joint Capabilities Development and Integration System 
review process. Once the airlift requirements are formally approved by 
the JROC, they are provided to the acquisition community to support the 
appropriate development and procurement strategy.

    58. Senator McCaskill. Secretary Wynne, what specific role does the 
Air Force have in identifying requirements and then determining 
required airlift assets?
    Secretary Wynne. The Air Force capability development process is 
closely linked and complies with the joint overarching process known as 
the Joint Capabilities Integration and Development System (JCIDS). The 
Air Force participates in this process utilizing inputs from industry 
and other government organizations by conducting the necessary analyses 
that address capability gaps and shortfalls substantiated by the end-
user combatant commands. Upon completion of the capabilities-based 
analysis, the results are validated and the sponsoring major command is 
assigned the task of developing the appropriate JCIDS requirements 
document. Each JCIDS document is formally reviewed and validated by an 
Air Force requirements council before the document is forwarded to the 
appropriate Service or joint approving authority, depending upon the 
scope and level of joint interest established for the program by the 
Joint Staff gatekeeper. Air Mobility Command, in coordination with 
TRANSCOM, utilizes critical analyses and results of directed studies to 
determine numbers of assets associated with airlift requirements. These 
operational capabilities and their analytically based numbers (proper 
fleet size and fleet mix) are documented within the Air Force JCIDS 
products.

    59. Senator McCaskill. Secretary Wynne, has the Air Force studied 
the cost of shutting down the C-17 line and then having to restart the 
line if a need for additional C-17s arises? What is the total cost?
    Secretary Wynne. Boeing completed a study in October 2006 that 
addressed two possible shutdown options. The first option was a 
``complete shutdown,'' in which all tooling, test equipment, and data 
needed to sustain the weapon system would be retained with disposition 
of all other production equipment and facilities. Boeing estimates the 
shutdown cost to be $1.03 billion. The government is working on an 
estimate and expects the number to be lower. This estimate includes 
saving select tooling for future Air Force Air Logistics Center use. 
The second option studied was a ``warm shutdown,'' where all production 
equipment and facilities would be ``mothballed'' with the assumption 
that production would restart within a 2-year period. Boeing priced 
this option at $918 million. This estimate did not include the costs 
associated with completely shutting down the production line or any 
cost to restart production. The Air Force would have to fund additional 
costs associated with completing a shutdown after the mothball period.
    The cost of restarting C-17 production after a period of shutdown 
is dependent on a variety of factors. A production break will result in 
loss of learning (production expertise decreases) and loss of the 
supplier base, causing longer production times and higher overall 
aircraft production cost.

    60. Senator McCaskill. Secretary Wynne, do you believe that the 
Army and Marine Corps have sufficiently identified the airlift 
requirements that will be associated with a total increase in end 
strength of 92,000 personnel? If so, what have they identified? If not, 
what have you done to request that they identify the increased 
requirement since you will need to budget for increased assets, if they 
are deemed necessary?
    Secretary Wynne. Army and Marine Corps (AMC), through TRANSCOM, is 
currently engaged with the joint community to help define the scope of 
the planned Army/Marine Corps end strength increase and its impacts on 
air mobility. Quantifiable insights in response to this question are 
anticipated in the early June 2007 timeframe.
    Neither the most recent Mobility Capability Study (MCS) published 
in 2005 nor the follow-on excursions in MCS-06 included the force 
structure in question. The OSD and the Joint Staff anticipate the next 
MCS round to begin in the spring of 2008. This study should fully 
incorporate and examine the changes to Service force structure and 
impacts on mobility (air, land, sea, and prepositioning).

               future combat systems airlift requirement
    61. Senator McCaskill. Secretary Wynne, General Schoomaker recently 
indicated to me that he believes program managers in the Army's Future 
Combat Systems (FCS) program have clearly communicated potential 
airlift requirements associated with FCS fielding, and particularly 
that they have communicated requirements for the C-17. Do you feel the 
Army has sufficiently communicated airlift requirements for FCS 
fielding?
    Secretary Wynne. On 13 May 2003, airlift requirements for the 
Army's FCS were established in the JROC approved Operational 
Requirements Document (ORD). The ORD contains a key performance 
parameter (KPP) requirement for air transportability.
    As development of the FCS continues to evolve, the transportability 
KPP is being revised and aircraft specific constructs will continue 
their development. The Transportability Certification Working Group 
(Air Force, Army, TRANSCOM, and contractors) continually meets in order 
to define emerging requirements, including C-17 transportability, as 
the FCS specifications become more clearly defined.

    62. Senator McCaskill. Secretary Wynne, what exactly has the Air 
Force received from the Army concerning FCS airlift requirements?
    Secretary Wynne. Airlift requirements for the Army's FCS were 
established in the ORD which was approved by the JROC of 13 May 2003. 
The ORD contains the following KPP requirement for transportability, 
which includes air transportability: The FCS Family of Systems must be 
transportable worldwide by air, sea, highway, and rail modes to support 
intertheater strategic deployment and intratheater operational 
maneuver.
    As development of the FCS continues to evolve, the transportability 
KPP is being revised and aircraft-specific constructs will continue 
their development. The Transportability Certification Working Group 
(Air Force, Army, TRANSCOM, and contractors) continually meets in order 
to define emerging requirements as the FCS specifications become more 
clearly defined. Additionally, the FCS CONOPs is still evolving and as 
the FCS family of systems matures, transportability concepts of 
operations will develop and more clearly define transportation 
requirements.

                       mobility capability study
    63. Senator McCaskill. Secretary Wynne, many have attacked the 
adequacy of the MCS. While I know that this is a study undertaken under 
the auspices of the OSD, what have you communicated to OSD about 
updating the study?
    Secretary Wynne. Senator, the MCS recognized that further work 
remains to be done as the DOD moves forward in refining mobility 
requirements and making decisions for recapitalizing the Department's 
mobility assets. The Deputy Secretary of Defense said as much in his 
December 19, 2005, cover memo accompanying publication of the MCS that 
further work has taken shape in a group of substudies that has come to 
be known, collectively, as MCS-06. Each of these substudies has 
included or includes appropriate representation from the Air Force 
staff. My representatives to these MCS-06 studies--and to any full-
scale update to the MCS that may be proposed--will ensure that our 
concerns about the changing strategic environment are being considered.

    64. Senator McCaskill. Secretary Wynne, do you feel comfortable 
with the MCS and relying upon it to make program decisions such as 
shutting down the C-17 line?
    Secretary Wynne. The 2005 MCS, as informed by the 2006 QDR, 
determined that a fleet of 292 strategic airlift aircraft meets the 
lower bound with acceptable risk. Since the completion of this study, 
the C-17 programmed fleet has increased from 180 aircraft to 190 and we 
have lost one C-5. The resulting 301 strategic airlift aircraft, when 
fully mobilized and augmented by the Civil Reserve Airlift Fleet, 
provides sufficient airlift capacity to support U.S. strategic and 
operational objectives during large-scale deployments, while 
concurrently supporting other high priority operations and sustainment 
of forward deployed forces.
    We fully recognize that circumstances have developed beyond the 
scenarios studied in the MCS which must be addressed. The OSD is 
currently planning a follow-on mobility study to address these changes 
and the Air Force will be an active participant. This study is 
scheduled to begin in spring 2008. Additionally, AMC, through the 
TRANSCOM, is currently engaged with the joint community to help define 
the scope of the planned Army/Marine Corps end strength increase and 
its impacts on air mobility. However, the decision needs to be made now 
as to whether or not to close the C-17 production line. Under current 
MCS requirements, 300 strategic airlifters is sufficient. Therefore, 
with current congressional restrictions against retiring C-5 aircraft, 
the Air Force will maintain the fiscal year 2008 PB program of record.

    65. Senator McCaskill. Secretary Wynne, using the current MCS as a 
baseline, if Congress gives you authority to retire some C-5s, how 
quickly would you seek to retire aircraft and how soon would you seek 
to place additional purchase orders for C-17 aircraft to replace C-5s?
    Secretary Wynne. The Air Force is currently exploring all options 
to effectively manage the strategic airlift fleet. If granted the 
ability to manage the Air Force fleet without congressional 
restriction, the Air Force will take all factors into account in order 
to maintain capability for the Nation while exercising fiscal 
responsibility. Studies at AMC and the Air Staff are ongoing to ensure 
current and future airlift requirements are met. There is no firm plan, 
today, to retire a certain number of aircraft on a given timeline.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                          b-52 force structure
    66. Senator McCain. Secretary Wynne and General Moseley, the Air 
Force has been struggling for several years on how best to provide a 
way forward on airborne electronic attack and stand-off jamming 
capabilities. Among the many options under consideration is the 
venerable B-52 platform performing a key, enabling role. The 
President's fiscal year 2008 budget request funds 56 total aircraft 
inventory (TAI) with 32 combat coded B-52s. The John Warner NDAA for 
Fiscal Year 2007 requires 44 combat coded B-52s and prohibits retiring 
more than 18. Given the importance of B-52s in the current bomber force 
structure, and potential for an increased role in airborne electronic 
attack, why should Congress consider retiring any more B-52s than 
currently allowed?
    Secretary Wynne and General Moseley. Many challenges face the DOD 
and managing an aging bomber fleet while simultaneously navigating 
transformation to face emerging threats are but two. The Department's 
roadmap for long-range strike reflects a balanced approach focused on 
transformation and recapitalization while managing operational risk.
    Paramount to our Nation's security is the operational need to 
project combat power over long distances for long durations with 
adequate payloads. To meet this requirement, the Air Force's three-
phase strategy for long-range strike modernizes current bombers, 
develops a complementary capability fielding in 2018, and continues 
technology development for a transformational capability in 2035. 
Integral to the three-phase long-range strike strategy is divestiture 
of 20 B-52s as reflected in the fiscal year 2008 President's budget 
which results in an estimated $1.44 billion cost avoidance across the 
FYDP. The 56 B-52s funded in the program of record are still capable of 
meeting any single COCOM requirement. In accordance with phase 1 of the 
three-phase strategy, the fiscal year 2008 President's budget maintains 
bomber sustainment and modernization investments in excess of $4.1 
billion.
    The B-52 may play a significant role in advance electronic attack 
and as such, the force structure contained in fiscal year 2008 program 
of record is adequate to support that future role. Under the proposed 
Core Component Jammer (CCJ) program, the B-52 retains its traditional 
combat capability concurrent with a stand-off jam capability. Air 
Staff, Major Command (MAJCOM), and independent sufficiency studies/
analyses all indicate that CCJ requires 30 aircraft with 24 jammer 
shipsets, which is well within the requested B-52 force structure in 
the fiscal year 2008 President's budget.

                 joint strike fighter alternate engine
    67. Senator McCain. Secretary Wynne and General Moseley, Congress 
acted last year to restore funding for the development of a second 
engine for the JSF and required several reports on the acquisition 
strategy for the JSF engine program. The Department has acted contrary 
to that direction, and has, once again, eliminated funding for a second 
source before the required reports are evaluated. Can you please 
describe the Department's rationale for overturning the statutory 
guidance Congress provided for the JSF engine procurement before the 
results of the required studies have been completed?
    Secretary Wynne and General Moseley. The Department believes it is 
prudent to await the results of the three congressionally-directed 
independent studies prior to investing further in a second engine 
source for the F-35. The three studies were conducted by the GAO, 
Institute for Defence Analyses, and Cost Analysis Improvement Group to 
re-examine the procurement and life cycle cost impacts from terminating 
the alternate engine program. Final reports are still being written and 
should be finished by June 2007.

    68. Senator McCain. Secretary Wynne and General Moseley, does the 
Air Force support this DOD decision? Why or why not?
    Secretary Wynne and General Moseley. The Air Force supports the 
DOD's decision to cancel F136 development due to acceptable risk and 
constrained budgets, but sees the potential benefit of a second engine 
source if funding were available.

                     strategic airlift requirements
    69. Senator McCain. Secretary Wynne, the Department's MCS, 
submitted with the 2007 President's budget request, determined that 292 
strategic lift aircraft were necessary to meet our national security 
requirements. The Air Force proposed to meet this requirement by 
completing the C-17 program at 180 aircraft and modernizing the 
operating force of 112 C-5 Galaxys. In the John Warner NDAA for Fiscal 
Year 2007, Congress, in fact, appropriated an additional 10 C-17s above 
the Air Force's 2007 request, resulting in a total fleet of 190 C-17s.
    The fiscal year 2008 President's budget request provides no funding 
for additional C-17 aircraft, effectively shutting down production on 
the program. The budget request does include robust funding for C-5 
modernization throughout the FYDP. While this appears to be entirely 
consistent with the Department's stated airlift requirements, Air Force 
leadership has been quoted on more than one occasion since this budget 
was submitted, stating the desire to retire the 60 C-5A model aircraft. 
To further complicate the matter, the C-5 modernization program is 
experiencing early cost growth and may be reporting a Nunn-McCurdy 
breach in the year ahead. What actions are you taking to address the 
cost growth associated with C-5 modernization in order to keep this 
critical program on track?
    Secretary Wynne. The C-5 RERP program is experiencing cost growth 
pressures due to increases in touch labor, engines, and pylon costs. 
The program office is in daily contact with the contractor to address 
these program issues and mitigate those cost pressures. A detailed Air 
Force cost estimating effort is underway to determine the extent of the 
cost growth and to develop a service cost position. The program of 
record is to complete AMP and RERP modifications for 111 C-5 aircraft.

    70. Senator McCain. Secretary Wynne, early test results indicate 
that the C-5 modernization program will achieve its targeted 
reliability improvements, so how do you overturn the longstanding 
business case that argues to modernize rather than replace the existing 
C-5A airlift fleet?
    Secretary  Wynne.  The  Air  Force  remains  confident  in  the  
technical  aspects  of C-5 RERP. However, continued cost growth and 
program delays are bringing into question the cost effectiveness of the 
program. The cost growth to C-5 RERP combined with the high cost of 
potential C-17 line shut-down and restart indicate the need to re-
evaluate the business case of RERPing C-5 aircraft versus the benefits 
of procuring additional C-17s.
    The Air Force is currently refining the inter-theater force mix 
studies for C-5 modernization, C-5A retirement, and further C-17 
procurement. Additionally, OSD is currently planning to begin a follow-
on mobility study in spring 2008 to address force requirements.
    We desire to continue the recapitalization of Air Force aircraft. 
Hence, we are requesting permission to manage the Air Force fleet in 
order to be able to make timely decisions about aircraft retirements.

    71. Senator McCain. General Moseley, would you please clarify your 
strategic airlift requirements, and how you would propose to meet these 
requirements if authorized to retire C-5As and acquire more C-17s?
    General Moseley. The 2005 MCS calls for a range of 292 to 383 
strategic lift assets (combination of C-5s and C-17s). The 2007 NDAA 
calls for a minimum of 299 tails. Today, we have 190 C-17s and 111 C-5s 
in the program of record (301 total tails). For every C-5A we might 
retire, we need to replace at least 1-for-1 with a C-17 to preserve the 
minimum capacity needed in MCS.

           medium and high altitude unmanned aerial vehicles
    72. Senator McCain. Secretary Wynne and General Moseley, in a March 
5, 2007, memorandum General Moseley spelled out the case for the Air 
Force to become the EA for all medium- and high-altitude UAVs. General 
Moseley stated his desire to follow up with a comprehensive plan to 
optimize the Nation's ISR assets. This committee has long supported 
jointness over parochial interests when it comes to acquisition of 
military capabilities, however, programs such as the Joint Air-to-
Surface Standoff Missile-Extended Range, Joint Standoff Weapon, and the 
Joint Common Missile (JCM) give pause. Why does the Air Force think 
their role as the EA would be more successful than previous joint 
procurement efforts?
    Secretary Wynne and General Moseley. The Air Force has already 
demonstrated successful acquisition and fielding of UAVs to support 
warfighters at all combat echelons, particularly with its medium- and 
high-altitude aircraft, Predator and Global Hawk.

          1. From an acquisition and logistics perspective, the Army's 
        Warrior is nearly identical to the Predator; similarly, the 
        Navy's BAMS UAV requirements could be fulfilled by a variant of 
        the Air Force's Global Hawk or Reaper. Unique Service solutions 
        waste valuable resources through duplication of effort; 
        stovepiped collection, processing, and dissemination 
        architectures; unsynchronized command and control; and 
        unnecessary competition for bandwidth and spectrum.
          2. The role of the Air Force in conducting warfare from the 
        air, through space, and in cyberspace--as well as the assigned 
        missions of the Air Force--make assignment of EA to the Air 
        Force for medium- and high-altitude UAVs the right decision. 
        Per DOD Directive 5100.1, the Air Force is directed to 
        ``organize, train and equip, and provide forces for Close Air 
        Support and tactical air reconnaissance.''

                  a. The DOD could potentially save nearly $1.7 billion 
                in the current FYDP with an integrated approach to the 
                acquisition of medium- and high-altitude UAVs.
                  b. Combining the MQ-1 Predator, MQ-1C Warrior, RQ-4 
                Global Hawk, Broad Area Maritime Surveillance (BAMS), 
                and MQ-9 Reaper programs could save $619 million (MQ-1C 
                Warrior) and $1102 million (BAMS) through purchase 
                economies of scale, production efficiencies, and 
                integrated priorities.
                  c. DOD would not have to pay twice for duplicative 
                cost categories if consolidated contracts are 
                maintained for the MQ-1 Predator and MQ-1C Warrior 
                programs, as well as RQ-4 Global Hawk and BAMS.

          3. Air Force has demonstrated its ability to field as much 
        Predator, Global Hawk, and Reaper capability as possible.

                  a. The Air Force nearly doubled Predator acquisition 
                by reprogramming $2.3 billion in the fiscal year 2007 
                budget submission.
                  b. Air Force's fiscal year 2008 budget includes 
                nearly $13 billion to buy 241 UAVs--a 265 percent 
                increase in UAVs over the previous baseline to equip 12 
                Total Force Predator squadrons (battalion equivalents): 
                12 CAPs by April 2007 and 21 CAPs by 2010.

                     recapitalization of c-130 e/h
    73. Senator McCain. Secretary Wynne, a review recently conducted by 
the Air Force recommended a number of courses of action to ensure the 
long-term readiness of the C-130 fleet. What were the underlying 
assumptions of the review?
    Secretary Wynne. The Air Force Fleet Viability Board analyzed the 
technical health, aircraft availability, and cost of ownership in the 
C-130E/H1. The underlying assumptions were:

          1. Period of assessment is from fiscal year 2006 to fiscal 
        year 2030.
          2. C-130Es and C-130H1s (H1s include three ``super Es'') were 
        assessed as separate fleets.
          3. Fleet size remained constant throughout the assessment 
        period (assumed no attrition or retirements) for all options.

                  a. 118 C-130E aircraft (does not include 51 fiscal 
                year 2007 approved for retirement and 1 attrition 
                aircraft).
                  b. 47 C-130H1 aircraft.

          4. Average flight hours per aircraft per fiscal year (pulled 
        from C-130 flying hour database system) used to project future 
        flight hours.
          5. C-130E and C-130H1 will continue on a 69 month (5.75 year) 
        Programmed Depot Maintenance (PDM) cycle.
          6. Assume aircraft will undergo PDMs at same source of repair 
        across the assessment period.
          7. Ogden-ALC (Hill AFB, UT) will continue to be the only 
        organic source for C-130H1 PDM aircraft.
          8. All cost information presented in budget year 2006 
        dollars.
          9. Center-wing box service life is 45,000 Equivalent Baseline 
        Hours (EBH) and outer wing service life is 60,000 (EBH).
          10. System Program Manager continues to accept the 
        ``serious'' risk for rainbow fittings past 24,000 EBH.
          11. When CWB repairs are completed in accordance with Time 
        Compliance Technical Order 1908 aircraft operations are 
        unrestricted between 38,000 and 45,000 EBH.

    74. Senator McCain. Secretary Wynne, does the C-130J have a center-
wing box?
    Secretary Wynne. Yes, the C-130J has a center-wing box structure.

    75. Senator McCain. Secretary Wynne, is the center-wing box on the 
C-130 E/H similar to the center-wing box on the C-130J?
    Secretary Wynne. Yes, it is basically the same center-wing box.

    76. Senator McCain. Secretary Wynne, do you think we should replace 
the center-wing boxes on the C-130 Es and Hs? If not, why not?
    Secretary Wynne. We recommend replacing the center-wing boxes on 
aircraft that will remain viable in the future. We currently have 170 
aircraft in our C-130E fleet with an average age of 43 years. The NDAA 
for Fiscal Year 2007 language authorized up to 51 E-model retirements 
this year. The Air Force will continue to manage the C-130E fleet, 
including recommending the optimum number of aircraft for retirement, 
in order to maximize combat capability while minimizing excessive 
maintenance requirements and repair costs. The last E-models are 
scheduled for retirement in fiscal year 2014.
    For the remaining C-130 fleet we plan to replace the center-wing 
boxes as well as to complete an AMP.

    77. Senator McCain. Secretary Wynne, the repairs are requested in 
the President's budget and the Air Force unfunded priority list. How 
much is included on the list for repairs?
    Secretary Wynne. For those aircraft that have reached 38,000 EBHs, 
we inspect and repair the center-wing box as necessary to allow us to 
continue to fly the aircraft until it is grounded at 45,000 EBH. The 
cost for these inspections and repairs is between $700,000-$800,000, 
depending on the extent of repairs and is funded with O&M dollars.
    The only viable option for extending service life is the center-
wing box replacement. We have a total of $645.3 million in the current 
FYDP (fiscal year 2008-fiscal year 2013) for center-wing box 
replacement. There is currently no requirement on the unfunded priority 
list for C-130 center-wing boxes.

    78. Senator McCain. Secretary Wynne, Air Force documents reveal 
that the center-wing box is the ``long pole in the tent'' in terms of 
aging aircraft issues with the C-130. Repair/refurbishment of the 
center-wing box extends the life of the C-130 by 20 years. Is this 
correct?
    Secretary Wynne. There is no repair/refurbishment program to extend 
the life beyond 45,000 EBH. Our current inspection and repair program 
serves to remove restrictions between 38,000 and 45,000 EBH, when the 
aircraft ``grounds.'' The replacement resets the service life. When we 
replace the center-wing boxes and complete the AMP, our projections are 
that we will gain approximately 25-30 years life extension, depending 
on the flying profile (how fast the fleet accumulates EBH).

    79. Senator McCain. Secretary Wynne, according to Air Force 
documents, costs for center-wing box repairs of C-130 E/H models could 
be accomplished for $6-$9 million per aircraft compared as to as much 
as $100 million for a new C-130J. Other key recapitalization efforts 
such as AMP and re-engining could be accomplished for $6 million and $2 
million respectively. Is this correct? If you challenge these 
recapitalization costs, please provide certified data.
    Secretary Wynne. C-130E/H center-wing box replacement cost $6-$9 
million per aircraft. The acquisition cost for a combat delivery C-130J 
based on the current C-130J multi-year contract is $75 million. The 
average procurement unit cost for C-130 AMP is $11.8 million, based on 
the December 2006 Selected Acquisition Report submitted to Congress in 
April 2007. The C-130 Fleet Viability Board has estimated the cost to 
upgrade the C-130E engines to a C-130H configuration at $6 million per 
aircraft.

    80. Senator McCain. Secretary Wynne, has the Air Force decided on a 
course of action to ensure the long-term readiness of the C-130 fleet?
    Secretary Wynne. Our current plan is to retire aircraft that have 
passed their useful lives, and recapitalize to replace these aircraft. 
For the remaining legacy C-130H fleet, our plan is to replace center-
wing boxes and complete an AMP. This plan will extend the useful life 
of our C-130 fleet by 25-30 years which will provide the needed time to 
develop a replacement for this capability.

                       unfunded requirements list
    81. Senator McCain. Secretary Wynne and General Moseley, this year, 
the Air Force submitted a $16.9 billion unfunded requirements list. 
This is twice as large as the Army's, six times as large as the Marine 
Corps', and three times the size of last year's Air Force request. Why 
do you have such a large unfunded requirements list?
    Secretary Wynne and General Moseley. We've been at war for 16 years 
while transforming into a smaller, leaner, and more capable force. 
We've had to balance our resources to fight today and be ready for 
tomorrow's fight. Despite that tenuous balance, the Air Force faces 
significant challenges in recapitalizing air and space forces, putting 
our future fighting capabilities at great risk. The crisis in 
recapitalization must be corrected.
    The fiscal year 2008 UPL highlights critical requirements the Air 
Force could not afford within our current fiscal year 2008 President's 
budget. The UPL requirements address our top priorities: fighting and 
winning the global war on terror, developing and caring for airmen and 
their families, and recapitalizing and modernizing our aging aircraft 
and spacecraft. This includes key capabilities in: (1) Global Mobility 
such as additional C-130Js and C-37s and modernization of defensive 
systems; (2) Global Vigilance where our COCOMs demand more Predator and 
Intelligence Surveillance and Reconnaissance systems; and (3) Global 
Power where we need to upgrade aging legacy systems and provide 
additional targeting pods.
    Over the past 2 fiscal years, we have intensified our effort to 
reset/recapitalize Air Force aircraft and equipment. The fiscal year 
2008 UPL is reflective of this effort.

                            missile defense
    82. Senator McCain. Secretary Wynne and General Moseley, Admiral 
Fallon, Commander of U.S. CENTCOM, has told this committee that our 
missile defense capabilities need to pace the threat. Likewise, General 
Craddock, Commander of U.S. European Command, has told this committee 
that ``rogue states in the Middle East and Southwest Asia possess a 
current ballistic missile capability that threatens a major portion of 
Europe.'' In light of these comments by the COCOMs, do you agree that 
DOD should accord a priority to the successful testing and fielding of 
the current generation of ballistic missile defense capabilities in 
numbers sufficient to stay ahead of the growing threat?
    Secretary Wynne and General Moseley. The COCOMs are in the best 
position to determine the risks to their commands and are absolutely 
correct about the urgency of the current ballistic missile threat. Our 
intelligence estimates indicate an even more challenging threat in the 
future due to proliferation and advanced technologies.
    The Air Force develops much of the intelligence that characterizes 
the threat and has broad responsibility for air and missile defense. 
The Air Force and the other military departments support the efforts of 
the Missile Defense Agency to develop a layered, integrated ballistic 
missile defense system capable of defending the United States, its 
deployed forces, and its friends and allies from the weapons delivered 
via ballistic missiles. We also currently support a Joint Staff-led 
effort in conjunction with the other Services, combatant commands, and 
the Missile Defense Agency to assess emerging ballistic defense 
operational requirements given this growing threat.
    There is a continuous effort to balance resources required to 
develop the capabilities needed to defeat the current threat against 
those required for future technologies that will put us in a position 
to make ballistic missiles a lower value option for potential 
adversaries.
    The Air Force is working aggressively to help improve the COCOMs' 
capabilities to disrupt, deny, and defeat ballistic missiles before 
they can be launched, and is working to increase passive defense 
capabilities enabling the continuation of operations should such 
missiles impact our forward bases.
    It is a team effort among the combatant commands, military 
departments, and Missile Defense Agency to keep pace with emerging and 
future threats. The combined efforts of the Services and the Missile 
Defense Agency have struck an appropriate balance between fielding 
current capabilities and developing ``leap-ahead'' technology to ensure 
our continued battlefield dominance despite the proliferation of these 
weapons.

                          prompt global strike
    83. Senator McCain. Secretary Wynne and General Moseley, the 2001 
Nuclear Posture Review (NPR) stated the need to provide the President 
with a broad array of nuclear and non-nuclear capabilities to bolster 
deterrence and defense against the new threats we face today. One such 
recommendation was the development of long-range, conventionally armed 
strike systems, also known as ``Prompt Global Strike (PGS)'' 
capabilities. The 2006 QDR reinforced this recommendation. Yet 5 years 
since the NPR we seem to be without a viable PGS system under 
development. Will you explain the strategic requirement for PGS 
capabilities and summarize current plans to acquire such capabilities?
    Secretary Wynne and General Moseley. The strategic requirements for 
PGS stem from the U.S. Strategic Command validated requirement to 
strike globally, precisely, and rapidly against high-payoff, time-
sensitive targets in a single or multi-theater environment even when 
the United States has no military presence in a region. With our 
current capability, we can't effectively engage emerging high valued 
targets without either having forces prepositioned, or executing a 
nuclear response. This capability gap is documented in the JROC 
approved PGS Initial Capability Document.
    The Air Force is currently working two interrelated initiatives to 
address this gap:

          (1) Air Force Space Command is engaged in a PGS technology 
        demonstration program designed to evolve, mature, and integrate 
        critical PGS technologies that support the Command's vision for 
        fielding a mid-term (fiscal years 2014/2015) Conventional 
        Strike Missile (CSM) capability. As envisioned, CSM will use 
        existing commercial/excess rocket motors to boost a medium-
        lift-to-drag hypersonic glide vehicle capable of dispensing 
        requalified off-the-shelf munitions at global ranges from the 
        CONUS. Central to this effort is the development and packaging 
        of a suite of mitigating measures associated with CSM that 
        address congressional concerns regarding misinterpretation of 
        intent (e.g., geographically separated basing, on-site 
        inspections, unique trajectories, and non-provocative mission 
        planning).
          (2) The PGS Analysis of Alternatives is a joint study led by 
        Air Force Space Command. It is scheduled for completion in 
        March 2008 and examines long-term (fiscal year 2020 and beyond) 
        materiel solutions.

            chinese anti-satellite weapons and space control
    84. Senator McCain. Secretary Wynne and General Moseley, given the 
recent successful test by the Chinese government of an anti-satellite 
weapon, what changes in priorities has the Air Force made in protecting 
U.S. assets in space?
    Secretary Wynne and General Moseley. The Air Force is increasing 
priority on protection and reconstitution. Protection is accomplished 
by enhancing Space Situational Awareness (SSA) with improved 
integration, command and control, and sensors. Integration activities 
will improve our fusion capabilities and migrate them to the net-
centric construct enabling more timely attack detection. New sensors 
include the Space-Based Surveillance System (SBSS) and Space Fence. The 
Air Force is also pursuing concepts of limited reconstitution 
capability with the Operationally Responsive Space (ORS) program. 
Currently, there are five tactical satellites (TacSats) identified 
fiscal year 2007--fiscal year 2013 which will fulfill a variety of 
missions and provide the opportunity for operational experimentation 
and risk reduction for future Air Force programs.
    In addition, the Air Force continues to evaluate necessity and 
opportunity to accelerate several space control programs on the UPL. 
Delivery of Self-Awareness Space Situational Awareness (SASSA), SBSS, 
Rapid Attack Identification, Detection, and Reporting System (RAIDRS), 
and Space Fence can be accelerated if additional funds are provided.

    85. Senator McCain. Secretary Wynne and General Moseley, what space 
control programs, ongoing or future, hold the best promise for 
protecting U.S. assets?
    Secretary Wynne and General Moseley. There is no single ``silver 
bullet'' solution but instead a combination of classified and 
unclassified systems that together impress upon our potential 
adversaries the United States' ability to maintain and sustain space 
superiority from peace through all phases of conflict.
    This said, the Air Force continues to pursue programs to address 
deficiencies in light of current threats. The first step in protecting 
our space-based assets is improving our SSA capabilities. We are 
focused on upgrading both our ground-based and on-orbit capabilities to 
improve detection, tracking, and characterization of objects in low-
earth orbit and geosynchronous orbit. The upgrade will also enhance our 
ability to detect and characterize threats. Modernization programs for 
detecting, tracking, and characterizing include the SBSS system and 
Space Fence. Integrated SSA will improve our fusion capabilities and 
move us toward the net-centric construct, enabling a more timely event 
detection. RAIDRS are envisioned to provide automated attack detection 
and characterization against multiple types of threats.
    Several space control programs that will assist with these 
capabilities are on the UPL--SASSA, SBSS, RAIDRS Block 20, and Space 
Fence--to accelerate delivery of capability if additional funds are 
provided.
    In addition, the Air Force is increasing priority on ORS. In the 
future, this program may provide limited reconstitution capability for 
essential military space capabilities.

    86. Senator McCain. Secretary Wynne and General Moseley, to what 
extent are operationally responsive space efforts to contribute to the 
space control mission?
    Secretary Wynne and General Moseley. There are two key areas where 
the ORS program will potentially contribute to the space control 
mission area. These are SSA and reconstitution. The Air Force is 
currently evaluating the ORS program's capability to rapidly field and 
launch small satellites that could provide SSA of friendly satellites 
as well as potential threats. In this regard, we have submitted the 
SASSA, a potential ORS payload, on the UPL for fiscal year 2008. SASSA 
will demonstrate an integrated suite of sensors that could supply the 
necessary information to warn of environmental and manmade threats. The 
other space control related mission area being investigated by the ORS 
program is the ability to augment and reconstitute our space systems. 
This capability would increase the robustness of our space architecture 
in the face of future threats. The Air Force is maturing a satellite 
reconstitution capability through our TacSat program. Currently, there 
are five TacSats identified in fiscal year 2007--fiscal year 2013 which 
will fulfill a variety of missions and provide greater risk reduction 
to future Air Force programs.

           force protection and improvised explosive devices
    87. Senator McCain. Secretary Wynne and General Moseley, force 
protection has been and continues to be a top priority for this 
committee. Could you please describe the current status of force 
protection for our Air Force troops in Iraq and Afghanistan?
    Secretary Wynne and General Moseley. We have increased our emphasis 
on combat skills training and added the Basic Combat Convoy Course at 
Lackland AFB. We're fusing Force Protection Intelligence with 
aggressive security operations to extend our awareness outside the 
perimeter to engage threats at the maximum range possible. We plan to 
add special purpose armored vehicles to increase airmen effectiveness 
and survivability. Finally, we're also benefiting from the Army's 
deployment of Counter-Rocket, Artillery, and Mortar systems at key 
bases such as Balad Air Base (AB).

    88. Senator McCain. Secretary Wynne and General Moseley, what 
technology strategy and level of investment is being proposed in the 
Air Force budget to support our ability to get on top of and ahead of 
the improvised explosive device (IED)threat?
    Secretary Wynne and General Moseley. In response to April 2006 
direction to the Services, the Air Force programmed approximately $9.9 
million per year through fiscal year 2013 ($59.443 million total) for 
procurement and sustainment costs directly associated with Counter-
Improvised Explosive Device (C-IED) equipment/systems. This funding is 
specifically for Specialized Search Dogs (the Air Force is the 
Department of Defense Executive Agency for Military Working Dogs), 
Explosive Ordnance Disposal Robots, and Air Force funded requirements 
for uparmor modification kits for the Service's fleet of High Mobility 
Multipurpose Wheeled Vehicles (HMMWVs) in the theater of operations.

                        [In millions of dollars]
Specialized Search Dogs....................................        5.843
Robotics...................................................         19.6
Uparmored HMMWVs...........................................         34.0
                                                            ------------
  Total programmed:........................................       59.443
 

    Beyond these initiatives, the Air Force does not have any other 
dedicated or independent funding lines for C-IED initiatives. However, 
the Air Force also makes significant contributions to C-IED efforts 
with a variety of initiatives that are corporately vetted through the 
Air Force's Rapid Response Process--the most promising of these 
initiatives are championed by the Service for potential Joint IED 
Defeat Organization (JIEDDO) funding. To date JIEDDO has funded 14 Air 
Force initiatives for $87.035 million.
    Regarding strategy, the ACC, acting as the Air Force's lead MAJCOM 
warfighter force provider, recently signed a C-IED Operating Concept to 
ensure Air Force efforts are synchronized and cohesive in the campaign 
to overcome the threat and loss of personnel/resources posed by 
adversary use of IEDs. This operating concept provides a standardized 
approach with the JIEDDO, U.S. CENTCOM, U.S. Central Command Air Forces 
(CENTAF), and ACC C-IED efforts by using common constructs and 
terminologies. The ACC's C-IED Concept directly supports and is 
congruent with CENTCOM's C-IED Campaign plan through mutual focus on 
defeating the IED system. To execute this framework, ACC, with 
assistance from the Army and CENTCOM, recently completed a draft 
Concept of Employment (CONEMP) that is written from an airman's 
perspective taking a constrained and unconstrained approach to 
interdicting the IED system. Following CONEMP execution, ACC will look 
to identify capability and tactics, techniques, and procedures (TTP) 
gaps permitting sound analysis/actions for Doctrine, Organization, 
Training, Materiel, Leadership, Personnel, and Facilities improvements.
    In addition to the above, there are a number of technologies within 
the Air Force S&T program that could be applicable to countering the 
IED threat; however, S&T efforts are typically non-system specific and 
support a wide range of potential applications--as such, there is not a 
dedicated S&T investment line in this area. For example, one of the Air 
Force S&T Program's focused long-term challenges is to dominate 
difficult surface target engagement/defeat, which includes technologies 
that could be used to find, identify, track, and engage IEDs, such as: 
high power microwave devices to defeat a wide range of IEDs; real-time, 
24-hour, wide-area electro-optical and radio frequency sensing and data 
fusion/analysis; room temperature infrared cameras with increased 
temperature discrimination; penetrating terahertz imaging devices; 
adversarial modeling; improved operator interfaces for enhanced UAVs; 
and a wide range of command, control, communications, computers, ISR 
technologies including combining pertinent technologies within a net-
centric environment that could identify where the IED maker lives.
    Beyond S&T, the Air Force continues to improve existing platforms 
like Compass Call and Predator, which have proven useful in C-IED 
missions. Compass Call improvements provide a very effective C-IED 
classified capability, while planned fiscal year 2008 Predator 
improvements include integration of an airborne signals intelligence 
payload and incorporation of real-time targeting processing (Joint 
Direct Attack Munition-quality coordinate data from video)--both of 
which will enhance Predator support to C-IED missions. In addition, the 
Air Force requested global war on terrorism supplemental funding in 
both fiscal years 2007 and 2008 to field a net-centric beyond line-of-
sight (BLOS) secure communications capability across the Joint 
Surveillance and Target Attack Radar System (J-STARS) fleet to enable 
full coverage of ground combat operations in Operation Iraqi Freedom 
(OIF)/Operation Enduring Freedom (OEF). This improvement, combined with 
a future Network Centric Collaborative Targeting (NCCT) capability, 
will enable J-STARS to rapidly collaborate with other sensors and 
intelligence sources to fuse IED events with ground moving target 
indicator tracks to produce actionable intelligence. CENTCOM has 
recently identified BLOS secure communications as an Urgent Operational 
Need and this funding will enable the Air Force to achieve an initial 
operational capability for J-STARS BLOS communications by March 2008. 
The Air Force will consider funding for NCCT in its fiscal year 2010 
budget request.

                airmen on the ground in iraq/afghanistan
    89. Senator McCain. Secretary Wynne and General Moseley, the Air 
Force has provided significant ``in-lieu-of'' forces on the ground to 
support operations in Iraq. Are you comfortable that they are getting 
the right equipment to operate in that environment, particularly force 
protection equipment?
    Secretary Wynne and General Moseley. I am very comfortable that our 
``in-lieu-of'' forces on the ground to support operations in Iraq are 
getting not only the right equipment to operate in that environment, 
but the best force protection equipment that is available. We are 
continuously evaluating the enemy's TTP, and as these TTPs change, we 
review materiel and equipment configuration to see if changes are 
necessary to keep our airmen safe. Part of our evaluation process is 
the continuous collection of information from our deployed airmen, 
feedback from the other Services and COCOMs, and even suppliers to 
ensure we stay ahead in making appropriate modifications. As an 
example, more than 40 functional experts from around the Air Force, 
including deployed commanders, met at Keesler AFB, MI, on March 21-22 
to review and address ``in-lieu-of'' forces equipment requirements. We 
are also aggressively exploring short-, mid-, and long-term solutions, 
and where it makes sense, add required equipment for not only ``in-
lieu-of'' forces deployment preparation processes, but for the broader 
Air Force as well.

    90. Senator McCain. Secretary Wynne and General Moseley, are the 
airmen on the ground in Iraq getting the needed training before 
deploying?
    Secretary Wynne and General Moseley. Every airman that deploys to 
Iraq gets the best and most up-to-date training available. Each request 
for forces that the Air Force receives is reviewed by experts in the 
field and back in the States. These experts determine exactly what 
training is needed and ensure that our troops receive it prior to 
deploying. Typically we send our airman to three courses: Combat Skills 
Training, Combat Readiness Course, and in the future, an Air Force-
sponsored Common Battlefield Airman Training. Additionally we send 
forces to specialized training such as M-17 helicopter training and 
basic combat convoy course.

    91. Senator McCain. Secretary Wynne and General Moseley, has this 
training changed as a result of lessons learned, and if so, how?
    Secretary Wynne and General Moseley. Training is not viewed as 
being a static commodity. We take lessons learned, both good and bad 
from the field, and have adjusted our training programs as required. 
One of the things that we did was build up 2nd Air Force located at 
Keesler AFB to oversee our training requirements and to better 
integrate with the Army. 2nd Air Force has also taken the lead in 
establishing a Training Evaluation Review Board (TERB), which is 
reviewing our entire combat training spectrum. Finally, the Air Staff 
is undertaking a comprehensive review of the entire training process to 
streamline the process and ensure critical training objectives are 
identified and trained efficiently and effectively.

    92. Senator McCain. Secretary Wynne and General Moseley, how has 
the integration worked with the Army?
    Secretary Wynne and General Moseley. Our airmen have been doing a 
great job integrating with all the Services to fully meet the CENTCOM 
commander's warfighting requirements. Before deployment our airmen 
exercise and train with our sister Services and in some cases attend 
their organic training courses (e.g., airmen attend Army Combat Skills 
Training) in order to ensure they possess the proper combat skill sets. 
One example is airmen supporting Afghanistan Provisional Reconstruction 
Teams attend extensive training with the Army at Fort Bragg to learn 
various civil affairs and combat operations skills. Another is Army and 
Marine Aviators taking part in an Air Force-sponsored urban close air 
support exercise. Once deployed, our airmen work hand-in-hand with 
sister Services supporting each warfighting component. Currently 93 
percent of airmen deployed to the combat zone under tactical control of 
one of CENTCOM's warfighting components perform their organic skill 
sets in large part to relieve the stress on the overall joint force in 
critical career specialities.

    93. Senator McCain. Secretary Wynne and General Moseley, do you see 
anything that needs to be improved in this process?
    Secretary Wynne and General Moseley. Since our challenges are 
constantly changing so are our processes. Our airmen are constantly 
finding innovative ways to improve the system to meet future 
challenges. Recently the TERB has recommended that the Air Force stand 
up its own Combat Skills Training Course to help relieve the Army 
throughput bottlenecks.

                        space acquisition costs
    94. Senator McCain. Secretary Wynne and General Moseley, the costs 
of major space acquisitions (including the Transformational Satellite 
Communications (TSAT) system, Space-Based Infrared System-High, Space 
Tracking and Surveillance System, Space Radar, and National Polar-
Orbiting Operational Environmental Satellite System) are projected to 
increase significantly over the next several years to levels close to 
$9 billion per year starting in fiscal year 2009. How does the Air 
Force plan to fund this increase? Is it making tradeoffs with aircraft 
programs?
    Secretary Wynne and General Moseley. The Air Force evaluates cost 
versus combat capability across the spectrum of Air Force programs. If 
a space program delivers the best combat capability for the dollars 
invested, the Air Force will make tradeoffs among aircraft programs, 
space programs, and other recapitalization investments. Space programs 
compete equally with all Air Force acquisition programs. Additionally, 
the Air Force does not bear sole responsibility for resourcing all the 
space programs mentioned. The Air Force has an established cost-sharing 
arrangement with the Department of Commerce for the NPOESS program, and 
the OSD recently negotiated a cost-sharing arrangement for space radar 
with the Director of National Intelligence. The Space Tracking and 
Surveillance System is currently the responsibility of the Missile 
Defense Agency. For cost-shared programs, the Air Force will negotiate 
with its partners and will make allocation decisions based on delivery 
of the most combat capability for the investment.

    95. Senator McCain. Secretary Wynne and General Moseley, does the 
Air Force, or DOD, have a spending limit for space investments?
    Secretary Wynne and General Moseley. The Air Force does not have a 
spending limit for space investments. The Air Force evaluates the cost 
of space programs against the combat capability delivered by all Air 
Force programs and within the context of total available Air Force 
resources. The Air Force makes resource allocation decisions based on 
maximizing combat capability contributed from each warfighting domain 
constrained by the ability to purchase those capabilities.

    96. Senator McCain. Secretary Wynne and General Moseley, to what 
extent are DOD and the Air Force able to determine what level of space 
investment is affordable and prioritize among their space investments?
    Secretary Wynne and General Moseley. The Air Force evaluates the 
investment in space programs in the context of the combat capability 
delivered by all Air Force weapon systems. Space programs compete with 
all other programs on an equal basis for resources and priorities. The 
Air Force makes resource allocation decisions based on maximizing the 
total combat capability within its existing budget.

                          space communications
    97. Senator McCain. Secretary Wynne and General Moseley, the Air 
Force posture statement lists as one of the top Service priorities the 
recapitalization of aging spacecraft inventories. The statement 
highlights the TSAT system as essential to enable the realization of 
all DOD network-centric operations, such as the Army's FCS and the 
Navy's Sea Power 21 concept. Given the high priority accorded to space 
systems by the Air Force, and the importance of TSAT for future 
network-centric operations, why did the Air Force reduce planned 
funding for TSAT in the fiscal year 2008 budget request--thereby 
delaying the launch of the first satellite by 1 year to 2016?
    Secretary Wynne and General Moseley. TSAT fiscal year 2008 funding 
was reduced to fund competing higher DOD priorities. The 1-year TSAT 
slip does not impact current operational availability of either 
protected or wideband satellite communications capabilities, including 
the strategic networks on Milstar and Advanced Extremely High Frequency 
(AEHF). Adequate time exists to transition strategic networks onto 
combined TSAT-AEHF constellation before the projected fiscal year 2018 
Milstar end of life.
    The Department remains committed to TSAT for critical net-centric 
capabilities. It is the best way to meet warfighter needs, including 
the Army's FCS and the Navy's Sea Power 21 concept.

                            synthetic fuels
    98. Senator McCain. Secretary Wynne and General Moseley, since last 
fall, the Air Force has been testing whether Air Force aircraft can fly 
on liquid fuels made from natural gas or coal. According to the Air 
Force, barring any unforeseen glitches, the Air Force expects to 
certify the synthetic fuel for use in B-52 bombers this summer. Given 
the interest and publicity with which the Air Force has surrounded 
their synthetic fuels research program, how much funding is in the 
fiscal year 2008 budget request?
    Secretary Wynne and General Moseley. The Air Force has $1 million 
in its budget request for the certification of the fleet with a 50/50 
blend of synthetic fuel and JP-8. The Air Force has requested an 
additional $30 million in the UPL to complete necessary testing and 
certification in fiscal year 2008 in order to stay on schedule for 
fleet certification by fiscal year 2010; and, to be prepared for the 
acquisition of 50 percent of our CONUS fuel from domestic, alternative 
fuel sources by fiscal year 2016.

    99. Senator McCain. Secretary Wynne and General Moseley, what level 
of capability does the Air Force's program of record achieve within the 
FYDP?
    Secretary Wynne and General Moseley. Through the FYDP, the Air 
Force program of record has $31.48 million to test and certify the use 
of a synthetic fuel blend in the fleet. We estimate that it will 
require approximately $190 million in total to meet our fiscal year 
2010 certification goals and be prepared for the acquisition of 50 
percent of our CONUS fuel from domestic, alternative fuel sources by 
fiscal year 2016.

              congressional adds in air force s&t programs
    100. Senator McCain. Secretary Wynne and General Moseley, defense 
S&T funding lines are some of the most heavily earmarked accounts in 
the defense budget. A rough analysis of top line figures shows that 
components of DOD's basic and applied research funding are 
approximately 40 percent earmarked. I am interested in receiving more 
detailed information from the Department and each of the Services about 
the extent and execution--including the military utility--of earmarks 
within their fiscal year 2007 appropriations for S&T programs. Would 
you please provide for the record a break-out of the Air Force fiscal 
year 2007 S&T funding between requested programs and congressional 
earmarks? Please include the status of the execution of these earmarks 
(whether funds are let), the identified performers, and any evaluation 
you have done--including numerical scoring--of the military utility of 
these projects.
    Secretary Wynne and General Moseley. The attached spreadsheet 
provides the requested fiscal year 2007 breakout of Air Force S&T 
funding by requested amount and congressional add or earmark funding to 
include whether or not this additional funding has already been put on 
contract and, if so, with whom. Over the past several years, the Air 
Force S&T program has received a significant increase in annual 
congressional adds and we work hard to structure 1-year efforts that 
will yield some measure of military utility. While congressional adds 
that complement related, funded Air Force S&T efforts would be expected 
to provide more benefit to the Air Force, we do not formally evaluate 
these congressional special interest items.
    [The spreadsheet referred to follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    101. Senator McCain. Secretary Wynne and General Moseley, in your 
view, does the extent of earmarks you receive for basic and applied 
research interfere with the Air Force's ability to conduct a coherent 
R&D program which meets the Air Force's technology needs?
    Secretary Wynne and General Moseley. The Air Force's R&D program is 
reflected in this year's budget request and associated unfunded 
priority list for S&T. Annual congressional adds or earmarks received 
in the Air Force basic and applied research budget activities do not 
interfere with our ability to implement this program. We work very hard 
to structure 1-year efforts that provide new or complementary military 
utility to this program. While adds do not interfere with coherency, 
difficulties are experienced in oversight and management of these 
congressionally-directed efforts. This becomes especially more 
difficult when working new congressional special interest items where 
congressional intent is not always clear. With over 200 individual 
congressional adds, many hundreds, if not thousands, of man-hours are 
spent understanding congressional intent, contracting, and managing 
these efforts.
        recruitment and retention of air force medical personnel
    102. Senator McCain. Secretary Wynne and General Moseley, the 
committee has been concerned about the ability of all three Services to 
recruit and retain top quality medical personnel. The Air Force medical 
service continues to experience significant challenges. Overall 
recruiting of fully qualified health care professionals is barely 50 
percent of the requirement, and retention is at a 10-year low, 
contributing to chronic shortages in certain specialties. Looking to 
the future, what do you think are the most important monetary and 
nonmonetary incentives for recruiting and retaining medical personnel?
    Secretary Wynne and General Moseley. The Deputy Chief of Staff, 
Manpower and Personnel is working with Health Affairs, Air Force 
Recruiting Service and Air Force Medical Service to maximize the 
effectiveness of accession and retention bonuses, and the Health 
Professions Scholarship Program. We have provided input to the 
Quadrennial Review of Military Compensation (QRMC) to establish more 
flexible and expanded special pay and bonus authorities (ability to 
vary commitments, expand eligibility to target difficult accession and 
retention career fields, offer lump-sum bonus versus incremental bonus 
payments). We believe the QRMC proposed revision to special pay 
legislation coupled with the necessary appropriation, will allow the 
Air Force to obtain additional years of service from difficult-to-
retain career fields and narrow the pay gap with the civilian sector. 
We thank Congress for the expanded authorities for physician and 
dentist accessions bonuses granted as part of the NDAA for Fiscal Year 
2007.
    Also of importance are the following initiatives that are 
nonmonetary benefits: enhanced professional development, leadership, 
and professional opportunities, ensuring predictable defined AEF 
rotations, and encouraging the right balance for our personnel between 
their professional duties and their families.

    103. Senator McCain. Secretary Wynne and General Moseley, do you 
have all the tools needed to turn this situation around?
    Secretary Wynne and General Moseley. The Air Force will have all 
the tools necessary, with the QRMC revision of special pay and bonus 
legislation coupled with the required funding. Revision of legislation 
will enable the Air Force to vary commitments, expand eligibility to 
target difficult accession and retention career fields, and offer lump-
sum bonus versus incremental bonus payments. The Air Force will 
continue to prioritize recruitment and retention funds within the Air 
Force to meet our most pressing needs and maximize our effectiveness.

               medical program ``efficiency'' reductions
    104. Senator McCain. Secretary Wynne and General Moseley, in fiscal 
year 2007, $92.5 million was deducted from the Air Force medical budget 
as an incentive for hospital efficiencies. By fiscal year 2008, nearly 
$200.0 million in reductions would be realized. What impact have these 
reductions had on Air Force medical operations in this time of war?
    Secretary Wynne and General Moseley. While the reductions were 
intended to be an incentive for healthcare efficiencies, the actual 
medical treatment facility efficiencies impact reduced the 
recapitalization rate in several critical accounts including medical 
equipment; information management/information technology; facilities 
sustainment, restoration and modernization; medical supplies; and 
contracts. This programmatic approach was used to mitigate any negative 
impact to direct patient care delivery. However, continued use of this 
strategy will drive critical medical asset recapitalization rates to 
unacceptable levels and ultimately adversely impact patient care 
delivery.

    105. Senator McCain. Secretary Wynne and General Moseley, the 
Assistant Secretary for Health Affairs has testified that the 
reductions should be reevaluated. Do you agree with this assessment?
    Secretary Wynne and General Moseley. Yes. The Air Force Medical 
Service (AFMS) is concerned with the Medical Treatment Facility (MTF) 
Efficiency reductions. No real healthcare savings will be produced. The 
AFMS will experience decreased capability/capacity in the direct care 
system which will result in diminished access. Patients who cannot be 
treated on base will require care from the civilian sector which means 
higher costs for TRICARE, a managed health care support program for 
members of the armed services, their families, and survivors. Before 
that happens, the AFMS will slow spending in a number of areas such as 
facility maintenance, new medical equipment, and research and training.

               inspection of air force medical facilities
    106. Senator McCain. Secretary Wynne and General Moseley, in light 
of the revelations on conditions in Building 18 at Walter Reed Army 
Medical Center, have you directed inspection of Air Force medical 
facilities to ensure that appropriate standards of cleanliness and 
safety are being met throughout Air Force medical facilities worldwide? 
If so, what are the results of those inspections?
    Secretary Wynne and General Moseley. Yes, all 75 AFMS MTFs are 
regularly inspected (both scheduled and unannounced) by 2 nationally 
recognized audit, inspection, and accreditation organizations. The 
Joint Commission inspects and accredits Air Force medical centers, 
hospitals, and several outpatient clinics. The Accreditation 
Association for Ambulatory Health Care inspects and accredits a growing 
number of our outpatient clinics. The foremost aspect of these 
inspections is always quality of care and quality of the patient 
environment, to include cleanliness and safety. We are proud that all 
Air Force medical facilities have passed inspection and are accredited.
    In addition to this formal inspection regimen, the Air Force 
Surgeon General has specialized health facilities staff continuously 
engaged with MTF senior leadership at each command and base to 
identify, validate, and execute necessary sustainment, repair, and 
modernization projects. Furthermore, in support of a 5 March 2007 
memorandum from the Assistant Secretary of Defense (Health Affairs), 
the Air Force Surgeon General directed MTF senior leaders to re-examine 
their known facility requirements and forward up any previously 
unidentified repair or maintenance projects. The AFMS has funded--or 
identified funding--for many of these. We have requested additional 
funding, preferably multi-year in the operation and maintenance account 
to accomplish the remaining work.

    107. Senator McCain. Secretary Wynne and General Moseley, what 
guidance have you received from Secretary Gates with respect to the 
revelations at Walter Reed Army Medical Center about facility 
condition, outpatient care, and administration of the physical 
disability evaluation processes and what steps have you taken as a 
result?
    Secretary Wynne and General Moseley. The AFMS has been actively 
engaged in these issues well before the Walter Reed concerns surfaced. 
All 75 AFMS MTFs are regularly inspected (both scheduled and 
unannounced) by 2 nationally recognized audit, inspection, and 
accreditation organizations. The Joint Commission inspects and 
accredits Air Force medical centers, hospitals, and several outpatient 
clinics. The Accreditation Association for Ambulatory Health Care 
inspects and accredits a growing number of our outpatient clinics. The 
foremost aspect of these inspections is always quality of care and 
quality of the patient environment, to include cleanliness and safety. 
We are proud that all Air Force medical facilities have passed 
inspection and are accredited.
    In addition to this formal inspection regimen, the Air Force 
Surgeon General has specialized health facilities staff continuously 
engaged with MTF senior leadership at each command and base to 
identify, validate, and execute necessary sustainment, repair, and 
modernization projects. Furthermore, in support of a 5 March 2007 
memorandum from the Assistant Secretary of Defense (Health Affairs), 
the Air Force Surgeon General directed MTF senior leaders to re-examine 
their known facility requirements and forward up any previously 
unidentified repair or maintenance projects. The AFMS has funded--or 
identified funding--for many of these. We have requested additional 
funding, preferably multi-year in the operation and maintenance 
account, to accomplish the remaining work.
    With respect to outpatient care, the Air Force Survivor Assistance 
Program was expanded late in 2003 to assign a Family Liaison Officer 
(FLO) to severely wounded, injured, and seriously ill personnel at 
every stop in their evacuation from the AOR, and at every intermediate 
treatment facility. The FLO provides any assistance the member or 
family needs. The Air Force Palace Helping Airmen Recover Together 
(HART) program was implemented in 2005 to provide long-term (5-year) 
assistance with relocation, counseling, employment, and transitional 
services. The most recent enhancement provides earlier intervention 
with information needed to make informed decisions on benefit options 
available to wounded servicemembers and their families.
    Finally, to improve the Disability Evaluation System, the changes 
implemented by the AFMS include simplifying rules for providers when 
categorizing conditions, establishing Medical Evaluation Board (MEB) 
completion at 90 days, monitoring Air Reserve component (ARC) 
(including Air National Guard) Line of Duty determination delays, and 
tracking ARC personnel on extensions for medical reasons. The Air Force 
is also evaluating automation options for the MEB process, which will 
streamline and reduce opportunities for miscommunication for Medical 
and Personnel units. Air Force has a daily customer satisfaction 
telephone survey and is exploring its use for specific injured/wounded-
warrior issues. To improve case management, Air Force established a 
time limit for receiving medical consultant reports that might be 
delaying MEB completion.

base realignment and closure decision related to cannon afb, new mexico
    108. Senator McCain. Secretary Wynne and General Moseley, in your 
written testimony, you stated that ``several factors have applied 
pressure to the Air Force budget including unforeseen Base Realignment 
and Closure (BRAC) costs.'' The Air Force proposed to the 2005 BRAC 
Commission to close Cannon AFB in New Mexico, which would have saved 
the Air Force over $206 million annually and over $2.6 billion over the 
next 20 years. The BRAC Commission responded by agreeing to close 
Cannon by 2009 if the Secretary could not find ``other newly-
identified'' missions to replace the F-16s currently operating out of 
Cannon AFB. The Air Force then recommended stationing Air Force Special 
Operations units at Cannon without formally announcing a consideration 
of other potential receiving installations, as is done with all other 
Air Force weapon system beddowns. In light of budget pressures, why did 
the Air Force choose to keep a base open that the Air Force had 
previously recommended for closure?
    Secretary Wynne and General Moseley. In September 2005 the BRAC 
Commission recommended realignment of Cannon AFB by disestablishing the 
27th Fighter Wing, and establishing an enclave at Cannon AFB to remain 
open until 31 December 2009, during which time the Secretary of Defense 
shall seek other newly-identified missions for Cannon AFB. Under the 
direction of the Secretary of Defense, the Secretary of the Air Force 
began a search for a new mission for Cannon AFB. The Air Force engaged 
in a thorough and comprehensive reuse study to find new uses for the 
base and its assets. An eight-step process was used by the Assistant 
Secretary of Air Force (Installations, Environment, and Logistics) to 
search across the Military Departments, Federal agencies, and the 
public.
    Air Force Special Operations Command (AFSOC) had been looking for a 
west base since the mid-1990s with a plan called Commando Vision. 
Commando Vision looked at several locations in the northwest United 
States, but the plan had not yet been implemented. The DOD QFR and 
Global Defense Posture drive the need for a further training and 
beddown site for AFSOC.

    109. Senator McCain. Secretary Wynne and General Moseley, prior to 
the BRAC decision, were the special operations missions identified for 
Cannon AFB originally planned for other installations with higher 
military value?
    Secretary Wynne and General Moseley. The AFSOC's mission was never 
identified for any other installation. As stated previously, AFSOC had 
been looking for a west base since the mid-1990s with a plan called 
Commando Vision. Commando Vision looked at several locations in the 
northwest United States, but the plan could not get enough support to 
implement. The Air Force took the task of finding another mission for 
Cannon AFB as directed by the BRAC Commission and the Secretary of 
Defense.

             runway repairs at luke air force base, arizona
    110. Senator McCain. Secretary Wynne and General Moseley, I have 
been told that the runway at Luke AFB, AZ, is in serious need of 
repair. The Air Force recently sent a team of pavement specialists out 
to Luke AFB to analyze the condition and to determine whether immediate 
repairs were needed as opposed to waiting until 2011, the current 
schedule. As we wait for the test results, we continue to train new 
pilots every day at Luke to fly the F--16, the only single-engine 
fighter in the U.S. military inventory, which is especially prone to 
engine damage caused by debris on the runway. Why are we taking this 
risk? Why are we risking a $60 million plus aircraft and a priceless 
pilot every time during more than 10,000 takeoffs and landings monthly, 
all at the cost of $16 million in operation and maintenance dollars to 
repair the runway?
    Secretary Wynne and General Moseley. We agree pilots' lives are 
priceless and F--16s are essential warfighting machines, which is 
exactly why Luke AFB performs maintenance work and sweeping to keep the 
1.5 million square feet of Runway 3L/21R operationally safe. Air Force 
Civil Engineer Support Agency (AFCESA) performed an evaluation on the 
runway in February 2007. The primary areas of concern on Runway 3L/21R 
are sections R02C and R09C. These 2 sections (out of 12) are presently 
asphalt and are to be replaced with concrete to provide a more durable 
surface. AFCESA evaluation showed one partial section, R09C--C, has a 
poor Pavement Condition Index (PCI). All other runway sections have 
fair or higher PCI ratings. Luke AFB is continually monitoring the 
condition of Runway 3L/21R, and the preliminary analysis by AFCESA in 
February 2007 indicates that the runway is not in danger of imminent 
failure. There is a $15 million MILCON project.

    111. Senator McCain. Secretary Wynne and General Moseley, why can't 
the Air Force find $16 million in a $1.8 billion facility sustainment 
account to carry out these repairs in fiscal year 2007?
    Secretary Wynne and General Moseley. We will bring the Luke AFB 
Runway 3L/21R repair project forward from fiscal year 2011 if the next 
AFCESA report, due to be released in June 2007, validates the 
requirement. Luke AFB and AETC will work priority repair projects 
during the year as mission, funds, and facility conditions require.
                                 ______
                                 
               Questions Submitted by Senator John Warner
                        total force integration
    112. Senator Warner. General Moseley, in reading your opening 
statement about total force integration, I've been troubled by recent 
reports within the Air Force about how Air National Guard forces in the 
total force wing are being viewed. It seems that cuts to manpower in 
fiscal year 2007 used to pay for modernization are forcing Guard 
personnel to be used as replacements for regular force reductions. As 
an example, I've supported the relocation of our Virginia Air National 
Guard Fighter Wing to Langley AFB so our Guard members can train and 
operate side-by-side with Active-Duty personnel flying the F-22 Raptor. 
As I know it, an agreement between the Air Force and the Air National 
Guard set forth in 2005 envisioned an increase in the total F-22 
capability available to COCOMs as measured by crew ratios. The goal was 
to maximize the overall efficiency and the effectiveness of F-22 combat 
power by collocating Active and Guard fighting forces to take full 
advantage of the mutual benefit of each component's strengths in 
training every day side-by-side. Now I hear that upon completion of the 
collocation, our Nation may have a net loss of Air Force combat power 
by using the Virginia Air Guard Wing to compensate for Active Force 
manpower cuts and to sustain current levels of crew ratios and combat 
support capability in the active Forces at Langley AFB. What is the 
intent of total force integration in relation to maintaining levels of 
combat capability?
    General Moseley. The intent of total force integration is to 
increase Air Force combat capabilities by maximizing crew-ratios and 
maintenance support to respond to COCOM taskings. The 192nd Fighter 
Wing's relocation to Langley will occur at the end of this year 
following the distribution of their F--16s to other Reserve component 
units in late fiscal year 2007. Many 192nd Fighter Wing personnel are 
already training and working on F-22s at Langley AFB. By fiscal years 
2009-2010, all 192nd Fighter Wing personnel will be fully integrated 
and collocated with the 1st Fighter Wing. As a result, there will be a 
net gain of Air Force combat power.

    113. Senator Warner. General Moseley, will Reserve units in total 
force wings be used to fill in the gaps exposed by Active Force 
reductions, or will they be maintained as additional combat 
capabilities?
    General Moseley. While some manpower efficiencies may be realized 
once Regular and Reserve component units are fully integrated, Reserve 
unit personnel are not being used to replace Regular personnel in total 
force wings.
    The Air Force is modernizing while reducing overall aircraft and 
manpower numbers. High-tech emerging mission areas will provide an 
exponential increase in capability. As a result, our force structure 
will have 25 percent fewer fighters and 10 percent fewer total 
aircraft. The 2025 fighter force will be 100 percent PGM-capable and 
90+ percent low observable. Higher crew ratios will increase 
utilization in wartime and efficiency in peacetime. Reserve components 
will fly newer, more capable airplanes as they are introduced. 
Technology improvements in newer aircraft have also significantly 
reduced the maintenance manpower requirements per flying hour, driving 
down manpower requirements.

    114. Senator Warner. General Moseley, if the Air Force goal is to 
sustain increased capabilities, are operational planners being directed 
to increase the war and mobilization planning assumptions for total 
force wings?
    General Moseley. As the Air Force moves from older generation 
aircraft to fifth-generation aircraft, the advances in technology will 
deliver better reliability and increased combat capability per 
aircraft. In addition, the total force changes being implemented by the 
Air Force will maximize crew-ratios in associate units, allowing for a 
greater number of sorties to be produced. War planners are aware of all 
these parameters, and take them into account as they develop war and 
mobilization plans.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                 guard and reserve retirement proposal
    115. Senator Chambliss. Secretary Wynne and General Moseley, in 
your written statement you discuss your efforts at total force 
integration to seamlessly join the Guard and Reserve components to the 
active component in order to take full advantage of all components' 
strengths. I think you have been successful in this effort and believe 
that, perhaps of all the Services, the Air Force has most efficiently 
and effectively utilized its Guard and Reserve members over the past 15 
years and, as you have said many times, you could not do your job 
without them.
    I have introduced a bill in the Senate, S.648, National Guard and 
Reserve Retirement Modernization Act, which would lower the age at 
which Guard and Reserve members can collect retired pay by 3 months for 
every 90 days they spend on Active-Duty in support of a contingency 
operation. I have two purposes for this bill. The first is to 
incentivize mid-career personnel who are being deployed, and stand to 
be deployed again, to stay in the Service by giving them an additional 
incentive. The second is simply to recognize that the way we are using 
our Guard and Reserve personnel over the past 10 years has 
fundamentally changed, and to update the retirement benefit in light of 
those changes.
    Do you believe that, in light of our current usage of the Guard and 
Reserve and unknowns related to how this usage will affect long-term 
Guard and Reserve retention and recruiting, we should be considering 
changes in the Reserve retirement benefit?
    Secretary Wynne and General Moseley. We are waiting to see the 
report from the Commission on the National Guard and Reserve who was 
directed by Congress to make recommendations. The cost and its tangible 
impact to the overall Air Force budget and support to the Air Reserve 
component members must be carefully balanced for a positive conclusion.

    116. Senator Chambliss. Secretary Wynne and General Moseley, what 
specific options related to modernizing the Guard and Reserve 
retirement benefit has the Air Force considered?
    Secretary Wynne and General Moseley. None at this time because we 
are waiting to see the report from the Commission on the National Guard 
and Reserve who was directed by Congress to make recommendations. The 
cost and its tangible impact to the overall Air Force budget and 
support to the Air Reserve component members must be carefully balanced 
for a positive conclusion.

    117. Senator Chambliss. Secretary Wynne and General Moseley, in 
light of different options for improving or changing the Reserve 
retirement benefit, would you prefer:

        <bullet> An option that rewards Guard and Reserve members 
        across the board, regardless of their level or type of 
        participation?
        <bullet> An option that rewards Guard and Reserve members who 
        remain in the Selected Reserve beyond 20 years?
        <bullet> An option that simply lowers the age of annuity 
        receipt by 5 or 10 years?
        <bullet> An option that is targeted to Guard and Reserve who 
        are deploying in support of contingency operations related to 
        the global war on terrorism?

    Secretary Wynne and General Moseley. The Air Force cannot elect any 
options at this time, until sufficient information on the cost/benefit 
analysis as it impacts recruiting and retention is received.

    118. Senator Chambliss. Secretary Wynne and General Moseley, in 
structuring a potential change to the Reserve retirement benefit, what 
factors would you consider and what type of behavior would you want to 
incentivize through a changed benefit?
    Secretary Wynne and General Moseley. We would consider and attempt 
to incentivize enhanced recruiting and retention of Reserve component 
members, limiting Reserve component mobilization and enhancing Reserve 
component volunteerism.

    119. Senator Chambliss. Secretary Wynne and General Moseley, what 
is your specific opinion of S.648?
    Secretary Wynne and General Moseley. We do not have a specific 
opinion at this time. We are waiting to see the report from the 
Commission on the National Guard and Reserve who was directed by 
Congress to make recommendations. We would happily consider any 
proposal, but would need to fully understand how the proposal benefits, 
applies to, or affects the Total Force.

                          repair enterprise 21
    120. Senator Chambliss. Secretary Wynne and General Moseley, in the 
section on ``Depot Maintenance Transformation'' in your written 
statement you discuss an initiative called ``Repair Enterprise 21'' 
which appears to be a new approach to Air Force logistics. Repair 
Enterprise 21 is a lean logistics initiative which will ``establish an 
enterprise-wide single repair network supporting the entire Air Force 
supply chain.'' Would you please explain in more detail the status of 
Repair Enterprise 21, what it entails exactly, how it will impact or 
change the current role of the Air Logistics Centers, and most 
importantly, how it will affect the Air Force's sustainment of weapon 
systems?
    Secretary Wynne and General Moseley. Repair Enterprise 21 (RE21) 
will right-size and rationalize the Air Force's intermediate 
maintenance infrastructure. Ultimately, RE21 will reduce the number of 
Air Force intermediate repair facilities from approximately 75 to 22 
and increase slightly the workload at the Air Logistics Centers (ALCs). 
Intermediate repair requirements will be prioritized centrally and 
accomplished by either a Centralized Intermediate Repair Facility or at 
an ALC. Senior Air Force leadership has approved 9 of 14 organic 
repaired commodities for transition to the RE21 repair network:
          -  B-1, C-5, C-130, E-3, and F-16 Avionics
          -  TF33 engines
          -  Pave Penny and Low Altitude Navigation Targeting Infrared 
        for Night (LANTIRN) Pods

    The F100/F110 and F101 engines are pending approval. We anticipate 
late spring or early summer for their approval.
    Three commodities have been disapproved or tabled:

          -  ALQ131 and ALQ184 pods were disapproved due to cost to 
        ship oversized classified cargo and lack of spare pods
          -  F-15 Avionics has been tabled and will be readdressed in 
        12 months

    We expect the TF33 engine transition to start in the fourth quarter 
of fiscal year 2007. The B-1, C-5, C-130, E-3, and F-16 Avionics and 
Pave Penny pod transitions will start in the first quarter of fiscal 
year 2008. The F101 engine and LANTIRN pods will start in the second 
quarter of fiscal year 2008.
    We expect weapon system sustainment to improve with RE21, 
particularly with a stable workforce and standardized work practices. 
Additionally, by centralizing engine repair we can focus on reliability 
centered maintenance through module matching and more rapid 
introduction of technical improvements to improve engine average time 
on wing.

                        total force integration
    121. Senator Chambliss. General Moseley, the 116th Air Control Wing 
is the first and only ``blended wing'' which includes both Active and 
Guard personnel doing the same tasks and deploying together. The 
``blended wing'' has worked well in this case, but it has worked well 
primarily because the people involved have made it work well, in spite 
of organizational challenges and cultural differences between the Guard 
and Active force. What have the Air Force and DOD in general learned 
from the ``blended wing'' concept and how has it informed the Air 
Force's efforts at ``Total Force Integration''?
    General Moseley. The Air Force learned a great deal from this 
initial integration effort at Robins AFB. We took a brand new mission 
that had not received all of its equipment, threw it into a conversion 
that had never been tried, shortened the conversion period and then 
sent it immediately to war . . . and it was successful. This proved 
that Air Force men and women can accomplish remarkable feats in the 
face of substantial obstacles. We also learned that each component 
brings a unique set of tools and capabilities that, when combined and 
shared daily, is greater than the sum of its parts. This is especially 
true in the maintenance community. We learned that many of the ``pre-
set'' notions one component formulates about the other are marginalized 
or dissolved totally with integration. Finally, we learned that one 
size does not fit all. Total Force Integration transformation efforts 
are dependent upon a number of factors which must be identified, 
analyzed, and coordinated to ensure the Air Force gets the greatest 
value for the effort. As a result of what we learned,we sought and 
received congressional support for important changes to the legal 
guidance in titles 10 and 32. We still have work to do operationally to 
facilitate support using full-time Guard and Reserve personnel as well 
as dual-hatted authority.

    122. Senator Chambliss. General Moseley, what are other models for 
Active/Reserve interaction that you are considering that might take 
advantage of the unique capabilities and best practices resident in the 
Reserve and the Active Force?
    General Moseley. There are four associate models being used for 
Total Force Integration implementation:
Classic Associate:
    An integration model where a Regular Air Force component unit 
retains principle responsibility for weapon system or systems, which it 
shares with one or more Reserve component units. Regular and Reserve 
component units retain separate organizational structures and chains of 
command. There are varying degrees of functional integration based on 
MOUs.
Active Associate:
    An integration model where a Reserve component unit has principle 
responsibility for weapon system or systems, which it shares with one 
or more regular units. Reserve and regular component units retain 
separate organizational structures and chains of command. There are 
varying degrees of functional integration based on MOUs.
ARC Associate:
    An integration model where two or more ARC units integrate, with 
one retaining principle responsibility for weapon system or systems, 
which are shared by all. Each unit retains separate organizational 
structures and chains of commands. There are varying degrees of 
functional integration based on MOUs.
Integrated Associate:
    An integration model similar to the classic associate model; 
however, members of all components contribute to one unit mission with 
administrative control and support provided by the respective component 
via detachments.

                     c-130 and joint cargo aircraft
    123. Senator Chambliss. Secretary Wynne and General Moseley, the 
Air Force is requesting funding for 33 C- and KC-130J aircraft in the 
fiscal year 2007 and fiscal year 2008 supplemental requests and the 
fiscal year 2008 base budget. The Air Force is also planning to procure 
another intratheater airlift platform, the Joint Cargo Aircraft (JCA) 
which is a joint program with the Army. What business case and 
requirements have led you to a decision to procure both these aircraft?
    Secretary Wynne and General Moseley. The 2006 QDR, informed by the 
2005 MCS, established a range of 395-674 C-130s to support the NMS with 
acceptable risk. In December 2007, AMC is scheduled to complete an 
Intratheater Fleet Mix Analysis to determine the best mix of 
intratheater aircraft. The future Air Force intratheater fleet will 
include the C-130, C-17, and the JCA, and the mix of that fleet is 
dependent on many factors including health of the C-130 fleet and 
dedicated intratheater C-17 lift.
C-130Js
    To meet the minimum MCS requirement, the Air Force requested 29 C-
130Js. In the fiscal year 2007 supplemental request, the Air Force 
requested 5 C-130Js to replace 5 C-130H2s being converted to MC-130Ws. 
In the fiscal year 2008 budget, the Air Force requested 9 C-130Js on 
the multi-year procurement contract. In the fiscal year 2008 
supplemental, the Air Force requested 5 C-130Js to replace the 
remaining 5 C-130Hs being converted to MC-130Ws, 7 C-130Js to replace 
stressed C-130s due to the global war on terror, and 3 C-130Js to 
replace 3 non-combat C-130 losses.
    The United States Marine Corps requested 4 KC-130Js in the fiscal 
year 2008 budget and 7 KC-130Js in the fiscal year 2008 supplemental.
JCAs
    In accordance with Program Decision Memorandum (PDM) III in 
December 2005, the Army and Air Force were directed to form a Joint 
Program Office (JPO) from the Army's Future Cargo Aircraft (FCA) and 
the Air Force's Light Cargo Aircraft. In June 2006, the Army and Air 
Force signed a Memorandum of Agreement (MOA) to purchase the same JCA 
platform. The Army and Air Force are on track to meet the Milestone C 
decision by 30 May 07. The Air Force is committed to the JCA program 
and to delivering unparalleled intratheater airlift to the COCOMs.

    124. Senator Chambliss. Secretary Wynne and General Moseley, to 
what extent do the JCA and C-130J have overlapping versus distinct 
capabilities?
    Secretary Wynne and General Moseley. The JCA and C-130J have 
similar capabilities for use in the intratheater airlift role. Both are 
capable of short takeoff and landing at fields as short as 2,000 feet. 
Both aircraft are capable of moving the Department's standard 463L 
pallet and can airdrop container delivery system bundles. Additionally, 
both aircraft will be equipped with all the requisite communications, 
navigation, and defensive gear to operate as an integral part of our 
combat theater airlift system. Still, the C-130J offers capabilities 
that the JCA does not, and the JCA offers efficiencies not available in 
the C-130J. The C-130J is faster and offers greater cargo capacity, 
higher climb gradients, and more flexibility on similar sized runways 
than the JCA. The C-130J is compatible with all current Air Force 
Material Handling Equipment (MHE) and can accept a 463L pallet 
configured at a standard height of 96 inches, both of which the JCA 
cannot. Finally, the C-130J can carry many vehicle types that the JCA 
cannot (Stryker, Fire Engine, Up-armored Humvee, et cetera). However, 
our experience in Iraq and Afghanistan shows frequent, but required, 
movement of less-than-C-130 sized loads. In these situations, the JCA 
offers more efficiency than the C-130J because its cost to operate per 
flight hour is less. Also, depending on which aircraft is selected for 
the JCA, it may even burn fewer pounds of fuel per passenger or pallet 
mile than the C-130J. Finally, the unit cost of a JCA will be 
significantly less than a C-130J. In December 2007, AMC is scheduled to 
complete an Intratheater Fleet Mix Analysis to determine the best mix 
of intratheater aircraft. The future Air Force intratheater fleet will 
include the C-130, C-17, and the JCA, and the mix of that fleet is 
dependent on many factors including health of the C-130 fleet and 
dedicated intratheater C-17 lift.

    125. Senator Chambliss. Secretary Wynne and General Moseley, what 
missions will you use the JCA for that are unique from missions that C-
130Js and existing rotary wing assets currently accomplish?
    Secretary Wynne and General Moseley. There are currently no unique 
JCA missions in the intratheater airlift role that cannot be performed 
by a C-130J or by rotary wing assets. JCA and C-130J takeoff and 
landing performance is almost the same with both aircraft capable of 
short takeoff and landing at fields as short as 2,000 feet. Further, 
the C-130J offers greater cargo capacity and flexibility on similar 
sized runways as the JCA.
    However, the JCA dimensions are significantly smaller than those of 
the C-130J. This will allow the JCA to maneuver into tighter spaces on 
the ground and in parking which offers the potential to operate at 
fields with a more tightly constrained ``maximum on ground'' factor. In 
addition, the JCA will be a more efficient passenger and cargo mover of 
less-than-C-130 sized loads, since its operating costs will be less per 
flight hour and the unit cost of a JCA will be significantly less than 
a C-130J.
    In December 2007, AMC is scheduled to complete an Intratheater 
Fleet Mix Analysis to determine the best mix of intratheater aircraft. 
The future Air Force intratheater fleet will include the C-130, C-17, 
and the JCA, and the mix of that fleet is dependent on many factors 
including health of the C-130 fleet and dedicated intratheater C-17 
lift.

                       combat search and rescue-x
    126. Senator Chambliss. Secretary Wynne, senior Air Force and OSD 
officials have stated that early delivery of the Boeing HH-47 was a 
high priority criterion to its selection for CSAR-X. Was delivering 
CSAR-X early a KPP?
    Secretary Wynne. The early delivery of the CSAR-X is not a KPP in 
the CSAR-X Capability Development Document (CDD) or the Systems 
Requirements Document (SRD). The Air Force's selection was based upon 
an integrated Best Value assessment using the evaluation criteria 
published in the Request for Proposal (RFP). The evaluation criteria 
are as follows: Factor 1, Mission Capability (includes the following 
subfactors listed in rank order: Aircraft Performance--Block 0, System 
Architecture and Software, Systems Engineering, Product Support, 
Management/Schedule, and Aircraft Performance--Block 10); Factor 2, 
Proposal Risk; Factor 3, Past Performance; and Factor 4, Cost/Price. 
Factors 1, 2, and 3 were equally important, but when combined are 
significantly more important than Cost/Price. Evaluation of the 
Management/Schedule subfactor included the offeror's approach and 
ability to effectively and efficiently implement and manage the CSAR-X 
program to support an Initial Operational Capability not later than 
fiscal year 2012.
    Timely replacement of the aging and under capable HH-60 fleet is an 
Air Force priority which is why the acquisition strategy delivers a 
Block 0 (initial capability) first followed by Block 10 (full 
capability).

    127. Senator Chambliss. Secretary Wynne, will any CSAR-X 
capabilities be sacrificed for earlier delivery?
    Secretary Wynne. The Air Force did not trade any CSAR-X 
capabilities for early delivery during source selection; however the 
Air Force may make necessary program adjustments as permitted within 
the approved contract to maintain schedule, cost, and performance 
parameters.

    128. Senator Chambliss. Secretary Wynne, what early schedule 
benefit will the Air Force receive by selecting Boeing versus the other 
bidders for CSAR-X?
    Secretary Wynne. The early delivery of the CSAR-X is not a KPP in 
the CSAR-X CDD or the SRD. The Air Force's selection was based upon an 
integrated Best Value assessment using the evaluation criteria 
published in the RFP. The evaluation criteria are as follows: Factor 1, 
Mission Capability (includes the following subfactors listed in rank 
order: Aircraft Performance--Block 0, System Architecture and Software, 
Systems Engineering, Product Support, Management/Schedule, and Aircraft 
Performance--Block 10); Factor 2, Proposal Risk; Factor 3, Past 
Performance; and Factor 4, Cost/Price. Factors 1, 2, and 3 were equally 
important, but when combined are significantly more important than 
Cost/Price. Evaluation of the Management/Schedule subfactor included 
the offeror's approach and ability to effectively and efficiently 
implement and manage the CSAR-X program to support an Initial 
Operational Capability not later than fiscal year 2012.
    Timely replacement of the aging and under capable HH-60 fleet is an 
Air Force priority which is why the acquisition strategy delivers a 
Block 0 (initial capability)first followed by Block 10 (full 
capability).

    129. Senator Chambliss. Secretary Wynne, operations in the terminal 
area--the combat landing zone and surrounding area--is the most 
critical, dangerous portion of a combat rescue mission. Were terminal 
area characteristics a KPP for the CSAR-X program?
    Secretary Wynne. The development of the CSAR-X requirements was led 
by experienced Air Force operators, maintainers, and support personnel 
who have performed the demanding CSAR mission. Terminal area 
characteristics are not addressed as a stand-alone KPP for CSAR-X, 
however they were considered during CSAR-X requirements development and 
influenced eight of the nine KPPs, including: Combat Radius, Rotor-
Downwash at Mid-mission gross weight, Net Ready, Self Defense, 
Vulnerability Reduction, Electro Optical/Infrared (EO/IR) threat 
disengagement, Radio Frequency (RF) threat disengagement, and Payload/
Cabin Space.

    130. Senator Chambliss. Secretary Wynne, if there is a follow-on 
source selection for CSAR-X, will the Air Force place greater emphasis 
on aircraft attributes for terminal area operations?
    Secretary Wynne. In response to the GAO's recommendation in their 
February 26 decision, the Air Force will soon issue an amendment to the 
RFP and conduct an evaluation of the revised proposals. The Air Force 
validated requirements have not changed and we will continue to apply 
an integrated Best Value assessment, which considers Mission 
Capability, Proposal Risk, Past Performance, and Cost/Price evaluation 
factors. The evaluation criteria are as follows: Factor 1, Mission 
Capability (includes the following subfactors listed in rank order: 
Aircraft Performance--Block 0, System Architecture and Software, 
Systems Engineering, Product Support, Management/Schedule, and Aircraft 
Performance--Block 10); Factor 2, Proposal Risk; Factor 3, Past 
Performance; and Factor 4, Cost/Price. Factors 1, 2, and 3 were equally 
important, but when combined are significantly more important than 
Cost/Price.

    131. Senator Chambliss. Secretary Wynne, did the less expensive 
medium-lift CSAR-X competitors fail to meet the minimum specified 
requirements?
    Secretary Wynne. The CSAR-X RFP required that all offerors meet all 
the Government's specified minimum requirements. The integrated Best 
Value assessment determines which offeror best meets or exceeds the 
Government's requirements as stated in the RFP.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn
                  c-130 avionics modernization program
    132. Senator Cornyn. Secretary Wynne, what is the Air Force's plan 
for the AMP for the C-130 fleet?
    Secretary Wynne. The plan in the fiscal year 2008 President's 
budget is to install AMP on 268 C-130H1, H2, H2.5, and H3 combat 
delivery aircraft. On 2 February 2007, C-130 AMP declared a critical 
Nunn-McCurdy breach and is currently undergoing an OSD certification 
process. Results of this certification process are due to Congress on 5 
June 2007.

    133. Senator Cornyn. Secretary Wynne, what is the estimated cost 
per aircraft?
    Secretary Wynne. The Average Procurement Unit Cost is $11.8 million 
(procurement cost/procurement quantity). The Program Acquisition Unit 
Cost is $17.29 million ((RDT&E cost + procurement cost)/total 
quantity). This information is based on the December 2006 Selected 
Acquisition Report submitted to Congress in April 2007.

    134. Senator Cornyn. Secretary Wynne, how many C-130Es will undergo 
the modernization program and what is the timetable for this work to be 
done?
    Secretary Wynne. No C-130Es will undergo C-130 AMP or Center-Wing 
Replacement.

    135. Senator Cornyn. Secretary Wynne, how many C-130H1s will 
undergo the modernization program and what is the timetable for this 
work to be done?
    Secretary Wynne. All 47 C-130H1 aircraft are planned for 
modernization. They are tentatively scheduled to begin C-130 AMP 
modification in fiscal year 2011.

                         c-130 wing box repairs
    136. Senator Cornyn. General Moseley, what is the Air Force's plan 
for repairing the wing boxes of the C-130 fleet?
    General Moseley. As mentioned above, we inspect and repair as 
necessary to lift flight restrictions between 38K and 45K EBH, at which 
point the aircraft grounds regardless. The only way to remove the 
aircraft from grounded status is a full replacement of the center-wing 
box. Our replacement program is being implemented in 3 stages to 
accommodate changing requirements based on force structure decisions. 
At this point, we have no requirement to replace center-wing boxes on E 
models. All other C-130 Mission Design Series (MDSs) are phased into 
the program based on projected restriction points and EBH analysis.
    Phase 1 is a Sole Source Contract to Lockheed Martin to convert an 
AC-130H center-wing box to the MC-130H configuration; currently being 
installed and scheduled to complete by the end of April 2007.
    Phase 2 is a Sole Source Contract for Lockheed Martin to deliver 12 
Kits for the MC-130H, HC-130N/P, and the C-130H.
    Phase 3 is a Sole Source Contract for Lockheed Martin and was 
awarded on 31 Mar 07. This phase replaces the center-wing boxes of the 
remaining fleet of AC-130U, EC-130H, MC-130H, HC-130N/P, C-130H1/H2/H3, 
any potential Foreign Military Sales (FMS), Coast Guard (USCG), and 
Navy requirements. We expect to recompete in fiscal year 2009 and 
estimate contract award in fiscal year 2010 for components surrounding 
the wing box; this could result in qualification of a second source.

    137. Senator Cornyn. General Moseley, what is the estimated repair 
cost per aircraft?
    General Moseley. Current costs to replace the center-wing box range 
is between $6-$7.5 million per aircraft depending on the Mission Design 
Series. If you are looking at repair cost, then repairs resulting from 
the Time Compliance Technical Order (TCTO) 1908 inspection are running 
about $700,000-$800,000 depending on the extent of damage. TCTO 1908 
inspection takes a restricted aircraft (38,000 EBH) and identifies 
structural deficiencies to repair it to put in ``unrestricted flight 
status to 45,000 EBH'' and then it is grounded, regardless of repairs. 
For the most part a TCTO 1908 aircraft gets between 4-7 years of 
unrestricted life on it--depending on how you fly the aircraft and the 
EBH factor, but it does not prevent grounding at 45,000 EBH.

    138. Senator Cornyn. General Moseley, how many C-130Es will undergo 
wing box repairs and what is the timetable for these repairs?
    General Moseley. Currently we do not plan, nor have we budgeted, to 
replace any center-wing boxes on our C-130E fleet.

    139. Senator Cornyn. General Moseley, how many H1s will undergo 
wing box repairs and what is the timetable for these repairs?
    General Moseley. The current replacement plan is for 47 C-130H1s to 
undergo wing box replacement. The timetable for these replacements is 
based on projected restriction points and EBH analysis with 
replacements beginning in fiscal year 2009 and completing in fiscal 
year 2013.
    Since the TCTO 1908 inspection and repair is only an interim 
solution to allow unrestricted flight operations between 38,000 and 
45,000 EBHs, at which point the aircraft grounds, we are trying to 
limit the number of 1908 inspections and repairs to minimum essential.

    140. Senator Cornyn. General Moseley, how many H2s will undergo 
wing box repairs and what is the timetable for these repairs?
    General Moseley. The current plan is for 152 C-130H2s to undergo 
center-wing box replacement. The timetable for these replacements is 
based on projected restriction points (38,000 EBH) and EBH analysis 
with repairs beginning in fiscal year 2014 and completing in fiscal 
year 2020.
    Given that we have sufficient lead time to replace C-130H2 center-
wings at or just prior to their restriction point, it is highly 
unlikely that we will conduct TCTO 1908 inspections on H2s.

    141. Senator Cornyn. General Moseley, how many H3s will undergo 
center-wing box repairs and what is the timetable for these repairs?
    General Moseley. The current plan is for 80 C-130H3s to undergo 
center-wing box replacement. The timetable for these replacements is 
based on projected restriction points and EBH analysis with 
replacements beginning in fiscal year 2014 and completing in fiscal 
year 2020.
    Given that we have sufficient lead time to replace C-130H3 center-
wing boxes at or just prior to their restriction point, it is highly 
unlikely that we will conduct TCTO 1908 inspections on H3s.

                            c-130 retirement
    142. Senator Cornyn. Secretary Wynne, what is the Air Force plan 
for retiring C-130s?
    Secretary Wynne. The Air Force plan is to divest the C-130E fleet 
by fiscal year 2015. The Air Force will have 119 C-130Es at the end of 
fiscal year 2007 following the retirement of 51 C-130Es authorized in 
the NDAA for Fiscal Year 2007. The 119 C-130Es remaining will be 
retired over the next 8 years. The Air Force retirement plan will 
balance the declining health of the C-130E fleet with recapitalization 
efforts to meet the 395 C-130 minimum directed by the 2005 MCS to 
achieve moderate risk.

    143. Senator Cornyn. Secretary Wynne, how many C-130Es are to be 
retired and what is the timetable for them?
    Secretary Wynne. The Air Force current C-130 retirement/
modernization plan is to divest the C-130E fleet and modernize the C-
130H fleet (H, H1, H2, H2.5, and H3). The Air Force will have 119 C-
130Es at the end of fiscal year 2007 following the retirement of 51 C-
130Es authorized in the NDAA for Fiscal Year 2007. The level and speed 
of recapitalization efforts will directly impact the speed at which the 
Air Force retires the structurally fatigued, less capable C-130E. The 
Air Force is requesting to retire 24 C-130Es in fiscal year 2008, 
bringing the C-130E fleet strength down to 95 by the end of fiscal year 
2008. The C-130Js requested in the fiscal year 2007 and fiscal year 
2008 global war on terror supplementals will assist the Air Force in 
the recapitalization of the C-130Es.

    144. Senator Cornyn. Secretary Wynne, how many C-130H1s are to be 
retired and what is the timetable for retiring them?
    Secretary Wynne. The Air Force has no plan to retire any of the 47 
C-130H1s in the current C-130 fleet. The Air Force current program of 
record is to include all 47 C-130H1s in the C-130 Avionics 
Modernization Program and the Center-Wing Box replacement program.

                              c-130 basing
    145. Senator Cornyn. General Moseley, please list all of the C-130 
bases and the following information for each base:

        <bullet> The number and model (E, H1, H2, H3, or J) of C-130 
        aircraft.
        <bullet> The number of such aircraft in Active-Duty, Guard, or 
        Air Force Reserve.

    General Moseley. Please see attached C-130 Fleet as of 01 Oct 06 
slide which provides complete break out of the C-130 number, model, 
location, and disposition (Active-Duty, Guard, or Air Force Reserve).
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    146. Senator Cornyn. General Moseley, what is the Air Force's plan 
for maintaining C-130s in the Active-Duty Force?
    General Moseley. The Air Force currently has 13 Active-Duty C-130 
Squadrons, including an Active-Duty Association at Cheyenne. By fiscal 
year 2008 the Air Force will convert one of their squadrons to an 
Active-Duty Association at Pope and by fiscal year 2011 the Air Force 
plans to stand-up one additional Active-Duty Association at Elmendorf; 
both in support of BRAC-directed force structure changes. This will 
bring the final total Active-Duty C-130 Squadron count to 14 through 
the FYDP.

    147. Senator Cornyn. General Moseley, what is the Air Force basing 
plan for Active-Duty C-130s in the next 5 years?
    General Moseley. Over the next 5 years the Air Force will maintain 
Active-Duty C-130 presence at Dyess AFB, TX; Little Rock AFB, AR; 
Ramstein AB, Germany; and Yokota AB, Japan. Additionally, the Air Force 
will have three Active Associate units at Cheyenne, WY; Pope AAF, NC; 
and Elmendorf AFB, AK.

    148. Senator Cornyn. General Moseley, what is the Air Force basing 
plan for Active-Duty C-130s in the next 10 years?
    General Moseley. Over the next 10 years the Air Force will maintain 
Active-Duty C-130 presence at Dyess AFB, TX; Little Rock AFB, AR; 
Ramstein AB, Germany; and Yokota AB, Japan. Additionally, the Air Force 
will have three Active-Duty Associate units at Cheyenne, WY; Pope AAF, 
NC; and Elmendorf AFB, AK.

                          joint cargo aircraft
    149. Senator Cornyn. Secretary Wynne, what is the Air Force's plan 
concerning the acquisition of JCA?
    Secretary Wynne. The Army and Air Force have been conducting a 
Joint Source Selection since the RFP was released on 17 March 06. The 
Services are on track for a Milestone C decision for low rate 
production in May. We expect the winner to be announced shortly after a 
successful Milestone C decision.

    150. Senator Cornyn. Secretary Wynne, how many JCAs are needed?
    Secretary Wynne. In June 2006, the Army and Air Force signed an MOA 
to purchase the same JCA platform. In preparation for Milestone C 
decision in May 2007, the Air Force is finalizing a preliminary 
assessment of JCA quantities. A more detailed analysis of the optimum 
intratheater airlift fleet mix is being conducted by RAND and will be 
complete in December 2007. The Air Force is committed to the JCA 
program and to delivering unparalleled intratheater airlift to the 
COCOMs.

    151. Senator Cornyn. Secretary Wynne, what is the Air Force's 
timetable for procuring these JCAs?
    Secretary Wynne. The Air Force is scheduled to begin procurement in 
fiscal year 2010 after a successful Full Rate Production decision.

    152. Senator Cornyn. Secretary Wynne, is the Air Force planning to 
use JCAs as replacements for C-130s?
    Secretary Wynne. No, based on the 2005 MCS, we need the capacity of 
at least 395 C-130s to stay above the acceptable risk level.

    153. Senator Cornyn. Secretary Wynne, what is the Air Force's 
basing plan for the JCAs?
    Secretary Wynne. The Air Force transformational efforts maximize 
current and future capabilities through Total Force Integration; a 
cornerstone of the JCA program. The basing and beddown for this new 
airframe will leverage the strengths of Active Duty, Guard, and Reserve 
Forces to ensure maximum effectiveness of this vital asset. JCA basing 
is still in development and will take into consideration many factors 
to include the Army's basing strategy, expanding role of homeland 
security/homeland defense, support to FEMA regions, and minimizing 
MILCON costs. At this time, the Air Force is postured for aircraft 
selection in May 2007 and reception of its first JCA in fiscal year 
2012.

                                 c-130j
    154. Senator Cornyn. Secretary Wynne, what is the Air Force plan 
for continued acquisition of the C-130J stretch model beyond the 
existing contract?
    Secretary Wynne. The Air Force's Multi-Year Procurement of the C-
130J is set to end in fiscal year 2008 with additional procurements 
based solely on unfunded priorities and global war on terrorism 
supplementals.

    155. Senator Cornyn. General Moseley, please list the bases that 
will receive C-130Js, the number of C-130Js at each base, and specify 
whether the aircraft will be in Active-Duty, Guard, or Air Force 
Reserve.
    General Moseley. Please see attached C-130J Beddown Plan slide 
which provides the Air Force's programmed C-130J force structure.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         

    [Whereupon, at 11:46 a.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                        THURSDAY, MARCH 22, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

  UNITED STATES SOUTHERN COMMAND, UNITED STATES NORTHERN COMMAND, AND 
                   UNITED STATES JOINT FORCES COMMAND

    The committee met, pursuant to notice, at 9:36 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Bill Nelson, 
Bayh, Pryor, Warner, Sessions, Thune, and Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Evelyn N. Farkas, 
professional staff member; Richard W. Fieldhouse, professional 
staff member; Creighton Greene, professional staff member; 
Peter K. Levine, general counsel; Michael J. Noblet, research 
assistant; Arun A. Seraphin, professional staff member; and 
William K. Sutey, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; David M. Morriss, minority counsel; Lucian L. 
Niemeyer, professional staff member; Lynn F. Rusten, 
professional staff member; Robert M. Soofer, professional staff 
member; and Richard F. Walsh, minority counsel.
    Staff assistants present: David G. Collins, Fletcher L. 
Cork, and Jessica L. Kingston.
    Committee members' assistants present: Christopher Caple, 
Sherry Davich, and Caroline Tess, assistants to Senator Bill 
Nelson; Todd Rosenblum, assistant to Senator Bayh; M. Bradford 
Foley and Terri Glaze, assistants to Senator Pryor; Sandra 
Luff, assistant to Senator Warner; Mark J. Winter, assistant to 
Senator Collins; Stuart C. Mallory, assistant to Senator Thune; 
and John L. Goetchius, assistant to Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets this morning to consider the posture of three military 
commands that are crucial to our National Security: U.S. 
Northern Command (NORTHCOM), U.S. Southern Command (SOUTHCOM), 
and U.S. Joint Forces Command (JFCOM).
    With the high-stress deployments in Iraq, and the resulting 
strains on the readiness of our military forces, this hearing 
is a timely opportunity to hear from JFCOM which is the force 
provider for the combatant commands, and from two of the 
combatant commands that depend upon JFCOM for the military 
forces that they would need if a contingency were to arise in 
their areas of responsibility.
    In this regard, NORTHCOM and SOUTHCOM are two of the 
economy of force commands, because they do not require large 
numbers of military forces on a normal basis. Under today's 
circumstances with so many of our military forces deployed to 
Iraq, preparing to deploy, or recovering from recent 
deployments, a question arises as to where JFCOM would get 
ready, trained, and equipped forces to provide NORTHCOM or 
SOUTHCOM, if needed. I hope we can explore that topic, among 
others, at today's hearing.
    This morning, we welcome Admiral Timothy Keating, who is 
the Commander of U.S. NORTHCOM, and of North American Aerospace 
Defense Command (NORAD). Admiral Keating has been the Commander 
of U.S. NORTHCOM since November 2004, has recently been 
nominated for, and on Monday was confirmed as, the next 
Commander of U.S. Pacific Command (PACOM). We congratulate you, 
Admiral, on your confirmation, and we'll look forward to 
working with you on your next assignment.
    Admiral Keating will not assume command of PACOM until 
later in the month, so we will have the benefit of his 
experience, and his knowledge of NORTHCOM for today's hearing.
    NORTHCOM has a two-pronged mission. It is responsible for 
conducting operations to deter, prevent, and defeat threats and 
aggression aimed at the United States, its territories, and 
interests within its assigned area of responsibility (AOR), and 
as directed by the President, or Secretary of Defense, it 
provides military assistance to civil authorities for domestic 
crises, including consequence management of natural disasters, 
like Hurricane Katrina, and man-made disasters, like those 
involving chemical, biological, radiological, nuclear, and 
high-yield explosive incidents.
    The NORTHCOM AOR is the United States, Canada, and Mexico, 
and the land, sea, and air approaches to those territories. So, 
when it comes to defending the territory of the United States, 
NORTHCOM has the primary responsibility.
    The committee also welcomes Admiral James Stavridis, 
Commander of SOUTHCOM, who is responsible for an area including 
Latin America, south of Mexico, and the countries and 
territories of the Caribbean as well as the surrounding waters, 
ocean, and sea.
    The committee is interested in hearing from the Admiral 
regarding U.S. assistance to Colombia, and the progress being 
made to balance our security, stability, and democracy in 
Colombia, and also stop the cultivation, manufacturing, and 
trafficking of drugs. The price, purity, and supply of cocaine 
in the United States does not appear to have changed much, and 
so we'll want to hear why and whether we need to do more to 
interdict drugs across the transit zone from South America to 
the United States.
    We'll also hear, or hope to hear, the SOUTHCOM perspective 
regarding ongoing U.N. Peacekeeping Operations in Haiti, and 
the impact of populist anti-Americanism in South and Central 
America.
    Within the direct responsibility of SOUTHCOM, Admiral 
Stavridis, we also would like to have your assessment of the 
ongoing detention and interrogation operations at Guantanamo 
Bay, and your understanding of what the plans are for the 
future of the installations there, and the status of any plans 
for dealing with a post-Castro Cuba.
    Finally, emphasizing my initial point, the committee needs 
to hear how SOUTHCOM activities are being affected, or could be 
affected, by the reduced availability of U.S. Forces, including 
Special Operations Forces, due to operational requirements in 
other combatant command areas.
    Finally, we welcome General Lance Smith, U.S. Air Force, 
Commander of the JFCOM. General Smith and his command have the 
important responsibility of providing mission-ready, joint-
capable forces to our combatant commanders around the world. 
This is a particularly challenging mission at a time when so 
many of our military forces are deployed in Iraq.
    JFCOM also supports the development and integration of 
present and future interagency and multi-national military 
capabilities.
    Our committee has a longstanding interest in JFCOM's 
mission, responsibilities, authorities, and activities with 
respect to joint doctrine development, training 
experimentation, and acquisition. We're particularly interested 
today to hear General Smith's views on the status of JFCOM's 
contribution to the readiness of our deployed and nondeployed 
forces.
    We thank each of you for your long and continued service to 
our Nation, and we look forward to your testimony.
    Senator Warner?

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman.
    On behalf of the distinguished ranking member, Senator 
McCain, I ask unanimous consent to place his full statement in 
the record.
    Chairman Levin. It will be.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    The committee meets today to receive testimony from Admiral Timothy 
Keating, Commander of U.S. Northern Command (NORTHCOM); General Lance 
Smith, Commander of U.S. Joint Forces Command (JFCOM); and Admiral 
James Stavridis, Commander of U.S. Southern Command (SOUTHCOM), on 
their military strategy and operational requirements. As combatant 
commanders, we welcome your insight on developments in your areas of 
responsibility, as well as your assessment of the fiscal year 2008 
defense budget request. The committee values the contributions and 
sacrifices you and the fine men and women under your command are making 
on behalf of the American people.
    Admiral Keating, protecting the United States from direct attack is 
the highest priority of the Department of Defense (DOD). In addition to 
defending the Nation against attacks by hostile forces, NORTHCOM also 
is charged with the responsibility for providing critical support to 
civil authorities in preventing and responding to terrorist incidents 
and in assisting civilian agencies in dealing with the aftermath of 
other domestic emergencies and natural disasters.
    The DOD Strategy for Homeland Defense and Civil Support assumes 
there will be a mass casualty attack against the United States. While 
the Department of Homeland Security is the lead Federal agency for 
preventing and responding to such attacks, I would note that 12 of the 
15 National Planning Scenarios issued by the Homeland Security Council 
deal with chemical, biological, or radiological events that could 
quickly overwhelm the capacity of local and State first responders. As 
such, the DOD must be prepared to address these important civil support 
missions utilizing both the Active and Reserve component.
    At the same time, however, the Government Accountability Office, 
the Commission on the National Guard and Reserves, and the Chief of the 
National Guard Bureau all warn that the National Guard is under-
resourced for many of the missions it now performs--especially those 
necessary to deal with weapons of mass destruction events in the 
Homeland. Likewise, it is unclear whether we have made sufficient 
progress as a government in addressing those communications 
interoperability and interagency coordination problems that hampered 
recovery efforts after Hurricane Katrina. I will be interested to learn 
how well NORTHCOM is progressing in these areas.
    General Smith, as Commander of JFCOM, you are responsible for 
providing the trained and ready forces needed by regional combatant 
commanders. In this role, JFCOM assigns nearly all conventional forces 
based in the continental U.S. In 2006, JFCOM developed recommendations 
and coordinated the deployment of more than 310,000 personnel in 
support of requirements identified by combatant commanders.
    We look forward to hearing your testimony today about JFCOM's 
important role as force provider as well as JFCOM's complementary work 
in joint training, joint experimentation, and the development of 
interoperability requirements which ensure our soldiers, sailors, 
airmen, and marines can combine their capabilities into a single 
successful effort. Because JFCOM's recommendations and analysis of 
readiness issues form the basis for deployment decisions, I ask that 
your testimony today also present your assessment, and any 
recommendations you have, regarding how best to maintain the Nation's 
forces at the highest possible level of readiness.
    Admiral Stavridis, I welcome you to your first posture hearing as 
the Commander of SOUTHCOM and commend you for a very comprehensive 
written statement that emphasizes the linkages, challenges, and 
promises for improving and sustaining our security cooperation, and 
strengthening our partnerships, throughout the region. United States 
national interests with our hemispheric neighbors to the south, the 32 
nations that comprise the United States SOUTHCOM area of 
responsibility, are indeed important and diverse. I applaud President 
Bush's recent trip to the region and his desire to reinvigorate and 
reframe relations with our Latin American and Caribbean neighbors. The 
President expressed his commitment to help the democracies of the 
Western Hemisphere build government institutions and meet basic needs 
like education, health care, and housing.
    This morning the committee will be interested in your assessment of 
efforts to curb the flow of illegal drugs into the United States from 
the south, especially those associated with Plan Colombia; the rise of 
violent crime in the region and any links between those criminal groups 
and gangs in the United States; the rise of radical populism in the 
region and the influence of Hugo Chavez; the future of post-Castro 
Cuba; violent extremists in the region and any ties between these 
groups and movements like Hezbollah and al Qaeda; operations at the 
detention facility at Guantanamo; and, to the extent you can, the 
efforts and progress to locate the three American hostages held by the 
Revolutionary Armed Forces of Colombia guerrillas in Colombia since 
February 2003.
    In closing, I would like to express our Nation's gratitude to all 
of you, and to the men and women of your commands, for all of their 
efforts in providing for the Nation's defense. I look forward to 
hearing from today's witnesses.

    Senator Warner. I have a similar statement which I would 
put in the record to supplement that.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Chairman Levin, thank you.
    On behalf of Senator McCain, I request unanimous consent to place 
his prepared remarks into the record.
    Mr Chairman, I join you in welcoming our witnesses here today.
    I would like to thank our witnesses, and their families, for their 
long and distinguished service to our Nation. I would also like them to 
convey my personal word of commendation, and my deep admiration, for 
the dedicated men and women of their commands. Their efforts are vital 
to our homeland defense; to the protection of our national interests in 
the Western Hemisphere; and in support of our joint forces deployed 
abroad in harm's way.
    Admiral Keating, welcome back for another appearance before the 
committee. Congratulations on your recent confirmation to be the next 
Commander of U.S. Pacific Command (PACOM) and thank you for your 
willingness to take on another position of great responsibility. We 
know you will relinquish command of North American Aerospace Defense 
Command (NORAD) and U.S. Northern Command (NORTHCOM) in a change-of-
command ceremony tomorrow in Colorado and we are so very grateful that 
you are able to appear here today.
    The attacks on September 11 were a day of unprecedented alarm and 
anguish, and the devastation of Hurricane Katrina created a time of 
extraordinary suffering and sorrow. Admiral Keating, you and members of 
your command, have a sweeping mission and a wide-ranging mandate. The 
Nation looks to you, and the men and women of your command, to ensure 
we are not attacked again and to save lives in the United States.
    NORTHCOM, the Department of Defense (DOD), and Federal, State, and 
local officials have come a long way since those dreadful days, but you 
have a mission that requires continuous coordination, greater 
collaboration, and constant vigilance. The committee looks forward to 
your valued insights on homeland defense and DOD support, to civil 
authorities responding to terrorist incidents, domestic emergencies, 
and natural disasters.
    Admiral Stavridis, I welcome you to your first posture hearing as 
the Commander of United States Southern Command (SOUTHCOM), and commend 
you for a very comprehensive written statement that speaks to the 
promises and opportunities that exist to sustain and improve our 
partnerships in the 32 nations that comprise SOUTHCOM.
    While our Nation's attention is, at present, focused in other areas 
of the world, we should not, and can not, neglect the potential threats 
to our national interests that exist in South America and the 
Caribbean.
    I applaud President Bush's recent trip to the region and his desire 
to reinvigorate and reframe relations with our neighbors and his 
expressed commitment to help the democracies of the Western Hemisphere.
    General Smith, welcome back. You have appeared before this 
committee in other capacities, but this is your first JFCOM posture 
hearing. General Smith, you and the men and women of JFCOM have a very 
broad mission that contributes appreciably, each and every day, to the 
success of our efforts in the global war on terrorism and the 
development of our future joint force.
    We have a great joint force now, but it is under strain. Those of 
us who have been members of this committee since the enactment of the 
Goldwater-Nichols legislation more than 20 years have watched our joint 
forces capability mature with great satisfaction. Our joint force is 
great because we have the best soldiers, sailors, airmen, and marines 
in the world. This force is made even better by the contributions of 
the men and women of JFCOM. Their efforts develop a force that can 
fight, and win, as a joint U.S. force and can operate as part of a 
multinational force with allied, coalition, and interagency partners.
    We look forward to hearing your testimony today about JFCOM's role 
as force provider, to include your assessment of the readiness of the 
force for forward deployment, as well as its complementary work in 
joint training, joint experimentation, and the development of 
interoperability requirements.
    Mr Chairman, thank you and I look forward to the testimony today.

    Senator Warner. I join you in welcoming this very 
distinguished panel, and also express our appreciation, not 
only to your service, but that of your respective families 
through the many, many long years of service. Admiral Keating, 
turning right around tonight, and go back out to Colorado for a 
change of command in the morning, is that correct?
    Admiral Keating. That's correct, sir.
    Senator Warner. We thank you for making yourself available 
for this important hearing today.
    Admiral Keating. Thank you, sir.
    Senator Warner. Your portfolio is one that, unfortunately, 
we do not hear a lot about, because it is being executed. But, 
we sleep better at night knowing that you don't sleep that well 
at night.
    It's extremely important how you integrate the uniformed 
forces of the United States with the local communities, the 
States, the National Guard, the Reserve, and all of the 
components of the military to provide the security that we need 
here at home.
    In my questions, I will bring out a point that my able 
staff prepared for me last night, about how the perspective of 
homeland security is looked at perhaps one way by the 
Department of Defense (DOD) and another way by, for instance, 
our Homeland Security and Governmental Affairs Committee 
(HSGAC). I want to make sure that that ties in very closely.
    General Smith, you are in my home State. I am proud to have 
you there. Thank you for taking on this assignment. But you 
have the arduous task of making certain that the men and women 
of the Armed Forces who leave our shores are equipped and 
trained sufficiently to meet their missions, and we have 
potentially some rather challenging pieces of legislative 
initiative, largely emanating on the House side, the other 
body, with regard to the reporting to Congress and the public 
about the degree of equipment, training, and readiness of those 
forces before they deploy.
    I hope to engage you in a colloquy on that, and perhaps, in 
your general opening statement, you will address that specific 
requirement.
    Admiral Stavridis, we welcome you. This is your first 
appearance before us since your confirmation.
    Admiral Stavridis. Yes, sir.
    Senator Warner. We tend to look south and think everything 
is going to be all right, but each day we pick up our news, and 
learn about the very troubled area in which you now have a most 
significant responsibility. So, we look forward to your 
testimony.
    We thank each of you, again, for your public service.
    Chairman Levin. Thank you.
    Senator Warner. Mr. Chairman, your statement covered, I 
think, a lot of the specifics that I was going to cover, so we 
will proceed with the hearing.
    Chairman Levin. Thank you, Senator Warner.
    I think we'll start with Admiral Keating.

  STATEMENT OF ADM TIMOTHY J. KEATING, USN, COMMANDER, UNITED 
  STATES NORTHERN COMMAND/COMMANDER, NORTH AMERICAN AEROSPACE 
                        DEFENSE COMMAND

    Admiral Keating. Good morning, Mr. Chairman, Senator 
Warner, members of the committee.
    I'm proud to represent the 1,500 or so men and women from 
the headquarters at NORAD and NORTHCOM before you this morning.
    As you've said, Mr. Chairman, homeland defense is the core 
of our National Military Strategy. The NORTHCOM and NORAD are 
separate commands, but they have a complementary mission. We 
work together to defend our Homeland.
    The commands operate within a common security environment, 
we share a common headquarters building, and largely the same 
headquarters staff. We embrace common values, we understand the 
importance of executing our duties with a sense of urgency in 
the face of very real and present dangers.
    Homeland defense is a high priority for NORTHCOM and NORAD. 
As NORTHCOM enters its 5th year, we're fully mission capable, 
and ready to respond to the full spectrum of homeland defense 
challenges in this modern security environment.
    On the other hand, the NORAD agreement, initially signed in 
1958, was renewed just last May 2006. NORAD has evolved from 
its Cold War construct into an adaptive, flexible, and 
responsive bi-national organization, ideally suited to address 
modern threats in the aerospace domain, and will now contribute 
to greater awareness of threats in the maritime domain. The 
mission for both Commands is the defense of North America.
    NORTHCOM and NORAD are integral elements in the active, 
layered, integrated defense in which we seek to confront early, 
and from a safe distance, anyone who threatens our Homeland. 
NORTHCOM and NORAD operate in a changing, uncertain security 
environment, a range of symmetric and asymmetric transnational 
threats represents an immediate challenge for both Commands. 
These threats continue to be diverse, adaptive, and by their 
very nature, difficult to predict.
    Potential enemies will attempt surprise as they try to 
employ an array of persistent, catastrophic, and destructive 
methods and capabilities, which could include nuclear weapons. 
NORTHCOM and NORAD will act in a timely, and when appropriate, 
coordinated fashion in concert with our international and 
domestic partners to deter, detect, prevent, and defeat 
threats.
    NORTHCOM also must plan for military response, as you 
stated, Mr. Chairman, to requests for support when natural or 
manmade disasters affect our United States. Catastrophes such 
as hurricanes, earthquakes, wildland fires, and pandemics can 
overwhelm local responders, and may require Federal military 
sources to support State and local efforts.
    Likewise, a successful terrorist attack, particularly 
involving weapons of mass destruction (WMD) could cause mass 
panic, environmental damage, and significant loss of life. In 
catastrophic incidents--and only when directed--NORTHCOM will 
support civil authorities to provide an integrated response as 
quickly and effectively as we can.
    The core capability to accomplish our missions resides, of 
course, in our people. We must continue to ensure their 
welfare, and the welfare of their families. We're grateful to 
you for your support, for our soldiers, sailors, airmen, 
marines, coastguardsmen, and their families.
    The men and women of NORTHCOM and NORAD are resolutely 
committed to defending the United States, Canada, and Mexico 
against all threats. I'm privileged to be part of this 
outstanding team, and I look forward to your questions this 
morning. Thank you.
    [The prepared statement of Admiral Keating follows:]
           Prepared Statement by ADM Timothy J. Keating, USN
    Chairman Levin, Senator McCain, and members of the committee: At 
its most basic level, winning the war on terror means defending our 
Homeland. Homeland defense lies at the core of our National Military 
Strategy. United States Northern Command (NORTHCOM) and North American 
Aerospace Defense Command (NORAD) are separate commands that have 
complementary missions and work closely together to fulfill our 
homeland defense responsibilities. The commands operate within a common 
security environment, predominately share a headquarters staff, and are 
dedicated to defending North America. We also share common values and 
understand the importance of carrying out our duties with a sense of 
urgency in the face of very real and present dangers. It is my honor to 
report to you on the current state and future direction of our 
commands.
    Homeland defense is the highest priority for NORTHCOM and NORAD. As 
NORTHCOM enters its 5th year, we are fully mission capable and ready to 
respond to the full spectrum of homeland defense challenges existing in 
the modern security environment. The NORAD Agreement, initially signed 
in 1958, was renewed in May 2006, when NORAD's mission set was expanded 
to include maritime warning. NORAD has evolved from a cold war 
construct into an adaptive, flexible, and responsive bi-national 
organization that is ideally suited to address modern threats in the 
aerospace domain and contribute to greater awareness of threats in the 
maritime domain. The desired end state of our commands is the 
maintenance of our Nations' ways of life and the defense and 
territorial integrity of North America.
    NORTHCOM and NORAD are integral parts of an active, layered defense 
in which we seek to confront, early and from a safe distance, those who 
threaten our Homeland. NORTHCOM and NORAD operate in a changing, 
uncertain security environment. A range of asymmetric, transnational 
threats represent an immediate challenge for both commands. These 
threats continue to be diverse, adaptive, and, by their nature, are 
difficult to predict. Potential enemies will attempt surprise as they 
try to employ an array of persistent and emerging, catastrophic, and 
disruptive methods and capabilities, to include nuclear weapons. 
NORTHCOM and NORAD will act in a timely, and when appropriate, 
coordinated fashion in concert with our international and domestic 
mission partners to deter, detect, prevent, and defeat threats.
    NORTHCOM must additionally plan for a military response to civil 
requests for support in response to natural or manmade disasters that 
affect the United States. Natural disasters such as hurricanes, 
earthquakes, wildland fires, or pandemics can overwhelm local 
responders and require significant contribution of Federal military 
resources to support State and local response efforts to mitigate 
effects. Likewise, a successful terrorist attack, particularly one 
involving a weapon of mass destruction, may cause mass panic, 
environmental damage, and significant loss of life requiring 
substantial defense support of civil authorities. In catastrophic 
incidents, and as directed, NORTHCOM will support civil authorities to 
help effect an integrated national response as quickly and effectively 
as possible.
                                 plans
    We rapidly adapt homeland defense and civil support plans as 
circumstances dictate based upon current intelligence, and regularly 
exercise them across all domains with our domestic and international 
homeland defense partners. Over the last 2 years, we finalized the 
following plans:

        <bullet> Concept Plan 3310-07, Aerospace Warning, Aerospace 
        Control, and Maritime Warning for North America
        <bullet> Concept Plan 2002-05, Homeland Defense
        <bullet> Campaign Plan 2075, Regional Campaign Plan for the War 
        on Terror
        <bullet> Concept Plan 2501, Defense Support of Civil 
        Authorities
        <bullet> Concept Plan 2505, Nuclear Weapon Accident Response 
        Plan
        <bullet> Concept Plan 0500, Chemical, Biological, Radiological, 
        Nuclear, and High-Yield Explosive (CBRNE) Consequence 
        Management Operations
        <bullet> Concept Plan 2591, Pandemic Influenza
        <bullet> Concept Plan 2707, Military Support to the U.S. 
        Government Agencies for Caribbean Mass Migration
        <bullet> Concept Plan 2400, Emergency Preparedness in the 
        National Capital Region
        <bullet> Concept Plan 2502, Civil Disturbance Operations
        <bullet> Campaign Plan 2900, Strategic Communication

    This year, we will focus our efforts to complete the following 
plans:

        <bullet> United States-Canada Combined Defense Plan
        <bullet> Canada-United States Civil Assistance Plan

    In addition to our current family of plans, we continue to advocate 
development of an overarching national homeland security plan that 
coordinates the pre-attack actions of the Federal Government. This 
plan, as advocated in the 2006 Quadrennial Defense Review, will clarify 
the distribution of effort among Federal agencies, promote unity of 
effort, and reduce uncertainty in the overlap of responsibilities and 
capabilities among homeland security partners.
                         training and education
    NORTHCOM's and NORAD's comprehensive training and education program 
supports the mission of North American defense. NORTHCOM's defense 
support of civil authorities training programs have also become a 
national resource for homeland security and defense professionals as 
exemplified by the training of over 1,200 people in fiscal year 2006 in 
our defense support of civil authorities course.
    Our Homeland Security/Defense Education Consortium (HSDEC) has 
established a national homeland security and defense curriculum. 
Currently the organization has 183 charter and associate university 
members, including the American Association of Community Colleges with 
1,154 members in 40 States, the Canadian Defence Academy, and 
University del Salvador, Argentina. The $1.8 million apportioned to 
HSDEC from Congress as part of the Fiscal Year 2007 Defense 
Appropriations Bill is being used to sponsor research into our 
Commands' priority questions of interest, to develop an internship 
program for recruiting new defense and security personnel into 
government service, and for workshops to bring an academic perspective 
to our commands' respective missions. We also seek to foster greater 
senior civilian leadership knowledge as NORTHCOM and NORAD partner with 
the Naval Postgraduate School and civilian institutions in the 
development of a doctorate degree in the areas of homeland defense and 
security, with initial classes beginning in summer 2007.
    To build on our already strong working relationship with the 
National Guard, we're continuing the Joint Force Orientation program, 
which is a cooperative training effort between NORTHCOM, National Guard 
Bureau, Joint Forces Command and the States' National Guard 
Headquarters. The program enhances coordination, cooperation, and 
information sharing between the States' Joint Force Headquarters and 
NORTHCOM.
                               exercises
    Each year, NORTHCOM and NORAD sponsor two large-scale exercises--
Ardent Sentry and Vigilant Shield--and participate in over 30 smaller 
regional, State, and local exercises. We continually review lessons 
learned from past exercises and real-world events (such as Hurricane 
Katrina) and take corrective action when necessary. These actions are 
an integral part of our exercise program. Our exercise scenarios have 
involved air (civil and military) incidents and attacks; maritime and 
port security; maritime interception operations; missile defense; 
support to law enforcement agencies for border security; consequence 
management in support of civil authorities; nuclear proliferation; 
nuclear weapons accidents; weapons of mass destruction attacks; and 
natural disasters.
    Our civil support exercises are evolving to integrate fully with 
the Department of Homeland Security's National Exercise Program and are 
now national events with the support of the Federal Government, 
regional organizations, and the private sector. We actively engage our 
training partners at every level of Federal, State, tribal, and local 
government to employ the most comprehensive and realistic scenarios in 
order to achieve each participating organization's training objectives. 
Our exercises are based on the 15 National Planning Scenarios and are 
accomplished in accordance with the National Response Plan and the 
principles of the National Incident Management System.
    Last year, we developed and hosted six major Table Top Exercises 
(TTXs) and several additional smaller scale TTXs involving military, 
agency, and governmental participation at all levels. Examples of 
scenarios addressed during these synchronized TTXs include response to 
a major earthquake; terrorist use of Man-Portable Air Defense Systems 
against civilian airliners and Department of Defense (DOD) aircraft; 
and detection, tracking, and response to a ship-borne nuclear weapon 
detonated in a major U.S. port.
    Canada, primarily through Canada Command, is a full partner in 
these exercises. Although we have rehearsed and executed trans-border 
missions, such as the 2006 Super Bowl in Detroit, we have yet to 
conduct fully combined exercises that occur across the northern border. 
We continually work with the Government of Canada and its Strategic 
Joint Staff in the air arena through numerous NORAD exercises that are 
conducted regularly in, and across, all NORAD Regions (Continental 
United States, Canadian, and Alaskan NORAD Regions). Canada Command and 
Public Safety and Emergency Preparedness, Canada participated in the 
Ardent Sentry series of exercises for the first time in 2006.
    We work with the National Guard Bureau to coordinate and 
synchronize major NORTHCOM and NORAD exercises with the National Guard 
State exercise series, Vigilant Guard.
    We support the DOD's decision to reprogram combatant command 
funding for the Joint Exercise Program and Training Transformation from 
the Services into a defense-wide account to be centrally managed by the 
Office of the Secretary of Defense and the Joint Staff. The 
consolidation of existing funding into the Combatant Commanders' 
Exercise Engagement and Training Transformation program will result in 
efficiencies that can be rapidly applied against training requirements 
for new mission areas.
                        intelligence activities
    NORTHCOM and NORAD maintain situational awareness and readiness 
around-the-clock to protect against a range of symmetric and asymmetric 
threats in all domains. The Intelligence Community supports NORTHCOM 
and NORAD by providing actionable information needed for homeland 
defense operations. Timely and actionable intelligence is the most 
critical enabler to protecting the Homeland at a safe distance. Threat 
awareness allows us to tailor our deterrent posture and convince 
adversaries that their objectives cannot be achieved by attacking our 
Homeland and that any attack will result in an overwhelming response.
    NORTHCOM uses intelligence and threat information from other 
Federal agencies to develop and maintain situational awareness of 
threats within our area of responsibility and to facilitate a seamless 
handoff of threats to our homeland originating in other combatant 
commands' areas of responsibility. These assessments and intelligence 
products are provided to NORTHCOM components, subordinate commands, and 
lead Federal agencies. NORTHCOM assessments are shared with the 
intelligence community by posting them to the National Counterterrorism 
Center Online secure web portal, and our own web portals at various 
classification levels.
    A significant tool within NORTHCOM and NORAD is the Joint 
Intelligence Operations Center North (JIOC-North), which is part of the 
intelligence community. JIOC-North provides predictive and actionable 
threat estimates and timely warning of worldwide threats against North 
America using fused all-source intelligence and law enforcement 
information.
    To protect Americans' civil liberties, intelligence received from 
the intelligence community is filtered through a well-established and 
disciplined Intelligence Oversight Program. This ensures we analyze, 
retain, and disseminate intelligence with a foreign or international 
terrorist threat nexus, and then only to the extent the intelligence is 
relevant to our missions.
                      homeland defense operations
    Should deterrence fail, we will access and assume operational 
control of forces that are trained and ready to respond and defeat 
threats directed at our areas of responsibility. Adaptability and 
flexibility are critical to our commands' ability to counter the modern 
threat.
NORAD Sector Consolidation
    Prior to November 2006, the NORAD Continental Region was divided 
into three air defense sectors: the Southeast Air Defense Sector at 
Tyndall Air Force Base, Florida; the Northeast Air Defense Sector at 
Rome, New York; and the Western Air Defense Sector at McChord Air Force 
Base, Washington. In November 2006, NORAD consolidated the Northeast 
and Southeast Air Defense Sectors into a single Eastern Air Defense 
Sector located in Rome, New York. We are standing up a robust Air 
Operations Center at Tyndall Air Force Base, Florida. Fielding of the 
Battle Control System Fixed, a modernized, tactical-level command and 
control system, enabled this sector consolidation and will reduce 
manpower requirements.
    In 2006, we conducted the following homeland defense operations:
Ground-Based Midcourse Defense (GMD)
    NORTHCOM is responsible for directing missile defense operations 
within our area of responsibility and Hawaii to defend the Homeland, 
allies, friends, and other national interests from potentially hostile 
acts. The GMD system achieved limited defensive operations capability 
in October 2004, was placed in an operational status in June 2006, and 
is available when needed to defend the United States' and its allies' 
infrastructure and population centers. Our missile defense crews are 
trained and our systems are ready to respond as necessary. In July 
2006, the NORAD Integrated Threat Warning and Attack Assessment System 
immediately detected the launch of all seven North Korean missiles, 
tracked their trajectories, and watched as they landed in the Sea of 
Japan. The North Korean missile launch activities that occurred from 
May to July 2006 provided an excellent opportunity for NORTHCOM and 
NORAD to coordinate with national senior leadership, other combatant 
commands, and assigned missile defense assets. The challenge now is to 
balance operations with research, development, test, and evaluation to 
ensure the architecture will evolve to defend against a changing 
threat. Continued funding of GMD is critical to this effort.
Operation Noble Eagle
    Since the attacks of September 11, NORAD has supported Operation 
Noble Eagle with airspace surveillance, a ready alert force, irregular 
air patrols, and the unique National Capital Region Integrated Air 
Defense System. Over 45,000 sorties have been flown in support of 
Operation Noble Eagle, with the Air National Guard conducting over 70 
percent of these sorties. We have adjusted our air patrols to achieve 
the balance between readiness and sustainability. In September 2006, 
the U.S. Coast Guard assumed the Rotary Wing Air Intercept mission to 
counter the light civil air threat to our Nation's capital.
    On October 11, 2006, minutes after the crash of a civilian light 
aircraft into a New York City building, NORAD scrambled several fighter 
and support aircraft to cities on the east and west coasts of the 
United States including New York, Washington, DC, and Boston. 
Additional aircraft were scrambled over cities in Canada. The aircraft 
were dispatched as a prudent measure and in anticipation of a potential 
terrorist attack; they were airborne within minutes of the incident and 
remained airborne until it was determined the incident was in fact an 
accident. The quick reaction demonstrated NORAD's capability and 
preparedness to coordinate a swift, elevated, and large-scale defensive 
and deterrent posture.
Northern Sovereignty Operations
    On September 28, fighters from Alaskan NORAD Region and Canadian 
NORAD Region were launched in response to Russian aircraft that 
penetrated North America's Air Defense Identification Zone. While the 
Russian air assets at no time violated U.S. or Canadian airspace, NORAD 
integrated air defense assets in and around Alaska and Canada were able 
to detect, intercept and identify a number of Russian Tu-95 Bear heavy 
bombers participating in an annual Russian air force exercise near the 
coasts of Alaska and Canada. This operation demonstrated our continued 
vigilance and readiness to defend North American air sovereignty.
                  defense support of civil authorities
    In addition to homeland defense, NORTHCOM has a second core mission 
to support civil authorities with military capabilities that can 
rapidly stabilize and improve the situation in the wake of a 
catastrophic event. The NORTHCOM support is in addition to the U.S. 
Army Corps of Engineers response in their role as the DOD lead for 
Emergency Support Function #3, Public Works and Engineering, which is 
executed independent of NORTHCOM control.
    NORTHCOM provides defense support of civil authorities primarily 
through our subordinate commands: Joint Task Force Civil Support at 
Fort Monroe, VA; Joint Force Headquarters National Capital Region at 
Fort McNair, Washington DC; Joint Task Force Alaska at Elmendorf Air 
Force Base, AK; and Joint Task Force North (JTF-N) at Fort Bliss, TX. 
In addition, the Army, Air Force and Marine Corps have established 
dedicated Service Components for NORTHCOM. These commands are: U.S. 
Army North located at Fort Sam Houston, TX; U.S. Air Force North 
located at Tyndall Air Force Base, FL, and U.S. Marine Forces North 
located in New Orleans, LA. The Commander, Fleet Forces Command, 
located at Naval Station Norfolk, VA, is designated as the Navy's 
Supporting Commander to NORTHCOM.
    At the direction of the President or Secretary of Defense, NORTHCOM 
supports primary response agencies as part of a comprehensive national 
response to manage the consequences of an attack or a natural disaster, 
to include a pandemic. Civil authorities are most likely to request our 
support to draw upon unique military capabilities or to augment 
civilian responders. Our ability to respond rapidly with the full range 
of military capabilities to these requests can be critical in saving 
lives, minimizing human suffering, and preserving infrastructure.
    Successful and timely response includes anticipating and planning 
for various types of requests that may arise in order to posture 
appropriate military capabilities. As a lesson learned from Hurricane 
Katrina, Defense Coordinating Officers and their supporting elements 
have been positioned in each of the 10 Federal Emergency Management 
Agency (FEMA) regions. The Defense Coordinating Officers act as 
military liaisons to increase full-time coordination with State 
governments and the Adjutants General regarding disaster response 
planning and to facilitate the ``Request For Assistance'' process 
following a disaster. These Defense Coordinating Officers and their 
support staff fall under U.S. Army North, a dedicated Army Service 
Component Command under the operational control of NORTHCOM, which 
achieved full operational capability in October 2006.
    In an effort to close the response gaps identified in the wake of 
Hurricane Katrina, NORTHCOM undertook several efforts to improve 
defense support of civil authorities. NORTHCOM deployed military 
planners to work hand in hand with the FEMA--assisting FEMA's stand up 
of their Operational Planning Unit, a group intended to provide FEMA 
with a robust crisis planning capability for future disasters. Also 
last year, NORTHCOM military planners deployed to the Gulf Coast 
Recovery Office in Baton Rouge, LA, and assisted the interagency effort 
in developing disaster preparedness plans in collaboration with State 
and local agencies of the Gulf Coast Region. Working with local, State, 
and Federal participants and in accordance with DOD's direction, 
NORTHCOM demonstrated unique military capabilities to provide 
situational awareness to senior leaders in Washington, DC, and at 
NORTHCOM, as well as local first responders--a vital capability that 
provides disaster survey information quickly to decision makers and 
first responders. NORTHCOM also developed several prescripted mission 
assignments that expedite the response of military personnel and 
supplies immediately after a disaster occurs.
National Guard
    Over the past year, we have actively collaborated with the National 
Guard Bureau to improve communications, operational synchronization, 
and training. Programs such as the Joint Continental United States 
Communication Support Environment, which provides a comprehensive 
strategy for domestic military interoperable communications and 
information sharing, 24/7 connectivity to the National Guard Bureau 
Joint Operations Center, and hosting the Joint Task Force Commanders' 
Course at the NORTHCOM headquarters improve our ability to seamlessly 
work together.
Pandemic Influenza
    In August 2006, we completed our plan for addressing pandemic 
influenza and were tasked by the Secretary of Defense to be both the 
supported commander for pandemic influenza and the DOD lead for 
directing, planning, and synchronizing the DOD's global response to a 
pandemic. NORTHCOM has established a joint pandemic influenza team to 
carry out this critical mission and we have made pandemic influenza 
planning a top priority for 2007.
                  support to law enforcement agencies
    Support to law enforcement is an important element in NORTHCOM's 
and NORAD's mission to deter, detect, prevent, and defeat threats to 
the Homeland, because of its direct applicability to the global war on 
terror. Transnational threats include international terrorism, 
narcotics trafficking, and proliferation of weapons of mass 
destruction. Federal laws and policies allow us to support law 
enforcement agencies by conducting operations to deter and prevent 
transnational threats. We further assist law enforcement agencies in 
their counterdrug mission. NORTHCOM provides support to law enforcement 
agencies primarily through our subordinate command, Joint Task Force 
North at Fort Bliss, TX. Terrorists have used smuggling networks and 
money laundering to achieve their goals and fund their activities. As 
we support law enforcement agencies in the fight against drugs, we also 
focus our efforts on terrorist organizations with a nexus to drug 
trafficking. We support the global war on terrorism at home by 
providing unique military capabilities to support civilian law 
enforcement agencies.
Operation Gulfview
    This year, we expanded the role of NORTHCOM's subordinate command, 
JTF-N, to include integrative support to multiple law enforcement 
agencies with a focus on coastal border operations. In support of the 
U.S. Border Patrol's Rio Grande Valley Sector, JTF-N planned and 
facilitated Operation Gulfview from February to March 2006. Designed to 
support and improve law enforcement interdiction of transnational 
threats in the maritime domain along the Southeastern Texas Coastal 
area of the Padre Island National Seashore, this multi-sensor, multi-
agency operation expanded to include the contiguous land border within 
Rio Grande Valley sector's border domain. This mission employed a DOD-
funded coastal defense system designed to provide a command, control, 
intelligence, surveillance and reconnaissance node capable of fusing 
multi-sensor, multi-source information into a common operational 
picture. In conjunction with this system, various title 10 and title 32 
assets provided a multi-layered detection and monitoring environment 
designed to maximize law enforcement interdiction assets. This 
operation validated emerging maritime surveillance technologies, 
explored JTF-N capabilities in the maritime domain, opened lines of 
communication, and established productive relationships among the 29 
interagency participants.
Operation Outlook
    In June 2006, JTF-N participated in Operation Outlook, which 
involved multi-sensor DOD support to the U.S. Border Patrol's Spokane 
Sector and other Federal law enforcement agencies and interagency 
partners combining title 10 and multi-state title 32 military forces. 
Washington Air National Guard Counterdrug Task Force Title 32 forces 
provided detection support. Title 10 forces, under the command of JTF-
N, provided ground-based, mobile ground-to-air sentinel radars. DOD 
assets were used to increase detection of low-flying helicopters and 
ground smuggling conveyances for transporting contraband between the 
U.S. and Canada.
Operation Key Watch Alpha and Able Venture
    Key Watch Alpha occurred from May to July 2006 in support of the 
U.S. Border Patrol's Miami Sector. For the first time, JTF-N worked 
closely with the U.S. Coast Guard's District Seven Headquarters as a 
parallel lead Federal agency and once again employed a multi-layered 
detection, assessment, and awareness approach. Operation Keywatch Alpha 
incorporated multiple assets, both title 10 and title 32, in an effort 
to enhance law enforcement agencies' interdiction of smuggling 
activities along the Florida Keys and the Florida mainland approaches. 
JTF-N will continue to provide support in the maritime domain and 
recently concluded Operation Able Venture, a first-ever integrated 
mission in support of the U.S. Coast Guard in San Diego. These missions 
validate the need for monitoring of the approaches to, and enforcement 
of, our Nation's coastal borders and are planned to continue in 2007.
Operation Jump Start
    Along the southern border, NORTHCOM and JTF-N have worked closely 
with the National Guard Bureau and the U.S. Border Patrol to ensure 
deconfliction with Operation Jump Start, which provides title 32 
support to the U.S. Border Patrol along the entire 2,000 mile border 
with Mexico. In a separate but parallel effort, JTF-N conducted 
numerous engineer support missions, primarily in Arizona and New 
Mexico, to construct barrier obstacles that restrict smuggling 
activities and roads in support of law enforcement agency effort. We 
will remain engaged with the National Guard Bureau and U.S. Border 
Patrol throughout Operation Jump Start and, where viable, will continue 
to support as requested by law enforcement agencies along the southern 
border.
Tunnel Detection
    Applying DOD and Intelligence Community technology and intelligence 
analysis in support of U.S. Customs and Border Protection, JTF-N 
supported the detection of four tunnels on the southwest border with 
Mexico. In conjunction with its homeland security and Intelligence 
Community partners, JTF-N continues its support of tunnel detection 
efforts along the U.S. borders. In September 2006, JTF-N co-hosted an 
interagency tunnel conference with U.S. Customs and Border Protection 
to enhance knowledge of tunnel detection technologies.
Unmanned Aircraft Systems Operation
    Through JTF-N, unmanned aircraft systems were employed, operating 
solely in restricted military airspace, along the southwest border in 
support of U.S. Customs and Border Protection. NORTHCOM is engaged with 
the Federal Aviation Administration to develop airspace procedures for 
unmanned aircraft systems to operate in the National Airspace System 
outside of full-time military restricted airspace to provide support to 
border control lead agencies and disaster response operations. While 
this is a complex issue, we remain confident that unmanned aircraft 
systems will be granted access to the National Airspace System in the 
near future to increase our ability to safely conduct critical homeland 
security operations and law enforcement support.
                        interagency coordination
    Lessons learned from conflicts such as the first Gulf War and the 
Balkans indicated an increasing need for coordination between the 
military services as well as with other Federal Government agencies. 
The attacks on September 11 and the resulting war on terrorism 
highlighted the need for military activities to be more closely tied to 
diplomatic, law enforcement, and intelligence sharing activities. In 
October 2001, the Secretary of Defense directed combatant commanders to 
integrate and synchronize activities of multiple civilian, State, and 
Federal Government agencies and departments under a Joint Interagency 
Coordination Group (JIACG). The JIACGs were made a permanent part of 
each combatant commander's staff. They facilitate two-way coordination 
and communication between military and civilian operations in each 
combatant command's area of responsibility.
    At NORTHCOM, we oversee an active JIACG composed of every element 
across the NORTHCOM and NORAD staff and more than 60 resident or local 
representatives from DOD and non-DOD agencies. The JIACG meets as a 
broad corporate entity one to two times per month on topics pertaining 
to homeland defense and defense support of civil authorities. Our 
JIACG, combined with myriad interactions with Federal agencies, 
National Guard, State and local first responders, and countless local 
and private associates, contributes to information and knowledge 
sharing and to a collaborative approach to operations in our Homeland.
    Interagency operations are the next frontier of jointness and one 
that the United States should continue to foster. We continually add to 
our capable team of partners at NORTHCOM and are optimizing 
collaborative relationship building to achieve our Nation's homeland 
defense and security imperatives.
    Interagency coordination permeates all of NORTHCOM's and NORAD's 
activities. We harness the power of the JIACG to help us craft 
realistic, collaborative, and workable plans and we provide the right 
support, at the right time, in concert with the right partners--always 
respecting the authorities of those States and agencies that we have 
been charged to assist through our operation.
    In this complex interagency environment, we must also identify and 
transition meaningful technology that will strengthen homeland security 
efforts. Deliberative engagement is required across all levels of 
government and the private sector to support technology which enhances 
homeland defense and security capabilities. The acquisition and 
implementation of standards-driven, effective technological networks 
will be a catalyst to the development and sustainment of critical human 
networks required to build our capacity along with those of our 
national and international partners.
                      interoperable communications
    During 2006, NORTHCOM made significant strides in increasing 
communications interoperability and improving communications planning 
and response with our numerous mission partners, while posturing our 
subordinate and supporting commands with rapidly deployable 
communications equipment for use during contingency operations.
    During the Defense Interoperability Communications Exercise in 
March 2006, NORTHCOM hosted 17 communications teams representing 
various DOD, National Guard, Coast Guard, FEMA, and local first 
responder organizations. To further increase interoperability, the 
command also published an equipment technical standards document in 
2006. This document recommends the technical standards that units and 
mission partners should adhere to when procuring new communications 
equipment.
    Response operations in the wake of the 2005 devastating hurricane 
season revealed a number of important lessons--the most critical of 
these was our Nation's requirement for efficient and effective 
communications.
    The results of the National Baseline Assessment conducted by the 
SAFECOM Program, an entity within the DHS Office for Interoperability 
and Compatibility, show that most agencies have developed, at the very 
least, a minimum technological capability to achieve tactical 
interoperable communications. However, each urban/metropolitan area has 
incorporated different technology solutions because achieving 
interoperability is dependent on the specific types of communications 
equipment and infrastructures each agency has procured and currently 
employs. Therefore, a voice communications solution that would be 
considered ideal in one area could be unsuited for another. Currently, 
there is a shortage of pre-incident communications planning and 
coordination among State and local governments that impedes 
collaboration, sharing of critical information, and the ability of the 
Federal Government and NORTHCOM to support State and local response 
efforts effectively.
    To address communications shortfalls discovered during Hurricane 
Katrina, NORTHCOM procured and employed interoperable communications 
packages that are ideally suited to our homeland defense and defense 
support of civil authorities mission sets. During exercise periods, we 
procured and employed several deployable, cellular-based communications 
suites that provide an autonomous infrastructure to extend 
communications connectivity in the NORTHCOM area of responsibility. We 
also procured three Incident Awareness and Assessment/Full Motion Video 
communications suites to augment or replace capabilities required 
during emergency response operations.
                      theater security cooperation
    NORTHCOM Theater Security Cooperation activities contribute to the 
Secretary of Defense's Security Cooperation Guidance's top priority to 
build the capacities of allies and partners to help win the global war 
on terror by enhancing coordination with our continental neighbors, 
Canada and Mexico. American Servicemembers' Protection Act sanctions 
not only prohibited equipment transfers, but encouraged Mexico to 
consider military purchases from other countries and the continuing 
restrictions on Foreign Military Financing and the Excess Defense 
Articles grant programs for Mexico dampens our ability to effectively 
counter transnational terrorism and narcotics threats. Lifting these 
restrictions will have a significant impact on our homeland defense 
efforts with our southern neighbor.
                               conclusion
    NORTHCOM and NORAD are part of a binational and interagency team 
dedicated to strengthening the security and defense of North America. 
We have finalized our homeland defense and civil support plans and are 
now looking at ways to improve continental defense. The continued 
evolution of the commands is critical to our ability to provide a 
flexible, adaptable, and scaleable response to modern threats. NORTHCOM 
and NORAD have synchronized our existing plans, directives, and major 
operations; established intelligence priorities; and prioritized other 
resources in pursuit of designated strategic objectives with regard to 
the global war on terror. Activities and operations directed by 
NORTHCOM complement and support the United States Government-led 
international effort to deny terrorist networks what they need to 
operate and survive. NORTHCOM and NORAD contribute to the overarching 
national goals of countering ideological support for the enemy, 
disrupting and attacking the enemy, and protecting the American 
Homeland.
    Responsibility for protecting North America is divided among 
Federal, State, tribal, and local governments. NORTHCOM and NORAD 
coordinate closely with other government agencies to achieve integrated 
plans and operations. NORTHCOM is maximizing cooperation with Canada 
and Mexico and thus enabling them to counter terrorism through 
bilateral partnerships. Additionally, we look beyond the established 
NORTHCOM area of responsibility in coordination with U.S. Special 
Operations Command and the other regional combatant commands to 
institute a synchronized DOD global approach to disrupt transnational 
terrorists through continuous collaboration and a rigorous program of 
exercises to enhance our ability to conduct homeland defense 
operations.
    The core capability to accomplish our missions resides in our 
people. We must continue to ensure their welfare and that of their 
families. We are grateful to Congress for the support that it provides 
our soldiers, sailors, airmen, marines, coastguardsmen, and their 
families, in their efforts to defend our Nation at home and abroad. 
Increases in pay and benefits, such as military housing upgrades, 
medical care improvements, and other quality of life enhancements, are 
clear indicators of the extent to which Congress values our 
servicemembers. The men and women of NORTHCOM and NORAD are dedicated 
to defending the United States and Canadian homelands against all 
threats. I am privileged to be a part of this outstanding team.

    Chairman Levin. Thank you, Admiral.
    General Smith?

   STATEMENT OF GEN. LANCE L. SMITH, USAF, COMMANDER, UNITED 
STATES JOINT FORCES COMMAND/NORTH ATLANTIC TREATY ORGANIZATION 
          SUPREME ALLIED COMMANDER FOR TRANSFORMATION

    General Smith. Good morning, Mr. Chairman, and 
distinguished members of the committee. I really am honored to 
be able to testify today and talk about the role that JFCOM 
pursues on a daily basis as we work towards fighting the global 
war on terror, providing trained and ready conventional forces 
to the combatant commanders, as well as joint enabling 
capabilities to those commanders, and at the same time, attempt 
to lead the transformation effort of the DOD.
    It's also an honor to share this opportunity with my 
friends, Admiral Tim Keating and Admiral Jim Stavridis. I would 
normally have my closest advisor and senior enlisted member of 
JFCOM, Sergeant Major Mark Ripka, but he's in Jordan today, 
looking at the cultural awareness training that our forces are 
getting before they go in there.
    I do have a prepared statement that I would like to submit 
for the record, and with your permission, I'll make a few 
statements, and then get to the questions.
    Chairman Levin. Thank you, it will be made part of the 
record.
    General Smith. Our message today is that the ability of our 
military to operate as an integrated, joint force matters. 
Whether our Armed Forces are engaged overseas, employed to 
defend the Homeland, or sent to assist natural disasters, we 
fight and operate as a joint team.
    This is because the range and complexity of operations 
today, and the requirement to coordinate with disparate 
organizations, make it absolutely essential that we have the 
right joint enabling capabilities, the right level of joint 
training and education, and the right level of joint skills and 
leadership.
    I should make it clear, when I use the term ``joint'' I'm 
referring to it in the very broadest terms. That's the ability 
to seamlessly integrate the capabilities of our separate 
services, other government agencies, allies, coalition 
partners, multi-national organizations, and other 
nongovernmental organizations. Simply stated, at JFCOM, we 
supply joint-capable forces for the combatant commanders' use.
    These forces come from the 1.16 million Active-Duty 
National Guard and Reserve soldiers, sailors, airmen, and 
marines from our headquarters and our component commands, our 
combat command, fleet forces command, Army forces command, and 
Marine forces command.
    We've witnessed a significant shift in the way our forces 
organize and prepare to conduct joint operations. For instance, 
almost all of our deployed forces today are organized as joint 
task forces while they're in the Service-pure entities.
    The reasons are clear--we can generate more power to create 
the effects we want, by the integration of our many 
capabilities and those from the interagencies and coalition 
members that we work with, than any one Service can produce 
alone.
    Our training methods and infrastructure have likewise 
undergone a quiet, but significant transformation. With our 
joint national training capability, we now have the ability to 
reach out and train the staffs of combatant commands and joint 
task forces anywhere around the world, without having to deploy 
to a common location.
    In the United States we have 72 different training sites 
across the country, that connect all of the Services in a 
common training network. This allows us to leverage over 20 
service training programs to identify joint training 
shortfalls, as well as to add a common joint context, and 
provide operational and tactical level joint training.
    In the same vein, JFCOM is currently coordinated with the 
National Defense University, United States Army, and the North 
Atlantic Treaty Organization (NATO) fleet over in Oberammergau, 
Germany, to support joint training requirements for the civil 
military Provincial Reconstruction Teams (PRTs), prior to their 
deployments into Afghanistan and Iraq. We're also engaged with 
the Foreign Service Institute at the Department of State (DOS) 
to do the same thing.
    We possess a world-class center of excellence for joint 
innovation and experimentation, as well as a Joint Systems 
Integration Command for the DOD and we've built a powerful 
federation of partners from the Services, interagencies, multi-
national partners, and members from academia and industry to 
participate in the concept development and experimentation for 
the joint community.
    Today, we have the ability not only to peer into the future 
security environment, and to anticipate what the requirements 
might be, but also the partnership base, and integration know-
how to quickly turn our collective future concepts into real 
capabilities today, by pulling those experiments and those 
capabilities forward.
    These joint experiments and wargames are also intricately 
designed to support the needs of combatant commands like 
NORTHCOM and SOUTHCOM. For instance, next month, JFCOM will 
support NORTHCOM in their homeland defense mission, while 
conducting an experiment called Noble Resolve.
    That experiment logs in, among other things, the ability of 
the military to operate with Federal, State, and local 
governments as a joint team in responding to a series of crises 
on the homefront.
    In summary, jointness is real and powerful. It's about 
creating a culture of innovation and adaptiveness across the 
force. It's about delivering products that resolve common 
challenges. Without a new culture that employs integrated 
products, we won't get beyond the old way of doing business. 
Those were the days when our capabilities couldn't talk to one 
another, and interdependence was impossible. Our ability to 
generate integrated effects across the battlespace was 
difficult at best.
    We couldn't get away from this in the past, but in this 
era, where our adversaries are extremely adaptive and 
technologically and asymmetrically savvy, we can't afford to 
operate like we did. The challenge is real, and I invite each 
of you to visit JFCOM and our NATO Command, Allied Command 
Transformation Headquarters in Norfolk.
    Thank you, Mr. Chairman, I look forward to your questions.
    [The prepared statement of General Smith follows:]
              Prepared Statement by Gen. Lance Smith, USAF
    The efforts of United States Joint Forces Command (JFCOM) are 
focused on providing forces and capabilities to help win the war today, 
while preparing forces for the challenges of tomorrow. Our current 
enemy in the war on terror is adaptive, elusive, and determined to win 
at all costs. Defeating such a broad and decentralized terrorist 
network requires innovation and agility. The capabilities of tomorrow's 
enemy are less clear. We don't know if it will be a peer competitor, a 
nation-state, or a transnational organization, but we can be assured 
that we will still need a trained and ready force capable of fighting 
and winning in any environment.
    I am very pleased to be able to share the accomplishments of JFCOM 
with the committee. As a command we work hard to ensure our 1.16 
million Active-Duty, National Guard, and Reserve soldiers, sailors, 
airmen, marines, and civilians can operate seamlessly and 
interdependently with each other and with our interagency and 
multinational partners, maximizing all instruments of national power to 
fight and win.
    JFCOM is uniquely structured to provide Joint Force Commanders with 
timely, relevant enabling capabilities, including trained and ready 
joint forces, capable of integrated operations with governmental 
agencies, multinational partners and nongovernmental organizations. Our 
over 5,350 headquarters personnel--a blend of military from every 
branch of the Service, Reserves, and National Guard, along with 
government civilians and contractors--bring a combined expertise that 
is unique among military and civilian organizations. Their pride and 
professionalism is the key to JFCOM's success.
    Working towards meeting both the needs of today and the challenges 
of tomorrow defines the mission of JFCOM:
    To provide mission ready joint capable forces and support the 
development and integration of joint, interagency, and multinational 
capabilities to meet the present and future operational needs of the 
Joint Force.
    With a renewed focus on the joint warfighter, 2006 was highlighted 
by great partnerships with the combatant commanders, the Services, 
Federal agencies, academia and industry, and our components: Air Combat 
Command, Marine Forces Command, Fleet Forces Command, and Army Forces 
Command. We provide:

        <bullet> Multiple deployments of Standing Joint Force 
        Headquarters and other assets in support of operational needs 
        of the combatant commanders from Pakistan to Qatar and beyond.
        <bullet> Continuous robust and tailored tactical communications 
        support to conventional and Special Operations Forces in Iraq 
        and Afghanistan by the Joint Communications Support Element 
        (JCSE).
        <bullet> The first time deployment of JCSE's U.S. Central 
        Command (CENTCOM) C3 Quick Reaction Force to provide 
        communications support for noncombatant evacuation operations 
        in Lebanon
        <bullet> Preparation of joint warfighters for operational 
        missions, through 6 Mission Rehearsal Exercises and 16 
        combatant commander training events, conducting more than 70 
        collective joint training events involving more than 46,000 
        participants
        <bullet> Realistic training for commanders and staffs of Joint 
        Task Force Horn of Africa, Multinational Force-Iraq, 
        Multinational Corps-Iraq, and Combined Joint Task Force 76 in 
        Afghanistan
        <bullet> Significant expansion of joint distance learning tools 
        such as the Joint Knowledge Development and Distribution 
        Capability
        <bullet> Enabling technology for all major Service training 
        centers and combatant commanders to train together in a 
        distributed environment through the Joint National Training 
        Capability
        <bullet> Dedicated assessment teams to Iraq and Afghanistan to 
        identify areas for improved command and control of U.S. and 
        multinational forces
        <bullet> Sourcing recommendations and coordinated the 
        deployment of more than 310,000 personnel in support of 
        combatant commanders
        <bullet> The stand up of the Joint Command and Control 
        Capability Portfolio Manager capabilities function to deliver 
        integrated joint command and control capabilities, improve 
        interoperability and increase joint operational effectiveness
        <bullet> Leadership for Multinational Experiment (MNE) 4, with 
        participants from eight nations and the North Atlantic Treaty 
        Organization (NATO)
        <bullet> Advanced terrain analysis prototype software 
        (Geospatial Analysis and Planning Support (GAPS)) to meet the 
        warfighter requirements for rapid route analysis and 
        identification, sensor planning and placement and counter fire 
        systems planning and placement.
        <bullet> Development of timely products such as the HARMONIEWeb 
        Interagency collaborative tool and the Counter Improvised 
        Explosive Device Knowledge and Information Fusion Exchange 
        (KnIFE)
                           core competencies
    JFCOM's five core competencies--unique mission areas--form the 
nucleus of the command's day-to-day operations.
Joint Force Provider
    As the conventional Joint Force Provider, JFCOM provides trained 
and capable forces to commanders in the field. This entails identifying 
and recommending global joint sourcing solutions in coordination with 
both the Services and combatant commanders.
Joint Force Trainer
    As the lead Joint Force Trainer, JFCOM conducts and assesses joint 
and multinational training and exercises for assigned forces, and 
assists the chairman and other combatant commanders and Service Chiefs 
in their preparations for joint and combined operations.
Joint Force Integrator
    As the lead Joint Integrator for all of the Department of Defense's 
(DOD) uniformed components, JFCOM is responsible for recommending 
changes in doctrine, organization, training, material, leadership, 
personnel, and facilities to integrate Service, defense agency, and 
interagency and multinational capabilities. Efforts range from 
integrating the disparate systems and processes that exist today, to 
ensuring that the systems and processes of tomorrow are ``born joint.''
Joint Innovation & Experimentation
    As the DOD lead for concept development and experimentation, JFCOM 
leads the development, exploration and assessment of new joint 
concepts, organizational structures and emerging technologies. This 
includes operational concepts involving multinational and interagency 
transformation efforts.
Joint Force Enabler
    As a joint enabling capabilities provider to commanders in the 
field, JFCOM provides joint enabling capabilities that streamline the 
rapid formation and organization of a Joint Task Force (JTF) 
Headquarters. These include command and control capability, augmenting 
the headquarters with rapidly deployable critical skills support, and 
providing reach-back support as required.
                            strategic goals
    The command's strategic goals are focused on helping the joint 
warfighters of today in their efforts to win the war on terror, while 
working to transform the force to meet the threats and challenges of 
tomorrow. These strategic goals guide the application of JFCOM's core 
competencies.
Provide Focused JFCOM Support to Win the War on Terror
    JFCOM provides combatant commanders enhanced joint enabling 
capabilities for defeating violent extremism and building a security 
environment that is inhospitable to terrorist threats. These 
capabilities were provided to some 24 separate JTFs throughout the 
globe in 2006 with even greater requirements in 2007. We will continue 
to integrate our actions with U.S. agencies and international partners 
to achieve a common purpose.
    JFCOM has established several joint enabling capabilities to 
complement service headquarters trained or designated to serve as JTF 
Headquarters. These capabilities provide unique, mission ready support 
to joint force commanders to aid in the accelerated formation and 
increased effectiveness of their headquarters.
    The more significant joint enabling capabilities are:

        <bullet> Standing Joint Force Headquarters Core Element (SJFHQ 
        (CE))
        <bullet> JCSE
        <bullet> Intelligence Quick Reaction Team (QRT) [resourced from 
        Joint Transformation Command-Intelligence (JTC-I)
        <bullet> Joint Public Affairs Support Element (JPASE)

    The mission of the SJFHQ(CE) is to accelerate the transition of a 
Service component headquarters to a JTF headquarters. These core 
elements, ready to deploy worldwide on short notice, are capable of 
providing initial joint planning and operations within a collaborative 
environment to access information from global locations. Each core 
element's personnel and equipment can be tailored for a specific 
mission to support joint/combined planning, operations, knowledge 
management and information superiority.
    The JCSE provides simultaneous communications support for two JTF 
Headquarters and two Joint Special Operations Task Force (JSOTF) 
Headquarters within 72 hours of notification. JCSE also provides 
contingency and crisis communications to meet operational and support 
needs of the Joint Chiefs of Staff, Unified Commands, Services, defense 
agencies, and non-defense agencies. These assets, alert-postured and 
globally deployable, provide en-route and early entry command, control, 
computers, and communications to combatant commanders.
    The Joint Transformation Command-Intelligence (JTC-I) resourced 
Intelligence Quick Reaction Teams (QRT) provide military and civilian 
intelligence professionals with targeting and collection management 
expertise to a JTF within 24 hours of notification, or during events 
leading up to crisis/contingency operations.
    The Joint Public Affairs Support Element (JPASE) provides dedicated 
and sustained joint public affairs capability on a scalable and 
expeditionary basis to support JTFs worldwide. The JPASE is also the 
joint public affairs defense-wide proponent.
    In the last 2 years, these elements supported operations in 
numerous locations including the U.S. Gulf Coast, Iraq, Afghanistan, 
Qatar, Horn of Africa, Lebanon, and Pakistan, in support of the war on 
terror, disaster relief, and noncombatant evacuations.
    JFCOM searches for opportunities to develop new joint enabling 
capabilities that can accelerate the establishment and immediate 
effectiveness of JTF headquarters and related joint organizations. 
Joint enabling capabilities are integrated into JTF headquarters 
training and exercises to increase proficiency for future operations 
and doctrine changes.
    A key JFCOM capability supporting the war on terrorism is the Joint 
Warfare Analysis Center (JWAC). This center develops and adapts 
modeling and simulation technologies for analysis, computation and the 
presentation of options to combatant commands. JWAC's support to the 
warfighter in Iraq and Afghanistan in 2006 was substantial, and will be 
again in 2007.
Deliver Trained, Capable, and Interoperable Joint Forces
    JFCOM provides forces that meet combatant commanders' requirements 
for trained and interdependent forces capable of adaptively operating 
in a joint, interagency, multinational, and coalition environment. 
JFCOM supports:

        <bullet> the continued improvement of the joint staffs and 
        operating forces that are currently deployed
        <bullet> provision of timely and tailored joint training 
        standards for tasks that are jointly executed
        <bullet> creation of a collaborative environment that, in real 
        time, routinely makes use of lessons learned and best practices
        <bullet> reduction of solution cycle time to develop relevant, 
        accessible, and value-added training capabilities to the joint 
        warfighter

    JFCOM achieves these goals through timely and realistic joint 
training support at the operational level to combatant commanders, 
Services, and interagency/multinational partners. Each year JFCOM 
coordinates and supports commanders through more than 70 collective 
joint training events involving 46,000 training participants, and 
individual joint training for more than 26,000 people. In addition, 
JFCOM, through the Joint National Training Capability (JNTC), supports 
training for accredited service and combatant command training 
programs. This support extends to all Army, Air Force, Marine Corps, 
and Navy pre-deployment training environments by providing a joint 
training environment for their mission rehearsal events.
    The Joint National Training Capability uses a mix of live, virtual, 
and constructive simulations. Key to this capability is the Joint 
Training and Experimentation Network (JTEN), a 32 node persistent 
global network to deliver realistic joint training to the warfighter at 
72 sites across the Continental United States and abroad. JTEN provides 
connectivity with the Navy Cooperative Training Environment (NCTE), the 
Air Force Distributed Mission Operations Network, and Office of 
Secretary of Defense's (OSD) Secret-Defense Research and Engineering 
Network, and will soon be connected with multinational partner training 
and experimentation networks. Connecting the JTEN and the NCTE enabled 
the delivery of Joint training during the Terminal Fury 07 Exercise to 
3 countries, 14 States, across 19 time zones with 24 federated 
simulation systems.
    JFCOM uses this capability to conduct and support training for 
combatant commands, JTFs, functional component battle staffs, and 
Service selected tactical units worldwide, as well as leveraging 20+ 
Service training programs through an accreditation and certification 
process that identifies joint training shortfalls, to add joint context 
and provide operational and tactical level joint training. In addition, 
JFCOM is currently coordinating with the National Defense University, 
the U.S. Army, and the NATO School to support joint training 
requirements for the Provisional Reconstruction Teams (PRT) Training 
prior to deployments to Afghanistan and Iraq.
    In 2006, JFCOM prepared warfighters through 6 Mission Rehearsal 
Exercises, 16 combatant commander events, and 69 JNTC-enabled Service 
training events through the use of 43 joint trainer support elements 
forward deployed to 20 combatant command and Service training sites.
    JFCOM significantly enhanced mission rehearsal exercises for 
Operation ENDURING FREEDOM with an unprecedented headquarters training 
exercise, in which NATO's International Security Assistance Force 
Afghanistan and a U.S. Regional Command (82d Airborne Division HQ) 
trained together in the same exercise. Headquarters personnel from the 
Afghan National Security Forces, Afghan National Army, Pakistani Army, 
and the U.S. Embassy in Kabul also participated and achieved a 
significant level of multinational realism from both exercise and 
operational environments.
    In conjunction with these training events, the Joint Knowledge 
Development and Distribution Capability (JKDDC) provides online 
training for individual augmentees and headquarters staff members. It 
is an adaptable and world class learning management system used by the 
warfighter, coalition forces, and Reserves for initial and continuous 
training in JTF Headquarters. By April of this year, JKDDC will offer 
over 85 courses (700 hours of instruction) in a variety of subjects to 
include headquarters operations, interagency, and culturally related 
topics through a dynamic global network.
    JFCOM also executes its responsibilities to transform senior 
military leadership development and education by bringing joint 
training and professional military education together, ensuring 
military, coalition, and interagency leaders are prepared to operate 
cohesively in joint operations. The command hosts portions of three 
courses sponsored by JFCOM and the National Defense University:

        <bullet> Keystone joint operations module for command senior 
        enlisted leaders (91 participants in fiscal year 2006)
        <bullet> Capstone joint operations module for newly selected 
        flag and general officers (171 fellows participated in fiscal 
        year 2006)
        <bullet> Pinnacle course for two- and three-star commanders 
        focusing on JTF Commander training (57 participants in fiscal 
        year 2006)

    Additionally, JFCOM oversees specialized training provided by:

        <bullet> Standing Joint Force Headquarters
        <bullet> Special Operations Command-Joint Forces Command
        <bullet> Joint Transformation Command-Intelligence (JTC-I)
        <bullet> Joint Targeting School
        <bullet> Joint Public Affairs Support Element
        <bullet> Joint Deployment Training Center
        <bullet> Joint Personnel Recovery Agency
        <bullet> JTC-I Quick Response Teams

    JFCOM supports the Combatant Commander's Exercise Engagement and 
Training Transformation (CE2T2) program, which addresses joint 
warfighter training shortfalls by consolidating existing resources. 
This will benefit the largest audience and enable portfolio management 
for the Joint Training Program. The CE2T2 program is based on an 
extension of the Training Transformation (T2) business model that has 
become a catalyst for inter-Service coordination, and keeps programs on 
budget and on schedule while defraying costs of Service training 
programs. CE2T2 eliminates redundancy, and ensures resource alignment 
against validated needs.
Primary Joint Force Provider (Global Force Management)
    As the conventional Joint Force Provider (JFP), JFCOM provides DOD 
leadership with the necessary data and alternatives to make proactive, 
risk-informed force management and allocation decisions. JFCOM uses a 
process that identifies risks to execute combatant commander missions, 
forecast sourcing challenges to execute contingencies and project 
Reserve Component unit mobilization/availability. This requires global 
visibility on unit readiness as well as the ability to analyze force 
structure, capabilities, availability, location, and apportionment of 
those assets.
    JFCOM's objective is to source all rotational and emergent force 
requirements, including individual and ad-hoc force capabilities in 
collaboration with components, Services (both Active and Reserve) and 
combatant commands' input to achieve effective/efficient sourcing 
solutions. JFCOM also sources OSD prioritized JTF Headquarters and the 
individual augmentees identified to staff those JTF Headquarters, in 
coordination with the Joint Staff, combatant commands, and Service 
headquarters. In 2006, JFCOM developed sourcing recommendations and 
coordinated the deployment of more than 310,000 personnel in support of 
all combatant commanders.
    In addition, the expanding Joint Force Provider mission requires 
that JFCOM attain an automated capability to assess and monitor force 
capabilities, availability, location, readiness, and assignment, and to 
be able to track the status of units through the entire pre-deployment, 
deployment, redeployment, and reconstitution cycle for both the Active 
and Reserve components, down to an individual. This requirement is 
termed the Global Visibility Capability (GVC), for which the Defense 
Readiness Reporting System (DRRS) and other contributing technologies 
such as the Joint Event Scheduling System (JESS) and the Joint Force 
Projection Advanced Capability Technology Demonstration (JFP-ACTD) are 
currently being pursued and/or enhanced.
    JFCOM is spearheading the development and enforcement of policies 
that transform Global Force Management into a predictive, streamlined 
and integrated process supported by net-centric tools that expand total 
force visibility. This effort will enable effective and efficient 
sourcing of all rotational and emergent force requirements while 
simultaneously seeking to reduce, and ultimately eliminate, persistent 
force capability shortfalls (low density/high demand) and fully 
coordinating the availability of Active and Reserve Forces. This will 
allow earlier notification of forces that will be deployed, thus adding 
stability of their personal lives, predictability to their schedules, 
and greater opportunities for their training.
    In October 2006, JFCOM gained responsibility for assignment of 
individual augmentees to deployed units, a sourcing workload of 
approximately 10,000 joint positions annually for 55 JTF Headquarters 
worldwide. This is a new mission requirement of our force provider role 
which demands an efficient and effective process in order to ensure 
these individual augmentees arrive where they were needed in a timely 
manner, trained and ready to fight.
Develop Joint Capabilities and Interoperable Joint Command and Control 
        (JC2)
    As the Joint Capability Developer, JFCOM advances warfighter 
effectiveness, improves combat capability, and helps minimize 
fratricide by leading the combatant commands, Services, agencies, and 
multinational partners in the interdependent and integrated development 
and transition of Joint Warfighting Capabilities. In September 2006, 
the Deputy Secretary of Defense designated JFCOM to lead a trial 
program as the Joint Command and Control Capability Portfolio Manager 
(JC2 CPM). In this capacity, JFCOM has established a JC2 CPM capability 
function, characterized by short reporting lines, and close 
coordination with Service C2 programs. JFCOM, along with a multitude of 
partners, is working to establish the technical expertise and attendant 
authorities necessary to eliminate unnecessary duplication, close 
capability gaps, and ensure joint integrated capability solutions for 
the warfighter.
    A fully networked, interoperable, and interdependent joint force is 
essential to the achievement of successful military operations now and 
in the future. While we have come very far since the enactment of the 
Goldwater-Nichols legislation, we still have much work to do with 
achieving this vision for our Armed Forces. As we learned in Iraq, 
Afghanistan, and elsewhere, the lack of interoperability in command and 
control and other functions significantly reduces the effectiveness of 
our soldiers, sailors, airmen, and marines on the battlefield. Unique 
among combatant commands, JFCOM works the critical seams of joint 
warfighting, leading the migration of existing Service-based systems 
toward a single, integrated joint capability.
    JFCOM's goal is to develop operational level forces and 
headquarters with the organic ability to fight as part of a joint and 
combined force alongside our multinational and interagency partners. 
The command's integration efforts will yield a joint command and 
control capability that ensures decisionmakers receive information when 
they need it, allowing them to observe, orient, decide, adjust, and act 
faster than an adversary. Moreover, it will meet the pressing demands 
of today's battlefield by linking voice and data from global and 
national command centers to joint task force headquarters, between 
component commands, and on to the soldier, sailor, airman, marines, 
coalition partner, or governmental/nongovernmental agency over the last 
tactical mile.
    The goal is to create an ``Interoperable JC2 Environment'' that:

        <bullet> Ensures a JC2 capability ``Born Joint'' not ``Made 
        Joint'' on the battlefield, as was required for:

                <bullet> Blue Force Tracker
                <bullet> Joint Airborne Communications Suite
                <bullet> Joint Airborne Communications Center Command 
                Post (JACC/CP)

        <bullet> Provides a persistent test and evaluation environment 
        to assess aspects of command and control portfolio programs
        <bullet> Provides cross-program and enterprise-wide system 
        engineering
        <bullet> Recommends Program Objective Memorandum (POM) offsets 
        to ensure the ``jointness'' of Service and agency command and 
        control programs
        <bullet> Supports future JTF Headquarters

    The CPM will focus on the needs of the combatant commander to 
ensure proposed solutions contribute to joint command and control 
warfighting capabilities and that resources are distributed according 
to joint command and control priorities.
    As part of its CPM duties, JFCOM also serves as the operational 
proponent for the Net Enabled Command Capability (NECC), the web-based 
replacement for the stove-piped Global Command and Control (GCCS) 
family of systems. In this role, JFCOM partners with the combatant 
commands and Services to establish the warfighter requirements for the 
new command and control system and then ensures our acquisition 
partner, the Defense Information Systems Agency, delivers an 
interoperable capability that meets the warfighter's needs.
    Beyond its joint command and control duties, JFCOM also develops 
additional warfighting capabilities for the joint force. These 
capabilities include Joint Data Link software, precision targeting 
system, and machine to machine interfaces for passing that targeting 
information without relying on voice transmission. All of these 
capabilities are in use today.
    Since 2004, JFCOM's implementation of Limited Acquisition Authority 
(LAA) in support of the combatant commands has been used to fund/
provide several critical capabilities to the warfighter:

        <bullet> The Joint Precision Air Drop System in partnership 
        with U.S. Special Operations Command, currently employed in 
        theater (January 2006).
        <bullet> The Change Detection Work Station (CDWS), a Marine 
        Corps initiative, deployed to CENTCOM in January 2005.
        <bullet> The JTF Commander Executive Command and Control 
        Capability (JTF CDR EC2) delivered to CENTCOM/U.S. European 
        Command (EUCOM) Combined Joint Task Forces (CJTF) in fiscal 
        years 2004-2005.
        <bullet> Blue Force Situational Awareness, in partnership with 
        U.S. Strategic Command (STRATCOM), in Iraq today with Multi-
        National Force-West and currently being tested to support XVIII 
        Airborne Corps in their upcoming JTF role.

    Warfare is inherently difficult and dangerous. To be effective in 
the global war on terror, and to be more interoperable with coalition 
partners, we need better cultural and language tools. To help overcome 
the language barrier, JFCOM has partnered with the Defense Advanced 
Research Projects Agency (DARPA) to develop and provide over 1,000 
language translation devices for CENTCOM and others. These devices 
include over 950 one-way speech translation devices (Phrasealator and 
Voice Response Translators) and nearly 100 prototype two-way Speech-to-
Speech (English-Arabic) Translators.
    Our Collaborative Information Environment Management Office (CIEMO) 
is working with the Services, to include the Virginia Army National 
Guard, nongovernment organizations and other mission partners to 
further develop and employ Humanitarian Assistance Response for 
Multipartner Operations Network on Internet Enterprise (HARMONIEWeb). 
HARMONIEWeb, developed in the aftermath of Hurricane Katrina, affords 
the ability for mission partners outside of the U.S. Government to 
collaborate, share and better integrate information across the spectrum 
of support for Humanitarian Assistance and Disaster Relief operations.
    To reduce the danger of fratricide, JFCOM worked with the Services 
and the combatant commands to establish a common training standard for 
authorizing servicemembers to direct close air support fires to 
targets. Moreover, the command planned and executed a combat 
identification experiment with over 700 U.S. and coalition participants 
designed to assess the military utility of specific anti-fratricide 
technologies. This experiment was such a success and the results of 
sufficient rigor that the Army and Marines decided to purchase improved 
combat identification systems for use in the near future.
    Two additional subordinate commands that support the joint 
warfighter and facilitate the integration and interoperability effort 
are the Joint Fires Integration and Interoperability Team (JFIIT) and 
Joint Systems Integration Command (JSIC). JFIIT, located at Eglin Air 
Force Base, FL, conducts joint tactical testing and evaluation designed 
to improve the integration, interoperability, and operational 
effectiveness of joint fires and combat identification. JSIC, located 
in Suffolk, VA, is the battle laboratory for analyzing command and 
control systems integration and interoperability issues and works 
closely with the Joint Warfighting Center and the Joint Futures 
Laboratory.
Lead Continuous Effort to Transform the Joint Force
    JFCOM coordinates the transformational actions of the Services, 
other government agencies, and our international partners to improve 
our ability to conduct integrated planning, coordination, and execution 
of complex operations. Our goal is to identify and develop the joint 
capabilities that provide combatant commanders with the ability to 
operate continuously and effectively within any adversary's decision-
cycle, under any conditions, now and in the future.
    Transformation is a continuous process of innovation, 
experimentation and the transition of solution capabilities into the 
hands of the Nation's joint forces for today's fight and future 
engagements. The efforts of JFCOM are directed to ensure the Joint 
Force Commander is equipped with improved concepts and capabilities 
across the spectrum of operations, and will be better prepared to 
command. For example, JFCOM is engaged in providing near-term command 
and control solutions while working toward the force of the future that 
will:

        <bullet> Be more capable of working with joint, interagency, 
        and multinational partners
        <bullet> Be able to work in an environment that deeply 
        integrates planning, intelligence, and operations
        <bullet> Possess the tools and operational art required to 
        operate at the commanders' discretion,
        <bullet> Be rapidly deployable and efficiently sustainable
        <bullet> Be an enabled element within and contribute to a 
        synchronized strategic communication environment

    Transformation is about developing new concepts and capabilities 
together in a wider range of settings from the traditional laboratory 
experimentation to prototyping the emerging concepts and capabilities 
in the field. Much of our work is now informed by powerful federations 
of models and simulations run on supercomputers. This technological 
edge at the beginning of the development and experimentation process is 
a key enabler for producing what our primary customers, the combatant 
commanders, have told us they need to address today's realities and 
tomorrow's emerging challenges.
    Modeling and Simulation (M&S) provides the foundation for 
innovation and experimentation. Ongoing sophisticated M&S capabilities 
include the Joint Semi-Automated Forces (JSAF), a high fidelity 
multidimensional environment that can replicate real-world urban 
environments such as Baghdad or Norfolk. Matching the real-time 
fidelity of JSAF, but in a faster-than-real-time capacity, is the Joint 
Analysis System (JAS). JAS, a constructive simulation, facilitates 
analysis of actions and results of those actions in an entire joint 
campaign, from pre-deployment, to employment, and re-deployment of 
forces. This lets us be more effective and efficient before, during, 
and after operations. Another emerging model is the Synthetic 
Environment for Analysis and Simulation (SEAS). This tool models and 
simulates reactions of institutions, organizations, and individuals 
that make up a society and their effects on joint operations. We will 
soon be experimenting with this tool on the battlefield.
    JFCOM continues to leverage our affiliation with the Congressional 
M&S Caucus. For the last 2 years, the Hampton Roads area has hosted the 
Nation's leaders in M&S to highlight the importance of the industry. 
This provides a forum not only to share with industry and academia, but 
also to showcase M&S training initiatives of the military in a JTF 
environment, promote enhanced M&S capabilities, and understand the 
importance of such training to success on the battlefield. These 
conferences also provide a means to share with academia and industry, 
strategies to foster increased participation by college students in the 
math and science disciplines. This partnership with academia is a key 
area that we want to grow in 2007 and beyond.
    Recent experiments like the Urban Resolve experimentation series 
address the capability gaps our commanders now face. By focusing on the 
challenges of urban operations in 2015, the Urban Resolve series 
analyzes the effectiveness of current and future capabilities in 
demanding environments. Over 1,000 people, including representatives 
from the Services, DARPA, Defense Threat Reduction Agency, interagency 
and multinational partners, from more than 19 sites, participated in 
and contributed to the JFCOM lead Urban Resolve experiment series, 
designed to explore and deliver capabilities for the urban battlespace 
of tomorrow.
    Likewise, the MNE Series brings the multinational and interagency 
communities together to examine better ways to work together. Eight 
partner countries, including the U.S., NATO, and other nations 
participated in the MNE series in 2006. The experiment further refined 
an effects-based approach to operations, which led to the development 
of an effects-based planning tool that NATO is fielding to the 
International Security Assistance Force in Afghanistan.
    In 2006, JFCOM established the Joint Intelligence Operations 
Center-Experimental (JIOC-X) to conduct joint intelligence concept 
development and experimentation (JICD&E), to conduct joint training, 
and to incorporate lessons learned, best practices, and assessments in 
support of both combatant command and Defense JIOCs. The ultimate end-
state of the JIOC is the integration of plans, intelligence, and 
operations in order to increase the speed, power, and combat 
effectiveness of DOD operations.
    A key element in transforming the joint force is achieving Unified 
Action--achieving unity of effort in complex operations involving the 
participation of military forces, civilian agencies, nongovernmental 
organizations (NGOs), international organizations, and multinational 
partners. JFCOM development partners in Unified Action include the 
National Security Council, Departments of Defense, State, Justice, 
Treasury, and Commerce, U.S. Agency for International Development 
(USAID), the private sector, multinational and multilateral partners, 
and NGOs. Together, we must develop a coherent interagency planning 
process and the requisite tools necessary to synchronize the diverse 
capabilities that our civilian agencies, military, multilateral, 
international organizations, and NGOs bring to the effort. The war on 
terrorism that we are fighting in Iraq and Afghanistan demand this kind 
of interagency and multinational participation. The Department of State 
Office of the Coordinator for Reconstruction and Stabilization (S/CRS) 
maintains a strong partnership with JFCOM as we work together to 
understand and develop solutions for common civilian-military planning 
and coordination, striving to improve the Whole of Government Approach. 
Our close partnership with Allied Command Transformation and NATO 
allows us to leverage each other's capabilities with S/CRS to enhance 
the integration of Defense, US Government, and other national and 
international agencies efforts in order to develop and deploy fully 
integrated and interdependent solutions. This will be a challenge and 
we must strive for seamless integration of our combined efforts.
    The 3-year Unified Action development and experimentation program, 
which began in mid 2005, will identify capability gaps in the areas of 
Security, Economic Stabilization, Justice and Reconciliation, 
Humanitarian Assistance and Social Well-being, and Governance and 
Participation. These capability gaps will be cross-walked with 
developing initiatives across the Unified Action community of interest 
to develop potential solution sets.
    Concurrently, JFCOM and its partners are developing an integrated 
planning and implementation framework, to include a national security 
training and education program. These concepts will then be assessed 
during major experiments to include Unified Action 07 and MNE 5 in 
fiscal year 2008.
    Our new experimentation series in 2007, named Noble Resolve, is 
intended to improve information sharing, communications 
interoperability and unity of effort within the areas of Homeland 
Defense, Homeland Security and Defense Support to Civil Authorities. 
Utilizing advanced modeling and simulation, Noble Resolve uses a 
scenario focused on preventing overseas threats from migrating to the 
homeland. Partners and participants in this experiment include other 
combatant commands (NORTHCOM, EUCOM, STRATCOM, Transportation Command 
(TRANSCOM), and Pacific Command (PACOM)), Department of Homeland 
Security, Federal Bureau of Investigation (FBI), FEMA, port 
authorities, the Commonwealth of Virginia, the cities of Norfolk, VA, 
and Portland, OR, academic institutions like Old Dominion University, 
University of Virginia and Virginia Polytechnic Institute, as well as 
companies like Maersk Shipping. Through this innovative use of 
technology, we are able to focus on critical homeland defense skills, 
assess risk management, test command and control with first responders, 
and build counterterrorism tools between States.
    In developing the foundation for the combatant commanders' success 
in future operations, JFCOM has pursued a wide range of activities that 
provide unique joint enhancing capabilities. For example, the Cross-
Domain Collaborative Information Environment is a hardware and software 
solution that supports cross-mission and cross-domain information 
sharing throughout the battlespace. The key deliverable to the 
warfighter is the capability to allow multiple data types to pass from 
one classified domain to another.
    Combatant commanders have also identified a requirement for more 
robust joint logistic processes that impact the Joint Force Commander's 
ability to effectively plan, execute, and integrate logistics at the 
operational level. As a result, JFCOM, partnering with the combatant 
commands, the Services, and the Defense Logistics Agency, is developing 
a family of scalable joint and combined capabilities (JxDS) that will 
enhance coordination, integration, and synchronization to increase 
force employment opportunities.
    A unique challenge of combatant commanders conducting operations in 
the urban environment is inhibited employment of joint fires due to 
complex terrain, weapons effects and the proximity of noncombatants. 
The Joint Urban Fires Prototype focuses on improving the ability of 
joint commanders to apply precision fires in the urban environment by 
improving precision, discrimination and response.
    ``Angel Fire'' is another joint enhancing capability showing 
tremendous potential, and is currently being tested on the battlefield 
by the Marine Corps. Angel Fire was pulled forward after our Urban 
Resolve experiment identified the dramatic value of persistent 
surveillance. The optical sensor device covers a 16 square kilometer 
area and can provide the joint warfighter with a dedicated sensor to 
rapidly respond to enemy actions and near real-time reaction to an 
improvised explosive device (IED) or any other event in the area. The 
ability to pull forward tomorrow's capability to today is the most 
important thing we do.
    JFCOM's Joint Center for Operational Analysis (JCOA) assists in 
accelerating transformation of the joint force by producing 
recommendations for change derived from direct observations and sound 
analysis of current joint operations, exercises, and experiments. This 
mission is accomplished by providing tailored, worldwide deployable 
teams of multidisciplined operations analysts, experts in joint, 
combined, and interagency matters, with reach-back to greater 
analytical expertise and an extensive lessons learned database.
    JCOA conducts robust and timely analysis of operational issues in 
order to provide immediate feedback to the joint warfighter and provide 
input for transformational change to joint doctrine, organizations, 
training, material, leader development, personnel, and facilities. In 
support of this mission, JCOA has maintained a permanent presence in 
Iraq since May 2003 and in Afghanistan since September 2004. In 
addition to supporting CENTCOM for Operations Enduring Freedom and 
Iraqi Freedom, JCOA has simultaneously supported other operations or 
missions around the world to include Pakistan earthquake assistance, 
the Lebanon Noncombatant Evacuation Operation, Tsunami Relief, Haiti 
and Guatemala disaster relief, and Hurricane Katrina relief operations. 
Last year, Congress received a copy of one of JCOA's most publicly 
visible products, the ``Iraqi Perspectives Report.''
    JCOA also operates the KnIFE, aimed specifically at the current 
threat to our forces posed by IEDs. KnIFE is a capability to 
comprehensively fuse data sources, databases, best practices, tactics, 
techniques, and procedures dealing with asymmetric warfare into 
products requested by and provided to warfighters and our coalition 
partners.
    JFCOM continues to work to build innovative partnerships between 
private industry, academia and DOD through Cooperative Research and 
Development Agreements (CRADAs). With projects of mutual benefit to 
these organizations and the DOD, these agreements, enable pooling of 
scarce research assets, and the sharing of information to facilitate 
fast, effective and efficient research and development of capabilities 
required by the joint warfighter today and in the future. We currently 
have CRADAs with approximately 20 companies and several academic 
institutions.
Allied Command Transformation
    JFCOM values a close working relationship with NATO's Allied 
Command-Transformation (ACT). This relationship provides a vehicle for 
achieving synergy in Allied interoperability, through collaboration on 
a multitude of levels, to include exercises, training, and sharing of 
lessons learned and best practices. JFCOM and ACT have combined on 
numerous projects to improve training and capabilities of U.S. and 
coalition forces, solve capabilities shortfalls and identify solutions 
for NATO forces.
    The combined capabilities and synergy of effort of JFCOM and ACT 
are maximized through efforts such as the upcoming MNE 5, which is 
focused on the ``Whole of Government'' approach, and the Coalition 
Warrior Interoperability Demonstration, that will test the 
interoperability of the NATO Network Enabled Capability.
    This close working relationship allows development of appropriate 
``teamed'' solutions that not only address the problems at hand, but 
strengthens relationships with and the capacity of our multinational 
partners. The synergy of the projects we're working on together helps 
to improve allied and coalition operations.
                             the way ahead
    We are balancing the war today with the imperative needs of 
tomorrow. In 2007, JFCOM continues to provide capabilities that will 
achieve this.

        <bullet> The 33 training exercises scheduled for this fiscal 
        year, in conjunction with training exercises conducted by 22 
        accredited Service and combatant command training programs, 
        will be facilitated by the expanded Joint Training and 
        Experimentation Network and the interactive Joint Knowledge 
        Development and Distribution Capability portal, which will 
        enhance joint training immeasurably.
        <bullet> Experiments, focused on the integration of interagency 
        and multinational partners, will bring the joint force closer 
        to the realization of Unified Action.
        <bullet> As JFCOM gains experience with management of 
        Individual Augmentees and In-Lieu of Units, additional force 
        providing efficiencies will be realized with the goal of moving 
        unit, IA, and ILO force notification from weeks to months.
        <bullet> Deployment of responsive joint enabling capabilities 
        will continue to contribute unique capabilities to the global 
        war on terror and disaster relief/humanitarian assistance 
        operations.
        <bullet> The JC2 Capabilities Portfolio Management effort will 
        mature.
        <bullet> Based on assessment of training and current 
        operations, JFCOM will continue to improve and refine Mission 
        Rehearsal Training for OIF and OEF forces and enhance 
        information exchange abilities to help defeat Improved 
        Explosive Devices.
        <bullet> JFCOM will continue to work with OSD, Joint Staff, 
        CENTCOM, EUCOM, and NATO to improve Afghan National Security 
        Force Training.
        <bullet> Establishing two Standing Joint Force Headquarters 
        Core Elements with Full Operational Capability to deploy 
        globally by 31 December 2007 in support of a wide range of 
        mission sets.
        <bullet> Enabling the sustainment of two Standing Joint Force 
        Headquarters Core Elements with the transformational use of 240 
        deployable reservists in key billets.
        <bullet> Increase Homeland Security capabilities, and increase 
        training and education opportunities for the National Guard and 
        Reserve.
                               conclusion
    JFCOM is dedicated to the total force of soldiers, sailors, airmen, 
marines, and civilians who serve our country and champion freedom 
around the globe. We stand ready to rapidly deploy enabling and 
enhancing capabilities to support the joint warfighter as well as our 
interagency and multinational partners in complex operations. We bring 
these current capabilities to bear while keeping a watchful eye toward 
the continuously changing threat to develop solutions to defend our 
freedoms today and tomorrow. On behalf of our 1.16 million great men 
and women, the combatant commanders, and our components, we thank you 
for this opportunity to present the JFCOM story.

    Chairman Levin. General Smith, thank you so much.
    Admiral Stavridis?

  STATEMENT OF ADM JAMES G. STAVRIDIS, USN, COMMANDER, UNITED 
                    STATES SOUTHERN COMMAND

    Admiral Stavridis. Thank you, Mr. Chairman, Senator Warner, 
Senator Nelson, Senator Martinez, and Senator Sessions; let me 
just begin by simply saying thank you for the opportunity to 
appear here today in front of all of you. I'm also very happy 
to be appearing with General Lance Smith, who came out and 
greeted my aircraft carrier strike group in the Arabian Gulf in 
2003, when I first met him. Sir, it's good to be with you. 
Admiral Tim Keating who--I could ask for no finer wingman, and 
has been a mentor of mine for many years. It's great to appear 
with both of you.
    I do want to particularly thank the members of the 
committee who've taken the time to come travel in the region, 
and I think there is no substitute for the kind of personal 
eyes-on experience you get. Most recently, Senator Levin was 
visiting Guantanamo Bay, Senator Nelson was through the region, 
and visited one of our New Horizons projects. I know Senator 
Martinez has been through the region recently--I would extend 
an invitation to the committee to come as a group, or 
individually, to any part of the region, at any time. It's a 
vibrant, exciting, and diverse region where great interests of 
the United States are at play every day.
    It is also a region, I always like to say, which is not 
America's backyard--that's not the right expression. It's not 
even America's front porch, it's our home. The Americas stretch 
from Canada to the tip of Tierra del Fuego in the South, and 
collectively, we live in this shared home, all of us, all of 
the countries. The 32 that are under my AOR are going through 
some challenging times, and I think that together the United 
States and those countries can partner in ways that will help 
us fulfill a true partnership here in the Americas.
    I've had the opportunity in my 5 months in command to do 
some travel through the region myself. Most recently, for 
example, last week I spent an hour with Daniel Ortega in 
Nicaragua. I'd be happy to talk about that. I spent some time 
in Panama with President Torrijos, and others. I will tell you, 
generally, in the region, the United States is looked on as a 
strong partner. Always, there will be some strong 
disagreements, country to country, but overall, this is an area 
of great potential for the United States of America.
    I think the way to unpack that potential is by taking the 
kinds of approaches you heard Lance Smith talk about a moment 
ago--interagency, joint--obviously--combined, working with our 
partners. This is really, as Senator Levin said, an economy of 
force theater, but to execute what we need to do, we have to 
team up with the DOS with the Department of Homeland Security 
(DHS), the Coast Guard, the Drug Enforcement Agency, and many 
others. I'd be happy to address some of that today.
    If I may, I'd simply like to close this brief opening 
statement by saying how proud and lucky I am to be at U.S. 
SOUTHCOM to work with great reservists, great civilians, great 
Active-Duty, coastguardsmen, soldiers, sailors, airmen, and 
marines. They're the best shipmates a sailor like me could ask 
for. Our families support us every day. Senator Warner, I 
appreciate your words on the families involved, and I look 
forward to all of the questions to come. Thank you.
    [The prepared statement of Admiral Stavridis follows:]
           Prepared Statement by ADM James G. Stavridis, USN
                              introduction
    Mr. Chairman, Ranking Member McCain, and distinguished members of 
the committee, thank you for the opportunity to appear before you today 
to discuss the environment in which we operate, the challenges we face, 
and what we are doing throughout Latin America and the Caribbean. I 
would like to begin by thanking the committee members, particularly 
those who have traveled to our region to gather first hand impressions. 
Most importantly, on behalf of all the members of the United States 
Southern Command (SOUTHCOM), thank you, as a committee, for your 
continued support. We at SOUTHCOM very much look forward to working 
with you and your staffs in the coming years.
    Our mission is straight-forward: to promote security cooperation 
and conduct military operations with the 32 nations and 13 territories 
in the region to achieve U.S. strategic objectives. Our mission 
enhances security and stability in the Western Hemisphere and, in so 
doing, ensures the forward defense of the United States. Our ability to 
accomplish this mission is significantly influenced by our 
understanding of the diverse environment in our hemisphere and the 
linkages that bind the Americas together.
                                linkages
    Our shared home is the Americas. We have much in common with our 
partners throughout the region; we share common interests and are 
dependent upon each other in many ways. There are numerous and 
compelling geographic, cultural, economic, political, and historical 
linkages that tie all of the Nations of the Americas together and which 
must be understood in order for us to achieve our mission.
    Nearly half a billion people live in the SOUTHCOM region--roughly 
one half of this hemisphere's population. Our area of responsibility 
covers roughly one sixth of the Earth's surface and is bounded by large 
bodies of water, making the maritime environment of great importance. 
The people of this part of the world have diverse and rich heritages 
and languages. A growing part of the population has strong cultural, 
political and economic ties to the United States. In 2000, for example, 
the U.S. Census Bureau reported that the number of Hispanics in America 
accounted for 12 percent of our population. Today the government 
estimates the figure as approximately 15 percent, with more than 40 
million U.S. citizens of Hispanic origin. This figure is expected to 
grow rapidly in the coming decades, making the U.S. very soon the 
second most populous country of Spanish-speakers in the world. This 
significant cultural and human linkage between the U.S. and the region 
is underscored by the almost 15 million U.S. citizens who traveled to 
Latin America and the Caribbean in each of the past 2 years, with an 
almost equal number of our neighbors coming north.
    The economic linkage between the Nations of the Americas has risen 
dramatically over the last decade, with north-south trade comprising 
almost 40 percent of U.S. total global trade in 2005. Trade between the 
U.S. and SOUTHCOM's partner nations in Latin America and the Caribbean 
increased 22 percent between 2004 and 2005, with considerable repeat 
growth last year; and further substantial growth is predicted as a 
result of the Free Trade Agreements we have with a number of countries 
in the region. In particular, we also currently have a unique and 
valuable opportunity to strengthen our economic ties to Colombia, Peru, 
and Panama through the passage of Free Trade Agreements with these key 
friends to foster economic security, stability, and prosperity there.
    The U.S. also imports over 50 percent of its oil from the Western 
Hemisphere, with 34 percent coming from Latin America and the Caribbean 
in 2005--outweighing the 22 percent imported from the Middle East. An 
important facilitator to this critical trade throughout the Americas is 
the Panama Canal, which sees almost 15,000 ships transit each year, of 
which two thirds are going to or from one of our coasts in the U.S. The 
canal, in effect, is the economic heartbeat of the Americas. Panama 
recently passed an important referendum to expand the canal to allow 
for a projected twofold increase in throughput capacity, which would 
certainly build upon the growing economic interdependence of this 
hemisphere.
    Beyond the cultural and economic linkages, perhaps the most 
important connection we share with the region is a social and political 
sense that respects democracy, freedom, justice, human dignity, human 
rights, and human values. We share the belief that these democratic 
principles must be at the core of what we accomplish in the region and 
that free governments should be accountable to their people and govern 
effectively. This common belief is most evident as expressed in the 
first article of the Inter-American Democratic Charter: ``The people of 
the Americas have the right to democracy and their governments have an 
obligation to promote and defend it. Democracy is essential for the 
social, political, and economic development of the peoples of the 
Americas.'' The rest of this tremendous consensus document of the 
Americas goes on to further reinforce our shared values and our goal of 
strengthening representative democracy in the region. We have made 
great strides over the last 2 decades in helping democratic values 
spread, with all but one leader in the Americas having been 
democratically elected.
    We are passionate about the linkages we share in this hemisphere. 
We at SOUTHCOM dedicate a good portion of our time to studying these 
connections, and we firmly believe that our region is inextricably 
linked to the economic, political, cultural, and security fabric of the 
United States. Understanding these linkages helps us make the best use 
of our resources in order to better secure the U.S. and to help extend 
peace and prosperity to the entire region.
                               challenges
    Beyond the understanding of these critical linkages, we at SOUTHCOM 
also devote a considerable amount of energy to the study of the 
significant challenges confronting the region--challenges such as 
crime, gangs, and illegal drug trafficking as primary examples. These 
challenges loom large for many nations in the region; they are 
transnational, adaptive, and insidious threats to those seeking peace 
and stability. By their nature, these challenges cannot be countered by 
one nation alone. Therefore, they require cooperative solutions 
involving a unified, full-spectrum governmental and international 
approach in order to best address them.
    In many cases, the main source for these challenges stems from the 
underlying conditions of poverty and inequality that are prevalent in 
most of the area. According to 2005 United Nations statistics, about 40 
percent of the region's inhabitants are living in poverty, defined as 
an income of less than two U.S. dollars per day. Of that number, about 
16 percent are living in extreme poverty--less than one dollar per day. 
Couple these poverty figures with the most unequal distribution of 
wealth for any of the world's regions, and you have a catalyst for 
potential social and political insecurity and instability.
    Stemming from these underlying conditions, illegal drugs and crime 
are the most pressing security concerns for this part of the world--and 
based upon the region's proximity and linkages to the U.S., a security 
concern here at home as well. The Andean Ridge in South America is the 
world's leading source of coca cultivation, and despite international 
efforts and record interdictions and seizures, the region still 
produces enough cocaine to meet demand here in the U.S. and a growing 
demand abroad.
    A close corollary to the illegal drug trade is the alarming growth 
of criminal activity in the region--some of which is a byproduct of the 
drug trade but just as much stems from the region's extensive poverty 
and inequality. Violence is now among the five principal causes of 
death in several countries in the area. The annual homicide rate for 
Latin America and the Caribbean is among the highest in the world, with 
25 homicides per 100,000 people compared to Africa's 22 and the U.S.'s 
5.5. In Central America, Haiti, Jamaica, and major cities in Brazil, 
gangs and criminal violence are a security priority, with some gang 
population estimates reaching into the hundreds of thousands. These 
gangs do not just pose a concern in Latin America. They have spread 
from Los Angeles and New York to around your homes in northern Virginia 
and my home in southern Florida. Members cross borders, moving drugs 
and money. This is an issue not just for our partners in the region, 
but for Americans on our own soil.
    The costs associated with violence in the region are difficult to 
assess, but according to the Inter-American Development Bank, they were 
estimated as close to 15 percent of Gross Domestic Product across this 
part of the world in 2005. This inhibits efforts to alleviate the 
underlying conditions of poverty and inequality.
    As stated earlier, we are fortunate as a hemisphere to have as 
neighbors democracies that virtually all share similar values with us. 
Unfortunately, poverty, inequality, and security challenges all 
contribute to a growing, frustrated expectation from the people for 
dramatic change. We have seen instances in some countries where 
``change agents'' have successfully campaigned on themes of radical 
change, with promises of achieving sweeping results through unorthodox 
and unproven economic and political policies. We will closely follow 
any developments in the degradation or dismantling of democratic 
institutions in these countries and any security crisis that follows 
from destabilizing political and/or economic policies. In some cases, 
we have the complicated task of maintaining working relationships with 
a nation's security forces in the face of antagonistic political 
leadership and attempts to spread anti-U.S. views and influence. This 
situation exacerbates the already difficult mission of achieving 
regional cooperation to address ever-changing and insidious 
transnational challenges.
                           command priorities
    Within this diverse environment, with its compelling hemispheric 
linkages and its significant region-wide challenges, we at SOUTHCOM 
have several key priority focus areas, discussed below.
    First and foremost is the hostage situation in Colombia. Not a day 
goes by without our team focusing on the plight of Keith Stansell, Marc 
Gonsalves, and Thomas Howes. These three men are American hostages who 
have been held captive by the Fuerzas Armadas Revolucionarias de 
Colombia (FARC) for over 4 years, having first been taken into 
captivity on 13 February 2003. The safe recovery of our countrymen is 
our top priority. We search every day for leads that will help bring 
these Americans home. Finding them is of utmost importance to SOUTHCOM.
    Another focus area, associated with the hostage situation, is the 
overall security challenge in Colombia. Over the last decade, Colombia 
has achieved great success in its complex struggle for peace and 
security. Ten years ago, the headlines coming out of Colombia resembled 
the worst of those to come out of any war-torn country: beheadings, 
kidnappings, torture, and bombings occurred essentially daily. Through 
its own interagency efforts and a welcomed steady stream of resources 
and support from the U.S., Colombia has battled from the brink of chaos 
to a far better situation in terms of peace and stability. Last year 
marked the lowest homicide rate in two decades. At great effort, the 
government has established security police force presence in all of its 
1,098 municipalities, significantly deterring crime and terrorist 
incidents. This increased security presence, coupled with significant 
operational successes against the FARC, has contributed to the fastest 
sustained economic growth in a decade--over 5 percent annually for the 
past 2 years--and has encouraged a real sense of positive momentum for 
the entire country.
    These hard-fought successes, however, need continued U.S. support 
and steadfast effort from the Colombian government in order to fully 
win the peace for the country. SOUTHCOM continues to be a steady 
partner to our Colombian counterparts and is constantly striving to 
advise and assist them as they plan for the future. In addition to 
supporting Colombia, countering any expansion of FARC activity into 
neighboring countries is also part of our focus.
    As in all combatant commands, support for the global war on terror 
is a major priority for SOUTHCOM. We remain vigilant and are constantly 
working with our partners in the U.S. interagency and with our partners 
in the region to keep our Nation secure. I would characterize our 
region as being a highly-likely base for future terrorist threats. 
Members, facilitators, and sympathizers of Islamic terrorist 
organizations are present throughout the region. Hizballah appears to 
be the most prominent group active in the region, and while much of 
their activity is currently linked to revenue generation, there are 
indications of an operational presence and the potential for attacks. 
The Hizballah network in the region is suspected of supporting the 
terrorist attacks in Buenos Aires in 1992 and again in 1994. We suspect 
that a similar operational support network exists today and could be 
leveraged in the future.
    We have seen successes in mitigating Islamic terrorist activity in 
the region. Brazil, Paraguay and Argentina have made progress in 
working together to address terrorism and illicit criminal activity 
through the Tri-border Commission's 3+1 conference. A Regional 
Intelligence Center, located in Brazil and staffed by agents from all 
three countries, is nearly operational. Throughout 2006, countries in 
the region have taken action against terrorist-linked supporters and 
facilitators. In January 2006, Colombian authorities dismantled a 
complex document forgery ring with alleged ties to indigenous and 
Islamic terrorist organizations. Also in early 2006, Brazilian 
authorities arrested a suspect linked to the late Lebanese Prime 
Minister Rafik Hariri's assassination. We will continue to work with 
our partner nations throughout the region to maximize counter-terrorist 
successes and ultimately deny, disrupt, dissuade, and deter terrorist 
and terrorist-associated activities in the area.
    SOUTHCOM's most visible assignment in the global war on terror is 
conducted at the U.S. Naval Station Guantanamo by Joint Task Force--
Guantanamo. We conduct safe, humane, legal, and transparent detention 
operations in compliance with the laws of our Nation, Common Article 3 
of the Geneva Conventions, and the Detainee Treatment Act of 2005. In 
accordance with the Detainee Treatment Act, all interrogation 
operations comply with the interrogation techniques prescribed in Army 
Field Manual 2-22.3, Human Intelligence Collector Operations, and all 
detention and interrogation operations are conducted humanely. Both I 
and members of my staff make frequent inspection visits to our 
facilities at Guantanamo and we are in constant communication with the 
Task Force Commander.
    As detailed earlier, a key challenge for the region is the spread 
and breadth of criminal activity and illegal drug trafficking. As a 
priority, we work with our counterparts throughout the region to assist 
them in their attempt to cope with the serious effect gangs and 
criminal activities have on their ability to govern. In some instances, 
due to a lack of enough trained law enforcement entities, countries' 
militaries have been asked to assist in combating these violent gangs.
    The situation in Cuba and any potential repercussions from the end 
of Fidel Castro's rule are another set of our priorities. We are 
concerned that Cuba's poor socio-economic conditions and repressive 
regime, combined with a leadership change, could spark mass migration, 
and we are ready to assist the U.S. Coast Guard and the U.S. Department 
of Homeland Security to respond if mass migration occurs.
                                promises
    As evinced by the already strong linkages we share as a hemisphere, 
we believe that if we were able to overcome the region's challenges to 
security and prosperity, we would be able to unlock the true promise of 
the Americas: the promise of a secure, prosperous, and democratic 
hemisphere that works together to face threats to peace and stability.
    The word `promise' has two appropriate meanings for how SOUTHCOM 
approaches its role in the region and for our view of the future for 
this hemisphere. On one hand, a promise is a commitment honestly 
undertaken and executed by two or more parties. In this case, SOUTHCOM 
is committed to lasting and beneficial partnerships with the countries 
in the region. Encouraging regional partnerships has been a cornerstone 
of our strategy for many years and a formal strategic objective for the 
last 4 years. Our ``promise'' entails fulfilling the commitment of 
being a good partner and pursuing better cooperative security 
arrangements in order to face together the tough challenges that 
confront us now and into the future.
    Promise can also mean ``potential''--the potential to do something 
vital and important; the potential to be something special and 
extraordinary. We believe that through lasting partnerships, we can 
help achieve the security conditions necessary to create the enduring 
basis for prosperity and healthy democratic institutions in this 
important region. This is the promise of a hemisphere free of gangs and 
drugs; free of human trafficking, money laundering, and terrorism; free 
of repressive regimes; it is the promise of all of us together finding 
cooperative solutions to demanding security challenges.
    Our goal at SOUTHCOM is simple: we will work with our partners to 
unlock this ``Promise of the Americas.'' Every day we strive to be 
engaged in a positive way with as many of our regional partners as 
possible, and in doing so, enhance the security of the United States 
while simultaneously enhancing their own security. The U.S. SOUTHCOM 
strives to fulfill the promise of this region through military-to-
military engagements that build the capacity of the Nations in the 
region to protect their own sovereign territories. Given our close 
linkages, this increased capacity and stability will also provide a 
first line of defense for the United States.
    In support of our goal, we employ a theater security cooperation 
strategy that calls for building host nation capabilities. Over time, 
these capabilities will ensure our partner nations have the means to 
control their borders and protect their citizens, while also deepening 
the roots of good governance. We also envision our partners being able 
to work together in a collective environment to be able to counter 
emerging and adapting threats. To this end, most of our military-to-
military engagement is in the form of training and education programs, 
joint exercises, peacekeeping, and other partnership programs.
Education and Training
    Education, training, and military operations provide substance to 
our collective security agreements and contribute directly to building 
capability. Education and training are prerequisites to effective 
operations, while operations enable partner nations to protect and 
control their sovereign territories. Two institutions that provide 
formal education to nations in the Americas are the Western Hemisphere 
Institute for Security Cooperation and the Center for Hemispheric 
Defense Studies.
    The Western Hemisphere Institute for Security Cooperation provides 
professional education and training--particularly in human rights--to 
select uniformed and civilian security forces of nations within the 
Western Hemisphere and operates in the context of the democratic 
principles set forth in the Charter of the Organization of American 
States. Their curriculum is designed to foster mutual knowledge, 
transparency, confidence, and cooperation among the participating 
nations, as well as to promote democratic values, respect for human 
rights, and knowledge and understanding of U.S. customs and traditions. 
The student body of Western Hemisphere civilians and police personnel 
receives instruction in human rights, the rule of law, due process, 
civilian control of the military, and the role of the military in a 
democratic society. Partner nations nominate students to attend this 
Defense Department school, and the State Department leads an 
interagency vetting process that examines each nominee prior to final 
selection.
    The Center for Hemispheric Defense Studies is a regional academic 
forum offering strategic level defense and security cooperation, 
research, and dialogue for the promotion of effective security policies 
within the Western Hemisphere. The Center's civilian and military 
graduates and partner institutions comprise communities of influence 
that work toward a more cooperative and stable international security 
environment. The Center also facilitates NationLab Strategic Seminars 
at foreign national defense universities with a primary focus on 
national policy innovations for breaking the cycles of poverty, 
corruption, narcotrafficking, gangs, organized crime, and other key 
challenges in the region.
    We have made tremendous progress in extending the International 
Military Education and Training (IMET) program to partner nations 
throughout the theater. We truly appreciate Congress's delinking IMET 
from the American Servicemembers' Protection Act (ASPA). IMET's 
overarching training program, as executed by the Department of Defense, 
has trained tens of thousands of Latin American officers, enlisted, and 
defense civilian personnel, with graduates reaching the highest level 
of military and civil service. IMET is a key training program that, 
until Congress provided relief, had been subject to the provisions of 
ASPA. We are working vigorously to renew training opportunities 
throughout the region, including partner nations like Nicaragua, where 
an IMET graduate recently led the interception of 871 kilograms of 
cocaine.
    As we seek to train the future defense leaders of our partner 
nations, we must also continue rigorous training of our own forces. The 
establishment of a Combatant Commanders Exercise Engagement and 
Training Transformation (CE2T2) Program would consolidate all joint 
training initiatives and provide visibility and accountability in 
planning and executing our Joint exercise and engagement program. This 
program would make better use of existing training funds and provide 
the flexibility that is critical, given the complex and adaptive nature 
of our sustained operations in the global war on terrorism. CE2T2 funds 
are a consolidation of existing joint training resources and not a new 
or growth initiative.
    Complementing formal education is a myriad of training exercises 
that improve capability and interoperability while building confidence 
and improving transparency. Medical readiness, disaster relief, 
humanitarian assistance, counterterrorism, peacekeeping, and maritime 
capabilities are all developed through a family of related exercises.
Joint Exercises and Initiatives
    The Humanitarian and Civic Assistance program provides training for 
U.S. Forces and provides tangible benefits to host nations in the form 
of medical clinics, schools, well drilling, and construction of 
rudimentary roads. As part of this program, Medical Readiness Training 
Exercises (MEDRETEs) serve as a mutually-beneficial effort to improve 
medical treatment capacity of U.S. personnel while providing an 
invaluable service to citizens in partner nations who might otherwise 
never receive much needed treatment. U.S. medical personnel benefit by 
providing medical care in a challenging and often unique environment; 
local medical professionals develop closer relationships with U.S. 
medical personnel; and the population receives quality medical care. 
MEDRETEs create close human linkages amongst the people of our Nations 
and generate tremendous goodwill towards the United States. In fiscal 
year 2006 alone, our MEDRETEs treated 272,600 people and 41,000 animals 
and conducted 3,327 surgical procedures.
    New Horizons are engineer-based humanitarian and civic assistance 
exercises that provide excellent training for U.S. forces and a 
tangible benefit to the Nations in which the exercises are conducted. 
As an example, in 2006, a New Horizons project provided Peru with two 
clinics, one school, three wells and three MEDRETEs. We also conducted 
similar exercises in the Dominican Republic, El Salvador, and Honduras, 
all benefiting the local populace and strengthening the ties that 
connect the Americas. The demonstrated goodwill and benefit generated 
by these exercises is immense.
    Last year, 21 nations from the Caribbean and Central America came 
together for the Fuerzas Aliadas Humanitarias (Humanitarian Allied 
Forces) exercise to focus on regional cooperation and information 
sharing to prepare for humanitarian and disaster relief operations. 
Fourteen military, government, and nongovernment regional organizations 
participated in this exercise. Emergency operations centers from the 
participating countries were linked to a single Partner Nation 
Network--a major step toward capacity building and information sharing.
    The Humanitarian Assistance Program is another element of security 
cooperation that provides engagement opportunities for U.S. personnel 
while serving the basic social needs of the residents where exercises 
are conducted. Over 60 training projects in 22 countries were conducted 
in fiscal year 2006 for $15.4 million, while another 116 projects in 26 
countries are scheduled for fiscal year 2007 with a budget of $13.2 
million. These projects are conducted to contribute to the sustainment 
of regional partnerships.
    Fuerzas Comando (Commando Forces) is a skill competition and senior 
leader seminar designed to enhance cooperation and trust between 
international Special Operations Forces while improving their training, 
readiness, and interoperability. A total of 15 countries from 
throughout the region participated in 2006. This exercise drew anti-
terrorism experts from 15 countries who exchanged information and 
shared tactics, techniques, and procedures for counter-terrorist 
operations. Fuerzas Comando builds regional capability and supports our 
war on terror efforts.
    Tradewinds is a phased, joint, combined exercise that occurs 
throughout the Caribbean and is intended to improve the readiness of 
the Caribbean Basin nations to respond to transnational threats and 
disasters. Enhancing Caribbean regional capability supports the war on 
terror and provides defense-in-depth for the United States.
    Panamax is an annual multinational exercise tailored to the defense 
of the Panama Canal against asymmetric threats. For last year's 
exercise, 17 nations from North America, South America, and Europe came 
together to work in unison to better prepare for today's security 
challenges. The objectives of the exercise included the full 
integration of all participants into a multi-national staff and 
concentrated on the Proliferation Security Initiative. This year we 
expect more than 20 participants.
    Another key part of our military-to-military engagement strategy is 
our annual Partner Nation Communication and Collaboration conference 
that is hosted by a different partner nation each year. In 2006, it 
took place in Montevideo, Uruguay. This year we will gather in the 
Dominican Republic. This conference focuses on strategies to improve 
communication in order to respond to regional crises, such as disaster 
relief and peacekeeping operations.
Peacekeeping and other Partnership Initiatives
    Peacekeeping, like MEDRETEs, crosses the boundary between training 
and operations. SOUTHCOM assists in enhancing the peacekeeping capacity 
of partner nations through the conduct of peacekeeping activities. The 
Department of State-funded and Department of Defense-executed Global 
Peace Operations Initiative (GPOI) is another excellent example of 
interagency cooperation. GPOI provides for the equipping and training 
of a multi-national Peacekeeping Operations (PKO) battalion of up to 
650 soldiers from the Central American Armed Forces (CFAC). This 
battalion includes one infantry company each from Guatemala, Nicaragua, 
Honduras, and El Salvador. The GPOI program within the SOUTHCOM area of 
responsibility also provides for the equipping and training of two 
specialized companies: a Military Police company from Guatemala and an 
Engineer company from Paraguay. These specific capabilities were 
requested by the United Nations. The CFAC battalion staff will 
participate in this year's Panamax exercise as part of its operational 
preparation.
    Yet another example of the peacekeeping operations ongoing within 
our region is the United Nations Stability Mission (MINUSTAH) in Haiti. 
Commanded by a Brazilian officer and manned by regional soldiers from 
many countries, MINUSTAH demonstrates the viability of our coalition 
approach to peacekeeping exercises and operations and the enduring 
value of regional cooperation.
    This past year we held our first maritime Partnership of the 
Americas event. A portion of the George Washington Strike Group 
conducted unit-level training in the region where 5 partner nations 
conducted 24 community relations events in eleven countries. These 
countries included the Dominican Republic, Nicaragua, Jamaica, 
Honduras, and Trinidad and Tobago. We are planning a second Partnership 
of the Americas for 2007. In conjunction with this exercise, we will 
also leverage a world-wide U.S. Navy program called Project Handclasp 
that distributes humanitarian, educational, and goodwill materials to 
the needy in our partner nations. These materials are donated by the 
U.S. private sector and will be distributed by U.S. servicemembers in 
conjunction with community service projects. This year we have received 
over 285,000 high-nutrition meals valued at over $70,000 through 
Project Handclasp for distribution throughout the region. We are also 
focusing this program elsewhere in the region to add impact to our 
outreach efforts.
    We will deploy a U.S. Navy hospital ship (U.S.N.S. Comfort) to the 
Caribbean, Central America, and the Andean Ridge this summer to conduct 
theater security cooperation and humanitarian assistance operations. 
Like our MEDRETE exercises, these operations serve as a mutually-
beneficial effort to hone the readiness skills of medical personnel of 
U.S. Armed Forces while helping to improve and save lives, reduce 
suffering, stimulate public health, and support the command's theater 
security cooperation objectives. The Comfort will visit various 
countries in a 4-month deployment and treat as many as 70,000 patients. 
Nongovernmental organizations, partner nation medical staff, and U.S. 
medical staff will work closely to aid those without access to medical 
service and build lasting relationships for the future.
    In concert with the deployment of the Comfort, we will deploy a 
U.S. Navy high-speed vessel (H.S.V. Swift) to Central America and the 
Caribbean for 6 months this spring. The Swift would conduct training 
and exchanges with our partners in the region and participate in 
community relations projects. The Swift deployment is part of a broader 
Global Fleet Station program designed by the Navy to provide flexible 
forward presence for theater security cooperation activities around the 
world.
    The Combating Terrorism Fellowship Program (CTFP) is a key tool in 
preventing terrorist groups from using our region as a staging ground 
for terror attacks against the United States and Partner Nations. CTFP 
goals are to build capabilities and capacity to combat terrorism and to 
develop a global network of ``combating terrorism'' experts and 
practitioners, all sharing common values, language, and understanding 
of the terrorism threat. The program is conducted through education and 
training seminars on intelligence gathering and sharing, senior level 
military education for both officers and enlisted soldiers, legal 
aspects in combating terrorism, civil-military responses to terrorism, 
countering ideological support for terrorism and its financing, and 
various maritime security procedures.
    The State Partnership Program (SPP) is another example of 
successful collaboration that has had dramatic growth and benefit in 
our region over the past few years. The SPP links 20 U.S. states to 26 
partner nations using the U.S. National Guard as the executive agent. 
In fiscal year 2006, State National Guards conducted 149 separate 
events with partner nations. These events develop core competencies in 
regional military forces, promote the concept of citizen-soldiers as 
public servants, and reinforce our bilateral relationships.
    Enduring Friendship is a regional multi-year initiative that 
provides maritime security assistance to select countries in the 
region. Enduring Friendship will strengthen partner nations' maritime 
domain awareness and operational capabilities to anticipate and respond 
to threats, maritime emergencies, and natural disasters, and will also 
enhance control over illicit trafficking lanes. This program will 
improve partner nation maritime command, control, and communications 
(C3) capability; increase interoperability; and integrate maritime 
operational pictures, thus laying the foundation for maritime theater-
wide information sharing and coalition operations.
    The first of three Enduring Friendship phases focused on the 
Dominican Republic, Panama, Jamaica, and the Bahamas. Phase two will 
include Belize, Honduras, Guatemala and Nicaragua. The Eastern 
Caribbean and the Regional Security Systems (RSS) countries will be in 
phase three. In conjunction with other SOUTHCOM efforts, Enduring 
Friendship will increase Western Hemisphere collective maritime 
security.
    Our Enduring Friendship initiative greatly benefited from the 
recently approved Global Train and Equip authority approved by 
Congress. Last year, we were able to concentrate Section 1206 funds on 
two of our phase one countries, significantly accelerating our timeline 
to reach operational capability in these countries and giving us the 
flexibility to build a more responsive program. We plan on using this 
year's funds, if approved, to jump-start our phase two countries, 
bringing much closer to fruition our goal of a vigilant and responsive 
maritime capability in this region so critical to our own security.
    These Train and Equip funds have proven to be an extremely 
proactive tool for this and other initiatives at SOUTHCOM and have 
provided us with a truly responsive funding source for priority 
programs. As we develop our regional partnerships, it is critical to be 
able to dedicate resources quickly to build capability and/or capacity 
in response to emergent threats or during unique opportunities. The 
authority to train and equip ensures that we maintain this flexibility.
    The ability to build the capacity of our partner nations and to 
respond quickly to unconventional threats would allow SOUTHCOM to 
better fulfill the cornerstone of our regional strategy: being 
steadfast, responsive, and lasting partners to help bring about the 
promise of the Americas. By fulfilling our promise, we will be 
enhancing our own security, with our capable partners in the region 
responding to emergent threats and denying access and maneuver room for 
our Nation's enemies.
Partnerships in the Region
    We have many examples of successful partnering with countries in 
our region. Since 2000, Colombia stands out as a true reflection of 
what steady partnership with the U.S. can achieve. Through 
collaboration, partnering, education, training, and operations 
supported by the U.S., Colombia's military has grown by 27 percent 
since 2000, or 128,000 members, and by 2010 the national police are 
projected to increase their end strength by 25 percent, or 163,000 
members. According to the Colombian National Inspector General's 
office, while the size of the security forces has grown in the past 10 
years, the number of human rights allegations is down 67 percent thanks 
to an aggressive human rights program that now extends down to 
battalion level. Polling also indicates a high respect for the 
Colombian military among the populace.
    Today, the Colombian military conducts sustained 
counternarcoterrorism operations, developing actionable intelligence, 
protecting the National infrastructure, and enhancing civil-military 
cooperation in the context of their democratic security strategy. They 
do so consistent with the norms of international human rights and the 
rule of law. Colombia has dramatically improved security throughout its 
country and is poised for truly winning the peace for its democracy--
among the oldest in Latin America.
    Another positive example of regional partnership can be seen in 
Central America, where the System for Central American Integration 
Meeting of Heads of State met in October 2006 to identify and publish a 
plan of action for the Central American security priorities. The plan, 
published in November 2006, addresses how the region can counter 
organized crime, gang participation, illicit arms transfers, and porous 
borders.
    Our emphasis within Central America is to build partner nation 
capacity to improve internal security, prevent illicit activity, and 
enhance regional stability. To do so, USSOUTHCOM leverages existing 
organizations such as the Conference of Central American Armed Forces 
(CFAC) to improve the collective response of our partners and advance 
our security cooperation objectives. As members of CFAC, the Central 
American countries of El Salvador, Guatemala, Honduras, and Nicaragua 
work together to respond to threats throughout Central America and 
mitigate the effects of ungoverned space, porous borders, corruption, 
and organized crime. Outside of the construct of the CFAC, El Salvador 
continues to be a steady partner of the U.S. and is a champion of peace 
and stability in Iraq. Their Cuscatlan Battalion is currently on its 
eighth rotation to Iraq in support of peacekeeping and stabilization 
operations.
    In the Caribbean, the Cricket World Cup is fostering collaboration 
among the participating nations on matters from threat identification 
to threat mitigation, including maritime port security and consequence 
management for possible chemical, biological and radiological attacks. 
The Caribbean Community, with our help, is working diligently to face 
these and other security concerns.
                               operations
    Ultimately, education and training translate to operational 
capability and, in our region, operations are conducted not from fixed, 
large U.S.-run bases, but instead from a combination of flexible U.S. 
and partner nation facilities. With our departure from Panama at the 
turn of the century, there was less emphasis placed on permanent basing 
and more emphasis put on the use of partner nation facilities from 
which counternarcotics operations could be launched. Three such 
facilities, known as Forward Operating Locations, are at Manta in 
Ecuador; Comalapa in El Salvador; and Curacao and Aruba in the 
Caribbean Basin. These sites, which fall under the broader category of 
overseas facilities known as Cooperative Security Locations, are well 
forward of the United States and are unique in that they are used only 
for counternarcotics operations. We also maintain a forward operating 
site at Soto Cano Air Base in Honduras. We currently operate out of 
Apiay in Colombia and are working with the Government of Colombia to 
increase access for counternarcotics and other missions. These overseas 
cooperative locations are a cornerstone of our ability to operate in 
the SOUTHCOM region.
Joint Interagency Task Force South
    Located in Key West, Florida, Joint Interagency Task Force South 
(JIATF South) is the Nation's crown jewel in addressing the challenges 
posed by transnational narcoterrorism and a model for interagency and 
partner nation cooperation. In a combined effort with the U.S. 
Government interagency and our partner nations, JIATF South continues 
to disrupt record levels of cocaine bound for the U.S. and Europe. It 
conducts highly effective interagency operations by coordinating, 
integrating, and synchronizing scarce Department of Defense, 
interagency, allied, and partner nation resources. Most of our partner 
nations do not have the resources to devote exclusively to 
interdiction, yet their willingness and governmental cooperation 
increase each year as the negative effects associated with the illegal 
drug trade spread and as our collective successes in attacking illicit 
drug trafficking increase throughout the region.
    The positive effects of everyone pulling together are clearly 
illustrated by the great successes JIATF South has achieved over the 
last 6 years of ever increasing record disruptions. The last 3 years 
alone resulted in cocaine disruptions of 219 metric tons (MTs) in 2004, 
252 MTs in 2005, and 260 MTs in 2006. These numbers represent nearly a 
threefold increase in disruptions since 2000, and all of this is a 
result of continually improving our working relationships with involved 
U.S. Government entities and with our partner nations. However, today's 
more robust intelligence picture of illicit drug movements also points 
to room for continued improvement. Intelligence suggests that some 
cocaine movements in JIATF South's operating area go undetected each 
year because of a lack of an appropriate detection resource to respond 
to intelligence queuing, a real missed opportunity because nearly 90 
percent of illicit drug movements that are successfully detected by 
JIATF South assets are eventually interdicted.
Joint Task Force-Bravo
    Joint Task Force-Bravo (JTF-B) in Soto Cano, Honduras, represents 
the only permanently deployed U.S. forces in the region. JTF-B is a 
first responder to crises in the region and routinely conducts 
humanitarian assistance, disaster relief, search and rescue, personnel 
recovery, and noncombatant medical evacuation operations. Their most 
recent humanitarian operation was the deployment of three helicopters 
in response to flooding in Panama as part of Task Force-Estamos Unidos. 
They flew six relief sorties transporting food, water, mattresses, and 
petroleum products to disaster stricken areas. The familiarity of JTF-B 
crews and support personnel with the topography, communications 
systems, and movement corridors were instrumental in mission success. 
JTF-B is also a key contributor to our counternarcotics effort, using 
their assets, regional knowledge, and professional contacts to 
facilitate local law enforcement and interagency interdiction of 
illicit drug trafficking. JTF-B has a long history of answering our 
partner nations' calls for support during crisis--especially during 
hurricane season--and is a valuable asset to SOUTHCOM's partnership and 
cooperation plans in the region.
Joint Task Force Guantanamo
    Joint Task Force Guantanamo (JTF-GTMO) in Guantanamo Bay, Cuba, 
provides significant support to the overall global war on terror and 
ensures enemy combatants are kept off the battlefield while garnering 
information of strategic value for dissemination to national security 
decision makers. Over the past year alone, JTF-GTMO completed over 
3,000 interrogations and developed over 200 Intelligence Information 
Reports.
    Currently JTF-GTMO detains less than 400 unlawful enemy combatants, 
down from a total lifetime population of approximately 800, in a legal, 
humane, safe, and transparent manner. Over the past year, JTF-GTMO 
hosted over 320 individual media representatives from over 220 outlets. 
We also work closely with the International Committee of the Red Cross. 
Detainees have communication with the outside world through mail and 
receive medical care and food service similar to that of the U.S. 
military servicemembers who guard them. The Military Commissions Act of 
2006 established procedures for trying unlawful enemy combatants for 
violations of the laws of war. While the conduct of such commissions is 
not our responsibility at SOUTHCOM, we provide administrative and 
logistical support to the commission process as directed by the 
Department of Defense.
                              initiatives
    Within SOUTHCOM, we are striving to transform into a true 
interagency organization. To facilitate this, we recently established a 
new directorate for interagency partnering, with support from the 
Office of the Secretary of Defense and the Department of State. This 
directorate's goal is to develop a culture of robust partnering with 
the interagency, international, nongovernmental, and private 
organizations to better integrate and focus national and international 
efforts to support security, stability and prosperity in the region.
    Our efforts include coordination and synchronization with members 
of the interagency, academia, nongovernmental organizations, think 
tanks, our senior leadership in the Department of Defense, and Members 
of Congress and their staffs. These organizations formulate policy, 
allocate resources, develop strategies, and strive to ensure the U.S. 
Government shares a common vision and strategic objectives. It is in 
this arena that we seek to play a leading role in the transformation 
effort. The products of these key organizations shape the SOUTHCOM's 
theater security cooperation strategy and provide vectors for our 
engagement.
    U.S. SOUTHCOM is also committed to experimentation and innovation. 
Experimentation provides a means to increase capability, capacity, and 
collaboration with the interagency and coalition nations in the 
theater. It is an integral part of our overall theater security 
strategy. Latin America and the Caribbean is an excellent region for 
innovation--for trying new approaches, new technologies, new 
applications of existing technologies, and new ways to combine 
capabilities. We will continue to seek out opportunities to incorporate 
experimentation into ongoing operations and exercises to increase the 
Nation's effective and efficient accomplishment of its objectives.
    As an example of experimentation, we recently completed a Crisis 
Management experiment with multiagency participation from the U.S., 
Argentina, and Honduras. This event provided a multinational 
environment to collaborate with regional and functional experts to 
address three time-sensitive crisis scenarios: responses to a natural 
disaster, a chemical incident, and civil unrest. We will expand the 
experimentation audience in 2008 by combining the next crisis 
management experiment with a recurring exercise that trains and 
improves humanitarian assistance and disaster relief skills for 
approximately 150 personnel from 27 nations in the region.
    We will also continue to bring innovative and experimental 
capabilities under development into Colombia, such as the ability to 
detect objects under dense foliage, use of unmanned systems, innovative 
data fusion, biometrics, and others for validation in an operational 
environment, as well as providing near real time support to the 
Colombian military from such cutting edge technologies.
                               conclusion
    We believe that the bilateral and multilateral education, training, 
and operations achieved through partnering with U.S. SOUTHCOM are 
having a significant positive influence in the Americas. There is 
regional momentum to develop solutions to the challenges faced by the 
Americas. The Defense Ministers of 34 American nations met in October 
2006 to examine the changing threat environment, both internal and 
external to the hemisphere. These Ministers agreed that regional 
challenges need cooperative solutions and that the collaboration of 
virtually every nation is essential. They produced a consensus document 
that describes the region's commitment to combating the proliferation 
of weapons of mass destruction and which firmly condemns all forms of 
terrorism, drug trafficking, and transnational crime. The document also 
identified the need to strengthen cooperative mechanisms to counter 
these threats. This event reinforced the importance of partnering and 
highlighted the need for cooperative solutions for problems such as 
poverty, gangs, money laundering, human smuggling, counterdrug 
activities and dealing with regional violence.
    I would like to thank all of the members of the committee and all 
the Members of Congress for your support of U.S. SOUTHCOM and the 
important work we are doing in Latin America and the Caribbean. While 
the likelihood of large-scale military combat in our region remains 
low, the importance of sharing ideas, economic activity, cultural 
exchanges, and conducting military exercises is quite high. In fact it 
is essential to creating a mutually beneficial security environment in 
this hemisphere, and we ask your continued support of our initiatives 
throughout the region.
    In this vein, we are cautiously optimistic that Colombia is on the 
threshold of achieving its strategic objectives, but they will be 
heavily reliant on U.S. support for the next 2 or 3 years. The support 
from Congress has been invaluable for the past 6 years and we strongly 
encourage your continued support. Our initiatives include aircrew and 
maintenance personnel for helicopters, a robust logistics support 
system supporting JTF-Omega, Plan Consolidacion, and other ongoing 
support. In addition, we are seeking to provide the Colombian military 
with an automated on-line logistics system that integrates the supply 
and maintenance function of the Colombian military and national police. 
We are also trying to support to a modest depot level repair 
capability, fielding ``Midnight Express'' boats supporting riverine 
interdiction for the Colombian Navy on their North and Pacific coasts, 
and helping to establish the 2d Riverine Brigade on their Pacific 
coast.
    We also appreciate your past support for several of our other 
initiatives, including expanded authority to conduct 
counternarcoterrorism operations in Colombia.
    We understand and appreciate the value of congressional support and 
are thankful for all you have provided for the command. I want to thank 
you again for delinking IMET from the ASPA sanctions. Your actions will 
enable us to re-engage hundreds of military personnel each year who 
would otherwise be denied an opportunity to benefit from U.S. military 
education and training.
    While we deeply appreciate your support in this area, there are 
other areas for which we also seek assistance. The command is seeking 
congressional support for the construction of a consolidated 
headquarters facility in Miami-Doral for occupancy by 2010. The 
headquarters is vital for effective command and control of future 
joint, coalition and interagency operations that we conduct in the 
region. Our current headquarters complex lacks adequate space, is 
improperly configured, does not comply with anti-terrorism and force 
protection standards, and has dated communications architectures and 
expensive annual lease costs. Your support for this project is of 
tremendous importance.
    The command received $110 million in Foreign Military Financing 
(FMF) for the region in fiscal year 2006. FMF is a prerequisite for 
successfully funding many of the programs that enable military-to-
military engagements that lead to long-term relationships. In addition, 
it enables partner nation capacity that, in turn, provides for defense-
in-depth for the U.S. Partner nations prefer to buy U.S. military 
equipment for the quality and sustainment packages that accompany the 
purchases. We appreciate your continued support on this important 
program.
    Finally, we ask your support for the proposed Center for Excellence 
in Human Rights. SOUTHCOM is the only combatant command with a 
dedicated Human Rights program. The authorities we would gain from this 
proposed language would allow SOUTHCOM to intensify our support to our 
partner governments in their efforts to eliminate human rights 
violations. The protection of human rights is an essential step toward 
strengthening democracy in our neighboring countries.
    As I mentioned earlier, it is in the context of geographic, social, 
economic, political and military linkages that we plan and execute the 
daily activities associated with our mission, and successful mission 
accomplishment for the command requires cooperation and reliable 
partnerships--partnerships based on commitment, based on a promise to 
this region of the world.
    This combatant command is committed to being the strategic partner 
of choice in the region and will focus on the relationships necessary 
to do so. We will strive to invent new approaches in every area; from 
tactical execution to strategic engagement, from more efficient 
training methodologies to creative ways to improve resources.
    I take great pride in our mission and in the exceptional men and 
women of the United States SOUTHCOM. I know from first hand experience 
that today's men and women in uniform are patriots of extraordinary 
promise. They are coming of age in this new century as the war on 
terror unfolds; they watched the World Trade towers fall to earth with 
incomprehension and anger; and then reacted with fierce determination. 
They have made a promise to their country that they will stand the 
watch and fight for us to win the battle that is unfolding today. From 
the dusty streets of Baghdad to the mountain passes of Afghanistan to 
the tropics of Colombia to the cold foothills of Korea--they are 
fulfilling that promise. I am proud to serve with them in U.S. 
SOUTHCOM.
    I thank you for your support to the finest military in the world.
    I am prepared to answer your questions.

    Chairman Levin. Thank you very much, Admiral.
    Thank you all, not just for your opening statements, but 
also for your statements that you prepared in advance. They 
came, as we really prefer, a couple of days in advance, and you 
have kept that commitment to us, it's not always kept by a lot 
of our witnesses, and it's very much appreciated when it is, 
because it allows us to prepare better, to actually read your 
statements, have our staff read your statements before we meet 
together. So, thank you for that, as well.
    Admiral Stavridis. Yes, sir.
    Chairman Levin. Admiral Keating, one of the major problems 
that we had before the September 11 terrorist attacks was a 
lack of information sharing--by the way, let's try an 8-minute 
round in the first round here.
    One of the major problems that we had before the September 
11 terrorist attacks was a lack of information sharing among 
relevant government agencies. When General Renuart had his 
confirmation hearing earlier this month, I asked him about the 
apparent fact that NORTHCOM had withdrawn its representative to 
the National Counterterrorism Center (NCTC) last year, because 
NORTHCOM and the Defense Intelligence Agency found that it was 
too hard to get information and cooperation from the NCTC. In 
order to avoid a repeat of the pre-September 11 failure to 
share information, would you agree that we need to ensure that 
there is good information sharing and cooperation between 
NORTHCOM and the NCTC as well as among other Federal agencies?
    Admiral Keating. I would agree emphatically.
    Chairman Levin. Admiral, one of the painful lessons that we 
saw from Hurricane Katrina was the need for better planning, 
coordination, and integration among Federal and State emergency 
response agencies, NORTHCOM, and the National Guard in the 
event of a domestic disaster.
    What were some of the key NORTHCOM lessons learned from the 
Hurricane Katrina response experience, and what--in your 
judgment--remains to be done to ensure that that kind of 
confusion and delay is not repeated?
    Admiral Keating. Principal lessons learned would be 
several, Mr. Chairman.
    One, the ability to assess the situation accurately and 
rapidly. Two, the ability to communicate across the spectrum of 
first responders, up to and including title 10 Reserve National 
Guard Forces who would come from out of the area to deploy. 
Three, to provide--via whatever means--the capability to 
stabilize and mitigate human suffering, and restore 
infrastructure as quickly as possible. Those would be the three 
major areas where we've concentrated our efforts.
    Changes would include--we now have a full-time, Active-Duty 
colonel embedded with each Federal Emergency Management Agency 
(FEMA) region, at the FEMA region headquarters. So, that's 10 
Active-Duty personnel, with a small support staff who are, 
essentially, FEMA operatives, to provide direct liaison from 
NORTHCOM. In conjunction with the National Guard and FEMA and 
the support of Congress, and with some extra money, we 
purchased cell phone farms. We have three, at NORTHCOM, of 
these cell phone farms. We can either airlift, drive, or float 
these cell phone farms in where we power up a Honda generator, 
put a tower up and start dispersing cell phones, and it is an 
organic, but complete system which--when infrastructure is 
restored--can then integrate into the full system.
    Chairman Levin. Great.
    Admiral Keating. Then the third point might be the 
exercises we're doing with increased frequency, and complexity, 
to ensure that the responders at the State level understand the 
capabilities at the Federal level.
    Chairman Levin. Thank you.
    Just one question on ballistic missile defense, Admiral. 
Would you agree that it's important that the ground-based mid-
course defense, the GMD system, be operationally effective and 
reliable, before being declared fully operational?
    Admiral Keating. I would, sir.
    Chairman Levin. General, let me turn to you now.
    The pace of operations and the scope of operations in Iraq, 
Afghanistan, as well as our rotational strategy for meeting 
U.S. Central Command (CENTCOM) force requirements has put an 
extraordinary strain on the readiness of our uncommitted units. 
So many people and so much equipment is already deployed that 
on February 28 this year, General Schoomaker in the Army, and 
General Conway in the Marine Corps, each acknowledged their 
concern about the challenge of manning, equipping, and training 
units that are preparing to deploy, but are not deployed.
    The readiness in nondeployed Army units has declined to 
alarmingly low levels, General Schoomaker refers to this as a 
``lack of strategic depth.'' Your command is responsible to 
provide trained and ready joint forces to our combatant 
commanders, can you give us your assessment of the readiness of 
our non-deployed land, air, and sea forces? Also, what 
specifically can be done to improve the readiness of those 
forces? Particularly our ground forces?
    General Smith. Yes, Mr. Chairman.
    First of all, I share the assessment that the Chief of 
Staff of the Army and the Commandant of the Marine Corps have. 
For those forces that are not deployed and not very close to 
getting deployed, have personnel shortfalls, as well as 
equipment shortfalls. The kind of training that they're getting 
is very much focused on counterinsurgency as opposed to some of 
the other skills that they would need for a conventional 
warfight.
    The way we do business is we move the training flow and we 
move the equipment towards units as they get closer to 
deployment. That leaves those that just returned in the process 
of regaining and resetting their equipment that they brought 
back from war, turning over in the organization and sending 
people off to school, and then reintegrating generally about a 
third of their personnel to the training flow so that they can 
get prepared for their next deployment. That results in a very 
significant number of people being at a readiness levels of 
category level (C)-3 or C-4.
    Chairman Levin. Just briefly, that's an unacceptable level, 
bottom line.
    General Smith. C-1, of course, is they can do any mission. 
C-2 is they can do primarily the missions that they're being 
asked to, but some that they can't do, and C-3 is a readiness 
level that we would not send them to war at. We would send them 
to war at C-1 or C-2 as long as they could perform the mission. 
So our goal is, as they sit static and they go through reset, 
is they will be generally at that C-3 readiness level. But, 
then as they start standing up their training pipeline and 
their personnel pipeline, they will get closer and closer to C-
2 and then ultimately we'll have them at C-1 prior to them 
going into the theater.
    As I was at Fort Stewart and Fort Bragg about 10 days ago, 
and I asked what they desired the most, as far as being able to 
have a capability in the United States to train on, was 
peacetime up-armored Humvees, the M11-14. That's because most 
of them go to Iraq or Afghanistan, there are insufficient 
numbers to be able to train on in the States until they go 
through their National Training Center, or the Joint Readiness 
Training Center (JRTC) at Fort Polk.
    Chairman Levin. General, a recent New York Times article 
highlighted the challenges that the Army's having in providing 
its typical airborne infantry portrayed as a ``force 
immediately ready'' to deploy for a contingency anywhere in the 
world. This ready brigade, also known as the Division Ready 
Brigade, ordinarily stands to deploy by air within 18 hours of 
alert, its U.S. combat troops anywhere in the world that they 
are needed.
    The article points out that our most recently designated 
Ready Brigade of the 82nd Airborne Division at Fort Bragg is 
getting ready to deploy as part of the surge to Iraq, and 
therefore, as of this moment, the Nation is without its 
required Ready Brigade.
    As a force provider, you obviously will be paying 
particular attention to and be involved in making sure that we 
have an appropriate combat brigade capable and available for 
worldwide deployment within the 18- to 72-hour standard which 
has been established. What can be done to ensure that the 
Nation reestablishes this capability, how concerned are you 
about the fact that we don't have it at the moment, and how are 
we going to cover that Ready Brigade mission adequately, 
without interruption, as we continue the plus-up of forces in 
Iraq, and the rotational strategy in both Iraq and Afghanistan?
    General Smith. Mr. Chairman, I was with that unit, the 1st 
Brigade Combat Team (BCT), the 82nd last Friday--I'm sorry, a 
week ago Friday, and they're out at the JRTC right now at Fort 
Polk. So, indeed, to meet the timelines that we would expect of 
the Division Ready Brigade, they would have some challenges 
trying to meet the specific requirements, but would they be 
able to respond to a threat in another part of the world, other 
than Iraq or Afghanistan? Yes. It would just take a little bit 
more time than we would like it to take. We've accepted that 
risk through April 1, at which time, a unit of the 101st will 
take over that role.
    I have cautioned everybody that might want to use those 
units that because of the way we're doing business, they might 
find themselves in a situation where it might take a little bit 
longer than the specific timeline, which is a fairly 
challenging timeline--within a day. We are accepting some level 
of risk as we go about doing that. But, we always have somebody 
in mind to be able to go perform that mission. We will have a 
permanently trained and ready force to do that with the 101st, 
with some delays, depending on where they are in their reset 
timeline, to meet those----
    Chairman Levin. The added risks are obviously of concern to 
us, as they are to you. I'm wondering if you, for the record 
because my time is up, would give us an idea as to how much 
additional time would be required for them to respond?
    General Smith. I certainly will, Senator.
    Senator Warner. It is an important question, as part of 
this hearing, it ought to be answered here.
    Chairman Levin. Do you have the additional time that it 
would take?
    General Smith. Senator, I don't, because it would change 
every day.
    Chairman Levin. How about a range? I'll get you in trouble 
with a range question.
    General Smith. I would say, we would like to have them be 
able to get airborne or at least a first unit at a classified, 
but at a fairly short period of time, which would constitute, a 
day or two. Then the rest would follow in a matter of days.
    The fact that the JRTC, they are probably the most ready 
force we have in the United States right now, as far as 
equipment and training, and the ability to go do this. So, they 
would take a couple of extra days to go. When they get back, 
and they're back at Fort Bragg, then that timeline will change.
    Chairman Levin. Which way?
    General Smith. It will probably improve. Just because they 
have the facilities there, and we have the rapid ability to 
move airplanes in there, and they would be in a State, and they 
would be on some level of standby to be able to----
    Chairman Levin. When are they going to Iraq?
    General Smith. I'm sorry, did you say when?
    Chairman Levin. Yes.
    General Smith. They go the 2nd or the 3rd--I'm sorry, the 
1st of the 82nd goes in June.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    That important colloquy just underscores the stress that 
all military commanders, indeed, from the Secretary of Defense 
down, have acknowledged that our forces are being put under. It 
means greater requests to the individual in uniform and to 
their families, and to the question of our carefully planned 
operations here at home, and they impact, indeed, on our 
homeland defense, and other things. So, we better deal with it, 
the surge is going forward, we all hope it is successful.
    I would like to follow on that General Smith, because 
Congress this week, and perhaps into next, is going to be 
dealing with the governmental appropriations, and I am reading 
from the full committee print of the House of Representatives, 
March, this month, Section--Chapter 9--General Provisions, 
``Congress finds that as Defense Department policy that units 
should not be deployed for combat unless they are fully mission 
capable. None of the funds appropriated or otherwise made 
available in this act may be used to deploy any unit of the 
Armed Forces to Iraq unless the Chief of the military 
department concerned has certified in writing to the 
Committees, the Appropriations Committee and Armed Services 
Committee, days in advance of the deployment that the unit is 
fully mission capable.''
    Help us work through your role in that very important 
decisionmaking, if in fact, this or something similar to it 
became law. What is your role in that?
    General Smith. Senator Warner, first of all, my role on a 
regular basis is to monitor the readiness of the force, so that 
we know, in a contingency, what our capabilities are, so that 
we could advise the Chairman and the Secretary of Defense, and 
in turn, the President on what capabilities we can respond to.
    As far as the certification process, or a signing off on a 
unit that is ready to go, we don't do that.
    Senator Warner. That is clear.
    General Smith. There's a service responsibility and my 
component commands, however, do. So, in the instance of an--I'm 
sorry, they do not do a written statement.
    But certainly, General Campbell who is a component 
commander, is integrally involved in the training, the 
equipping, and the readiness of that unit to meet its latest 
arrival date in Iraq or Afghanistan or Kosovo or wherever----
    Senator Warner. Now, he is the Army?
    General Smith. He's the Army Forces Commander at Fort 
McPherson, and he's my Army component commander.
    Senator Warner. You have a similar one for Navy?
    General Smith. Indeed we do, Admiral Naplan at Fleet Forces 
Command, and General Blackman at Marine Forces Command, and 
General Keys at Air Combat Command.
    So they regularly report on the readiness of the unit, so 
as their personnel are trained and ready and the numbers are 
right, they will change from a lower readiness status, to a 
higher readiness status, and then we track them on a stair-
step, and we watch them as they get closer and closer to 
deployment so to make sure that we're providing for those 
trained and ready forces.
    But we rely on the Services, and we rely on our component 
commanders, and indeed, the Division and BCT Commanders to 
ensure that they're ready to go.
    Senator Warner. Let me probe more deeply here. Force 
commander makes the certification that this specific unit is C-
1, C-2, whatever the case may be. That is transmitted to you, 
is that correct?
    General Smith. It is.
    Senator Warner. Now, my question is do you do any 
independent analysis to verify the finding of that force 
commander?
    General Smith. I do not.
    Senator Warner. You do not. So, simply you accept it at 
face value, you have no responsibility under law or otherwise 
to go back and review it and give your own command's judgment 
as to the accuracy of that report.
    General Smith. That's correct, Senator Warner.
    Senator Warner. Then it goes on up to the Chief of Staff of 
the respective Service. Now, do they then try and go back 
through you, or some other ways to make an independent 
assessment?
    General Smith. They do not come back through me. They have 
a very close relationship with their Service headquarters.
    Senator Warner. Well, of course.
    General Smith. So they're also--I think this is a better 
question for General Schoomaker, for instance, I believe that 
he accepts the readiness rating and the status of the unit as 
determined by the commander of that unit.
    Senator Warner. So as this proposed law is written, that 
force commander is the one that is going to make that decision?
    General Smith. Indeed.
    Senator Warner. Whether or not the unit is ready?
    General Smith. Indeed, the commander should make that 
decision.
    Senator Warner. Now, back again to your command, as I read 
this, this would not permit anyone, any unit, below C-1 to be 
deployed. Do you come into that equation at all?
    General Smith. First of all, the C status is a--there are a 
variety of ways to look at readiness, and that happens to be 
one, and it's fairly simplistic. So really, the combatant 
commander on the receiving end establishes the requirement.
    For instance, an artillery unit may not be C-1 to perform 
its artillery role. On the other hand, we will use them to go 
perform a military police role. So that the readiness of them 
to perform that mission, would not necessarily be reflected in 
the readiness status of the unit to do its other conventional 
missions. So, it was tailored to meet the combatant commanders' 
requirements, and we monitor that. Then we rely on the 
commander to say, ``Yes, indeed, we are ready and trained to do 
the mission we've been asked to do.''
    Senator Warner. I think, I judged from your response, you 
are not a part of that decisionmaking.
    General Smith. We are not. That's correct, we are not.
    Senator Warner. Now, Admiral Keating, as you complete your 
very distinguished career in your current assignment, our wish 
to you, as I have come to know you quite well through the 
years, personally, you leave with a sense of satisfaction and 
achievement. But, there must be things that either you were not 
able to achieve, for whatever reason, on your watch, or if you 
had more time, you would achieve them, but what is left undone 
that you think your successor has to do to continue to improve 
this structure?
    Admiral Keating. Primarily, Senator Warner, it would be to 
make even healthier and more open interagency cooperation--not 
just relationships, but work ethic--between the DOD and the 
other Federal agencies, and the commercial sector.
    Post-Hurricane Katrina, we were getting phone calls in the 
hours after the storm moved--you remember it missed New 
Orleans, but it hit Gulfport, MS--very hard. Phone calls from 
folks like Home Depot, FedEx, and Wal-Mart saying, ``You want 
wood? We have wood. You want trucks? We have trucks. You want 
water? We have water.'' We really hadn't thought through the 
commercial application of help that could be provided. 
Remember, there were 140 countries around the world who 
volunteered assistance. So, making more healthy and more 
transparent the interagency working relationships on a day-to-
day basis, I say would be a primary goal for my successor.
    Senator Warner. Then, I presume that as you turn over that 
you've made those points clear to your successor.
    Admiral Keating. He is well aware, yes, sir.
    Senator Warner. Well aware of that.
    On a scale of 1 to 10, how do you feel America is prepared 
to meet the range of contingency that any prudent planning 
document requires? Not only of hurricanes, but WMDs, Heaven 
forbid a repeat of September 11 proportions. Where do you think 
we are, 1 to 10?
    Admiral Keating. In the aggregate, Senator, a seven. We 
could be lower in some specifics. Some of the high end--a 
biological attack would be a significant challenge. Pandemic 
influenza, not even an attack.
    Senator Warner. Surely, disease.
    Admiral Keating. On the other hand, we are much better 
today than we were 4 or 5 years ago, one has to be careful. A 
disaster may be relatively low-end unless you're in the path of 
the hurricane or the tornado.
    Senator Warner. Right.
    Admiral Keating. But we're much better at it today than we 
were 3 or 4 years ago.
    Senator Warner. About a seven?
    Admiral Keating. About a seven.
    Senator Warner. Lastly, to Admiral Stavridis. You mentioned 
that you just visited the Panama Canal, and that is an issue 
that rises and falls. At the moment it seems to be relatively 
quiet. I recall the last consternation was that China was 
beginning to close in at both ends of the Canal with offerings 
to the locals to do certain things that gave us a presence 
there.
    Give us a short report on the Canal, how you feel it is? 
Because it is integral to our security program. Is the 
modernization likely to go ahead? What role has China or other 
foreign nationals taken to support the operation of that Canal?
    Admiral Stavridis. I will, sir.
    First of all, as we say in Spanish, I think you're right, 
it is ``muy tranquilo,'' very calm, in the Canal right now. I 
just had the opportunity to go down and open one of the locks 
down there. I spent a fair amount of time talking about the 
security issues with the Administrator of the Panama Canal, a 
Panamanian, of course.
    I will tell you as a professional mariner who has sailed 
the Canal under U.S. operations, and has sailed it under 
Panamanian operations, that it runs in a completely 
professional and excellent fashion today. So, as an entity, as 
an organization, as a flow, it's excellent.
    Sir, as you mentioned, the Panamanians just passed a 
referendum with a 72 percent majority, very, very high approval 
for a $5.25 billion expansion of the Canal. This expansion, 
which will take about 7 years to complete, will open the Canal 
to about 50 percent more shipping, because the current Canal is 
not quite wide enough for the larger ships to pass through it. 
That's a significant economic benefit, not only to Panama, but 
to the region, and to the United States.
    We are very concerned, however, about the potential for the 
Canal to get targeted. It's something we think about at 
SOUTHCOM and we partner closely, not only with the Panamanians, 
with all the concerned nations.
    As a result, we do an annual exercise in Panama, and off 
the waters of Panama, that began 3 years ago with only three 
nations participating, this summer there will be 20 countries 
participating in it. It's become one of our largest multi-
lateral exercises anywhere in the world, and it's focused on 
counterterrorism as it might attack in the Panama Canal.
    So, we're looking at it very closely, there's multi-lateral 
coordination to deal with any potential threat to it. In terms 
of the foreign influence over the Canal, sir, I don't see that 
as a factor. I think the Canal is run extremely well by the 
Panamanian government without outside influences. They are 
partnering closely with us, and with other nations of the 
region to protect it appropriately.
    Senator Warner. Thank you.
    My time is up, Mr. Chairman.
    Senator Bill Nelson [presiding]. Thank you, Senator Warner.
    General Smith, I want to pick up on some line of 
questioning from Senator Warner.
    I was struck last week when the Chief of Staff of the Army 
was here, in which he openly stated and admitted, at the early 
part of the war that units of the National Guard went to Iraq 
without the proper training, and without the proper equipment. 
On the latter, I know firsthand, because I was getting calls 
from moms, dads, husbands, and wives about members of the 
Florida National Guard not having the proper body armor. Even 
though, I think, an objective analysis would say that certainly 
the training was not a question for the Florida National Guard, 
but the equipment was.
    Now, since you are to monitor the readiness of the forces, 
how can you make sure that--not only the Active-Duty Forces, 
but the National Guard Forces and the Reserves that are going 
to Iraq--are ready and equipped?
    General Smith. Senator Nelson, we treat and consider the 
National Guard and Reserve exactly the same as we do the 
Active-Duty units, in their march to deployment. Now, we focus 
mostly on the major units and, at the BCT level, and as a 
National Guard or Reserve unit gets closer to their deployment 
date, you'll see them go from a readiness status of, let's say, 
C-4 to C-3, their equipment will get better, they'll get 
equipment to train on, their personnel situation will get 
better, their training will get better, and they will turn from 
red to yellow to green during that process.
    The reason this process works--because it is true that the 
readiness level of the National Guard is less than the Active-
Duty Force, is because their time during reset, or their time 
back to the States, between the time they got back the last 
time and the time they're going, it's supposed to be 5 years. 
So consequently, they are not going to get attention until they 
get closer to their deployment dates.
    That, again, is one of those areas where we find ourselves 
taking some risks in some other areas of the world, if we had 
to deploy them, that I know you're aware of. But again, the 
first of the 34th, for instance, the Minnesota National Guard 
unit that we extended not too long ago, went over there with 
all of the same equipment and everything that the Active-Duty 
Force had.
    Senator Bill Nelson. The question is, how are you involved 
in making sure--since one of your tasks is to monitor the 
readiness of the force--that they are trained, and that they 
are equipped, so that we don't again have what General 
Schoomaker told us--which stunned this committee last week, 
when he testified that the National Guard was going to Iraq, 
and it wasn't trained, and it wasn't equipped.
    General Smith. Again, I don't think--at that point, that 
was because of the rapidity that that happened, so there was no 
training pipeline and readiness pipeline that there is today to 
do that, and some level of, with some thorough process.
    Senator Bill Nelson. Do you think that your command, you, 
should have more authority in the certification of the 
readiness of the forces, and the decision to deploy them?
    General Smith. I'm satisfied that our component commanders 
do a good job at evaluating the readiness of the force before 
they deploy them into war.
    Senator Bill Nelson. Okay, and who is making that decision?
    General Smith. That decision is made by, the first command 
commander in that part of the Army, in concert with the 
commander of whatever the unit happens to be. In the Active-
Duty Force, it would be the Division Commander or the Corps 
Commander. In the National Guard and Reserve it would be, first 
Air Force or whoever it is, that's coming, first Army or 
whoever it does that's responsible for the training, readiness, 
and equipping of the Reserve component.
    Senator Bill Nelson. Admiral Stavridis, let me take care of 
some housekeeping here, for you. Why don't you lay out for the 
committee, why your command headquarters needs to be where it 
is, so that we can have it on the record here, especially since 
we thought this thing was done with Base Realignment and 
Closure, if you will?
    Admiral Stavridis. Sir, thank you.
    First, sort of proceeding from the bigger picture to the 
specifics, I'm absolutely convinced the command should be in 
South Florida. Why? Because it's the nexus of transportation, 
of intellectual discourse, of publishing, of academe as it 
relates to Latin America and the Caribbean. All roads lead to 
Miami, in terms of the way the league flows together, and the 
way it connects with the United States. I'm absolutely 
convinced South Florida is the correct location for it.
    Let's kind of bring that in a little closer--the best place 
to locate it, specifically in South Florida, in my opinion, is 
in Doral, which is effectively in the heart of Miami itself. 
It's extremely close to the international airport.
    Now, why is that important? It's because there is a 
tremendous leveraging effect of people, team leaders passing 
through Miami, because of its transportation nexus, and it 
affords us at the headquarters the opportunity to literally 
scoop people up at the airport, get them to the headquarters, 
have a discussion with them, put them on an airplane, get them 
back.
    Senator Bill Nelson. Give us an example of who.
    Admiral Stavridis. I can very well. Minister Santos, of 
Colombia, who routinely comes to Washington, makes a point of 
passing through the Miami International Airport, I get a chance 
to just hop in the car and go over there. I get a very valuable 
30, 45 minutes with him, and he makes his connecting flight. 
That example is repeated frequently and often at all levels in 
my staff, through all my flag and general officers.
    Second, that Doral location is extremely proximate to the 
Florida International University and the University of Miami, 
two of the leading centers of thought and intellectual study of 
the entire region--the Caribbean and Latin America.
    Third, the school situation is the best there for my 
families and the ability of spouses to have work in the area. 
All of this plays into a quality of life piece that fits, I 
think, best in Doral.
    So, the State of Florida has made an offering of land to us 
there, upon which we could use military construction funds, if 
the committee and the Senate, and ultimately, Congress approve 
it, and we would like to begin construction on the 
headquarters.
    Our current situation is, we're scattered in nine 
buildings, all around the Miami area, and then we have one--far 
too small--central location, and we're seeking to consolidate 
that, put it in one place, and as I look at the ability to 
conduct the mission that I've been given as a combatant 
commander, I do believe the Doral location is the best one, 
overall.
    Senator Bill Nelson. In effect, the State of Florida 
location is giving you at what would be a good value, whereas 
the present landlord is Jack Lorada.
    Admiral Stavridis. Yes, those are both true statements.
    Senator Bill Nelson. Okay.
    Admiral Keating--and thank all of you for your public 
service.
    Senator Warner. Excuse me, Mr. Chairman, I wonder, I had a 
question along your lines.
    Senator Bill Nelson. Sure.
    Senator Warner. I wonder if I might put it in the record at 
this point?
    [The information referred to follows:]

    Senator Warner. Admiral Stavridis, I note in your thorough written 
statement that you advocate for congressional support for the 
authorization in fiscal year 2008 for $237 million to construct a new 
headquarters complex for Southern Command (SOUTHCOM) in Miami, FL. 
While I am supportive of your need for a new headquarters, my concern 
is that, unlike most other U.S. major command headquarters which are 
located on military installations, you are proposing to build this 
complex on land leased from the State of Florida. The lease for part of 
the land will expire in 2015 (albeit with four 10-year options upon 
mutual agreement by both parties). Furthermore, the lease requires that 
the new construction must be used for a SOUTHCOM headquarters, or the 
lease is terminated. Finally, upon termination of the lease for any 
reason, ownership and control of the headquarters complex will revert 
to the State of Florida, and the State has the option to require the 
DOD to tear down the headquarters at DOD expense and to restore the 
land to a pre-existing condition. The lease also requires SOUTHCOM to 
grant the State of Florida access and inspections rights to any part of 
the headquarters complex, including areas for classified and coalition 
forces operations. Why are these terms considered acceptable for a $237 
million military construction investment?
    Admiral Stavridis. The State of Florida is providing land valued at 
$40 million via a no-cost ground lease for the construction of SOUTHCOM 
headquarters through 2055, with options. The four 10-year options will 
be granted by the State of Florida upon authorization of the $237 
million military construction project. The U.S. Government may use this 
property through 2055 for SOUTHCOM headquarters purposes. The State 
land is located in the optimal location to support SOUTHCOM's mission 
accomplishment. In the event that SOUTHCOM headquarters relocates or 
vacates the property, the U.S. Government may utilize the property for 
other purposes upon approval by the State of Florida.
    The Department of Defense (DOD) is negotiating a ground lease 
amendment with the State of Florida to gain greater flexibility of 
facility use. The DOD is working with the State of Florida to amend the 
ground lease agreement to gain the State's pre-approval of acceptable 
alternative uses by any U.S. Government agency for administration, 
military headquarters, emergency operations center, and equivalent 
administrative uses in the event SOUTHCOM vacates the facility. The 
State has indicated a willingness to pre-approve alternate uses of the 
facility for other U.S. Government agency use for administrative 
purposes.
    In the event the U.S. Government vacates the facility and no longer 
requires its use by any Federal agency, the State has two options; (1) 
retain the improvements, or (2) require improvements be removed.
    The lease agreement allows the State, upon reasonable notice, to 
inspect the premises. The DOD will escort State government officials 
during any inspection to protect classified information.
    Senator Warner. Admiral Stavridis, doesn't this lease agreement in 
effect deny the DOD the flexibility to realign unified and combatant 
commands without the significant penally of losing a headquarters 
complex?
    Admiral Stavridis. No. In the event that SOUTHCOM headquarters 
utilize the property for other purposes upon approval by the State of 
Florida. The DOD is working with the State of Florida to amend the 
ground lease agreement to gain the State's pre-approval of acceptable 
alternative uses by any U.S. Government agency for administration, 
military headquarters, emergency operations center, and equivalent 
administrative uses in the event SOUTHCOM relocates or vacates the 
facility.
    Senator Warner. Admiral Stavridis, did SOUTHCOM or the Department 
of the Army ever request an outright deed transfer of the land from the 
Slate of Florida in order to secure ownership? If so, what was the 
State's response?
    Admiral Stavridis. The State is researching this option. Early 
feedback is that the State of Florida may transfer title to the land if 
approved by the State Board of Trustees and if the U.S. Government pays 
fair market value. The State is researching to determine if there arc 
other options for transfer of title.
    Senator Warner. Admiral Stavridis, did you analyze the alternative 
of locating your headquarters on a military installation which might 
benefit from a greater measure of force protection and the efficiencies 
gained by sharing supporting activities in existing facilities? If, so, 
what were those alternatives, and why are you proposing to build on 
leased property?
    Admiral Stavridis. Construction on State land in Miami-Doral is the 
best site location for SOUTHCOM's mission accomplishment and meets DOD 
anti-terrorism and force protection requirements.
    Seven studies have been conducted since 1995 to explore multiple 
site locations. All studies indicate that Miami is the best location 
for SOUTHCOM headquarters. The studies include; (1) 1995 Relocation 
Study, (2) 2001 Interim Facilities Master Plan, (3) 2002 Facilities 
Master Plan, (4) 2003 Business Plan, (5) 2004 Northern Command 
(NORTHCOM)-SOUTHCOM Merger Study, (6) 2005 Base Realignment and Closure 
(BRAC), and (6) 2006 Economic Analysis. The current and past five 
combatant commanders have all testified before Congress that Miami is 
the best location for SOUTHCOM headquarters. In the most recent study, 
Homestead Air Reserve Base and Patrick Air Force Base were explored as 
potential alternate locations. A summary of the latest study follows:
Miami-Doral
    The State of Florida land in Miami-Doral is the optimal site 
location because:

        <bullet> Organizational efficiencies will be achieved by being 
        located in close proximity to key collaborative partners, 
        transportation nodes, and community support:

                <bullet> International Airports (daily non-stop flights 
                to most Partner Nations; 10,000 flights/yr)
                <bullet> Housing communities (top notch schools, best 
                hospitals, safe housing)
                <bullet> Partner Nation consulates
                <bullet> Coast Guard District-7 headquarters
                <bullet> Universities that collaborate on Latin 
                American Studies
                <bullet> Seaports (Port of Miami, and Port of 
                Everglades)
                <bullet> Federal Agency regional offices (DHS, DOJ, 
                DEA, DOS, Treasury, FAA)
                <bullet> Network Access Point (NAP) of Americas

        <bullet> Miami-Doral is outside of the hurricane storm surge 
        evacuation zone.
        <bullet> State land is immediately available and 
        environmentally sound. Adjoining FAA land is available and has 
        been tentatively approved for storm-water retention.
        <bullet> Miami-Doral is centrally located within reasonable 
        commute distance to preferred housing communities in both Dade 
        and Broward Counties.
        <bullet> Miami-Doral has ample nearby hotels within walking 
        distance to support contingencies, exercises, and conferences.
        <bullet> Miami is considered the gateway to the Americas, and 
        is culturally tied to Latin America.
Homestead ARB and Patrick AFB
    Even though some facility co-use benefits could be achieved at 
Homestead Air Reserve Base and Patrick Air Force Base, the following 
costs and disadvantages significantly outweigh facility co-use 
benefits:

        <bullet> Cumulative loss of organizational efficiencies 
        associated with the lack of proximity to key collaborative 
        partners, transportation nodes, and community support:

                <bullet> International Airports (10,000 annual 
                commercial flights; longer travel distance/time)
                <bullet> Housing communities (schools, hospitals, 
                housing)
                <bullet> Partner Nation consulates (visas and 
                collaboration)
                <bullet> Coast Guard District-7 headquarters
                <bullet> Universities that collaborate on Latin 
                American Studies
                <bullet> Seaports
                <bullet> Federal Agency regional offices (DHS, DOJ, 
                DEA, DOS, Treasury, FAA)
                <bullet> Network Access Point (NAP) of Americas

        <bullet> Homestead ARB is inside the mandatory hurricane storm 
        surge evacuation zone.
        <bullet> Sufficient land is not immediately available 
        (Homestead-litigation).
        <bullet> Not located within reasonable commute distance to 
        preferred housing communities in Broward County (or relocation 
        costs for employees to Patrick AFB), forcing civilian employees 
        who have working relationships with our partner nations to:

                <bullet> Relocate (Homestead--at own expense) 
                (Patrick--at government expense), or
                <bullet> Commute longer distances; 3-tolls each way, $6 
                round trip daily, or
                <bullet> Seek employment elsewhere.

        <bullet> Lacks nearby hotels to support exercises, 
        contingencies, and conferences (Homestead).
        <bullet> Distance from international airports costs 1,250 man-
        days in additional travel time to/from airports for 10,000 
        annual commercial flights.

    Miami-Doral is the best strategic location for USSOUTHCOM 
headquarters.

    Senator Bill Nelson. Well, if you'd like to go----
    Senator Warner. No.
    Senator Bill Nelson. Why don't you? No, I'll just defer to 
you?
    Senator Warner. It will take some time. This is one of 
these brilliant staff documents that goes into every aspect. I 
assure you that I am not trying to put it in Virginia. 
[Laughter.]
    Senator Bill Nelson. Well, I have to always--[Laughter.]
    Senator Warner. Correct. But this is a series of questions, 
very ably put together by our staff, because we are just trying 
to look at the costs and the other questions.
    Admiral Stavridis. Yes, sir.
    Senator Warner. So, if you would put that in the record at 
this point, I would be very much appreciative.
    Senator Bill Nelson. Absolutely.
    Admiral Stavridis. We would be happy to answer them, sir.
    Senator Warner. Fine, thank you very much.
    Senator Bill Nelson. It is so done.
    I'm glad you made that comment, I want to go onto Admiral 
Keating, just so that we could clear the record, Admiral 
Stavridis, because now there are folks that are saying it ought 
to be the old Homestead Air Force Base, and so forth, and 
you've just made the case clear, by your role is not only as a 
warrior, but it's also as a diplomat. When you can have access 
to all of these governmental and diplomatic leaders on the spur 
of the moment, which increases your contact and effectiveness 
by quantum leaps, then it's the logical thing to do.
    I'll close that, I want to pick up on what the chairman had 
asked you, Admiral Keating. On the cooperation of your command 
with the National Guard, and the State and local authorities 
when we have a national emergency. It was not a fine day when, 
in the midst of Hurricane Katrina, we suddenly had the military 
trying to order the National Guard around, and you got into all 
of those problems down there.
    I would hope that--particularly if it's a natural disaster 
in Florida, let me tell you, the Florida National Guard knows 
how to handle hurricanes. It shouldn't be the military 
commanders from someplace else coming in and telling them what 
to do.
    Admiral Keating. Couldn't agree more.
    Senator Bill Nelson. Would you comment on that?
    Admiral Keating. I couldn't agree more with you, Senator. 
I'm not aware of a specific example--you may have in mind as 
to--when you say it was not a good day when the military tried 
to order the National Guard around, in either Louisiana or 
Mississippi. Benny Landreneau, The Adjutant General (TAG), 
Major General Landreneau, the TAG from Louisiana, and Major 
General Cross, the TAG from Mississippi, and I, we were in 
communication, I never issued an edict to them. They asked for 
help, and we tried to provide it to the best we could.
    We ended up with some 55,000 guardsmen principally in 
Louisiana under the Emergency Management Assistance Compact 
where governors provided help by the National Guard, and we 
ended up with about 25,000 Active-Duty Forces. Some of those 
were afloat in the Gulf.
    I spend a lot of time with Doug Burnett, your TAG. He has 
come to our headquarters 2 years running for our annual 
Hurricane TAG Conference. We are well aware of Florida's 
experience in dealing with hurricanes. The last thing we would 
do is to presume command control of any State forces, or local 
responders in a crisis.
    So, we couldn't agree more, we understand our role, 
Senator, we will be in support of someone when we're directed, 
and that is how we train, and that is how we will employ our 
forces.
    Senator Bill Nelson. Senator Thune.
    Senator Thune. Thank you, Mr. Chairman, and thank you, 
gentlemen, for your great service to our country.
    I want to follow up on one of Senator Nelson's questions 
with General Smith. I heard some of the same complaints from my 
constituents, the National Guard units were going to Iraq 
unprepared, and I guess I'd like to get you to comment on 
whether that was a problem, was it a leadership problem, was it 
a funding problem, was it indicative of another large peace-
time military drawdown that had left our military unprepared to 
deploy, as has happened in previous conflicts, and as a follow-
up question to that, what are your thoughts on congressional 
efforts to raise the top line of the Defense budget, so that we 
don't have those same sorts of problems in the future?
    General Smith. Senator, thank you.
    First of all, with regard to the specific shortcomings or 
instances, it's hard to address the lack of readiness of a 
National Guard or a Reserve unit that goes over there. I was on 
the receiving end of those forces at the time that I think 
you're talking about, but I'm not sure as I was the Deputy 
Commander of CENTCOM.
    Of course, one of the issues, if you're talking armored 
Humvee and the like, is that we didn't anticipate the 
requirement. We were used to thinking about war with the enemy 
in front of you, not behind you. So, for a variety of reasons, 
the industrial base, power requirements, all of those were not 
established sufficiently to make sure that everybody had 
armored Humvees.
    As far as the armor piece, that continues to change. Today, 
the requirement for armor is considerably different than it was 
3 years ago. Today, you have the armor that goes down the arms 
and the legs, and much more protection, and that becomes the 
norm. That, by the way, is not inexpensive, and so the pipeline 
to get that stuff in theater continues on a regular basis, and 
those that need it, get it.
    Certainly the top line investment to re-equip the forces, 
and make sure that we have sufficient equipment for those kinds 
of contingencies is important. As we go into the surge, if you 
will, we were taking out some of the equipment out of our 
normal Reserve capability, that we would otherwise have to give 
to Active-Duty National Guard and Reserve Forces that go over, 
so there will--if we had to do something else, there would, no 
doubt, be some instances where people would not have the 
absolute best equipment, or the equipment that we'd like them 
to have, and so we would adjust our tactics for that.
    Uparmored Humvees is another good example. We would simply 
say, ``You can't leave the compound,'' or ``You can't go across 
the berm or whatever, unless you have the proper equipment.'' 
Those inside the fence, or otherwise, might have lesser capable 
equipment than those that are outside and patrolling the 
forces.
    The top line raise could help that, and make sure that our 
pre-position stocks are sufficient for the missions that we'd 
be asked to perform.
    Senator Thune. Thanks.
    Admiral Keating, with responsibility for protecting the 
United States from missile attacks, you are the primary user of 
the Missile Defense System (MDS), and over the last several 
years, Congress has provided resources to develop and deploy a 
system capable of destroying ballistic missiles from our 
enemies before they reach our cities.
    However, for Congress to continue to invest resources in 
this national priority, we have to know that you, as the 
warfighter, have confidence in the system. Do you have 
confidence in our MDS today? If so, how did the successful 
intercept test last September impact your views?
    Admiral Keating. I do have confidence in the system, 
Senator. We were prepared to deploy that system. The Secretary 
of Defense brought that system out of research and development 
and put it in the limited defensive operational status, as you 
recall, on July 4 and 5. In the weeks leading up to July 4 and 
5 this past year, as we were watching the North Koreans as they 
executed what we suspected they would, they launched a volley 
of missiles, one of them appeared to be an intercontinental 
ballistic missile.
    The integrated intelligence systems detected that launch 
and transmitted that information to our headquarters, I was in 
communication with the Secretary of Defense. We were prepared 
to respond with ground-based interceptors, had we been so 
directed by the Secretary. He had to give us the authorization, 
but the missile didn't get very far.
    So we were prepared to use it that day--prior to the 
successful test on September 1. That test, again, not an end-
to-end test, further reinforced my confidence in the system. I 
appear before you today as confident as I know how to be in the 
employability and the efficacy of that system.
    Senator Thune. Thank you. In 2007, the National Defense 
Authorization Act called for an organizational structure for 
effective management, coordination, and budgeting for the 
development and procurement of unmanned systems, including an 
assessment of the feasibility and advisability of designating a 
single department or other element of the DOD to act as 
executive agent of the Department on unmanned systems.
    So, Admiral Keating, I would direct this to you, as well. 
Do you think that establishing a single department to act as an 
executive agent for UAVs would enhance coordination, promote 
unity of effort, and reduce the uncertainty in the overlap of 
responsibilities in the event of a natural or manmade disaster?
    Admiral Keating. I do, sir.
    Senator Thune. On March 5, 2007, Air Force Chief of Staff, 
General Moseley, sent a memo to each of the Services, as well, 
asking the commanders of the combatant commands which 
recommends that the Air Force be the executive agency for 
medium and high-altitude UAVs, and I guess my question has to 
do with, since it is the existing role of the Air Force to 
conduct joint interdependent warfare from the air and through 
space and cyberspace, and they already have a proven record for 
providing vital air space and cyberspace capabilities for the 
Services, is the Air Force the best choice to be executive 
agent for fielding and integrating and operating UAVs?
    Admiral Keating. I think it is, sir.
    Senator Thune. Thank you.
    One question for Admiral Stavridis, after September 11, 
Congress passed House Resolution 4775, which was designed to 
fund operations in Colombia, the target being the narco-
terrorist factions. This expanded authority was further 
codified by National Security Presidential Directive 18 that 
allowed special forces soldiers in Colombia to expand their 
mission from solely counterdrug operations to one that includes 
fighting counternarcoterrorists, and counternarcoterrorism, 
trained for the national police and the Colombian Army.
    Just the question I have is how successful has that program 
in Colombia been, and are there lessons that can be learned 
there, that could be applied to what is a very serious drug 
problem in Afghanistan? Just your thoughts on that.
    Admiral Stavridis. Thank you, sir.
    If I could, just Colombia broadly, I think is moving in the 
right direction. If we look back on Colombia in 1997, 1998, 
1999, it was on the brink of falling into being a true narco-
terrorist state--kidnappings, murders, bombings, violence 
throughout the country, essentially trending toward an 
ungoverned state.
    Come forward, 5 or 6 years. Because, I would argue, the 
reasonable application of U.S. resources, and a small presence 
of U.S. military, civilians, and contractors; and Senator, 
there's a cap on our military of about 800--we've been well 
below that throughout this whole process, and then we only have 
about 500 Active-Duty military in Colombia--but partnering in 
the system the Colombians have shown great progress.
    For example, in Colombia today, in all 1,098 
municipalities, there's a strong police presence. Kidnappings 
are down 76 percent, murder rates are down 50 percent. The 
economy is doing well, unemployment is down. President Uribe 
enjoys popular approval ratings well over 75 percent. One of 
the three major opposition groups, the Self-Defense Forces of 
Colombia (AUC), has been completely demobilizing, taking 15,000 
fighters out of the field. The Revolutionary Armed Forces of 
Colombia (FARC)--by all intelligence estimates--have decreased 
about 30 percent, from 18,000 to 12,000.
    Now, are there continuing challenges in Colombia? You bet 
there are. Are drugs still a big problem? Yes, sir, they are. 
But are they making progress? I would say by any reasonable 
metrics standard, they are. I believe that we need to continue 
to provide that relatively modest level of resources over the 
next 2 to 3 years, and I think we will see Colombia move from a 
state which could have failed badly 5 or 6 years ago, to being 
one of our strongest and potentially most stable allies in the 
region. I think that's an important thing to understand.
    Again, there are going to be continuing problems and 
challenges, but I think the trends are up--Colombia is a 
country on the move.
    Senator Thune. Second part of that question--any parallels 
there with what's happening in Afghanistan? Any lessons that 
can be learned or applied?
    Admiral Stavridis. Two very different countries, but I 
think the fundamental answer is yes. Today there are a handful 
of Afghani police who are--just a handful, I believe less than 
10, but it's a start--who are in Colombia working with the 
Colombians to try and take some of these lessons back, and a 
lot of these lessons are classic counterinsurgency kinds of 
things. The fight against narcotics--both in Colombia and 
elsewhere around the world, is intertwined with the practice of 
sound counterinsurgency tactics, techniques, and procedures. I 
believe there is a good opportunity for cooperation and it is 
nascent, but it is starting now.
    Senator Thune. Thank you all, very much.
    Thanks, Mr. Chairman.
    Chairman Levin [presiding]. Thank you, Senator Thune.
    Senator Pryor.
    Senator Pryor. Thanks, Mr. Chairman.
    I would like to ask some questions on NORTHCOM, if I may. 
My first question on NORTHCOM is how is the relationship with 
the DHS?
    Admiral Keating. It's good.
    Senator Pryor. Is it integrated?
    Admiral Keating. Not as well as it should be, Senator, 
getting better. Things I might illustrate that would merit that 
evaluation--we now have a full-time, senior executive service 
level representative from DHS in our headquarters. We have two 
military officers who go to work every day at the DHS. We have 
10 Active-Duty colonels who are permanently assigned to FEMA 
regions, so they're working closely with the DHS throughout the 
country, in each of the 10 FEMA regions.
    We have aligned our exercise programs--under the national 
exercise program, DOD, DHS are conducting exercises--the same 
exercise, then enabling them therefore to be simultaneous with 
the same scenarios presented in the course of that exercise, 
two of those simulated exercises a year.
    So, I would say that there is work to be done, principally 
in the area of plans--we in the military have a culture of, we 
kind of know how to do plans, we go to school to learn how to 
do it, and for hundreds of years, we've been developing plans. 
DHS, relatively new, they have asked for our help, we're 
providing them help in building a family of plans to replicate 
the plans that are on our shelf in NORTHCOM and DHS. There's 
work to be done, but we're a lot better off than we were a 
couple of years ago.
    Senator Pryor. The chairman and I are also members of the 
HSGAC here in the Senate, and I'm the chair of a newly-created 
subcommittee called the State, Local, and Private Sector 
Preparedness and Integration Subcommittee. That is a lot of 
lessons learned from Hurricane Katrina, but a lot of other 
things, too--September 11 and a lot of other things, so I think 
that we need to do a better job, generally, and Congress needs 
to do a better job of oversight, at making sure that we are 
integrated, and that we are talking to each other.
    One question I would have for NORTHCOM, and it may be a 
non-traditional question, but in this world--I'm curious about 
your relationships with the Governors of the States. The reason 
I ask about them, is surely the number of times that the 
National Guard has been called up, so to speak, 99 percent of 
the time, it's been by the Governors, commanders in chief, to 
handle some local situations.
    Admiral Keating. Yes, sir.
    Senator Pryor. But tell me how your relationship is with 
the Governors, and how you're building that.
    Admiral Keating. I have gone with the Secretary of Defense 
to the National Governor's Conference here in Washington, DC. 
We have concentrated our efforts, primarily, Senator, through 
TAGs of the States to keep it on a military basis. General 
Renuart, when he assumes command tomorrow of NORTHCOM has, on 
his agenda, to appear before the National Lieutenant Governor's 
Conference. We have worked and collaborated extensively with 
the States, the head of the States' militia, and the National 
Guard, there is work to be done with the Governors themselves, 
and we're attempting to make those inroads through the 
Lieutenant Governors.
    Senator Pryor. With regard to this general emphasis that 
has been talked about in Congress and over at DHS with 
interoperable communications, are you all participating with 
DHS and with local law enforcement about trying to build an 
interoperable communications system?
    Admiral Keating. Extensively, yes, sir.
    Senator Pryor. How do you think that's going?
    Admiral Keating. Significant progress, particularly in the 
last 18 months, Senator. We came to you and asked for a little 
bit of extra money. Each of these systems costs about $2 
million. The system is an organic cell phone farm, we have 
three of them ourselves. DHS and FEMA have a half a dozen and 
the National Guard has 12 to 18, and they're procuring more. 
These can be rolled out in the event of a disaster when the 
infrastructure is wiped slick. We put them in, turn on the 
power, and distribute cell phones and satellite phones. Those 
systems did not exist pre-Hurricane Katrina, they now do.
    We also convened our second annual Defense Interoperability 
Communications Exercise down at Fort Monroe, VA, where all 
manner of agencies--from Sheriff Department to Fire Department, 
Red Cross, commercial, we have Wal-Mart and Coors Brewing 
Company come as well as National Guard, Active-Duty, and 
Reserve Forces. They literally set up their communications gear 
in a great big football field, go inside and figure out how 
they can talk to each other, using satellites and other methods 
of communication. So, lots of progress is being made. There is 
work to be done, to be sure, because there is not a single 
standard, and likely will never be, a single standard for all 
manner of communication within the common United States. But we 
are taking down some barriers, and we're getting good 
cooperation from industry in so doing.
    Senator Pryor. Great, thank you. I have a question for 
SOUTHCOM, and that, I think, Senator Thune a few moments ago 
asked about activities in Colombia, and you gave us an update 
on that, but I don't think he asked, unless I missed it, about 
hostages? Three American hostages being held by the FARC--
what's the status of that?
    Admiral Stavridis. Senator, thank you for asking that 
question.
    We have three U.S. hostages who are held today by the FARC, 
the lead insurgent group, narcoterrorist group. They are Tom 
Howes, Marc Gonsalves, and Keith Stansell, and they have been 
held hostage for over 4 years. It's an extremely challenging 
environment to try and effect their safe recovery, for a 
variety of reasons. One is the tactics, techniques, and 
procedures of the FARC, who are very good, they move the 
hostages frequently. They are in triple-canopy jungle, it's a 
very difficult operating environment.
    They are part of a larger group of Colombian hostages being 
held. We're working diligently with the Colombian military, the 
Colombian police, our own interagency partners by the U.S. 
Embassy, and we think about them every day. They are literally 
my top priority at U.S. SOUTHCOM.
    To have a fuller discussion of the current status of the 
efforts, or the opportunities to pursue that, we'd need to go 
into a closed session or I can submit that on a classified 
basis for the record, sir.
    Senator Pryor. We don't need to do that right now, but tell 
me, are you confident that they're still alive?
    Admiral Stavridis. The last proof of life was a video that 
was made almost 4 years ago. However, we remain confident they 
are still alive. Beyond that, I would not want to say without 
going into a closed session.
    Senator Pryor. Okay, I understand. Thank you.
    I have one last question for JFCOM and that is, the Joint 
Fires Integration and Interoperability Team (JFIIT), I'm just 
curious about the status of that, and how that's going, and 
where it's heading.
    General Smith. Senator, they're doing great things. They 
recently have been working with the Marine Corps to develop 
better procedures and capacities in the close air support role 
with the AV8 Harrier to give it digital communications and the 
like. We have recently used the JFIIT to go out and certify the 
Australian joint ground Forward Air Controllers (FACs) in 
Australia, and they're working with a Canadian joint ground 
FACs school to certify them as well. Much of this is a result 
of some of the fratricide incidents that have occurred 
elsewhere. But they are actively engaged in trying to make sure 
that the systems that we bring to the battlefield are able to 
talk to one another, that we can move information rapidly, and 
that the tactics, techniques, and procedures are standardized.
    Senator Pryor. Just one follow-up on that, if I may, Mr. 
Chairman, is what you've learned there and what you're doing 
there, does that transfer to interoperability with regard to 
DHS here in this country, and homeland security?
    General Smith. At JFCOM, I don't know that there is really 
a relationship between JFIIT and----
    Senator Pryor. I understand that there are things that 
you're doing there that would benefit homeland security and 
local law enforcement to know about.
    General Smith. Probably less in the JFIIT realm than in our 
lessons learned area in the exercise and experimentation we do 
with NORTHCOM.
    Senator Pryor. Okay.
    General Smith. There's an active relationship between my 
staff, both on the integration and experimentation and exercise 
business and Admiral Keating's staff.
    Senator Pryor. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Pryor.
    Senator Martinez.
    Senator Martinez. Thank you, Mr. Chairman.
    Good morning to all of you and welcome to the committee.
    Admiral Stavridis, I wanted to, first of all, tell you how 
happy we are to have you at SOUTHCOM in Florida, and we're 
proud of your service there, and appreciate all that you're 
doing, and I wanted to begin my questions by following up on 
the issue of Colombia. I took a break a moment ago and met 
outside with Foreign Minister Fernando Araujo who is here 
visiting, and I think leading to my question, I want to just 
touch on his life, a very courageous gentleman who spent 6 
years kidnapped by the FARC. He was able to escape during a 
rescue attempt in the midst of battle, and has been now named 
the Foreign Minister of Colombia.
    He's here, of course, promoting the Free Trade Agreement, 
which the President and I spoke about yesterday, I know you 
would agree is a very important component of what we're trying 
to do in the region to approve the Free Trade Agreement.
    Foreign Minister Araujo was telling me that kidnappings 
have been reduced by 90 percent in a country where no one who 
holds public office has not been touched by violence, whether a 
kidnapping or a murder to a public official or a family member. 
The Vice-President of Colombia has been a victim of kidnapping, 
President Uribe's father was killed in the course of a 
kidnapping. But it has been reduced, and so I think what we're 
doing in Plan Colombia is working.
    In addition to that, he also told me the flip side of that, 
which is economic growth, is now at 7 percent. Which is very 
encouraging and good news, and would be helped by the approval 
of a free trade agreement with Colombia--nothing more 
important, I think, for the region, including also Panama and 
Peru.
    I guess I would ask you an obvious question, which is, 
would you agree that these free trade agreements would be 
important for the region and the opportunity for economic 
growth, jobs, and those kinds of things, which help security 
issues, as well?
    Admiral Stavridis. Yes, sir. Clearly, my lane, if you will, 
is how does it impact the security of the region? I will tell 
you that, within the region, if you look at the results of free 
trade agreements, and I would point to the Central American 
Free Trade Agreement, there is an underlying security 
improvement in countries where the economies improve. So, from 
a national security perspective, the free trade agreements in, 
both proposed free trade agreements in both Peru and Colombia 
are important in terms of overall security.
    Senator Martinez. Admiral, we've made a great investment in 
Colombia, our forces have been there, assisting training, 
providing support, intelligence, can you tell us an assessment 
of where the Colombian armed forces are today, and how well 
they're taking the fight to the insurgents, and what the status 
of that is?
    Admiral Stavridis. Yes, sir. The Colombian armed forces 
have increased in size and capacity over the last 5 years, 
that's been due not only to their own efforts, obviously, but 
also to the assistance provided by the United States. Their 
training is improving constantly. I want to particularly 
underline that they work very hard on human rights, they put in 
place a serious vetting process, they are very receptive of the 
kinds of human rights training that we are able to provide to 
them, and I think, even as recently as the last year, you're 
starting to see significant military successes that you had not 
seen in the previous 5 years, including successful attacks on 
relatively high-value targets, relatively senior members of the 
FARC, second the demobilization of the AUC, one of the three 
insurgent groups distinct from the FARC, but that 
demobilization is a result of military pressure, as well as a 
negotiated settlement with the government.
    The FARC's decrease in size and capabilities is directly 
reflective of the increased military pressure that the 
Colombian military has placed on them. They are making strong 
progress, and I'm pleased from my perspective as I look at it, 
to see that.
    Senator Martinez. Also, of course, they've made progress, 
the government has, in deactivating a lot of the 
paramilitaries, more than 30,000 have now been deactivated, so 
that's also a good sign.
    Admiral Stavridis. Yes, sir, that's the AUC group I was 
talking about.
    Senator Martinez. That's what you meant.
    Admiral Stavridis. Yes, sir.
    Senator Martinez. I'm sorry.
    Venezuela is a concern, and their connection with Cuba, the 
two of them working in partnership, but one of the real 
concerns to me is the military buildup, the billions of 
dollars, instead of going to Venezuelan's poor, are now going 
to go to creating an armed environment in Venezuela. I wondered 
if you had any comment on that, and what your assessment of 
that situation might be?
    Admiral Stavridis. Whenever I speak of Venezuela, sir, I 
always like to start by reflecting that historically, the 
United States and Venezuela have enjoyed a very positive 
relationship. At the moment, with the current government in 
Venezuela, we see far less cooperation in areas of my 
responsibility--virtually no military-to-military cooperation, 
we see limited cooperation, if at all, in the narcotic front.
    As you said, I'm particularly concerned by the increasing 
purchases of arms by the current government. To simply list a 
few, 24 SU-30 fighters, a very advanced Russian fighter, 50 
advanced attack and transport helicopters, and in some ways, 
perhaps, most troubling, the purchase of 100,000 AK-103 rifles, 
this is the follow-on to the famous AK-47. With that 100,000 
comes the purchase of a factory, and the capacity to build even 
more.
    We worry, appropriately, in the United States about the 
proliferation of WMD. One hundred thousand AK-103s in 
Venezuela, I worry about the proliferation of weapons of micro 
destruction. That many rifles, they're going to be moving 
through that region, perhaps falling into the hands of fighters 
across the border, in Colombia, it's a very great concern.
    There's also discussion by that government of perhaps 
purchasing diesel submarines. It is hard to understand what is 
the perceived threat in this hemisphere. It's just difficult to 
understand why the government of Venezuela would feel the need 
to purchase that level of arms, and I'm concerned about the 
destabilizing effect throughout the region of that.
    Senator Martinez. It certainly goes well beyond what 
defense needs Venezuela could possibly have.
    Admiral Stavridis. As I perceive them, that is correct.
    Senator Martinez. The issues of the physical site in Miami, 
I understand Senator Nelson covered, and I hope you know that 
if there's anything I can do to be of assistance, I'd be very 
happy to do that.
    Admiral Stavridis. Thank you, sir.
    Senator Martinez. We're so delighted that you're in our 
neighborhood, and particularly you personally, and we want to 
make sure that anything we can do to be of help in that 
situation that you would contact us, so I won't go back over 
those issues, since Senator Nelson covered them.
    But thank you very much, and thank you, gentlemen.
    Admiral Stavridis. Thank you, sir.
    Chairman Levin. Thank you, Senator Martinez.
    Can we have a clarification of one aspect of the question 
by our colleague from Florida?
    The new factory is to build the old 47? Or the newer 
version?
    Admiral Stavridis. Newer version, sir, that is my 
understanding.
    Chairman Levin. Thank you.
    Admiral Stavridis. Yes, sir. Thank you.
    Chairman Levin. Thank you, Senator Martinez.
    Admiral, you were asked a question, I believe, about the 
Panama Canal.
    Admiral Stavridis. Yes, sir.
    Chairman Levin. Your indication is that it's being very 
well run?
    Admiral Stavridis. Yes, sir.
    Chairman Levin. That the involvement of other countries, I 
believe, has not been an impediment to that?
    Admiral Stavridis. Yes, sir.
    Chairman Levin. I want to ask you, specifically, since the 
issue was raised a number of years ago about a Chinese 
commercial presence, as to whether or not you view that as a 
problem.
    Admiral Stavridis. Sir, I do not, it's Hutchinson Whampoa 
Company, they're a globalized holding company, there is some 
Chinese ownership in that company, but we've watched that 
situation closely over the last few years, and we do not see 
any threat to the operations or security of the Canal as a 
result of that.
    Chairman Levin. Thank you.
    Admiral, I think in reference to the missile test you said 
that the test was not an end-to-end test, as you put it. What 
does that mean? What pieces were missing from end-to-end test?
    Admiral Keating. We were aware that there would be a target 
vehicle launch and we had a very good idea as to the azimuth of 
that launch through the flight profile of the launch, Senator. 
To a degree--not to belittle the technological success--it was 
an open-book test. We knew it was coming, and we knew about 
where it was going.
    For my role in defending the Homeland, we would, of course, 
like to have that kind of information in advance. We're not 
likely to get it. So, in my view, an end-to-end test would be a 
launch that is not announced, from a location that is 
unspecified, on an azimuth that is not pre-determined, and we 
would have to employ all aspects of our system--intelligence, 
C2, and the hardware, to intercept the inbound target.
    Chairman Levin. Do you know when such a test is scheduled?
    Admiral Keating. I don't, I'll find out for you, sir.
    [The information referred to follows:]

    [Deleted.]

    Chairman Levin. It may be classified, if it is just let us 
have the information in a classified session.
    Last May, the President announced--and Admiral Keating, 
this is for you, also--6,000 National Guard troops were going 
to be deployed temporarily to the Southern Border to help the 
DHS's border patrol mission, and then apparently the DOD's 
recently been asked to consider the option of extending that 
mission beyond the 2 years originally announced.
    Would you agree that border patrol is a mission that 
belongs to civilian agencies, and that it should be handled by 
civilian agencies?
    Admiral Keating. From my position as Commander of NORTHCOM, 
I would agree with that statement, sir.
    Chairman Levin. Do you know what the cost is, off hand, to 
the DOD?
    Admiral Keating. I do not, sir, I'll find out.
    [The information referred to follows:]

    Border patrol missions are performed by National Guard forces in 
State (title 32) status, and have been funded by the Department of 
Defense through supplemental appropriations. The mission is estimated 
to cost approximately $1.2 billion for fiscal years 2006-2008.

    Admiral Keating. As I'm sure you're aware, those folks are 
not under the control of NORTHCOM, they were obtained under 
State authorities.
    Chairman Levin. There is a cost, however, to the Defense 
Department.
    Admiral Keating. Okay.
    Chairman Levin. Sometimes there's confusion between the 
term ``Homeland Defense'' and ``Homeland Security''. Do you 
want to give us your take on the difference?
    Admiral Keating. I'll do my best. It's a fine line, but 
there is a distinction. We, in the DOD--whatever capacity we 
are, Active-Duty, Reserve, National Guard--will probably take a 
more kinetic role, and we will try and do it as our National 
Security Strategy says, ``In as timely a manner as possible, as 
far from our shores as possible.'' That would be defending our 
Homeland, the physical act of preventing attacks, deterring 
those attacks, and that someone would try to mount an attack, 
defeating the attack.
    ``Homeland Security'' is a broader application of a concept 
that would deal with our success in defending the Homeland, 
through limited success, and it would also include actual 
disasters. So, it is a broader term, in my view, ``Homeland 
Security,'' than the relatively narrow application of military 
power, and that being ``Homeland Defense.''
    Chairman Levin. Thank you.
    Admiral Stavridis, can we expect any additional military 
construction on Guantanamo for the detainee facilities, 
including tribunals for detainees?
    Admiral Stavridis. I think there will be some very minimal 
level of construction done, Senator. May I say also, there is 
some construction scheduled now, but that's for migrant 
operations, to be very minimal, prudent capability in case 
there is, for example, a mass migration of some kind.
    I have no immediate tasking about a military construction 
project, that's a policy decision that will be made at the DOD, 
but the indications I get are that it will be very minimal, 
indeed.
    Chairman Levin. Have all the 14 detainees that were 
recently transferred to Guantanamo received their enemy 
combatant status review tribunals, do you know? I should know 
the answer, I was just there.
    Admiral Stavridis. We were just there, and also was the 
first one asked today.
    Yes, sir, I think they're not quite complete yet, but I 
need to submit that for the record.
    Chairman Levin. All right.
    [The information referred to follows:]

    As of April 13, 2007, Combatant Status Review Tribunals (CSRTs) 
have been completed for 12 of the 14 detainees transferred to 
Guantanamo in September 2006. The CSRTs for the remaining two detainees 
have not been completed pending resolution of witness availability and 
other related evidentiary issues. I would defer any specific questions 
concerning the CSRTs to the Office for the Administrative Review of the 
Detention of Enemy Combatants, which manages the CSRT, and 
administrative review board processes.

    Chairman Levin. Then, did you know if the plan is to 
release all of the transcripts? Do you know what that plan is? 
I know this is not your----
    Admiral Stavridis. No, sir, that would be an Office of the 
Secretary of Defense decision, sir.
    Chairman Levin. Then, finally, General Smith, I want to ask 
you about the authority which Congress has granted the JFCOM 
for research on and procurement of equipment for C-2 activities 
to enhance the interoperability of joint forces, and otherwise 
facilitate the use of joint forces. We have extended that 
authority through your fiscal year 2008, recently. There's a 
departmental proposal to make that authority permanent and to 
expand it to include the sustainment of the command's products 
on the battlefield until a Service can take over the program.
    The Government Accountability Office has indicated concerns 
that other parts of the DOD can handle those tasks more 
efficiently. Can you comment on both the need for an 
acquisition authority, whether or not you could work through 
existing DOD and Service acquisition efforts to manage the 
joint programs that you seek to establish, how big of an 
acquisition workforce would have to be established in order to 
operate a robust acquisition program at JFCOM, and if you can 
remember all of these questions--I probably ought to throw them 
at you one at a time, at least when you get to be my age, I 
appreciate that--and I'll be happy to repeat them. What 
resources would you require in order to make full use of the 
authority that Congress has given you?
    General Smith. Mr. Chairman, we have $10 million authority 
in research and development and experimentation. Then $50 
million worth of procurement authority, neither of which comes 
with money.
    As you mentioned, that authority is out there until 2008, I 
would like it made permanent. We'd make good use of the 
program, perhaps not as good use as we could have, but we are 
working to re-energize the innovation part of it.
    But there's some great successes out there that we continue 
to work, our Joint Precision Airdrop System, for example, the 
ability to take a 2,000-pound pallet and drop it through the 
weather with reasonable precision--football field-length 
precision to somebody that's in the mountains of Afghanistan, 
for instance.
    One of the things about a limited acquisition authority, to 
get 10 of those systems to Special Operations Command (SOCOM), 
and then ultimately 50 to CENTCOM.
    We are currently working on a 10,000-pound model and a 
20,000-pound model.
    The sustainment case is that I can go out and get those, 
CENTCOM will go out and pay for those 50. The issue for us, and 
the sustainment piece is, it will become a program of record, 
probably, in the United States Air Force. But that's going to 
take a couple of years, and what, through having the limited 
acquisition authority, we are able to continue the work on that 
and continue to improve the process before we turn it over to 
the Service.
    Another excellent example is the use of limited acquisition 
authority to tie the 7 Blue Force Trackers, the friendly force 
trackers, that showed up in Iraq, that couldn't talk to each 
other, so therefore didn't have, didn't share a common 
operating picture. So, the Army in one sector may not know 
exactly what the Marines are doing right next to them. We were 
able to use limited acquisition authority to take that 
information, bounce the information from each of the different 
systems through a U.S. Strategic Command facility in Colorado 
Springs, and back within 2 seconds to the common operating 
picture inside a Stryker, or in a command post or whatever, so 
they all share the same common operating picture.
    We are now working to include the Iraqi military. The 
ability to be able to track, find out, and maintain where they 
are. That, also, will ultimately become a program of record for 
somebody. But that requires sustainment.
    I don't mind going out and asking the Services for money or 
combatant command money, though I've never asked at this stage 
for money in the research, development, test, and evaluation or 
the procurement. I'm satisfied with just the authority. So, the 
only request I would have for money is some small amount of 
money to be able to work that bridging time period, while we're 
trying to get these systems into the program of record.
    We could use other systems like the Rapid Acquisition 
Program, or so. Certainly there are other avenues that we could 
do this within the acquisition business. Would it be as 
flexible, as agile, or give me the ability to respond rapidly 
to a combatant commander's need? Probably not as rapidly, and 
it would take away some of my flexibility to be able to supply 
the combatant commander with what he would like. The amount of 
money we're talking about, in my view, is not such that we 
really need to go into that massive acquisition piece.
    I have never asked for complete acquisition authority down 
there at JFCOM, although we've considered it, along the lines 
of SOCOM. I don't know exactly what the numbers are, but 
they're pretty significant in the acquisition authority, and 
I'm satisfied to use the existing service acquisition people 
and contractors.
    Chairman Levin. Thank you.
    Senator Warner, let me ask you--I should have asked you 
this privately--I'm going to have to leave now, would you be 
able to close up?
    Senator Warner. Yes, to make a quick reference, we have 
four votes in a few minutes.
    Chairman Levin. Thank you. We do, and I thank you for that, 
and let me thank our witnesses before I run along.
    Senator Warner. We have had a very good hearing.
    Chairman Levin. Thank you for your testimony, and we really 
appreciate your presence, your testimony, and indeed it has 
been a really good hearing. Thank you.
    Admiral Stavridis. Thank you, sir.
    Senator Warner. General Smith, I keep coming back to the 
concern I have about the certification process. Your 
responsibility is to draw on the Army, the Navy, and the Air 
Force for components to put together in one unit to meet the 
requirement of a commander in chief in various areas of the 
globe.
    If that one link does not measure up in readiness, it could 
imperil the components of the other two who presumably are up 
to complete readiness. So, it seems to me that perhaps we 
should revisit whether or not you should get more deeply 
involved into the certification process, because in a sense, 
your stamp of approval on that and moving the package of the 
three component Joint Services forward, could have a flaw in it 
that would impinge on the ability of the other two.
    General Smith. Senator Warner, it really depends on the 
construct we're talking about. I am absolutely satisfied that a 
BCT that's an Army BCT is, never leaves the Forces Command 
arena without being certified within their own organization. I 
mean, maybe not with a piece of paper, but that the Brigade 
Commander----
    Senator Warner. All right.
    General Smith. Senator, there is another piece out there 
that we are responsible for. They do that with a title 10 
train, organize, and equip role. They're given to me.
    Now, it's different with the Joint Task Force headquarters. 
In that case, we do indeed train the individuals in the joint 
environment, we are responsible for helping to equip, in that 
case, for instance of both Admiral Keating and Admiral 
Stavridis with deployable joint command and control systems. 
Then we train through mission rehearsal exercises and the like, 
and other exercises, the Joint Staff and ultimately, in one way 
or another, certify that staff.
    Now, in the case of people going into Baghdad, for 
instance, General Odierno went in to take over Multi-National 
Forces for Iraq--we had a whole series of training programs 
that culminated in a mission rehearsal exercise that tied his 
entire staff together, and he, as the Corps commander, is the 
one that certified the readiness and the capability of his 
joint task force headquarters to go over there, and I validated 
that with him.
    Senator Warner. Right. All right. I'll leave that.
    Admiral Keating, could you put into the record in reply to 
this question, an update on the Cheyenne Mountain situation? 
What your intentions are there?
    Admiral Keating. Yes, sir.
    [The information referred to follows:]

    We are consolidating day-to-day operations within the North 
American Aerospace Defense Command (NORAD) and U.S. Northern Command 
(USNORTHCOM) Command Center on Peterson Air Force Base, Colorado. The 
transfer of functions from Cheyenne Mountain to the NORAD and 
USNORTHCOM Command Center will result in greater operational efficiency 
and effectiveness through enhanced unity of effort. Plans, policies, 
and procedures are being developed to ensure a smooth and efficient 
transition of functions. Modifications to the NORAD and USNORTHCOM 
Command Center will begin early this summer with completion by the end 
of December 2007. Full operational capability is planned for May 2008.
    We will maintain Cheyenne Mountain as an Alternate Command Center. 
In addition, Cheyenne Mountain will serve as a fully functional 
training facility to allow crew members to qualify in a shorter period 
of time and at a much higher standard than is currently possible.

    Senator Warner. Admiral Stavridis, would you also place 
into the record your current assessment of the International 
Military Education and Training (IMET) program? It has been a 
very successful one throughout history. Congress took certain 
steps to put limitations because of legitimate concerns, what 
is the status of that? What initiatives could Congress take to 
help improve it? I think IMET is one of the most successful 
programs this government has ever devised to strengthen our 
relations between countries all over the world.
    Admiral Stavridis. Senator, I will put it in the record, 
and I want to say thank you to this committee and to the entire 
Congress for correcting what was not the right situation with 
IMET. It's a huge success, it's taken off again in my part of 
the world and around, and I will put it in the record.
    [The information referred to follows:]

    I agree that the International Military Education and Training 
(IMET) program is one of the most successful and important programs 
available to U.S. Southern Command. IMET gives us the opportunity to 
bring partner nations' military personnel into our schools, provide 
relevant training, build friendships, and expose them to strong 
democratic institutions and civilian leadership of the military. 
Eliminating American Servicemembers Protection Act sanctions on IMET 
allowed us to renew positive, partnership-strengthening activities with 
military personnel from previously sanctioned countries.
    Continuing congressional support to level fund the IMET program in 
fiscal year 2008 and beyond will send a strong message to our partner 
nations that we remain committed to assisting in establishing and 
maintaining professional security forces. Continued support to one of 
our premier training institutions, the Western Hemisphere Institute for 
Security Cooperation, also will benefit us by allowing greater access 
for Latin American Armed Forces personnel to professional courses 
conducted in Spanish.

    Senator Warner. You're satisfied now?
    Admiral Stavridis. I'm satisfied now with what Congress has 
provided in IMET, yes, sir.
    Senator Warner. All right.
    Lastly, Admiral, the Detainee Treatment Act. In response to 
my questions of how you and your staff at SOUTHCOM conduct 
oversight of the interrogation operations at Guantanamo, it's 
something that's of great interest to Congress.
    Admiral Stavridis. I'll be glad to, sir.
    [The information referred to follows:]

    Prior to my assumption of command of U.S. Southern Command, the 
provisions of the Detainee Treatment Act of 2005 had already been 
implemented at Joint Task Force-Guantanamo (JTF-GTMO). Specifically, I 
have been advised that, on 1 January 2006, General John Craddock 
(former Commander, U.S. Southern Command) directed compliance with the 
Detainee Treatment Act of 2005 and that Major General Jay Hood (former 
Commander, JTF-GTMO) confirmed, on 2 January 2006, that JTF-GTMO was in 
compliance with the Detainee Treatment Act.
    Additionally, on 22 January 2007, I issued specific instructions to 
JTF-GTMO concerning the implementation of DOD Directive 2310.01E, the 
Department of Defense Detainee Program, and Field Manual (FM) 2-22.3, 
Human Intelligence Collector Operations. This guidance repeated the 
provision of the Detainee Treatment Act that mandates the only 
interrogation approaches and techniques authorized for use at JTF-GTMO 
are those authorized by and listed in FM 2-22.3. Rear Admiral Harry 
Harris (current Commander, JTF-GTMO) confirmed, on 27 January 2007, 
that JTF-GTMO remains in compliance with U.S. law, including the 
Detainee Treatment Act. Rear Admiral Harris issued a policy memorandum 
to remind all personnel assigned to JTF-GTMO that they must be 
knowledgeable of and at all times in compliance with U.S. law and 
applicable DOD policies.
    In exercising oversight of detention and interrogation operations, 
I have, since assuming command 6 months ago in October 2006, personally 
visited Guantanamo three times. During those visits, I have been 
briefed extensively by JTF-GTMO personnel on both detention and 
intelligence matters. Additionally, I exercise oversight and maintain 
awareness of camp operations through the receipt of daily situation 
reports from JTF-GTMO, weekly communications with the Rear Admiral 
Harris, and through a multi-disciplined U.S. Southern Command Detainee 
Coordination Team, which interacts daily with JTF-GTMO.

    Senator Warner. I join Senator Levin, we've had an 
excellent hearing. We wish you well, gentlemen, thank you very 
much.
    Admiral Stavridis. Thank you, sir.
    Senator Warner. We are adjourned.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Daniel K. Akaka
                            nuclear warheads
    1. Senator Akaka. Admiral Keating, the administration recently 
selected a design for a new generation of nuclear warheads, which if 
built, would be the first new U.S. nuclear weapon since the end of the 
Cold War. I understand that the new warhead design is intended to 
replace those in our existing arsenal. However, some have criticized 
the United States as sending the wrong signal to the world at a time 
when we are striving to deter nuclear weapon development in North Korea 
and Iran. In your opinion, what is the current health of our North 
American nuclear arsenal?
    Admiral Keating. I defer to the Commander, U.S. Strategic Command 
(STRATCOM) regarding the health of our Nation's nuclear arsenal. The 
Services have an excellent record of safely storing and maintaining our 
Nation's nuclear weapons. U.S. Northern Command (NORTHCOM) has a 
response plan in place for consequence management in the unlikely event 
of an accident involving nuclear weapons.

    2. Senator Akaka. Admiral Keating, are there issues with our 
arsenal that make it desirable to replace our warheads?
    Admiral Keating. I defer to the Commander, U.S. STRATCOM, regarding 
the need to replace our Nation's nuclear warheads.

    3. Senator Akaka. Admiral Keating, do we really need to build 
replacement warheads?
    Admiral Keating. Without first-hand knowledge of the life cycle 
issues involved, I defer to Commander, U.S. STRATCOM on the need to 
build replacement warheads.

                            homeland defense
    4. Senator Akaka. Admiral Keating, your statement discusses the 
continual improvement cycle that U.S. NORTHCOM and North American 
Aerospace Defense Command (NORAD) undergo each year, participating in 
and reviewing the lessons from numerous exercises, such as Ardent 
Sentry and Vigilant Shield, as well as smaller regional, State, and 
local exercises. In addition, you state that you factor in lessons 
learned from real-world events, such as Hurricane Katrina. Corrective 
actions are then initiated, as appropriate, based on the lessons 
learned. Please elaborate on some of the improvements made to your 
response plans since Hurricane Katrina.
    Admiral Keating. Since Hurricane Katrina, U.S. NORTHCOM has taken 
significant actions to improve the effectiveness of our response plans. 
For instance, the Command assigned a full-time Defense Coordinating 
Officer to each Federal Emergency Management Agency (FEMA) region to 
build relationships with our interagency partners. As a result, U.S. 
NORTHCOM is able to obtain situational awareness more quickly to speed 
our response time. U.S. NORTHCOM also operates under a standing execute 
order that enables us to better prepare and more rapidly respond when 
called upon by President or Secretary of Defense. In coordination with 
the Department of Homeland Security (DHS), we have developed 25 pre-
scripted mission assignments to reduce the staffing time required to 
process military support requests during crises. Furthermore, we have 
engaged with our National Guard and interagency partners to enhance 
unity of effort. U.S. NORTHCOM and the National Guard have worked 
together in table-top exercises and conferences, most recently the 
National Hurricane Conference. U.S. NORTHCOM and the DHS have also 
exchanged a dedicated on-site representative to improve planning and 
exercise efforts.

    5. Senator Akaka. Admiral Keating, has NORTHCOM developed metrics 
by which it can measure its performance in disaster response?
    Admiral Keating. Yes. U.S. NORTHCOM's plans contain metrics that 
measure the command's performance in disaster response. Our plans have 
stated objectives, which reflect the desired end state for each 
operation. Also, each objective has a set of tasks that support the 
objective. These supporting tasks all have measures of performance and 
measures of effectiveness. These metrics give us a structured approach 
to evaluate whether our objectives and end states are accomplished.

                     ground-based midcourse defense
    6. Senator Akaka. Admiral Keating, in your statement, you said that 
the Ground-Based Midcourse Defense system achieved ``limited defensive 
operations capability in October 2004.'' You then follow that up by 
stating that it was ``placed in an operational status in June 2006, and 
is available when needed to defend the United States' and its allies' 
infrastructure and population centers.'' It appears from your statement 
that this system was placed into operational service with only a 
limited defensive operations capability. Is that correct?
    If this is correct, what threats is this system capable of 
defending against?
    Admiral Keating. [Deleted.]

    7. Senator Akaka. Admiral Keating, what is the cost to the taxpayer 
of deploying this system with limited capabilities?
    Admiral Keating. U.S. NORTHCOM does not have cost data for the 
Ground-based Midcourse Defense System. This information resides with 
the Missile Defense Agency.

    8. Senator Akaka. Admiral Keating, would it not be better to 
utilize taxpayer dollars on other high priority needs than to deploy a 
limited capability system?
    Admiral Keating. No. In my view, our ability to defend and deter 
attacks against the United States, its population centers and critical 
infrastructure is vital to our security. The Ground-Based Midcourse 
Defense system provides a defense against rogue nations from attempting 
to hold the United States hostage, both militarily and politically.

    9. Senator Akaka. Admiral Keating, what is the status of developing 
the full operational capabilities of the system?
    Admiral Keating. [Deleted.]

                        national guard readiness
    10. Senator Akaka. Admiral Keating, multiple deployments to Iraq 
and Afghanistan have significantly impacted the readiness of our 
National Guard units. In particular, much of their equipment has been 
left in theater. In your conduct of homeland defense exercises and 
disaster planning efforts, have you considered the current readiness 
state of our National Guard units and their lack of adequate equipment?
    Admiral Keating. Yes, we consider the readiness status for all 
Department of Defense (DOD) forces in our plans and exercises. The sum 
total of available DOD and National Guard resources gives me confidence 
in our ability to provide assistance to civil authorities in response 
to an event of national significance as directed by the President or 
Secretary of Defense.

    11. Senator Akaka. Admiral Keating, how are you compensating the 
reduction in National Guard readiness until such time as the resets 
catch up?
    Admiral Keating. We are continuously engaged with our designated 
force providers (U.S. Joint Forces Command, the Services, and Defense 
Agencies) to identify specific capabilities required to accomplish our 
missions. Often, Active Duty and National Guard capabilities are 
complementary and overlapping, particularly with the defense support of 
civil authorities mission. Where we identify gaps in capabilities, we 
work with our force providers to find trained and ready forces to fill 
the requirement.

                         border patrol funding
    12. Senator Akaka. Admiral Keating, you describe in your statement 
the expanded operations that NORTHCOM has been undertaking in support 
of law enforcement to protect our borders. While I applaud the efforts 
of our military to assist our law enforcement agencies in interdiction 
of transnational threats, I believe that we need to keep an eye on the 
impacts of expanded roles for our military to ensure that they do not 
erode readiness. How are we paying for this expansion of military 
mission into the law enforcement arena?
    Admiral Keating. Joint Task Force North (JTF-North) employs 
military capabilities to support law enforcement agencies by employing 
title 10 and title 32 volunteer units. JTF-North supports law 
enforcement agencies with unique military capabilities and the 
volunteer units benefit from training that prepares them for missions 
in support of Operation Iraqi Freedom (OIF) and Operation Enduring 
Freedom (OEF). Because of the training opportunities inherent in these 
missions, there is no negative impact to unit readiness.
    To fund these operations, JTF-North operates an annual budget of 
approximately $9 million funded through the DOD counterdrug program. 
For fiscal year 2006 operational missions, no additional funds were 
requested or required to perform missions in support of law enforcement 
agencies.

    13. Senator Akaka. Admiral Keating, were additional resources 
budgeted to allow for this expanded mission?
    Admiral Keating. For fiscal year 2006, no additional funds were 
requested or required for mission in support of law enforcement 
agencies. The expanded mission referenced in the statement refers to 
JTF-North's support to coastal border operations along the Texas and 
Florida coastal areas. These missions were performed at the request, 
and in support of the lead law enforcement agency (U.S. Border Patrol) 
with no additional funding or resources required.

                    theater effects based operations
    14. Senator Akaka. General Smith, I understand that Theater Effects 
Based Operations (TEBO) is the wave of the future for joint military 
operations, and that Joint Forces Command (JFCOM) will roll out a set 
of tools for combatant commanders to use by 2009. It strikes me that 
this concept of operations would have been extremely useful to use in 
Iraq prior to our attack, and may have reduced the severity of the 
situation we are currently facing. How well does TEBO integrate with 
other military operational doctrine and tactics, such as the Army's 
counterinsurgency operations doctrine?
    General Smith. We believe that well-planned joint campaigns and 
operations rely upon an effects-based approach to joint operations. 
TEBO is an Advanced Concept Technology Demonstration (ACTD) sponsored 
by the U.S. Army in conjunction with JFCOM, U.S. Forces Korea, and 
other partners to enhance the implementation and use of an effects-
based approach to joint operations. The TEBO ACTD focuses on the 
development of tools, applications, and techniques that facilitate the 
analysis, planning, and assessment of military operations by U.S. joint 
forces.
    Two other tools being evaluated are:
Conflict Modeling, Planning, and Outcomes Exploration
          Formerly known as Integrated Battle Command Conflict 
        Modeling, Planning, and Outcomes Exploration (COMPOEX) is a 
        suite of tools being developed in partnership with the Defense 
        Advanced Research Projects Agency in a user-in-the-loop 
        methodology to provide Joint Force Commanders with the ability 
        to develop plans employing all diplomatic, informational, 
        military, and economic actions across political, military, 
        economic, social, infrastructure, and information (PMESII) 
        domains.
Synthetic Environment for Analysis and Simulation
          The Synthetic Environment for Analysis and Simulation (SEAS) 
        tool is an agent-based simulation configured to assess and 
        predict culturally- and situationally-accurate PMESII effects 
        that are beyond the capabilities of a human subject matter 
        expert.

    JFCOM will soon conduct a ``flyoff'' among all known effects-based 
tools (including TEBO, COMPOEX, SEAS, the Global Synchronization Tool, 
experimental North Atlantic Treaty Organization (NATO) tools, and 
others) in mid-2007 to determine the best technical and operational 
aspects of each one and to further determine to what extent they may be 
combined.
    As with other technology enhancements, the fielding of proven TEBO 
capabilities prior to beginning operations in Iraq might have enhanced 
the military's ability to perform these process-related tasks. However, 
the current situation in Iraq has evolved over time based on a 
combination of many military, political, economic, and other factors. 
So it is difficult to determine, even in retrospect, how TEBO 
capabilities might have affected the course of events. Independent of 
the TEBO ACTD, U.S. forces have selectively used related processes and 
techniques in both Afghanistan and Iraq to improve their understanding 
of the complex operational environment and determine effective courses 
of action for different situations. These processes and techniques 
generally met with mixed success, but provided valuable insights for 
follow-on improvements.
    TEBO technologies and techniques can enhance planning, 
intelligence, and assessment, but TEBO capabilities do not replace 
current proven processes or constitute new ways of conducting joint 
military operations. TEBO is part of a more extensive effort that uses 
``effects'' and a ``systems perspective'' to help commanders and staff 
clarify their objectives, achieve a better understanding of the 
operational environment, promote unity of effort with agency and 
coalition partners, and assess progress toward mission accomplishment. 
These new ideas are now being incorporated in joint doctrine, training, 
and joint professional military education. These ideas are relevant not 
only to planning and conducting large-scale combat, such as initial 
operations in Iraq, but also to planning and assessing other types of 
operations such as counterinsurgency and humanitarian assistance. Since 
these are process improvements and related technology enhancements 
rather than process replacement, these new ideas can be integrated 
readily in existing joint and Service doctrine as appropriate.

    15. Senator Akaka. General Smith, has the JFCOM tested the concept 
in any current real world situations, such as Afghanistan, and if so, 
what are the results?
    General Smith. The TEBO ACTD and its associated tools have been 
used in several exercises/events within the Korean area of operations 
(AOR) (Combined Forces Command-Korea). In addition, in December 2006 
General McNeill, the incoming Commander of NATO's International 
Security Assistance Force in Afghanistan (ISAF-X), requested U.S. JFCOM 
to provide enhancements for a coalition staff conducting effects-based 
planning and assessment at the operational level. U.S. JFCOM is 
currently conducting a field experiment with ISAF-X staff which will 
provide an ideal opportunity to assess the utility of U.S. JFCOM 
developed capabilities in an operational environment. ISAF will use the 
JFCOM-provided SEAS (see above), which will enable the staff to assess 
potential kinetic and non-kinetic Senate Armed Services Committee 
courses of action against the effects on population attitudes towards 
the coalition, the government, and the insurgency. The tools, and the 
processes they enable, support synchronized interagency planning and 
execution and can help ISAF coordinate application of all elements of 
national and coalition power in Afghanistan.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton
                homeland security and the national guard
    16. Senator Clinton. Admiral Keating, the National Guard plays a 
critical role in our homeland defense. New York has more Air National 
Guard bases than any other State and is home to the 42d Infantry 
Division, the first National Guard Division headquarters to deploy into 
combat since the Korean War. In fact, one of the 42d's brigade combat 
teams will deploy to Afghanistan next year, potentially limiting the 
National Guard's capability to respond to homeland defense disaster 
relief support.
    On March 1, the congressionally-appointed Commission on the 
National Guard and Reserves released its second report to Congress. The 
years of repeated and prolonged deployments and inadequate budgets have 
left the National Guard and Reserves so short of equipment, training, 
and personnel that 88 percent of the Army National Guard units and 44 
percent of Air National Guard units in the United States are not ready 
to be deployed. They are not prepared for overseas deployments and in 
some cases cannot respond to homeland security threats or emergencies. 
The chairman reported, ``We can't sustain the [National Guard and 
Reserves] on the course we're on.''
    Does NORTHCOM have sufficient National Guard and Reserve units and 
personnel, with the appropriate equipment and training, to respond to 
homeland threats and respond to emergencies?
    Admiral Keating. Although National Guard and Reserve Forces are not 
assigned to U.S. NORTHCOM until mobilized into title 10 status, we have 
an ongoing dialogue with our force providers (U.S. JFCOM, the Services, 
and Defense Agencies) to identify specific capabilities from the Total 
Force required to accomplish our homeland defense and civil support 
missions. When we identify shortfalls in capabilities, we work with our 
force providers to find trained and ready forces (Active Duty, National 
Guard, or Reserve) to fill the requirement.

                            border security
    17. Senator Clinton. Admiral Keating, NORTHCOM plays an important 
role in securing New York's northern border with Canada. Can you 
describe any progress over the past year NORTHCOM has made to 
coordinate with other U.S. Government agencies to secure our northern 
border?
    Admiral Keating. U.S. NORTHCOM and its subordinate commands 
participate in the bi-national, multi-agency Project North Star. 
Project North Star gathers law enforcement experts from the United 
States and Canada to exchange information and plan operations to 
counter transnational threats (to include counterdrug) along the 
northern border.
    U.S. NORTHCOM's subordinate, JTF-North, conducts operations to 
support U.S. Customs and Border Protection along the northern U.S. 
border. Cooperative law enforcement operations with Canada are 
coordinated by U.S. Customs and Border Protection and the Canadian 
Royal Canadian Mounted Police through the International Border 
Enforcement Team.
    In addition, U.S. NORTHCOM recently coordinated with U.S. Customs 
and Border Protection on a strategic-level presentation concerning 
pandemic influenza and its potential impact on U.S. and Canadian law 
enforcement agencies.

                              preparedness
    18. Senator Clinton. Admiral Keating, the 2-year anniversary of 
Hurricane Katrina will be September 2007. In the aftermath of the 
response to Hurricane Katrina, questions were raised about whether the 
military, both National Guard and Active-Duty, could have responded 
further. What lessons learned from Katrina have been incorporated into 
NORTHCOM planning?
    Admiral Keating. Lessons learned from Hurricane Katrina have been 
incorporated into U.S. NORTHCOM planning. First, to address the need to 
reduce Federal response time, in coordination with the DHS, U.S. 
NORTHCOM developed 25 prescripted mission assignments as required by 
the Post-Katrina Emergency Management Reform Act of 2006. These mission 
assignments were designed to reduce the staffing time required to 
respond.
    U.S. NORTHCOM has also applied lessons learned in consequence 
management by developing a functional plan for catastrophic natural 
disasters, which formalizes an accelerated force provider process to 
support planned responses. With this plan, we have developed four 
robust response packages that cover land, air, and sea domains. We also 
developed alert levels to posture the force and tailor our response.
    U.S. NORTHCOM implemented Katrina lessons learned during Exercise 
Ardent Sentry 2006. This exercise rehearsed DOD response to a Category 
3 hurricane striking New Orleans resulting in flooding and significant 
damage. Specifically, the exercise focused on the following key tasks:

         Maintaining pre-drafted orders and planning templates in 
        preparation of the event
         Participating in U.S. JFCOM sourcing conferences to expedite 
        the sourcing process
         Conducting bi-weekly video teleconferences with the FEMA 
        Headquarters
         Conducting weekly video conferences with Service components
         Developing hurricane execution checklists
         Developing and rehearsing incident awareness and assessment 
        capabilities
         Developing a DOD catastrophic hurricane response concept of 
        operations
         Developing catastrophic hurricane response force packages

    19. Senator Clinton. Admiral Keating, if we were faced with a 
disaster of the magnitude of Hurricane Katrina somewhere else in the 
United States, are you satisfied that NORTHCOM's response would be 
adequate?
    Admiral Keating. Yes. Strategic and operational planners at U.S. 
NORTHCOM and its components have led the DOD planning efforts for 
hurricane responses. We have coordinated with FEMA to ensure that we 
understand projected needs for military assistance in response to a 
hurricane. This coordination has resulted in pre-scripted mission 
assignments that articulate the military capabilities needed to respond 
quickly to a catastrophic hurricane. We also have been engaged with the 
rewrite and coordination of the National Response Plan and the 
Catastrophic Incident Supplement. U.S. NORTHCOM has developed plans to 
employ a similar-sized title 10 force that was employed during the 
response to Hurricane Katrina. The NORAD and U.S. NORTHCOM Exercise 
Program includes several table-top exercises that are directly related 
to how we support the overall Federal response to disasters. In 
addition, our national-level, semi-annual exercises include hurricane 
scenarios. These exercises require collaboration, coordination, and 
interaction with our interagency partners.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                      defense readiness reporting
    20. Senator McCain. General Smith, JFCOM is currently developing an 
automated system to monitor force availability, location, readiness, 
assignment, and to be able to track the status of units through the 
entire pre-deployment, deployment, redeployment, and reconstitution 
cycle for both the Active-Duty and Reserve components, down to the 
individual. When do you project that you will have this automated 
capability that tracks down to the individual?
    General Smith. We have made good progress with our focused efforts 
to include development of the Defense Readiness Reporting System, the 
Joint Event Scheduling System, the Joint Force Projection Advanced 
Capability Technology Demonstration, and the Global Force Management 
Data Improvement Initiative.
    JFCOM currently utilizes a multitude of systems, applications, and 
data sources to monitor and analyze availability, location, readiness, 
assignment, and unit status in support of our role as the global 
looking Joint Force Provider. JFCOM has achieved some success in 
automating parts of this process, specifically in the area of Force 
Rotation. We are also experimenting with technology in our joint 
futures lab to automate and streamline force deployment and logistics 
visibility. However, the ultimate desire is to develop a web-enabled, 
service-oriented architecture that allows the free exchange of data 
from multiple sources that can then be manipulated by user defined 
applications and tools.
    These architectural models, as well as the suite of capabilities to 
meet user-defined requirements, constitute part of an overarching 
systems approach to Command and Control, including Force monitoring, 
called the Net Enabled Command Capability (NECC). This initiative has 
been validated through the Joint Readiness Oversight Council, and is 
part of a future capability package that we hope to begin phasing into 
place within the next 2-3 years. It is envisioned that NECC will 
replace many of the legacy systems currently in existence, and will 
fully support Joint Global Force Management.
    Due to the complexity associated with this effort, the number of 
systems and stakeholders involved, and the varied and often unique 
requirements Senate Armed Services Committee generated by the multitude 
of users, a ``quick'' solution is not feasible. However, the phased 
approach we are taking with this will ensure that the user can receive 
capabilities when they are available vice waiting for the entire suite 
of capabilities to be fielded. It is too early in the NECC development 
process to be able to say with certainty at what point we will be able 
to track down to the individual level.

    21. Senator McCain. General Smith, will this capability allow for 
the earlier notification of forces who are to be deployed?
    General Smith. Once the capabilities supporting that part of the 
command and control construct are implemented in NECC, the answer is 
yes.

                interoperable joint command and control
    22. Senator McCain. General Smith, the lack of interoperability in 
command and control, and other challenges in interoperable 
communications, hampers the effectiveness of our warfighters. What does 
JFCOM currently have underway or under development to advance the 
interoperability of our forces?
    General Smith. In the area of Joint Command and Control (JC2), we 
are currently executing, in concert with the Office of the Secretary of 
Defense (OSD), a capabilities-based portfolio management approach to 
better coordinate and integrate JC2 across the three DOD processes 
(Requirements, Acquisition and Planning, Programming, and Budgeting 
Execution) in order to deliver integrated JC2 capabilities, improve 
interoperability, identify and capture efficiencies where possible 
(unnecessary duplicative efforts) and close capability gaps.
    On September 14, 2006, the Deputy Secretary of Defense designated 
JFCOM as the ``JC2 Capability Portfolio Manager'' (JC2 CPM) and gave us 
the responsibility to ensure the JC2 portfolio is aligned with 
strategic objectives and that the capability mix is optimized to meet 
warfighters' needs. Part of this responsibility involves identifying 
and assessing risk in the portfolio to assist DOD in balancing joint-
warfighting demands against resource constraints.
    As the JC2 CPM, we are currently working with CENTCOM to assist 
them in sorting through the many C2 systems they currently use in Iraq 
to determine the ``Best of Breed'' among those systems for the near-
term. We are also working with OSD (PA&E and USD(C)) to review C2 R&D 
and procurement investments to ensure alignment with DOD strategic 
direction and emergent warfighting requirements and we are looking into 
potential duplicative efforts among the Services in developing 
deployable/mobile C2 capabilities. It is a significant challenge to 
Senate Armed Services Committee determine which capabilities are 
duplicative, when you consider the scope and complexity of Service-
unique and Joint C2 requirements ranging from the tactical to the 
strategic level, across multiple domains (air, land, sea) that include 
fixed, deployable, and ``mobile'' or ``on the move'' systems. 
Individually, these C2 systems meet the operational requirements for 
which they were intended, but collectively they pose joint 
interoperability issues. The JC2 CPM is an important step in 
approaching this challenge as we balance operational effectiveness and 
risk and migrate toward future ``joint solutions.''
    For the long-term, JFCOM has in its JC2 CPM portfolio the 
``flagship'' program for future joint C2 capabilities, the Net-Enabled 
Command Capability or NECC program. As DOD's operational sponsor for 
NECC, JFCOM has established a Joint Combat Capability Developer (JCCD) 
team to ensure the warfighter's operational requirements are accurately 
described and provided to the Defense Information Systems Agency, who 
is responsible for developing the material solution. Through the NECC 
JCCD, we expect to achieve continuous warfighter engagement from 
concept development through fielding and sustainment and completely 
integrate material with the doctrine, organizational design, training 
plans, personnel and facilities requirements, and policy changes (DOT--
LPF-P) necessary to support the warfighter. This continuous engagement 
by the CPM and JCCD will provide the requisite checks and balances to 
ensure development of integrated and interoperable (''Born Joint'') 
capabilities with holistic DOT--LPF-P support.

    23. Senator McCain. General Smith, what effort is JFCOM devoting to 
the goal of reducing the danger of fratricide when directing close air 
support (CAS) fires?
    General Smith. JFCOM is engaged in efforts to reduce the danger of 
fratricide and improve combat effectiveness during CAS operations. 
JFCOM has identified key problems in joint CAS terminal control 
capabilities through live assessments and evaluations:

          Talking a pilot's eyes onto a target takes time and is not 
        conclusive
          Pilots have a limited capability to independently verify 
        target ID
          Errors occur when copying and entering target coordinates 
        manually
          Automated system features without checks can lead to errors
          Accurate visual assessment of the aim point of a strike 
        aircraft from the ground is difficult even under ideal 
        conditions

    Most CAS fratricides occur because standard procedures are not 
followed or the intended target is misidentified.
    To address the issue of standardization, the JFCOM-chaired Joint 
Close Air Support (JCAS) Executive Steering Committee led the 
development of the Joint Terminal Attack Controller (JTAC) and Forward 
Air Controller (Airborne) Memoranda of Agreement, which established 
training and certification standards for all DOD terminal attack 
controllers. To enforce these standards, a JFCOM-led JTAC 
Standardization Team conducts initial accreditation and biennial course 
reviews of all JTAC schoolhouses for compliance.
    To aid in the proper identification of targets, JFCOM provided 
essential support in fielding the Digital Precision Strike Suite, 
coordinated software integration into JTAC equipment, and published new 
procedures to improve laser range finder and satellite navigation 
system target location accuracies. JFCOM was a primary promoter of the 
use of the Remotely Operated Video Enhanced Receiver) III, which 
provides real-time, full motion video for situational awareness and 
targeting. JFCOM led the effort to develop and field the Rapid Attack 
Information Dissemination Execution Relay system which will provide 
digital Blue Force situational awareness data to terminal attack 
controllers.
    JFCOM is continuing the efforts to reduce fratricide potential by 
spearheading the establishment of a JCAS digital data exchange standard 
which will enable the seamless exchange of critical target and friendly 
location information between the JTAC, weapon delivery platforms, and 
command and control agencies.

    24. Senator McCain. General Smith, has JFCOM evaluated the military 
utility of specific anti-fratricide technologies, and if so, what were 
the results?
    General Smith. The JFCOM-sponsored Coalition Combat Identification 
Advanced Concept Technology Demonstration (CCID ACTD) has been a 
catalyst for not only assessing fratricide prevention technologies, but 
also moving proven solutions into the acquisition process.
    A notable CCID ACTD milestone was a large-scale field exercise 
demonstration during September-October 2005 in the United Kingdom. The 
United States and eight other nations provided ground and air forces 
employing the ACTD's technologies in scenarios representative of 
coalition operations. The participating coalition warfighters and 
analysts determined that two technologies, Battlefield Target 
Identification Device and Radio Based Combat Identification, provided a 
useful, complementary capability to quickly and accurately identify 
friendly ground forces and minimize fratricide from either direct or 
supporting fires (artillery, mortars, CAS). Joint Combat Identification 
Marking System provided a discriminating infrared signature and radio 
frequency tags demonstrated potential, but more development is 
necessary to achieve a useful discrimination capability in the cockpit.
    During March 2006, JFCOM and Service program representatives 
presented these results to senior Army and Marine Corps resource 
sponsors who decided jointly to pursue an acquisition strategy for both 
technologies during POM 08-13. This joint approach, reflecting an 
investment of approximately $450 million, was endorsed by the Joint 
Requirements Oversight Council during December 2006, which provides 
clear leadership and guidance to coalition partners sponsoring 
parallel, interoperable programs.
    Building upon this momentum and in partnership with the U.S. Air 
Force, we extended the CCID ACTD through 2008 in order to assess other 
CID technologies employed by fixed wing aircrew in attacking ground 
targets. Two additional nations have joined the original CCID ACTD 
group in this extended phase.
    CCID ACTD Extension, Bold Quest, will assess the military utility 
of a Synthetic Aperture Radar/Aided Target Recognition on JSTARS and 
the Laser Target Imaging Program on the Litening Advanced Targeting Pod 
in a coalition operational environment. This will also validate U.S. 
strike aircraft capability to exchange digital targeting data with U.S. 
JTAC digital suites including the U.S. Air Force Tactical Air Control 
Party Close-Air Support System, USMC Target Locator Designator Handoff 
System (TLDHS)/StrikeLink, and the Special Operations Command 
Battlefield Air Operations Kit. In addition, the CCID ACTD extension 
will assess the ability of the CAS aircraft to exchange digital 
targeting data with U.S. JTAC digital suites will be assessed.
    Besides the CCID ACTD, JFCOM findings and recommendations from OIF 
Major Combat Operations induced the Army to make a positive ID 
capability a requirement in the Patriot weapon system. JFCOM also 
supported the development of the Recognition of Combat Vehicles 
training system, which is a principal catalyst for developing Joint 
Service combat identification training requirements and solutions.

        interagency coordination and effective disaster response
    25. Senator McCain. General Smith, JFCOM is working to develop a 
more coherent interagency planning process and tools to coordinate the 
diverse capabilities that the military, civilian agencies, and even 
nongovernmental groups can bring to bear in the event of a natural 
disaster or some other crisis. Your testimony discusses something 
called the ``Whole of Government Approach.'' What work does JFCOM 
currently have underway, and what is planned, under the broad heading 
of improving our national response capabilities?
    General Smith. On a daily basis JFCOM seeks to enable conditions 
that result in whole of government interdependent capabilities that 
promote success in complex contingency operations both at home and 
abroad. JFCOM is in a unique position to assist both sides of the 
interagency equation in relation to prioritizing and coordinating 
Combatant Command (COCOM)-U.S. Government interagency training, 
operational planning, lessons learned, experiment, and other 
participation and interactions with regard to national response 
capabilities. We are hard at work with our COCOM/JTF partners as well 
as other Federal departments, State and local governments, and 
nongovernmental organizations in support of National Security 
Presidential Directive 44, DODD 3000.05 (Military Support to 
Stabilization, Security, Transition and Reconstruction Operations), and 
other key policy and strategy guidance and directives that drive our 
command.
    In the here and now, JFCOM is striving to stimulate improved 
interagency interaction and integration into the Joint Training 
Enterprise on behalf of COCOMs/JTFs. Beginning with federating 
interagency injects into modeling and simulations, we are developing 
deeper mutual understanding. We are also developing an understanding of 
the challenges to unlimited participation in joint training events. We 
hope to enable joint and interagency partners in scoping the magnitude 
of the problem, setting criteria for working together, and highlighting 
the biggest mutual bang for the buck. A highlight of this effort will 
be an interagency syllabus of joint training opportunities--easily read 
and understood by all. Effects will include increased value, not 
necessarily participation, as we seek to find out what interagency 
partners expect to gain from integrating events. We are also leveraging 
existing interagency training/education programs to synergize these 
efforts. Our Joint Knowledge Online enterprise will bring free and 
available interagency education opportunities to military communities 
and vice versa.
    We have emerged, at the operational level, as a key node in the 
Interagency Lessons Learned Crossroads. Our Joint Center for 
Operational Analysis mission is to lead and accelerate transformation 
of the joint force by producing compelling recommendations to change--a 
byproduct of this mission has been better coordination and 
collaboration with our interagency partners. Improving two-way U.S. 
Government information sharing on lessons learned can eliminate 
redundant U.S. Government operational-level missteps in the future. Our 
efforts in examining Hurricane Katrina, OEF, OIF, and other whole of 
government enterprises has resulted in a groundswell of information 
that is now integrated into an integrated joint lessons learned 
database connected to Service databases--interagency partner lessons 
learned sharing is being encouraged to better support our COCOM/JTF 
partners.
    We are also forging ahead as a leader in solving joint force and 
interagency information sharing challenges at the operational level. 
Our JC2 Portfolio Management platform and our HARMONIE.org vehicle (an 
online unclassified website available to broad variety of interagency 
partners to enhance information sharing and unclassified planning) are 
just two instances where we are developing and offering information 
sharing and collaboration capability development tools to a variety of 
willing partners. As we strive to develop a fully-networked joint 
force, fluent in U.S. Government information sharing, information 
sharing will remain paramount to executing integrated actions that 
solve complex contingencies in the United States and elsewhere.
    Lastly, we are developing concepts and experimenting in a variety 
of areas that will help bring the interagency planning and execution 
community closer together.
    First, we are working with the Department of State (DOS) 
Coordinator for Reconstruction and Stabilization to address interagency 
planning process shortfalls through a series of activities called 
Unified Action 07. Through this effort we plan to jointly deliver a 
baseline study on U.S. Government planning process, a Rule of Law 
Handbook for Ungoverned Spaces, a comprehensive approach to security 
sector reform, an Ungoverned Space Strategy, and an overall final 
report capturing all other learning points along the way. Unified 
Action 07 is designed to test the integrated planning and 
implementation of processes, structures, authorizations, and tools 
associated with development of U.S. Government strategic policy and 
plans.
    Second, we are working with allies, interagency, and NGOs in 
preparation for Multinational Experiment 5 (MNE 5) through which we 
intend to deliver a Coalition Handbook of Best Practices, an 
Implementation Planning Management and Evaluation Guide, a 
Multinational Logistics concept of operations, as well as contributing 
to products under development by our partner nations that will benefit 
everyone. The central theme for MNE 5 will be exploration of a 
multinational, interagency, comprehensive engagement strategy, which 
incorporates government, non-government, and private organizations, 
using all national and international elements of power, to influence a 
stable international environment.
    Third, we are integrating operations, planning, and intelligence 
functions through the Joint Intelligence Operations Center-
Transformation concept. This concept is being shared with and 
recommended to our interagency partners as a means to close the gaps in 
our collective planning, execution, and intelligence functions.
    Fourth, we are bringing a special focus to the homeland defense 
problem set through a series of experiments called Noble Resolve. In 
this effort, we are partnering with U.S. NORTHCOM, DHS, Federal, State, 
and local governments, and NGOs to work out best practices for 
collectively coping with large-scale disasters, both natural and man-
made.
    Finally, through our Military Support to Stabilization, Security, 
Transition, and Reconstruction (SSTR) Operations and Military Support 
to Shaping Operations Joint Operating Concepts (JOCs) we are helping 
set the foundation for future civ-mil coordination and collaboration in 
our future doctrine, plans, et cetera. The SSTR JOC proposes means to 
effectively combine the efforts of the U.S. and coalition militaries 
with those of U.S. Government agencies and multi-national partners to 
provide direct assistance and build self-sufficient host nation 
capability and capacity in several key areas. The proposed definition 
of shaping is the set of continuous, long-term integrated, 
comprehensive actions with a broad spectrum of government, non-
governmental and international partners that maintains or enhances 
stability, prevents or mitigates crises, and enables other operations 
when crises occur.
    We continue to set trends in current training, lessons learned, 
information sharing, capabilities development, and futures/
experimentation as we seek to improve our COCOM/JTF/U.S. Government 
interagency partners and our own ``Whole of Government Approach'' to 
complex contingencies both at home and abroad.

                    provisional reconstruction teams
    26. Senator McCain. General Smith, JFCOM is currently coordinating 
with the National Defense University, the Army, and the NATO School to 
support joint training requirements for the Provincial Reconstruction 
Teams (PRTs) prior to the deployments of these teams to Afghanistan and 
Iraq. Are there any unique challenges posed by the development or 
delivery of training for these specialized civil-military units? If so, 
what innovations or solutions has JFCOM developed to address these 
challenges?
    General Smith. The main challenge in development and delivery of 
training is gathering the teams together to participate in training 
opportunities. Excellent and ever-improving training venues have been 
developed through the efforts of the organizations listed above, and it 
is important to afford the personnel who will deploy access to these 
opportunities.
    JFCOM personnel have worked with DOS and USAID personnel who are 
leading the effort to train PRTs for Iraq to develop the Iraq PRT 
training program. DOS and DOD signed a Memorandum of Agreement (MOA) on 
22 February 07 that specifies operational requirements, authorities, 
and responsibilities shared between the U.S. Mission-Iraq and the 
Multi-National Forces-Iraq or successor organizations for PRTs. The PRT 
program is a priority joint DOS-DOD initiative to bolster moderates, 
support U.S. counterinsurgency strategy, promote reconciliation and 
shape the political environment, support economic development, and 
build the capacity of Iraqi provincial governments to hasten the 
transition to Iraqi self-sufficiency. JFCOM will team with DOS/USAID 
personnel conducting the initial Iraq PRT training courses being 
conducted at the Foreign Service Institute this month for an initial 
group of 40 personnel who will form the core of 10 additional PRTs and 
deploy to theater by the end of March 2007. We will continue to engage 
with DOS/USAID and other DOD agencies as the Iraq PRT program matures.
    With regard to Afghanistan PRT training, JFCOM has partnered with 
Allied Command for Transformation to effect cross pollination between 
NATO led and U.S. led PRT training venues. NATO and U.S. PRT curricula 
have been shared; instructors from the U.S. PRT course have attended 
the NATO course and vice versa. The exchange with NATO of PRT expertise 
for training and integration is in addition to the interagency 
partnerships described above, and together they will further enhance 
the depth and quality of training given to PRT members prior to 
deployment.

           homeland defense and support to civil authorities
    27. Senator McCain. Admiral Keating, the Commander of NORTHCOM has 
two missions: 1) defend the homeland against land, maritime, and air 
threats; and 2) when directed by the President or Secretary of Defense, 
provide support to civil authorities, including consequence management 
operations. The Army National Guard and Army Reserve have both reported 
equipment and personnel shortages. As a command without assigned 
forces, NORTHCOM may be particularly dependent on the National Guard 
and Reserve and consequently impacted by these shortages:

        <bullet> According to a Government Accountability Office (GAO) 
        report in September 2006, continued deployments have depleted 
        the National Guard's inventories of many items that would be 
        useful for domestic missions, while nondeployed Active-Duty 
        Forces have also experienced decreased equipment levels.
        <bullet> The March 1, 2007 Report to Congress by the Commission 
        on the National Guard and Reserves notes that ``the equipment 
        readiness of the Army National Guard is unacceptable and has 
        reduced the capability of the United States to respond to 
        current and additional major contingencies, foreign and 
        domestic.''

    Do these reports give you cause for concern?
    Admiral Keating. We considered this issue carefully and remain 
confident in our ability to provide military support to civil 
authorities as directed by the President or the Secretary of Defense. 
We work closely with our force providers--U.S. JFCOM, the Services, and 
Defense Agencies--to ensure trained and ready forces from the Active 
and Reserve components are available to execute our missions.

    28. Senator McCain. Admiral Keating, what should NORTHCOM's role be 
in ensuring joint readiness to perform the homeland defense mission 
given the current and prospective depleted state of National Guard and 
Reserve resources and personnel?
    Admiral Keating. Our role is to clearly identify and articulate 
specific U.S. NORTHCOM requirements to our force providers (U.S. JFCOM, 
the Services, and Defense Agencies). Our force providers must ensure 
those required capabilities are sourced with ready and trained forces. 
Once sourced, we monitor the readiness of those forces and provide 
feedback to the force providers where shortfalls exist.

    29. Senator McCain. Admiral Keating, as the Commander of NORTHCOM, 
what steps will you take to ensure that these equipment deficiencies at 
home do not leave NORTHCOM under-prepared to perform homeland defense 
missions?
    Admiral Keating. U.S. NORTHCOM has identified specific, mission-
focused requirements (in forces, training, equipment, et cetera) to our 
force providers. We continually monitor overall force readiness from 
the perspective of our assigned missions and consult regularly with 
force providers to identify and correct gaps in required capabilities. 
When a critical capabilities gap arises that might potentially 
jeopardize mission accomplishment, we take that issue immediately to 
the national leadership for resolution.

                        interagency coordination
    30. Senator McCain. Admiral Keating, in May 2006, as part of the 
GAO's body of ongoing work that covers the Federal Government's 
preparedness and response to Hurricane Katrina, they reported that 
DOD's emergency response plan for providing military assistance to 
civil authorities during disasters lacked adequate detail. The DOD 
Inspector General also found that ``NORTHCOM did not coordinate with 
FEMA on using military assets according to their capabilities . . . and 
did not coordinate deploying and integrating title 10 forces with 
National Guard forces.'' What steps does NORTHCOM need to take to 
improve interagency coordination to better integrate military with 
local, State, and other Federal responders?
    Admiral Keating. Since Hurricane Katrina, U.S. NORTHCOM has taken 
numerous steps to improve interagency coordination to better integrate 
military with local, State, and other Federal responders. For instance, 
U.S. NORTHCOM recognized the need to work more efficiently with FEMA 
during a Federal response to a crisis. To that end, we established 
full-time Defense Coordinating Officers within each FEMA region. This 
action improved relationships with our interagency partners, and 
resulted in a much quicker response and better situational awareness 
during an incident. We have also taken steps to engage more with the 
National Guard and the DHS in order to improve unity of effort. Our 
engagement with these interagency partners includes extensive 
participation in conferences and exercises. Nevertheless, exercising 
still remains a challenge. We need more practice working with our 
interagency partners and to train the way we intend to respond.

    31. Senator McCain. Admiral Keating, what can be done to improve 
NORTHCOM's planning process for both homeland defense and support to 
civil authorities plans?
    Admiral Keating. Exercising is the best way to improve our planning 
process. Robust exercises allow us to test our plans and implement 
lessons learned. We need to train the way we intend to respond, and we 
need to make the cost and time involved to conduct this training 
priorities.

     national guard weapons of mass destruction-civil support teams
    32. Senator McCain. Admiral Keating, in recent years, legislation 
has been enacted to establish 55 Weapons of Mass Destruction (WMD)-
Civil Support Teams (CST) to ensure that each State and territory of 
the United States has such a team at the disposal of the Governor. To 
date, 47 of these WMD-CST have been certified by DOD to be mission 
capable. States will also depend on the National Guard chemical, 
biological, radioactive, and nuclear explosive (CBRNE) Enhanced 
Response Force Package (CERFP) teams, available in each FEMA area, for 
consequence management in the event of a chemical, biological, or 
nuclear incident. How confident are you that these teams are fully 
equipped and ready to perform their important mission in the event of 
multiple CBRNE events?
    Admiral Keating. I have high confidence in the WMD-CSTs. Every 18 
months, Army North, a component of U.S. NORTHCOM, performs evaluation 
exercises to determine continued certification of the WMD-CSTs. Army 
North reports the results of the exercises to U.S. NORTHCOM. This is 
the basis for our level of confidence. Currently, there is no 
certification program for the CBRNE CERFPs. The National Guard Bureau 
and U.S. NORTHCOM are coordinating the homeland defense and civil 
support training and exercise program and related MOA. This program 
would assign U.S. NORTHCOM the mission for ``Collective standardized 
CBRNE training and exercise for CERFPs and CSTs.'' Once this process is 
in place, U.S. NORTHCOM will have better visibility into the readiness 
of each CERFP.

    33. Senator McCain. Admiral Keating, with strains being placed on 
the National Guard for its overseas warfighting mission, how can we be 
assured that these important units will be available for their critical 
homeland defense and civil support missions?
    Admiral Keating. DOD works closely with U.S. JFCOM and the National 
Guard Bureau on a domestic response concept that fully integrates the 
capabilities of title 10 and title 32 forces. This concept maximizes 
the capabilities each entity provides by ensuring full 
interoperability, unambiguous lines of authority, and training and 
operational relationships.

restrictions on military-to-military relations in the southern command 
                         area of responsibility
    34. Senator McCain. Admiral Stavridis, last year, your predecessor 
General Craddock (and other regional combatant commanders) testified 
before this committee that there were unintended negative consequences 
for U.S. interests as a result of the restrictions in the American 
Servicemembers Protection Act on providing military assistance to 
countries that have not signed Article 98 agreements with the United 
States. Many of us were persuaded by that powerful testimony and, as a 
result, we included in the National Defense Authorization Act for 
Fiscal Year 2007 a repeal of the restriction in the American 
Servicemembers Protection Act on providing international military 
education and training (IMET) funds to countries that haven't signed 
Article 98 agreements. Has the United States initiated or resumed IMET 
programs with countries in the U.S. Southern Command (SOUTHCOM) area of 
responsibility (AOR) as a consequence of this change in law? If so, how 
do you expect the United States to benefit from these military-to-
military contacts?
    Admiral Stavridis. Yes, we have initiated and resumed IMET programs 
to countries previously sanctioned by the American Servicemembers 
Protection Act.
    The United States will benefit from these military-to-military 
contacts through continued professionalization of Latin American Armed 
Forces personnel in courses like the senior service schools, basic 
officer and career courses, NCO development, and even a few masters 
level courses. Special emphasis will focus on rebuilding a broad range 
of long-neglected technical skills such as medical training, aircraft 
maintenance, helicopter mechanics, electrician training, joint 
operations, and instructor training.

    35. Senator McCain. Admiral Stavridis, do you believe it would be 
beneficial for United States' interests were Congress to similarly 
repeal the restriction in the American Servicemembers Protection Act on 
the provision of Foreign Military Financing (FMF) to countries that may 
not have signed Article 98 agreements with the United States?
    Admiral Stavridis. Yes, in my personal opinion, I believe that a 
repeal would help advance U.S. objectives in the region. The threats of 
transnational crime, narcotics trafficking, and potential establishment 
of terrorist safe havens continue to challenge democratic governance in 
the region. A robust partnership with countries willing to address 
these security threats requires some assistance from the United States 
Repeal of FMF and Excess Defense Articles restrictions will restore an 
important tool that assists the U.S. SOUTHCOM in forging regional and 
bilateral partnerships, building partner nation capability, and 
contributing to the homeland defense.

                 center for excellence in human rights
    36. Senator McCain. Admiral Stavridis, I understand that you 
propose an initiative for a Center for Excellence in Human Rights that 
would allow SOUTHCOM to intensify its support to partner governments in 
their efforts to eliminate human rights violations. Eliminating human 
rights violations is an essential step towards strengthening democracy 
in any country. What will this Center allow you to do now, that you 
cannot do now or is not being done at the Western Hemispheric Institute 
for Security Cooperation (WHINSEC)?
    Admiral Stavridis. The Center will allow us to expand and 
accelerate the Human Rights Initiative, an engagement program that U.S. 
SOUTHCOM began in 1997 dedicated to assisting partner nation military 
forces in institutionalizing a culture of respect for human rights 
within their organizations. The Center will enable us to collaborate 
with organizations in the private sector such as non-governmental 
organizations, academic institutions, foundations, and private 
enterprise. As a result, we will be able to sponsor a wider variety of 
activities to execute highly tailored country-specific programs.
    WHINSEC provides human rights education and training in a classroom 
setting within the broader context of education and training on 
security competencies. WHINSEC's instruction is ``one size fits all'' 
for students from throughout the region. The Center will perform a very 
different function. The Center will assist partner nations through a 
strategic planning process to develop national human rights 
implementation plans. The Center will additionally have an operational 
mission with experts to support and facilitate the actual 
implementation of these plans. The Center will be 100 percent dedicated 
to promoting human rights. It will assist partner nation military and 
security forces to provide security to their citizens in a manner 
consistent with respect for human rights and international humanitarian 
law. Moreover, the Center will be able to design processes and plans 
tailored to the specific human rights histories and realities of each 
of our partner nations.

    37. Senator McCain. Admiral Stavridis, where will this Center be 
located and how much money is needed to start this program and sustain 
it?
    Admiral Stavridis. The Center will be located within the SOUTHCOM 
Headquarters in Miami, staffed by personnel from our existing Human 
Rights Division. Overall, we anticipate minimal resource requirements 
to establish the Center. The proposal authorizes the Center to accept 
private contributions to further critical human rights work. The Center 
will allow us to aggressively promote and implement the Human Rights 
Initiative and identify emerging needs through consultations with our 
partner nations. At the same time, we will dedicate our efforts to 
establishing partnerships with private organizations that share our 
interest in promoting a culture of respect for human rights in the 
region. We will sustain and grow the program though these 
relationships.

               enduring friendship and maritime strategy
    38. Senator McCain. Admiral Stavridis, Enduring Friendship (EF) is 
a regional multi-year initiative that provides maritime security 
assistance to select countries in the region. The first phase of EF 
focused on the Dominican Republic, Panama, Jamaica, and the Bahamas. 
Phase two will include Belize, Honduras, Guatemala, and Nicaragua. How 
does implementing a regional maritime strategy focused on South and 
Central America and the Caribbean enhance our maritime homeland 
security?
    Admiral Stavridis. EF is a Theater Security Cooperation initiative 
that:

          1. Promotes information sharing about possible threats 
        affecting the region;
          2. Enhances our partner nations ability to patrol their 
        sovereign waters in accordance with international and domestic 
        laws; and
          3. Provides a mechanism for collective action should a threat 
        arise.

    The National Strategic Plan for the war on terrorism states that 
the strategic aims of the National Strategy are to create a ``global 
environment inhospitable to violent extremists.'' The ungoverned spaces 
of the maritime domain are a key enabler to terrorist networks. The 
maritime domain offers anonymity not available on land or in the air 
and it provides vast resources via illicit trafficking activities. 
Maritime security is a top U.S. national security priority. The United 
States eastern coastline contains major population centers and critical 
infrastructure that are in close proximity to ports or are accessible 
by waterways. EF will deny the southern approaches of the United States 
to trans-national terrorists by establishing a networked ``defense in 
depth'' with our partner nations to detect, deter, disrupt, and defeat 
illicit activity and terrorists within the Caribbean and Central 
America region.

    39. Senator McCain. Admiral Stavridis, are partner nations and 
allies willingly cooperating in our regional maritime security 
initiative?
    Admiral Stavridis. Yes. U.S. SOUTHCOM has conducted numerous 
partner nation requirements coordination assessments and visits to EF 
countries. Senior leaders from partner nations with whom we have met 
view EF as a positive initiative to enhance regional security and 
promote a common maritime defense strategy.

    40. Senator McCain. Admiral Stavridis, are training and equipment 
funds used for this initiative?
    Admiral Stavridis. Yes. EF uses both traditional multi-year FMF and 
single-year section 1206 resources.

   u.s. southern command counternarcotic operations in manta, equador
    41. Senator McCain. Admiral Stavridis, in your written statement, 
you note that SOUTHCOM uses a U.S. forward operating location at Manta, 
Equador to launch U.S. counternarcotic missions and is ``a cornerstone 
of our ability to operate in the SOUTHCOM region.'' Per a 10-year lease 
agreement, we currently have over 220 U.S. service personnel stationed 
at Manta on a rotational basis supporting A-3 Airborne Warning and 
System Control and P-3 Orion aircraft operations. We also invested over 
$60 million in military construction funds to build new facilities and 
to repair the runway at Manta, which we share with the Ecuadorian Air 
Force. Recent press reports have quoted the new President of Ecuador, 
Rafael Correa, as rejecting a continued U.S. military presence in 
Ecuador: ``We've said clearly that in 2009 the agreement will not be 
renewed.'' How will U.S. counternarcotic operations be affected by the 
loss of Manta as a forward operating location?
    Admiral Stavridis. [Deleted.]

    42. Senator McCain. Admiral Stavridis, what options is SOUTHCOM 
pursuing to compensate for potential loss of Manta in 2009?
    Admiral Stavridis. SOUTHCOM continues to work closely with partner 
nations to increase their capability to interdict and disrupt illegal 
drug trafficking. We are also examining options for operating from 
other nations to mitigate the potential loss of Manta.

    43. Senator McCain. Admiral Stavridis, if so, what are the costs 
and benefits of these options?
    Admiral Stavridis. Other than the benefit of continued disruption 
of trafficking operations, we have only recently begun to examine other 
options and have not yet assessed the associated costs and potential 
derived benefits.

    44. Senator McCain. Admiral Stavridis, does the DOD budget request 
for fiscal year 2008 contain any funding to establish and operate 
alternate forward locations?
    Admiral Stavridis. I am not aware of any.

                   mission of joint task force bravo
    45. Senator McCain. Admiral Stavridis, in your written testimony 
you state that JTF-Bravo operating out of Soto Cano, Honduras, 
represents the only permanently deployed U.S. forces in the region. 
This task force ``is a first responder to crises in the region and 
routinely conducts humanitarian assistance, disaster relief, search and 
rescue, personnel recovery, and non-combatant medical evacuations.'' 
JTF-Bravo was originally established in 1984 as a base for U.S. support 
of regional military operations. We still have over 550 U.S. service 
personnel stationed in Honduras and the budget request for fiscal year 
2008 includes military construction funds for a new dining facility at 
Soto Cano Air Base. Also, I cannot recall any other location or task 
force that we employ U.S. military forces on a permanent basis 
primarily to support potential humanitarian and disaster relief 
operations. Is it time once again to reassess the relative value JTF-
Bravo provides you in the SOUTHCOM AOR or are you sure that the 
investments in resources and personnel are paying off in the region?
    Admiral Stavridis. JTF-Bravo personnel and resources directly 
support the National Security Strategy and the National Strategy for 
Combating Terrorism. In addition to the relationships that are 
strengthened through humanitarian efforts, JTF-Bravo supports regional 
legal and economic stability by enhancing the professionalism of Latin 
American military and police forces. The combined efforts of task force 
components play a pivotal role in defeating terrorists, denying them 
support and sanctuary in the region, diminishing the conditions they 
try to exploit, and defending U.S. citizens abroad.
    JTF-Bravo delivers a great return on relatively small investment 
for the United States. It is a forward deployed force capable of a 
range of theater support activities, including disaster relief and 
humanitarian assistance, counterdrug operations, and command and 
control for joint coalition exercises.
    During the recent flooding in Panama, JTF-Bravo deployed personnel 
and equipment within 18 hours of notification and ultimately provided 
over 130,000 pounds of critically needed food, water, clothing, and 
medical supplies to the affected area. The familiarity of JTF-Bravo 
personnel with the topography, communications systems, and movement 
corridors were instrumental in the success of this mission.
    JTF-Bravo also conducts counterdrug missions, transporting host 
nation law enforcement forces for interdiction and eradication of 
illicit drugs. The task force supported counterdrug operations in the 
past year that resulted in the seizure of 2,700 KG of cocaine, valued 
at over $50 million.
    Command and control for many joint coalition exercises in Central 
America is conducted out of JTF-Bravo, allowing for training of our own 
and partner nation forces. This training directly contributes to the 
defense of our homeland.

    46. Senator McCain. Admiral Stavridis, in lieu of the potential 
loss of Manta in Ecuador, what type of agreement do we have with the 
Government of Honduras related to our presence there?
    Admiral Stavridis. The 1954 Bilateral Military Assistance Treaty is 
the basis for military cooperation and assistance between the United 
States and Honduras. The treaty is a broad agreement between the United 
States and Honduras to provide military equipment, services, and 
assistance to each other. A 1982 Annex to the 1954 Bilateral Military 
Assistance Treaty authorizes the United States to make use of Honduran 
aerial ports at Soto Cano, Goloson, and La Mesa for ``fueling or 
refueling of aircraft, maintenance of aircraft and equipment, 
accommodation of personnel, communications, supply, storage and other 
such activities.'' The United States agreed to bear the cost of 
supplies and services which it requests and receives from Honduran 
sources. The annex and the treaty do not have termination dates.

    47. Senator McCain. Admiral Stavridis, are we faced with the risk 
of being asked to leave after sinking investment in facilities and 
infrastructure?
    Admiral Stavridis. I believe there is a very low risk of the 
Government of Honduras, with whom we have a close and strong 
relationship, asking us to leave.

                        interagency coordination
    48. Senator McCain. Admiral Stavridis, in your prepared statement 
you wrote ``Within SOUTHCOM, we are striving to transform into a true 
interagency organization. To facilitate this, we recently established a 
new directorate for interagency partnering, with support from the 
Office of the Secretary of Defense and the DOS.'' I fully endorse this 
effort. Will you produce a study or report describing your efforts and 
results, and make it available to the Departments of Defense and State, 
and your fellow combatant commanders?
    Admiral Stavridis. Yes, we will produce a report describing the 
efforts and results of our interagency partnering initiative. The new 
directorate is documenting all of the efforts and capturing vital 
information regarding the processes and the impact on both the command 
and the interagency. We are coordinating our efforts with studies and 
lessons learned that JFCOM is developing. We will publish a 
comprehensive and thorough report that will serve as a basis for future 
development in the field of interagency partnering.

    49. Senator McCain. Admiral Stavridis, are you coordinating your 
work on this with JFCOM?
    Admiral Stavridis. Yes. In addition to supporting SOUTHCOM on the 
development of a study/report to document the transformation efforts, 
JFCOM J9 Experimentation Division as part of their Unified Action (UA) 
Initiative will provide support and insights in a number of other 
transformation and interagency initiatives. During the Unified Action 
DOD Objectives Conference on 4-5 April 07, SOUTHCOM provided a number 
of interagency transformation initiatives/objectives that JFCOM will 
provide assistance including:

          a. Development of an interagency data base that will contain 
        U.S. Government agencies security cooperation activities. 
        Purpose of the database is to identify partnering opportunities 
        between DOD and other U.S. Government agencies.
          b. Provide support and insights in the development of public/
        private cooperation opportunities.
          c. Assist in the development and coordination of interagency 
        coordination and planning opportunities at the COCOM level. 
        Purpose is to synchronize existing plans and operations between 
        DOD and U.S. Government agencies.
          d. Identify training and career progression opportunities for 
        interagency personnel that are assigned to other agencies. 
        Desire is to make it career enhancing for individuals that are 
        assigned as representatives or liaison officers to another 
        agency of the Federal Government. For example when a military 
        officer is assigned to DOS, this should be a career enhancing 
        opportunity.
          e. Provide assistance and insights to SOUTHCOM J9 and staff 
        in the transition of the command to an interagency 
        organization.

                    united states naval ship comfort
    50. Senator McCain. Admiral Stavridis, on March 5, 2007, President 
Bush said he would deploy one of the Navy's medical ships, the U.S.N.S. 
Comfort, to the SOUTHCOM AOR. The U.S.N.S. Comfort will make port calls 
in 12 countries--Belize, Guatemala, Panama, Nicaragua, El Salvador, 
Peru, Ecuador, Colombia, Haiti, Trinidad and Tobago, Guyana, and 
Suriname. President Bush said, ``the Comfort's doctors and nurses and 
health care professionals expect to treat 85,000 patients and conduct 
up to 15,000 surgeries.'' This is an important effort. How long will 
the deployment last and would you assess the potential impact?
    Admiral Stavridis. The U.S.N.S. Comfort deployment will last 4 
months. The ship will make humanitarian assistance stops in 12 cities 
in 12 countries. The distance the ship will travel is equivalent to a 
deployment to the Persian Gulf and back. This mission is all about 
caring through partnership. The Comfort's medical staff will partner 
with NGOs, international military and civilian medical professionals, 
and U.S. Government interagency health care providers. This deployment 
will build trust and cooperation with host nations and is a 
demonstration of the U.S. support and commitment to the entire SOUTHCOM 
AOR. The ship will provide life-changing care to thousands of people, 
which will make a lasting impression to all of those touched by the 
improved quality of life as a result of the Comfort's efforts. 
Additionally, U.S. personnel will gain valuable training in conducting 
humanitarian assistance; and through the relationships and experience 
gained will be postured to conduct future disaster relief missions.

                           china's influence
    51. Senator McCain. Admiral Stavridis, an increasing presence of 
the People's Republic of China (PRC) in the region is an emerging 
dynamic that must not be ignored. How would you assess the PRC's 
growing economic interest and influence in the region and how concerned 
are you about it?
    Admiral Stavridis. PRC influence in Latin America is growing, 
mostly in the economic sphere. However, I am concerned long-term (20 or 
more years out) about the strategic implications if the current trends 
continue.

                     american hostages in colombia
    52. Senator McCain. Admiral Stavridis, I appreciate that in your 
statement you recognized that a top priority in Colombia is the safe 
return of the three American hostages who have been held captive by the 
Revolutionary Armed Forces of Colombia (FARC) for over 4 years. I would 
like an update on that situation.
    Admiral Stavridis. SOUTHCOM continues to work closely with the 
interagency and the Government of Colombia to safely recover the three 
American hostages being held by the FARC based on information 
available--Tom Howes, Keith Stansell, and Marc Gonsalvez. We are happy 
to provide an update at a classified level.

                                colombia
    53. Senator McCain. Admiral Stavridis, the United States has made a 
significant commitment of funds and material support to help Colombia 
and the Andean region fight drug trafficking since the development of 
Plan Colombia in 1999. In 2003, Colombia developed Plan Patriota, a 
multi-year, broadbased plan focused on military operations and social 
development. Can you assess inroads Colombia has made with regard to 
the eradication of illicit drug crops and improved security conditions?
    Admiral Stavridis. Our strategic partnership with Colombia remains 
a key priority. With our assistance, President Uribe has achieved 
tremendous success in helping to consolidate Colombia's democracy and 
to confront the country's drug traffickers and terrorists, but much 
remains to be done.
    The United States has no international partner more firmly 
committed to the elimination of drug crops and narcotics trafficking 
than the Government of Colombia (GOC). The GOC aerial eradication 
program has exceeded its goals in every one of the last 6 years. The 
Colombian manual eradication program was responsible for the 
elimination of 43,000 hectares of coca and poppy in 2006. Sustained 
eradication has reduced Colombian opium poppy cultivation by 68 percent 
since 2001, from 6,540 hectares to 2,100 hectares.
    Military and law enforcement presence has dramatically improved the 
security conditions in Colombia. In 2002, many municipalities lacked a 
public security presence. Today, all 1,098 municipalities in the 
country are covered. During Uribe's administration, kidnappings have 
decreased more than 80 percent, homicides by 40 percent, acts of 
terrorism by 63 percent and poverty rates fell 11 percent. Homicides in 
2006 were the lowest in 20 years. Colombia has supervised over 30,000 
terrorist demobilizations and 11,000 desertions from all subversive 
groups. Over 30,000 judges, investigators, public prosecutors, and 
defenders have received training in the implementation of the new 
accusatory system implemented to protect human rights, erase impunity, 
and bring criminals to justice.

    54. Senator McCain. Admiral Stavridis, are we providing the 
Colombian military with the capacity they require to combat the FARC 
and other narcoterrorist organizations?
    Admiral Stavridis. Yes, we are providing the Colombian military 
with the capacity they require to combat the FARC and other narco-
terrorist organizations. SOUTHCOM enhances the joint capabilities of 
the Colombian military through a balanced approach that includes 
training, nonlethal equipping, and infrastructure. Examples of this 
type of support include $41 million provided this fiscal year of 
counternarcotics (CN) and counternarcoterrorism training (CNT), NCO 
development, medical training, riverine tactics and operations 
training, special operations training, and the aviation program being 
supported in Melgar by a technical assistance field team. We are also 
providing operational and logistic support worth $53 million. This 
included planning assistance, communications, information operations, 
contract support, fuel, contract airlift, aviation parts, medical 
equipment, and logistics and operations integration including 
infrastructure support. With our support, the Colombian military is 
achieving strategic success against the FARC and other narco-terrorist 
organizations. The FARC remains in an overall defensive posture as a 
result of aggressive Colombian military actions.

    55. Senator McCain. Admiral Stavridis, what is the current level of 
support that SOUTHCOM provides to Plan Patriota and Plan Colombia?
    Admiral Stavridis. Our current level of support to the Government 
of Colombia and Colombian military is close to 80 percent of the total 
CN funds we receive every year to improve partner nation capabilities. 
U.S. SOUTHCOM directly supported the Colombian efforts in the form of 
operations, logistics, command and control, and infrastructure 
capabilities throughout the 6-year Plan Colombia and the 4-year Plan 
Patriota, and we continue to do so as the Colombian military executes 
its follow-on 4-year military campaign, Plan Consolidacion. Translating 
into numbers, U.S. SOUTHCOM support is close to $130 million out of the 
$170 million we dedicate for theater security cooperation in our AOR 
and a total of 267 military personnel and 119 contractors providing CN/
CNT training and maintenance and logistics support.

    56. Senator McCain. Admiral Stavridis, what can you tell us in open 
session about the activities of the FARC today?
    Admiral Stavridis. The FARC is a significantly weakened terrorist 
organization in comparison to what it was just a few short years ago. 
Since the implementation of President Uribe's Democratic Security 
Strategy, the group's ability to project power, terrorize citizens, and 
traffic narcotics has been greatly diminished.
    While 5 years ago the FARC enjoyed a safe haven the size of 
Switzerland in the center of Colombia, and saw its ranks swell to more 
17,000 terrorists under arms, today the group's entire leadership is on 
the run, under Colombian and U.S. indictment, and fields fewer than 
12,000 armed members. The conditions FARC members face worsen every day 
and since 2002 more than 6,400 FARC members have entered into the 
Government of Colombia's demobilization program. In order to stem the 
tide of desertions, the FARC has increasingly relied on the recruitment 
of children to fill the group's ranks.
    Though the FARC's offensive capability has been greatly diminished 
and the group can no longer directly challenge the Colombian military 
as it has in the past, the FARC maintains a capability to conduct 
small-scale, effective attacks against vulnerable Colombian military 
units, and bombings against Government of Colombia infrastructure.

                               venezuela
    57. Senator McCain. Admiral Stavridis, in testimony before this 
committee last March, General Craddock described his concern with 
Venezuela's influence in the region. In October 2006, General Craddock 
said that President Chavez has become a ``destabilizing'' force in the 
region. In February 7, 2007, testimony before the House Foreign Affairs 
Committee, Secretary of State Rice stated that she believes ``there's 
an assault on democracy in Venezuela'' and that ``the president of 
Venezuela is really destroying his own country economically, 
politically.'' How would you characterize Chavez's influence now?
    Admiral Stavridis. President Chavez continues to assert his 
personal dominion over all instruments of national power in Venezuela. 
In some countries, he has great influence; in others, he is tolerated. 
He has been using money and oil to generate greater influence. As an 
example of Chavez's increasing authoritarianism, on January 29, 2007, 
the Chavez-dominated Venezuelan National Assembly passed ``The Enabling 
Law.'' This Enabling Law transferred legislative power from the 
National Assembly directly to President Chavez and granted him special 
powers to issue executive decrees.

    58. Senator McCain. Admiral Stavridis, what are his goals and 
ambitions in the region?
    Admiral Stavridis. President Chavez openly proclaims his intent is 
to lead a self-described ``Bolivarian'' revolution, with a strong anti-
U.S. component.

    59. Senator McCain. Admiral Stavridis, Venezuelan ties with Iranian 
leaders have become increasingly active. Are these ties exaggerated and 
where will these ties to Iran go next?
    Admiral Stavridis. I know that there have been at least 12 senior 
level visits between these countries, clearly showing a tie. The 
Venezuelan and Iranian presidents find a common voice in proselytizing 
against the United States. Both countries would like to lead an 
international anti-U.S. alignment.

    60. Senator McCain. Admiral Stavridis, according to the DOS's April 
2006 terrorism report, Venezuela has virtually ceased its cooperation 
in the global war on terror. Colombian terrorist groups use Venezuelan 
territory for safe-haven, although it is unclear whether and to what 
extent the government of President Chavez provides material support to 
these terrorist groups and at what level. To what extent do you believe 
terrorist groups find safehaven in Venezuela?
    Admiral Stavridis. Pervasive corruption probably provides a degree 
of safe haven in Venezuela for terrorist groups. There have been 
several documented cases of FARC members, including high level FARC 
members, in Venezuela. In fact, one high-level FARC member, Rodrigo 
Granda, was captured in Venezuela in December 2004 where he apparently 
had lived openly.

                         central american gangs
    61. Senator McCain. Admiral Stavridis and Admiral Keating, 
especially troublesome is the growth of gangs and drug-related crimes 
across Central America, portions of the Caribbean, and in some cities 
in Brazil. The level of sophistication and brutality of these gangs is 
without precedent. How do you assess the threat of transnational gangs 
to U.S. national interests in the region?
    Admiral Stavridis and Admiral Keating.

          a. El Salvador, Honduras, and Guatemala continue to bear the 
        brunt of gang activity. Central American gangs impact security 
        in the United States as gangs increasingly engage in drug 
        trafficking activities. Gangs pose a critical criminal threat 
        to U.S. persons visiting Central America especially in San 
        Salvador, Guatemala City, and Tegucigalpa. Brazilian gangs do 
        not pose a direct threat to U.S. national interests; however, 
        they do pose a critical criminal threat to U.S. persons 
        visiting Brazil especially in Rio de Janeiro and Sao Paulo.
          b. The threat posed by Mexican transnational gangs to U.S. 
        national interests primarily stems from violent crime and drug-
        related activity throughout North America. These gangs focus on 
        protecting their territory, mostly in urban areas, and building 
        up power and money. Major Mara gangs in Mexico are Mara 
        Salvatrucha (MS 13) and Mara 18. They are involved in 
        kidnapping, extortion, drugs, and human trafficking. In October 
        2005, Secretariat of Public Security Eduardo Medina Mora Icaza 
        stated there were 5,000 MS 13 members and up to 15,000 Mara 18 
        members in Mexico.

    62. Senator McCain. Admiral Stavridis and Admiral Keating, are 
contacts between gang members in Central America and the United States 
increasing?
    Admiral Stavridis and Admiral Keating.

          a. Contacts between Central American gang members and U.S. 
        gang members have always existed. In fact, the Central American 
        gangs Mara Salvatrucha (MS-13) or Mara-18 first began in the 
        United States Anecdotal information indicates movement between 
        the United States and Central America may be increasing with 
        gangs using their own smuggling routes to move their members to 
        the United States.
          b. We have no specific information on this issue. Monitoring 
        criminal gang activity within the United States is exclusively 
        a civilian law enforcement responsibility unless it indicates a 
        direct threat to DOD personnel or operations.

    63. Senator McCain. Admiral Stavridis and Admiral Keating, how do 
you assess contacts between Islamic extremists and Central American 
gangs?
    Admiral Stavridis. [Deleted.]
    Admiral Keating. [Deleted.]

                            tri-border area
    64. Senator McCain. Admiral Stavridis, in recent years, U.S. 
concerns have increased over activities of the radical Lebanon-based 
Islamic group Hezbollah (Party of God) and the Sunni Muslim Palestinian 
group Hamas (Islamic Resistance Movement) in the tri-border area of 
Argentina, Brazil, and Paraguay, which has a large Muslim population. 
This area has long been used for arms and drug trafficking, contraband 
smuggling, document and currency fraud, money laundering, and the 
manufacture and movement of pirated goods. How active is Hezbollah and 
Hamas in raising funds among the sizable Muslim communities in the tri-
border region?
    Admiral Stavridis. The triborder area (TBA) is perhaps South 
America's busiest and certainly most infamous smuggling and contraband 
center, however, it is just one of several areas in the region 
exploited by these groups. Nevertheless, there are numerous illicit 
activities taking place in the TBA that generate millions of dollars 
for a number of criminal and transnational organizations. Lebanese 
Hizballah (and to a lesser extent Hamas) have members and affiliates in 
the region actively engaged in leveraging legal and illegal economic 
mechanisms to fund their parent organizations.

    65. Senator McCain. Admiral Stavridis, do these groups have an 
operational presence in the TBA?
    Admiral Stavridis. Hizballah, with support from its network(s) in 
the TBA, is suspected of having conducted terrorist attacks in Buenos 
Aires first in 1992 and then in 1994. Some of the people in the TBA 
that allegedly helped facilitate these attacks are still present, and 
could be used again in that capacity.
                                 ______
                                 
               Questions Submitted by Senator John Warner
                   joint forces command headquarters
    66. Senator Warner. General Smith, it is my understanding that your 
headquarters and staff are currently located in multiple buildings and 
that the condition of one specific building, a World War II era 
facility currently used as part of your headquarters, is in very poor 
condition. Based on the importance of JFCOM contributions to the 
warfighters, coupled with its four mission areas which include joint 
innovation and experimentation, joint training, joint capabilities 
development, and serving as the joint force provider, what impact does 
your current facility have on your ability to effectively execute these 
missions?
    General Smith. The JFCOM headquarters staff in Norfolk operates out 
of 16 buildings on two separate Navy installations. Ten of the 
buildings are World War II era structures, eight of which were 
originally constructed as a naval hospital complex and are now well 
beyond their useful life. These buildings suffer from routine 
electrical irregularities, plumbing problems, leaking during inclement 
weather, mold and mildew problems, lead paint, asbestos, and an overall 
dilapidated condition. Anti-terrorism/force protection standoff 
requirements for vehicular traffic cannot be met. Of the six newer 
buildings, two are modular (temporary) structures accommodating about 
60 people and costing $150,000 per year to lease. Because no additional 
suitable office space exists on either Navy installation, most of the 
staff are assigned work spaces that are substantially smaller than the 
applicable DOD standard for their rank or staff function.
    The frequent requirement for maintenance and repair of these old 
structures is a constant drain on the Navy's budget. Recently we 
investigated the feasibility of renovating one of these buildings to 
make it minimally functional and determined that it would cost 
approximately $5.2 million to renovate roughly 33,000 square feet of 
office space ($158/SF). This includes removal of asbestos and lead 
paint. By comparison, the office and administrative space portion of 
the proposed JFCOM headquarters MILCON project will cost approximately 
$6.9 million for new construction of approximately 40,000 square feet 
($173/SF), and the new building systems and exterior finishes will last 
for many years to come. Under the renovation scenario, we would 
continue to occupy space configured to support a World War II medical 
mission. With new construction, we would occupy space deliberately 
designed and built to support our mission.
    The current condition and configuration of our headquarters 
facilities does not prevent us from accomplishing any single aspect of 
our mission, but it obviously impedes our overall effectiveness in each 
of the mission areas. For instance, our J8 Directorate, whose primary 
responsibility is the development of joint capabilities, has a staff of 
208 people located in 7 separate buildings at the Naval Support 
Activity, Norfolk. The effect of having such a scattered arrangement is 
that the cohesiveness of the staff is strained daily, inhibiting 
effective communication and reducing the synergistic effects of 
physically working within the same office space. In addition, a 
significant amount of time is wasted daily simply in transit from 
building to building.

    67. Senator Warner. General Smith, what is the impact of the 
conditions of these facilities on the quality of life of the 
servicemembers and civilians who work there?
    General Smith. The condition of the facilities also has an effect 
on the morale of the staff. Although the actual extent of the effect of 
lower morale on work output cannot be measured without considerable 
research, the fact that there is a negative effect is self-evident. Our 
staff is highly capable intellectually and technically, and the work 
ethic at JFCOM remains excellent. Even so, having to accomplish a 
future-focused, complex, and important mission in less-than-adequate 
facilities can be frustrating and discouraging, even for the best in 
the business.

    68. Senator Warner. General Smith, can you provide us your 
assessment regarding the priority you place on the construction of a 
new headquarters facility and what direct impact such a facility would 
have on your mission?
    General Smith. The provision of a new headquarters facility would 
give us full capability to accomplish our mission. It would allow us to 
consolidate the Norfolk-based staff into a single facility, improving 
the cohesiveness of the staff and significantly improving the corporate 
climate and morale. A new headquarters facility would allow JFCOM to 
shed the lease cost of its modular facilities and the Navy to relieve 
itself of the massive investment cost to continually renovate 65-year-
old decaying buildings. I therefore consider the JFCOM headquarters a 
high priority.

                        interrogation operations
    69. Senator Warner. Admiral Stavridis, the Detainee Treatment Act 
which states that ``no person in the custody or under the effective 
control of the DOD or under detention in a DOD facility shall be 
subject to any treatment or technique of interrogation not authorized 
by and listed in the United States Army Field Manual on Intelligence 
Interrogation.'' How do you and staff at SOUTHCOM conduct oversight of 
interrogation operations at Guantanamo to ensure compliance with the 
requirements of?
    Admiral Stavridis. Prior to my assumption of command of U.S. 
SOUTHCOM, the provisions of the Detainee Treatment Act of 2005 had 
already been implemented at JTF-Guantanamo (JTF-GTMO). Specifically, I 
have been Senate Armed Services Committee advised that, on 1 January 
2006, General John Craddock (former Commander, U.S. SOUTHCOM) directed 
compliance with the Detainee Treatment Act of 2005 and that Major 
General Jay Hood (former Commander, JTF-GTMO) confirmed, on 2 January 
2006, that JTF-GTMO was in compliance with the Detainee Treatment Act.
    Additionally, on 22 January 2007, I issued specific instructions to 
JTF-GTMO concerning the implementation of DOD Directive 2310.01E, The 
DOD Detainee Program, and Field Manual (FM) 2-22.3, Human Intelligence 
Collector Operations. This guidance repeated the provision of the 
Detainee Treatment Act that mandates the only interrogation approaches 
and techniques authorized for use at JTF-GTMO are those authorized by 
and listed in FM 2-22.3. Rear Admiral Harry Harris (current Commander, 
JTF-GTMO) confirmed, on 27 January 2007, that JTF-GTMO remains in 
compliance with U.S. law, including the Detainee Treatment Act. Rear 
Admiral Harris issued a policy memorandum to remind all personnel 
assigned to JTF-GTMO that they must be knowledgeable of and at all 
times in compliance with U.S. law and applicable DOD policies.
    In exercising oversight of detention and interrogation operations, 
I have, since assuming command 6 months ago in October 2006, personally 
visited Guantanamo three times. During those visits, I have been 
briefed extensively by JTF-GTMO personnel on both detention and 
intelligence matters. Additionally, I exercise oversight and maintain 
awareness of camp operations through the receipt of daily situation 
reports from JTF-GTMO, weekly communications with the Rear Admiral 
Harris, and through a multi-disciplined U.S. SOUTHCOM Detainee 
Coordination Team, which interacts daily with JTF-GTMO.

    70. Senator Warner. Admiral Stavridis, do you believe that the 
Services and other elements of the DOD are proving you with 
interrogators that clearly understand the requirements of the Detainee 
Treatment Act?
    Admiral Stavridis. Yes, from my constant interactions with Rear 
Admiral Harris, my personal observations from my visits to Guantanamo, 
and reports from my staff, I firmly believe that all interrogators at 
JTF-GTMO, both military and civilian, understand the requirements of 
and comply with the Detainee Treatment Act and other applicable laws 
and policies.

                      future of cheyenne mountain
    71. Senator Warner. Admiral Keating, as I reviewed your written 
statement, I did not see any mention of your plans related to the 
Cheyenne Mountain Complex near your headquarters in Colorado Springs, 
CO. Cheyenne Mountain is the original home of NORAD and serves us today 
as the center for a worldwide system of satellites, radars, and sensors 
providing early warnings of missile or space threat to North America. I 
am aware that you are studying the continued operation and cost to run 
Cheyenne Mountain with the potential to either shut it down or reduce 
operations. Can you provide this committee an update on the status of 
your review?
    Admiral Keating. [Deleted.]

    72. Senator Warner. Admiral Keating, what are the costs and 
benefits to continuing to operate this huge underground complex?
    Admiral Keating. [Deleted.]

    73. Senator Warner. Admiral Keating, what will you gain by shutting 
it down?
    Admiral Keating. Cheyenne Mountain Air Force Station (CMAFS) will 
not shut down. Currently NORAD and U.S. NORTHCOM's Cheyenne Mountain 
Directorate consists of approximately 20 percent of the total number of 
people assigned to CMAFS; the rest of the people assigned to Cheyenne 
Mountain belong to other commands such as U.S. STRATCOM and Air Force 
Space Command.
    Cheyenne Mountain will continue to operate as an Alternate Command 
Center for NORAD and U.S. NORTHCOM, a training facility for Initial 
Qualification Training and a facility for many other operations not 
associated with NORAD and U.S. NORTHCOM.

    74. Senator Warner. Admiral Stavridis, how will shutting Cheyenne 
Mountain down or reducing operations affect NORAD's ability to continue 
to guard the skies and to provide an early warning of potential air and 
space threats?
    Admiral Stavridis. The impetus for moving Cheyenne Mountain 
Directorate missions and people to the NORAD and U.S. NORTHCOM Command 
Center at Peterson Air Force Base, CO, is to gain operational 
efficiencies and improve unity of effort between the two commands. The 
integration of NORAD and U.S. NORTHCOM Command Center functions will 
result in improved worldwide situational awareness and enhanced mission 
planning and execution through a single integrated command center 
charged with responding to the full spectrum of security threats to 
North America.
                                 ______
                                 
             Question Submitted by Senator Saxby Chambliss
         western hemisphere institute for security cooperation
    75. Senator Chambliss. Admiral Stavridis, WHINSEC is a critical 
member of the U.S. community of military education and training 
institutions. WHINSEC provides invaluable opportunities and instruction 
to military, civilians, and police from the countries within the 
Western Hemisphere to solve regional problems. I commend your efforts 
to strengthen the peace and security of the continent, as they are 
critical to the national security of the United States. As a member of 
the WHINSEC Board of Visitors, I take very seriously my role in 
oversight of WHINSEC's programs and activities. Please discuss the role 
WHINSEC plays in the promotion of democracy and human rights in Central 
and South America, and elaborate on the education and training provided 
by the school.
    Admiral Stavridis. The institute's Democracy and Human Rights 
Program is ambitious and effective. It is a vital educational 
experience for a new generation of security forces throughout the 
Western Hemisphere security forces committed to the rule of law and 
respect for democratic values and international human rights rules. 
WHINSEC provides civilians, military, and law enforcement officers, and 
U.S. military officers, professional education which supports the 
democratic principles of our hemisphere.
    On a daily basis, WHINSEC-trained officials are making significant 
contributions to stability and security operations in the hemisphere 
and throughout the world. WHINSEC training programs are first rate: 
effectively and efficiently building partner nation security capacity 
on an indispensable foundation of support to democratic governance, 
subordination to civil authority, and respect for human rights. The 
institute is also indispensable to fostering regional relationships 
essential to hemispheric security cooperation. WHINSEC's programs--
which train almost 1,000 Latin American officials annually--include a 
wide variety of courses ranging from peace and counterdrug operations, 
democratic sustainment, medical assistance, leadership development, and 
civil-military operations, to name just a few.

    [Whereupon, at 11:24 a.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                        THURSDAY, MARCH 29, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                   POSTURE OF THE UNITED STATES NAVY

    The committee met, pursuant to notice, at 9:50 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
E. Benjamin Nelson, Webb, McCain, Warner, Inhofe, Collins, and 
Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Creighton Greene, 
professional staff member; Thomas K. McConnell, professional 
staff member; and William K. Sutey, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Pablo E. Carrillo, minority investigative 
counsel; Gregory T. Kiley, professional staff member; David M. 
Morriss, minority counsel; Christopher J. Paul, professional 
staff member; Sean G. Stackley, professional staff member; and 
Richard F. Walsh, minority counsel.
    Staff assistants present: David G. Collins, Kevin A. 
Cronin, and Micah H. Harris.
    Committee members' assistants present: Joseph Axelrad, 
assistant to Senator Kennedy; Frederick M. Downey, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Gordon I. Peterson, assistant to Senator Webb; Sandra Luff and 
Samuel Zega, assistants to Senator Warner; Jeremy Shull, 
assistant to Senator Inhofe; Mark J. Winter, assistant to 
Senator Collins; Clyde A. Taylor IV, assistant to Senator 
Chambliss; Lindsey Neas, assistant to Senator Dole; Stuart C. 
Mallory, assistant to Senator Thune; and Brian W. Walsh, 
assistant to Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. We will come to order and quickly adjourn 
because of up to five more votes in the Senate. I had hoped to 
be able to announce that right at 9:30 a.m., but I was looking 
for the ranking member while the ranking member was looking for 
me. So we will adjourn to the call of the chair, but I expect 
that that will be some time around 10:45 a.m. So you have all 
been around here long enough to know that the Senate operates 
that way. We do not have a Rules Committee, which means we are 
sometimes unruly, and so we will stand adjourned to the call of 
the chair. Thank you for your patience. [Recess from 9:51 a.m. 
to 10:48 a.m.]
    Good morning again, everybody. We welcome Secretary Winter, 
Admiral Mullen, and General Conway back to the committee this 
morning. We are most appreciative of the patience that you have 
all shown because of the operation of the Senate this morning 
and we are, more importantly, grateful to you for your service 
to the Nation, for the valorous and truly professional men and 
women that you command.
    You are faced with a number of critical issues that 
confront the Department of the Navy in balancing your 
modernization needs against the costs of supporting ongoing 
operations in Iraq and Afghanistan. Some of those challenges 
center on acquisition programs. Within the Navy, we have 
concerns about the Littoral Combat Ship (LCS) program. This was 
intended to be a ship that the Navy could acquire relatively 
inexpensively and relatively quickly. As it turns out, it looks 
like the LCS program may fill neither bill. Once again, we are 
presented with a program with significant cost growth, which at 
least in part is driven by the Service's changing requirements 
after the design and construction contract was signed.
    In the Marine Corps programs, we have seen significant cost 
growth on the Expeditionary Fighting Vehicle (EFV) program. So 
we will need to understand what has caused the cost problems 
there and what steps are being taken to correct them.
    In the case of the Mine-Resistant Ambush-Protected (MRAP) 
Vehicle program, we have concerns about how aggressively the 
Marine Corps and the Army are acquiring these vehicles that 
have the potential to provide greater protection to our forces 
deployed in Iraq and Afghanistan, and we just, on the floor of 
the Senate, took action that hopefully will expedite that.
    With the LCS and the EFV acquisition situations, there are 
significant questions about acquisition management. In the case 
of the LCS in particular, why were not the Navy and the 
contractor teams better able to see the problems sooner, how 
could we have gotten to the point that the program was just 
months away from running out of money when no alarms had been 
sounded up the acquisition chain of command? We would also be 
interested in hearing from Secretary Winter about what actions 
he believes the Department should take to strengthen 
acquisition oversight and restore confidence in the Navy's 
ability to manage major acquisition programs.
    On the LCS issue, we are disappointed that many of the 
revelations came to the committee via the press. The Navy 
should be taking extra care to ensure transparency with the 
congressional oversight committees about the acquisition 
process and we can only deal effectively with one another if 
the environment of prompt and open information exchange 
prevails.
    Another concern surrounds future force levels. We are 
facing the prospect that the current Department of the Navy 
program will lead to potentially large gaps between the forces 
that the Chief of Naval Operations (CNO) has said he needs and 
the forces that will be available to his successors. In one 
case, the CNO has said that the Navy needs to have 48 attack 
submarines to meet combatant commander requirements, but we are 
faced with the risk of falling well short of that goal for more 
than 10 years starting during the next decade.
    In another case, under current plans for tactical aircraft 
acquisition we are facing a shortfall of as many as 150 
tactical fighters needed to outfit our 10 aircraft carrier air 
wings. With shortfalls that large, we could be faced with 
drastically reducing the number of aircraft available on short 
notice to the combatant commanders, either because we have 
deployed understrength air wings or because we did not deploy 
the carrier at all because of these aircraft shortages.
    On a more positive note, we very much appreciate the fact 
that our witnesses provided their prepared testimony within the 
requested time frame. This is a very important development. It 
is always helpful for the members to have adequate time to read 
these statements before the hearing.
    Again, we thank you all for your service to this Nation. We 
know you face a number of very difficult challenges and we look 
forward to your testimony and to the questions that may be 
asked of you this morning.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman, and I join you in 
welcoming our distinguished witnesses. General Conway, Admiral 
Mullen, and Secretary Winter, I thank you for your service and 
for appearing for this very important hearing.
    Obviously, defending our Nation against its enemies is the 
primary responsibility of the government and resourcing our 
military to defend the Nation requires an appropriate working 
relationship between industry, the Department of Defense (DOD), 
and Congress with an eye toward faithful and efficient 
expenditure of every taxpayer dollar. For the Navy and Marine 
Corps, this comes down to ships and aircraft, ordnance and 
armor, and a trained force of sailors and marines.
    In reviewing the budget request for fiscal year 2008, 
including the 2007 supplemental funding request and the 2008 
request for the global war on terror, I am encouraged by the 
Navy's and Marine Corps's efforts to accurately determine and 
fund force reset, to fully fund readiness and manpower 
requirements, and to invest in the development of future 
capabilities.
    I commend the CNO and the Commandant of the Marine Corps 
for maintaining the integrity of the unfunded priority lists 
(UPLs) by keeping them at an appropriate size. Not all the 
Services were as responsible and in the case of the CNO, I 
commend you for including in the Navy's unfunded priorities 
those equipment and readiness requirements of the Navy Reserve. 
I particularly appreciate the Marine Corps commitment to 
increasing its end strength and I'm interested in your 
assessment of the plan to grow the force to 202,000 marines 
over the next 4 years.
    I look forward to hearing from the Commandant about current 
efforts to surge two additional combat battalions to Iraq and 
to meet the Corps' most urgent requirements for force 
protection and armored vehicles, most notably the MRAP 
Vehicles.
    Additionally, we are approaching a major milestone in 
Marine Corps aviation, with initial deployment of the MV-22 
Osprey planned for the fall. I am confident you will ensure 
that the safety and reliability of this aircraft will meet the 
aviation community's high standards of readiness prior to 
assignment for combat operations.
    I am also encouraged by the significant strides that the 
Navy has made in addressing steaming days and flying hour 
requirements. In addition, I am pleased that the Navy has 
submitted a shipbuilding request that substantially increases 
the Navy's investment in shipbuilding for 2008. However, I am 
troubled by the continuing downward trends in the size of our 
fleet and naval air force, trends that must be broken lest the 
freedom of the seas which we so enjoy today will slip loose.
    I understand that the Navy has proposed legislation to 
reduce the number of aircraft carriers from 11 to 10. I am 
opposed to such a reduction and look forward to hearing from 
you on this considerable change to our national maritime 
strategy.
    In considering this budget request, we must come to grips 
with approaching shortfalls in our numbers of aircraft 
carriers, strike fighter aircraft, submarines, and amphibious 
lift. Shipbuilding in particular appears locked into a spiral 
of increasing costs, evidenced most recently by the LCS 
program. This affordability dilemma or, more correctly, the 
affordability crisis, cannot be resolved by merely raising the 
budgets for shipbuilding. Simply put, last year you brought us 
a requirement to build to a fleet of 313 ships to meet the 
potentials that we see beginning to emerge today. Last year we 
were 281 ships strong. This year we are 276 ships, and the 
Congressional Budget Office (CBO) estimates the cost of 
building the 313-ship Navy may be as high as $20 billion per 
year. That estimate greatly exceeds the Navy's estimate of $15 
billion per year and, unfortunately, our confidence in Navy 
estimates has suffered a setback.
    Secretary Winter, I greatly appreciate your focused efforts 
to right the ship, so to speak, of the Navy and Marine Corps 
major programs that have threatened to founder over the past 
year. Recent developments on the LCS program and the EFV point 
to serious acquisition failures in both Services. But your 
immediate steps to stop work, hold responsible acquisition 
officials accountable, and seek fixed price agreements on the 
LCS program, and your restructuring of the failing EFV program 
serve as examples of leadership in an acquisition process that 
is in desperate need for reform.
    I have long called for an examination of the whole 
procurement process as it works today in DOD. Accordingly, I am 
interested in your thoughts on how we can work together in 
striking a course in acquisition that brings the Navy's 
affordability imperatives into line with its mission 
requirements.
    I look forward to hearing from today's witnesses. Thank 
you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Secretary Winter.

   STATEMENT OF HON. DONALD C. WINTER, SECRETARY OF THE NAVY

    Secretary Winter. Thank you very much, Chairman Levin, 
Senator McCain, and members of the committee. Thank you for the 
opportunity to appear before this committee this morning.
    Today I am joined by Admiral Mullen and General Conway, two 
outstanding leaders whose dedication to the Navy and Marine 
Corps is apparent to all who have had the pleasure of working 
with them. Each of us has prepared a statement for the record, 
which we respectfully submit.
    Chairman Levin. They will be made part of the record.
    Secretary Winter. Thank you, sir.
    These documents outline in detail this Department's 
priorities, the strategic thinking behind them, and the funding 
requests that are necessary to support them. Our priorities 
presented in the fiscal year 2008 budget and the global war on 
terror request encompass both long-term and short-term 
requirements. The short-term imperatives include supporting 
marines and sailors in the field, funding the urgent 
requirements, such as the MRAP Vehicle program, and making up 
for the losses of vehicles, equipment, and aircraft that have 
been incurred in combat operations.
    At the same time, we must provide for the critical needs of 
the Navy and the Marine Corps of the future. To that end, the 
Department of the Navy is pursuing an unprecedented 
modernization program across the full spectrum of our weapons 
platforms in both the Navy and Marine Corps. This drive to 
transform the force is necessary and vital to our national 
security.
    The current transformation entails a shift from a blue 
water centric fleet to one with greater capability in brown and 
green water operations. This shift in focus reflects a greater 
demand for expeditionary capability, a capability that will 
allow us to operate in the littorals. The broad transformation 
now under way includes a new generation of ships, submarines, 
and aircraft, with programs in development, production, or 
already in operation with the fleet.
    Some of the Department of the Navy's new programs have 
encountered significant challenges. The Navy's LCS program and 
the Marine Corps' EFV program are both innovative weapons 
platforms incorporating new technologies. We are working on 
solving the problems that have arisen so that we can deliver 
vitally needed capabilities to our warfighters. Both of these 
programs represent the kind of capabilities that the future 
Navy and Marine Corps will need to fight and win the wars of 
tomorrow.
    Faced with a dangerous, uncertain world, with terrorist 
enemies, states that actively support or condone them, and 
rising powers with intentions and capabilities that lack 
transparency, we have no choice but to improve our own 
capabilities.
    Mr. Chairman, the Department of the Navy's fiscal year 2008 
budget request is critical to both the short-term and long-term 
national security of the United States. We thank you for your 
continued support for our efforts to meet our constitutional 
obligations to provide for the common defense of the American 
people. I look forward to answering your questions.
    Thank you very much.
    [The prepared statement of Secretary Winter follows:]
              Prepared Statement by Hon. Donald C. Winter
                            i. introduction
    Mr. Chairman, Mr. Ranking Member, and members of the committee, it 
is an honor to appear before you representing the brave men and women 
of the United States Navy and the United States Marine Corps--Active, 
Reserve, and civilian over 800,000 strong.
    Over the past year, I have had many opportunities to meet with 
sailors and marines who are stationed both within the continental 
United States and abroad. I have traveled three times to the Central 
Command Area of Responsibility including Iraq. During my visits I have 
had countless conversations with our young sailors and marines. I am 
continually amazed at how dedicated and committed they are to carrying 
out their duties--without question, without complaint. Our sailors and 
marines recognize the significance of their mission. They remain 
determined to win the current war and are committed to defending our 
Nation against future threats. They are the very best and they deserve 
the very best from their leadership in the Pentagon and on Capitol 
Hill.
    Today, I am here to present the Department of the Navy's plan to 
support our sailors and marines in their mission to fight the global 
war on terror and to defend our Nation against future challenges. I 
believe the President's fiscal year 2008 budget request for the Navy 
and Marine Corps provides them what they need and I ask that you 
support this request--submitted to Congress on February 5, 2007.
    The Department of the Navy's budget signifies a vital investment in 
our Navy and Marine Corps. In its totality, this budget represents $160 
billion in requested funding for fiscal year 2008, including the 
estimated costs of the global war on terror.\1\
---------------------------------------------------------------------------
    \1\ ``Highlights of the Department of the Navy's fiscal year 2008 
budget,'' p. 1-15.
---------------------------------------------------------------------------
    These funds are essential in enabling the Department of the Navy to 
maintain current readiness, sustain the operational tempo in the global 
war on terror, support the quality of life of our sailors, marines, and 
their families, while preparing for a future of uncertainty. Our 
priorities for fiscal year 2008 are simply stated:

        We will:

          1. Fight the global war on terror by investing in the present 
        needs of our Navy and Marine Corps, while we
          2. Prepare for future challenges by investing in our people, 
        facilities, and capabilities.

    The development of this budget has not been easy--tough decisions 
have been made and continue to be made throughout the Department to 
balance risk and to be responsible stewards of the tax dollars 
entrusted to us. Yet, we believe that this budget is appropriately 
structured and is a necessary investment to successfully meet both our 
present and future challenges.
    The difficulty of preparing for future challenges has been striking 
the proper balance between building capabilities to support traditional 
and irregular warfare demands while transforming a blue water navy into 
one that can operate, fight, and win in blue, green, and brown waters, 
and expanding the lethality and reach of the Marine Corps.
    Justification of every program is important for Congress to 
understand the Department's intent and rationale, and we will do so. 
For the sake of brevity in this statement I will not go into detail on 
each program. Instead, I will call attention to areas crucial to our 
budget submission and I ask that the ``Highlights of the Department of 
the Navy's Fiscal Year 2008 Budget'' book be submitted for the record 
as part of my statement.
                      ii. investing in the present
Fighting the Global War on Terror
    As we come before you today, I do not have to remind you that we 
are a Nation in our 6th year of a long, irregular, and global war. Your 
naval forces--sailors, marines, and civilians--are engaged at home and 
around the world today in a full spectrum of operations in support of 
this war. They have answered the call to defend the Nation and they are 
carrying out their duties superbly. Yet while focusing on the present 
needs of the global war on terror, we must also keep a keen eye on an 
ever evolving strategic environment around the globe. The pace of 
change in today's world is very rapid. We have witnessed events--such 
as North Korea's nuclear test last October and China's test of an anti-
satellite weapon this past January--that can change our strategic 
calculations overnight. Even as these changes occur, our sailors and 
marines continue to stand guard across the world.
    As I speak to you today, there are over 50,000 sailors and marines 
serving in the Central Command Area of Responsibility. Of those, over 
21,000 marines and 12,000 sailors are serving on the ground in Iraq and 
Afghanistan. It also includes over 8,000 sailors deployed as Individual 
Augmentees (IA) and 4,500 performing ``in-lieu-of'' missions often 
serving in nontraditional capacities but adding to the warfighting 
capability of our military forces with their expertise. Additionally, 
over 700 sailors and marines are in the Horn of Africa. Finally, on any 
given day, approximately 30 percent of our ships and submarines and 
over 45,000 of our sailors are deployed worldwide serving in, on, or 
over the world's oceans.
    We are also key players in executing the President's new strategy 
in Iraq. The strategy requires increased coalition military and 
civilian resources to include an additional two battalions of marines 
to strengthen control of the Al Anbar Province. Approximately 4,000 
additional sailors and marines will be part of this effort.
    This ongoing pace of operations in fighting the global war on 
terror has had a financial impact on the Department of the Navy. 
Approximately 40-50 percent of the fleet continues to be at sea. This, 
coupled with the increased deployment of marines across the globe, has 
placed a strain on our resources. The 2008 global war on terror request 
represents a critical investment in providing the adequate resources 
necessary to prosecute and win the global war on terror. The Department 
of the Navy is seeking approximately $20 billion to directly support 
prosecution of the global war on terror and to reset the force.
Safeguarding our Forces in Harms Way
    Before we deploy our brave men and women in harm's way we must do 
everything in our power to invest in their protection. Therefore, we 
are investing in measures to counter and protect our men and women from 
Improvised Explosive Devices (IED) with such platforms as the Mine 
Resistant Ambush Protected (MRAP) Vehicle. We are transitioning to a 
newly designed Modular Tactical Vest and are committed to providing the 
best head protection to our warfighters. We are also investing in 
measures I am personally involved with seeking improved acquisition 
processes which will accelerate fielding of these new technologies.
    Unavoidably, with war comes the tragedy of loss of life and injury 
to our young men and women. We are committed to providing the best 
medical care on and off the battlefield. The treatment of patients has 
been greatly enhanced by improvements in medical capabilities at the 
personal, unit,and organizational levels--yet we must never be 
satisfied with where we are. We will continue to seek advancements in 
medical care. Care for our wounded does not end at the field hospital. 
We continue to aggressively monitor post-deployment mental health 
screenings as well as, suicides, domestic violence, and divorce rates 
and to assure the quality long-term physical and psychological welfare 
of our sailors and marines.
Resetting the Force
    While we endeavor to provide what is needed, we also recognize that 
war is a costly business, and this one is no different. Our sailors and 
marines will always do what it takes, but there is a significant 
price--not only in their personal sacrifices--but also in the financial 
cost of operations and on the equipment that we provide them. We must 
continue to invest in the present needs of our warfighters.
    The ongoing intense combat operations and high operational tempo 
have had a significant impact on the quality, operability, and service 
life of Navy and Marine Corps equipment--it is imperative that we 
support our brave men and women by replacing our rapidly aging 
equipment. In many cases it makes no sense to replace aging legacy 
equipment with more of the same. In the case where it makes smart 
financial or operational sense, we are purchasing next generation 
equipment and platforms to replace combat losses. Resetting the Navy 
and Marine Corps is essential, and we are investing significant 
resources to restore our combat capability and readiness. The fiscal 
year 2008 global war on terror request includes $3.8 billion--$2.1 
billion for the Navy, $1.7 billion for the Marine Corps--toward reset 
requirements. These funds will refurbish or replace equipment damaged 
or lost during combat operations and restore the capability and 
readiness of the Navy and Marine Corps for future threats and 
operations. It should be noted that the reset requirement is dynamic 
and changes as conditions change.\2\
---------------------------------------------------------------------------
    \2\ ``Highlights of the Department of the Navy's Fiscal Year 2008 
Budget,'' p. 2-10.
---------------------------------------------------------------------------
                      iii. investing in the future
    As we fight the global war on terrorism, we cannot forget that the 
security challenges of the 21st century are complex and varied. They 
range from the irregular, asymmetric threats of terrorists, and rogue 
states, to the sophisticated military technology of future peer 
competitors. The Department has also been called upon to conduct 
disaster relief and humanitarian assistance missions--often being the 
first to respond to natural disasters around the world as in the case 
of the 2005 Indian Ocean tsunami, the earthquake in Pakistan and 
Hurricane Katrina in the Gulf Coast. Naval forces are uniquely balanced 
to address these diverse strategic challenges with the capability and 
capacity to rapidly project power anywhere in the world. We must 
continue to invest in this capability. We cannot allow ourselves to be 
fixated on one threat alone.
    Preparing for an uncertain future demands that the seas of the 
world remain safe for all nations. The Department of the Navy strongly 
supports U.S. accession to the Law of the Sea Convention. Joining the 
Convention, with the declarations and understandings reflected in 
Executive Report 108-10 (Senate Foreign Relations Committee), will 
enable the United States to exercise a leadership role in the future 
development of oceans law and policy. As a non-party, the United States 
does not have access to the Convention's formal processes in which over 
150 nations participate in influencing future law of the sea 
developments, and is therefore less able to promote and protect our 
security and commercial interests. Additionally, by providing legal 
certainty and stability for the world's largest maneuver space, the 
Convention furthers a core goal of our National Security Strategy to 
promote the rule of law around the world.
    This is also a time of unprecedented change in the Department of 
the Navy. We are executing a major transformation of the force at the 
same time that we are executing an array of operations in the global 
war on terror. This transformation is about people as much as it is 
about equipment.
Investing in our People
    The development and retention of quality people are vital to our 
continued success. America's naval forces are combat-ready due to the 
dedication and motivation of individual sailors, marines, civilians, 
and their families. The Department is committed to taking care of them 
by sustaining our quality-of-service/quality-of-life programs, 
including training, compensation, and promotion opportunities, health 
care, housing, and reasonable operational and personnel tempo. The cost 
of manpower is the single greatest factor in the fiscal year 2008 
budget, but it is money well spent. We must continue to recruit, 
retain, and provide for our sailors and marines.
    Recruiting and Retention
    We continue to invest in programs to recruit the right people, 
retain the right people, and achieve targeted attrition. The fiscal 
year 2008 budget requests a 3-percent raise in military base pay. This 
investment along with increased enlistment and re-enlistment bonuses, 
is necessary if we are to continue to man our forces with the highest 
levels of ability and character. These citizens are in high demand 
everywhere; since we ask so much of them, we owe them proper 
compensation. The Navy and Marine Corps are currently meeting 
recruiting and retention goals for most ratings and designators in the 
Active and Reserve components. In fiscal year 2006, Navy achieved 100 
percent of its overall active component enlisted recruiting goal and 
the Marine Corps also achieved over 100 percent of its accession goal.
    Navy and Marine Corps End Strength
    To avoid an adverse toll on our sailors, marines, and their 
families, and to prevent a decrease in readiness, the Secretary of 
Defense established a 1:2 deployment-to-dwell ratio goal for all Active 
component forces. Our goal for the Marine Corps is to achieve that 1:2 
deployment-to-dwell ratio for Active component units and 1:5 for 
Reserve units. Currently, the deployment length for Marine units in 
Iraq is 7 months.
    While our recruiting remains at impressive levels, it is important 
to focus on sizing the Department to achieve its overall objectives. As 
we develop and build more efficient and automated ships, aircraft, and 
combat systems, personnel reductions are inevitable; yet the skill 
level and specialization requirements increase. The Navy has reduced 
its end strength by approximately 40,000 over the last 5 years, and as 
we look ahead to more capable ships entering service in the next few 
years, we anticipate a stabilization of that trend at an end strength 
of about 320,000-325,000.
    For the Marine Corps the proposed increase to our Active component 
end strength to 202,000 marines, by 2011, is an investment in reducing 
the strain on the individual marines and the institution of the Marine 
Corps while ensuring the Marine Corps can provide trained forces in 
support of other contingencies. Our first task will be to build three 
new infantry battalions and their supporting structure--approximately 
4,000 marines. We will then systematically build the additional units 
and individuals on a schedule of approximately 5,000 marines per year.
    National Security Personnel System
    It is important to note that while a considerable investment is 
taking place in the uniformed workforce, we are also placing emphasis 
on creating a proficient civilian workforce, whose pay and promotions 
are performance-based. Deployment of the National Security Personnel 
System began in fiscal year 2006 and continued through fiscal year 
2007. A significant portion, over 50,000 employees, are scheduled to 
transition at the start of fiscal year 2008.
    Safety
    Fundamental to taking care of our sailors, marines, and DON 
civilian employees is establishing a culture and environment where 
safety is an intrinsic and critical component of all decisionmaking, 
both on- and off-duty. Safety directly affects the readiness of our 
fighting forces and significant Mishap Reductions remains a key 
department-wide objective in fiscal year 2008. We are refining our 
concept of Operational Risk Management, which calls for assessing risks 
prior to an evolution and then implementing mitigating actions during 
the evolution, to ensure it is more widely accepted and employed by our 
younger sailors and marines when making decisions off duty. We have 
placed great emphasis on reducing Private Motor Vehicle (PMV) mishap 
rates through new policy changes we believe will help reduce needless 
PMV-related injuries and fatalities. Other safety initiatives are aimed 
at the reduction of aviation mishaps and improving safety in the 
workplace.
Investing in Our Facilities
    Essential to recruiting and retaining the right people is 
maintaining their quality of life and service. The Department of the 
Navy continues to invest in our sailors and marines by sustaining our 
quality-of-life/quality-of-service programs and by ensuring quality 
housing and facilities in which to live, work, and train. We are 
developing Global Infrastructure Plans to analyze bottom line facility 
requirements. The Department of the Navy has been aggressively 
eliminating excess facilities and is on track to its footprint of 23.9 
million square feet by 2013.
    Military Construction
    The fiscal year 2008 budget invests over $2.1 billion toward 64 
military construction projects for our active Navy and Marine Corps and 
10 projects for our Reserve Forces.
    Base Realignment and Closure
    The fiscal year 2008 budget continues to fund Base Realignment and 
Closure (BRAC) initiatives. We are requesting $733.7 million in the 
fiscal year 2008 budget submission to continue implementation of the 
2005 BRAC Commission recommendations. The fiscal year 2008 request 
invests in construction (including planning and design), operational 
movements at key closure and realignment locations, and the necessary 
environmental studies at receiving locations to fulfill National 
Environmental Policy Act requirements.
    Carrier Homeporting
    Consistent with the 2006 Quadrennial Defense Review, the Navy plans 
to adjust its force posture to base at least six ``operationally 
available'' carriers in the Pacific while maintaining the flexibility 
to respond to threats around the world.\4\ The Navy will achieve the 
six Pacific carrier posture in fiscal year 2010 when the U.S.S. Carl 
Vinson (CVN-70) is homeported to the Pacific.
---------------------------------------------------------------------------
    \4\ ``2006 Quadrennial Defense Review,'' p. 47.
---------------------------------------------------------------------------
    Realignment of our Forces in the Western Pacific
    As part of the Defense Policy Review Initiative (DPRI), a change in 
the U.S.-Japan alliance to the security environment, the United States 
and the Government of Japan signed an agreement for the relocation of 
some marines from Okinawa to Guam. This realignment requires a 
commitment to investment in our Western Pacific area of operations. The 
fiscal year 2008 budget invests $28 million for planning and 
continuation of the Environmental Impact Analysis.
Investment in Capabilities
    To meet the demands of the global war on terror and the uncertain 
threats of the future, the Department of the Navy must also invest in 
new generation capabilities and to transform the force. We must 
continue an acquisition program which seeks to build a fleet that is 
both affordable and meets the national security challenges of the 21st 
century. It must cover all facets of the surface, subsurface, and 
aviation requirements. We must also invest in our expeditionary forces 
providing them with the capabilities to remain always ready and always 
capable of forcible entry. Our fiscal year 2008 baseline budget invests 
almost $46 billion for procurement programs.
    As we invest in our naval force it is critical that we pursue a 
program of stable transformation. The core products that the Navy and 
Marine Corps buy face a significant time constraint--we go into battle 
with assets that are built many years in advance; and a stable 
transformation can only be achieved if the Department of the Navy, in 
conjunction with Congress, follow a long-term path of program 
stability.
    Building a Fleet for the Future
    We have initiated an aggressive investment strategy to build an 
affordable 313-ship fleet tailored to support the National Defense 
Strategy and the 2006 Quadrennial Defense Review. The Department plans 
to procure seven ships \5\ in fiscal year 2008 for the United States 
Navy, and we are serving as the executive agent for one Joint High-
Speed Vessel for the United States Army--an investment of over $14.2 
billion toward shipbuilding and conversion.\6\ As required by Congress, 
the Department of the Navy recently submitted its 30-year shipbuilding 
plan which reinforces the 313-ship fleet introduced last year.\7\ The 
fiscal year 2008 30-year shipbuilding plan, unchanged from the fiscal 
year 2007 plan, represents the Departments commitment to creating 
programs of stability and predictability which in turn minimizes 
disruption in shipbuilding and creates efficiency and effectiveness in 
our industrial base.
---------------------------------------------------------------------------
    \5\ ``Highlights of the Department of the Navy's Fiscal Year 2008 
Budget,'' P. 3-5.
    \6\ ``Highlights of the Department of the Navy's Fiscal Year 2008 
Budget'', P. 1-15.
    \7\ Department of the Navy 30-year Shipbuilding Plan, submitted to 
Congress on Feb. 5, 2007.
---------------------------------------------------------------------------
    The fiscal year 2008 budget continues investment in the shift to 
next generation warships. The surface ships and submarines which make 
up the fleet of the future will be more capable than ever to respond to 
enhanced threats across the globe. Several critical shipbuilding 
programs in support of the 30-year shipbuilding plan include:

        <bullet> The lead ship of the CVN-21 Program--Gerald R. Ford 
        (CVN-78) with expected delivery in 2015--will replace U.S.S. 
        Enterprise (CVN-65). Program funding is requested over 2 years 
        with 40 percent, approximately $2.7 billion, in fiscal year 
        2008 and the remaining 60 percent in fiscal year 2009.
        <bullet> The DDG-1000 program, formerly known as the DDX, is 
        the next generation of multi-mission surface combatants. Under 
        the dual lead ship strategy, a lead ship will be constructed at 
        both Northrop Grumman Ship Systems and General Dynamics Bath 
        Iron Works. Contracts for detail design were awarded to the 
        shipbuilders in August 2006. Construction contracts of the dual 
        lead ships are expected to be awarded in fiscal year 2007. The 
        fiscal year 2008 budget provides the second increment of 
        funding, approximately $2.8 billion, required to complete the 
        two fiscal year 2007 lead ships.
        <bullet> The Littoral Combat Ship (LCS) will be a fast, agile, 
        and networked surface combatant with capabilities optimized to 
        assure naval and joint force access into contested littoral 
        regions. The Navy has awarded contracts for construction of the 
        first four LCS sea frames. LCS-1 was launched in September 
        2006. The Navy intends to continue with a plan to procure a 
        reduced number of ships in fiscal 2008 and 2009 within existing 
        budget resources. LCS is needed now to fill critical, urgent 
        warfighting requirements gaps that exist today. Operational 
        experience and analyses indicate that potential adversaries 
        will employ asymmetric capabilities to deny U.S. and allied 
        forces access in critical coastal regions to include strategic 
        choke points and vital economic sea lanes.
        <bullet> In the past year the second and third Virginia Class 
        fast attack submarines joined the fleet. Construction of the 
        Virginia Class continues to be performed under a teaming 
        arrangement between General Dynamics Electric Boat Corporation 
        and Northrop Grumman Newport News Shipbuilding. Six Virginia 
        Class submarines are under construction. The fiscal year 2008 
        budget invests approximately $1.8 billion in the 10th Virginia 
        Class submarine and is the fifth of five Virginia class 
        submarines covered under a multiyear procurement contract.

    A number of congressional authorities are necessary in order to 
maintain the stability of the 30-year shipbuilding plan. Key to 
achieving cost reductions in our Virginia Class program is the ability 
to enter into multiyear ship contracts. We are asking Congress to 
continue Multiyear Procurement Authority for Virginia Class Submarines. 
As we modernize our carrier force to the new Gerald R. Ford Class (CVN-
78), we will drop below our carrier requirement by one ship during a 2-
year period. Through adjustments to refueling availabilities and by 
carefully managing our Nimitz Class service life, we will be able to 
mitigate the impact of this drop in the short-term and long-term. We 
are asking Congress to authorize a temporary waiver of the carrier 
requirement from eleven to ten ships.
    Enhancing Expeditionary Warfare Capabilities
    The 2006 Quadrennial Defense Review describes the reorientation of 
joint ground forces from dependence on large, permanent overseas 
garrisons toward expeditionary operations. This includes a focus on 
greater capability to conduct irregular warfare. Naval forces are 
inherently prepared for this role through our ability to project power 
ashore. Amphibious warships and Marine Air-Ground Task Force (MAGTF) 
capability are essential to the Navy-Marine Corps ability to conduct 
forcible entry. The Department of the Navy will invest in several key 
procurement programs to enhance our expeditionary warfare capability.

        <bullet> The San Antonio (LPD-17) Class of amphibious warfare 
        ships represents the Department of the Navy's commitment to a 
        modern expeditionary power projection fleet. The rapid off-load 
        capability of the San Antonio Class will enable our naval force 
        to operate across the spectrum of warfare. The fiscal year 2008 
        budget invests $1.4 billion to fully fund the construction of 
        the ninth ship in the San Antonio Class.
        <bullet> The Marine Expeditionary Fighting Vehicle (EFV) is the 
        Marine Corps' largest ground combat system acquisition program. 
        It will replace the aging Assault Amphibious Vehicle that has 
        been in service since 1972. The fiscal year 2008 budget invests 
        $288 million from the Research, Development, Test and 
        Evaluation account toward EFV development to ensure that EFV 
        meets all requirements for performance and reliability before 
        entering into production.
        <bullet> The MRAP Vehicle is playing an increased role in 
        protecting our sailors and marines in harm's way. MRAPs are 
        employed to protect against the three primary kill mechanisms 
        of mines and IEDs--fragmentation, blast overpressure, and 
        acceleration. These vehicles provide the best available 
        protection against IEDs. The fiscal year 2008 globar war on 
        terror request procures over 255 MRAP vehicles for the Navy and 
        Marine Corps team. We continue to assess this need as is 
        necessary.
    Recapitalizing Aviation Capacity
    The Department of the Navy requires a robust aviation capacity 
including attack, utility, and lift capabilities. The Department is in 
the midst of an extensive, long-term consolidation and recapitalization 
of all aircraft in the naval inventory in order to develop the optimum 
balance between requirements and usage. We are increasing our 
investment in our aviation programs. In fiscal year 2008 we plan to 
procure 188 aircraft for the Navy and Marine Corps team.\8\ 
Particularly critical programs include the Joint Strike Fighter (JSF), 
the F/A-18E/F Super Hornet, the EA-18G Growler, the P-8A Multi-Mission 
Maritime Aircraft (MMA), the MV-22, and helicopter programs. The 
Department also serves as the executive agent for the modernization of 
the fleet of Presidential Helicopters which will be replaced by the VH-
71.
---------------------------------------------------------------------------
    \8\ ``Highlights of the Department of the Navy's Fiscal Year 2008 
Budget'', P. 3-15.
---------------------------------------------------------------------------
        <bullet> The JSF (STOVL, CV, CTOL) is the next-generation 
        strike fighter weapons system designed to counter the threats 
        of 2010 and beyond. Low rate initial production (LRIP) long 
        lead funding for initial Conventional Take-off and Landing 
        (CTOL) aircraft was awarded in March 2006. A significant 
        upcoming milestone for JSF is the Defense Acquisition Board in 
        spring 2007 for approval of LRIP 1 full funding and LRIP 2 long 
        lead contract awards.
        <bullet> The F/A-18E/F Super Hornet is the Navy's multi-mission 
        strike fighter. Currently in its 8th year of full production, 
        65 percent of the total procurement objective has been 
        delivered (298/460). The fiscal year 2008 budget requests 
        funding for 24 F/A-18E/F Super Hornets. An additional 12 F/A-
        18E/F Super Hornets are requested in the fiscal year 2008 
        globar war on terror request to bridge the projected shortfalls 
        due to excessive operational use which will shorten ESL.
        <bullet> The EA-18G Growler is the Navy's replacement for the 
        legacy EA-6B and will assume the role for Airborne Electronic 
        Attack. First flight for the Growler occurred in August 2006. 
        EA-18G aircraft are being procured as part of the F/A-18E/F 
        Multi-Year Procurement II contract. The fiscal year 2008 budget 
        invests $1.3 billion which procures 18 E/A-18G aircraft.
        <bullet> The P-8A MMA replaces the Navy's P-3C Orion and fills 
        Combatant Commander requirements for long-endurance naval 
        aircraft in fulfillment of many missions in major combat 
        operations, globar war on terror, and homeland defense. The 
        program, now in detailed design phase, will achieve Initial 
        Operational Capability in fiscal year 2013--initial production 
        buys will begin in fiscal year 2010.
        <bullet> The MV-22 Osprey Tilt Rotor aircraft will supplement 
        and replace the CH-46 with enhanced mission capabilities. The 
        CH-46E is over 40 years old, with limited lift and mission 
        capabilities to support the MAGTF and the globar war on terror. 
        MV-22 Initial Operational Capability is scheduled for fall 2007 
        with a continued transition of two CH-46E squadrons per year 
        thereafter. The fiscal year 2008 budget includes a request for 
        21 MV-22 aircraft.
        <bullet> Helicopters continue to provide essential lift 
        capability to the Navy and Marine Corps. Critical to this 
        capability are the MH-60R/S and the UH-1 programs. The MH-60R 
        will replace the aging SH-60B and SH-60F helicopters with the 
        primary mission of undersea and surface warfare. The MH-60S 
        will support the CSG and ESG combat logistics, search and 
        rescue, vertical replenishment, anti-surface warfare, airborne 
        mine countermeasures, combat search and rescue, and naval 
        special warfare mission area. The fiscal year 2008 budget 
        invests in 27 MH-60R and 18 MH-60S helicopters. The UH-1 
        continues to fulfill the Marine Corps utility helicopter 
        missions. The fiscal year 2008 budget supports the UH-1Y new 
        build strategy and procures 20 UH-1Y helicopters.
    Research and Development
    As we look to transform our force with new generation platforms, we 
must also actively seek out new innovations and niche technology. Our 
fiscal year 2008 budget continues investment in the Research and 
Development, Science and Technology (S&T), and the Research, 
Development, Test, and Evaluation (RDT&E) management support accounts. 
In fiscal year 2008, the RDT&E account decreases by over 8 percent, 
reflecting technology maturation and the transition to production of 
programs previously in RDT&E. Funding for S&T is kept relatively 
constant to enhance capabilities for the naval forces of today, 
tomorrow, and the future. To maximize our return on S&T funding, we 
have developed a newly integrated Naval S&T Strategic Plan focused on 
areas where the Department of the Navy needs to be a world leader and 
an early adopter of technologies. RDT&E accounts also support the 
transition of technologies and the development of critical new weapon 
systems. Critical shipbuilding programs include CVN-21, SSN-774 
Virginia Class Submarine, DDG-1000, LCS, LPD-17, T-AKE, and Joint High 
Speed Vessel. Critical manned aviation programs include the F-35, VH-
71, P-8A, CH-53K, E-2D, and EA-18G. As a final part of the RDT&E 
account, our Test and Evaluation communities are ensuring that 
technologies will perform as required in the field.
Cultivating a Stable Acquisition Environment
    While our investment strategy is forward-leaning--so must our 
procurement process be. It is clear that we must better define our 
programs early in the acquisition process. A key emphasis must be to 
properly incentivize contractors to bid in a responsible manner and 
then to diligently execute to the accepted proposal. I intend to focus 
a significant part of my remaining time as Secretary of the Navy in 
getting this right. This year we are focusing our efforts to take on 
the challenges of: (1) revising and reinstituting our policy on 
contractor performance assessment, (2) controlling cost growth and 
reducing program volatility, and (3) building rapid acquisition 
processes. We have established acquisition guidelines concerning urgent 
warfighting needs, addressing schedule priority, source selection 
criteria and contract performance. Specific acquisition policies 
emphasize rapid deployment capability, rapid acquisition processing, 
controlling cost growth, and contractor performance assessments. An 
acquisition reengineering effort addressing: (1) an open systems 
business model, (2) accountability and portfolio assessment, (3) human 
capital planning, and (4) program formulation and capability planning 
has been initiated. These four threads are aimed at making the 
acquisition process more responsive and delivering the agreed-upon 
warfighting capability within the agreed-upon cost and schedule.
    In addition to acquisition reform, we are investing in methods to 
increase efficiency and maximize the return on our investments. Though 
still maturing, the Navy is developing the Navy Enterprise Framework 
which will better leverage the value streams consisting of people, 
dollars, and materiel needed to deliver warfighting readiness to Navy 
component and combatant commanders. The Department is also seeking to 
use ``best practices'' of the private sector through the deployment of 
Lean Six-Sigma (LSS). LSS is being implemented throughout the 
Department to increase quality of work life, safety levels, speed of 
decisions and transactions, and to decrease total cost of ownership. 
The vision is to create a critical mass of leaders and personnel who 
routinely apply LSS methodologies for continuous process improvement.
    The Department will continue to seek ways to transform the way we 
do business resulting in improved efficiency, better decisionmaking, 
and an organizational culture that is performance-based.
                             iv. conclusion
    Investing in our present needs and fighting the global war on 
terror are on the forefront of our priorities--but we must not forget 
that the world is an ever evolving environment. We must be prepared to 
respond to emerging threats of an uncertain future. To accomplish these 
goals we must continue to invest in our national defense.
    Thanks to the continuous support of Congress, our naval forces are 
superior to all others. But developing and maintaining capable naval 
forces requires our Nation to take a long-term view. It requires time, 
constant strategic planning, and significant commitment of resources to 
develop and maintain the world's premier naval force. Together, we have 
made tough decisions and I believe that this budget submission is 
adequately structured to support the needs of the United States Navy 
and the United States Marine Corps.
    Only through the collaborative efforts of Congress and the 
Department of the Navy and with the support of the American people can 
we provide the Nation the naval force it needs to fight the global war 
on terror and prepare for the challenges of the future.
    Thank you.

    [The book ``Highlights of the Department of the Navy's Fiscal Year 
2008 Budget'' follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Levin. Thank you, Mr. Secretary.
    Admiral Mullen.

    STATEMENT OF ADM MICHAEL G. MULLEN, USN, CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Mullen. Chairman Levin, Senator McCain, Senator 
Warner, and distinguished members of this committee: Thank you 
for your continued strong support of our men and women in 
uniform and for the opportunity to appear before you today. I 
am honored to join Secretary Winter and General Conway 
representing the longest-lasting inter-Service relationship in 
our Nation's history, the Navy-Marine Corps team.
    As the Secretary said, we are a Nation at war, a maritime 
Nation, fighting an elusive and adaptive enemy bent on using 
terror and irregular tactics to spread hatred and fear across 
the globe. At the same time, we are confronted by potentially 
hostile nation states determined to develop and use 
sophisticated weapons systems. Your Navy is ready to meet these 
challenges.
    2006 was a busy year. Your Navy met the demands of 
combatant commanders for well-trained combat-ready forces 
around the world, deterring aggression and combating terrorism 
while providing international disaster relief to Pakistan and 
the Philippines; revisiting tsunami-ravaged Southeast Asia with 
humanitarian relief from the hospital ship Mercy; successfully 
evacuating over 14,000 American citizens safely from Lebanon; 
and demonstrating our surge capability and partner-building 
capacity in Exercises Valiant Shield and RIMPAC.
    In addition to that, we monitored missile launches on the 
Korean peninsula with our Aegis destroyers, sent a message of 
hope and resolve with the George Washington Carrier Strike 
Group in Partnership of the Americas in Latin America, and 
developed closer military relationships with the navies of 
China, India, and Russia. Some of our finest warfare officers 
command Provincial Reconstruction Teams in Afghanistan and Navy 
admirals command the Joint Task Forces in the Horn of Africa 
and Guantanamo Bay. We also helped strengthen homeland security 
through a continued and growing partnership with the United 
States Coast Guard.
    Today nearly 100 of your ships and submarines are at sea 
and more than 60,000 sailors are forward-deployed. Fully half 
of these men and women serve in the Central Command (CENTCOM) 
area of responsibility and almost half of that number are on 
the ground in combat and combat support roles. They are 
performing magnificently, each and every one.
    I had the opportunity to visit with many of them over the 
holidays in the Arabian Gulf, Iraq and Afghanistan, Bahrain, 
and the Horn of Africa. I can tell you they are focused, well-
trained, and well-led. They are proud of what they are doing 
and still prouder of the difference they know they are making.
    But we must work hard to sustain this readiness. Though we 
continue to meet or exceed almost all of our recruiting and 
retention goals, I remain concerned about certain shortfalls 
among our expeditionary forces, SEALs, explosive ordnance 
disposal personnel, our naval construction force, medical 
corps, and naval intelligence community. Additionally, I am 
starting to see for the first time in years a drop in our 
first-term retention. I am watching this very, very closely.
    As I testified to the House Armed Services Committee last 
month, the accelerated wear and tear on systems and equipment 
in a harsh physical environment requires immediate attention, 
especially on combat construction equipment for our Seabees and 
our older models of expeditionary aircraft, the P-3, the EP-3, 
and the EA-6B Prowlers.
    The same investments we have made to improve fleet 
capabilities have paid off. We must now continue to reenergize 
procurement accounts to maintain those capabilities in the 
future. Our fiscal year 2008 budget helps us do that, calling 
for the construction of 7 new ships as well as the additional 
of 188 new operational aircraft to the inventory, nearly 40 
more aircraft than we ordered last year.
    We submitted a shipbuilding plan to Congress last year that 
would produce a fleet of 313 ships by 2020, a fleet sized and 
balanced to meet the challenges we face at maximum acceptable 
risk. That plan submitted with this budget has not changed. 
Still centered on 11 and eventually 12 aircraft carriers, 30 
amphibious ships, 48 submarines, 88 surface combatants, and 55 
LCSs, as well as the support ships, it will provide the Nation 
more options and more flexibility than ever before, 
particularly in core warfighting areas like mine and undersea 
warfare and anti-ballistic missile defense.
    I appreciate the support we have received from this 
committee in developing this plan and in building this fleet. 
We continue to evaluate, as we must, the impact global 
developments have had on the plan's original risk assumptions. 
I assure you that I remain committed to a stable shipbuilding 
program and to pursuing with our partners in industry and here 
on Capitol Hill the efficiencies required to make it 
affordable.
    Three things definitely have not changed, Mr. Chairman: my 
priorities to sustain our combat readiness, to build a fleet 
for the future, and to develop the 21st century leaders that we 
need. I know the role our Navy must play in helping to win the 
war on terror while providing a powerful strategic deterrent 
and remaining a vital element of this Nation's strategic 
reserve. I know well our requirement to support those we send 
into harm's way with the very best medical care, top-notch 
housing and installations, and a strong commitment to their 
professional support and their professional growth, as well as 
strong support for their magnificent families.
    The 2008 budget we have submitted is not without risk. 
While other Services have seen top lines increase since 
September 11, the Navy has experienced a $7 billion decrease in 
buying power over the last 4 years. Our budget requests 
represent the maximum risk I believe we can accept in four key 
areas: manpower; readiness, both ashore and afloat; procurement 
accounts; and our reset.
    When our ground forces return from Iraq and Afghanistan, 
the Nation will increasingly depend upon the expeditionary 
capabilities of its Navy and Marine Corps team. I know and I 
know you know that a maritime Nation such as ours depends in 
great measure, as it has for more than 230 years, on the 
flexibility, reach, agility, and lethality of that team. 
Indeed, I note with pride that this week, March 27 in fact, 
marks the anniversary of the passage of the Naval Act of 1794, 
the legislation that revived the United States Navy and led to 
the construction of the original six frigates, including of 
course U.S.S. Constitution.
    In his annual address to Congress just a few months prior 
to the passage of that act, President Washington alluded to the 
young Nation's need to defend itself: ``If we desire to avoid 
insult,'' he noted, ``we must be able to repel it. If we desire 
to secure the peace, it must be known that we are at all times 
ready for war.''
    Your Navy today, sir, is still ready to help secure peace 
and ready at all times to both deter war and to fight it. I 
thank you for the support you so generously give us to maintain 
our readiness, and again on behalf of your sailors, Navy 
civilians, and their wonderfully supportive families, I thank 
you for the opportunity to appear before you today and I look 
forward to your questions.
    [The prepared statement of Admiral Mullen follows:]
            Prepared Statement by ADM Michael G. Mullen, USN
    Mr. Chairman, Senator McCain, and members of the committee, it is 
an honor to appear before you today representing the brave men and 
women, sailors and civilians, of the United States Navy. It is with 
great pride, tempered by the urgency of war, that I report to you the 
Navy's readiness to answer all bells for our Nation's security, today 
and for generations to come. Thank you for your longstanding support.
                              introduction
    We are a maritime nation involved in a long, irregular and global 
war that extends far beyond Iraq and Afghanistan. The threat we face 
breeds within failing states and the under-governed spaces of the world 
and preys upon those weakened by poverty, disease, and hatred. It 
thrives where there is no rule of law and spreads like a malignancy 
through cyberspace and the vast maritime commons that serve as 
connecting tissue in this age of globalization.
    We are also confronted by nation-states determined to develop 
sophisticated weapons systems, including nuclear arms. We cannot allow 
ourselves to be fixated on one threat alone. Our national security is 
dependent upon a strong Navy that can keep the sea lanes free, deter 
aggression, safeguard our sources of energy, protect the interests of 
our citizens at home and reassure our friends abroad. We must never 
relinquish overmatching capability and capacity.
    While our ground forces are engaged in Iraq and Afghanistan, the 
Navy--with its ability to deliver two unique attributes day-to-day--
global reach and persistent presence--will continue to support our 
responsibilities worldwide and provide a powerful deterrence, both in 
day-to-day operations as well as being a vital element of our Nation's 
``Strategic Reserve.'' As we pace the rapidly changing security 
environment, there is no alternative to a well balanced Fleet.
    Much has changed in the world since I testified before this 
committee last year. Iran has been emboldened by the Israel/Hezbollah 
war and continues the overt pursuit of a nuclear production capability. 
North Korea has test fired long-range ballistic missiles and conducted 
an underground nuclear detonation. China has demonstrated the ability 
and willingness to conduct out of area diesel submarine operations and 
their advanced military and space technology development continues 
apace. The stated desire for, and apparent pursuit of, weapons of mass 
destruction (WMD) and advanced delivery systems has increased among 
terrorist organizations and their state sponsors. Within our own 
hemisphere, some leaders have become increasingly vocal in their 
opposition to policies of the United States.
    Last Spring I signed the Navy Strategic Plan (NSP) to better align 
budgetary decisions with future operations and risk assessments. The 
NSP also laid the foundation for the Naval Operating Concept (NOC), 
which I co-signed with the Commandant of the Marine Corps in August 
2006. The NOC is intended to define the objectives and missions of the 
Navy-Marine Corps Team and to underscore our warfighting 
interdependence.
    The President's National Strategy for Maritime Security (NSMS) 
calls for enhanced international cooperation to ensure lawful and 
timely enforcement actions against maritime threats. During the Cold 
War, our Navy was guided by a Maritime Strategy focused on containing 
and defeating the spread of communism and Soviet domination. It is time 
to develop a new Maritime Strategy based on global reach and persistent 
presence--a strategy that includes core Navy warfighting competencies 
and deterrence, strategic communication and information operations, 
shaping and stability operations, emerging and enduring partnerships.
    At the International Sea Power Symposium in September 2005, the 
Chiefs of 49 navies and coast guards, among 72 countries represented, 
discussed a new vision of sea power in the 21st century. That vision of 
sea power encourages international partnerships for maritime security 
and awareness, consisting of vessels and capabilities from partner 
nations around the world--nations with a shared stake in international 
commerce, security and freedom of the seas: the ``1,000 Ship Navy.''
    This year the U.S. Navy and Coast Guard have joined maritime forces 
around the world interested in participating in Global Maritime 
Partnerships--a proverbial ``1,000 Ship Navy.'' Membership in this 
``global fleet'' is not proscriptive and has no legal or encumbering 
ties. It is envisioned to be a Free Form Force of maritime partners who 
see the promise of sea power to unite, rather than to divide: 
Collective security on the oceans highways through a global maritime 
network.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                               priorities
    In last year's testimony, I identified three priorities addressed 
by our fiscal year 2007 budget. We have made progress in all three and 
our fiscal year 2008 budget reaffirms our commitment to these 
priorities. We seek your assistance as we move forward, placing 
particular emphasis on strengthening our core warfighting capabilities 
and increasing our own military capacity as well as that of our 
partners. Our three priorities remain:

          I. Sustain combat readiness--with the right combat 
        capabilities--speed, agility, persistence, and dominance--for 
        the right cost.
          II. Build a fleet for the future--balanced, rotational, 
        forward deployed and surge capable--the proper size and mix of 
        capabilities to empower our enduring and emerging partners, 
        deter our adversaries, and defeat our enemies.
          III. Develop 21st century leaders--inherent in a strategy 
        which, through a transformed manpower, personnel, training and 
        education organization, better competes for the talent our 
        country produces and creates the conditions in which the full 
        potential of every man and woman serving our Navy can be 
        achieved.
I. Sustain Combat Readiness
    A. Fiscal Year 2006 in Review
    The Navy answered all bells in 2006. We met the demands of 
Combatant Commanders for well-trained, combat-ready forces--deterring 
aggression while conducting Operation Enduring Freedom, Operation Iraqi 
Freedom, international disaster relief, and humanitarian missions. We 
successfully evacuated over 14,000 American citizens safely from 
Lebanon and demonstrated our resolve, capability and partner building 
capacity in Exercises Valiant Shield, Rimpac, and Partnership of the 
Americas.
    Over 10,000 Navy Individual Augmentees continued to make 
significant contributions around the world in all manner of joint and 
coalition billets, particularly in the CENTCOM Area of Responsibility. 
We continued to provide vital direct and indirect combat support to the 
Marine Corps through a variety of Blue in Support of Green programs, 
and we supported homeland defense initiatives with the U.S. Coast 
Guard, including the development of a Maritime Domain Awareness Concept 
of Operations (CONOPs) and the establishment of three Sector Command 
Center-Joint, interagency harbor operations centers.
    Last year the Navy also made progress toward improving our core 
warfighting competencies: anti-submarine warfare (ASW), mine warfare, 
and ballistic missile defense. As the missile tests on the Korean 
Peninsula and the out of area deployment of a Chinese diesel submarine 
remind us, we must ensure we sustain our overmatching capability and 
capacity in these, and other, core warfighting mission areas.
    B. Current Readiness
    I recently returned from a trip to Iraq, Afghanistan, Djibouti, 
Bahrain, and ships at sea in the Arabian Gulf. I visited with sailors 
conducting special operations and combat support in Iraq, flying combat 
sorties in support of OEF and OIF, providing security protection for 
oil platforms, conducting civil affairs missions in Afghanistan, 
participating in Theater Security Cooperation activities in Horn of 
Africa, and standing watches onboard U.S.S. Dwight D. Eisenhower, 
U.S.S. Anzio, and U.S.S. Boxer--reassuring our allies in the region 
while providing a formidable deterrent to Iran.
    Our Navy's readiness is superb and our sailors are performing at 
exceptional levels at sea and ashore. The men and women of your Navy 
are on watch around the world, around the clock.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    On 15 March 2007 we had 95 ships on deployment (34 percent of the 
Fleet) and 127 ships underway (46 percent of the Fleet) in every 
theater of operation; this included 3 aircraft carriers, and 4 big deck 
amphibious ships (LHA/LHD), and approximately 25 submarines (Figure 1).
    That same day, 2,744 active and Reserve Seabees, and 4,896 of our 
Active and Reserve medical corps were serving overseas, many in combat 
support roles. Additionally, 817 members of the Navy Special Warfare 
community were deployed overseas (of 3,616 deployable), as were 247 
Explosive Ordnance Disposal personnel (with 105 surge-available to 
deploy), and 744 Naval Coastal Warfare/Expeditionary Security Force 
personnel (of 2,640 deployable). Earlier this month, 167 sailors from 
the Navy's first, newly established Riverine Squadron arrived in Iraq 
to provide area security at the Haditha Dam.
    Worldwide, on 15 March 2007, there were 60,313 of our sailors 
deployed ashore and afloat worldwide, conducting strategic deterrence; 
intelligence, surveillance and reconnaissance; ASW training, ballistic 
missile defense, mine counter warfare, counter piracy and counter-drug 
patrols, theater security cooperation activities, and humanitarian 
assistance. On that day there were 31,120 sailors serving in the 
CENTCOM AOR, 13,007 of whom, were on the ground building roads and 
schools, offering combat care and medical assistance to our Fleet 
Marines, providing timely intelligence support to Special Operations, 
and contributing to the myriad combat support and reconstruction 
missions ongoing in that region. No less vital are the sailors and 
civilians--the Total Navy--who serve the shore-based infrastructure 
that underpins our Fleet worldwide.
    Perhaps the greatest enabler of our current, and continuous, 
readiness has been the ongoing development of the Fleet Response Plan 
(FRP). FRP is an evolving, deliberate process to ensure increased and 
continuous availability of trained, ready Navy forces capable of a 
surge response forward on short notice. FRP does not change training 
requirements, operational capabilities or the amount of maintenance. 
Rather, it delivers enhanced surge capability while providing 
rotationally deployed forces to fulfill Global Force commitments.
    Another key enabler of our Fleet readiness is family readiness. 
``Family readiness'' means sailors' families are prepared for the 
absence of their loved one. The Navy strives to reduce the uncertainty 
and apprehension experienced by our Navy families in these stressful 
times, while strengthening the programs and resources available to 
support them.
    Without the support of our families--and, without supporting them 
in return--we cannot hope to sustain combat readiness. We owe our 
sailors and their families the very best quality of life we can offer. 
This includes top-notch housing and installations, the best health care 
we can provide, and a strong commitment to child care.
    C. Requirements to Sustain Combat Readiness
    As we adapt to asymmetric threats and the challenges of irregular 
warfare, we cannot lose sight of Navy's core warfighting competencies. 
We must continue to improve performance in anti-submarine and mine 
warfare, anti-surface warfare, anti-air warfare, strike warfare, 
ballistic missile defense, and other core maritime supremacy missions. 
We will continue to mature our Fleet Response Plan (FRP) and strengthen 
Fleet and Family Readiness--to ensure combat ready, surge-capable 
forces are available to meet any contingency. Natural disasters abroad 
and hurricanes here at home taught us valuable lessons. We need to 
extend the FRP philosophy of ``continuous readiness'' to our shore 
commands, our people, and to our families.
    To sustain our combat readiness, we seek congressional support in 
the following areas:

        <bullet> Anti-submarine warfare (ASW). Submarines with 
        improving stealth and attack capability--particularly modern 
        diesel attack submarines--are proliferating world-wide at an 
        alarming rate. Locating these relatively inexpensive but 
        extremely quiet boats presents our Navy with a formidable 
        challenge. Navy is pursuing a distributed and netted approach 
        to ASW. Some of the key ASW programs we must continue to 
        develop and field as quickly as possible include: the 
        Deployable Autonomous Distributed System (DADS); the Reliable 
        Acoustic Path Vertical Line Array (RAPVLA); the Surface Ship 
        Torpedo Defense System (SSTD); the Aircraft Carrier Periscope 
        Detection Radar (CVNPDR); and, the High Altitude ASW Weapon 
        Concept (HAAWC).
        <bullet> SONAR restrictions. ASW is a very complex and 
        challenging warfighting competency in which to achieve and 
        sustain the required level of expertise. Therefore every 
        opportunity we have to gain and maintain proficiency at the 
        ship/unit level, and every opportunity we have to integrate 
        units in complex scenarios is crucial to our readiness. 
        Unfortunately, our ability to train in the same manner in which 
        we fight is under attack in public forums, including the 
        courts. Thus far, we have seen little scientific basis for the 
        claims lodged against the Navy. However, these allegations 
        present the potential for severe restrictions on our continued 
        ability to train effectively, as we saw in RIMPAC 2006 wherein 
        we lost 3 days of valuable ASW training with active sonar 
        because of a court restraining order. Navy is currently 
        executing a comprehensive plan of action to cover all our at-
        sea training areas with environmental compliance documents by 
        the end of 2009. We are committed to maintaining an open 
        dialogue, continuing to advance our scientific understanding of 
        the impacts of sonar on marine mammals, and complying with the 
        relevant statutes. We have consistently made this clear as an 
        organization in our debate on this issue. Maintaining 
        proficiency in ASW is a daily challenge, and while our long-
        term compliance documents are being developed, we cannot afford 
        to stop training. We owe it to our sailors to ensure they 
        receive the training they need to fight and win.
          The Marine Mammal Protection Act (MMPA) requires permits for 
        activities that may affect marine mammals. This includes 
        military activities, including certain Navy activities at sea. 
        The National Defense Authorization Act of 2004 included a 
        provision that authorizes the Secretary of Defense to grant 
        exemptions to the MMPA for certain military activities critical 
        to our National defense. On 23 January 2007, the Deputy 
        Secretary of Defense granted Navy a National Defense Exemption 
        (NDE) for 2 years covering mid-frequency active (MFA) sonar 
        activities for major exercises and in major operating areas, as 
        well as the use of Improved Explosive Echo Ranging sonobuoys 
        (IEER). The NDE will help Navy continue to conduct the sonar 
        training necessary for our National defense while protecting 
        marine mammals through established mitigation measures.
        <bullet> Naval Expeditionary Combat Command. NECC is developing 
        into a true force of choice in phase zero (pre-conflict) and 
        phase V (reconstruction) operations, and as a vital part of our 
        Nation's long war against terrorism. Included in the Naval 
        Expeditionary Combat Command today are 30,363 Active and 
        Reserve component sailors including 15,339 in the Naval 
        Construction Force, 6,557 in Naval Coastal Warfare, 3,607 in 
        the Navy Expeditionary Logistics Force, 2,482 in Explosive 
        Ordnance Disposal, 712 in the Riverine Force, 591 in the Navy 
        Expeditionary Guard Battalion, 441 in Visit Board Search and 
        Seizure/Intel, 431 in the Maritime Civil Affairs Group, 85 in 
        Combat Camera, 68 in the Expeditionary Combat Readiness Center, 
        and 50 in the Expeditionary Training Group. All new forces--
        Riverine, Expeditionary Training Group, Maritime Civil Affairs 
        and Maritime Expeditionary Security Force--will meet full IOC 
        objectives in fiscal year 2007. Riverine will deploy its first 
        squadron to Iraq this month to provide area security at Haditha 
        dam and interdiction operations on the Euphrates river. Your 
        continued support of our Riverine capability and capacity is 
        vital. Our second Riverine Squadron was established on 2 
        February, 2007 and our third Squadron will be stood up this 
        June.
        <bullet> Sea Basing. It would be difficult to consider any 
        future expeditionary missions without recognizing the need for 
        a sea base from which to stage Joint Forcible Entry Operations, 
        Theater Security Cooperation, and humanitarian assistance 
        activities. Sea Basing provides operational maneuver and 
        assured access to the joint force while significantly reducing 
        our footprint ashore and minimizing the permissions required to 
        operate from host nations. These are operational 
        characteristics that will prove increasingly vital in the post-
        OIF/OEF political-military security environment. Navy is 
        exploring innovative operational concepts combining sea basing 
        with adaptive force packaging that will further support 
        national security policy and the Combatant Commanders' 
        objectives worldwide. Our 30-year shipbuilding plan provides 
        for Sea Basing that covers the spectrum of warfare from Joint 
        Forcible Entry to persistent and cooperative Theater Security 
        Cooperation.
        <bullet> Ballistic Missile Defense. Missile tests on the Korean 
        Peninsula and by Iran, along with the proliferation of 
        ballistic missile technology underscores the growing need for a 
        robust, sea-borne ballistic missile defense system. Last year, 
        the Navy made further progress on our Aegis Ballistic Missile 
        Defense (BMD), the sea based component of the Missile Defense 
        Agency's (MDA) Ballistic Missile Defense System (BMDS). It 
        enables surface combatants to support ground-based sensors and 
        provides a capability to intercept short- and medium-range 
        ballistic missiles with ship-based interceptors (SM-3). The 
        Sea-Based Terminal Program will provide the ability to engage 
        Short Range Ballistic Missiles (SRBMs) with modified SM-2 BLk 
        IV missiles from Aegis BMD capable ships.
        <bullet> Depot Level Maintenance. Ship and aviation depot level 
        maintenance is critical to enable the continuing readiness of 
        our warfighting capabilities. Support of our O&MN accounts will 
        ensure we don't defer critical maintenance.
        <bullet> U.S.S. George Washington. The U.S.S. George Washington 
        will relieve U.S.S. Kitty Hawk as our forward deployed naval 
        forces CVN in Japan in fiscal year 2008. This transition, vital 
        to our security interests in the Asian Pacific region, needs to 
        be fully funded.
        <bullet> Fleet and Family Readiness. The Navy is addressing 
        Fleet and family readiness in many critical areas, four of 
        which are: minimizing financial risk and predatory lending; 
        improving crisis management and response procedures; enhancing 
        child care programs and centers; and, improving ombudsman 
        programs. We also continue to work with those families 
        struggling to recover from the devastation of Hurricanes 
        Katrina and Rita.
        <bullet> Steaming Days. The fiscal year 2008 budget provides 
        funds necessary to support 48 underway days per quarter of the 
        active operational tempo (OPTEMPO) for deployed forces and 22 
        underway days per quarter for nondeployed forces (primarily 
        used for training). Our fiscal year 2008 baseline budget 
        estimates also include reductions to peacetime OPTEMPO levels. 
        The fiscal year 2008 budget supports the ``6+1'' surge 
        readiness level from our Carrier Strike Groups. As in fiscal 
        year 2006 and fiscal year 2007, it is anticipated that 
        operational requirements will continue to exceed peacetime 
        levels in fiscal year 2008.

II. Build a Fleet for the Future
    A. Fiscal Year 2006 in Review
    In 2005 the Navy conducted extensive analysis to determine the 
minimum required force structure needed to meet the security demands of 
the 21st century with an acceptable level of risk. In February 2006, 
the Navy unveiled a new 30-year shipbuilding plan that will provide a 
Battle Force of approximately 313 ships by 2020 with more capacity and 
capability than was ever dreamed when our fleet was much larger in 
size. Stabilizing this plan, which remained essentially unchanged in 
our 2007 submission, is intended to provide the shipbuilding industry 
with sufficient predictability to maintain critical skills and to make 
business decisions that increase efficiency and productivity in order 
to meet the Navy's projected shipbuilding requirements.
    Last year we began to see our future Fleet taking shape. We 
currently have 38 ships under contract for construction, and in fiscal 
year 2006 ships that had been designed a few short years ago rolled 
down the ways. We christened the first Freedom Class Littoral Combat 
Ship, amphibious assault ship Makin Island, amphibious transport dock 
ship Green Bay, Guided Missile Destroyers Gridley and Sampson, nuclear 
fast attack submarine Hawaii, auxiliary dry cargo ships Alan Shepard 
and Sacagawea, and the aircraft carrier George H.W. Bush. We 
commissioned the amphibious nuclear attack submarine Texas and the 
guided missile destroyer Farragut.  We also rolled out the first EA-18G 
Growler.
    In fiscal year 2006, the increased wartime OPTEMPO of Operations 
Iraqi Freedom, Enduring Freedom, and the global war on terror continued 
to wear down Navy's aging, ``legacy'' aircraft. Expeditionary aircraft 
utilization has dramatically increased, particularly for EA-6B airborne 
electronic attack aircraft, MH-60 multi-mission helicopters, P-3 
maritime patrol aircraft, EP-3 electronic surveillance aircraft, and F/
A-18 C/D attack aircraft, thus shortening the expected service life 
(ESL) of these aging airframes.
    Improving our own capacity was only part of the Navy's focus in 
fiscal year 2006. We also pursued the broadest possible approach to 
strengthening maritime security through partnerships. This included 
closer cooperation with the U.S. Coast Guard and our other interagency 
partners, international organizations, nongovernmental agencies, 
commercial shippers, and maritime nations great and small.
    Perhaps the most tangible application of Navy's global reach and 
persistent presence in building partner capacity was last year's 5 
month deployment of the hospital ship Mercy in the summer of 2006 to 
the tsunami-affected areas in South and Southeast Asia. Working with 
embarked military medical personnel from Canada, Australia, Singapore, 
India and Malaysia as well as representatives from 11 nongovernmental 
organizations, Mercy's accomplishments ashore and afloat included: 
60,081 patients seen, 131,511 total services provided; 1,083 surgeries; 
19,375 immunizations; 20,134 optometry evaluations, 16,141 glasses 
distributed; 9,373 dental extractions; 236 biomedical equipment 
repairs, 254 people trained; 59 major and 177 minor medical systems 
restored to 100 percent operational capacity; and, 6,201 host nation 
students trained.
    In an August 2006 public opinion survey, conducted by Terror Free 
Tomorrow, Indonesians and Bangladeshis overwhelmingly indicated their 
support of this humanitarian mission. In Indonesia, 85 percent of those 
aware of Mercy's visit had a favorable opinion, and in Bangladesh this 
figure was 95 percent. Further, 87 percent of those polled in 
Bangladesh stated that Mercy's activities made their overall view of 
the United States more positive. These polling results provide some 
indication of the power of partnerships.
    B. Current Force
    By the end of fiscal year 2007 we will have stopped the free fall 
of our Navy and our Fleet's net size will have grown from a low of 274 
ships in March 2007 to 279, including 5 newly commissioned ships.
    Navy is in the process of evaluating the impact global developments 
have had on our risk assumptions, and ultimately whether or not this 
will affect the build rate of our future Battle Force. Whatever the 
outcome of this evaluation, we will work closely with our partners in 
industry to control requirements costs and provide the industrial base 
the stability it needs to become more productive.
    Future platforms and combat systems must be designed and built with 
the knowledge that we plan to continually upgrade them over their 
lifetime. An Open Architecture approach to software acquisition and 
development of integrated weapons systems is a critical part of this 
business model. Free and open competition in which the best idea wins 
is the goal.
    The fiscal year 2008 President's budget submission provides for 
procuring 7 new ships in fiscal year 2008 and 67 new ships over the 
FYDP (fiscal years 2008-2013). To facilitate the stability required to 
achieve reduced costs in this constrained industrial sector, no changes 
in ship acquisitions were made in fiscal year 2008 from President's 
budget 2007 to President's budget 2008. The Navy has a long-range 
vision to reduce types and models of ships, to maximize reuse of ship 
designs and components, and to employ a business model that encourages 
the use of open architecture and mission systems modularity.
    The next major challenge in building a fleet for the future is to 
deliver a long range aviation procurement plan. Much work has been done 
analyzing Joint warfighting capabilities and capacity based on threat 
and risk assessments driven by Defense Planning Guidance. Consideration 
has also been given to affordability, industrial capacity and 
production times associated with next generation aviation warfare. The 
Navy will work to deliver a stable aviation build plan that transforms 
and balances aviation capabilities with respect to conventional and 
irregular warfare, reduces excess capacity, and achieves technological 
superiority through cost-wise investments in recapitalization, 
sustainment and modernization programs.
    President's budget 2008 procures 188 aircraft in fiscal year 2008 
and 1,295 aircraft across the FYDP (fiscal years 2008-2013), reduces 
average aircraft age from 74 percent to 50 percent of expected service 
life, and concentrates on resourcing critical maritime and Joint 
effects. The plan is structured to support required economic order 
quantity investments and facilitate Multi-Year Procurement (MYP) 
contracts.
    We must include the vital contribution that can be made in securing 
the global commons by our partners with common interests. The 
President's National Strategy for Maritime Security states, that, ``The 
safety and economic security of the United States depends upon the 
secure use of the world's oceans.'' It further notes that, ``Maritime 
security is best achieved by blending public and private maritime 
security activities on a global scale into an integrated effort that 
addresses all maritime threats.''
    I believe an international ``1,000 ship navy,'' offers a real 
opportunity to increase partner nation capabilities while reducing 
transnational crime, WMD proliferation, terrorism, and human 
trafficking. Regional maritime security partnerships are already taking 
shape worldwide that support this ideal, some with and some without 
direct US Navy involvement. The self-organizing evacuation of non-
combatants from Lebanon during the Israeli-Hezbollah war, in which 170 
ships from 17 countries came together, accomplished their mission, and 
dispersed is often cited as a good example of how such partnerships 
might work.
    Critical to increasing partner capacity in the war on terror, as 
well as building strong global maritime partnerships (the ``1,000 ship 
navy'') that promote maritime security, is the Building Global 
Partnerships Act of 2007, being submitted to Congress by the Department 
of Defense as a top legislative priority. The BGP Act will 
significantly improve our ability to help friendly nations develop 
capabilities to better govern and defend their territorial waters and 
the global maritime commons, denying access to terrorists and criminal 
organizations. We encourage your support for this vital legislation 
that will further enable support for the ``1,000 ship navy'' concept.
    Sea Power in this century cannot be harnessed by a single nation 
acting alone. If we are to build a fleet for the future capable of 
keeping pace with globalization, we must leverage the capacity of our 
partners with common interests. The positive potential of Sea Power and 
freedom of the seas can only be achieved through a collective and 
cooperative approach focused on international rule of law and freedom 
of the maritime commons.
    C. Requirements to Build a Fleet for the Future
    We have worked hard with Congress and Industry to start to create 
stability in our shipbuilding plans and industrial base. We must 
continue to fund and build a balanced, effective Battle Force of about 
313 ships . . . the minimum force required to guarantee the long-term 
strength and viability of U.S. naval air and sea power with acceptable 
risk. We recognize the need to control requirements, maintain program 
stability, curb costs, and monitor best business practices. We need 
support for sustained funding of our shipbuilding account--consistent 
with the 30-year plan--that is critical to provide our partners in 
industry the stability they need to curb cost growth and sustain our 
vital shipbuilding industrial base.
    To build a fleet for the future and strong partnerships, we seek 
congressional support in the following areas:

        <bullet> 11 Carrier Force. The 30-year shipbuilding plan 
        recognizes that as a result of the retirement of U.S.S. 
        Enterprise in fiscal year 2013, the number of aircraft carriers 
        will drop to 10 for a period of approximately 30 months, until 
        the U.S.S. Gerald Ford enters active service. Legislative 
        relief is required from the National Defense Authorization Act 
        for Fiscal Year 2007 requiring a carrier force of 11. In 
        developing the 30-Year Shipbuilding Plan, Navy conducted 
        extensive analysis that concluded the temporary drop to a 
        carrier force of 10 from fiscal year 2013 through fiscal year 
        2015 is an acceptable, though moderate, risk. A carrier force 
        of 11 is recognized as minimum risk over the long run.
        <bullet> Littoral Combat Ship. The Littoral Combat Ship (LCS) 
        program remains of critical importance to our Navy. Current 
        cost estimates exceed established thresholds for detail design 
        and construction of LCS-1, the lead Lockheed Martin hull. This 
        recent cost growth has provided an opportunity to reinforce the 
        Navy's commitment to providing warfighting capability through 
        affordability. The Navy is executing a pause in the 
        construction of LCS-3, the second Lockheed Martin hull, to 
        conduct a thorough review of the program, and to examine both 
        internal and external factors relating to the acquisition and 
        contracting processes, practices, and oversight and the related 
        impact on cost. The Navy remains committed to bringing Littoral 
        Combat Ship capability into the Fleet quickly and by means of 
        an acquisition strategy that is executable, affordable, and in 
        the best interests of the Navy.
        <bullet> Virginia Class Multi-Year Procurement (MYP). Navy is 
        seeking multi-year procurement authority in fiscal year 2008 
        for Virginia Class submarine contracts beginning with the 
        fiscal year 2009 ship. Continued MYP authority will help 
        maintain a stable SCN profile and greatly aid in Virginia Class 
        cost reduction initiatives. In order to support our long-term 
        submarine force structure of 48 boats, Navy plans to increase 
        the build rate of this Class to 2/year beginning in fiscal year 
        2012.
        <bullet> Split Funding for Zumwalt Class DDG. The support of 
        Congress for last year's split funding request was greatly 
        appreciated. This year Navy requests the second half of split 
        year funding for dual lead ships of the Zumwalt Class destroyer 
        to maximize competitive efficiencies and focus design efforts. 
        Split funding will also lend stability to the shipbuilding 
        industrial base. This funding strategy supports the current 
        budget structure, enhances future competitive opportunities, 
        and limits liability for appropriations in future years.
        <bullet> Joint Strike Fighter. The F-35 Joint Strike Fighter 
        remains the cornerstone of Navy's continuing superiority in air 
        warfare. Although risk associated with the recent 2 year slide 
        in the carrier variant of the F-35 will be mitigated by an 
        increased buy of F/A-18 E,F variants, there should be no doubt 
        that JSF is a much more capable aircraft. I encourage your 
        continued strong support of this program to guard against 
        further delays in production.
        <bullet> Legacy Expeditionary Aircraft Replacment. As our 
        aging, legacy aircraft reach the end of the service lives, 
        funding for follow-on programs becomes critical. Among these 
        programs are the P-8A multi-mission maritime aircraft, the F/A 
        18-E/F and JSF, the EA-18G airborne electronic attack aircraft, 
        the V-22 tilt-rotor aircraft, and the MH-60R/S and CH-53K 
        helicopters. Navy's RDT&E program is also vital to this effort.
        <bullet> Research and Development. To achieve the speed of war 
        Navy is pursuing Innovative Naval Prototypes (INPs)--
        revolutionary ``game changers'' for future naval warfare. These 
        initiatives have resulted in the development of an electro-
        magnetic rail-gun prototype; new concepts for persistent, 
        netted, littoral ASW; technologies to enable Sea-basing; and 
        the naval tactical utilization of space.
        <bullet> Public Shipyard Loading. As we work with industry on 
        shipbuilding cost reduction, we must ensure legislation and 
        policy support best business practices and efficiencies. 
        Apportioning work based upon funding quotas to drive work-
        loading in public Naval shipyards potentially diverts 
        efficiency opportunities away from the private sector. Public 
        yards provide vital services for nuclear propulsion and 
        submarine work, and these critical competencies must be 
        maintained. However, our first priorities in shipyard loading 
        should be quality, efficiency, and cost savings. We seek your 
        assistance in removing restrictions on our work-loading 
        flexibility.
        <bullet> Shore Installations and BRAC V. In addition to our 
        ships and airplanes, another critical piece of Force Structure 
        is our shore infrastructure, to include installations, piers 
        and support facilities, training ranges, schoolhouses, 
        hospitals, and housing. Supporting a ``Surge Navy'' demands we 
        create an infrastructure that leverages advanced technology, 
        sound investment and intelligent sustainment for the Fleet, for 
        our sailors and their families. The Navy's Ashore Vision 2030 
        is our roadmap for transforming the Navy shore infrastructure 
        over the next 25 years; it is aligned with the congressionally-
        mandated Base Realignment and Closure (BRAC) process.
          The Continuing Resolution (CR) voted into Public Law in 
        February 2007, decreased Department of Defense BRAC V funding 
        from $5.6B request to $2.5 billion. Without supplemental 
        funding to remedy the $3.1 billion reduction this law made in 
        the DOD BRAC request, Navy's BRAC V funding will essentially be 
        cut from $675 million to $291 million--a 57-percent reduction. 
        This would devastate a program entering the critical stages of 
        execution. This reduction would also delay, or in some cases 
        negate, our ability to harvest savings and reap funds from land 
        sales and transfers. Should this shortfall be remedied through 
        fiscal year 2007 Emergency Supplemental Appropriations funding, 
        Navy would do its best to minimize the impact of this delay 
        through prompt execution of funds.
        <bullet> MHC Transfers. Legislative authority for planned ship 
        transfers are an important aspect of inter-operability with the 
        navies of our allies. These transfers also contribute to the 
        1,000 ship Navy vision by building partner nation capacity, 
        while reducing the taxpayer costs of maintaining or disposing 
        of decommissioned ships. Navy seeks authority to transfer 
        coastal mine hunting ships (MHCs) to Lithuania and Turkey. 
        Limited in speed and endurance, the MHCs were designed as non-
        deploying assets. With no sweep capability and without 
        redundant engineering and combat systems equipment, they are 
        constrained in their ability to conduct mine clearance 
        operations. For the MHCs to provide utility in a Homeland 
        Defense role, they would have to be strategically distributed 
        across the United States which would drain limited fiscal and 
        manpower resources and hamper the Navy's ability to field a 
        responsive and capable MCM force. These ships are scheduled for 
        decommissioning in fiscal year 2008 and if authority is timely, 
        they can be ``hot transferred'' which is less expensive for 
        both the United States and the recipient.
        <bullet> United Nations Law of the Sea Convention. To interact 
        more effectively with our maritime partners, it is time to 
        ratify the Law of the Sea Convention. Robust operational and 
        navigational rights codified in the Law of the Sea Convention 
        must be preserved for the Navy to continue to maximize its 
        ability to execute the National Strategy for Maritime Security. 
        Accession to the Convention is of critical importance to global 
        naval maritime and over flight mobility.
III. Develop 21st Century Leaders
    A. Fiscal Year 2006 in Review
    In fiscal year 2006, Navy continued to meet recruiting and 
retention goals for most ratings and designators in the active and 
Reserve components. We achieved 100 percent of our overall active 
component enlisted recruiting goal, and our overall enlisted retention 
goal was exceeded at 104 percent. We met 98 percent of our overall 
active component officer accession goal and 99 percent of our active 
officer end strength goal. Navy will continue to remain vigilant in 
what is proving to be an increasingly difficult recruiting environment.
    Fiscal Year 2006 was the 5th year of support for the global war on 
terror. Continued wartime OPTEMPO for Operations OIF and OEF has raised 
concern for the health and welfare of some parts of our expeditionary 
force. Medical ratings and designators, Explosive Ordnance Disposal 
(EOD) personnel, Divers, Special Warfare Combat Crewmen (SWCC), and 
SEALs remained recruiting challenges.
    Last year, Navy put a great deal of effort into analyzing and 
addressing the root causes of these recruiting shortfalls. New 
authorities provided in the National Defense Authorization Act for 
Fiscal Year 2007, such as increased accession bonuses and college 
stipends, are expected to help mitigate medical officer recruiting 
challenges. Increased accession bonuses for SEAL/Navy Special Warfare 
ratings and improved training techniques to reduce attrition will help 
us meet future requirements in our Global War on Terror intensive 
ratings.
    The Expeditionary Combat Readiness Center (ECRC), a command within 
the NECC, was established in fiscal year 2006 as the single process 
owner for the deployment of Navy Individual Augmentees (IA) and In-lieu 
of (ILO) forces, of which the Navy is currently fielding over 10,000 
sailors. The ECRC helps organize, process, train, equip, and deploy 
IAs, providing reach-back support and eventually helping them re-
integrate with their parent command. Additionally, all active duty 
Sailors now process through one of four Navy Mobilization Processing 
Sites (NMPS) which has greatly enhanced consistency in processing 
between our Active and Reserve components. The ECRC NMPS and are 
helping Navy process IAs while meeting a goal of 60 day advanced 
notification of deployment.
    Central to Navy's ability to sustain overall readiness, 
particularly in support the global war on terror through the Individual 
Augmentee program, was, and is, the near-seamless integration of our 
Active and Reserve components. Since 11 September 2001, over 42,000 
Navy reservists have been mobilized in support of the global war on 
terror, representing over 80 percent of the total number of sailors 
deployed on the ground in theater. On any given day, over 20,000 
citizen-sailors are on some type of Active Duty (AD) or Inactive Duty 
(ID) orders at their supported commands meeting global COCOM 
requirements. This number includes about 5,000 RC sailors mobilized in 
support of OIF and OEF. Additionally, we maintain the capacity to 
rapidly increase contingency support with more than 28,000 RC sailors 
yet to be mobilized.
    Navy's Active/Reserve Integration program (ARI) aligns Reserve 
component (RC) and Active component (AC) personnel, training, 
equipment, and policy to achieve unity of command. It leverages both 
budgetary and administrative efficiencies, as well as ensuring that the 
full weight of Navy resources and capabilities are under the authority 
of a single commander. Navy reservists are aligned and fully integrated 
into their AC supported commands, and often conduct ``flex-drilling,'' 
putting multiple drill periods together to provide longer periods of 
availability when requested. This flexibility enables our Reserve 
sailors to better balance the schedules and demands of their civilian 
employers and families while achieving greater technical proficiency, 
more cohesive units and increased readiness.
    The Reserve component is a critical enabler of the ``Sailor for 
Life'' concept that is central to our Strategy for our People. This 
approach to recruiting, retention, and professional development 
explores innovative opportunities for career on-ramps and off-ramps, 
providing fluidity between the Active and Reserve components. Last 
year, Navy continued to actively pursue incentives that will develop a 
more adaptable, better educated, and more highly skilled workforce 
while encouraging sailors to serve longer and more productively.
    Based on national demographic trends and the pace of globalization, 
it is clear we must build a more diverse Navy. According to the U.S. 
Census Bureau, by 2030 African Americans will comprise approximately 14 
percent of the population nationally, Hispanics 20 percent, and Asians/
Pacific Islanders/Other 10 percent. Our officer corps currently 
consists of 81 percent non-minority and our enlisted ranks are 
approximately 52 percent non-minority. To ensure we have the best 
people, from the widest talent pool available, we must do a better job 
of recruiting and retaining our Nation's young minority students.
    B. Current Status of Our Sailors and Civilians
    Perhaps no where else in our Navy is the pace of change more 
profoundly felt than in our manpower, personnel, and training 
enterprise. It is here that the dynamics of globalization, cultural 
diversity, advancing technologies, generational differences, changes in 
the labor market, and declining numbers of hard science degrees among 
America's youth combine to make recruiting and retention more 
challenging than ever.
    Currently, only 3 in 10 high school graduates meet the minimum 
criteria for military service, including academic/mental, physical, and 
social/legal requirements. With all four armed services, a great number 
of colleges and universities, as well as corporate America seeking 
talented and qualified high school graduates, competition is stiff.
    If we are to pace the security challenges of this century, our 
sailors and civilian workforce must evolve with our weapons systems. We 
must recruit today the young men and women who will be leading the 
Fleet tomorrow. This will be a more specialized, technically capable, 
better educated, more culturally diverse and aware Navy than we have 
today. It will be smaller.
    Unfortunately, the old model of recruiting and detailing in which 
we focused on simply filling specific requirements, is no longer 
sufficient. Today, and in the future, as we reduce the size of our 
force to align it with increasingly sophisticated systems in a complex 
security environment, we must strive to FIT the right person to match 
the requirements. As we eliminate excess infrastructure ashore and 
increase our global outreach and persistent presence forward, the ratio 
of sea to shore billets will become more balanced. In order to make the 
right FIT for each individual sailor, we must be mindful of providing 
geographic stability, satisfying work, personal and professional 
development, and, to the degree possible, predictability in their 
future assignments.
    Admittedly, we could adapt more easily to the rapidly changing 
security environment if we could focus on a specific enemy or choose 
between effectiveness in irregular warfare or major combat operations--
between asymmetric or conventional threats. Unfortunately, we cannot 
choose; we must prepare for both.
    Nor can we make it the responsibility of each sailor to 
individually sort out priorities or determine how to accommodate the 
greater breadth of learning and the depth of experience the future 
requires. Rather, we must adjust our personnel strategies to account 
for the dynamic nature of the demands on our people while assuring a 
predictable availability of current capability and future capacity 
suitable to the needs of the Joint Force and the Nation.
    As we develop and build more efficient and automated ships, planes, 
and combat systems, personnel reductions are inevitable, and as crew 
sizes decrease, the skill level and specialization requirements 
increase. The Navy has reduced its active end strength by some 35,000 
sailors over the last 4 years. In 2003 our Active component consisted 
of 375,700 sailors; at the end of fiscal year 2007 we will have 
340,700; and, by the end of fiscal year 2008 we will have 328,400. As 
we look ahead to the smaller, more capable ships entering service in 
the FYDP, we anticipate a stabilization of that trend at an active end-
strength between 320,000 and 325,000. We are also trimming our Reserve 
component which will have gone from a total of 87,800 in 2003 to a 
total of 71,300 at the end of fiscal year 2007 and 67,800 by the end of 
fiscal year 2008. But these reductions are more about shaping the right 
force, than simply trimming its size. Our priority, then, is to recruit 
some 45,000 active sailors with the right mix of diversity, education, 
and skill sets necessary to serve our Fleet in 2009 and beyond.
    The Strategy for our People provides the framework through which we 
will size, shape, and stabilize the Navy Total Force. The execution of 
Navy's overarching Strategy for Our People focuses on six goals: 
capability driven management; a competency based workforce; an 
effective Total Force; increased diversity; being competitive in the 
Marketplace; and, being agile and cost efficient. The achievement of 
these goals depends on our ability to execute our programs of record. 
This strategy will satisfy future Joint warfighting needs by 
attracting, retaining, and better educating sailors and civilians 
capable of adapting and responding to mission needs anytime, anyplace, 
anywhere. [Figure 2]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Capability driven manpower. . . . Warfighting missions and 
operations have become more complex and uncertain. Navy work and 
workforce requirements are constantly shifting and evolving with 
changes in required operational, political and strategic capabilities. 
Basing manpower requirements on current and projected warfighting needs 
will ensure we meet today's operational requirements while continuously 
updating and balancing the workforce as needs change.
    A competency based workforce. . . . The Force Planning Concept 
suggests the joint force must develop unique capabilities that fall 
outside the realm of conventional warfighting. This means an expansion 
of the Navy workforce requirements beyond traditional roles (e.g. 
Maritime Civil Affairs Group). Developing the workforce based on 
competencies allows the Navy to continuously evaluate critical skills 
and create a workforce well-matched to the needs of the warfighters. A 
competency-based workforce also enables the Navy to determine where 
there is workforce commonality (or exclusivity) across a range of 
military operations so efficiencies can be realized.
    An effective Total Force. . . . A constrained fiscal environment 
and workforce reductions demand our focus on applying the best 
resources to jobs as creatively as necessary. Viewing workforce 
components as one integrated team of sailors and civilians provides 
flexibility and reduces risk while better meeting warfighting needs. 
Leveraging the strength of the Total Force provides maximum flexibility 
in applying the right skill-set to a requirement in the most cost-
efficient manner.
    Diversity. . . . The changing demographics of the American 
population and the diversity of our missions in the world demand Navy 
take proactive steps to ensure it has access to the full range of the 
Nation's talent. Leveraging the strength of the Nation's diversity 
creates an environment of excellence and continuous improvement, in 
which artificial barriers to achievement are removed and the 
contributions of all participants are valued.
    Being competitive in the Marketplace. . . . The Navy is faced with 
recruiting and retention challenges in an era of increased military 
operations, a strong civilian economy, and a decreasing propensity for 
military service. To remain competitive with the other Services, 
academic institutions, and corporate America the Navy must revise and 
update its personnel policies and programs so it is attractive to the 
desired talent base and successfully competes with the private sector 
for the best talent.
    Being agile and cost efficient. . . . Expanding capability-driven 
workforce requirements and fiscal constraints require the Navy to 
deliver a more capable, versatile force. Agility means swiftly 
developing and implementing strategies, policies and processes to 
proactively meet evolving needs and challenges while focusing on the 
skills and abilities most in demand right now. Cost-efficient means we 
do this economically and without fiscal waste.
    Education is another area that will be treated as a strategic 
investment in our future. Our Education Strategy must reflect the 
technological basis of our core warfighting skills, the interdependence 
of joint and combined operations, the complexity of decisionmaking, and 
the sophisticated regional knowledge and grasp of political-military 
issues expected of Navy leaders. The objective of the Education 
Strategy is to enhance overall performance excellence in current and 
future joint operations and operations support by addressing the 
individual needs of those who are currently serving as well as the 
future force.
    C. Requirements to Develop 21st Century Leaders
    The challenges we face in shaping the force are considerable. We 
must deliver on the strategy for our people.
    To develop 21st century leaders, we seek congressional support in 
the following areas:

        <bullet> Combat Casualty Care. The objective of Navy's combat 
        casualty care is to maximize the continuum of quality care with 
        lifesaving interventions as close to the battlespace as 
        possible and with no decrease in quality of service during 
        rehabilitation and recuperation. On the battlefield this 
        includes forward surgical access and capabilities that have 
        resulted in dramatically improved survival rates; diagnosis of 
        mild/moderate traumatic brain injury/closed-head injury; 
        improved patient care during transport; and, careful monitoring 
        of mental health surveys administered during and after 
        deployment to combat areas. After leaving the combat area, 
        there is a 99.2 percent survival rate once an injured sailor 
        reaches a Navy Medical Treatment Facility. Navy supports the 
        Secretary's ongoing review of Walter Reed Army Medical Center 
        and the National Naval Medical Center at Bethesda and is 
        currently and seperately evaluating, through our Inspector 
        General, the material condition and Quality of Service at each 
        of our Navy Medical Treatment Facilities.
          Our highest priority is to win the global war on terror. 
        Second only to this is our determination to take care of those 
        wounded in this fight and their families.
        <bullet> Health Care Cost Control. The Navy is committed to 
        ensuring our sailors and their families receive top quality 
        health care throughout the continuum of service. By 2009 our 
        Navy will not only be smaller, it will be leaner. Health care 
        costs continue to rise at a rate disproportionate to inflation. 
        DOD TRICARE costs have more than doubled in 5 years from $19 
        billion in fiscal year 2001 to $38 billion in fiscal year 2006, 
        and analysts project these costs could reach $64 billion by 
        2015--more than 12 percent of DOD's anticipated budget (versus 
        8 percent today). Yet this problem extends beyond our active 
        duty, or even our Reserve, health care costs. One of the 
        significant drivers of this increased cost is the TRICARE for 
        Life program developed for the 2001 National Defense 
        Authorization Act.
          We could not have anticipated the growing number of retirees 
        and their dependents, not yet Medicare eligible, who have 
        chosen or have been driven to switch from private/commercial 
        health care plans to TRICARE in order to better cope with 
        rising health care costs. Despite greatly increased utilization 
        rates, TRICARE Premiums have not changed with inflation since 
        the program began in 1995, so that total beneficiary cost 
        shares have declined substantially--27 percent of total benefit 
        cost in 1995 while 12 percent in 2005. In fact, from fiscal 
        year 2008 to fiscal year 2013, Navy's accrual costs for future 
        retirees alone are expected to increase by $4 billion (a 16-
        percent increase) despite a flattened and stabilized end 
        strength over that same period of time.
          There is no longer any tolerance for inefficiencies in our 
        manpower system and very little flexibility in our MPN account. 
        This has a carry-over effect by further pressurizing our 
        procurement accounts. We again urge Congress to implement the 
        initiatives and administrative actions that will restore 
        appropriate cost sharing relationships between beneficiaries 
        and the Department of Defense.
        <bullet> DOPMA Relief. While Navy end strength is reduced and 
        stabilizes across the FYDP, the demand continues to increase 
        for experienced officers to fill joint requirements, core 
        mission areas and jobs related to the war on terror. Navy is 
        already operating at or near control grade limits imposed by 
        Title 10, resulting in billet-grade suppression. Navy currently 
        suppresses 106 captain, 279 commander, and 199 lieutenant 
        commander billets at a lower pay grade (a total of 584 control 
        grade billets). If title 10 limits were increased by 5 percent, 
        Navy would be authorized to grow 131 captains, 304 commanders, 
        and 478 lieutenant commanders. Funding to current control-grade 
        requirements would give Navy the authority to grow 25 captains, 
        25 commanders, and 279 lieutenant commanders as future control-
        grade requirements emerge. This legislation is critical to 
        Navy's ability to carry out the National Military Strategy.
        <bullet> Special Pay and Incentives. Navy will continue to seek 
        funding for special pay, recruitment and retention bonus to 
        maintain the right balance of skills out workforce.
        <bullet> Sailor for Life. Navy requires assistance in providing 
        sufficient flexibility in transitioning between our Active and 
        Reserve components as we pursue our sailor-for-life 
        initiatives.
        <bullet> Path to Jointness. The Navy is committed to pursuing a 
        Path to Jointness--developing Joint leaders both in the officer 
        and senior enlisted communities. We are pursuing initiatives 
        that will: establish the professional military education (PME) 
        requirements for the ranks of E-1 through O-8 across our Active 
        and Reserve components; ensure that PME graduates are closely 
        tracked and assigned to billets that exploit their education 
        and accelerate their development as Joint leaders; assess 
        policy effectiveness by tracking the number and percentages of 
        PME graduates assigned to career enhancing billets, and require 
        100 percent fill of Navy resident student billets at all joint, 
        Service and foreign war colleges.
        <bullet> Tuition Assistance. The Navy is committed to 
        supporting its sailors who choose education as a path to 
        personal and professional development. The Navy provides 100 
        percent reimbursement up to $250 and $50 per semester hour for 
        up to 16 credit hours. This is an increase from previous policy 
        which only allowed reimbursement up to 12 credit hours. Tuition 
        assistance is capped by DOD at $4,500 per person per fiscal 
        year.
        <bullet> National Security Personnel System (NSPS). NSPS is a 
        new personnel system that will create new civil service rules 
        for the 750,000 Defense Department civilian workers. It 
        strengthens our ability to accomplish the mission in an ever-
        changing national security environment. NSPS accelerates 
        efforts to create a Total Force (Active-Duty military 
        personnel, civilian personnel, Reserve, Guard, and 
        contractors), operating as one cohesive unit, with each 
        performing the work most suitable to their skills and the 
        Department's priorities. The Department of the Navy needs a 
        Human Resource system that appropriately recognizes and rewards 
        employees' performance and the contributions they make to the 
        mission. NSPS gives us better tools to attract and retain good 
        employees.
          Department of the Navy deployment of the remaining portions 
        of NSPS continues. Pay and performance provisions have so far 
        been deployed to approximately 4,000 employees and another 
        16,000 will be done by spring 2007. Further deployment of non-
        enjoined portions of the law will continue. Specifically, the 
        pay, performance, recruiting, workforce shaping and other 
        provisions of this new personnel system will be enacted 
        throughout 2007-2008.
IV. Conclusion
    Our Navy is truly a bargain, costing the taxpayers less than 1 
percent of the GDP. Though we are increasingly stretched, the Navy is 
in great shape and our people are remarkable. But as we strive to 
sustain combat readiness, build a fleet for the future and develop 21st 
century leaders we cannot allow ourselves to take this for granted. We 
must be mindful of the need to maintain a strong Navy now, with our 
ground forces stretched thin in Iraq and Afghanistan, but also after 
they return home.
    Our Nation depends upon a strong Navy with the global reach and 
persistent presence needed to provide deterrence, access, and 
assurance, while delivering lethal warfighting capacity whenever and 
wherever it is needed. Our Navy is fighting the global war on terror 
while at the same time providing a Strategic Reserve worldwide for the 
President and our unified and combatant commanders. As we assess the 
risks associated with the dynamic security challenges that face us, we 
must ensure we have the battle force, the people, and the combat 
readiness we need to win our Nation's wars.
    We have put the rudder over, and I believe we have the course about 
right. Simply reacting to change is no longer an acceptable course of 
action if our Navy is to successfully wage asymmetric warfare and 
simultaneously deter regional and transnational threats: Two 
Challenges, One Fleet. Our nation's security and prosperity depend upon 
keeping our shores safe and the world's maritime highways open and 
free.
                                ANNEX I
           programs and initiatives to achieve cno priorities
Sustain Combat Readiness
    Programs and practices of particular interest include (listed in 
order of fiscal year 2008 dollar value):
    Mobile User Objective System (MUOS)
    MUOS is the next generation Ultra High Frequency (UHF) narrowband 
satellite communications (SATCOM) system, replacing UHF Follow-On 
(UFO). MUOS supports communications-on-the-move to small and less 
stable platforms (handhelds, aircraft, missiles, UAVs, remote sensors) 
in stressed environments (foliage, urban environment, high sea state). 
UHF SATCOM provides critical command and control connectivity and is 
the essential common denominator for all forces. $828 million in fiscal 
year 2008 keeps MUOS funded to meet all Threshold requirements and is 
on track to meet an Initial Operational Capability (IOC) in 2010.
    Nimitz-Class Refueling Complex Overhaul (RCOH)
    RCOH subjects Nimitz-class aircraft carriers to comprehensive 
modernization upgrades, maintenance work, and nuclear refueling to 
extend the service life of a Nimitz-class carrier out to approximately 
50 years, about 20 years longer than its originally planned service 
life. Execution of RCOH is required to maintain an 11 aircraft carrier 
force and provide Naval Tactical Air with an overmatch capability 
against any potential adversary. A notional RCOH consists of 3.2 
million man-days and a 36-month execution period conducted at Northrop 
Grumman Newport News, Virginia facilities. While U.S.S. Carl Vinson 
(CVN-70) completes RCOH in fiscal year 2008-2009, the fiscal year 2008 
Shipbuilding and Conversion, Navy (SCN) funding of $297 million 
primarily supports the advance funding and sequencing of follow-on 
overhauls for CVNs-71-73.
    Cobra Judy Replacement (CJR)
    $133 million in CJR funds the acquisition of a single ship-based 
radar suite for world-wide technical data collection against ballistic 
missiles in flight. This unit will replace the current Cobra Judy/
U.S.N.S. Observation Island, which is due to leave service in 2012. 
Upon achieving Initial Operating Capability, Navy will transfer the CJR 
to the U.S. Air Force for operation and maintenance. The CJR program 
has entered production stage.
    Cooperative Engagement Capability (CEC)
    CEC is an advanced sensor netting system enabling real-time 
exchange of fire-control quality data between battle force units. CEC 
provides the integrated, precision air defense picture required to 
counter the increased agility, speed, maneuverability, and advanced 
design of cruise missiles, manned aircraft; and in the future, tactical 
ballistic missiles. Funding requested for fiscal year 2008 is $123 
million.
    CEC's acquisition strategy implements Open Architecture based 
hardware with re-hosted existing software. A critical element is the 
P3I hardware that reduces cost, weight, cooling, and power 
requirements. The Integrated Architecture Behavior Model (IABM) will be 
implemented as a host combat system software upgrade replacing the 
cooperative engagement processor functionality enabling joint 
interoperability with common track management across the Services.
    Distributed Common Ground/Surface Systems (DCGS)
    DCGS-N is the Navy's Intelligence, Surveillance, Reconnaissance, 
and Targeting (ISR&T) system. Funded at $107 million in fiscal year 
2008, DCGS-N will support the new Maritime Headquarters/Maritime 
Operations Center (MHQ/MOC). DCGS-N will receive and process multiple 
data streams from various ISR sources to provide time-critical aim 
points and intelligence products. It will enhance the warfighter's 
Common Operational Picture (COP) and Maritime Domain Awareness (MDA).
    Deployable Joint Command and Control (DJC2)
    DJC2 is a Secretary of Defense and Chairman of the Joint Chiefs of 
Staff priority transformation initiative providing Combatant Commanders 
(COCOMs) with a standardized, deployable, and scalable Joint C2 
headquarters capability tailored to support Joint Task Force (JTF) 
operations. DJC2 enables a COCOM to rapidly deploy and activate a JTF 
headquarters equipped with a common C2 package with which to plan, 
control, coordinate, execute, and assess operations across the spectrum 
of conflict and domestic disaster relief missions. This budget request 
of $31 million provides operations and sustainment for the six existing 
systems and continued development efforts.
    Navy Special Warfare (NSW) Support
    NSW programs provide critical service common support to eight SEAL 
teams, two SEAL Delivery Vehicle Teams, three Special Boat Teams and 
five NSW Groups.
    During fiscal years 2007 and 2008, six pre-positioned operational 
stocks will be procured and staged, hundreds of common small arms, 
weapons mounts and visual augmentation systems will be provided to NSW 
combat elements, up to 20 standard boats will continue to replace an 
aging fleet of 61 NSW training support craft and 4 Navy-mandated 
management support systems will be funded. A total of $21 million in 
various procurement and operations support accounts is dedicated in 
fiscal year 2008.
    Navy Computer Network Attack (CNA)
    Navy Computer Network Attack develops force structure for 
operations in the cyberspace environment. This is the programmatic 
continuation of Navy Cyber Attack Team (NCAT) initiative which is 
endorsed by several Combatant Commanders. Program focus is on unique 
capabilities to address Navy warfighting gaps. Our $11 million fiscal 
year 2008 investment is required to develop the capability to access 
adversary networks and enable Information Operations (IO) in asymmetric 
warfare.
    Marine Mammal Research/Sound in Water Effects
    The Navy is committed to following proactive compliance strategies 
to meet legal requirements and to identify and fund marine mammal 
research requirements--especially related to potential effects of mid-
frequency active sonar. In support, Navy has requested $10 million in 
funding for these efforts in fiscal year 2008. Compliance with Marine 
Mammal Protection Act (MMPA), Endangered Species Act (ESA), Coastal 
Zone Management Act (CZMA), and National Environmental Policy Act 
(NEPA) related to potential effects to marine animals from sound in the 
water are dependent on filling gaps in scientific data and continued 
research on acoustic criteria. However, increasing pressures related to 
restricting the use of active sonar are adversely impacting Navy 
training and readiness. Clearer, science-based standards are needed in 
future MMPA amendments to ensure environmental protection while not 
endangering our sailors.
    Forward Deployed Naval Forces (Japan)
    U.S.S. George Washington (CVN-73) will replace U.S.S. Kitty Hawk 
(CV-63) as the forward deployed aircraft carrier in Yokosuka, Japan in 
2008. The move represents a strong and continuing commitment to the 
security of the Asian Pacific region and our alliance.
    George Washington will be the first nuclear aircraft carrier to 
join the Navy's permanently forward deployed naval forces (FDNF), 
replacing the conventionally powered the Kitty Hawk that will retire 
after 47 years of superb service. Funding of $9 million in fiscal year 
2008 supports the final of several years investments for George 
Washington's anticipated 2008 FDNF arrival.
    TRIDENT
    TRIDENT is maritime intelligence production capability within the 
Office of Naval Intelligence providing tailored, focused, timely 
intelligence support to Naval Special Warfare (NSW) and other joint 
special operations forces operating in the maritime arena. For a 
relatively small investment in fiscal year 2008 of $9 million, TRIDENT 
production directly supports the Global War on Terror and is a response 
to ongoing initiatives to improve intelligence support to NSW. TRIDENT 
deployed its initial two Tactical Intelligence Support Teams (TIST) in 
support of Naval Special Warfare in the Spring and Fall of 2006. They 
are currently providing both forward deployed and reach back support to 
NSW forces.
    Undersea Warfare Training Range (USWTR)
    The proposed USWTR is a 500-square nautical mile instrumented 
underwater training range in shallow littoral waters on each coast. 
USWTR will support undersea warfare (USW) training exercises for the 
Atlantic and Pacific Fleet Forces. Undersea hydrophone sensors will 
provide a suite to deliver real time tracking and a record of 
participants' activities used to evaluate tactics, proficiency and 
undersea warfare combat readiness. The instrumented area would be 
connected to shore via a single trunk cable.
    Pending signature of the environmental Record of Decision (ROD) for 
the east coast USWTR in April 2008, the Navy will commence hardware 
procurement and installation in fiscal year 2008. Supporting this, Navy 
has requested $7 million in fiscal year 2008. The west coast ROD is 
scheduled for signature in September 2008. The shallow water ranges 
planned for both coasts will be completed in fiscal year 2013.
    Tactical Aircraft (TACAIR) Integration (TAI)
    Our TACAIR Integration initiative merges Navy and Marine Corps 
Tactical Aviation into a seamless Naval Aviation force at sea and 
ashore. This is an organizational change that ``buys'' increased combat 
capability without requiring additional investment.Naval Aviation force 
projection is accomplished by increased integration of Marine tactical 
squadrons into Carrier Air Wings and Navy squadrons into Marine 
Aircraft Wings. Successful integration, also leveraging the common 
characteristics of the F/A-18s, further enhances core combat 
capabilities providing a more potent, cohesive, smaller and affordable 
fighting force.
Build a Fleet for the Future
    Programs and practices of particular interest (listed in order of 
fiscal year 2008 dollar value):
    RDT&E Development and Demonstration Funds
    Navy's $15.9 billion investment in various technology, component, 
and system development funds, as well as our operational development 
and testing programs provide a balanced portfolio. Not only do they 
ensure successful development of programs for our Fleet for the Future, 
they also leverage the Fleet, Systems Commands, warfare centers, and 
others to align wargaming, experimentation, and exercises in developing 
supporting concepts and technologies.
    DDG-1000
    This multi-mission surface combatant, tailored for land attack and 
littoral dominance, will provide independent forward presence and 
deterrence and operate as an integral part of joint and combined 
expeditionary forces. DDG-1000 will capitalize on reduced signatures 
and enhanced survivability to maintain persistent presence in the 
littoral. The program provides the baseline for spiral development to 
support future surface ships. Our fiscal year 2008 request is for $3.3 
billion in shipbuilding and research funds.
    With the Advanced Gun System (AGS) and associated Long Range Land 
Attack Projectile (LRLAP) DDG-1000 will provide volume and precision 
fires in support of Joint forces ashore. A Global Positioning System 
(GPS) guided, 155 millimeter round, LRLAP will provide all weather 
fires capability out to 83 nautical miles. Its Dual Band Radar 
represents a significant increase in air defense capability in the 
cluttered littoral environment. Investment in Open Architecture and 
reduced manning will provide the Navy life cycle cost savings and 
technology that can be retrofit to legacy ships.
    Facilities Recapitalization and Sustainment
    Facilities Recapitalization is comprised of modernization and 
restoration. Modernization counters obsolescence by renewing a facility 
to new standards or functions without changing the fundamental facility 
size. Restoration includes efforts to restore degraded facilities to 
working condition beyond design service life or to fix damage from 
natural disaster, fire, etc. Restoration and modernization funding in 
fiscal year 2008 is requested at $2.0 billion.
    Facilities Sustainment includes those maintenance and repair 
activities necessary to keep facilities in working order through their 
design service life.
    Navy's sustainment rate, and fiscal year funding request of $1.1 
billion, is at the level at which facilities can be maintained and 
still remain mission capable. Navy's intent is to aggressively scrub 
requirements, reduce facilities footprint and drive down costs. Our 
goal is to provide the resources required to execute wartime missions. 
Our planning and footprint reduction initiatives are intended to ensure 
that adequate facilities are available to support our mission 
requirements.
    CVN-21
    The CVN-21 Program is designing the next generation aircraft 
carrier to replace U.S.S. Enterprise (CVN-65) and Nimitz-class aircraft 
carriers. CVN-78-class ships will provide improved warfighting 
capability and increased quality of life for our sailors at reduced 
acquisition and life cycle costs. $2.8 billion in shipbuilding funds 
for fiscal year 2008 supports acquisition of U.S.S. Gerald R. Ford 
(CVN-78), the lead ship of the class, scheduled for delivery in late 
fiscal year 2015. Additionally, the program has $232 million in 
research and development supporting work on the Electromagnetic 
Aircraft Launch System and other warfighting capability improvements.
    F-35 Joint Strike Fighter (JSF)
    F-35 is a joint cooperative program to develop and field family of 
affordable multi-mission strike fighter aircraft using mature/
demonstrated 21st century technology to meet warfighter needs of the 
Navy, Marines, Air Force, and international partners including the 
U.K., Italy, Netherlands, Denmark, Turkey, Norway, Australia, and 
Canada. Navy's fiscal year 2008 $1.2 billion in procurement buys six 
short take-off and landing variants. An additional $1.7 billion in 
research and development continues aircraft and engine development.
    Virginia Class Fast Attack Nuclear Submarine (SSN)
    Navy needs to maintain a SSN force structure to meet current 
operational requirements, prosecute the global war on terror, and face 
any potential future threats. The Virginia class emphasizes 
affordability and optimizes performance for undersea superiority in 
littoral and open ocean missions.
    Lead ship operational performance exceeded expectations. Follow-on 
submarine performance has been even better:

        <bullet> U.S.S. Texas (SSN-775) INSURV trial was best 
        performance by the second SSN of any class.
        <bullet> Third ship (Hawaii, SSN-776) was the most complete 
        submarine ever at launch (greater than 90 percent complete), 
        had the best INSURV trial of the class, and was delivered on 
        the original contract delivery date.

    $2.6 billion in fiscal year 2008 procures one submarine. 
Additionally, the budget requests $137 million for technical insertions 
and cost reduction developments. Navy is working closely with industry 
to bring the cost per hull down to $2 billion (in fiscal year 2005 
dollars) and increase the build rate to two ships/year starting in 
fiscal year 2012. Authorization of MYP will help facilitate this. This 
will help mitigate future force level deficiencies and achieve cost 
reduction goals through Economic Order Quantity (EOQ) savings and 
better distributed overhead costs.
    F/A-18E/F Super Hornet
    The Navy's next generation, multi-mission Strike Fighter replaces 
aging F-14s, older model F/A-18s, and assumes the S-3 aircraft carrier-
based aerial refueling role. F/A-18E/F provides a 40-percent increase 
in combat radius, 50 percent increase in endurance, 25 percent greater 
weapons payload, three times more ordnance bring-back, and is five 
times more survivable than F/A-18C models. Approximately 55 percent of 
the total procurement objective has been delivered (254 of 460). F/A-
18E/F is in full rate production under a second 5-year multi-year 
contract (fiscal years 2005-2009). $2.3 billion in fiscal year 2008 
procures 24 aircraft as part of this contract.
    MV-22 Osprey
    MV-22 Osprey is the Marine Corps medium-lift assault support 
aircraft being procured to replace legacy CH-46Es and CH-53Ds. Current 
operational projections hold CH-46Es in service through fiscal year 
2018, and CH-53Ds through fiscal year 2013. The CH-46Es are playing a 
critical role in the war on terror, flying more than four times their 
peacetime utilization rate making delivery of the MV-22 even more 
critical. The MV-22's improved readiness, survivability and 
transformational capability (twice the speed, three times the payload, 
and six times range of the airframes it is replacing) will vastly 
improve operational reach and capability of deployed forces. The 
aircraft is approved for Full Rate Production and enters a 
congressionally approved joint 5-year, multi-year procurement in fiscal 
year 2008 with $2.0 billion procuring 21 aircraft. The total Marine 
requirement is 360 MV-22s; Navy 48 MV-22s; SOCOM 50 CV-22s.
    DON Science & Technology (S&T)
    The Department of the Navy S&T supports Navy/Marine strategy and 
guides the S&T investment portfolio to meet the future needs of the 
Navy, the Marine Corps, and combatant commands. The fiscal year 2008 
budget of $1.7 billion is a balanced portfolio comprised of discovery 
and invention, leap-ahead innovations, acquisition enablers, quick 
reaction S&T and Defense Department partnerships. A long-term strategy 
will help balance future risks.
    EA-18G Growler
    The Growler is the Navy's replacement for the EA-6B. Inventory 
objective is 84 aircraft for test, Fleet Replacement Squadron, 
attrition, pipeline and 10 operational carrier airwing squadrons to 
provide the Navy's carrier-based Airborne Electronic Attack (AEA) 
capability. The program is on schedule and budget. All Key Performance 
Parameter (KPP) and Technical Performance Measure (TPM) thresholds are 
being met or exceeded. Program achieved first flight in August 2006; 1 
month ahead of schedule. $1.6 billion supports development and 
procurement of 18 aircraft in fiscal year 2008.
    MH-60R/S Multi-Mission Helicopter
    The MH-60R is a cornerstone of the Navy's Helicopter Concept of 
Operations (CONOPs), which reduces from six to two the helicopter 
variants in use today. The MH-60R Multi-Mission Helicopter program will 
replace the surface combatant-based SH-60B, carrier-based SH-60F, and 
anti-surface capabilities of the S-3 with a newly manufactured airframe 
and enhanced mission systems. Sea control missions include Undersea and 
Surface Warfare. The MH-60R provides forward-deployed capabilities to 
defeat area-denial strategies, allowing joint forces to project and 
sustain power. Full Rate Production was approved in March 2006. $998 
million in fiscal year 2008 procures 27 aircraft.
    The MH-60S is designed to support Carrier and Expeditionary Strike 
Groups in Combat Logistics, Search and Rescue, Vertical Replenishment, 
Anti-Surface Warfare, Airborne Mine Countermeasures, Combat Search and 
Rescue, and Naval Special Warfare mission areas. This program is in 
production. This fiscal year, Block 2 of the program will see the IOC 
of the first of five Organic Airborne Mine Countermeasures (OAMCM) 
systems (AQS-20). The remaining four airborne mine countermeasure 
systems will IOC between fiscal years 2008-2010. An armed helicopter 
capability is also expected to enter IOC this year. $504 million in 
fiscal year 2008 procures 18 aircraft.
    LPD-17
    LPD-17 functionally replaces LPD-4, LSD-36, LKA-113, and LST-1179 
classes of amphibious ships for embarking, transporting and landing 
elements of a Marine landing force in an assault by helicopters, 
landing craft, amphibious vehicles, or by a combination of these 
methods. $1.5 billion in this budget's shipbuilding request procures 
LPD-25.
    LHA(R)
    LHA(R) replaces four aging LHA Class ships which are reaching the 
end of their administratively extended service lives. LHA(R) Flight 0 
is a modified LHD-1 Class variant designed to accommodate aircraft in 
the future USMC Aircraft Combat Element (ACE) including JSF and MV-22. 
The fiscal year 2008 request for $1.4 billion supports procurement of 
the lead ship in the class.
    Littoral Combat Ship (LCS)
    Designed to be fast and agile, LCS will be a networked surface 
combatant with capabilities optimized to assure naval and joint force 
access into contested littoral regions. LCS will operate with focused-
mission packages that deploy manned and unmanned vehicles to execute a 
variety of missions, including littoral ASW, anti-surface warfare (SUW) 
and mine countermeasures (MCM). LCS will possess inherent capabilities 
including homeland defense, Maritime Interception Operations (MIO) and 
Special Operation Forces support. LCS will employ a Blue-Gold multi-
crewing concept for the early ships. The crews will be at a ``trained 
to qualify'' level before reporting to the ship, reducing qualification 
time compared to other ships.
    The Navy has recently identified significant cost increases for the 
lead ship in the LCS class (Lockheed Martin variant). A series of 
increases in the contractor estimated cost of completion, the most 
recent in December, highlighted the problem and initiated a thorough 
analysis by both Navy and industry. After nearly 2 months of in-depth 
study, the Navy has revalidated the warfighting requirement and 
developed a restructured program plan for the LCS that improves 
management oversight, implements more strict cost controls, 
incorporates selective contract restructuring, and ensures delivery 
within a realistic schedule.
    Construction of LCS Hull #3 (Lockheed Martin) will be resumed under 
revised contract terms that rebalance cost growth risk between 
government and industry. Construction on LCS Hull #4 (General Dynamics) 
will continue as long as costs remain defined and manageable. This plan 
will provide for best value to the Navy for the completion of the first 
four LCS ships, procurement of existing designs in fiscal years 2008-
2009 to fill critical warfighting gaps, and establishment of a sound 
framework for transition to a single design in fiscal year 2010. The 
Navy will work closely with Congress on reprogramming actions necessary 
to bring this program forward.
    P-8A Multi-mission Maritime Aircraft (MMA)
    The P-8A replaces the P-3C Orion on a less than 1:1 basis. This 
aircraft provides lethality against submarine threats, broad area 
maritime and littoral armed ASW patrol, Anti-Surface Warfare, and 
Intelligence Surveillance Reconnaissance. The P-8A is the only platform 
with this operationally agile capability set. It fills combatant 
commander requirements in major combat and shaping operations, as well 
as the war on terror and homeland defense. The program has been 
executed on time and on budget. Preliminary Design Review has 
successfully completed and is now in the detailed design phase. $880 
million in research and development funds is included in the fiscal 
year 2008 budget. Initial Operational Capability (IOC) is planned in 
fiscal year 2013.
    E-2D Advanced Hawkeye
    The E-2D Advanced Hawkeye (AHE) program will modernize the current 
E-2C weapons system by replacing the radar and other aircraft system 
components to improve nearly every facet of tactical air operations. 
The modernized weapons system will be designed to maintain open ocean 
capability while adding transformational littoral surveillance and 
Theater Air and Missile Defense capabilities against emerging air 
threats in the high clutter, electromagnetic interference, and jamming 
environments. $866 million in fiscal year 2008 continues development 
work and procures three Pilot Production Aircraft. The AHE will be one 
of the four pillars contributing to Naval Integrated Fire Control-
Counter Air. The AHE program plans to build 75 new aircraft.
    ASW Programs
    The Navy continues to pursue research and development of 
Distributed Netted Sensors (DNS); low-cost, rapidly deployable, 
autonomous sensors that can be fielded in sufficient numbers to provide 
the cueing and detection of adversary submarines far from the Sea Base. 
Examples of our fiscal year 2008 request of $24 million in these 
technologies include:

        <bullet> Reliable Acoustic Path, Vertical Line Array (RAP VLA). 
        A passive-only distributed system exploiting the deep water 
        propagation phenomena. In essence, a towed array vertically 
        suspended in the water column.
        <bullet> Deep Water Active Distributed System (DWADS). An 
        active sonar distributed system optimized for use in deep 
        water.
        <bullet> Deployable Autonomous Distributed System (DADS). A 
        shallow water array, using both acoustic and non-acoustic 
        sensors to detect passing submarines. DADS will test at sea in 
        fiscal year 2008.
        <bullet> Littoral ASW Multi-static Project (LAMP). A shallow 
        water distributed buoy system employing the advanced principles 
        of multi-static (many receivers, one/few active sources) sonar 
        propagation.

    Further developing the Undersea Warfare Decision Support System 
will leverage existing data-links, networks, and sensor data from air, 
surface, and subsurface platforms and integrate them into a common ASW 
operating picture with tactical decision aids to better plan, conduct, 
and coordinate ASW operations. We are requesting $23 million in fiscal 
year 2008 towards this system.
    To engage the threat, our forces must have the means to attack 
effectively the first time, every time. The Navy has continued a robust 
weapons development investment plan including $293 million requested in 
the fiscal year 2008 on such capabilities as:

        <bullet> High-Altitude ASW Weapons Concept (HAAWC). Current 
        maritime patrol aircraft must descend to very low altitude to 
        place ASW weapons on target, often losing communications with 
        the sonobuoy (or distributed sensor) field. This allows the 
        aircraft to remain at high altitude and conduct an effective 
        attack while simultaneously enabling the crew to maintain and 
        exploit the full sensor field in the process. This capability 
        will be particularly important in concert with the new jet-
        powered P-8A MMA. A test is scheduled for May 2007.
        <bullet> Common Very Lightweight Torpedo (CVLWT). The Navy is 
        developing a 6.75'' torpedo suitable for use in the surface 
        ship and submarine anti-torpedo torpedo defense, and the 
        offensive Compact Rapid Attack Weapon (CRAW) intended for the 
        developing manned and unmanned aerial vehicles.

    Finally, to defend our forces, key defensive technologies being 
pursued include:

        <bullet> Surface Ship Torpedo Defense (SSTD). Program delivers 
        near-term and far-term torpedo defense. The planned fiscal year 
        2008 $16 million R&D investment supports ongoing development of 
        the 6-inch CVLWT which supports both the Anti-Torpedo Torpedo 
        (ATT) and the Compact Rapid Attack Weapon (CRAW). Also, several 
        capability upgrades to the AN/SLQ-25A (NIXIE) are being 
        incorporated to improve both acoustic and non-acoustic system 
        performance to counter current threat torpedoes. These 
        enhancements also support their use in the littorals and are 
        scheduled to complete in fiscal year 2009. The AN/WSQ-11 System 
        uses active and passive acoustic sensors for an improved 
        torpedo Detection Classification and Localization (DCL) 
        capability, and a hard kill Anti-Torpedo Torpedo (ATT) to 
        produce an effective, automated and layered system to counter 
        future torpedo threats. DCL improvements include lower false 
        alarm rates and better range determination.
        <bullet> Aircraft Carrier Periscope Detection Radar (CVN PDR). 
        An automated periscope detection and discrimination system 
        aboard aircraft carriers. System moves from a laboratory model, 
        currently installed on U.S.S. Kitty Hawk, to 12 units (1 per 
        carrier, 1 ashore) by fiscal year 2012. Fiscal year 2008 funds 
        of $7 million support this effort.

    Platform Sensor Improvements. Against the quieter, modern diesel-
electric submarines, work continues on both towed arrays and hull 
mounted sonars. Our $410 million request in fiscal year 2008 includes 
work on the following:

        <bullet> TB-33 thin-line towed array upgrades to forward 
        deployed SSN's provides near-term improvement in submarine 
        towed array reliability over existing TB-29 arrays. TB-33 
        upgrades are being accelerated to Guam based SSNs.
        <bullet> Continued development of twin-line thin line (TLTL) 
        and vector-sensor towed arrays (VSTA) are under development for 
        mid-far term capability gaps. TLTL enables longer detection 
        ranges/contact holding times, improves localization, and 
        classification of contacts. VSTA is an Office of Naval Research 
        project that would provide TLTL capability on a single array 
        while still obviating the bearing ambiguity issue inherent in 
        traditional single line arrays.
Modernization
    Achieving full service life from the fleet is imperative. 
Modernization of the existing force is a critical enabler for a 
balanced fleet. Platforms must remain tactically capable and 
structurally sound for the duration of their designed service life.
    Cruiser (Mod)
    AEGIS Cruiser Modernization is key to achieving the 313 ship force 
structure. A large portion of surface force modernization (including 
industrial base stability) is resident in this modernization program. 
$403 million across several appropriations in fiscal year 2008 supports 
this program.
    A comprehensive Mission Life Extension (MLE) will achieve the 
ship's expected service life of 35+ years and includes the All Electric 
Modification (replacing steam systems), SMARTSHIP technologies, Hull 
Mechanical & Electrical (HM&E) system upgrades, and a series of 
alterations designed to restore displacement and stability margins, 
correct hull and deck house cracking and improve quality of life and 
service on board.
    Destroyer (Mod)
    The DDG 51 modernization program is a comprehensive 62 ship program 
designed to modernize HM&E and Combat Systems. These upgrades support 
reductions in manpower and operating costs, achieve 35+ year service 
life, and allows the class to pace the projected threat well into the 
21st century. Our fiscal year 2008 request contains $159 million for 
this effort.
    Key upgrades to the DDG 51 AEGIS Weapon System (AWS) include an 
Open Architecture computing environment, along with an upgrade of the 
SPY Radar signal processor, addition of BMD capability, Evolved Sea 
Sparrow Missile (ESSM), improved USW sensor, Naval Integrated Fire 
Control-Counter Air (NIFC-CA) and additional other combat systems 
upgrades.
    Lewis & Clark Dry Cargo/Ammunition Ship (T-AKE)
    T-AKE is intended to replace aging combat stores (T-AFS) and 
ammunition (T-AE) ships. Working in concert with an oiler (T-AO), the 
team can perform a ``substitute'' station ship mission to allow the 
retirement of four fast combat support ships (AOE-1 Class). $456 
million in fiscal year 2008 supports funding the 11th T-AKE (final 
price will be determined through negotiations expected to be completed 
during the summer 2007). Lead ship was delivered in June 2006 and has 
completed operational evaluation (OPEVAL).
    CH-53K
    The CH-53K Heavy Lift Replacement (HLR) is the follow on to the 
Marine Corps CH-53E Heavy Lift Helicopter. The CH-53K will more than 
double the current CH-53E lift capability under the same environmental 
conditions. The CH-53K's increased capabilities are essential to 
meeting the Marine Expeditionary Brigade of 2015 Ship-to-Objective 
Maneuver vision. fiscal year 2008 research and development funds of 
$417 million supports major systems improvements of the new helicopter 
including: larger and more capable engines, expanded gross weight 
airframe, better drive train, advanced composite rotor blades, modern 
interoperable cockpit, external and internal cargo handling systems, 
and survivability enhancements.
    Tomahawk/Tactical Tomahawk (TACTOM)
    Tomahawk and Tactical Tomahawk missiles provide precision, all 
weather, and deep strike capabilities. Tactical Tomahawk provides more 
flexibility and responsiveness at a significantly reduced life cycle 
cost than previous versions and includes flex-targeting, in-flight 
retargeting, and two-way communications with the missile.
    Our $383 million in this years request sustains the Tomahawk Block 
IV full-rate, multi-year procurement contract for fiscal years 2004-
2008, yielding approximately 2,100 missiles. The projected inventory 
will accommodate campaign analysis requirements given historical usage 
data and acceptable risk.
    F/A-18 A/B/C/D Hornet
    The F/A-18 Hornet is Naval Aviation's principal strike-fighter. 
This state-of-the-art, multi-mission aircraft serves the Navy and 
Marine Corps, as well as the armed forces of seven allied countries. 
Its reliability and precision weapons delivery capability are 
documented frequently in news reports from the front lines. $331 
million in fiscal year 2008 supports improvements to the original 
Hornet A/B/C/D variants provide significant warfighting enhancements to 
the fleet. These improvements include the Global Positioning System 
(GPS), Multi-functional Information Distribution System (MIDS), AIM-9X 
Sidewinder Missile/Joint Helmet-Mounted Cueing System (JHMCS), Combined 
Interrogator Transponder, Joint Direct Attack Munition/Joint Stand-Off 
Weapon delivery capability, and a Digital Communication System (DCS) 
for close-air support. Through these improvement and upgrades, the 
aircraft's weapons, communications, navigation, and defensive 
electronic countermeasure systems have been kept combat relevant.
    Although the F/A-18 A/B/C/D are out of production, the existing 
inventory of 667 Navy and Marine Corps aircraft will continue to 
comprise half of the carrier strike force until 2013, and are scheduled 
to remain in the Naval Aviation inventory through 2022.
    CG(X)
    CG(X) is envisioned to be a highly capable surface combatant 
tailored for Joint Air and Missile Defense and Joint Air Control 
Operations. CG(X) will provide airspace dominance and protection to all 
joint forces operating in the Sea Base. Initial Operational Capability 
(IOC) is 2019. $227 million in research and development for fiscal year 
2008 supports CG(X) development. The ongoing analysis of alternatives 
is considering various propulsion options. CG(X) will replace the CG-47 
Aegis class and improve the fleet's air and missile defense 
capabilities against an advancing threat--particularly ballistic 
missiles.
    Standard Missile-6 (SM-6)
    The Navy's next-generation Extended Range, Anti-Air Warfare 
interceptor is the SM-6. Supporting both legacy and future ships, SM-6 
with its active-seeker technology will defeat anticipated theater air 
and missile defense warfare threats well into the next decade. The 
combined SM-6 Design Readiness Review/Critical Design Review was 
completed 3 months ahead of schedule with SM-6 successfully meeting all 
entrance and exit criteria. Ahead of schedule and on cost targets, our 
fiscal year 2008 budget plan of $207 million will keep this development 
effort on track for Initial Operational Capability in fiscal year 2010.
    Conventional TRIDENT Modification (CTM)
    CTM transforms the submarine launched, nuclear armed Trident II 
(D5) missile system into a conventional offensive precision strike 
weapon with global range. This new capability is required to defeat a 
diverse set of unpredictable threats, such as Weapons of Mass 
Destruction (WMD), at short notice, without the requirement for a 
forward-deployed or visible presence, without risk to U.S. forces, and 
with little or no warning prior to strike. $175 million is included in 
the fiscal year 2008 request. The program and related policy issues are 
currently under review by the Office of the Secretary of Defense as 
part of the New Strategic Triad capability package.
    Navy Unmanned Combat Air System (UCAS)
    The former J-UCAS program transferred from Air Force to Navy lead. 
The Navy UCAS will develop and demonstrate low observable (LO), 
unmanned, air vehicle suitability to operate from aircraft carriers in 
support of persistent, penetrating surveillance, and strike capability 
in high threat areas. $162 million in fiscal year 2008 research and 
development funds advance the programs objectives.
    Joint Standoff Weapon (JSOW)
    JSOW is a low-cost, survivable, air-to-ground glide weapon designed 
to attack a variety of targets in day/night and adverse weather 
conditions from ranges up to 63 nautical miles. All variants employ a 
kinematically efficient, low-signature airframe with GPS/INS guidance 
capability. JSOW is additionally equipped with an imaging-infrared 
seeker, Autonomous Targeting Acquisition (ATA) software, and a multi-
stage Broach warhead to attack both hard and soft targets with 
precision accuracy. The $156 million in fiscal year 2008 funding 
continues production to build to our inventory requirements. A Block 
III improvement effort will add anti-ship and moving target capability 
in fiscal year 2009.
    Ohio-Class SSGN
    Ohio-Class SSGN is a key transformational capability that can 
covertly employ both strike and Special Operations Forces (SOF) 
capabilities. Ohio (SSGN-726) and Florida (SSGN-728) were delivered 
from conversion in December 2005 and April 2006 respectively and are 
conducting modernization, certification, and acceptance evaluation 
testing prior to deployment. Georgia (SSGN-729) is in conversion at 
Norfolk Naval Shipyard with delivery scheduled for September 2007. The 
$134 million in the fiscal year 2008 budget request is primarily for 
testing, minor engineering changes, and to procure the final 
replacement reactor core.
    Broad Area Maritime Surveillance (BAMS), Unmanned Aircraft System 
        (UAS)
    BAMS is a post-September 11, Secretary of the Navy directed 
transformational initiative. $117 million in research and development 
funding continues Navy's commitment to provide a persistent (24 hours/
day, 7 days/week), multi-sensor (radar, Electro-Optical/Infrared, 
Electronic Support Measures) maritime intelligence, surveillance, and 
reconnaissance capability with worldwide access. Along with Multi-
Mission Aircraft, BAMS is integral to the Navy's airborne intelligence, 
surveillance, and reconnaissance (ISR) recapitalization strategy. BAMS 
is envisioned to be forward deployed, land-based, autonomously operated 
and unarmed. It will sustain the maritime Common Operational Picture 
(COP) and operate under the cognizance of the Maritime Patrol and 
Reconnaissance Force.
    Long-Range Land Attack Projectile (LRLAP)
    LRLAP is the primary munition for the DDG-1000 Advanced Gun System 
(AGS). AGS and LRLAP will provide Naval Surface Fire Support (NSFS) to 
forces ashore during all phases of the land battle. All program flight 
test objectives have been met. Six of nine guided test flights have 
been successfully completed. Test failures have been isolated and 
corrective actions implemented with successful re-tests fired.
    $74 million in fiscal year 2008 supports continued development. 
Current ammunition inventory estimates are based on conventional 
ammunition calculation methods. A pending ammo study will account for 
increased LRLAP range and precision to better inform decisions 
regarding procurement schedule and total inventory objective.
    MQ-8B Fire Scout Vertical Takeoff UAV (VTUAV)
    The Navy Vertical Takeoff and Landing Tactical UAV (VTUAV) is 
designed to operate from all air capable ships, carry modular mission 
payloads, and operate using the Tactical Control System (TCS) and 
Tactical Common Data Link (TCDL). VTUAV will provide day/night real 
time reconnaissance, surveillance and target acquisition capabilities 
as well as communications relay and battlefield management to support 
the Littoral Combat Ship (LCS) core mission areas of Anti-Submarine, 
Mine, and Anti-Surface Warfare. It will be part of the LCS mission 
module packages supporting these warfare missions. $71 million in 
development and procurement funding supports engineering manufacturing 
development, operational testing and achievement of initial operational 
capability in fiscal year 2008.
    Maritime Prepositioning Force (MPF) (Future)
    $68 million in research and development in fiscal year 2008 
supports our first year of procurement with (4) MPF(F) ships in fiscal 
year 2009. MPF(F) provides a scalable, joint seabased capability for 
the closure, arrival, assembly, and employment of up to the Marine 
Expeditionary Brigade of 2015 sized force. It will also support the 
sustainment and reconstitution of forces when required. MPF(F) is 
envisioned for frequent utility in lesser contingency operations, and 
when coupled with Carrier or Expeditionary Strike Groups, will provide 
the Nation a rapid response capability in anti-access or denial 
situations.
    Direct Attack (DA) Munitions: JDAM, LGB, Dual Mode LGB, and Direct 
        Attack Moving Target
    Inventories of direct attack munitions include Laser Guided Bombs 
(LGB) and Joint Direct Attack Munitions (JDAM) weapons; both are 
guidance kits for General Purpose bombs and strike fixed targets only. 
The LGB guides on a laser spot which provides precise accuracy in clear 
weather. JDAM provides Global Positioning / Inertial Guidance Systems 
(GPS/INS) giving accurate adverse weather capability ($34 million in 
fiscal year 2008). The Dual Mode LGB retrofit to LGB kits, procured in 
fiscal years 2006-2007, increases flexibility by combining laser and 
GPS/INS capabilities in a single weapon. The next evolutionary upgrade, 
Moving Target Weapon (MTW), will combine laser and GPS/INS guidance 
with moving target capability. Procurement is planned via a capability-
based competition, with MTW upgrading existing JDAM and/or LGB kit 
inventories. $29 million supports this ongoing MTW effort in fiscal 
year 2008.
    Harpoon Block III Missile
    Harpoon Block III represents the only long range, all weather, 
precise, ship and air launched, Surface Warfare anti-ship capability. 
$44 million in fiscal year 2008 supports development of a kit upgrade 
to existing Harpoon Block IC, the addition of a data link and GPS that 
will provide increased target selectivity and performance in the 
cluttered littorals.
    Pioneer Tactical Unmanned Aircraft Sensor (UAS)
    The Pioneer UAS System is a transportable Intelligence, 
Surveillance, and Reconnaissance (ISR) asset capable of providing 
tactical commanders with day and night, battlefield, and maritime 
reconnaissance in support of Marine expeditionary warfare and maritime 
control operations. The fiscal year 2008 budget requests $38 million in 
operations and maintenance sustainment and $90 million in procurement 
for the Army's Shadow RQ-7B UAS as an interim replacement for the 
currently fielded Pioneer.
    Language, Regional Expertise & Culture (LREC)
    Achieving Navy's global strategy depends in part on our ability to 
communicate with and comprehend adversaries, enduring allies, and 
emerging partners. To facilitate this capability, Navy has developed a 
way forward to transform LREC in the force. Consistent with the Defense 
Language Transformation Roadmap and the Navy Strategic Plan (NSP), the 
program incentivizes language proficiency, increases regional content 
in NPME, provides non-resident language instruction to all sailors and 
delivers in-residence training to more Officers.
    Incentivization through higher foreign language proficiency pay 
rates began June 2006. $33 million requested in fiscal year 2008 
continues existing efforts and begins new initiatives of enhanced non-
resident (online) and resident (for officers) language training.
    Extended Range Munition (ERM)
    The concept for expeditionary operations relies on sea-based 
surface fire support to aid in destruction and suppression of enemy 
forces. The Extended Range Munition (ERM) is a 5-inch rocket assisted 
guided projectile providing range and accuracy superior to that of 
conventional ammunition. The projectile uses a coupled GPS/INS Guidance 
System and unitary warhead with a height-of-burst fuze. $30 million in 
fiscal year 2008 research and development funding includes a 20-
reliability demonstration before land-based flight and qualification 
testing. The program includes modifications to existing 5 inch guns and 
fire control systems. ERM will utilize the Naval Fires Control System 
as the mission planning tool.
    Automatic Identification System (AIS)
    AIS is a commercially available shipboard broadcast Very High 
Frequency (VHF) maritime band transponder system capable of sending and 
receiving ship information, including Navigation Identification, and 
Cargo. AIS significantly increases the Navy's ability to distinguish 
between normal and suspicious merchant ships headed towards U.S. and 
allied ports. Navy warships using AIS have observed dramatic increases 
in situational awareness, safety of ship and intelligence gathering 
capability. Programmed funding started in fiscal year 2007. Initially 
funded in fiscal year 2006 from ONR Rapid Technology Transition 
initiative and reprogramming, AIS shifted to programmed funding in 
fiscal year 2007, and with our request of $28 million in fiscal year 
2008, it transitions to become a program of record.
    Global Hawk Maritime Demonstration (GHMD)
    Using an existing Air Force production contract, the Navy procured 
two GHMD Unmanned Aerial Vehicles (UAV) and associated ground control 
equipment. GHMD will be used for developing Concept of Operations and 
Tactics, Training and Procedures for a persistent ISR maritime 
capability in conjunction with the manned P-3 aircraft. The GHMD return 
on investment will be risk reduction for the BAMS UAS Program. GHMD 
provides a limited, high altitude, endurance UAV platform capability 8 
years before the planned fiscal year 2014 IOC of BAMS. $18 million in 
operations and maintenance and $6 million in procurement of spares 
sustains the program in fiscal year 2008.
    Remote Minehunting System (RMS)
    RMS utilizes a diesel-powered, high endurance, off-board, semi-
submersible vehicle to tow the Navy's most advanced mine hunting sonar, 
the AN/AQS-20A. The system will be launched, operated, and recovered 
from surface ships. RMS will provide mine reconnaissance, detection, 
classification, localization, and identification of moored and bottom 
mines. $23 million in fiscal year 2008 supports the fielding plan 
commencing this year providing limited systems for use on select DDGs, 
48 RMSs for the Littoral Combat Ship (LCS) Mine Warfare Mission 
Packages, and an additional 16 vehicles as part of the LCS ASW Mission 
Packages.
    Joint High Speed Vessel (JHSV)
    Navy, along with the Army, SOCOM and Marine Corps, is working to 
acquire a Joint High Speed Vessel (JHSV) that provides the required 
intra-theater lift capability necessary to meet each service's 
requirements. The acquisition of JHSV will address high-speed, intra-
theater surface lift capability gaps identified to implement Sea Power 
21, the Army Future Force operational concepts and SOCOM future 
operational plans. Additionally, it will improve intratheater lift 
currently provided by Westpac Express and other leased vessels. JHSV is 
currently in the Technology Development Phase with Joint Requirements 
Oversight Council (JROC) approval of the Capabilities Development 
Document (CDD) anticipated soon. Navy's research and development 
contribution in fiscal year 2008 is $19 million. Ultimate delivery of 
the first vessel is anticipated in 2010.
    Aerial Common Sensor (ACS)--Future EPX (EP-3E Replacement)
    Navy is on a path to recapitalize the EP-3 airborne electronic 
surveillance aircraft, and our $17 million in fiscal year 2008 research 
and development funding contributes to this effort. ACS is the Navy's 
premier manned Airborne Intelligence, Surveillance, Reconnaisance 
(AISR) platform tailored to the maritime environment. ACS will provide 
data fusion and a robust reach-back capability allowing onboard 
operators to push intelligence to tactical commanders and operators in 
mission support centers. With a network-centric approach, ACS 
represents a significant capability in the Maritime Patrol and 
Reconnaissance Force Family of Systems including MMA and BAMS UAS.
    Aegis Ballistic Missile Defense (BMD)
    Aegis Ballistic Missile Defense is the sea based component of the 
Missile Defense Agency's (MDA) Ballistic Missile Defense System (BMDS). 
It enables surface combatants to support ground-based sensors and 
provides a capability to intercept Short and Medium Range Ballistic 
Missiles with ship-based interceptors (SM-3 missiles). The recently 
started Gap Filler Sea-Based Terminal Program will provide the ability 
to engage Short Range Ballistic Missiles (SRBMs) with modified SM-2 
Block IV missiles from Aegis BMD capable ships. While all development 
funding is covered under the MDA budget, Navy has committed $13 million 
in fiscal year 2008 for operations and sustainment of Aegis BMD systems 
as Navy assumes operational responsibility.
    In May, 2006, U.S.S. Lake Erie (CG-70) successfully engaged and 
intercepted a Lance short-range test target with a modified SM-2 Block 
IV missile in a Navy-sponsored BMD demonstration. As a result, the Navy 
is modifying the remaining inventory of 100 SM-2 Block IV missiles, and 
MDA is modifying the Aegis BMD program to support sea-based terminal 
engagements.
    In June 2006, Navy successfully achieved a second engagement of a 
separating SRBM target with the Aegis BMD system. This successful 
engagement brings the tally to seven successful intercepts in nine 
flight tests as of December 2006. Aegis BMD has been installed on 3 
Cruisers and 13 Destroyers. All the Cruisers and three Destroyers are 
engagement capable. The balance of the Destroyers are Long-Range 
Surveillance and Track (LRS&T) capable. Additional installations are 
planned for 2007.
    In actual operations last July, U.S. and Japanese Aegis radar-
equipped Destroyers successfully monitored North Korea's ballistic 
missile tests.
    21" Mission Reconfigurable Unmanned Underwater Vehicle System 
        (MRUUVS)
    21" MRUUVS is a submarine launched and recovered, reconfigurable 
UUV system that will improve current capabilities in enabling assured 
access. It will provide a robust capability to conduct clandestine 
minefield reconnaissance and general Intelligence, Surveillance, and 
Reconnaissance (ISR) in denied or inaccessible areas. The MRUUVS 
program has been restructured, moving Initial Operational Capability 
(IOC) from fiscal year 2013 to 2016 when clandestine mine 
countermeasure capability from Los Angles Class submarines will be 
delivered. Accordingly, the fiscal year 2008 funding request has been 
adjusted to $13 million. ISR capability and Virginia Class host 
compatibility will arrive in follow-on increments approximately 2 years 
after IOC.
    Tactical Control System (TCS)
    Research and development funding of $9 million in fiscal year 2008 
continues work on the Tactical Control System. The program provides 
interoperability and commonality for mission planning, command and 
control, and interfaces for tactical and medium altitude UAV systems. 
TCS software provides a full range of scaleable capabilities from 
passive receipt of air vehicle and payload data to full air vehicle and 
payload command and control from ground control stations both ashore 
and afloat. TCS will be fielded with the Vertical Takeoff Unmanned Air 
Vehicle (VTUAV) system and key to supporting the LCS.
    Utilities Privatization (UP)
    The Navy and Marine Corps have 645 utilities systems eligible for 
privatization on 135 activities/installations worldwide. Of these, 394 
have been determined to be exempt, 22 have been awarded for 
privatization, and 95 have received a Source Selection Authority (SSA) 
decision and are being processed for exemption or award. 122 systems 
are still being reviewed for an SSA decision. $3 million requested in 
our fiscal year 2008 budget supports these ongoing initiatives.
Develop 21st Century Leaders
    Programs and practices of particular interest include (listed in 
order of fiscal year 2008 dollar value):
    Health Care
    Combat Casualty Care. Combat casualty care is provided by Navy 
medical personnel assigned to and serving with Marine Corps units, in 
Expeditionary Medical Facilities, aboard casualty receiving/treatment 
ships and hospital ships, and in military and VA hospitals. Recent 
advances in force protection, battlefield medicine, combat/operational 
stress control, and medical evacuation have led to improved survival 
rates and enhanced combat effectiveness.
    Since the start of OEF/OIF the Marine Corps has fielded new combat 
casualty care capabilities, including: updated individual first aid 
kits with QuikClot and advanced tourniquets, robust vehicle first-aid 
kits for convoy use, Combat Lifesaver training, and new systems to 
provide forward resuscitative surgery and en route care. Navy Fleet 
Hospital transformation is redesigning expeditionary medical facilities 
to become lighter, modular, more mobile, and interoperable with other 
Services' facilities.
    Naval S&T funds of $18 million in fiscal year 2008 in advanced 
technology and applied research for combat casualty care sustain our 
overall level of effort and focus on this mission. Additionally, mental 
health services have been expanded through post-deployment screenings, 
expanded briefings, and proactive interactions between providers and 
sailors and marines.
    Safe Harbor Program. Our care for combat wounded does not end at 
the Military Treatment Facility (MTF). The Navy has established the 
Safe Harbor Program to ensure seamless transition for the seriously 
wounded from arrival at a CONUS MTF to subsequent rehabilitation and 
recovery, whether through DOD or the VA. Since its inception, 114 
sailors including 103 Active and 11 Reserve members have joined the 
program. Currently, 92 are being actively tracked and monitored 
including 34 severely injured last year in OIF/OEF. Senior medical 
staff personally visit and assist our seriously injured sailors and 
their families to ensure their needs are being met.
    Post Traumatic Stress Disorder (PTSD) and Traumatic Brain Injury 
(TBI)
    The Navy has focused much attention on these complex conditions 
that have resulted from combat operations. With PTSD, early 
identification and intervention are critical elements of successful 
treatment and prevention. Closely aligned with warfighters while in 
garrison, health care providers instruct self-aid and buddy-aid 
training. When intervention is necessary, treatment occurs via embedded 
mental health personnel in deployed units (e.g. via USMC Oscar teams 
and Carrier Group Clinical Psychologists). All sailors receive in-
theater assessment through a Behavioral Health Assessment Tool (BHAT) 
and receive a Post Deployment Health Assessment (PDHA) immediately 
following deployment, and again 90--180 days later. This treatment 
coverage is comprehensive for both Active and Reserve members.
    Navy is partnering with the other Services to establish a Center 
for Deployment Psychology to provide further education and training on 
PTSD treatment and other combat stress disorders. Our continuum of care 
in this area before, during, and after deployment, coupled with a 
review of policies and practices to ensure treatment for PTSD is 
``destigmatized,'' are critical steps in addressing the health needs of 
our deployed sailors.
    The science associated with the diagnosis and treatment of 
traumatic brain injuries (TBI) is evolving and the military is at the 
leading edge in research and treatment. Military Acute Concussion 
Evaluation (MACE) has been developed as part of field assessments and 
all casualties transitioned to Bethesda receive neuro-psychological 
evaluations with database tracking and follow-up as required.
    When members with TBI transition from military service, they may be 
transferred to one of the four Veterans Administration (VA) poly-trauma 
centers in Palo Alto, California; Richmond, Virginia; Minneapolis, 
Minneapolis; and Tampa, Florida--whichever facility is closest to the 
member's home of record. The four VA poly-trauma centers are among the 
premier treatment facilities for TBI in the country. In addition to VA 
tracking, when service members are transferred to the VA, they are also 
tracked by case managers from the referring Navy MTF at least bimonthly 
by the MTF Case Manager to maintain a coordinated care effort. 
Occasionally, the medical case management team determines in 
consultation with an individual patient and their family that the 
patient's specific condition and/or family needs dictate that the best 
location for their continued care is at a civilian hospital rather than 
a VA or an MTF.
    Quality Medical Care
    While continuing to support OIF/OEF with medical personnel, Navy 
Medicine remains committed to providing quality care for all 
beneficiaries, both in deployed settings and at home. One of the main 
challenges has been ensuring sufficient numbers of providers in 
critical specialties. We continue to focus on refining and shaping our 
force to recruit, train, and retain the right mix of uniformed and 
civilian health providers thus sustaining the benefits of our 
healthcare system and meeting our obligations during this time of war. 
Despite high demands, Navy medicine meets 100 percent of its 
operational commitments, and maintains quality care to our 
beneficiaries, without any sacrifice in quality.
    Post-Deployment Health Care
    Navy Medicine has developed new delivery models for deployment-
related concerns and is working with the Office of Seamless Transition 
to improve coordination with the Veterans Administration. These include 
thirteen Deployment Health Clinics in areas of Fleet and Marine 
concentration to support operational commands in ensuring medical care 
for those returning from deployment.
    Navy Education
    Professional Military Education (PME). Our Professional Military 
Education continuum provides career-long educational opportunities for 
professional and personal development that supports mission 
capabilities. It supports development of 21st century leaders who have 
the capacity to think through uncertainty; develop innovative concepts, 
capabilities, and strategies; fully exploit advanced technologies, 
systems, and platforms; understand cultural/regional issues; and 
conduct operations as a coherently joint force. Navy PME provides a 
common core of knowledge for all sailors. A primary level program was 
implemented via distance learning in June 2006. The initial targeted 
audience is junior unrestricted line officers and senior enlisted 
members. Additional content is in development for all junior officers. 
Introductory and basic levels for more junior sailors is also under 
development.
    Joint Professional Military Education (JPME). Joint Professional 
Military Education provides an understanding of the principles of Joint 
warfare. Our path is designed to create a change in Navy culture so 
that it values jointness and therefore systematically develops a group 
of Navy Leaders who are strategically minded, capable of critical 
thinking, and skilled in naval and joint warfare. JPME Phase I is a 
requirement for screening unrestricted line officers for commander 
command beginning in fiscal year 2009. In August 2006, Naval War 
College began in-residence instruction of JPME Phase II. The Naval War 
College has implemented a Joint Maritime Component Commander's Course 
to prepare future Flag Officers to serve as Maritime Component 
Commanders. $150 million requested in fiscal year 2008 sustains our 
expanded commitment to this vital professional development.
    The Naval Reserve Officers Training Corps (NROTC). The NROTC 
Program comprises 59 active units at 71 host institutions of higher 
learning across the Nation. With $173 million requested in fiscal year 
2008, the program is adequately funded to provide 4 and 2 year 
scholarships to qualified young men and women to prepare them for 
leadership and management positions in an increasingly technical Navy 
and Marine Corps with service as commissioned officers. The program 
continues to be a key source of nuclear power candidates, nurses, and 
increased officer corps diversity. Focus is now on increasing strategic 
foreign language skills and expanding cultural awareness among 
midshipmen.
    The United States Naval Academy (USNA). USNA gives young men and 
women the up-to-date academic and professional training needed to be 
effective Navy and Marine officers in their assignments after 
graduation. Renowned for producing officers with solid technical and 
analytical foundations, the Naval Academy is expanding its capabilities 
in strategic languages and regional studies.
    The Naval Postgraduate School (NPS). NPS is the Navy's principal 
source for graduate education. It provides Navy and DOD relevant degree 
and non-degree programs in residence and at a distance to enhance 
combat effectiveness. NPS provides essential flexibility in meeting 
Navy and Department of Defense emergent research needs, and the 
development of warfighters with otherwise demanding career paths and 
deployment cycles making graduate education opportunities difficult to 
achieve. NPS also supports operations through naval and maritime 
research, and maintains expert faculty capable of working in, or 
serving as advisors to operational commands, labs, systems commands, 
and headquarters activities. The $84 million requested in fiscal year 
2008 sustains this unique national asset and provides increases for lab 
upgrades, distance learning, and IT maintenance and support.
    The Naval War College (NWC). The Naval War College provides 
professional maritime and joint military education, advanced research, 
analysis, and gaming to educate future leaders. Its mission is to 
enhance the professional capabilities of its students to make sound 
decisions in command, staff and management positions in naval, joint, 
and multinational environments. The $56 million requested in fiscal 
year 2008 is a significant increase to support Joint Forces Maritime 
Component Command/Coalition Forces Maritime Component Command analysis 
and gaming capability, the China Maritime Studies Institute, initial 
investment for Maritime Headquarters (MHQ)/Maritime Operations Center 
(MOC), support for JPME II accreditation, funding for JPME I at Naval 
Postgraduate School, and for NWC Maritime Operations curriculum 
development.
    Enlisted Retention (Selective Reenlistment Bonus)
    Retaining the best and brightest sailors has always been a Navy 
core objective and key to success. Navy retains the right people by 
offering rewarding opportunities for professional growth, development, 
and leadership directly tied to mission readiness. Navy has experienced 
significant reenlistment improvement since a 20-year low in fiscal year 
1999, reaching a peak at the end of fiscal year 2003. This improved 
retention is part of a long-term trend, allowing us to be more 
selective in ensuring the right number of strong performers reenlist in 
the right ratings. Selective Reenlistment Bonuses (SRBs) are a key tool 
enabling us to offer attractive incentives to selected sailors we want 
to retain. $359 million requested in fiscal year 2008 will provide for 
nearly 79,000 new and anniversary payments helping ensure the Navy will 
be able to remain selective in fiscal year 2008.
    Sexual Assault Victim Intervention (SAVI)
    SAVI has three major components: (1) awareness and prevention 
education, (2) victim advocacy and intervention services, and (3) 
collection of reliable data on sexual assault. Per the fiscal year 2005 
National Defense Authorization Act requirements, the Navy SAVI Program 
was transitioned from a program management to case management focus. 
Existing installation program coordinator positions were increased and 
became Sexual Assault Response Coordinators (SARCs), which is a 
standard title and position across the Department of Defense. SARCs are 
accountable for coordinating victim care/support and for tracking each 
unrestricted sexual assault incident from initial report to final 
disposition. Navy also provides 24/7 response capability for sexual 
assaults, on or off the installation, and during deployment through the 
use of Victim Advocates who report to installation SARCs. The $3 
million requested in the fiscal year 2008 budget enables us to maintain 
this expanded SAVI program fleet-wide.
    Family Advocacy Program (FAP)
    The Family Advocacy Program addresses prevention, identification, 
reporting, evaluation, intervention and follow-up with respect to 
allegations of child abuse/neglect and domestic abuse involving active 
duty and their family members or intimate partners. Maintaining abuse-
free and adaptive family relationships is critical to Navy mission 
readiness, maintenance of good order and discipline, and quality of 
service for our active duty members and their families.
    Sea Warrior Spiral 1
    Sea Warrior comprises the Navy's training, education and career 
management systems that provide for the growth and development of our 
people. The first increment, or ``Spiral 1'', of Sea Warrior is 
Interactive Detailing. This system allows sailors to have greater 
insight and engagement in identifying and applying for Navy positions 
of interest to them professionally and personally. Spiral 1 Sea Warrior 
is a funded Navy program and its' develop follows the standard, 
rigorous acquisition engineering and program management processes. 
Additional Sea Warrior spirals will be developed in accordance with 
future capability needs and as clear requirements are defined.
    Because of Sea Warrior's complexity, many issues related to sea and 
shore connectivity are still being worked out. Further, before fielding 
a usable model, the Navy plans to conduct extensive beta testing of 
selected ratings. Sea Warrior is funded through the FYDP and is not 
expected to reach FOC until 2016.

    Chairman Levin. Admiral, thank you very much for that 
powerful statement.
    General Conway?

  STATEMENT OF GEN. JAMES T. CONWAY, USMC, COMMANDANT OF THE 
                          MARINE CORPS

    General Conway. Mr. Chairman, Senator McCain, and 
distinguished members of the committee: Thank you for the 
opportunity to report to you on the status of our Marine Corps. 
In our recent meetings as well as previous testimony before 
this Congress, I have pledged to provide you with frank and 
honest assessments and I come here today with that again as my 
watchword.
    For the past 5 years your Marine Corps has been immersed in 
the first battles of a long war, a generational struggle 
against Islamic extremists.
    Our freedom is threatened, not by Nazis or Communists as it 
was in the past, but by terrorists who are determined to 
destroy us and our way of life. Further, the full array of our 
security threat is daunting. But rest assured, this 
generation's young Americans are answering the call. Over two-
thirds of our Corps enlisted or reenlisted since September 11, 
knowing full well what their Nation expects of marines in time 
of war.
    Our marines are being pushed hard by the high operational 
tempo and frequency of combat deployments. They have been 
operating at full bore now for almost 5 years. Despite this, in 
fact maybe because of it, I can report firsthand that their 
morale has never been higher. I attribute this fact to the 
belief that they are making a difference. They see the evidence 
of your support everywhere, tangible support, in the fielding 
of new material, the latest equipment to protect them while in 
harm's way, and your support of the proposal to grow our end 
strength.
    Increasing to 202,000 marines will reduce the strain both 
on the individual marine and on our institution as a whole. It 
will require additional infrastructure, but more importantly, 
it will gradually improve the deployment-to-dwell ratio in some 
of our most critical units. Currently many of these units are 
deployed for 7 months, then home for only 7 months, some even 
less time than that, before they return to combat.
    This end strength increase addresses much more than the 
current battles in Iraq and Afghanistan. It ensures that our 
Corps will be able to deal with the uncertainties of the long 
war. Our Corps is by law to be most ready when the Nation is 
least ready; the Nation's shock troops. Additional marines 
allow the dwell time needed to train and sharpen the skills 
that will be required of us in the next contingency, reducing 
our operational and strategic risks.
    As over 70 percent of our proposed end strength increase is 
comprised of first-term marines, we are making the necessary 
increases in recruiting and retention. This is a challenge, but 
our standards will remain high. We need your continued support 
for recruiting programs such as advertising, which are 
essential for us to continue to bring aboard the best in 
America.
    Our Nation has an enduring commitment to her marines long 
after they have returned from the battle, particularly if they 
are physically or mentally scarred. Our moral imperative is to 
ensure that this support is seamless even as a marine leaves 
our uniformed ranks. To this end, we have formed a Wounded 
Warrior Regiment with battalions on each coast, that will 
ensure that we hold to the maxim that we `never leave a marine 
behind.'
    Ladies and gentlemen, your marines are honored to be 
serving this Nation during such an important time in our 
history. They are truly a special breed of patriots and it is 
on their behalf that I come before you today to answer your 
questions and to help all understand how we can best support 
these tremendous young Americans.
    I look forward to your questions.
    [The prepared statement of General Conway follows:]
            Prepared Statement by Gen. James T. Conway, USMC
    Chairman Levin, Senator McCain, and distinguished members of the 
committee, thank you for the opportunity to report to you the state of 
your Marine Corps.
    Your Marine Corps is currently engaged in what we believe to be the 
opening battles in a generational struggle against Islamic extremists. 
Our commitment is characterized by diverse and sustained employment 
around the globe, particularly the central campaigns in Iraq and 
Afghanistan. Your marines are fully engaged in this fight, and it is 
through their tremendous sacrifices--serving shoulder-to-shoulder with 
their fellow service men and women--that we will ultimately prevail. It 
is our moral imperative to support them to the hilt--always mindful 
that our forward-deployed marines and sailors in combat must be our 
number one priority.
    Though marines in the operating forces have been pushed hard by the 
tempo and frequency of operational deployments, their morale has never 
been higher--because they believe they are making a difference. Thanks 
to you, ladies and gentlemen, your marines know that the people of the 
United States and their Government are behind them. Support has been 
exceptional--from the rapid fielding of life-saving equipment to the 
proposed increase in end strength, and with your continued support, 
mission accomplishment will remain completely viable and achievable.
    The Long War is taking a considerable toll on our equipment and we 
have tough choices ahead of us--we must support our marines and their 
families, while deciding whether to replace our rapidly aging equipment 
with similar platforms or to modernize with next generation equipment.
    We know these next few years will be challenging--not only in the 
immediate conflict in Iraq, but in subsequent campaigns of the Long 
War. Therefore, the Corps will balance our skill sets in order to 
remain prepared for crisis outside of Iraq and Afghanistan--to be where 
our country needs us, when she needs us, and to prevail over whatever 
challenges we face. I am confident that with your steadfast support, 
our Corps will continue to remain the Nation's force in readiness and 
fulfill its congressionally-mandated mission of being the most ready 
when the Nation is least ready.
              i. marine corps commitments in the long war
    Over the past year, your marines deployed to all corners of the 
globe in support of our Nation. With more than 24,000 marines ashore 
throughout the U.S. Central Command's Area of Responsibility, 
Operations Iraqi Freedom and Enduring Freedom remain our largest 
commitment. In addition to those operations, the Marine Corps also 
deployed forces to: support humanitarian and disaster relief efforts in 
Pakistan and the Republic of the Philippines; participate in over fifty 
Theater Security Cooperation events ranging from small Mobile Training 
Teams in Central America to the first deployment of the Marine Forces 
Special Operations Command's Foreign Military Training Unit supporting 
our African partner nations; protect our Embassies by providing Fleet 
Antiterrorism Security Teams to East Timor and Lebanon; and respond to 
a Noncombatant Evacuation from Lebanon--the largest since Vietnam.
Achieve Victory in the Long War
    The Defense Department's 2006 Quadrennial Defense Review directed 
that we enhance our counterinsurgency capabilities. Our enhanced Marine 
Air Ground Task Forces (MAGTFs) and the Marine Corps component to 
Special Operations Command are part of this commitment. Other types of 
forces, unique to counterinsurgency operations, may also need to be 
formed. However, we will maintain robust contingency response forces 
satisfying Congress' intent to be ``the Nation's shock troops''--always 
ready and always capable of forcible entry.
    I view the inherent power of the MAGTF as an irreplaceable 
component of this Nation's plan for success in the Long War. This war 
demands flexible organizations that apply a mix of combat and nonlethal 
actions; interagency capabilities and joint warfare applications; 
innovative use of airpower; and synchronization of intelligence 
activities. For rapid integration of these capabilities--as well as 
providing the critical boots on the ground--the MAGTF is better 
prepared than any other military formation to execute the full range of 
operations required by the current conflict. This is the Corps' 
fundamental fighting organization, providing the joint force a unique, 
additive capability--one that is much greater than the sum of its 
parts.
    To further expand the MAGTF's contribution to our Nation's 
security, I have directed my staff to develop a series of exercises 
that will further enhance the MAGTF's ability to integrate interagency 
and coalition operations throughout the spectrum of conflict. Our goal 
will be to provide a forum to develop diverse yet cohesive teams that 
can best overcome the challenges we are most likely to face in pre- and 
post-war phases of operations. These exercises will serve our Nation 
well in the Long War, in future conflicts, and in our ongoing security 
cooperation efforts.
    In February 2006, we established Marine Corps Forces, Special 
Operations Command (MARSOC) within the U.S. Special Operations Command. 
MARSOC is already employing its five major subordinate elements: the 
Foreign Military Training Unit, two Marine Special Operations 
Battalions, the Marine Special Operations Support Group, and the Marine 
Special Operations School, and is on track to achieve full-operational 
capability by the end of fiscal year 2008. Its personnel and equipment 
assignment plan is designed to best support our combatant commanders in 
their prosecution of the Long War. The Foreign Military Training Unit 
was activated in 2005 and has been incorporated into MARSOC, the 2d 
Marine Special Operations Battalion was activated in May of 2006, 
followed by the 1st Marine Special Operations Battalion in October 
2006.
    MARSOC deployed Foreign Military Training Unit teams to the 
European and Southern Command areas of responsibility last summer and 
fall. Through the end of fiscal year 2007, the Foreign Military 
Training Unit is scheduled to make 27 deployments to 12 countries to 
conduct foreign internal defense and counter narcotics training to 
improve the indigenous military forces of those countries. 
Additionally, MARSOC began deploying Marine Special Operations 
Companies, associated with Marine Expeditionary Units and assigned to 
Expeditionary Strike Groups in January of this year. MARSOC provides a 
unique combination of land component and maritime expeditionary 
capabilities across a wide range of missions. As special operations 
forces continue to prosecute the Long War, MARSOC will be a significant 
partner in Special Operations Command.
    To aid in both the current execution of the campaign in Iraq as 
well as the long-term irregular warfare capability of the Marine Corps, 
we are establishing a Center for Irregular Warfare. This organization 
will serve as the focal point for integration of concepts, doctrine, 
training, education, and equipment capability development. This Center 
will also maintain close coordination with our sister Services and 
external agencies. Our goal is to enhance the MAGTF's capabilities by 
training and equipping small-unit leaders to handle the demanding 
complexities and possess the adaptive mindset necessary to operate 
across the spectrum of conflict--empowering our ``strategic corporals'' 
as well as all of our junior leaders to fight, operate, and win in this 
challenging security environment.
Supporting the Plus-up for Operation Iraqi Freedom
    Currently, the Marine Corps has approximately 4,000 marines 
affected by the pending plus-up operation in Iraq. The units affected 
will be extended for approximately 45-60 days. This change will impact 
our marines and their families, but we believe that the support systems 
that we have in place within the units and family support systems back 
home will help our marines and their families meet the challenges 
associated with this extension on deployment. Furthermore, between 
their return and next deployment, the addition of new infantry 
battalions will allow these units to lengthen the time at their home 
station.
    Battalions moved forward in the rotation cycle will complete all 
required predeployment training that fully qualifies them for 
employment. These battalions will be subject to the same predeployment 
training standards as their fellow marines. We have accelerated the 
normal cycle through our main mission rehearsal exercise, Mojave Viper, 
to accommodate consistent training for all units rotating into theater.
    The accelerated battalions will deploy with equipment from their 
home stations, and the additional equipment required will be provided 
by cross-leveling assets in theater as well as leveraging equipment 
already positioned forward. This has resulted in some home station 
shortfalls and has hindered some stateside units' ability to train for 
other missions and contingencies. While the readiness of deployed units 
remains high, we have experienced a decrease in the readiness of some 
nondeployed units.
    There are no Marine Corps Reserve units involved in the plus-up 
operations.
                    ii. right-size our marine corps
    To meet the demands of the Long War as well as the inevitable 
crises that arise, our Corps must be sufficiently manned in addition to 
being well trained and properly equipped. Like the Cold War, the Long 
War is a continuing struggle that will not be measured by the number of 
near-term deployments or rotations, and while we seek to capitalize on 
advances in technology, we know it is our magnificent marines who 
invariably decide the outcome.
    In order to protect our most precious asset, the individual marine, 
we must ensure that our personnel policies, organizational construct, 
and training are able to operate at the ``sustained rate of fire.'' 
Operating at the "sustained rate of fire" means that the Corps will be 
able to maintain operations indefinitely without drastic changes to 
procedures, policies, organization, or operations. The proposed Active 
component end strength increase will significantly enhance our ability 
to operate at the ``sustained rate of fire.''
Strain on the Individual
    Despite an unparalleled Personnel Tempo, the morale of our marines 
and their families remains high. To avoid an adverse toll on our 
marines and their families, and to prevent a decrease in readiness, the 
former Secretary of Defense established a 1:2 deployment-to-dwell ratio 
goal for all Active component forces. This ratio relates to how long 
our forces are deployed versus how long they are at home--the goal 
being for every 7 months a marine is deployed, they will be back at 
their home station for 14 months. We need to relieve the strain on 
those superb Americans who have volunteered to fight the Nation's 
battles.
Strain on the Institution
    The current deployment cycle requires commanders to focus solely on 
those skill sets required to accomplish the mission in Iraq and 
Afghanistan. This deterioration of capabilities is exacerbated by 
individual augments and training team requirements and by many units 
being deployed for missions outside of their normal duties. The result 
of this strain is evident in the Marine Corps' limited ability to 
provide trained forces to project power in support of other 
contingencies. Reduced training time and a necessarily singular focus 
on current contingency requirements prevents significant opportunities 
for units to train to the full range of military operations in varied 
operating environments, such as jungle or mountain terrain. To fulfill 
our mandate to be ``most ready when the Nation is least ready,'' our 
deployment cycles must not only support training for irregular warfare, 
they must also provide sufficient time for recovery, maintenance, and 
training for other contingency missions. By increasing the dwell time 
for our units and allowing them additional time at home stations, we 
can accomplish the more comprehensive training needed for the 
sophisticated skill sets that have enabled MAGTFs to consistently 
achieve success in all types of military operations and operating 
environments. Our goal is to increase dwell time and achieve a 1:2 
deployment-to-dwell ratio for our Active Forces--our Operating Forces 
are routinely falling short of this target.
Reducing the Stress
    I would emphasize, the underlying requirement for an end strength 
increase is separate from, indeed it pre-dates, the plus-up operation 
in Iraq. The proposed increase to our Active component end strength to 
202,000 marines will go a long way to reducing the strain on the 
individual marines and the Institution. Our first task will be to build 
three new infantry battalions and their supporting structure--
approximately 4,000 marines. The resources for this force have been 
included in our fiscal year 2007 supplemental. These funds will pay for 
initial costs associated with the stand up of these infantry battalions 
as well as critical enablers, which are vital not only for the current 
fight, but are also critically needed to support long-term Marine Corps 
capabilities to accomplish other missions. These enablers include 
combat support and combat service support such as intelligence, 
military police, and civil affairs capabilities. We will systematically 
build the additional individuals and units on a schedule of 
approximately 5,000 per year. This plan will gradually increase the 
deployment-to-dwell ratio of some of our habitually high operational 
tempo units--enabling us to recover our ability to respond in 
accordance with timelines outlined in war plans for our combatant 
commanders; thereby, reducing future operational risks. We are 
initially funding this initiative with supplemental and baseline 
funding in fiscal year 2008, but have included all future costs in our 
baseline budget as of fiscal year 2009.
Reserve Component End Strength
    Our efforts in the Long War have been a Total Force effort, with 
our Reserves once again performing with grit and determination. Recent 
policy changes within the Department of Defense match up very well with 
our existing policies and will allow us to use the Reserve Forces as 
they were structured to be employed--to augment and reinforce our 
Active component forces. To this end, my goal is to obtain a 1:5 
deployment-to-dwell ratio within our Reserve component. We currently 
believe our authorized Reserve component end strength of 39,600 
Selected Reserve Marines is adequate. As with every organization within 
the Marine Corps, we continue to review the make-up and structure of 
the Marine Corps Reserve in order to ensure the right capabilities 
reside within the Marine Forces Reserve units and our Individual 
Mobilization Augmentee program across the force. Finally, as our Active 
Force increases in size, our reliance on the Reserve Forces should 
decrease--helping us achieve the desired deployment-to-dwell ratio.
Manning the Force
    An equally important factor in sustaining a viable force is 
continuing to recruit and retain qualified young men and women with the 
right character, commitment, and drive to become marines. With over 70 
percent of the end strength increase comprised of first-term marines, 
both recruiting and retention efforts will be challenged. A major part 
of this effort will involve programming increased funding for both the 
Enlistment Bonus and the Selective Reenlistment Bonus Programs. We will 
need the continued strong support of Congress to achieve ongoing 
success.
    Our recruiting standards will remain high. While exceeding DOD 
quality standards, we continue to recruit the best of America into our 
ranks--in fiscal year 2006, the Marine Corps achieved over 100 percent 
of our Active component accession goal. The Marine Corps Reserve also 
achieved 100 percent of its recruiting goals, but Reserve officer 
numbers remain challenging because our primary accession source is from 
officers who leave active duty. We appreciate the continued 
authorization for Selected Reserve Officer Affiliation Bonuses in the 
National Defense Authorization Act for Fiscal Year 2007--they continue 
to contribute in this crucial area.
    We forecast that both Active and Reserve recruiting will remain 
challenging in fiscal year 2007, particularly when viewed through the 
lens of accession missions to meet the increased end strength of the 
Marine Corps. We will need the continued support of Congress for 
programmed enlistment bonuses and other recruiting efforts, such as 
advertising, which will be essential to us continuing to meet these 
challenges.
    Retention is the other important part of manning the force. In 
fiscal year 2006, the Marine Corps exceeded its retention goals for 
both the First Term and Career Forces. For fiscal year 2007, we expect 
to exceed our goals again. This success can be attributed to the Marine 
Corps' judicious use of the Selective Reenlistment Bonus, and we now 
offer qualified first term and career enlisted marines $10,000 in 
Assignment Incentive Pay to reenlist. To keep the very best of our 
marines, we must increase the size of our reenlistment bonus program in 
order to ensure that we have the right grade and MOS mix to support the 
growing force. Not only will we have to retain more first-term marines, 
but we will also have to increase the number of marines reenlisting at 
the 8- and 12-year mark. This will require a shift toward more 
programmed funding in targeted key areas in the career force.
Military-to-Civilian Conversions
    Military-to-civilian conversions continue to provide a valuable 
source to send additional marines back to the operating force in 
support of our warfighting initiatives and help reduce stress. We will 
continue to pursue sensible conversions and transfer marines from 
nonessential billets.
National Security Personnel System
    The Marine Corps is committed to successful implementation of the 
National Security Personnel System. The Marine Corps is actively 
participating with the Department of Defense in the development and 
implementation of this new personnel system and is cooperating with the 
sister Services so that our civilian employees receive the training 
opportunities and support necessary for a successful transition. The 
National Security Personnel System will enable the Marine Corps to 
better support the warfighter by providing a civilian workforce that is 
flexible, accountable, and aligned to the Marine Corps mission.
    iii. resetting the force and preparing for the next contingency
    To meet the demands of the Long War, we must reset the force in 
order to simultaneously fight, train, and sustain our Corps. To support 
our marines in combat, we have routinely drawn additional equipment 
from strategic stocks, which need to be replenished to remain 
responsive to emerging threats. Congress has responded rapidly and 
generously to our requests for equipment and increased protection for 
our marines and sailors. It is our responsibility to manage these 
resources prudently as we transition to the modernization of our force.
Equipment Readiness
    Extended combat operations have severely tested our materiel. While 
the vast majority of our equipment has passed the test of sustained 
combat operations, it has been subjected to more than a lifetime's 
worth of wear stemming from vehicle mileage, operating hours, and harsh 
environmental conditions. This increased maintenance requirement is a 
consequence of not only operational tempo and operating environments, 
but also the sheer amount of equipment employed in operations. 
Approximately 30 percent of all Marine Corps ground equipment and 
nearly 25 percent of our active duty aviation squadrons are currently 
engaged overseas. Most of this equipment is not rotating out of theater 
at the conclusion of each force rotation; it remains in combat, used on 
a near-continuous basis at an operating tempo that far exceeds normal 
peacetime usage.
    As our priority for equipment is to support marines serving in 
harm's way, we have drawn additional equipment from the Maritime 
Prepositioning Ships and prepositioned stores from the caves in Norway; 
we have also retained equipment in theater from units that are rotating 
back to the United States. The operational results of these efforts 
have been outstanding--the average mission capable rates of our 
deployed forces' ground equipment remain above 93 percent--but there is 
a price.
    The cost of this success is a decrease in nondeployed unit 
readiness as well as an increase in the maintenance required per hour 
of operating time. Equipment across the Marine Corps is continuously 
cross-leveled and redistributed to ensure that units preparing to 
deploy have sufficient equipment to conduct our rigorous predeployment 
training programs. Because the stateside priority of equipment 
distribution and readiness is to units preparing to deploy, there has 
been a trade-off in unit training for other types of contingencies. The 
timely delivery of replacement equipment is crucial to sustaining the 
high readiness rates for the marines in theater, as well as improving 
the rates for the forces here at home. Although funded, much of this 
equipment is still many months from delivery.
Ground Equipment
    Operations in Iraq and Afghanistan are placing demands on ground 
equipment far beyond what is typically experienced during training or 
home station operations. Some of these demands rise from higher usage 
rates, others from the rigors of extended operations in harsh 
environments. These higher demands increase the maintenance 
requirements for equipment employed in theater and continue when this 
equipment is redeployed to home stations.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    For example, in Operation Iraqi Freedom (OIF) crews are driving 
Light Armored Vehicles in excess of 8,700 miles per year--3.5 times 
more than programmed annual usage rates of 2,480 miles per year. Our 
tactical vehicle fleet is experiencing some of the most dramatic 
effects of excessive wear, operating at five to six times the 
programmed rates.
Aviation Equipment
    The operationally demanding and harsh environments of Iraq, 
Afghanistan, and Djibouti have highlighted the limitations of our aging 
fleet of aircraft. In order to support our marines, sister Services, 
and coalition partners successfully, our aircraft have been flying at 
two to three times their designed utilization rates. Despite this 
unprecedented utilization, the yeoman efforts of our maintenance and 
support personnel have sustained an aviation mission capable rate for 
deployed marine aircraft at 79 percent over the past 12 months. The 
corresponding aviation mission capable rates for our units in garrison, 
who have either recently returned from deployment or are preparing to 
deploy again, have averaged 75 percent over the past 12 months. To 
maintain sufficient numbers of aircraft in deployed squadrons, our home 
squadrons have taken significant cuts in available aircraft and parts 
as they prepare for deployment. Reset funding has partially alleviated 
this strain, but continued funding is needed as we continue to 
recapitalize our aircraft fleets due to age, attrition, and wartime 
losses. Maintaining the readiness of our aviation assets while 
preparing our aircrew for their next deployment is and will continue to 
be a monumental effort and constant challenge for our marines.
    We have mitigated aircraft degradation through specific aircraft 
modifications, proactive inspections, and additional maintenance 
actions enabled by reset programs. Sustaining aircraft material 
condition drives aircraft readiness and is the determining factor in 
combat aviation support provided to our marines in harm's way. While 
these efforts have successfully bolstered aircraft reliability, 
sustainability, and survivability, additional requirements for depot 
level maintenance on airframes, engines, weapons, and support equipment 
will continue well beyond the conclusion of hostilities.
    Resetting Marine Aviation means not merely repairing and replacing 
damaged or destroyed aircraft, but getting more capable and reliable 
aircraft into the operational deployment cycle sooner. Your marines 
rely on these aircraft on a daily basis to provide a wide array of 
missions including casualty evacuation for our wounded and timely close 
air support for troops in contact with the enemy. Production lines to 
replace legacy aircraft lost in support of the Long War are no longer 
active; therefore, it is urgent and imperative for the Marine Aviation 
Plan to remain fully funded and on schedule.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Additionally, to ensure marine aviation is postured to support the 
current needs of our country, the Marine Corps is working to restore 
war reserve aircraft and accelerate the upgrades of pre-production 
aircraft to help maintain aircraft inventories at minimal acceptable 
operating levels. For example, the Marine Corps is modifying pre-
production MV-22s to ensure the transition schedule meets operational 
demands and deployment timelines. Resetting our full aviation 
capability will require a significant increase in programmed funding 
for repair, restoration, and upgrades of destroyed or damaged 
airframes, recovery of Pioneer unmanned aerial vehicle components, 
refurbishment of air traffic control equipment, replacement of 
targeting pods, and numerous other efforts to restore capability 
degraded in support of the Long War.
Reset of Prepositioning Programs
    Eleven Maritime Prepositioning Force (MPF) vessels from all three 
Maritime Prepositioning Force Squadrons (MPSRON) were downloaded and 
used in theater during initial OIF operations. As these operations 
concluded, the Marine Corps reconstituted two of three MPSRONs to meet 
potential contingencies in other areas of the world. This 
reconstitution was conducted both in theater and at the U.S. Marine 
Corps (USMC) facilities in Jacksonville, Florida. In February 2004, 
MPSRON-2 was downloaded in support of OIF II and has been partially 
reconstituted.
    Since the MPF offloads in support of Operations Iraqi Freedom I and 
II, MPSRON-1 and MPSRON-2 have gone through a complete maintenance 
cycle for attainment and supply rotation. Attainment for major end 
items is 91 percent and 48 percent respectively. Some of our major end 
item shortfalls are a result of ongoing OIF/Operation Enduring Freedom 
equipment requirements and availability from the manufacturer. Our end 
item shortfalls in the MPF program will be reset during the ship's 
maintenance cycle as equipment becomes available. Readiness for all 
equipment loaded aboard the MPS is historically 98 percent or better. 
MPSRON-3 is currently undergoing its maintenance cycle and we project 
an attainment above 98 percent for equipment when completed in June 
2007. MPSRON-2's maintenance cycle should begin in April 2008 and be 
completed by June 2009.
    Equipment from Marine Corps Prepositioning Program-Norway (MCPP-N) 
was used in support of Long War operations and to reset other Marine 
Corps shortfalls with a higher operational priority. The USMC will 
reset MCPP-N as soon as practical in line with USMC operational 
priorities.
Costs of Resetting the Force
    Last year, our cumulative reset cost estimate was $11.7 billion, of 
which Congress appropriated $5.1 billion toward that amount. To date, 
Congress has appropriated a total of $10.2 billion for global war on 
terror reset costs. The $11.7 figure is based on a point in time (1 
October 2005) snapshot of the funding necessary to refit the Marine 
Corps to a pre-Long War level of equipment readiness. During the summer 
of 2006, the Secretary of Defense standardized the definition of reset 
costs across the Services. As a result, the Marine Corps stopped 
identifying two major expenses--depot maintenance and attrition 
losses--as ``Cost of War'' and moved them into our reset the force 
estimate. This definitional change and some additional requirements 
have changed our estimate as noted in Table 2.
    The first expense to be recategorized is the estimated cost of 
residual depot maintenance after the termination of hostilities. Our 
analysis shows that we will require at least 4 to 6 years of post-
conflict depot maintenance to bring our force to a fully reset state. 
Given the status of our equipment at this time, we estimate additional 
programmed funding will be required for post-conflict ground and 
aviation depot maintenance costs.
    The second item recategorized because of definition changes is 
attrition losses. Prior to the redefinition, the Marine Corps had 
considered replacement and repair of attrition losses to be a cost of 
war, and had not included them in our reset estimate. We have increased 
our reset estimate to include forecasted attrition losses.
    The net effect is that the Marine Corps reset estimate, once a 
fixed point in time estimate, has now become a rolling estimate that 
includes future attrition losses and future depot maintenance 
estimates. The following table (Table 2) depicts the definitional 
changes:
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Not all of the reset the force requirement can be executed in a 
single fiscal year. Some items such as attack and utility helicopters 
cannot be replaced until acquisition production decisions are made. 
Other requirements such as light armored vehicles cannot be fulfilled 
in a single year due to production capacity issues. Resourcing costs 
must be phased over several years. The table (Table 3) below highlights 
specific examples of this challenge.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
 iv. modernize for tomorrow, to be ``the most ready when the nation is 
                             least ready''
    As prudent stewards of our Nation's resources, we must decide the 
most effective way to modernize the Total Force. We are actively 
working through the tough decisions of whether to replace aging 
equipment with similar platforms or to procure next generation 
capabilities--such as cutting edge platforms like the STOVL Joint 
Strike Fighter, the MV-22 Osprey, and the Expeditionary Fighting 
Vehicle (EFV). Foremost and throughout our modernization efforts, we 
will maintain our Congressionally mandated contingency response forces 
to be always ready and always capable of forcible entry.
Marine Aviation Plan
    The Marine Aviation Plan is designed to posture Marine Corps 
Aviation for future warfighting requirements in the near-term (2007-
2009), the mid-term (2010-2012) and the long-term (2013-2015). The 
Marine Aviation Plan addresses these challenges by restructuring the 
force and managing current aircraft procurement Programs of Record.
    We will rebalance our existing Assault Support and Tactical 
Aircraft (TACAIR) structure in the Reserve and active components in 
order to boost future HMH (heavy lift CH-53), HMLA (light attack UH-1 
and AH-1), and VMU (unmanned aerial vehicle) capacity. Increases to 
aviation manpower structure at the squadron, group, and wing levels 
will enhance operational readiness and better posture these units for 
combat operations and their transitions to the new H-1s, MV-22, F-35, 
KC-130J, and CH-53K. We will incorporate a fully functional and 
resourced Aircrew Training System that will align a new Training 
Transformation Plan to each Assault Support and TACAIR community as 
they transition to new aircraft in the coming years. Marine aviation 
command and control modernization will leverage our new aircraft 
capabilities by streamlining command and control functions and radar 
inventory to ensure aviation command and control remains agile, 
efficient, and responsive to the needs of the MAGTF across the spectrum 
of conflict. Marine aviation logistics process modernization applies an 
overarching approach to understanding readiness, related costs, and the 
removal of performance barriers with the goal of enhancing our 
warfighting capabilities while husbanding resources.
    The Marine Aviation Plan shapes the future of Marine Aviation to 
meet the diverse missions of today's and tomorrow's battlefields, and 
provides the MAGTF with improved capabilities, unit manning, and a 
thorough safety training system to better overcome known and 
foreseeable challenges. This plan sets in place tomorrow's Marine 
Aviation as a viable and efficient force in support of the MAGTF on the 
battlefield.
Joint Strike Fighter
    F-35 development is on track, and will act as an integrated flying 
combat system in support of our ground forces and will be the 
centerpiece of Marine Aviation. The manufacture of the first test 
aircraft--Conventional Take-off and Landing--(CTOL) variant--is well 
underway, assembly times are much better than planned, and exceptional 
quality has been demonstrated in fabrication and assembly. The first 
CTOL aircraft flew in December 2006. Five STOVL and six CTOL aircraft 
are currently in production. The JSF acquisition strategy, including 
software development, reflects a block approach. The F-35B Short Take-
Off/Vertical Landing (STOVL) variant is a fifth generation aircraft 
that will provide a quantum leap in capability, basing flexibility, and 
mission execution across the full spectrum of warfare. The Marine Corps 
remains committed to its vision of an all STOVL tactical aircraft 
force. Fulfilling this vision will best posture the Marine Corps to 
support our Nation and the combatant commanders, by enabling the future 
MAGTF to accomplish its expeditionary warfighting responsibilities.
MV-22
    The MV-22 is replacing the CH-46E and CH-53D aircraft. The CH-46E 
is over 40 years old, with limited lift and mission capabilities to 
support the MAGTF and the Long War. In September 2005, the V-22 Defense 
Acquisition Board approved Full Rate Production. To date, 29 Block A 
and 15 Block B aircraft have been delivered. Much like the F-35, the 
MV-22 program uses a three-block strategy in its procurement. Block A 
aircraft are training aircraft. Block B are operational aircraft. Block 
C aircraft are operational aircraft with mission enhancements. To date, 
the one V-22 Fleet Replacement Training Squadron, one test squadron, 
VMX-22, and two tactical VMM squadrons have stood up with the third 
tactical MV-22 squadron scheduled for March 2007. MV-22 Initial 
Operational Capability is scheduled for the summer of 2007 with a 
continued transition of two CH-46E squadrons per year thereafter. The 
MV-22's revolutionary assault support capability allows the MAGTF to 
maximize our capstone concept of Expeditionary Maneuver Warfare. Our 
forces in harm's way deserve the best assault support aircraft in the 
world--without question, the MV-22 is that aircraft.
KC-130J
    The KC-130J has continuously deployed in support of OIF since 
February 2005 and has provided the warfighter a state-of-the-art, 
multi-mission, tactical aerial refueling, and fixed wing assault 
support asset. The introduction of the aerial refuelable MV-22, 
combined with the forced retirement of the legacy KC-130F/R aircraft 
due to corrosion, fatigue life, and parts obsolescence, significantly 
increases the requirement for accelerated procurement of the KC-130J. 
Twenty-five new aircraft have been delivered, and the Marine Corps is 
contracted to procure a total of 45 aircraft by the end of fiscal year 
2013, with 4 KC-130J aircraft requested in the fiscal year 2008 budget. 
This is 6 aircraft less than the inventory objective of the 51 aircraft 
needed to support the operational requirements of MAGTF, joint, and 
combined forces. As the aviation workhorse of the MAGTF, the KC-130J's 
theater logistical support reduces the requirement for resupply via 
ground, limiting the exposure of our convoys to IEDs and other attacks.
CH-53K
    The CH-53K program has reached ``Milestone B'' status-initiation of 
system development and demonstration. The current fleet of CH-53E Super 
Stallion aircraft will reach its fatigue life during this decade. The 
CH-53K will deliver increased range and payload, reduced operations and 
support costs, increased commonality with other assault support 
platforms, and digital interoperability for the next 25 years. The CH-
53K is one of the elements that will enable the MAGTF and joint force 
to project and sustain forces ashore from the sea. A post Milestone B 
System Development and Demonstration contract was awarded in April 2006 
and IOC is planned for fiscal year 2015.
H-1 Upgrade
    The H-1 Upgrade Program (UH-1Y/AH-1Z) is a comprehensive program to 
resolve existing operational power margin issues, while significantly 
enhancing the tactical capability, operational effectiveness, and 
sustainability of the attack and utility helicopter fleet. The Corps' 
fleet of UH-1N Hueys is reaching the end of their useful life. Due to 
airframe and engine fatigue, the Vietnam-era Huey routinely takes off 
at maximum gross weight with no margin for error. This aircraft is long 
overdue for replacement; degrading our ability to support our marines 
in harm's way. Due to significant GWOT operational demands on the 
existing squadrons and aircraft attrition, the Marine Corps has adapted 
the ``build new'' strategy for the UH-1Y in fiscal year 2006 and our 
first two production aircraft have now been delivered. We are also 
examining a ``build new'' strategy for the AH-1Z to preclude 
significant inventory shortfalls. The H-1 Upgrade Program will be 
restructured pending a Defense Acquisition Board in March 2007.
Command and Control (C2) Harmonization
    The C2 harmonization strategy incorporates joint integrating 
concepts and C2 mandates, and is a holistic approach that integrates 
warfighter requirements into a common capability to deliver an end-to-
end, fully integrated, cross-functional set of capabilities including 
forward-deployed and reach-back functions. The strategy's end state is 
a seamless capability that crosses warfighting functions and supports 
marines from the supporting establishment to our marines in contact 
with the enemy, taking the best of emerging capabilities and joint 
requirements to build a single solution.
    The first step in this direction is the ongoing development of the 
Common Aviation Command and Control System (CAC2S). CAC2S fuses data 
from sensors, weapon systems, and C2 systems into an integrated 
display. It allows rapid, flexible operations in a common, modular, and 
scalable design by reducing the current five stovepipe systems into one 
hardware solution with streamlined equipment training. CAC2S will 
enable MAGTF commanders to control timing of organic, joint, or 
coalition effects, assault support, and ISR in their battlespace while 
operating within a joint task force. With CAC2S and C2 harmonization, a 
Joint Task Force Commander will discover that his MAGTF's battlespace 
offers maximum flexibility due to its seamless integration with joint 
and coalition partners.
Persistent Intelligence, Surveillance, Reconnaissance
    The persistent Intelligence, Surveillance, Reconnaissance (ISR) 
strategy is a component of the Marine Corps ISR-enterprise supporting 
marines across the spectrum of military operations. Its focus is the 
capability to integrate the network of air, ground, and space sensors 
with sufficient fidelity to detect, locate, identify, track, and target 
threats. This capability also reduces the effectiveness of improvised 
explosive devices (IEDs) through the identification of personnel, 
activities, and facilities associated with the manufacture and 
emplacement of IEDs. The network is enabled through unmanned aerial and 
ground systems, human intelligence exploitation teams, ground signals 
intelligence/electronic warfare, tactical fusion centers, and 
predeployment training programs. We continue to develop capabilities in 
coordination with the Joint IED Defeat Organization's point, route, and 
area targeting concepts. Some capabilities under development include 
unmanned aerial systems, unmanned ground sensors, wide field of view 
persistent surveillance (Angel Fire), and the Ground-Based Operational 
Surveillance System (G-BOSS). Angel Fire provides enhanced situational 
awareness and support to urban warfare, disaster relief, and other 
operations. The initial deployment of this capability is scheduled for 
late spring/summer 2007. G-BOSS is a force protection camera system 
that provides a 24 hour day/night persistent surveillance capability. 
The G-BOSS System of Systems concept is to integrate command and 
control; commercial off the shelf and government off the shelf sensors 
to ground, airborne, and space-based platforms. The military objective 
of G-BOSS is to detect, identify, and track insurgent activities, 
specifically associated with the emplacement of IEDs. The initial 
employment of autonomous camera tower systems has performed admirably 
in theater. The integration of a fully networked G-BOSS system of 
systems is anticipated to begin in spring/summer 2007.
Ground Mobility
    The Army and Marine Corps are leading the Services in developing 
tactical wheeled vehicle requirements for the joint force. The defined 
capabilities reflect an appropriate balance in survivability, mobility, 
payload, network enabling, transportability, and sustainability for the 
light tactical wheeled vehicle supporting the future joint force. The 
Army/Marine Corps Board has proven a valuable forum for coordination of 
tactical wheeled vehicle development and fielding, the production of 
Central Command armoring kits and up-armored HMMWVs, and rapid response 
to combatant commander's requests for Mine Resistant Ambush Protected 
vehicles. Additionally, the Army/Marine Corps Board has been the focal 
point for development of the joint requirements for a Joint Light 
Tactical Vehicle (JLTV) focused on providing protected, sustained, 
networked, and expeditionary mobility to the joint force in the light 
tactical vehicle weight class.
Mine Resistant Ambush-protected (MRAP) vehicles
    MRAP vehicles are designed with a ``V'' shaped hull and are 
employed to protect against the three primary kill mechanisms of mines 
and improvised explosive devices--fragmentation, blast overpressure, 
and acceleration. These vehicles provide the best available protection 
against improvised explosive devices and experiences in theater have 
shown that a marine is four to five times safer in a MRAP than in an 
uparmored HMMWV. There will be three categories of new near-term MRAP 
vehicles. Category I, a Mine Resistant Utility Vehicle, will 
accommodate up to six personnel and will be employed in urban 
operations. Category II vehicles are similar to Cougar/Joint Explosive 
Ordnance Disposal Rapid Response Vehicles, and will accommodate up to 
ten personnel, and will be multi-mission capable. Category III, Buffalo 
vehicles, will be used for route clearance and explosive ordnance 
disposal missions.
    The MRAP is an example of our adaptation to evolving threats. It is 
an attempt to acquire the very best technology available in the 
shortest amount of time in order to protect our marines. The USMC 
requirement is 3,700 MRAP vehicles and we are aggressively pursuing the 
acquisition of this rapidly emerging requirement.
Joint Light Tactical Vehicle (JLTV)
    In November 2006, the Army's Training and Doctrine Command and 
Marine Corps Combat Development Command, in collaboration with Navy, 
Air Force, and Special Operations Command representatives, received 
Joint Staff approval of the Ground Combat Forces Light Tactical 
Mobility Initial Capability Document, documenting joint forces' 
capability needs for the light tactical wheeled vehicle fleet. During 
December 2006, Army and Marine Corps combat developers staffed the JLTV 
Capability Development Document, defining requirements for the long-
term HMMWV replacement.
Marine Personnel Carrier (MPC)
    MPC development is on schedule. In January 2007, the Marine Corps 
staffed the Initial Capabilities Document, framed the Capabilities 
Development Document and initiated planning for the Analysis of 
Alternatives leading to a Marine Personnel Carrier material solution, 
moving toward an Initial Operational Capability in the 2012 timeframe. 
The MPC will possess a balance between performance, protection, and 
payload and will increase infantry battalion protected mobility and 
light armored reconnaissance battalion striking power. It will serve as 
a balanced expeditionary armored personnel carrier easily optimized for 
irregular warfare, but effective across the range of military 
operations.
M1114 HMMWV-Upgrade via Fragmentation Kit 2 and Fragmentation Kit 5
    The Corps' already fielded M1114 fleet is undergoing an upgrade 
with Fragmentation Kits 2 and 5. Fragmentation Kit 2 enhances ballistic 
protection in the front driver and assistant driver wheel-well. 
Fragmentation Kit 5 degrades improvised explosive device effects and 
reduces armor debris that results from overmatch. Installation of both 
Fragmentation Kits is underway, with anticipated completion in March 
2007. We will continue to evaluate the U.S. Army's objective kit 
development and share information and lessons learned. All new Marine 
Corps deliveries of M1114, M1151, M1152, and M1165 HMMWV's will have 
Fragmentation Kits 2 and 5 level capability integrated.
MAGTF Fires
    Several innovative systems related to fire support significantly 
enhance the warfighting efficiency and effectiveness of the MAGTF. Such 
systems include the M777 Lightweight Howitzer, High Mobility Artillery 
Rocket System, Expeditionary Fire Support System, Advanced Field 
Artillery Tactical Data System, and the Target Location, Designation, 
and Handoff system.
M777 Lightweight Howitzer
    The new M777 lightweight howitzer replaces the M198 howitzers. It 
can be lifted by the MV-22 Osprey and the CH-53E helicopter and is 
paired with the Medium Tactical Vehicle Replacement truck for improved 
cross-country mobility. The M777, through design innovation, 
navigation, positioning aides, and digital fire control, offers 
significant improvements in lethality, survivability, mobility, and 
durability over the M198 howitzer. The Marine Corps began fielding the 
first of 356 new howitzers to the operating forces in April 2005 and 
expects to complete fielding in calendar year 2009.
High Mobility Artillery Rocket System (HIMARS)
    The HIMARS fills a critical range and volume gap in Marine Corps 
fire support assets by providing 24-hour, all-weather, ground-based, 
indirect precision and volume fires throughout all phases of combat 
operations ashore. We will field 40 HIMARS (18 to the Active component, 
18 to the Reserve component, and 4 to the Supporting Establishment). 
When paired with the acquisition of Guided Multiple Launch Rocket 
System rockets, HIMARS will provide a highly responsive, precision fire 
capability to our forces in conventional as well as unconventional 
operations.
Expeditionary Fire Support System (EFSS)
    The EFSS will be the principal indirect fire support system for the 
vertical assault element of MAGTFs executing Ship-to-Objective 
Maneuver. It is a towed 120mm mortar and when paired with an internally 
transportable vehicle, will be transported aboard MV-22 and CH-53E 
aircraft. EFSS-equipped units will provide the ground component of a 
vertical assault element with immediately responsive, organic indirect 
fires at ranges beyond current infantry battalion mortars. Initial 
operational capability is planned during calendar year 2007, and full 
operational capability is planned for fiscal year 2010.
Target Location, Designation, and Handoff System (TLDHS)
    TLDHS is a modular, manportable equipment suite that will provide 
the ability to quickly acquire targets and digitally transmit data to 
supporting arms elements for attack, as well as designate targets for 
laser-seeking precision guided munitions and laser spot trackers. The 
system will be capable of providing target location within fifty meters 
and designating targets at 5,000 meters. TLDHS will be fielded to 
forward observer teams, naval gunfire spot teams, tactical air control 
parties, and reconnaissance teams. Block II, scheduled for fielding in 
late fiscal year 2007, will communicate with all Naval Strike aircraft, 
the AFATDS, and the Naval Fire Control System.
Counter-Sniper technology
    The Marine Corps Warfighting Laboratory is leading a four-pronged 
approach to counter the sniper threat. Focused on increasing our 
ability to sense and warn, deny, protect, and respond, we are 
leveraging the cooperative efforts of Defense Advanced Research 
Projects Agency, our sister Services, the Marine Corps Intelligence 
Activity, and the National Ground Intelligence Center.
    Future sense and warn capabilities may include optical, acoustic, 
and infrared detection and location. We are examining different 
obscurant technologies, while our protection effort focuses on 
improving individual armor and new tactics, techniques, and procedures. 
Detection of threat optics will provide indications and warning of 
impending sniper or IED attacks, and a predictive capability to avoid 
or engage prior to sustaining friendly casualties. One potential denial 
method is through use of glare aversion devices which apply a non-
injurious, but discomforting, bright light. Assessment of the response 
can help determine hostile intent, and the glare aversion effect may be 
effective in prohibiting a sniper from visually targeting friendly 
forces. Our response capability efforts include examination of counter-
sniper vehicles and the Defense Advanced Research Projects Agency's 
sniper rifle program. Finally, we are using experimentation to combat 
the sniper threat through advanced equipment and improved tactics, 
techniques, and procedures. Ongoing joint and interagency cooperation, 
coupled with industry collaboration, will shape our future experiments.
Secure Internet Routing Protocol Network
    The continuing evolution and maturation of network threats, along 
with the asynchronous nature of network intrusions and vulnerabilities, 
requires the Marine Corps to seek improvements in network defense. The 
Secure Internet Routing Protocol Network (SIPRNET) is a highly secure 
network, physically and logically separate from unclassified networks 
and the Internet. In the near future, we foresee greater reliance on 
the SIPRNET to enhance the security of Marine Corps war fighting and 
business operations. This effort will require additional resources, 
which will prove well worth the investment as we secure our networks 
and provide for better operational and force protection.
                 v. naval operating forces and concepts
    As the ``Arc of Instability'' is substantially a maritime domain, a 
naval force is uniquely suited to respond and provide forward-deployed 
expeditionary combat forces in response to crises. It is the Marine 
Corps' obligation to provide our Nation a naval force that is fully 
prepared for employment as a MAGTF operating across the spectrum of 
conflict. The Nation invests tremendous resources knowing that the 
ability to project power from the sea is a prerequisite for defending 
our sovereignty. To maneuver from the freedom of the seas provides 
timely and reliable response solutions to our Nation. In concert with 
the U.S. Navy, we support the Law of the Sea Convention, which 
preserves our ability to maneuver from the sea.
    As demonstrated by the Navy-Marine Corps responses to Hurricanes 
Katrina and Rita, tsunami relief in southern Asia, and noncombatant 
evacuation operations in Lebanon, maneuvering from the sea is a 
relevant capability possessing the flexibility to meet our country's 
needs both around the world and at home. Marines and sailors embarked 
from amphibious platforms provide asymmetric, sustainable, and rapidly 
responsive solutions to our combatant commanders.
    Working closely with our Navy and Coast Guard partners, we will 
advance the amphibious and expeditionary capabilities the combatant 
commanders rely on to meet their emerging challenges, strengthen 
concepts and training that enhance naval contributions to the Long War, 
and provide a naval force that is fully prepared for employment across 
the full spectrum of conflict.
Concepts to Capabilities
    In September 2006, the Navy and Marine Corps published a new Naval 
Operations Concept (NOC), which provides our unified vision for the 
future and broadly describes how naval power and influence can be 
applied at and from the sea, across the littorals, and ashore. In 
tandem, we revised our Marine Corps Operating Concepts (MOC) for a 
Changing Security Environment, incorporating our lessons learned and 
the unified vision provided in the NOC. Building on the conceptual 
foundation for littoral power projection provided in Operational 
Maneuver from the Sea, the Naval and Marine Corps Operating Concepts 
call for more widely distributed forces to provide increased forward 
presence, security cooperation with an expanding set of international 
partners, preemption of nontraditional threats, and a global response 
to crisis in spite of challenges to access. Collectively, these 
concepts provide the foundation for selectively conducting either 
distributed or aggregated operations.
    Due to changes to the security environment and the effects of 
globalization, the Navy, Coast Guard, and Marine Corps have all 
concurred with the need to reexamine our maritime strategy. Early this 
summer, we intend to produce a new maritime strategy in order to 
articulate the ways and means by which maritime forces will support the 
Nation's strategic ends in the new security era.
Amphibious Warfare Ships
    Amphibious warfare ships are the centerpiece of the Navy-Marine 
Corps' forcible entry and Seabasing capability, and have played an 
essential role in the Long War. These ships are equipped with aviation 
and surface assault capabilities, which coupled with their inherent 
survival and self-defense systems, makes them ideally suited to support 
a broad range of mission requirements. This survivability is critical 
to ensure the Nation has the widest range of response options. Not only 
must our naval forces maintain the ability to rapidly close, decisively 
employ, and effectively sustain marines from the sea, they must also 
respond to emerging Long War requirements, crisis response, and 
humanitarian assistance missions on short notice around the world.
    For forcible entry, the Marine Corps' requirement is a single, 
simultaneously-employed two Marine Expeditionary Brigade (MEB) assault 
capability. One MEB requires seventeen amphibious warfare ships; 
however, given the fiscally constrained environment, the Navy and 
Marine Corps have agreed to assume risk by only using 15. Historical 
amphibious ship availability rates dictate a minimum of 11 ships of 
each of the current types of amphibious ship--a minimum of 33 total 
ships--resulting in a Battle Force that provides 30 operationally 
available amphibious warfare ships. In that Battle Force, 10 aviation-
capable big deck ships (LHA/LHD/LHA(R)) and 10 LPD-17 class ships are 
required to accommodate the MEB's aviation combat element.
Amphibious Transport Dock (LPD)
    The LPD-17 San Antonio class of amphibious warfare ships represents 
the Department of the Navy's commitment to a modern expeditionary power 
projection fleet that will enable our naval force to operate across the 
spectrum of warfare. The Navy took delivery of the first LPD-17 in the 
summer of 2005 and operational evaluation is scheduled to begin in the 
summer of 2007. The LPD-17 class replaces four classes of older ships--
the LKA, LST, LSD-36, and the LPD-4--and will have a 40-year expected 
service life. LPD-17 class ships will play a key role in supporting the 
ongoing Long War by forward deploying marines and their equipment to 
respond to crises abroad. Its unique design will facilitate expanded 
force coverage and decreased reaction times of forward deployed Marine 
Expeditionary Units. In forcible entry operations, the LPD-17 will help 
maintain a robust surface assault and rapid off-load capability for the 
MAGTF far into the future.
Amphibious Assault Ship (Replacement) (LHA(R))
    The Tarawa class amphibious assault ships reach the end of their 
service life during the next decade (2011-2015). An eighth Wasp class 
LHD (multi-purpose amphibious assault ship) is under construction and 
will replace one Tarawa class ship during fiscal year 2008. In order to 
meet future warfighting requirements and fully capitalize on our 
investment in the MV-22 and Joint Strike Fighter, ships with enhanced 
aviation capabilities will replace the remaining LHA ships. These ships 
will provide enhanced hangar and maintenance spaces to support aviation 
maintenance and increased jet fuel storage and aviation ordnance 
magazines. The lead ship, LHA-6, is on track for detailed design and 
construction contract award during fiscal year 2007, with advanced 
procurement funds already provided in the fiscal year 2005 and 2006 
budgets.
The Maritime Prepositioning Force
    Our proven MPF--capable of supporting the rapid deployment of three 
Marine Expeditionary Brigades--is an important complement to our 
amphibious warfare capability. Combined, these capabilities provide the 
Marine Corps the ability to rapidly react to a crisis in a number of 
potential theaters and the flexibility to employ forces across the 
battlespace. The natural progression of this capability set, the 
Maritime Prepositioning Force (Future) (MPF(F)), is a key enabler of 
Seabasing and will build on the success of the legacy MPF program. 
MPF(F) will provide support to a wide range of military operations with 
capabilities such as at-sea arrival and assembly, selective offload of 
specific mission sets, and long-term, sea-based sustainment. The 
squadron will be capable of prepositioning the Marine Expeditionary 
Brigade's critical equipment and sustainment; but this capability does 
not constitute a forcible entry capability. The MPF(F) squadron 
composition decision was made by the acting Secretary of the Navy in 
May 2005; the program is currently in the technology development phase 
of acquisition, with a Milestone B decision planned in fiscal year 
2008.
High Speed Connectors
    High-speed connectors will facilitate the conduct of sustained sea-
based operations by expediting force closure and allowing the 
persistence necessary for success in the littorals. Connectors are 
grouped into three categories: intertheater, the Joint High Speed 
Sealift, which provides strategic force closure for CONUS-based forces; 
intratheater, the Joint High Speed Vessel that enables rapid closure of 
Marine forces and sustainment; and the Joint Maritime Assault 
Connector, to move troops and resources from the sea base to shore. 
These platforms will link bases and stations around the world to the 
sea base and other advanced bases, as well as provide linkages between 
the sea base and forces operating ashore.
Ship-to-Shore Mobility
    For decades, Marine power projection has included a deliberate 
buildup of combat power ashore. Only after naval forces fought ashore 
and established a beachhead would the MAGTF begin to focus its combat 
power on the joint force's operational objective. Advances in mobility, 
fires, and sustainment capabilities will enable greater penetration and 
exploitation operations from over the horizon, by both air and surface 
means, with forces moving rapidly to operational objectives without 
stopping to seize, defend, and build up beachheads or landing zones. 
The EFV, MV-22 Osprey, and CH-53K heavy lift helicopter are critical to 
achieving the necessary forcible entry capabilities of the future.
Expeditionary Fighting Vehicle
    The Marine Corps provides the Nation's joint warfighting forces 
with a unique, flexible, and effective capability to conduct forcible 
entry operations from the sea. The EFV, the Corps' largest ground 
combat system acquisition program, is the sole ground combat vehicle 
that enables projection of combat power from a sea base. It will 
replace the aging Assault Amphibious Vehicle that has been in service 
since 1972 and will become a complementary component of our modernized 
fleet of tactical vehicles that include the JLTV, the Marine Personnel 
Carrier, and the Internally Transportable Vehicle. The EFV's amphibious 
mobility, day and night lethality, enhanced force protection 
capabilities, and robust communications will help the joint force meet 
security challenges across the spectrum of conflict. The over-the-
horizon capability of the EFV will also enable amphibious ships to 
increase their standoff distance, no longer requiring them to close 
within the striking distance of many coastal defense systems in order 
to launch their amphibious assault platforms. The EFV will be 
specifically well suited to maneuver operations conducted from the sea 
and sustained operations in the world's littoral regions.
    The Marine Corps recently conducted a demanding operational 
assessment of the EFV. It successfully demonstrated most critical 
performance requirements, but the design complexities are still 
providing challenges to system reliability. To that end, we conducted a 
comprehensive requirements review to ensure delivery of the required 
capability while reducing complexity of the system where possible. For 
example, the human stresses encountered during operations in some high 
sea states required us to reevaluate the operational necessity of 
exposing marines to those conditions. Based upon this review, and a 
subsequent engineering design review, we will tailor final requirements 
and system design to support forcible entry concepts while ensuring the 
EFV is a safe, reliable, and effective combat vehicle.
Supporting Capabilities
    Logistics Modernization is the largest coordinated and cross-
organizational effort ever undertaken to transform Marine Corps 
logistics. A three-pronged improvement and integration initiative 
focusing on Marine Corps personnel, processes, and technology, 
Logistics Modernization is integrating and streamlining supply, 
maintenance, and distribution. As our roadmap for more effective and 
efficient expeditionary logistics, Logistics Modernization is 
multiplying our ability to support the MAGTF across the spectrum of 
conflict, in all environments and across all levels of theater 
maturity.
   vi. beyond the horizon--posturing the marine corps for the future
    History has proven that we cannot narrowly define the conditions 
for which our military must be ready. With little warning, our Nation 
has repeatedly called its Corps front and center--in the southern 
Pacific after Pearl Harbor, in Korea after the communist invasion in 
1950, in the mountains of Afghanistan after September 11, and in 
southern Asia in the wake of the catastrophic tsunami of 2004. Each of 
these strategic surprises demonstrates the broad range of possibilities 
for which the Marine Corps must be prepared.
    The Long War requires a multi-dimensional force that is well 
trained and educated for employment in all forms of warfare. 
Historically, our Corps has produced respected leaders who have 
demonstrated intellectual agility in warfighting. Our current 
deployment tempo increasingly places our Professional Military 
Education programs at risk. No level of risk is acceptable if it 
threatens the steady flow of thinkers, planners, and aggressive 
commanders who can execute effectively across the entire spectrum of 
operations.
The Future of Training and Education
    Looking ahead to the challenges of the Long War, we have enhanced 
our counterinsurgency capabilities while remaining vigilant that our 
MAGTFs must remain ready to launch robust forcible entry operations and 
succeed across the spectrum of conflict with our naval partner. With 
Marine forces so closely engaged in an irregular fight, we will have to 
take extraordinary steps to retain this ability to serve as the 
Nation's shock troops during major conventional combat operations. Your 
support of our training and education needs will allow us to remain 
faithful to our enduring mission: to be where the country needs us, 
when she needs us, and to prevail over whatever challenges we face.
The Training Continuum
    Some things remain constant--we continue to ensure that all 
marines, regardless of occupational specialty, gain the self-confidence 
and skills derived from our warrior ethos ``Every Marine a Rifleman.'' 
The experience at boot camp remains legendary; this transformation of 
young Americans is a national treasure--one that we must preserve and 
guard carefully. The core values of Honor, Courage, and Commitment--
imprinted on their souls during recruit training and strengthened 
thereafter--mark a marine's character for a lifetime. To reinforce this 
transformation, we have focused the emphasis of our officer and 
enlisted professional military education on combat leadership.
    Marine training is built along a continuum that is well defined, 
well structured, and of which we are extremely proud. Marines are 
forged in the furnace of recruit training and tempered by shared 
hardship and tough training. This transformation process begins the day 
they meet their recruiter, who introduces them to the concept of total 
fitness: body, mind, and spirit. It continues through their common 
experiences at Recruit Training and its Crucible, and Marine Combat 
Training. It moves on to skill training at one of our schools or at a 
sister Service school. It culminates with assignment to an operational 
unit with its own demanding training, where a powerful bond of trust 
develops between fellow warriors as they experience the rigors of 
combat against a diverse and adaptive foe.
The Infantry Battalion Enhancement Period Program (IBEPP)
    Long War operations have significantly increased our training 
requirements. Marines must now train to a broader range of skills; 
however, due to high operational tempo, we face ever-decreasing 
timetables for marines to achieve mastery of these skills. Our first 
major initiative to maximize effective use of available time was the 
establishment of a standardized and well-defined Pre-deployment 
Training Program. To bolster home station training, we took an 
additional step by establishing the IBEPP. The primary goal of the 
IBEPP is to facilitate better small unit leader training within the 
infantry battalion. Highlights of the IBEPP include expanded quotas for 
rifle squad leader courses (sergeants) and a new tactical small unit 
leader course focused on fire team leaders (corporals). Additionally, 
we have updated our School of Infantry curriculum to incorporate the 
additional equipment added to our new infantry battalion table of 
equipment and increased the instructor base at our Schools of Infantry 
to support the new IBEPP.
Expansion of our Weapons and Tactics Training Program
    We find ourselves in a cycle of rapid innovation of weapons and 
tactics with our enemies. This cycle challenges the creativity and 
knowledge of staff officers in our ground and combat logistics 
battalions who must direct training programs or staff combat 
operations. Our aviation squadrons experienced this during the Vietnam 
conflict. To address those challenges, we created the Weapons and 
Tactics Training Program to develop and field a cadre of aviators with 
advanced understanding of weapon and tactical innovations as well as 
the concepts and requirements to train other aviators to adapt to these 
trends. This program placed prestige on training expertise and now 
provides an effective means by which Marine Aviation stays current on 
battlefield innovations. We will soon apply the fundamentals of that 
program to our ground staffs. The ground and logistics Weapons and 
Tactics Training Program will produce ground marines expert in training 
and warfighting functions who will improve their units' ability to 
fight. Though we are assessing detailed requirements, we anticipate 
this effort could require up to 150 instructors, and increased demands 
on combined arms ranges, artillery and aviation units, simulation 
centers, and suites of operations center equipment.
Marine Corps Lessons Learned Management System
    This adaptive enemy requires us to have a responsive and 
collaborative dialogue across the Corps. Our interactive and effective 
lessons management system promptly captures and disseminates the 
lessons being learned by our marines and sailors in complex combat 
actions around the globe. Our web-based lesson input support tool--
selected by the Joint Staff last year to serve as the Department 
standard--guides this learning process. Capitalizing on the 
institutional agility that has been a hallmark of our success, last 
year we implemented changes in such areas as crew-served weapons use, 
tactical questioning, evidence gathering procedures, command and 
control equipment training and procedures, civil-military operations, 
and detainee handling.
Center for Advanced Operational Culture Learning
    An example of adaptation for the Long War includes our Center for 
Advanced Operational Culture Learning, which we established during May 
2005 and recently reached its full operational capability. Both officer 
and enlisted marines now receive education in the operational aspects 
of culture at nearly every phase of their career development. This 
year, the Center is establishing Language Learning Resource Centers at 
our eight largest bases and stations. These centers provide language 
instruction using mobile language training shelters and contracted 
professional language trainers. These efforts support the Defense 
Language Transformation Roadmap increasing our interoperability with 
partner nations around the globe. We are also expanding our Foreign 
Area Officer program, creating language and culture experts from all 
occupational specialties who can be integrated into Marine units 
deployed worldwide. We thank Congress for its support in this venture, 
as recent supplemental funding has proved instrumental to this effort.
Advisor Training
    During 2006, we institutionalized the structure, resources, and 
equipment to advance the individual skills and education of marines 
selected to serve as advisors to partner military units. Our Security 
Cooperation and Education Training Center had already trained over 50 
deploying advisor teams during 2004 and 2005. This formal establishment 
allowed us to increase our efforts, as we trained 77 advisor teams 
during 2006. Additionally, we expanded advisor skills with upgrades to 
training in such areas as foreign weapon handling, medical procedures 
and survival, evasion, resistance, and escape. This year we are 
establishing a Civil Military Operations Center of Excellence within 
this Center, as the Marine Corps' focal agency for civil-military 
operations training and education.
Training MAGTFs
    Our continuing adaptations and investments in Core Values are 
checked once more prior to deployment with a series of unit mission 
rehearsals. These exercises occur during the culminating block of our 
formal Predeployment Training Program, which we expanded during 2004 to 
serve all deploying MAGTFs. These mission rehearsals present all 
deploying personnel with increasingly complex situations designed to 
replicate the confusing swirl of combat on a complex battlefield. Role 
players, many of whom are Iraqi-Americans, portray battlefield 
civilians and insurgents alike, presenting exercise-worn marines with 
sudden ``shoot-don't shoot'' decisions and forging within our marines a 
sense of common cause with the civilians they will soon protect. The 
culmination of our pre-deployment training consists of three distinct 
exercises: Mojave Viper, Desert Talon, and Mountain Warrior--each 
specifically tailored to the deploying unit's destination combat 
environment.
    During 2006, we continued to modify this program with expanded 
training in force escalation and with increased integration of 
logistics combat units. To better prepare marines to counter the threat 
of improvised explosive devices, we added more training devices, built 
new ranges, and employed electronic warfare specialists at our 
rehearsal sites. This year we are focusing our enhancements on the 
training of advisor teams and of MAGTF staffs by increasing the use of 
simulation. Our planned improvements promise to deliver Marine forces 
ready to more effectively meet the emerging challenges faced by the 
Combatant Commanders as a naval force in readiness in joint, combined, 
and interagency operations.
Modernization of Training Ranges
    With the support of Congress, we also recently began the most 
ambitious modernization of our training ranges since World War II. From 
larger and more realistic urban training facilities to increased 
opportunities to evaluate advanced air-ground coordination, we have 
significantly improved the realism, safety, and capacity of our ranges 
and training areas. While our immediate focus has been to acquire 
infrastructure and modern technology, our long-term investment is in 
people, largely civilian, to both operate and maintain these facilities 
and to form the critical training cadres capable of maintaining the 
realism our MAGTFs require. Your continued support of our range 
modernization efforts, as well as the support for the Department's 
programs to ensure future access to adequate sea, air, and land space 
for our training ranges, remains vital to our ability to prepare for 
the challenges of the future with our joint, coalition, and interagency 
partners.
Marine Aviation Training Systems Program
    The Aviation Training Systems Program (ATSP) plans, executes, and 
manages Marine Aviation Training to achieve individual and unit combat 
readiness through standardized training across all aviation core 
competencies. Through the ATSP, Marine Aviation develops aircraft 
systems that enhance operational readiness, improve safety through 
greater standardization, and significantly reduce the life cycle cost 
of maintaining and sustaining aircraft.
Core Values and Ethics Training
    During this past year, we also reviewed our efforts to instill in 
marines those core values necessary to guide them correctly through the 
complex ethical demands of armed conflict. We have ensured that every 
marine, at every phase of the training continuum, studies ethical 
leadership, the Law of War, escalation of force, and Rules of 
Engagement. Our entry-level training first presents these concepts in 
the classroom, and then tests for proper application of these 
principles under stressful field exercises. We further reinforce 
confident, ethical decision-making through the Marine Corps Martial 
Arts Program that teaches our Core Values and presents ethical 
scenarios pertaining to restraint and proper escalation of force as the 
foundation of its curriculum. We imbue our marines with the mindset 
that ``wherever we go, everyone is safer because a US marine is 
there.''
Building Esprit and Warrior Pride
    The Marine Corps dress blue uniform is as legendary as the marines 
who wear it. However, while this well-known uniform is one of the most 
admired uniforms in the world, owning one is out of the reach of most 
enlisted marines--it simply costs too much for them to buy on their 
own.
    No marine should be denied the honor of wearing this symbol of more 
than two centuries of bravery and sacrifice. Therefore, I have ordered 
that every marine recruit now be issued a dress blue uniform before 
they graduate from boot camp, and all enlisted marines are to receive 
an appropriate clothing allowance so that they are able to purchase and 
maintain a dress blue uniform. They have earned this privilege.
   vii. improve the quality of life for our marines and our families
    Enhancing Individual Survivability-Personal Protective Equipment. 
The Corps will continue to pursue technological advancements in 
personal protective equipment--our marines deserve nothing less. Fully 
recognizing the trade-off between weight, protection, fatigue, and 
movement restriction, we are providing marines the latest in personal 
protective equipment--such as the Modular Tactical Vest (MTV), Quad 
Guard, Lightweight Helmet, and Flame Resistant Organizational Gear.
Body Armor
    Combat operations in Iraq and Afghanistan have highlighted a need 
to evolve our personal protective vest system. Therefore, in February, 
we started transitioning to a newly designed MTV. This vest is 
virtually the same weight as its predecessor, the Outer Tactical Vest, 
but it more easily integrates our other personal protection systems. It 
provides greater comfort through the incorporation of state-of-the-art 
load carriage techniques that better distributes the combat load over 
the torso and onto the hips of the marine. The acquisition objective 
for the MTV is 60,000 systems, with anticipated completion of 
deliveries in December 2007. The MTV also incorporates our existing 
Enhanced Small Arms Protective Inserts (E-SAPI), and Side SAPI plates. 
These plates are currently provided to every marine in theater. The E-
SAPI provides the best protection available against a wide variety of 
small arms threats, to include protection against 7.62mm ammunition 
threats.
QuadGard
    The QuadGard system is designed to provide ballistic protection for 
a marine's arms and legs when serving as a gunner on convoy duty. This 
system, which integrates with other personal ballistic protection 
equipment such as the MTV, Enhanced SAPI, and Lightweight Helmet, 
reduces minimum standoff distances from the marine to ballistic 
threats, particularly improvised explosive device fragmentation.
Lightweight Helmet
    We are committed to providing the best head protection available to 
our warfighters. The lightweight helmet weighs less than its 
predecessor, and provides a high level of protection against 
fragmentation threats and 9mm bullets. We now require use of the pad 
system as study results demonstrated it provides greater protection 
against nonballistic blunt trauma than the sling suspension system. We 
are retrofitting more than 150,000 helmets with the pad system and have 
already fielded enough helmet pads for every deployed marine. Beginning 
in January, all lightweight helmets produced by the manufacturer are 
now delivered with the approved pad system installed.
Flame Resistant Organizational Gear (FROG)
    In February, we began fielding FROG to all deployed and deploying 
marines. This life saving ensemble of clothing items--gloves, 
balaclava, long-sleeved fire resistant shirt, combat shirt, and combat 
trouser--is designed to mitigate potential injuries to our marines from 
flame exposure. These clothing items provide protection that is 
comparable to that of the NOMEX combat vehicle crewman suit/flight 
suit.
    With this mix of body armor, undergarments, and outerwear, 
operational commanders can determine what equipment their marines will 
employ based upon mission requirements and environmental conditions.
Taking Care of our Marines and Their Families
    Just as every marine makes a commitment to the Corps and the Nation 
when they earn the title marine, we make an enduring commitment to 
every marine and Marine family. Marines are renowned for ``taking care 
of our own.'' Part of taking care of our own means we will provide for 
marines and their families through appropriate pay and compensation, 
housing, health care, infrastructure, and community services. Strong 
congressional support for many administration initiatives has made 
possible the significant investments required to improve each of the 
components of quality of life. This support requires continuous 
assessment to ensure that it is both sufficient and relevant, 
particularly during war. These programs must be on a wartime footing to 
seamlessly sustain our marines and their families for the duration--
long past the redeployment of our marines and sailors.
    We are scrutinizing the support for our marines and their families 
to ensure our family support programs remain on a wartime footing--
particularly those that assist in integrating civilian, military, 
charitable, and Veterans Affairs programs. This support targets both 
marines who suffer from the physical costs of this war, and those who 
carry unseen scars--those suffering from Traumatic Brain Injury (TBI) 
and Post-Traumatic Stress Disorder (PTSD). As I testified in my 
confirmation hearing, I feel strongly that these wounds of war should 
be characterized as any other wound--and our commitment to those 
marines who suffer from these ailments will not falter.
    We continue to aggressively monitor post-deployment mental health 
screenings, suicides, domestic violence, and divorce rates. Marine 
commanders and noncommissioned officers at every level are charged to 
monitor these indications closely and to stay engaged on these issues. 
Our Casualty Assistance, Marine For Life, and Combat/Operational Stress 
Control Programs continue to be the frontline of support to our wartime 
efforts.
Casualty Assistance
    Each fallen marine is a tragic loss to the survivors, the Corps, 
and our Nation. We endeavor to honor their sacrifices with sincerity 
and commitment. Our Casualty Assistance Calls Officers are trained to 
treat next of kin and other family members as they would their own 
family. Rendering casualty assistance begins with the basic tenet that 
there is no standard casualty call; each case is distinct, as families 
grieve in different ways. Assistance to surviving families is 
individually tailored to facilitate their transition through the stages 
of grief and the completion of the casualty assistance process.
Wounded Warrior Regiment
    While the support to our Marine Corps and families has been 
exceptional, I intend to increase this support through the creation of 
a Wounded Warrior Regiment. This new regimental headquarters will 
provide centralized oversight of the care for our wounded marines and 
assist in the integration of their support with military, Department of 
Veterans Affairs, charitable, and civilian systems. The regiment will 
have a battalion headquarters on each coast, commanded by officers 
personally selected by me. My criteria for this leadership will be 
rigorous, as I will seek to select only those officers with previous 
command experience. My staff is reviewing the fiscal program 
requirements for this unit now--to include facilities, manning, and 
support requirements. I view this initiative as a personal priority to 
fulfill our commitment to these valiant Americans.
Traumatic Brain Injury (TBI)
    As the quality of individual combat armor has increased, so have 
the number of blast survivors and Marines with TBI. Mild to moderate 
traumatic brain injuries can be difficult to diagnose and yet can cause 
changes in personality, cognition, and memory that significantly impair 
a service member's ability to make the life and death decisions 
required of them while in a combat environment. TBI and PTSD have many 
symptoms in common, and TBI can co-occur with PTSD. Recent measures to 
mitigate the impact of traumatic brain injuries to individual marines 
and their units include the release of a medical guidance letter from 
the Medical Officer of the Marine Corps outlining proper diagnosis and 
treatment strategies.
Post-Traumatic Stress Disorder (PTSD)
    The science of diagnosing and treating PTSD continues to evolve. 
The Marine Corps Combat Development Command, Training and Education 
Command, Naval Health Research Center, and others are studying ways to 
identify risk and protective factors for PTSD and to increase our 
resilience to stress. By improving the awareness of both individuals 
and our leaders, we can provide early identification and psychological 
first aid to those who are stress-injured. Better screening and 
referral of at-risk marines is underway via pre- and post-deployment 
standard health assessments that specifically screen for mental health 
problems. Navy Medicine has established new Deployment Health Centers 
with additional mental health providers readily available to treat PTSD 
and other combat stress injuries. The Department of Veterans Affairs 
and the Department of Defense have established comprehensive guidelines 
for managing Post-Traumatic Stress, which are available to all 
services. The Marine Corps, Navy Medicine, and Veterans Affairs have 
coordinated a Seamless Transition program to help our Marine veterans 
move smoothly into the Veterans Affairs treatment system to get the 
help they need and deserve. In addition, Veterans Affairs Readjustment 
Centers at 209 communities around the country now provide mental health 
services for eligible active and discharged veterans and their 
families.
Combat/Operational Stress Control
    Battlefields are familiar territory for marines--we train marines 
to excel in chaotic and unpredictable surroundings. Yet all marines 
will experience combat/operational stress to some extent, as transient 
symptoms for most, but as persistent stress injuries for others. 
Managing combat stress is vital to the operation of the Marine Corps as 
a fighting force and the long-term health and well-being of marines and 
their families. All deploying marines receive warrior preparation, 
transition briefs, and health assessments. In addition, mental health 
professionals or specially trained medical officers brief marine 
leaders on the prevention and management of adverse stress reactions. 
We have also implemented the innovative Operational Stress Control and 
Readiness (OSCAR) program, which embeds mental health providers with 
ground forces. OSCAR provides early identification and treatment of 
combat/operational stress problems, attempts to defeat the stigma of 
combat stress, and overcomes the barriers to care.
    The Combat/Operational Stress Control deployment cycle resources 
for families include the Family Deployment Support Program. The 
program's components consist of Family Readiness Days, family crisis 
support services, Return and Reunion Briefs for spouses, and building a 
sense of community among our military families.
Marine For Life
    The Marine For Life Injured Support program assists seriously and 
very seriously injured marines, sailors who served with marines, and 
their families. This program bridges the gap between military medical 
care and the Department of Veterans Affairs by providing individualized 
support through the transition period.
    Individual case tracking and enduring support for our injured 
marines and sailors complements the Office of the Secretary of 
Defense's Military Severely Injured Center, which enables the program 
to provide around-the-clock injured support service. Marine For Life 
provides support tailored to an individual's needs, including pre- and 
post-service separation case tracking, assistance with the physical 
evaluation board process, and an interactive website that acts as a 
clearinghouse for all disability and benefit information. The program 
also provides employment assistance through a preexisting Marine For 
Life network that establishes local coordination with veterans, public, 
private, and charitable organizations that provide support to our 
injured warriors.
    In April 2005, Marine For Life integrated Marine Corps and 
Department of Veterans Affairs' handling of Marine cases by assigning a 
marine field grade officer to the Department of Veterans Affairs 
Headquarters' Seamless Transition Office. This integrates marines into 
the Department of Veterans Affairs system and provides service 
oversight of Veterans Health Administration care and Veterans Benefits 
Administration benefits delivery. The Marine For Life program provides 
the direct point of contact for problem resolution for marines within 
the Veterans Administration system.
Military Construction-Bachelor Enlisted Quarters Initiative
    Bachelor housing is my top military construction priority for 
Program Objective Memorandum 2008. Barracks are a linchpin in the 
quality of life for our single marines. With the help of Congress, we 
have tripled the funding for bachelor housing from fiscal year 2006 to 
2007, and if the President's request is funded, we will double the 2007 
funding in fiscal year 2008. We are funding barracks' furnishings on a 
7-year replacement cycle and prioritizing barracks repair projects to 
preempt a backlog of repairs. Our $1.7 billion barracks investment plan 
in support of a 175,000 marine end strength provides adequate billeting 
for our unmarried junior enlisted and noncommissioned officer marines 
by 2012.
Public Private Venture Family Housing
    Our efforts to improve housing for marines and their families 
continue. Thanks to continuing congressional support, the Marine Corps 
will have contracts in place by the end of fiscal year 2007 to 
eliminate all inadequate family housing.
                            viii. conclusion
    This Nation has high expectations of her Corps--as she should. Your 
marines are answering the call around the globe, performing with 
distinction in the face of great hardships. As they continue to serve 
in harm's way, our moral imperative is to fully support them--we owe 
them the full resources required to complete the tasks we have given 
them. Now more than ever they need the sustained support of the 
American people and Congress to simultaneously maintain our readiness, 
reset the force during an extended war, modernize to face the 
challenges of the future, and fulfill our commitment to marine 
families. On behalf of your marines, I extend great appreciation for 
your support to date and thank you in advance for your ongoing efforts 
to support our brave countrymen and women in harm's way. I promise you 
that the Corps understands the value of each dollar provided and will 
continue to provide maximum return for every dollar spent.

    Chairman Levin. General, thank you for your statement and 
again to all of you for your service.
    Let me first start with the question about the 2007 and the 
2008 supplementals. Let me ask you both, Admiral and General, 
whether or not the supplementals adequately fund your 
requirements to support the war effort. Admiral, let me start 
with you.
    Admiral Mullen. Yes, sir, they do. They are very heavily 
focused, obviously, on the flying hours and steaming days and 
the area of equipment particularly support for Seabees, whose 
equipment, we are running through pretty quickly, as well as 
the manpower support. So the supplemental request is adequate 
in that regard.
    Chairman Levin. Thank you.
    General?
    General Conway. My response is the same, sir. It is 
adequate. We will include some of our end strength growth and 
as a byproduct of that, some equipment. We will put some of it 
toward the MRAP Vehicles again to get them in the hands of our 
troops as soon as possible.
    Chairman Levin. Thank you both.
    By the way, we are going to have an 8-minute first round 
here.
    Secretary Winter, the LCS program has had some real 
problems. It was supposed to be a relatively inexpensive 
program. It was supposed to be a relatively quickly delivered 
program. But we have cost growth which is significant and 
apparently the Service changed its requirements after the 
design and construction contract was signed.
    Why did that happen? We have had so much experience with 
changes in the requirements after contracts have been entered 
into. Why was that allowed to occur here?
    Secretary Winter. Sir, I believe that there was in general 
an overly optimistic view of what could be accomplished. That 
said, we are still getting a first lead ship here in a lot 
shorter time period than we normally have. However, that over 
optimism has created some obvious issues in terms of decisions 
to proceed forward before the requirements were fully 
definitized and we are now having to deal with the consequences 
of that.
    Chairman Levin. What actions are we taking to avoid that or 
correct that?
    Secretary Winter. I think, sir, first of all in terms of 
the LCS, we are working very hard to enhance the Navy's 
oversight of the activity. We have added personnel both to the 
program office and also to the supervisor of shipbuilding that 
has the responsibility of directly overseeing the activities at 
the shipyards. We have also worked very hard to complete the 
definitization of the requirements and design development 
process and we are at the very end, I believe, of that aspect 
of it. We are also using a negotiation of the contract type to 
force both the Navy and the contractor to come to final 
agreement on a number of these items.
    Chairman Levin. The EFV was projected to enter production 
this year. Now we are going to have to go back into research 
and development (R&D) for 4 years more if that program is 
continued. Apparently the vehicle design was too fragile and 
unreliable. That should have been foreseeable and preventable. 
Apparently the program manager got a major promotion just 
before the real status of this project became known via 
testing.
    What is going on? Why don't we start with you, Mr. 
Secretary?
    Secretary Winter. I think again we have an issue here where 
the program got going in an overly optimistic form. I think 
there was an objective to try to bring this program in for 
dollars which were not achievable. The net of that was that 
certain basic systems engineering functions that should have 
been performed at the beginning of the program were not 
undertaken. The net result is we wound up having a design that 
did not have a firm basis in particular for some of the 
reliability and maintainability objectives that are core to 
this program.
    We are now in the process of having to go back into the 
design and develop the appropriate models, and undertake the 
appropriate systems engineering activities to see whether or 
not we can in fact convert the current configuration into a 
configuration that will provide us with the reliability and 
maintainability that is core to this program.
    Chairman Levin. Is there any accountability for these 
failures?
    Secretary Winter. Sir, one of the things that we are going 
to have to take a look at is exactly how we got into this 
situation. We have been doing that on the LCS. We have not yet 
done that on EFV, but it is my intention to do that there as 
well.
    Chairman Levin. Will you keep this committee informed on an 
ongoing basis of both of those reviews?
    Secretary Winter. Most definitely, sir.
    Chairman Levin. Servicemembers with a disability that is 
rated 30 percent or higher, as you all know, qualify for 
medical retirement. Those with less than 30 percent are 
separated with severance pay and the consequences are very 
significant, particularly in terms of family health care. The 
Center for Naval Analysis reviewed the disability ratings of 
all of the Services and they report that 26 percent of airmen 
determined to be unfit for duty received disability ratings of 
30 percent or higher. The other Services award ratings of 30 
percent or more to far, far fewer servicemembers. The Army 
awards this rating 4.3 percent of the time, the Navy 4.1 
percent of the time, and the Marines only 2.7 percent of the 
time.
    I am wondering, Mr. Secretary, is there an explanation for 
why the Marine Corps number is less than the Navy's number? 
Also, can you explain why both the Navy and Marine Corps 
numbers are so far below the Air Force number?
    Secretary Winter. Sir, this is an area that we are still 
trying to get our hands around in terms of the overall 
assessment. We do use a common board approach and we have been 
going through to reassess that board approach, both in terms of 
what is known as the ``informal'' and the ``formal'' board 
aspects. I think we have gone a long way in terms of 
understanding how to move through the process in a fairly 
expeditious manner, but I do not have a specific answer to you, 
for you today in terms of those differences. We will be working 
towards that end, however.
    Chairman Levin. We are going to have a hearing with the 
Senate Veterans' Affairs Committee and one of the issues that 
is going to come up is this issue. So we would hope in the next 
2 weeks that you would have that answer ready for us.
    Secretary Winter. We will work to that end, sir.
    Chairman Levin. Thanks.
    We have been using sailors in lieu of the shortfall of 
persons who are trained to do the specialties that these 
sailors are now engaged in. As of February 2007, 12,000 Navy 
personnel were engaged on the ground in the CENTCOM and 79 
percent of the personnel on the ground are deploying and 
supporting ground forces in their traditional military 
specialties, such as base and port operations support, medical 
services, and explosive ordnance disposal. But the others are 
being used for convoy security or for detention facility 
guards. They are performing well, but using sailors outside of 
their primary military duties must have an impact on both the 
institutional Navy as well as on individual servicemembers.
    Admiral, how would you describe the pace and scope of 
sailors being used in lieu of ground combat forces for those 
types of assignments in Iraq and Afghanistan?
    Admiral Mullen. Mr. Chairman, this is something that I have 
made a priority from the standpoint of supporting the ongoing 
effort for the country. In my travels in theater, I would tell 
you first of all that the sailors I have seen in the 
performance of these duties are very proud of what they do and 
they know they are making a big impact. They are also highly 
praised by the ground forces from both the Marine Corps and the 
Army.
    In addition, this is not just Navy. I think you are aware 
that the Air Force is also doing this as well.
    Clearly it is pressure on us as an institution but I do not 
consider myself close to red lines yet with respect to that. In 
fact, today it is over 13,000 sailors that are on the ground 
and over 5,000 specifically who are in Iraq.
    We also have some particular skills. Prison security 
capability is a natural skill for us, so that maps literally 
100 percent. We have some technical skills that have made a 
huge difference with respect to improvised explosive device 
(IED), countering the IED problem.
    But from a philosophical standpoint, I come at this having 
grown up through Vietnam and knowing what long deployments can 
do. This is the fight we are in right now and I want to provide 
as much relief as I can. I am comfortable that the training 
they are getting before they go and that the missions they are 
performing are well within their capability to perform.
    Chairman Levin. Thank you.
    Finally, General Conway, can you assure us that deploying 
marines will be fully equipped and trained before they enter 
combat in Iraq?
    General Conway. Absolutely, sir. There is a five-phased 
training program that all of our deploying units have to 
experience before they are deployed. Based upon the recent 
surge operations, we have had to rework some schedules in order 
to be able to make that happen. But it is a service requirement 
that no marine or sailor deployed with our units will go 
overseas without those kinds of experiences.
    Chairman Levin. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. This is the third 
time in a row that I have imposed upon Senator Warner to allow 
me to go first, and I thank him very much. I will make it much 
shorter than I otherwise would.
    Senator Warner. We both serve on the Senate Environment and 
Public Works Committee, where you are the ranking member, and 
you have a lot of work.
    Senator Inhofe. Yes, that is right.
    Senator Warner. I congratulate you on getting that 
legislation out this morning.
    Senator Inhofe. It is very significant. Thank you, Senator 
Warner.
    Back during the 1990s, I was pretty stressed out over what 
China was doing, not just with nuclear weapons but also the 
conventional forces. At the same time we were downsizing 
substantially, in the 1990s, they actually increased their 
procurement by 1,000 percent. Now, when you look at what is 
going on right now with what they are doing with their navy, 
one example you would have is, we have around 55 fast attack 
submarines and they are projected to go down during the next 20 
years. At the same time, China, it is my understanding, will be 
outproducing us about seven to one.
    Now, I think that is accurate information. Do you agree 
with that?
    Admiral Mullen. They are certainly outproducing us. I am 
not sure on the ratio.
    Senator Inhofe. Does this really concern you?
    Admiral Mullen. Yes, sir, it does. The amount of their 
investment concerns me and what they are doing with their navy, 
and the technology they are investing in, concern me. That is a 
very important part of the world. We need it to be stable. We 
have a strong presence there. We will continue to do that.
    Senator Inhofe. I am glad you said the technology because 
qualitatively we have been superior, but they are making 
headway.
    Admiral Mullen. Yes, sir, they are. That is very evident to 
us. They are also making headway operationally. We see them 
operating better than they were just a few years ago. So the 
issue and I think it has been discussed widely, is that their 
strategic intent here is not clear and more transparency is 
important. One of the things we are doing is engaging them more 
militarily to try to understand, to have relationships. 
Additionally, we try to understand where they are headed.
    Senator Inhofe. Yes, because it is not just in your end, 
Mr. Secretary.
    Admiral Mullen. No, sir.
    Senator Inhofe. It is in terms of strike vehicles and 
everything else. They are very aggressive right now. In fact, I 
think they are probably greater than our published figures.
    General Conway, you probably know that we took a vote just 
a few minutes ago on the MRAP and I am sure that pleased you. 
You had written a letter to General Pace saying that the MRAP 
could reduce our casualties by 80 percent. That is a pretty 
high amount. I guess the amount to get us to that point would 
be over $4 billion; is that correct?
    General Conway. Sir, I want to qualify the statement to the 
degree that it is understood completely. Against the same 
blast, riding in an uparmored Humvee, which is currently the 
gold standard in Iraq----
    Senator Inhofe. Which is flat.
    General Conway. Yes, sir, it has a flat and arguably even 
concave bottom, which in some cases exacerbates the blast. 
Against the same blast, marines, sailors, and soldiers who are 
riding in the vehicle, are judged to be 400 percent less likely 
to sustain death or injury. I think that is where the figure of 
80 percent comes from and it was a little more clarified in the 
letter.
    Senator Inhofe. That is good. Let us stay on top of that, 
because obviously that is something we want to do and it took a 
major step today.
    I want to comment also on what you said about the two-
thirds reenlistment rate. I have had occasion to spend a lot of 
time with your people up around Fallujah and other places and 
it is just incredible what they are doing. I wish the media 
were a little more aware of that. Maybe you can help us in that 
respect.
    Thank you very much, Mr. Chairman, and thank you, Senator 
Warner.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks to the three of you for your service. It is good to 
see you again.
    Admiral Mullen, before I get to the budget I want to ask 
you a couple of questions about what is happening in the 
Persian Gulf now. Obviously, we are all following closely and 
with great concern the status of the British sailors who were 
seized. Do we have any independent evidence as to whether the 
two British boats were in Iranian water, as the Iranians claim, 
or not, as the Brits claim?
    Admiral Mullen. We are aware that the Brits have said they 
were not in Iraqi territorial waters.
    Senator Lieberman. Right. Based on the presence of two 
carrier battle groups of ours in the Persian Gulf and watching 
what is happening there, were you surprised by the Iranian 
seizure of these two British boats?
    Admiral Mullen. I guess I was not surprised from the 
standpoint of the actions of the Republican Guard Navy. The 
Iranian navy is made up of two separate and distinct groups. 
What I do not know is to what degree that was sanctioned. I do 
not have a feel for that at all, quite frankly.
    It is a very tight water space. It is an area that has been 
disputed for decades and centuries. There was an accord, the 
Algiers Accord, in 1975, to which the Iranian and Iraqi 
governments did not agree, so that there is a dispute up there 
in these very tight waters and that certainly lends to the 
difficulty of sorting this out.
    The Stennis, which is the second carrier strike group 
recently deployed, actually has been in the area for weeks and 
has transited into the Gulf in recent days, and the exercise 
that is ongoing there really is a training exercise to improve 
our capability as well as provide the kind of signal that it 
was originally intended to, which is one of strength and 
stability, and support of our allies and friends there. That is 
a part of the world that really needs to be stable. They are 
training in the middle of the Gulf. They are not up near the 
north, where the problem occurred.
    Senator Lieberman. Are we doing anything different since 
the seizure of the two British boats to avoid the same?
    Admiral Mullen. We are always mindful of these kinds of 
possibilities. There have been a significant number of Iranian 
incursions into these waters in recent weeks, months, and 
years. So we are certainly mindful of the possibilities. This 
obviously, as an incident like this always does, sharpens your 
edge considerably.
    Senator Lieberman. Sure.
    Admiral Mullen. But certainly it has always been a concern.
    Senator Lieberman. Just one more brief question and it is 
worth coming back for a separate hearing perhaps. As we face 
the real threat that Iran represents to us, as we listen to 
people in the square in Teheran shouting ``Death to America'' 
and we begin to try to understand their military capabilities, 
what you said I think is probably little appreciated not only 
by the American people, but by us here. We have now become 
familiar with the fact that the Iranian Revolutionary Guard is 
in Iraq training and equipping, et cetera. We know that it is a 
unique group, an elite group, but not a small group. I gather 
that it is well over 100,000 and reports to the Supreme Leader, 
Ayatollah Khameini.
    But you are telling us something else, which is that in 
some sense there is a separate Iranian Guard Navy, separate 
from the other navy.
    Admiral Mullen. Yes, sir, that is correct. It has been that 
way for a long time. We understand a lot more about the 
activities of the regular Iranian Navy than we do, quite 
frankly, about the Iranian Revolutionary Guard Corps Navy in 
terms of either predictability or routine operations and 
exercises.
    Senator Lieberman. I would like to come back to that on 
another occasion.
    I have a concern about the submarine program. You mentioned 
the number of 48 nuclear-powered subs as a minimum. We are on a 
path now in construction to go down to 40 by around 2020. There 
is a group of us in both chambers that would like to move the 
year in which we go to two submarines a year from 2012 forward 
to 2010. The money is not in this budget.
    Am I correct to conclude, Mr. Secretary, that if you had 
the money you would like to do this as well?
    Secretary Winter. Sir, I think first of all we are hopeful 
to be able to reduce the cost of these submarines. As you 
recall, we are running about $2.4 billion in 2005 dollars per 
submarine. We are looking to be able to take that down about 
$200 million based on the economic order quantity and about 
$200 million based on design improvements which are currently 
under way.
    We think the most cost effective way of doing that is to go 
through that process, which we believe we will be able to 
achieve consistent with the 2012 two-a-year production rate 
program. I would just note two other aspects, one of which is 
that, as we go into the ramp-up from one-a-year to two-a-year, 
we do need to precede this by 2 years in terms of advance 
procurement activities, principally associated with the reactor 
power plant.
    Senator Lieberman. Right.
    Secretary Winter. So we have a process where we have to go 
through and ramp this up. I am also very concerned that we do 
this and stabilize it. I do not want to go to two-a-year for a 
year and then back to one-a-year and then back up to two-a-
year.
    Senator Lieberman. Yes, no one wants that. I gather in the 
House that there is some significant movement toward funding 
the reactor core development on a time line to get to two 
submarines by 2010. But you are absolutely right, it does come 
down to dollars. We do not want to start it and ramp up and 
then have to ramp down.
    Secretary Winter. Yes, sir.
    Senator Lieberman. That would be bad for everybody.
    I want to ask you one more question about the sub program. 
The RAND Corporation recently did a study that concluded that 
extending design on the next generation submarine from 15 to 20 
years will result in up to a 20 percent savings over the long-
term by maintaining an experienced labor pool and the 
industrial base.
    The fiscal year 2008 shipbuilding plan does accelerate the 
start of construction on the replacement of the Trident class 
submarine from 2022 to 2019, but there is no initial funding in 
it. I intend to try to add, not a large amount of money, 
perhaps $25 million, to the budget to begin the design on the 
new class of Trident submarine to meet the 2019 date. Do you 
have an opinion on that at this point?
    Secretary Winter. Senator, one of the things that I have 
been trying to do is to ensure that our SSBN replacement 
program has the proper systems engineering ahead of it. There 
is a whole set of processes. The only reason for the SSBN is to 
be able to carry the strategic missiles, and the only reason 
for the missiles is to be able to carry the warheads. So we 
need to make sure that we understand exactly what it is that we 
are going to try to do with this deterrent force in the future, 
what type of deployments, what type of targets, what type of 
ranges and accuracies we will need with those missiles, what 
options we have for the missiles themselves, and what 
implications that has for the submarines.
    One of the things I have been working to do here is to 
establish the appropriate early partnership with Strategic 
Command to be able to engage in the type of early-on systems 
engineering which will let us go and take the first steps 
towards the development of appropriate designs for a future 
SSBN that are consistent with the future vision of what we need 
for a deterrent force.
    Senator Lieberman. I appreciate your answer. My time is up. 
I look forward to working with you on these two initiatives to 
maintain the vitality of our submarine fleet and our submarine 
base over the long term.
    Thank you, all three of you, very much. Thanks for the 
extraordinary service that your folks in uniform are giving in 
the war on terrorism.
    Secretary Winter. Thank you, sir.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    I would like to associate myself with my colleague's 
remarks with regard to the submarines. We are very proud that 
our shipyard in Newport News is a full partner in that program. 
I am optimistic that we can go to the two submarines. You say 
that you hope to achieve it through cost savings. Can you put a 
little earmark on that money so it does not stray out of that 
submarine account and drift over into another account? Is that 
agreed to here?
    Secretary Winter. Yes, sir.
    Senator Warner. Thank you very much. Keep those funds 
there.
    I also was quite interested in my colleague's questions to 
the Admiral about the Iranian situation and our ships offshore. 
I really view those ships as performing the traditional mission 
of deterrence. We very carefully, as a consortium of nations 
under the banner of NATO, did precisely that with the Warsaw 
Pact. When questions are asked about the use of force in Iran, 
it seems to me before we ever get to the serious consideration 
of the use of force, we should simply pursue the deterrence 
concept of ringing Iran with ships and perhaps other military 
assets, just as a reminder. The presence alone, the old gunboat 
diplomacy, has a very remarkable impact on normal diplomacy. It 
would be helpful if ships from other nations that are similarly 
affected by the threats that Iran poses through its nuclear 
weapons production concept could join so that we begin to have 
more of a NATO-type appearance and it is just not the United 
States.
    I am coming back to your first words, Admiral, which you 
uttered when you came in here. You threw up a cautionary sign 
on your retention and you simply said, appropriately, we are 
looking into it. Could you share with us some of the early 
signs that concern you? Is there a shift in retention that is a 
reflection of the understandably serious divisive consternation 
across this land with regard to the current operations?
    Admiral Mullen. I do not know yet if that is part of the 
reason, Senator Warner. This is the first time in about 7 years 
that we have seen our first-term retention dip below 50 
percent. Our goal is 50 percent and we have been between 50 and 
60 since 2000. It has been a remarkable level of achievement. 
In fact, I set out both recruiting and retention as a priority 
for us. So literally, the data just got to me within the last 
couple of weeks.
    There is a piece of this that I do not quite understand 
yet, which is that we are seeing a larger number of sailors 
request extensions as opposed to reenlisting right now. Some of 
that historically is tied to their ability to get into a combat 
zone and reenlist for the tax-free benefit, which certainly 
they are deserving of and brings them a lot more cash when they 
reenlist.
    So we are really pulling this apart. Also, there is a very 
slight dip in our second-term retention. So we are certainly 
seeing these indicators. It is the first time. It is what I 
have been very wary of, just because I have been here awhile 
and I have seen this certainly go in cycles. So we are working 
to try to understand the details of it.
    Senator Warner. I have to move on. I am delighted that you 
are going to general quarters.
    Admiral Mullen. Yes, sir.
    Senator Warner. This is a very critical situation.
    Admiral Mullen. Yes, sir.
    Senator Warner. When I was in the building during Vietnam, 
I began to see some of the recruiting and retention reflected 
because of the public concern about that conflict. We have to 
track that and track it instantly.
    Now, General Conway, I listened to you carefully. I have 
gone back and re-read your statement. You seem not to be 
experiencing that problem; is that correct?
    General Conway. Sir, that is correct. We annually target 
about 25 percent for retention. Actually, with our growth we 
are moving that figure up to 33 percent, and we still have a 
high level of optimism that we will be able to meet those 
figures.
    Senator Warner. Good. The Navy has, as the Admiral 
mentioned, some 4,000 white hats and officers in country now in 
Iraq?
    Admiral Mullen. 5,000.
    Senator Warner. 5,000.
    Admiral Mullen. Yes, sir.
    Senator Warner. So you are certainly doing that. You have a 
much larger contingent which is performing in the finest 
traditions.
    Admiral Mullen. About 26,000 right now, sir, with the 
turnover taking place.
    Senator Warner. Quickly again, let us go to the Secretary. 
The U.S. accession to the Law of the Sea Convention, in your 
prepared testimony you support it?
    Secretary Winter. Yes, sir.
    Senator Warner. Does the administration intend to seek 
Senate approval or ratification this year?
    Secretary Winter. I believe we are working toward that end, 
sir.
    Senator Warner. All right, I am glad. I think it is 
important that we move along on that.
    Now, to the Commandant and then to the Secretary. 
Commandant, you have quite appropriately, I believe, responded 
to concerns that I and others had with regard to Marine Corps 
Base, Quantico, which corrected the flight safety deficiencies 
on your ramps. You have now put that on your unfunded 
requirements, is that correct?
    General Conway. That is correct, sir.
    Senator Warner. I will personally see whether or not we 
cannot move that through. I have gone in and out of that little 
air strip many a time in my lifetime.
    General Conway. Very functional, sir.
    Senator Warner. I think it is important to do that. I thank 
you very much.
    Now, on the Navy shipbuilding, Admiral. The affordability 
of the Navy program and our ability to meet your plan of 313 
ships. CBO estimates $20 billion per year, $5 billion greater 
than the Navy's budget estimate. In other words, you have set 
your goals and the CBO has set their goals. They are not 
consistent. What can we do to help you?
    Admiral Mullen. I think the CBO continues to put pressure 
on the system and I think that is a healthy thing. It is 
interesting that in the discussion, for instance, about the 
design base for SSBNs one of the challenges that we have in 
reconciling the two is just our assumptions about how many we 
are going to have and when we are going to have them. One of 
the changes that is on the right-hand side of the shipbuilding 
program in the out-years, the 2020s and 2030s, is that we have 
changed some numbers there so there actually is some additional 
cost that has gone up.
    But in the new SSBN force, we for example imagine having 
just the number of ships that we need because we will have 
cores which will last the life of the ship. That clearly is not 
going to require us to have two additional SSBNs, which we have 
right now.
    The affordability piece comes in great part into focus 
because of LCS. I really do want to applaud Secretary Winter 
for his leading the efforts to pull us through a very thorough 
understanding in what was a high-risk program, very demanding 
schedule, and focusing us on requirements. We have to make sure 
we do not change the requirements. We have to make sure we 
oversee it correctly, not just us but also on the industry 
side. So we have learned a lot. We are going to take those 
lessons and put it into our other major programs to make sure 
we are within bounds.
    Senator Warner. I only bring it to the attention of you two 
gentlemen. I do this in a very straightforward, professional 
way, nothing personal about it. I have noted of recent, and I 
have had the privilege of working with many Secretaries of 
Defense, the current Secretary of Defense moved swiftly, 
courageously, and decisively on the issue of accountability. 
Program managers do their best, but there are those who oversee 
program managers, and I hope both you and the Admiral handle 
the situation in a way that there is full accountability in the 
eyes of Congress and others.
    Secretary Winter. I fully understand, sir.
    Senator Warner. Good.
    The new medical centers at Bethesda and Fort Belvoir. 
Yesterday I endeavored to put in an amendment to the current 
appropriations bill which simply said that we should maintain 
Walter Reed as best we can and put it into terms of a first-
class military facility, but not amend the Base Realignment and 
Closure (BRAC) law. I feel very strongly that if we cannot go 
in for the first time in five BRAC laws and try to change it, 
although this program at Walter Reed has a lot of merits to it, 
there are many other Members of Congress here who feel that 
their BRAC decisions are equally meritorious and then it puts 
in jeopardy another BRAC round. May it not happen on my watch, 
but anyway it is somewhere in the future. I will let Chairman 
Levin and Senator McCain write the next BRAC law. I have 
written five of them.
    So let us be cautious. I believe what we should do is 
accelerate the funding for the planned and proposed incremental 
improvements at Bethesda. I say plans; I am not sure they are 
in full force yet. Now, we are not going to address Belvoir, 
but there was a comparable situation. We can accelerate the 
funding so that those two physical structures can be ready to, 
on the BRAC schedule, receive from Walter Reed those components 
that are to be integrated at the different sites.
    Do you feel that that is an appropriate program, Mr. 
Secretary?
    Secretary Winter. Sir, there are two points here that I 
would offer. First of all, we do believe that there is value to 
combining Bethesda and Walter Reed and that having that 
integrated capability enables many of the critical skills and 
the unique specialties there to reach a critical mass of 
capability and will avoid some of the back and forth use of the 
facility by many of the casualties that are coming back right 
now.
    I would suggest, sir, that relative to the acceleration 
opportunities there, there probably are some opportunities to 
accelerate the process of the new facility. I just would 
caution that it not be done in such a way that we give short 
shrift, if you will, to the requirements development process.
    Senator Warner. All right. Would you provide for the 
committee, and mark it to the chairman's attention and he will 
see that I get it, your proposals with regard to what is 
feasible by way of acceleration? What are the costs associated 
and what if any do you feel are the advantages of doing that, 
namely to make that facility ready at the time the BRAC 
decision says Walter Reed has to phase out?
    Secretary Winter. I would be pleased to do that, sir.
    Senator Warner. That would avoid, I hope, a change in the 
law or a necessity to do so. But we must always put care for 
our wounded and care for our Active and retired community as 
the top priority. So let us work within those constraints.
    Lastly on the question of aircraft carrier basing and 
Mayport. I have been following with interest the Navy's 
assessment of the strategic home porting and dispersal options 
for the Atlantic fleet surface ships. I believe it is important 
that all factors be considered in any large operational move, 
to include not only environmental concerns, but also national 
security requirements, the impact on the sailors, and so forth.
    What is the current status and the way ahead for the 
current Naval Air Station (NAS) Mayport Environmental Impact 
Study (EIS)?
    Secretary Winter. Sir, we have proceeded on the EIS 
activity there. We are undergoing the initial phases of that. 
We are doing this in such a way as to encompass all options 
that have been contemplated or considered for the use of 
Mayport, and we are also doing it in such a way as to ensure 
that we factor in all aspects of the proper tradeoffs there, as 
we are required to do in terms of the assessment of 
alternatives that accompanies any EIS.
    Senator Warner. At what point in time do you feel that 
could be through?
    Secretary Winter. I believe we are targeting to the January 
2009 time period for record of decision.
    Senator Warner. Admiral Mullen, on the assessment of the 
NAS, Oceana, I am going to give a question to you because my 
time has moved along. But I am anxious to know where that 
matter's status is now.
    If you would answer this question for the record.
    Admiral Mullen. Yes, sir, we will do that.
    Senator Warner. I think it is important that we continue to 
give reassurance to the people in that community to maintain 
their commitments in order to bring that base into a greater 
operational safety and have less adverse impact on the 
community and fleet operations.
    Admiral Mullen. Yes, sir.
    Senator Warner. I thank you for the manner in which you 
have handled that thus far. It has not been an easy issue. I 
will put this one into the record.
    [The information referred to follows:]

    [See questions for the record #58 and #59.]

    Senator Warner. Mr. Chairman, thank you very much.
    Senator Lieberman [presiding]. Without objection. Thanks, 
Senator Warner.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    I thank you gentlemen for your service to our country as 
well and to all the marines and sailors that are under your 
commands.
    This would be a question to Admiral Mullen and to Secretary 
Winter. With respect to the retrofitting of the SSBN fleet, in 
some cases to conventional weapons, what priority would you 
give that within your budget and your overall priorities?
    Secretary Winter. Sir, I think we have prioritized that 
very highly. We have three out of the four boats returned to 
service and the work on the fourth boat is proceeding according 
to schedule. Sir, are you talking SSGN or are you talking----
    Senator Ben Nelson. No, the Trident.
    Secretary Winter. Oh, I am sorry, sir. My apologies. I was 
thinking of the SSGN conversion program.
    Our discussions with Strategic Command have indicated that 
there is a lot of advantage to being able to provide a greater 
diversity of options for the President in terms of a rapid 
response and strategic capability. It is clear from a technical 
point of view that we can accomplish this through modifications 
of the Trident missile, and we believe that this can be done in 
a low risk manner and in a short period of time and we are 
ready to proceed on that, subject to the authorizations and 
appropriations.
    Senator Ben Nelson. Would that SSBN be as high a priority 
as the SSGN, or how have you prioritized these retrofittings?
    Secretary Winter. The SSGN, as I started to say, has 
proceeded on through most of its activities. It is at the final 
stages of completion of that activity. So I do not see this as 
being in competition, if you will, from a funding point of 
view.
    Senator Ben Nelson. General Cartwright has testified and 
has spoken to me privately as well about the importance of this 
conversion. Senator Sessions and I and others tried to get this 
done in the last go-around, but we were unsuccessful. I hope we 
will be far more successful with the authorization this time.
    This is a question for General Conway. In your written 
testimony you note that the Marine Corps has approximately 
4,000 marines affected by the pending plus-up operation in 
Iraq. Of course, these marines are going to be a vital asset to 
the operation, essential as we all know, and of course we wish 
them well and we hope that they will be able to accomplish 
their mission both safely and effectively.
    You also note that the affected units will be extended for 
45 to 60 days. Now, depending on the length of the plus-up in 
Iraq, will the Marine Corps be able to progress towards 
establishing a one to two deployment-to-dwell ratio goal? Every 
7 months a marine is deployed, will they be back at their home 
station for 14 months? How are we going to make that goal work 
with the current situation?
    General Conway. Sir, the eventual goal, of course, is to 
try to get to one to two--7 months deployed, 14 months home. 
The addition of the two infantry battalions, potentially the 
Marine Expeditionary Unit in Iraq, for this plus-up, of course, 
heads us in the other direction. So although we will continue 
to build infantry battalions and some of these critical units 
that are impacted by a high deployment to dwell ratio, it will 
take us time, growing at roughly 5,000 marines a year, to be 
able to have that kind of impact.
    Senator Ben Nelson. Will the growth of the marine end 
strength help take some of the pressure off this operational 
tempo for the marines?
    General Conway. Absolutely, sir, in that we are looking at 
which units are most heavily impacted and we are building those 
units first.
    Senator Ben Nelson. But it will take quite a while to bring 
the training of the new recruits up to the level that it will 
provide any help soon. Are you concerned about the training 
level of the troops? Are we having to train them faster than we 
would prefer to train them so that we get their efforts put in 
place?
    General Conway. Senator Nelson, there is a built-in 
safeguard there, in that we will simply not deploy units that 
are not readiness category 1, across the board. It takes us 
about 5 months out of a 7-month cycle to be able to achieve 
that. But we are drawing a red line. We will simply not deploy 
units if they have not accomplished all of their training and 
those things that we expect them to have before they are 
deployment-ready.
    Senator Ben Nelson. With respect to the new armor 
protection that you testified about earlier, how soon will we 
have that kind of protection for our force?
    General Conway. Sir, we have some of it now. The Secretary 
and his procurement personnel have engineered eight other 
potential contractors that can provide a similar class vehicle 
for us. As we sit here today, tests are taking place at 
Aberdeen to make sure that these vehicles are blast-resistant 
as well as able to provide the expected road miles that we 
would have to have off the vehicles. Assuming success there, 
they are going to go on to full rate production contracts as 
soon as we can get them there. So we expect that, if all things 
go well, we could have thousands of these vehicles in the 
theater by the end of the year.
    Senator Ben Nelson. Now, that might be for IEDs, but what 
about for the penetrating explosive that is being used today?
    General Conway. Sir, probably we should not talk too much 
about that in open session, except to say that we are making 
advancements there as well with regard to technologies that can 
defeat that type of system.
    Senator Ben Nelson. Finally, for Admiral Mullen and General 
Conway. What individually are your three top budget priorities 
this go-around? Admiral Mullen?
    Admiral Mullen. The top for me, Senator Nelson, is to 
continue to support the shipbuilding program, the stability 
there, and the investment there. I talk about making sure we 
have it right for our people, that our readiness stays high, 
but at the top of that heap has been and will continue to be to 
build the fleet for the future, to get to 313 ships.
    Senator McCain pointed out that last year we had 281 ships. 
This year we have 276. By the end of this year we will actually 
have started going upwards as opposed to continuing down and be 
at 279. So we are on track. It has to be affordable and I 
understand that. That really is top priority.
    Part of that is also how I stabilize my aviation plan as 
well. I need a long-term stable plan, not unlike what I have in 
shipbuilding. So that is really at the top of the heap and 
there are lots of pieces inside that. We have to make sure we 
have a robust industrial base, which is a real challenge for us 
right now. Those are national treasures for us. We have to get 
the investment right in that. Stability in this plan is key to 
that, and then everybody has to perform, the contractors and 
the Government, together.
    Senator Ben Nelson. Your personnel reduction, is that 
occurring at the rate you would prefer it?
    Admiral Mullen. Yes, sir, it is. We have come down. We are 
in our 4th year this year, in 2007, of about 10,000 a year. 
There is a proposal for another 12,000. I told the committee 
last year at this hearing that I needed to go figure out what 
the end state would be. We have done that. We think we will be 
between 320,000 to 325,000 as we flatten out.
    I remain concerned that overall in the budget sense that we 
as institutions have to come to grips with how we are going to 
continue to pay for these personnel costs which continue to 
rise at a very high rate. I have been flat in my personnel 
accounts in terms of investment because we have been coming 
down, but that is going to disappear in the next 2 to 3 years 
and I will experience that same kind of inflation.
    Senator Ben Nelson. It is amazing how a budget looks good 
when you are going out of business. But you do not want to go 
out of business.
    Admiral Mullen. No, sir.
    Senator Ben Nelson. General Conway?
    General Conway. Sir, you took care of, I think, my most 
urgent concern this morning, and I thank you for that vote. I 
think that will be very helpful in terms of the moral 
imperative we have for taking care of our people.
    Beyond that, as we grow the force, we would like to see 
those personnel costs into the top line as soon as we can. We 
are contracting people for 4 years at a time and it gets 
difficult if we have to look to year-to-year appropriations in 
order to be able to sustain that.
    I would share the CNO's observations on a strong fleet. The 
Marine Corps needs that kind of support, particularly as it 
relates to the amphibious ships. We believe that we probably 
have to have 33 amphibious ships to have 30 available at any 
time. So we will work with the Navy over the out-years to see 
exactly how we accomplish that.
    We also see, and I think the chairman mentioned it in his 
opening statement, that there is a bathtub out there with 
regard to strike aircraft. In the not-too-distant future, we 
are going to be short some 40 to 50 aircraft, and that will 
only be exacerbated if we continue to move Joint Strike Fighter 
right. That is the generation of aircraft we have long awaited 
now and we would like to see that program kept on line as much 
as possible.
    Senator Ben Nelson. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin [presiding]. Thank you, Senator Nelson.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. It is my 
understanding that Senator Thune has a time constraint, so I am 
going to ask that you recognize him before me, even though I am 
just dying to ask my questions.
    Chairman Levin. We are dying to hear them, but Senator 
Thune?
    Senator Thune. Mr. Chairman, I will not be long.
    I want to thank the Secretary and the Admiral and the 
General for their service and for their leadership. I am not 
going to be able to stay for the duration of the hearing, but I 
do have some questions I would like to submit for the record 
and get your response to them. So I would ask unanimous consent 
that I be able to do that.
    Is anybody there to say ``without objection''?
    Senator Collins. Without objection.
    Senator Thune. I thank my colleague.
    Chairman Levin. Whatever it was, it is granted.
    Senator Thune. Thank you, Mr. Chairman.
    Senator Collins. Mr. Chairman, since that only took about 
30 seconds, may I proceed, or do you want to recognize Senator 
Reed?
    Chairman Levin. Senator Reed has graciously acknowledged 
that 30 seconds does not count and therefore Senator Collins is 
next.
    Senator Collins. Thank you very much, Mr. Chairman.
    First let me commend all three of you for your strong 
leadership and your outstanding service to your country. I very 
much appreciate your hard work and service.
    Admiral Mullen, I have been concerned for some time about 
the impact of the transition from the DDG-51 class of 
destroyers to the new DDG-1000 class of ships. We need to avoid 
schedule slippages in order to avoid a gap in the workload that 
could have a significantly adverse effect on our skilled 
industrial base. We do not want to have a workload that has a 
big gap in it and thus we lose those highly skilled workers and 
cause problems in our capacity.
    Two years ago this committee asked the Navy to evaluate 
this issue and the Navy reported that Navy and industry 
assessments of workload projections suggested that the 
transition had the potential to negatively impact workload at 
the shipyards. But the Navy went on to say that we are 
confident we can manage that transition and maintain the 
viability of the surface combatant industrial base.
    What is your current judgment of our ability to avoid the 
kind of gap in the workload that could hurt the industrial 
base?
    Admiral Mullen. I think the concern as it was a couple of 
years ago, is well-founded, in the sense that transitions are 
always difficult. You more than just about everybody else know 
how difficult it is to move on from the DDG-51. I have been an 
advocate for some time, to get to the new capability and the 
new technology and really a 21st century Navy. So I think it is 
vital that we continue to press on.
    Clearly at the center of that is the viability of the DDG-
1000 program. We have taken extensive looks at this over the 
last couple of years, because of the risk that has been in that 
program. I am confident at this point that, with what we know, 
that it is going to be on schedule. At the same time, it is at 
a very delicate time when you are going to design and you are 
really going to start building, and there are historical 
challenges with the first of a class, as there have always 
been.
    So we are mindful of all that, back to the lessons that we 
have learned in LCS, to try to make sure we rope them, as much 
as they apply, into the DDG-1000 program, and very mindful, as 
I spoke earlier, that this is a national treasure. We have to 
treat it well. We need to invest in it. There needs to be a 
plan that can sustain itself, which I think goes to a healthier 
work force in the long run.
    So it is a consideration in all of our deliberations to 
make sure we get this right.
    Senator Collins. Thank you.
    There is a lot of discussion about the higher cost of the 
DDG-1000 and what is often overlooked in that discussion is the 
tremendous cost savings that result from the smaller crew size 
for the DDG-1000 versus the old DDG-51. Could you comment on 
the potential cost savings from being able to operate this new 
cutting-edge destroyer with a substantially smaller crew?
    Admiral Mullen. We have a tendency in Washington to focus 
on what it takes to build it now and then worry about what you 
are referring to, which is life cycle costs, which we all have 
to pay, down the road. So it is an investment in technology 
which will greatly reduce the life cycle cost in lots of ways, 
including a much smaller crew size.
    We talked earlier about the expense of our people. Our most 
important resource, our number one priority, is our people and 
will remain so. But this will require many, many fewer sailors 
to man her and sail her and fight her. So that is a big deal.
    This is a program that underpins the shipbuilding, 
industrial, technological base. We did not have that 5, 6, or 7 
years ago. In fact, in the specific costs, if you look at the 
cost of the last DDGs at the end of the production line, which 
is 1980s technology, we were still at $1.5 billion. So a lead 
ship would be $3 billion. It is not $5 billion, as was 
indicated in one of the newspaper articles this morning. To get 
to the technology and the kind of investment that we need is 
not as overwhelming in terms of expense in my mind as it could 
be.
    We are on track at this point to bring it in at that and 
then to get that cost down closer to $2 billion, which I think 
is a significant goal, and it will be a great accomplishment 
when we get there.
    Senator Collins. I agree and thank you for clarifying that 
issue.
    Secretary Winter, we have talked many times about the 
challenges of allocating work load across the four public yards 
that the Navy has. I am very proud of the one in Kittery, 
Maine, the Portsmouth Naval Shipyard, which the BRAC Commission 
cited as being the gold standard for public shipyards.
    Recently, Admiral Sullivan briefed the Maine and New 
Hampshire delegations on the Navy's latest shipyard business 
plan for 2008 through 2013 and I know you have been personally 
very involved in this and I want to thank you for spending so 
much time. I am, however, concerned that the Navy's shipyard 
business plan does not fully take into account the 
specializations that have been developed by the various 
shipyards. For example, our shipyard in Maine is known for its 
proficiency in work on attack submarines. By contrast, Norfolk 
specializes more in surface combatants and aircraft carriers.
    Are you taking a look at the efficiencies, the 
specializations, and the expertise developed by various 
shipyards, as you make those allocations?
    Secretary Winter. Yes, Senator. While it may not have 
appeared explicitly in our long-term strategic plan for the 
public yards, it is clearly an implicit part of the 
optimization that we have incorporated into our future strategy 
for assignment of availabilities to the yards. What we are 
trying to do is be able to effect the greatest availability for 
the lowest cost that we can for the fleet. Given the 
specialization, that does affect, if you will, the time frame 
that it takes, as well as the cost, of undergoing certain 
modifications, upgrades, and basic maintenance tasks at the 
various yards. That will be, in fact, an explicit factor in the 
consideration and the assessment of the assignment of the 
ships.
    Senator Collins. Thank you.
    I look forward to working with all of you as we proceed. I 
again want to congratulate you all for a very good budget 
proposal that I think is in our national security interest and 
helps move us forward. Thank you.
    Secretary Winter. Thank you.
    Senator Reed [presiding]. Thank you very much, Senator 
Collins.
    Gentlemen, welcome. Admiral, in the spirit that not enough 
good things can ever be said about submarines, let me follow up 
some of the questions that Senator Lieberman raised. Do you 
feel confident that the submarine shipbuilders are going to 
meet your goal of $2 billion per submarine? I think that was 
the confidence of the Secretary. Do you feel that?
    Admiral Mullen. Yes, sir, I am. Actually, part of my 
confidence is what I see as a dramatic shift in their 
commitment to getting there. They believe it is possible. They 
believe we are going to put two submarines in in 2012. We have 
stayed with that. That has affected a big shift in the way they 
are approaching this problem, and they are on track right now.
    Senator Reed. Part of the confidence is a result, I think, 
of some factors. One is the design for affordability R&D 
investment that is being made. Is that critical? I think the 
Secretary mentioned that.
    Admiral Mullen. Yes, sir, that is critical.
    Senator Reed. There is also the commitment, because of 
these innovations, to reduce the construction cycle from about 
84 to 60 months. That is another part.
    Admiral Mullen. Yes, sir. Also, actually regarding the 
concern that we have had about this reduction to 40 submarines 
in the out-years, one of the potential gap-fillers in that is 
to reduce the 72-month build time, which is where we are right 
now, down to 60 months. That in combination with an extra 
deployment out of a hull or two, dramatically reduces that gap.
    Senator Reed. One other factor is the multiyear procurement 
authority that you have.
    Admiral Mullen. Yes, sir.
    Senator Reed. One other factor is the multiyear procurement 
authority that you have, which allows you essentially to buy 
particularly significant components ahead and in a certain 
degree begin to build a second ship, perhaps a virtual second 
ship, while you are building officially one ship, if that is 
accurate.
    Admiral Mullen. Yes, sir.
    Senator Reed. Thank you very much.
    You raised the issue just in your response, Admiral, about 
the sufficiency of the fleet. With 313 ships overall and 48 
attack submarines, that allows about 10 ships to be forward 
deployed on a day-to-day basis. However, it is my understanding 
that the combatant commanders always dial you up and ask for 
more, upwards to 18 if they could have them, and that raises 
the number. Is 48 the right number?
    Admiral Mullen. Yes, sir, 48 is the right number. We looked 
at that extensively, as we understand the world right now. The 
issue that gets adjudicated in the combatant commanders' 
requirements request, is that they have been fulfilled to about 
the 95 percent of the apportioned availability of the 
submarines in particular. I have also engaged them at my level 
and they are very comfortable with what they have right now.
    Backing those 10 up is a surge capability of a significant 
number of submarines if we had to move forward.
    Senator Reed. We run into a scenario, though, between 2020 
and 2033 where we drop to 40 boats. Actually, in the 2028-2029 
year we are at 40 boats, which is significantly low and puts at 
risk, I think, even the projected plans of the moment.
    Admiral Mullen. Yes, sir, I understand that, and that is 
why getting to two a year is important. In addition to that, we 
have just completed a study which looks at other ways to 
mitigate this, which fills that gap up--building Virginia 
faster, getting additional deployment out of some of the 
submarines that have core life left, and looking at other ways 
to do that--that gets me, quite frankly, down to a gap of maybe 
2 or 3 on that 48, as opposed to the 8 that you are talking 
about right now.
    All that says is, as I have committed to before, I am 
working hard to mitigate that gap. I also have that gap coming 
in surface combatants. These are both classes of ships I 
previously built at higher levels--three a year in the case of 
submarines, five a year in the case of surface combatants. They 
are going to decommission at that rate and we are clearly not 
replacing them at that rate. So we are looking for ways to 
mitigate the gap.
    Senator Reed. One of the aspects that I think might suggest 
increased demand, even from today's tempo of operations, is the 
role submarines are playing in terms of covert intelligence, 
surveillance, and reconnaissance, covert insertion and recovery 
of special operations forces, covert strikes with Tomahawk 
cruise missiles, covert offensive and defensive mine warfare, 
and also in a sense I think an aspect of our commitment in 
Southwest Asia some economy of force missions, at least in 
terms of screening and intelligence gathering when you cannot 
have a major presence. Either you do not have the ships or you 
do not want to be overt.
    This, I think, puts additional pressure on the bottom line 
number of submarines that you need.
    Admiral Mullen. Yes, sir, I do not think there is any 
question. The viability and the criticality of the mission 
sets, including those that you are describing, is not in 
question. I had just one thought as you asked that question. 
These four SSGNs are clearly not fast attack submarines, but 
they bring special operations capability, they bring the 
stealth, they bring the striking capability, and I think they 
are going to bring a lot more that we do not even understand 
yet because of the volume that they have that we can work with.
    So that mitigates against the 48 to a degree that we really 
have not talked a lot about in some of those capabilities.
    Senator Reed. Mr. Secretary, I just want to commend you for 
your testimony in response to Senator Lieberman's questions. I 
think it has been echoed by the CNO in terms of what we have to 
do to get our submarine fleet going forward.
    Let me turn to an issue now that bridges the gap between 
the Navy and the Marine Corps. You mentioned it, General 
Conway, in what you are looking at, which is with 31 amphibious 
ships rather than 36 amphibious ships and your operational 
availability needs of 30, that does not leave a big margin. How 
are you going to plan to deal with that very narrow margin 
between available ships and operational demand?
    General Conway. Sir, our estimate, based upon what we think 
is 85 percent availability historically for all Navy ships, is 
that the magic number is probably 33 for us, which would then 
in all likelihood give us that 30 operationally available in 
the event of a crisis or in the event of a need. It was just 
through dialogue with the Navy, we had a great warfighter 
conference with the CNO and his senior officers probably about 
3 weeks, maybe about a month ago. We impressed upon them the 
need. We have shown them where we have accepted some level of 
risk already, because actually the 2015 Marine Expeditionary 
Brigade requires 17 ships, but we think we can get that down to 
15 with some follow-on. But that is a hard-line number. So just 
through good negotiations and comradeship, sir, we are going to 
work it out. It is a tough issue.
    Senator Reed. Admiral?
    Admiral Mullen. It is an affordability issue. We talked 
about the 10th LPD, which is on the UPL right now because it is 
a requirement that I just do not have the resources to get at. 
We are very committed to making sure that we deliver the Marine 
Corps. General Conway and I want to commend him as well and his 
people. We have worked very hard together to make sure we 
understand how we are going to operate in the future. It is 
clearly going to take ships. When the marines come out of Iraq, 
we want to get under way with them as rapidly as we can and do 
the work that we need to do, and it takes ships to do that.
    So I know I have to provide those 30 ships. The question is 
whether I purchase new ones or make the ones I have more 
available? That is really the space that we are working hard in 
right now.
    Senator Reed. Thank you, sir.
    I have a final question, General Conway, and that is on the 
EFV program. Can you give an assessment of the program and also 
the tradeoffs between that program and continuing use of the 
Amphibious Assault Vehicle (AAV)?
    General Conway. Sir, first of all, as I came to this job, I 
was disappointed to hear that we had somehow used a series of 
old vehicles, vehicles that had gone past their service life 
expectancy, to test reliability. I still do not quite 
understand the logic behind that, but the fact is that it has 
happened, and we have had some reliability problems in the 
vehicles that we have tested.
    The requirement, I think, is a very real requirement. I do 
not think, based upon what we know about anti-access systems 
and anti-ship missiles, that the Navy is going to go closer 
than 25 miles to any given beach. Our AAV, which has already 
undergone a significant upgrade and a very successful one, I 
might add, still only swims at 8 miles an hour. So we have a 
risk factor right now as far as I am concerned, that allows our 
marines to get to a shore from 25 miles out.
    What I am saying, sir, is that I think the requirement is 
real. We have to be able to get some sort of surface skimming 
kind of capability that gets us to the beach and then, by the 
way, transitions into an armored fighting vehicle. It does push 
the edge of industry and of science in some regards to come up 
with that type of vehicle. But we are pressing hard. We would 
like to have it sooner rather than later.
    Senator Reed. Thank you. Thank you very much, gentlemen.
    Senator Martinez.
    Senator Martinez. Thank you, Senator Reed.
    Good afternoon to all of you gentlemen and thank you for 
being here. I want to echo the other comments. I very much 
appreciate the service that all of you provide and I appreciate 
your also sliding your chairs to accommodate the last rung on 
the totem pole in this committee. [Laughter.]
    Admiral Mullen, I do want, in the absence of my colleague 
from Virginia, to go back to the issue of Mayport. I realize 
that we have in the past discussed the importance of a 
diversification of our fleet as well as the need for Mayport to 
be available as a nuclear port, and I very much appreciate all 
the work that is being done with the environmental study that 
needs to take place. The Secretary and I and of course you and 
I have also discussed this some, just re-emphasizing to me the 
importance that I think all of us agree that there is in having 
more than one carrier home port on the East Coast of the United 
States. I presume, Secretary and Admiral, that we still all are 
in agreement on that?
    It is kind of a question.
    Admiral Mullen. Yes, sir, I sensed that. The strategic 
dispersion issue still is a very high priority. I think, as the 
Secretary indicated earlier in his testimony, we do need to get 
through the EIS to get to a record of decision.
    I want to emphasize that it is not just Mayport, but that 
part of our country--Kings Bay, Jacksonville, and Mayport--is a 
hub for us for lots of capabilities, surface ships, submarines, 
and aviation, as well as for our people and our families. So 
commitment to that hub, both in the near-term and in the long-
term, is vital for us. We appreciate the support from you and 
your colleagues in letting us get through this in a measured 
way to make sure we get the decision right.
    Senator Martinez. We want to do it right, I understand that 
completely and am very supportive. Believe me that the 
Jacksonville area is a Navy town, and of course we are proud 
that Blount Island is there as well serving the Marines.
    There was a mention by Senator Inhofe about the Chinese 
capabilities. I was concerned when I learned about the incident 
regarding the Kitty Hawk that was shadowed by a Chinese Song-
class diesel-powered submarine that went undetected until it 
was 5 miles from our ship. I wonder, Admiral, if you can tell 
me what your interpretation is of that event and how have we 
adjusted to that eventuality.
    Admiral Mullen. Senator, it very much got our attention. We 
did not expect it. We did not expect that submarine to be ``out 
of area.'' We follow that very closely. There were some 
indications and warnings that we need to go back and reassess 
how we do that.
    I spoke to this earlier. It is indicative that they are 
operating better. They clearly have a navy which is growing. 
They are learning. I do not consider them to be 10 feet tall, 
but it is back to this strategic intent and engagement and 
making sure that diplomatically we are engaged to ensure that 
there is no miscalculation.
    The importance of a strong naval presence in that part of 
the world, both Navy and Marine Corps, continues because of the 
stability needed there. So we are watching that very carefully. 
We did learn a lot. I really would not want to go into too much 
detail in an open hearing like this. We learned a lot and we 
have adjusted.
    Senator Martinez. That is important to know. But also I 
think your comments about strategic intent are vital and I 
think continued engagement is equally important.
    General Conway, I presume it was mentioned to you, but the 
Senate just voted to move forward with the MRAPs, which I know 
are very important to you, and we hope that those will be in 
production and on their way to help our men and women serving 
in harm's way as soon as possible.
    General Conway. I concur, sir, and thank you for the vote.
    Senator Martinez. Yes, sir. It was unanimous, you should 
know.
    Back to Florida and our needs and problems. There is 
continuing concern about the possibility of a migrant event 
from Cuba relating to the events taking place on the island. 
The Secretary and I have spoken about this. There continue to 
be questions and concerns. Mr. Secretary, I know that part of 
this responsibility is obviously Coast Guard, but I know there 
is an element of cooperation.
    I have spoken with Admiral Stavridis about this and I would 
like your take on the situation in terms of containing any 
attempt by Cuba to flood the United States with migrants.
    Secretary Winter. Sir, first of all I would like to give 
you the assurance that we have a very good working relationship 
with the Coast Guard there, and I have had the opportunity to 
review the latest status of plans in the event that such an 
event would occur. I think that we have a good plan to be able 
to deal with the matter. I think in this plan of action, 
obviously, the Navy is a supporting element to the Coast Guard, 
which would have the lead responsibility for it. I believe that 
all the elements that have been assessed we are in a position 
to be able to provide in a timely manner.
    Senator Martinez. We had an incident yesterday where a 
Haitian ship came ashore on one of our beaches right there in 
broad daylight. From time to time these incidents occur. I know 
it is a bit unnerving to Floridians as we worry about homeland 
security that a foreign vessel could come right to our shores 
undetected until we got a cell-phone call saying they are on 
the beach.
    Admiral, I realize that this is a shared responsibility 
with the Coast Guard, but what can you tell the people of 
Florida to reassure us that we are keeping a close eye on our 
shores and are reasonably protected?
    Admiral Mullen. It is a shared responsibility, and I want 
to echo what the Secretary said in terms of our relationship 
with the Coast Guard. It is particularly close with myself, 
Admiral Allen, and Admiral Stavridis. My components and Admiral 
Allen's have worked this very hard. So I am comfortable that we 
are prepared up to a point, but clearly there have been various 
estimates of if this were to occur how big the number might be, 
and I know that this has Admiral Stavridis' full focus.
    I think that, specifically regarding yesterday, we are not 
in a position to surveil every nautical mile of the Florida 
coast and the coasts throughout our country, on a daily basis. 
We have not had that focus. Clearly, if we receive indications 
that this starts to go on, we do have the availability to 
adjust, and so I would feel comfortable offering the assurance 
that we could certainly be more predictive. This had not 
happened in a while. If it is the first of many, I think we 
will know that in short order, and that would certainly cause 
us to adjust our resources.
    Senator Martinez. Admiral, I think it is clearly an 
isolated event. It is not something that we have been seeing 
lately and it was a surprise, I think, to all of us.
    Admiral Mullen. Yes, sir.
    Senator Martinez. The Government of Venezuela seems to be 
interested in obtaining submarines. Admiral Stavridis and I 
discussed this a few days ago when he was here testifying. They 
are in a very aggressive arms-purchasing mode. How do you think 
we should deal with this emerging concern? Obviously, 
submarines are not usually for defensive purposes only. So what 
do you make of the intentions of the Venezuelan government?
    Admiral Mullen. I am very mindful of it. It is a concern to 
me. I have seen what President Chavez has certainly indicated 
through his rhetoric. Not unlike some other state leaders, the 
rhetoric concerns me. What is the strategic intent here? I 
share your evaluation that submarines are not anything that I 
think we would need in this part of the world from that regard. 
Certainly I do not think there is any threat from us to 
Venezuela.
    His broader arms buildup, combined with the leverage that 
he has through his energy control, those are growing concerns. 
I am sure you spoke with Admiral Stavridis about this, but 
there is more of this going on in Latin America than there has 
been in the past. It is clear that Chavez is trying to align 
some other state leaders to him. So it really does have our 
attention.
    We will be, as a naval force, much more engaged than we 
have in the past. We are setting up a prototype or an 
experiment this year for global fleet station, which is an 
engagement level of activity. Clearly Admiral Stavridis has 
asked us for more capability, and I think we will continue to 
fill that.
    Senator Martinez. The intent behind my question is the fact 
that this is an area of new concern and one that I do not think 
we can overlook, particularly when the leadership of Venezuela 
seems to be interested in aligning himself with Iran, which we 
know would be a negative force.
    Admiral Mullen. Yes, sir.
    Senator Martinez. I thank you for the diplomatic message 
that you are sending with your forces in the Persian Gulf; and 
General, I also appreciate your response to the issue of 
training. I cannot imagine that you would send a marine into 
battle that was not properly trained. That is just something 
you would not do, correct?
    General Conway. Sir, no, we would not do that.
    Senator Martinez. That is why I do not take my time to ask 
you that kind of question. I presume that your good judgment 
would keep you there.
    Thank you very much.
    Chairman Levin. Thank you, Senator Martinez.
    Gentlemen, thank you for your testimony and for your 
service to the Nation. This concludes the hearing. Thank you. 
We are adjourned.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Daniel K. Akaka
                   military sealift command resources
    1. Senator Akaka. Admiral Mullen, our ability to conduct operations 
in a foreign theater is reliant on our ability to move the equipment 
for our troops into the foreign theater of operations and then to 
sustain the troops in theater including redeployments. Military Sealift 
Command (MSC) assets are the primary way we move combat equipment into 
the theater of operations. With the Department of Defense's (DOD) 
change in policy regarding deployment schedules for our Active and 
Reserve Forces, can you describe what impact this may have on MSC's 
ability to support deployment schedules necessary to support Operation 
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF)? Please 
specifically address whether MSC has adequate resources for new 
deployment schedules, and indicate if they would need to contract for 
additional ships.
    Admiral Mullen. The MSC directly supports U.S. Transportation 
Command (TRANSCOM) which is responsible for the synchronization and 
interoperability of distribution-related activities supporting force 
projection, sustainment, and redeployment/retrograde of military forces 
and materiel. MSC has the resources to meet current demands.

    2. Senator Akaka. Admiral Mullen, if the United States were to 
engage in a significant and extended conflict in another theater of 
operations (e.g., the Far East) while we are still engaged in the 
Middle East, would MSC have sufficient ships to handle deployments and 
redeployments in two theaters of operation at the same time? Again, 
please address whether they would have enough of their own ships, or if 
they would need to contract for additional ships.
    Admiral Mullen. The MSC directly supports TRANSCOM which is 
responsible for the synchronization and interoperability of 
distribution-related activities supporting force projection, 
sustainment, and redeployment/retrograde of military forces and 
materiel. Without understanding specific requirements, yet to be 
identified, it would be impossible to speculate on the adequacy of MSC 
resources to meet future demands.

                    sailors in nontraditional roles
    3. Senator Akaka. Admiral Mullen, the Air Force indicated in a 
recent hearing before the Senate Armed Services Committee that they 
have a significant number of airmen, who are performing work that is 
not normally performed by the Air Force in order to support OIF and 
OEF. These assignments are traditionally handled by our ground forces. 
It is my understanding that the Air Force has been requested to fulfill 
these nontraditional assignments due to shortages of available troops 
in the Army and the Marine Corps. How many of the sailors currently 
deployed to Afghanistan and Iraq are performing assignments which are 
traditionally non-Navy work?
    Admiral Mullen. The Joint Staff considers a full range of sourcing 
solutions across all Services and the Navy has optimized its force to 
support a wide range of mission areas. By leveraging core skills and 
providing tailored training, the Navy is able to provide the Joint 
Staff with a broader range of sourcing solutions including 
approximately 2,300 sailors that are currently executing traditional 
Army missions. The skills required to conduct these missions generally 
fall within the core competencies of many Navy ratings and officer sub-
specialties. Each augmentee is further provided specific training to 
perform the mission assigned. Mission areas include Personal Security 
Detachments, Naval Mobile Construction Battalion support to Coalition 
Forces Land Component Command, counter rocket and mortar, 
communications, detainee operations (Camp Bucca), civil affairs, 
tactical UAV, interrogators, customs operations, and counter-improvised 
explosive devices (IED) electronic warfare.

    4. Senator Akaka. Admiral Mullen, how many sailors are performing 
nontraditional assignments outside the U.S. Central Command area of 
responsibility due to shortages of troops?
    Admiral Mullen. The Navy is not currently supporting any 
nontraditional assignments due to shortages of troops outside the U.S. 
Central Command area of responsibility.

    5. Senator Akaka. Admiral Mullen, is it anticipated that the Navy 
will need to continue providing resources to support these non-Navy 
functions in fiscal year 2008 and beyond?
    Admiral Mullen. Assuming that no new requirements are identified 
and the level of U.S. presence remains the same, we anticipate 
continuing to source current requirements through fiscal year 2008.

                           medical facilities
    6. Senator Akaka. Admiral Mullen, in your statement, you state that 
you support the ongoing review of conditions at Walter Reed, and that 
the Navy Inspector General is separately evaluating the material 
condition and quality of service at each of the Navy's medical 
treatment facilities. Has there been any effort to integrate the 
solutions that the Army is initiating into the Navy's facilities in 
order to ensure consistency of care across the Services? This seems 
particularly important given the upcoming merger of Walter Reed and the 
National Naval Medical Center at Bethesda, Maryland.
    Admiral Mullen. Navy Medicine is currently participating in the 
Tricare Management Activity Health Facilities Steering Committee which 
is working on a common facility condition assessment process for all 
medical facilities across the DOD. The results of the Army's review and 
lessons learned will be used in the decisionmaking process of this 
committee.
    The material condition of all Navy medical facilities is monitored 
and reported using a centrally managed continuous inspection process. 
Facilities requirements identified during the inspection process are 
documented in a single web-accessible database. Centrally funded 
inspections by professional engineering teams are completed for all 
Class II Type 2 real property assets once every 3 years using a single 
inspection service provider and a common health care industry standard 
evaluation criteria which are consistent with all applicable codes and 
standards.

    7. Senator Akaka. Admiral Mullen, Walter Reed has seen a 
significant increase in the number of patients due to the wars in 
Afghanistan and Iraq. Since the beginning of these wars, how much of a 
surge in casualties have the Navy's medical treatment facilities seen?
    Admiral Mullen. Since January 2003, 3,565 OEF/OIF Navy and Marine 
casualties have been evacuated from theater to Landstuhl Regional 
Medical Center (LRMC) and subsequently transferred to specialized 
continental United States (CONUS) Medical Centers and Combat Support 
Medical Treatment Facilities. Among these Medical Centers, Navy 
Military Treatment Facilities have received the following numbers of 
Navy and Marine Corps casualties: National Naval Medical Center (NNMC) 
Bethesda--1,214; NH Camp Pendleton--951; NH Camp Lejeune--727; NMC San 
Diego--513; and NMC Portsmouth--160.

    8. Senator Akaka. Admiral Mullen, was the Navy able and did they 
absorb some of the surge in casualties from the Army?
    Admiral Mullen. Since March 2003, approximately 70 0EF/OIF Army 
casualties have been transferred from LRMC directly to NNMC Bethesda 
for treatment.

               navy downsizing and marine corps increase
    9. Senator Akaka. Admiral Mullen, in your statement, you address 
the downsizing of the Navy over the past couple of years and the 
additional decreases in end strength in fiscal years 2007 and 2008. It 
seems that many of the sailors in the Navy Active and Reserve 
components who are leaving the Service due to reductions in end 
strength may be quality candidates that are desirable for retention in 
military service. Since the Marine Corps and the Army are increasing 
their end strength in fiscal years 2007 and 2008, has there been any 
effort to look at potential candidates who may be interested in 
transferring to the Army or Marine Corps?
    Admiral Mullen. The Blue to Green program was established in 
October 2004 to generate Army enlistments for personnel separating from 
all other Services; however, there is not a similar program for the 
Marine Corps. On a monthly basis, Navy Personnel Command provides the 
Army access to sailors who will be separating from the Navy for the 
following reasons:

          - Involuntary separations under perform to serve
          - E-4 High Year Tenure
          - Sailors with less than 12 years of service who are opting 
        to separate from the Navy

    The lists include sailors who are recommended for retention and 
evaluated as promotable, must promote, or early promote on most recent 
enlisted performance evaluation. The lists exclude individuals with 
discipline problems or substandard performance.
    Sailors are advised of the Army Blue to Green program by Navy 
Career Counselors at individual units and stations, on separation 
orders, and during the Transition Assistance Program classes.
    Army statistics reflected below show the number of sailors who have 
converted to the Army via this program:

    Enlisted: (as of 19 April 2007)

        <bullet> 101 Navy contracts in fiscal year 2007 (412 total 
        since implementation).

    Officer: (as of 19 April 2007)

        <bullet> 11 Navy Officer interservice transfers in fiscal year 
        2007 (119 total since implementation).

                public vs. private shipyard efficiencies
    10. Senator Akaka. Secretary Winter and Admiral Mullen, Admiral 
Mullen's statement says that the Navy needs Congress to ensure that 
legislation and policy support best business practices and 
efficiencies. It says that funding quotas for public Navy shipyards 
``potentially'' diverts efficiency opportunities away from the private 
sector. I find this an interesting statement given the serious cost 
overruns with the Littoral Combat Ship (LCS) program, and I find it 
hard to see how work being performed at public Navy shipyards 
potentially reduces ``efficiencies'' in the private sector. Please 
explain the connection between funding requirements for public Navy 
shipyards and private shipyard efficiencies.
    Secretary Winter and Admiral Mullen. The Navy completed a Naval 
Shipyard Business Plan in February. This plan was created to determine 
the workload necessary to efficiently and effectively operate the four 
naval shipyards, while ensuring compliance with statutory requirements. 
The issue now emerging is a potential reduction in the overall Navy 
projected ship depot maintenance workload in fiscal year 2010 and 
beyond.
    Within this plan, there are several workload-shaping options that 
potentially reallocate work from the private ship repair/modernization 
vendor base, including an option to reduce subcontracted work from the 
public shipyards. There is also a potential for shifting nontraditional 
naval shipyard work to the naval shipyards only in those years 
necessary to comply with the 50/50 statute. By doing this, the Navy 
would potentially impact funding to the private sector vendor base, 
which may impact their incentive to make the investments to improve 
their efficiency in support of Navy workload.
    In order to mitigate these issues and motivate the private 
shipyards, the Navy has already begun several initiatives to focus on 
improving our ability to work with private repair and modernization 
shipyards. The initiatives range from a new contracting strategy to 
streamlining our business through Lean Six Sigma and new business 
practices.

    11. Senator Akaka. Secretary Winter and Admiral Mullen, please 
explain what you believe would happen to our Navy shipyards if funding 
quotas were to be removed.
    Secretary Winter and Admiral Mullen. If the statute for funding 
quotas (i.e., the 50/50 statute) were removed, the Navy would still 
need to comply with requirements for a core logistics capability. 10 
U.S.C. 2464 requires a core logistics capability (skills, processes, 
and infrastructure) that is government-owned and government-operated, 
to ensure a ready and controlled source of technical competence and 
resources necessary to ensure effective and timely response for all 
weapons systems. Naval shipyards have a critical role in repair and 
modernization, as they have specific areas of expertise that are not 
available at private yards (e.g., nuclear refueling and repairs of 
submarines). If workloads were reduced in these public shipyards, the 
expectation would be an increase in costs accompanied by a decrease in 
their efficiency and capacity.
    Maintaining the correct level of workload in the shipyards is 
critical to maintaining the capability and ensuring an efficient and 
effective use of taxpayer's money. The Navy just completed a Naval 
Shipyard Business Plan in February, which examined, in part, the issue 
of distributing work to the public shipyards to ensure compliance with 
statutory requirements and an effective use of the in-house capability.

                       marine corps end strength
    12. Senator Akaka. General Conway, you indicate in your statement 
that the proposed increase in Marine Corps Active component end 
strength to 202,000 marines will go a long way toward reducing the 
strain on the individual marines and the institution. This sounds like 
the Marine Corps still is not receiving enough resources. To bring the 
Marine Corps in line with an appropriate level of stress, both for the 
individual marines and for the institution, are 202,000 marines enough? 
Please consider the current operational tempo, and the DOD targets for 
deployment versus home time.
    General Conway. Yes, I believe 202,000 marines is the appropriate 
and achievable level to which the Marine Corps can grow quickly in the 
near-term while maintaining our high recruiting and retention 
standards.
    Our proposed end strength growth to 202,000 marines was based upon 
three main goals:

          1. Creation of three balanced Marine Expeditionary Forces 
        capable of responding equally to combatant commander 
        requirements
          2. Reduction of the strain on individual marines and their 
        families, and prevention of a decrease in readiness
          3. Reduction of strain on the institution by strengthening 
        our capacity to train to the range of skills necessary for 
        combined-arms maneuver, mountain warfare, amphibious, and 
        jungle operations

    Achievement of the 1:2 deployment-to-dwell target for all Active 
component forces will directly address goals 1 and 2.
    The President's recent OIF ``Plus Up'' has added a requirement for 
two additional Marine Corps infantry battalions and associated support 
to remain deployed in support of OIF. Resultantly, the DOD target of a 
1:2 deployment-to-dwell ratio will not be met for many occupational 
specialties for the duration of ``Plus Up'' operations.

    13. Senator Akaka. General Conway, are 202,000 marines enough if we 
have to maintain the current tempo in the Middle East while being 
engaged in another significant conflict elsewhere in the world?
    General Conway. The 202,000 Marine Corps end strength request was 
derived from conditions prior to the surge in Iraq, and based on both 
the existing requirement and our known requirements for the future. It 
provides enough forces to allow us to achieve a 1:2 deployment-to-dwell 
ratio at pre-surge commitment levels. We believe that if called to 
respond to a second contingency a 1:2 deployment-to-dwell ratio will 
provide the Marine Corps with enough trained and ready forces to 
adequately address any second contingency.

    14. Senator Akaka. General Conway, what are the assumptions used to 
determine the appropriate end strength for the Marine Corps?
    General Conway. Force requirements are based on demands determined 
by the DOD. For the 2006 Quadrennial Defense Review (QDR) and 
associated Operational Availability 2006 study, these demands were 
provided in the Baseline Security Posture (BSP). The BSP provided 
numerous planning assumptions by specifying both the frequency and 
duration of events as well as force caps for each individual event.
    In addition to the assumptions contained in the BSR, two additional 
assumptions for determining end strength are:

          - Section 5063 of title X which states, ``The Marine Corps, 
        within the Department of the Navy, shall be so organized as to 
        include not less than three combat divisions and three air 
        wings, and such other land combat, aviation, and other services 
        as may be organic therein.''
          - The new force-planning construct that puts increased 
        emphasis on defending against terrorist threats which requires 
        less force capacity as well as a different capability set.

    15. Senator Akaka. General Conway, if the Marine Corps receives its 
full funding request, how long will it take to reset the force and 
bring Marine Corps readiness levels back to their pre-war levels while 
continuing to maintain the current operational tempo?
    General Conway. In total, the Marine Corps has received $10.2 
billion of the total $13.7 billion reset requirement. Of the remaining 
funding, $1.8 billion is executable in fiscal year 2008. After fiscal 
year 2008, additional funding is required for certain aviation 
procurement items with long lead times. Depot maintenance funding is 
also required at least 2 years beyond the end of hostilities to begin 
to fully repair equipment returning from Iraq and Afghanistan.
    There are a number of factors which cloud our ability to arrive at 
a precise point in time estimate for the total post-global war on 
terror reset costs. However, estimates range from 2 to 5 years to 
return the equipment from theater and conduct a complete depot rework 
for ground equipment. Some of the principal factors impacting the 
timing and costs of ground equipment depot rework include:

          1. Useful life remaining in equipment to be retrograded, 
        which will dictate whether it is more cost effective to replace 
        rather than repair.
          2. Availability, cost, and timing of sealift and/or 
        commercial shipping assets to transport equipment back to 
        CONUS.
          3. Degree to which depot throughput capacity can/should be 
        expanded to address retrograde ``surge'' requirements.
          4. The ability, as well as cost and schedule implications, to 
        transfer workload to either DOD, or commercial sources.

    Aviation asset depot repair costs are somewhat easier to project 
based upon the impact of flying hours and operational conditions on 
scheduled aircraft rework. The reset effort for Marine aviation assets 
will require upwards of 5 years according to current estimates. This 
time period is predicated on depot capacity and a prescheduled depot 
induction date for each aircraft.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton
          vh-71 ``marine one'' presidential helicopter program
    16. Senator Clinton. Secretary Winter and General Conway, the VH-71 
has conducted some initial flight tests simulating landing and take-off 
within confined landing zones. On January 13, 2007, Robert Kimble, VH-
71 Deputy Program Manager, U.S. Navy, reported that these performance 
landing tests included White House lawn landings. How successful were 
these initial flight tests and landings?
    Secretary Winter and General Conway. The EH-101 Test Vehicle One 
(TV-1) Rotor Down Wash Flight Test Evaluation was successfully 
completed January 13, 2007. Tests were conducted, making a total of six 
approaches and departures to the White House south lawn, while building 
gross weights up to maximum of 32,000 lbs. All test objectives were 
successfully met.

    17. Senator Clinton. Secretary Winter and General Conway, are all 
of the test objectives being met?
    Secretary Winter and General Conway. The objectives of the TV-1 
Rotor Down Wash Flight Test Evaluation were successfully met. 
Additional testing will be conducted as the program continues 
development.

    18. Senator Clinton. Secretary Winter and General Conway, what 
adjustments in capabilities have been made as a result of these tests?
    Secretary Winter and General Conway. No adjustments to VH-71A 
capabilities were made as a result of the TV-1 Rotor Down Wash Flight 
Test Evaluation. It was a satisfactory test.

    19. Senator Clinton. Secretary Winter and General Conway, the VH-71 
program schedule has an October 2009 suspense to meet its objectives. 
Under the current operational testing schedule will this date be met?
    Secretary Winter and General Conway. Lockheed Martin is on contract 
to meet an initial operative capability (IOC) date of October 2009. The 
Navy is working closely with Lockheed Martin and the White House to 
achieve this aggressive program schedule.

    20. Senator Clinton. Secretary Winter and General Conway, what 
measures of performance and quality control checks are currently in 
place to meet this deadline?
    Secretary Winter and General Conway. The VH-71 Program is an 
Acquisition Category 1D Major Defense Acquisition Program and, per 
Department of Defense Instruction 5000.2, provides all statutory, 
regulatory, and contract reporting information to accomplish program 
objectives. This information is assessed continuously against cost, 
schedule, and performance. It is reported up to the Milestone Decision 
Authority, the Under Secretary of Defense, Acquisition, Technology, and 
Logistics.
    In addition, acknowledging the imperative for leadership engagement 
to enable program success, the Navy has established a VH-71 Senior 
Leadership Council (SLC). The SLC, chaired by the Assistant Secretary 
of the Navy for Research, Development, and Acquisition, and including 
White House Military Office and Director of Operational Test and 
Evaluation of the DOD membership, regularly reviews program progress 
and risk assessment updates. Through close oversight of the program's 
event-based activities, the SLC is empowered to recommend schedule 
adjustments as warranted. The Navy recognizes the fundamental tenets of 
safety, reliability, availability, and security as overriding concerns.
                                 ______
                                 
              Questions Submitted by Senator Mark L. Pryor
                mine resistant ambush protected vehicles
    21. Senator Pryor. General Conway, the Mine Resistant Ambush 
Protected (MRAP) Vehicles have been shown to protect military personnel 
against IEDs, significantly reducing casualties. I cosponsored an 
amendment with my friend, Senator Joseph Biden, to procure an 
additional 2,500 MRAP Vehicles for our troops serving in combat 
overseas. How important is this vehicle to the Marine Corps, and do you 
believe that with maximum production capacity they can be operational 
by the end of the year?
    General Conway. Delivering the MRAP Vehicle into Al Anbar province 
is my number one unfilled warfighting requirement at this time. The 
MRAP Vehicle has a dramatically better record of preventing fatal and 
serious injuries from attacks by IED, the leading cause of all 
casualties in theater. Multi-National Forces-West estimates use of the 
MRAP Vehicles could reduce the casualties due to vehicle IED attack by 
as much as 80 percent.
    We have developed a joint acquisition strategy which maximizes the 
number of vendors involved, and as each successfully completes 
appropriate testing, will immediately ramp up the production to their 
maximum capacity. For example, one vendor presently being evaluated 
possesses a production capacity of 50 vehicles a month, but is capable 
of increasing to a minimum of 280 vehicles by December 2007. As vendors 
complete testing, the cumulative production capacity will be 
proportionate to the resources available for application. Assuming 
resources are not a constraining factor, Marine Corps Systems Command, 
designated as the Joint Program Executive Office, believes the entire 
joint requirement for 7,770 vehicles (to include the United States 
Marine Corps (USMC) requirement for 3,700 vehicles) can be produced by 
October 2008.

                                 mv-22
    22. Senator Pryor. General Conway, the MV-22 tilt-rotor aircraft is 
indeed a unique and vital air asset to compliment Marines engaged in 
battle. How has the MV-22 performed, and what is the Marine Corps' plan 
to operationally employ it in combat?
    General Conway. The MV-22 is the future of Marine Corps Assault 
Support Aviation. It will give the warfighter unprecedented aviation 
maneuver capability, and provides an exponential increase in 
survivability over legacy assault support aircraft. The MV-22 has 
successfully completed Operational Test and Evaluation and has met or 
exceeded all defined Key Performance Parameters (KPPs). Marines are 
transitioning legacy CH-46E squadrons to the MV-22 as we speak. The V-
22, to date, has logged well over 27,000 flight hours and will flow 
seamlessly into our aviation infrastructure to support existing Marine 
Corps medium lift operational commitments.

             biopersistent littoral combat ship insulation
    23. Senator Pryor. Secretary Winter, the LCS is a part of the 
Navy's shipbuilding strategy for the future. Are you familiar with the 
installation of a new insulating material in LCS-1 that is of a 
manufactured vitreous fiber found to be biopersistent?
    Secretary Winter. The Bureau of Navy Medicine and Surgery, 
specifically the Environmental Health Effects Laboratory and the Navy 
Environmental Health Center (NEHC), reviewed the safety of the 
MasterGlas insulating material used on LCS-1 in 2003 and concluded that 
use of the product would create no more risk than use of standard 
military specification fiberglass insulation. Manufactured in the 
United States, MasterGlas is in accordance with all worker health and 
safety laws and has been installed on commercial aircraft for decades.
    NEHC reviewed the February 9, 2007, Input/Output Module study, 
which was ordered and funded by the manufacturer of a competing 
material, InspecFoam. The study concluded that MasterGlas fibers may be 
more biopersistent than the MIL-I-742 Fiberglass Hullboard. This means 
that the fibers are not dissolved in body fluids nor cleared from the 
body as readily. However, the study did not take into consideration 
other factors, such as work processes, ventilation, personal protective 
equipment worn, thermal decomposition products, and others. In 
addition, this is single study has not been subjected to an independent 
scientific peer review process.
    MasterGlas insulation has been determined to be as safe as other 
fiberglass products currently in use by the Navy. Nonetheless, the Navy 
will carefully monitor its use.

    24. Senator Pryor. Secretary Winter, can you explain the decision 
to use this material?
    Secretary Winter. All shipbuilding programs use materials that have 
some risks. Naval Sea Systems Command uses established Federal, State, 
and local environmental and occupational safety and health regulations 
to establish baseline safety requirements for materials. Once materials 
satisfy the baseline safety requirements, they are considered 
acceptable for use on Navy ships. Shipbuilders then evaluate costs, 
weight, and performance to determine which materials are appropriate 
for which applications.
    The LCS program is an innovative shipbuilding effort. Marinette 
Marine Corporation, the shipbuilder for Lockheed Martin, has procured 
and is installing MasterGlas on LCS-1 based on its analysis of 
alternatives. MasterGlas is a lightweight, fiberglass insulation 
product manufactured in the United States that has been reviewed by the 
NEHC and found to as safe as other fiberglass insulation manufactured 
in the United States, given the same parameters of use and safe work 
procedures. Thus, MasterGlas has been shown to satisfy all established 
Navy, Federal, State, and local safety requirements and was 
appropriately selected for use on the LCS 1 based on cost, weight, and 
performance requirements.

    25. Senator Pryor. Secretary Winter, what steps is the Navy taking 
to address this situation?
    Secretary Winter. Since MasterGlas insulation has been determined 
to be as safe as other fiberglass products currently used by the Navy, 
its use will continue under careful monitoring. In addition, the Navy 
will respond promptly with appropriate Navy occupational safety and 
health guidance if any biopersistence rulemaking activity at the U.S. 
Occupational Safety and Health Administration leads to new regulations 
on this issue.

                          submarine detection
    26. Senator Pryor. Admiral Mullen, the Navy has submitted that 
``submarines with improving stealth and attack capability--particularly 
modern diesel attack submarines--are proliferating worldwide at an 
alarming rate, and that locating these relatively inexpensive but 
extremely quiet boats present the Navy with a formidable challenge.'' 
How are we countering this perceived threat?
    Admiral Mullen. Anti-submarine warfare (ASW) is one of the Navy's 
top warfighting priorities. The Navy has significantly increased the 
level of effort in ASW through fleet doctrine, tactics, and training 
initiatives, and through investments in platform and off-board sensors, 
ASW command and control, and weapons capability. Some of the new 
technologies are now entering the fleet, while others are still in 
development. The focus is to deliver these capabilities in sufficient 
quantities to meet combatant commander requirements while continuing 
research and development to identify new mid- to far-term capabilities. 
Some of the Navy's specific initiatives are detailed below.

        <bullet> The Navy has implemented key warfighting guidance in 
        ASW strategy and concept of operations (CONOPs) identifying 
        capability requirements, doctrine, organization, training, 
        materiel, education, personnel, and facilities that can fill 
        the existing capability gaps. Major ASW platforms (Virginia 
        Class SSN, P-8A Multi-Mission Aircraft, and MH-60R helicopter) 
        reach IOC within the Future Years Defense Program (FYDP). 
        Additionally, there are planned improvements to the ASW command 
        and control systems for current Navy P-3C aircraft to provide 
        enhanced capabilities needed to detect, classify, identify, 
        localize, and attack adversary submarines.
        <bullet> The Navy has made significant headway in improving 
        both acoustic and non-acoustic detection capabilities. Acoustic 
        capabilities include the Improved Performance SONAR (IPS) and 
        Scaled IPS (SIPS) system. Nonacoustic sensing technologies are 
        progressing with airborne mine detection systems and Electro-
        Optic Passive ASW System (EPAS) experimentation. Progress has 
        been achieved in the areas of Synthetic Aperture Sonar, Receive 
        While Transmit Sonar, and Multi-static Active Detection at-sea 
        tactical testing and development.
        <bullet> The Navy is developing a networked sensor environment 
        using automated, off-board systems increasing the area of 
        coverage. The Navy continues to develop Distributed Netted 
        Sensors. Three distributed systems have shown promise to 
        transition to production criteria within the FYDP: Reliable 
        Acoustic Path Vertical Line Array; the Deep Water Distributed 
        Active System; and the Deployable Autonomous Distributed 
        System.
        <bullet> Near-term fleet requirements are addressed through 
        development of the Surface Ship Periscope Detection Radar for 
        Aircraft Carriers, with installation planned for all aircraft 
        carriers within the FYDP. Similar periscope detection radar 
        capability for cruiser-destroyer platforms is under research 
        and development. False alarm reduction efforts are being 
        implemented to enhance our surface ship mid-frequency active 
        sonar capabilities. Major FORCEnet improvements occurring in 
        the FYDP increase situational awareness and reduce the detect-
        to-engage timeline. In addition, the Navy is converting 
        existing torpedoes (both heavyweight and lightweight) into more 
        capable variants.
        <bullet> The Navy is working on developing new torpedo defense 
        systems to protect our ships. The Anti-Torpedo Torpedo is 
        scheduled for installation on cruisers and destroyers beginning 
        in fiscal year 2015. Other systems under development include Mk 
        54 torpedo/Surface Ship Digital Fire Control Interface and 
        acoustic countermeasures.
        <bullet> ASW training has undergone a number of steps to 
        sustain and improve our ASW proficiency. An integrated stair-
        step training approach has been adopted (simple to complex) for 
        our ASW forces bringing together aviation, surface, subsurface, 
        and other resources in a standardized training continuum. This 
        integrated ASW training supports our Fleet Response Plan and 
        includes the execution of major fleet exercises involving 
        multiple strike groups and allied forces. This continuum 
        incorporates standardized metrics to assess performance and 
        provides rapid reconstruction and analysis that is fed back to 
        Navy leadership and the operators.
        <bullet> The Navy incorporates a number of training 
        opportunities involving modern allied diesel submarines. Our 
        integrated ASW training continuum through the Diesel Electric 
        Submarine Initiative with South American navies and the use of 
        the Swedish submarine Gotland has improved ASW proficiency 
        against capable diesel submarines. Allied diesel submarine 
        participation in U.S. fleet exercises such as WAC and Valiant 
        Shield 2006 as well as exercises with our allies both in the 
        Pacific and Atlantic theaters continue to benefit the Navy's 
        ASW training efforts in diverse ocean environments.
        <bullet> The Navy continues to promote international 
        collaboration and global maritime partnerships through Ships 
        ASW Effectiveness Readiness Measuring events with Japan, Korea, 
        India, Pakistan, Russia, Germany, Denmark, Great Britain, 
        Australia, Canada, Poland, Sweden, Italy, Turkey, and Spain.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                          littoral combat ship
    27. Senator McCain. Secretary Winter and Admiral Mullen, from an 
acquisition reform perspective, I have been very concerned about cost 
performance on the LCS program. Unfortunately, we are on a path which 
doubles the $220 million estimates for the first four LCSs. That is a 
serious problem for this program and an equally serious problem for all 
of Navy shipbuilding. As I mentioned in my opening statement, I 
appreciate your deliberate corrective actions in response to signs of 
breakage on this program. Can you provide the Navy's current cost and 
schedule estimate to complete the ships under contract?
    Secretary Winter and Admiral Mullen. Detailed execution costs and 
timelines for LCS-1, -2, and -4 will be addressed within the scope of 
the briefings requested by Congress in coming weeks, and as part of the 
reprogramming request.

    28. Senator McCain. Secretary Winter and Admiral Mullen, what is 
the magnitude of the delay and overrun?
    Secretary Winter and Admiral Mullen. Details of the execution cost 
and schedule for LCS-1, -2, and -4 will be addressed within the scope 
of the revised briefings requested by Congress and as part of the 
reprogramming request.

    29. Senator McCain. Secretary Winter and Admiral Mullen, why were 
the follow ships awarded to both shipbuilders when costs on the program 
had clearly risen to the extent that these ships were no longer 
affordable within the Navy's budget?
    Secretary Winter and Admiral Mullen. Contract options were awarded 
for construction of LCS-3 in June 2006 and LCS-4 in December 2006 based 
on negotiated contract values and budget risk assessments conducted at 
the time of each award.

    30. Senator McCain. Secretary Winter and Admiral Mullen, why did 
the Navy award the contract on LCS-1 before it finalized the Naval 
Vessel Rules (NVR) and had a clear picture of how those rules would 
impact costs?
    Secretary Winter and Admiral Mullen. The Navy has been actively 
working with industry to incorporate and exercise oversight of NVR. In 
the Preliminary Design Phase Request for Proposal (RFP) issued February 
28, 2003, the LCS Industry Teams were required to team with American 
Bureau of Shipping (ABS) to aid in producing an acceptable design, and 
to conduct an early assessment of each design to gauge its ability to 
comply with the design rules that were under development at that time.
    The Preliminary Design RFP stated:

        ``It is the Government's intention that the Preliminary Design 
        be evaluated by ABS and judged acceptable at that stage of 
        design. This evaluation will be repeated at the end of Final 
        System Design (FSD). It is also Government's intention to have 
        the LCS classed by ABS at delivery. The Government understands 
        that there is currently no complete set of U.S. approved rules 
        applicable to LCS. The Government expects that the U.S. naval 
        ship rules currently under development will be available prior 
        to the award of FSD.''

    To provide advance insight into the required rules set, ABS issued 
a Draft Final Rules Matrix for LCS to the Industry Preliminary Design 
teams in October 2003. From January 2004 to May 2004, the Navy worked 
to finalize the first issue of NVR. This first edition NVR was released 
May 21, 2004, and immediately provided to the industry teams by ABS.
    The December 19, 2003, FSD Phase RFP reiterated the requirement for 
the ships to be delivered in class as a naval combatant ship in 
accordance with NVR. By the time of FSD contract award on May 28, 2004, 
the Industry Teams were aware of the February 3, 2004, draft NVR. Both 
teams inserted reference to the May 21, 2004, NVR in their approved 
Specified Performance Documents, thereby noting the NVR among the 
applicable requirements documents.
    With the continued and close interaction between each of the LCS 
industry teams and ABS during the refinement of the draft NVR, the Navy 
had confidence in the validity of cost data received from the industry 
teams at the time of contract award. The LCS industry teams have the 
opportunity to seek equitable adjustment for the cost incurred due to 
NVR, or any other contract change from the contract change order line.

    31. Senator McCain. Secretary Winter and Admiral Mullen, although 
the LCS program has not established a formal cost baseline and 
therefore has not technically tripped a Nunn-McCurdy breach, the Nunn-
McCurdy criteria regarding validity of requirements, validity of costs, 
and adequacy of management come into question. Does the Navy intend to 
come forward to Congress with the same degree of rigor commanded by the 
Nunn-McCurdy certification process prior to requesting support for 
further funding on this program?
    Secretary Winter and Admiral Mullen. The Navy has and will continue 
to provide full and open disclosure of all LCS acquisition and 
financial actions to Congress including compliance with the formal 
rigor of the Nunn-McCurdy requirements. Using a root cause analysis 
methodology and the expertise of the Program Management Assist Group, 
the Secretary of the Navy has recertified the LCS requirements base and 
taken action to ensure that program management entities are equipped 
for success. Cost details will be addressed within the scope of the 
briefings requested by Congress, and as a part of the reprogramming 
request.

    32. Senator McCain. Secretary Winter and Admiral Mullen, since the 
Navy's estimates indicate that both Lockheed Martin and General 
Dynamics appear to be experiencing the same degree of cost growth on 
their first ships, why has the Navy only taken corrective action with 
Lockheed Martin?
    Secretary Winter and Admiral Mullen. The decision to take action to 
control cost growth on the Lockheed Martin LCS contract was based on 
deteriorating cost performance following the launch of LCS-1 coupled 
with evidence of escalating cost growth on their second ship, LCS-3. 
The Navy has determined specific programmable cost growth thresholds 
for the General Dynamics program. These thresholds have not yet been 
communicated publicly to ensure the integrity of the competition 
throughout the completion of contract execution. Should General 
Dynamic's cost growth exceed these thresholds, the Navy is prepared to 
take comparable measures with General Dynamics as were taken with 
Lockheed Martin to control the costs of this program.

    33. Senator McCain. Secretary Winter and Admiral Mullen, since both 
shipbuilders' designs reportedly meet your requirements, it would 
appear that it would be most affordable to downselect as soon as 
possible and compete the winning design. What are the Navy's plans for 
singling up on a design and opening up competition for construction?
    Secretary Winter and Admiral Mullen. Details of the Navy's plans to 
down-select to a single design will be addressed within the scope of 
the revised LCS Acquisition Strategy. It is the Navy's intent to 
conduct an operational assessment of the Lockheed Martin and General 
Dynamics designs in fiscal year 2009, and then down-select to a single 
design based on demonstrated performance and other relevant factors. 
Lessons learned will be incorporated from all aspects of program 
execution, and a full and open competition for the selected design will 
be initiated in fiscal year 2010. Under this plan, fiscal year 2010 is 
the earliest opportunity for down-select.

    34. Senator McCain. Secretary Winter and Admiral Mullen, Congress 
imposed a $220 million cost cap for the fifth and sixth ships of the 
class to impose cost discipline. These ships may now be the ships 
requested with the fiscal year 2008 budget. How does the Navy plan to 
bring these ships' costs in line with the cost cap to allow Congress to 
consider support for this request or a future request?
    Secretary Winter and Admiral Mullen. The fifth ship cost threshold 
will need to be adjusted, and it will be addressed within the scope of 
the briefings requested by Congress, and as a part of the reprogramming 
request.

        reducing aircraft carrier force structure from 11 to 10
    35. Senator McCain. Admiral Mullen, the Navy's fiscal year 2008 
budget proposes reducing the aircraft carrier force from 11 to 10 
operational aircraft carriers. This is the lowest aircraft carrier 
force since the 1930s. Reducing aircraft carrier force structure while 
potential competitors are continually increasing their capabilities 
raises serious questions regarding the Navy's ability to sustain the 
level of readiness required by its own maritime strategy. What detailed 
planning has the Navy conducted to ensure the ability to surge up to 6 
aircraft carriers within 30 days of a crisis if the Navy drops to 10 
aircraft carriers?
    Admiral Mullen. The Navy is requesting authorization from Congress 
to allow the Navy to temporarily operate with a 10-carrier force 
starting in November 2012, with the decommissioning of U.S.S. 
Enterprise (CVN-65), and ending in September 2015 when Gerald R. Ford 
(CVN-78) is delivered, a period of 34 months. We have conducted risk 
analysis for this period, balancing projected demands with projected 
operations and maintenance (O&M) schedules, and determined the risk to 
be acceptable, although moderate. Moderate risk is characterized by a 
greater than 50 percent likelihood that assets would arrive later than 
planned, but without negative impact on the ultimate outcome of the 
conflict. It should be noted that the Navy has always and will always 
take extraordinary measures to put the necessary force to sea in a time 
of national emergency.
    We looked at several strategies during our risk analysis, including 
maintaining the U.S.S. Enterprise (CVN-65), as well as impacts that any 
change to operational and maintenance schedules might have on our surge 
capability.
    Our risk analysis determined that the 10-carrier option, from a 
technical, fiscal, and risk perspective, leverages the flexibility 
available in our O&M schedules to manage the moderate but acceptable 
risk during the period of concern. During the 34-month period in 
question, the Navy can maintain (when averaged over a year) the ability 
to surge up to six carriers with 30 days of a crisis, with no quarter 
providing less than five carriers able to surge within 30 days. 
Detailed analysis of this option is ongoing, to include the technical 
risks, cost impacts, and the timing for decision points for changes in 
the operational and maintenance schedules.
    Our need for this legislation should in no way be mistaken for any 
change to our long-term carrier strategy. We remain committed to the 
requirement for an 11-carrier force and have no analysis that would 
indicate anything less than 11 carriers as acceptable for an extended 
period of time. Our sustainment and acquisition programs are aligned 
with this strategy. In fact, the 30-year shipbuilding plan represents 
our ongoing efforts to balance warfighting capability requirements and 
affordability with industrial base capacity. A minimum 11-carrier force 
structure is central to this plan.

    36. Senator McCain. Admiral Mullen, if the Navy retires the U.S.S. 
Enterprise instead of extending her service, what are the Navy's 
options to maintain an 11 aircraft carrier force structure until U.S.S. 
Gerald Ford (CVN-78) is operationally available--expected in 2017?
    Admiral Mullen. The Navy remains committed to the requirement for 
an 11-carrier force and has no analysis that would indicate anything 
less than 11 carriers is acceptable for an extended period of time. Our 
sustainment and acquisition programs are aligned with this strategy. In 
fact, the 30-year shipbuilding plan represents our ongoing efforts to 
balance warfighting capability requirements and affordability with 
industrial base capacity. A minimum 11-carrier force structure is 
central to this plan. However, following the retirement of U.S.S. 
Enterprise (CVN-65) in November 2012, the Navy would be operating with 
a 10-carrier force until U.S.S. Gerald R. Ford (CVN-78) is delivered in 
September 2015, a period of 34 months.
    The Navy conducted a risk analysis of this period, looking at 
several strategies as part of that analysis. The first strategy 
investigated keeping Enterprise operational from 2013 to 2016. Keeping 
Enterprise operational from 2013 to 2016 would cost approximately $1.7 
billion. This option will also require significant maintenance work and 
shipyard time beginning in fiscal year 2008. Enterprise has already 
experienced the effects of aging ship systems and degrading material 
condition, due in part to the ship being 46 years old, though she was 
designed with a 30-year design life. This has led to lost operational 
availability due to unplanned work growth following her fiscal year 
2002 and fiscal year 2004 maintenance periods. Both shipyard periods 
were extended by over 110 days and incurred cost growth totaling over 
$120 million. The material condition is expected to worsen as the ship 
ages, leading to significant material deficiencies requiring expensive 
and time-consuming repair.
    At 50 years, Enterprise has a very complex, manpower intensive, 
engineering plant. There are a number of components that are near the 
end of their design service life, and many of these are at that point 
as a result of having been exposed to high-density neutron fluxes over 
extended periods of time. This exposure makes the metal more brittle 
and limits the range through which the plant can be operated. The Navy 
understands the failure mechanisms involved. However, while no design 
safety limits will be violated if Enterprise was extended to 2015, the 
Navy would be rapidly approaching her design margin limitations in 
these areas.
    Navy also evaluated maintaining the U.S.S. Kitty Hawk (CV-63) in a 
mobilization status. Additionally, Kitty Hawk will be 47 years old when 
she is decommissioned in September 2008, an impressive accomplishment 
considering she was designed for a 30-year service life. She will also 
be our last fossil-fueled carrier. Reactivation of a ship the size and 
complexity of an aircraft carrier is estimated to take 24-30 months, 
making this option infeasible for the relatively short timeframe 
considered. It would also be costly, increasing the planned 
inactivation availability costs by $20 million and adding reactivation 
costs on the order of $500 million. Remanning would also pose 
significant costs and challenges. The current process would have her 
remanned in 12-18 months, at a cost of $400 million, but the challenges 
in filling many of the billets, including propulsion plant operators, 
are significant, and would negatively impact manning across the fleet.
    The analysis also looked at another strategy that would maintain 
Kitty Hawk in a mobilization status that would support reactivation in 
a 12-18 month timeframe. Again, the challenges were similar. The 
additional service life would remain a concern. The costs to inactivate 
would increase by $35 million, and the annual cost to maintain that 
condition would increase by $450,000 to about $700,000 per year. 
Reactivation costs are estimated at $450 million and remanning costs at 
$210 million. Again, the challenges in remanning specific skilled 
personnel would be significant and would impact across the fleet.
    The risk analysis determined that our most feasible option, from a 
technical, fiscal, and risk perspective, is to leverage the flexibility 
available in our O&M schedules, to manage the moderate but acceptable 
risk during the period of concern. Detailed analysis of this option is 
ongoing, to include the technical risks, cost impacts, and the timing 
for decision points.

    37. Senator McCain. Admiral Mullen, does the National Military 
Strategy reflect a 10-aircraft carrier force structure? If not, does 
this concern you?
    Admiral Mullen. The National Military Strategy does not specify a 
force level for the Nation's aircraft carrier fleet. However, the 2007 
National Defense Authorization Act requires a force level of 11 
aircraft carriers. The Navy is currently seeking congressional relief 
to reduce the number of aircraft carriers to 10 for a period of 33 
months, from 2013 to 2015, to accommodate the decommissioning of U.S.S. 
Enterprise in November 2012 and the commissioning of the U.S.S. Gerald 
R. Ford in September 2015. The Navy has conducted risk analysis that 
balances projected demands with projected O&M schedules, and has 
determined the risk to be acceptable, although moderate.
    While I am not concerned that the National Military Strategy does 
not specify a level for our aircraft carrier force, the Navy remains 
committed to the requirement for an 11-carrier force structure and has 
no analysis that would indicate anything less than 11 operational 
carriers is acceptable for an extended period of time. The Navy's PB08 
Long Range Plan for the Construction of Naval Vessels represents our 
ongoing efforts to balance warfighting capability requirements and 
affordability with individual base capacity. A minimum of 11 
operational carriers is central to this plan and provides the coverage 
necessary for support of the combatant commanders without unduly 
burdening the remaining 10 carriers. Return to at least 11 operational 
carriers in fiscal year 2016 is necessary to alleviate this short 
period (fiscal years 2013-2014) where carrier force structure is below 
the minimum.

                            navy fighter gap
    38. Senator McCain. Secretary Winter, Admiral Mullen, and General 
Conway, on March 22, Admiral Bruce Clingan, Director, Air Warfare 
Division Headquarters, U.S. Navy, testified before the House Armed 
Services Committee that the current naval tactical aviation procurement 
strategy has created a strike fighter shortfall that will extend 
through the next decade. The shortfall is derived from current and 
projected inventory compared to requirements. Current Navy projections 
show legacy strike fighter shortfalls ranging from about 50 aircraft to 
more than 200, depending on the service life extension for F/A-18 
aircraft (10,000 or 9,000 hours) and the F-35 (Joint Strike Fighter 
(JSF)) buy rate (50 or 35 per year beginning in fiscal year 2014). 
Admiral Clingan's testimony raises some important questions. First, the 
difference between 50 and ``more than 200'' is significant and, in 
either case, troubling. Isn't expecting a 10,000 flight hour service 
life extension on legacy model Hornets overly-optimistic (considering 
its original design service life was 6,000 hours)?
    Secretary Winter and Admiral Mullen. The ongoing Service Life 
Assessment Program (SLAP) that is analyzing fatigue life of the F/A-18 
A/B/C/D is 73 percent complete, and initial indications are very 
promising. Based on data collected to date, a significant portion of 
the airframe can be extended from the design limit of 6,000 flight 
hours out to 10,000 flight hours without modification. This is due to 
an excess strength margin and fleet utilization being less than the 
limits to which the airframe was designed and tested.
    SLAP will be complete in December 2007 and will provide the 
analysis necessary to develop the inspections and modifications 
required to extend the F/A-18
A/B/C/D service life out to 10,000 hours.
    General Conway. The original design life of 6,000 hours for the F/
A-18 series aircraft has already been increased to 8,000 hours through 
inspections. Studies underway for the past year to determine the 
feasibility of extending that limit to 10,000 hours have demonstrated 
positive indications. We anticipate release of this study in December 
of this year.

    39. Senator McCain. Secretary Winter, Admiral Mullen, and General 
Conway, additionally, isn't a buy rate of 50 F-35 aircraft in fiscal 
year 2014 also unrealistic given the Chief of Naval Operations' (CNO) 
goal of achieving a 313-ship Navy and our fiscally constrained 
environment?
    Secretary Winter and Admiral Mullen. The Navy believes that this 
buy rate is challenging but achievable based on current acquisition 
plans and continued congressional support. In order to recapitalize 
Navy strike fighters, it is imperative to begin procurement of F-35s at 
a rate which will minimize the projected inventory shortfall, as well 
as maintain F-35 affordability via economical production rates.
    General Conway. The buy rate of 50 F-35s per year will have to be 
balanced against completing requirements within the Navy's defense 
budget to reach the best balance of capabilities across our warfighting 
functions. The USMC TACAIR shortfall and transition to the F-35B is a 
high priority that will need to be adequately addressed to assure our 
ability to divest legacy aircraft that are at the end of their service 
life.

    40. Senator McCain. Secretary Winter, Admiral Mullen, and General 
Conway, more fundamentally, if current assumptions prove overly 
optimistic, what steps is the Navy taking to address what could be a 
catastrophic short-fall in naval tactical air (TACAIR) capabilities?
    Secretary Winter and Admiral Mullen. The Navy's strategy in the 
President's 2008 budget invests in 28 additional F/A-18 E/F aircraft, 
maintains the JSF Short Take-Off and Vertical Landing (STOVL) IOC at 
2012, and completes SLAP on the F/A-18 A/B/C/D by December 2007. These 
28 additional F/A-18 E/Fs maintain the production line for an 
additional year and allow for the current SLAP study to provide 
information for Navy decisions during the Program Objective Memorandum 
(POM) 2010 process. Refined analysis will provide options for a more 
complete strategy to mitigate or resolve from a holistic tactical 
aviation perspective.
    General Conway. The Marine Corps is managing our TACAIR 
capabilities shortfall on two fronts. First, we are committed to 
sustaining the current legacy TACAIR force through service life 
extension of our F/A-18 fleet and incremental upgrades of our AV-8B 
fleet to ensure we are consistently able to respond to our operational 
commitments. Second, we are placing a number of our TACAIR squadrons in 
cadre status and reinvesting those aircraft into remaining squadrons in 
order to ensure our remaining squadrons have adequate numbers of 
aircraft on the flight line.

    41. Senator McCain. Secretary Winter, Admiral Mullen, and General 
Conway, does Navy leadership think this is an appropriate level of 
risk, placed in the appropriate area of its budget?
    Secretary Winter and Admiral Mullen. Based on best analysis of 
complex competing priorities, Navy leadership feels that the budget 
submittal contains an appropriate level of risk, placed appropriately 
within the budget.
    General Conway. At this point, the Marine Corps has planned for and 
feels the risk in TACAIR shortfalls is manageable. It is critical to 
note, though, that any further slide in the F-35B IOC coupled with a 
shallowing of the F-35B procurement profile will introduce increased 
risk threaten USMC ability to meet future TACAIR operational 
commitments.

                relocation of marine corps units to guam
    42. Senator McCain. Secretary Winter and General Conway, the Navy 
has been assigned executive oversight over the planned relocation of 
over 8,000 U.S. marines from the Island of Okinawa to Guam within the 
next 6 years. This move is estimated to cost the United States over 
$4.3 billion just to provide facilities and infrastructure on Guam for 
our marines and their families. The Japanese Government will also share 
the costs of over $6.0 billion for additional facilities and housing. 
The DOD Inspector General released a preliminary report on March 12, 
2007, estimating that, in addition to the capital investment already 
mentioned, the move would add operations and readiness expenses of over 
$460.0 million annually to the Navy budget. This was a Marine Corps 
estimate. Currently, this cost is not captured in the FYDP accompanying 
the President's budget request for fiscal year 2008. Do you believe 
these cost estimates are accurate?
    Secretary Winter and General Conway.
    a. Facilities and Infrastructure - The $10.3 billion facilities and 
infrastructure estimate was made using standard assumptions, planning 
factors, and DOD estimating methods and sources such as the Unified 
Facilities Criteria and Naval Facilities P-80 data. Final project costs 
will depend on how closely the actual requirements and implementation 
tracks with the original planning assumptions. Additionally, the $10.3 
billion estimate does not include a number of ancillary costs that were 
not part of the negotiated agreement. Some examples include full 
training development in the Commonwealth of the Northern Marianas 
Islands (CNMI), inter- and intra-theatre mobility, actual relocation 
costs of our personnel, and facility furnishings. We continue to refine 
these initial estimates.
    b. Operations and Maintenance - The O&M estimates were based on the 
best information and assumptions available. These estimates are 
reasonable for initial budget estimating purposes and are anticipated 
to be in line with O&M costs at other USMC installations. Although 
itemized costs are expected to be similar to typical USMC installation 
O&M costs, we expect overall USMC expenses to increase irrespective of 
where units are relocated. This is due to discontinued Host Nation 
support as our forces move from Japan. Several costs which were 
previously borne by the Government of Japan (GOJ) will become the 
responsibility of the U.S. Government including: installation labor 
under the Master Labor Contract, Utilities, Host Nation replacement 
construction funding, and Housing. Housing costs no longer covered by 
GOJ will become an annual Basic Allowance for Housing or Overseas 
Housing Allowance bill for USMC to pay.

    43. Senator McCain. Secretary Winter and General Conway, with 
significant competing budget priorities for the Marine Corps, most 
notably the increase in end strength, can the Navy afford the move to 
Guam?
    Secretary Winter.
    a. The Navy can afford to pay its share of the cost within current 
top line budget controls. According to the negotiated agreement between 
Japan and the United States, Japan will pay up to $6.1 billion of the 
estimated $10.3 billion cost to relocate about 8,000 marines from 
Okinawa. The current FYDP includes $2.5 billion across the fiscal year 
2008 through fiscal year 2013 timeframe as the Navy's share to support 
the relocation of the marines from Okinawa. The remaining 
implementation cost will be addressed beyond the FYDP.
    b. Costs to move these marines and their families from Japan to 
Guam should be borne in light of several key factors.

          (1) Our presence in the Western Pacific is of immense 
        strategic value and is vital to U.S. Government interests. 
        Timely response to crises, as well as the goodwill and trust 
        built by constant exercises and operations with our partner 
        nations in the Pacific, makes our forward presence 
        irreplaceable. Locating marines in Guam allows us to continue 
        to meet these strategic imperatives. Location is everything, as 
        it buys us precious time to quickly respond and allows us to 
        respond using locally based forces and organic mobility.
          (2) The GOJ has agreed to pay $6.1 billion of the estimated 
        $10.3 billion cost to move the marines specifically to Guam. 
        Relocation to other locations (e.g. Hawaii or CONUS) may not 
        come with the same GOJ commitment of funding, and could thereby 
        increase the cost to the U.S. taxpayer.
          (3) In addition to the $6.1 billion that our Japanese allies 
        have committed toward building a new base in Guam, they are 
        making other contributions as well. These include rebuilding, 
        modernizing, and helping as we realign our forces on Okinawa 
        and in Japan, at an expected cost of an additional $20 billion.

    c. The advantages of a long-term strategic relationship weigh 
favorably against the monetary costs of this endeavor.
    General Conway. According to the negotiated agreement between Japan 
and the United States, Japan will pay up to $6.1 billion of the 
estimated $10.2 billion cost to relocate about 8,000 marines from 
Okinawa. The current FYDP includes $2.5 billion across the fiscal year 
2008 through fiscal year 2013 timeframe as the Department of Navy's 
share to support the relocation of the Marines from Okinawa. The 
remaining implementation cost will be addressed beyond the FYDP.
    Costs to move these marines and their families from Japan to Guam 
must be considered in light of several factors.

          1. Our presence in the Western Pacific, our daily living and 
        operating, is of an immense strategic value and is vital to 
        U.S. Government interests. Timely response to crises, as well 
        as the goodwill and trust built by constant exercises and 
        operations with our partner nations in the Pacific, makes our 
        forward presence irreplaceable. Locating Marines in Guam allows 
        us to continue to meet these strategic imperatives. Location is 
        everything, as it buys us precious time to quickly respond and 
        allows us to respond using locally based forces and organic 
        mobility.
          2. The GOJ has agreed to pay $6.1 billion of the estimated 
        $10.3 billion cost to move the marines specifically to Guam. 
        Relocation to other locations (.e.g. Hawaii or CONUS) may not 
        come with the same GOJ commitment of funding, and could thereby 
        increase the cost to the U.S. taxpayer. When we discuss Guam, 
        we must keep this in mind, this relocation bill will still need 
        to be paid, even if these forces move somewhere else.
          3. We should keep in mind that in addition to the $6 billion 
        that our Japanese allies have committed for building a new base 
        in Guam, they are additionally rebuilding, modernizing, and 
        helping us as we realign our forces on Okinawa and in Japan, at 
        an expected cost of an additional $20 billion. While the 
        current effort will be expensive, it would be significantly 
        more expensive if we were to attempt this enterprise alone. The 
        advantages of a long-term stable relationship weigh favorably 
        against the monetary costs of this endeavor.

    44. Senator McCain. Secretary Winter and General Conway, when will 
a master plan be developed detailing the military construction (MILCON) 
and housing projects to be required for the Marine Corps forces?
    Secretary Winter. The contract to develop the Guam master plan was 
awarded in January 2007. The final plan is expected to be complete in 
July 2008.
    General Conway. The Guam Master Plan is due to OSD by September 
2008.

    45. Senator McCain. Secretary Winter and General Conway, assuming 
the Navy maintains its current level of facility investment in the rest 
of its installations, where is the Department going to get an 
additional $4 billion for construction on Guam and what other 
priorities will be deferred?
    Secretary Winter and General Conway. The current FYDP includes $2.5 
billion across the fiscal year 2008 through fiscal year 2013 timeframe 
as the Navy's share to support the relocation of the Marines from 
Okinawa to Guam. Maintaining this level of funding beyond the FYDP 
would allow the Navy to address the remaining implementation cost 
without the need to defer other priorities.

    46. Senator McCain. General Conway, what is your perspective on the 
impact of the move to Guam on the Marines?
    General Conway. The USMC is working with the Commander, U.S. 
Pacific Command and our senior leadership in DOD to ensure our service 
remains relevant to our Nation's military requirements in the Asia-
Pacific region. III Marine Expeditionary Force units and other U.S. 
military forces currently conduct mission essential training in Guam 
and the CNMI. We expect that USMC air, ground, and logistics training 
will continue in the future and potentially expand with our planned 
relocation to Guam. We envision a series of training areas in this 
region where we will be able to adequately train to the majority of our 
combat and non-combat related missions. For the remaining training 
requirements, we will look at innovative opportunities to train with 
our allies and partner nations.

    47. Senator McCain. General Conway, what is the cumulative effect 
of this relocation on the Marines' ability to provide adequate forces 
for regional conflicts?
    General Conway. [Deleted.]

           total costs to grow the force for the marine corps
    48. Senator McCain. General Conway, regarding the costs to grow the 
Active-Duty Marine Corps to 202,000 marines by 2011, you mention in 
your opening statement that the Marine Corps has requested funds in the 
fiscal year 2007 Emergency Supplemental to start constructing the 
facilities and equipping three new infantry battalions totaling over 
4,000 troops. The fiscal year 2008 President's budget request includes 
over $4.3 billion for military pay, training, recruiting, equipment, 
and other costs dedicated to growth of the force. Do you have an 
estimate of total investment required in equipment, facilities, and 
increased operating expenses to complete the growth to 202,000 marines?
    General Conway. The total estimated fiscal years 2008-2013 cost to 
grow the Marine Corps by 27,000 was initially calculated at $30.8 
billion. That amount was reflected in our fiscal years 2008-2013 
President's budget submission. Within that amount, $7.025 billion was 
for the procurement of equipment, $3.230 billion was for MILCON and 
family housing projects, and $620.6 million was for additional base 
operating expenses.

    49. Senator McCain. General Conway, will the Marine Corps be 
seeking these costs as an increase to the Marine Corps top-line, or do 
you anticipate the Marine Corps will have to shed or defer existing 
requirements?
    General Conway. The fiscal year 2008 President's budget request 
provides funding for the increase in USMC end strength with an 
increased topline. The budget provides funding for the end strength 
increase without a negative financial to any USMC functions.

               declining investment for base sustainment
    50. Senator McCain. Admiral Mullen, in the President's budget 
request for fiscal year 2008, the Navy proposes to reduce the amount 
dedicated to the sustainment of Navy facilities by over $330 million in 
order to cover other budget shortfalls. This account has historically 
been raided to pay for other bills, leading to a perpetual deferment of 
critical readiness requirements. This is the account used to repair 
leaking roofs, remove mold from walls, repair deteriorated runways and 
piers, and ensure that the facilities our sailors and marines live and 
work in are safe, secure, and in good condition. In light of all the 
recent attention to the impact of deteriorated facilities on the morale 
and well-being of our military personnel, why is the Navy willing to 
underfund this account?
    Admiral Mullen. The resources contained in the Navy's fiscal year 
2008 budget help us support the joint war on terrorism, sustain our 
combat readiness, and provide quality services and benefits for our 
sailors and their families. However, persistent high tempo operations 
related to the global war on terrorism and attaining our shipbuilding 
and aircraft procurement objectives continue to stretch the Navy's 
limited resources. The resultant pressurized Navy top-line and 
competing readiness account priorities result in an underfunded 
Facility Sustainment account. In fiscal year 2004, fiscal year 2005, 
and fiscal year 2006, we transferred $504 million, $195 million, and 
$216 million, respectively, from Facility Sustainment to Base Operating 
(BOS) accounts in order to fund civilian personnel salaries, utilities, 
contracts, and to provide minimum levels of service. In anticipation of 
the Facility Sustainment appropriation being provided under the fiscal 
year 2007 Military Construction Appropriations Bill (QOL/NA) vice the 
Operations and Maintenance Appropriations Bill, we aligned SRM funds to 
meet BOS must-fund requirements, and decreased the Sustainment account 
$179 million in fiscal year 2008. Sustainment is funded at 95 percent 
of the OSD goal (Facility Sustainment Model) in fiscal year 2007 and 
PB08 requests 83 percent of the OSD goal. Concerned about this risk, I 
requested an additional $240 million for Facility Sustainment as my #10 
priority on my POM-08 Unfunded Programs List to raise the fiscal year 
2008 sustainment rate to 100 percent of the OSD goal.

    51. Senator McCain. Admiral Mullen, how long can the Navy continue 
this risk before seeing real consequences in terms of reduced readiness 
and affected daily operations?
    Admiral Mullen. Regretfully, we are already seeing the effects of 
underfunding the Facilities Sustainment account in quality of life and 
limited daily operations. For example, the inability to adequately fund 
sustainment of waterfront facilities has resulted in quay walls, 
wharves, and piers in the Southwest, Mid-Atlantic, Guam, and Hawaii 
Navy Regions approaching failure and has directly impacted the movement 
of ships in and out of port. Naval Station Pearl Harbor currently has a 
restoration backlog of over $67 million on critical waterfront 
facilities. Lack of maintenance on heating and air-conditioning systems 
has also resulted in a lowered quality of life for our sailors who 
experience intermittent loss of heating and cooling in their work and 
living spaces.
    We seek to achieve the service life of our facilities. This 
requires sufficient/sustained preventive and condition-based 
maintenance funding. Over the past several budget cycles, we have 
executed approximately 82 percent of the funding requirement. As a 
result, we expect to see a reduction in service life and adverse 
impacts on mission and quality of life. A key focus of my POM-10 
deliberations will be to develop a shore infrastructure capital 
investment program that will arrest the decay in our shore 
infrastructure and realize the expected facility service life to meet 
mission and quality of life demands.

    52. Senator McCain. Admiral Mullen, do you agree that deferring 
maintenance and repairs to critical infrastructure and facilities will 
just make the problem harder and more expensive to fix down the road?
    Admiral Mullen. Yes. The Navy's average sustainment rate across the 
FYDP is 81 percent. The Navy is taking manageable risk in order to fund 
other priorities, while recognizing that continued lower levels of 
sustainment will generate higher costs for restoration and 
modernization in later years.

               marine corps amphibious lift requirements
    53. Senator McCain. General Conway, the Marine Corps has held a 
longstanding requirement for the Navy to provide amphibious lift for 
three Marine Expeditionary Brigades (MEBs) to support forcible entry 
operations. I notice in your statement this year that you are now 
calling for two brigades to perform such an assault. What was the basis 
for the Marine Corps' determination to reduce assault echelon (AE) 
requirements for an opposed landing?
    General Conway. The Marine Corps has not reduced AE requirements 
for an opposed landing. What has been reduced is the total amphibious 
lift requirement for AE-capable forces. The basis for the 3.0 MEB AE 
fiscally constrained to 2.5 MEB AE requirement noted in this question 
was documented in the Navy's 1992 Posture Statement signed by Secretary 
of the Navy, CNO, and CMC, and is quoted in part, as follows:

          For a global ready response capability and forward presence, 
        the Nation needs a tailored force with at least enough 
        amphibious ships to lift the AEs of 2.5 brigade-size units. 
        This allows the Navy and Marine Corps to meet current 
        requirements for the forward deployed forces and still provide 
        sufficient surge capability to assemble a brigade-size 
        amphibious assault force in either the Atlantic or Pacific. 
        This fiscally constrained goal meets the Nation's minimum 
        requirements.

    As noted above, the total requirement identified in the 1992 
statement was for 2.5 MEB AE lift capacity, and the forcible entry 
component of that requirement was two brigade-size amphibious assault 
forces--one on each coast--totaling the same as today's stated 
requirement for 2.0 MEB AE.
    The current requirement for 2.0 MEB AE is traced to the Strategic 
Planning Guidance (SPG), directing us to ``. . . consider capability 
alternatives . . . to support a single two MEB forcible entry 
operation.'' Although the language in today's SPG is different than in 
the 1992 statement, the requirement to maintain a 2.0 MEB forcible 
entry capability remains the same.

    54. Senator McCain. General Conway, what changes have occurred 
regarding the threat or Marine Corps doctrine that provides confidence 
that this reduced assault force is right-sized for major combat 
operations?
    Admiral Mullen. The global threat and Marine Corps doctrine have 
not changed appreciably in the past several years. Greater emphasis has 
been placed on dispersed, global terrorist networks that exploit Islam 
to advance radical political aims rather than on the employment of 
traditional military forces. The guidance published in the QDR 
highlights the transformation of the DOD:

         - From major conventional combat operations to multiple 
        irregular, asymmetric operations

    Based on the QDR Report, the SPG further tasks the Services to:

         - Components will reduce priority of current and future 
        capabilities and forces that provided disproportionate 
        overmatch against traditional challenges
         - Reduce resources for future capabilities that would 
        marginally increase existing U.S. advantages against 
        traditional challenges
         - The Marine Corps will consider capability alternatives for 
        review by the Deputy's Advisory Working Group to support a 
        single two MEB forcible entry operation

    Historically, the Marine Corps has stated its requirement for 
amphibious lift in terms of three MEBs, fiscally constrained to 2.5 
MEBs to support amphibious assault forcible entry operations. In 
accordance with the guidance set forth in the most recent SPG, the 
Marine Corps has further constrained this requirement for amphibious 
lift to two MEBs. This 2.0 MEB capability is generally acknowledged by 
the U.S. Navy providing and maintaining a Battle Force of 30 
operationally available amphibious warfare ships for forcible entry 
operations. The ability to successfully conduct a major combat 
operation requiring an amphibious assault with a force of this size 
accepts risk in two areas: future challenges and current operations. 
Additionally, it potentially limits future national security options 
for forcible entry from the sea in a period of time where anti-access 
is growing among non-U.S. aligned countries, non-state actors, and 
reluctant allies.

                  sea-based ballistic missile defense
    55. Senator McCain. Admiral Mullen, the sea-based ballistic missile 
defense system (AEGIS BMD) has been successful in 7 of the last 8 
intercept tests, and up to 10 SM-3 interceptors are now deployed on 3 
ships in the Pacific Fleet. The current AEGIS BMD system is capable of 
intercepting short- and medium-range ballistic missiles, such as the 
North Korean No Dong missile and the Iranian Shehab-3. Current plans 
call for deploying over 100 SM-3 missiles on 18 AEGIS cruisers and 
destroyers by fiscal year 2012. The Missile Defense Agency funds 
procurement for the missiles and shipboard upgrades, while the Navy 
assumes the operations and support costs associated with this sea-based 
missile defense capability. Current plans call for upgrading 18 Pacific 
Fleet AEGIS ships by 2012 for the missile defense mission. Given the 
growing threat posed by Iranian ballistic missiles, what are the Navy's 
plans to similarly equip Atlantic Fleet ships with a ballistic missile 
defense capability?
    Admiral Mullen. Two Atlantic Fleet ships are among the 18 ships 
scheduled to be upgraded with Ballistic Missile Defense capability by 
2012. One will be finished in August 2007 and the other ship will be 
finished in December 2008. Despite homeport locations, all Navy ships 
are worldwide deployable. The Navy's Destroyer Modernization program is 
funded to provide BMD capability for all remaining 47 Arleigh Burke 
class destroyers. Two destroyers will begin modernization in fiscal 
year 2012, and three destroyers will be upgraded each following year. 
BMD capability for the 19 remaining cruisers is not funded and is being 
considered for POM-10.

     conditions at marine corps battalion level medical facilities
    56. Senator McCain. General Conway, committee staff has reported to 
Marine Corps leadership on several occasions that conditions at medical 
facilities supporting marines at the battalion level are substandard 
and unacceptable. At Camp Horno, for example, third-world conditions 
exist such as open bays for medical exams, open doorways to the outside 
hung with plastic curtains, poor lighting, and dust and dirt throughout 
the facility. For the second year since learning of these conditions, 
the budget request includes no funds for improving battalion level 
medical facilities. I believe our marines deserve better. How do you 
explain this?
    Admiral Mullen. Senator, the conditions you cite at Camp Horno are 
unacceptable but I wish to assure you that these conditions are not 
representative of the approximately 90 Battalion and Regimental Aid 
Stations (BAS/RAS) we have across the Marine Corps. That said, and 
based upon input we have compiled from a recent data call, we have 
action underway on several fronts. For the near-term, HQMC developed 
minimum habitability standards and directed that our operational 
commanders and installations take immediate action to ensure these 
standards are met. If they cannot be met, the facility is to be closed. 
Installations are to report back no later than 30 June of this year 
that each BAS/RAS has met these standards or has been closed. If 
closed, they are to report the alternate means used to obtain medical 
services. These standards include but are not limited to requirements 
for clean and freshly painted surfaces, well-maintained floors in good 
structural repair, mechanical systems in good operating order, 
sufficient lighting, regularly scheduled field days and solid waste 
disposal, exam room privacy, waiting areas that are separated from the 
examination rooms, clean and operational windows with proper window 
treatments, sufficient double lock storage for medical records, doors 
with properly functioning hardware, sufficient fire suppression 
equipment/smoke detectors with documented evidence of routine 
inspection, and furnishings that comply with basic infection control by 
being clean, functional, and in reasonable repair. Funding is in place 
at the operational unit level and at our installations to take 
necessary corrective actions to meet these standards.
    We are also translating recently developed medical standards to 
identify the level of care that should be provided within an Aid 
Station (BAS/RAS) into basic facilities planning criteria to support 
this level of care. These criteria define the square footage, 
configuration, special requirements, et cetera, necessary to support 
the number of marines assigned. These planning criteria will be used to 
assess whether sufficient capacity of facilities is available to 
support these units, and where not, provide the necessary information 
to develop corrective projects. In addition, we are revising our 
facility coding process to provide aid stations with a unique facility 
identifier, which will allow better tracking of the condition of these 
facilities. We expect initial efforts to be completed this fiscal year. 
These criteria and unique identifiers will allow us to ensure the 
appropriate priority is assigned to corrective projects for these 
facilities and that we programmatically address overall requirements 
through our repair, minor construction and, if necessary, military 
construction programs.
    Finally, our Health Services and Facilities organizations are 
ensuring these habitability standards, medical standards, and 
facilities planning criteria are incorporated into inspection protocols 
used by the Inspector General and other oversight organizations to 
validate routine compliance.
                                 ______
                                 
               Questions Submitted by Senator John Warner
              the new national medical center at bethesda
    57. Senator Warner. Secretary Winter, concerns have been raised 
about the Department's planned end-state capacity of medical facilities 
in the National Capital Region and the potential for patient care 
disruption during the transition to new facilities at Bethesda from the 
existing Walter Reed facilities. The transition planning process cannot 
succeed without leadership at the highest levels of the Navy along with 
the Army. What are your thoughts regarding the acceleration of 
construction at Bethesda to ensure effective and seamless transition of 
care for wounded servicemembers, as well as regular medical services 
for the population serviced by Walter Reed?
    Secretary Winter. Leaders from National Naval Medical Center, 
Walter Reed Army Medical Center, along with Military Health System 
(MHS) leadership and Office of Secretary of Defense/Health Affairs, 
will work to ensure that the health care delivery is not compromised. 
All resources within the MHS will be made available to ensure effective 
and seamless transition of care for eligible beneficiaries. The 
military medical and NAVFAC team will work towards completing the 
construction as expeditiously and economically as possible, without 
sacrificing quality of care.
    Construction phasing is an integral part of the design and 
construction process being developed to create a seamless transition in 
the design and construction of Bethesda and Fort Belvoir. Any 
acceleration at either site will potentially affect additional health 
care workload. Existing patient health care is a critical factor that 
is receiving the utmost attention as part of the design effort. Design 
and construction decisions, such as stand alone structures and location 
of additions, can help minimize patient care disruptions.
    The Navy fully understands the importance of completing BRACON 
Project P-005V, Walter Reed National Military Medical Center, Bethesda, 
MD, as early as possible. We have already compressed the original 38 
month construction schedule to 30 months, and are exploring 
alternatives to improve upon that construction duration. The required 
Environmental Impact Statement (EIS) will be completed in time to allow 
a construction start in April 2008. Additionally, there are options to 
phase construction completion that would enable portions of the 
improved facility to open in advance of the overall planned project 
completion date of October 2010. Given a constrained site and the 
desire to preserve the quality of ongoing medical care at the existing 
hospital complex, acceleration beyond the already compressed schedule 
would be extremely challenging.

  east coast aircraft carrier basing and mayport environmental impact 
                                 study
    58. Senator Warner. Secretary Winter, I have been following with 
interest the Navy's assessment of strategic homeporting and dispersal 
options for Atlantic Fleet surface ships. I believe it is important 
that all factors be considered in any large operational move, to 
include not only environmental concerns, but also national security 
requirements, the impact on sailors and their families, and local 
economies. What is the current status and way ahead for the current 
Naval Air Station (NAS) Mayport environmental impact study?
    Secretary Winter. The Navy has undertaken this EIS to ensure that 
we continue to effectively support fleet operational requirements 
through the most efficient utilization of Naval Station Mayport in the 
future, and to evaluate the potential environmental impacts on Mayport 
for each of the ship homeporting alternatives that are under 
consideration.
    A Notice of Intent to prepare the EIS was published in the Federal 
Register on 14 November 2006. A public scoping meeting was held in 
Jacksonville on 5 December 2006. The Navy is being both environmentally 
and fiscally responsible in awaiting the conclusion of the EIS, with a 
Record of Decision expected in January 2009.
    The final decision on utilization of Mayport will include 
consideration of other factors such as national security requirements, 
total cost and other programmatic implications, impact on sailors and 
their families, and the effect on local economies.

    59. Senator Warner. Secretary Winter, what are your thoughts on 
where the Atlantic Fleet end state may be, in terms of what ships, 
including carriers or large deck amphibs, may be moved?
    Admiral Mullen. In January 2006, Commander, U.S. Fleet Forces 
Command, was directed to conduct an EIS that will review and assess a 
broad range of alternatives for the potential homeporting of additional 
surface ships at Naval Station Mayport. The purpose of the EIS is to 
evaluate the potential environmental impacts on Mayport for each of the 
alternatives that are under study. Specifically, the EIS will examine 
13 alternatives for Naval Station Mayport:

        <bullet> The homeporting of large amphibious ships, either an 
        LHA or LHD
        <bullet> The homeporting of a nuclear-powered aircraft carrier 
        (CVN)
        <bullet> Making Naval Station Mayport capable of hosting a CVN
        <bullet> The homeporting of additional surface combatants 
        (cruisers and/or destroyers [CRUDES])
        <bullet> Seven different combinations of the above
        <bullet> The homeporting of an Amphibious Ready Group (LHA or 
        LHD, LPD, LSD)
        <bullet> No Action

    In order to be both environmentally and fiscally responsible, the 
Navy will await the conclusion of the EIS in January 2009 before making 
any decisions regarding Mayport. Accordingly, the Navy will allow 
adequate time to fully assure that all considerations have been 
evaluated regarding the potential move of additional ships to Mayport, 
Florida. These considerations include national security requirements, 
total cost and other programmatic implications, impact on sailors and 
their families, and the effect on local economies.

   master jet base assessment for naval air station oceana, virginia
    60. Senator Warner. Admiral Mullen, you recently released a report 
to this committee, which was commissioned by the Office of the CNO, and 
consisted of an assessment of NAS Oceana in Virginia as it compared to 
an ``ideal'' master jet base. In the report, NAS Oceana was assessed 
the highest grade in the operational training category, which measures 
the installation's capability to support required flight training. 
Unfortunately, because of the significant local community development 
around NAS Oceana, the base was rated lowest in ``field operational 
environment.'' Now I note that this report was conducted in December 
2005. The Virginia Beach community and the Commonwealth of Virginia 
have taken great steps to work with the Navy over the past year and a 
half on the encroachment issue. How would you assess the current 
situation for the Navy as it related to the field operating 
environment?
    Admiral Mullen. Encroachment remains a serious issue with potential 
operational impacts, however, the Navy is encouraged by the hard work 
achieved thus far by Virginia Beach, Chesapeake, and the Commonwealth 
of Virginia, and I view the following steps taken as positive progress 
toward improving the field operating environment.

    - The recently adopted Virginia Beach/Navy Memorandum of 
Understanding establishes the process by which all development 
proposals within the Air Installations Compatible Use Zone (AICUZ) 
contours will be reviewed and processed. The measures thus far adopted 
by the City will help to limit future incompatible development that 
could have an adverse impact on the conduct of air operations at 
Oceana.

          1. The MOU creates a new process for Navy officials to review 
        and comment earlier in the process on proposed development in 
        the AICUZ, thereby strengthening the parties' working 
        relationship and commitment to address potential encroachment 
        at NAS Oceana. Communications and meetings between Navy and 
        City staff well in advance of Planning Commission and City 
        Council consideration will help to ensure that land use 
        decisions are fully informed and conflicts are avoided to the 
        extent possible. The results have been commendable and have not 
        only halted encroachment around Oceana/Fentress but have 
        several programs in effect which will rollback existing 
        development from several of Oceana's Accident Potential Zone 
        One and Clear Zone.

    - Virginia Beach adopted an AICUZ Overlay ordinance for the areas 
within Noise Zones 70 dB day-night noise level (DNL) and higher.
    - Virginia Beach established an Accident Potential Zone (APZ) and 
Clear Zone acquisition program to roll back existing incompatible 
development. $15 million per year ($7.5 million city and $7.5 million 
State) has been budgeted for fiscal years 2007 and 2008.
    - Virginia Beach enacted an ordinance (APZ Ordinance) that 
prohibits future incompatible development in APZ areas.
    - Virginia Beach enacted an ordinance that adopted an amended 
comprehensive plan and the official zoning map to now include the NAS 
Oceana--Navy Auxiliary Landing Field (NALF) Fentress Interfacility 
Traffic Area (IFTA).
    - Virginia Beach amended the comprehensive plan by revising 
chapters discussing strategic growth areas, primary residential areas, 
and the transition area between NAS Oceana and NALF Fentress by 
incorporating provisions pertaining to the AICUZ program.
    - Virginia Beach enacted an ordinance amending the zoning and 
design guidelines in the majority of the ocean front resort area, the 
net result is a reduction in the potential amount of residential units 
by 4,000.
    - Virginia Beach enacted an ordinance to establish an IFTA Property 
Acquisition Plan. As of 17 April 2007, 15 properties have been 
identified, prioritized, and prices negotiated by the City of Virginia 
Beach.
    - Chesapeake enacted an ordinance to amend its AICUZ overlay 
district to include noise zones greater than 70 dB DNL.
    - Commonwealth of Virginia amended the State code to require noise 
and APZ zone disclosures for all residential and commercial sales and 
leases when the noise and APZ are on a city zoning map. The 
Commonwealth amended the State building code to require sound 
attenuation in all new residential and commercial construction.
    - Commonwealth of Virginia created the Oceana Fentress Military 
Advisory Committee, responsible to the Governor's standing Virginia 
Military Advisory Commission, to provide continuing oversight of land 
use issues affecting Navy Air Operations in Chesapeake and Virginia 
Beach.

    61. Senator Warner. Admiral Mullen, in your opinion, what more can 
be done by the local community and the State to improve the operating 
environment for the Navy at Oceana?
    Admiral Mullen. The Navy recognizes and is grateful for the hard 
work already underway by local and State authorities in the Virginia 
Beach community and the Commonwealth of Virginia. The Navy would like 
the local community to extend the Air Installation Compatible Use Zone 
(AICUZ) Overlay District and Fentress Overlay District out to 65 dB DNL 
vice 70 dB DNL, to conform to Navy AICUZ criteria that discourages 
residential development in that noise zone. In addition, the State and 
local communities need to establish a process and source of funding to 
expand the program to purchase homes from willing sellers into Accident 
Potential Zone II and high noise zones. These recommendations have been 
discussed with appropriate local officials.

    62. Senator Warner. Admiral Mullen, the report also mentioned that 
Oceana's ``base infrastructure is in decline, the result of long-
deferred maintenance. Runway, taxiway, parking apron, and hangar MILCON 
projects designed to upgrade the airfield infrastructure are either 
underway or programmed.'' Please provide the status of these activities 
for Oceana and the Navy's plan to recover from the deferment of 
maintenance investments at the base.
    Admiral Mullen. The private sector industry standards for facility 
investment (sustainment-ST, restoration and modernization-RM) are 
typically 2 percent of Plant Replacement Value (PRV). In the last 5 
years, NAS Oceana met the 2 percent PRV industry standard only one time 
(fiscal year 2007) as shown in the following table:
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    This long-term underinvestment has resulted in a growing backlog of 
maintenance and repair estimated at $261 million, or approximately 14 
percent of the PRV. The average age of the deficiencies in the backlog 
is 4.1 years. A portion of the under-investment is due to suspending 
noncritical facility repairs/capital investments, pending the 
resolution of NAS Oceana's BRAC status. NAS Oceana's future long-term 
status was resolved in January 2007.
    Improving our shore infrastructure is at the forefront of our PR-09 
budget deliberations, but resources are very tight. The Navy is now 
undertaking a systematic approach to address the critical 
infrastructure requirements world-wide. This will include a deliberate 
``fence line to fence line'' assessment of the facilities in each shore 
installation, covering three dimensions: (1) Contribution to current 
mission, (2) Quality of current facilities and, (3) Quantity of 
facilities versus projected demand. Once this comprehensive condition 
based assessment is done, decisions will be made to address current and 
projected gaps using MILCON, major repair efforts, or lesser 
maintenance efforts to satisfy mission needs.
    The following MILCON Projects at NAS Oceana have been enacted:
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    President's budget 2008 does not include any MILCON projects in 
fiscal year 2008 at NAS Oceana, but includes the following projects in 
the out years:
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    In addition to the MILCON projects above, fiscal year 2007 special 
projects include:

        <bullet> Twelve minor restoration and sustainment projects, 
        valued at $3.2 million, are currently underway.
        <bullet> A $8.9 million special project to repair parking 
        aprons and taxiways. Award planned 30 August 2007.
        <bullet> A $20 million special project for hangar repairs. 
        Award planned 30 August 2007.
        <bullet> Repair Runway 14R/32L and 5R/23lR, total $19.8 
        million. Timing for execution of these projects is dependent 
        upon PR-09 budget deliberations.

    In the past, Navy has failed to pursue a systematic, deliberate, 
and consistent approach to assessing the material condition of our 
shore facilities. I have directed efforts to make quick, deliberate 
progress in getting an accurate fix of our shore infrastructure, to 
develop a comprehensive investment strategy, and to make the 
prioritized resource requirements clear in our POM-10 submission. This 
will benefit not only Oceana, but all our installations, in which we 
are significantly underinvested.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                          production capacity
    63. Senator Chambliss. General Conway, you emphasize the tempo of 
operational demands as the reason for an increase in maintenance 
requirements and the criticality of maintaining equipment in terms of 
sustaining troop readiness to operate at the ``sustained rate of 
fire.'' Specifically, you mention Light Armored Vehicles being driven 
3.5 times more than their programmed annual usage rates. You have also 
said that maintaining materiel is a key factor in determining combat 
readiness. These statements make it clear that maintenance needs to be 
a priority; however, your written statement says that certain 
production requirements cannot be met in a single year due to 
production capacity issues. Do your maintenance depots have the 
capacity and assets to meet these demands and to meet demands which 
will increase as the size of the force increases?
    General Conway. As long as the assets are available and there is 
funding, our depots have the capacity to meet the demand. Marine Corps 
Depot Maintenance Activity Group (DMAG) is a multi-commodity operation. 
Customer requirements drive the need for additional workers, overtime, 
and additional shifts. Selected areas are currently working 12-hour 
second shifts. As workload increases, the option to expand is 
available.

                 inter-service maintenance cooperation
    64. Senator Chambliss. General Conway, are your logistics depots 
sharing maintenance work with other Services and taking advantage of 
the synergies gained through inter-Service cooperation?
    General Conway. Yes. Currently both Anniston Army Depot and 
Tobyhanna Army Depot are working USMC equipment. We will continue to 
rely on inter-servicing to perform maintenance work as appropriate. 
Additionally, LOGCOM has offered assistance to other Services, 
specifically the Army, to reduce their backlog.

                                 reset
    65. Senator Chambliss. General Conway, the Marine Corps is no 
longer identifying depot maintenance as a ``cost of war'' and is now 
factoring this expense into the cost of resetting the force. Given the 
additional funding requirements necessary to reset your equipment and 
the length of time required to reach pre-war equipment levels, will you 
also need to expand your depot workforce to meet this reset demand?
    General Conway. Asset and funding availability dictate the size of 
the workforce and the number of shifts required. Selected areas are 
currently working 12-hour second shifts. As workload increases, the 
option to expand is available. Expansion of the workforce is 
accomplished using temporary hires and contracted labor, which allows 
contraction of the workforce when the workload decreases. It is 
anticipated that the workforce will expand and contract throughout the 
reset process.

    66. Senator Chambliss. General Conway, what factors will you use to 
determine what equipment to repair and reset, and to determine the 
division of work between industry and your existing depot workforce?
    General Conway. All depot level reparables will be overhauled and 
all field level reparables will be upgraded to serviceable standards. 
In determining the division of work between industry and depots, we 
will use the existing Depot Level Source of Repair (DSOR) decision 
process to determine where the work is accomplished. If the Joint Depot 
Maintenance Activities Group selected DSOR repair facility is unable to 
accomplish the work then an alternate DSOR will be sought. Alternate 
DSORs include private contractors and service depots.
                                 ______
                                 
               Questions Submitted by Senator John Thune
                              shipbuilding
    67. Senator Thune. Admiral Mullen, the affordability of the Navy 
shipbuilding program and our ability to meet the CNO's plan for a 313-
ship Navy are of great concern. The Congressional Budget Office 
estimates that $20 billion per year--$5 billion greater than the Navy's 
budget estimate--will be required to buy the ships in the Navy's plan. 
We all agree that we need to increase our rate of shipbuilding, and 
that we likewise need to take deliberate actions on the front end of 
this program to ensure that we do not have to cut out future ships to 
pay bills on the back end. Given the cost pressures on the shipbuilding 
program, what impact do the increased cost and delays of the LCS 
program have on the balance of ship programs in the Navy's plan?
    Admiral Mullen. The significant impact that increased cost and 
delays have had is the need to reprogram or request reprogramming 
authority for the fiscal year 2007 funding in order to use these funds 
to complete the vessels that still are under contract.
    In the out-years, the cost reductions associated with our strategy, 
the selected configuration, and the buy will enable cost efficiencies 
associated with a modern production facility. These mechanisms will 
enable us to minimize the cost impact to the overall shipbuilding 
program.
    The Navy needs to understand exactly how much we're going to be 
able to get by way of investment in those facilities and the leverage 
that that will provide us. But I am very hopeful that we will be able 
to recoup a significant amount of the increased cost.

    68. Senator Thune. Admiral Mullen, to the extent that it would be 
possible to accelerate the Navy's shipbuilding plan, where would you 
propose to increase our investment to provide the greatest military 
benefit and financial return on investment?
    Admiral Mullen. Any acceleration of the shipbuilding plan would 
need to be weighed against the impact to the SCN account stability. We 
have provided industry with a stable planning horizon. By not 
constantly modifying the shipbuilding plan, we have established trust 
and facilitated the shipyards to ability to make the kind of capital 
investments necessary to make them more efficient.
    Adding any additional ships without complete funding/top level SCN 
relief, would cause an imbalance with the planned funding for Navy 
ships, potentially causing other shipbuilding programs to destabilize.
    We are in the process of analyzing our shipbuilding plan in an 
unconstrained fiscal environment. While I am confident with the 
original assumptions and work that led to the 313 force structure and 
the current shipbuilding plan, one of the key assumptions was a 
constrained fiscal environment. In a more favorable fiscal environment, 
I would anticipate accelerating the shipbuilding plan and increasing 
the overall size of the force.
    The Navy has examined the feasibility of increased shipbuilding 
investments in fiscal year 2008. Most of the ships in the Navy's 
construction inventory (CVN, LCS, and CG(X)) cannot be accelerated due 
to execution risk associated with maturing programs or production 
limitations. For mature programs without significant risk such as DDG-
51 Class, the fleet inventory will reach its objective with current 
construction plans and additional ships would be in excess of the 
warfighting requirements.
    LPD-17 Class Amphibious Assault Ship, T-AKE Dry Cargo Carrier, and 
SSN Virginia Class Attack Submarine, could be added to accelerate the 
shipbuilding plan and provide the greatest military benefit and 
financial return on investment.
    Adding a 10th LPD in fiscal year 2008 is a relatively low risk 
option and my top unfunded priority. LPD-26 would execute as if it was 
a fiscal year 2009/2010 ship and would deliver in approximately fiscal 
year 2012/2013; assuming the shipyard did not ramp up the workforce to 
increase their build rate.
    Adding up to three T-AKEs in fiscal year 2008 is again relatively 
low risk. These ships would likely execute as if they were fiscal years 
2009/2010/2011 contracts and would complete approximately fiscal years 
2012/2013/2014; assuming the production line was kept to series 
production. The earliest they could deliver, assuming the yard executed 
them in a block and brought in the manpower to accomplish that, would 
be about fiscal year 2012.
    Adding a Virginia Class SSN would be higher risk requiring a $2.8 
billion SCN increase to account for year 1 and 2 advance procurement. 
This ship would still execute like a fiscal year 2010 SSN in terms of 
actual construction. The build timeline for an SSN is about 5 years so 
this ship would deliver in approximately fiscal year 2015. A lower risk 
option would be to procure the ``ship set'' for a VA SSN this year. 
This option would increase our future year SSN flexibility.

    69. Senator Thune. Secretary Winter, your professional 
qualifications and your recent experience with the LCS program place 
you in a unique position as Secretary of the Navy to make a profound 
and lasting contribution to shipbuilding acquisition. What are the 
principal changes you envision to improve the way we buy our ships to 
place us on the road to an affordable 313-ship Navy?
    Secretary Winter. This is a vital area where the Navy can re-assert 
control over the shipbuilding process. The Navy's shipbuilding plan 
recognizes the need for aggressive requirements and cost control 
measures. These can only be achieved in partnership with industry, 
utilizing realistic assumptions within our ability to instill 
discipline in shipbuilding requirements, and industry's ability to 
drive more investments to reduce cost.
    Given the importance of requirements-containment and cost-reduction 
to the viability of the shipbuilding plan, the Navy continues to 
evaluate each ship class and identify cost reduction opportunities 
while balancing warfighting requirements, costs, and industrial base 
realities.
    The Navy is committed to stable out-year procurements that industry 
can use to determine expected workloads. This, in turn, allows industry 
to commit resources, create efficiencies, and decrease the end-cost of 
Navy ships.
    The Navy plans greater use of contract incentives, such as steep 
share lines combined with performance incentives, to contribute to real 
cost containment in future shipbuilding plans. In addition, the Navy 
plans to pursue other areas for improvement in acquisition workforce 
and organization to strengthen the foundations of the Navy's 
shipbuilding efforts.

                     expeditionary fighting vehicle
    70. Senator Thune. General Conway, the Expeditionary Fighting 
Vehicle (EFV) has faced significant technical challenges throughout 
almost 2 decades of development. Last year, the Navy reduced the 
program by almost half, from 1,013 vehicles to 573 vehicles. Congress 
has recently been notified that the cost impact of this reduction 
causes a Nunn-McCurdy breach. Meanwhile, the vehicle's operational 
assessment, while successful in many areas, has effectively given the 
vehicle a failing grade for poor reliability. I understand that the 
program has been delayed for 3 or 4 years in order to re-design the 
vehicle to meet reliability requirements. Would you please provide your 
assessment of the criticality of the EFV to the Marine Corps' 
requirements and the operational impacts caused by downsizing the 
program to 573 vehicles?
    General Conway. The Marine Corps provides the Nation's joint 
warfighting forces with a unique, flexible, and effective capability to 
conduct forcible entry operations from the sea. The EFV, the Corps' 
largest ground combat system acquisition program, is the sole ground 
combat vehicle that enables projection of combat power from a sea base. 
It will replace the aging Assault Amphibious Vehicle that has been in 
service since 1972 and will become a complementary component of our 
modernized fleet of tactical vehicles that include the Joint Light 
Tactical Vehicle, the Marine Personnel Carrier, and the Internally 
Transportable Vehicle. The EFV's amphibious mobility, day and night 
lethality, enhanced force protection capabilities, and robust 
communications will help the joint force meet security challenges 
across the spectrum of conflict. The over-the-horizon capability of the 
EFV will also enable amphibious ships to increase their standoff 
distance, no longer requiring them to close within the striking 
distance of many coastal defense systems in order to launch their 
amphibious assault platforms. The EFV will be specifically well-suited 
to maneuver operations conducted from the sea and sustained operations 
in the world's littoral regions.
    In our fiscally constrained era, we have balanced the EFV program 
requirements with our need to provide greater tactical mobility 
suitable for the spectrum of operations. Toward that end, 573 EFVs 
maintains our capability to conduct forcible entry operations from the 
sea. With modest research and development funding, the Marine Personnel 
Carrier will provide the requisite ground combat tactical mobility to 
compensate for fewer EFVs. Additionally, the Joint Light Tactical 
Vehicle will serve to enhance the protected mobility of our ground 
forces, complemented by the Internally Transportable Vehicle, which 
will provide vertical assault elements of the Marine Air-Ground Task 
Force with better mobility for weapons and fire support systems once 
disembarked from assault support aircraft.

    71. Senator Thune. General Conway, what impact does the program 
delay have on your ability to meet mobility requirements?
    General Conway. The delay in the EFV program, while unfortunate, is 
mitigated by continued investment in our current Assault Amphibious 
Vehicle, the AAVP7A1 and by investment in the Joint Light Tactical 
Vehicle and the Marine Personnel Carrier. These two new vehicles will 
provide balanced performance, payload, and protection particularly to 
infantry and combat engineer units. In the near-term, our investment in 
MRAPs will afford those marines operating in Iraq with significantly 
enhanced protection tailored specifically for operations in that 
theater. The delay in delivery of the EFV will limit our ability to 
conduct high-speed surface-borne ship-to-objective forcible entry from 
a distant sea-base but it will not constrain our ability to conduct 
amphibious operations and subsequent maneuver ashore in support of 
national objectives.

    72. Senator Thune. Secretary Winter, how confident are you that the 
EFV can be sufficiently redesigned to meet the reliability 
requirements?
    Secretary Winter. A redesigned EFV can meet the established 
reliability requirements. This assessment is based on two in-depth 
reviews of the EFV reliability program conducted in March and April 
2007 by two independent teams of experts commissioned by the Office of 
the Secretary of Defense (Acquisition, Technology, and Logistics). Each 
team concluded that the EFV reliability requirement was achievable and 
that the EFV program was employing the rigorous methods necessary to 
achieve the requirement.
    Achieving this requirement, however, will require very focused and 
dedicated technical and engineering efforts by the contractor, along 
with strong oversight by the government. The EFV program strategy had 
been to increase reliability through the reliability growth process. 
However, based on the operational test data, it was determined that 
this process was insufficient to generate reliability growth necessary 
to meet the requirement at Initial Operational Test and Evaluation. 
Therefore, a Design for Reliability (DFR) effort was initiated to 
generate significant improvement to reliability. In addition, the Joint 
Requirements Oversight Committee has approved a change in KPPs that 
gives the program more flexibility in modifications to the design.
    The DFR effort underway includes the overarching systems 
engineering processes to mature the EFV design and vehicle reliability 
growth as well as the detailed planning, redesign, and validation 
efforts for EFV components and subcomponents to meet their reliability 
allocations. The DFR process will lead to building and testing new 
prototypes prior to a production decision to validate the results of 
the DFR effort and verify the KPP can be achieved.

    73. Senator Thune. Secretary Winter, what further cost impact will 
be caused by the redesign effort, including the related production 
delays?
    Secretary Winter. The EFV program did not achieve Milestone C 
decision in January 2007 as planned due to less than predicted 
reliability performance during an operational assessment conducted in 
2006. As a result, the development phase has been extended and the 
estimated cost and schedule impacts of these changes were incorporated 
in the fiscal year 2008 President's budget request, which included an 
increase in total RDT&E funding of approximately $700 million.
    Following the fiscal year 2008 President's budget request to 
Congress, the Navy notified Congress the EFV program was in breach of 
the Nunn-McCurdy amendment due to excess cost. Following notification, 
the Secretary of Defense is required to certify that:

        <bullet> Program is essential to national security.
        <bullet> No alternative will provide equal or greater 
        capability at less cost.
        <bullet> New cost estimates are reasonable.
        <bullet> Management structure for program is adequate to manage 
        program and costs.

    The certification teams are currently conducting the necessary 
analysis and developing the required documentation in accordance with 
the statutory certification requirements. Updated cost estimates are 
being developed in conjunction with the proposed program strategy. If 
the program is certified, the new program baseline will be included in 
the certification package, to be submitted to Congress no later than 5 
June 2007, as required by statute.

    74. Senator Thune. Secretary Winter, it is reported that the 
contractor has earned a 7 to 8 percent profit. How do we justify to the 
American taxpayer awarding most of the profit available on this 
contract when we have a vehicle that falls critically short of its 
reliability performance requirement?
    Secretary Winter. The award fees earned by General Dynamics are in 
accordance with provisions of the contract negotiated in 1995. On this 
contract, award fees are the principle mechanism by which the 
contractor has the opportunity to earn a profit. As these fees were 
part of the original contract, there is no mechanism available to 
recoup them.
    We recognize, however, that the award fees did not properly 
motivate General Dynamics to deliver required levels of reliability. We 
are in the process of negotiating a different contract for the next 
phase that will minimize award fees and include targeted incentives 
tied to carefully derived milestones. The program restructuring effort 
currently underway will result in development of an EFV that meets all 
operational requirements.

    75. Senator Thune. Secretary Winter, this is another example of the 
Government bearing the burden of failed performance on a cost-plus 
contract. What revised fee structure would you propose to ensure a more 
equitable sharing between the Government and industry of the downside 
risk on these types of development contracts?
    Secretary Winter. The EFV program plans to provide performance and 
cost incentives using Cost Plus Incentive Fee and Cost Plus Award Fee 
contracts for the remainder of the development phase. Incentives will 
be event-based and tied to well-defined, objective targets for 
technical performance, schedule adherence, and cost control. Multiple-
incentive structures are being considered whereby the contractor must 
earn fee in each category or forego the fee entirely. This structure 
promotes a balanced approach so that no one evaluation category can 
control fee award.
    The Navy remains committed to developing the EFV as a key element 
of future Navy-Marine Corps expeditionary combat capability while 
maximizing the value of taxpayer dollars.

                    expeditionary brigade reduction
    76. Senator Thune. General Conway, the Marine Corps has held a 
longstanding requirement for the Navy to provide amphibious lift for 
three MEBs to support forcible entry operations. I notice in your 
statement this year that you are now calling for two brigades to 
perform such an assault. How did the Marine Corps determine it should 
reduce AE requirements for an opposed landing?
    General Conway. The Marine Corps has not reduced AE requirements 
for an opposed landing. What has been reduced is the total amphibious 
lift requirement for AE-capable forces. The basis for the 3.0 MEB AE 
fiscally constrained to 2.5 MEB AE requirement noted in this question 
was documented in the Navy's 1992 Posture Statement signed by the 
Secretary of the Navy, CNO, and CMC, and is quoted in part, as follows:

          For a global ready response capability and forward presence, 
        the Nation needs a tailored force with at least enough 
        amphibious ships to lift the AEs of two and one-half brigade-
        size units. This allows the Navy and Marine Corps to meet 
        current requirements for the forward deployed forces and still 
        provide sufficient surge capability to assemble a brigade-size 
        amphibious assault force in either the Atlantic or Pacific. 
        This fiscally constrained goal meets the Nation's minimum 
        requirements.

    As noted above, the total requirement identified in the 1992 
statement was for 2.5 MEB AE lift capacity, and the forcible entry 
component of that requirement was two brigade-size amphibious assault 
forces--one on each coast--totaling the same as today's stated 
requirement for 2.0 MEB AE.
    The current requirement for 2.0 MEB AE is traced to the SPG, 
directing us to . . . consider capability alternatives . . . to support 
a single two MEB forcible entry operation. Although the language in 
today's SPG is different than in the 1992 statement, the requirement to 
maintain a 2.0 MEB forcible entry capability remains the same.
    This capability can only be realized by maintaining a Battle Force 
that provides 30 operationally available amphibious warfare ships; of 
these 30 ships, 10 must be aviation-capable big deck ships [LHA/LHD/
LHA(R)], 10 LPD-17 class ships, and 10 LSD-41/49 or equivalent ships.

    77. Senator Thune. General Conway, does the Navy's shipbuilding 
plan provide the necessary lift to support two MEBs?
    General Conway. No, the Navy's current plan does not provide the 
required focus on amphibious programs to meet the two MEB AE 
requirement. The SPG directed the Marine Corps to consider capability 
alternatives to support a single two MEB forcible entry operation. This 
capability is realized by maintaining a battle force that provides 30 
operationally available amphibious warfare ships; of these 30 ships, 10 
must be aviation-capable big deck ships [LHA/LHD/LHA(R)], 10 LPD-17 
class ships, and 10 LSD-41/49 or equivalent ships. Current and 
projected ship availability based on scheduled and unscheduled 
maintenance suggests at least 33 ships are required to provide 30 that 
are operationally available.
    While the amphibious ship (battle force) inventory is currently 32 
ships, it stabilizes at 30 ships from fiscal year 2015 to the end of 
the plan. At no time does the Navy's plan provide a minimum of 33 ships 
to provide 30 operationally available. Additionally, the well-known 
maintenance challenges of the LHA and LSD class of ships and their age 
make them prime candidates for early retirement, potentially further 
reducing the inventory. Delivery of the LPD-17 has also been slower 
than expected in the wake of Hurricane Katrina further stressing the 
force and requiring older ships to remain in the fleet beyond their 
expected service lives.
    The big deck (LHD/LHA) inventory varies between 10 and 11 ships 
between now and 2018, then stabilizing at 9 ships through the end of 
the 30-year plan--falling short of our long-term requirement for 11 big 
deck ships to provide 10 operationally available.

    78. Senator Thune. General Conway, how important is an additional 
LPD-17 class ship, included as the top Navy unfunded priority, to 
meeting your amphibious lift requirement?
    General Conway. The 10th LPD-17 San Antonio class ship is extremely 
important to meeting the 2 MEB amphibious lift requirement, but still 
does not yet match the 11 necessary to field 2 operationally available 
MEB AEs, since 10 to 15 percent of amphibious ships (by class) are 
operationally unavailable at any time due to scheduled maintenance.
    The LPD-17 class ships will play a key role in supporting the 
ongoing global war on terrorism by forward deploying marines and their 
equipment to respond to crises abroad. Its unique design will 
facilitate expanded force coverage and decreased reaction times of 
forward deployed Marine Expeditionary Units. In forcible entry 
operations, the LPD-17 will help maintain a robust surface assault and 
rapid off-load capability for the Marine Air Ground Task Force far into 
the future.
    Ths class of amphibious warfare ship also represents the Navy's 
commitment to a modern expeditionary power projection fleet and will 
assist our naval forces across the spectrum of warfare. It replaces 
four classes of older ships--the LKA, LST, LSD-36, and the LPD-4 and 
will have a 40-year expected service life.

                           top line spending
    79. Senator Thune. Secretary Winter, you state in your posture 
statement that development of the budget has not been easy--tough 
decisions have been made and continue to be made throughout the 
Department. One of the issues that I have been concerned about for some 
time has been the top line of the defense budget and how much of a 
percentage of the gross domestic product (GDP) it is. Over time we have 
watched the percentage of the defense GDP drop. While this is the 
largest defense budget we have had, it is not as large of a percentage 
of the overall GDP as we have seen in the past. Do you think it would 
be appropriate for Congress to increase the top line of the military's 
budget to 4 percent of GDP as a baseline?
    Secretary Winter. It is the President and Congress that determine 
DOD total funding, and what is a necessary and affordable percentage of 
GDP for our Nation. From the Navy's perspective, I do believe that the 
Navy and Marine Corps will continue to need real budget growth to meet 
commitments and invest for the future.

    80. Senator Thune. Secretary Winter, looking 20 years down the 
road, can you comment on how the Navy will handle reset costs, 
modernization costs, and costs for fielding new platforms?
    Secretary Winter. Future budget development will continue to 
balance requirements against resources. Future budgets will be 
appropriately structured and have the necessary investment to 
successfully meet both our present and future challenges. I am 
confident that the initiatives we have in place now will result in 
efficiencies that will continue to streamline and improve the Navy and 
further improve our support for our National Military Strategy, while 
continuing to be responsible stewards of the tax dollars entrusted to 
us.

    [Whereupon, at 12:30 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                        TUESDAY, APRIL 17, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

 WHETHER THE ARMY AND MARINE CORPS ARE PROPERLY SIZED, ORGANIZED, AND 
   EQUIPPED TO RESPOND TO THE MOST LIKELY MISSIONS OVER THE NEXT TWO 
     DECADES WHILE RETAINING ADEQUATE CAPABILITY TO RESPOND TO ALL 
               CONTINGENCIES ALONG THE SPECTRUM OF COMBAT

    The committee met, pursuant to notice, at 9:36 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Bill Nelson, E. Benjamin Nelson, Bayh, Clinton, Pryor, 
Webb, McCaskill, Warner, Inhofe, Sessions, Collins, Chambliss, 
Cornyn, and Thune.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Daniel J. Cox, Jr., professional staff member; Michael J. 
Kuiken, professional staff member; Michael J. McCord, 
professional staff member; and William K. Sutey, professional 
staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Gregory T. Kiley, professional staff member; 
David M. Morriss, minority counsel; Lucian L. Niemeyer, 
professional staff member; Sean G. Stackley, professional staff 
member; and Richard F. Walsh, minority counsel.
    Staff assistants present: Fletcher L. Cork, Kevin A. 
Cronin, and Micah H. Harris.
    Committee members' assistants present: Joseph L. Axelrad 
and Jay Maroney, assistants to Senator Kennedy; James Tuite, 
assistant to Senator Byrd; Frederick M. Downey, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Darcie Tokioka, assistant to Senator Akaka; Jonathan Cooper, 
assistant to Senator Bill Nelson; Jon Davey and Todd Rosenblum, 
assistants to Senator Bayh, Andrew Shapiro, assistant to 
Senator Clinton; M. Bradford Foley, assistant to Senator Pryor; 
Gordon I. Peterson, assistant to Senator Webb; Stephen C. 
Hedger and Jason D. Rauch, assistants to Senator McCaskill; 
Sandra Luff, assistant to Senator Warner; Jeremy Shull, 
assistant to Senator Inhofe; Mark J. Winter, assistant to 
Senator Collins; Adam G. Brake, assistant to Senator Graham; 
Russell J. Thomasson, assistant to Senator Cornyn; Stuart C. 
Mallory, assistant to Senator Thune; and Brian W. Walsh, 
assistant to Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    Before we start our hearing, I want to recognize Senator 
Warner, who has been my partner on the Armed Services Committee 
for more than 28 years, and Senator Webb, for such comments as 
they may wish to make, because I know that they need to depart 
for Blacksburg.
    Before they do that, I want to express, on behalf of all 
members of the committee and, I'm sure, all members of the 
Senate, to them, to the families and the friends of those who 
were killed or injured in yesterday's tragic event, to all 
Virginians, and to, of course, the Virginia Tech community, our 
deepest sympathy, our support, and our prayers to all of them 
in this very, very difficult time.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. I thank you and 
the distinguished ranking member, Senator McCain, and others on 
this committee. Senator Webb and I will be departing 
momentarily to go to Blacksburg, Virginia, together with other 
members of the congressional delegation. This is one of those 
unexplainable mysteries in life, this extraordinary tragedy. I 
think it could have happened in many places in the United 
States, and I hope out of this will come some understanding of 
how best America can prepare such that it not reoccur.
    But this hearing this morning is one that I have supported 
you and the ranking member strongly in holding. I've been 
privileged to know all of these gentlemen through the years, 
and it is vitally important that this committee receive the 
benefit of their wisdom. Each has spent an extraordinary amount 
of time involving conflicts in both Iraq and Afghanistan, and I 
thank you gentlemen for your continued public service.
    Mr. Chairman, I ask that the balance of my opening 
statement be placed in the record, together with two or three 
questions I have. One is that Senator Robert C. Byrd, a member 
of our committee, and I have put into the appropriations bill a 
request for a small amount of funds to institute--independent 
from the Federal system--Pentagon and all others--a totally 
independent analysis of the current and projected future 
capabilities of the Iraqi security forces (ISF). I do believe, 
Mr. Chairman, that second opinion is vitally necessary as we go 
forward, irrespective of such approaches that we have in the 
diversity of the Senate today.
    So, with that, Mr. Chairman, I'd like to ask that that copy 
of the Warner/Byrd bill be put in the record, together with my 
opening statement and other questions.
    [The prepared statement of Senator Warner and a copy of the 
Warner/Byrd bill follow:
               Prepared Statement by Senator John Warner
    Chairman Levin, thank you. This is a very significant hearing and I 
appreciate that you have scheduled it.
    Mr Chairman, I join you in welcoming all of our distinguished 
witnesses here today. Their many decades of service to our Nation, both 
in and out of government, have made significant contributions to 
national defense policy and to our Nation's men and women in uniform. 
Each is well known throughout the defense and national security 
community and are all known for their expertise and candor.
    America has been engaged in this war against global extremists 
since the attacks on September 11. These military operations, to 
include combat against the Taliban in Afghanistan, beginning in October 
2001, and then in Iraq, beginning in March 2003, have been joint 
service endeavors from the start: however, our ground forces--the Army 
and Marine Corps--and our Special Operations Forces, have borne a 
larger share of the combat operations in these campaigns.
    Let there be no doubt, our military has performed magnificently and 
with the highest degree of courage and professionalism reflecting the 
best traditions of our Nation's military heritage. However, let there 
be no mistake, our military is under acute strain today.
    The purpose of today's hearing is to receive testimony on whether 
the Army and Marine Corps are properly sized, organized, and equipped 
to respond to the most likely missions in the 21st century. This most 
fundamental sine qua non of national security is perhaps Congress' most 
important responsibility, and, unequivocally, one that we must get 
right.
    This discussion on the future of our ground forces must begin with 
the recognition that we are engaged in a long war against global 
extremists; that this long war will dominate our national defense and 
national military strategy for a generation, or more; and that the war 
in Afghanistan and the war in Iraq are but its initial engagements. 
There is so much at stake in this struggle. Moreover, this war against 
global extremists will not be the only conflict, threat, or crisis that 
our Nation, and its ground forces, will face in the next decades of the 
21st century.
    In 1980, then Chief of Staff of the Army, General Edward Meyer, 
coined the term `hollow Army' to describe the state of the Army in the 
post-Vietnam era, at a time when the Cold War was still a stark 
reality. Most of us remember that period in our history; we remember 
the state of our Army; and we know that it took at least 10 years to 
repair.
    With great regret, I say that some of the indications and warnings 
of an Army under strain, or even a hollow Army, are present today. The 
readiness of non-deployed units is declining; equipment usage rates, 
under combat conditions, are increasing; standards for recruitment and 
basic training graduation have been lowered; the length of combat tours 
were lengthened; mid-grade officers and noncommissioned officers are 
reportedly leaving the Service at higher rates; and there is an over-
reliance on the National Guard and Reserves as Active-Force augmentees 
than was ever envisioned.
    In December 2006, General Schoomaker, said, in testimony before the 
Commission on the National Guard and Reserves, that the Active-Duty 
Army ``will break'' under the strain of today's war-zone rotations. 
That was compelling testimony. Just last week, Secretary Gates 
announced the extension of combat tours from 12 to 15 months. Earlier 
in the month the Department of Defense announced that mobilization 
warning orders have been issued to selected National Guard units, most 
of whom will be deployed for a second time in less than 5 years.
    These are indicators that are cause for grave concern. Having 
served as Secretary of the Navy when the concept of the All-Volunteer 
Force was being developed, and having observed, in the ensuing years, 
the extraordinary success of that system in providing for America's 
security, I feel strongly that we must carefully monitor the possible 
risks to that system. While the hollow Army of the 1970s is one example 
of a military under strain and under-resourced, I am also reminded of 
the state of our military forces at the start of the Korean War. When 
the North Korean army invaded the Republic of Korea in June 1950, the 
United States deployed available, but largely unready and inadequately 
equipped troops, from the 24th Infantry Division in Japan. This unit is 
known as Task Force Smith. I am sure our witnesses are familiar with 
this episode.
    Task Force Smith was a unit of about 400 soldiers--composed of 2 
under-strength rifle companies, a communications section, a recoilless 
rifle platoon, 2 mortar platoons, and an artillery battalion with 6 
howitzers. They were ordered to block the main road to Pusan. Task 
Force Smith held as long as they could, but finally withdrew. More than 
150 soldiers of that unit were killed. The first U.S. engagement in the 
Korean War, almost 57 years ago, offers a telling reminder of what 
happens when a force goes to war unprepared.
    I, for one, shall retain the imagery of both the `hollow Army' and 
`Task Force Smith,' as we proceed today. The months to follow may be at 
one of those critical periods of dialog, debate, and decision about the 
way ahead for our ground forces. We must do this with vision, 
innovation, and commitment. Time is of the essence. We must act in the 
near-term to ensure there will be no hollow Army and no more Task Force 
Smiths.
    In closing, we should not forget that our ground forces are more 
than a collection of brigades and regiments. It is at its core: about 
people. Our military forces, volunteers all, are America's sons and 
daughters who, each and every day, put themselves in harm's way--away 
from those they love and often on multiple, and now extended combat 
tours. I would also like to recognize, with our most sincere gratitude, 
the military families who have sacrificed so much, especially those who 
have lost loved ones, and those who are caring for those wounded in 
service to our Nation.
    I look forward to today's important testimony.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      

    Senator Warner. I hope that these gentlemen, in the course 
of the testimony, might give the committee the benefit of their 
analysis of the current status of the Iraqi forces.
    I yield to my colleague, Senator Webb.
    Chairman Levin. Thank you so much. We will do that.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    I also would like to suggest that the proposal by the 
senior Senator from Virginia regarding an independent look at 
what's going on over there is really needed at this time, and I 
fully support it.
    I'd like to express my appreciation for the witnesses for 
coming today, and my apologies for the fact that we are going 
to have to leave very soon for the memorial service that's 
going to take place down in Blacksburg.
    This is a hearing I look forward to. We are going to 
examine testimony very carefully, and we will have, from our 
perspective, a number of follow-up questions and, hopefully, 
dialogue.
    As many people have--many people, such as myself, had 
predicted, today's sustained ground operations in Iraq are 
progressively stressing our ground forces in ways that were 
both predictable and predicted to those who saw that the 
country would unravel and descend into sectarian strife and 
civil war. Last week's announcement of troop extensions of the 
15-month deployments for the Army is a further indication that 
this administration's failed strategic policies are breaking 
our military. That policy is going to ensure that 
disproportionate sacrifices are going to be placed on families 
and soldiers, and they are going to grow only more 
disproportionate in the coming year. These extensions are going 
to place new strains on an already overburdened Army, a force 
that is being broken progressively as a result of this 
strategy. The extensions may well affect morale. We've seen 
early indications, particularly with the numbers that came out 
on the West Point classes of 2000 and 2001, that perhaps we're 
overloading a small group of this country again and again 
asking them to accept the consequences of this misdirected war. 
It's one thing to say that we're putting predictability into 
systems, and it's another when we note that this predictability 
is uniformly negative on the people who have been serving. The 
strategy does not justify this continuing abuse of our people 
who have put their lives literally in the hands of our 
leadership, and I believe that there are limits to human 
endurance, and there are limits to what families can put up 
with.
    All of this, Mr. Chairman, leads to my appreciation for 
these kinds of hearings, because today's circumstances only 
heighten the need for more forceful congressional oversight. I 
would note that Senator Hagel and I--we're the only two ground 
combat veterans from the Vietnam war serving in the Senate--put 
together a piece of legislation requiring that American 
military units be fully combat ready when they're deployed, 
that the length of the deployments be restricted, and that 
minimum time periods be maintained between deployments. I would 
hope that my colleagues would join us on that legislation.
    I thank you very much for allowing me to speak early in 
this hearing.
    Chairman Levin. Thank you, Senator Webb.
    Senator Warner.
    Senator Warner. Mr. Chairman, I want to pick up on an 
important note that my colleague made about the stress on our 
forces, not only with this most recent announcement of the 
extensions. I think we're fortunate to have Dr. Korb here, 
because, Doctor, you and I were in the Department of Defense 
(DOD) in the mid-1970s, when the concept of the All-Volunteer 
Force was put in place. You recall the risks that we took, and 
I think you would share with me that it has worked out 
exceedingly well.
    We must, at all costs, preserve the All-Volunteer Force. I 
cannot foresee of any--any--measure that Congress would return 
to a draft, certainly not at this time. So, I hope, perhaps, 
you could address, specifically, how the impact of the events, 
Dr. Korb, might affect the vitality and the success of the All-
Volunteer Force.
    I thank the chair.
    Chairman Levin. Thank you, Senator Warner.
    Senator Warner. Mr. Chairman, can I put Senator McCain's 
statement in the record?
    Chairman Levin. Of course. We will put Senator McCain's 
statement in the record, as well.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    Senator Levin, thank you. This is a very important hearing and I 
appreciate that you have scheduled it.
    Mr. Chairman, I join you in welcoming our distinguished witnesses 
here today. Their many decades of service to our Nation, both in and 
out of government, have made significant contributions to national 
defense policy and to our Nation's men and women in uniform.
    After my first visit to Iraq in 2003, I argued for more troops. I 
took issue with statements characterizing the insurgency as a few 
`dead-enders' or being in its `last throes.' I criticized the search 
and destroy strategy and argued for a counterinsurgency approach that 
separated the reconcilable population from the irreconcilable. That is 
the course now followed by General Petraeus, and the brave Americans 
and coalition troops he has the honor to command. I believe it is the 
right strategy. But having been a critic of the way this war was fought 
and a proponent of the very strategy now being followed, it is my 
obligation to encourage Americans to give it a chance to succeed. To do 
otherwise would be contrary to the interests of my country and 
dishonorable. Our defeat in Iraq would constitute a defeat in the war 
against terror and extremism and would make the world a much more 
dangerous place.
    Consider our other strategic challenges in the region: preventing 
Iran from going nuclear; stabilizing Afghanistan against a resurgent 
Taliban; the battle for the future of Pakistan, Egypt, Saudi Arabia, 
and others; protecting Israel's security; the struggle for Lebanon's 
independence. Does any honest observer believe those challenges will be 
easier to confront and at lesser cost in American blood and treasure if 
we are defeated in Iraq?
    I know the pain war causes. I understand the frustration caused by 
our mistakes in this war. I sympathize with the fatigue of the American 
people, and I regret sincerely the additional sacrifices imposed on the 
brave Americans who defend us. But I also know the toll a lost war 
takes on an army and a country. We, who are willing to support this new 
strategy, and give General Petraeus the time and support he needs, have 
chosen a hard road. But it is the right road.
    No one would disagree that the Army's increased operational tempo 
and multiple combat tours in Iraq and Afghanistan have put our 
military, and especially our ground forces and special operations, 
under heightened burden. The announcement last week that the combat 
tours would be lengthened from 12 to 15 months reflects the complexity 
of the current circumstances.
    The purpose of today's hearing is to receive testimony on whether 
the Army and Marine Corps are properly sized, organized, and equipped 
to respond to the most likely missions over the next two decades.
    In recent months there have been reports that warn of costs on the 
troops and the readiness of the Army as a result of multiple 
deployments. This morning the committee will look forward to your 
responses to issues in this ongoing public debate on the readiness of 
our ground forces. The underlying concerns include: reports about the 
declining readiness of nondeployed units; the extremely high equipment 
usage rates; the departure of mid-grade officers and noncommissioned 
officers leaving the Service at higher rates; the over-reliance on the 
National Guard and Reserves as Active-Force augmentees; and the impact 
of the high operational tempo on Army families.
    Accordingly, you will be asked if the planned expansion of the Army 
can be accomplished soon enough to mitigate the impact of the current 
pace of the force and, subsequently, avoid the hollow military that 
some suggest may be looming: and will that expansion impact the 
Department of Defense's ability to modernize.
    In addition, the committee will want to examine whether the Army 
and Marine Corps's modernization and transformation programs will 
provide the country with the capability to provide relevant land power 
to both full spectrum combat missions and stability and support 
missions in this long war, and still be prepared for other uncertain 
and complex threats to our homeland defense and national interests. 
Accordingly, the committee will explore whether or not, and how, our 
military Army can concurrently modernize, transform, and restation the 
force under the demands of ongoing operations and rotation cycles.
    Addressing Congress at the end of his long and distinguished 
career, Douglas MacArthur admonished that, ``When America goes to war 
there can be no alternative to victory.'' With these simple words, 
MacArthur has given us the gauge, the standard, by which we need 
measure the size and organization of the future Army and Marine Corps. 
It is necessarily inexact and imprecise because such is the nature of 
war--it possesses an uncertainty that is exceeded only by the stakes 
which cause you to go to war in the first place. Much has changed in 
the world since General MacArthur uttered those words--but not our 
responsibility to provide America's sons and daughters the best 
equipment, the best training, the best care, and yes, the overwhelming 
superiority necessary to ensure that we leave no alternative to 
victory. Even then, however, success is not guaranteed. If today's war 
in Iraq has taught us anything, it is that the uncertainty of the 
battlefield of the future requires a level of planning and training and 
preparation and persistence that goes beyond our practice of the past.
    There is certainly quite a deal of ground to cover, so, in closing, 
I do not want to forget that in all of this America's sons and 
daughters who put themselves in harm's way each and every day. Their 
service and dedication is selfless and inspiring. I would also like to 
recognize Army families who have sacrificed so much.
    I thank our witnesses and look forward to their testimony.

    Chairman Levin. The evidence is overwhelming that our 
ground forces are under intolerable strain. Last week's 
decision, announced by the Secretary of Defense, that 
deployments of all Active Duty Army brigades in Iraq and 
Afghanistan would be immediately extended to 15 months, as 
would all future deployments, will worsen that strain. It is 
also one more indicator that the burden of over 5 years of war 
in Afghanistan, and going on 5 years of war in Iraq, is falling 
disproportionately on the Army and Marines; more specifically, 
on soldiers and marines and their families. Some units are on, 
or entering, their third year of Afghanistan or Iraq service, 
and some individual soldiers are on their fourth. Marine Corps 
units and marines have seen equal, or greater, numbers of 
deployments, although of shorter duration.
    The duration and intensity of the conflicts, beside wearing 
out the servicemembers, are tearing down the equipment at 
alarming rates. The readiness of nondeployed forces is at 
dangerously low levels as has been testified to by the former 
Army Chief of Staff and the Commandant of the Marine Corps.
    A DOD Inspector General (IG) report in January identified 
force protection equipment shortfalls among units deployed in 
Iraq and Afghanistan, including armored Humvees, electronic 
counter-improvised explosive devices (IEDs), machine guns, 
night-vision equipment, and radios. The Army and Marine Corps 
were unprepared for the insurgency that followed the fall of 
Saddam Hussein, requiring the Nation to frantically increase 
funding and production of armored vehicles, body armor, and 
other equipment required for occupation and counterinsurgency 
operations. In order to equip forces deployed to Iraq and 
Afghanistan, units not deployed are short equipment necessary 
to stay trained and ready. This increases the cost and time 
required for nondeployed units to get ready for their turn in 
the rotation. Equipment is wearing out faster than anyone 
planned, and the cost and time to repair and replace this 
equipment increases the pressure on unit predeployment 
preparation.
    The Ready Brigade that we have traditionally kept in 
reserve has now been committed and is not available for 
contingencies. According to a recent Time magazine article, 
ground forces face a laundry list of problems that undermine 
the readiness of our nondeployed forces, and makes preparing 
units to deploy that much more difficult, costly, and risky. 
Troops are being sent into harm's way with less training, 
shorter breaks, and worn-out equipment. Troops deployed to Iraq 
and Afghanistan more than once, and over 170,000 have been so 
far, are 50 percent more likely to suffer acute combat stress. 
Soldier suicide has grown at a steady rate--has shown a steady 
increase, rising from 51 confirmed in 2001 to 91 last year. 
Desertions are climbing. Manpower shortages exist. Reportedly, 
an artillery battery arrived in Iraq with only 72 percent of 
its required personnel. Since 2004, the Army employs a stop-
loss policy that prevents 70,000 from leaving the Army at the 
end of their enlistment.
    To relieve some of the pressure on the Army, DOD has tasked 
20,000 Navy and Air Force personnel to perform traditional Army 
roles, such as combat convoy security and detainee guards.
    Recruiting is meeting its goals only with less qualified 
people. The lowest acceptable category of recruits has climbed 
to 4 percent of all enlistments. Only 81 percent of recruits 
have high-school diplomas, down from 94 percent in 2003 and 
below the DOD goal of 90 percent. The maximum enlistment age 
was raised from 35 to 42 years, with 12 percent of those over 
35 dropping out within 6 months of enlisting. Waivers for 
criminal records, medical problems, and low aptitude have 
climbed to over 8,000, well above the 4,900 of only 3 years 
ago.
    The dollar cost of recruiting and retaining soldiers is 
skyrocketing--$1 billion, this year and the next year, to 
recruit new soldiers; $600 million, in 2006, for re-enlistment 
bonuses. The Army will be at least 3,000 mid-level officers--
captains and majors--short through 2013, with only 83 percent 
of the majors that it needs in aviation, intelligence, 
engineering, and military police.
    So, the Army and Marine Corps are clearly overstressed, and 
we must act promptly to fix those problems. But we must fix 
these problems in a way that positions those forces to meet the 
most likely, as well as the most dangerous, contingencies for 
the future. Secretary Rumsfeld said, and I paraphrase, ``You go 
to war with the Army you have, not with the Army that you need 
or wish you had.'' We never should hear words like that again, 
because unlike the Army that Secretary Rumsfeld sent, which was 
unprepared, underequipped, and ill-equipped to fight the 
insurgency in Iraq, we need to get it right before we commit 
future soldiers and marines. We need to ensure the Army and 
Marine Corps are properly organized, trained, and equipped to 
respond to the most likely contingencies of the next two 
decades, while retaining the capability to respond to all 
contingencies along the spectrum of combat.
    What are those most likely missions? Conventional force-on-
force fights or counterinsurgency? Does organizing for one, the 
conventional mission, ensure that we can do the other, which 
may be the most likely and prevalent?
    Belatedly, after much pressure from members of this 
committee and others in Congress, the DOD intends to increase 
the size of the Army and Marine Corps. Had that decision been 
taken earlier, perhaps our soldiers and marines would be under 
less stress today. We need to examine these new plans for 
growth to determine the appropriate size of the ground forces 
to minimize risk across the spectrum of combat at optimal cost.
    Are the planned increases sufficient? Or must we add even 
more? Or, conversely, can we add fewer than are currently 
planned, and use those resources for other high-priority 
defense requirements? The Army and Marine Corps are planning to 
add additional combat units to help meet the demands of the 
current rotational cycles. But these additional units will 
probably not be available in time to relieve the stress on the 
current forces. We must ensure, as we grow the ground forces, 
that we don't simply create larger versions of the less-ready 
forces that we have today, or that we create forces which are 
ill-suited to the likely missions of the future.
    We also have to ensure that the Army and Marine Corps 
modernization plans are correctly targeted to give those 
services the necessary capabilities, and are adequately funded 
to do so. That might mean a larger defense budget, a 
differently apportioned defense budget, or both.
    For help in sorting through these issues, we've assembled a 
notable panel of experts in defense and national security 
studies: Dr. Lawrence Korb, Dr. Andrew Krepinevich, General 
(Retired) Barry McCaffrey, and Major General (Retired) Robert 
Scales. They're all well known to this committee and to the 
defense community. We value their expertise.
    We thank them for taking the time to join us today. Their 
written statements will be inserted in the record, and, to 
allow sufficient time for questions and discussion, we would 
hope that they would summarize their written statements in 
their opening remarks.
    Finally, let me express my appreciation to Senator 
Lieberman for his suggestion that these issues are most 
appropriate to be addressed at a full committee hearing instead 
of a three-subcommittee joint hearing, as originally 
contemplated. The committee began addressing these issues with 
a Personnel Subcommittee hearing on March 28 on military 
personnel matters, including recruiting. We will follow up this 
morning's hearing later this afternoon. I believe that's the 
schedule. The Readiness and Management Support Subcommittee 
holds a closed briefing with the Army and Marine Corps to go 
into details regarding the current readiness of our combat 
units. Subsequently, the Readiness and Management Support 
Subcommittee plans to invite nondeployed brigade commanders 
from the Army, Marine Corps, and National Guard to testify on 
the readiness of their units to respond to contingencies across 
the full spectrum of conflict, abroad or at home, and the 
challenges of manning, equipping, and training the force when 
not actively preparing to deploy to Iraq or Afghanistan. Next 
week, the Airland Subcommittee will hold a hearing with the 
acting Secretary and Chief of Staff of the Army to receive 
their responses to this morning's hearing and to other 
questions. The Seapower Subcommittee is attempting to schedule 
a hearing to follow up on Marine Corps issues.
    Thank you, again, to our witnesses this morning for a very 
significant hearing.
    We will start with General McCaffrey.

STATEMENT OF GEN BARRY R. McCAFFREY, USA (RET.), PRESIDENT, BR 
                   McCAFFREY ASSOCIATES, LLC

    General McCaffrey. Senator Levin, thanks very much to you 
and the other members of the committee for the opportunity to 
come and appear before the committee.
    Let me also, if I may, qualify my remarks by saying I 
appeared before the Senate Foreign Relations Committee and 
talked about the war in Iraq and Afghanistan. I'll try and 
confine my remarks directly to the substance of your hearing, 
the readiness of ground combat forces.
    Seven quick assertions. I'd be prepared to either respond 
to your own questions or defend the assertions in the remainder 
of the hearing, but just put them on the table for us to 
consider.
    Number one, the Army and the Marine Corps are too small. 
I've been arguing, for the last 36 months, the Army's probably 
short by 80,000 or more; Marine Corps, by 25,000 or more. You, 
in your opening statement, cited some of the obvious evidence 
of that fact. I play a trick question with serving Army 
officers: How big is your Army? The answer always comes back 
wrong, because they don't take into account that the serving 
combat forces include huge numbers of National Guard and Army 
Reserve, as well as members of the Air Force and Navy. I look 
at combat logistics units headed up into Iraq from Balad, and 
you'll find sailors and airmen throughout that battle force. 
The Army is simply too small. One can argue it's the smallest 
Active Force since prior to World War II, trying to sustain 
this campaign.
    The second assertion is, the Army's ground combat equipment 
is a disaster. I've tried to put a number on it, and I think 
the answer is probably $212 billion. It's the cost of 
rebuilding not only our fighting-force equipment in the Active 
units, and the National Guard, and continuing a modernization 
program that has been badly dealt with. You look at the top 
projects on the DOD budget right now, number four is the Future 
Combat System (FCS); number 17 is Stryker. Those are the only 
two Army programs that break $1 billion. We're simply not 
funding the repair and reset of the Army ground combat 
equipment.
    Number three, the National Guard. It is hard for me, and 
after 5 years as drug policy director, I learned that, in this 
country, the only large-muscle organization, outside of the 
standing military, is the National Guard. In my view, it is 
vital to our security. It's being broken by a policy that 
essentially uses it as an alternative to the standing Army. In 
the coming year, I think we'll be forced to call up as many as 
nine National Guard combat brigades for second involuntary 
tours, never mind the combat service support units that have to 
come out of the Reserve components.
    Assertion number four--and this one, it's almost an out-of-
body experience for me to listen to DOD spokesmen, such as Dr. 
Chu--I would argue, though Army reenlistment inside combat 
units in Iraq is superb--when you look at the morale, the 
spirit of our combat units in both areas of operation, it's 
superb--however, our recruiting, I would argue, is starting to 
unravel, and it's being masked by deliberate, deceptive number-
keeping during the Rumsfeld era. The requirements have been 
kept artificially low by keeping stop-loss programs; calling up 
the Individual Ready Reserve, people who have been out of the 
military for 20 years and have zero relevant skills, they're 
just a body; by the sailors and airmen who have been jerked 
into the Active ground-combat role; and excessive use of the 
Reserves.
    My own gut feeling is that 10 percent of Army recruits are 
of poor caliber and should not be in uniform. They're in there 
under waivers for non-high-school graduate, moral turpitude, 
felony arrest, drug use. The notion that we're going to use 42-
year-old first-term soldiers is simply laughable. We want 
teenaged boys and girls, and as old as maybe 30--that's who 
we're trying to get in, to carry M-16, M-4 rifles.
    I think we've also tried to keep the Army reenlistment-rate 
numbers depressed by changing our standards on Army basic 
training. There's no question to me that the flunkout rate in 
Army basic training was deliberately put low to try and keep 
bodies flowing into the Active Force. We've cut the dropout 
rate by two-thirds. I'm sure the Army will come up with 
arguments on why that was a rational move. I certainly don't 
blame them for trying to maintain the fighting strength of the 
forces, but we shouldn't kid ourselves that we're not keeping 
in uniform people who simply don't have the physical or mental 
capacity to serve in this demanding environment.
    Number five, an assertion: the Army's restationing strategy 
has been unexamined by the U.S. Congress. We have 200,000 
troops and families coming out of western Europe back to the 
United States. We're pulling troops out of Korea, Okinawa, and 
Japan. In all those theaters of operations, the base 
infrastructure, the training infrastructure, has been paid for 
largely or partially by the North Atlantic Treaty Organization 
(NATO), the Korean Government, the Japanese Government, and 
others. We've ordered them home. The war's going to unravel in 
Iraq, I would assume, within 36 months. It's not clear to me 
that we have either the time or the resources devoted to 
restation these elements. They may well unravel, evaporate, 
simply because of the lack of a base to put them into.
    In addition, if you bring brigades out of central Europe, 
where they're 3-hours' flying time from Baghdad, and bring them 
back to Fort Riley and Fort Bliss, did we examine analytically 
how we get them back 7,000 miles to their theater of 
operations? In two senses--one, not just the base 
infrastructure--the railroad, highway, aviation capacity to 
launch them--but to what extent did we examine the U.S. Navy 
and Air Force capability to support an expeditionary 
continental United States-based military ground combat 
capability?
    I think the Air Force and the Navy, I might add--the number 
I'm using, I think, is probably low--have lost $55 billion of 
modernization money to put into Army and Marine ground combat 
operations. That's going to be a problem, not just in the long 
run, in terms of confronting deterring the People's Republic of 
China (PRC) expansionism in the coming 20 years, but, in 
addition, it argues that the Air Force has seriously 
underfunded programs like C-17 acquisition.
    Do we have the time--the bottom line is, do we have the 
time or the resources to build base areas to bring that--those 
combat forces home?
    Assertion number 6, I think we're at the knee of the curve 
in terms of loss rates in senior and mid-grade noncommissioned 
officers (NCOs) and middle-grade officers--captains, in 
particular. I think you're going to see a huge change in the 
caliber of that force as we start disproportionately losing 
Reserve Officer Training Corps (ROTC) distinguished military 
grad kids and West Pointers, and we're going to have to 
scramble and replace them with dedicated, but probably lower-
caliber, forces--officers out of the existing Army. We're short 
thousands of officers, as you state. Our promotion rates have 
skyrocketed to almost automatic promotion to make up for the 
shortfall.
    Then, the final assertion, for the first time, I would 
argue, since the end of Vietnam, we're faced with a situation 
where there is no strategic Reserve. There is no question in my 
mind, in the coming 10 years, that we will encounter shocks to 
our national security. We'll be attacked by terrorists, without 
question, in the coming decade. We will see the death of Castro 
and maybe a half-million Cubans at sea, where we're going to 
turn to our National Guard and ask them to safeguard people in 
a humanitarian disaster. We may well find interventions by the 
Syrians and North Koreans, the Iranians, or others. We simply 
do not have a strategic fallback position. The crisis will 
come, inevitably. I think this Congress, bottom line, I would 
urge, needs to step forward, under Article I of the 
Constitution--as I tell our cadets at West Point, you are 
charged with raising and supporting an Army and maintaining a 
Navy--not the administration.
    The bottom line, Mr. Chairman, members of this committee, 
it is my judgment we are in a position of strategic peril 
that's going to take us 3 to 5 years to get out of. The time 
now is for action.
    So, again, I thank you, sir, for calling this hearing, for 
the members of the committee being so engaged in the issue.
    Thank you.
    [The prepared statement of General McCaffrey follows:]
        Prepared Statement by GEN Barry R. McCaffrey, USA (Ret.)
        the congress must step up to your constitutional duties
    Senator Levin and Senator McCain--Thank you for the opportunity to 
testify today. This Senate committee is a vital part of America's 
defense. Thanks to all of you on this committee for your intelligent 
oversight, your commitment to our Armed Forces, and for upholding 
Article 1 of the Constitution to raise and support an Army and maintain 
a Navy.
    America has a lot at stake in the coming 24 months. The war in Iraq 
is going badly. The under-resourced war in Afghanistan is now starting 
to turn around for the better despite the growing Taliban violence and 
the massive drag of opium production which has turned the Nation into 
the largest narco-state in history. The consequences of failure in Iraq 
will be a disaster to the American people and our allies if we cannot 
achieve our objective to create a stable, law-based state at peace with 
its neighbors--and which can create enough consensus among the three 
major warring factions of Shia, Kurds, and Sunni to govern without the 
continuation of the bitter civil war which now has engulfed the Iraqi 
people.
    We have 150,000 U.S. troops battling in Iraq and 22,000 fighting 
bravely in Afghanistan. These are the finest, most courageous military 
men and women we have ever fielded in battle. Their commanders--who 
have almost without exception at company, battalion, and brigade level 
served multiple combat tours--are the most capable battle leaders that 
I have encountered in my many years of watching our Armed Forces with 
admiration.
    Our new leadership team in Iraq--our brilliant new commander 
General Dave Petraeus and the equally experienced Ambassador Ryan 
Crocker--are launched on a new approach to use political 
reconciliation, new methods and equipment to strengthen the Iraqi 
security forces, and enhanced U.S. combat protective power to stabilize 
the situation. We must give them time and space. They need the budget 
supplemental passed quickly--and the required congressional political 
backing to push this one last chance at success in Iraq.
    However, the purpose of my testimony is not to talk about the 
ongoing tactical operations in Central Command--but instead the 
disastrous state of America's ground combat forces. Congress has been 
missing-in-action during the past several years while undebated and 
misguided strategies were implemented by former Secretary Rumsfeld and 
his team of arrogant and inexperienced civilian associates in the 
Pentagon. They have gotten us in a terrible strategic position of 
vulnerability. The Army is starting to crack under the strain of lack 
of resources, lack of political support and leadership from both the 
administration and this Congress, and isolation from the American 
people who have now walked away from the war.
    No one is actually at war except the Armed Forces, their 
contractors, and the Central Intelligence Agency. There is only 
rhetoric and posturing from the rest of our Government and the national 
legislature. Where is the shared sacrifice of 300 million Americans in 
the wealthiest nation in history? Where is the tax supplement to pay 
for a $10 billion a month war? Where are the political leaders calling 
publicly for America's parents and teachers to send their sons and 
daughters to fight ``the long war on terror?'' Where is the political 
energy to increase the size of our Marine Corps and U.S. Army? Where is 
the willingness of Congress to implement a modern ``lend-lease 
program'' to give our Afghan and Iraqi allies the tools of war they 
need to protect their own people? Where is the mobilization of 
America's massive industrial capacity to fix the disastrous state of 
our ground combat military equipment?
    We are fortunate that we now have a new Secretary of Defense Bob 
Gates--who is experienced, a patriot, and open to pragmatic logic on 
dealing with the perils we now face. Secretary Condi Rice is immensely 
experienced and now using the leverage of her powerful office to exert 
America's essential ``goodness'' in the diplomatic arena. The White 
House Chief-of-Staff Josh Bolton has now opened a frank dialog with 
many in the public policy arena to begin to build a unity we will need 
to deal with the international menaces we now face. We are not going to 
successfully deal with the many national security problems we now 
encounter unless Congress and the administration can hammer out a new 
strategy going forward which depends on international dialog, economic 
nation-building, and strong military determination and power.
                     the current army is too small
    Our Army has 44 brigades--but 23 are deployed. We cannot sustain 
the current rate (20+ brigades to Iraq; 2+ brigades to Afghanistan) of 
deployment. The Army will unravel.
    We will not be able to handle possible missions to Korea, the 
Taiwan Straits, the Balkans, Cuba (death of Castro), Syria, Venezuela, 
Darfur, and possibly Iran. We may be attacked by terrorists here in the 
continental United States. We may suffer from natural disasters--
massive earthquakes or major hurricanes such as the devastation caused 
by Katrina in the Gulf Coast States.
    Last week, the Secretary of Defense announced a 3-month extension 
on all Army deployments--a 25-percent increase. This was a good call by 
Secretary Gates for Army families--we have been piecemealing out these 
extensions to an enormously over-committed force at the last minute. 
However, this is just another indication of inadequate Army manpower.
      the senate should conclude that we don't have enough troops
    The combat overload on the Army is having a negative effect on 
readiness. First time Active-Duty soldiers will spend more time at war 
than at home.
    We are encountering a negative effect on the retention of mid- and 
senior-grade noncommissioned officers. We also are already seeing the 
impact on the retention of company-grade officers.
    All ``fully combat ready'' Active-Duty and Reserve combat units are 
now deployed or deploying to Iraq or Afghanistan. No fully-trained 
national strategic Reserve brigades are now prepared to deploy to new 
combat operations.
    Secretary Gates has publicly stated that the 15 month extension 
recognizes that ``our forces are stretched . . . there's no question 
about that.''
    We have used a back-door draft to keep 70,000 soldiers in the Army 
with the ``stop loss program'' beyond their voluntary commitment. We 
have jerked 20,000 sailors and airmen into ground combat roles and 
taken them away from their required air and sea power duties. We have 
recalled as many as 15,000 Individual Readiness Reserve--in many cases 
these people had no current, relevant military skills. They were simply 
needed as bodies.
    We have called up all of our National Guard enhanced readiness 
combat brigades at least once for 18 months of combat requirements. The 
Reserve components have been forced to act as an alternate full-time 
combat extension of our active units with protracted deployments. This 
is not what they enlisted for--nor is it a sensible use of the National 
Reserve components.
                    senior army leaders have spoken
    Gordon Sullivan, the President of Association of the United States 
Army and former Army Chief of Staff (CSA) has publicly stated that even 
with 65,000 new GIs by 2012--the entire U.S. Army will only be 547,000 
soldiers--it should be 700,000. General Sullivan tells us that the Army 
and Marines are being asked to shoulder a disproportionate share of 
nation's burden.
    General Peter Schoomaker our just departed Army Chief-of-Staff 
stated that ``We have to go to some extraordinary measures to make sure 
that we have the ability to respond properly [to the President's surge 
strategy]. General Speakes noted: ``We can fulfill the national 
strategy but it will take us increased casualties to do the job.''
    In recent Senate testimony, the former Army CSA Pete Schoomaker 
said that the increase of 17,500 Army combat troops in Iraq represents 
only the ``tip of the iceberg''--and will potentially require thousands 
of additional support troops and trainers, as well as equipment--
further eroding the Army's readiness to respond to other world 
contingencies.
    General Schoomaker further asserted to the Senate Armed Services 
Committee: ``I am not satisfied with the readiness of our non-deployed 
forces. . . . We are in a dangerous period.'' He added that he recently 
met with his Chinese counterpart, who made it clear that China is 
scrutinizing U.S. capabilities.
    Even if United States were to carry out a significant troop 
reduction in Iraq, General Schoomaker said in Senate testimony that he 
would advise going ahead with the Army's plan for a permanent increase 
of 65,000 active-duty soldiers by 2013. ``The Army's too small for the 
century we're in,'' he said.
                      the marines need more troops
    In recent Senate testimony, the Marine Corps Commandant General 
Conway discussed a required increase of Marine troops from 180,000 to 
202,000--an increase of 5 battalions. This marine increase will take 5 
years; it doesn't address the current shortage of marines.
    Deployment-to-dwell ratio is currently 1:1; DOD policy states that 
stateside training and recovery time should be 1:2. We do not have 
enough marines. The numbers speak for themselves.
    This increase in deployment-to-dwell ratio means a direct decrease 
in the readiness of deployed units to carry out the full range of 
missions required for our global fighting force.
    Over 70 percent of the proposed Marine Corps end strength increase 
will be comprised of first-time marines--challenging recruiting and 
retention efforts.
                  weakening of the army national guard
    The mathematics of our extended deployments suggest that we will be 
forced to call up as many as nine National Guard combat brigades plus 
required support forces in the coming 12 months for involuntary second 
combat tours--if we are to reset the force and create a strategic 
Reserve. (Note that DOD Assistant Secretary Chu states that this is 
``no big deal.'')
    The second round of involuntary call-ups may finally topple the 
weakened National Guard structure which is so critical to U.S. domestic 
security.
    Eighty-eight percent of nondeployed Army National Guard units are 
rated as not ready or poorly equipped. The readiness of our National 
Guard forces is at a historic low.
    However, the Washington Post has reported that the Pentagon is 
still planning to rely on these unready forces to meet surge 
requirements.
    The Army Guard/Reserve is anticipated to grow to 20-30 percent of 
deployed combat forces.
    We are now seeing a high loss rate in both Active and Reserve 
components of senior NCOs, West Point graduates, and many other highly-
qualified battle leaders.
 recruiting standards are compromised; troop basic training standards 
                            are compromised
    The Army is lowering standards to meet enlistment goals and initial 
entry training standards in order to make manpower requirements. 
Recruitment will continue to be challenging as the Army tries to power 
up to add 65,000 permanent troops.

        <bullet> In 2006, there was almost a 50-percent increase in 
        waivers of enlistment standards from 2004--waivers for moral 
        turpitude, drug use, medical issues and criminal records.
        <bullet> Recruitment from least-skilled category recruits have 
        climbed eight-fold over past 2 years; the percentage of 
        recruits who are high school graduates dropped 13 percent from 
        2004 to 2006.
        <bullet> We are increasing the age of first-time enlistees--we 
        are now enlisting 42-year-old soldiers. We should only want 
        soldiers in superb health--from age 18- to about 30-years-old. 
        The Army is not push-button warfare--this is brutal, hard 
        business.
        <bullet> The promotion rates for officers and NCOs have 
        skyrocketed to replace departing leaders. We are short 
        thousands of officers. We have serious mismatch problems for 
        NCOs.
        <bullet> We have been forced to use U.S. and foreign 
        contractors to substitute for required military functions. 
        (128,000 contractors in Iraq--includes more than 2,000 armed 
        contractor personnel.) Thousands of these brave and dedicated 
        people have been killed or wounded. They perform most of our 
        logistics functions in the combat zone. (Transportation, 
        maintenance, fuel, long-haul communications, food service, 
        contractor operation of computer based command and control, 
        etc.) Under conditions of great danger such as open warfare 
        caused by Iranian or Syrian intervention--they will discontinue 
        operations. Our logistics system is a house of cards.
  a lot of u.s. army combat equipment and too many air force air lift 
                           assets are broken
    The shortfall on Army equipment is $212 billon to reset the force 
and its reserve stockpiles--as well as buy the required force 
modernization for the additional troops.
    The National Guard Bureau Chief, Lieutenant General Steven Blum, in 
House testimony, stated that the Army Guard has only 40 percent of its 
required equipment. (Generators, trucks, communications, helicopters, 
tentage, modernized fighting vehicles, medical equipment, etc.) We are 
compromising the quality of National Guard force training and limiting 
the Guard's ability to respond to domestic disasters; fundamentally the 
National Guard is in a ``degraded state back at home.''
    About 40 percent of Army/Marine Corps equipment is in Iraq or 
Afghanistan or undergoing repair/maintenance. We are now drawing down 
gear from prepositioned stocks of major equipment. (i.e., Humvees, 
tanks) The situation creates a U.S. strategic vulnerability since rapid 
deploying units will find their equipment is unavailable for other 
conflicts.
    LTG Blum has stated that even if the National Guard receives the 
funding currently pledged by the Army and Air Force--the equipment 
accounts will still be short $40 billion required to bring units back 
to 90 percent level of readiness.
    Equipment shortages mean troops train on outdated equipment--or 
equipment which is not identical to the material they will be using in 
combat.
    The nature and pace of operations in Iraq and Afghanistan is 
wearing out critical equipment much faster than expected. In some 
cases, equipment is being used as much as nine times the intended 
peacetime training tempo.
    The DOD Inspector General (IG) concluded that U.S. troops are being 
sent into combat without the necessary equipment--troops are forced to 
delay operations while they wait for the right equipment to become 
available. (DOD/IG, Equipment Status of Deployed Forces.)
    The required number of late model Improved Humvees will not reach 
Iraq until the end of year. The latest models of uparmor Humvees will 
better protect against the advanced roadside bombs which currently 
cause about 70 percent of all U.S. casualties in Iraq.
    We are flying the wings off our C17, C5, and C130 fleet. We are 
being forced into excessive reliance on contract air lift for personnel 
and cargo. (To include former Soviet aircraft).
                               conclusion
    We are breaking our commitment to our soldiers. In return for their 
voluntary service--we are not providing them with tools they need to 
carry out their mission. We must fix the broken equipment of the Army, 
Marines, and Air Force on a crash basis.
    We are failing our troops in that we are stretching them too thin 
and asking them to do more with much less. Many of these combat, CS, 
and CSS units are now serving on their third, fourth, or even fifth 
combat tour. 28,000 have been killed or wounded. Their training 
resources are being grossly short-changed. Their follow-on medical care 
is inadequate and under-resourced. We have ignored the reality of 
inadequate numbers of ground combat troops. We must increase the 
Active-Duty U.S. Army strength by 80,000 soldiers in the coming 36 
months. We must increase the Active-Duty marines by 25,000 troops. We 
must create the Special Operations Forces needed to protect us in the 
coming 25 years of the war on terror. We must buy the strategic airlift 
and air refueling requirements to deploy global combat power. (600+ C17 
aircraft for a single aircraft fleet.)
    The monthly burn rate of $9 billion a month in Iraq and $1 billion 
a month in Afghanistan has caused us to inadequately fund the 
modernization of the U.S. Air Force and Navy by diverting funds (as 
much as $55 billion) to support the ongoing ground war. If this 
continues, we will be in terrible trouble in the coming decade when the 
PRC emerges as a global military power--which we will then face in the 
Pacific with inadequate deterrence.
    Secretary Rumsfeld unilaterally pushed through a concept to bring 
our deployed military forces back from Europe, Okinawa, and South Korea 
without any debate on the strategic wisdom of leaving NATO/Japanese/
Korean provided training and basing infrastructure--for an unfunded 
infrastructure requirement in the United States. Have we analyzed and 
funded the Air Force and naval resources required to project power from 
U.S. basing--back to operational areas in the global fight? How much 
time will be required to posture and build the U.S. transportation 
systems (rail, interstate highways, airports, and seaports) required to 
launch stateside units back to operational areas? Why is it a good idea 
to increase the separation of military families from their 
servicemembers--with a concept of unit unaccompanied deployments to 
rotational missions in the Balkans, etc?
    The U.S. Armed Forces are in a position of strategic peril. 
Congress must act.

    Chairman Levin. General, thank you for your testimony, for 
your service, and for all the contributions that you make on 
such an ongoing basis.
    Dr. Korb?

 STATEMENT OF DR. LAWRENCE J. KORB, SENIOR FELLOW, CENTER FOR 
                       AMERICAN PROGRESS

    Dr. Korb. Mr. Chairman, I think you have summarized, in 
your opening statement, the current situation, so I won't go 
into that. I'll pick up on General McCaffrey's last comment, 
that we're in strategic peril, and address the concerns that 
Senator Warner mentioned.
    About a quarter of a century ago, we were in a similar 
situation, in terms of the All-Volunteer Military. In the 
leadership in this committee, you had a bill that was actually 
started, called Nunn-Warner--before we had Nunn-Lugar, we had 
Nunn-Warner--to deal with the situation. I think, as a result 
of that, with this committee and working with successive 
administrations, we were able to assemble probably, by all 
accounts, the finest military we ever had.
    Now, I think we learned an awful lot of lessons then that 
are important for now:
    The first thing we learned is that you don't lower your 
standards. It's better to take a smaller force than to lower 
your standards, because once you do that, it begins unraveling. 
This is something we did in the late 1970s, before people 
realized how bad the situation was.
    The next thing is that you need to have predictability for 
the people in the Service. The unwritten contract that you make 
with people is that if you're deployed for 1 year, you'll be 
home for 2 years. After I finished my testimony, I happened to 
watch Meet the Press on Sunday, and I think General Anthony 
Zinni, USMC (Ret.) put it very well. He said, ``Traditionally, 
you need three units for every one you have deployed. That's 
the ideal, in terms of training, reconstructing the unit, the 
kind of quality of life and family time necessary to rebuild 
the unit before it goes out.'' We're down to almost one-to-one, 
and, in fact, in some units, are not getting a year before they 
go back.
    Similarly, we learned that to keep a vibrant National 
Guard, you should not deploy people for more than 1 year out of 
every 5. In fact, that was the policy under Secretary Rumsfeld. 
Again, there's a certain amount of predictability. People have 
civilian careers, they have other concerns. When you do that, 
you're going to cause yourself problems.
    Now, in terms of where we are now--and you've all talked 
about the certainty--the readiness problems--but I think you 
also have a human--a moral dimension to this. We often talk 
about the fact that we cannot leave Iraq precipitously, because 
we have a moral obligation to the Iraqi people, having 
overthrown their government. Certainly, there is merit to that 
argument. We also have a moral responsibility to the young men 
and young women that we take into the service, to ensure, 
before we put them in harm's way, that, in fact, they are 
trained to the best of our ability to do so. As pointed out--
you refer to the Time magazine article, I refer to it in my 
testimony--you're taking people--again, according to newspaper 
accounts--right out of basic training, putting them into units, 
they're missing the unit training out at Fort Irwin, and you're 
sending them into battle. The Time magazine article has a 
graphic description of a young 18-year-old man who missed the 
training cycles, joined the unit late December, was deployed in 
January, and then was killed by friendly fire in February. We 
do not know what would have happened had he been able to have 
that training, and bonded, and had this unit cohesion. But, the 
fact of the matter is, we should not be taking those risks.
    Now, Secretary Rumsfeld said, ``You go to war with the Army 
you have.'' We had a chance, as a Nation, right after September 
11, and particularly--this administration knew back then they 
were going to go to Iraq, as well as Afghanistan--to increase 
the size of the Army, to increase the size of the Marines. We 
did not take it. It's going to be much more difficult now.
    One of my relatives, a young man, tried to join the Navy. 
They wouldn't take him. I had been in the Navy, and somebody 
wanted me to call, and I said, ``What's the problem?'' It turns 
out that this young man had a driving-under-the-influence 
citation, and the Navy wouldn't take him. You know what the 
recruiter told me when I called? He said, ``Tell him to join 
the Army.'' That's the type of thing that I think we have to be 
very, very, very careful about. General McCaffrey talked about 
the moral waivers, over 8,000 last year.
    Now, we need to rebuild the force, and in my testimony I 
make a couple of points in there that I think we have to be 
very careful. We do need to rebuild the Army Ground Force. This 
so-called global war on terror is going to go on for a while, 
and you could have situations where we would have to send large 
numbers of ground troops in a place like Pakistan, for example, 
if that government should implode. When we do it, when you do 
it, I urge you, first of all, do not lower the standards. You 
have those standards. There's good, empirical evidence as to 
why we have the standards for high-school graduates and people 
who score average and above average on the Armed Forces 
qualification test.
    I came across an article the other day, it said that the 
Army National Guard has told their people to take many more of 
the Category 4s (Cat 4s). That's not the way to go.
    The next thing is, we cannot simply rebuild the Army that 
we have. You need to develop new capabilities, peacekeeping and 
counterinsurgency skills need to be developed.
    Third, you need to do it in a fiscally responsible way. 
Your staff pointed out to me last night the Congressional 
Budget Office (CBO) study that said adding the additional 
ground forces to the Army and Marine Corps is going to add to 
the defense budget, over the next 5 years, over $100 billion. I 
think $108 billion was the number. We have to make some 
tradeoffs.
    Senator Warner was kind enough to talk about some of us 
working to save the All-Volunteer Military in the 1970s, and 
one of the people, when we met with Senators Nunn and Warner, 
was former Secretary of Defense Melvin R. Laird under President 
Nixon. One of the things he told me is, ``People, not hardware, 
have to be your highest priority if this is going to work.'' 
So, you have to give priority to that, you have to make some 
tough choices in the rest of the budget.
    As I look at the budget, I think we have a lot of weapons 
that deal with threats from a bygone era, so I urge you to take 
a look at that, because, given the other constraints on the 
budget, in terms of Social Security as the baby-boomers start 
to retire, it's not going to be easy to add that money, over 
and above.
    Then, finally, I would say that what we need to do is get 
rid of constraints on personnel that are no longer relevant. I 
agree with General John Malchase David Shalikashvili, USA 
(Ret.), it's time to get beyond, ``Don't ask, don't tell.'' The 
Uniform Code of Military Justice is perfectly adequate for 
dealing with people who happen to be gay or lesbian. The same 
way, drop the artificial constraints on women in ground combat. 
As they have demonstrated over there in Iraq, they are 
perfectly capable of handling these missions, because there is 
no front line.
    Now, let me conclude with this. Can we make it on a 
volunteer basis? With this size Army, it's going to be very 
difficult if we stay in Iraq very long. The concept, when we 
went to the volunteer military, is, you would have a small 
Active Army. You would then have an Army National Guard that 
would be a bridge to conscription if you got involved in a long 
ground war. As I tell young people--and I go around and speak 
in a lot of college campuses: Why do you think we make men 
register? So they can see the post office? We make them 
register as a fallback. I think we have to take a look. I don't 
know what's going to happen. There's a lot of debate going on 
now about how long we will stay in Iraq and what we want to do. 
But, as Senator Levin mentioned, these additional units are not 
going to be available to deal with this situation in Iraq in 
the short-term.
    So, I do worry, and I conclude with a quote I heard the 
late General Davenport Maxwell Taylor, USA (Ret.) say. He said, 
``We sent the Army to Vietnam to save Vietnam; we took the Army 
out of Vietnam to save the Army.'' The question really is, do 
we have to take the Army out of Iraq in order to save the Army?
    Thank you.
    [The prepared statement of Dr. Korb follows:]
               Prepared Statement by Dr. Lawrence J. Korb
    Chairman Levin, Ranking Member McCain, and members of the Senate 
Armed Services Committee, I appreciate the opportunity to appear before 
you with these genuine war heroes to discuss the current state of the 
Nation's ground forces. I cannot think of a more critical issue facing 
the Nation at this time.
    After more than 4 years of being engaged in combat operations in 
Iraq and 6\1/2\ years in Afghanistan, America's ground forces are 
stretched to their breaking point. Not since the aftermath of the 
Vietnam War has the U.S. Army been so depleted. In Iraq, about 3,300 
troops have been killed and another 24,000 wounded. The Army is 
severely overstretched and its overall readiness has significantly 
declined. As General Colin Powell noted in December even before the 
surge, the Active Army is about broken, and as General Barry McCaffrey 
has noted the ground forces are in a position of strategic peril. The 
Marine Corps is suffering from the same strains as the Army, and the 
situation for the Army National Guard is even worse. The decision to 
escalate or to ``surge'' more ground troops into Iraq will only put 
additional strain on the ground forces and threatens to leave the 
United States with a broken force that is unprepared to deal with other 
threats around the world.
    Army and Marine commanders will only be able to provide these 
additional troops by cutting corners on training and equipment and by 
putting additional stress on those in uniform. The unprecedented 
decision by Secretary Gates last week, that tours for Army brigades 
would be extended from 12 months to 15 months, is something that was 
not even done in Vietnam when we had over 500,000 troops on the ground 
or in Korea where we had over 300,000. This only further demonstrates 
the dire situation that the Army is facing.
    Meanwhile, the combat readiness of the total Army (Active units, 
the National Guard, and the Army Reserve) is in tatters. General Peter 
Pace, Chairman of the Joint Chiefs of Staff, conducted his own review 
of the military and concluded that there has been an overall decline in 
military readiness and that there is a significant risk that the U.S. 
military would not be able to respond effectively if it were confronted 
with another crisis. The simple fact is that the United States 
currently does not have enough troops who are ready and available for 
potential contingency missions in Iran, North Korea, or anywhere else. 
For example, when this surge is completed all four brigades of the 82nd 
Airborne will be deployed, leaving us with no strategic ground reserve. 
Even at the height of the Korean War, we always have kept one brigade 
in the continental United States. But it is not simply that so many of 
our soldiers are committed to Iraq, but that so much of the Army's and 
the Marine Corps' equipment is committed to Iraq as well.
    In the following four sections I will discuss the misuse of the 
All-Volunteer military in Iraq, the personnel and equipment challenges 
confronting the ground forces, and in the final section I will make 
some recommendations for rebuilding and expanding the ground forces.
                  iraq and the all-volunteer military.
    The current use of the ground forces in Iraq represents a complete 
misuse of the All-Volunteer Military. America's All-Volunteer Army, 
made up of well-equipped and highly-trained Active-Duty soldiers, 
backed up by a Ready Reserve, was designed to act as an initial 
response force, a force that would be able to repel and counter 
aggression. If America ever found itself in a long protracted ground 
war, or was forced to act against an existential threat, the All-
Volunteer Force was to act as a bridge to re-instating conscription. 
This is why we require young men to register when they turn 18.
    The All-Volunteer Force, particularly the Army component, as 
General John Abizaid noted last fall, was not ``built to sustain a long 
war.'' Therefore, if the United States is going to have a significant 
component of its ground forces in Iraq over the next 5, 10, 15, or 30 
years, then the responsible course is for the president and those 
supporting this open-ended and escalated presence in Iraq to call for 
re-instating the draft. That would be the responsible path.
    In my view, however, this would be a mistake on par with the 
initial invasion of Iraq. Instead, I believe the United States should 
set a firm timetable for the gradual redeployment of U.S. forces over 
the next 18 months. During that time the United States should work to 
train and support Iraqi security forces and the Iraqi government while 
gradually handing over responsibility for security to the Iraqis. This 
action should be backed up with a diplomatic surge in which the United 
States would engage all countries in the region. There is no guarantee 
that this approach will be effective in stabilizing Iraq or the region. 
In fact, given the misleading justifications for the initial invasion 
and the way in which the Bush administration has conducted the war, 
there are no good options left. But I believe that this course, a 
strategic redeployment and a diplomatic surge, provides the best chance 
for stabilizing the region as well as mitigating the impact of Iraq on 
the ground forces and U.S. national security. As General Maxwell Taylor 
noted some three decades ago, ``we sent the Army to Vietnam to save 
Vietnam; we withdrew the Army to save the Army.'' The same is even more 
true for Iraq today.
                      ground forces overstretched
    Following September 11, the Bush administration had a tremendous 
opportunity to increase the size of the ground forces. Unfortunately, 
the President and Secretary of Defense Rumsfeld pursued a misguided and 
naive policy. Instead of increasing the size of the ground forces they 
actually sought to cut them. This error was compounded when the Bush 
administration diverted its efforts from Afghanistan and proceeded to 
undertake an ill-advised invasion of Iraq. This strategic mistake has 
allowed the Taliban to reconstitute in Afghanistan, weakened the 
standing of the United States in the world, and has undermined the 
Nation's efforts in the fight against the radical extremists 
responsible for the attacks on September 11.
    Today there is little doubt that the ground forces are 
overstretched. In early March, we at the Center for American Progress 
released a study chronicling the effects that sustained deployments in 
Iraq are having on the Army.\1\ By analyzing every Army brigade we were 
able to convey the strain and fatigue placed on the force and 
illustrate its implications for our Nation's national security. The 
facts that we compiled are troubling:

    \1\ Lawrence Korb, Peter Rundlet, Max Bergmann, Sean Duggan, and 
Peter Juul, ``Beyond the Call of Duty: A Comprehensive Review of the 
Overuse of the Army in Iraq,'' Center for American Progress, March 
2006.
---------------------------------------------------------------------------
          Of the Army's 44 combat brigades, all but the First Brigade 
        of the Second Infantry Division, which is permanently based in 
        South Korea, have served at least one tour. Of the remaining 
        43:

                <bullet> 12 Brigades have had one tour in Iraq or 
                Afghanistan
                <bullet> 20 Brigades have had two tours in Iraq or 
                Afghanistan
                <bullet> 9 Brigades have had three tours in Iraq or 
                Afghanistan
                <bullet> 2 Brigades have had four tours in Iraq or 
                Afghanistan

    Additionally, the task of sustaining or increasing troop levels in 
Iraq has forced the Army to frequently violate its own deployment 
policy. Army policy holds that after 12 months of deployment in a 
combat zone, troops should receive 24 months at home for recuperation 
and retraining before returning to combat. Even before the surge, the 
Army had reduced dwell time to 1 year. Increasing troop levels in Iraq 
will only force the Army to place more strain on those serving. In 
fact, on April 2 the Pentagon announced that two units will be sent 
back to Iraq without even a year at home. Extending deployments and 
shortening dwell time cause havoc on the lives of those serving in 
uniform.
    It is also wrong, both militarily and morally, to send troops into 
a war zone who are not fully combat ready. Three units that are part of 
this surge show what happens when units do not receive what the Army 
calls the proper dwell time between deployments.

        <bullet> The 1st Brigade of the Army's 3rd Infantry Division 
        based at Fort Stewart became the Army's first brigade to be 
        deployed to Iraq for the third time. It was sent over in 
        January 2007 after about a year at home. But, because of its 
        compressed time between deployments, some 150 soldiers joined 
        the unit right out of basic training, too late to participate 
        in the training necessary to prepare soldiers to function 
        effectively in Iraq. Unfortunately one of the 18-year-old 
        soldiers, Matthew Zeimer, who joined the unit on December 18, 
        2006, was killed on February 2 after being at his first combat 
        post for just 2 hours. He missed the brigade's intensive 4-week 
        pre-Iraq training at the national training center at Fort 
        Irwin, California, getting instead a cut rate 10-day course.
        <bullet> The 4th Brigade of the Army's 1st Infantry Division 
        based at Fort Reilly was sent to Iraq in February, about a year 
        after it was reactivated. More than half of the brigade's 
        soldiers classified as E-4 or below and are right out of basic 
        training and the bulk of its mid-level non-commissioned 
        officers in the ranks of E-5 and E-6 have no combat experience.
        <bullet> The 3rd Division's 3rd Brigade was sent back to Iraq 
        this month for the third time after spending less than 11 
        months at home. In order to meet personnel requirements the 
        brigade sent some 75 soldiers with medical problems into the 
        war zone. These include troops with serious injuries and other 
        medical problems, including GIs who doctors have said are 
        medically unfit for battle. Medical records show that some are 
        too injured to wear their body armor. According to Steve 
        Robinson of Veterans for America, ``this smacks of an 
        overstretched military that is in crisis mode to get people 
        onto the battlefield.''

    The strain on personnel and the difficulty of recruiting new 
soldiers in the midst of an unpopular war has prompted the Army to 
relax many of its standards and dramatically increase enlistment and 
recruitment bonuses.
    While overall retention is good, the Army is keeping its numbers up 
by increasing financial incentives and allowing soldiers to reenlist 
early. Worryingly, however, retention among West Point graduates is 
declining and the Army's personnel costs continue to increase. Spending 
on enlistment and recruitment bonuses tripled from $328 million before 
the war in Iraq to over $1 billion in 2006. The incentives for Army 
Guard and Reserve have grown ten-fold over the same period.
    After failing to meet its recruitment target for 2005, the Army 
raised the maximum age for enlistment from 35 to 40 in January--only to 
find it necessary to raise it to 42 in June. Basic training, an 
essential tool for developing and training new recruits, has 
increasingly become a rubber-stamping ritual. Through the first 6 
months of 2006, only 7.6 percent of new recruits failed basic training, 
down from 18.1 percent in May 2005.
    Alarmingly, this drop in boot-camp attrition coincides with a 
lowering of recruitment standards. The number of Army recruits who 
scored below average on its aptitude test doubled in 2005, and the Army 
has doubled the number of non-high school graduates it enlisted last 
year. In 2006, only 81 percent of the new enlistees have high school 
diplomas, compared to 94 percent before the invasion. Even as more 
allowances are made, the Government Accountability Office reported that 
allegations and substantiated claims of recruiter wrongdoing have 
increased by 50 percent. Last May, for example, the Army signed up an 
autistic man to become a cavalry scout.
    The number of criminal offenders that the Army has allowed in the 
military--through the granting of ``moral waivers''--has also increased 
significantly. Last year, such waivers were granted to 8,129 men and 
women--or more than one out of every 10 new Army recruits. That number 
is up 65 percent since 2003, the year President Bush ordered the 
invasion of Iraq. In the last 3 years, more than 125,000 moral waivers 
have been granted by America's four military services. A senior 
noncommissioned officer involved in recruiting and retention summarized 
the situation well when he told The New York Times on April 9, 2007, 
``We're enlisting more dropouts, people with more law violations, lower 
test scores, more moral issues. . . We're really scraping the bottom of 
the barrel to get people to join.'' Private Steven Green, the soldier 
arrested for his alleged role in the rape of an Iraqi girl and the 
murder of her family, was allowed to join the Army upon being granted 
one such moral waiver. Green had legal, educational, and psychological 
problems, didn't graduate from high school and had been arrested 
several times.
    Most of last year's Army waivers were for serious misdemeanors, 
like aggravated assault, robbery, burglary, and vehicular homicide. But 
around 900--double the number in 2003--were for felonies. Worse, the 
Army does no systematic tracking of recruits with waivers once it signs 
them up, and it does not always pay enough attention to any adjustment 
problems.
                            readiness crisis
    Currently there are virtually no Active or Reserve Army combat 
units outside of Iraq and Afghanistan that are rated as ``combat 
ready.'' The Army has deployed 20 of its 43 available Active-Duty 
combat brigades--meaning that virtually all its forces are either in 
Iraq or are preparing to return there. In order to ensure that troops 
fighting in Iraq are fully equipped, units rotating out of Iraq have 
been leaving behind their equipment for units taking their place. The 
units that return home are often so depleted that the Marines have been 
referring to this phase as the `post-deployment death spiral.'
    As a result, combat-readiness worldwide has deteriorated to crisis 
levels. The equipment in Iraq is wearing out at four to nine times the 
normal peacetime rate because of combat losses and harsh operating 
conditions. As we have documented in studies done in coordination with 
the Lexington Institute, the total Army--Active and Reserve--now faces 
at least a $50 billion equipment shortfall and the Marines about $15 
billion.\2\ Without equipment, it's extremely difficult for nondeployed 
units to train for combat. Thus, one of the hidden effects of the Iraq 
war is that even the troops not currently committed to Iraq are 
weakened because of it.
---------------------------------------------------------------------------
    \2\ Lawrence J. Korb, Loren B. Thompson, Caroline P. Wadhams, 
``Army Equipment After Iraq,'' Center for American Progress and the 
Lexington Institute, April 2006; Lawrence J. Korb, Loren B. Thompson, 
Max A. Bergmann, ``Marine Corps Equipment After Iraq,'' Center for 
American Progress and the Lexington Institute, August 2006.
---------------------------------------------------------------------------
    To equip those on the ground in Iraq and Afghanistan, the Army and 
the Marines have been drawing down their prepositioned equipment stocks 
around the globe. These stocks are stored on ships or in strategic 
locations around the world to enable deploying units to be supplied 
rapidly. These stocks have been extensively diminished and limit the 
ability of the United States to respond to possible crises around the 
world. For instance, the Marine Corps has drawn down their 
prepositioned Reserve equipment stocks in the Pacific and Europe by up 
to 70 percent. The Army and Marines have been so overstretched that the 
United States has almost no ready Reserve of ground forces to 
effectively deal with a potential crisis on the Korean peninsula, in 
Iran, or in unstable Pakistan, for example, or to help alleviate the 
grave humanitarian crisis in Darfur.
    The Reserve component is also in tatters. Lieutenant General Steven 
Blum, the head of the National Guard Bureau, stated that the National 
Guard is ``in an even more dire situation than the Active Army but both 
have the same symptoms; I just have a higher fever.'' The Pentagon has 
had to increasingly employ the National Guard and Reserve in order to 
meet demands on the ground in Iraq and Afghanistan.
    Both the Army Guard and Reserve began the wars in Afghanistan and 
Iraq with their units short tens of thousands of soldiers, or about 15 
to 20 percent, and lacking more than 30 percent of their necessary 
gear. Those shortages have deepened as people and equipment are 
borrowed from units staying home to fill out those about to go 
overseas. According to Lieutenant General Clyde A. Vaughn, Chief of the 
Army National Guard, what the Guard is trying to deal with right now is 
``a situation where we have absolutely piecemealed our force to 
death.''
    To make matters worse, the Pentagon is set to notify National Guard 
brigades to prepare again for duty in Iraq. Some 12,000 troops are 
scheduled to be deployed to Iraq early next year. This would be the 
first time that full Guard combat brigades would be sent to Iraq for a 
second tour. These deployments are becoming increasingly necessary 
because the regular Army is not large enough to handle the mission in 
Iraq on its own. Originally these Guard units were to serve no more 
than 24 months total. However, these units and others in the Guard have 
already served 18 months--with training time and time in Iraq or 
Afghanistan--and now they are looking at least another 12 months in 
Iraq.
               expanding and rebuilding the ground forces
    Secretary Gates' decision to expand the Army and Marines is long 
overdue. At the Center for American Progress we have been calling for 
such an expansion for the past 4 years. However, the difficult 
situation facing the Army and the Marines requires a long-term approach 
toward expanding and rebuilding the ground forces. Increasing the size 
of the Army and Marines will not help the situation on the ground in 
Iraq. Instead, growing these forces is about preparing America's 
military for the future. I have the following recommendations:
Don't Lower Standards
    The Army and Marines should meet their new end-strength goals 
without relaxing recruitment standards or retention and promotion 
criteria. In order to ensure the Army and Marines continue to get the 
best and the brightest, the current target of adding 7,000 soldiers and 
5,000 marines per year is too ambitious in light of current 
circumstances and should be scaled back. Recruitment and retention 
standards should return to at least pre-Iraq standards. Congress must 
make sure that the quality of U.S. military personnel does not slide as 
it did in the 1970s. It is worth waiting a few extra years to ensure 
that the Army and Marines attract the men and women who possess the 
specialized skill sets needed for an effective 21st-century military.
Expand with a Focus on Peacekeeping and Counterinsurgency Operations
    Following the war in Vietnam, instead of building off the 
experience of fighting an unconventional force, the military adopted 
the mantra of ``no more Vietnams'' and shifted its focus back to 
confronting conventional threats. We cannot make this same mistake 
today. It is clear going forward that America's ground forces have to 
be prepared to engage an entire spectrum of operations, from 
conventional ground combat to humanitarian and peacekeeping operations. 
The wars in Iraq and Afghanistan have shown that while our ground 
forces remain conventionally unmatched, there is significant room for 
improvement in our ability to conduct counterinsurgency and 
peacekeeping operations. In my view, the U.S. Army should consider 
developing specialized ``peacekeeping'' or ``stabilization and 
reconstruction'' brigades. Such specialized brigades would alter both 
the type of recruit the Army is seeking and the type of person who 
might be interested in joining the Army. It is important, therefore, 
that the decision about whether to create specialized brigades of this 
sort be made as soon as possible.
Grow the Forces in a Fiscally Responsible Manner
    Growing the ground forces is an expensive endeavor. The current 
average annual cost of maintaining a single service member already 
exceeds $100,000. Currently the defense budget is severely unbalanced. 
Despite claims that September 11 changed everything, during Secretary 
Rumsfeld's tenure only two weapons systems were canceled. Many of the 
current weapons programs are unnecessary relics that were borne out of 
Cold War-era thinking. The challenge confronting the Army and Marines 
in terms of both escalating personnel costs and the deepening equipment 
crisis requires significant congressional attention and funding. 
Expanding the ground forces and recovering from Iraq and Afghanistan 
should be the overriding priority of the defense budget.
Open up the Military to all Americans who Possess the Desire, Talent, 
        and Character to Serve
    The Army and Marine Corps cannot afford to place unnecessary 
obstacles in the way of qualified men and women who want to serve. To 
this end, the military should make two major changes to its personnel 
policy.

        <bullet> First, repeal the ``don't ask, don't tell'' policy. 
        The ``don't ask, don't tell'' policy is counterproductive to 
        military readiness. Over the past 10 years more than 10,000 
        personnel have been discharged as a result of this policy, 
        including 800 with skills deemed ``mission critical,'' such as 
        pilots, combat engineers, and linguists. These are the very job 
        functions for which the military has experienced personnel 
        shortfalls. General John M. Shalikashvili, the Chairman of the 
        Joint Chiefs of Staff in 1993 when the ``don't ask, don't 
        tell'' policy was enacted, no longer supports the policy on the 
        grounds that allowing gay men and women to serve openly in the 
        military would no longer create intolerable tension among 
        personnel and undermine cohesion. Additionally, a recent Zogby 
        poll supports this view. It found that three-quarters of 
        Afghanistan and Iraq veterans were comfortable interacting with 
        gay people.
        <bullet> Second, all military occupations should be open to 
        whoever qualifies, regardless of gender. Currently, the Army 
        prohibits women from serving in infantry, field artillery, and 
        Special Forces units that directly engage the enemy on the 
        ground. The idea that women who possess the requisite mental 
        and physical skills should somehow be ``protected'' from the 
        dangers of combat fails to acknowledge the reality of the 
        modern battlefield and the role women are already playing in 
        Iraq and Afghanistan. Nearly 100 women have been killed in 
        these wars. We only impede our ability to build a 21st century 
        military by constructing barriers where none need exist.

    Twenty-six years ago I was fortunate enough to be confirmed by this 
committee to assume responsibility for the readiness of the Armed 
Forces. Because of Vietnam and its immediate aftermath, this nation had 
what the Vice Chief of Staff of the Army called a ``hollow army.'' With 
the help of Congress, and in particular this committee, we were able to 
reverse this situation. Successive administrations and Congresses 
continued to maintain the quality of the force. It is hard to believe 
that the Bush administration has allowed the readiness of our ground 
forces to deteriorate so rapidly in so short a time. I urge Congress 
and this committee to take the initiative in fixing the problem.

    Chairman Levin. Thank you so much, Dr. Korb.
    General Scales, you're next.
    Thank you.

 STATEMENT OF MG ROBERT H. SCALES, JR., USA (RET.), PRESIDENT, 
                          COLGEN, INC.

    General Scales. Thank you, Mr. Chairman, and thank you for 
the opportunity to testify today.
    I think, in the various pieces that we've written, and in 
our statements for the record, General McCaffrey and the rest 
of my colleagues have talked about the conditions of the Army. 
What I'd like to do, sir, is just cast forward a little bit, 
because I think it's important to emphasize that, oftentimes, 
times of stress, times of great stress for a military, are just 
the times when the military can take stock of its condition and 
plan for how to reform itself and how to rebuild itself. All of 
us have gray hair here who are testifying, and all of us 
remember the days in 1971, 1972, and 1973, when the Army began 
the process of rebuilding during wartime. So, let me cast, for 
a moment, into the future and talk about three aspects of the 
next decade or so, as we look to reform and rebuild the Army 
and the Marine Corps.
    First, I have to agree with everyone here, we simply have 
an Army and a Marine Corps that's too small. Senator Levin, 
remember 2 years ago, you and I and Senator Clinton and 
Lieutenant General Daniel W. Christman, USA, stood in the 
Senate and talked about 100,000 more forces needed for both. 
That was 2 years ago, and only about 4 months ago was a 
decision made to increase the military by about that number. I 
think it's just incontestable now that the Army and the Marine 
Corps need to be bigger. But the important question to ask is, 
if we're going to increase the size of the ground forces, how 
will we shape them? Clearly, we need to build a combat force in 
the future that's capable, not just of intervention, but 
capable of persistent presence overseas. I've heard different 
numbers thrown around, but the number that seems to support 
persistent presence in theaters of war is about 50 brigade 
combat teams.
    But it's also important to remember, sir, that an Army is 
more than a collection of brigades, that, in fact, the Army 
that we build to the future has to be able to do more than just 
deploy brigades, it has to be able to build coalitions of 
willing partners, it has to deal with alien cultures, it has to 
provide advisors and trainers and instructors to build country 
teams and military advisory groups. These are functions beyond 
just mere intervention.
    President Lincoln, in the Civil War, used to talk about the 
arithmetic. One of the facts we have to remember from this 
terrible experience in Iraq is the arithmetic. What he meant by 
that was, as soon as the bullets start to fly, soldiers start 
to die and armies begin to attrit over time. The arithmetic is 
not our choice; it's determined by the actions of an enemy. In 
virtually every war we've fought since the Civil War, we have 
run out of close combat soldiers, because we go to war with an 
Army that is not robust enough to last the duration. If we're 
going to fight wars in the future with a long-service 
professional force, the lesson we should take away from what's 
happening today is, the force you begin the war with will 
probably not get any bigger or any better through the duration 
of the conflict.
    So, it's important, as we add more troops, to do a couple 
of things. We have to build robustness into our brigades. The 
101st, in World War II, added an extra 1,000 infantrymen to 
every regiment. That's why the Band of Brothers principle works 
so well, because, by the time they got to Holland, they were 
still full strength, tightly coalesced, tightly bonded units, 
because they had built robustness into their units. We have to 
consider increasing the leader-to-led ration. We have to 
increase the number of leaders, because these same soldiers not 
only have to be members of deployed units, but they have to 
perform these other combat functions, as well.
    Also, it's important to realize that, other than brigades, 
if we're going to fight this new style of war, we need 
nonbrigade types of units: civil affairs, psychological 
operations, military police, and engineers.
    The second issue deals with reforming the Army's materiel. 
It would be a mistake, in my mind, if we took the cheap 
alternative, if you will, for rebuilding the Army, and simply 
brought back our Cold War materiel, refurbished it, and put it 
back on the shelf for the future. I believe that history, that 
experience in this war, and that all of the analysis that I've 
ever seen, argues for the core of the Army, as we move into the 
future, needs to consist of light, mobile, flexible, middle-
weight mechanized forces. Certainly, light forces are useful, 
but one of the lessons we learned is that the price you pay for 
fighting dismounted in places like Fallujah and Ramadi is very 
high. The optimal force for a counter-guerrilla or 
counterinsurgency force is one that is dense in infantry, 
that's able to move about the battlefield very quickly, that is 
efficient in the use of fuel and maintenance, such that it 
doesn't rely on that very dangerous, huge, logistical umbilical 
cord which is causing so many casualties, that it's infantry-
heavy, and that it's able to put more soldiers under armor, for 
longer periods of time, closer to the enemy.
    So, it's important, I think, to recall that the force 
that's fighting in Iraq today is a legacy force. It was 
designed to fight on the plains of western Europe. If we're 
going to fight pre-insurgency and insurgency campaigns in the 
future, we're going to have to not only fix what we have 
already, but design a new force for the future.
    The third point I want to make is that we've all come back 
to the realization that war--this war and virtually every war 
we've fought--is as much a human as it is a technological 
enterprise, and that as we look into the future, the human, 
cultural, and cognitive dimensions of war are becoming 
increasingly important.
    It's important to also realize that in counterinsurgency 
wars, the focus of action moves from the strategic and the 
operational down to the tactical level, that success in these 
types of wars is determined by the ability to knit together, to 
mold together small units--squads and platoons--that are 
superbly efficient and effective at what they do. The strategy 
in a counterguerrilla campaign is to knit together, to weave 
together a series of tactical successes. As the focus moves 
down the level of command, the human factor, then, becomes as 
important, or more important, than the materiel and the 
technological factor. Therefore, this requires a reform of our 
human capital. You can't throw money at this. It takes time to 
develop great leaders, flexible and adaptive leaders. It takes 
time to develop great squads and platoons. Unfortunately, 
because of the rotation scheme today, our Army and Marine Corps 
have simply become too busy to learn.
    So, as we move into the future, Mr. Chairman, we have to 
make a commitment to send the Army and the Marine Corps back to 
school. Education becomes important. We have to rebuild our 
institutional Army, and put instructors back on the platform. 
Sadly, the Army, because of its shortage of officers, has 
actually had to contract out the instructor duties. Recall, in 
World War II, 31 of the 35 successful Corps commanders in World 
War II had spent at least 3 years instructing in the Army's 
school system. Today, contractors perform that function.
    We have to help our soldiers become more culturally aware, 
give them culture training and help them learn languages so 
they can deal with alien cultures. We have to develop a special 
cadre of leaders with qualifications as advisors and 
instructors; and to do this, we have to send them back to 
school. It's important that they shouldn't have to pay a 
professional price for improving their human capital. We have 
to reward these initiatives, rather than punish them.
    Finally, let me end on the importance of making better 
small units. This is a process that can't be hurried. Like a 
good wine, a small unit takes time to mature. It takes years 
for a small unit to bond, to coalesce, and to become a Band of 
Brothers. These are national treasures. They're precious and 
rare commodities. These are the soldiers and marines who do 
virtually all of the killing and dying. So, we have to treat 
them much like a professional sports team. We have to be able 
to put the resources into small units to provide the means of 
assessing leaders, stressing the soldiers to make sure that 
they can perform these tasks, to have a sort of Top Gun, if you 
will, for these small units to learn how to fight bloodlessly 
before, as Larry says, they're put into the crucible of war and 
have to learn to fight by fighting, which is the most wasteful 
way to train soldiers.
    I guess I'll end by saying that inadequate manpower is not 
a new issue. It's generational. It goes back, over 50 years, to 
the Korean War. We've learned, I think, painfully, in this war 
and other wars, that ``shock and awe'' won't work. The reason 
it doesn't work is because the enemy has a vote. There's this 
great quote from Ho Chi Minh, who, when asked, in 1964, how he 
ever expected to beat the American Army, said, prophetically, 
``They will kill many of us, we will kill a few of them, and 
they will tire of it first.'' He understood, just like al Qaeda 
understood--or understands--that killing Americans is not a 
means to an end, but it's an end in itself. Those Americans 
most likely to die in this war and in future wars, I would 
suggest, are soldiers and marines.
    So, not only from the standpoint of humanity, but also from 
the standpoint of strategic direction, it's important to do all 
we can to find the best men and women for the Army and the 
Marine Corps, to equip them adequately, and, most importantly, 
to increase the value of their human capital so they will win 
on the battlefield and stand much less a chance of becoming 
killed or wounded.
    Thank you.
    [The prepared statement of General Scales follows:]
       Prepared Statement by MG Robert H. Scales, Jr., USA (Ret.)
    The condition of our ground force is troubling. Two thirds of our 
regular brigades and virtually all of our Reserve brigades are not 
combat ready. The Army's Cold War Reserves of fighting equipment are 
nearly gone with half destroyed or worn out though constant overuse. 
Too many soldiers chasing too many missions for too long have resulted 
on an Army that spends more time in combat than at home. The stress of 
back to back deployments has created uncertainty and anxiety among 
military families that is affecting the morale and resolve of those who 
we will rely on to fight the long war for a generation.
    These conditions are too well documented to dispute. The issue at 
hand is what to do next. Past history tells us that often the adversity 
and stress of war can lead to renewal and rebirth. The Army came out of 
the trauma of Vietnam resolved to rebuild. That same opportunity exists 
today.
                        a larger landpower force
    No one from the Vietnam generation ever would have foreseen that 
America's ground forces would be so stretched for so long without 
breaking. The robustness and resiliency of the forces in Iraq and 
Afghanistan testifies to the value of fighting the long war with a long 
service professional Army and Marine Corps. The bad news is that the 
Pentagon has grossly underestimated the number of ground forces needed 
to fight this long war. We have learned painfully that the challenge of 
recruiting a professional force during wartime dictates that the number 
and quality available at the beginning of the conflict will never get 
larger or better. The consequences of this miscalculation have been 
strategic as well as personal. For the first time since the Civil War 
the shrinking pool of soldiers is shaping strategy rather than strategy 
determining our manpower needs.
    The lesson for the future is clear. We simply cannot rely on Cold 
War manning models to tell us how many soldiers and marines we need. 
Pentagon personnelists know a great deal about human resource 
management but very little about war. We must plan future force 
structures to accommodate the sad fact that wars wear down armies. We 
must build robustness into our ground forces, particularly our close 
combat units, the ones who do most of the fighting and dying.
    The planned increase in the size of ground forces is a proper 
beginning. The Army's effort to modularlize an increased number of 
brigade combat teams will make the best use of this additional 
manpower. But it is also important to remember that ground forces of 
the future will be made up of more than just brigades. We will need a 
very strong corps of trainers, advisors and military assistance groups 
capable of being sustained for decades in regions of the world where 
new allied armies will be created or improved. We will need many more 
specialized units to assist in nation building such as special 
operating forces, civil affairs, military police and engineers.
    How much should the Army grow? If the Army is to restore the 
optimal ratio of three brigades for every brigade deployed then at 
least fifty brigade combat teams will be needed to maintain any 
reasonable presence and fighting capability for the long war. But 
experience in Iraq shows that casualties will begin to reduce the ranks 
of these brigades once in combat. So additional close combat soldiers, 
mainly infantry, armor and Special Forces must be added above and 
beyond the proscribed table of allowances to insure that these brigades 
will be sufficiently robust to sustain themselves over an extended 
campaign. In addition the Army and Marine Corps will need to increase 
the proportion of leaders to followers, the so called ``leader to led 
ratio,'' in order to provide additional skilled leaders to advise, 
train, and instruct coalition partners in the war against radical 
Islamism.
                                materiel
    Attrition of the Army's fighting materiel due to wear and combat 
damage in Iraq presents an opportunity for the Army to rebuild its 
arsenal. One rebuilding alternative would be to expand the number of 
light foot mobile infantry and Special Forces brigades. These units are 
relatively inexpensive to equip and are particularly useful in terrain 
where vehicular traffic is difficult such as in Afghanistan. But 50 
years of experience in American wars has shown that fighting on foot is 
very costly in human life. Since the end of World War II, four out of 
five Americans from all the Services killed at the hands of the enemy 
have been light infantry, not soldiers and marines, but light infantry, 
a force that comprises less than 4 percent of those in uniform.
    In contrast, when soldiers and marines fight mounted in vehicles 
their chance of survival in battle increases an order of magnitude. 
Thus it makes sense to rebuild the Army around a core of mechanized 
brigades. At first glance the cheapest way to rebuild the Army's 
mounted fighting force would be to repair the mountain of Cold War gear 
that served the Army so well in the Gulf War and put it back into 
action. Unfortunately, this generation of Abrams tanks and Bradley 
fighting vehicles offers protection to be sure but protection 
unsuitable for today's battlefield. Tanks designed to fight on the 
plains of Europe in huge tank on tank engagements required very thick 
and very heavy frontal armor. It's interesting to note that in the 
practical laboratory of real combat frontal armor hasn't been terribly 
useful. Of the tens of thousands of American soldiers killed in wars 
since the end of World War II fewer than ten died in tanks struck on 
the front.
    Weight extorts a very heavy price in diminished capability. Heavy 
Cold War era fighting vehicles cannot move great distances. They 
consume a huge amount of fuel that must be transported by vulnerable 
unarmored convoys from Kuwait to Baghdad. They cannot be easily 
transported by air. It takes a multitude of repairmen, many of them 
civilian contractors and a huge base infrastructure to keep them 
running in the punishing heat and dust of Iraq. As we have seen from 
Generals Petraeus's recent success in Baghdad fighting a dispersed 
insurgent is best done by infantry who are able to disperse in turn and 
stay dispersed for very long periods. The logistics and support demands 
of Cold War fighting vehicles prevents them from operating for very 
long in entities much smaller than a brigade while their cramped crew 
compartments limit severely the number of infantry they carry into 
battle. The actual price of keeping Cold War materiel in action will 
actually be very expensive because over the long term these antiques 
will cost more in maintenance and soldier overhead than the fighting 
systems intended to replace them.
    To be sure the Army will continue to need very heavy Cold War 
equipped and very light units in some proportion. But a half century's 
worth of combat experience, to include most recent experience in Iraq, 
supports the contention that the majority of future ground units should 
consist of mechanized brigades equipped with a high density of compact, 
medium weight, easily transportable fighting vehicles such as Stryker 
today and the Future Combat System tomorrow. We learned in Iraq that 
more soldiers can be kept alive in combat by placing more of them under 
armor and allowing them to remain under armor for longer periods. 
Experience in close combat in places like Falluja suggest that survival 
rates increase when soldiers are able to move in closer to the enemy 
before dismounting in the tactical fight. In addition lighter, more 
agile, reliable and fuel efficient armored vehicles will greatly reduce 
the size and vulnerability of the logistical umbilical cord that has 
proven so costly to maintain in Iraq. Medium weight brigade combat 
teams carry far more infantry into combat, the essential component for 
counter insurgency operations.
    Future medium weight brigades compensate for less bulk and weight 
by their ability to see and engage the enemy from great distances using 
broad assortments of aerial and ground sensors. Much of the dirty and 
dangerous work of tomorrow's mounted soldiers will be done by unmanned 
robots controlled from FCS fighting vehicles. Future mounted soldiers 
will have access to the power of a digital network that will provide 
them with immediate information about the enemy and the whereabouts of 
fellow soldiers. Future brigades will be able to subdivide easily into 
much smaller fighting units, at least to company and probably down to 
platoon, in order to better meet and defeat an insurgent enemy at his 
own level.
    Properly equipping the Army to win the Long War will be very 
expensive. But we have fought 12 wars in the last 30 years and all but 
1 has been decided on the ground. We will fight another one sooner than 
any of us would like so we must start now to build the fighting 
equipment for a new Army rather than put yesterday's Army back on the 
shelf.
          cultural and cognitive dominance on the battlefield
    All of the pre-September 11 military pundits who forecast quick 
victory through shock and awe and precision strike are a distant 
memory. The techocentric view of war has failed because it denied the 
fundamental truth that war is inherently a human rather than a 
technological enterprise. The future will only increase the relative 
importance of the human, cultural and cognitive aspects of war. We will 
continue to witness the classical centers of gravity shift from the 
will of governments and armies to the perceptions of populations. 
Success in battle will be defined as much in terms of capturing the 
human and cultural rather than the geographical high ground. 
Understanding and empathy are already important weapons of war. The 
ability to build ties of trust will offer protection to our troops as 
effectively as body armor. Leaders will seek wisdom and reflective 
thought rather than operational and planning skills as essential 
intellectual tools for guaranteeing future victories.
    Human capital cannot be bought. It must be accumulated through 
learning and reflective thought. Unfortunately our soldiers and marines 
have become too busy to learn at a time when learning has never been so 
important to the future success of our military. World War II leaders 
understood the truism that students gain knowledge while teachers gain 
wisdom. Thus it was no accident that 31 of the Army's 35 corps 
commanders taught at service schools. Today many of our institutions 
contract out teaching to civilians because so few serving officers are 
available for the classroom. After Vietnam the Army sent 7,400 officers 
to fully funded graduate education. Today that figure is about 450, 
half of whom are studying to join the weapons buying community.
    The Army's school system is starved for resources and is unable to 
make best use of the dismally limited time available to soldiers for 
learning. Before Vietnam some of our best universities such as Duke, 
Yale, and Princeton had vibrant defense studies programs that gave 
future combat leaders the opportunity to learn from many great teachers 
of the art of war. For the most part those programs and teachers are 
gone; victims of an academic culture that somehow believes that 
ignoring the study of war will make wars go away.
    As the Army begins to pull back from Iraq it must go back to 
school. Talented officers and senior non commissioned officers should 
be given a ``soldier's sabbatical'' to attend the best civilian 
graduate schools to study alien cultures and the art of war. More 
senior officers should be assigned to instructor duties at all of the 
Army's schools of higher learning. Both students and teachers must be 
rewarded professionally for their intellectual as well as their 
operational proficiency.
    Cultural isolation in Iraq creates a tragic barrier separating 
Iraqis of good will from the inherent goodness that American soldiers 
demonstrated so effectively during previous periods of occupation in 
such places as Korea, Japan, and Germany. This cultural wall must be 
torn down. Lives depend on it. Every young soldier should receive 
cultural and language instruction. The purpose would not be to make 
every soldier a linguist but to make every soldier a diplomat in 
uniform equipped with just enough sensitivity training and linguistic 
skills to understand and converse with the indigenous citizen on the 
street.
    The Army and Marine Corps have proven remarkably competent in the 
complex human skills necessary to stitch together coalitions by 
building, often from whole cloth, effective indigenous armies in such 
remote places as Greece, Korea, Vietnam, El Salvador and now in Iraq. 
But the unique human talents required to perform these tasks have 
rarely been valued or rewarded. Today's soldiers and Marines would 
prefer to be recognized as operators rather than advisors or trainers. 
This must change. If our success in coalition building will depend on 
the ability to create and improve partner armies then we must select, 
promote and put into positions of authority those can do so. We must 
cultivate, amplify, and inculcate these skills in educational 
institutions reserved specifically for that purpose.
    Soldiers need more time to train for combat. Years not months are 
required to produce a close combat soldier with the requisite skills 
and attributes to do the increasingly more difficult and dangerous 
tasks that await him in the future. At least a year together is 
necessary for small units to develop the collective skills necessary to 
coalesce and fight as teams. An infantry squad is the same size as a 
football, soccer or rugby team. Professional team coaches understand 
that blocking and tackling are not enough to win the Super Bowl. 
Instead a pro player must undergo a scientific regimen of physical 
conditioning. He does ``two a day'' during summer camp and watches the 
films at night. He has to fight for his position on the team because 
there is always the eager and hungry rookie looking to take his spot.
    This is the image that we must internalize if we are to build 
exceptional close combat soldiers for the future. Not all need apply 
and very few should expect to join. Any shortcoming in performance 
should threaten a soldier's place on the team. Finally every manager 
knows that winning teams are purchased at a premium. The Air Force and 
Navy have more first line fighter aircraft costing between $50 and $450 
million apiece than the Army has infantry squads. The precious few 
squads we have must be treated as national treasures. Soldiers in close 
combat units, those most likely to die for our country, must be given 
time to train, bond and coalesce before entering combat.
    In the industrial age, junior officers were expected to lead men on 
the battlefield directly by touch and verbal commands. They were 
trained to follow instructions from their immediate commanders and to 
react and conform to the enemy. The image of very junior soldiers, 
isolated in some distant outpost, performing peacekeeping missions one 
moment and engaging the enemy the next reaffirms the truth that 
tomorrow's soldiers must acquire the skills and wisdom to lead 
indirectly--skills formerly reserved for officers of a much higher 
grade and maturity. They must be able to act alone in ambiguous and 
uncertain circumstances, fight with soldiers they cannot touch, and 
think so as to anticipate rather than react to the enemy's action. We 
can make such soldiers. But it takes time.
    History teaches that great combat commanders possess a unique, 
intuitive sense of the battlefield. They have the ability to think in 
time, to sense events they cannot see, to orchestrate disparate actions 
such that the symphony of war is played out in exquisite harmony. In 
the past the only sure venue for exposing the naturals was battle. 
Soldier's lives had to be expended to find commanders with the 
intuitive ``right stuff.'' Human science offers the opportunity to find 
the naturals without bloodshed. We must exploit this opportunity by 
conducting research in cognition, problem solving, and rapid decision 
making in uncertain, stressful environments such as combat. Leaders 
must be exposed during peacetime to realistic simulations that 
replicate the conditions of uncertainty, fear and ambiguity that he 
will experience on the battlefield.
                     the new army will be expensive
    The circumstances that created the Army's dire condition are 
generational. Excessive Korean War casualties convinced President 
Eisenhower to fight the Cold War with firepower rather than manpower. 
All of his successors followed suit, each devising a war-winning 
version of shock-and-awe built principally around airpower. These 
strategies would have worked splendidly except for the tiresome fact 
that the enemy had a vote. Ho Chi Minh got it right: ``They will kill 
many of us,'' he prophesized in 1964. ``We will kill a few of them but 
they will tire of it first.'' Al Qaeda is simply following Uncle Ho's 
philosophy, so far with success.
    So, if our vulnerability is dead Americans, both empathy and 
strategic necessity would dictate that we spend more money to keep 
alive those most likely to die. This year the administration has raised 
the Army's share of the budget--a good first step. But the Army will 
need many more resources if it is to meet the demands of the Long War. 
I hope the painful and tragic condition of our land forces will finally 
convince us that land warfare is no longer the cheap alternative.

    Chairman Levin. General Scales, thank you so much for the 
testimony.
    Dr. Krepinevich?

STATEMENT OF DR. ANDREW F. KREPINEVICH, JR., PRESIDENT, CENTER 
            FOR STRATEGIC AND BUDGETARY ASSESSMENTS

    Dr. Krepinevich. Thank you, Mr. Chairman.
    I think there, at last, is a fairly high level of 
agreement, among the Defense Department, Congress, and the 
strategic studies community, that, while the Army continues to 
perform effectively in Afghanistan and Iraq, it is under great 
stress. What's even more worrisome is, a lot of the trendlines, 
a lot of the metrics and indicators that have been alluded to 
today, are almost uniformly moving in a more worrisome 
direction, the direction that could lead our ground forces to 
cross that line, that red line that separates a ready Army from 
a hollow Army. So, I'll focus most of my commentary on the 
response, what is being done.
    Of course, we have the planned 92,000 troop increase, more 
Army brigades--6--an additional Marine regiment. We also have 
$19 billion this year, and more on the way, to replace or 
repair destroyed or broken equipment. The question that the 
committee poses is: is this the right approach? Can we do 
better? My sense is that it's not clear that this is the right 
approach.
    We're talking about an Army increasing its end strength by 
65,000. This is an Army that's having trouble recruiting its 
current end strength, that's having to sacrifice quality to do 
so. Now, we may be able to bridge some of that gap by doing 
some of the things that Dr. Korb talks about, eliminating 
``Don't ask, don't tell,'' expanding opportunities for women. 
But, quite frankly, this is not a done deal.
    Look at the slowness at which the Army plans to ramp up its 
end strength, roughly--it was about 7,000 a year over the next 
5 years. Five years. That's longer than we spent in World War 
II, longer than we spent in the Civil War. If help were on the 
way, in this sense, help is likely to arrive far too late.
    If that's the case, if we don't want to compromise quality, 
as Dr. Korb says--and I think he's right--we may have reached 
our force-structure limit, unless we're willing to adopt 
extreme measures, like the draft, like what some members of the 
strategic studies community are advocating: welcome foreigners 
into our Army in exchange for American citizenship. Of course, 
we already have 20,000 security contractors, many of whom are 
not U.S. citizens, already operating in Iraq. This reminds me 
of what the Duke of Wellington once said about these sorts of 
folks, in commenting on one of his newly formed regiments. He 
said, ``I don't know what they'll do to the enemy, but, by God, 
they sure scare me.''
    We can have a case, as Dr. Korb says, where we have 
subtraction by addition. Those of us here who have commanded 
Army units understand that there are certain people in your 
unit that you'd be better off without. It's not just purely a 
numbers game; it is a quality game. Even if we do recruit the 
additional 65,000, even if they do meet the quality standards 
that Dr. Korb talks about, even these additional numbers, even 
this size of an Army, is not going to meet the force 
requirements that would be imposed by plausible contingencies, 
such as a widespread breakdown in order in countries like 
Pakistan or Nigeria or others. If we're just looking at 
population, Pakistan's six times the population of Iraq; 
Nigeria, four or five times the population of Iraq. There's no 
guarantee, of course, that disorder won't occur in more than 
one place at one time; it could happen simultaneously.
    The 2006 Quadrennial Defense Review (QDR) understood this. 
It said we have to get serious about the business of building 
partner capacity. There are manpower limits to what we can do, 
in terms of our own ground forces. Unfortunately, that QDR did 
not put anything in the way of meat on the bones. I'll talk to 
that in a minute.
    Also of concern is the sense that the Army and the Marine 
Corps seem to intend to use their new, or increased, troop 
strength to increase the number of brigades and regiments, 
respectively, in their force structure. Both seem to be tending 
to orient this force on conventional operations, as opposed to 
irregular warfare. In my discussions with some senior flag 
officers in the Services, they tend to say, ``We have to worry 
about North Korea. We have to worry about Iran. We have to 
worry about maintaining that rotation base.'' That may be true, 
but if you look at the contingencies that North Korea and Iran 
represent, I would argue that the least of our problems is 
confronting another Republican Guard-like force on the 
battlefield.
    In fact, I would argue, we are probably well into what we 
might call an irregular warfare era. Why? I think there are 
about four reasons for this:
    Number one, we so dominate, our ground forces are so 
proficient in conventional warfare, that it is astounding that 
anyone would think that the best way to beat the American 
military is somehow to confront it directly on the battlefield.
    Second, we have the diffusion of technology--rockets and 
missiles, precision-guided munitions, advanced explosive 
charges, the Internet--as a means for irregular forces to 
become far more effective. One of the questions that goes 
around the Pentagon these days is, how much destruction can 10 
determined men cause? The slope of the graph is going up 
dramatically over time.
    Third, if you look at third-world demographic trends, 
inequitable wealth distribution, and our enemy's ability to 
exploit what we call strategic communications to convince the 
people that they have grievances, and that their grievances 
are, in large part, against the United States, we find that, in 
much of the underdeveloped world, there is growing motive, 
means, and organizational skills to create disorder on a large 
scale.
    Finally, and perhaps most important, we have proven, our 
military has proven, far less effective in combating enemies 
waging irregular warfare than those engaged in conventional 
war. One of the reasons I'm convinced, myself, sitting before 
you today, is because I could not learn to hit the curve ball 
as a baseball player. Once the pitching staffs of the other 
team found that out, all I saw was curve balls. Right now, the 
American military does not hit the curveball. Until they learn 
to do it, that's all they're going to see, or that's a lot of 
what they're going to see.
    In a sense, our ground forces are at a crossroads. In 
previous times, when we put our hand on a stove, whether it was 
Vietnam or Iraq, there's a tendency to say, ``We're not going 
to do that anymore. No more Vietnams.'' On the other hand, the 
fact is that if we're entering an era of irregular warfare, 
that's what we're going to see.
    Lieutenant General Thomas F. Metz, USA, who's the Deputy 
Commanding General at the United States Army Training and 
Doctrine Command (TRADOC), said, ``We argued in those days, 
before the Iraq war, that if we could do the top end skills, we 
could do all the other ones. I've had to eat a little crow.'' 
There is, I think, a sense in the Army and the Marine Corps 
that if we orient on conventional war, somehow those forces can 
quickly and rapidly adapt themselves to wage irregular war. 
Vietnam and Iraq and Afghanistan stand as case studies of why 
that hasn't happened, or it certainly hasn't happened quickly 
enough for us to be effective, as we would have liked to have 
been.
    Given that, and given our manpower limitations, given the 
need to build partner capacity, given the limitations on our 
force structure, it's surprising to me that, as part of this 
reorganization, we have not talked about creating a standing 
training organization, something like the old Military 
Assistance and Advisory Groups we had during the Cold War to 
train indigenous forces, to train forces of our allies, so 
that, together, we could deal with these common threats to our 
security.
    Right now, we're in the process of stripping officers and 
NCOs out of our line units to serve as advisors, because the 
Army is not structured with a lot of excess officers and NCOs 
to perform that function, so the Army is having to rob Peter to 
pay Paul. Yet, we know that if they're going to stand up so we 
can stand down, you can train an Iraqi private, perhaps, in 60 
to 90 days, but you're going to have to have people working 
with Iraqi officers, NCOs, and the same goes in Afghanistan, 
for a much longer period of time for them to get the skill set 
they're going to need to operate effectively.
    We need to orient our training on irregular warfare 
challenges to include stability operations and 
counterinsurgency. This is significantly underway right now, 
but, again, as was pointed out by General McCaffrey, in some 
cases we're actually giving up valuable training areas that are 
going to be needed to organize and train our forces for this 
kind of warfare.
    When we realize that, for example, in the second Gulf War, 
we defeated the Republican Guard with essentially one heavy 
Army division, three brigades, the fact that we have 48 brigade 
elements would indicate that we should take some of them--in 
fact, perhaps a good portion of them--and orient them more on 
counterinsurgency and stability operations. In a sense, the old 
argument that we have to have one Army that can do everything, 
I think we're going to have to look increasingly at a division 
of labor within the Army, within the ground forces, between 
conventional war operations and stability operations.
    Finally, as we've seen, there's a shortage of equipment. We 
seem to have forgotten, after the Vietnam war, that we could 
actually suffer attrition in battle. The canary in the mine 
shaft here is the equipment that we've had destroyed and lost 
in this conflict, and in need of repair. Our industrial base is 
not really organized and equipped to surge production, as we've 
seen. This argues, I think, for creating some kind of war 
reserve stocks that can be employed. For example, if we had had 
them in this war, we could have deployed them much more 
quickly, to help stand up the Afghan National Army, the ISF, 
who are, in many cases, still less well equipped than the 
enemies they go up against, and of course, the re-equipping of 
our own forces in the field, as we surge, in order to deploy 
combat forces into theater.
    In summary, I think the committee is right to be concerned 
over whether our ground forces are stressed and in danger of 
becoming broken. Even though they still perform effectively in 
the field, obviously we can't rest easy. I was told by General 
Shy Meyer, the Army Chief of Staff who coined the phrase ``the 
Hollow Army,'' that once you cross that red line, there is a 
point at which the erosion of the force begins to accelerate. 
There's a knee in the curve where readiness and organizational 
capability and effectiveness really begin to go downhill 
rapidly. He said, ``once you cross that point, like we did in 
the late 1970s, it becomes a lot more difficult, in terms of 
time, in terms of human resources, in terms of material 
resources, to dig yourself out of that hole.''
    So, again, I compliment the committee on taking up this 
issue now, because time is not on our side. Even making changes 
now, in terms of force structure, equipment, and so on, are 
going to take time to implement and bring into effect.
    I thank you very much, Mr. Chairman, for the opportunity to 
be here today.
    [The prepared statement of Dr. Krepinevich follows:]
            Prepared Statement by Dr. Andrew F. Krepinevich
    Thank you, Mr. Chairman, for the opportunity to appear before you 
today, and to share my views on the future of U.S. ground forces. My 
testimony is intended to provide a context within which one might 
evaluate evolving Department of Defense (DOD) plans for the current 
size, organization, and equipment of the Army and Marine Corps, with an 
eye toward better preparing these two Services for the challenges and 
requirements of the next two decades.
         the all-volunteer ground force: stretched to the limit
    Without question, U.S. ground forces are under considerable strain, 
the result of over 5 years of high operational tempo and combat in 
Afghanistan, Iraq, and other locations. Even prior to these wars, U.S. 
ground forces were far from idle. Since 1990, the United States has 
deployed major ground force contingents in a variety of peacekeeping, 
peacemaking, humanitarian and disaster relief, counterterrorism, and 
partnership building missions in places such as Somalia, Haiti, Rwanda, 
Bosnia, Indonesia, Colombia, the Philippines, and the Horn of Africa. 
These have been augmented by routine forward deployments too numerous 
to count.
    Former Secretary of State Madeline Albright once asked ``What's the 
use of having a first-rate military unless you use it?'' A better 
question might have been, ``What is the maximum force utilization rate 
we can sustain before degrading a first-rate military?'' After over 5 
years of combat operations in Afghanistan and Iraq, both the Army and 
Marine Corps are now stretched to the limit. Our ground forces are 
simply too small to sustain a permanent combat force of over 150,000 in 
Central Command's area of operations. This condition has prompted the 
DOD to announce a 92,000-troop increase in the size of the Army and the 
Marines, with 65,000 of that total going to the Army. Moreover, as 
General McCaffrey and General Scales have pointed out, Army and Marine 
Corps equipment is in such a state of disrepair that it will take years 
and tens of billions of dollars to repair or replace. The list of 
``high-demand, low-density'' equipment is significant and growing. It 
includes items such as individual body armor, mine- and IED-resistant 
vehicles, nonlethal munitions, and certain kinds of robotics (e.g., 
small-unit UAVs; ground robots).\1\ Readiness and training are also 
suffering, as the Army is forced to play a shell game with its 
equipment to insure its forces in the field and those about to deploy 
are properly equipped. Even then, units training to deploy still end up 
short.\2\
---------------------------------------------------------------------------
    \1\ These UAVs and land robots are part of the FCS effort; however, 
they are but two elements in an overall program comprising 14 
(originally 18) systems, including a family of ground combat vehicles. 
See Andrew F. Krepinevich, Transforming the Legions (Washington, DC: 
Center for Strategic and Budgetary Assessments, 2004), pp. 52-57.
    \2\ Greg Jaffe, ``Despite a $168 Billion Budget, Army Faces Cash 
Crunch,'' Wall Street Journal, December 12, 2006; and Yochi J. Dreazen 
and Greg Jaffe, ``Calibrating a Troop `Surge','' Wall Street Journal, 
January 2, 2007, p. A6.
---------------------------------------------------------------------------
    Obviously, something must be done to help restore our ground 
forces. The natural question, then, is: How should we go about doing 
it?
                    increasing the size of the force
    The first issue is whether or not to increase the ground forces by 
92,000 personnel. The case for such a move is by no means clear-cut. 
There are very likely clear limits on the size of an All-Volunteer 
ground force the Army and Marine Corps can achieve without dramatically 
increasing the pay and bonuses of soldiers and marines. The annual cost 
for American Active-Duty personnel is already at historic highs. For 
example, between the start of the Second Gulf War and the end of last 
year, the Army had to increase the amount spent on retention bonuses by 
nearly an order of magnitude, from $85 million to $735 million.\3\ At 
the same time, the cost to support each soldier, as measured by 
personnel costs, increased by well over 50 percent since 2001, from 
$75,000 to $120,000 per soldier in 2006.\4\
---------------------------------------------------------------------------
    \3\ Tom Vanden Brook, ``Army Pays $1 Billion to Recruit and Retain 
Soldiers,'' USA Today, April 12, 2007, p. 8.
    \4\ Greg Jaffe, Despite a $168 Billion Budget, Army Faces Cash 
Crunch,'' Wall Street Journal, December 12, 2006.
---------------------------------------------------------------------------
    Moreover, despite these substantial increases in the financial 
incentives being offered to Americans to serve in the military, there 
are worrisome indicators that the quality of the force has declined, 
perhaps significantly. The Army granted some 8,500 moral waivers for 
recruits in 2006, more than triple the 2,260 granted a decade ago. 
Waivers for recruits who committed felonies were up 30 percent in 2006 
over 2005. The Army is also accepting more high school dropouts. Last 
year roughly 82 percent of Army recruits had high school diplomas, 
compared to a benchmark of 90 percent. This is the lowest rate since 
1981, when the Army was beginning to come out of the depths of the 
``hollow force'' of the immediate post-Vietnam era.\5\
---------------------------------------------------------------------------
    \5\ Tom Vanden Brook, ``Older Recruits are Finding Less Success in 
Army,'' USA Today, February 19, 2007.
---------------------------------------------------------------------------
    The Army's problems do not end there. Only 61 percent of Army 
recruits scored above average on the Service's aptitude test for 
recruits last year, the lowest scores since 1985. The Army has lowered 
its weight standards for recruits and increased the recruiting age to 
the point where it would not have met its recruiting targets in 2006 
without those recruited who are over the age of 35.\6\ It seems 
evident, then, that even the dramatic increases in financial incentives 
instituted in recent years are not, by themselves, sufficient to 
attract enough higher quality personnel to fill even its current force 
requirements, much less a substantially larger force.
---------------------------------------------------------------------------
    \6\ Tom Vanden Brook, ``Older Recruits are Finding Less Success in 
Army,'' USA Today, February 19, 2007; and Associated Press, ``Lower 
Standards Help Army Meet Recruiting Goal,'' USA Today, October 9, 2006.
---------------------------------------------------------------------------
    Even more worrisome is the fact that, despite the lower quality of 
recruits being accepted in the Army, the Army's basic trainee 
graduation rate leaped from 82 percent in 2005 to 94 percent in 
2006.\7\ This result seems counter-intuitive. Why is it happening? Why 
are lower quality recruits graduating at a higher level than their more 
qualified predecessors? The likely answer: maintaining tough basic 
training programs increases the number of ``washouts'' while reducing 
the number of graduates ready to fill the ranks. Given the choice of 
sending units to combat zones at substantially less than full strength, 
or sending them with less than the best recruits, the Army, forced to 
make a difficult choice, is opting for the latter.
---------------------------------------------------------------------------
    \7\ Vanden Brook, ``Older Recruits are Finding Less Success in 
Army,'' USA Today, February 19, 2007.
---------------------------------------------------------------------------
    The Army is also having problems filling its officer requirements. 
For example, the Active component was short some 3,000 officers in 2006 
and according to projections the shortage will increase to over 3,500 
by next year. Meanwhile, the Guard and Reserve confront a shortfall of 
nearly 7,500 officers.\8\ Recent declines in retention rates of West 
Point graduates are also a source of concern.\9\
---------------------------------------------------------------------------
    \8\ Government Accountability Office (GAO), Military Personnel: 
Strategic Plan Needed to Address Army's Emerging Officer Accession and 
Retention Challenges (Washington, DC: GAO-07-224, January 2007), p. 27; 
and Greg Jaffe, ``Despite a $168B Budget, Army Faces Cash Crunch,'' 
Wall Street Journal, December 12, 2006.
    \9\ Bryan Bender, ``West Point Grads Exit Service at High Rate,'' 
Boston Globe, April 11, 2007, p. 1.
---------------------------------------------------------------------------
    Under these conditions, despite the Army's shortage of soldiers--
both in quantity and quality--it will take 5 years to increase its 
ranks by 35,000. While the Marine Corps' problems do not appear to be 
as severe as the Army's, the Marines also plan to take up to 5 years to 
increase their ranks by 22,000.\10\ Simply stated, we appear to be 
reaching the size limit on our ground force structure, unless we are 
willing to resort to extreme measures such as conscription, or, as some 
propose, offering citizenship to foreigners who are willing to fight 
Americans' battles for them.\11\
---------------------------------------------------------------------------
    \10\ The Marine Corps has traditionally had less difficulty filling 
its ranks than the Army, in no small measure because while the Army is 
well over twice the size of the Marine Corps, both recruit from the 
same manpower pool.
    \11\ This latter option has gained some currency in some quarters 
across the political spectrum.
---------------------------------------------------------------------------
    Another problematic course of action is already being pursued: the 
use of security contractors to perform duties that have traditionally 
been performed by soldiers and marines. The Defense Department 
estimates that roughly 20,000 security contractors operate in Iraq 
alone, the equivalent of over three Army combat brigades and their 
associated combat support and combat service support elements. Unlike 
our soldiers and marines, these contractors are typically subjected to 
little in the way of oversight, despite the fact that counterinsurgency 
operations demand the highest levels of restraint on the part of 
counterinsurgent forces.\12\
---------------------------------------------------------------------------
    \12\ Steve Fainaru, ``A Chaotic Day on Baghdad's Airport Road,'' 
Washington Post, April 15, 2007, p. A1.
---------------------------------------------------------------------------
    Contractor personnel from ``private security companies'' hail from 
a variety of nations. To be sure, there are substantial numbers of 
Americans and British. But the ranks of private security companies also 
comprise significant numbers of Australians, Chileans, Fijis, 
Romanians, and Ukrainians, to name but a few of the nationalities 
involved.\13\
---------------------------------------------------------------------------
    \13\ Daniel Bergner, ``The Other Army,'' New York Times Magazine, 
August 14, 2005.
---------------------------------------------------------------------------
    One challenge counterinsurgent forces have in dealing with 
insurgents is differentiating between them and noncombatants. In a 
combat situation, oftentimes the safest thing to do from an individual 
soldier's perspective is to shoot first and ask questions later. This, 
however, risks incurring noncombatant casualties and alienating the 
population. It is for that reason that U.S. forces operate under strict 
rules of engagement (ROE). The contractor security forces, however, do 
not function under the ROE imposed on U.S. and coalition forces. It is 
not clear whether the contract forces even have standing ROE. This has 
the potential to undermine the overall U.S. war effort.\14\ One 
American general officer summed up the effect of contract security 
agents as follows:
---------------------------------------------------------------------------
    \14\ There are indications that security contractors have alienated 
both U.S. troops and Iraqis. As one U.S. intelligence officer stated, 
``Those Blackwater [security contractor] guys, they drive around 
wearing Oakley sunglasses and pointing their guns out of car windows. 
They have pointed their guns at me, and it pissed me off. Imagine what 
a guy in Fallujah thinks.'' [Fallujah is where four U.S. security 
contractors were killed and their bodies mutilated by Iraqis, setting 
off a confrontation between U.S. and insurgent forces that led to two 
major battles.] Michael Duffy, ``When Private Armies Take to the Front 
Lines,'' Time, April 12, 2004. A year after the initial Fallujah 
battle, 16 American security contractors were arrested by marines after 
they allegedly twice fired on a marine position in Fallujah. Iraqi 
officials asserted that, on average, security contractors kill a dozen 
civilians a week without probable cause. This has the potential to 
create enormous problems for coalition forces in a society where the 
killing of a family member or tribal member is likely to trigger a 
``blood feud.'' The marines later cited the group in a letter that 
read, in part, ``Your convoy was speeding through Fallujah and firing 
shots indiscriminately, some of which impacted positions manned by U.S. 
marines. Your actions endangered the lives of innocent Iraqis and U.S. 
servicemembers in the area.'' Adrain Blomfield, ``Shootings May Lead to 
Security Guard Curb,'' London Daily Telegraph, June 11, 2005, p. 1; and 
T. Christian Miller, ``Contractors Say Marines Behaved Abusively,'' Los 
Angeles Times, June 11, 2005, p. 1.

        These guys run loose in this country and do stupid stuff. 
        There's no authority over them, so you can't come down on them 
        hard when they escalate force. They shoot people, and someone 
        else has to deal with the aftermath. It happens all over the 
        place.\15\
---------------------------------------------------------------------------
    \15\ Jonathan Finer, ``Security Contractors in Iraq Under Scrutiny 
After Shootings,'' Washington Post, September 10, 2005, p. 1. The 
observation was made by Brigadier General Karl R. Horst, Deputy 
Commanding General, 3rd U.S. Infantry Division.

    In brief, we may need a bigger Army and Marine Corps, but it is not 
clear we can get them at an acceptable price. Moreover, even an 
additional 92,000 personnel will likely prove inadequate to address 
some of the highly plausible contingencies outlined below.
               preparing the ground forces for the future
    Quite apart from the question of increasing the size of the force 
are questions over what types of units will be formed from the 
increase, what type of training they will receive, and what type of 
equipment they will use. The Army plans to utilize the soldiers being 
added to its force structure to create 6 additional brigades (and 
associated combat support and combat service support elements) over the 
42 currently planned, for a total of 48. The Marine Corps plans to use 
their end strength increase to add a regimental combat team to round 
out their three division-wing teams.\16\ Both moves suggest that U.S. 
ground forces will be trained and equipped primarily for conventional, 
high-intensity ground combat operations. Is this a smart move? If 
experience since the end of the Cold War is any indication, the answer 
is: not likely.
---------------------------------------------------------------------------
    \16\ ``DOD News Briefing with Under Secretary of Defense David Chu, 
LTG Stephen Speakes, and LTG Emerson Gardner from the Pentagon,'' U.S. 
DOD Transcript, January 19, 2007, available at http://
www.defenselink.mil/transcripts/transcript.aspx?transcriptid=3871.
---------------------------------------------------------------------------
    The post-Cold War era has been dominated by irregular warfare 
contingencies. These contingences, as has been the case with most such 
conflicts of this type throughout history, have been dominated by land 
forces--although maritime and air forces have played significant roles 
in many of them--and it seems this will likely continue to be the case 
in the future.
    To be sure, the First Gulf War in 1991 and the conventional combat 
operations phase of the Second Gulf War in 2003 involved major 
combined-arms ground operations. However, both of these conflicts 
vividly demonstrated the enormous overmatch that exists between the 
United States military and those that might choose to challenge it by 
waging conventional warfare, as Saddam Hussein's military did, not 
once, but twice. At the same time, however, the U.S. military's 
performance in irregular warfare campaigns has been far less 
impressive.
    This should come as no surprise. Following the Vietnam War our 
ground forces were optimized for conventional warfare. The slogan ``No 
More Vietnams'' reflected the military's desire to avoid protracted, 
ill-defined conflicts. General William DePuy, one of the Army's leading 
thinkers, viewed the 1973 Middle East War as a godsend of sorts, as it 
enabled the Army to reorient its thinking on the greatest threat to 
U.S. security, the Soviet Army in Central Europe. The attitude of ``No 
More Vietnams'' was heartily seconded by the American people and the 
country's civilian leadership. It spawned the Weinberger and Powell 
doctrines of the 1980s and the ``Exit Strategies'' that obsessed 
political and military leaders during the deployment of U.S. ground 
forces in the 1990s. The force was organized, trained and equipped to 
fight short, decisive wars. When this was not possible, the intent was 
to set clear limits on the duration of U.S. force deployments and avoid 
another ``quagmire'' like Vietnam.
    Alas, as our generals are fond of reminding us, ``The enemy gets a 
vote,'' and many of our enemies--especially those espousing the radical 
Islamist creed--have ``voted'' against taking on the United States with 
conventional forces, instead opting for irregular warfare.
    There are three primary reasons for this:

        <bullet> First, as noted above, the U.S. military has 
        overwhelming dominance in conventional warfare;
        <bullet> Second, even if they had wanted to confront the United 
        States conventionally, most of our enemies simply lack the 
        human and material resources to build conventional forces on 
        anything like the scale and level of sophistication required to 
        pose a serious challenge to our military; and
        <bullet> Third, and perhaps most important, the U.S. military, 
        and other militaries of the first rank like Israel's, have 
        proven far less effective in combating enemies waging irregular 
        warfare than those engaged in conventional war.

    To buttress their line of thinking, our enemies can cite from an 
impressive run of successes: among them our defeat in Vietnam and 
withdrawal from Lebanon in the 1980s and Somalia in the 1990s; the 
Soviet defeat in Afghanistan; and Israel's apparent inability to defeat 
the Iranian-backed irregular forces of Hezbollah.
    To use a sports analogy, if you're a dead-eye fastball hitter, but 
you can't hit a curveball, and the pitcher has a curveball in his 
repertoire, all you're going to see will be curveballs. Given the 
factors noted above, it seems likely that the U.S. military is destined 
to encounter adversaries waging irregular warfare unless these enemies 
gain an advantage in conventional warfare (an unlikely occurrence over 
the foreseeable future), or until the U.S. military demonstrates an 
ability to deal effectively with the irregular warfare challenge.
    Reasonable minds can certainly differ concerning whether the war in 
Iraq represented a war of necessity, or a war of choice. Moreover, 
given the enormous difficulties associated with counterinsurgency 
operations, some might also reasonably argue that the United States 
should only deploy forces in such operations when the U.S. interests at 
stake are perceived to be very high, and no other options acceptable 
options appear to be available.
    However, given the experience of the past 5-plus years, the 
likelihood of continued operations in Afghanistan (whatever happens in 
Iraq) and the other trends I mentioned, it seems only prudent to make 
sure that our ground forces are trained and equipped to carry out 
counterinsurgency operations.
    In summary, the attacks on New York and Washington on September 11 
and subsequent events indicate that, whatever our desires to avoid 
operations against irregular forces, these kinds of conflicts no longer 
represent wars of choice, but in many cases are now wars of necessity.
             primacy for conventional or irregular warfare?
    To be sure, there is the possibility that a ``No More Iraqs'' mood 
will dominate our thinking in the coming years. If by this we mean that 
we should not repeat the errors that have foiled our efforts to succeed 
in Iraq, the slogan is an apt one. If, however, the phrase is meant to 
indicate that the U.S. military should get out of the business of 
developing a strong competency in irregular warfare, this would almost 
certainly be a serious error in judgment. Yet there are some who argue 
that Iraq and Afghanistan are ``one-offs''--that given the difficulties 
we have experienced in these wars, we will see a repeat of the ``No 
More Vietnams'' attitude that dominated U.S. foreign policy for nearly 
three decades after that war.
    Several key trends indicate that we are not likely to be afforded 
such a respite. Rather, it appears we may be entering an era of 
irregular warfare:

        <bullet> First, as I mentioned, most of our enemies have little 
        choice: the investment required to take on the U.S. military in 
        conventional warfare is prohibitive;
        <bullet> Second, once an enemy finds a weakness, he tends to 
        exploit it until we develop an effective counter;
        <bullet> Third, the diffusion of technology (e.g., the 
        internet, rockets and missiles, precision-guided munitions, 
        advanced explosive charges, etc.) is greatly enhancing the 
        capabilities of irregular forces, and this seems likely to 
        continue for some time; and
        <bullet> Finally, Third World demographic trends, highly 
        inequitable wealth distribution, and our enemies' ability to 
        exploit what we now term ``strategic communications'' more 
        effectively than we have to date suggest there are likely to be 
        large numbers of alienated people in the underdeveloped world 
        with the motive, the means and the organizational skills to 
        create disorder on a large scale.

    To paraphrase Pericles, ``Just because we don't take an interest in 
the forces of disorder doesn't mean the forces of disorder won't take 
an interest in us.'' Indeed, it is not difficult to imagine the world 
becoming a much more dangerous place in a very short period of time. 
Consider but two examples that could quickly develop into crises 
requiring a far greater capacity for stability operations than our 
forces currently possess, or plan to develop:

        <bullet> Pakistan, a fragile nuclear-armed state with a 
        sizeable radical Islamist population complete with an internal 
        sanctuary and a fertile recruiting ground in the form of scores 
        of radical madrasas.
        <bullet> Nigeria, a major supplier of the world's oil, is beset 
        with widespread corruption, uncontrolled and armed militias, 
        and a growing sectarian fault line between Christians and 
        Muslims.

    If this analysis is correct, and we are entering a national 
security era dominated by irregular warfare, history shows us that 
ground forces will dominate our operations against these kinds of 
threats, although it must be noted that air and naval forces will very 
likely play important and sometimes dominant roles in certain irregular 
warfare contingencies. If this is the case, then the question naturally 
becomes: should our ground forces be optimized primarily for major 
conventional combat operations--MCOs in ``Pentagonspeak''--or irregular 
warfare?
    When presented with this question, the Army and Marine Corps are 
quick to note that, given the potential stakes and effects of MCOs, 
they cannot ignore conventional war contingencies. However, this 
concern, which remains valid, rings far more hollow than it did during 
the period following Vietnam, when the Soviet armies posed a threat to 
us that far exceeded any rivals pursuing irregular warfare. But the 
evidence today strongly suggests that no one wants to play the role of 
Saddam Hussein's Republican Guard, now or in the foreseeable future. 
One searches in vain through the pages of military journals to find 
stories of countries assembling tank armies to oppose us. Truth be 
told, the two countries most often cited by our military leaders as 
opposing the United States in major combat operations involving large-
scale conventional forces--North Korea and Iran--lack even a Republican 
Guard mechanized force, let alone a Soviet tank army.
    As members of this committee well know, the threat from North Korea 
stems from its budding nuclear arsenal, ballistic missiles, special 
operations forces (perhaps armed with chemical or biological agents) 
and artillery positioned in caves and mountains near the demilitarized 
zone (DMZ). Moreover, the mountainous DMZ itself is perhaps the most 
heavily fortified territory in the world, with both flanks anchored on 
the ocean. The South Koreans have both the incentive and the resources 
(a population twice that of the North and an economy dozens of times 
greater) to field ground forces capable of blocking any attempt by 
North Korean forces to advance south--a concept Pyongyang seems ill-
disposed to execute in any event.
    Iran, having witnessed first hand the American military's utter 
drubbing of Saddam Hussein's conventionally armed and organized 
militaries, and the subsequent success of irregular operations against 
U.S. forces, would not likely be attracted to Saddam's method of 
challenging the U.S. military. Moreover, it is the Iranians who have 
armed and trained groups like Hezbollah and Hamas, and who are 
providing support for Iraqi irregular forces like the Mahdi Army. 
Discussions of Iranian military power center on Tehran's quest for 
weapons of mass destruction, its terrorist networks and its ability to 
close the Strait of Hormuz to shipping traffic by developing anti-
access/area-denial capabilities. Were the U.S. military to confront 
Iran in a major combat operation--now or a decade from now--Tehran's 
conventional forces would almost certainly be a secondary 
consideration.
    To be sure, our ground forces must remain dominant in conventional 
(or what the 2006 Quadrennial Defense Review calls ``traditional'') 
operations. However, it is far from clear that the Army and Marine 
Corps must be principally, or even primarily, devoted to this task. 
Consider that, thanks to the gains in effectiveness realized by our 
Armed Forces, improvements in their ability to fight as a joint force, 
and the U.S. military's enormous advantages in advanced capabilities 
(e.g., precision munitions; C\4\ISR), only one heavy Army division was 
needed to defeat Iraq's army in the Second Gulf War.\17\
---------------------------------------------------------------------------
    \17\ One Marine division was also involved in the major combat 
operation, as was the Army's 101st Airborne Division (Air Assault) 
along with some brigade-sized maneuver elements.
---------------------------------------------------------------------------
    The argument is also heard that it is far easier to adapt a force 
oriented on conventional warfare to irregular warfare, than the 
reverse. While this debate is certain to continue, the fact is that a 
U.S. military configured for conventional warfare failed to adapt 
quickly or effectively enough in both the Vietnam War and the current 
wars in Afghanistan and Iraq. As Lieutenant General Thomas Metz, USA, 
the Army's deputy commander of its Training and Doctrine Command, has 
observed,

          We argued in those days that if we could do the top-end 
        skills, we could do all the other ones. I have had to eat a 
        little crow.\18\
---------------------------------------------------------------------------
    \18\ Greg Jaffe, ``Despite a $168 Billion Budget, Army Faces Cash 
Crunch,'' Wall Street Journal, December 12, 2006.

       preparing our ground forces for future irregular conflicts
    Congress and the Defense Department must therefore decide how best 
to prepare our ground forces--whether to keep them at their current 
size or expand by another 92,000 personnel--for an era in which 
irregular warfare operations are likely to dominate America's ground 
force operations--while retaining the capability to fight a major 
combat operation (albeit one quite different from either of the Gulf 
Wars), if required. The Pentagon's 2006 Quadrennial Defense Review took 
an initial step to address this problem when it called for a strategy 
that emphasized ``building partner capacity''--training and equipping 
indigenous military forces in those countries threatened by radical 
elements, and doing the same for the militaries of those countries that 
stand by us as allies and partners. The idea is to acknowledge 
America's manpower limitations and to work with allies and partners, to 
include indigenous forces, to generate the forces required for 
sustained irregular warfare operations. Unfortunately, there has been 
little in the way of action to back up this noteworthy idea, aside from 
mandating a significant increase in our Special Operations Forces 
(SOF).\19\
---------------------------------------------------------------------------
    \19\ In one respect, increasing the size of U.S. special forces 
exacerbates the Army's manpower problems, as it strips out even more 
high quality soldiers from the Army at the same time the Service is 
having to accept lower quality recruits.
---------------------------------------------------------------------------
    For example, we have spent over 3 years training indigenous forces 
in Afghanistan and Iraq to ``stand up'' so our forces can ``stand 
down.'' We have been handicapped in this effort by the lack of a 
standing organization for training these forces, and a lack of 
equipment stocks from which to outfit them. These capabilities must 
exist in advance of our engagement in stability operations, not be 
cobbled together on the fly. Equipment to outfit these forces should be 
stockpiled, similar in some ways to the prepositioning of materiel 
configured to unit sets (POMCUS) equipment that was positioned to 
support U.S. forces during the Cold War.\20\
---------------------------------------------------------------------------
    \20\ POMCUS stands for positioning of materiel configured in unit 
sets.
---------------------------------------------------------------------------
    We also need to consider creating something equivalent to an 
``Advisor Corps''--a cadre of officers and NCOs that can train 
indigenous and allied forces in peacetime while serving with newly 
trained indigenous force units in wartime. After several false starts, 
our advisor effort with the Iraqi security forces appears to be 
improving. However, since the Army has no standing Advisor Corps, it is 
forced to strip its own units for officers and NCOs to fill this 
requirement, while confronting officer and NCO shortages. It comes as 
no surprise that oftentimes the soldiers sent by the Army to serve as 
advisors are the men it can most easily afford to do without. Nor is 
this sort of duty looked upon favorably by the Army's best young 
officers and NCOs.
    As I mentioned earlier, the Army plans to utilize its 65,000-troop 
end-strength increase to expand the number of its active brigade combat 
teams, which are oriented primarily on conventional warfare operations. 
I am aware of no plans the Army has to create training and advising 
organizations to build ``partner capacity'' by enabling America's 
allies and partners to ``scale up'' quickly to meet the challenges that 
might be posed by irregular warfare contingencies. In its defense, the 
Service cites the need to maintain a rotation base of brigades for such 
conflicts and the need to ``hedge'' against a major combat operation 
characterized by conventional warfare. While the Army is right to see 
the need to address these issues, as noted above, the way in which it 
is doing so appears highly imbalanced in favor of conventional warfare 
contingencies.
    Put another way, given the overwhelming success of our ground 
forces in conventional warfare operations, and the shift of rival 
militaries and nonstate entities toward irregular warfare, orienting 48 
Active Army brigades, 28 National Guard brigades, and 3 Marine Corps 
divisions primarily on conventional warfare operations would appear to 
reflect a desire to prepare for the kinds of challenges we would prefer 
to confront, rather than those we will most likely encounter.
    In addition to creating a standing capability for training and 
advising indigenous and allied military forces, strong consideration 
should be given to restructuring a substantial number of Army brigades 
for stability operations. As noted above, the Army should also be 
supported in its efforts to equip its forces for stability operations, 
while reducing emphasis on those aspects of its modernization program 
that are devoted to conventional operations, the Future Combat System 
(FCS) in particular. Despite assertions by some to the contrary, the 
FCS, which is projected to cost over $150 billion to equip only 15 Army 
brigades, is optimized to deploy quickly and defeat the kinds of enemy 
forces the Army is least likely to encounter on the battlefield--
combined arms, mechanized ground forces operating in the open.\21\ The 
Marine Corps' modernization efforts should be viewed in a similar 
light.
---------------------------------------------------------------------------
    \21\ See Andrew F. Krepinevich, Transforming the Legions 
(Washington, DC: Center for Strategic and Budgetary Assessments, 2004), 
pp. 52-57.
---------------------------------------------------------------------------
    The goal here, of course, is to support these Services' efforts to 
liberate funding to support modernization efforts designed primarily to 
enable our ground forces to operate more effectively in irregular 
warfare environments, such as those they are experiencing now in 
Afghanistan and Iraq, and also against the kind of threat confronted by 
the Israelis in their war with Hezbollah last summer.
    Equally important, our defense industrial base should be capable of 
producing this equipment in quantity. As I mentioned earlier, the 
irregular warfare campaign that followed the end of major combat 
operations in Iraq has found our ground forces suffering substantial 
attrition of its equipment in a way not seen since the Vietnam War over 
30 years ago. Indeed, recent conflicts such as the First Gulf War, the 
Balkan War, and operations in Somalia and Haiti saw only minor losses 
of equipment, to the point where we seem to have assumed that the 
capacity to replenish our troops with equipment lost or worn out in 
operations is a trivial consideration. This has led to problems with 
equipping not only our ground forces, but those indigenous ground 
forces, such as the Afghan National Army and the Iraqi Security Forces, 
that are badly needed to support operations against our enemies.
    There is also the need to husband America's scarce ground forces. 
The sooner indigenous forces are ready to take the lead, or shoulder 
more of the burden for ground stability operations, the sooner American 
ground forces can reset for other existing or prospective 
contingencies. Finally, while U.S. assistance may be welcomed by 
others, a large U.S. force ``footprint'' may not be. In many cases, the 
sooner this footprint can be reduced the better it will be in terms of 
maintaining the support of the indigenous population, typically a key 
factor in prevailing in counterinsurgency operations.
    This being the case, the U.S. industrial base needs the capacity to 
surge production to replace destroyed or worn out equipment, whether it 
is equipment used by U.S. ground forces, or employed by forces we have 
trained to take on a greater responsibility for conduct of the war. 
More than that, strong consideration should be given to stockpiling 
some amount of equipment to facilitate the training of other militaries 
quickly, should that be necessary.
                                training
    As counterinsurgency warfare is typically protracted in nature, 
U.S. forces may find themselves engaged in this form of conflict for 
the better part of this decade, and perhaps a major part of the next. 
Thus the U.S. military could benefit substantially from creating the 
necessary infrastructure to support high-fidelity counterinsurgency 
training.
    To be sure, both the Army and Marine Corps are trying to adapt 
their training to prepare soldiers and marines, and their units, for 
combat operations in Afghanistan and Iraq. For example, a remarkable 
transformation has occurred at the Army's National Training Center 
(NTC) at Fort Irwin, California. Not long ago, the NTC was optimized 
for training Army brigades in combined-arms mechanized warfare. Now the 
NTC has taken on the form of warfare that confronts GIs in Iraq. The 
training area, which is the size of Rhode Island, has no front lines. 
Insurgents plant improvised explosive devices (IEDs) and employ car 
bombs. Army units must convoy their supplies distances approaching 100 
miles, while being subjected to attacks by insurgents. A dozen Iraqi 
``villages'' dot the landscape, populated by Iraqis and Iraqi-Americans 
who participate in the training. U.S. troops must recruit men from this 
population for the Iraqi security forces; negotiate with local leaders; 
and defend against an array of roadside bombs, car bombs, suicide 
bombers, and mortar attacks.\22\ The International Red Cross has even 
been invited to participate in the training involving mock detainee 
operations.
---------------------------------------------------------------------------
    \22\ Stephen J. Hedges, ``Mock Village Helps GIs See Iraq 
Reality,'' Chicago Tribune, December 14, 2004, p. 1; and Richard 
Whittle, ``In the Army's Sandbox, No Playing Nice,'' Dallas Morning 
News, October 9, 2005. In addition to training at the NTC, other 
training areas have been modified to assist soldiers and marines 
preparing for deployment to Iraq.
---------------------------------------------------------------------------
    However, a more coherent, focused, long-term approach is needed for 
the U.S. military's training infrastructure for irregular wars, like 
counterinsurgency. Training facilities must not only be adapted, they 
must operate at a higher capacity. This is all the more true given the 
de facto expansion of the active force created by large call-ups of 
National Guard brigades, and by the rapidly growing requirement to 
train the forces of partners in irregular warfare (e.g., Iraqi security 
forces; the Afghan National Army; etc.).
    Compounding the challenge of shoring up its high-fidelity training 
competitive advantage, the insurgents in Iraq are the beneficiaries of 
perhaps the world's best training center for insurgent warfare. Put 
another way, the Iraqi insurgents are in the world's finest high-
fidelity ``training center''--Iraq itself--24 hours a day, 7 days a 
week, 365 days a year. They are being ``trained'' by the world's best 
``Opposing Force (OPFOR)'' \23\--the U.S. military. Since insurgent 
forces are not rotated in and out of combat, but are constantly in the 
field, the Army and Marine Corps must find ways to avoid having the 
combat skills of units rotating back to the United States atrophy.
---------------------------------------------------------------------------
    \23\ ``OPFOR'' is a term used by the U.S. Army to denote the units 
stationed at its training centers that serve as the opposing force to 
the units being trained.
---------------------------------------------------------------------------
    At some point, these soldiers and marines will likely rotate back 
to Afghanistan or Iraq. If they are sent back into the area where they 
were previously deployed, this training gap may be mitigated. The 
effectiveness of unit operations might be enhanced, perhaps 
dramatically, if a major portion of its members remained together over 
successive deployments. There is some debate as to whether such ``unit 
manning,'' as envisioned by the Army, actually produces greater unit 
cohesion, or that the gains in unit cohesion are worth the costs of 
creating it.\24\ However, there would seem to be significant benefits 
to be derived from unit manning and rotation if, as part of the Army 
and Marine Corps rotation sequences, units that had operated in a 
particular area of Afghanistan or Iraq returned to those same areas in 
their successive deployments.
---------------------------------------------------------------------------
    \24\ See Pat Towell, Forging the Sword: Unit-Manning in the U.S. 
Army (Washington, DC: Center for Strategic and Budgetary Assessments, 
2004).
---------------------------------------------------------------------------
    For this to happen, retention rates must remain high. For retention 
rates to remain high, a rotation base must be established that 
encourages high retention rates. At present, the rotation base for Army 
(in particular) and Marine Corps forces deployed on hardship/combat 
tours appears woefully inadequate to sustain high retention rates. This 
could pose serious problems over time, both for U.S. military 
effectiveness in Afghanistan and Iraq, and for the U.S. military's 
training infrastructure. If, in this protracted conflict, the U.S. 
military is not able to deploy units that contain a significant number 
of veteran soldiers and marines, the training gap between them and 
their enemies may widen.\25\ During the Vietnam War, when U.S. forces 
had a high percentage of draftees in their ranks who were discharged 
after a few years' service, including 1 year in Vietnam, it was said 
that the United States military had ``1 year's worth of experience in 
Vietnam ten times over,'' whereas many of the communist guerrillas they 
confronted had a decade or more of experience. A similar phenomenon 
could occur in today's volunteer military if retention rates decline. 
Should this occur, it will place greater stress on the military's 
training infrastructure to make up the difference, as the training 
infrastructure will have to prepare a higher percentage of ``green'' 
troops for counterinsurgency warfare. The implications for U.S. 
military effectiveness could be striking.
---------------------------------------------------------------------------
    \25\ One reason this might not happen is if enemy insurgent forces 
are suffering severe casualties, or experiencing substantial 
defections. This could increase substantially the percentage of 
inexperienced insurgents in their ranks.
---------------------------------------------------------------------------
                    ``soft'' training and education
    Tactics are clearly important in military operations. Soldiers and 
marines must be proficient in individual and small-unit training on 
tasks such as detecting and handling IEDs, conducting convoy 
operations, clearing urban structures, and manning checkpoints. But 
counterinsurgency training is even more challenging. Soldiers and 
marines must also be trained in unconventional, or at least 
traditionally peripheral, tasks that are not central to the ``fire and 
maneuver'' or ``move, shoot and communicate'' that form the core of 
conventional combat operations. Among these tasks are those that focus 
on:

        <bullet> Possessing an appreciation of cultural norms;
        <bullet> Maintaining fire power restraint;
        <bullet> Undertaking civic action with local government and 
        civic leaders;
        <bullet> Operating (and perhaps integrating) with local 
        security forces;
        <bullet> Providing security and other forms of support to 
        reconstruction efforts; and
        <bullet> Possessing sufficient cultural awareness and language 
        skills to enable the actions described here.

    It is not clear how well individual soldiers and marines, or small 
units, can be ``trained up'' for these tasks prior to their deployment 
to the combat theater. Training in some skills may be relatively easy. 
There are, for example, ongoing programs to provide U.S. forces with an 
appreciation of Afghan and Iraqi customs and cultural norms. American 
units operating with local security forces can be critical to an 
effective counterinsurgency campaign, as demonstrated by the Army's 
Special Forces in the Buon Enao program and the Marine Combined Action 
Platoons (CAPs) initiative in Vietnam.\26\ Yet other than personal 
experience, and relying on well-crafted ``lessons learned'' reports, it 
would seem difficult to conduct training in these types of tasks beyond 
basic military skills (e.g., patrolling). Similarly, building the 
necessary confidence among local leaders and the population in general, 
so as to promote civic action, enhance security, and thus win their 
``hearts and minds'' is likely to be, at least in part, a function of 
U.S. troops' ``people skills.'' Yet even for those possessing the 
necessary cultural awareness, building up a level of confidence and 
trust with local religious and civic leaders can only occur over time. 
This cannot be ``pre-loaded'' at a U.S. military training facility.
---------------------------------------------------------------------------
    \26\ Andrew F. Krepinevich, The Army and Vietnam (Baltimore, MD: 
Johns Hopkins University Press, 1986), pp. 70-73, 172-177.
---------------------------------------------------------------------------
    Finally, the ability to prepare U.S. forces through training also 
depends on how counterinsurgent forces choose to prosecute the war. For 
example, a strategy that emphasizes periodic sweeps through an area is 
far less likely to provide the level of contact that ``secure and 
hold'' operations would. Familiarity can breed trust, as well as 
contempt. If the local population trusts coalition forces will provide 
it with security, it becomes easier to obtain the intelligence that is 
critical to defeating the insurgents. The choice between a strategy 
that emphasizes periodic sweeps and one that places high priority on 
sustained presence in an area could have a significant influence on the 
type of skills most needed in the force, and thus on what might 
constitute an optimal training program.
                                summary
    In an era dominated by irregular warfare challenges, the United 
States will require a large, first-rate ground force for some time, and 
the committee is right to be concerned over whether our ground forces, 
the Army in particular, are ``broken,'' or in danger of ``breaking.'' 
At present, the evidence indicates this is not the case. Our Army and 
Marine Corps units continue to operate effectively.
    But this does not mean that we can rest easy. If current trends 
continue, we run the risk of crossing a ``red line'' that will find our 
ground forces in a severely ``hollow'' state. The problem is that no 
one knows precisely where the ``red line'' is, or how and when it will 
be crossed, for an All-Volunteer Force in the midst of a long, hard 
fight against enemies waging irregular warfare. One thing we do know, 
however: the Army and Marine Corps--and this committee--are deeply 
concerned that we not cross that line, and rightly so. As we witnessed 
in the mid- and late-1970s, once the force crosses that line, problems 
snowball and it becomes very costly, both in terms of time and 
resources, to restore the force to acceptable levels of effectiveness.
    Indeed, as outlined earlier, while the force may not be broken, 
there are a number of warning indicators that indicate the Army, in 
particular, is moving ever closer toward that red line. These 
indicators function in a manner similar to canaries in a mine shaft--
used to indicate the presence of dangerous gases or lack of oxygen--as 
harbingers of possible impending disaster. For example, the Army has 
already employed many of the basic tools such as increased 
compensation, and enlistment and reenlistment bonuses, to keep its 
strength and quality up. However, it is still being forced to take 
lower quality recruits than have recently filled out the ranks of the 
All-Volunteer Force. As these trends become more worrisome, as we see 
``canaries dying,'' we must recognize that we may be courting disaster 
unless remedial measures are taken. Unfortunately, as noted above, our 
ability to remedy these manpower problems quickly or easily is limited.
    Similarly, it is difficult to replace large quantities of equipment 
quickly, when the industrial base is not structured to do so. It is 
difficult to field new equipment within an acquisition system that is 
renowned for its sluggishness.
    Perhaps most critically, solving the manpower and equipment 
problems would be daunting enough if we simply wanted to recreate a 
ground force focused on conventional operations. However, as we have 
discussed, solving these problems must occur as we reorient the ground 
force toward irregular warfare--or, at the very least--rebalance the 
emphasis between forces organized, trained, and equipped for 
conventional MCOs and irregular warfare campaigns. Under the best of 
circumstances, it will be difficult to introduce new doctrines and 
force modifications into military organizations that have for decades 
relegated irregular warfare in general, and counterinsurgency in 
particular, to low-priority status.
    Consequently, I applaud the committee's intention to take on these 
issues now. Time is clearly not on our side. The sooner effective 
remedial action is taken, the better. As history shows, major changes 
in doctrine, force structure, and equipment take years before their 
full impact is realized in the force. However, I urge the committee to 
make such changes with an eye toward how relevant they are, not only in 
terms of our current operations, but also--and perhaps even more so--
with regard to the kinds of challenges the Army and Marine Corps will 
confront, not only in the weeks and months ahead, but over the next 
decade or two as well.

    Chairman Levin. Thank you so much, Dr. Krepinevich. Your 
testimony's really quite extraordinary. This is, I think, a 
very, very significant presentation, and we're very grateful 
for it, from each one of you--you put a lot of thought in your 
testimony, both written and oral, and that testimony has a lot 
of specifics in it, as well as a lot of general thematic 
points.
    There seems to be almost a consensus that the challenges 
that we face are different from the legacy challenges, in that 
we're going to have to equip and train and organize differently 
than we have before. I would like to press you, in probably a 
very unfair way, to be very specific: pick five or six things 
that you would do that you would think are the most specific 
priorities for us. What kind of modernization would you drop? 
Some of you, in your written testimony, have been very specific 
on that point, what modernization plans you think are a 
mistake, given the other needs, and what directions would you 
go.
    So, I'm going to ask each of you to pick a half-dozen very 
specific changes that you would make in our equipment that's 
being planned and funded, our training, our organization, force 
size, that you think would be the most significant changes that 
we could make, either legislatively or just in the Pentagon, to 
address these changes that you all so, I think, brilliantly 
describe.
    Why don't we start with you, Dr. Krepinevich, and we'll go 
down the other end. To my colleagues, this will be an 8-minute 
round.
    Dr. Krepinevich. If I were to come up with a short list, I 
would say, first of all, if we're looking at 48 Army brigade-
size units and nine or so Marine regiments in the Active Force, 
we need to think about taking a sizable number of those 
elements--a number of those brigades--and orienting them 
primarily on irregular warfare, not only for purposes of 
wartime, but also for purposes of peacetime operations.
    I work on an advisory board for General Lance L. Smith, 
USAF, who commented that when he was in the U.S. Central 
Command (CENTCOM), one of the things that impressed him most 
was the work of Combined Joint Task Force Horn of Africa. He 
said if we're looking at this part of the world, if we're 
looking at a part of the world where countries are increasingly 
at a crossroads, the fact that you have forces in there working 
with indigenous forces, training them, doing civic action, and 
so on, is kind of a mini-boost, in terms of not only their 
capability, but the kind of positive effect that we saw when we 
did humanitarian relief operations in places like Indonesia, 
after the tsunami, and Pakistan, after the earthquake.
    Chairman Levin. Good. I'm going to make this even a tougher 
quiz. I'm going to ask each of you to list, say, five, if you 
can, in a couple of minutes each, because I only have 8 
minutes.
    Dr. Krepinevich. All right. Well, even faster, then.
    Chairman Levin. Yes.
    Dr. Krepinevich. An advisor corps--we're short officers and 
NCOs to help build partner capacity.
    Third, I think we need some kind of standing training 
organization--one of my colleagues calls it ``Multi-National 
Security Transition Command-Iraq in a box''--so that you have a 
group, whether it's a Military Assistance Advisory Group that's 
able to go in and begin quickly--not after a year or so, but 
quickly--to begin to train indigenous forces.
    Fourth, I think--this is a recommendation we made 10 years 
ago as part of the National Defense Panel--a joint urban 
warfare training center. Thirty-eight percent of the Arab world 
population is under the age of 14, and most of that population 
is in urban areas. These are young, frustrated, undereducated, 
underemployed males that are exposed to the jihadist ideology, 
day in, day out. The world's becoming more urbanized. We need 
to have those kinds of training facilities, as badly as we need 
places like the National Training Center.
    Finally, in terms of equipment, obviously the Chairman 
listed a number of equipment shortage items of our troops going 
overseas. I think we need to take another look at the FCS, 
which principally was a gleam in somebody's eye when they were 
worried about Republican Guard Forces, and is an awfully 
expensive way to try and get more effective at dealing with 
irregular-force enemies.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    General McCaffrey?
    General McCaffrey. It's difficult to dictate Army or Marine 
programs on the fly. Clearly, one of them is increase Army and 
Marine end strength. I'd be a little more cautious than Dr. 
Krepinevich, in one sense. I tell people I spent the early part 
of my career crawling around in the mud with a sack full of 
hand grenades, shooting it out with people at 20-feet range. 
We're really good at it. My rifle company had 100 percent 
casualties, probably, in the 8\1/2\ months that I commanded it. 
It's not a good way to fight. If you can find another way to do 
it, try that. So, I tell people how I fell in love with the 
M1A1 tank. If you countersniper, crowd control, or fight other 
tanks, go with armor every time. So, I'm a little uneasy about 
asserting that there is a light, cute way to fight people. We 
talk enemy capabilities, not intentions. It's not clear to me 
that our only security threat comes out of counterinsurgency. 
We have to have the Air Force and the Navy sitting there in 20 
years to deter the PRC. So, careful we're not going to create 
2.4 million men and women who are prepared to crawl around in 
Arab cities and fight block to block.
    I do think we have to buy strategic mobility. If we're 
going to bring the Armed Forces home from western Europe, 
Korea, and Okinawa, which probably isn't a good idea, but I 
think it's probably irreversible, we'd better fund their basing 
and then sort out how are we going to get them back to the 
combat area. I personally love the C-17 as much as the M1 tank, 
but I want to see how we get the infrastructure to operate in a 
global environment.
    FCS, I couldn't agree more. We have really been diddling 
around with this program for the last decade or so. I got a 
briefing on it yesterday. Looks to me like they're closing in 
on it. But we ought to tell the Army, ``You have--the first 
year of the second term of the next President, you'd better 
tell us what the first FCS brigade looks like. If you can't 
figure it out, then move this thing back into some kind of a 
test and evaluation program that--rather than a real one.'' But 
I think FCS is required. Just got to neck people down and force 
them to come up with the decent ideas.
    I'm appalled at the Army's inability--Marine Corps, also--
to get language training. I've been saying for 3 years, ``You 
have to take every Leavenworth class, count off by threes, and 
tell the number twos, 'You're going to 90 days of immersion 
Arabic-language training at Defense Language Institute.''' You 
can't do it in 2 weeks. I was an advisor as a lieutenant in 
Vietnam, 90 days of Vietnamese produces subfluent ability to 
operate in a foreign environment. For God's sakes, we're in 
year 5 of the war now, and we still haven't committed to doing 
the sensible thing.
    Finally, and probably most importantly, a necessary, but 
not sufficient, reason for us to succeed in our goal in Iraq 
and Afghanistan and withdraw is to equip, appropriately, Afghan 
and Iraqi security forces. We have not done this. It's 
appalling to me. We look at the ISF, they're going to have 70 
Soviet helicopters at the end of this process, 6 C-130s, 1 
squadron of ground attack aircraft, a collection of junk Soviet 
armor, some new, admittedly, I think, 800 BTR-80s, and Cougar 
fighting vehicles. What are we thinking of? We can't get out of 
there until these people can step forward. If we have 800 
helicopters in Iraq, why do we think 70 Soviet helicopters is 
going to allow them to control this giant country? So, I think 
we need to re-look lend-lease to our new allies, so we can get 
out of there.
    Thank you.
    Chairman Levin. Thank you, General.
    Dr. Korb?
    Dr. Korb. I think you have to take a hard look at how to 
pay for this, the things you're going to have to do for the 
ground forces, I think you should stop the FA-22 Raptor right 
where it is. I think you have enough of them to hedge against 
anything you need. I think the DDG-1000, I'd take another look 
at that. I think the littoral combat ship can do the job just 
as well, and the costs of that are just exploding. Virginia 
class submarine, I would extend the Los Angeles class longer, 
and I think you could then push that off.
    A big thing that we should do, and it would not only help 
save money, is to cut down nuclear weapons, because our main 
concern is the whole question of nuclear proliferation. We need 
to lead by example. I think we can go down, as General Eugene 
E. Habiger, USAF (Ret.), former head of the Strategic Command 
said, 600 operational, 400 in Reserve, more than enough to 
protect our interests, and it could save substantial amounts of 
money.
    Why we're rushing ahead with ballistic missile defense, to 
me, makes no sense. It's really not ready to go, and it deals 
with the least likely threat that we face. To me, it's 
appalling. We spend more on ballistic missile defense than the 
entire Coast Guard. I'm much more worried about somebody 
sneaking something in here than that.
    FCSs, you have to slow it--I thought I understood defense 
issues. I can't understand the system. I've been over there. 
I'm not quite sure what it is. There's 57 different type 
technologies, and somehow, we have to slow it down until we get 
a handle on it.
    I don't think the Marines need a new amphibious vehicle. I 
think they have other things that they need. The V-22, I would 
stop there now. I think you have enough of those things, and go 
buy some helicopters.
    The most important thing, I think, that you need to do, 
though, and you have to do it, is set a specific withdrawal 
date to get out of Iraq. I think you ought to start a phased 
withdrawal to get out over the next 18 months. That would give 
the Iraqis time to get their act together. General McCaffrey's 
right, they may not have enough equipment. But, a week ago 
today I was in Iraq, sitting next to the Deputy Minister of 
Interior, and he told me it's not a question of training or 
equipment, it's motivation. They're not motivated. I don't 
think they ever will, until those political compromises are 
made. Those political compromises will not be made unless we 
put the pressure on them.
    Then, finally, I think, when we get out of there, you need 
to continue the supplementals, consider them with the regular 
budget, to deal with the equipment situation. This is something 
we didn't do after Vietnam, and it took us about 10 years to 
get our equipment back up.
    Thank you.
    Chairman Levin. Thank you, Dr. Korb. [Audience 
interruption.]
    We're going to have to ask the people in the back not to 
say anything. We've tolerated your holding up signs, but any 
more oral comments, I'm afraid we're going to have to ask you 
to leave the room.
    General Scales?
    General Scales. Sir, I have to agree and disagree with my 
colleagues. First of all, when we talk about equipment, we have 
to understand that it's about balance. Andy is just dead wrong 
when he refers to FCS as a system designed for western Europe. 
I was at the beginning, the birth of FCS in the mid-1990s, and 
we didn't call it that then, we had a different phrase for it, 
but the whole concept behind the FCS is to design a system for 
the full spectrum, with focus on counterinsurgency and 
irregular wars. Obviously, the system will need some tweaking 
over time, because it's a very complex system.
    We have three choices, Mr. Chairman. We can go back to a 
dismounted infantry force that General McCaffrey and I have 
experienced, and we know that 81 percent of every soldier 
killed in combat since the end of World War II were light 
infantryman. You stand a tenfold greater chance of surviving in 
the close fight if you're mounted on anything than if you're 
dismounted. To give up the reform of the Army's mounted force, 
I think, would be irresponsible.
    So, now you have two choices: bring back the old Cold War 
gear, the 70-ton gas-guzzling behemoths designed to fight the 
Soviets on the plains of western Europe, or build a new force. 
I think we need to take a close look at how the new force is 
built, but, the best I can tell, for the last 12 years, that 
force was built around a full-spectrum force, not about taking 
on the Soviets.
    I don't believe in specialized units. I believe that good 
soldiers, given time to train, coalesce, and bond, can do a 
multitude of missions across the full spectrum, and that units 
themselves shouldn't be specialized, because you suboptimize 
the Army when you do that. So, I would not build special 
counterinsurgency units.
    But I would build special people. What's important in 
counterinsurgency are skills, not structure. The ability to 
speak a language, the ability to commune with alien cultures, 
the ability to train, to advise, to--as Andy says, be part of 
military advisory groups and country teams, those are very 
special skills. Brigades don't do that. People do that. So, in 
order to facilitate that, Mr. Chairman, I would--as I said 
earlier, I would change the culture and change the policy that 
deals with officer education and officer training. I would 
reward people for acquiring these skills, rather than punish 
them. Frankly, what I would do, as this war winds down, is, I 
would send the officer corps back to school, I would establish 
a soldier's sabbatical program by which young officers, in 
their fourth to eighth year of service, are sent back to 
civilian graduate schools to study alien cultures and to study 
the art of war so that they can be culturally aware and 
adaptable the next time they go to war. That's my motto.
    Chairman Levin. Thank you, all.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    This is one of those few meetings where the statements that 
have been made were not really what I expected, so I'm changing 
around the questions that I would ask.
    Let me, first of all, just share with you a personal 
experience. During the 1990s, there was a drawdown in our 
modernization program, a drawdown in our troop strength, a 
euphoric attitude that the Cold War is over, that our military 
doesn't need to be as strong as it has been in the past. I 
watched it. In the administration, if you add up all 8 years, 
the amount of money lower than a straight-line funding was $412 
billion. Now, this committee enhanced that to about $313 
billion. So, we added about $100 billion to the funds. But we 
watched things going on at that time. As General Schoomaker 
said, we started September 11 with a $56 billion shortfall in 
equipment across our Army, Active and Guard and so forth, so I 
think we know that we had a problem.
    During the 1990s I saw a starvation diet for our military--
I watched a lot--I remember at Fort Bragg, they used to call 
them the RPM accounts, real property and maintenance. They have 
a new word for it now, but they were actually taking anything 
that isn't bleeding today, and taking the money out of that, 
and putting it in what we had to have. So, they had to have 
bullets for training at Fort Bragg, and they were actually not 
repairing the roofs, and the kids were having to cover up their 
equipment with their own parkas just to keep it operable.
    I look at some of the statements that were made. Dr. Korb, 
I don't agree with you on a lot of things, but I do agree when 
you said that ideally we need to have for every one-third 
deployed, two-thirds that are either in rotation or in 
training. We want to make sure everyone's trained when they go 
in. We don't want to lower the standards, I agree with that. 
But if you don't have the money, you have to do something that 
you don't want to do. I just think that's the situation that we 
found ourselves in.
    I'd like to go back, just for a minute, to the FCS thing. I 
had very strong feelings about this. Most of our military 
people realize that we hadn't made any changes. In fact, I'll 
tell you something interesting. When I was in the House in 
1994, there was someone who testified at that time that we 
would no longer need ground troops in 10 more years. Now, I 
have to say, I love generals, but the generals are all going to 
line up and say, ``What are our needs going to be 10 years from 
now,'' and you're not going to be right. So, I think some of us 
feel that the only solution, if we really want to make America 
as strong as the expectation of the American people, that we 
need to see the overall problem.
    I know it's easy to beat up on Secretary Rumsfeld, but I 
remember at his confirmation hearing I asked him, ``How are you 
going to resolve the problem of trying to anticipate what your 
needs are going to be 10 years from now?'' I suggested to him 
the only solution would be that we have the best of everything 
in all fields--best strike vehicles, the best equipment, best 
on the ground. He said, ``during the entire century, the 20th 
century, the average amount of money during those years spent 
on military was 5.7 percent of GDP. It went down at the end of 
the 1990s to 2.7. Now it's about 3.8.'' So, I see this as a 
problem, that, if we are going to have the best of everything, 
we're just not spending the money.
    I know--and I'd like to ask--I believe, General Scales, you 
said something to the effect that you can't continue just to 
throw money at it. I think that you were the one who said that. 
No, that must have been one of other witnesses.
    Well, anyway, what I'd like to do is, just have you look 
into the future--and, I think, particularly the two generals on 
the panel--as to what we should do today in looking to the 
future, so that, if I'm correct when I said that expectations 
of the American people are that we would have the best of 
everything, what should we do today in planning for that?
    General McCaffrey?
    General McCaffrey. I've tried going into this with a little 
bit of humility--I'm not sure I can see the future. I basically 
agree with your going-in assertion that we ought to build a 
capability to respond across a broad range of potential 
threats. The most important thing we do, bar none--and here, I 
would probably part company with Dr. Korb--is to try and deal 
with the notion of nuclear proliferation. So, I personally 
think we ought to have a modernized, robust, nuclear attack 
capability, and would build a ballistic defense capability. 
Now, how much is enough is where the debate ought to be, not 
whether or not we ought to do this.
    The second most important thing I would do is ensure that 
we control the seas and the air. I'd have a world-class Air 
Force and Navy, without which none of the rest of this stuff 
works. The Army can't get there to fight to intervene in any of 
these contingencies unless we control the seas and the air to 
get in there.
    Then, finally, I think, back to FCS, we have to have a 
modernization program for the Army. We have to, at some point, 
walk away from a 70-ton tank that goes by sea, and get lighter, 
more nimble equipment. I think Bob Scales is entirely right. We 
don't want to elect to fight masses of foreign infantry on 
foot. We're really good at it. There's probably no more better 
team players than U.S. light infantry formations--28,000 killed 
and wounded; their morale is high. But we're trying to find a 
better way to do it. So, we have to do FCS and focus the Army, 
and then getting it out there. Right now, I think they're 
talking 2017 for a first FCS brigade. That's ludicrous.
    Senator Inhofe. Yes, I understand that.
    General Scales, I'm sorry, but our time is cranking away 
here. Let me get into something else.
    When General John P. Jumper, USAF, I thought was 
courageous, back in 1998, when he came up and said that--
talking about the F-22 program--when the Russians started with 
their SU-30s, SU-35s, they actually had some things that were 
better than our best strike vehicles, which were the F-15 and 
F-16. Then, when you talk about FCS, the best thing that we 
have out there in a non-line-of-site canon is the Paladin, 
which is World War II technology. I just can't imagine anyone 
who wouldn't believe that we need to have the FCS so that we 
get it lighter, faster, more transportable for these less 
predictable enemies that we have out there.
    General Scales, do you have any thoughts about that?
    General Scales. I do, Senator. Let's just talk about that 
for a moment. General McCaffrey is onto something here. The 
advantage of FCS is not just the fact that it's lighter, 
faster, and all the rest of that, but the essence of 
counterinsurgency is what the pundits call ``area control,'' 
the ability to control areas, rather than to capture or kill 
the enemy, maneuver along broad arrows on a map. What light, 
mobile, autonomous, mechanized forces bring to the table is the 
ability to spread your forces out, to distribute your forces, 
and to remain there for long periods of time, and yet, still 
protect them. The dream of the Army has always been to build an 
Army that can sustain itself over a long period of time, and 
yet, at the same time, fight at a mechanical advantage. The 
only way to do that, particularly in a counterinsurgency and a 
pre-insurgency environment, is to lighten the force, to be able 
to spread it out, distribute it; so, instead of having bases 
that are based around brigades, or maybe battalions, build the 
ability to have platoon, and even squads, as autonomous 
fighting elements.
    So, it's not just about the machine, it's about the 
concepts that you're able to use, in counterinsurgency, that 
the machine actually facilitates. So, sometimes we get too tied 
up with the technology, we get too focused on sensors and 
platforms, and the rest of that. The key here is to back off 
from the technology and back off from the programs, and ask the 
Army, ``Tell me how you would use this in a counterinsurgency 
environment.'' The answer is--any soldier in Iraq will tell 
you, ``I would rather man a guardpost in Baghdad,'' or, ``I 
would rather go into close attack in Fallujah and Ramadi, 
mounted, rather than dismounted.'' That is the bottom line. If 
we don't buy this next generation of fighting equipment, then 
the next generation, my children, are going to have to go to 
war, just like I did in Vietnam, with nothing to protect us, 
except an armored vest. I think that is absolutely wrong.
    Senator Inhofe. Yes. General Scales, I agree with you. I 
had an occasion to be in that area of responsibility some 13 
times now, and have seen the areas where we're really having 
problems. It just seems to me--and it frustrates me, because I 
can remember going to the Senate floor back in the 1990s 
saying, ``Someday, this day is going to come.'' I would just 
encourage you, in your advisory capacity, and you, General 
McCaffrey, to keep in mind that it's really all of the above 
that we need. Yes, we do need the missile defense. I know that 
Senator Sessions is going to be probably talking about that. 
It's inconceivable to me that we can watch the Chinese knock 
down one of their own satellites that's in the same orbit as 
our reconnaissance satellites, and not be concerned about that 
end of it.
    So, I appreciate very much your comments.
    Thank you, Mr. Chairman.
    Senator Lieberman [presiding]. Thanks very much, Senator 
Inhofe.
    I want to thank Senator Levin for convening this hearing. I 
appreciate it very much. The truth is--and the testimony of 
this superb panel puts a punctuation or exclamation point 
behind this conclusion, which is, I don't think there's 
anything more important this committee and Congress can do with 
regard to our military this session than to come to the aid of 
the U.S. Army. But we're having a lot of debates, obviously, 
about Iraq. Whatever you think about Iraq, the cumulative 
impact of the testimony--superb testimony that the four of you 
have offered today, to me, is both an indictment of the people 
and policies that have allowed our Army to come to this point 
of stress, and it is an urgent appeal--and, fortunately, an 
informed appeal by the four of you--to do something quickly to 
fix it as best we can.
    In some sense, as I listen to you, it seems to be that 
America, in this stage of our history, repeated a mistake that 
we see so often in history, which is that nations demobilize 
too quickly after victory in war. Here, the evidence is clear 
that we demobilized after our victory in the Cold War. We went 
from average size of the Army of about 780,000, now to about 
480,000. In some senses, that demobilization is understandable. 
What is unacceptable is that we failed to remobilize, as we 
went to war, after we were attacked on September 11. That's 
what we really have to do something about, as quickly as we 
can, as relevantly as we can, to the combat that we're involved 
in, in Iraq and Afghanistan today. Obviously, I fear, as all of 
us do, that the shortage--we're in that circumstance where the 
shortage of soldiers begins to define the military strategy 
more than the military strategy defines the manpower we need.
    General Scales, you make that point very effectively in 
your prepared testimony. In some sense, what we're experiencing 
right now is that the development of a new military strategy, 
the one that General Petraeus is implementing with new troops, 
we don't have the manpower to really carry it out. So, that's 
why the Pentagon has had to increase the stays of so many 
people who are there now, with the consequent negative effects.
    Anyway, I do want to say that Senator Cornyn and I, next 
week, are going to convene a hearing of our Airland 
Subcommittee, which will hear, I hope, Secretary Geren and 
General Casey, to essentially respond to the allegations, the 
charges, the observations, and the suggestions that you've made 
today. I thank you for them.
    The administration has now recommended an increase in the 
size of the U.S. Army by 65,000--but it won't reach that number 
until 2013. So, General Scales, I want to ask you, how much 
should we be increasing the size of the U.S. Army? Is it not 
possible to come to higher numbers before 2013?
    General Scales. Senator, first of all, I think the 100,000 
number has stood the test of time. You may recall, 2 years ago 
we had this long discussion, and the issue, as you recall, 
wasn't the Army. I think the issue we used was the term 
``ground power.'' That would be Army, Marines, and Special 
Operating Forces.
    Senator Lieberman. Right.
    General Scales. My answer to you is, we don't have until 
2013 to increase that force. My concern is that we haven't been 
imaginative enough in using the tools that we have at our 
disposal, other than lowering standards. We don't have the 
tools at our disposal to be able to focus our recruiting those 
soldiers we need most. Remember, now that the infantry force of 
the Nation is only about 5 percent of the 1.3 million. If you 
took every infantryman in the Army and the Marine Corps, it 
wouldn't fill FedEx Stadium.
    Senator Lieberman. Yes.
    General Scales. So we're not talking about mobilizing the 
Nation here, we're talking about taking a small part of the 
population, men and women in uniform, and a small part of that, 
those who are engaged in ground combat, which is even a small 
percentage of the Army and the Marine Corps, and raising the 
numbers of those forces in order to get the advisors, the 
trainers, the Military Assistance Advisory Group officers, as 
well as the members of the brigade we need.
    So, my suggestion is--number one, we need to change our 
policy on pay and allowances. Why can't we pay, for instance, 
soldiers, not only for their skills, but for their risk? In 
other words, why can't we pay them a lot more for doing the 
dirty, filthy job of close combat? If we did that, I think we 
would be able to accelerate that curve of accessions without 
diminishing the quality of the force. But I mean do it a lot, 
not just $1,000 a month, but do it substantially, because we're 
only talking about a fairly small number of men and women who 
perform these tasks.
    Senator Lieberman. It's an excellent point. Look, right now 
we are paying some of the private contractors for doing 
military work enormously more than we're paying our people in 
uniform.
    General McCaffrey, I want to ask you a question in the time 
remaining about the other side of this, which is the obvious 
need in wartime to repair and recapitalize your forces, your 
equipment. I believe I heard you use a number of $212 billion. 
Give us some content to that, and, if you had your druthers and 
you were king, how quickly you'd try to do it, apart from right 
now or yesterday.
    General McCaffrey. Let me, if I may, Senator, also add to 
Bob Scales's response. The notion that a country--here, in 
1939, my dad got commissioned in West Point, we were a quarter 
of million people in the Armed Forces, and 6 years later, we 
had 16 million.
    Senator Lieberman. Right.
    General McCaffrey. There were 130 million people in the 
Nation then. Now it's 300 million. The thought that we can only 
add 7,000 a year is a rounding error, for God's sakes. It's 
completely asinine.
    Senator Lieberman. You are absolutely right.
    General McCaffrey. There's 140,000 contractors in Iraq 
right now. Some of them are getting $120,000 as the base salary 
to go over there. Why would we think it was--and, I might add, 
I have not heard one political leader in this country--not the 
President of the United States, nor any Governor or mayor or 
any Member of Congress--get on TV and say, ``We need your sons 
and daughters to join us to fight.'' I bang away at the White 
House. The President used a remark, something about, ``For 
those of you who are considering a career in the Armed Forces, 
there can be no more honorable way to serve.'' We're not 
talking about a career, we're talking about 19-year-old boys 
and girls carrying M-4 carbines in downtown Ramadi. So, if we 
want our kids to come to the colors, we have to ask them. The 
principals of high schools, the university presidents, have to 
say, ``We're in danger. Come protect us,'' and they'll come. 
They actually don't need $120,000 as a base salary, although I 
clearly would join General Scales in saying you ought to use 
every tool required in a volunteer military to get the manpower 
we need.
    Senator Lieberman. Right.
    General McCaffrey. Then, back to the equipment thing, I 
remember going out a few years ago to Warren, Michigan, 
Detroit, talking to our Tank Automotive Command people, and 
they reminded me that the entire U.S. military production for 
ground combat equipment is a fraction of 1 day's output by 
Detroit. We are not a big asset--load on the industrial 
capacity. We haven't funded it. We haven't done a darn thing. 
We have hundreds of vehicles broken at Army depots all over the 
country. We have industrial capacity that could surge and fix 
this stuff within 18 months if we told them, ``this is a crash 
basis, 7 days a week, three shifts.'' We're not modernizing the 
force. We have this preposterous 15-year plan right now to 
modernize the existing heavy brigade combat units. So, again, 
to be honest, I think there's been a failure of imagination and 
political will in the Pentagon. I personally hold Secretary 
Rumsfeld and a small group responsible, which has let this 
fighting force get to the edge of a disaster. I think that's 
where we are.
    Senator Lieberman. Thank you. That's a real cry to us to 
respond, and I'm confident that we will.
    Thank you. My time's up.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General McCaffrey, I agree with the seven assertions that 
you made in your testimony, and you've really painted a very 
worrisome picture. In addition, you and I have had the 
opportunity to sit down. I very much appreciate the information 
you've shared with me as a result of your trips to Iraq.
    Dr. Korb raised what is perhaps the central question, and 
it is a question that I'd like to pose to you. It is, can we 
save the Army, can we rebuild the Army, while we're still 
fighting the conflict in Iraq?
    General McCaffrey. Here's the good news. Right now, an 
objective viewpoint, having hung around this military for a 
better part of 42 years, and coming from military family, the 
leadership strength of the Army is simply beyond belief, both 
Active and Guard. You could go to the best company commander in 
each one of these fighting battalions and say, ``You're now a 
lieutenant colonel, you're in charge of forming up a new 
battalion,'' and they're fully capable of doing it. So, the 
leadership limitation, which we faced in World War II during a 
surge, isn't there. They absolutely can do it.
    Second, I think the question is, will the country respond? 
Will the 18- to 30-year-old men and women in the country step 
forward and fight? I think the answer is yes, they would, if we 
sat down and said, ``What do we need to do to get the results 
we require?'' I couldn't agree with Dr. Korb more, lowering the 
standards is the last thing we ought to do. I talk to command 
sergeant majors now in motor pools, they'll say 10, 20 percent 
of these kids we're bringing in right now simply shouldn't be 
in uniform. That's going to be a problem to us, because they're 
going to be our staff sergeants, 6-7 years from now, in the 
next crisis. We shouldn't lower our standards, we should 
increase the size.
    Then, finally, I think we have to remind ourselves that the 
national security of the United States isn't just at stake in 
Afghanistan and Iraq. We have to be concerned about controlling 
the Pacific Ocean. We have to be concerned about the 
proliferation of weapons of mass destruction. We should not 
take the entire defense establishment and turn it into a 
counterinsurgency force. That isn't the way to protect the 
American people in the coming two decades.
    So, I actually don't think it's too much of a challenge to 
change the base of the Armed Forces, which is now failing our 
operational commanders. Dave Petraeus is not going to get 20 
brigades for the next 36 months. This thing is coming apart on 
him back here in the United States, and we are in denial. 
Rumsfeld has refused to accept the obvious evidence in front of 
his eyes that that was taking place. So, these nine joint 
commanders, when they turn around and ask for the tool, are 
finding broken Air Force airlift, ships that are undermanned, a 
modernization program that's been put on hold, and an Army 
whose equipment is in disarray because we've under-resourced 
it.
    Thank you.
    Senator Collins. Thank you.
    General Scales?
    General Scales. Yes, ma'am. I'm a historian, so let me put 
a little military history into the discussion.
    Oftentimes, the greatest opportunity for transformation and 
change is during times of great stress. Militaries are, by 
their very nature, bureaucratic institutions. They're 
pyramidical and they're--I know this really surprises you--they 
grind on very slowly, and they're not likely to change quickly. 
So, it's during times of stress, it's during times of 
uncertainty, it's during times of great ambiguity, when the 
military tends to make its greatest advances in vision and 
concepts and transformation.
    So, I would argue with you, now is the time to begin the 
process, when everybody in this room, I believe, agrees that 
the Army and the Marine Corps are under enormous stress. I have 
never found anyone who's ever come up to me in the street and 
said that a marine infantryman in Fallujah is overpaid or that 
he's well-equipped, or he's as trained as he needs to be.
    So, I guess I view this as a window of opportunity, not an 
open door. I think that's why all four of us are here, because 
the time to begin the process of change and reform is in the 
time of greatest stress, because that's when you are able to 
shine the spotlight of reform on the problem and get reform 
started.
    Senator Collins. Thank you.
    General McCaffrey, at a previous hearing before this 
committee, the then-Chief of Staff of the Army testified that 
55 percent of the total Army force was made up from the 
National Guard and Reserves. I was really surprised that we 
have reached such a high level. It shows why we're so dependent 
on our National Guard, and why we're placing such demands on 
them.
    What is your reaction to the fact that only 45 percent of 
our total force is now made up of Active Duty soldiers?
    General McCaffrey. I personally believe that a robust 
National Guard is essential to America's security. When you 
start looking around a State--pick a State at random--there'll 
be 2,000 or 3,000 State police, there'll be--you look at the 
Nation as a whole--12,000 local sheriff departments and police 
forces. If you have a problem, you need the National Guard--the 
Air Guard and the Ground Guard. In particular, engineering, 
signal, medical, transportation, the tools that a Governor 
needs to deal with a Hurricane Katrina or with a radiological 
attack. So, I would actually argue the National Guard is too 
small, and the Reserve Forces are too small.
    I think we've had a role problem. We can't allow them to 
fulfill their mission unless the Active Forces are capable of 
picking up these responsibilities. We were looking at an Army 
of 490,000 people, trying to maintain this rate of deployment, 
and it's simply incapable of doing so.
    So, I do believe the Active Force should be substantially 
increased, and not--we keep talking about fighting brigades. 
This thing doesn't work just because of fighting brigades. 
Right now, when you look at the force as it's postured in Iraq, 
contractors are doing long-haul communications, transportation, 
feeding the soldiers, repairing our equipment. You go in a 
division or a brigade Tactical Operations Center, and you have 
contractors in there, in blue shirts, keeping the thing 
running. At some point, when fighting gets intense, they won't 
do it. A marine private will do it for $800 a month, but a 
contractor simply won't, at some point, stay there. So, I 
believe our logistics capability in Iraq and Afghanistan is a 
house of cards that will fall down under intense pressure. The 
Active Force is too small, there's no question.
    Dr. Korb. Senator, could I add something?
    Senator Collins. Dr. Korb?
    Dr. Korb. I think it is important to keep in mind why the 
Guard and Reserve are as big as they are. This was a deliberate 
policy on the part of a general who I'm sure all the people 
here know, Creighton Abrams. He was very concerned that, during 
the war in Vietnam, we never mobilized the National Guard. The 
reason for that is, they were concerned that if they did, given 
some of the people who were in there, to avoid going in the 
Active Service, that it would have sparked a debate that he did 
not want. So, the late General Abrams basically said, ``We're 
never going to have this again. My Active Force is going to be 
so small that if you want to do anything serious, you're going 
to have to mobilize the Guard and Reserve, because we want the 
American people to feel an emotional investment.'' So, it was a 
rationale for why they did it.
    Senator Collins. Thank you.
    Chairman Levin [presiding]. Thank you, Senator Collins.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. Thanks, gentlemen.
    General McCaffrey, you seemed to indicate that the 
possibility of success for the latest development, the surge, 
is constrained by inadequate resources, in terms of manpower, 
in terms of support. Is that a fair estimate?
    General McCaffrey. It may be fair, but it's probably less 
important than other assertions one could make, because it's 
not too clear to me--and, again, I didn't intend to talk about 
the policy in Iraq--that we're fighting a counterinsurgency 
campaign in Iraq. I think it's a civil war we're trying to tamp 
down. When we do tamp it down, the end result won't be 
delivered by five brigades, one a month, from now through June, 
but, instead, by political reconciliation, by leverage with 
economic tools, which are lacking in the current plan. So, I 
fundamentally think we're probably still not focused on the 
right approach.
    In addition, though, Petraeus ain't gettin' 20 brigades for 
the next 24 months.
    Senator Reed. That situation is a culmination of decisions 
that have been made over the last 4 years or more, in terms of 
sizing the Army, providing equipment, a host of issues. Is that 
fair?
    General McCaffrey. It is, and--there are some brilliant, I 
know, patriotic people over in that Pentagon. Dr. Chu, 
personally, fascinates me, because I know what an intelligent, 
experienced man he is. But, as we start calling up the National 
Guard brigades here, and the first four have been notified, 
more are to come, he actually said, ``This is no big deal.'' He 
completely misunderstands what's going on in this fighting 
force. Those staff sergeants in the 82nd Airborne, with their 
high morale and their unbelievable courage, are not staying for 
3 years straight in Iraq and Afghanistan. Their wives are 
saying, ``Wait a minute. There's 300 million of us who live 
here. Let somebody else take their turn.'' Those military 
people are watching statements out of the Pentagon that there 
was adequate combat power to sustain his policy. There isn't, 
and the troops know it.
    Senator Reed. Thank you, sir.
    We've been at this for more than 4 years, and I just 
wonder, looking forward to the Army that comes after, what are 
the lessons that we draw, both the bad lessons and the good 
lessons? In fact, it's more important, probably, to identify 
the bad lessons, because sometimes they're more harmful.
    General Scales? Then I'll go down the panel.
    General Scales. Senator, I may repeat myself a little bit, 
but let me just go down the laundry list for you.
    I think the first is that the realization that war is a 
human, not a technological, enterprise, that wars are fought as 
one group of men and women against another. At the end of the 
day, we have to walk away, or we have to amend a theory of war 
that's evolved in this country over the last 5 or 6 years, this 
netcentric approach to warfare that views the enemy as objects, 
and views warfare as an engineering problem, and, increasingly, 
change our attitude about how wars are fought. That's hard for 
us, as a Nation, to do, because we tend to apply the physical 
sciences, rather than the social sciences, to war, and you know 
that better than anyone.
    The second thing, if we're going to use the term ``long 
war,'' then we ought to believe it. The object of a military 
force is not just to get there, cause damage, and leave. We 
have to understand that the strategy for fighting the long war 
is persistence, and the ability to get somewhere and stay 
somewhere, and to have some effect.
    The third thing is the idea of a military is not to 
preempt, it's not to destroy, it's to build--it's to build 
trust, it's to form coalitions, it's to build partnerships, 
it's to aggregate, if you will, a collection of willing 
partners.
    Now, is force necessary for that, sometimes? Of course it 
is. But far more the weapon or commodity that we can apply most 
in the next 10 or 20 years to win this long war is trust. Trust 
in the ability and the intentions of the American people, trust 
in the skill and the empathy of the American military. That's a 
sea change from the way we've viewed warfare in the past.
    Senator Reed. Dr. Korb?
    Dr. Korb. I think the main thing we've learned is that you 
have to level with the American people. I have great confidence 
in the American people, and they will trust you, the 
Government, their leaders. But if they feel they've been had, 
they'll turn against you. The best way I can summarize it is to 
quote from Francis Fukuyama, the author of the book, ``The End 
of History,'' who was one of the neoconservative supporters of 
the war. He said, ``If you had told the American people, back 
in early 2003, that we would go to Iraq and lose''--now it's 
over 3,300 lives, close to 30,000 wounded, maybe 500,000 Iraqis 
dead, ``costs spent, $500 billion, so Iraq could have an 
election''--these are his words--``you'd have been laughed out 
of the ballpark.'' That's not what they signed up for. I think 
one of the things we have to do, when you go to war--I don't 
have the military experience of these gentlemen, but I did 
spend some time in the Navy, and what we were always told was, 
``You obviously hope for the best, but you plan for the 
worst.'' The idea that somehow--and you all know--we've been 
over this--how many troops that they thought they would have, 
and how quick it would be--basically, was not the way to 
approach it.
    I think we also learned that there becomes a moment when 
you can really spark the debate. I think Senator Levin and 
General Eric K. Shinseki, USA (Ret.) will go down in history. 
Everybody knows the question you asked them. The question is, 
``Why did we stop there?'' We being the American people, ``Why 
didn't we press it more?'' The media, the academic community--
and say, ``Okay, do we have enough troops?''
    Then, finally, I think we learned that there comes a time--
and after September 11, the country was ready to do the things 
that people here are talking about. They would have risen to 
the challenge if you had told them to do it. I think you could 
have increased the size of the Army then. I don't think you can 
do it now, because mothers and ministers and priests and rabbis 
and coaches are telling youngsters, who might want to go into 
the Army, ``You really don't want to do it now, because this 
war has become''--to use Tom Ricks's term, ``such a fiasco.'' 
So, I think we have to learn, you have to be honest with the 
people. If you want to go to war, make sure people understand.
    I'll end by quoting Colin Powell, as he told the President, 
``You break it, you own it.'' Did we really realize what that 
meant when we went in there?
    Senator Reed. I think I'm running out of time, but first 
Dr. Krepinevich and then General McCaffrey.
    Dr. Krepinevich. Five lessons.
    First, an Army organized and optimized to run a sprint, 
fight a short war, a decisive war, is not the Army you need for 
a marathon, a long, irregular war.
    Second, in long wars, attrition is not only possible, it's 
likely. We hadn't had sizable attrition of military equipment 
for roughly 30 years after Vietnam. We're seeing it now. It's 
not just a case of this war, it's a case of other contingencies 
and other wars and other services.
    Third, a force that's optimized for conventional war can't 
easily shift gears to fight an irregular war. It's been 
demonstrated twice, in a stark way, not only in Vietnam, but in 
this recent war.
    Fourth, modern communications. In Vietnam, if you went into 
a village, you'd be lucky if they had a radio, and that radio 
would be lucky if it reached Saigon stations, let alone Radio 
Hanoi. You go into Iraq, and the place is swimming in 
information. We are fighting on their terrain, when it comes to 
what we call strategic communications. We say we are there to 
help build democracy, to provide economic growth. What they 
hear inside that country from people who know how to push their 
buttons is, ``The Crusaders are here to defile your religion, 
defile your women, steal your oil, and colonize you.'' We're 
not even in the game when it comes to those kinds of arguments.
    Finally, I guess, the issue of scale. I think a number of 
these contingencies are clearly beyond the scale of the 
military that we're likely to be able to build, especially in 
terms of ground forces, which means indigenous forces, 
partners, and allies are going to be increasingly important to 
us, something that I think we lost track of in this war.
    Senator Reed. General McCaffrey, quickly?
    General McCaffrey. I think Dr. Korb got the most important 
point, you have to level with the American people. You simply 
can't have a divergence between your public rhetoric and what 
the media are reporting. Media have done a first-rate job in 
this war, in my view. They've taken a few raps on, ``why aren't 
they telling us the truth of the goodness going on in Iraq?'' 
All of you in the room have been there. This is a tough 
situation. You have to level with the American people.
    Number two, don't get involved in fair fights. The whole 
notion of the planning prior to the intervention in Iraq, that 
we were going to go in there with tiny forces and not waste 
money, was insane. The last thing you ought to choose is the 
military tool. If you do use it, you ought to use overwhelming 
force.
    Then, three, don't think military power is enough. We solve 
these situations--we keep talking the interagency--economic 
power, political power, diplomacy, covert action--right now, we 
have two people fighting the war, the Armed Forces and the 
Central Intelligence Agency, and that's it. The rest of them 
are missing in action.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    General McCaffrey, in your statement you have--under the 
first category of your subheading, you said Congress ``must 
step up to your constitutional duties,'' and that's what I want 
to address with you in my brief time with you.
    First, do you--both on the short-term basis and on the 
long-term basis--it seems to me we can have the very best in 
optimal policies, procedures, and practices, but if Congress 
doesn't provide the funding to make it happen, it's not going 
to happen. In the short-term, you point out the importance of 
funding the war supplemental so that the new plan can go 
forward in Baghdad under General Petraeus to give the Iraqis 
the time and space in order to do the political reconciliation 
that needs to occur. Is that correct, sir?
    General McCaffrey. Yes, sir. It seems to me we have no 
option, at this point, but to give General Petraeus and 
Ambassador Ryan Crocker the tools and the time they need to do 
their job. If it doesn't work within a year, this Congress is 
going to pull the plug on the war. But, in the short-term, I 
can't imagine any other realistic option.
    Senator Cornyn. Yesterday, the Army issued a press release 
which reiterates what Secretary Gates and others have warned 
Congress about, the delay in providing the emergency 
supplemental spending, beyond mid-April, will slow the purchase 
of repair parts and other supplies, defer training and other 
nonmission-critical aspects of our readiness. If it's delayed 
until May, the Army says they'll ``cease entering into new 
contracts and task orders, suspend some service contracts 
supporting training events and facilities.'' If Congress 
doesn't get the money there until the end of June, this 
concludes that ``there will be substantial disruption to 
installation functions, decreasing efficiency, and, 
potentially, further degrading the readiness of nondeployed 
units.''
    I'd also like to ask about the overall level of funding and 
the stream of money coming in, so that the military can do the 
kind of planning that's necessary. Over the period of time 
ranging from, of course, World War II, where funding for the 
DOD was at 38 percent of gross domestic product, we ranged 
from, during the Vietnam war, 9.5 percent, to Korea, 14 
percent. We are now trending down to where the Office of 
Secretary of Defense Comptroller projects 2007 defense spending 
to be about 3.9 percent of gross domestic product.
    All of the various solutions that have been proposed here, 
growing the size of the end force, allowing for expanded 
training functions, rebuilding the National Guard, and perhaps 
deferred compensation of our military dimension, are all going 
to cost some more money. I would just like to ask, first, 
General McCaffrey, then General Scales, to comment on what is 
Congress's responsibility in terms of providing a reliable and 
steady and predictable stream of funding so that the kind of 
planning and preparation that you've talked about can actually 
occur?
    General McCaffrey. Senator, one comment, certainly on that 
supplemental. I personally believe that the intense debate over 
the future of the war here in Washington is helping Ambassador 
Crocker and General Petraeus. I think it has put the fear of 
God into the Maliki government. I think the Sunni tribal 
leaders are saying, ``My gosh, what if these people actually 
pull out in 2 years? We're 16 percent of the population, we're 
going to get slaughtered.'' So, I think the political debate's 
a good thing, not a bad thing, in terms of the situation on the 
ground in Iraq.
    Senator Cornyn. I agree with you about the debate. It's the 
delay in the funding I'm worried about.
    General McCaffrey. To go on to the second point, I think 
the delay of the supplemental would be monumental bad judgment. 
I don't understand how the Pentagon budget works, and never 
have. I was in and out of that system for the better part of 35 
years. I'm sure of this, it's like watching a person freezing 
to death. The last thing that shuts down is blood flow to the 
brain. We're going to fund that war. Congress will have--unless 
they actually pull the plug on the war--no impact on whether we 
buy ammunition, buy petroleum, oils, and lubricants (POL), care 
for our wounded. That'll happen.
    What will happen is, we'll turn off every other program, so 
we're going to start sucking money out of the Air Force and 
Navy, we'll close down--and a lot of it will be staged, but 
that'll be minor theater. The grass will grow long at Fort 
Benning. But, in fact, programs are going to start to atrophy 
and suffocate. Once we start that process, backing out of it 
will screw us up for 2 years.
    So, again, now this political argument, I cannot imagine 
why the loyal opposition to the government would want to buy 
responsibility for the outcome of the war in Iraq. I do 
personally think you have to make a political statement of 
opposition to the war, and then give the Commander in Chief the 
tools he needs to fight in the short run.
    Now, the harder question--you talk about reliable, steady 
stream of money--that's been a problem in Congress since World 
War II. Norm Augustine, one of the smartest people we ever had 
in the DOD--I think the figure he used was, ``You can't raise 
the budget by more than 8 percent, or decrease it, without DOD 
screwing it up.'' I think that's probably the case. We need to 
see these programs, 5 years or more, with reliable, steady 
streams of funding. That's what gets us in trouble. You cut 
down the funding on Comanche, and start starving it, and the 
military will continue saying, ``Sir, we'll do it.'' Then, at 
some point, the technology fails on you. So, I think it's a 
challenge to Congress, how do you get 5- to 15-year headlights 
in front of you on building the national defense? But the 
supplemental, I sure hope we pass that, or there's going to be 
real consequences over in the Defense Department.
    Senator Cornyn. General Scales?
    General Scales. Senator, historically, the Army has drawn 
about 23 to 24 percent of the total obligation authority of the 
defense budget since 1950. It's a couple of percentage points 
beyond that right now. So, you have a force that does virtually 
all the killing and dying, living on less than a quarter, or 
approximately a quarter, of the budget. There are many, many 
different reasons for that, much of it driven by culture, much 
of it driven by inertia, much of it driven, as I mentioned 
earlier, by this idea that we can win wars with machines and 
not men.
    But, clearly, you have two choices. Number one is, you can 
grow a bigger pie, or, number two, you can re-slice the pie to 
give the Army's share of the budget somewhere beyond 24 to 25 
percent, in the range of 30 to 31 percent. I think if you're 
going to keep the Army--if you're going to reform the Army and 
allow the Army to fight this war, you're going to have to 
increase the amount of money that goes to the Army.
    One caution. The general officers who I've been raised with 
all my life, have about them this can-do ``hoo-ah'' attitude 
about resources. In other words, you're a platoon leader, and 
you want 1,100 rounds of machine gun ammunition, and you get 
600 rounds of machine gun ammunition to train with, and your 
answer is, ``Sir, I can do it.''
    So, be very, very careful, I believe, as we continue the 
hearing process, to look beyond the ``hoo-ah'' can-do attitude 
about resourcing, and ask the tough questions about the 
institutional Army and its health, about some of the second-
order needs that an Army has, beyond just bullets and beans, 
and look inside that institution, and open it up, and see 
what's broken. Look at the canaries in the mine to find out 
who's dying in the mine, rather than simply look at some of the 
statistics, the top-line statistics that you get. Make sure 
that you go beyond the ``hoo-ah'' attitude and give the Army--I 
hate to say this, what it needs, not necessarily what it 
decides to ask for.
    Senator Cornyn. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Cornyn.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Let me add my welcome to our witnesses, and commend you for 
your service to our country.
    As chairman of the Subcommittee on Readiness and Management 
Support, I'm extremely concerned, as you are, about the 
readiness of the Army and Marine Corps, and also their ability 
to respond to the emerging threats, not only of the war we're 
in, but of the 21st century. The challenges that we are in are 
even more difficult, because we are simultaneously increasing 
the size of the force, and having to restructure our military 
posture to effectively deal with the threats and, as you 
mentioned, counterinsurgency operations. There's no question, 
we must do all we can to provide the training and the equipment 
and all that our troops need.
    Regarding this, I have some questions for Dr. Krepinevich 
and General Scales. During the early 1970s, talking about 
history, the Army was reorganized so that the regular Army 
could not conduct an extended campaign without mobilizing the 
Guard and the Reserves. It's not clear, however, that the 
Defense Department leadership at that time anticipated the kind 
of protracted conflict we are facing today, with the global war 
on terror and an Army that is comprised of 55 percent National 
Guard and Reserves. I believe Dr. Korb is right, in that the 
All-Volunteer Force was meant to be an initial defense against 
threats against our country. Now, in a prolonged war, I believe 
that the All-Volunteer Force is meant to be a bridge for 
dealing with threats until a full-time wartime force be built.
    Now, Dr. Krepinevich or General Scales, with the current 
Army organization, is the Army too reliant on the National 
Guard to meet its global commitments? In other words, are we 
fighting a sustained war with a peacetime organization? Since 
our Army force structure consists, as I mentioned, of 55 
percent National Guard and Reserves to 45 percent Active Duty, 
how can the National Guard maintain its capability to deal with 
security threats, with natural disasters at home, while being 
expected to provide extended support to our national interests 
abroad?
    Dr. Krepinevich?
    Dr. Krepinevich. As you noted, Senator, in the wake of the 
Vietnam war, it's been mentioned here, General Abrams put a lot 
of the Army's combat service support in the Reserves, with the 
idea that if you were going to use the Active Army in large 
numbers, you would be likely to call up--or have to call up the 
Guard Forces, Reserve Forces, as well.
    That has, obviously, begun to change with the advent of the 
modular force. Now we have these brigades that can deploy on 
their own with much more regularity than stripping out units 
from the division, and so on. But when you ask, ``Is the 
current Army too reliant on the Guard and Reserve?'' I think 
using the Army's own metrics, you have to say yes. The Army 
strives for a six-to-one rotation rate for our Guard and 
Reserve Forces, which is to say, for every six Guard brigades 
you have, only one would be on deployment at any given time.
    We've seen over the last 4 or 5 years that the Army has 
fallen below that ratio. So, by the Army's own definition, just 
as the Active Force is overstressed, the Reserve Force is 
overstressed, as well. I think when you look at the fact that 
the Army has concentrated a lot of its support elements in the 
Reserve Forces and in the National Guard, you also, if you 
believe as I do, that of the contingencies we're going to see 
most likely, as the chairman points out, are irregular warfare, 
stability operations, counterinsurgency, then these are the 
kinds of forces you're going to need more of. Not only that, 
but when you do talk about things like homeland security, 
disaster relief, as General McCaffrey said, it's not a matter 
of if, it's a matter of when, we're going to get hit here at 
home. You're going to need those kinds of forces, not only for 
these external operations that deal with irregular warfare, but 
also here on the homefront, as well.
    So, these forces are a lot more important. We have to think 
about them a lot differently than we did between the 1970s and 
September 11. During that period, the Guard and Reserve were a 
bridge between the Active Force and mass mobilization of the 
country on a scale like we saw in World War II. This is not the 
force for the occasional war, the occasional large war. As the 
Defense Department has said, the Guard and Reserve have really 
transitioned from being a strategic reserve to an operational 
reserve, which means we plan on using you folks a lot more, not 
only now, but, I think, in the future, as well.
    Senator Akaka. General Scales?
    General Scales. Senator, that's a key question. One of the 
things that I find interesting about this war is that, in many 
ways, the National Guard is threatened by its own success. I 
remember in the 1970s the National Guard was always viewed as a 
follow-on force, as Andy says, or as an augmentation force. But 
what I think has amazed many of my regular Army colleagues is 
that they have performed so incredibly well in Iraq and 
Afghanistan. Several reasons for that. Number one is, they're 
mature, and we know that oftentimes more mature soldiers are 
better decisionmakers in these types of crises. The second is, 
National Guard units, the brigades that I visited, are very 
tightly bonded; they're hometown units. So, their ability to 
know each other and to work with each other intuitively, I 
think, is truly exceptional, than, oftentimes, in many regular 
units.
    But the result is that, in many ways, perhaps the National 
Guard is being killed with kindness, that, in many ways, the 
Abrams doctrine is no longer valid anymore. In many ways, the 
National Guard has bifurcated itself into two forces. One is 
what I guess you could call a quasi-professional force, an 
almost professional force. I met a sergeant major from a 
Minnesota National Guard brigade that's on its way back to 
Iraq, and he told me, ``My unit consists of two types of 
people, those who have already left, because they have jobs, 
and those who are sticking around, because they have committed 
themselves over a lifetime to serve in the National Guard.'' Is 
that good or bad? I don't know. But we're in a completely 
different place now.
    The Guard has now become absolutely essential to our future 
military strategy. I agree with General McCaffrey, I don't 
think we have enough guardsmen now to perform both of those 
functions, the Governor's militia, as well as this quasi-
professional force. We certainly haven't given the equipment 
and the training and the education that they need, to my mind, 
to perform either one of those.
    The third danger is--by killing with kindness, I mean the 
third danger is that they may be overused. I think that the 
force that is at greatest risk of being harmed in the short-
term is the National Guard, because of all those things that we 
just talked about, and it concerns us all greatly.
    Senator Akaka. Thank you very much. My time is expired.
    Chairman Levin. Senator Akaka, thank you.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    This has, indeed, been a extraordinary panel, a very 
important panel. I do share with a number of you, and a number 
of the members here, the view that this is the time--General 
Scales, even in a time of great stress--for us to make some 
fundamental changes about how we construct our defense 
capability for the future.
    You've given us some tremendous insight and advice. I think 
we need to take every bit of it seriously. The stress that 
we're now imposing upon our military is extraordinary. I'm very 
worried about it. In fact, I guess I have to say I remain 
amazed that we've held up as well as we have. I see a number of 
you nod.
    I've asked, ``How's recruiting going?'' ``It's going pretty 
well.'' ``How is retention?'' As you, I think, General 
McCaffrey noted, the combat units in Iraq now have remarkable 
retention.
    But I do believe you've pointed out to us that we are 
fraying around the edges, that we are asking more and more, and 
we could get to a point where we could lose this magnificent 
force that we have. I really think this is a serious situation 
for us. Probably, we could rearrange some of the monies that we 
spend, in more effective ways, and probably we need 
significant, but not an impossible, amount more to meet our 
challenges.
    I would just note, with regard to our Guard and Reserve, 
that it is hard--even once in 5 years--for a guardsman or 
guardswoman to be deployed for a full year, maybe 13-14 months. 
That is very hard every 5 years, if they have a profession, or 
they're a lawyer or accountant or some businessperson. Many of 
them are that way. But they are performing exceedingly well. 
Every year they've been trained better and better, and more and 
more capable. So, it's a critical part of what we do, but it 
cannot be a regular supplement, a constant supplement of where 
we are going.
    Several people have talked about the amount of money we 
spend as a percentage of GDP on defense. We are moving back up 
from a low of below 3 to about 4 percent of GDP. We spend $2.5 
trillion every year, this country spends that much. A hundred 
or so billion dollars a year, properly utilized, would have an 
impact, I think, positively, and would not be beyond our 
capacity to fund.
    One of our decisions--I guess it's not possible for us to 
make it here today--Dr. Krepinevich, you mentioned an emphasis, 
within some of our brigades, on irregular combat. I'm inclined 
to agree. We have had an increase in Special Operating Forces, 
which also count, I suppose, in that way. My thinking is that, 
in the future, we're going to have to be wiser about how we 
apply our military force, and it's not possible for us to take 
over complex societies, and run them, as we are finding out. 
Sometimes, we just don't have the capability. I think the 
situation in Afghanistan maybe gave us too much confidence of 
our ability to handle Iraq, which has turned out to be 
exceedingly more complex and difficult. It's just difficult. 
It's just not easy to do that, to create a government where 
none exists.
    So, would you comment, and maybe a little bit more about 
this configuration between conventional forces and irregular 
combat forces?
    Dr. Krepinevich. The one thing that the QDR did do, in 
terms of building partner capacity, is, it called for an 
increase in the Special Forces by one-third. They are working 
towards that, although, I have to say, for the first time we're 
not recruiting our Special Forces from within the Army, we're 
going out on the street and trying to recruit people directly 
into the Special Forces. So, again, it's, I think, a measure of 
the stress that----
    Senator Sessions. They have high, high standards, and they 
refuse to alter those. Should they?
    Dr. Krepinevich. Extremely high. Well, I don't----
    Senator Sessions. Maybe have even less elite forces within 
the group?
    Dr. Krepinevich. I have no understanding that they are 
lowering their standards, but what they are doing is, they're 
widening their aperture, they're not just recruiting from 
within the Army, they're going out and recruiting people in the 
civil society. As General Scales pointed out one of the things, 
aside from the enormously capable physical attributes that 
Special Forces soldiers have, is, they tend to be more mature, 
their decisionmaking processes tend to be a lot better. Of 
course, you get that, I think, more likely, when you recruit 
from within the Army, as opposed to going into the civil 
society.
    But I think there's a real strategy issue here that we 
confront, and that is, are we going to continue to take a more 
direct approach when it comes to these kinds of contingencies 
to build as many brigades as we can, so we have as big a 
rotation base as we can possibly have? Or are we going to take 
a more indirect approach, which is what the QDR alluded to but 
left on the table, which is building partner capacity, building 
capability within indigenous forces in peacetime, and also the 
capability to rapidly build up indigenous forces in countries 
that are threatened in wartime, also build up and equip the 
forces of allies and partners in wartime. I think the indirect 
approach is the preferred approach. I think it's more 
consistent with the limited amount of resources we have. I 
think it's more consistent with our tin ear when it comes to 
strategic communications. I think it also is more consistent 
when you look at the American public's lack of patience for 
protracted engagements on a large scale.
    Senator Sessions. Would you compare that--like in 
Afghanistan, we had less than 2,000 or 3,000 troops in 
Afghanistan when the Taliban fell, but we allied with and 
provided capability to the forces that opposed them. Is that 
what you're referring to?
    Dr. Krepinevich. We had a very small footprint when we took 
Afghanistan down. Of course, that footprint has grown over time 
substantially, although it's nothing like it is in Iraq. You're 
going to require some forces for stability operations. My sense 
is that greater emphasis should be placed than is currently 
being placed on things like training and advising forces, 
forces that are standing parts of the U.S. Army, like the 
former Military Assistance and Advisory Groups, that can go in 
and serve as a functioning entity that builds up and trains 
indigenous forces fairly quickly. Again, you don't have to wait 
until after the war. This should be a prophylactic. We should 
be doing this in peacetime. We are, to some extent, in places 
like the Philippines and Colombia and so on, but, again, on a 
more focused, more regularized basis.
    Then, there is the issue of advisors. The fact of the 
matter is, our Army is not organized and structured with a lot 
of surplus captains, majors, sergeants, and so on, that can 
quickly be infused in these units to help them stand up more 
quickly and more effectively.
    Then, as I pointed out, there are certain contingencies--a 
number of us have mentioned them--concerns about the potential 
for widespread disorder in places like Pakistan, Nigeria, and 
we can name other countries--where you are likely going to have 
to have some sizable U.S.-force element, although it wouldn't 
be, again--against a mass army, it would be trying, again, to 
impose stability on an area in a country that was falling 
apart.
    Senator Sessions. But it's much better if the indigenous 
forces could handle those threats than having to insert 
American forces.
    Dr. Krepinevich. I think our own history in places like 
Greece and the Philippines after World War II, early on in 
Afghanistan, and certainly now in Afghanistan, have been a lot 
more successful than, for example, our experience in places 
like Vietnam and in Iraq. Unfortunately, as we've also seen, 
though, in some cases, you can't avoid the commitment of large 
numbers of ground forces to provide that stability, to provide 
that time. Essentially, what we tried in Vietnam, and what 
we're trying to do in Iraq, is to buy time so that the 
indigenous government can organize itself, gain legitimacy, 
come up with the National Compact that Ambassador Zalmay 
Khalilzad used to talk about, and then develop security forces 
of its own whose loyalty is commanded by the government, and 
who can begin to substitute for our forces.
    That has been a plan that has looked good on paper in 
places like Iraq. Unfortunately, it's a plan that has not 
succeeded, thus far.
    Senator Sessions. My time is up. I don't know if there's 
any other response. But thank you.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman.
    General Scales, I think you made one of the best 
observations I've heard in attending many of these hearings 
over a period of some years now, and that was your point that 
too often we tend to look at military undertakings as an 
engineering problem to be solved, rather than taking a more 
comprehensive approach to things. I'd like to extend upon that 
by saying, too often when it comes to ensuring America's 
security, we tend to look at the military in isolation and 
forget that a strong economic policy, a strong financial 
policy, a policy of energy security for this country, are 
necessary to augmenting the military forces necessary to 
protecting America.
    Iraq is example A when it comes to looking at this as an 
engineering problem. We won the initial combat phase. It's been 
the nation-building that's come thereafter, without looking at 
the sociological aspects that you mentioned, that have proven 
to be so difficult for us.
    So, I think that was just an excellent point. We need an 
integrated approach to national security. We need an integrated 
approach to this tragedy of Iraq. I'd make one comment, General 
McCaffrey, with regard to your dialogue with Senator Cornyn. 
You mentioned that you couldn't understand why the political 
loyal opposition would want to take ownership or 
responsibility, I think, was the word you used for the outcome 
of this war. My response to that would be, we don't. But, in 
the face of continued long, lamentable, demonstrable 
incompetence in running this enterprise, what are we to do? 
Congress shouldn't be micromanaging this conflict. But it's 
been mismanaged, and we have some responsibility to ensure that 
the resources we provide for our military are used in 
furtherance of a strategy likely to lead to success, both for 
our military and for the country, as a whole.
    So, that is what is driving a lot of the dialogue up here 
today. We're going to fund the troops. We have an obligation to 
do that. But we also have a responsibility to ensure that those 
funds are used in an intelligent way to maximize the chances 
that our brave soldiers' sacrifices lead to the outcomes that 
the American people have a right to expect. So, that's what 
driving the dialogue up here today.
    In furtherance of that, I'd like to ask two questions. 
General McCaffrey, I'd like to start with you.
    Some in the intelligence arena opine that the only people 
who are truly happy with the situation in Iraq today are, 
ironically enough, the Iranians; that we are bogged down, we 
are slowly being bled, and yet the situation is not so chaotic 
that they are likely to be dragged in, in a more substantial 
way.
    Which leads me to my question: If we were compelled, for 
whatever reason, to confront Iran in a more serious way, do we 
have the capability of doing that today?
    General McCaffrey. I think there's a good argument that, 
clearly, U.S. policy in the last 5 years has removed the two 
major threats of the Iranian Republic: Afghanistan to the east, 
and Iraq to the west. That has given them, in many ways, the 
political and military latitude to take on new and more 
aggressive roles. I personally thought they decided 10 years 
ago to go nuclear. There's nothing we can do to substantially 
dissuade them, certainly not by threatening them with two 
carrier battle groups. Our military provocative posture a year 
ago was a huge mistake. We're going to--and, I think, now 
Secretary Rice is actually trying to help build a coalition to 
hem in Iranian menace.
    Now, could we deal with the Iranians today? The ground 
combat capability of the U.S. Armed Forces is shot, I do 
believe, and I think General Peter Pace's job is to not talk 
about our vulnerabilities, but to try and keep our deterrence 
capability up, even if through rhetoric. If we were put in a 
serious threat situation, if the Iranians closed the Persian 
Gulf through miscalculation, took out a U.S. cruiser, killed 
1,000 U.S. sailors, turned off our lines of communication 
south, which is largely Shia Arab populations, we could, and 
would, respond. I think it would be a huge miscalculation, by 
either the Syrians or the Iranians, to put us in a survival 
mode.
    Senator Bayh. Can I respond for just one moment, General? 
You said ``our combat capability is shot,'' but that if the 
situation got bad enough----
    General McCaffrey. We'd mobilize the National Guard, we'd 
tell Petraeus, ``Go take down the Iranian armed forces.'' We'd 
go to all-out war. We'd have 50,000 casualties, and we'd 
destroy the Iranian armed forces in less than 6 months, using 
air power, naval power, possibly nuclear weapons, if we got in 
trouble. This is a bad option. It's one we don't want to face 
up to. But if you ask me, ``What would we do if they turned off 
the lines of communication to 150,000 troops up in Iraq and 
closed the Gulf to oil transports?'', we'd end up wrecking 
their armed forces in under 6 months.
    Senator Bayh. My points are twofold. Number one, absent 
that extreme set of circumstances, the current situation--if 
you're the Iranians looking at the current situation in Iraq, 
it has essentially removed the deterrent effect, absent some 
extreme circumstances. Let the record show the General's 
nodding his head.
    The second thing--you said that they might resort to 
shutting down the Gulf--isn't it true that a more aggressive 
policy with regard to our energy situation--if we weren't as 
dependent as we currently are--if the global economy wasn't 
dependent as it currently is upon energy exports from the Gulf 
region, that would make the military options at our disposal 
somewhat--we'd have more flexibility?
    General McCaffrey. Senator, I sure hope in the next 
administration, the next 8 years, we work on an energy policy. 
It would seem to me easy to imagine, if we put 10 smart people 
in a room for 3 days, they'd come up with several things we 
could do in 15 years to change, dramatically, our dependence 
upon oil from that region of the world. We haven't seriously 
begun the discussion. There seems to me currently, no 
likelihood we will.
    Senator Bayh. This is back to your point, again, General 
Scales.
    My last question--and General McCaffrey, I don't want to 
just focus on you, but you mentioned China at least a couple of 
times. I'd be interested in your opinion, General Scales, about 
going forward. Let's take Taiwan, and put Taiwan aside. The 
strategic interests of China, the force structure that they 
will likely pursue to ensure those strategic interests, 
juxtapose those to the strategic interests of the United States 
and what force structure we need to have if our strategic 
interests should rub up one against the other. Does it concern 
any of you that, to the extent that there may be occasional 
conflict between those strategic interests, we're currently in 
a position of borrowing so much money from the country that 
I've just asked about?
    General Scales. Senator, at the Army War College, there's 
an equation, that ``Threat is equal to intent times 
capability.'' All too often, when we look at our enemies, we 
look at them in terms of capability and not in terms of intent. 
The old joke among many of us is, ``We're desperately searching 
for an enemy worthy of our weapons.'' My concern about China is 
that we can whip that froth all we want to. Our policy should 
be to deter China from engaging in a long-term arms race or 
strategic confrontation with the United States. Our policy 
should be to prevent China from looking in an open door. But, 
other than that, the idea that somehow we're going to go mano-
a-mano with 1.2 billion people is preposterous.
    The other point that I disagree with General McCaffrey on 
is Iran. Iran, with the present force we have, is militarily 
unassailable. We can punish Iran; we can't defeat it. Partially 
because we don't have the forces, but, at the end of the day 
when you plan a strategic campaign, the will of the people and 
geopolitics are the two driving forces that determine whether 
or not you're going to be successful. If you look at both of 
those from the Iranian standpoint, they are militarily 
unassailable. It's almost as if Ahmadinejad wakes up every 
morning and goes to prayers, hoping that we try, because he's 
seeking to be the strategic center of gravity of the war 
against the west. An ill-conceived preemptory campaign to 
punish Iraq [sic] would have absolutely the opposite of the 
intended strategic effect on our interests in the Middle East.
    So, I think, frankly, we all ought to breathe into a bag a 
little bit when we start looking at China, and we start looking 
at Iran, and we start dreaming up these doomsday scenarios, and 
we ought to deal with the enemy we have, rather than the one we 
want.
    General McCaffrey. Let me quickly underscore----
    Chairman Levin. If I could just interrupt for one moment.
    Senator Bayh. That would have been good advice to take, 
some years ago.
    Chairman Levin. If you'd just yield for a second. You said 
a ``strategic campaign to punish Iraq.'' I think you meant 
Iran?
    General Scales. Oh, I'm sorry. I did. I meant ``n,'' not 
``q.'' Thank you.
    Chairman Levin. Excuse the interruption, General.
    General McCaffrey. I just wanted to quickly add, again, I 
think military threats to Iran would be a major miscalculation. 
That was the intent of my remarks. But I think we shouldn't 
lose sight of the fact that they're in a position to put us at 
huge risk right now if they miscalculated, and we'd have to 
take action. But there is no disagreement between General 
Scales and I that a military option against Iran would be a 
fundamental miscalculation.
    To your point on China, it's hard to imagine why we can't, 
in the coming 25 to 50 years, keep China as a strategic 
partner, in economic and political terms. They will, without 
question, emerge as a global military power in the coming 25 
years. We should be there with a deterrent capability that 
makes sense, to add balance to our international policy, but we 
should not count on--nor is there any reason to believe, in my 
view, that the Chinese will be fundamentally an aggressor 
nation in the Pacific Rim in our lifetime. But I think military 
power is certainly a piece of it.
    Dr. Korb. Senator, let me add something, because I think 
you raise a very important point about China and our economic 
situation. This is the first extended war we've ever fought 
where we not only don't have a draft, we have not raised taxes, 
we've cut them. We're funding this war by borrowing money both 
from our Social Security Trust Fund, the surplus, as well as 
from foreign countries, including China.
    Now, let me give you, I think, a scenario that you need to 
be concerned--China, for whatever reason, decides they're going 
to make Taiwan part of China--they've waited long enough--and 
we move carrier battle groups into the area, as we did in the 
1990s. The Chinese say to us, ``If those carrier battle groups 
come within 100 miles of Taiwan, we're going to sell our 
dollars.'' Okay? Do you think the American people, if their 
interest rates go up, and the stock market goes down, they're 
going to say, ``Taiwan''? I think this is what you really have 
to keep in mind as you do this. To me, when people say, ``You 
have to buy this weapons system or that to deal with the 
potential Chinese threat,'' and I'm saying, ``Yes, but you're 
borrowing money from China to buy the weapons,'' and it's not 
just military, it's economic and diplomatic.
    Chairman Levin. Thank you, Senator Bayh, thank you.
    Senator Bayh. Thank you, Mr. Chairman.
    I would only say that the reason for my question--and you 
gentlemen are more familiar with military history than I am, 
but I believe, looking back over history, it is exceptional for 
a country to be militarily strong over an extended period, but 
financially weak. We are currently on the cusp of testing that 
proposition, potentially at our own peril. That was the 
reason--getting, General Scales, to your point, for an 
integrated approach to national security.
    Final thing I'd say, Mr. Chairman--General McCaffrey, I 
agree with you. I am optimistic that we can integrate China 
into the global system, security system, economic system, and 
so forth. But a system of interdependency is one thing, a 
system where we become overly dependent is another thing, and 
that's my concern.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Bayh.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    My thanks to the panel for being here.
    As a note of personal privilege, let me specifically give a 
warm welcome to General McCaffrey. I had the distinct honor of 
witnessing his raw leadership skills in his job as the Director 
of National Drug Control Policy in the Clinton administration, 
and had an opportunity to watch him lead.
    That leads me to my first question. I specifically would 
ask, first, General Scales then General McCaffrey to speak to 
this.
    I'm concerned about the promotion rates to captain and 
major. I am concerned that we have a critical shortage of 
captains and majors. I think, for the first time in our 
history--please correct me if I'm wrong--we're offering a 
$20,000 cash bonus to retain captains. We are promoting--98 
percent of the captains become majors, and 98 percent--excuse 
me--98 percent of the lieutenants become captains, 98 percent 
of the captains become majors. At what point have we changed 
from a professional officer corps to a bureaucratic officer 
corps? My concern is, is that the leadership skills that are 
recognized in promotion are the same leadership skills that 
allows you to look a bureaucracy and say, ``It's not working, 
and we have to change it.''
    The automatic promotion that is going on now, I think, 
lends itself to the kind of problems, frankly, like we had at 
Walter Reed Army Medical Center, where no one was willing to 
say, ``Wait a minute, this is not working for these wounded 
soldiers and their families in outpatient treatment. We need to 
be doing something differently.''
    I would like, specifically, any suggestions you would have 
for incentives that would work right now. Obviously, the 
$20,000 cash incentive is not working. What is an incentive 
that might work? With your years in the military, what could we 
be doing to hold onto this precious commodity of leadership in 
the middle?
    General McCaffrey. First of all, Senator McCaskill, I 
served in an Army where I got promoted to captain automatically 
at 24 months, and the screening factors were, ``Were you 
currently not under arrest? Could you cock a 45?'' [Laughter.]
    So, I'm probably not a good one to talk about the 
shortcomings of the current captains.
    When you look at our company commanders, battalion 
commanders, the tactical leadership we have in the Armed Forces 
now is courageous and effective beyond belief. It's simply 
superb. You're right, though, to question where is it going to 
be in 10 years? We are seeing a huge loss rate, accelerated, of 
West Pointers, kids with engineering degrees, business degrees. 
We're watching the ROTC Distinguished Military Graduates (DMGs) 
disappear. We're very concerned about it. We're going to end up 
with an officer corps that'll be 40-50 percent Officer 
Candidate School, and many of them will be tremendously 
dedicated, skilled soldiers, but may not have the growth 
potential that we'll need for the next war. So, we are looking 
at it.
    Some of the tools that are on the table that have worked 
are remarkable. You talk to a captain, ``What's going to keep 
you in?'' First of all, they'd like a year at home. They 
definitely would like to have some confidence that this isn't 
nonstop deployment for the next decade. Second thing they want 
to know is, ``Can I go to a first-rate graduate school?''
    So, when we turn around to the West Pointers and say, ``If 
you'll extend your mandatory 5-year service obligation by X 
number of years, we'll guarantee you a graduate-school slot''--
actually, we're guaranteeing them branch choice, to include 
infantry--and they're extending up to 3 years of service to get 
what they want to do. So, I think there are tools. We have to 
sit down pragmatically and sort out how to do it. The skill of 
the officer corps is in jeopardy in the coming 10 years.
    Senator McCaskill. Yes, General?
    General Scales. Senator, let me just echo what General 
McCaffrey said.
    We saw our generation of the military breaking in 1972, 
when captains and middle-grade sergeants, E-6 and captains, 
started leaving the service in the combat arms. They were, to 
use an overused expression, the canaries in the mine. Long-
service combat-arms captains and staff sergeants are the first 
ones to vote with their feet.
    So, your question is, how do you keep them in? First of 
all, as I mentioned to you before, what I would suggest is a 
soldier sabbatical. Without strings and without professional 
punishment, young officers coming back from an operational 
assignment in Iraq should be offered an opportunity to go to 
graduate school, at a name graduate school, to focus 
principally on the study of alien cultures, languages, and 
military art. Their spouses should also be given the 
opportunity to study as well. Remember the old saying, ``You 
recruit soldiers, you retain families.'' Quite often it's the 
spouses who are voting to get out, rather than the soldiers 
themselves.
    Senator McCaskill. Right.
    General Scales. The other reason why graduate school is 
important, is that experience isn't enough. We say we have the 
most experienced officers corps we've ever had. I agree with 
General McCaffrey on that. But that's experience for one style 
of war in one campaign. This is wonderful. But what we have to 
do between their 5th and 20th year of service is expand that 
experiential base and widen their horizons and teach them the 
intellectual skills that it takes, in higher command, to 
command indirectly, and to think creatively and to do intuitive 
decisionmaking and all those intellectual skills that will come 
with time from reflective study.
    So, I don't believe that they look for more money. I think 
they look for three things. They look for more time at home, 
they look for predictability in their family life, and they 
want to expand their horizons. Personal examples are my 
children who were both DMGs, one from Notre Dame, the other 
from Wake Forest. They both went to Airborne School. They 
served in combat units--one, the 1st Armor Division, the other 
in the 1st Cavalry Division. They both got out, not too long 
ago, because they were told that they couldn't go to graduate 
school. Frankly, I think both my daughters would have stayed 
in, had they had an opportunity to go to graduate school. So, 
that's become something of a passion with me.
    When General McCaffrey and I were captains, we lived in an 
isolated cocoon. Captains today are on the Internet every day, 
and they see what their college classmates are doing, like my 
one daughter would see that--she's in Bosnia, and she had 
friends who were in medical school or in law school or in 
business school or in graduate school. Frankly, for this 
generation, they view that as an important point of self 
esteem, not just professional development. So, if we want to 
keep those grades of officers, then we should give a no-
strings-attached opportunity to further their intellectual 
credentials.
    General McCaffrey. Just to add one anecdote, one of my 
students--I see these kids after teaching 5 years' worth of 
seminars all over the world--Captain Jessica Donker showed up 
to meet me in Kabul; she is a military police officer. It's the 
third time I've seen her in the combat zone since she 
graduated. She said she's really happy. She's going home in 
June from Afghanistan, takes command of a military police 
company in the 18th Airborne Corps that in October, deploys 
into Iraq. She says, ``I own nothing. I don't have a house, a 
car. I gave my car to my mother.'' We are running this force 
ragged. So, she's still in there with us, but again, I would 
just put a note of caution on the table, we wrecked the Army 
coming out of Vietnam. It took us 10 years to recover. We're 
not going to get 10 years in this war.
    Senator McCaskill. With the very limited time I have left, 
I'd like to switch to equipment for a minute. Could somebody 
briefly explain to me the logic--watching from the outside--and 
it appears to be parochial, because this deals with an aircraft 
that is important to the St. Louis region, but I can assure you 
that my concern is not parochial, and it is that, with the FCS 
coming in at more ton weight than had originally been designed, 
the idea as, I think--as you said in your written testimony, 
General McCaffrey, we're flying the wings off the C-17s and the 
C-130s. How do you come to a decision within the military to 
stop production of the C-17 right now? How does that happen? 
Can anybody explain to me how that happens, and why everyone, 
when I ask this question of General Schoomaker or when I ask it 
of the Chief of Staff of the Air Force, I get a blank stare? It 
is just amazing to me that no one can give me a good answer why 
we're shutting down the line of an aircraft that, if you look 
at it objectively, clearly we need.
    General McCaffrey. The C-17, seems to me, is a national 
strategic treasure. There probably ought to be 600 of them with 
the air-to-air refueling capability to make them work. It has 
enormous military value, enhanced by this misguided policy of 
bringing all forces back to continental United States, but it's 
also another element of national power for natural disasters, 
for humanitarian crises abroad. We ought to, at the end of the 
day, get rid of our C-5 fleet, probably get rid of most of our 
C-130s, except the fully modernized ones, and have this 
tremendously capable aircraft there.
    I think what's happening is, we're running out of money. 
The burn rate in Iraq is now $9 billion a month. I think it's 
$1.4 billion a month in Afghanistan. It's in consumables--
ammunition, POL, thousands of casualties--and we're not 
investing in the future.
    But I think that aircraft, without question, we should up-
ramp the production, not turn it off.
    General Scales. Senator, let me just add to that. It's 
important to understand that the C-17 is important to the Army. 
It's not just important to the Air Force. The Army's concept of 
future warfare is operational maneuver by air.
    Senator McCaskill. Right.
    General Scales. Not by sea or by land. You can't get to the 
far corners of the world and stay there for prolonged periods 
of time by driving there. So, I agree with General McCaffrey, 
absolutely, that it's not just the health of the Air Force 
that's hinging on the decision to continue making C-17s, but 
it's the total effectiveness of the ground forces, the very 
forces that we're talking about here, that are dependent on 
having strategic airlift--robust strategic airlift available in 
the future.
    Dr. Korb. Senator, the reason that it happened is, the 
Office of the Secretary of Defense didn't do its job. When 
you're in the Office of the Secretary of Defense, the 
Services--I won't get into--you wouldn't believe some of the 
things they want to cut or don't put in their budget--your job 
is to ensure things like that happen, because your job, working 
for the Secretary of Defense and the President, is to ensure 
that the total military capability is what it should be.
    I can remember dealing with the Services, and I would say, 
``look, here was the Secretary's guidance. You didn't follow 
it.'' They would say, ``He has the wrong guidance.'' ``No, 
that's your job, is to make''--and I think, when we go back and 
look at the history of the things we've spoken about today, as 
well as the war, there will be a failure of the top 
leadership--the Secretary of Defense and his office--to do 
their jobs.
    Senator McCaskill. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCaskill.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Let me start with you, if I may, Mr. Krepinevich. I have a 
question that I think no one really wants to ask, but I hear a 
lot when I travel to Arkansas, when I talk to military people. 
Given the deployment rates and the recruiting and retention 
numbers, et cetera, are we moving toward reinstituting the 
draft?
    Dr. Krepinevich. The answer is, it depends.
    Senator Pryor. Depends on?
    Dr. Krepinevich. As I said earlier, we're talking about 
increasing the Army by 65,000. If you look, as you have, at 
recruitment and retention rates, the Army is barely able to 
make its recruiting numbers. The only reason it made it last 
year is because it recruited people over the age of 35. If you 
take out the over-35 group that's coming into the Army, the 
Army didn't meet its target.
    In terms of retention, people on the Army staff have told 
me, or asked me, ``When you were an officer, when could you 
reenlist somebody?'' I said, ``If they had a year left on their 
enlistment.'' Now the Army is going out and enlisting people--
or reenlisting people with 2 years, 3 years left on their 
service. In a sense, they're harvesting seed corn from down the 
road.
    So, this is an Army that, right now, is being told, 
``Increase your end strength by 65,000.'' The Army looks at it, 
and it says, ``Maybe over 5 years, if we go 7,000 a year--maybe 
we can get an extra 7,000. Maybe if we lower our standards a 
little bit more, maybe if we get a little bit closer to that 
red line, maybe if we institute some of the innovative ideas 
that these gentlemen have raised.'' If that's the case, and if 
a contingency like Iraq pales in comparison to what would 
happen if we got entangled in Iran or Pakistan or Nigeria--I 
would encourage people to take a look at what's going on in 
Nigeria right now, and think about the situation we would 
confront if that situation just keeps going the way it is, 
because it is going downhill--then you get to the point where 
it's--even if you could recruit an additional 65,000, that 
isn't enough.
    That's why I think we need to not only look at numbers, but 
also how we use those numbers. I think it's very much in our 
interest to take what some people call the indirect approach, 
building up our capability to build what the Pentagon calls 
``partner capacity,'' to be able to go in, in peacetime and on 
an even greater scale in wartime, to train up indigenous 
forces, to equip them, to do it quickly, not the way we've done 
it in Iraq, where we had a false start, we started again in 
2004.
    I think one of the reasons why we're in the fix we're in 
right now is, there was a big bet placed, ``We're starting 
again in 2004, after the insurrection. By golly, by 2006, 
they'll be ready.'' Well, they're not ready. So, here you have 
the crunch, not 12 months, but 15 months, and so on and so 
forth.
    But if you get to the point where you have these critical 
contingencies that are happening--a failed nuclear state, a 
failed state that is a critical exporter of oil--in addition to 
what we're confronting right now, you could find yourself 
between a rock and a hard spot. The countries that we have 
traditionally turned to during the Cold War for support, our 
NATO allies, all you have to look at is the demographic death 
spiral the west European countries are going through right now 
and their attitude about what constitutes their principal 
security problems.
    We don't have, like they did, any United States to turn to. 
We're going to have to find different allies that we can work 
with, because they simply don't have the manpower to make up 
the difference.
    So, when you begin to look at where that path takes you, at 
some point, unless you want to engage in some of the, I think, 
rather problematic remedies, like offering large numbers of 
foreigners American citizenship to serve in the Army--Bob 
Scales can tell you, historically, that's one of the paths the 
Romans took on their road to decline and fall--if the day comes 
when Americans aren't willing to fight for their own interests, 
it seems to me that that's a very worrisome day, indeed. But 
there may be a point where, in order to achieve a sufficient 
scale in force, we have to look at conscription again. It's 
certainly not the first choice. I don't think it's a wise 
choice. But you can certainly sketch out a situation where, if 
we fail to build partner capacity elsewhere, if we fail to take 
steps now, we could be confronted by something like that, a 
very difficult and hard choice somewhere down the road.
    Senator Pryor. General McCaffrey?
    General McCaffrey. I don't disagree in anything Dr. 
Krepinevich said. Let me add two thoughts, though. One, I think 
it's important to realize that it's not the job of the Army to 
defend the country. It's the job of three different groups of 
people. One's the American people. Do they have the political 
will to come forward and take part in their own defense? Number 
two, Congress and the resources. Three, those people who are 
privileged to be in uniform.
    So, to be honest, I'm always offended when I hear that 
``the Army's in trouble.'' It's not the Army that's in trouble, 
it's the country. Where are the political leaders--the mayors, 
Governors, and the Presidents--who have stepped forward and 
said, ``We want your young men and women carrying an M-4 
carbine in Fallujah''? Until that happens, I don't think we're 
going to solve this problem. We need a call to action from our 
leaders as well as high-school principals and university 
presidents.
    The second one is, although I think when you look at the 
polling numbers there is zero support for a draft, it isn't 
there, the war in Iraq is unpopular. The American people have 
walked away from the war. They're not coming back. We're going 
to be out of there, largely, in 36 months. As we come out of 
Iraq, I would argue, you could consider a draft for the 
National Guard for domestic service only. The Canadians went 
all the way through World War II, where they drafted hundreds 
of thousands of their citizens, but none of them were forced to 
go overseas. That's not a desirable outcome, but I personally 
think, in the coming 2 years, we're going to break the Army 
National Guard with this call-up. It's vital to America's 
security, to America's Governors, and we're going to have to 
reconstitute. It may well be, if you offered America's parents 
a 4-year scholarship in college to serve in the Guard, where 
they'd have to volunteer for foreign service, that they'd step 
forward and do it.
    Senator Pryor. General Scales?
    General Scales. Yes, Senator, I appreciate Andy using my 
historical expertise to explain something, but I disagree with 
him. [Laughter.]
    In 1950, we initiated the Lodge Act, many of you may be 
familiar with that by Henry Cabot Lodge, where many of our 
Special Operating Forces were being scooped up in eastern 
Europe by the Soviets, simply because they weren't very good at 
that sort of thing, and we recruited citizens from eastern 
Europe to serve in the American Army. The deal was, they'd 
serve for 5 years, and, if they served honorably, they and 
their families would be made citizens of the United States. 
This was the beginning of the 10th Special Forces Group. 
General John Malchase David Shalikashvili, USA--many of you may 
know, his older brother, Othar--came in under the Lodge Act. We 
did the same thing after the Bay of Pigs in the 1960s, where we 
brought a large number of Cubans into the American Army. I can 
remember in my early days in the 1960s in Europe, there would 
be at least two officers or three officers out of each 
battalion who were either Cuban or eastern European.
    So, the idea that we can't draft, or we can't recruit folks 
from the Middle East who have language and cultural 
sensitivities, or we can't recruit in other places of the 
world, I think, is too shortsighted. I think not only would it 
help to solve our recruiting problem, I think it would actually 
enrich our Armed Forces, rather than diminish them.
    Dr. Korb. Senator, let me say something about the draft, 
which--I worked for a person who was the biggest supporter of 
the All-Volunteer military. That was President Reagan. But he 
told us, when we were trying to help save, with the assistance 
of many people in this room, the volunteer military, ``If you 
can't do it, let me know, because we cannot leave the country 
naked.''
    I remember President Bush saying, ``We'll never have a 
draft.'' You can't say that. What he should say is, ``I would 
prefer not to have it.''
    But if you had a draft right now, you would no longer be in 
Iraq. The American people would say no. That, I think, is 
important to keep in mind, because it's America that goes to 
war, and we need to--as we talk about these issues, we cannot 
put that aside. If the people are not willing to send their 
sons and daughters, we ought to think very carefully about what 
we're doing. If, at some point, they're not willing, but the 
political leaders in both branches decide we have to do 
something, then you're going to, as we did in Korea and in 
Vietnam--is to draft people.
    Senator Pryor. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Pryor.
    Senator Clinton.
    Senator Clinton. Thank you, gentlemen, for your testimony, 
and, obviously, for your years of service.
    You've covered so much ground, and it's all very rich, that 
I will be reading your testimony and pulling out a lot of your 
ideas. But I want to focus our attention for a minute on what 
seems to be the inherent contradiction.
    On the one hand, what I'm hearing from you, as to the kind 
of Army we need, both in size and in capacity, with respect to 
this era of irregular warfare and stability operations that we 
are engaged in, and the way we should be thinking about 
treating and deploying our forces, both to give them the 
support and the equipment and the training and, frankly, the 
additional opportunities to develop themselves that we've 
discussed, it seems that we're going in an opposite direction.
    We are spending $160 billion on the FCS. As I look at this, 
which is at the heart of the Army's transformation efforts, it 
is the major research, development, and acquisition program. It 
is going to try to take 18 manned and unmanned systems, and put 
them together by this extensive high-tech communications and 
information network. It's going to replace the M-1 Abrams tank 
and the M-2 Bradley. It's going to try to have fighting 
vehicles with advanced network combat systems. I think that 
means we lose one of the decisive advantages we still have on 
the ground, which is heavy armor and mechanized formations if 
we're actually going to put people at risk.
    It also seems to me that we're going to be reducing the 
end-strength calculus of boots-on-the-ground, because we're 
going to be relying so much on this abstraction. We're not 
going to be having people who are involved in understanding the 
cultures, doing what General Scales so eloquently described in 
a almost sociological way to understand enemies, but, more 
importantly, understand their societies, their needs, their 
desires.
    It's a high-risk venture, and it's taking up a lot of time, 
money, and effort on the part of those who are responsible for 
planning the future of the military.
    I know that Dr. Krepinevich has stated his opinion, but I 
want to start with him.
    Number one, what is your opinion of the FCS? Given where we 
are now, how do you try to reverse this gigantic bureaucracy to 
focus more on what we have heard you all describe as the 
pressing needs of our military to create this integrated 
approach to national security?
    Dr. Krepinevich. I think there are----
    Chairman Levin. Let me just interrupt for one second. I'm 
wondering if anyone has a BlackBerry and a mike on at the same 
time, or do you have any idea what that noise is?
    Okay, sorry to interrupt.
    Dr. Krepinevich. Senator, I think there are three areas of 
risk when it comes to the FCS. One is fiscal risk. It's $150 
billion, $160 billion, and growing. It's not clear, even with 
the generous sums we're giving the Army right now, relatively 
generous when you look back in recent years, that the Army's 
going to be able to accommodate this. In fact, when you look at 
the administration's Future Years Defense Plan, what you see 
is, somehow personnel, maintenance, and operations costs are 
supposed to stay flat, even with an increase in the size of the 
force, and somehow procurement's supposed to keep going up to 
accommodate things like the FCS, the F-22, the F-35, and we 
have our list.
    Second, it's a collection of technologies that are all 
supposed to somehow mature along the same timeline, or roughly 
close enough. When I talk to the people who are responsible for 
building it, and I say, ``Wait a minute, this is a networked 
force. You have 18''--now it's down to 14, by the way--
``systems that are involved. Suppose I take out three 
technologies that you say are in this basket of 30 or 40 or 50. 
Does that make this force 98 percent effective or 68 percent 
effective?'' You don't get a particularly good answer.
    Third, I think, there is operational risk. Senator 
Lieberman and I, a number of years ago, went down to talk to 
General John Nelson Abrams, USA (Ret.), when this idea was in 
its infancy. The whole concept was built primarily, almost 
exclusively, around the conventional battle. It was an 
expeditionary Army that was going to deal with a conventional 
rival.
    I met a number of times with Major General John Riggs, USA, 
(Ret.), when he was the program officer for the Army's future 
force or objective force. I've read the documents that were 
written up, the concept documents, by some of the Army's 
smartest people, retired Colonel Richard Sinnreich, USA, and 
Brigadier General Huba Wass de Czege, USA (Ret.). The idea was, 
indeed, revolutionary. The theme was, the first: we will see 
first, understand first, act first, and finish decisively. It 
was essentially a leap out of blitzkrieg warfare, when armored 
forces closed with, and fought with, each other. In this case, 
we'll see the enemy first, we'll understand what's going on; he 
won't see us; we'll act first by maximum range fires; we'll 
finish decisively; the close battle will be the mop-up battle. 
That is, again, a situation where it's not clear to me that 
this is the kind of force that's optimized for irregular 
warfare, where seeing first and understanding first depends so 
much on human intelligence, not intelligence that's derived 
from electronic systems, for example.
    In a situation where, as one of my colleagues said, troops 
would rather be mounted than dismounted (you run a higher risk 
of casualties if you're dismounted, if you're outside these 
vehicles than if you're in them), if your sole objective is to 
eliminate casualties, don't go into combat.
    General Petraeus right now is finally getting our troops 
out of their base camps, out of their vehicles, and patrolling 
and engaging the people in an effort to convince them that we 
can provide for their personal security. I don't feel 
particularly secure when somebody goes zipping by in an armored 
vehicle, all buttoned up. I do feel more secure when they are 
more like the cop on the beat.
    So, it's not clear that the FCS is, in my mind, what you 
would go to if you were starting out with a clean sheet of 
paper and looking at the problem of irregular warfare.
    Now, having said that, there may be elements of this force 
that are worth pursuing. For example, over time, we may need a 
network battle force if we're going to operate in a 
proliferated world. We're going to need to have a much more 
distributed force than we have right now to minimize its 
vulnerability. We may be able to substitute precision artillery 
for precision aircraft, precision artillery being a lot 
cheaper. Rounds like Excalibur, for example, as opposed to the 
``dumb rounds'' that the Army has been using for years. So, 
there may be something there.
    There may be something in the robotics, where we want to 
get into areas without risking soldiers or UAVs. But to say 
that we're going to accept this entire concept at the expense 
that it's going to cost us--and, oh, by the way the $150 
billion, out of the 48 Army brigades, only gets you 15 equipped 
with the FCS. In a sense, the Army has finally come up with a 
program where it's as expensive to equip a brigade as it is to 
buy an aircraft carrier. But, again, I think, with the resource 
constraints that the Army's confronting, with a shift towards 
more irregular warfare operations, at the very minimum, we need 
to take a good, hard look at the FCS and see: What do we really 
need out of it? What's technically feasible? What's physically 
feasible? What makes operational sense?
    Senator Clinton. General McCaffrey, do you have an opinion 
on that?
    General McCaffrey. I really don't disagree with anything 
Andy said. I think it's a sad situation we're in right now. The 
Army's acquisition budget, if I remember, is 4 percent of total 
DOD. This is a tiny program. There's only two programs over a 
billion dollars a year in the entire Army lineup.
    I also think FCS, as it currently exists, the next 
President is pulling the plug on this thing. They're going to 
justify it by saying, ``We'll do spiral spin-out of 
technologies into the heavy brigade combat teams,'' et cetera. 
Right now, the first brigade we will field, I believe, is 2017.
    Senator Clinton. That's what I've heard.
    General McCaffrey. So, that's beyond the next President's 
8-year term, and there are two or three miracles that have to 
happen between now and then to get this technology to come 
together.
    Having said that, it seems to me that the U.S. Army needs a 
medium-weight mounted force that should start to be fielded on 
the first year of the second term of the next President. We 
ought to take the system, relook it, and get them serious about 
it. I don't believe this program should be killed, it just 
needs significant redirection.
    Senator Clinton. Dr. Korb?
    Dr. Korb. I think it needs to be slowed down, and we have 
to, first of all, get the costs under control. I'm worried 
about a program whose estimates goes from $90 billion to $160 
billion with no reason.
    There are 57 technologies in there, and I've asked the Army 
to explain to me why they couldn't buy it this way or that way. 
To go to Andy's point, ``if you didn't buy all of these, what 
would you have?'' So, my advice would be, let's slow it down, 
let's figure out how big the Army's going to be, what we want 
the Army to do, and keep this in a research and development 
mode until we're sure which way we need to go and we can be 
assured that the costs are under control.
    As I look at this, I'm reminded of a weapons system that 
Dick Cheney canceled, the A-12. That was going to be the great 
thing for the Navy. It was going to be the Navy's version of 
the F/A-22. The thing ended up way over cost, and it had a lot 
of technological problems. They canceled it. The Navy went back 
and bought F/A-18s, E and Fs.
    Senator Clinton. Because it's also the opportunity costs of 
what you're not getting, as well, which I think is part of what 
all of your testimony's been about.
    General Scales?
    General Scales. First of all, I disagree with my 
colleagues, particularly Andy.
    Let's be clear about the pedigree of this, because I wrote 
the original concept paper for FCS, in 1997, and we started, 
from the very beginning, at least as long as I was in the 
conceptual phase, emphasizing that FCS was not designed for the 
Cold War. Senator Clinton, I got beat up constantly by the 
heavy Army generals, because we were espousing a lighter-weight 
force to fight in distant regions of the world against 
irregular forces.
    So, for Andy to say that this was a force designed for 
conventional war--isn't right. Now, Andy did go to see the 
TRADOC commander at the time and the TRADOC commander tried to 
push it to the right of the conflict spectrum, for whatever 
reason, I don't know. But all along, this system was designed 
for the type of wars that we're engaged in now. All you have to 
do is look at the success of the Stryker brigades. Ask anybody 
in Iraq, ``Which unit would you prefer, if given a Chinese menu 
of available units?'' Every one of them would say, ``I want a 
Stryker.'' A Stryker is a prototype, if you will, of what FCS 
will become.
    I don't see FCS as a network. I see FCS as a collection of 
light infantry-heavy vehicles that are capable of controlling 
areas and controlling populations. An M-1 Abrams organization, 
the smallest divisible entity is a brigade. Why? Because 
they're so maintenance intensive, they have this huge 
logistical umbilical cord that they rely on. If you break those 
down into small units that are capable of autonomous operations 
at company and platoon level, suddenly you're spreading 
yourself just exactly like Dave Petraeus says they should be.
    Andy mentioned the fact that now Petraeus is following this 
philosophy. What's he doing? He's using Stryker units. That's 
the unit of choice for the tactics he's using inside of 
Baghdad. He's not using light infantry, because Petraeus knows 
that you must protect your troops. The difference in casualties 
between a dismounted and a mounted unit is 10 to 1. The idea of 
a future Army going to war dismounted, I think, is 
irresponsible.
    So, the question is, how do you mount the Army? You mount 
in light, mobile units. By the way, the other thing is, Stryker 
and FCS are very infantry-intensive. See, most soldiers don't 
die in Iraq and Afghanistan, an irregular war, mano-a-mano; 
they die driving to the battlefield. They drive through 
ambushes, through IEDs. It's not the Abrams and the Bradleys 
crews that are dying, it's the people in Humvees, it's the 
people driving around in thinly-skinned vehicles. It's much 
better to build a middle-weight force, where everybody is 
protected a little bit, than a small number of people in Abrams 
units who are protected a lot. When I was involved in the 
program, in the 1990s, that was the philosophy.
    The philosophy, which I think the Stryker embodies, is as 
follows: You need to protect more soldiers longer--by that, I 
mean for the duration of a campaign--and allow them to get 
closer to the enemy before dismounting. I agree with Andy that 
the essence of counterinsurgency is infantry forces--dismounted 
infantry forces. But the longer you protect them, the fewer of 
them are going to die.
    Part of the problem, frankly, is the Army's marketing of 
FCS. They try to market it as a netcentric system, as a high-
tech system, as a system hooked into the global network, tied 
into the joint this and joint that. I view FCS as a collection 
of light, fast, mobile, agile infantry-heavy fighting vehicles 
capable of operating at very small unit level for long periods 
of time, with very little demand on the logistical 
infrastructure. So, if you look at it from that perspective, 
instead of this techno-perspective, you see FCS in an entirely 
different light. Not that I have strong opinions about this. 
[Laughter.]
    Senator Clinton. Thank you.
    Chairman Levin. The strength of all of your opinions here 
this morning is really very, very compelling and moving and 
valuable to us. I must tell you, a number of my colleagues have 
told me that this is one of the really great panels that we've 
ever had in front of us, and it's not just one or two, but a 
number of my colleagues. I think we probably all feel that this 
is an unusually experienced and knowledgeable, thoughtful, and 
passionate panel, and we need all of those.
    Unless somebody has a question which is absolutely 
compelling, we will adjourn, with our great thanks to this 
panel.
    Thank you so much.
    We stand adjourned.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Daniel K. Akaka
 role of the active military, guard, and reserves in the war on terror
    1. Senator Akaka. General McCaffrey, in order to determine the 
appropriate size and organization for our Nation's military in the long 
run, I believe it is essential to fully understand the evolving mission 
of our armed services, and the related missions for our National Guard 
and Reserves. In particular, I think we need to engage in a dialog on 
the role of the Active Military, Guard, and Reserves in the war on 
terror. Thinking beyond Iraq and Afghanistan for the moment, in your 
opinion, what do you see as the Army's and the Marine Corps' role in 
fighting terror?
    General McCaffrey. I do not have time to answer detailed questions. 
My written statement and the several hours of testimony more than 
adequately outline my views on these important issues.

    2. Senator Akaka. General McCaffrey, what role do you see for the 
Guard and Reserve in fighting terror?
    General McCaffrey. I do not have time to answer detailed questions. 
My written statement and the several hours of testimony more than 
adequately outline my views on these important issues.

    3. Senator Akaka. General McCaffrey, what strategies would you 
recommend we, as a Nation, utilize in the global fight against 
terrorists?
    General McCaffrey. I do not have time to answer detailed questions. 
My written statement and the several hours of testimony more than 
adequately outline my views on these important issues.

    4. Senator Akaka. Dr. Korb, you recommend expanding our force with 
a focus on peacekeeping and counterinsurgency operations. What is your 
basis for this mission?
    Dr. Korb. The war in Iraq demonstrates that while the U.S. military 
may be able to rapidly defeat a country's military on the battlefield, 
the operations following that conflict, establishing order, governing 
and policing the country, providing services, are amazingly complex and 
require a tremendous level of planning and commitment. The Bush 
administration utterly failed to understand the magnitude of the task 
that they were taking on when invading Iraq. Some argue that the 
situation in Iraq shows that the United States should not engage in 
stability operations or wars that result in the overthrow of a 
country's government and therefore should not become overly invested in 
dealing with these sorts of operations. However, the tremendous 
strength of American military power means that if it is ever forced to 
act against a particular state the sheer power of American capabilities 
would likely lead to the collapse of that government.
    While it is clear that these types of operations are incredibly 
difficult, the problem is that the United States as the world's sole 
super-power with global military reach will no doubt engage in 
peacekeeping and stability operations in the future, whether resulting 
from the collapse of North Korea, genocide in Darfur, a coup in 
countries like Pakistan or Saudi Arabia, or continued instability in 
Haiti or Somalia. Since the end of the Cold War, the United States has 
engaged in these types of operations in Somalia, Haiti, Bosnia, Kosovo, 
Afghanistan, and Iraq. Yet the military has in every case adopted an ad 
hoc approach to each operation--failing to build on its experiences to 
become more adept at these operations. Conducting these operations 
remains one of our military's major weaknesses. Because there are 
numerous scenarios in which the U.S. will have to engage in 
peacekeeping or stability operations, we must become more adept at 
conducting these operations.

    5. Senator Akaka. Dr. Korb, do you foresee nation-building as 
becoming a part of the Army and Marine Corps mission in the future?
    Dr. Korb. Since it is likely that the United States will be forced 
to engage in nation-building missions in the future, it will need to 
become an integral part not just of the Army and Marine Corps mission, 
but of the entire U.S. Government. The U.S. Government needs a new 
blueprint for action to address future post-conflict stability 
operations. In Iraq, the military has frequently complained that 
civilian agencies have been largely absent--forcing the military to 
carry even more of the burden. Just as the Goldwater-Nichols Act 
improved coordination between the Services and empowered the Chairman 
of the Joint Chiefs of Staff, a similar act is needed today to improve 
coordination and planning between our Nation's warfighting, diplomatic, 
and aid agencies.

                            growth of forces
    6. Senator Akaka. Dr. Korb, in your statement, you discuss the need 
to grow our forces in a fiscally responsible manner. You specifically 
mention that many of the current weapons programs are unnecessary 
carryovers from Cold War thinking. These systems are, therefore, an 
unnecessary drain on our military budget. Can you elaborate on some of 
the systems you think are no longer needed, and why?
    Dr. Korb. The DOD should seek funding for flexible, efficient 
weapons systems that help combat 21st century threats, while stopping 
development and production of weapons systems that unwisely use scarce 
resources and/or do not meet performance standards. The production and 
development of the following weapons programs deal with threats from a 
bygone era and should be cut in order to pay for increases in the 
personnel and equipment budgets. The DOD should stop funding the:

         F/A-22 Raptor stealth fighter jet, which is an unnecessary 
        and costly supplement to the F-35 Joint Strike Fighter.
         SSN-774 Virginia class submarine, which offers few 
        technological advantages yet substantially higher costs 
        compared to existing submarines and is less relevant to our 
        Nation's current challenges.
         DDG 1000 destroyer, which suffers from innumerable 
        technological difficulties and ballooning costs without 
        offering any true advantage over existing systems.
         V-22 Osprey, which has caused numerous training deaths and 
        excessive cost overruns and which suffers from unresolved 
        development issues while offering only marginal advantages 
        compared to existing helicopters.
         C-130J transport aircraft, which provides few additional 
        capabilities compared to existing transport aircraft and has 
        suffered from severe technological flaws.
         Offensive space-based weapons, which are of no use in low-
        tech asymmetric conflict and are far more expensive than 
        existing technologies without offering many additional strike 
        capabilities.
         Continued deployment of the National Missile Defense System, 
        which offers unproven technology at exceptionally high costs to 
        defend against a highly unlikely nuclear missile strike against 
        the United States.

                              recruitment
    7. Senator Akaka. Dr. Krepinevich, in your statement, you discuss 
the troubles the Army is having in recruiting, and how they are having 
to significantly lower standards in order to recruit and retain 
soldiers. You also note that they have to lower the standards despite 
spending way more on recruiting bonuses. Finally, you note that the 
cost to support each soldier has gone up by well over 50 percent in the 
last 5 years. These challenges make increasing the force size very 
difficult. What do you believe is the underlying cause of the Army's 
recruiting difficulties? Is it just because we are at war? Is it 
disillusionment with the Iraq war specifically? Or do you believe that 
there are other factors?
    Dr. Krepinevich. The root of the recruitment challenges may lie in 
the government's inability or unwillingness to communicate to young 
people that their country needs them for service in the armed forces. 
This has not been a major theme in the administration's public 
relations campaign on the war. Recruiting incentives have been far more 
aligned with economic interests rather than patriotic duty.
    Additionally, there is the matter of mentorship. Apparently, many 
mentors (parents, teachers, and pastors) are advising their young sons 
and daughters who are interested in a military career to postpone 
military service until the war is over, or simply avoid it altogether.
    Finally, since a mass mobilization of U.S. manpower is not required 
to meet the Army's recruitment goals, there may be a ``free rider'' 
issue at work. By this I mean that young men and women may feel that, 
since the service of every person is not required, they need not feel 
obligated to answer the call to service. Of course, if too many people 
take this attitude, a shortage of enlistees will result.

    8. Senator Akaka. Dr. Krepinevich, given the budgetary challenges 
facing our Nation and the military, how would you recommend we address 
these recruiting issues?
    Dr. Krepinevich. We can no longer rely primarily on financial 
incentives to meet our recruiting goals. In this time of great security 
challenges, our Nation must convey a real sense of honor, value, and 
appreciation of military service. We must articulate a strong and 
moving message about the threats confronting the United States and the 
important contribution that the military makes to advancing our 
national interests.

    9. Senator Akaka. Dr. Krepinevich, would you take any specific 
steps to address the shortages in the officer and noncommissioned 
officer (NCO) ranks?
    Dr. Krepinevich. Premature mid-career departure of seasoned NCOs 
and officers might be attributable to the toll that current operations 
in Iraq and Afghanistan are taking. One factor that may prove important 
in retaining mid-career officers is the prospect of a graduate 
education that improves the officer's value to the Army and provides 
the soldier and his/her family with a respite period of 2 to 4 years 
(if there is a ``utilization tour'' following receipt of the advanced 
degree) away from a combat zone. Of course, while this may keep mid-
career officers on duty, it does not redress the shortage of officers 
in these ranks that are available for deployment overseas.

                          contractor personnel
    10. Senator Akaka. Dr. Krepinevich, in your statement, you discuss 
the large numbers of contractor personnel supporting our troops in 
Iraq, and the potential problems they represent due to the lack of 
contractor oversight. You note that contractor security personnel do 
not operate under the military's rules of engagement (ROE), and 
therefore, pose a potential risk to our counterinsurgency operations 
since they could potentially take actions that could inflame tensions. 
What do you think DOD should do about this problem?
    Dr. Krepinevich. Contractor actions, uncoordinated and 
unsynchronized with the military operations, can be severely 
counterproductive. Achievements made by a host nation and the U.S. 
Government to stabilize a situation can be swiftly reversed by private 
firms whose armed employees operate outside government control. This, 
in turn, can damage the perception of the host nation's ability to 
maintain ``monopoly'' on the use of violence.
    We have routinely employed contractors in recent years. In most 
cases--in the Balkans, for example--involvement of both military and 
contracted support personnel is covered by status of forces agreements 
and other legal agreements between the host nation and the United 
States.
    Owing to difficulties in recruiting and the desire to ``outsource'' 
certain military functions in the name of realizing economies, it is 
not possible or even desirable to stop the practice of hiring private 
contractors all together. However, we should do a much better job at 
constructing a legal framework governing contractors' involvement and 
conduct in the U.S. military operations--especially for those 
contractors involved in security operations, as opposed to supporting 
missions.
                                 ______
                                 
              Questions Submitted by Senator Mark L. Pryor
                                waivers
    11. Senator Pryor. Dr. Krepinevich, in your written testimony, you 
note that waivers for Army recruits who committed felonies were up 30 
percent in 2006 over 2005, and that the Army is also accepting more 
high school dropouts. The DOD wants a 92,000 troop increase in the Army 
and Marine Corps end strength. How do we increase our troop levels but 
still maintain the quality of our force?
    Dr. Krepinevich. Under current circumstances, it simply may not be 
possible to field a significantly larger Army while maintaining high 
quality standards. The current data--using the Service's own metrics--
show that the quality of Army recruits is declining.
    At the same time, we must be very careful about reducing standards 
for new military recruits. The war in Iraq places our military in 
unfamiliar cultural terrain, facing nonconventional situations, and 
difficult mental challenges. Therefore, it requires soldiers with 
greater, not lower, levels of intelligence, maturity, and capability.
    It is no secret that attracting people in sufficient numbers is 
becoming more and more challenging to our military, which again leads 
me to stress the importance of explicit recognition of military service 
and articulation of a strong message on the part of the Nation's 
leaders regarding the value of military service to the Nation.
    Ultimately, the answer may rest in what the Pentagon calls 
``building partner capacity''--assisting allies, partners, and host 
nations in augmenting their ground forces so that, in conjunction with 
them, we achieve the scale and quality of forces necessary to address 
emerging ground force contingencies.

                          contracted soldiers
    12. Senator Pryor. Dr. Krepinevich, the Washington Post did an 
article this past Sunday on ``hired guns,'' private security civilian 
contractors who fight a parallel war our soldiers are fighting in the 
global war on terror, but who are not under the same oversight when it 
comes to the rules of armed conflict. In your prepared statement you 
mention the challenge these contractors create for our soldiers. Do you 
believe we should or should not rely on these contractors to supplement 
our force?
    Dr. Krepinevich. It is far from clear whether the use of contract 
personnel is a positive development for the war effort. Consider that:

         There are clear differences in pay between soldiers and 
        contract workers, with the latter typically receiving 
        significantly greater compensation than the former.
         Contractors have not been under the Uniform Code of Military 
        Justice (UCMJ) and hence have not operated under the standards 
        that, the military has long argued, are key to good order and 
        discipline. There has been no central oversight of the private 
        security companies that provide security contractors, and no 
        uniform rules of engagement (ROE).
         Contract workers generally enjoy a better quality of life 
        than their military counterparts, staying in superior quarters 
        and being provided with more amenities.
         Contractors enjoy a huge benefit in terms of the personal 
        freedom. For example, they are free to quit their job at any 
        time; soldiers are not. Indeed, both the government and the 
        security companies concede that contract security workers have 
        the right to abandon their post if they deem the situation too 
        dangerous.

    Contract security workers also present a potential military 
problem. They are not integrated into the overall U.S. military chain 
of command, and thus function outside the overall counterinsurgency 
campaign being conducted in Iraq.
    Differentiating between insurgents and noncombatants is a common 
and serious challenge for counterinsurgent forces. In a combat 
situation, oftentimes the safest thing to do from an individual 
soldier's perspective is to shoot first and ask questions later. This, 
however, risks incurring noncombatant casualties and alienating the 
population. It is for that reason that U.S. forces operate under strict 
ROE. The contractor security forces, however, do not function under the 
ROE imposed on U.S. and coalition forces. It is not clear whether the 
contract forces even have standing ROE. This has the potential to 
undermine U.S. efforts at winning the hearts and minds of the Iraqi 
people.
    Another issue concerns the degree of responsibility incurred by 
U.S. forces in protecting U.S. nationals operating as security forces. 
For example, are Army quick reaction forces established to come to the 
aid of U.S. and coalition forces under attack also obligated to respond 
to requests from security contractors? Doing so not only puts U.S. 
forces directly at risk, but also increases the risk to other coalition 
units who may call upon U.S. rapid reaction forces, only to find that 
they are committed to defend security contractors.
    Yet another worrisome issue involves the obligation, if any, of 
U.S. forces to share intelligence with security contractors to enable 
them to perform their job more effectively. The problem here, of 
course, is whether the intelligence will remain a secret, and whether 
the likelihood of security being breached by those who are not subject 
to military order and discipline will be substantially greater.
    In short, it is not clear that this form of outsourcing manpower 
requirements makes good sense, much less whether it should be expanded 
in an effort to solve the personnel challenges confronted by the Army. 
Recently, the Iraqi government has taken steps to impose rules 
requiring all security firms to be registered and limiting the 
possession of weapons only to those who have been licensed.

                           irregular warfare
    13. Senator Pryor. Dr. Krepinevich, in your prepared statement you 
state that ``most of our enemies have little choice: the investment 
required to take on the U.S. military in conventional warfare is 
prohibitive, and that we are entering a national security era dominated 
by irregular warfare.'' What is your perception of our readiness to 
respond to the most likely irregular missions in the future?
    Dr. Krepinevich. Our ``readiness to respond'' will depend entirely 
on the level of institutional commitment the Services make to 
generating and maintaining capabilities appropriate for irregular 
warfare (IW).
    Historically, the Services have viewed IW as a lesser-included-case 
of major combat operations (MCO); i.e. if a force had the skills and 
capabilities to win at high intensity, conventional operations, then it 
had the ability to handle other forms of conflict. However, the past 
few years of experience in Iraq show that this is not necessarily the 
case.
    High-end conventional operations are extremely complex when it 
comes to coordinating and integrating advanced military capabilities 
and conducting sophisticated operations. But such operations are 
typically conducted against a readily identifiable opponent and within 
a fairly straightforward framework of rules. In this case, ``cultural 
awareness'' and ``operational nuance'' are not prerequisites for 
success.
    Conversely, irregular warfare calls for a very mature force that 
routinely handles delicate situations, develops tactical intelligence, 
works within and among populations, and deals with an array of 
opponents who may be very difficult to identify and address. The use of 
combat skills, per se, is the exception rather than the norm.
    There are indications that the Services are tiring of the irregular 
warfare effort. Discussions about ``resetting the force'' typically 
include comments on the need to regain ability to conduct MCO-type 
operations and the atrophying of such skills as a result of the 
protracted operations in Iraq. To the extent the Services pull back 
from irregular warfare operations in order to ``reset'' for high-end 
combat operations, we'll lose our ability to respond to what I consider 
the most likely forms of conflict in the coming years.

    14. Senator Pryor. Dr. Krepinevich, do you believe our conventional 
Army and Marine Corps is, or can be, effective against irregular 
warfare?
    Dr. Krepinevich. Conventional Army/Marine Corps is currently 
marginally effective in irregular warfare; not necessarily due to 
deficiencies in personnel capabilities, but more so because of lack of 
numbers, lack of time available to adequately train and grow a force 
effective at such operations, and lack of time dedicated to gaining the 
institutional maturity required to excel at irregular warfare.
    Whether the Services can be effective in the long run will depend 
on institutional-level decisions to reorient services for the 
challenges of irregular warfare in the same way organizational changes 
were made to excel at conventional land warfare or air superiority or 
undersea operations.
    Nevertheless, it should be noted that ``success'' in irregular 
warfare from the military perspective is only of value to the extent 
the rest of government also embraces the challenges. The military arm 
creates ``maneuver space'' for the other elements of the national power 
to work. An overly strong reliance on the military will eventually be 
counterproductive.

                              north korea
    15. Senator Pryor. General McCaffrey, you have noted that our 
forces are in a position of ``strategic peril.'' The ramifications of 
the President's ``surge'' in the number of troops headed for the Middle 
East leaves the United States with practically no strategic ground 
Reserve and a National Guard whose readiness has been depleted. What is 
your impression of our military's ability to currently respond to 
aggression from Iran or North Korea?
    General McCaffrey. I do not have time to answer detailed questions. 
My written statement and the several hours of testimony more than 
adequately outline my views on these important issues.

                        training of iraqi troops
    16. Senator Pryor. General McCaffrey, one of the missions of our 
troops in Iraq and Afghanistan is to train indigenous police and 
military forces so that they may become self-sufficient and we can 
ultimately ``stand down.'' You were recently in the region, speaking 
with our military men and women as well as those general officers 
leading the effort. How many fully-trained, self-sufficient Iraqi 
troops are there today?
    General McCaffrey. I do not have time to answer detailed questions. 
My written statement and the several hours of testimony more than 
adequately outline my views on these important issues.

    17. Senator Pryor. General McCaffrey, what significance, if any, do 
the fully-trained, self-sufficient Iraqi troops have?
    General McCaffrey. I do not have time to answer detailed questions. 
My written statement and the several hours of testimony more than 
adequately outline my views on these important issues.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                         manpower and strategy
    18. Senator Chambliss. General Scales, in your written testimony, 
you make the disturbing statement that for the first time since the 
Civil War, decreasing military manpower is shaping strategy rather than 
strategy determining force needs. But an article in Defense News said 
future warfare is likely to be ``irregular'' or ``counterterrorism,'' 
and this kind of warfare calls for a smaller force trained for 
nonconventional missions. How do you see our strategy in Iraq and 
Afghanistan playing out if adequately manning the force was not a 
concern?
    General Scales. In fact manpower is a chief concern in both 
Afghanistan and Iraq. Defense News is simply wrong in equating the need 
for smaller forces to fight irregular warfare. Non-conventional 
missions do require smaller elite units for special missions such as 
training indigenous forces and direct action against terrorist cells. 
But the expanded presence of American ground forces over the breadth of 
the world to conduct these missions will require more of these elite 
units as well as a much larger contingent of traditional ground forces 
trained to fight and sustain themselves in distant places for very long 
periods of time. All of these conditions argue for a larger rather than 
a smaller ground force. The bottom line is that ground warfare, 
particularly at the low end of the conflict spectrum, is a very 
manpower intensive business. Technology can only do so much. Most of 
the heavy lifting in these wars will be done by close combat forces 
(infantry, cavalry, armor, Special Forces). We are woefully short of 
these forces today in Afghanistan and Iraq. The nature of wars in the 
future will demand that we recruit and train many more of them.

    19. Senator Chambliss. General Scales, what decisions have been 
made because manpower needs were or are unable to be met?
    General Scales. Virtually every think tank, military analyst, and 
objective defense intellectual concurs that the counterinsurgency phase 
of the war in Iraq would have evolved much differently had more 
soldiers and marines been available to stem the emergence of both Sunni 
and Shia insurgencies beginning in late 2003 and continuing to today. 
In every case portions of Iraq that were pacified returned to 
lawlessness and anarchy once American troops departed. They were 
obliged to leave because not enough troops were present in Iraq to 
sustain a presence long enough to sustain the gains made. That reality 
is the main reason that General Petraeus requested the ``surge.'' He 
realized then and he does now that in counterinsurgencies numbers 
count. Simply put, throughout this conflict we had too few soldiers 
present to fully execute the policy of providing security to the most 
seriously threatened regions of Iraq.

    20. Senator Chambliss. General Scales, do you agree with the 
assessment that the future force should be a smaller and more focused 
future force, or is a larger ground force a more appropriate defense 
strategy?
    General Scales. I believe that the future force should be more 
focused but I do not believe that it should be smaller. We have two 
options regarding ground forces: either add more to accomplish the 
strategy or change the strategy to be less demanding on the ground 
force we have. Unfortunately the second option is not ours to choose. 
It belongs to the enemy and he has decided wisely to challenge us on 
the ground in the most remote and inhospitable regions of the world. So 
we either cede the enemy dominance over regions of the world vital to 
our national interest or we challenge the enemy in these regions . . . 
on the ground.

                                training
    21. Senator Chambliss. Dr. Korb, I'd like to quote a piece of your 
written statement about an Army base in my home State of Georgia:

        ``The 1st Brigade of the Army's 3rd Infantry Division based at 
        Fort Stewart became the Army's first brigade to be deployed to 
        Iraq for the third time. It was sent over in January 2007 after 
        about a year at home. But, because of its compressed time 
        between deployments, some 150 soldiers joined the unit right 
        out of basic training, too late to participate in the training 
        necessary to prepare soldiers to function effectively in Iraq. 
        Unfortunately one of the 18-year-old soldiers, Matthew Zeimer, 
        who joined the unit on Dec. 18, 2006, was killed on February 2 
        after being at his first combat post for just 2 hours. He 
        missed the brigade's intensive 4 week pre-Iraq training at the 
        National Training Center at Fort Irwin, California, getting 
        instead a cut rate 10-day course.''

    You offer this tragic case in relation to troops being sent into a 
war zone without being fully combat ready. The National Journal had an 
article last week that reported TRADOC officials as saying that skills 
associated with conventional warfare will atrophy due to the focus on 
preparing troops for counterinsurgency operations in Iraq and 
Afghanistan. The article also said units are skipping ``graduate 
level'' training at senior training centers because of reduced dwell 
time between deployments. If they are able to attend the training, the 
curriculum is less challenging--similar to what we saw with Matthew 
Zeimer. Between what you have written and what I am reading, I am 
convinced we need to look at the training our troops are getting and 
require on multiple levels and on a variety of fronts. What is the 
implication or potential effect of these training deficiencies, aside 
from the obvious outcome of the immediate danger to putting our troops 
untrained in harm's way, in terms of training and preparing to fight 
some of the unknown future threats we are looking at today?
    Dr. Korb. I agree with your assessment. The problem is that because 
of the pace of deployments, which results in shorter dwell time, our 
troops as General Scales has noted, are ``too busy to learn.'' 
Therefore training is skewed to addressing the immediate problems of 
Iraq and Afghanistan. Yet, as I noted in my testimony, even training 
for operations in Iraq and Afghanistan is being short-changed, in a 
rush to get troops to the battlefield. This is problematic, because 
even as General Petraeus is attempting to implement a new 
counterinsurgency approach in Iraq, our troops have had little training 
to deal with counterinsurgency operations. For instance, the Army's 
counterinsurgency manual was only recently completed and the Army and 
our troops have had little time to learn and adapt. The atrophy of 
training in conventional techniques, as well as training in 
environments that are different than Iraq, is a real concern going 
forward and will mean that the United States is less prepared to deal 
with new challenges. The longer we stay in Iraq the less prepared we 
will be to confront future challenges.

              overseer of efforts in iraq and afghanistan
    22. Senator Chambliss. General McCaffrey, the White House has come 
up with a plan for a ``War Czar'' to be an ``execution manager'' of 
sorts to oversee the efforts in Iraq and Afghanistan. Former House 
Speaker Newt Gingrich has said this position is necessary as a means to 
cut through the ineffectiveness and bureaucracy that are hindrances to 
winning the wars, and National Security Advisor Stephen Hadley says 
this person would work for the President and fix problems in Washington 
that are in the way of success. However, at least five former 4-stars 
have declined the position, and retired Major General John Batiste 
called this another layer of bureaucracy. What do you think of this 
position?
    General McCaffrey. I do not have time to answer detailed questions. 
My written statement and the several hours of testimony more than 
adequately outline my views on these important issues.

    23. Senator Chambliss. General McCaffrey, is this position 
necessary?
    General McCaffrey. I do not have time to answer detailed questions. 
My written statement and the several hours of testimony more than 
adequately outline my views on these important issues.

    24. Senator Chambliss. General McCaffrey, what void would this 
position fill?
    General McCaffrey. I do not have time to answer detailed questions. 
My written statement and the several hours of testimony more than 
adequately outline my views on these important issues.

                            national energy
    25. Senator Chambliss. General McCaffrey, you have said the Army is 
``unraveling'' and that we must expend ``significant national energy'' 
to reverse that trend. What would that significant energy look like and 
require?
    General McCaffrey. I do not have time to answer detailed questions. 
My written statement and the several hours of testimony more than 
adequately outline my views on these important issues.

    26. Senator Chambliss. General McCaffrey, to follow on with 
expending national energy, how can we as a Nation prepare families, 
employers, and communities to deal with returning soldiers--some who 
will have been deployed 15 months now--experiencing increased stress 
levels and not necessarily being equipped to deal with this stress in a 
healthy way?
    General McCaffrey. I do not have time to answer detailed questions. 
My written statement and the several hours of testimony more than 
adequately outline my views on these important issues.

    27. Senator Chambliss. General McCaffrey, how can we use this 
national energy to support the Army and Marine Corps during this 
challenging time?
    General McCaffrey. I do not have time to answer detailed questions. 
My written statement and the several hours of testimony more than 
adequately outline my views on these important issues.

    [Whereupon, at 12:46 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                        TUESDAY, APRIL 24, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

 UNITED STATES PACIFIC COMMAND, UNITED STATES FORCES-KOREA, AND UNITED 
                   STATES SPECIAL OPERATIONS COMMAND

    The committee met, pursuant to notice, at 9:33 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Akaka, 
Bill Nelson, E. Benjamin Nelson, Bayh, Webb, Warner, Sessions, 
Thune, and Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Evelyn N. Farkas, professional staff member; Creighton 
Greene, professional staff member; and William K. Sutey, 
professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; David M. Morriss, minority counsel; Lucian L. 
Niemeyer, professional staff member; Christopher J. Paul, 
professional staff member; Lynn F. Rusten, professional staff 
member; Sean G. Stackley, professional staff member; and 
Richard F. Walsh, minority counsel.
    Staff assistants present: David G. Collins, Fletcher L. 
Cork, and Jessica L. Kingston.
    Committee members' assistants present: Frederick M. Downey, 
assistant to Senator Lieberman; Benjamin Rinaker, assistant to 
Senator Ben Nelson; Andrew Shapiro, assistant to Senator 
Clinton; Gordon I. Peterson, assistant to Senator Webb; Stephen 
C. Hedger, assistant to Senator McCaskill; and Mark J. Winter, 
assistant to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. We're going to 
begin the hearing today. The ranking--or acting ranking 
member--Senator Warner suggested we proceed, he's going to be a 
few minutes late, and we will do that. So Senator Nelson, I 
think you and I will be manning the fort here this morning, at 
least for awhile.
    Senator Ben Nelson. We'll be able to handle it.
    Chairman Levin. First let me welcome our witnesses, Admiral 
Keating, Commander of the U.S. Pacific Command; General Bell, 
Commander of the United Nations Command, the Republic of Korea/
U.S. Combined Forces Command; and Commander, U.S. Forces-Korea; 
and Vice Admiral Eric Olson, the Deputy Commander of U.S. 
Special Operations Command.
    We not only welcome them, we thank them for their service, 
we thank them for their leadership.
    Today's hearing will focus on the challenges and 
opportunities that we face in the Asia-Pacific Region, along 
with the important work that special operators do globally to 
further U.S. national security interests, including, but not 
limited to, their efforts to combat terrorism.
    In Asia, the most urgent matter is that we need to 
eliminate North Korea's nuclear programs, and the threat that 
is posed by Pyongyang's missile capability. The unclassified 
National Intelligence Estimate (NIE) on North Korea's nuclear 
and missile programs, produced in March 2007, stated that by 
early October 2006, ``North Korea could have produced up to 50 
kilograms of plutonium, enough for at least a half a dozen 
nuclear weapons.'' This is a significant increase from the last 
unclassified Central Intelligence Agency (CIA) estimate dating 
to 2001, which assessed that North Korea had enough plutonium 
for one to two weapons.
    In February, it appeared that we had made a significant 
breakthrough in the Six-Party Talks regarding North Korea's 
nuclear program. North Korea should not be rewarded for failing 
to negotiate in good faith, but we should test their statements 
that they will eliminate their nuclear weapons programs.
    I hope that Admiral Keating and General Bell can share 
their thoughts on the impact of the North Korean threat on the 
political-military dynamic in Asia, as well as their 
assessments of the state of the U.S.-South Korean relationship.
    In addition, I hope that we can explore the bilateral 
relationship between the United States and China. The U.S.-
Japan Alliance, U.S. relations with India, as well as U.S. 
Force posture and the security dynamic in the Asia-Pacific 
region.
    On the issue of readiness in the Pacific theater, this 
committee has learned in a series of hearings, since the 
beginning of this year, that personnel and equipment shortages 
in nondeployed units assigned to the Pacific Command (PACOM) 
exacerbate the challenges of meeting our security commitments 
and challenges in the Pacific, or in other areas, where Pacific 
Forces may be deployed.
    Reduced readiness in our non-deployed forces increases the 
costs and time required to get ready for worldwide 
contingencies, and increases the likelihood of deploying our 
forces underprepared, or unprepared. This increases the risk 
that we fail to accomplish our missions, and also means 
increased casualties.
    This situation is what former Army Chief of Staff General 
Schoomaker was describing when he talked about the U.S. 
military's ``lack of strategic depth.'' I hope to hear from 
Admiral Keating about how he evaluates that risk.
    Special Operations Forces (SOF) have nine statutory 
missions--some that are more useful in the short-term, such as 
direct action, and others that have deeper medium- and long-
term impacts, such as the foreign training missions. I'm 
concerned that the definition of the war on terrorism has been 
too narrowly conceived by the administration and the 
Department, so that for too long, the emphasis has been placed 
on capturing or eliminating individual terrorists, and not 
enough on combating terrorism using civil affairs, 
psychological operations, and training foreign forces in the 
Middle East and beyond. I'm not even including what needs to be 
done by the State Department and other Government agencies.
    This committee spent considerable time last week, hearing 
from witnesses regarding the impact of the operations in Iraq 
and Afghanistan on the conventional forces, and today I hope 
that we can hear about the impact on SOF--what is the current 
state of Special Operations readiness for all missions and for 
all Service components.
    Do we need to put additional resources into honing the 
special skills of the operators under your command, Admiral 
Olson, especially in the areas of language and cultural 
training? Last week, Major General Scales testified to this 
committee that, ``What's important in counter-insurgency are 
skills, not structure, the ability to speak the language, the 
ability to commune with alien cultures, the ability to train 
and to advise.''
    Some special operators have these skills, though more of 
them need to get those skills, and what can we do to ensure 
language proficiencies are raised and maintained?
    Finally, is the end strength growth that the Department has 
planned for Special Operations Command (SOCOM) sufficient? Is 
it appropriate, given not just current needs, but also future 
projections?
    I look forward to hearing from our witnesses regarding 
these issues, as well as other issues and also whether and how 
the budget request for fiscal year 2008 and beyond meets their 
operational, readiness, and quality-of-life requirements.
    I think we will await Senator Warner's opening statement, 
and start with our witnesses. Admiral Keating?

  STATEMENT OF ADM TIMOTHY J. KEATING, USN, COMMANDER, UNITED 
                     STATES PACIFIC COMMAND

    Admiral Keating. Mr. Chairman, thank you very much for the 
opportunity to appear before your committee this morning. It 
has been almost 4 weeks since the Senate was kind enough to 
confirm me, and Wanda Lee and I returned to Hawaii and began 
again to experience the Aloha that is unique to Hawaii, and 
Senator, it's great to be back in your State.
    I'm proud to represent the men and women of PACOM before 
you this morning, Mr. Chairman. As I said, we've been there 4 
weeks, I've been to four countries in the region and intend to 
travel to China here, next.
    My initial assessment, which I'm happy to share with you 
this morning is that there is much in the Pacific theater that 
is positive. It is, of course, a dynamic, complex region, a 
significant portion of the globe is represented in PACOM. I 
think that there is general stability in the region, security 
is improving, particularly when considering the longer light, 
when I was last there in 1985 at the PACOM headquarters, and of 
course, the growing economies are a highlight in the region.
    The alliances we enjoy there are healthy, strong, vibrant, 
and getting better. In particular, in Japan, Republic of Korea 
(ROK), I have to visit and spend some time with General Bell, 
and I'm very pleased with the progress that we are making 
there, and of course, Australia and the Philippines, as well--
highlights of the very strong alliances we enjoy.
    In addition, I visited Malaysia and was pleased to see how 
well we're doing there, and other countries that are slightly 
less prominent, but every bit as important, including 
Singapore, Cambodia, and Vietnam.
    The partnership that we enjoy with India is solid and 
expanding; I will visit India later on this summer. We're, of 
course, watching China carefully, we notice an increase in 
China's apparent willingness to act constructively. We have a 
delegation of 25 or so mid-level officers, professionals from 
all 4 Services who are taken from their particular assignment 
right now, on destroyers or in infantry battalions, and they 
are visiting China as we speak. They will report back to us in 
a week or so.
    Challenges throughout the area will remain. You mentioned 
some of them, Mr. Chairman, North Korea, we are watching them 
carefully as is General Bell, their missile and their nuclear 
activity, the Six-Party progress is, while not rapid, we think 
it is no less an important step towards providing peace and 
security on the peninsula.
    The battle that we are fighting with our allies, in 
particular in the Southern Philippines is, we think, producing 
good results, we're eliminating some terrorists from the 
playing field, and the role of the Republic of the Philippines 
army, and military forces is significant, and we're proud of 
our efforts to support them.
    We're, of course, concentrating on understanding China's 
intent, what they're doing with their military spending, and we 
will spend some time with them in the month ahead, as I said.
    So, looking ahead we remain grateful for the committee's 
support, Mr. Chairman, the young men and women are well-
equipped, they're well-trained, they're highly motivated in the 
area of responsibility (AOR), and we are grateful for your 
support.
    We intend to concentrate on winning the war on terror, 
advancing security cooperation and engagement in the theater, 
making sure that our forces are properly postured and equipped 
to respond to crises should they develop, and we are working 
hard to keep our operational plans current, in light of the 
threats that we see in the area.
    I thank you for your support, and I look forward to your 
questions, Mr. Chairman.
    [The prepared statement of Admiral Keating follows:]
           Prepared Statement by ADM Timothy J. Keating, USN
                              introduction
    Mr. Chairman and members of the committee: On behalf of the men and 
women of the U.S. Pacific Command (PACOM), thank you for this 
opportunity to testify regarding the posture of our command and 
security in the Asia-Pacific region.
    The Asia-Pacific area remains a region of vital importance to our 
Nation. From a security standpoint, the past year has been a time of 
general stability and improving security with the notable exception of 
North Korean nuclear and missile activity.
    Economic development in the region continues at a brisk pace, 
fueled primarily by dynamic growth in China, with positive trends in 
most nations.
    Pacific-based forces have served with distinction in Iraq and 
Afghanistan and have helped combat terrorists in the Philippines 
through intelligence and operational fusion assistance to the Armed 
Forces of the Philippines. Our marvelous men and women have helped 
stabilize the region through exercises and engagement; they have saved 
lives and mitigated human suffering through medical and engineering 
assistance in the wake of natural disasters.
    Progress in the PACOM area of responsibility (AOR) requires close 
cooperation with the Department of State and U.S. Embassy country 
teams. Our important ties with other agencies of the U.S. Government--
in Washington and in theater--have been keys to stability. Of course, 
Congress is essential to our efforts. I appreciate your support of 
PACOM initiatives. I assure the committee that our activities are 
conducted in accordance with United States law and policy. Our dealings 
with the People's Republic of China (PRC) and Taiwan are guided by the 
Taiwan Relations Act, the three Joint U.S.-PRC communiques (1972, 1979, 
1982), and the one-China policy. Our military-to-military interaction 
with China has been increasing; we abide by restrictions stipulated in 
the National Defense Authorization Act (NDAA) for Fiscal Year 2000. 
NDAA for Fiscal Year 2006, section 1206 ``train and equip'' authority 
made possible a rapid infusion of $30 million in Department of Defense 
(DOD) funds to improve the maritime security capacity of Indonesia and 
Sri Lanka. Section 1022 authority broadened permissible uses for 
counterdrug funding and allowed the Joint Interagency Task Force-West 
to assist partner nations in building the counterterrorism capability 
of their law enforcement agencies. We look forward to the continued 
support of Congress in these areas.
    Direct dialogue and shared experiences with regional civilian and 
military leaders remain keys to enhancing our relationships in the AOR. 
Meaningful and frequent engagement with the nations in the Asia-
Pacific--characterized by the transparent expression of views and 
intent--contributed to considerable progress across a broad range of 
security issues this past year. Our relationships with regional 
counterparts have ensured cohesion and resolve in addressing strategic 
events such as missile and nuclear testing by North Korea.
    Our alliances with Japan and the Republic of Korea (ROK) 
facilitated a strong response to the Democratic People's Republic of 
Korea (DPRK) nuclear event. After the October 9 nuclear test, Chinese 
support moderated North Korean behavior and helped to restart the Six-
Party Talks. These talks remain a critical framework for addressing 
North Korean nuclear aspirations. Engagement with the Peoples' Republic 
of China (PRC) over the last 2 years was a positive factor throughout.
    The solidarity of the U.S.--Japan alliance is further demonstrated 
by increased cooperation in ballistic missile defense. We are also 
moving ahead with implementation of the security improvements agreed to 
in the Defense Policy Review Initiative. The strategic alliance between 
the U.S. and Japan has been reaffirmed and many force structure changes 
are in planning or underway. A key step will be the move of 
approximately 8,000 marines and their family members from Okinawa to 
Guam. The U.S. and Japan will share the development costs of this 
relocation.
    Our strong alliance with the ROK has enabled us to undertake 
extensive discussion regarding the future of the alliance and agreement 
to shift responsibility for defense of the peninsula to ROK forces. 
U.S. support and engagement, primarily with air and naval capabilities, 
will remain essential to the ROK defense and to regional stability.
    Our military-to-military activities with the PRC have increased and 
this past year marked the first ever U.S.--PRC tactical activity--a 
search and rescue exercise in two phases--off the coast of California 
and in the South China Sea. This progress bodes well for U.S.--China 
relations and regional stability. Exercises, port visits, and mid-level 
officer exchanges can over time reduce the potential for 
misunderstanding and provide the opportunity to positively influence 
future Peoples' Liberation Army (PLA) leaders. At every turn, we use 
our interaction to demonstrate the professionalism and readiness of 
U.S. forces, an important element of encouraging responsible behavior 
by the Chinese government and military.
    We continue to push for greater transparency from Chinese 
officials. Without greater insight into Chinese goals and objectives, I 
will remain concerned about continued double-digit growth in annual 
defense spending and investment in systems which threaten Taiwan and 
our own capabilities. Consistent with U.S. policy and legislation, 
PACOM is encouraging Taiwan to improve its self-defense capabilities 
and thereby deter PRC aggression.
    Southeast Asia remains the battleground against terrorism in the 
Pacific. On the island of Jolo, the Armed Forces of the Philippines 
(AFP), with assistance from U.S. military advisers and trainers, have 
kept the terrorists on the run and made progress in creating a stable, 
secure environment.
    Interaction between Indonesian Armed Forces (TNI) and the U.S. 
military has been positive and valuable in the war on terror and for 
humanitarian assistance. The peace accord in Aceh accelerated recovery 
from the 2004 tsunami by facilitating stability and security. We are 
addressing maritime security with Indonesian, Malaysian, and Philippine 
authorities to deny terrorists transit and sanctuary at sea. Maritime 
security efforts focus in the Sulu and Sulawesi Seas or triborder sea 
area between Indonesia, Malaysia, and the Philippines; these efforts 
foster multilateral cooperation among the littoral states.
    The U.S.-India strategic partnership is expanding and military-to-
military activities are thriving. Recent congressional approval of the 
Henry J. Hyde U.S.-India Peaceful Atomic Energy Act reinforced those 
ties. Our interaction will improve regional security by addressing 
instability concerns in Bangladesh, Nepal, and Sri Lanka.
    One area of great concern is political upheaval in the region. The 
coups in Thailand and Fiji, while bloodless, were clearly unacceptable. 
The prompt return of democratically-elected government is essential if 
we are to maintain important military-to-military relationships. 
Historic animosity, poor economies, overpopulation, and weak and 
dysfunctional governments fuel insurgencies and unrest in areas 
including the Solomon Islands, East Timor, Sri Lanka, and Bangladesh.
    These impressions highlight both the challenge and opportunity in 
the Asia-Pacific region. We have in place key elements to advance U.S. 
security interests and enhance regional stability--vibrant alliances, 
opportunities for new partnerships, combat ready and agile forces, and 
committed soldiers, sailors, airmen, and marines to lead our efforts. 
As we move forward, our initiatives remain organized across five focus 
areas--prosecuting and winning the war on terror; advancing regional 
security cooperation and engagement; maturing our joint and combined 
capabilities and readiness; posturing forces for agile and responsive 
employment; and ensuring operational plans at all levels are credible.
               prosecuting and winning the war on terror
    Engagement with regional partners for support in the war on terror 
continues to pay dividends as Australia, Japan, ROK, Thailand, 
Singapore, Fiji, Mongolia, Tonga, and New Zealand are making or have 
made significant contributions to the efforts in Iraq and Afghanistan.
    Within Asia and throughout the Pacific, in coordination with the 
Office of the Secretary of Defense, the Department of State, and our 
U.S. Ambassadors, we work with and through our regional partners to 
combat extremist violence and transform at-risk environments. We are 
making progress but must remain active.
    Forces from the Special Operations Command Pacific (SOCPAC) play 
the dominant role in PACOM war on terror operations. The Joint Combined 
Exchange Training program is the principal mechanism used by Special 
Operations Forces (SOF) to assist partner nations in building capacity 
to defeat terrorism and improve our understanding of the complexities 
of the local environment. SOCPAC troops are the core of Operation 
Enduring Freedom-Philippines, an operation which supports the 
Government of the Republic of the Philippines counterterrorism efforts. 
With U.S. advice and training, AFP and civilian authorities have 
improved their ability to coordinate and sustain counterterrorism 
operations. U.S. and Philippine forces have also worked together under 
the new Security Engagement Board framework--the primary mechanism for 
consultation and planning regarding nontraditional security threats--to 
complete humanitarian and civil assistance projects and improve living 
conditions in the southern Philippines. As a result of our combined 
efforts, support for terrorists has waned markedly.
    U.S.-supported operations, civic projects, and Malaysian-mediated 
peace talks with the separatist Moro Islamic Liberation Front (MILF) 
continue to erode MILF support to the Abu Sayyaf Group (ASG) and Jemaah 
Islamiyah (JI). These efforts have reduced ASG mobility within MILF 
strongholds. With assistance from Australia and Japan, we will continue 
to build Philippine capabilities and capacity to conduct independent, 
joint operations against internal and external threats.
    The Government of Indonesia is a welcome partner in the war on 
terror. Indonesia continues to play an influential role in moderating 
extremism, as evidenced by its willingness to contribute forces to 
peacekeeping operations in Lebanon. At home, President Yudhoyono has 
demonstrated a commitment to democracy and military reform. Our 
interaction with the TNI this year reinforced the positive trends we 
have seen in their professionalism, respect for human rights and 
civilian control of the military.
    We have targeted security assistance and ``train and equip'' 
funding to Indonesia towards maritime security in an effort to limit 
mobility for terrorists in Southeast Asia who take advantage of the 
relatively unmonitored, uncontrolled seas. The waters between 
Indonesia, Malaysia, and the Philippines have been a sanctuary for 
transit and illicit activities which sustain terrorist activity. The 
Indonesian military efforts to monitor and control criminal maritime 
traffic in these areas can be enhanced by multilateral cooperation with 
the Philippines and Malaysia, which we encourage.
    Joint Interagency Task Force-West counterdrug programs complement 
and support the war on terror. Key initiatives include enhancing 
Indonesian, Malaysian, and Philippine maritime law enforcement capacity 
in the Sulu and Celebes Seas through focused Security Assistance and 
section 1206 ``train and equip'' proposals that develop military 
capacity to combat transnational threats in these areas. We will 
exercise section 1022 authority (as authorized in the NDAA for Fiscal 
Year 2006) by enhancing the counterterrorism capacity of partner nation 
law enforcement agencies, and we look forward to a continuation of this 
authority beyond fiscal year 2007. As a next step, we continue to seek 
section 1033 authority (NDAA for Fiscal Year 1998) to equip counterdrug 
forces in the Philippines, Indonesia, Malaysia, and Thailand so that we 
can integrate our assistance program more effectively with interagency 
partner efforts.
    A key enabler of all of these cooperative trans-regional efforts is 
effective information sharing. Coordination in intelligence, logistics, 
planning, and operations is critical to success. We have made progress 
in this area and continue to build the infrastructure required to share 
and act upon the information.
Combating Weapons of Mass Destruction
    We are working with allies and partners to build regional 
capability to combat weapons of mass destruction (WMD). President Bush 
initiated the Proliferation Security Initiative (PSI), which supports 
national counterproliferation efforts. Unlike traditional export 
controls, PSI is a voluntary activity that builds global capacity to 
disrupt WMD proliferation among states, and between states and 
terrorist organizations. Nine nations within the AOR (Australia, Japan, 
Singapore, Philippines, Cambodia, Mongolia, the Marshall Islands, Sri 
Lanka, and Papua New Guinea) have endorsed the statement of 
interdiction principles. We continue work to expand participation 
during our regional military-to-military engagements. We joined PSI 
exercises such as Pacific Protector and Deep Sabre with Australia, New 
Zealand, Singapore, Japan, and the United Kingdom and observers from 
other countries. PACOM participates in multiple working groups with our 
allies and partners to build consequence management capability. We 
established formal work plans with Japan and South Korea in 2006. We 
will execute these plans in 2007, resulting in real improvement to our 
Chemical, Biological, Radiological, and Nuclear (CBRN) defense and 
consequence management capabilities. On the homefront, we will expand 
consequence management training through our participation in Department 
of Homeland Security-Exercise Topoff 4 in October 2007, validating the 
full range of existing procedures for managing a domestic terrorist WMD 
event.
          advance regional security cooperation and engagement
    Our Theater Security Cooperation Plan serves as the primary 
blueprint to enhance U.S. relationships and military capacities of 
allies and regional partners. The plan is fully coordinated with our 
embassy country teams and integrates security assistance, military-to-
military exchanges, exercises, cooperative technology development, and 
outreach programs into a coherent, mutually supportive set of 
activities for each country, whether ally, partner, or cooperating 
state.
    These security cooperation activities are essential to the success 
of U.S. national security strategy. For relatively low cost, we have an 
opportunity to make progress in each of the PACOM focus areas, and 
facilitate situations in which future security challenges can be met 
through strong regional cooperation and capacity.
Japan
    The relationship between the U.S. and Japan is a cornerstone of 
peace and prosperity in the Pacific. Nearly 38,000 U.S. Armed Forces 
personnel are permanently stationed in Japan, with another 14,000 
forward deployed U.S. naval personnel. Japan provides over $4 billion 
in host nation support, the most generous contribution by any U.S. 
ally.
    The response to brinkmanship by Kim Jong-il validated the strength 
and importance of our alliance. Prime Minister Abe's early engagement 
with China's President Hu Jintao and ROK's President Roh Moo-hyun is 
encouraging and offers the potential for better Japanese relationships 
with those nations. Prime Minister Abe has also advocated for 
significant changes within the Japanese government and military to 
support both regional and global security efforts. The Government of 
Japan (GOJ) has provided significant military and financial support to 
coalition operations in the war on terror. For example, GOJ legislation 
supports operations in Afghanistan, maritime logistical support in the 
Indian Ocean, and recently concluded reconstruction efforts in Samawah, 
Iraq. Japanese Self-Defense Forces maintain a presence in the Middle 
East by flying C-130s in support of United Nations (U.N.) and coalition 
missions in Iraq. We appreciate the GOJ support in the war on terror.
    The alliance also continues with the transformation goals laid out 
in the three Security Consultative Committee Statements released by the 
Secretary of Defense, the Secretary of State, and their Japanese 
counterparts in 2005 and 2006. These agreements established our common 
strategic objectives; rebalanced the required roles, missions, 
capabilities and force structure between U.S. and Japanese forces; and 
set forth our roadmap for realignment. They are on track. Implementing 
these agreements will enhance alliance capabilities while ensuring a 
more sustainable U.S. military presence in Japan.
    Japanese commitment to Ballistic Missile Defense (BMD) is 
significant. The Japan Defense Agency (JDA) 2004 Defense Budget 
included funds to initiate research and development of a limited 
missile defense plan for the Kanto Plain region involving sea-launched 
SM-3 and ground launched Patriot PAC-3 missiles. The GOJ Cabinet and 
Diet approved the JDA budget for 2005, which included an additional 
106.8 billion yen ($1 billion) for BMD. The JDA, recently elevated to 
the ministerial level and designated as the Ministry of Defense, has 
shown great interest in cooperative development with the U.S. of a more 
capable sea-launched missile and production of PAC-3 missiles. The 
Japanese Defense Ministry and DOD are exploring complementary systems 
that share information and make both systems more capable.
Republic of Korea
    Despite challenges, the U.S.-ROK alliance is solid and continues to 
form the foundation for peace and security on the Korean peninsula. Our 
partnership remains focused on the most immediate security threat to 
the Korean people--the government of the DPRK. The ROK government has 
expressed a desire to take the lead role in conventional defense. As a 
result of ROK combat capability enhancements, nine military missions--
ranging from weather forecasting to maritime SOF interdiction--have 
been transferred from U.S. to ROK military forces. Continued 
improvements by the ROK military make possible additional mission 
transfers in the future. The ROK government has sought the ability to 
exercise operational control (OPCON) of its own forces in wartime, and 
we have reached agreement to transition our command relationships in 
April 2012. This is a natural and reasonable next step in the 
maturation of the U.S.-ROK relationship and should be supported. 
Together we will implement a transition process that will assure that 
ROK forces are ready to assume this increased responsibility.
    The DPRK is a proven proliferator of missiles and missile 
technology as well as a participant in a range of other illicit 
activities including probable state-run narcotics exporting and 
counterfeiting of U.S. currency. The Six-Party framework--with 
coordinated multilateral efforts of the ROK, Japan, Russia, and China--
is a constructive approach, regardless of DPRK wrangling in the near-
term.
    The U.S. and ROK are transforming our alliance to meet evolving 
security requirements. As ROK force modernization allows Korea to take 
a greater role in its own defense, U.S. forces stationed in Korea are 
improving their strategic flexibility, in keeping with our global force 
transformation. Our partnership is valuable beyond East Asia security 
issues, demonstrated by the significant contingent of ROK engineering, 
medical, aviation, and security forces supporting coalition missions in 
Iraq and Afghanistan. We hope to increase regional partnering with the 
ROK in counterproliferation, maritime security, and disaster relief 
while seeking to foster increased trilateral military cooperation 
between the ROK, Japan, and the U.S. We welcome a shift by South Korea 
toward a more regional view of security and stability.
    Australia is our most steadfast ally, a nation working tirelessly 
to promote stability and good governance in the Pacific. During 2006, 
Australians led efforts to restore stability to East Timor and the 
Solomon Islands, and they continue to provide major security and 
institutional assistance in the region. The Australian Pacific Patrol 
Boat program provides the primary capacity to protect against criminal 
activity in the economic exclusion zones of many island nations. Most 
recently, Australia is leading relief efforts--in coordination with 
nongovernmental organizations--to help the devastated portions of the 
Solomon Islands recover from the recent tsunami, under the auspices of 
the Regional Assistance Mission to the Solomon Islands or RAMSI.
    The strong bond between our Nations has allowed us to make quick 
strides in areas of mutual concern. U.S. and Australian military forces 
are synchronizing efforts to build capacity in combating terrorism and 
enhancing maritime security in the Philippines, Indonesia, and 
Malaysia. Additionally, we continue to improve interoperability between 
the Australian Defence Force and U.S. Armed Forces. Talsiman Saber, a 
major exercise this spring, will provide proof-of-concept for the Joint 
Combined Training Capability that promises to take bilateral, network-
centered training to a new level, and ensure our combined forces are 
prepared for today's modern and dynamic threat environment.
    Our partnership with the Republic of the Philippines (RP) is 
central to success in meeting our war on terror goals in Southeast 
Asia. We appreciate President Arroyo's affirmation of the Visiting 
Forces Agreement, allowing for the continued advancement of cooperative 
efforts to rid the Philippines of terrorist activity. The recently 
passed Human Security Act enhances Manila's counterterrorism laws and 
provides new legal authorities for Philippine security forces in 
fighting terrorism. Last year, the GRP also established the Security 
Engagement Board (SEB) as the framework for our bilateral engagement on 
nontraditional activities such as counterterrorism, counterdrug, 
humanitarian assistance/disaster relief, and addressing the potential 
of pandemic disease. This development paved the way for engagement 
including security assistance, civil-military operations, and other 
support to AFP operations. The Philippine Defense Reform, endorsed by 
Presidents Bush and Arroyo in 2003, implemented with Foreign Military 
Financing under the auspices of the Philippine Department of National 
Defense and the AFP, is well on the way to producing long-term 
institutional reform.
    Thailand is a major regional ally. Section 508 of the Foreign 
Operations Appropriations Act mandated the suspension of security 
assistance to Thailand following the September 2006 coup. While we 
continue to value Thai support for combined training events, access for 
U.S. forces, and past contributions to operations in Afghanistan and 
Iraq, we encourage the quick return to a democratically elected 
government to allow full restoration of our military relations. We 
appreciate the continued support and cooperation of the interim Royal 
Thai Government in combating terrorism in Southeast Asia and for 
temporary access to its military facilities.
India
    The U.S.-India strategic partnership deepened significantly in the 
last year. With congressional approval of the Henry J. Hyde Atomic 
Energy Cooperation agreement, we should expect the relationship to 
become even broader and more helpful in addressing common security 
issues. Our experience with military-to-military activities mirrors 
this decidedly positive trend. We foresee great potential for 
cooperation in areas of concern like Nepal and Bangladesh.
    Over the course of the last year, all three Indian Service Chiefs 
expressed satisfaction with the state of our military-to-military 
interaction and a desire to increase the scope of these activities in 
the future. Our two nations conducted a combined Army-Air Force 
exercise in Hawaii and a naval exercise incorporating elements from the 
Marine Corps and Army. PACOM will continue increasingly joint, complex 
and realistic training exercises with the Indian military. Indian Armed 
Service Chiefs are also keenly interested in the Foreign Military Sales 
(FMS) program. In their view, FMS plays a central role in our future 
military relationship. The ongoing transfer of U.S.S. Trenton was 
singled out as a welcome addition to Indian Navy capabilities, building 
Indian confidence in dealing with the U.S. in equipment acquisition 
matters.
    Singapore is one of our strongest security partners in Asia and a 
key coalition partner in the war on terror. Beyond providing strategic 
access to ports and airfields for visiting U.S. forces, Singapore is 
extraordinarily supportive and cooperative in moving forward with our 
shared maritime security, counterterrorism, and regional command and 
control initiatives. Singapore breaks ground this year on a Command and 
Control Center at Changi Naval Base which will facilitate information 
sharing between Singapore, the United States, and other regional 
nations.
    Indonesia continues to make steady progress with the reform of the 
TNI, emphasizing human rights, professionalism and leadership training. 
Through the recently renewed security assistance programs, the U.S. 
helped institutionalize reforms, particularly with the International 
Military Education and Training program. Additionally, the U.S. DOD 
started the Defense Resource Management Study in September 2006 to 
improve Indonesian programming and funding practices.
    President Yudhoyono has sustained his commitment to thwart 
extremism and improve maritime security; those efforts are bolstered by 
carefully targeted security assistance and humanitarian initiatives. We 
have focused the security assistance funding on coastal radars and 
communication equipment to improve situational awareness of the 
maritime domain. Our deployment of the U.S.N.S. Mercy provided medical 
relief to more than 24,000 patients in four areas of Indonesia. In 
addition to the medical care and training opportunities for the 
Indonesian medical personnel, the U.S.N.S. Mercy deployment 
demonstrated the importance of the U.S.-Indonesian strategic 
relationship. Together, these initiatives furthered our common goals in 
the war on terror--denying maritime sanctuary to terrorists and 
improving living conditions for the Indonesian people.
People's Republic of China
    Chinese global engagement continues to mature. Nations in the 
Pacific, Africa, and South America are benefiting from Chinese economic 
growth, while the increasing energy needs of China are fueling ties to 
the Middle East. China has also demonstrated a greater willingness to 
play a responsible role in the diplomatic arena, particularly with 
North Korea. While PRC military modernization efforts do not yet 
challenge U.S. military capabilities in the AOR, the opaqueness of 
Chinese defense budgets and intentions, as well as the introduction of 
new capabilities, are causes for concern.
    The purpose of the PACOM-initiated military-to-military interaction 
with the PLA, conducted within the framework of our over all policy 
toward China which is based on the three Joint U.S.-PRC communiques 
(1972, 1979, 1982), our one-China policy, and the NDAA for Fiscal Year 
2000, is to increase transparency between our respective militaries, 
break down barriers to understanding, and reduce the potential for 
miscalculation. This past year we have gained traction and are moving 
the U.S.-PLA military-to-military relationship forward as an important 
complement to the other elements of the bilateral U.S.-China 
relationship.
    With each successive trip to China, we have seen improved access to 
leadership and facilities. Most noteworthy has been the increasing 
interaction among junior and mid-grade officers who in the coming years 
will become senior PLA leaders. Through this direct contact, we gain 
experience interacting with one another and build relationships for the 
long term. We have also made practical advancements with our 
activities. Talks held last year under the Military Maritime 
Consultative Agreement (MMCA) yielded a substantial agreement to 
improve the safety of our Sailors and Airmen. The agreement called for 
a bilateral search and rescue exercise (SAREX) with elements of free 
play, internationally accepted protocols, and fixed wing aircraft. 
These terms allowed the U.S. to practice search and rescue with the PLA 
in the same manner we carry out such operations with other partners. 
The need for the PLA to adopt internationally accepted protocols will 
increase as PLA Navy expands its activities in the Western Pacific.
    Progress in the military-to-military venue has been positive. I 
anticipate the relationship will improve in the areas of transparency 
and reciprocity. As we see PLA commitment to these principles, I will 
work with the Office of the Secretary of Defense and Congress to 
reassess the relationship and, if warranted, propose changes to the 
NDAA for Fiscal Year 2000 restrictions.
    The PRC-Taiwan relationship is an issue that we monitor closely. 
Consistent with legislation and policy, our interactions focus on 
efforts to preserve cross-strait stability. We continue to encourage 
Taiwan to improve its own defenses and create a credible deterrent to 
any attack. We have advocated inexpensive hardening practices as well 
as the acquisition of a combination of defensive weapons and systems. 
PACOM will continue to make available to Taiwan advice, training, and 
support for congressionally-approved equipment to defend against the 
potential military aggression by the PRC.
    Mongolia, a country with a GDP of approximately $2.4 billion and a 
population of 2.8 million, continues to make a substantial contribution 
as a U.S. partner in the war on terror. Mongolian forces have 
maintained a continuous presence as a coalition member in Iraq and 
Afghanistan, with seven company-sized rotations to Iraq and six mobile 
training team detachments to Afghanistan. These efforts and their other 
U.N. and North Atlantic Treaty Organization commitments mean that 
almost one-third (or about 400) of deployment-eligible Mongolian 
soldiers are engaged in peacekeeping missions, worldwide.
    PACOM security cooperation with Mongolia supports their efforts to 
adjust the structure and skills of the military to better match a 
peacekeeping focus. The Mongolian Defense Reform and the Global Peace 
Operations Initiative (GPOI) are being leveraged to maximize the effect 
of both programs and will result in the transformation of the MAF into 
an International Peacekeeping Force. Mongolia was selected as one of 
two countries in the theater (Bangladesh the other) to be sites for 
regional peacekeeping training centers. Mongolia has agreed to host the 
second annual GPOI capstone event at the Five Hills Regional Training 
Center in August 2007 as part of Exercise Khaan Quest 2007.
Russia
    In support of the U.S. European Command responsibility for Russia, 
we have taken steps to improve operational protocols between U.S. and 
Russian forces. We invited the Russians to participate in Pacreach, our 
multinational submarine rescue exercise. We have broken new ground 
toward access in the Far East by initiating a C-17 squadron 
relationship with a Russian strategic lift unit in the Far East and 
through preparation for Pacific Eagle, a U.S-Russia naval exercise 
building common operating procedures for humanitarian assistance, 
disaster relief and search and rescue responses. We hope to host the 
newly appointed Russian Far East Military District Commander at PACOM 
in Hawaii and the Russian Pacific fleet commander at U.S. Seventh Fleet 
and U.S. Pacific Fleet headquarters in Japan and Hawaii, respectively. 
In addition to interoperability, one of our major goals is to increase 
lower-level exchanges and exercise interaction between PACOM and 
Russian forces.
Sri Lanka
    The ongoing civil war between the Liberation Tigers of Tamil Eelam 
(LTTE) and the Government of Sri Lanka (GSL) is a continuing source of 
regional instability and loss of life. U.S. focus remains on 
facilitating a negotiated settlement that meets the needs of the 
Sinhalese, Tamil, and other communities. The PACOM security cooperation 
programs with Sri Lanka Armed Forces support their ability to deter 
renewed violence, improve maritime security capabilities, and 
institutionalize respect for human rights. Sri Lanka has been approved 
for $10.88 million in fiscal year 2006 1206 ``train and equip'' funds. 
These funds will assist in the Sri Lanka Armed Forces' ability to 
identify and interdict illegal international arms shipments.
Nepal
    Political upheaval has curbed military engagement with PACOM. The 
end of the 10-year insurgency and the recent inclusion of former Maoist 
insurgents in the government have not brought about the desired 
national stability. Continued Maoist refusal to fulfill promises to 
disarm, return confiscated property, and cease intimidation and 
extortion cast a shadow of doubt on the future of democracy in Nepal. 
We remain hopeful that the recent political agreement will result in 
lasting peace, opening the way for democratic rule and economic 
development. In the interim, PACOM security cooperation focuses on non-
lethal assistance with an emphasis on professional military development 
and human rights education for the Nepal Army, which remains a positive 
force for stability and security in the country.
Bangladesh
    Political turmoil and the increasing influence of extremists in 
Bangladesh are growing challenges to both national and regional 
stability. Political violence led to a decision--backed by the 
Bangladeshi armed forces--to postpone elections and retain the civilian 
interim government. PACOM objectives are to assist Bangladesh in 
combating extremism by enhancing counterterrorism capabilities, 
improving land and sea border control, and promoting a professional 
military that adheres to human rights and respects civilian control of 
the military. PACOM further seeks to enhance Bangladeshi ability to 
contribute to international peacekeeping missions and to increase their 
capacity to conduct domestic humanitarian assistance and disaster 
relief missions.
    Our security relations are good and steadily improving with 
Malaysia, a country whose importance and influence increasingly extends 
beyond its regional neighborhood. In addition to chairing the 
Organization of the Islamic Conference, Malaysia recently hosted the 
Nonaligned Movement and Asean Regional Forum. Malaysia remains active 
by leading the peace monitoring mission in southern Philippines, and 
has contributed peacekeeping troops to East Timor and Lebanon.
    In other areas of interest, Malaysia has demonstrated strong 
leadership in maritime security with its littoral partners, fostering 
support for the ``Eyes in the Sky'' initiative to increase maritime 
surveillance. These efforts contributed to the decision last year by 
Lloyds' of London to declassify the Strait of Malacca as a high-risk 
war zone. The new Malaysian coast guard, the MMEA, continues to 
develop, and take on greater responsibility for maritime patrol.
Vietnam
    Our military-to-military relationship with Vietnam is advancing 
steadily through high level visits and new initiatives for defense 
cooperation such as additional language and disaster response training 
and information exchange of weather forecasting data. In January, 
Vietnam agreed to allow the conduct of recovery operations of missing 
U.S. personnel in territorial waters using U.S. vessels. Vietnam 
prominence in the region has increased with its hosting of the Asia-
Pacific Economic Council Summit and accession to the World Trade 
Organization. As their level of confidence and engagement grows, we 
expect Vietnam to pursue a more active regional role and greater 
security cooperation with the U.S.
Cambodia
    PACOM and the Royal Cambodian Armed Forces (RCAF) are beginning to 
cooperate closely on counterterrorism, peacekeeping, disaster response 
and medical and health related activities. Last year, PACOM conducted 
an assessment of RCAF requirements to better understand their needs and 
determine a way-ahead to professionalize the RCAF in the post-Khmer 
Rouge era. In February 2007, the U.S. Pacific Fleet made the first ship 
visit to Cambodia since the Vietnam War, demonstrating a strengthened 
military-to-military relationship.
Laos
    We are slowly building security-related activities with Laos beyond 
traditional humanitarian assistance cooperation. As demonstrated during 
the January 2007 Technical Talks with PACOM, the Lao Peoples' 
Democratic Republic (PDR) leadership is receptive to increased 
engagement focused initially on education and language training for 
mid-level and senior officers. As the Lao PDR forces become more 
comfortable with our bilateral interaction, we expect to increase the 
pace of military-to-military activities to include greater cooperation 
in humanitarian assistance, disaster response training, and exchange of 
personnel.
New Zealand
    New Zealand is strongly supportive of our efforts in the war on 
terror. New Zealand forces are leading a Provincial Reconstruction Team 
in Bamyan Province, Afghanistan and have placed additional troops in 
Bagram. They are also an active, stabilizing force in the Pacific 
Islands, with their soldiers supporting security efforts in East Timor, 
the Solomon Islands, and Tonga. The Government of New Zealand's 1987 
legislative ban of nuclear-powered ships in its waters remains an 
obstacle to improved military-to-military relations. However, they 
continue to provide outstanding support to Operation Deep Freeze 
missions enabling U.S. scientific exploration in Antarctica.
Compact Nations
    PACOM values our special relationship with the three Compact 
Nations--the Federated States of Micronesia, the Republic of the 
Marshall Islands, and the Republic of Palau. The Marshall Islands host 
the Ronald Reagan Ballistic Missile Defense Test Site, integral to the 
development of our missile defense programs and conduct of space 
operations. The proud citizens of these nations continue to serve with 
distinction in the U.S. Armed Forces and Coast Guard. The U.S. Army 
Pacific's Joint Task Force for Homeland Defense has taken the lead as 
we partner with these nations to ensure our mutual defense as set forth 
in the Compacts of Free Association. Additionally, we fully support 
initiatives to expand operations to protect their valuable economic 
exclusion zone resources.
East Timor
    Progress in East Timor remains hindered by weak institutions, 
political infighting, poor education and extreme poverty. Australia and 
the United Nations Interim Mission in Timor (UNMIT) facilitated 
security and stability in advance of the April 2007 presidential 
elections (with inconclusive results, a runoff election is scheduled 
for next month). PACOM works to complement UMINT and the Australian 
Defence Force (ADF) with humanitarian assistance and International 
Military Education and Training (IMET), while the Department of Justice 
provides police training through the International Criminal 
Investigative Training Assistance Program. PACOM also provided 
strategic airlift to support the deployment of Australian soldiers 
following rampant violence in East Timor during May 2006.
Security Assistance
    One of the most important features of PACOM theater security 
cooperation in the region is our partnership with the Department of 
State and U.S. Embassy country teams, which facilitates military-to-
military interaction with allies and emerging partners. Powerful 
engagement tools for building security partnerships with developing 
countries include International Military Education and Training (IMET), 
and Foreign Military Financing (FMF). IMET advances U.S. and PACOM 
interests by educating participants on the principles of rule of law, 
human rights and good governance, promoting increased understanding and 
regional stability. FMF continues to prove its value by equipping and 
training regional partners. It is vital in supporting U.S. partners in 
achieving security goals of mutual interest, including the war on 
terror. However, Pacific region countries typically receive less than 1 
percent of the annual worldwide allocation of FMF. These investments in 
capacity building and prevention of the conditions which foster 
instability are very cost-effective and merit increased funding.
    Other key programs in PACOM contribute more broadly to security 
cooperation by addressing transnational concerns. The periodic 
deployment of the hospital ship, U.S.N.S. Mercy, and outreach 
organizations like the Center of Excellence in Disaster Management and 
Humanitarian Assistance (COE) and the Asia-Pacific Center for Security 
Studies (APCSS) provide foundational expertise while establishing 
enduring relationships between nations of the region. Additionally, 
Joint POW/MIA Accounting Command is a powerful tool in our efforts to 
improve relationships in the region, particularly in Southeast Asia.
U.S.N.S. Mercy Deployment
    Our experience with the 2004 Indian Ocean tsunami relief effort 
revealed the tremendous influence of DOD-led humanitarian operations in 
reinforcing a positive view of the U.S. while countering ideological 
support for terrorism. Since then, we have adjusted our priorities and 
resources to achieve those effects through deliberately planned 
humanitarian assistance efforts. The paramount event of this type in 
2006 was the deployment of the Navy hospital ship U.S.N.S. Mercy. 
During a 5-month period, Mercy conducted ten humanitarian visits among 
predominantly Muslim populations in South and Southeast Asia. We 
augmented the Mercy medical complement with hundreds of volunteers from 
nongovernment organizations and military medical personnel from eight 
partner countries. Among a wide array of assistance work, the Mercy 
team treated over 60,000 individuals including a thousand complex 
surgeries. Events of this type will continue to be central to our 
security cooperation efforts in the PACOM AOR.
        mature our joint and combined capabilities and readiness
    Fundamental to success in the war on terror and continued stability 
in the Asia-Pacific region is our Joint Training Program. Virtually 
every operation and activity is conducted jointly and in concert with 
allies, making it important that we train to operate more effectively 
as a multinational team.
    The PACOM joint training plan is specifically designed to mature 
joint and combined warfighting capabilities and readiness and to 
advance security cooperation while using resources more effectively. We 
have taken several steps to maximize scarce training dollars and 
minimize unnecessary stress on the force. For example, Joint Task Force 
certification is accomplished through existing exercises rather than 
new events. By leveraging rotational forces in theater and aligning 
service exercises to create joint training opportunities, we also met 
obligations with partners and allies, enhanced training opportunities, 
and improved interoperability between regional militaries. Combining 
Joint Exercise Keen Edge with Army Exercise Yama Sakura resulted in 
efficiencies while continuing to demonstrate our strong commitment to 
Japan.
    GPOI is a Presidential and G-8 program to expand and train 
competent and professional Peacekeepers worldwide, and is a key 
component in building combined capabilities in the AOR. The PACOM GPOI 
program takes advantage of existing host nation programs, institutions 
and exercises like Khaan Quest in Mongolia. We facilitate long-term 
sustainment and enduring impact of the peacekeeper initiative by using 
a ``train-the-trainer'' concept, standardizing training with U.N. 
guidelines, and conducting combined, multilateral training events that 
foster cooperation, not competition, among countries.
    This past year, PACOM GPOI efforts trained more than 700 tactical 
peacekeepers, 198 qualified staff officers, and 50 trainers from 
Mongolia, India, Thailand, Tonga, Korea, and Bangladesh. Most will 
deploy to a coalition or U.N. peacekeeping mission within the year. The 
Mongolians are supporting U.N. missions in Western Sahara, Congo, 
Sierra Leone, Ethiopia, and Entrea as well as a seventh rotation to 
Iraq and a sixth rotation to Afghanistan. Indonesia, Fiji, Sri Lanka, 
and Nepal are newly approved GPOI participants in fiscal year 2007.
    Maturing our capability and readiness also requires operational 
improvement that not only spans the spectrum of mission types--from 
nontraditional to combat operations--but also reflects the maritime 
nature of our theater.
Undersea Superiority
    Continued improvement of air, surface, subsurface, C\4\I systems, 
and acoustic modeling and navigation charts through oceanographic 
surveys, and cooperative training and operations with partners and 
allies will enhance our ability to operate effectively in the maritime 
domain. As demonstrated by the PLA Navy Song submarine operating in 
vicinity of U.S.S. Kitty Hawk Strike Group, we must work to maintain 
our operational advantage in the face of fast-paced PLA-N modernization 
and ever-expanding area of operations.
Maturing Theater Intelligence Capability
    Enhancing information sharing among allies and partners is crucial 
to success in the war on terror and regional stability. We are 
developing intelligence modernization programs with several regional 
partners, helping them improve the professionalism and quality of their 
intelligence institutions. We continue to close the gap between 
intelligence and operations by embedding U.S. experts in partner nation 
intelligence organizations, assisting them to assess their military 
intelligence capabilities, and hosting annual multinational 
intelligence working groups to foster multinational cooperation.
Persistent Surveillance
    The limited persistence of U.S. intelligence collection systems 
makes it difficult to readily gauge other nations' military capability, 
readiness, and operations. At the current time, it is difficult to 
judge intent or rate of escalation in a crisis. We are further 
challenged in tracking high value individuals in the war on terror, 
maintaining real-time status of ballistic missile launch preparations, 
or monitoring suspected WMD proliferation.
Command and Control (C2)
    PACOM requires secure, integrated, standardized, and interoperable 
command and control capabilities. This includes robust networks to 
enable horizontal and vertical information sharing and collaborative 
planning across the full spectrum of joint, and multinational 
operations throughout the Asia-Pacific region. Key vulnerabilities 
threaten the commander's ability to effectively command and control 
joint and/or coalition forces and effectively share information with 
our partners.
    A single facility provides tactical access to the Defense 
Information Systems Network within the Pacific theater. If this 
critical network infrastructure suffers a catastrophic failure from 
attack or natural disaster, there is no redundant capability to fully 
restore PACOM communication requirements for the war on terror, 
Ballistic Missile Defense, and execution of standing operations plan. 
Correcting this single point-of-failure involves the construction of an 
additional telecommunications area master station within the PACOM AOR 
at an approximate life cycle cost of $600 million. This new master 
station will provide redundant and reliable communications for both 
PACOM and Central Command. Satellite failures as well as funding cuts 
and delays in follow-on SATCOM systems have also reduced communications 
availability of Military SATCOM. PACOM is actively engaged with the 
national satellite community to ensure satellite and terminal programs 
are synchronized and address this availability gap. The DOD 
communications infrastructure also remains vulnerable to exploitation 
and attack. PACOM continues to work with the DOD Information Assurance 
community to increase the security posture of critical C2 networks 
through real-time analysis of ongoing intrusion threats.
    Expanding coalition communication networks is essential to support 
PACOM missions. The Assistant Secretary of Defense for Networks and 
Information Integration and the Joint Staff are implementing a new 
Multinational Information Sharing (MNIS) program and have designated 
MNIS-Combined Enterprise Regional Information Exchange System as the 
DOD standard for multinational networks. The goal of this program is to 
build and sustain a single network that supports multinational 
information sharing requirements. PACOM strongly supports this 
initiative.
Missile Defense
    The North Korean short- and medium-range ballistic missile launches 
in July 2006 highlighted the need for a robust, active missile defense 
capability in the AOR. The long-term strategy for missile defense in 
PACOM is to establish a forward-deployed, layered, integrated air and 
missile defense system. Once matured, this system should be capable of 
intercepting threat missiles throughout the entire time of flight and 
must be interoperable with our regional partners. Specific initiatives 
include moving a U.S. Patriot PAC-3 Battalion to Kadena Airbase in 
Japan, forward stationing of Aegis Standard Missile-3 (SM-3), deploying 
the first Forward-Based X-Band Transportable radar to Japan, and 
establishing a permanent joint command and control facility for 
integrated air and missile defense within the Pacific Air Forces 
Headquarters. To further our missile defense capabilities, PACOM would 
benefit from forward deployment of a Terminal High Altitude Air Defense 
unit, increased inventories of Patriot PAC-3 and SM-3 missiles, and 
accelerated development of a sea-based terminal defensive capability.
Strategic and Intratheater Lift
    There is a shortage of responsive strategic air and ship lift to 
support force sustainment and deployment to operating areas. 
Insufficient strategic airlift capability of C-17 and C-5 aircraft 
could cause delays in the arrival of critical cargo and passengers. 
PACOM has eight C-17s based at Hickam AFB, Hawaii, and is looking 
forward to basing eight more at Elmendorf AFB, Alaska, starting in June 
2007. Pacific-based C-17s bring an increased reliability, versatility, 
and delivery capacity to the theater. An increase in Pacific-based C-
17s, should they become available, would be helpful.
High-Speed Vessels
    Leased High-Speed Vessels (HSVs) have demonstrated their value in 
the Pacific theater, supporting unit training, joint exercises, global 
war on terror requirements, and humanitarian missions such as the 
tsunami disaster relief effort. They have served as valuable platforms 
for intratheater lift, providing a cost-effective alternative and 
highly flexible augmentation to scarce intratheater airlift assets. As 
the Army continues to transform, the Joint High-Speed Vessels (JHSVs) 
will be increasingly critical in the rapid deployment of the Stryker 
Brigade Combat Team forces throughout the theater. PACOM favors 
continued leasing of HSVs as an interim capability, and strongly 
supports a more aggressive acquisition process to expedite JHSV 
delivery. This capability will fully support Theater Security 
Cooperation Plans and response to disasters, and is also useful as a 
mobile sea base to facilitate security cooperation. This capability 
will be increasingly important with the pending relocation of forces to 
Guam and throughout the theater.
Prepositioned Stocks/Preferred Munitions
    Due to the time-distance challenges in this theater, PACOM forces 
require readily available and properly maintained prepositioned stocks 
at the outset of any conflict. With the recent download of the APS-3 
afloat equipment sets to support Iraq-bound Army units and the existing 
shortages in the remaining pre-positioned programs, we now have a 
greater need for replenishment of equipment and stocks. Achieving the 
appropriate mix of key munitions, particularly GPS-aided and laser-
guided weapons to include Guided Multiple Launch Rocket System, new 
Patriot PAC-3 missiles, Advanced Medium Range Air to Air Missile 
(AMRAAM) version C-7, and the Joint Air-to-Surface Standoff Missile, is 
imperative.
    Acquisition and Cross-Servicing Agreements (ACSAs) enhance 
interoperability, readiness, and provide a cost effective mechanism for 
mutual logistics support between U.S. and allied or partner military 
forces. ACSAs have been particularly helpful in the conduct of war on 
terror operations. For example, we have made extensive use of the 
current agreement with the Republic of the Philippines to support the 
AFP operations against terrorist cells in that country. With the 
recently concluded agreement with Sri Lanka, PACOM has a total of 12 
ACSAs in place, with 14 additional countries within the AOR currently 
ACSA-eligible. We are currently in the renewal process with the 
Philippines and Tonga, negotiating an agreement with India, and we are 
hopeful interest by Maldives will yield results. We view these 
agreements as vital in maximizing our interoperability and helping 
build competent coalition partners in the Pacific region.
           posture forces for agile and responsive employment
    The Asia-Pacific region holds both great potential benefit and 
ongoing challenges for the United States. The region is home to some of 
our most stalwart security allies and partners--Japan, Australia, 
Korea, Thailand, the Philippines, and Singapore--a rising military 
power in China and burgeoning relationships with India and Vietnam. 
U.S. force presence--in Japan, Korea, and across the Asia-Pacific AOR--
has long been a guarantor of peace and stability in the Asia-Pacific.
    Changes in PACOM force posture reflect the priorities of the 
Quadrennial Defense Review, which seeks to strengthen U.S. response to 
emerging security threats. We are taking advantage of technology to 
enhance our effectiveness and combat power while simultaneously 
reducing our military footprint in Asia. At the same time, we are using 
our increased mobility to guarantee presence where and when needed to 
respond to security challenges.
    We continue to develop and refine plans to reposition and realign 
our forces in Japan, Guam, and Korea following the agreements reached 
through the U.S.-Japan Defense Policy Review Initiative (DPRI) and the 
U.S.-ROK Future of the Alliance (FOTA) Talks. The goals of our evolving 
force posture are to improve the effectiveness of our alliances with 
these two vital allies while providing the flexibility and agility to 
employ U.S. forces worldwide.
    The U.S.-Japan DPRI discussions reached a milestone in May 2006, 
when Secretary of State Rice and former Secretary of Defense Rumsfeld, 
together with their Japanese counterparts, released the Roadmap for 
Realignment, which specifically defined the interrelated initiatives, 
plans and schedules for a number of posture realignment initiatives 
that will ensure an enduring U.S. presence in the Asia-Pacific. The 
linchpin for repositioning our forces in Japan is the relocation of 
Marine Corps Air Station Futenma functions from the current facility to 
a new, less encroached area in central Okinawa. This new facility will 
enable us to return the existing Futenma facilities, including several 
acres of highly desirable land, to the government of Japan, and will 
lessen the impact of military aviation operations on the local Okinawan 
populace. We will also move 8,000 marines and their dependents from 
Okinawa to Guam. This action will return additional land to Japan while 
retaining a forward-based Marine presence in the PACOM theater. 
Additionally, we intend to look for more opportunities to leverage our 
interoperability with Japan, such as ballistic missile defense 
cooperation, to better align our capabilities and forces to respond to 
potential security challenges.
    As part of our realignment efforts, PACOM is actively supporting 
various Service planning and infrastructure expansion initiatives that 
are crucial to our force bed-down plans in Guam. Our activities are 
closely linked with Service initiatives as well as our broader theater 
security cooperation efforts. We are finalizing construction details 
and expect to begin upgrades to the military infrastructure, housing 
and training facilities in 2010. The Joint Guam Program Office, led by 
the Department of the Navy, will manage all aspects of the project. 
While Japan will bear approximately $6 billion of the costs of 
facilities and infrastructure development to support relocation of 
Marine units from Okinawa to Guam, we must also do our part and 
financially commit to the required upgrades and changes. Managing the 
construction effort will require coordination from all branches of the 
military and active participation and planning from other Federal and 
territory agencies.
    On the Korean peninsula, with the full support of the ROK 
government, we are reducing and consolidating our footprint into two 
hubs south of the Han River. We continue to transfer missions to the 
ROK military, and modernize our combined combat force capabilities. As 
part of the Security Policy Initiative--the successor to our FOTA 
effort--we have agreed with the ROK government to complete the transfer 
of wartime operational control of ROK forces by April 2012. With this 
agreement, we envision a future force with increased strategic 
relevance, flexibility, and responsiveness.
          ensure operational plans at all levels are credible
    Operational and contingency plans are the basis for PACOM response 
to security challenges. Our planning construct, with renewed emphasis 
on phase zero engagement activities, is designed to synchronize actions 
across the full spectrum of U.S. national power. Emphasis on peacetime 
shaping has significantly improved plan development and generated more 
options for senior decision makers across a wider range of crisis 
scenarios. Our primary effort remains to prevent conflict and ensure a 
stable and secure environment within the region. Should deterrence 
efforts fail, our plans are designed to be successful during all phases 
of crises.
    We validate our planning efforts through annual exercises, such as 
Reception, Staging, On-ward Movement, and Integration and Ulchi Focus 
Lens, which enable us to closely examine potential friction points in 
our plans and develop response options which optimize capabilities. 
Exercises also help the staff to analyze strategic and operational 
goals should the plan become a reality.
    U.S. forces also conducted joint Exercise Valiant Shield in June 
2006 in the waters off Guam, bringing together U.S. Air Force and U.S. 
Navy personnel and assets to work through a range of warfighting skills 
such as maritime interdiction and command and control. This exercise, 
the greatest concentration of naval and air power in the Western 
Pacific since the Vietnam War, demonstrated joint command, control and 
communications of U.S. forces while highlighting continued U.S. 
commitment to allies and friends of the region. We also hosted 
observers from many nations, including China.
    PACOM has developed a robust plan in support of our national 
strategy for a pandemic influenza (PI) response and is prepared to 
support lead agencies (Department of Homeland Security, Department of 
Health and Human Services, U.S. Department of Agriculture, and 
Department of State) at a national level. We are working closely with 
other geographic and functional combatant commands to refine and 
exercise comprehensive PI response actions.
    We are also working to assess activities that support the 
development and execution of operational and contingency plans. From 
peacetime security cooperation to winning the fight against terrorism, 
we are evaluating support of all elements of national power to ensure 
our approach is comprehensive, efficient, risk managed and measurably 
effective.
                           quality of service
    PACOM forces continue to make a difference not only in the region 
but also in Iraq and Afghanistan. The performance of our people during 
this past year has been exemplary. Contributing to their steadfast 
devotion to duty is the knowledge that others, including Congress, are 
actively concerned for their health and well being. We appreciate the 
2.2 percent pay raise, special benefits for injured and recuperating 
personnel and their families, the government match for the Thrift 
Savings Plan for civilian personnel, and expanded authorities for our 
Reserve component men and women. Continued support of these Quality of 
Service initiatives contributes immensely to our combat readiness and 
the retention of our highly-skilled personnel who serve our national 
interests at home and abroad.
                           summary statement
    PACOM long-term priorities emphasize a region that is stable, 
secure and at peace. We are engaged extensively throughout the AOR to 
advance theater security goals. We are committed--along with our allies 
and partners--to turn the promise of a stable and secure region into 
reality and convert challenges into opportunities that strengthen 
regional relationships and cooperation. We are fortunate to have 
traditional allies and partners, as well as emerging partners, who are 
willing to help set conditions for security and stability and work 
together for the common good of the people of the Asia-Pacific. We 
appreciate the staunch support of Congress and American people. I am 
proud and honored to represent the men and women of PACOM. On their 
behalf, thank you for your support, and thank you for this opportunity 
to testify on the defense posture in the PACOM AOR.

    Chairman Levin. Thank you very much, Admiral. General Bell.

 STATEMENT OF GEN BURWELL B. BELL III, USA, COMMANDER, UNITED 
 NATIONS COMMAND AND REPUBLIC OF KOREA/UNITED STATES COMBINED 
      FORCES COMMAND COMMANDER, UNITED STATES FORCES-KOREA

    General Bell. Thank you, Mr. Chairman, distinguished 
members of the committee, it's good to see all of you again. I 
want to thank all of you for your continued support for our 
servicemembers serving in Korea. For the record, I'd like to 
submit my 2007 Posture Statement.
    Chairman Levin. Thank you, it will be made part of the 
record.
    General Bell. Thank you, sir. Sir, I've commanded U.S. and 
Combined Forces in Korea now for over a year, and I can report 
to you, the ROK/U.S. Alliance is enduring, and it continues to 
function as a pillar for regional stability in that area of the 
world.
    Today, we're working with our Korean partner to evolve our 
alliance to meet both nations' 21st century security 
requirements, and strengthen our position in that U.S. vital 
national interest area.
    For 54 years now, our alliance has successfully deterred 
North Korean aggression. We all remain hopeful that the 
progress made in the latest round of Six-Party Talks will 
result in a denuclearized North Korea. Nonetheless, I remain 
cautious about North Korea's long-term intentions.
    Kim Jong-il has a history of manipulating the international 
community in an attempt to shape the political and military 
environment to meet his objectives. His highly provocative 
military actions this past year, including unprecedented 
missile firings, and the detonation of a nuclear device, 
represent a continuing threat to international peace and 
security worldwide.
    Since its inception nearly 30 years ago, the Combined 
Forces Command, which I command, has been the warfighting 
command of the U.S.-ROK Alliance, and for the past several 
years we've been consulting with the ROK regarding alliance 
transformation, and the re-stationing of U.S. Forces.
    Recently, the ROK and the United States agreed to 
transition operational command and control of the ROK military 
forces in wartime, from combined forces command, to an 
independent ROK military command, in 2012.
    We will inactivate Combined Forces Command, and establish a 
new U.S. independent warfighting command on the Korean 
Peninsula. The United States will retain clear national command 
over all of our forces and personnel in this future 
arrangement.
    Our force re-stationing to consolidated and enduring hubs 
south of Seoul will allow us to focus on improving living and 
working conditions for our servicemembers and their families 
while also providing our forces--strategic and operational--
flexibility. The ROK has agreed to fund a significant majority 
of our moving expenses, including a significant majority of the 
new construction that will be required.
    To synchronize our contributions to both Iraq and U.S. in 
this re-stationing effort, our sustained access to several 
different U.S. programs is going to be essential, including 
commercial build-to-lease programs.
    In view of this, I do request your full support for our 
fiscal year 2008 legislative request to adjust our lease caps 
for build-to-lease housing in Korea. This will empower the Army 
to actively solicit build-to-lease housing options for our 
servicemembers and their families, thus enabling our move to 
South of Seoul. Without the housing, we cannot make this move.
    Though our mission in Korea has been a resounding success, 
and serves as a model for military response to aggression, 
leading to peace, prosperity, and democracy, today only 2 
percent of the U.S. Active Duty military serves in Korea, the 
war there ended 54 years ago. It's time to begin the process of 
ending what I consider to be a 1-year war zone rotational tour 
mechanism, which needlessly adds to our high worldwide 
operational tempo, while handicapping our readiness and our 
engagement opportunities with our long-time Korean ally. I'm 
advocating 3-year, normal accompanied tours as an objective, 
and a goal that we should work towards in Korea, and I would 
appreciate your support as I work this initiative over the next 
several years.
    Sir, I appreciate the opportunity to be here today, and I 
look forward to answering your questions. Thank you very much.
    [The prepared statement of General Bell follows:]
              Prepared Statement by GEN B.B. Bell III, USA
    Mr. Chairman, and distinguished members of the committee, thank you 
for the opportunity to appear before you today as Commander, United 
Nations Command (UNC); Commander, Republic of Korea (ROK)-United States 
Combined Forces Command (CFC); and Commander, United States Forces-
Korea (USFK). It is my distinct honor to represent the soldiers, 
sailors, airmen, marines, and their families who serve in the ROK. On 
behalf of these outstanding men and women who serve our country 8,000 
miles from home, I thank you for your unwavering commitment to 
improving the quality of life of our servicemembers and their families. 
Your support allows us to contribute to ensuring security on the Korean 
peninsula while promoting prosperity and stability in Northeast Asia. I 
appreciate this opportunity to present my assessment of the command and 
our plan for continued transformation of the ROK-U.S. Alliance.
    Forged in war, this Alliance has preserved the peace, promoted 
democracy, and provided prosperity for the citizens of the ROK, and the 
region, for over five decades. The ROK-U.S. Alliance is more than a 
military relationship; it is a comprehensive and enduring partnership 
that promotes freedom, prosperity and democracy in the Northeast Asia 
region and the world. A new generation of South Korean leaders, 
cognizant of their national achievements, is eager to achieve what they 
see as a more equitable relationship with the United States. The United 
States supports this and is working with the ROK to evolve the Alliance 
to meet the requirements of the future security environment. We are 
transforming the Alliance into one that is capable of meeting 21st 
century challenges and respects the needs and aspirations of both 
nations.
    Currently, in wartime all forces in the Korea Theater of 
Operations, including ROK forces, are commanded by the U.S. led CFC. 
Over the past few years and while remaining strong supporters of the 
Alliance, the Government of the ROK has expressed a firm desire to 
assume primary responsibility for its own defense, with the U.S. in 
more of a supporting role. The ROK Government views the command 
arrangements of the U.S. led CFC as representing a level of 
infringement on their national sovereignty. The ROK Government 
expresses this desired defense policy in terms of ``ROK Self 
Reliance.'' The United States agrees that, with the application of 
selected bridging strategies, the ROK Government and military are 
capable of assuming full command responsibility for their own forces in 
wartime, which will move the U.S. contribution to a key but supporting 
role.
    Recently, our governments agreed to transition wartime operational 
command and control (OPCON) of ROK forces to the ROK military in 2012. 
This will result in the inactivation of the current U.S. led CFC, and 
the establishment of a U.S. independent, complementary and supporting 
joint command in Korea. In the future, United States forces in Korea 
will be more air and naval centric, while continuing to support the 
superb ground forces of the ROK. I assess the Armed Forces of the ROK 
will be ready for this transition, and I am working closely with our 
Ally to make it smoothly with no degradation to ROK security, while 
ensuring the ROK-U.S. Security Alliance remains strong and viable.
    Transferring wartime OPCON of ROK forces to the ROK will open a new 
and positive chapter in the long and proud history of the Alliance. It 
will likely occur in a challenging security environment. North Korea 
continues to challenge international conventions and presents a clear 
threat to the region and the world. Emerging security dynamics on the 
peninsula and in the region, and North Korea's attempts to divide the 
ROK-U.S. Alliance, reinforce the need for our strong Alliance. We will 
remain in South Korea as a trusted and reliable ally as long as we are 
welcome and wanted.
               i. the northeast asia security environment
    Northeast Asia is a dynamic region of economic might, varied 
cultures, and competing interests. The United States has significant 
long-term interests in Northeast Asia; namely, maintaining regional 
stability, fulfilling our commitments to friends and allies, promoting 
economic cooperation and promoting free market enterprise. The region 
accounted for approximately 24 percent of our Nation's total 
international trade for 2006. Stability in Northeast Asia is essential 
to the vitality of global and U.S. markets.
    U.S. economic integration with Northeast Asia represents a positive 
reinforcement toward regional stability. Our military presence remains 
essential in a region that includes five of the world's six largest 
militaries; three of the world's proven nuclear powers, including the 
United States; and North Korea, which has violated its own agreements, 
international security norms and standards, and continues to pose a 
proliferation threat. At the 38th Security Consultative Meeting in 
Washington DC, the United States, and the ROK condemned, in the 
strongest terms, North Korea's 2006 nuclear test and missile launches. 
These overt provocations are a clear threat to international peace and 
security as well as the stability of the Korean Peninsula. The Alliance 
remains committed to the peaceful and diplomatic resolution of this 
issue as we continue to deter aggression and stand ready to defeat 
North Korean aggression.
        ii. north korea challenges regional and global security
    North Korea remains the key de-stabilizer in Northeast Asia. It 
continues to devote disproportionate resources (around 30 percent of 
its gross domestic product) to improving its asymmetric military 
capabilities and maintaining a large, forward-deployed conventional 
force. With little notice, these forces can conduct a wide spectrum of 
provocative acts or launch an attack, potentially resulting in a large 
number of casualties and significant destruction in a matter of days.
North Korea's Strategy and Goals
    Kim Jong-il repeatedly attempts to divide the ROK-U.S. Alliance in 
an effort to exploit any issues that emerge between the two governments 
and sew doubts about Alliance cohesion. Alternating these provocations 
with engagement overtures, in the past Kim Jong-il has allowed 
carefully controlled inter-Korean social and economic exchange, 
garnered financial benefits for his regime and offered only vague 
promises for future cooperation. Often emphasizing symbolism over 
substance, North Korea has projected a cooperative appearance for 
public consumption while taking only limited steps toward 
denuclearization or reducing tensions. While the 13 February agreement 
in Beijing is a positive step, and the ongoing Six-Party Talks continue 
to offer the best route towards resolution of North Korea's nuclear 
aspirations, North Korea's record of noncompliance with past agreements 
suggests a difficult road ahead.
    Domestically, Kim Jong-il ensures internal stability by maintaining 
absolute power. He perpetuates confrontation with Washington and the 
region to justify his ``military first'' societal policy. His scarce 
resources are diverted to support the military and regime elite at the 
expense of the general population. Although reunification of the 
peninsula under North Korean control remains the primary stated 
objective of the regime, Kim's pervasive system of ideological, 
political, and physical control aims to ensure the population presents 
no threats to his rule.
North Korean Nuclear and Ballistic Missile Programs
    North Korea continues to develop and hone asymmetric military 
capabilities as a deterrent and force-multiplier. It furthers nuclear 
weapons programs as a political instrument to deter perceived threats 
to Kim Jong-il's rule, while offering an opportunity to coerce 
neighboring countries. Following its early 2005 declaration of a 
nuclear weapons capability, North Korea conducted its first nuclear 
test on October 9, 2006. The device was low yield but significantly 
raised tensions and concerns over the potential for additional tests, 
and North Korean nuclear proliferation. Unless the Six-Party Talks 
process prevails, we expect North Korea to continue nuclear weapons 
research and development to perpetuate its strategy of intimidation. If 
the Six-Party Talks do not produce a lasting settlement, the North 
Koreans will likely conduct a second and potentially additional nuclear 
tests when they see it as serving their purposes.
    North Korea has continued to produce plutonium from spent fuel rods 
obtained from its Yongbyon nuclear facility in violation of its 
international agreements to denuclearize the Korean Peninsula. North 
Korea claims weapons-grade plutonium was processed from spent fuel rods 
produced at the reactor over the last 3 years, and others stored at 
Yongbyon since 1994. If these claims are accurate, North Korea may now 
possess as much as 40-50 kg of plutonium, enough to produce several 
nuclear weapons. This reactor is not used for electrical power 
generation, but is used primarily for plutonium production.
    In addition, North Korea is reported to be pursuing a Highly-
Enriched Uranium (HEU) weapons development program as an alternative 
route to nuclear weapons. A HEU program could provide weapons grade 
material even if North Korea agrees to halt plutonium processing. 
Without a diplomatic settlement, Pyongyang's plutonium production 
capability and its reported HEU program places it on track to become a 
moderate nuclear power, potentially by the end of the decade.
    The regime views its ballistic missile program as a source of 
international power and prestige, a strategic deterrent, a means of 
exerting regional influence, and a source of hard currency derived from 
exports. As a result, North Korea continues to design, develop, 
produce, and proliferate ballistic missiles, and may ultimately aim to 
develop nuclear armed missiles to threaten regional countries, and even 
the U.S. For example, North Korea is developing a new solid propellant 
short-range ballistic missile, which it last successfully test-fired in 
March 2006. Once operational, this missile will be more mobile, more 
rapidly deployable, and more capable of being launched on shorter 
notice than current systems. North Korea is also developing an 
intermediate range ballistic missile, capable of targeting U.S. forces 
as far away as Guam and possibly Alaska.
    From 4-5 July, 2006 North Korea successfully launched six SCUD and 
No Dong short- and medium-range ballistic missiles. Its launch of the 
Taepo-dong-2 Intercontinental Ballistic Missile (ICBM) failed early in 
flight. These launches marked the highest number of missiles ever fired 
by North Korea in a 24-hour period. The No Dong launches were the first 
in 13 years. Some were fired in the hours of darkness--a first for the 
North Koreans. These launches validated the operational status of North 
Korea's inventory of about 800 theater ballistic missiles targeting the 
ROK and Japan--intending to provoke regional tension.
    The Taepo-dong-2 ICBM launch demonstrated North Korea's abandonment 
of its 7-year, publicly-announced moratorium on longer-range missile 
development. It drew unanimous condemnation by the United Nations 
(U.N.) Security Council and further isolated Pyongyang from the 
international community. If North Korea's missile research and 
development program continues on its present course, and if they meet 
an objective of developing a nuclear device small enough to be mated 
with an ICBM, they could eventually field missiles capable of striking 
targets within the United States homeland with nuclear weapons.
    North Korea's sale of missiles and related technologies generates 
hard currency. It has aggressively marketed missile technology to 
developing countries throughout the Middle East, North Africa, and 
Asia, including Iran. North Korea will continue to design, develop, and 
produce ballistic missiles. The proliferation threat is real, 
demonstrated, and may not remain limited to conventional weapons. Given 
North Korea's ballistic missile proliferation record, Pyongyang could 
also decide to proliferate nuclear weapons technology, expertise, or 
material to anti-American countries, rogue regimes, or non-state 
actors.
North Korean Conventional Military Programs
    North Korea continues to emphasize its Special Operations Force 
(SOF) capabilities maintaining the largest force in the world with an 
estimated strength of over 80,000. Its personnel are chosen for 
political reliability, loyalty, are among the most highly trained North 
Korean troops, and have high priority for food and other resources. 
North Korea's SOF has significant capability to infiltrate the ROK and 
can conduct asymmetric attacks against a variety of targets. South 
Korea is particularly vulnerable to these type attacks, given its 
heavily urbanized and dense population of 49 million citizens living 
vertically in large cities.
    The North Korean People's Army is the fourth largest in the world. 
Though their equipment is aging and unsophisticated, it is forward 
deployed and remains capable of launching devastating attacks with 
little warning. Two hundred fifty long range artillery systems can 
easily fire on Seoul, a metropolitan area of over 20 million people, 
from their current positions. Over 60 percent of North Korean ground 
forces are situated within 100 miles of Seoul.
    North Korean conventional forces have some significant challenges. 
Even with its ``military first'' policy and the extraordinary 
commitment of over 30 percent of the Nation's GDP to the military, 
economic difficulties have had a debilitating impact on training levels 
and conventional force readiness over the past decade. It does not 
enjoy the military support that it once did from either China or 
Russia. It is doubtful the North Korean military in its current state 
could sustain offensive operations against the south.
North Korean Threat Outlook
    North Korea will continue to pose a threat to regional and global 
security until it changes its fundamental strategy. There is no 
indication the regime will curtail its efforts to split the ROK-U.S. 
Alliance, reduce disproportionate military spending, halt destabilizing 
illicit activities, or loosen its stranglehold on the North Korean 
people. Kim Jong-il has the option to continue to manipulate the 
international community by alternating provocations and engagement 
overtures in an attempt to shape the political and military environment 
to meet his objectives. It is because of this threat that during this 
year's Security Consultative Meeting in Washington, the United States 
reaffirmed its long standing commitment to continue, among other 
capabilities, to extend to the ROK the security of our nuclear 
umbrella.
    Another regional security threat is the risk of an internal North 
Korean domestic crisis. This is unlikely in my judgment; however, an 
internal crisis could trigger regime and North Korean instability or 
even potentially collapse. An implosion of the regime would almost 
certainly bring devastating consequences such as a bloody internal 
conflict, humanitarian crisis, mass refugees, or even loss of control 
over nuclear materials. Without a diplomatic breakthrough, North Korea 
will remain a threat to stability and security in Northeast Asia and to 
global security for the foreseeable future.
           iii. the republic of korea-united states alliance
    The ROK-U.S. Alliance has remained stalwart in its mutual and 
enduring commitment to peninsular and regional security. The Armed 
Forces of both nations are in the midst of an unprecedented 
transformation and realignment. By transferring appropriate roles and 
missions to the ROK military and consolidating U.S. forces into 
centralized hubs, we are improving our overall combined readiness and 
expanding the capabilities of ROK and U.S. forces to counter current 
and future threats.
The Republic of Korea Today
    Over the course of the Alliance's half-century of economic and 
security cooperation, the ROK has emerged as a vibrant democracy, first 
class economic power (by many measures the tenth largest economy in the 
world), and a major U.S. economic partner. Economic growth is fueled by 
global exports of innovative high technology and consumer goods. The 
ROK ranks as the U.S.'s seventh-largest trading partner, seventh-
largest export market, and is an important investment location for 
American companies.
    The South Korean government views a nuclear armed North Korea as an 
intolerable threat, and that a catastrophic collapse in the north would 
have extremely adverse consequences in the south. However, ROK 
perceptions of the North Korean conventional threat vary, especially 
among younger generations. As memories of American sacrifices in the 
Korean War fade, Korean citizens, seeking what they see as a more equal 
Alliance relationship question the importance of our long-standing 
Alliance. Many raise the issue of ROK sovereignty, and a desire for 
what they characterize as more self-reliance and independence. These 
generations, while not necessarily anti-American, have strong political 
views which are increasingly expressed in national policy.
    In its final year in office, the Roh administration's approach to 
inter-Korean relations is guided by its ``Peace and Prosperity'' 
policy, which primarily aims to further inter-Korean rapprochement 
through humanitarian assistance, family reunions, tourism, and trade. 
Seoul promotes gradual economic integration and reconciliation to 
provide the catalyst for a formal peace agreement replacing the 
Armistice Agreement. The United States supports this approach. However, 
the U.S. is concerned over the potential for aid, trade and salaries to 
be used for purposes other than those intended. Recent North Korean 
missile launches and the nuclear test delivered a major blow to the Roh 
administration's policies. Regardless, we do not assess that there will 
be a major shift in South Korean policies as a result of the upcoming 
2007 Presidential election process.
ROK-U.S. Alliance Today
    For the past several years, the United States and the ROK have been 
engaged in a formal process to evolve the Alliance to meet the demands 
of the future security environment. The Department of Defense (DOD) and 
Department of State, as well as the ROK Ministries of National Defense 
and Foreign Affairs and Trade, are conducting an ongoing dialogue on 
issues related to Alliance modernization and the realignment of U.S. 
forces in Korea. Consultations began with the Future of the Alliance 
talks, were succeeded by the ROK-U.S. Security Policy Initiative, and 
have led to agreements on the enhancement of our combined defense, 
deterrent capabilities, and transfer of wartime OPCON of ROK forces 
from CFC to the ROK military.
    These agreements have now entered the implementation phase. To 
support the realignment of U.S. forces, the ROK has committed 
significant resources to acquiring land for the relocation of our 
current Yongsan Garrison in Seoul, and the 2nd Infantry Division (2ID) 
north of Seoul under the Land Partnership Plan (LPP). This has not been 
politically easy and the efforts of the ROK Government and Ministry of 
National Defense deserve recognition. Under the Yongsan Relocation Plan 
(YRP) and the LPP and in accordance with our ROK-U.S. Status of Forces 
Agreement (SOFA), the U.S. returns vacated camp facilities, capital 
investments and land free to the Korean Government, while consolidating 
into two main hubs south of Seoul. When completed, we will have 
returned 59 camps and all their facilities and buildings to the ROK, 
including 109 acres in the middle of Seoul. Thus far, 30 camps have 
been returned. After consolidating and transforming, our forces will be 
in a much better position to support ROK defense and U.S. national 
interests. Additionally, our servicemembers and their families will 
also enjoy needed and greatly increased quality-of-life.
ROK Defense Initiatives
    The ROK is committed to increasing its defense capabilities in a 
range of materiel, communications and computers, and weapons 
procurement areas. Under its Defense Reform Plan 2020, the ROK has 
invested over $10 billion in capabilities modernization in the past 3 
years. The ROK military aims to develop a self-reliant, technology 
oriented, qualitative defense force that remains strongly allied with 
the United States.
    The ROK's Ministry of National Defense has requested an average 
defense budget increase of 11 percent per year until 2015 followed by 
an average increase of 9 percent until 2020. While the ROK defense 
budget has not met these annual goals yet (the increase in 2006 was 
about 9 percent of the desired 11 percent), the ROK Government is 
indeed effectively increasing their annual investment in military 
preparedness. The ROK National Assembly passed a reform bill aimed at 
reducing total force levels, overhauling the command and control 
structure, and fielding high-tech weaponry. The force reductions will 
take place over the next 13 years and will reduce overall (Active and 
Reserve) forces from about 3.7 million to about 2 million--a cut of 46 
percent. In this, the total Army (Active and Reserve) ground force 
reduction will be about 45 percent. Additionally, the ROK Government 
has initiated a reduction in the length of service for its conscript 
Army, from 2 years to 1\1/2\ years. Successful ROK execution of Defense 
Reform Plan 2020 will require long term legislative and budgetary 
support from the ROK Government. Additionally and as long as the 
Alliance has the responsibility to deter and if necessary defeat the 
substantial North Korean threat, close coordination of the ROK Defense 
Reform Plan 2020 with the United States through Alliance consultative 
processes will be necessary. As the ROK-U.S. CFC Commander, it is my 
assessment that ROK troop reductions and changes in conscription laws 
must not negatively impact the Command's deterrence and warfighting 
capability on the Korean Peninsula against the postured threat.
Transfer of Wartime Operational Control
    Given the advanced military and economic capability of the ROK, the 
next logical phase in the maturation of the ROK-U.S. Alliance is for 
the ROK to assume the primary responsibility for their own defense. The 
United States views this effort as an affirmation of the tremendous 
success of the Alliance since the end of the Korean War, and fully 
supports this change. U.S. and ROK civilian and military leaders have 
been discussing wartime OPCON transfer for nearly two decades as part 
of the normal progression of the Alliance. This is a natural 
evolution--one whose time has come both militarily and politically. 
Transitioning the Alliance to a new ROK-led military command and 
control structure in 2012 with U.S. and U.N. forces in doctrinally 
supporting roles will establish relationships that best serve both 
nations' interests and are well suited for the long-term. The United 
States desires that our future force contributions leverage our 
extremely quick reacting and readily available potent air and naval 
capability, while supporting the superb ROK Army ground forces to 
counter North Korean aggression. In transitioning to a doctrinally 
``supporting to supported'' military relationship, the Commander of 
USFK will maintain uninterrupted national command over all U.S. Forces.
    The United States and the ROK have also reached agreement on the 
strategic flexibility of U.S. forces in Korea. This was achieved during 
the January 2006 inaugural session of the Strategic Consultation for 
Allied Partnership ministerial-level talks between the United States 
Secretary of State and the ROK Foreign Minister on bilateral, regional, 
and global issues of mutual interest. The agreement has two basic 
tenets: the ROK supports the strategic flexibility of U.S. forces in 
Korea, and the United States respects the ROK's position that it shall 
not be involved in a regional conflict against the Korean people's 
will. The transfer of wartime OPCON reinforces these principles as the 
ROK assumes the lead responsibility for its defense, and the United 
States, in a supporting role, becomes more agile and flexible.
Allied Burden Sharing
    With the ROK's tremendous economic capacity and prominence in the 
international community, a balanced defense burden-sharing arrangement 
in support of United States forces in Korea is fundamental to the 
strength of the Alliance. Today, the ROK contributes approximately 2.6 
percent of its GDP to its national defense, while the United States 
expends around 3.9 percent for our defense. At the end of 2006, the ROK 
and the United States concluded talks on a new Special Measures 
Agreement (SMA) regarding ROK cost sharing support of U.S. forces in 
Korea for 2007-2008.
    In principle, both sides agreed to the goal of reaching an 
equitable level of cost sharing. The United States believes that to 
achieve equitable levels, the two allied nations should contribute 
approximately 50 percent each of the non-personnel stationing costs 
(NPSC) for U.S. forces in Korea. To date, the Korean Government burden-
sharing contribution to assist the U.S. in military stationing costs 
has been below this 50-50 ratio; the 2006 SMA contribution represented 
only 38 percent of the NPSC. For 2007, the ROK agreed to provide 725.5 
Billion Won ($770 million) as a direct contribution and to increase its 
level in 2008 with the rise in the 2006 Consumer Price Index (CPI). The 
ROK 2007 SMA contribution represents 41 percent of our NPSC, still 
short of the principle of equitable 50-50 cost sharing. As a result of 
SMA burden-sharing shortfalls, we are forced to stretch limited 
funding. I cannot allow readiness to suffer, and I will not allow the 
quality-of-life of my servicemembers or families to suffer. Without 
more equitable allied SMA funding, we may be forced to recommend a 
range of fiscal measures to the U.S. Government, including a review of 
base relocation and consolidation plans.
    Clearly, defense burden sharing is advantageous to both Alliance 
partners. For the United States, the ROK's willingness to equitably 
share appropriate defense costs is a clear indicator that U.S. forces 
in Korea are welcome, wanted, and held necessary by our host. For the 
ROK, an appropriate SMA investment gives them the presence and 
capabilities of the U.S. military. Additionally, 100 percent of ROK SMA 
burden-sharing contributions are returned directly into the Korean 
economy by paying the salaries of Korean USFK local national employees, 
Korean contractors and service agents, and Korean construction firms. 
ROK contributions for the past 4 years represent shortfalls that USFK 
has struggled to absorb by reducing expenditures while maintaining 
readiness.
Republic of Korea's Support to Global and Regional Security
    The ROK continues to superbly assist United States' efforts to 
promote global and regional security as an active partner in the global 
war on terrorism; to support operations in Iraq and Afghanistan; and to 
participate in U.N. peacekeeping missions, humanitarian assistance, and 
disaster relief missions. Since 2002, for example, the ROK has 
contributed millions of dollars in aid for reconstruction and deployed 
contingents of troops to support operations in Afghanistan and Iraq. In 
December 2006, the ROK's National Assembly approved a third, 1-year 
extension of its force commitment to Iraq through 2007, although their 
force will reduce to 1,200 troops. Support to Afghanistan includes 
providing a 58-person medical unit, a 147-person engineer construction 
unit, and other military assistance worth millions of dollars. Last, 
the ROK is deploying an important 350 soldier contingent to the U.N. 
peacekeeping mission in Lebanon. The ROK has been a steadfast and 
committed Ally in supporting U.S. and U.N. operations worldwide. We 
applaud our ally's efforts in this regard, and thank them.
    In May 2003, the President of the United States introduced the 
Proliferation Security Initiative (PSI), a measure to enhance 
international efforts to prevent the flow of weapons of mass 
destruction, delivery systems, and related materials on the ground, in 
the air, and at sea. To date, over 75 countries have expressed support 
for this initiative and the U.S. has requested that the ROK fully adopt 
the provisions of the PSI. The Roh administration announced that it 
supports the principles of the PSI and would cooperate on a case-by-
case basis. With North Korea posing such a significant proliferation 
threat, it is the United States' desire that the ROK fully participate 
in this initiative.
        iv. ensuring peace and stability on the korean peninsula
    Executing the transfer of wartime OPCON of ROK forces to the ROK 
military in 2012 will result in the U.S. shifting its command and 
control structure from the CFC framework to a new structure. North 
Korean aggression on the peninsula will be met by a fierce ROK military 
supported by American ``life-of-the Alliance'' air and naval centric 
combat power, and ``bridging'' capabilities including; command, 
control, communication, computers (C\4\), intelligence, surveillance, 
reconnaissance (ISR), logistics, theater missile defense (TMD), and 
other capabilities, including appropriate ground power. This evolution 
provides a stronger and more complementary Alliance that is better 
organized to meet ROK security needs and our mutual interests in the 
region.
Readiness
    As Commander of CFC, readiness is my first priority. It is achieved 
through a robust training, exercise, and evaluation program, adequate 
funding for sustainment, maintenance and logistics, and the 
modernization of our capabilities. In order to be ready and continue to 
deter aggression on the peninsula, our training must evolve and keep 
pace with the transformation of our military structure. USFK faces 
challenges in training range and airspace access. Facilities for our 
air and naval forces exist but scheduling and allocation must be 
improved to fully support combat readiness requirements. We need access 
to a modern and instrumented air to ground bombing range. The ROK 
military is working hard to provide such a range and we appreciate 
their efforts. Current ground maneuver training facilities are impacted 
by expanding civilian encroachment. These issues must be resolved in 
order to meet current and future training requirements.
    Continued support for our capabilities enhancements is also 
critical to our readiness. We have made meaningful progress with 
several of our key focus areas for modernization: joint C\4\, ISR, TMD, 
prepositioned equipment, logistics, and counter-fire and precision 
munitions.
Training/Exercises
    Today, the theater-level exercises--Ulchi-Focus Lens (UFL); 
Reception, Staging, Onward Movement, and Integration (RSOI); and Foal 
Eagle collectively train over 400,000 ROK and United States Active and 
Reserve component personnel in the critical tasks essential to 
deterring, and if necessary, defeating North Korean aggression. These 
command post and field training exercises use battle simulation 
technologies to train senior leaders in 21st century battle command. 
Combat enablers, such as C\4\ and Intelligence (C\4\I), provide the 
Collaborative Information Environment to plan, execute, and assess 
effects from distributed locations, allowing the CFC to see, 
understand, assess and act to dominate the battlespace.
    UFL focuses on effects based operations, C\4\I, and dominant 
maneuver theater of war skills. The goal of RSOI is to improve our 
ability to rapidly reinforce and sustain operations in the Korean 
theater. Foal Eagle is a tactical-level exercise that hones warfighting 
and interoperability skills. These exercises, supplemented by 
subordinate command training programs, ensure that the Alliance remains 
ready and capable to deter North Korean aggression.
C\4\ and ISR
    Continued modernization of C\4\ and ISR capabilities is crucial for 
the future of the Alliance. An advance in these areas greatly improves 
our ability to gather, integrate, apply, and share information, 
optimizing the way we fight. Timely and accurate information is a 
decisive element of combat power. United States and ROK forces have 
implemented programs to improve their C\4\ capabilities. These upgrades 
will enable parallel planning for all CFC and USFK units as well as 
other friendly forces. In order to leverage these advances, full 
coordination and implementation is required to ensure interoperability 
and survivability at all command levels. Current initiatives in 
coalition interoperability seek to extend a seamless command and 
control capability throughout the theater that will greatly improve 
multi-national information sharing capability, yet maintain a viable 
U.S.-only capability link with our command authorities.
    Synchronized intelligence operations are critical to any Alliance/
Coalition effort. The Joint Intelligence Operations Center in Korea 
(JIOC-K) is conducting a comprehensive review of roles, missions and 
functions including national, joint, and coalition responsibilities for 
collection, exploitation, and dissemination. The transformational 
objective for JIOC-K is focused with a purpose to fully integrate and 
enhance the means to quickly detect, identify and report on provocative 
acts, combat preparations, and indicators of potential North Korean 
regime instability. Longstanding ISR requirements exist for Global 
Hawk, Predator and the Joint Surveillance and Target Attack Radar 
System (JSTARS). USFK also faces shortfalls in signals and human 
intelligence collection capabilities. Fulfilling these requirements 
will improve situational awareness and warning time which is critical 
to our defense posture and force protection.
    In September 2006, the Under Secretary of Defense for Intelligence 
validated the theater's National Intelligence Support Plan which 
clearly identified the shortfalls and agency requirements to address 
them. Congressional support to address and eliminate these shortfalls 
is essential to ensure the theater is well positioned to execute its 
national responsibilities for strategic warning, to support our ROK and 
U.S. warfighters, and support regional stability operations. I view 
this commitment essential to the effective transfer of wartime OPCON to 
the ROK.
    The ROK is planning to acquire important C\4\ and ISR capabilities 
for its assumption of wartime OPCON. Once operational, these 
capabilities will improve the ROK's ability to make critical crisis and 
combat decisions.
Theater Missile Defense
    North Korea's missile tests of July 2006 highlighted the importance 
of an active theater missile defense system. It is both prudent and 
necessary for the ROK and the United States to enter into discussions 
regarding appropriate commitments and enhancements that each nation 
should pursue regarding ballistic missile defense on the peninsula. The 
U.S. will continue to protect its capability to conduct reception, 
staging, onward movement, and integration in support of the Alliance 
under our contingency plans. The ROK must purchase and field its own 
TMD system, capable of full integration with the U.S. system. The 
regional missile threat from North Korea requires an active ROK missile 
defense capability to protect its critical command capabilities and 
personnel.
    PAC-3 Patriot Missile System upgrades and improved munitions have 
significantly enhanced our posture. To protect critical U.S. facilities 
in Korea, we must complete upgrading the remainder of our systems with 
advanced TMD capabilities. Continued production of PAC-3 missiles in 
the near-term, followed by continued development of the Theater High 
Altitude Air Defense, Airborne Laser, and Aegis Ballistic Missile 
Defense will provide the layered missile defense capability we require 
for the future. Your continued support remains essential to these and 
other Service component programs that protect our forces on peninsula 
and sustain our ability to reinforce South Korea in the event of a 
crisis.
War Reserve Materiel
    Logistically supporting USFK is a complex, multi-faceted 
undertaking. The proximity of the North Korean threat coupled with the 
long distances from U.S. sustainment bases requires a robust and 
responsive logistics system. The capability enhancements currently 
programmed will significantly improve our core logistics functions 
through modern pre-positioned equipment, responsive strategic 
transportation, and logistics tracking systems.
    Our Joint Force Support Component Command (JFSCC) is an initiative 
to achieve unity of effort in U.S. logistics. It is a single, unified 
logistics command that directs and integrates our logistics efforts 
across the joint community. The JFSCC demonstrated its value during UFL 
2006 and RSOI 2006 and 2007. We are on track to reach full operational 
capability following UFL 2007. My ultimate goal is to achieve the 
ability to bridge gaps between U.S. and ROK logistics capabilities and 
unify allied logistics, particularly once wartime OPCON is transferred.
    Prepositioned equipment sets, which include critical weapons 
systems, preferred munitions, repair parts, and essential supplies, are 
vital to rapid power projection to reinforce the Korean theater. Of 
note, USFK leadership took an aggressive approach in 2005 to improve 
the readiness of Army Pre-positioned Stocks in Korea. The Army Materiel 
Command significantly increased their workforce for these stocks and 
ensured all equipment in the Heavy Brigade Combat Team (BCT) met 
readiness standards. Headquarters, Department of the Army expects to 
reach 100 percent Equipment On Hand--up from 78 percent--for our Heavy 
BCT by June 2007. However, sustainment shortages still exist and can 
only be overcome through increasing the priority of fill for Army 
Prepositioned Stocks and the commitment of additional funding.
Strategic Lift
    Responsive strategic transportation--fast sealift ships and cargo 
aircraft--remains crucial to rapidly reinforce the Korean theater and 
sustain U.S. forces. Equally important is the ability to maintain in-
transit visibility of supplies and equipment with a modernized joint 
logistics C\4\ and information system. Lessons from Operations Iraqi 
Freedom and Enduring Freedom have highlighted several areas where 
relatively small investments in asset tracking systems and theater 
distribution yield significant efficiencies and improve the overall 
effectiveness of our logistics systems.
Preferred Munitions
    Counterfire and precision strike are core requirements for all of 
our contingency plans. These enablers allow us to change the dynamics 
of a conflict and rapidly achieve campaign objectives. Increasing the 
forward stocks of preferred munitions is vital to operational success 
in the Korean theater. Our priority ordnance requirements include: the 
GPS-guided Multiple Launch Rocket System with extended range 
capability; a ground-launched, extended range, all weather capability 
to defeat hardened and deeply buried targets (HDBTs); precision guided 
munitions; and air-to-ground and air-to-air missiles. Your continued 
support to these programs provides the overmatching capabilities to 
buttress our deterrence.
War Reserve Stocks Allies--Korea
    We anticipate beginning negotiations on the War Reserve Stocks 
Allies--Korea (WRSA-K) program in 2007. Recent legislation permits the 
U.S. to offer, for sale or concession, surplus ammunition and military 
equipment to the ROK. The sale of these munitions will reduce the U.S. 
stockpile maintenance burden and encourages the ROK to continue toward 
its stated goal of a self-reliant defense posture.
              v. unc, cfc, and united states forces-korea
    The UNC, the CFC, and the USFK provide dominant military 
capabilities to maintain the 1953 Armistice Agreement, deter any 
provocation and deter escalation that could destabilize the region. The 
forces of these commands provide a potent, integrated team that is 
trained and ready.
United Nations Command
    As the longest standing peace enforcement coalition in the history 
of the U.N., the UNC represents the international community's enduring 
commitment to the security and stability of the Korean Peninsula. With 
15 current member nations and the ROK, the UNC actively supervises 
compliance with the terms of the 1953 Korean Armistice Agreement 
fulfilling the members' mutual pledge to ``fully and faithfully carry 
out the terms'' of the Armistice. UNC will provide a unified and prompt 
response to preserve the security of the ROK if there is a North Korean 
attack. With exclusive authority south of the Military Demarcation Line 
for the maintenance of the Armistice, the UNC meets with the North 
Korean People's Army representatives, inspects South Korean units 
positioned along the demilitarized zone (DMZ), and conducts 
investigations into alleged Armistice violations to prevent minor 
incidents from escalating into destabilizing crises.
    As we move towards transfer of wartime OPCON to the ROK military, 
there is one UNC issue that we must address. In the current 
arrangement, the UNC Commander is ultimately responsible for Armistice 
maintenance, crisis management and resolving Armistice violations. 
However, the ROK military already provides security and surveillance 
over the entire DMZ. As the UNC Commander, I do not have ``peacetime'' 
OPCON--no command authority--over the ROK military. This creates a 
mismatch between military authority and responsibility. This mismatch 
is currently mitigated through my dual-hat status as CFC Commander. 
However, this mismatch cannot be mitigated once the transfer of wartime 
OPCON is completed, as the U.S. commander will have no ability to 
command and control ROK forces--the very forces that are arrayed along 
the DMZ--in peacetime, crisis escalation, or war.
    As the executive agent for the UNC, the United States will continue 
to work with the ROK and the U.N. Sending States to ensure that the 
future arrangement--after wartime OPCON transfer--takes into account 
the realities of the new command structure. It is our goal to transfer 
or delegate appropriate armistice authorities and responsibilities to 
the ROK, while ensuring that the UNC remains a critical command in 
deterring aggression, and supporting combat operations should war break 
out on the peninsula. We must also maintain the U.N.-Japan Status of 
Forces Agreement, which provides throughput access to critical Japanese 
air and naval bases for U.S. and U.N. forces, should crisis escalate 
and war break out.
Combined Forces Command
    Since its inception nearly 30 years ago in 1978, the CFC has been 
the warfighting command of the ROK-U.S. Alliance. Through authority 
based on the 1953 Mutual Defense Treaty, the CFC provides the 
cornerstone of deterrence against North Korean aggression, and if 
deterrence fails, stands ready to win decisively. Vigilant and well-
trained, the CFC is the most powerful combined warfighting alliance in 
the world today. As the commander of CFC, I respond equally to both 
Alliance partners, the United States and the ROK. There are an array of 
effective Alliance mechanisms which allow the two allies to coordinate 
and consult on military matters during peace or wartime.
    We are committed to achieving the goal of a ROK-led defense 
structure. Doing so requires a reshaping of the ROK-U.S. military 
partnership in a manner that will strengthen our Nations' relationship 
while facilitating the ROK's predominant role in its own defense. We 
have agreed to transition our relationship in 2012 from a shared 
operational control system under our combined headquarters (CFC), to 
independent, parallel national command systems where the U.S. assumes a 
doctrinally supporting role to the ROK military. CFC will be 
disestablished. Our Combined Implementation Working Group has been 
charged with developing the construct under which the Alliance will 
function after wartime OPCON of ROK forces has transferred to the ROK.
    We are confident that the overall U.S. security posture in the Asia 
Pacific region, coupled with the improvements in ROK capabilities as 
well as significant U.S. capabilities on the peninsula, will enable 
OPCON transfer to occur with no degradation to the Alliance deterrence 
mission. The ROK is also enhancing its military capabilities as it 
continues to field and upgrade its fleet of K1A1 tanks and multiple 
launch rocket systems. Additionally, it plans to purchase upgraded 
Guided Missile Destroyers with enhanced communications and surface to 
air capabilities; four Airborne Early Warning and Control aircraft; and 
enhance its own theater missile defense posture with the Patriot 
missile system. The ROK's new naval base for their 3rd Fleet is also 
operational and includes a recently completed pier capable of handling 
U.S. nuclear powered aircraft carriers.
    The transformation of the Alliance makes it essential that we 
continue to expand our capabilities and revise operational concepts. 
Simultaneous maneuvers, parallel planning, effective coordination, 
effects-based operations, and asymmetrical maneuvers all conducted in a 
dynamic battlespace will improve the lethality of our future Alliance 
military operations.
United States Forces-Korea
    We are focused on maintaining proper capabilities on the peninsula. 
Our assessment is that ROK forces are capable of defending the ROK, but 
that U.S. support is a critical enabler to that defense.
    In 2004, the United States and ROK Governments agreed to the 
reduction of 12,500 personnel from USFK over a 5-year period beginning 
in 2004. Between 2004 and 2005 we reduced 8,000 troops, including the 
deployment of the 2nd Infantry Division's 2nd BCT to Iraq which was 
subsequently relocated to Fort Carson, Colorado.
    We continue to make progress in re-aligning U.S. forces in Korea. 
In late 2004, the Yongsan Relocation Plan was signed and ratified. 
Under that agreement, U.S. force elements assigned to the Yongsan 
Garrison in Seoul will relocate to Camp Humphreys, near Pyongtaek, over 
60 kilometers southwest of Seoul. The relocation of the 2nd Infantry 
Division is also part of the realignment plan which, when complete, 
will allow United States forces to assume a more efficient and less 
intrusive footprint within two hubs of enduring installations. 
Relocation will significantly improve the quality-of-life of our 
servicemembers, while returning valuable land to the citizens of the 
ROK.
    To date, we have closed 36 installations encompassing over 16,700 
acres with a tax assessed value of over $500 million and returned 30 
installations to the ROK. Along with these camps and in accordance with 
our SOFA, we have transferred free to the ROK the full range of 
buildings, capital assets, and improvements found on these camps, many 
built with U.S. appropriated funds. It remains our goal to close a 
total of 59 facilities and areas--two thirds of all land granted us 
under the SOFA, totaling more than 38,000 acres.
    In exchange for the return of the majority of our dispersed camps, 
the ROK, per our agreements, has purchased 2,800 acres of land required 
to expand the Army's Camp Humphreys and the Air Force's Osan Air Base. 
It is also in the process of purchasing more than 250 acres at the Air 
Force's Kunsan Air Base to accommodate relocation efforts there. We 
have awarded a contract to develop the first 205 acres at Camp 
Humphreys for the Army's fiscal year 2007 construction program. 
Sustained funding for our military construction projects, particularly 
Army construction, coupled with sufficient host nation-funded 
construction by the ROK, is crucial for this plan to remain on track.
    As a vital component of our construction programs, the Army is 
pursuing a range of build-to-lease family and senior officer/NCO 
quarters to be sited at the Camp Humphreys facility. Army forces cannot 
displace to Camp Humphreys until these units are completed. To begin 
build-to-lease construction, the Army needs to gain legislative 
approval for lease authority that provides for the appropriate level of 
purchasing power that is essential to the success of the Army build-to-
lease program.
Achieving Normalcy for United States Forces-Korea
    We are approaching 54 years since the signing of the Armistice 
Agreement in Korea. In 54 years, South Korea has transformed from a war 
ravaged country to one of the most modern, progressive, democratic and 
free countries in the world. South Korea is a top flight first world 
country, and highly competitive with the most advanced economies in the 
world. Their medical system is world class, their universities 
renowned, and their industries/businesses are credited with superb 
worldwide innovation and reliability. Historically, the United States 
was willing and anxious to face down the Soviet Union in Europe with 
full family accompanied tours authorized. We willingly took this risk 
in the face of over a hundred divisions of enemy forces equipped with 
hundreds of tactical and theater nuclear weapons. My son was born 12 
kilometers across an inter-zonal border from several Soviet divisions. 
Unfortunately in a modern and vibrant ROK, we still rotate 
servicemembers in and out annually as though this remained an active 
combat zone. We only authorize 2,900 of our current 29,000 
servicemembers force (10 percent) to bring their families to Korea. We 
need to initially double this, then over time provide the facilities 
and infrastructure to authorize full accompanied tours for the entire 
force. Korea is one theater where rotational forces and individual 
short tour rotational servicemembers do not serve our national 
interests as effectively as we need.
    By continuing to execute a 1 year rotational force policy in Korea, 
we are contributing to several debilitating realities. First, we are 
needlessly separating our families from their servicemembers--
servicemembers who are already relentlessly rotating from their bases 
in the United States and Europe to repeated combat tours. Given the 
nature of the global war on terrorism, most political-military analysts 
predict that the U.S. military will continue rotational commitments to 
combat zones for years to come. We are needlessly contributing to 
increased rotational turbulence by continuing short tour rotations in a 
modern Korea.
    Next, we are complicating the opportunity to develop deep and 
lasting cultural ties with our ally, the South Koreans. While strong 
and enduring, our Alliance with South Korea has been under some level 
of stress for the past several years. Some analysts attribute this to 
individual unaccompanied U.S. servicemembers coming and going annually, 
never having a real opportunity to engage at the family level with 
their Korean counterpart citizenry. As individuals, we are pretty much 
isolated on our base camps. Last, we negatively impact readiness and 
spend too much permanent change of station (PCS) money rotating our 
troops each year. The annual rotation ensures that we have a less ready 
force than we should have. We need to keep troops, leaders, and 
commanders in position as long as reasonable--3 years, and we can 
decidedly save money by extending tours and lessening PCS costs for the 
force.
    With about 2 percent of the active military force committed to 
service in Korea, the United States can easily afford to do what is 
right and endorse normal 3 year accompanied tours in Korea, much like 
we endorse in Japan. I strongly and indeed passionately seek 
congressional support for transitioning to normal 3 year command 
sponsored family accompanied tours for our American force in Korea. 
While there will be some expense which we will amortize over time, our 
Korean ally will shoulder a significant amount of the required 
investment in capital assets, through the Special Measures Burden-
Sharing Agreement and Yongsan Relocation Plan.
    Having spent 14 years of my military service overseas in Korea, 
Europe, and the Middle East, living and working in both accompanied and 
unaccompanied environments, it is my best judgment and recommendation 
that for the health of our alliances and the Nation's engagement 
strategy, a commitment to a reasonable level of normal accompanied 
tours overseas is decidedly in the best interests of the United States. 
I will soon submit formal proposals to the DOD in pursuit of this 
policy. If and when the budget proposals to resource this policy 
formally arrive in front of Congress, our servicemembers, and their 
families would deeply appreciate your favorable consideration and 
support. The ROK-U.S. Alliance will measurably benefit.
Ensuring Equitable Pay
    Major improvements have been made in pay disparity in the ROK. For 
the first time in over 50 years of the Alliance, a cost-of-living 
allowance was authorized in 2003. Additionally, the Army and the Air 
Force implemented the Assignment Incentive Pay (AIP) Program, 
authorizing a cash incentive for servicemembers who are willing to 
extend their tours in Korea. So far, over 16,000 soldiers and airmen 
have volunteered for AIP, saving the DOD over $78 million in PCS costs. 
Following the great success of the Army and Air Force AIP programs, in 
January 2006, the Navy implemented this program for its sailors. The 
combined effect of reduced PCS costs and increased stabilization is a 
win-win situation. However, while AIP has been a major success, for our 
unaccompanied servicemembers (90 percent of the force), accepting AIP 
means longer separations from family back in the States. Nonetheless, 
the AIP program is a superb success and your continued support will 
help improve the stability, predictability, and operational readiness 
of our force.
Upgrading and Building New Infrastructure
    The relocation of USFK to two enduring hubs will provide the long-
term infrastructure that is required to maintain a persistent presence 
on the peninsula. As we move forward with our overall construction 
master plan we must also continue to maintain our existing facilities 
until construction is completed. Your support of our Sustainment, 
Restoration, and Modernization Program requirements, supplemented by 
host nation contributions, will allow us to complete our infrastructure 
renewal program to enhance our force protection posture and the 
quality-of-life for our personnel. The President's fiscal year 2008 
budget request includes Service military construction projects that are 
essential to our forces in Korea, and critical to the execution of our 
overall theater master plan.
    The challenge the Services face in recapitalizing their 
infrastructure in Korea is substantial and we continue to work with 
them to prioritize this requirement. Our facilities and infrastructure 
are old, particularly Army facilities: over one-third of the buildings 
in the command are between 25 and 50 years old and another one-third 
are classified as temporary structures. Due to historically 
insufficient sustainment, restoration, and modernization by the 
Services, many buildings have deferred maintenance, contributing to 
their continual deterioration. Our annual allocations for sustainment 
funding have been about 50 percent of requirements, while restoration 
and modernization funding has been much less. A robust sustainment, 
restoration, and modernization profile for each of the Services is 
absolutely essential if we are to maximize the appropriated military 
construction dollars we receive. Without the investment to sustain, 
restore, and modernize our facilities, our servicemembers, especially 
Army soldiers, will be perpetually relegated to live and work in run-
down, dilapidated, patched-up facilities.
    Many of our servicemembers continue to live in extremely 
substandard housing, whether in military facilities or in crowded urban 
areas outside our installations. Our realignment to two enduring hubs 
will allow us to focus on improving living and working conditions. To 
this end, sustained access to several different funding programs will 
be essential, including United States military construction, host 
nation-funded construction, and commercial build-to-lease programs.
    The Services are working towards achieving the DOD's goal to house 
all unaccompanied USFK servicemembers in adequate installation housing 
as soon as possible. The Army and Air Force are using military 
construction to build unaccompanied housing facilities at the Army's 
Camp Humphreys, and the Air Force's Osan and Kunsan Air Bases. In 
addition, we recently completed two host nation-funded construction 
projects in our southeast hub to provide adequate barracks space for 
our marines and sailors assigned to Camp Mu Juk in Pohang. To improve 
the unaccompanied senior enlisted and officer quarters, the Army has 
contracted a commercial build-to-lease project at K-16 Air Base and 
plans similar projects at Camp Humphreys.
    For fiscal year 2008, the Army is requesting $57 million in 
military construction funds to build two additional barracks complexes 
at Camp Humphreys. I strongly support these projects as essential and 
request your support.
    I am particularly supportive of the Army's requirement to meet our 
national commitments in realigning Army forces from Seoul and north of 
Seoul. For example, the Army is pursuing build-to-lease opportunities 
to meet housing requirements at Camp Humphreys. Build-to-lease provides 
a quality, cost effective housing option and I strongly support the 
Army's pursuit of this effort to leverage private capital. Our current 
lease cap authority does not allow us to keep pace with the high cost 
housing market in Korea. The Army is aggressively seeking your support 
to ensure that our lease cap authority delivers the appropriate 
purchasing power to enable the build-to-lease program to succeed. I 
strongly support the Army's efforts to meet our housing requirements, 
and also ask for your favorable and expeditious approval of our 
legislative proposal to establish the necessary lease cap authority for 
build-to-lease. Continued support for family housing construction in 
Korea through commercial build-to-lease projects will help ensure 
quality housing for all our servicemembers' families. Again, this 
program is essential to the Army's efforts to relocate Army forces from 
north of, and in Seoul, to south of Seoul, and supports national 
agreements the U.S. Government has concluded with the ROK. Unless we 
receive timely approval for lease cap authority adjustments, it will be 
extremely difficult, if not impossible, for the Army to synchronize its 
construction program in Korea with ongoing burden-sharing building 
efforts by the Korean Government on our behalf.
Good Neighbor Program and Mandatory Theater Specific Required Training
    The Good Neighbor Program is a USFK hallmark for fostering 
harmonious relations between our servicemembers and the ROK citizenry. 
The key pillars include community relations programs, Korean cultural 
awareness programs and ROK-U.S. military-to-military activities. Some 
examples include: servicemembers and their families teaching English to 
Korean children, volunteering in orphanages, and assisting with 
humanitarian projects and conservation efforts; Korean families 
inviting servicemembers to their homes to experience Korean hospitality 
and participate in cultural tours; and commanders hosting local 
government officials to orient them to the military mission. It is our 
hope that the Good Neighbor Program will improve the understanding and 
support of the Korean community for the strategic mission of USFK and 
effectively demonstrate the respect of USFK servicemembers for the 
laws, history, culture, and customs of the ROK. If we are authorized to 
increase our family accompanied tours, the effectiveness of the Good 
Neighbor Program will increase dramatically.
    In addition to the Good Neighbor Program, USFK instituted a 
Mandatory Theater Specific Required Training program for all arriving 
personnel to the ROK. This training--for example in personnel safety, 
prostitution and human trafficking, and sexual assault--not only 
facilitates accomplishment of our assigned missions, but also ensures 
that servicemembers conduct themselves in a manner that is compatible 
with and respectful of ROK culture and law. Commanders are responsible 
for validating the completion of all required theater specific 
training.
                                 safety
    Our well-being is a function of safe training and personal conduct. 
While we recognize that we operate in a hazardous military environment, 
units that aggressively embrace risk management and personal 
intervention with their servicemembers routinely have superb safety 
records. The majority of our serious accidents, incidents and deaths 
occur during off-duty periods. This fact requires the chain of command 
to aggressively engage with its individual servicemembers, and 
positively impact their personal behavior. At USFK, we call this 
process ``Under the Oak Tree Counseling'' through which first line 
supervisors gain a verbal behavior contract with their subordinates 
before each lengthy off-duty period. Through the combined efforts of 
our men and women, we employ appropriate safety measures to ensure that 
all members stationed in the ROK can go about their daily lives knowing 
that we have done everything possible to safeguard and protect them. I 
expect commanders to empower subordinates while holding them 
accountable for the safety of their soldiers, sailors, airmen, and 
marines.
Prostitution, Human Trafficking, and Sexual Assault
    USFK has zero tolerance for prostitution and human trafficking 
(P&HT). To ensure members are fully aware of our policies regarding 
P&HT, the command has initiated a four-pronged approach focusing on 
awareness, identification, reduction and enforcement. This initiative 
has had a positive effect for the command. In January 2006, a DOD 
Inspector General (IG) team visited USFK as part of an Evaluation of 
DOD Efforts to Combat Trafficking in Persons (TIP). In their report, 
the inspection team praised USFK for aggressively attacking the problem 
of TIP at the ``strategic, operational, and tactical levels,'' and 
further stated that ``the USFK anti-TIP program continues to set the 
standard for DOD efforts to combat TIP.'' In addition to DOD's USFK 
visit, the USFK IG completed several comprehensive inspections of 
command policies and climate relevant to prostitution and its links to 
human trafficking. Recommendations from both DOD and USFK IG 
inspections continue to be incorporated into the command's strategy.
    The Command's initiatives are equally important in combating sexual 
assault. USFK has developed and implemented education programs for 
training our leaders and servicemembers on awareness and prevention of 
sexual assault. The foundation of our USFK program is a 40-hour, 
centralized and certified Victim Advocate and Sexual Assault Response 
Coordinator training program. This training stresses sexual assault 
risk factors and victim care. To date, our program has focused 
primarily on awareness and response. We are currently developing a 
Sexual Assault Prevention Program that meets research based criteria 
for addressing individual attitudes, behaviors and perceptions that 
place servicemembers at risk for victimization and perpetrating sexual 
assault.
    I will continue to be vigilant in enforcing the sexual assault 
prevention programs and zero tolerance approach adopted by the command. 
Promoting dignity and respect are of the utmost importance and a 
mandate we fully embrace within USFK.
      vi. strengthening the alliance and investing for the future
    The ROK and the United States have stood side by side on the Korean 
Peninsula nearly 57 years. We have shed blood together in freedom's 
cause. This relationship, first forged on the battlefields and 
sustained through the years by the courage and efforts of Korean and 
American servicemembers, stands as a testament to the principles of 
freedom and friendship. If we are going to continue to assist in 
securing peace and stability in Northeast Asia in the future, it must 
continue. In pursuit of this, we must recognize that the ROK is 
prosperous, democratic and largely self-reliant. As such, our 
relationship must evolve. Both sides are committed to this 
transformation which will enable future generations to continue to 
enjoy the benefits of our Alliance.
    Your continued support is greatly appreciated and will ensure that 
we achieve our transformation objectives by providing our forces with 
the resources needed to deter aggression and foster peace and stability 
on the Korean peninsula and in the region. I am proud of the soldiers, 
sailors, airmen, marines, and civilians serving in the ROK. I know you 
are too. Through their daily dedication and performance, they continue 
to earn the trust and confidence that you have placed in them, while 
serving upwards of 8,000 miles from home. We owe them and their 
families the very best working, living, and training environment, and 
we should do everything feasible to give it to them. Thank you.

    Chairman Levin. General, thank you so much.
    Admiral Olson?

STATEMENT OF VADM ERIC T. OLSON, USN, DEPUTY COMMANDER, UNITED 
               STATES SPECIAL OPERATIONS COMMAND

    Admiral Olson. Mr. Chairman, distinguished members, thank 
you for the opportunity to appear before you today to report on 
the posture of SOFs. On behalf of my boss, General Brown, I 
thank you for the great support that you've given to U.S. 
SOCOM, it has been significant and its impact has been 
powerful.
    With your permission, Mr. Chairman, I've submitted our 
written posture statement for the record.
    Chairman Levin. Thank you.
    Admiral Olson. U.S. SOCOM is celebrating its 20th 
anniversary this week. The command was created by Congress to 
organize, train, and equip SOFs with Service-like Title 10 
authorities, and a separate budget, to develop and acquire 
Special Operations' peculiar material, supplies, and services.
    The wisdom of Congress in so doing has paid significant 
dividends for 2 decades, but especially in the past few years, 
as SOFs proved their agility, innovation, and value in the 
chaotic wars of Afghanistan and Iraq and the emerging terrorism 
and related activities in the Philippines, Colombia, and many 
other places, primarily in those places to return again in 
assistance operations.
    U.S. SOCOM is guided by three enduring priorities. Success 
in our ongoing campaign against terror and terrorists, ensuring 
the readiness of SOFs today and in the future, and taking care 
of our Special Operations warriors and their families, for the 
key to Special Operations success continues to be the 
individual Special Operations operator.
    In Operations Enduring Freedom and Iraqi Freedom, SOFs 
conduct direct action missions every day and every night, to 
capture or kill terrorists and violent insurgents, but perhaps 
more importantly, SOFs are conducting indirect operations 
worldwide, that are crucial to building a global environment 
that shuns terrorism and embraces stability and security.
    We know that we cannot kill or talk our way to victory, our 
actions must demonstrate our values, and be convincing locally, 
regionally, and ultimately, globally. It is essential that we 
develop the meaningful relationships with coalition partners 
that will enable access for building their capabilities and 
capacity, and encourage them to resolve threats within their 
own borders.
    U.S. SOCOM has been directed to plan and synchronize 
Department of Defense (DOD) global activities against terrorist 
networks. In collaboration with U.S. agencies and other 
governments, we are maturing into a fusion point for 
operations, intelligence, and strategy that enables SOFs to 
work with our partners in an unprecedented fashion. This has 
been a complex effort, but with the help of Congress and DOD, 
SOCOM is building the infrastructure processes and 
relationships that will enable collaborative operations.
    Current and anticipated future demand for SOFs exceed the 
supply. We are growing our force at a rapid pace, but one that 
enables us to maintain the high standards that have served this 
Nation so well.
    In fiscal year 2008, U.S. SOCOM will grow by about 6,300 
personnel to more than 54,000 military and civilians, including 
over 6,100 in our Reserve components. We will add nearly 1,900 
personnel in Army SOFs that provides Special Forces Battalion, 
3 ranger companies, and nearly 800 additional civil affairs, 
psychological operations, and support personnel.
    Naval Special Warfare will add about 400 personnel. Air 
Force SOCOM will grow a predator squadron, and establish a 
distributed common ground system.
    Last year, we established the Marine Corps Forces Special 
Operations Component (MARSOC). Currently at about 1,500 people 
and on track to expand by nearly 550 in fiscal year 2008.
    Our rate of growth is about what we asked for, and what we 
can sustain without sacrificing quality and readiness. The 
additional manpower is not to relieve stress on SOF or add to 
the numbers already deployed to Afghanistan and Iraq, but 
increase SOFs' presence in the areas of the world where we are 
now underrepresented. It's important to sustain a balanced 
force as we grow, so we must retain our experienced people as 
we train new accessions.
    Two years ago, DOD approved retention initiatives for our 
senior enlisted operators, and in 2005 and 2006, over 1,100 of 
our people with 19 or more years of experience committed to 
stay with us until at least their 25th year.
    Our overall fiscal year 2008 budget request is $6.2 
billion, an increase of just over $1 billion from fiscal year 
2007. This includes a request of $676 million in military 
construction (MILCON) funding, nearly double our request last 
year, in order to fund 36 projects that focus on training and 
operations in support of that Quadrennial Defense Review (QDR)-
directed growth.
    As we grow in personnel and infrastructure, we are also 
closely monitoring the status of our equipment, with special 
focus on our airframes that are operating at a tempo that is 
higher than originally projected. The fiscal year 2008 budget 
includes aircraft procurement that will help us sustain and 
reset our aviation fleet. The budget includes a buy of five CV-
22s, which are the soft variant of the Osprey. It continues to 
fund the replacement of center wing boxes on our MC-130 Combat 
Talons and AC-130 gun ships, it adds six non-standard aviation 
assets to support Special Operations airlift requirements 
worldwide, by enabling SOF operating in remote locations that 
are not serviced by reliable and safe commercial aviation, and 
recapitalize our aging helicopter refueling fleet. We will 
purchase components required to make the SOF modifications to 
four additional tanker aircraft.
    SOF warrior systems remain a high priority for U.S. SOCOM. 
We will buy body armor, helmets, weapons, ammunition, night-
vision optics, individual and squad-level radios, and other 
items that optimize success while minimizing casualties.
    U.S. SOCOM was fully engaged in and well-served by the QDR 
process. The QDR's emphasis on irregular warfare capabilities 
contributed to a SOCOM fiscal year 2008 program that supports a 
careful balance of direct and indirect activities around the 
world. We continue to closely monitor the challenges of a 
growing force and aging equipment, and we keep our eye on 
emerging requirements. With the support of Congress, we are 
well-postured for continued success.
    I thank the members of this committee for your continued 
support for the past 20 years, today and into the future.
    I'd be happy to answer your questions.
    [The prepared statement of Admiral Olson follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairman Levin. Admiral Olson, thank you so much.
    We'll start with an 8-minute round of questions for the 
first round.
    We've heard a lot, and before this committee, about the 
lower basic readiness of our non-deployed forces, and the 
problems that that creates in terms--in many ways, including a 
lack of strategic depth--that puts in your hands, some real 
significant operational risk. I'm wondering whether each of you 
would describe the readiness challenges that you face. Is there 
a lower readiness level in our non-deployed forces, and what 
problems does that create for you? What are the implications, 
long-term and short-term, of these lower levels of readiness 
for your command?
    Admiral, let me start with you.
    Admiral Keating. Mr. Chairman, we look at that carefully, 
as you would expect us to. It would--for us to execute the 
plans, should we be required to do so, not be as elegant, it 
would not be quite as timely, and we would shift our focus from 
certain service-specific capabilities to other Services where 
there are not the draw on those forces--Navy and Air Force, in 
particular, is not as significant as is for the Army and the 
Marine Corps.
    But, it's our assessment that we can respond in a timely 
fashion, should we be required to on the peninsula or elsewhere 
throughout our AOR. We are gradually increasing assets such as 
ship and land-based preposition equipment, we would rather have 
the rate of replenishment for precision-guided munitions 
increased, but there are plans from the Services to address 
each of those shortcomings.
    So, in the shortest answer I can give you, Mr. Chairman, is 
we can respond, if necessary, we would shift some of the 
capabilities to other Services that aren't quite as strapped, 
and the risk is not insignificant, it has increased over time, 
but we are still able to respond.
    Chairman Levin. Thank you.
    General Bell?
    General Bell. Thank you, sir. I agree with Admiral Keating, 
and would amplify in Korea. My requirements for forces are 
initially air- and naval-centric, and I will tell you, Senator, 
that the ability of the Air Force and naval aviation, and naval 
surface combatants and subsurface combatants to respond to my 
requirements is quite high, and I'm very satisfied with that, 
and I exercise it routinely.
    I am not as satisfied, to say the least, with Army ability 
to respond, or Marine Corps ability to respond. The really good 
news in the ROK, is however, that we have a terrific ally with 
a great military, and their strength happens to be their Army 
and their Marine Corps. Their 560,000 men, Active-Duty Army is 
first-class. I've rung that thing out from top to bottom, and 
so we have an environment there, where this idea of 
interdependency in coalition and combined warfare, is a 
reality; it's a great success story.
    So, for our war plans in Korea, the greatest challenge that 
we see in the U.S. military today, which are real and complex, 
do not affect me to the degree that it might in other areas 
where U.S. ground forces are required immediately to a combat 
area.
    So, I am concerned about U.S. ground force readiness, it 
does play in my op plan, however, with the ability of air and 
naval forces to respond being quite good, I am quite confident 
that we can exercise our op plan.
    Chairman Levin. Thank you.
    Admiral Olson?
    Admiral Olson. Mr. Chairman, U.S. SOCOM and by law, the 
Commander of U.S. SOCOM, is responsible for the combat 
readiness of SOFs. We are a force provider, unlike other 
combatant commands, and in that role, General Brown and the 
rest of the Command pay great attention--it's our highest 
priority--to ensure that the forces are, indeed, ready.
    The data that is reported by each of our units has been 
consistent for about 5 years. The measurable readiness of the 
force has neither increased nor decreased significantly, as 
we've gone through what we've been through recently.
    Now, the data reports both the technical readiness against 
a discrete set of standards, and it permits the commanders to, 
in their own words, state their readiness for war. The 
readiness for war has increased, as the measurable standard has 
stayed the same. That's because the Command is focusing on a 
mission that is facing us most directly.
    There is a decreased time between deployments that impacts 
the ability to train on the plethora of other things that SOCOM 
forces should be training on, because they've just taken a 
lower priority in preparing for the fight in which we are 
engaged.
    Among those things is language training, which you 
addressed in your opening remarks. We are at an operations 
tempo where we have spelled our commands that are regionally-
oriented to CENTCOM with commands that are regionally-oriented 
to other parts of the world. That, then, causes a decrease in 
language readiness.
    But, in general, the skill sets and the readiness of the 
equipment are steady, or slightly improving, in recent years.
    Chairman Levin. Thank you.
    Admiral Keating, there was a recent New York Times article 
that discusses the debate, allegedly, within the administration 
as to whether the United States could have taken some action to 
address the Chinese anti-satellite weapon test last January. 
Are you familiar with that article?
    Admiral Keating. I am, sir.
    Chairman Levin. In your view, since it's alleged that we 
knew in advance that that test was going to be launched, was 
there such a debate as to whether or not we should meet with 
the Chinese and explain to them what our concerns were?
    Admiral Keating. Senator, I don't know if there was or not. 
I wasn't in the PACOM when that information was apparently 
available. In the job that I had, we would have been interested 
in that discussion, because of requirements I would have had at 
NORTHCOM, and I was not aware at that time of those 
discussions.
    Chairman Levin. All right, General Bell, let me ask you 
about North Korea and its alleged highly-enriched uranium (HEU) 
program. Last February, this committee heard testimony that 
indicated that the Intelligence Community may be reassessing or 
have reassessed the level of confidence that it has about 
whether North Korea has or had a HEU program, and I'm wondering 
whether or not you are aware of any assessment or re-assessment 
relative to that level of confidence about a HEU program in 
North Korea and more specifically, has there been any change in 
our intelligence assessment since the November 2002 NIE on that 
subject?
    General Bell. Yes, sir. I think we all know that we have 
clear evidence and admitted evidence of the transfer of 
centrifuges from the A.Q. Khan network in Pakistan several 
years back, with some small number of centrifuges, that would 
enable the development of a HEU program, along with other 
technologies. The several engagements that the United States 
has had with the North Koreans and their own self-professed 
discussions on this gave us at one time high confidence that 
they were seeking to develop a HEU program to complement their 
plutonium program that they get from their plutonium they get 
from their reactor.
    Since those days, about 5 years ago, the proclamations and 
the evidence of a continuation of a HEU program have been 
sparse. The latest unclassified estimates that I've seen, and 
that I'm aware of, are that we have confidence that this 
program still exists, and that we intend to make it a part of 
the Six-Party Talks process, and that the expectation is during 
Phase 2 of the Six-Party Talks, should we get into Phase 2, 
that the declaration of the North Koreans of a HEU program, or 
not, will be made, and that they will give us access to that 
program--us being the international inspectors--to verify and 
validate what they have been doing in HEU, and then we would 
expect them to disable that program, like we expect the other 
programs to be disabled.
    So, I have no evidence today that the HEU program in North 
Korea has grown any, and I think our Intelligence Community's 
assessment is that they still have a program, that we have 
confidence that they have a program, and it's now up to them to 
declare their program, and allow the inspectors to get in there 
and determine the extent of it, and then in good faith take 
that program apart, as part of the denuclearization effort.
    Chairman Levin. Just to conclude here, the level of 
confidence that we expressed at the time was a high degree of 
confidence.
    General Bell. Yes, sir.
    Chairman Levin. Has that level of confidence remained the 
same?
    General Bell. It is my understanding from the Intelligence 
Community that it is a moderate confidence level today.
    Chairman Levin. Would that be a lesser level of confidence?
    General Bell. It would be less than high, yes, sir.
    Chairman Levin. Is it less than what existed at the 2002 
estimate?
    General Bell. My assessment is that it would be.
    Chairman Levin. Thank you. Thank you very much.
    Senator Warner.
    Senator Warner. Mr. Chairman, I'd like to just ask a quick 
follow-on question to your important line, and then the balance 
of my time go to Senator Martinez who has to depart.
    You know that the North Koreans committed to do a 60-day 
deadline for meeting the initial steps. Now, that failed to 
take place. What's your own feeling, professionally, of that 
breakdown in what, otherwise, was an orderly process outlined, 
and how does that impact or not impact the security 
relationships, which is your prime responsibility?
    General Bell. Thank you, Senator Warner.
    First, the Six-Party process is a solid process with the 
right verification regiments in it, and I think our diplomats 
did a masterful job of negotiating a reasonable approach to the 
requirement to denuclearize North Korea. You're exactly right--
60 days from the signing on 13 February of this agreement, the 
North Koreans were to have shut down their reactor at----
    Senator Warner. Yongbyon.
    General Bell. Yes, sir. Shut it down, and allow the 
International Atomic Energy Agency inspectors in there. During 
this process, they raised the issue of the frozen funds in the 
Banco Delta Asia, which is not technically a part of the Six-
Party Talk process. The United States agreed to un-freeze those 
funds, and we did. Those funds are available to the North 
Koreans to withdraw.
    There are complexities for them and the international 
banking community in affecting that withdrawal, apparently. I'm 
certainly not a banker, but I will tell you that there are 
complexities, but nonetheless, it is clear to me that those 
funds are available to be withdrawn, and can be--in my view--
fairly quickly by the North Koreans, should they choose to do 
it. They have not.
    We're now almost 2 weeks beyond the 60-day point. The North 
Koreans appear to want to assure themselves access to the 
international banking community, and I believe there is concern 
by themselves, and the international bankers, that if a normal 
transfer of funds is made from the Banco Delta Asia to other 
banking entities, that those entities could become liable for 
violating a series of sanctions.
    So, what the diplomats are trying to work out is a way for 
North Korea to gain access to its funds without all of the 
other banks in the international community, without their help.
    So, the process has not broken down. The funds are 
available. The North Koreans have articulated continued good 
faith in this. I believe, sir, that it is acceptable that we 
give them more time to sort out the physics of how they will 
get this money. They are not experienced in international 
banking. With all of the restrictions, and proper restrictions, 
that are placed on illicit funds activities, this is no small 
matter for them.
    So, I think we should give them a little longer, and see 
how it works.
    Senator Warner. That's clear, and I think our country 
deserves credit; it has led these Six-Party Talks and I think 
they've been successful, I share your views. The U.S. has acted 
in good faith, as has the other members of the Six-Party Talks, 
and it's up to the banking community, and I hope it will work 
out.
    Senator Martinez, would you pick up on that, the balance of 
the time?
    Senator Martinez. Thank you, Senator Warner, I appreciate 
your kindness and deference. I wanted to ask Vice Admiral Olson 
a couple of questions, first to congratulate you on your 20th 
anniversary, and tell you how delighted I know all of 
Floridians are that you are headquartered in MacDill in Tampa. 
I know Senator Nelson shares that joy with us, so we're glad to 
have you in Florida, and we appreciate your presence there.
    Admiral Olson. Thank you, sir.
    Senator Martinez. I wanted to ask--one of the things that 
we always are concerned here, particularly in the current 
posture that we are, is recruitment and retention, and wonder--
particularly in your forces, which requires special endurance, 
expertise, and skill, and everything else--how that picture is 
shaping out, and how we're doing on retention and recruitment?
    Admiral Olson. In a nutshell, Senator, it's shaping out 
okay. We are growing at the rate that we optimistically 
predicted that we could, and our optimism is proving to be 
well-founded.
    We did invest previously in the training infrastructure, 
especially the Army side, and so they had the instructors and 
the classrooms in place to absorb the greater input. We've 
grown an additional battalion of recruiters for SOFs, they've 
been successful. We have more input into Army Special Forces 
this year than we've ever had. The infrastructure--just as an 
example--that we did invest in a few years ago, enabled us to 
increase our annual through-put of Green Berets, Special Forces 
Operators, from about 300 a year to nearly 800 2 years ago. So, 
if that trend continues--and we have every reason to believe it 
will--we'll be in pretty good shape, Army-wise.
    Navy SEALs are a little bit tougher, recruiting-wise, but 
the Navy has given SEAL recruiting its number-one priority this 
year, and invested an awful lot of energy, and a good deal of 
money into recruiting SEALs.
    The statistics that I saw this week show that we have about 
between 30 and 40 percent more sailors eligible to commence 
SEAL training this year than in any previous year. That 
includes a readiness rate, and just the physical fitness test, 
for example, whereas at boot camp, those who volunteered a 
couple of years ago were passing the fitness test at a 17 
percent rate, now those who are volunteering are passing at a 
70 percent success rate.
    So, we will start more SEAL trainees this year than ever 
before, and the motivation week--often called ``Hell Week''--
which is a crucible of SEAL training, the last two classes have 
been the two largest classes to finish Hell Week in recent 
memory.
    Air Force Combat Controllers and Para-Rescue Jumpers, 
again, a small, but very important and hard recruit-for element 
of our force, have made changes in their recruiting and in 
their pipeline training processes that are showing about the 
same level of success, so again, we expect that we will 
graduate more Combat Controllers and Para-Rescue Jumpers from 
the Air Force than ever before.
    Aviation--both Army and Air Force--is always tough, but we 
don't recruit people to be aviators, we recruit aviators from 
the Services to be Special Operations Aviators, so that's 
something that is very carefully negotiated with the Services 
in terms of what they are willing to let go from their needs to 
meet ours. But, we're having some success with that as well, 
sir.
    So, back to my opening nutshell, I think we are very okay, 
and we are optimistic, but what we don't know is the long-term 
impact of what is happening, yet. So, we are trying to collect 
the data and do the studies regarding recruiting and retention 
to ensure that we can stay ahead. The response generally 
follows the data, and the data follows the reality. We're 
trying to be predictive in that, so that we can stay ahead.
    Senator Martinez. Thank you. I hope it continues to be 
encouraging.
    I want to also have you update me on the progress of the 
timeline to move the Army's 7th Special Forces Group to Eglin 
Air Force Base.
    Admiral Olson. Yes, sir.
    Senator Martinez. Where it is at the moment?
    Admiral Olson. There are environmental impact concerns now, 
largely related to the stationing of the J-35 Strike Fighter at 
Eglin Air Force Base, which has probably delayed our move of 
the 7th Special Forces Group from Fort Bragg to Duke Airfield 
in the Florida panhandle by up to a year. We're expecting now 
fiscal year 2010 movement. Originally, we had programmed fiscal 
year 2009 movement.
    Senator Martinez. Any facilities needs that you are needing 
that relate to that move that are not currently being met? Are 
the facilities at Eglin adequate for what you need?
    Admiral Olson. No, sir. They're not adequate now, but 
they're in our program to be adequate.
    Senator Martinez. Admiral, I wanted to ask of you, relating 
to the Chinese Navy and if you could forecast for us where you 
see their development and, into a Bluewater Navy, and how 
quickly you think that they're evolving into that type of a 
Navy?
    Admiral Keating. Thank you, Senator. The Chinese Navy is, 
they're pretty good and getting better in terms of equipment. 
They have participated with us in a couple of relatively 
rudimentary search-and-rescue exercises, inaugural events for 
our Navy to participate with their Navy. Their skills in those 
exercises were average. These are fairly simple exercises, 
Senator, and their equipment is increasingly impressive.
    They're building some of their own naval vessels, and they 
are buying others, principally from Russia. So, we watch them 
very carefully, we are exercising with them on an increasing 
basis, both in terms of numbers of exercises, and complexity of 
exercises, but they are nowhere close to as capable as our 
United States Navy. We see their growth rate as not being 
insignificant, in terms of capability and equipment, but they 
are a long, long way from challenging us in the maritime 
domain.
    Senator Martinez. Thank you, Mr. Chairman.
    Senator Reed [presiding]. Thank you, Senator Martinez.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Admiral Keating, the first question regarding the United 
States progress in the global war on terror, in your AOR, is 
the current approach to fighting the global war on terror the 
correct one, in your opinion?
    Admiral Keating. It is, sir.
    Senator Ben Nelson. Part of the success of this global war 
on terror depends on how the world perceives it, and in your 
AOR, what is the perception of the battle, our battle in the 
war against terror?
    Admiral Keating. I believe, Senator, the perception is 
balanced on the part of our allies throughout the Pacific 
Region, it is a challenge for us in the long-term. There are 
schools of thought that suggest that throughout the tens of 
millions of Muslims in Malaysia and Indonesia, and India, in 
particular, those three countries, that there is a perception 
amongst the rank and file that our efforts may be shifting very 
gradually--the United States efforts from a global war on 
terror to a global war on Islam, and if that's accurate, in our 
view, that would be unfortunate.
    So we're trying to shoot ahead of the duck a little bit 
here, and moderate those opinions if they are, in fact, 
developing by increasing our engagement in those countries, in 
particular, and working across the interagency, in particular, 
with our embassies on a strategic communications plan that 
would, to the best of our ability, offset those potential 
changes in perception.
    Senator Ben Nelson. On a scale of 1 to 10, what would you 
give our chances of being successful in changing the attitude 
toward our efforts?
    Admiral Keating. Seven, Senator.
    Senator Ben Nelson. That high.
    Admiral Keating. Well, if I could amplify, sir.
    Senator Ben Nelson. Go ahead, sure.
    Admiral Keating. I was just in Malaysia, I don't know, 10 
days ago, let's say. My first visit to that country, it's an 
amazing place, and growing in a hurry. A vast majority, in the 
high 90 percentile, of the Muslims in that country are very 
much disenchanted with the radical Jihad Muslim movement. But, 
that's not to say that they're not ever-so-slightly skeptical 
of United States efforts in the Middle East.
    So, it is incumbent on us, in my view, based on my one 
visit to Malaysia, to take that number that I just gave you, 
about seven, and try and move it further to the right, and I 
think we are capable of doing that, not just PACOM, much more 
importantly, in the inter-agency effort led by the State 
Department.
    Senator Ben Nelson. General Bell, what are your thoughts 
about that same effort?
    General Bell. Thank you, Senator.
    Where I sit in Korea, we have a very small, but real, 
Muslim population. However, we have no Islamist terrorist 
activity that has been directed at either the Korean Government 
or U.S. interests.
    There is some concern there that there could be, we do 
track the movement of known names in this arena to make sure 
that we're doing our force protection business correctly.
    I think the real issue for me in Korea is, does our ally, 
in this case, Korean ally or any of our allies, do they stand 
by us in this global war on terror and are they contributing? 
Do they see this threat similar to the way we see it? I would 
offer to you that the citizens of the ROK have demonstrated 
their perspective of this by supporting the contribution of 
troops from the ROK both to Iraq and Afghanistan.
    They have also committed a new force to Southern Lebanon, 
and it will be going into Southern Lebanon this summer. About 
350 soldiers to be part of the peacekeeping force there in the 
Middle East, so the ROK, through the engagement strategy that 
the United States has pursued for the last 50 years with that 
great ally of ours, is standing beside us and contributing real 
capability in real places that matter to the United States as 
we pursue this.
    So, I believe, as General Keating said, that engagement 
with our allies, making certain they understand the risks to 
the world that radical, fundamentalist Islam poses, and how it 
ought to be dealt with on a global basis, is paying off in some 
sectors. Certainly, I think, it is for us in the Pacific.
    Senator Ben Nelson. Admiral Olson, your take on this?
    Admiral Olson. Sir, SOFs in the course of a given year will 
go to about 100 different countries. We wake up most days in 45 
or 50. The nature of those deployments is most often to train 
with counterparts in those nations, we're there by invitation, 
and we work at the small unit level. Most often our deployments 
are in single-digits of people, or low double-digits for a 
finite period of time, measured in single-digit weeks, in a 
specific location for a specific training purpose.
    So, the people that we train with are generally focused on 
either their next deployment as coalition members into 
Afghanistan or Iraq or the surrounding nations, or their 
concerns about the security of their own borders, and the 
rising terrorism threat within their nations.
    There is a general concern that as the balloon has squeezed 
in CENTCOM, there will be increased terrorist activity 
elsewhere in the world, in places that are less governed. So 
that is on the minds of many of the nations that we train in, 
sir.
    Senator Ben Nelson. What about language training? Is your 
language training adequate, General Bell?
    General Bell. Certainly where I deal with our ally, our 
language training is adequate. We have a very aggressive Korean 
language program.
    Senator Ben Nelson. Yes, of course.
    General Bell. We do not pursue an Arabic or Islamic 
training program, but I know that language training across the 
Army is a challenge, we struggled coming out of the Cold War to 
shift our language training efforts to more applicable areas, 
particularly the Middle East. Those shifts have been made, it 
takes years to make a good linguist.
    I've learned now from the last 4 years of overseas duty, 
both in Europe, in NATO, and now in the ROK that at the basis 
of the relationship with any foreign country is our ability to 
speak their language, and their ability to speak ours. It is a 
huge multiplier in the investment that's required by our 
Nation, in language training for our servicemembers, and quite 
frankly, across the other interagency activities of our 
Government, is a vital component of our ability to prosecute 
security initiatives across the world.
    So, we're doing well on Korean training, but I would not 
tell you that we're there yet on the kinds of training that we 
need to secure our Nation in the future.
    Senator Ben Nelson. That's after 50 years plus.
    Admiral Keating, what is your take on this as you look 
toward a broader command?
    Admiral Keating. I would echo General Bell's statement, 
although I think Admiral Olson's probably best qualified of the 
three of us to address specifics for SOFs, but in the Pacific 
theater, we capitalize, to the extent that we can, on American 
citizens who have family roots in the countries in our AOR, and 
that is a significant source of language capability for us, and 
I know the Services are actively concentrating on determining 
what those capabilities are in the individual joining the 
Service, and trying to capitalize on those.
    A lack of language ability does not adversely affect our 
readiness, Senator. So, that's a negative way of putting it, it 
can affect our plans based on the capabilities that we have.
    Senator Ben Nelson. Finally, Admiral Olson? You have a much 
broader range, array of requirements.
    Admiral Olson. Yes, sir, we do. We study many more 
languages, we have different structures and some advantages 
over the big Services in terms of the way that we manage our 
language programs, it has been a high priority for us for many, 
many years.
    But all that said, the answer to your question, is it 
adequate? It's still not adequate. It's a perishable skill you 
have to keep at a language over and over and over, classroom 
study is only part of the answer to being proficient in a 
language, and on the scale of one to five by which languages 
are typically measured, it requires a proficiency level of 
three to really be functional to the point where you can 
instruct and interact and converse in another nation.
    So, we don't have as many as three speakers and above as we 
would like, we're striving to get there, we have instituted 
enhancements to our language programs across all of our forces, 
but it's a continuing struggle, sir.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Senator Reed. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. Just a comment to 
commend our colleague from Nebraska about raising this rather 
delicate and complex issue about the term of global war on 
terrorism. More and more we find that that, for some reason, is 
being misunderstood as a broad indictment against the Muslim 
religion and the Muslim world, when in fact, the terrorists are 
but a minute fraction.
    I noticed that the House Armed Services Committee under the 
leadership of Chairman Skelton has looked into this issue. 
Great Britain, likewise, has begun to examine it, and I think 
your answer on this question--your response, Admiral Keating, 
is very cogent. I personally am going to try and work through 
this issue and try and figure out what we should do on it.
    Senator Sessions.
    Senator Sessions. Thank you.
    Admiral Keating, just briefly--you've, in the past, noted 
that North Korea's weapons of mass destruction program does 
present threats to us, and that as Commander of Northern 
Command (NORTHCOM), you were in command of the Ground-Based 
Missile Defense System, our basic missile defense system.
    Now, you're in the Pacific, that is your AOR--how important 
is it that we keep up with the threat, and that we deploy a 
ground-based system, and sea-based systems, in your opinion, 
today?
    Admiral Keating. It's crucial, Senator.
    Senator Sessions. Admiral Keating, and maybe Admiral Olson, 
we've had some very good success as advisors to the Philippine 
military as they have confronted violent terrorist groups in 
the Southern Philippines. Many have suggested that's a model 
for us in the future about how to fight terrorism. Let me ask 
you, do you think that's so? Would you share basically your 
thoughts, each one of you, as to how we've been successful 
there and what lessons we can learn from that?
    Admiral Keating. Senator, you're right. The work being done 
by our Special Forces in the Pacific training the Philippine 
Armed Forces has resulted in significant setbacks for 
terrorists and the criminal elements that would support them, 
and it's a pretty fine line, sometimes there's no distinction 
in that part of the world, Senator.
    Senator Sessions. But, there was direct connections between 
that group and al Qaeda in the Philippines.
    Admiral Keating. That's correct.
    Senator Sessions. This was clearly an international 
terrorist group.
    Admiral Keating. No question about it. Progress has been 
significant. Again, the pace is not breakneck, but it is 
quantifiable nonetheless. There have been less incidents of 
terrorism throughout that particular part of the world, not 
just Southern Philippines, but Indonesia and Malaysia, and not 
just land-based terrorism, but maritime terrorism, as well.
    So, the progress has been measurable, the model--it has 
application throughout our AOR. I would let Eric comment as to 
whether or not the train-the-trainer system is applicable in 
each and every case, but we find it is very effective in our 
particular theater, Senator.
    Senator Sessions. Admiral Olson?
    Admiral Olson. Senator, I agree with Admiral Keating. This 
is a train-and-assist mission in the Philippines that 
incorporates a number of other disciplines like civil affairs 
and psychological operations activities. We are living with the 
Filipino Army, our operations have a Philippine face on them, 
the people in the local areas are crediting the Philippine 
Government for the goodness that is coming from the activity, 
we are assisting the Filipinos with medical programs, dental 
programs, veterinary programs, school-building programs, and 
those things, so for us, it is a form of counterterrorism in 
irregular warfare.
    Basically, it largely is a humanitarian assistance mission, 
coordinated by their government. It is absolutely a model. It's 
a model that doesn't apply everywhere, but it's a model that we 
ought to apply wherever we can.
    Admiral Keating. Senator, I remembered something else.
    Senator Sessions. Yes.
    Admiral Keating. If I could add--an important aspect of 
this, as those smaller nations' militaries get better at 
counterinsurgency, counterterrorism, they will work more 
closely with each other, without our prodding or our assisting. 
That is a significant benefit, I think, to us, as our Forces 
can now, literally stay out of the equation, as let's say, 
Malaysians and Filipinos work closely together to enhance 
maritime and land security in their respective countries, 
without direct assistance from the United States. That is a 
very positive benefit of the train-and-assist program.
    Senator Sessions. I think that's the first step, and 
basically we did that in Afghanistan--we had SOFs when the 
Taliban fell, that's in 2000--would that be right, Admiral 
Olson? In Afghanistan when the Taliban collapsed?
    Admiral Olson. Yes, sir.
    Senator Sessions. We were working, allied with indigenous 
forces. In the Philippines we work with the Government of the 
Philippines. These terrorist groups are tough, tough fighters, 
and they know how to attack these governments, and with a 
little help, sometimes these governments can be effective in 
defending themselves, rather than us carrying the burden.
    General Bell, you mentioned the build-to-lease situation in 
Korea. You're moving away from the demilitarized zone (DMZ)?
    General Bell. Yes, sir.
    Senator Sessions. Further south, which makes good sense. 
The Koreans are funding a substantial portion of that. They've 
been a terrific ally. But we do need to build and the way they 
do in that country, a build-to-lease system--would you explain 
to us what we get if we do that? Why it might cost a little 
more than you would think necessary upfront, but in the long-
run why we would be a winner to take advantage of this 
situation?
    General Bell. Thank you very much, Senator Sessions.
    In my 38 years of military service, and 14 years overseas, 
I have rarely seen the confluence of what we might say is a 
normal building program with national policy and strategy, but 
I have that facing me now in Korea, and I think, the Nation 
does.
    So, this is a reasonable question, and I'd like to spend 
just a moment answering it, because it's really important to 
the United States.
    ROK is a terrific ally. We've had some issues with our 
allies, certainly in the last 10 years we've worked through all 
of those, they have become a First World country. This is the 
10th largest economy in the world. The notion of M*A*S*H and 
Korea is something for the movies. We land in Korea now, you 
have to search for an airport because it is likely that there's 
a high-rise, 80-, 60-story building right there. This is a 
modern First World country with all the trappings of the most 
advanced nations in the world. So they've been expressing a 
level of independence, and God bless them for that.
    This is a great success story for the United States of 
America, in coming to the aid of an ally who was war-ravaged, 
and helping them for the long-haul to get on their feet and to 
become a major world power.
    So, in that regard, it is now time for us to turn over more 
and more of the security responsibility of the ROK to the 
Koreans, and with our guaranteed support, as a reliable and 
trusted ally.
    Part of that is an agreement that the two nations have made 
at the senior administration level, to move our forces from 
north of Seoul, and in Seoul, to south of Seoul, thus ensuring 
that the South Koreans are responsible for dealing directly 
with a threat along the DMZ, and second, getting our forces, 
literally, out from under artillery range, and last, allowing 
us to consolidate at efficient hubs, instead of these 
oftentimes pathetic little enclaves where we are still living 
and working.
    The South Koreans have spent an enormous amount of money 
already helping us with this move. They bought 2,800 acres of 
land next to a place called Camp Humphreys, South of Seoul, for 
$1 billion--bought it, from the local citizens. It's there 
where we want to do this expansion.
    They've agreed to spend over $4 billion in military 
construction--the Koreans have--at their expense, to facilitate 
our move, to build the buildings we need. They've agreed to 
allow us to use levels of burden-sharing money to facilitate 
these operations.
    We've agreed, hopefully, to do one thing, and that is, 
build family housing for the currently authorized members of 
our servicemembers who have their families in Korea today. This 
isn't about normalization in the future, it's about our current 
family housing, and some housing for senior noncommissioned 
officers (NCOs), and officers at this place called Camp 
Humphreys. So, we want to do it through a build-to-lease 
program.
    We've asked Congress in this year's National Defense 
Authorization Act for Fiscal Year 2008 to raise the lease cap 
that we legislatively are faced with right now, to empower us 
to deal in an economy that is a First World economy, and has 
experienced a growth in the standard of living and the cost of 
living. Quite frankly, sir, the lease cap that we have right 
now, legislatively, does not attract an investor to do this 
work.
    If we get the lease cap raised in the legislation this 
year, then we'll be able to meet our end of the bargain, and 
that is putting up 2,800 sets of quarters, both family, senior 
NCO, and officer barracks to meet our end of what has been a 
very good deal for the United States of America. Billions and 
billions and billions of dollars--maybe as much as $6 to $7 
billion--spent by our ally and something dramatically less than 
that to be spent by the United States to make this move.
    So, to make a long story short, I think that this is one 
case where a build-to-lease project--and I did build-to-lease 
in Germany, just before I went to Korea. Build-to-lease there 
was all about us. Build-to-lease in Korean is all about the 
alliance, and it's about our partnership and our future 
commitment to each other, and it's about our people.
    So, I strongly, sir, ask for support of Congress to raise 
that lease cap so that we can meet our obligation. We can't 
move to Camp Humphreys unless we have a place where people can 
live, and we've agreed to do that, and it does take 
congressional support, sir, and I would appreciate it.
    Senator Sessions. I think you're exactly right. I visited 
Korea several years ago, and was very disappointed in the 
quality of housing that our soldiers have in those camps, some 
of them had leaking roofs and Quonset huts from the 1950s and 
we were losing personnel from the military who got assignments 
there.
    Now, we've already made some progress, and this move could 
really create a much better standard of living.
    General Bell. Yes, sir.
    Senator Sessions. We do end up with the property after the 
lease period extends.
    General Bell. We do.
    Senator Sessions. We end up owning it, and don't have to 
make the payments anymore, and the cost of living in South 
Korea is as high as any place in the world, or most places. I 
think this is good advice, and thank you for your leadership.
    General Bell. Sir, it's a good point, if I could just add 
on--this is a 15-year lease, that is congressionally mandated, 
it used to be 10 years, it was raised to 15. But after 15 
years, we retain use of that property, free, and don't have to 
pay lease on it anymore, if we keep it 100 years. So, I realize 
that we do budgets here year to year, and what you're going to 
tell me is going to be good for me 15 years from now, that may 
not be our immediate problem, fiscally, here today, but for 
sure, on the 16th year that our servicemembers live in those 
quarters, we're not going to be paying a lease payment, but 
we're still there.
    Senator Sessions. We're going to end up reducing our number 
of personnel in Korea, and I believe we can end up giving them 
much better quarters, and that would be a major step for us as 
a Nation, and thank you.
    General Bell. Thank you, sir.
    Senator Reed. Thank you, Senator Sessions.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to welcome our witnesses this morning, and I want to 
thank you and your families for the long years of service that 
you've given our great, great country.
    Admiral Keating, I want to say Aloha to you, good to have 
you there, even for 4 months in Hawaii and in the Pacific, and 
I hope that your transition there with you and your family has 
been smooth. I want to wish you fair winds and following seas 
in your work there at PACOM.
    Admiral Keating. Mahalo.
    Senator Akaka. You know that a great deal of attention here 
has been given to Iraq and to Afghanistan, but we need to look 
at the Pacific as having special interests of security there 
for our country as well, and that the Pacific is another front 
of the war on terrorism. So, we're glad to have you there.
    Admiral Keating, in your written statement, you stated that 
there is a single facility in PACOM in your AOR for tactical 
access to the Defense Information Systems Network. What 
concerned me is you indicated that if this facility were 
damaged during an attack or natural disaster, there is no 
backup, no redundant capability to restore PACOM's 
communication requirements for the war on terror or the 
Ballistic Missile Defense or even the execution of the standing 
operations of PACOM.
    Admiral, what is the situation there about on that? Is 
there really no backup system to that?
    Admiral Keating. Senator, as best I can describe, there is 
a single point of failure for the system, and I'm happy to 
provide you classified information for the record.
    Senator Akaka. Thank you.
    [The information referred to follows:]

    [Deleted.]

    Admiral Keating. The single point of failure--it's not like 
an on-off switch, however, this is a large facility in your 
State through which certain kinds of communications--not all 
communications--but certain kinds of communications upon which 
we rely, but we're not dependent on them, would those forms of 
communications pass through this large facility.
    There are other ways of moving the information. It is not 
as timely, and on occasion they can be less secure. But it is 
not so critical that if there were to be, let's say, a tsunami 
that would wipe this very large, complex, well-fortified 
facility, off the face of Hawaii, we would not be prohibited 
from conducting our operations.
    So, it is a single point of failure for standing 
communications systems. We have backups that are less 
effective, and less efficient, and consequently not desirable, 
but we could use them if we had to.
    Senator Akaka. Can you tell me, or any one of you, whether 
there is a similar problem in other commands or AORs?
    Admiral Keating. There are similar challenges, Senator, the 
work-arounds they're not so elegant, in some cases it's 
literally using cell phones instead of classified systems, but 
if the situation is sufficiently grave, that's what we'll do.
    Senator Akaka. Thank you.
    Admiral Keating. All of the other combatant commands.
    Senator Akaka. Admiral Olson, as indicated in SOCOM's 
posture statement, SOCOM is a lead combatant command for 
planning and synchronizing, and when directed, executing global 
operations against terrorist networks in coordination with 
other combatant commanders.
    One of the pieces of the integrated approach to the global 
war on terror described in your posture statement is that 
actions are being taken to attack the roots of terrorism and 
eliminate its further growth.
    Admiral Olson, how is this strategy being implemented in 
countries like Syria and Iran?
    Admiral Olson. Sir, SOCOM is the DOD lead for planning and 
synchronizing DOD activities in the global war on terror and as 
you said, and when specifically directed for executing those 
activities.
    In many of those activities, we're in a supporting role. We 
support State Department or another agency of Government in 
conducting many of those activities. We are embedded in the 
country teams of many embassies, as an example, to provide 
psychological operations support, or some military information 
support kind of activities. We're supporting rewards for 
information programs, those sorts of things, and of course, 
we're training with our counterparts around the world. Again, 
several dozen nations per year where we train with our 
counterparts, and that has a direct local impact on how they 
view the United States and the skills that they bring to the 
fight, if they're engaged in it.
    In a country like Syria or, obviously, in Iraq, we're there 
in fairly large numbers, and we are conducting the full range 
of Special Operations activities. Most of our forces in Iraq 
are not engaged in direct action activities every day and 
night--most of them are training with their counterparts in the 
Iraqi armed forces.
    There is a SOF Brigade, for example, within the Iraqi Army 
that has been raised, in a sense, by U.S. SOFs and we've seen 
them go from following us onto the targets, to leading us onto 
the targets. From us being the largest number, with a few of 
them, to them being the largest number with a few of us. That 
is the kind of activity that we synchronize and coordinate.
    Again, well beyond direct action into theater security 
cooperation activities, if they are directly involved in the 
global war on terror, then U.S. SOCOM has some responsibility 
for working with each of the combatant commands to coordinate, 
synchronize those activities for maximum effect.
    Senator Akaka. Admiral, in particular, how is this strategy 
being used with the sectarian grievances between the Kurds and 
the Sunnis in Iraq?
    Admiral Olson. Sir, the synchronizing global activities in 
the global war on terror does not apply directly to the 
sectarian violence. We are supporting the Iraqi armed forces. 
We are working with the Iraqi armed forces, and training with 
the Iraqi armed forces as they are directed by their 
operational commanders on target. So that aspect that you're 
addressing is not directly applicable here.
    Senator Akaka. Thank you very much.
    Senator Reed. Thank you very much, Senator Akaka.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Admiral Keating, I want to pick your brain a bit, but first 
I have a question I would like to ask Admiral Olson.
    There have been a number of reports, Admiral Olson, in the 
media that individuals on Active Duty under your command use 
Dragon Skin body armor. The Marine Corps recently joined the 
Army in banning the use of Dragon Skin body armor. Can you 
confirm whether personnel under your command are wearing Dragon 
Skin body armor?
    Admiral Olson. Sir, I can't say absolutely whether or not 
they're wearing them. I'll tell you that Dragon Skin is not a 
U.S. SOCOM program, and if it's being worn, it's being worn 
without the authorization of SOCOM leadership.
    We have a program, the Signal Processing, Evaluation, Alert 
and Reporting (SPEAR) program that develops and procures 
Special Operations peculiar body armor for all of our forces. 
We've bought close to 30,000 sets of SPEARs body armor and 
issued that to all of our force.
    Senator Webb. Right, so if there are individuals wearing 
Dragon Skin, it is not authorized, is that correct?
    Admiral Olson. I will take that for the record, sir, in 
terms of specifically whether or not we have prohibited it. It 
certainly is not a SOCOM program, we do not invest in Dragon 
Skin armor.
    Senator Webb. I understand that. The question is whether 
it's authorized if someone purchases it on their own. This is a 
point of contention among a lot of families with people who 
have sons and daughters in the Army and the Marine Corps, 
whether or not this is a type of body armor that is better than 
the traditionally-issued body armor, and whether or not people 
are allowed to wear it. But, I'd appreciate it if you could let 
us know, and please not on a 60-day for the record kind of 
deal. It should be a pretty easy thing to find out, and I'd 
appreciate it if we could get that information.
    Admiral Olson. Certainly.
    [The information referred to follows:]

    The only body armor authorized for use by Special Operations Forces 
(SOF) is the SPEAR body armor system procured by the U.S. Special 
Operations Command (USSOCOM).
    The prohibition on use of non-SPEAR body armor pre-dates formal 
testing of ``Dragon Skin'' and was intended to prevent SOF operators 
from wearing body armor of unknown quality. The U.S. Army's formal 
evaluation of Pinnacle Armor SOV 3000 (Dragon Skin), conducted May 5-
19, 2006, determined that this system failed to meet both Army Service 
and SOF standards.
    A survey of USSOCOM's component commands conducted last week 
verified that no Special Operations unit is purchasing ``Dragon Skin'' 
body armor, and that no unit commander permits the wearing of privately 
purchased ``Dragon Skin'' body armor.
    In our continuing quest to provide the highest quality protective 
equipment, we will conduct another full and open competition for 
ballistic plates. The contract will be a 5-year Indefinite Delivery 
Indefinite Quantity. The award is anticipated for 4th quarter fiscal 
year 2007. Pinnacle and other vendors will be able to compete for this 
new contract.

    Senator Webb. Admiral Keating, I'd like to talk to you a 
bit about national strategy in this region, not simply military 
strategy. We don't get many opportunities to discuss all the 
components as they fit together. I have a lot of time in this 
part of the world, first as an Active-Duty marine, as a 
military planner, as a journalist, as a business person, I've 
been over there as a Government person, I've been there as a 
guest of different governments, and very rarely with Americans, 
which has made it a very unique experience over the past 10 
years or so to watch the emergence of China.
    In fact, not just China--ironically, I was in Japan in 1998 
when the Koreans shot the missile nearby, and I was in Japan 
again in 2002 when former Prime Minister Hashimoto announced 
here that they knew, the Japanese knew that Korea had gone over 
the line in terms of nuclear capabilities.
    I have a real concern that with all of the focus that we 
have spent for a good bit of time on the Middle East that we 
have been ignoring clear danger signals that come from the 
strategic emergence of China for the past 20 years. I've been 
talking about the conscious strategy of the Chinese with 
respect to the Muslim world. It was hard to get people to even 
listen, say, 15 years ago on this.
    We've spent a good bit of time talking about China's 
historic strategic interests in Korea and Northeast Asia, 
Taiwan--although Taiwan really is only one small part of the 
concerns we should be looking at, even militarily, in that part 
of the world. Half of East Asia is Muslim--Mindanao, Malaysia, 
Indonesia--and China pushed very hard for years in South Asia, 
and the strategic axis clearly in Southeast Asia, because it 
was directly in their interest, but in South Asia, also, 
partially because it destabilizes the United States.
    They were partnered up, in many ways, with Libya, they 
enabled Pakistan to acquire nuclear weapons, or Chinese 
companies under a governmental system like that. They were 
partnered up with Iran when I was Secretary of the Navy in 
1987, in terms of weapons systems.
    We've given them a free pass, as we spent so much national 
energy in and around Iraq, for nearly 20 years now. I see them 
as, in terms of national strategy, when you look at the subtle 
combination of diplomacy, economic policy and military policy--
I see them having been enormously effective when we've been 
tied down, and some of this is pretty specific.
    I think I mentioned to you when you were meeting with me 
before your confirmation hearing about the port facilities that 
are in Pakistan? The ones that I personally saw in Myanmar 
several years ago. An hour outside of Yangon there's a huge 
port facility that the Chinese have built that was basically 
empty at the time, but was giving them warm water access. I 
mentioned on a number of occasions the Shikoku Islands where we 
can look at Taiwan, but you can see they're constantly wanting 
to, or at least in our perception, is that they're wanting to 
push the envelope even beyond Taiwan and toward the Ryukyus, 
and I'm just really interested, and to the extent that you are 
monitoring this incremental but, I think, pretty palpable 
expansionism, and what your thoughts are in terms of national 
policy, what we should be doing about it.
    Admiral Keating. It is a concern of ours at PACOM, Senator. 
The growth that China is--they manifest this growth, and as we, 
at the PACOM move through our region, a mantra that we hear is 
``The United States proposes, China pays,'' for whatever 
facility upgrade, military, diplomatic, doesn't so much matter, 
they come along and start stroking checks, and that is not, of 
course, specific just to the PACOM.
    With that in mind, that leads to a desire of ours at PACOM 
to integrate this national strategy, national strategic 
strategy, with our military strategy, and not spend all of our 
time just in China working with China, but to move throughout 
the region to consult with our embassies in larger and smaller 
countries.
    Vietnam is an example, I just spoke to Ambassador Marine 
this morning, and he mentions the growth that Vietnam is 
demonstrating economically, and improvements in human rights.
    All the while, they have a very wary eye to the North, and 
so it seems to me by working with, on bilateral and 
multilateral bases with countries throughout the region--not 
specifically to counter Chinese intentions, or even progress, 
but so as to keep those other countries apprized of our 
assessment, to engage with them, militarily, diplomatically, 
politically, economically, we provide an effective hedge--an 
increasingly effective hedge, against what may be actual 
Chinese expansionist policies or, more specifically, Chinese 
military intentions to move beyond, as you say, just the Taiwan 
Straits into a bluewater capacity.
    So, we're not going to concentrate exclusively on China, we 
will spend time and effort throughout the region so as to 
develop stronger relations, enhance security, build military 
and diplomatic relationships, with an eye toward this hedge 
against Chinese expansionism.
    Senator Webb. But I would suggest to you that there are two 
levels of approach on this that could be effective--and I do 
agree with you, in terms of the danger of flagging this as 
overt expansionism, which it's not--it's a national strategy 
that we need to counter. I think your predecessor, Admiral 
Fallon, did a really fine job in terms of attempting to engage 
the Chinese, that's one piece of it. The second piece of it 
would be a really strong push in these so-called ``second 
tier'' countries that don't, historically, have the kind of 
connection that can now be developed. It's either going to be 
developed, or they're going to see the United States recede in 
the region, this is what I hear, and Vietnam is a good example.
    Admiral Keating. Right.
    Senator Webb. I was in Vietnam a year and a half ago, and 
one of the pieces of news in the Vietnamese press was that the 
Vietnamese, the South Koreans, and the Japanese have agreed to 
open visa arrangements, similar to what we have in the European 
Union, or when we go into Thailand. I would think that that is 
a subtle way that they are communicating with each other that 
they have a commonality of interests that is in some ways 
directed at what is happening to the north, and how it needs to 
be counterbalanced.
    Admiral Keating. Right, agreed.
    Senator Webb. Thank you for your testimony.
    Senator Reed. Thank you, Senator Webb.
    Senator Warner, you have additional time, would you like to 
take it now?
    Senator Warner. Thank you. I just want to do one follow-on 
to my distinguished colleague's question. Admiral Keating, as I 
look at your portfolio, you probably have more diplomacy in 
your portfolio than most of our commanders abroad. I want to 
say, particularly, Senator McCain had hoped to be here this 
morning, given his heavy investment in this region over many, 
many years, and that of his fathers and forefathers. So, I'll 
just ask unanimous consent to put into the record his 
statement.
    Senator Reed. Without objection.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    I join Senator Levin in welcoming Admiral Keating, General Bell, 
and Admiral Olson, and in thanking them for their service to our 
country.
    Admiral Keating and General Bell, the Pacific area of 
responsibility (AOR) presents enormous opportunities and challenges for 
the United States. Among those challenges, the most immediate is the 
situation on the Korean Peninsula. North Korea's nuclear and missile 
programs continue to pose a threat to its neighbors and to America's 
interests in East Asia. It remains to be seen whether the February 2007 
agreement by the six parties will ultimately lead to a denuclearized 
Korean peninsula; and whether North Korea is truly committed to a 
complete accounting of its nuclear program, materials, and facilities; 
and to complete denuclearization with effective verification--the 
essence of any lasting agreement. Pyongyang has, regrettably, already 
missed the first milestone for inviting in International Atomic Energy 
Agency inspectors and sealing the Yongbyon reactor. We must proceed 
cautiously as we observe in the weeks ahead whether Pyongyang will take 
the initial steps toward disarmament, including shutting down the 
reactor. In the meantime, Pacific Command and United States Forces-
Korea play a vital role in providing stability and deterrence in 
support of this diplomatic effort.
    Admiral Keating and General Bell, we look forward to hearing your 
assessments of the situation on the Korean Peninsula, including any 
changes you have seen over the past year in North Korea's military 
posture, and your assessment of North Korea's nuclear program, 
ballistic missile and proliferation activities, and the readiness of 
our forces to respond to any possible developments on the Peninsula, 
both now and in the future.
    Admiral Keating, Pacific Command (PACOM) plays a critical role in 
sustaining and expanding the U.S.-Japan strategic alliance, the 
cornerstone of our security umbrella in northeast Asia. PACOM and the 
Commander of U.S. Forces Japan must keep up the robust level of 
dialogue and ensure elements of our relationship, such as the Defense 
Policy Reform Initiative, remain on track. There are a number of ideas 
circulating about the ways in which we can strengthen our already 
robust bilateral ties with Japan, such as the recently released CSIS 
``Armitage II'' report.
    Admiral Keating, I look forward to your assessment of China's 
military modernization program and plans, to include China's continuing 
build-up of missiles across the Strait, and the impact of China's 
military modernization on U.S. interests in the region. I would also be 
interested in your assessment of the current state of China-Taiwan 
cross-Strait relations, which remains at the core of U.S. interests in 
the region. Beijing's regional and global aspirations are growing, and 
properly managing this relationship is vital.
    In the Asia-Pacific region, the global war on terrorism is being 
waged in Singapore, Malaysia, Thailand, the Philippines, Indonesia, and 
other nations. I look forward to an update on the efforts of your 
command to counter the numerous terrorist and transnational threats in 
your AOR.
    Fortunately, the United States does not face these challenges 
alone. One of the vital responsibilities of the PACOM commander is to 
work closely with our key allies in the region--Japan, South Korea, 
Australia, to name a few--to strengthen bilateral relations and to 
develop multilateral approaches and responses to the challenges and 
opportunities that we face in the U.S. PACOM.
    Admiral Olson, this year marks an important milestone for United 
States Special Operations Command (SOCOM) because the command will 
celebrate its 20th anniversary. I, and all Americans, recognize the 
magnificent performance and rich heritage of SOCOM's members, past and 
present. We honor their contributions and sacrifices for the defense of 
our Nation and are conscious that now, more than ever before in that 
illustrious history, we are relying so heavily on Special Operations 
Forces.
    U.S. SOCOM is simultaneously the lead combatant command for 
planning, synchronizing, and executing global operations against 
terrorist networks; conducting demanding, specialized, and sensitive 
missions in hostile areas; performing foreign training and security 
missions with partner nations; and undertaking a transformation of 
unprecedented scope.
    This morning the committee will be interested in the readiness of 
SOCOM, your progress in transformation; the growth in size of SOCOM; 
the establishment of the Marine Corps SOCOM; your ability to attract, 
recruit, and train servicemembers at the quantity, and of the quality, 
required to sustain this growth; and the sustainment of language and 
cultural training in light of heightened operational tempo. In 
addition, in closed session, the committee will be interested in your 
assessment of efforts to locate the al Qaeda senior leaders.
    We welcome our witnesses this morning and look forward to their 
testimony.

    Senator Warner. Thank you very much.
    I think following on to my colleague's question on China, I 
think integrating China into the global community is a strategy 
we should also look at. That would involve, in my judgment, 
trying to explore a framework of more military-to-military 
dialogue, more transparency and coordination with China on a 
number of things.
    Now, I think China was a very stable and major contribution 
to the Six-Party Talks. Admiral Fallon and I, and other members 
of the committee, and throughout his distinguished tenure he 
tried to push that. I hope that you'll continue and maybe 
increase the momentum.
    This is such a fragile world in which we live now, and an 
incident can trigger unanticipated consequences. In the most 
intense part of the Cold War, I remember Senator Nunn, the 
chairman of this committee, and I worked on putting together a 
hotline of communications with the Soviet Union, and prior to 
that I had a modest hand in establishing the Incidents at Sea 
Talks, whereby given the friction between the intelligence-
collecting elements of our surface fleets and some of our air 
units, we were coming perilously close to having an incident. 
Indeed, we did experience one with China, accidental though it 
may have been, it was a very difficult one to work our way out 
of.
    Do you see a reciprocal interest in China to try and 
develop themselves somewhat along the line of the Super Power 
structure that the Soviet Union once had, and how that was a 
value to the United States and the Soviet Union to avoid 
conflict during the intense Cold War period?
    Admiral Keating. Senator, we do. Since I've been in the 
Pacific, I have learned to my pleasant surprise that there is 
more ongoing than I would have thought. As an example, there 
are 90 different events that involve an exchange of officers or 
senior enlisted currently on the books for fiscal year 2007. I 
would not have guessed it, and that's obviously, almost two a 
week.
    So, there is dialogue at all levels, and I think that is of 
profound importance. It's not just the old grey-haired guy who 
shows up in Beijing to spend 3 or 4 days in high-level 
conferences. We have soldiers, sailors, airmen, and marines at 
various levels who are developing the contacts with their 
counterparts in China that could go a long way to diffuse a 
situation that historically will develop.
    In two predecessors removed from the Pacific Commander, 
from where I currently sit, when the incident occurred, we did 
not have phone numbers to call counterparts, something as 
fundamental as that. You raised the issue of a hotline, we're 
actively exploring that, we now have literally the phone 
numbers on military bases which we didn't have 5 years ago.
    So, exchange programs, robust--we're going to improve them 
and enhance them--exercises, we have a very slow approach in 
terms of quality, we are going to increase that, we are going 
to be as aggressive as we can, Senator, and we will increase 
the visits that we conduct, and welcome them into our 
headquarters as well.
    Senator Warner. I would hope, for example, on this, it's 
one thing to have a pocketful of phone numbers, but we actually 
had a telephone right on the desk of the Secretary of State and 
I think it was Secretary of Defense, that phone went direct, 
instantaneously.
    Admiral Keating. We're working with them to develop that 
very capability.
    Senator Warner. I would hope so.
    Then, again, the framework for the Incidents at Sea, was a 
very effective one.
    Admiral Keating. Right.
    Senator Warner. These are the sort of measures. We have to 
recognize China is emerging. Clearly, we are going to try and 
maintain a certain measure of superiority as it relates to the 
relationships of arms, I think we've covered that, but I 
believe that China will reciprocate if given the proper 
opportunity to do so.
    Admiral Keating. Yes, sir, I agree.
    Senator Warner. Now, address the current status of the 
Taiwan situation. We have the Taiwan Relations Act. But 
sometimes tempers flare over there, and in such a way that it 
could trigger unintentional consequences. I hope Taiwan 
recognizes what has been discussed here this morning, that the 
United States of America is heavily engaged, militarily, 
worldwide. We do not need another problem in that region. So, I 
hope they don't try and play the Taiwan Relations card to their 
advantage.
    Could you give us the current assessment that you have on 
that situation?
    Admiral Keating. Yes, sir.
    Senator, it's my assessment that I'm very confident that 
Taiwan, they understand our position, they understand how 
emphatically we emphasize to them that their actions should be 
defensive in nature, not offensive, and that we remain 
committed to helping them provide for their defense, but it is 
very much in their interest not to conduct themselves, either 
by speech or by action, in a way that could be misconstrued by 
China in an unfortunate way. As it happens, Taiwan is 
concluding a significant military exercise on their island 
right now, we have observers there, and I will be back at our 
headquarters tomorrow to take a full debriefing.
    Senator Warner. Fine, point well made.
    My last question is regarding the normalization on the 
North Korean peninsula. Surprisingly, we simply have an 
armistice that's been in place since, what--1953, 1954?
    General Bell. 1953, sir. Fifty-four years ago.
    Senator Warner. I've had some modest relationship with that 
part of the world, having served in the Marines during that 
war.
    General Bell. Yes, sir, I know.
    Senator Warner. Isn't it time that we try and move towards 
a treaty to resolve such uncertainties that linger in 
connection with an armistice as the protocol in place, versus a 
treaty? Do you see an initiative following on to these Six-
Party Talks to go to that level to bring about a cessation of 
tensions on the peninsula?
    General Bell. Thank you, Senator Warner.
    Certainly, 54 years is a long time, you're right. The good 
news is that containment and deterrence have worked very 
effectively to allow that area of the world to grow and 
prosper, and give North Korea an opportunity to join the free 
community of nations, and it has chosen not to do that. You're 
right, it still has a large army, and a dangerous army, 
postured along the DMZ, which could --with a little provocation 
and almost no warning--launch a strike into South Korea. It 
would not be successful, I will tell you that. But it could, 
because of the density of the population of South Korea, cause 
enormous damage.
    Senator Warner. Damage, not only to South Koreans, but U.S. 
interests and personnel.
    General Bell. Big time. Yes, sir, indeed. So, it's in 
everybody's interest to solve this 54-year old problem, and 
certainly the armistice was never set up to be a permanent 
condition, it was always meant to be a forum to separate the 
warring parties, to allow neutral nations to observe and report 
on the now stood-down parties, and give the diplomats a chance 
to find a lasting peace. Whether that's reunification, or 
another regimen, that was the duties of a range of diplomats at 
those times, and we've not had success.
    North Korea has been an intractable opponent.
    Senator Warner. Where we are now, and there's been a 
successful Six-Party Talks, it seems a logical follow-on might 
be that initiative, and I hope our country would take it.
    General Bell. It could be, and I hope so.
    Senator Warner. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Warner.
    Senator Bill Nelson.
    Senator Bill Nelson. Admiral Keating, I want to ask you 
about the effect of the China anti-satellite (ASAT) test, but 
before I do, I just want to make an editorial comment. That 
what they have done with this test is put up thousands and 
thousands and thousands of pieces of debris, and the Air Force 
is tracking 1,700 pieces of large debris which--any one of 
which would be a catastrophic failure--large debris more than 3 
centimeters--on any kind of spacecraft.
    In addition, there are tens of thousands of pieces of 
debris that are greater than one centimeter up there as a 
result of this ASAT test. A piece of debris greater than 1 
centimeter would do significant damage to any spacecraft, and 
would be lethal if hitting an extra-vehicular activity suit 
while an astronaut is out on an extra-vehicular activity, 
space-walk operation.
    So, I'm going to take every opportunity that I can to call 
attention to this, and it just all the more makes me wonder, as 
a result of the New York Times article yesterday that discusses 
the debate that went on within the administration as to whether 
or not the U.S. should have warned China ahead of their launch 
of this ASAT test that they should not do it.
    What's your view?
    Admiral Keating. The ASAT test was an unsatisfactory 
demonstration of technological capability, in my opinion, 
Senator. In my position at NORTHCOM I was certainly aware of 
the challenges attendant to the introduction of debris in 
space, you'd be more familiar with what it's like up there than 
anybody here, but our friends at Air Force Space Command 
assured me that these objects, albeit almost microscopic, are 
lethal.
    The policy discussion as to some sort of declaration to 
China prior to the launch is one in which I would have engaged, 
and I would have recommended a very strong declaratory policy 
to China on the part of the United States Government against 
launching that technological demonstration. I would have 
recommended against China launching it, and expressing that in 
very strong terms to China.
    Senator Bill Nelson. I wish whoever made that decision 
would have listened to you, and I agree with you. I think we at 
least ought have warned them, and particularly, when you start 
talking about tens of thousands of pieces of debris that can 
not only harm our assets, and including the international space 
station, but that can harm the assets of other nations that are 
up there.
    A total of 10 percent increase in total debris in space, as 
a result of that one Chinese ASAT test. China ought to be held 
to account for it.
    Admiral Keating. I agree, sir.
    Senator Bill Nelson. It was at an altitude that this stuff 
isn't going to degrade for years, at least a decade.
    Let me ask you, if the administration had taken the advice 
of folks like you, and warned China ahead of time, do you think 
China would have not conducted the ASAT test?
    Admiral Keating. Senator, I don't know.
    Senator Bill Nelson. I don't know, either. But, we'll never 
know, because nobody ever said it.
    Well, let me ask you----
    [Audience interruption.]
    Senator Reed. The committee will suspend--ma'am, can you 
please sit down so we can conduct the hearing. Thank you very 
much.
    Senator Nelson.
    Senator Bill Nelson. By the way, in the Strategic 
Subcommittee that Senator Sessions and I were leading the other 
day, I saw some ladies standing up in the back, and I insisted 
that some of the gentlemen in the audience give the ladies a 
seat. I was raised to think that if there's a chair that you 
don't have a lady stand up. Well, low and behold, one of the 
ladies was one of the ones that stood up and interrupted the 
session, of which I reminded her, I was the one that enabled 
her to have a seat.
    So, anyway, this is America, and this is what we're here, 
to try to understand the cross-currents of all kinds of ideas, 
and develop Government policy.
    Let me ask you, Admiral Keating, does the Chinese ASAT 
test, does it change your thinking in planning and strategy in 
the Pacific?
    Admiral Keating. It has not yet, Senator. Beyond my 
commitment to discuss it with appropriate officials when I 
visit China. As far as execution of plans and policy, we have 
not made any changes since I've been in the Pacific.
    Senator Bill Nelson. General Cartwright had a planned visit 
to China to visit his counterpart, and it was cancelled as a 
result of the January ASAT test. Do you think that we ought to 
be rescheduling this trip? What about our military-to-military 
contacts with the Chinese? Should they continue, and should 
they be expanded?
    Admiral Keating. I believe they should continue, and I 
would endorse expansion, Senator.
    Senator Bill Nelson. All right. I've asked you some tough 
questions, Admiral, and I want you to know I appreciate the 
candor of your remarks.
    Admiral Keating. Thank you, sir.
    Senator Bill Nelson. You also are very candid with me in 
private, as well as public, and I want you to know I appreciate 
that.
    Admiral Olson, we know the problem that we're going through 
regarding the wear and tear on our conventional forces as a 
result of Iraq and Afghanistan, and we have gone through that 
on this committee quite a bit of times. Can you share with the 
committee, with regard to your SOFs, the cycle of deployed 
time, the training time away from home, and the rest and reset 
time for the Special Forces?
    Admiral Olson. Yes, sir. Of course, many disciplines in 
SOFs, the data is different for all of them, but at the high 
end of our force, those Green Berets, SEALs, the aviation 
crews, those are typically at about a one-to-one ratio now. 
Sometimes a bit longer back than forward, but sometimes a bit 
longer forward than back.
    That creates stress on the force in a number of ways, and 
many of the places where the forces are stationed in the United 
States don't accommodate quality training nearby, so there is a 
requirement to travel to train, and up to half of the working 
days in between deployments are spent away from home, training 
for the next deployment.
    So, we understand that this is a long-term drain on the 
force. Our force has stuck with us so far, our re-enlistment 
rates are pretty good, better in some ways than we had 
anticipated. We are growing the force to provide more out 
there, to get to the places where we haven't been, which would 
put some more variety in the deployments than we've had in 
recent years.
    Wear and tear on the equipment is another factor. Of 
course, we're deploying it at a more rapid rate as well, with a 
much larger percentage of our force overseas. So, I would say 
briefly that we are feeling the strain of back-to-back 
deployments, our training in between has been decreased. We 
have had to prioritize some training so low that it's dropped 
off the scale in some cases--some of the training that we used 
to consider important to us, but is not urgent now--and the 
long-term impact of all that is to be seen.
    Senator Bill Nelson. Just to conclude with this, Mr. 
Chairman, with SOFs, it's not any appreciably different than 
through our regular forces?
    Admiral Olson. From the statistics I've seen, we're about 
on-par with the Army and the Marine Corps in general, sir.
    Senator Bill Nelson. Thank you, Mr. Chairman. Thank you, 
Admiral.
    Senator Reed. Thank you, Senator Nelson.
    Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service to our country, and 
for your presence here today.
    Admiral Keating, I'd like to follow up on Senator Nelson's 
excellent questions about the satellite attack that the Chinese 
undertook. You had mentioned--and I didn't get your exact 
words, but you said this was either an unsatisfactory, an 
unpersuasive, technical demonstration--what did you mean by 
that?
    Admiral Keating. China's demonstration of this 
technological capability has led to what is, at least, an 
unfortunate, if not an unsatisfactory situation for, not just 
military space, but all those--as the Senator mentioned--as a 
medium.
    Senator Bayh. You weren't meaning that they demonstrated a 
technical weakness on their part.
    Admiral Keating. No, sir. To the contrary.
    Senator Bayh. Unlike the North Korean missile tests that 
didn't go so well, that demonstrated they had some problems, 
here--you're saying it created--it was an unsatisfactory 
situation created for everybody, as opposed to them having a 
technical problem.
    Admiral Keating. That's correct.
    Senator Bayh. That's what I wanted to clear up.
    Admiral Keating. That's correct. That's what I meant, 
Senator.
    Senator Bayh. Let me follow up with one last question, why 
did they do this?
    Admiral Keating. I'd be guessing, Senator, as to their--it 
is a demonstration of a capability that, if in a--that would 
be, could be used in a time of conflict to disable some 
systems, military systems that would be important to us and 
others.
    Senator Bayh. They were sending us and the rest of the 
world a message that they had the ability to do this if they 
needed to.
    Admiral Keating. I would agree with that, sir.
    Senator Bayh. There are published reports that indicate 
that they're also in the process of modernizing their nuclear 
arsenal, more mobile launchers, perhaps, multiple warhead 
vehicles, that sort of thing--why are they doing that?
    Admiral Keating. Senator, I don't know precisely why, 
again, I haven't been there. I could only offer an opinion that 
it is--it kind of goes to Senator Webb's point--they are 
looking to expand their influence throughout, not just their 
particular region of the world, but on a much more Pacific, if 
not global, theater, stage, and this capability that they may 
be developing would enhance, in their eyes, their----
    Senator Bayh. Forgive me for interrupting, Admiral. Would 
it be a fair speculation on our part that enhancing their 
intercontinental nuclear capabilities is probably not aimed at, 
or intended to effect or send a message to other people in the 
region, but perhaps some other nation, such as our own?
    Admiral Keating. That would be a fair assessment, in my 
opinion, Senator.
    Senator Bayh. Should we have any reaction to that? The 
modernization of their nuclear capabilities?
    Admiral Keating. At least on the PACOM level we have had, 
and we are continuing, to demonstrate to them--that's not the 
right word--to express to them our concern for military build-
ups. We would prefer that they be more than less transparent, 
and it is our hope by engaging with them at all levels that 
they understand clearly we know what they're doing, we regard 
it with concern, and it would be very much in their interest to 
develop appropriate defensive systems, as opposed to some of 
those that they appear to be developing, that have a much more 
offensive nature to them.
    Senator Bayh. China has had, at least, a history in the 
past of some tension with Russia, but that's abated in recent 
years.
    Admiral Keating. Sure.
    Senator Bayh. So, to the extent that they're modernizing 
their nuclear capability, and much of that is capable of 
hitting or reaching the continental United States, I suppose 
there's a message to us in all of that, and we have to ask 
ourselves why they're doing this, and what the appropriate 
response is.
    Admiral Keating. Right.
    Senator Bayh. It's a part of the ongoing, as Senator Webb 
was indicating, process of trying to incorporate China in the 
global community. That's why Senator Nelson's questions are 
exactly right at the time. We're asking them to be more 
responsible and integrate them into a global economic and 
security system. They take irresponsible steps, such as the one 
he asked you about, that's a somewhat troubling thing, and 
modernizing their nuclear arsenal can only be designed to--
well, let's just say, that's another message they're sending, I 
think, we have to take into account.
    Admiral Keating. I agree.
    Senator Bayh. Admiral Olson, I continue to hear in 
Afghanistan and some other places that I've been to from some 
of our intelligence people in the field about a shortage of 
Predator capabilities. Can you tell us about that? What are 
your needs? They're under the opinion that--this is a weapons 
system that's tracking bad guys in real time, and at least 
according to people in the field, we don't have enough of them. 
That's pretty concerning, at least to me. What do you need?
    Admiral Olson. Sir, we found that in both direct action and 
force protection, overhead video coverage--full motion video--
is very important. The quality of the operation depends----
    Senator Bayh. Do you currently have everything you need?
    Admiral Olson. We don't, no, sir.
    Senator Bayh. Tell us about that. We want to provide you 
with everything you need.
    Admiral Olson. Yes, sir.
    Senator Bayh. Because this is a system that's tracking bad 
people who are trying to harm us--what do you need?
    Admiral Olson. We have a standard requirement for 30 
orbits. An orbit is one system, overhead, all the time, 24-
hours-a-day, 7-days-a-week. We have a standard requirement for 
30 orbits, we are now at the order of about 12 orbits.
    Senator Bayh. How many more Predators do you need to meet 
your requirements?
    Admiral Olson. It's not all Predators if we're talking 
Global Hawks.
    Senator Bayh. In Global Hawks and things of that nature, 
and I've been told that to try to meet the demand in Iraq and 
Afghanistan and elsewhere, we have to perhaps reduce coverage 
some other places.
    So, look, to meet our requirements in this important area, 
what do you need of us?
    Admiral Olson. First of all, let me say that we are 
programmed to receive a squadron of Predators in our program. 
That will provide six orbits. That's very helpful. Ultimately, 
we will need more beyond that, in terms of dozens more, or 
alternatives to Predators, and there are many. But we can--
there's a rate at which we can absorb them, as well--train 
pilots to operate them, and train the maintainers and the 
ground crewman.
    Senator Bayh. Are you making this a priority?
    Admiral Olson. Yes, sir, it's our number one acquisition 
priority.
    Senator Bayh. All right. I would encourage you to request 
everything you need.
    Admiral Olson. Certainly.
    Senator Bayh. Then some of us will take that very 
seriously, and try and make sure that you get it.
    Admiral Olson. Yes, sir, thank you.
    Senator Bayh. Just a couple of other questions, Admiral 
Keating, from your submitted testimony, I deduced that you were 
somewhat skeptical about North Korea's willingness, ultimately, 
to give up entirely their nuclear capability. Is that a fair 
statement?
    Admiral Keating. Fair statement, sir.
    Senator Bayh. How should we--and perhaps, General Bell, 
this may get into your territory a little bit, but at least the 
two of you--interpret South Korea's actions, where we're trying 
to increase pressure in a variety of ways on North Korea to do 
the right thing here, and yet the South Koreans seem to be 
pursuing a somewhat different policy of engagement, which at 
least in part has the effect of undermining our attempts to 
isolate the regime, bring pressure to bear to take a different 
tact? So, we have allies pursuing different courses, and their 
conduct may undermine our attempts to try and get North Korea 
to be more responsible. Do either of you have an opinion about 
that?
    Admiral Keating. I do, Senator, and I'll be brief. When I 
visited South Korea with General Bell, he was with me in some 
calls, and I went by myself, I saw no manifestation of a split. 
So, I would say, a case could be made by some, I saw no 
evidence of it, Senator.
    Senator Bayh. Aren't they continuing to provide some aid 
and assistance and economic ties to the North, while we're 
trying to cut off their financial assets through the Bank of 
Macao and reduce their counterfeiting and activities and that 
sort of thing? We're trying to increase the financial pressure 
on the North, and they're engaged in activities that are 
decreasing the financial pressure on the North, isn't that 
true?
    Admiral Keating. I think it is true, to an extent, Senator, 
and we just signed the Free Trade Agreement, the Free Trade 
Agreement is coming to Congress----
    Senator Bayh. This may be an issue in some Senators' 
evaluation of that trade agreement.
    Admiral Keating. Yes, sir.
    Senator Bayh. How cooperative are they being with us in an 
attempt to get North Korea to give up its nuclear capabilities?
    Admiral Olson. I saw no manifestation of that split while I 
was there, Senator. General Bell would--he lives there, he'd 
know better than I.
    Senator Bayh. General, I'd be interested in your take, 
there are published articles that the South is behaving in a 
way that is, in some ways, inconsistent with our policy of 
bringing financial pressure to bear on the north.
    General Bell. I'd like to address that directly. The ROK 
has an engagement policy with the North which we endorse, as a 
matter of national policy. However, when it runs afoul of the 
very issues that you're talking about, we raise these issues 
with the ROK.
    I can tell you this--since the October nuclear weapons 
test--the ROK, in my opinion, and I think it's shared by the 
State Department here and other members of Government, has been 
extremely accommodating to the Six-Party Talk process, the ROK 
has ceased the provision of a range of trade mechanisms with 
the North. As of today, they are not providing North Korea with 
humanitarian aid or anything else.
    I will tell you that only 2 days ago, they reached 
agreement with the North Koreans to provide them with a large 
quantity of rice, as they have done every year, in humanitarian 
sense, but they have tied giving them that rice to progress in 
the Six-Party Talk process, directly.
    So, I'll be honest with you, Senator, I think for the last 
6 months, our ally has behaved extraordinarily positively, 
certainly been in lock-step with the United States. I think 
that we've seen a very appropriate era in our relationship with 
South Korea, as a result of their decision that the nuclear 
test was over the line. That the efforts that they had made in 
the engagement strategy had not paid off to the extent that 
they had hoped.
    So, I think we are in lock-step with not only the South 
Koreans, but the Japanese, certainly the Chinese have been very 
helpful in this, the Russians have been helpful, and the five 
parties that engage with the North Koreans--as long as we stay, 
as you so well said, firm and resolute--I believe that that 
will define the Six-Party Talks process in a way quite 
different than talks in the past.
    Now, North Korea would like to split that group up, for 
sure, and they are trying. So, this is a time for our diplomats 
and military personnel and Government officials to remind each 
other--the five parties--that we have to stick together, we 
have to be resolute, and North Korea has to deliver on the 
requirements of the Six-Party Talks that they agreed to. So I 
am pleased right now with our ally's response, the South 
Koreans, and I am fairly confident that they are going to stay 
the course.
    Senator Bayh. My time is expired, I would just say that I 
hope that their behavior over the last 6 months proves to be 
continuing rather than an aberration.
    General Bell. Yes, sir.
    Senator Bayh. It's been my impression from time to time 
that because of generational change, and understandable 
political pressures and that sort of thing, they have, perhaps, 
occasionally been in denial about some of the firmer, tougher 
steps that need to be taken if there's any prospect of getting 
the North to ultimately do what is everybody's best interest 
here.
    General Bell. Yes, sir.
    Senator Bayh. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Bayh.
    Gentlemen, thank you for your testimony today, but most for 
your service to the Nation, thank you very much.
    Admiral Olson, last year in the authorization act, both the 
House and the Senate expressed some concern about the 
reorganization of the Office of Under Secretary of Defense for 
Policy. Under title 10, the principle duty of the Assistant 
Secretary of Defense for Special Operations and Low Intensity 
Conflict (ASD-SOLIC) is to have oversight over SOCOM.
    Because of this reorganization now the office has a vast 
span of responsibility--Strategic, U.S. Transportation Command 
(TRANSCOM), Joint Forces Command, all major budget programs. 
Were you and General Brown consulted in advance about this 
reorganization?
    Admiral Olson. Sir, we were not consulted in advance.
    Senator Reed. When you were told about the reorganization, 
what feedback did you provide the Department?
    Admiral Olson. Sir, General Brown and I sat together, 
General Brown on video teleconference and me in the same room 
as the briefer. General Brown's feedback was--he expressed 
concern in three areas--one was that the ASD-SOLIC and 
Integrated Capabilities under the new title, remain a member of 
the SOCOM Board of Directors, a voting member of what it is we 
invest our resources in. That was point one.
    Point two is that the ASD retain oversight of Major Force 
Program (MFP)-11, the program that funds Special Operations 
activities, and three, the General expressed concern that the 
growth in the scope of responsibilities under the ASD would--as 
you said--dilute the focus on Special Operations activities, in 
peculiar.
    We have been assured that all three of those concerns are 
being addressed. Of course, the organization isn't in place, 
the new ASD isn't in place, but we're optimistic that they'll 
continue to work with us.
    Senator Reed. Again, Admiral, I thank you. That's a very 
responsive reply. It just seems to me, in terms of the 
organizational complexity, and the differences between 
strategic policy, and low intensity conflict, TRANSCOM, et 
cetera, that this is a monumental task, and I think the burden 
of proof will be on the agency. Can you keep us apprised from 
SOCOM's perspective, whether the dilution is so great that it 
affects your operations?
    Admiral Olson. Yes, sir.
    Senator Reed. Let me ask another question, Admiral Olson. 
The Joint Combined Exchange Training (JCET) is an important 
part of your operations, they provide an opportunity to train 
foreign forces, and they also give Special Operators cultural 
and language opportunities. There's been a troublesome trend, 
though--in 2005, 54 of 188 exercises were cancelled and in 
2006, 32 out of 101 were cancelled. Is this a consequence of 
operational demand elsewhere, particularly, Iraq?
    Admiral Olson. It is a direct consequence, for the most 
part, sir. The JCETs that are scheduled, and then not 
conducted, are mostly because of non-availability of our forces 
to participate in the exercise because there's been a higher 
priority demand, typically in CENTCOM. Often, however, they are 
cancelled by the host nation because of a lack of availability 
of their forces, or some political issue.
    Senator Reed. We, many of my colleagues have asked, I 
think, a very important question about language skills and--
just a quick follow-up for general knowledge--is it a 
requirement for SOCOM for all relevant personnel to have a 
language skill? Or is it individual decisions?
    Admiral Olson. It's all relevant personnel.
    Senator Reed. That's probably a misleading term.
    Admiral Olson. I don't mean to be more complex than it is. 
All of our Green Berets, for example, are relevant. Every one. 
Before he puts on his Green Beret for the first time, has to 
prove proficiency at some level, in some language.
    Then they are regionally assigned in the expectation that 
that language skill will continue to develop over the course of 
their career. So, ensuring that they actually are able to stay 
in the regions where they're assigned is an issue.
    The cut-back on JCETs has a direct impact on our ability to 
go to the places where we think we ought to be, and immerse our 
people in the cultures and the languages that we believe are 
important.
    Senator Reed. You point out Green Berets, but this affects 
other SOCOM operators to include marines, SEALs, et cetera.
    Admiral Olson. Yes, sir.
    Senator Reed. There's not a pervasive requirement, is that 
correct?
    Admiral Olson. There is a requirement in the MARSOC, the 
Marine Corps Command similar to the Green Berets for the 
segment of their force that does foreign military training. 
That's a significant portion of the MARSOC that is dedicated to 
foreign military training, on the order of what Green Berets 
do.
    Navy SEALs do that, but it doesn't have the same priority 
for the SEALs as it does for the Green Berets, Rangers are 
similar.
    Senator Reed. Yes, sir.
    Thank you very much, Admiral.
    General Bell, have any of the Korean prepositioned stocks 
been used for Iraq or Afghanistan?
    General Bell. Sir, none of the stocks in Korea proper have 
been used. I will tell you that there were some fills that we 
needed that were delayed, and some of our readiness was not too 
standard--that's been fixed. My predecessor was very serious 
about fixing that, obviously when I arrived I made that a high 
priority, the Army Materiel Command has done marvelous work, we 
have 100 percent of our combat equipment, our total fills for 
everything from compasses to whatever is at 86 percent--that's 
very high, and growing. I will tell you, I insisted on a test 
of that equipment, I walked all seven warehouses, and I said, 
``Okay, it looks terrific, but will it hunt?''
    So, we just brought over a battalion from the United 
States, from the 11th Regiment out at Fort Irwin, California, 
they drew several hundred pieces of major combat equipment, 
took the stuff up to a training area and a range. I was 
extraordinarily pleased with the readiness of that equipment. 
In excess of 95 percent, all the crews raved about it, so it's 
a great success story.
    I had some trepidation about pulling this stuff out, to 
make sure that what I had been told, and all the tests we had 
run in the warehouses would, in fact, perform in the field. 
Terrific success.
    Now, having said that--I'll defer to Admiral Keating, but 
there was another preposition set, in the Pacific--not in 
Korea, APS-3, down in Guam--that's being used for Iraq. So, our 
ability to generate preposition sets of equipment is 
constrained in that regard.
    But, what we've had in Korea proper is, it is maintained to 
standard, and it has demonstrated its readiness as late as--
correction, sir--as recently as a month ago. I'm very pleased 
with it.
    Senator Reed. Thank you, General Bell. I will pick up the 
questioning with Admiral Keating, but let me ask you one more 
question regarding North Korea.
    General Bell. Yes, sir.
    Senator Reed. That is, in your written statement, you 
state, ``If the Six-Party Talks do not produce a lasting 
settlement, the North Koreans will likely conduct a second, 
additional nuclear test when they see it as serving their 
purposes.''
    General Bell. Yes, sir.
    Senator Reed. That's your assessment?
    General Bell. It is, sir.
    Senator Reed. Can you elaborate, sir?
    General Bell. I will. The North Koreans have a long-term 
strategy of trying to achieve something. Their ``something'' is 
security of their regime, and they are afraid that they will be 
attacked, or if they're not afraid they will be attacked, they 
want to demonstrate to their own people, regime security. So, 
this is one of their central requirements.
    Their second requirement is to prosecute their Military 
First policy. That is a national policy, it is a public policy. 
They take care of their military first with their economic 
power, and whatever's left, they allow the average citizen to 
partake in. That's why 30 percent of their Gross Domestic 
Product (GDP) is spent on their military, whereas a modern 
nation might be somewhere between 2 and 4 percent.
    So, they're going to continue to try to seek security 
guarantees, along with economic assistance, to ensure that 
their Military First policy will continue to work--that's their 
strategy. If the Six-Party Talks process does not work, and 
they don't get what they want, then they may return--and I 
believe will return--to provocative acts.
    There are a range of provocations they can choose from, and 
they've demonstrated that over the years. Anywhere from gunboat 
diplomacy in the Western Sea where the two nations--North Korea 
and South Korea--fish, to aerial intercepts, over the ROK 
before, all the way to demonstrating their current and latest 
provocative abilities, and that's missile tests, a Taepo-dong-2 
test is certainly in the offing, if they choose. We believe 
they have at least another nuclear device that they could also 
test. Consequently, if indeed it's in their interest in 
achieving these things that they want, they will conduct a 
provocation. They've done that forever.
    We have to be resolute in our containment of North Korea 
and our deterrence of North Korea, and the six parties--or the 
five parties to the Six-Party Talks process--have to hold 
hands. As long as we do that, we will continue to push and 
contain North Korea and have an opportunity to resolve this 
longstanding issue.
    So, I'm still fairly optimistic, Senator, I'll be honest 
with you, more so now than at any time in the past.
    Senator Reed. If I can quickly follow-up because my time is 
expiring.
    General Bell. Yes, sir.
    Senator Reed. Can you give me sort of a rough percentage 
of--if you were betting--what's the probability of success, and 
second, what's their bottom line? As succinctly as you can, 
sir.
    General Bell. Yes, sir. I would say we have at least a 50/
50 chance of this working, probably more than 50/50. I think 
that's a great testimony to the diplomats who've worked out a 
very good regimen here. So I remain cautiously optimistic.
    As long as the nations in the region--particularly China--
stick together, North Korea has few options, and therefore it 
becomes in their interest to find a way out. They can't, if you 
will, ``take on'' all the members of these concerned nations--
China, Russia, Japan, South Korea, and the United States--they 
can't do it. Consequently, I think the results of the Six-Party 
Talks have more to do with those five nations, then it has to 
do with North Korea. As long as we stay resolute and focused 
and stay together on a common objective, I believe there is a 
decent chance of North Korea complying.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin [presiding]. Thank you very much, Senator 
Reed, and thank you for taking over when I had to be absent. As 
always, you are most accommodating, we appreciate it.
    Senator Thune?
    Senator Thune. Thank you, Mr. Chairman.
    Admiral Olson, since the defeat of Iraq's conventional 
army, our conventional ground forces have been fighting in an 
asymmetric environment, an environment that resembles what the 
Special Operations community is trained to fight in. Can you 
comment on how you believe our conventional forces have adapted 
to fighting in this environment, and would you comment on how 
you believe those lessons should be applied to ensure the 
conventional forces, and the Special Operations community 
continue to compliment one another in combat operations?
    Admiral Olson. Sir, I'd say upfront that I'm not an expert 
on how the conventional Army is doing all of their business in 
Iraq, but I'm aware of enough that it is very encouraging in 
terms of the Army's pursuit of language training, the way that 
they have broken into some smaller units, and placed them in 
some more remote places in order to do day-to-day interaction 
with Iraqi peoples and Iraqi civil as well as military leaders, 
so I think that that's encouraging.
    I think they have a ways to go, this is more of a cultural 
trait within SOCOM than it is in the larger forces, and it 
requires a reprioritization of effort within all of the 
Services to get more tuned into an irregular warfare campaign. 
So, I'd say I'm optimistic that the Services are getting it, 
but they have a ways to go in order to apply at the scale and 
scope that is required.
    Senator Thune. I appreciate that answer.
    General Bell, I serve on the Strategic Forces Subcommittee. 
One of the areas that we have focused on in that subcommittee 
is the issue of missile defense. One of the criticisms facing 
missile defense is that it is a relic of the Cold War in that a 
ballistic missile attack is an unlikely threat scenario that we 
face. You've already had a lot of discussion and interaction 
today on the whole issue of Korea, but as the commander of 
forces in Korea, I guess I'd like to know, what is your 
assessment of the North Korean missile program, and in an open 
session, can you discuss what capabilities the North Koreans 
possess, and what threat that poses to our forces in the Korean 
theater?
    General Bell. I can. Senator, I think we only have to go 
back to last July 4, notwithstanding the failure of the Taepo-
dong-2 missile test, which is an Intercontinental Ballistic 
Missile (ICBM), when you look at the other missiles they tested 
in that 24-hour period--and there were six of them--each one of 
these missiles performed appropriately, in accordance with the 
design parameters of that missile, in open session, and several 
of them were fired in a configuration that we had not seen 
before, but demonstrated some flexibility that the North 
Koreans have achieved, that was fairly modern.
    So, what we had here was a demonstration of missiles that 
work. Now, we know that North Korea has around 800 various 
types of theater ballistic missiles operational today that are 
capable of striking both the ROK, South Korea, certainly 
capable of striking Japan, and several missiles that 
potentially could strike as far south as Guam.
    So these are serious regional concerns. They consist of 
what are known as KNO-2 missiles, these are relatively short-
range, traditional SCUD missiles which are liquid-fueled, I 
think we're mostly familiar with, those are theater ballistic 
missiles. There's an upgrade to that called a No Dong missile 
that they have lots of, that shoots a bit farther than a SCUD, 
and they have a medium-range missile called a Musudan that can 
reach certainly out to Japan and potentially Guam.
    These missiles are operational. These are not theoretical, 
technical potentials, they are operational and in the 
inventory. They sold these missiles to both Iran and Syria over 
the years, as late as 2005, so the North Koreans proliferate 
this technology and these missile capabilities to other nations 
of the world.
    So, when you look at that, and you look at the successful 
test launches that they've done, I believe you can only 
conclude that that's a threat, that missile defense is a part 
of the defense against that threat, and the threat is not 
limited to short-range on the Korean Peninsula only but can 
reach out either by the longer-range Musudan or by selling 
these things.
    So, I'm a proponent of both theater Ballistic Missile 
Defense apparatus, and quite frankly, medium-range and ICBM 
defense against these kinds of capabilities of, if you will, 
rogue nations, of which North Korea fits in that parameter.
    Senator Thune. Let me ask you, because in your testimony 
you recommend the continued development of the Theater High-
Altitude Air Defense System, the Airborne Laser (ABL), and the 
Aegis Ballistic Missile Defense System. The Congressional 
Budget Office has recommended terminating the ABL as a viable 
budget option. I would like to hear from you why you recommend 
its continued development, and how does it enhance your ability 
to defend the Korean theater?
    General Bell. Yes, sir. From a theater perspective, a small 
theater like Korea, the ABL is the only weapon I know of, short 
of a kinetic strike before the missile launches, and is 
designed to knockdown one of these missiles in its boost phase. 
So, if you're looking at a SCUD coming out of North Korea going 
to South Korea, the only thing--I say, the only thing--the 
capability we have today is Patriots. It, of course, intercepts 
its missile in its terminal stage, relatively near the ground. 
If that missile happened to be carrying a chemical warhead, 
this can be a wide-area threat by virtue of us intercepting it.
    If we can intercept missiles in their boost phase, over 
enemy territory, then we preclude the opportunity for, if you 
will, fallout--that's not the right term--but the kinds of 
munitions that might be on board hitting the ground anyway over 
friendly territory. The ABL offers that type of capability, to 
intercept a missile while it's ignited in its boost phase. So 
that's why I'm a proponent of it. I realize that decisions have 
to be made, and priorities have to be set, but from a pure 
warfighting perspective, this is something, I think, that would 
be useful in my theater of operations.
    Senator Thune. Okay, I appreciate that very much. I had a 
chance to get out and see it, and some of the things you're 
doing with it, it seems like it holds great promise. I am 
concerned that it could be sacrificed on the alter of budget 
cuts, when in fact, we face some of these threats, and for 
which it is a good counter. So, I appreciate your response to 
that question.
    Thank you all very much for your service to our country, 
we're very grateful for it. I thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Sessions?
    Senator Sessions. Thank you. Just one question, Admiral 
Olson. I know the Air Force has expressed an interest in 
becoming the executive agent for Unmanned Aerial Vehicles 
(UAVs), they'd like control over the training sustainability 
acquisition for systems that fly above 3,500 square feet. 
General David Deptula, USAF, head of the Air Force 
intelligence, recently went further and said that the Air Force 
should be given acquisition authority over all airborne 
intelligence, surveillance, and reconnaissance capabilities.
    Now, I understand that Army, Navy, and Marines last week in 
the House expressed opposition to that. You depend on that, you 
just discussed it, my personal view for some years after early 
in the Iraq war effort was that our ground forces do not have 
as readily available to them in numbers and in capability, UAVs 
as they need, and in fact, it's a real problem for them. You 
indicated somewhat along that line--do you think, would you 
agree with this concern? Do you feel like we can do better in 
having UAVs that can help our combat soldiers who are in harm's 
way this very moment?
    Admiral Olson. Sir, I've seen the letter that proposes 
that, I agree with the concern, I do think that we can do 
better. There are many UAVs flying in the airspace in a fashion 
that could be coordinated better. Whether or not the Air Force 
solution is the right solution, we don't have enough detail yet 
on how it would actually be executed in the theater to 
determine whether or not it's the ideal solution, so our answer 
is we know it can be done better. We look forward to working 
with the Air Force and to hearing more about how they, 
precisely, would execute those responsibilities.
    Senator Sessions. But you do have some concerns?
    Admiral Olson. Yes, sir.
    Senator Sessions. My concern is that the Air Force does 
have responsibility, strategic responsibility that Admiral 
Keating knows, for intelligence, surveillance, strategic 
issues--I'm not sure their interest in history and ethic is as 
focused on the ground soldier as might be the case, and would 
be concerned, if we do anything that would diminish the ground 
soldier's needs, in fact, I think they ought to be enhanced for 
some time.
    Admiral Olson. That's precisely our concern, Senator. We 
consider that capability an extension of the ground force, not 
an extension of the air force.
    Senator Sessions. Thank you.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Reed.
    Senator Reed. Admiral Keating, let me follow-up very 
briefly. Can you comment on the prepositioned stocks in Guam, 
how much they've been drawn down, and what's the plan to 
replenish them, and briefly the plans to increase submarines in 
Guam?
    Admiral Keating. Senator, I don't have the exact figure as 
to how much they were depleted, we'll get that to you.
    [The information referred to follows:]

    The Marine Corps Maritime Prepositioning Ships Squadrons (MPSRON) 2 
and 3 had 100 percent draw down in 2003. MPSRON 3 was fully reset at 
the end of 2003. MPSRON 1 has been temporarily augmenting MPSRON 2 
since third quarter of 2006; however, MPSRON 2 is scheduled to be at 
100 percent by fourth quarter of 2009.
    Air Force and Navy had no items drawn down.
    In reference to submarines homeported in Guam, there are currently 
two submarines in place. Plans are underway which would raise number of 
submarines assigned to Guam to a total of three by July 2007.

    Admiral Keating. It's my understanding that the Army, in 
their budget through the Future Years Defense Program (FYDP), 
intends to replenish that afloat stock within the FYDP.
    Senator Reed. Five years?
    Admiral Keating. Five years. Maybe, 5 to 7 years, Senator. 
We would encourage Army to move that timeline left, if they 
can, recognizing their budget challenges, but that particular 
afloat stock would be important to--but not essential to--the 
execution of our war plans.
    Senator Reed. The submarines? Briefly, Admiral, in Guam? 
The plans to increase the number of submarines in Guam, the 
timeline?
    Admiral Keating. Two, with one third on the way right now, 
and that will be the number, Senator, and I think I'm okay in 
open source, there are provisions being made for other types of 
U.S. submarines that will do maintenance there, but will not be 
stationed there.
    Senator Reed. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Warner?
    Senator Warner. Thank you very much, Mr. Chairman.
    To you, Admiral Olson--I just think it's remarkable how 
well the Army and the Navy have partnered to do this SOCOM. I 
remember with Senator Bill Cohen, and my good friend here, 
Senator Levin, setting up most of the structure by which this 
organization has flourished. Now the Marines have begun to be 
integrated and pull their share of the load.
    Is that current transition of the Marines in working out 
satisfactorily?
    Admiral Olson. Yes, sir, it is.
    Senator Warner. We want to recognize--I always loved the 
phrase in the Navy ``the Silent Service'' and in a sense, 
you're sort of a silent service, but your forces have taken a 
very heavy hit in the conflicts in both Afghanistan and Iraq--
taken those hits with extraordinary courage and hardship to the 
families. I remember vividly going down to one particular 
ceremony, accompanied by General Brown, and extraordinary 
courage manifested by the widows at that service, and it's just 
one of the untold stories that adds to the great contribution 
that SOF are playing in our overall security structure.
    Have these heavy casualties resulted in some attenuation in 
your forces that you've not been able to replenish through 
normal acquisition of new people?
    Admiral Olson. Sir, obviously the casualties are unplanned 
losses, and so we've had to accommodate that within the force. 
Clearly the casualties that we have taken, that have not been 
returned to the battlefield, have been unplanned losses for us, 
and our manpower growth is designed to accommodate that. 
Obviously we are at a lower level now than we would like to be, 
partially because of those casualties that we've taken, sir.
    Senator Warner. Also, you have the competition that will 
always be present among the Services from which you draw your 
forces, namely the Army, Navy, Marine Corps, and the Air Force, 
and they're having--well, certainly the United States Army is 
being challenged--is that hindering your ability to fill out 
your ranks? The competition that they are trying to keep good 
people, and you're trying to access good people?
    Admiral Olson. Sir, all of the Services have been very 
forthcoming with their qualified Special Operations applicants 
and candidates. That has not been an issue recently. In fact, 
the Services have given some priority to enable us to recruit 
Special Operations warriors from the Services.
    Senator Warner. Have you noticed any--assuming there is 
some ability to track your resignations or persons leaving for 
whatever causes, the SOF Active-Duty Force, is it in keeping 
with the other retention rates of the other Services, or do you 
have a perturbation of some sort in yours?
    Admiral Olson. Sir, across the board, our retention rates 
are slightly higher than all of the Services.
    Senator Warner. That's encouraging.
    The 2006 QDR mandated a 15 percent increase in the SOF. Are 
you able to begin to access sufficient numbers under that 
mandate, not only of people, but of equipment?
    Admiral Olson. Sir, we are on-track for the manpower growth 
in all of our accession processes and training pipelines. A 
couple not doing as well as others, but none--there's some 
cause for concern--for panic at this point. Programmatically, 
we are on-track with both the MILCON and the system procurement 
that it takes to support the growth. We were well-served by the 
QDR process in that regard, as it programmed additional people, 
it programmed the infrastructure and support that it takes for 
them.
    Senator Warner. Admiral Keating, to another party, your 
area of India--we value our relationships with Pakistan, China, 
Russia, and the like, and it's another one of those very 
delicate balancing acts. I do hope that we're strengthening our 
relationships with India, and can in some ways compete with 
Russia who is, I think, one of their main contributors for arms 
and so forth. Could you address that status?
    Admiral Keating. Yes, sir. I agree with your assessment of 
India's importance to us as an ally. We are discovering India's 
interest in our recognition of the Indian Ocean as something 
other than water through which Navy vessels hurtle as we go to 
the CENTCOM AOR. We just concluded a significant exercise with 
the Indian Navy, five to seven of their ships, and a number of 
our ships, submarines, and airplanes. The Indians accorded 
themselves very well in this exercise, Senator, so this is one 
example of the expansion of our military-to-military 
relationships with India, and as you noted, I think they are 
considering more U.S. weapons systems in their acquisition and 
not relying exclusively on the former Soviet Union equipment.
    So, we're encouraged by India's willingness to deal with 
us, to exercise with us, and to exchange again a broad array of 
officers for individual and group training. We are going to 
pursue this expansion with them aggressively.
    Senator Warner. The relationships are always tenuous 
between India and Pakistan. What are they like today and in the 
foreseeable future?
    Admiral Keating. I had a discussion within the past 24 
hours, Senator, with a couple of senior officers from the 
CENTCOM, and we are entertaining ideas about blurring up this 
line between India and Pakistan, which is the PACOM-CENTCOM-AOR 
line of authority. We are going to intentionally pollinate 
across that line on a military basis, so as to become more 
aware of the issues in Pakistan and India. As I have been 
stationed in the CENTCOM AOR and have several good friends in 
Pakistan still, so we're going to work on understanding the 
differences, and help them decrease the tension, if you will. 
There are indications out of the State Department that the 
Kashmir issue may be moving forward in the eyes of India and 
Pakistan, towards resolution. So, we're encouraged.
    Senator Warner. By the way, I'd like to say, Mr. Chairman, 
that you and I have had quite a bit of time up here through the 
years, but this is a very impressive panel of professional 
witnesses. I've had the privilege of knowing all of them for a 
long time, and I thought your responses to in-depth questions 
were extremely well-done this morning, for all of you.
    General Bell, there's been a lot of consideration about the 
extension of tours and we certainly look at this problem in 
Iraq right now, but again, just drawing on the modest 
experience that I had in 1951, 1952 in Korea in the Marines, I 
don't think global warming has done much to bring up the 
temperatures there. I say that with a little tongue-in-cheek, 
but it's a tough environment in which to live. I see that you 
have under consideration a plan in which, March 28, 2007, a 
letter to Senators Levin and McCain, you recommended that the 
normal tour length for all American forces stationed in Korea 
be extended to 3 years.
    General Bell. Yes, sir.
    Senator Warner. Currently the 1-year unaccompanied tours 
are the norm in Korea, and that's the way we've been operating. 
Could you bring us up-to-date on where you are on that 
decision? Have you carefully evaluated the impact on families, 
the impact two ways on families--one, it's a tough climate to 
live in, and that affects the wives and the children and 
beginning to assess more of those now? Do you want to have a 
two-tier system, accompanied and unaccompanied? Accompanied is 
3 years, and the other for a certain period of time. Does that 
bring about some tensions? I hope you've thought through it 
very carefully, because somehow we've gotten along reasonably 
well with this current policy, a lot of MILCON dollars would be 
involved, trying to provide adequate housing and other 
facilities for families, which we're obligated and should do, 
so give us your view on that.
    General Bell. Thank you, Senator Warner, I appreciate the 
opportunity.
    Korea has, in the last 15 years, has had a radical 
transformation, and I know you know this, sir, to a First World 
country. It's a place of great universities, great medical 
system now, thriving economy and everything that we hold as 
important for family members is resonant today in Korea. I'm 
sure you're right about the weather, I have to tell you, this 
is a warm winter in Korea, it was unbelievable, but yes, sir, 
we're going to have some more cold winters.
    Here's my assessment of our small mission in Korea. We will 
have 25,000 Americans in Korea.
    Senator Warner. That's down from 50,000.
    General Bell. Yes, sir, it is several years back, you're 
right.
    Senator Warner. Yes.
    General Bell. We're at about 29,000, 28,000 right now, and 
by the end of 2008, we'll be down to this 25,000 number.
    I spent 3 years in Europe as a NATO Commander, and as 
United States Army Europe Commander, and I had all of the 
families in Europe. All of them, fully accompanied. Off went 
our forces to war, and some of them were on their second 
rotation as I left Europe, we suffered a lot of casualties. To 
a person, the spouses told me, and sir, I'm talking about 
thousands of spouses, and young people, kids, because I went to 
all of the high schools, and many of the middle schools, that 
they would rather be with their soldier--and in this case it 
was soldiers, it wasn't, I wasn't dealing with the Air Force, 
Navy, et cetera--they'd rather be with their soldier than be 
separated. Because they know that for years, the United States 
military is going to be committed.
    So, when I got to Korea, I took a good look at the 
situation there, and the fact that we retained 1-year 
rotational tours as the basis. I think it's time for us to 
seriously consider--and I'm raising this with the DOD, I've not 
brought it to Congress yet, formally--transitioning with our 
small force there, to fully-accompanied tours. The families 
want, we have about 3,000 authorized members now, family 
members to be there, spouses; so, it's about a 10 percent 
authorization. When you talk to these family members, there is 
no place in the world they would rather be than with their 
servicemember, in Korea, in this terrific environment, which 
has improved radically.
    So, one, I believe that you'll find, sir, that the family 
members want to be with their servicemember, wherever they are 
on the face of this Earth.
    Senator Warner. That's a given.
    General Bell. Yes.
    Senator Warner. We understand that, and I compliment you 
for looking at that, and attaching the heaviest of weight.
    General Bell. Yes.
    Senator Warner. Certainly the concept of the family in our 
military has gone through a major transformation for the best.
    General Bell. Yes, sir.
    Senator Warner. The decisions to stay in the military are 
made around the dinner table at night, you know that.
    General Bell. I do, sir.
    Senator Warner. It's a marvelous thing, and fortunately so 
many more of our young people are now married, as opposed to 
the earlier generations.
    But, what concerns me is the family. Europe is a relatively 
safe area in which to let your families remain while you 
deploy. Korea is quite different. The battleplan--if there is 
such a thing as a plan--but certainly we have the analysis of 
what would happen, it would happen in a matter of 24 hours, and 
it is horrific in proportions. The type of firepower that both 
sides could inflict are going to be brought on civilian, as 
well as family, as well as military--it's not, in any sense, a 
forward military position that has to take the brunt of this, 
the DMZ, and the proximity to Seoul----
    General Bell. Sure.
    Senator Warner. --and the other areas. So, I think that 
family consideration, while it's important, is one you have to 
evaluate from the standpoint of the strategic risks of a 
confrontation happening.
    General Bell. Senator, all I can respond--and you're 
certainly right--I'm not challenging you on this.
    But, my son was born 12 miles from two Russian divisions, 
both equipped with nuclear weapons of the 100 Russian, Soviet, 
and East German divisions that the United States and our allies 
faced in the Cold War. If you go over to Korea today, and look 
at the readiness of the South Korean military--which is 
extraordinary--recognize that we're moving south, out from 
underneath that artillery, and look at the condition of the 
North Korean military--which is still lethal, but in my view, 
incapable of driving to Pusan as they certainly almost did in 
the Korean War, I believe we have an environment there that is 
at least equal to the kind of environment we had in the Cold 
War in Europe, if not more stable. That's my best assessment.
    My belief is that the risk to the families--which is real--
can be mitigated through our current, very sophisticated DOD 
Noncombatant Evacuation Program, which we rehearse twice a 
year, physically, and that the addition of about somewhere 
between 15,000 and 20,000 family members does not unordinarily 
complicate the problem I have today of about 180,000 
noncombatant evacuees that I'm responsible for, along with the 
State Department.
    I have to move all of the American citizens from the ROK, 
and sure there's about 100,000 of them that live there today, 
conducting business and enterprise in the ROK, so adding 
American servicemembers' families in a more sanctuary area, 
South of Seoul, in the year, if you will, 2007, and recognizing 
how many Americans live in that country, civilians, conducting 
business, I don't think is an undue risk, at all.
    Now, I will admit, that this is not something I can execute 
tomorrow. I have to socialize this, I have to do a lot of 
studies, and I have to convince DOD that this is a proper and 
prudent thing to do, and then I have to seek resources. 
Although, we intend to use significant amounts of burden-
sharing money from the host nation, the Koreans, like we've 
done in Japan, to finance a lot of this in the future, 
overtime.
    So, I'd like to work it, I believe it has merit, your 
cautions are real----
    Senator Warner. I suggest you go ahead and work it, but in 
all deference of having been here on this committee now 29 
years----
    General Bell. Yes, sir.
    Senator Warner. --and went through a lot of the Cold War 
and the Soviet Union, there was a degree of reliance on the 
judgmental ability of the Soviet Union hierarchy----
    General Bell. There was.
    Senator Warner. --to make decisions in what I would say, a 
reasonably rational and careful way. I do not find that to 
exist with regard to North Korea at this time.
    General Bell. I understand, sir.
    Senator Warner. Thank you.
    Chairman Levin. Thank you, Senator Warner.
    I think there was a recent report that there was a shift in 
the North Korean budget to reduce its military budget, at least 
potentially, to other government sectors because of their 
nuclear capability. I don't know if you saw that report, is 
there anything to it, as far as you know?
    General Bell. Sir, I've read--not just the report, but I've 
read the transcript--I'll use the word at their party congress 
which was just recently held several weeks ago--where the North 
Koreans announced that now that they were a mature nuclear 
country, that they could protect themselves from all the 
aggressors that are around them, and that they now had the 
opportunity to shift resources from, to shift resources into 
the commercial, private sector, or not private sector, but into 
the civilian sector.
    They made no real claims about withdrawing funds from their 
military, and my assessment is that we'll watch this. My belief 
is that with a Military First policy, and 30 percent of their 
GDP going to their military every year first, and then onto the 
civilian sector, I would be very surprised if this rhetoric was 
followed up with action. It would be a welcomed advancement, 
this would be something that we could respond to in a positive 
way that could lessen tensions on the Peninsula, and if the 
DPRK has any sense at all, they'll execute immediately what 
they claim that they were going to do in this recent 
pronouncement. Because that's exactly what we've asked them to 
do for all of these years.
    So, I've not seen anything, they've made no claims about 
withdrawing or moving their military off the DMZ, or smalling 
their military down, but I hope that their rhetoric is followed 
up with action.
    Chairman Levin. Have we ever seen that kind of rhetoric 
before, do you know?
    General Bell. Sir, I've seen it for years.
    Chairman Levin. That same rhetoric, that they were going to 
shift from----
    General Bell. Not out of the North Koreans, no, sir, I have 
not.
    Chairman Levin. That would be new----
    General Bell. They have--it would be.
    Chairman Levin. That rhetoric would be new.
    In your prepared testimony, General, you discuss that 
launch of Taepo-dong-2, and describe it as an ICBM. I think 
that previously the U.S. Intelligence Community indicated it 
did not know whether Taepo-dong-2 was a space-launched vehicle 
or an ICBM.
    General Bell. Yes, sir.
    Chairman Levin. Is it still unknown? Or is it basically 
accepted now that it is an ICBM?
    General Bell. Sir, it is our belief in open session here 
that Taepo-dong-2 can be either. It can be a space-launched 
platform to put a satellite into orbit, it could be, and it can 
also be an offensive weapons system to attack a nation. It has 
a long-range potential that reaches the United States of 
America.
    So, the answer is, it can do both, and that's our 
assessment.
    Chairman Levin. Okay, thank you.
    Admiral Olson, in the National Defense Authorization Bill 
for Fiscal Year 2005, we granted SOCOM a 2-year authority to 
provide support to indigenous forces fighting alongside of U.S. 
Special Operators, and you're seeking our authorization this 
year. Have you used that authority, and if so, to what effect?
    Admiral Olson. Sir, we've used the authority to great 
effect, the first year that it was implemented, we used some of 
it, the second year, more of it, and we're using most of it 
this year. It's a $25 million authority, without an 
appropriation, and we're seeking that that become a permanent 
authority for us.
    Chairman Levin. Thank you.
    Admiral, a DOD directive of September 2006 provides the 
Department's guidance on the handling of detainees. According 
to that directive, it is DOD policy that the minimum standards 
of Common Article III of the Geneva Conventions, and the 
detainee treatment standards contained in that directive shall 
apply to all detainees, without regard to their legal status.
    The directive also provides that all persons under the 
control of DOD will receive the protections of the Geneva 
Convention on the treatment of prisoners of war, until their 
legal status is determined by competent authority, consistent 
with Article V of that Convention.
    Are all of SOCOM's units and personnel in any status 
subject to and complying with that DOD directive on DOD's 
Detainee Program?
    Admiral Olson. Sir, detainee abuse is contrary to SOF 
standards, and we are in compliance with all laws, policy, and 
regulation.
    Chairman Levin. So, the answer to that question, then, 
would be yes.
    Admiral Olson. Yes, sir.
    Chairman Levin. Are all persons under the control of SOCOM 
personnel receiving the protections of the Geneva Conventions 
on prisoners of war until their legal status can be determined 
by competent authority?
    Admiral Olson. Yes, sir.
    Chairman Levin. The DOD directive also provides that 
detainees shall be moved as soon as practicable from the point 
of capture back to detention locations, and will be assigned an 
internment serial number (ISN) ``as soon as possible after 
coming under DOD control, normally within 14 days of capture.'' 
The directive also establishes DOD policy that the 
International Committee of the Red Cross (ICRC) shall be 
allowed to offer its services during an ``armed conflict, 
however characterized, to which the United States is a party.'' 
Are detainees that come into the control of SOCOM personnel 
being assigned an ISN ``as soon as possible'' and generally, 
within 14 days of capture?
    Admiral Olson. Yes, sir, that's true. There is a provision 
to extend beyond 14 days, given the proper permissions, and 
when appropriate, we seek those, but generally, it's a 14-day 
rule for us as well.
    Chairman Levin. Does the ICRC have access to detainees who 
come under the control of SOCOM personnel and to facilities 
where such detainees are being held?
    Admiral Olson. Yes, sir.
    [Additional information provided for the record follows:]

    [Deleted.]

    Chairman Levin. Senator Warner, do you have any more 
questions?
    Senator Warner. No, I think we should wrap up.
    Chairman Levin. Yes, I was going to--we have a vote on--
Senator Warner pointed out this has been a very constructive, 
very positive, very effective, and a very informative panel. We 
are grateful for your appearance, for your testimony, for your 
service, and unless Senator Warner has a closing comment?
    Senator Warner. No, thank you, Mr. Chairman. I thank you 
for your very fair hand in managing this important hearing, as 
always.
    Chairman Levin. Thank you so much. We'll stand adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                reorganization of the dod policy office
    1. Senator Levin. Vice Admiral Olson, who has been conducting 
oversight of the Major Force Program (MFP)-11 account over the last 
several months?
    Admiral Olson. For the last several months, during the 
reorganization of the Office of the Under Secretary of Defense for 
Policy, the Deputy Assistant Secretary of Defense for Force 
Transformation Resources has exercised direct oversight of MFP-11. 
Title 10 language places responsibility for oversight of MFP-11 with 
the Assistant Secretary of Defense for Special Operations and Low 
Intensity Conflict, recently renamed Assistant Secretary of Defense for 
Special Operations, Low Intensity Conflict, and Interdependent 
Capabilities. This position is now vacant.

                          language incentives
    2. Senator Levin. Vice Admiral Olson, I understand that the Army 
and Air Force do not offer foreign language incentive pay until the 
individual reaches Level 2 proficiency. This would appear to work 
against encouraging special operators and conventional forces to start 
learning a language. Are you working with the Services to ensure that 
proficiency incentives are available for personnel from the very 
beginning, when they reach Level 1 proficiency?
    Admiral Olson. I agree that foreign language incentive pay to 
personnel whose language proficiency is Level 1 is important to 
increasing our capability. Special Operations personnel generally 
attend courses that target Level 1 proficiency and will train with a 
regional focus so that subsequent training and assignments will enhance 
the individual's capability over a career within the United States 
Special Operations Command (SOCOM). We approach improving foreign 
language incentive pay on three tracks: 1) the Under Secretary of 
Defense for Personnel and Readiness language transformation team; 2) 
Service, Defense Agency, and combatant command representatives on the 
Defense Language Steering Committee; and 3) one-on-one with specific 
Service Senior Language Authorities.
    The Office of the Under Secretary of Defense for Personnel and 
Readiness, through its language transformation efforts, was successful 
in obtaining legislation authorizing payment of foreign language 
incentive pay at Proficiency Level 1.
    Our Senior Language Authority works with the Service Senior 
Language Authorities on the Defense Language Steering Committee. In 
April, he sent a memorandum to the U.S. Army requesting assistance in 
starting foreign language incentive pay for Army Special Operations 
Forces (SOFs) beginning at proficiency Level 1.

                       language testing-retention
    3. Senator Levin. Vice Admiral Olson, unlike intelligence analysts, 
special operators who are interacting with foreign militaries in the 
field need to attain oral foreign language proficiency. Does SOCOM test 
oral language proficiency?
    Admiral Olson. Conversing is indeed the key foreign language skill 
for special operators. Language testing is a Department of Defense 
(DOD) and Service common responsibility and as such, we rely on them 
for this metric. The recognized test for speaking within the various 
Defense Language Proficiency Tests is the Oral Proficiency Interview 
(OPI).
    The OPI measures speaking, whereas other Defense Language 
Proficiency Tests measure listening and reading separately. The OPI 
requires two certified examiners who are native fluent. It is therefore 
expensive, requires intense coordination, and is difficult to 
administer in bulk when compared to the listen/read tests.
    The result is that our instructors focus on read/listen skills to 
demonstrate their effectiveness and our students focus on read/listen 
skills to obtain foreign language incentive pay while our key 
requirement is for speaking.

    4. Senator Levin. Vice Admiral Olson, does the Defense Language 
Institute (DLI) support SOCOM's testing, including oral language 
testing? If not, why not?
    Admiral Olson. The DLI supports limited speaking tests or OPI. DLI 
lacks the capacity to administer this test on a scale that meets U.S. 
SOCOM's needs. Increased operational tempo and time zone differences 
present test scheduling challenges. Also, our personnel must still take 
the read/listen Defense Language Proficiency Test in order to qualify 
for foreign language incentive pay.
    We are concerned by the trends in read/listen Defense Language 
Proficiency Tests that are increasingly constructed to serve the users 
whose military tasks center on listening at proficiency Level 2 and 
higher. SOFs language tasks are most often performed in face-to-face 
conversations. The listening component of these newer read/listen tests 
is becoming less relevant to our requirements.
    SOCOM has articulated its needs to the Services and the DOD. The 
DLI has supported us within its constraints.

    5. Senator Levin. Vice Admiral Olson, I understand that when Army 
and Navy personnel get assigned to SOCOM they become ``SOF for life'' 
so that any investment in language or other training is retained with 
these individuals by the command. However, the Navy personnel do not 
necessarily focus exclusively on one region for their careers. The 
Marine Corps and Air Force do not have permanent SOF personnel. What is 
the impact of this difference among the Services, and what would be the 
advantage of having Marine Corps and Air Force personnel who are ``SOF 
for life?''
    Admiral Olson. It is clear that the niche skill sets of language 
expertise and cultural familiarity are enhanced by multiple assignments 
in units focused on a specific region. Although ``SOF for life'' is not 
an official program or a term that directly applies to regionalization, 
it is true that our Army and Navy forces spend a higher percentage of 
their careers in SOF units. Army SOF is particularly well-organized to 
ensure that its enlisted force gains regional expertise through 
repetitive assignments.
    Our new Marine Corps' Marine Special Operations Advisory Groups 
require regionalization and are maturing on the Army model.
    Regionalization is less important to our Air Force units, except 
for one squadron that specializes in training foreign forces.
    ``SOF for life,'' as a concept for ensuring repetitive assignments 
in Special Operations units, irrespective of regional orientation, is 
inherently desirable. The advantage is recoupment on the investment in 
SOF training and SOF operational experience.

           marine corps special operations command--training
    6. Senator Levin. Vice Admiral Olson, on March 4, a Marine Corps 
Special Operations company appears to have used excessive force after a 
suicide bombing in Afghanistan. I understand the incident is being 
investigated. But given the testimony last week by General Scales that 
``What's important in counterinsurgency are skills, not structure--the 
ability to speak the language, the ability to commune with alien 
cultures . . .,'' I wonder whether all of the Marine Special 
Operators--even the reconnaissance companies conducting direct action 
mission--are being given sufficient training to operate effectively in 
Afghanistan and elsewhere. Are Marine Special Operators training to the 
same level as their counterparts in the Army SOCOM?
    Admiral Olson. Marine Corps Forces Special Operations Command 
(MARSOC) units do not yet have training or experience equivalent to 
their counterparts in the U.S. Army Special Operations Command 
(USASOC). MARSOC recruited its initial personnel from across the Marine 
Corps and conducted a 6-month course, followed by 6 months of unit 
training, to prepare them for deployment. They were certified as 
operationally ready after a series of evaluated exercises. 
Individually, they were very highly-qualified marines.
    As of May 1, 2007, additional assessment and selection criteria 
have been imposed. The growing interaction with USASOC will ensure a 
higher level of training by all deploying MARSOC units in the future.
    It is SOCOM's intent that all assigned units be equally capable of 
performing their specific mission sets.

    7. Senator Levin. Vice Admiral Olson, how long will the average 
marine remain a Special Operations Marine before he is transferred back 
to the conventional Marine Corps?
    Admiral Olson. Headquarters, U.S. Marine Corps has established a 
minimum 48-month assignment to the MARSOC for designated SOF operators. 
The goal is to eventually reach a ``closed-loop'' for Marine SOF 
operators, which will ensure their continued assignment within the SOF 
community. Non-operators are assigned based on normal U.S. Marine Corps 
assignment policies of a minimum of 36 months.

                     advanced seal delivery system
    8. Senator Levin. Vice Admiral Olson, to date, about $885 million 
has been spent on developing the Advanced SEAL Delivery System (ASDS). 
The fiscal year 2008 request for ASDS is $10.6 million for procurement 
and $20.3 million for research and development. Do you think the 
command can afford to have more than one ASDS? How long will it take 
for you to ensure that we have an operational ASDS?
    Admiral Olson. Funds were realigned to restructure the ASDS program 
and forego the procurement of additional platforms in favor of pursuing 
reliability improvements to ASDS-1. We are conducting an assessment of 
alternative material solutions to fulfill remaining requirements. The 
affordability question cannot be answered until this assessment has 
been completed.
    The ASDS Reliability Improvement Program was initiated in fiscal 
year 2006 to improve the operational reliability of the existing ASDS 
vehicle (ASDS-1). The ASDS Reliability Improvement Program is on 
schedule. This ongoing reliability effort represents the major portion 
of the funding shown in the fiscal year 2007 and fiscal year 2008 
budget exhibits. As a result of this effort, ASDS-1 has demonstrated 
significantly improved reliability within the past year during both 
independent and mated underway operations. We expect ASDS-1 to become 
fully operational and ready for deployment to meet assigned missions in 
fiscal year 2008.
    Although the materiel solution for follow-on craft is still to be 
determined, the objective inventory for ASDS-like submersibles remains 
six.

       training and equipping indigenous forces fighting with sof
    9. Senator Levin. Vice Admiral Olson, in the National Defense 
Authorization Bill for Fiscal Year 2005, title XII, section 1208, we 
granted SOCOM a 2-year authority to train and equip indigenous forces 
fighting alongside U.S. Special Operators. How have you used this 
authority, and to what effect? If we gave you this authority again 
where would you use it?
    Admiral Olson. We have used section 1208 authority to support 
operations in each of the geographic combatant commands, although the 
majority of its use has been in the U.S. Central Command (CENTCOM) area 
of operations. In all locations, the support received from foreign 
forces, irregular forces, groups, and individuals has achieved two 
critical objectives: 1) access into denied hostile areas and terrorist 
safe havens, and 2) operational information about tribes, terrain, and 
terrorists that we could not gather through our own reconnaissance and 
surveillance activities. In the CENTCOM area of operations, section 
1208 authority has been key to finding and fixing terrorist individuals 
and infrastructures. If this authority is extended beyond fiscal year 
2007, we will continue to use it globally to prepare the environment to 
defeat terrorism. We consider section 1208 very important to our 
ability to succeed in the global war on terror.
    A streamlined approval process for the use of section 1208 
authority is key to its flexibility.

                special operations forces--civil affairs
    10. Senator Levin. Vice Admiral Olson, it is my understanding that 
as a result of the Quadrennial Defense Review (QDR), SOCOM's Reserve 
Civil Affairs (CA) and Psychological Operations components have been 
moved from under SOCOM administrative control to Army administrative 
control, under the command of regular Army units. Some operators have 
told committee staff that the conventional Army officers commanding 
these CA components may not understand their special capabilities. This 
could have a negative impact on Reserve CA professional advancement, as 
conventional officers would write their fitness reports, and instead of 
taking advantage of their unique skills, might use them for 
conventional duties. In addition, there is fear that the synergy 
between the ``kinetic'' or ``direct action'' forces and the ``non-
kinetic, indirect'' forces will be broken and the failure to couple 
these forces in missions will have a negative impact on combating 
terrorism efforts. Do you share these concerns, and what can be done to 
prevent the potential negative impacts I mentioned?
    Admiral Olson. [Deleted.]

                         support to afghanistan
    11. Senator Levin. Admiral Keating, in your written statement you 
mention the support Japan and Korea are providing to our efforts in 
Afghanistan. You were just in Japan and Korea, and are traveling soon 
to China. Have you discussed the possibility of making new 
contributions to Provincial Reconstruction Teams (PRTs) in Afghanistan 
with Japan and Korea?
    Admiral Keating. In my personal discussions, I have encouraged 
Japan to continue to increase multilateral cooperation efforts such as 
its oiler support in the Indian Ocean and its emphasis on peace 
cooperation activities by the Japan Self-Defense Force. While not 
specifically discussed, Japan Self-Defense Forces offer critical 
skillsets (e.g. medical, engineering, et cetera) that could greater 
benefit the international community and not conflict with their legal/
constitutional restrictions.
    Led by the Office of the Secretary of Defense on Policy (OSD-P), we 
are talking with the Republic of Korea (ROK) government to determine 
future roles for the ROK in Afghanistan. However, as part of the 
decision to support the 1-year deployment extension in 2006, the 
National Assembly set December 2007 as the redeployment date for ROK 
forces from Afghanistan. Discussions continue, but political challenges 
make it unlikely for ROK forces to deploy past 2007.

    12. Senator Levin. Admiral Keating, if the governments of Japan, 
Korea, and China were asked by the administration and the Afghan 
government to contribute personnel and other resources to PRTs in 
Afghanistan, how would you expect them to respond? Would they be likely 
to contribute?
    Admiral Keating. Japan views its contributions in Afghanistan as a 
substantial part of its ongoing global efforts. New initiatives would 
likely require a tradeoff (e.g. exchange Indian Ocean oiler support for 
PRT efforts in country). Japan would respond more favorably to United 
Nations (U.N.) requests/missions.
    The United States Government is currently discussing extending 
Korea's mission in Afghanistan with the ROK government. However, as 
part of the decision to support the 1-year deployment extension in 
2006, the National Assembly set December 2007 as the redeployment date 
for ROK forces from Afghanistan. Discussions continue, but political 
challenges make it unlikely for ROK forces to deploy past 2007.
    I would anticipate China to emphasize its current contributions in 
terms of financing projects in Afghanistan, but not to offer further 
assistance. Additionally, senior People's Liberation Army officials 
have stated they would not get involved without a U.N. mandate.

                           india--afghanistan
    13. Senator Levin. Admiral Keating, what relationships do you 
believe exist between the armed groups conducting terrorist attacks in 
India, and the armed groups operating in Pakistan and Afghanistan?
    Admiral Keating. There are reported organizational relationships 
between armed groups conducting attacks in India and Afghanistan, 
specifically among Pakistan-based Lashkar-e-Tayyiba, al Qaeda, and the 
Taliban. The relationships between groups conducting attacks in India 
and in Pakistan, however, are not assessed to have organizational ties 
but rather a relationship based on links between individuals. Al Qaeda 
operatives remain a common denominator between these disparate groups.

    14. Senator Levin. Admiral Keating, what action, if any, have you 
proposed that India take to undertake substantial counterterrorism 
intelligence-sharing with Pakistan and Afghanistan? Is there a role for 
Pacific Command (PACOM) or U.S. forces in fostering such intelligence-
sharing?
    Admiral Keating. [Deleted.]

    15. Senator Levin. Admiral Keating, what, if anything, is the U.S. 
military doing to support the efforts of the Indian military to manage 
cross-border terrorism?
    Admiral Keating. [Deleted.]

             india--international peacekeeping cooperation
    16. Senator Levin. Admiral Keating, in 2004, President Bush 
announced a Global Peace Operations Initiative (GPOI) at the G-8 summit 
in Sea Island, Georgia. Leaving aside whether G-8 members other than 
the United States are contributing sufficient resources to the 
initiative, we do not appear to be reaching out to countries such as 
India, that have significant peacekeeping experience, participation 
levels, and potential ability to contribute resources, in order to make 
them partners in this effort. Do you know whether India has been asked 
to participate in GPOI? If they were, what was the response? If they 
weren't, do you know why?
    Admiral Keating. India received a demarche, coordinated with PACOM 
in October 2006, conveying U.S. interest in a partnership with India on 
the GPOI.
    Indian military officials have expressed interest in participating 
in future GPOI courses and are forwarding their requests to the 
Government of India (GOI) for approval. By September 2007, PACOM 
expects to receive confirmation from the GOI to co-host a January 2008 
Senior Mission Leader course with PACOM and the U.N.'s Department of 
Peacekeeping Operations. Additionally, GOI approval is pending for 
participation in several upcoming GPOI courses occurring in the region 
over the next 3 months.

                                thailand
    17. Senator Levin. Admiral Keating, your written statement asserts 
that you are continuing to seek authority from this committee to equip 
counterdrug forces in various countries including Thailand. However, in 
the aftermath of the September 2006 military coup, much of our 
assistance to Thailand was suspended, including some of the money 
authorized by this committee. Also, last week, Major General Fridovich, 
the Commander of SOFs in the Pacific, stated that if the Thai 
government asks the U.S. military to help them fight terrorists in 
southern Thailand, we would take the opportunity. Do you believe that 
providing additional funding or training to Thailand right now would 
send the right message to the Thai military leaders, at a time when it 
is far from clear whether Thailand will actually hold elections at the 
end of this year, as the coup leaders have promised?
    Admiral Keating. Section 508 of the Foreign Operations 
Appropriations Act mandated the suspension of security assistance to 
Thailand following the September 2006 coup. However, Combating 
Terrorism Fellowship Program funding is still being applied in Thailand 
in fiscal year 2007. I believe the interagency decision to continue 
this program was the right one because it furthers U.S. 
counterterrorism goals in Southeast Asia. The amount of funding and 
activity is not projected to increase in fiscal year 2008, and all 
interaction will follow normal coordination procedures with the U.S. 
country team in Thailand.

    18. Senator Levin. Admiral Keating, what will be the potential 
impact, both political and military, if we do not extend counterdrug 
support to Thailand?
    Admiral Keating. Because the largest percentage of counterdrug 
support is provided to Thai law enforcement agencies, any lessening of 
support will have minimal direct impact on the Thai military.
    However, the DOD counterdrug support has important impact as part 
of the larger interagency and international effort. Training, 
infrastructure, and information fusion are parts of the DOD support 
plan and these threads, although borne out of counterdrug programs, do 
support efforts to reduce other transnational threats. Additionally, 
U.S. law enforcement agencies in Thailand benefit from the DOD and DOS 
counterdrug support programs.

    19. Senator Levin. Admiral Keating, do we plan to provide training 
to the Thai military, as described by General Fridovich?
    Admiral Keating. [Deleted.]

                       north korea--nuclear tests
    20. Senator Levin. General Bell, in your written statement, you 
assert that, ``If the Six-Party Talks do not produce a lasting 
settlement, the North Koreans will likely conduct a second and 
potentially additional nuclear tests when they see it as serving their 
purposes.'' Can you elaborate on this?
    General Bell. North Korea has a history of using both provocation 
and engagement to seek achievement of its policy objectives. Its 
objectives include security/non-aggression guarantees from the United 
States and economic support from the world community. Pyongyang 
intended for the October 2006 nuclear test to demonstrate a nuclear 
capability, thereby boosting North Korean prestige and enhancing its 
bargaining position relative to the U.S. and the international 
community. The test also served to refocus international attention on 
North Korea.
    If North Korea perceives it is not making progress in international 
negotiations, especially with the U.S., or that it is unlikely to 
achieve its desired objectives, I anticipate Pyongyang would once again 
resort to this type of provocative action. They may hope that such a 
test would increase pressure on the U.S. and the international 
community to accommodate North Korean demands for desired concessions 
in pursuit of their policy objectives.

    21. Senator Levin. General Bell, why do you believe North Korea 
would test again if the talks do not result in ``lasting settlement'' 
and when do you believe that Pyongyang would see a test as ``serving 
their purposes?''
    General Bell. If North Korea perceives it is not making progress in 
international negotiations, especially with the United States, or that 
it is unlikely to achieve its desired objectives of security and non-
aggression guarantees from the United States, Pyongyang may once again 
resort to this type of provocative action to increase pressure on the 
United States. and the international community to accommodate its 
demands for desired concessions. This is particularly true if Pyongyang 
views these additional nuclear tests as carrying only low to moderate 
political risk.
    Based on Pyongyang's public rhetoric since the October 2006 nuclear 
test, North Korea attempts to place itself as a nuclear power on an 
equal strategic footing with the United States. The lack of any 
substantial, coordinated international sanctions against North Korea in 
response to the test may have further emboldened Pyongyang in its 
negotiations.

    22. Senator Levin. General Bell, do you have any reason to believe 
that North Korea might conduct another nuclear or missile test? Do you 
think their last nuclear test was a success?
    General Bell. Although the October 2006 nuclear test was only 
successful as very low yield, it significantly raised tensions and 
concerns over the potential for additional tests, and North Korean 
nuclear proliferation.
    As long as North Korea maintains its nuclear and missile programs, 
it would be logical for Pyongyang to continue to conduct additional 
tests. However, I do not anticipate North Korea will conduct such tests 
while actively engaged in dialogue with the international community. If 
the Six-Party Talks process fails, the probability of North Korea 
conducting a second nuclear test or additional missile tests will 
increase substantially.

                 north korea--conventional capabilities
    23. Senator Levin. General Bell, what is your assessment of North 
Korea's conventional capabilities? Is the conventional threat posed by 
North Korea greater, less, or unchanged in comparison to the threat 
posed last year?
    General Bell. The DPRK maintains a massive, offensively postured 
conventional force that far exceeds the requirements to defend its 
country. It remains a major threat to stability and security in 
Northeast Asia and the world.
    My assessment is that due to the age and questionable readiness of 
North Korea's conventional military equipment, as well as the 
substantial modern readiness of the ROK-U.S. Alliance, I do not believe 
that North Korea can execute sustained operations in depth. However, 
they remain capable of a no-notice and highly lethal assault across the 
front with limited objectives. North Korea continues to envision a 
short, violent assault to overwhelm Combined Forces Command defenses 
with the intent of gaining territorial advantage before additional U.S. 
or UNC forces arrive.
    Compared to 2006, the conventional military threat remains 
unchanged. North Korea concluded its Winter Training Cycle which lasted 
from December 2006 through April 2007. This is the primary period that 
North Korea's million-man army trains. The level and intensity of 
training was adequate for units to sustain basic proficiency.

    24. Senator Levin. General Bell, in the aftermath of the October 
2006 nuclear test, have you seen any decrease in financial and other 
support to conventional forces by the North Korean regime?
    General Bell. Since the October 2006 nuclear test, there has not 
been any reporting to suggest a change in North Korea's financial or 
resource support structure for its military.

    25. Senator Levin. General Bell, has there been any rhetoric coming 
from Pyongyang that would indicate a potential shift of the North 
Korean budget from the military to other government sectors?
    General Bell. While North Korean rhetoric during 2007 has 
frequently focused on the regime's intent to improve the quality of 
life for North Koreans, it has not explicitly stated the intent to do 
so at the expense of the military. There is no intelligence to indicate 
any reduction or reallocation of resources from the military to the 
civil sector has occurred. If any shift should take place, it will be 
incremental in nature, making it difficult to detect in the short-term.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                                 china
    26. Senator Akaka. Admiral Keating, during the hearing, there was a 
great deal of discussion regarding the aggressive military buildup in 
China, and on China's modernization of their nuclear program. Is 
China's aggressive buildup and nuclear modernization in response to any 
actions on the part of the United States, or on the part of any other 
nations in the region, such as Japan, Russia, or Korea? For instance, 
could part of China's nuclear modernization be driven by our impending 
deployment of antiballistic missile systems?
    Admiral Keating. I do not have any direct insight into Chinese 
rationale for its nuclear modernization efforts. In my opinion, 
however, I think China views its nuclear program as an important 
capability and significant component of its influence regionally and 
globally, independent of the actions by others, to include the 
deployment of U.S. missile defenses.

    27. Senator Akaka. Admiral Keating, how do you believe we should 
respond if China continues this rapid expansion/modernization into the 
foreseeable future?
    Admiral Keating. I believe we should continue to monitor military 
capabilities while at the same time pursuing greater insight into 
People's Republic of China intentions. U.S. PACOM maintains a two-prong 
approach towards China--encouraging transparency while maintaining 
readiness.

    28. Senator Akaka. Admiral Keating, during the hearing, it was 
discussed that the U.S. military may have known China was planning on 
conducting a test to try to destroy a satellite with a missile before 
they conducted the test. During the hearing, you said that you were not 
aware in advance that this test was going to be conducted. Did Admiral 
Fallon as the Commander of PACOM know of this test in advance? If so, 
should you, as the Commander of United States Northern Command 
(NORTHCOM), have been notified in advance?
    Admiral Keating. I have not discussed Admiral Fallon's knowledge of 
the anti-satellite (ASAT) test with him. In my role as NORTHCOM 
commander, I was satisfied with the intelligence I received concerning 
the ASAT test.

    29. Senator Akaka. Admiral Keating, in your statement, you 
highlight the successes occurring in the PACOM area of responsibility 
(AOR). Are there any areas in your AOR that you are most concerned 
about in the fight against terror?
    Admiral Keating. The Sulu and Celebes seas between Malaysia, 
Indonesia, and the Philippines are an area of concern. This region 
remains relatively unmonitored and uncontrolled and is a sanctuary for 
transit and illicit activities, which sustain terrorist activity. 
Building these littoral states' military and law enforcement maritime 
capabilities to combat transnational threat and limit terrorist 
mobility in Southeast Asia is a proven method to reducing terrorist 
activities. Authorities such as ``Train and Equip'' assist us in these 
efforts.
    Additionally, transnational, violent extremists have the ability to 
leverage the insurgency in southern Thailand and portions of 
Bangladesh. These areas provide terrorists with training and 
operational opportunities. The Royal Thai Government and Government of 
Bangladesh are working to counteract terrorists and reestablish secure 
environments. PACOM continues to leverage opportunities to work with 
these countries' armed forces to build their capacity to better combat 
these problems and develop a secure environment.

    30. Senator Akaka. Admiral Keating, in your statement, you 
highlight the successes in building regional capabilities to combat 
weapons of mass destruction (WMD). You state that nine nations in the 
AOR have endorsed President Bush's Proliferation Security Initiative. 
Notably missing from the list endorsing the initiative are China and 
Russia. Are there plans to engage these countries in this initiative? 
If so, what is the status of their participation? If not, why not?
    Admiral Keating. Under the Unified Command Plan, Russia is in the 
European Command AOR and U.S. PACOM therefore did not report on 
Russia's involvement in the Proliferation Security Initiative (PSI). 
However, Russia has endorsed the PSI Statement of Interdiction 
Principles and actively participates in the PSI Operational Experts 
Group, a group of 20 states that meet periodically to advance PSI 
concepts on behalf of all PSI nations.
    The U.S. Government continues to engage China on PSI in various 
multinational and bilateral events and will continue to explore 
opportunities to cooperate on nonproliferation issues. The PSI 
community has invited China to attend PSI outreach events, such as the 
New Zealand-hosted Asia and Pacific Islands outreach in March 2007, the 
Japan-hosted Asian Senior-Level Talks on Non-proliferation in January 
2007, and the Australia-hosted PSI exercise Pacific Protector 06. To 
date, China has declined to attend these events or to endorse PSI.

                   operations on the korean peninsula
    31. Senator Akaka. General Bell, in your prepared statement, you 
discuss the transition of wartime operational control of the South 
Korean forces to the ROK in 2012. How will this transition affect the 
U.S. force structure in Korea, and what levels of ground forces will we 
need to sustain an adequate presence in Korea following the transition?
    General Bell. Transition of operational control from Combined 
Forces Command to the ROK is made possible because their military is 
capable, professional, and modern. Their ground forces are particularly 
robust, with 48 divisions standing ready to defend the ROK. The areas 
where they need assistance correspond to areas where the United States 
is particularly strong, air and naval power. As such, U.S. force 
structure in Korea already closely matches what will be required in the 
future, with a small ground component that provides security, helps 
enable the evacuation of our noncombatants, and facilitates the 
introduction of additional U.S. forces should they be required. Our air 
and naval presence provides a deterrent force against aggression but 
can be rapidly expanded should that deterrence fail. Accordingly, at 
this time, I do not foresee changes in the levels of U.S. forces that 
will be assigned in Korea after OPCON transition.

    32. Senator Akaka. General Bell, China and Russia have expressed 
doubts toward the U.S. claim that North Korea has a secret highly-
enriched uranium (HEU) program that could be used to provide weapons 
grade material even if North Korea stops production of plutonium. What 
is our level of confidence in our assertion that the North Koreans have 
a secret HEU program, and why are we not able to convince China and 
Russia that the program exists?
    General Bell. I assess with high confidence that North Korea has 
pursued a uranium enrichment capability, and I have moderate confidence 
that this effort continues. However, the degree of progress towards 
producing enriched uranium remains unknown.
    China and Russia have not made public their assessments of North 
Korea's efforts to acquire a uranium enrichment capability, therefore, 
it is difficult to assess their conclusions.

    33. Senator Akaka. General Bell, in your statement, you indicated 
that due to the threat from North Korea, the United States has recently 
reaffirmed our commitment to continue to extend to the ROK the security 
of our nuclear umbrella. How is this commitment affected by the 
transition of wartime operational command of South Korean forces to the 
ROK?
    General Bell. Our commitment to the defense of the ROK is founded 
upon our Mutual Defense Treaty of 1954. Forged in the shared experience 
of the Korean War, this commitment has only grown stronger in the years 
since, as our nations' ties have expanded many times over to include 
economic, educational, cultural, and military linkages. The transition 
of wartime operational control to the ROK is another example of the 
growth of both of our nations, but it does not signify a lessening of 
commitment. It also does not signify a lessening of the threat to peace 
on the Korean Peninsula. As such, my opinion is that transition of 
wartime operational control does not affect our commitment to extend 
the security of our nuclear umbrella to the ROK.

    34. Senator Akaka. Vice Admiral Olson and General Bell, in your 
statement, you indicate that North Korea maintains the largest SOF in 
the world. What is your assessment of the capabilities of the North 
Korean SOFs?
    Admiral Olson. [Deleted.]
    General Bell. Current estimates of the North Korean SOF are over 
80,000 personnel. SOF personnel are chosen for political reliability 
and loyalty. North Korean SOF are trained to conduct reconnaissance, 
light infantry, and sniper missions and are found at the strategic, 
operational, and tactical levels. North Korea's SOF has significant 
capability to infiltrate the ROK and can conduct asymmetric attacks 
against a variety of targets.

    35. Senator Akaka. Vice Admiral Olson and General Bell, in your 
opinion, do they have a significant capability to operate outside the 
Korean Peninsula?
    Admiral Olson. [Deleted.]
    General Bell. The vast majority of North Korean SOFs will operate 
within the Korean Theater of Operations (KTO); they have only a limited 
capability to operate outside of the KTO.

                       special operations command
    36. Senator Akaka. Vice Admiral Olson, as indicated in the SOCOM 
posture statement, SOCOM is the lead combatant command for planning and 
synchronizing, and when directed, executing global operations against 
terrorist networks in coordination with other combatant commanders. The 
posture statement states that DOD's global war on terror campaign 
focuses on two essential approaches, direct and indirect. One of the 
indirect pieces of DOD's integrated approach to the global war on 
terror described in your posture statement is that actions are being 
taken to attack the roots of terrorism and eliminate its further 
growth. In SOCOM's role as the lead combatant command for planning and 
synchronizing DOD operations against terrorist networks, please tell me 
who has the lead for activities aimed at attacking the roots of 
terrorism and eliminating its further growth?
    Admiral Olson. The U.S. SOCOM 2007 Posture Statement contains a 
Threat Model that describes how violent extremist organizations operate 
and the numerous ``roots'' of terrorism that impact the populace from 
which such extremists seek support. Addressing these roots requires a 
whole government approach wherein the DOD supports interagency actions.
    Within the DOD, SOCOM has the lead for planning and synchronizing 
this overall effort. In the broader context of our Nation's efforts, 
the Department of State has the lead for international development and 
partner nation initiatives, which in many instances are directly 
relevant to this effort. While there is no agency lead, there are 
extensive interagency coordination efforts underway to combat the 
terrorist threat and the commitment to further strengthen these 
efforts.

    37. Senator Akaka. Vice Admiral Olson, what is your assessment on 
the effectiveness of this part of the integrated strategy so far?
    Admiral Olson. The synchronization efforts led by U.S. SOCOM within 
the DOD are progressing satisfactorily. Interagency coordination is 
improving with time and experience, and is better than it has ever 
been. It could be further enhanced by clarification of responsibilities 
and authorities with respect to roles and missions.

    38. Senator Akaka. Vice Admiral Olson, how is this strategy being 
implemented in countries like Syria and Iran?
    Admiral Olson. The U.S. SOCOM has the lead for planning and 
synchronizing the global strategy and campaign. The Geographic 
Combatant Commanders have the lead for execution of this strategy in 
their areas. Accordingly, I defer Commander, U.S. CENTCOM, to answer 
specific questions about Syria and Iran.

    39. Senator Akaka. Vice Admiral Olson, how is this strategy used to 
deal with historical sectarian grievances, such as those between the 
Kurds, Shiites, and Sunnis?
    Admiral Olson. The global strategy deals with historical sectarian 
grievances by generally addressing the core motivations and underlying 
conditions of entire populations in order to separate them from all 
violent extremism.

    40. Senator Akaka. Vice Admiral Olson, DOD is increasing the end 
strength of the SOFs as directed in the QDR. The Army has already had 
to change its recruitment standards in order to meet its recruiting 
needs. For instance, they now accept new recruits up to the age of 42. 
Have the SOFs in any of the Services, Reserve, or National Guard had to 
change any part of their standards in order to meet recruitment 
targets? If so, what are those changes?
    Admiral Olson. No, we have not changed our recruiting standards to 
meet recruitment targets. We take a more holistic approach to end 
strength by focusing on retention. If we can retain our current forces 
at higher rates, there will be less need to recruit. Toward this end, 
we use personnel management tools such as the Critical Skills Retention 
Bonus, Special Duty Assignment Pay, and Assignment Incentive Pay.

    41. Senator Akaka. Vice Admiral Olson, will SOCOM be able to 
recruit to its increased end strength numbers without changing its 
standards for new personnel?
    Admiral Olson. Yes. We are confident that the U.S. SOCOM will meet 
its end strength numbers for personnel without changing its standards.
    SOCOM has invested in its training infrastructure in order to 
increase throughput capacity. Each of the Services has highlighted SOFs 
recruiting and facilitated intra-service transfers to SOF. Improved 
screening processes are ensuring higher quality candidates. The early 
reports are positive, with all of our SOF Service components indicating 
record personnel production numbers.
                                 ______
                                 
               Questions Submitted by Senator John McCain
   special operations command missions at cannon air force base, new 
                                 mexico
    42. Senator McCain. Vice Admiral Olson, in May 2005 after 2 years 
of thorough analysis and review, the Secretary of Defense forwarded his 
recommendations for base closures and realignments to the 2005 Defense 
Base Realignment and Closure (BRAC) Commission. One of those 
recommendations was to close Cannon Air Force Base, New Mexico, which 
would have saved the Air Force over $206 million annually and over $2.6 
billion over the next 20 years. The commission responded by agreeing to 
close Cannon by 2009 if the Secretary of Defense could not find ``other 
newly-identified'' missions to replace the F-16s currently operating 
out of Cannon Air Force Base. The Secretary of Defense announced in 
2006 that Air Force Special Operations Command (AFSOC) units would be 
assigned to Cannon Air Force Base to establish a western base of 
operations for various types of aircraft supporting special operations 
including C-130 gunships, MV-22s, unmanned aerial vehicles, and rotary 
wing aircraft. My concern is that at a time when we are transforming 
bases such as Fort Bragg and Eglin Air Force Base into joint, combined 
arms special operations locations, we have missed a prime opportunity 
to establish a western hub that offers a wide range of joint basing and 
training possibilities for special operations. In your view from a 
joint operations and training perspective, is Cannon Air Force Base the 
best location in the United States to station AFSOC assets? If so, why? 
If not, why not?
    Admiral Olson. [Deleted.]

    43. Senator McCain. Vice Admiral Olson, will Melrose Range near 
Cannon Air Force Base provide the capability to conduct the full range 
of special operations training? If not, what are its limitations?
    Admiral Olson. [Deleted.]

    44. Senator McCain. Vice Admiral Olson, was the Commander of SOCOM 
involved in the DOD's assessment of alternative locations for AFSOC's 
western hub?
    Admiral Olson. [Deleted.]

    45. Senator McCain. Vice Admiral Olson, SOCOM currently proposes to 
spend over $217 million at Cannon Air Force Base for facilities and 
infrastructure to support AFSOC units. Were these costs known by SOCOM 
at the time the Secretary of Defense announced the stationing of AFSOC 
assets at Cannon Air Force Base?
    Admiral Olson. [Deleted.]

    46. Senator McCain. Vice Admiral Olson, has SOCOM accomplished any 
type of analysis of alternatives to determine whether another location 
might have resulted in a lower cost for AFSOC facilities?
    Admiral Olson. [Deleted.]

            family housing for u.s. military forces in korea
    47. Senator McCain. General Bell, in your statement, you advocate 
for proposed legislation in the National Defense Authorization Act for 
Fiscal Year 2008 that would amend existing law to increase the amount 
the Secretary of the Army can pay to lease a house for a military 
family stationed in the ROK. The proposed legislation would permit the 
Secretary to pay up to $51,824 per year per house, or $4,319 per month 
per house for 2,800 units. This is about 40 percent more than is 
currently permitted by law. The Congressional Budget Office recently 
determined that this provision, if adopted, would have a budget impact 
equal to $530 million in potential additional expenses. These houses 
will actually be large high-rise complexes built on land owned by the 
Federal Government at a time of a favorable bid climate in Korea. This 
is a very expensive proposal. Has the Government estimate driving the 
legislation been validated by any actual contracting action which would 
allow the market to competitively bid on the lease cost? If not, why 
not?
    General Bell. Yes, U.S. Government estimates and market analyses 
constitute foundational elements of the contracting process for our 
build to lease (BTL) program. The Korean marketplace has validated our 
process as evidenced by successful delivery of a 144 unit senior leader 
quarters (SLQ) facility at K-16 Airbase, which employed the competitive 
bidding process to ensure cost effective contracting for leased 
housing. (BTL projects for senior leader quarters are not subject to 
the legislative caps which currently restrict our ability to pursue our 
family housing BTL requirements in Korea.) Purchasing power for $35,000 
leases used for BTL compares favorably to that of other overseas leases 
when adjusted for inflation and official exchange rate (OER) changes. 
As an example, in fiscal year 2007 Korea's $35,000 lease delivers 
purchasing power and allows the U.S. Government to pay up to $51,824, 
after applying the adjustments for inflation and OER fluctuation in the 
NDAA for Fiscal Year 2008 legislative proposal, if approved. In 
comparison, a $25,000 lease in Europe, considering the same factors, 
today results in purchasing power of up to $56,328 in Germany and 
$56,701 in Belgium. As such, a $35,000 lease in Korea is comparatively 
less costly than a $25,000 lease in Europe, given currency fluctuation 
and inflation rate changes. Therefore, we would posit that leases are 
not more expensive in Korea than the United States is willing to pay in 
other overseas markets. These figures are derived from the lease cap 
methodology confirmed by the Office of Installations and Housing of the 
Assistant Secretary of the Army for Installations and Environment. 
Further, these figures remain consistent in fiscal year 2008, showing a 
favorable comparison of Korea's BTL program requirements and 
authorizations with other existing overseas leasing programs.

    48. Senator McCain. General Bell, do you currently have the 
authority to solicit the public sector for proposals for a build-to-
lease venture for 2,800 units in Korea?
    General Bell. Yes, the Secretary of the Army has authority to lease 
a total number of 2,800 family housing units in Korea at the existing 
lease cap of $35,000 as a result of several legislative enactments 
between the fiscal year 2003 Authorization and fiscal year 2007 
Authorization to support U.S. commitments to the Yongsan Relocation 
Plan and the U.S.-ROK Alliance. However, the $35,000 lease cap is 
inadequate to attract Korean developers and contractors to build family 
housing to DOD standards based on market analyses and cost estimates 
produced by private sector industry specialists and Army Corps of 
Engineers experts. Without the NDAA for Fiscal Year 2008 legislative 
proposal, the lease cap after inflation and currency adjustments is 
insufficient to amortize construction costs, utilities, maintenance, 
and operations while providing a reasonable return on investment to 
private firms. The bottom line is that given the current inflexible 
lease caps, all the experts tell us conclusively that no private firm 
will consider constructing family housing for our servicemembers to the 
standards required by DOD.

    49. Senator McCain. General Bell, you state that ``the Army is 
pursuing a range of build-to-lease family and senior officer/
noncommissioned officers quarters to be sited at the Camp Humphreys 
facility. Army forces cannot displace to Camp Humphreys until these 
units are completed.'' What is your plan to complete these units if the 
legislation is not provided?
    General Bell. Much like in Europe where Congress has supported the 
effort, DOD, Department of the Army, and U.S. Forces Korea have 
determined that BTL is the most viable solution for our overseas family 
housing requirements. Leasing homes instead of using military 
construction (MILCON) has worked well for our military in both Europe 
and Korea. Amortizing future Korea BTL projects over a 15-year window 
is favorable to the upfront cost of MILCON. If not supported by 
Congress, our only option to meet U.S.-ROK bilateral agreement 
timelines and deliver U.S. standard family housing for military 
servicemembers and their families will be MILCON. In the current MILCON 
environment with BRAC, global basing, and grow-the-force initiatives, 
we doubt we would favorably compete for overseas MILCON. Additionally 
and as part of U.S.-ROK Alliance agreements to downsize and transform 
the U.S. military effort to a supporting role positioned in sanctuary 
locations south of Seoul by 2012, we would have to ask Congress to fund 
up to $1.5 billion of MILCON in the next 4 years. This level of MILCON 
front loading seems a poor second choice to the 15-year lease program. 
The Korean National Assembly has already approved to cost share nearly 
$5 billion for our relocation efforts, while annually providing 
additional burden-sharing support amounting to approximately $770 
million this year alone.

                relocation of marine corps units to guam
    50. Senator McCain. Admiral Keating, over 8,000 U.S. marines are 
planned to be relocated from the island of Okinawa to Guam within the 
next 6 years. This move is estimated to cost the United States over 
$4.3 billion just to provide facilities and infrastructure on Guam for 
our marines and their families. The Japanese Government will also share 
the costs of over $6 billion for additional facilities and housing. In 
the end, we will have a split Pacific Marine Force with part of the 2 
MEF in Okinawa and part in Guam. My concern is that these costs may not 
cover the plans for strategic mobility requirements, including the 
ports, roads, and airfield infrastructure needed to get the marines off 
the island and to their destination in their planned time periods. Has 
PACOM developed a plan with Transportation Command (TRANSCOM) to be 
able to move the forces off Guam during contingencies?
    Admiral Keating. The $10.3 billion agreement between the Government 
of Japan and the United States funds infrastructure costs necessary to 
support the deployment of marines from Guam. PACOM is working with 
TRANSCOM to modify detailed transportation requirements and identify 
shortfalls for future marine contingency movements. Depending on the 
contingency location, the marines may not require additional airlift as 
the southern major air bridge goes through Guam.

    51. Senator McCain. Admiral Keating, if so, what additional 
movement hardware, infrastructure, and facilities will be required to 
move the marines and have the costs for these resources been included 
in the relocation budget?
    Admiral Keating. The $10.3 billion estimate to support the movement 
of marines from Okinawa to Guam includes projects for unit facilities, 
infrastructure, and housing. Ancillary costs such as relocation of 
Marine personnel, facility furnishings, development of training 
facilities in Guam and the Commonwealth of the Northern Marianas 
Islands, and operational deployments are not included in the estimate.

    52. Senator McCain. Admiral Keating, has PACOM reviewed the 
available training ranges around Guam to ensure marines will have 
adequate amphibious assault and combined arms practice areas?
    Admiral Keating. Yes. PACOM and each of the Service components have 
determined training requirements needed in Guam and the Commonwealth of 
the Northern Marianas, to include amphibious assault and combined arms 
practice areas. Additional land and training facilities are necessary 
to meet Marine training requirements. The Joint Guam Program Office is 
incorporating these training requirements into the infrastructure and 
environmental planning process for Guam. Though planning efforts are 
ongoing, meeting these training needs appears feasible.

    53. Senator McCain. Admiral Keating, as opposed to sinking over $10 
billion for infrastructure on the island of Guam, was there any 
consideration given within PACOM to relocating 8,000 marines back to 
established bases in California with Twentynine Palms available for 
training and developed ports of debarkation?
    Admiral Keating. We reviewed a number of options, including 
relocation to California. We determined that in order to maintain the 
right balance of capabilities and ensure deterrence, the marines should 
remain forward based in the Western Pacific region. Guam offered 
optimal position for flexible deployment of those forces for regional 
and global contingencies, with significantly improved response times as 
compared to the west coast. Moreover, we are relocating the marines 
from Okinawa to Guam in the context of U.S.-Japan Alliance 
transformation and alliance capabilities. Japan's agreement to finance 
over $6 billion of Guam's development costs reflects the continued 
relevance of these marines in the region, consistent with U.S. treaty 
commitments to Japan.

    [Whereupon, at 12:14 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                         THURSDAY, MAY 3, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                     UNITED STATES CENTRAL COMMAND

    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Bill 
Nelson, E. Benjamin Nelson, Clinton, Pryor, Webb, Inhofe, 
Sessions, Collins, Thune, and Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; and Michael J. Noblet, research 
assistant.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Lynn F. Rusten, professional staff member; Sean 
G. Stackley, professional staff member; and Dana W. White, 
professional staff member.
    Staff assistants present: David G. Collins, Kevin A. 
Cronin, Jessica L. Kingston, and Benjamin L. Rubin.
    Committee members' assistants present: Sharon L. Waxman and 
Jay Maroney, assistants to Senator Kennedy; Frederick M. 
Downey, assistant to Senator Lieberman; Elizabeth King, 
assistant to Senator Reed; Christopher Caple, assistant to 
Senator Bill Nelson; Jon Davey, assistant to Senator Bayh; 
Andrew Shapiro, assistant to Senator Clinton; Gordon I. 
Peterson, assistant to Senator Webb; Jeremy Shull, assistant to 
Senator Inhofe; Mark J. Winter, assistant to Senator Collins; 
Clyde A. Taylor IV, assistant to Senator Chambliss; Stuart C. 
Mallory, assistant to Senator Thune; and Brian W. Walsh, 
assistant to Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Today we welcome Admiral William Fallon, 
Commander of the United States Central Command (CENTCOM), in 
his first appearance before this committee since his 
confirmation hearing earlier this year. Admiral Fallon's 
command is responsible for U.S. security interests in 25 
nations that stretch from the Horn of Africa (HOA) to the 
Arabian Gulf region into Central Asia. He commands the bulk of 
U.S. troops in combat today and he is responsible for an area 
with a host of security challenges which may at any time erupt 
into violence, requiring further military response.
    However, Admiral Fallon is a diplomat as well as a military 
man. We rely on his judgment and his diplomatic skills to help 
us deter and prevent conflict almost as much as we do his 
military skills when a military response is appropriate. Today 
we will be seeking his counsel on a host of troubling issues in 
his area of responsibility (AOR), predominantly but not 
entirely Iraq.
    In Iraq, Prime Minister Maliki has said: ``The crisis is 
political and the ones who can stop the cycle of bloodletting 
of innocents are the Iraqi politicians.''
    The Iraqis are not meeting the benchmarks that they have 
set for themselves. The Iraqi Assembly Committee considering 
amendments to the Iraqi constitution appears to be as far from 
completing its work as it has always been. Meanwhile, the 
Assembly is apparently planning to go on a 2-month recess at 
the end of June. Incredibly, Hasan Suneid, an adviser to Prime 
Minister Maliki, was quoted in the paper the other day as 
saying that ``Time is irrelevant.'' Well, time is plenty 
relevant to us, our troops, and their families.
    Iraqi military units were promised extra pay and a short 3-
month Baghdad deployment to gain their acquiescence for the 
mission, while American Army units are being extended for 15-
month tours. Prime Minister Maliki also promised there would be 
no political interference with the operations, but there are 
recent disturbing press reports of a department, in the Prime 
Minister's office, the office of the commander in chief, 
``playing a major role in the arrest and removal of senior 
Iraqi army and national police officers, some of whom had 
apparently worked too aggressively to combat violent Shiite 
militias.''
    The report in the Washington Post quoted U.S. Brigadier 
General Dana Pittard, commanding general of the Iraq Assistance 
Group, which provides the military transition teams advising 
Iraqi units, as saying that ``Their only crimes or offenses 
were that they were successful,'' meaning successful against 
the Mahdi Army. Then he goes on to say--and this is our 
general--``I am tired of seeing good Iraqi officers having to 
look over their shoulders when they are trying to do the right 
thing.''
    So Baghdad is burning while the Iraqi politicians avoid 
responsibility for their country's future. Our soldiers risk 
their lives while Iraqi politicians refuse to take political 
risks. We cannot have the lives of American servicemembers held 
hostage to Iraqi political intrigue or intransigence. We need 
to pressure them to make the necessary compromises.
    The situation in Afghanistan poses another major challenge 
to the CENTCOM commander. As the Director of National 
Intelligence, Michael McConnell, told this committee in 
February, this will be ``a pivotal year'' for Afghanistan. Some 
of the trends in 2006 were disturbing. A recent State 
Department report on terrorism states that in 2006 the Taliban-
led insurgency remained a ``capable and resilient threat to 
stability.'' Overall, attacks on coalition forces are up 
threefold. The use of improvised explosive devices (IEDs) in 
suicide bombings increased, with militants launching 
approximately 130 suicide attacks.
    Military officials have reported that attacks along the 
Afghanistan-Pakistan border have increased twofold following 
Pakistan's signing of a peace agreement in September with pro-
Taliban militants in the Federally-Administered Tribal Areas 
(FATA). Last year witnessed the growth of narcotics trade in 
Afghanistan. Retired General Jim Jones, former Commander of the 
U.S. European Command (EUCOM), said that narcotics were the 
number one problem in Afghanistan because they provide a 
funding source for the insurgency and contribute to public 
corruption. A November report by the United Nations and World 
Bank concluded that international efforts to combat the growth 
of the narcotics trade have failed.
    In response to these trends, U.S. troop commitments in 
Afghanistan were increased in January and the Department of 
Defense (DOD) has announced its intention to maintain those 
troop levels into next year. In February, the President 
outlined an Afghanistan strategy which includes additional 
assistance for training the Afghanistan security forces and the 
administration has pressed our North Atlantic Treaty 
Organization (NATO) and other coalition partners for additional 
commitments of troops and equipment.
    While I remain concerned about national restrictions that 
some of our NATO allies have placed on the use of troops, other 
coalition partners, including the British, the Canadians, the 
Dutch, the Danes, and the Afghan National Army (ANA) itself, 
are in the fight alongside U.S. troops.
    The challenges facing U.S. CENTCOM also include a broader 
terrorism threat throughout its AOR. In a speech to the U.N. 
General Assembly in September, Afghanistan President Karzai 
said that we must look beyond Afghanistan to the sources of 
terrorism, we must destroy terrorist sanctuaries beyond 
Afghanistan, dismantle the elaborate networks in the region 
that recruit, indoctrinate, train, finance, arm, and deploy 
terrorists.
    Another source of instability throughout the region is 
Iran. Iran's clandestine nuclear activities and its support for 
terrorist organizations pose a threat to peace in the region 
and beyond. I am deeply concerned by reports that Iranian IED 
technology has been found in the hands of insurgency groups in 
Iraq who are attacking American soldiers. The Iraq war has led 
to the strengthening of Iran. The conference beginning today in 
Sharm el-Sheikh, Egypt, presents an opportunity to confront 
Iran diplomatically in the hopes of improving stability in Iraq 
and in the region.
    We look forward to discussing these and many other critical 
issues with Admiral Fallon and we again thank him for his 
service to this Nation and for the way in which he and his 
troops have shown such steadfastness and courage. Thank you.
    [The prepared statement of Senator Levin follows:]
                Prepared Statement by Senator Carl Levin
    Today we welcome Admiral Fallon, Commander of United States Central 
Command (CENTCOM), in his first appearance before this committee since 
his confirmation hearing earlier this year. Admiral Fallon's command is 
responsible for U.S. security interests in 25 nations that stretch from 
the Horn of Africa, through the Arabian Gulf region, into Central Asia. 
He commands the bulk of U.S. troops in combat today, and he is 
responsible for an area with a host of security challenges which may at 
any time erupt into violence requiring further military response. 
However, Admiral Fallon must be a diplomat as well as a military man. 
We rely on his judgment, and on his diplomatic skills to help us deter 
and prevent conflict, almost as much as we do his military skills when 
a military response is appropriate. Today we will be seeking his 
counsel on a host of troubling issues in his area of responsibility--
predominately, but not entirely, Iraq.
    In Iraq, the Prime Minister has said, ``The crisis is political, 
and the ones who can stop the cycle of aggravation and bloodletting of 
innocents are the politicians.'' The Iraqis are not meeting the 
benchmarks they have set for themselves. The Iraqi Assembly's committee 
considering amendments to the Iraqi Constitution appears to be as far 
from completing its work as it has always been. Meanwhile, the Assembly 
is apparently planning to go on a 2-month recess at the end of June. 
Incredibly, Hasan Suneid, an adviser to Prime Minister Maliki, was 
quoted in the paper the other day as saying that ``time is 
irrelevant.'' Well time is plenty relevant to us, our troops, and their 
families.
    Iraqi military units were promised extra pay and a short 3-month 
Baghdad deployment to gain their acquiescence for the mission, while 
American Army units are being extended for 15-month tours. Prime 
Minister Maliki also promised there would be no political interference 
with the operation, but there are recent disturbing press reports of a 
department of the Prime Minister's office, the Office of the Commander 
in Chief, ``playing a major role in the arrest and removal of senior 
Iraqi army and national police officers, some of whom had apparently 
worked too aggressively to combat violent Shiite militias.'' The 
report, in the Washington Post, quoted U.S. Brigadier General Dana 
Pittard, commanding general of the Iraq Assistance Group which provides 
the military transition teams advising Iraqi units, as saying, ``their 
only crimes or offenses were they were successful''--meaning successful 
against the Mahdi Army. He goes on to say, ``I'm tired of seeing good 
Iraqi officers having to look over their shoulders when they're trying 
to do the right thing.''
    Baghdad is burning while the Iraqi politicians avoid responsibility 
for their country's future. Our soldiers risk their lives while Iraqi 
politicians refuse to take political risks. We cannot have the lives of 
American service members held hostage to Iraqi political intrigue and 
intransigence. We need to pressure them to make the necessary 
compromises.
    The situation in Afghanistan poses another major challenge to the 
CENTCOM Commander. As the Director of National Intelligence, Michael 
McConnell, told this committee in February 2007 will be ``a pivotal 
year'' for Afghanistan. The trends at the end of 2006 were disturbing. 
A recent State Department report on terrorism states that in 2006 the 
Taliban-led insurgency remained ``a capable and resilient threat to 
stability.'' Overall attacks on coalition forces are up three-fold from 
the year before; the use of improvised explosive devices (IEDs) and 
suicide bombings increased four-fold, with militants launching 
approximately 130 suicide attacks. Just as troubling, military 
officials reported that attacks along the Afghanistan-Pakistan border 
increased two-fold, and in some areas three-fold, following Pakistan's 
signing of a peace agreement in September with pro-Taliban militants in 
the federally-Administered Tribal Areas.
    In addition, last year witnessed the growth of the narcotics trade 
in Afghanistan. Retired General Jim Jones, former Commander of U.S. 
European Command, said that narcotics were the number one problem in 
Afghanistan, providing a funding source for the insurgency and 
contributing to public corruption. A November report by the United 
Nations and World Bank concluded that international efforts to combat 
the growth of the narcotics trade have failed.
    In response to these trends, U.S. troop commitments in Afghanistan 
were increased in January, and the Defense Department has announced its 
intention to maintain those troop levels into next year. In February, 
the President outlined an Afghanistan strategy, which includes 
additional assistance for training the Afghanistan Security Forces. The 
administration has pressed our NATO and other coalition partners for 
additional commitments of troops and equipment, While I remain 
concerned about national restrictions that some of our NATO allies have 
placed on the use of our troops, other coalition partners, including 
the British, Canadians, Dutch, Danes, and the ANA, are in the fight 
alongside U.S. troops.
    The challenges facing U.S. CENTCOM also include a broader terrorist 
threat throughout its area of responsibility. In a speech to the U.N. 
General Assembly in September, Afghanistan President Karzai said:

          ``We must look beyond Afghanistan to the sources of 
        terrorism. We must destroy terrorist sanctuaries beyond 
        Afghanistan, dismantle the elaborate networks in the region 
        that recruit, indoctrinate, train, finance, arm, and deploy 
        terrorists.''

    Another source of instability throughout the region is Iran. Iran's 
clandestine nuclear activities and its support for terrorist 
organizations pose a threat to peace in the region and beyond. I am 
deeply concerned by reports that Iranian IED technology has been found 
in the hands of insurgency groups in Iraq who are attacking American 
soldiers. The Iraq war has led to the strengthening of Iran. The 
conference beginning today in Sharm el-Sheikh, Egypt, presents an 
opportunity to confront Iran diplomatically in the hopes of improving 
stability in Iraq and the region.
    I look forward to discussing these critical issues with Admiral 
Fallon.

    Chairman Levin. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    Senator McCain cannot be here today, so I will submit his 
statement for the record.
    Chairman Levin. It will be made part of the record.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    Mr Chairman, thank you, and thank you for holding this hearing.
    Admiral Fallon, welcome back to this committee. We are all grateful 
for your continued service and for taking on this new challenge. I 
would also like to take a moment to thank all of the soldiers, sailors, 
airmen, marines, members of the Coast Guard, and civilians who are 
under your command. They are performing with the utmost courage and 
professionalism. We honor their sacrifices and those of their families. 
You all have our deepest gratitude.
    Last week, General Petraeus provided a candid and forthright report 
on the situation in Iraq. He described the operational environment in 
Iraq as ``exceedingly challenging'' and the ``most complex'' he had 
ever seen. He also reported on some notable successes in the past 2 
months under the new political-military strategy.
    These include killing a key insurgent leader in eastern Anbar 
province; detaining a number of key network leaders; discovering how 
various elements of al Qaeda Iraq operate; disrupting a car bomb 
network that had killed 650 citizens of Baghdad; destroying several 
significant car bomb factories; and, on Tuesday, the possible death of 
Abu Ayyub al-Masri, the latest leader of al Qaeda in Iraq. General 
Petraeus also told of progress in Ramadi, which we all remember in 2006 
was a stronghold of terror.
    Despite these accomplishments, however, he emphasized as well the 
many challenges in Iraq. General Petraeus left no doubt that al Qaeda 
must be stopped for Iraq to succeed, and said that we should continue 
to consider al Qaeda in Iraq a formidable foe. According to the 
general, the enemy is resilient and still possesses the capability to 
produce more horrific attacks, but that al Qaeda's ideology and methods 
have increasingly alienated many Iraqis. He confirmed reports that 
Sunni Arabs in Anbar province and other areas are turning against al 
Qaeda and are joining the Iraqi security forces.
    These are the first signs of progress under the new military 
strategy. It is important to remember that General Petraeus has only 
been executing this new plan for little more than 2 months--with only 
three of the five brigades the plan requires. While there are no 
guarantees of success, there are, for this first time in a long while, 
reasons to be cautiously optimistic. We all certainly hope these early 
signs translate into broader trends.
    Neither a purely military solution nor a retreat will lead to 
victory in Iraq. There must be a political agreement among Iraqis that 
allows all groups to participate in the building of their nation, to 
share in its resources, and to live in peace with each other. As 
Americans and Iraqis sacrifice to provide that security, Iraq's leaders 
must do the hard work of political reconciliation. We can help them get 
there, but we cannot assume their responsibilities. Unless they accept 
their obligations to all Iraqis, we will all fail, and America, Iraq, 
and the world will have to live with the consequences.
    With regards to Afghanistan, we've made formidable progress but 
there is still a great deal to do. I look forward to hearing your 
assessment of Afghanistan's political stability, the Afghan army and 
national police, reconstruction efforts, and counternarcotics 
activities. I am also concerned about the participation of our NATO 
allies. The call for additional troop contributions has not been 
answered enthusiastically by most NATO partners, and national caveats 
continue to restrict the actions of troops from a number of allied 
countries. Given these facts, I'd like to hear your views on the 
performance of our NATO partners and how we can encourage them to do 
better.
    We cannot discuss Afghanistan without talking about Pakistan. There 
seems to be great disagreement about the degree of effort Islamabad is 
making to prevent cross-border infiltration of fighters into 
Afghanistan and to disrupt Taliban command and control on the frontier 
provinces. I was encouraged by Islamabad's recent efforts on my trip to 
Pakistan last month, but the agreements the government has signed with 
rebels in the tribal areas are reason for concern. I'd like to hear 
your assessment on the degree to which Islamabad is being helpful or 
negligent in our Afghan efforts, the effect of the agreements with 
rebels on violence in the border region, and how successful Pakistan 
has been in interrupting Taliban fighters' entry into Afghanistan.
    Admiral Fallon, I don't need to tell you that the United States 
faces many of its toughest challenges and threats in your region of 
responsibility. What we do in Afghanistan and Iraq will have far-
reaching consequences for America and the world. While the committee 
looks forward to your testimony on the conflicts in Iraq and 
Afghanistan, we also look forward to your testimony on other strategic 
challenges in the Central Command area of operations. These include: 
preventing Iran from going nuclear; the role of Syria and Iran in 
supporting insurgents in Iraq; an assessment of our cooperation with 
Pakistan, Egypt, Saudi Arabia and others; protecting Israel's security; 
the struggle for Lebanon's independence; and quelling violence and 
genocide on the Horn of Africa.
    I defy any honest observer who believes any of these formidable 
challenges would be easier to confront if the United States accepted 
defeat in Iraq. However the war in Iraq ends, it will have a profound 
influence on the future of the Middle East, global stability, and 
America's security, which will remain tied to that dangerous part of 
the world. I still believe that the war is part of a broader struggle 
in the Arab and Muslim world, between violent extremists and the forces 
of modernity and moderation. I believe it is our responsibility--as we 
have done so many other times in our Nation's brief history--to rally 
to the side of freedom-loving people. We don't do it because it is 
easy. We do it precisely because it is hard--hard, but so incredibly 
important for the security of the region and of our country.
    Again, I would like to say how much we appreciate the enormity of 
the challenges that you, and all members of your command, face each and 
every day. You have our utmost respect and admiration and I look 
forward to your remarks of our guest today.
    Mr. Chairman, thank you.

    Senator Inhofe. Admiral Fallon, you have been a familiar 
face to the Senate for a long time, although fairly new in this 
position. But I can remember many things you were involved in. 
Back when I lost the Battle of Vieques, we had the Fallon-Pace 
Report. I have enjoyed working with you over the years.
    I have had occasion to be in the AOR 13 or 14 times, and 
most recently down in Djibouti and the HOA, where there are 
some problems that you have not really had time to have been 
there long enough to start addressing. I had the opportunity of 
being with General Jones during his last trip to Afghanistan.
    I cannot help but think, and you might be giving some 
thought to this, as to some of the successes there. I can 
recall when the ANA took over their own training and the pride 
that they had in some of their capabilities. I am not sure but 
that would not be a good model for some of the things that we 
are doing in Iraq.
    But today I think primarily we are going to be focusing on 
Iraq. There are many fronts in this war, but Iraq is what we 
are going to be talking about. Now, it has been over 3 months 
since President Bush announced the troop surge. Everyone, 
including the media, has been trying every angle to get an 
early read on the progress.
    General Petraeus' visit last week was a very enlightening 
one. He was here and he had a chance to give classified 
briefings to all of us and also some press conferences. He 
described the situation there as exceedingly challenging, as we 
all know, and very complex. But he also went over a number of 
what he referred to as successes, and in question time I will 
be asking if you agree with some of the things that he said. So 
I will just outline them now.
    He talked about ``Anbar has gone or certainly''--I am 
quoting--``over the last 6 months from being assessed as being 
lost to a situation that now is quite heartening.'' He went on 
to describe that as ``somewhat breath-taking,'' some of the 
progress that has been made there.
    He said we have also done the same thing in Ramadi, quoting 
him, ``has been crucial as we have literally reclaimed the city 
with our Iraqi partners right by our side and sometimes in 
advance of us.'' We are ahead with respect to the reduction of 
sectarian murders in Baghdad, down about one-third. He stated: 
``We have learned a great deal more about the Iranian 
involvement, a very nefarious involvement, involving funding, 
training on Iranian soil, advice, and the provisions of a lot 
of arms and ammunition, including these explosively formed 
projectiles (EFPs) that have been so lethal against some of our 
armed vehicles.''
    He also mentioned that we have eliminated the security emir 
from al Qaeda in Iraq in eastern Anbar Province and several 
other things.
    Now, since General Petraeus' visit we feel--and I do not 
know what the most recent information is as far as al-Masri is 
concerned, but most people believe that he has been killed and 
was killed by the Sunnis, which is a very significant thing.
    While these accomplishments are remarkable, I believe, we 
still have so far to go and we are just deeply entrenched in a 
very, very difficult situation. To quote General Petraeus, he 
said: ``The situation in Iraq is, in sum, exceedingly complex 
and very tough. Success will take continued commitment, 
perseverance, and sacrifice.'' I believe that is the case and I 
think we have the right people looking after this to make sure 
that does happen.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much. Thank you, Senator 
Inhofe.
    Admiral Fallon, again, welcome and please proceed.

  STATEMENT OF ADM WILLIAM J. FALLON, USN, COMMANDER, UNITED 
                     STATES CENTRAL COMMAND

    Admiral Fallon. Mr. Chairman, Senator Inhofe, distinguished 
members of the committee: It is a great honor to be here 
representing the men and women of CENTCOM today. Senator Levin, 
you certainly outlined the challenges that we face in this 
region, quite an extensive list of places and issues that beg 
for resolution.
    Senator Inhofe highlighted General Petraeus' meeting with 
you last week and his public comments. I believe that General 
Petraeus painted a very accurate picture, one in which I 
concur, as to the reality of life on the ground in Iraq.
    I would highlight the issue of the complexity of the 
situation. It is daunting from that aspect. But we are blessed 
to have men like General Petraeus, Ambassador Crocker, and 
thousands of other Americans and allies, coalition supporters, 
that are working this problem very hard.
    I would be remiss if I did not begin my comments by telling 
you how remarkably wonderful our men and women in uniform are 
serving day in and day out in Iraq, in Afghanistan, in other 
areas in this region. I have spent 4 of the first 6 weeks on 
the job out in the region, visiting our people, but more 
importantly trying to make sure I have the best understanding 
possible to baseline my ability to assess where we really are 
and the extent to which we can progress in these challenges.
    Since I have been in the command, I have drawn the 
attention of the staff and our subordinate commanders to five 
areas in which we are focusing. Clearly, Iraq is one, 
Afghanistan another, working to degrade these violent extremist 
networks that have proliferated throughout the world, but have 
their sustenance and basic support in the central region, 
working hard to get to know the leaders of the region, to 
solicit their advice. They live there, they have been there. 
They understand this better than we.
    I have been heartened by the openness of leaders from each 
of the countries to sit down with me and talk and explain their 
view of things and their suggestions that they may have to help 
us in Iraq and other places.
    I believe that success in Iraq is dependent on two primary 
things: first; internal, that stability and security in this 
country are essential. But it is not going to be possible 
unless we also have support externally from the neighborhood. 
This place does not exist by itself in another galaxy and the 
influence of the neighbors, certainly very unhelpful from two 
of them in the recent past, but the willingness of others to 
come and assist Iraq is critical. I am happy that as we are 
here today there are two successive conferences going on in 
Egypt at Sharm el-Sheikh, the compact meeting, and then the 
Iraq neighbors conference, expanded Iraq neighbors conference, 
with many representatives, key representatives, including 
Secretary Rice from the United States, to sit down and try to 
help the Iraqi government move ahead.
    The last area that I have focused on is attending to the 
readiness and training of our own forces and their ability to 
not only continue to sustain operations in Iraq and 
Afghanistan, but to be prepared for any future contingencies or 
crises that may arise.
    Mr. Chairman, I have a written statement that I would like 
to have entered for the record, and turn it over to you for 
your questions. Thank you very much.
    [The prepared statement of Admiral Fallon follows:]
            Prepared Statement by ADM William J. Fallon, USN
                            i. introduction
    Mr. Chairman and members of the committee: On behalf of the men and 
women of the United States Central Command (CENTCOM), I thank you for 
this opportunity to testify on the posture of our command, and to 
provide an assessment of security and stability in our area of 
responsibility (AOR).
    CENTCOM is in its sixth consecutive year of combat operations and 
our region continues to be challenged with insecurity complicated by 
violent extremism. Operations in Iraq are focused on providing security 
for the population while increasing the capacity of the Government and 
Iraqi security forces (ISFs) to defend and secure their people. In 
Afghanistan, efforts continue to assist the young representative 
government with mentoring, training, and governance, as well as counter 
terrorist and security support. Pursuing stability and security in the 
region requires the focused, coordinated application of military power 
and a robust interagency effort. By helping people manage social, 
political, and economic change, we can further the interests of peace 
and representative government.
    In my first 6 weeks as CENTCOM Commander, I have traveled to many 
countries and met face-to-face with leaders to discuss the situation in 
the region and to enlist support for our efforts. A number of 
impressions frame my overall assessment, which is one of guarded 
optimism.
    Our top priority is achieving stability and security in Iraq. The 
ongoing sectarian violence threatens Iraq as well as the region, and 
inhibits essential economic progress. Both security and economic 
opportunity are necessary to convince the Iraqi people that a better 
life is possible. The Iraqi leaders in Baghdad understand that their 
ability to provide confidence to the population is key to success in 
stabilizing the country, and that they must make decisions on 
governance that are representative of the whole population. Though 
sectarian interests are working overtime to try to divide them, large 
numbers of Iraqi people are indicating they are tired of the violence 
and willing to cooperate with Iraqi and coalition security forces.
    In Afghanistan, I believe that the foundation of security and 
governance is in place. The vast majority of people are in favor of 
representative government and prosperity, not Taliban brutality, and 
they are standing up and fighting for their country's future. Capacity 
of the Afghan Security Forces, particularly the Afghan National Army 
(ANA), is growing and the ANA is eager and well led. However, many 
parts of the country have never known centralized governance, lack 
basic social services and infrastructure, and desperately require 
expanded capacity to meet the needs of a populace under pressure from 
the Taliban.
    Though Iraq and Afghanistan need their neighbors to help them, Iran 
and Syria have not cooperated with efforts to combat terrorism and 
promote reconciliation. Their policies and actions threaten the 
internal security of their neighbors and the collective stability of 
the region.
    The Iranian regime provides material support to violent extremists 
in Iraq, Afghanistan, Lebanon, and Palestine. It supplies Shi'a militia 
groups in Iraq with training, funding, and weapons, including 
particularly lethal Improvised Explosive Devices (IED). It also 
continues to provide money and weapons to Hizballah, which threatens 
the legitimate government of Lebanon.
    Iran's most destabilizing activity has been the pursuit of nuclear 
weapons technology in defiance of the international community, 
International Atomic Energy Agency, and United Nations Security 
Council. A nuclear-armed Iran would further threaten regional 
stability, potentially trigger an arms race, and increase the potential 
for extremists to acquire weapons of mass destruction.
    The Syrian government continues to meddle in Lebanon. Its support 
for Hizballah is destabilizing the country and it stonewalls the 
investigation into the Rafik Hariri assassination.
    Over the past 5 years, terrorists, suicide bombers, and foreign 
fighters have traveled through Syria to attack Iraqi and coalition 
forces. The government in Damascus has tolerated the presence and 
operations of Iraqi Sunni insurgents who have fueled the fighting in 
Baghdad and elsewhere in the country.
    Participation by Iran and Syria in the Iraq Neighbors Conference in 
Egypt this week offers an opportunity to make positive contributions to 
regional stability.
    In Lebanon, the government is confronted by opposition groups and 
violent protests, but the Lebanese Armed Forces are maintaining a 
fragile order. Hundreds of thousands of Lebanese have stood up publicly 
against assassination and terror, and for their elected government and 
a peaceful, prosperous future. The international community continues to 
support the popularly elected government in Beirut and its legitimately 
constituted and disciplined security forces.
    In the Horn of Africa, Sudan continues to defy the international 
community and resist the deployment of an effective United Nations 
peacekeeping force to Darfur. Ethiopia and Eritrea have yet to agree on 
terms to demarcate their common border, and Eritrea has imposed 
restrictions on the operations of the United Nations mission there. 
Ethiopia has accused President Isaias Afwerki's government of 
sponsoring insurgent groups and violent extremists in Somalia, where 
the situation remains volatile. The African Union mission to Somalia is 
unable to provide security beyond its garrisons, resulting in a country 
vulnerable to the return of al Qaeda and associated movements.
    These impressions highlight both the challenges and opportunities 
in the CENTCOM AOR. We are heavily engaged in several areas but have in 
place key elements to succeed in advancing U.S. security interests and 
enhance regional stability. Committed soldiers, sailors, airmen, and 
marines, working with interagency and coalition partners, lead the way. 
Staunch allies work with us, and strong partnerships with friendly 
nations facilitate our endeavors. More than 800,000 people of the 
region serve in their nations' security forces, risking their lives to 
combat terror. They are casting a powerful vote for hope, and 
ultimately victory, by fighting, and often dying, to ensure their 
countries do not succumb to extremism and terror.
    As we move forward, our initiatives are organized into five focus 
areas: setting conditions for stability in Iraq; expanding governance 
and security in Afghanistan; degrading violent extremist networks and 
operations; strengthening relationships and influencing states to 
contribute to regional stability; and posturing the force to build and 
sustain joint and combined warfighting capabilities and readiness.
             ii. setting conditions for stability in iraq.
    CENTCOM's Multi-National Force-Iraq (MNF-I) leads nearly 145,000 
U.S. and 12,600 coalition personnel from 26 countries who are working 
to develop critical security and governance capabilities. Our shared 
goal is a representative government in Iraq that upholds the rule of 
law, respects the rights of its people, provides security, and is an 
ally in the war on terror.
    Accomplishing these objectives requires the focused attention of 
all elements of the U.S. Government. The explosion of sectarian 
violence, highlighted by the February 22, 2006, al Qaeda bombing of the 
al-Askariya Mosque in Samarra, has dramatically changed the security 
and political situation. After enduring almost 3 years of attacks 
conducted primarily by terrorists and foreign fighters, Shia militants 
retaliated with a sustained campaign of kidnapping, torture, and 
murder. The ongoing sectarian violence became self-sustaining and 
threatened economic and political progress.
    With the ongoing surge of Iraqi and U.S. security forces and 
renewed interagency commitment, I believe we can establish greater 
security in support of the emerging Iraqi political process. The surge 
of additional military forces into Baghdad in Operation Fardh al-Qanoon 
(Law and Order) has disrupted extremist elements, at least temporarily 
reduced ethnic violence, and has been welcomed by the majority of the 
city's people. The establishment of Joint Security Stations offers some 
enduring promise of improved Iraqi and coalition force coordination and 
presence in neighborhoods. I believe these posts will also improve our 
access to information about insurgent activities.
    That said, I recognize that we have a limited opportunity in which 
to capitalize on the potential offered by the surge. The local populace 
must see tangible results to gain a sense of a more hopeful future, and 
as a result, come to believe in alternatives to extremism.
    Insurgent groups in Iraq have multiple and often competing 
motivations for perpetuating violence. However, a common thread is 
their opposition to U.S. and coalition presence and refusal to accept 
the legitimacy of an inclusive, representative government. Al Qaeda in 
Iraq (AQI) seeks to incite a sectarian war between Sunni and Shia Arabs 
through despicable and highly visible attacks on civilians. There is 
very little popular support for these groups. Some Sunni communities 
appear to be resisting al Qaeda in Iraq's intimidation. Several local 
leaders and their supporters have begun to actively support the regular 
Iraqi Police and Army forces against extremist threats.
    Some Shia militias, especially Jaysh al-Mahdi (JAM), seek to 
increase their political influence and to expand illegitimate 
activities under the guise of protecting their communities. These 
groups threaten stability and undermine confidence in the ISFs and the 
central government. Their death squads are responsible for the majority 
of the sectarian violence against Sunnis in Baghdad. Infiltration of 
the police by their members is especially problematic, as it undermines 
faith in fledgling Iraqi institutions.
    Neutralizing these groups depends in part on disrupting the support 
they receive through neighboring countries. The transfer of lethal 
technology, weapons, and money from elements in Iran to Shi'a militias 
threatens stability. Similarly, Sunni Arab extremists continue to 
receive external moral, material, and logistical assistance from 
private supporters in Syria and elsewhere. To counter these influences 
and take bold steps to bridge factional divides, the Government of Iraq 
needs steadfast support from the international community and its 
neighbors.
    I do not believe these differing factions in Iraq share a similar 
vision of an inclusive political middle ground, nor do they agree how 
to get there. The Government of Iraq must move toward inclusion by 
passing legislation on reconciliation, sharing of oil and gas revenues, 
and provincial powers. Furthermore, holding timely provincial elections 
and passing constitutional amendments on the matters agreed upon last 
year would reduce incentives for violence.
    I also found that poor budget execution has inhibited 
infrastructure development and the provision of basic services to 
Iraq's citizens. While the Provincial Reconstruction Teams (PRT) are 
helping improve local government performance and capacity, it will take 
considerable time to institute long-term good governance. In the near-
term, communities would benefit from job creation programs, a 
significant expansion of micro-credits, and rehabilitation of viable 
State-owned enterprises that can open for business quickly.
    Development of an effective and self-sufficient ISF continues to be 
a top priority. In January 2006, there were 230,000 members in the 
combined security forces. Today there are more than 330,000 soldiers 
and policemen who have received training and equipment. Although 
overall logistics capabilities are underdeveloped, the ISF is able to 
sustain units below the division level.
    The ISF is improving in capability, expanding command and control 
of operations, and taking an increasing role in confronting extremists 
and criminals. The Police still lag behind the Army in terms of 
individual and unit proficiency and reliability. In both forces, the 
units with strong leadership perform most effectively in combat 
operations.
    As we look to the future, we will continue the transition of 
responsibilities to Iraq's government as conditions allow. This should 
give its people additional confidence to build and sustain their 
institutions.
    Achieving our strategic goals in Iraq will require the focused 
efforts of our government's capabilities, the participation of key 
Iraqi factions, a reduction in external destabilizing influences, and 
most importantly, courageous and consistent good leadership by the 
Government of Iraq.
         iii. expanding governance and security in afghanistan
    Afghanistan's primary insurgent threat, the Taliban, operate mostly 
in the southern and eastern provinces of the country. While they remain 
unpopular in most districts, small pockets of hard-core extremists are 
intent on asserting control and undermining the reform-minded 
government. As the North Atlantic Treaty Organization (NATO) 
International Security Assistance Force (ISAF) expanded operations last 
year into previously uncontested areas, insurgent attacks increased to 
their highest levels since the fall of the Taliban in 2001. Violence 
did, however, level-off in October and remained lower throughout most 
of the winter.
    We expect Taliban activities to increase from now through the 
summer but believe that predictions of a major Taliban offensive are 
overstated. Despite the ability to instigate increased levels of 
localized violence, they are not able to militarily defeat the Afghan 
National Army and coalition forces. While continuing to counter the 
insurgent threat militarily, we will work with other agencies and a 
broadly based international effort to assist the Afghans to expand 
governance and promote economic development.
    Improving Afghan governance, infrastructure, and the economy 
requires a concerted effort. The priorities are roads and electricity, 
followed by agricultural development, micro-credit, job skills, and 
education. ISAF is actively pursuing initiatives in these areas, from 
building schools and providing them with supplies to encouraging and 
stimulating the growth of small businesses.
    Until there are sustainable governmental institutions and a viable 
replacement for the Afghan poppy crop, opium trafficking will be a 
significant part of this country's future. In the interim, CENTCOM 
supports U.S. Government and United Kingdom lead nation counter-
narcotics activities. These efforts include building infrastructure, 
training border forces and the Counter-Narcotics Police National 
Interdiction Unit (CNPA), and developing a CNPA aviation capability.
    In addition to reconstruction and development activities, efforts 
have focused on the Afghan National Army. Now at 50 percent of desired 
end strength, its 35,000 soldiers enjoy a high level of support from 
the populace, and are growing steadily in competence, effectiveness, 
and professionalism. Though we have made progress in manning the Afghan 
National Police and Border Patrol, currently consisting of 
approximately 46,000 officers, these forces remain several steps behind 
the Army. As the Afghan Security Forces become capable of sustaining 
security and force development, we will hand responsibilities over to 
them and transition to a long-term security relationship.
    Despite positive developments in the Afghan National Security 
Forces, long-term security requires the effective disruption of cross-
border extremist operations. Essential security cooperation with 
Pakistan is increasing and more needs to be done. While the issues of 
border security and militant safe havens are difficult problems, 
coordination at tactical levels in both countries and with ISAF is 
increasing. This should lead to further confidence building measures 
and more robust joint efforts. Tri-lateral cooperation between ISAF, 
Pakistan and Afghanistan to improve governance, the rule of law, and 
trade in the border regions can also help eliminate extremist 
sanctuaries. Meanwhile, ISAF has retained the initiative, clearing and 
isolating enemy sanctuaries in places like Helmand Province since last 
autumn. In ongoing operations, MEDUSA and ACHILLES, ISAF forces have 
undertaken a multifaceted approach to clearing, holding, and building. 
They have killed and captured several hard core Taliban leaders and cut 
their lines of communications, while aggressively pursuing development 
projects in the surrounding districts. This not only encourages the 
population in these areas to reject the insurgents, it vividly 
demonstrates the contrast between the grim reality of Taliban rule and 
the health and prosperity of government-controlled areas.
    There is a general sense of optimism and determination among the 
Afghan leaders and people. They regularly voice their appreciation for 
our assistance, and believe things have improved since last year. We 
must help them succeed.
        iv. degrading violent extremist networks and operations
    Whether sponsored by Iran, enabled by Syrian destabilizing efforts, 
or motivated by networks such as al Qaeda and its associated movements, 
violent extremism is a serious danger to regional and global security. 
We must identify, mobilize against, and confront this menace as its 
anachronistic world view and murderous tactics threaten people and 
stability worldwide. While our efforts in Iraq and Afghanistan 
continue, we will use all available methods to build regional and 
international momentum for moderate behavior while eroding support for 
violent extremist ideology.
    The highest priority in our counterterror efforts is to defeat al 
Qaeda. Part of this effort, but not an end to itself, is the 
destruction of senior al Qaeda leaders. Since the September 11 attacks, 
we and our partners have captured or killed terrorists, diminished safe 
havens, driven leaders underground, and restricted operating space. 
Despite these efforts, challenges continue as our enemies work to 
reconstitute their networks. Critical to countering these violent 
extremists is the denial of their sanctuaries, nation-state support, 
and the lines of communication that sustain them. These militant 
Islamist terrorists attract recruits from a large, worldwide pool of 
disaffected young people. Unfortunately, their tactics and radical 
ideology remain almost unchallenged by voices of moderation. In 
response, we will enhance our intelligence capabilities, develop 
partner nation capacities, strengthen information sharing, disrupt 
illicit lines of communication, and work to prevent terrorist 
organizations from acquiring and using Weapons of Mass Destruction. All 
of these actions will require interagency and international 
coordination and cooperation.
    Equally important to defeating al Qaeda and other extremist groups 
is delegitimizing the underlying social and political movements that 
support them. To diminish the radical social movements from which our 
enemies derive their strength, we must maintain operational pressure on 
their networks while building capacity in governance and security that 
help at-risk societies address problems that foster internal and local 
grievances. This work requires empowering credible experts to expose 
the flaws and internal contradictions of the enemy's ideology; provide 
viable, competing alternative worldviews; and contest the intellectual 
``safe harbors'' where extremist ideas incubate.
Strengthening Relationships and Influencing States and Organizations
    To increase prospects for long-term stability and security in the 
region, we are working to strengthen relationships between and among 
regional nations and the United States. We are also trying to influence 
states and organizations such as the Gulf Cooperation Council and 
operational constructs to contribute to regional stability and work to 
ensure the free flow of commerce and positive economic growth.
    The CENTCOM theater security cooperation program is built on a 
foundation of enduring relationships, and to that end, I support the 
Middle East Peace Process. The synchronized efforts of all the elements 
of U.S. and international power are key. We are fortunate to have a 
large number of close, reliable partner nations. Five of these 
countries, Egypt, Jordan, Kuwait, Bahrain, and Pakistan, are Major non-
NATO Allies, and of those, Jordan and Bahrain are Free Trade Agreement 
partners. Our Theater Security Cooperation Strategy enables regional 
stability and advances security efforts that protect vital U.S. 
national interests, and helps partners build capacities to combat 
terror and become self-reliant.
    Theater Security Cooperation programs and combined military 
training exercises strengthen partner military capabilities, increase 
interoperability with U.S. forces, encourage professional development, 
ensure access, and enhance intelligence and information sharing. Most 
importantly, these efforts cultivate personal relationships and build 
mutual trust and confidence between U.S. and partner military 
personnel.
    We continue to support these programs as a matter of high priority. 
Whether they are Department of Defense activities, or paid for with 
Department of State resources, such as Foreign Military Sales (FMS) and 
International Military Education and Training, the assistance we 
provide to our friends in the region is fundamental to building long-
term security partnerships.
    FMS is particularly useful in helping our partners build modern, 
capable forces that can more easily integrate into coalition 
operations. However, long administrative delays and procurement lead 
times undermine responsiveness to emerging threats. 1206 funding is 
helping to address this problem by allowing the Department of Defense 
to directly fund security cooperation activities. However, expanded 
dollar amounts of 1206 funding and including partner security forces 
engaged in fighting terror would be helpful.
    I will work to strengthen relationships with our international 
partners and allies who are contributing in many important ways to 
building a better future for people in the region. I would now like to 
give examples that illustrate the criticality of our own relationships 
in the region.
    Arabian Gulf States. Gulf Cooperation Council members Bahrain, 
Kuwait, Oman, Qatar, Saudi Arabia, and the United Arab Emirates are 
important partners in maintaining stability in the Gulf. We will work 
closely with these governments and their security forces to develop 
solid bilateral security cooperation programs and build confidence and 
capacity in their forces.
    Each of these states has been a valuable partner in our mutual 
security efforts. The Bahraini Joint Counter-Terrorism Center has 
helped several agencies of its government to prepare for potential 
terrorist attacks. At its Gulf Air Warfare Center, the United Arab 
Emirates host air exercises that build multilateral cooperation and 
interoperability among the Gulf Cooperation Council, Egypt, and Jordan. 
Qatar provides excellent host nation support to our air operations 
center and the CENTCOM forward headquarters. In 2006, it again hosted 
the multinational crisis response exercise Eagle Resolve, and 
successfully planned, coordinated, and supervised security for the Doha 
Asian Games. Oman, a strategically situated state in the region, 
partners with U.S. forces in exercises and other activities to help 
keep global commerce flowing and secure its extensive coastline and 
borders. In 2006, CENTCOM conducted 38 combined military exercises in 
the Arabian Gulf with these countries.
    Saudi Arabia remains a vital partner, and its campaign against 
terrorists has significantly degraded al Qaeda operations on the 
Arabian Peninsula. CENTCOM will closely link its initiatives to broader 
U.S. Government efforts to work with the Saudis in their efforts to 
defeat threats and promote reform. Eight combined military exercises 
are scheduled for 2007, all designed to increase cooperation and to 
develop the Kingdom's security capabilities. Our security cooperation 
efforts will prove increasingly important as we promote multilateral 
security efforts and counter-proliferation initiatives in the Arabian 
Gulf area. These are aimed at deterring destabilizing influences and 
protecting our friends and U.S. interests from aggression.
    Our partnerships with these states also provide essential basing 
and port access, overflight rights, and additional force protection for 
U.S. units in the region. Our strong partnership with Kuwait has been 
in place for nearly 20 years. Kuwait remains a steady supporter of 
coalition efforts, hosts the Combined Forces Land Component Command, 
and serves as the primary staging point for forces and equipment 
rotating into and out of Iraq. I cannot imagine operations in Iraq 
without the vast support of Kuwait. Bahrain is one of our longest-
standing partners and it has welcomed the U.S. Navy for 60 years. It is 
also home to U.S. Naval Forces CENTCOM and the United States Fifth 
Fleet. Though not large countries, each contributes greatly to a better 
future for all the peoples of the Arabian Gulf.
Egypt
    The Arab Republic of Egypt remains a key U.S. ally in the fight 
against extremism in the region. It strongly supports the Middle East 
Peace Process and has deployed forces to preserve stability in the 
aftermath of the Israeli withdrawal from the Gaza Strip. Egypt has been 
a moderating voice in discussions with Syria, Lebanon, Fatah, and 
HAMAS, and was among the first regional countries to send humanitarian 
supplies to Lebanon and to volunteer assistance to the Lebanese Armed 
Forces. Its position as protector of the Suez Canal and gateway to the 
Middle East has contributed greatly to coalition efforts in Iraq and 
Afghanistan. Hundreds of Suez Canal transits and thousands of 
overflights have expedited U.S. military operations in CENTCOM's AOR.
    This year, Egypt will again host the biennial Bright Star combined 
military exercise, CENTCOM's largest training event. In 2005, Bright 
Star included 12 participating nations and more than 30,000 troops. 
This year it will include air, naval, ground, and simulated training 
events that incorporate post-September 11 operational themes designed 
to improve interoperability.
    Unfortunately, Egypt has suffered numerous terrorist attacks, 
including one aimed at the Multinational Force and Observers in the 
Sinai. Egyptian security forces have been diligent partners in 
combating extremist networks. Continued Foreign Military Financing, 
Foreign Military Sales and International Military Education and 
Training funding are needed to develop and modernize forces that 
contribute significantly to stability in the critical Suez Canal area 
and the Levant.
Horn of Africa and Yemen
    The nations of the Horn of Africa Djibouti, Somalia, Ethiopia, 
Eritrea, Kenya, and the Seychelles, are plagued by border tension, 
insurgencies, corruption, terrorist infiltrations, and poverty. 
Moreover, coalition pressure on al Qaeda and other extremist networks 
in Iraq, Afghanistan, and elsewhere increases the potential for some of 
these terrorists to migrate to the Horn as a place to plan, conduct, 
and coordinate terror attacks.
    CENTCOM's Combined Joint Task Force-Horn of Africa, with nearly 
1,300 U.S. personnel, works closely with U.S. Embassies in the region. 
It conducts operations, training, and humanitarian missions in the Horn 
and in Yemen to help nations build capacity to combat terrorism and 
prepare for other challenges including natural disasters. Activities 
that it undertakes include training local security forces as well as 
assisting with civic projects such as wells, schools, and clinics, and 
providing medical and veterinary services in remote villages. Security 
capabilities and civil affairs training gained by local forces, coupled 
with the goodwill engendered by numerous humanitarian operations, 
increase the regions' resistance to the spread of extremist ideology 
and fortifies local desires to defeat terrorism before it becomes 
entrenched.
Jordan
    The Hashemite Kingdom of Jordan remains a key and valuable partner 
in the fight against violent extremists and contributes significantly 
to regional stability. Threatened by internal terrorist activities, it 
has led significant counterterror efforts.
    Jordan is a regional leader in security and counter-terror 
training, and hosts major initiatives for developing security 
capabilities. The Peace Operations Training Center has provided more 
than 1,100 U.S. military leaders and soldiers with valuable cultural 
awareness and language training. Meanwhile, the Jordanian International 
Police Training Center has provided training for over 50,000 Iraqi 
police officers, and other Jordanian schools train Iraqi military 
forces, air traffic controllers, and aviation inspectors. Upon 
completion in 2009, the King Abdullah Special Operations Training 
Center will provide a regional capability to train special operations 
forces. These programs are building competent and capable ISFs and will 
help other regional security services improve their effectiveness.
    Jordan's other contributions are also important. Its highly trained 
and disciplined armed forces are a positive example for other 
militaries with high levels of professionalism and combat 
effectiveness. Additionally, I would like to recognize the Jordanian 
doctors and nurses who have established a hospital in Afghanistan and 
treated over 550,000 Afghans and 1,900 coalition members.
    Jordan's strategic location, balanced vision of modernization, and 
well-developed security establishment give it a regional role and 
influence that exceed its size. Our programs of military and economic 
assistance remain vital to encouraging Jordan's continued modernization 
and leadership in the region.
Pakistan
    Pakistani security forces have captured and killed significant 
numbers of violent extremists, to include high-ranking leaders of al 
Qaeda and the Taliban. They have also suffered extensive casualties. 
Our long-term partnership with the Islamic Republic of Pakistan is 
central to defeating extremist groups in the region, and it is 
difficult to imagine success in that struggle without its support and 
cooperation. We are working together to reduce the tensions stemming 
from the radical and violent presence in the Federally Administered 
Tribal Areas (FATA). Useful initiatives include regular meetings with 
Pakistan's military leaders, and more robust liaison and communications 
among our units operating along the Afghanistan-Pakistan border. While 
President Musharraf is working to moderate groups within Pakistan and 
to prevent militants using the FATA for sanctuary, he is faced with a 
backdrop of potent political, social, and ethnic forces within his 
country.
    Pakistan remains a strong partner of the United States, and our 
support for its counterterror efforts will continue with a variety of 
focused programs. Our security cooperation funding and bilateral 
exercise programs help the country's government conduct counter-terror 
operations and enhance its internal stability. Our goal is for Pakistan 
to view the U.S. as a long-term, preferred international partner, 
particularly in our efforts to defeat our common enemies.
Central Asian States
    Situated at the crossroads of Europe, Asia, and the Middle East, 
the Central Asian States of Kazakhstan, Kyrgyzstan, Tajikistan, 
Turkmenistan, and Uzbekistan are playing an increased role in global 
energy markets. They are also strong partners in the struggle against 
militant Islamist movements and their Islamic scholars have taken the 
lead in publicly countering extremist propaganda. However, as with 
other areas of the CENTCOM region, the Central Asian States contend 
with a number of threats to stability and security. Restricted oil and 
gas export options limit their income, geography makes border security 
especially difficult, and organized crime, narcotics trafficking, and 
political instability are preeminent concerns. Though local perceptions 
of U.S. involvement in the region are complex, our access to government 
officials is strong.
    Despite the challenges, there are signs of progress in Central 
Asia. Uzbekistan, Kazakhstan, and Kyrgyzstan have negotiated a series 
of agreements that should improve trilateral border security. Over the 
coming year, CENTCOM will prioritize engagements that sustain logistics 
chains for Operation Enduring Freedom, reform regional defense 
institutions, enhance organic counterterrorist and counternarcotics 
capabilities, further improve border security and disaster 
preparedness, and prevent proliferation of weapons of mass destruction.
    vi. posturing the force to build and sustain joint and combined 
                 warfighting capabilities and readiness
    Joint and combined warfighting capability and readiness are 
fundamental in our ability to prosecute ongoing military operations, 
maintain a credible presence to deter aggression, and respond 
effectively to contingencies. Because we execute nearly all of our 
activities jointly and in concert with allies, we must cultivate 
effective interservice and multinational ways of doing business. 
Additionally, because our region is filled with uncertainty, we must 
maintain a full spectrum of responsive capabilities through an 
effective forward deployed force structure, thorough planning, and 
realistic combined training exercises. Other critical capabilities 
include the following:
A Strong Coalition
    At present, we have over 40 partner nations with troops in 
Afghanistan and 26 with personnel in Iraq. They bring important mission 
capabilities, but also significant integration challenges. Blending 
capabilities of these countries into effective action requires, among 
other factors, a command and control infrastructure that accounts for 
remote locations, multiple languages, cultural differences, and 
challenging force protection issues. Our coalition must share 
classified and sensitive information when appropriate, and have the 
networks and infrastructure to facilitate such exchanges.
Interagency Coordination
    Establishment of security and stability in our region requires the 
application of all elements of national power: military, diplomatic, 
economic, and information. The military instruments can set conditions 
for security but other agencies foster lasting change.
    We are fortunate to have several U.S. Government entities engaged 
in the CENTCOM AOR. The Departments of State, Treasury, Justice, and 
Homeland Security, as well as subordinate agencies including the U.S. 
Agency for International Development, Diplomatic Security Service, 
Federal Bureau of Investigation, Drug Enforcement Administration, and 
United States Coast Guard, are actively engaged in our theater. Their 
efforts are helping to protect critical infrastructure, prevent 
terrorist attacks on our homeland, train fledgling law enforcement 
organizations, and rebuild damaged or aging infrastructure. There is 
clearly a need for better integration and more comprehensive 
application of all the elements of national power.
Flexible Logistics
    Strategic airlift, rapid sealift, prepositioned inventories, and 
access to bases with critical infrastructure are the key logistics 
components which support operational flexibility. Our primary focus in 
this area remains the timely deployment, equipping, and sustainment of 
units engaged in combat operations. There is no better example of the 
importance and flexibility of our contingency air and sealift 
capabilities than the evacuation of over 14,000 Americans from Lebanon 
during last summer's conflict between Israel and Hizballah. We will 
continue working with the Joint Staff, Office of the Secretary of 
Defense, the Department of State, and partner nations to ensure access 
to the infrastructure we need to support ongoing and future operations.
Adaptable Command, Control, Communications, Computers, Intelligence, 
        Surveillance, and Reconnaissance Capabilities
    Interoperable, high-volume communications systems are essential to 
conducting operations across a dispersed command space. Our systems 
operate near full capacity daily with little surge capability. Because 
many of our needs must be satisfied by commercial providers, access to 
them is critical. The largest challenge we face is integration of 
disparate systems into interoperable and reliable networks. We must 
embrace policies that enable successful integration and technologies 
that result in effective interoperability and efficient information-
sharing.
    Ultimately our ability to target violent extremists depends on 
precise and actionable intelligence. We continue to evolve our 
techniques and procedures to optimize efforts to ``find, fix, finish, 
and exploit'' targets. Our adversaries have been agile in adapting to 
our operations. We continue to improve battle space awareness, seeking 
greater specificity, detail, and timeliness of intelligence whenever 
possible. We are aggressively seeking ways to manage shortfalls or 
capability gaps in imagery intelligence, wide area coverage, sensor 
integration, signals intelligence, moving target indicators, layered 
intelligence surveillance and reconnaissance architecture, biometrics, 
counterintelligence, and human collectors.
Responsive Counter Improvised Explosive Device Program
    Insurgents' weapon of choice will likely continue to be the IED, or 
road-side bomb. They are cheap, effective, anonymous, and have been 
adapted to include toxic industrial chemicals such as chlorine. While 
some are crude, our adversaries increasingly use sophisticated 
technology, including Iranian-supplied Explosively Formed Penetrators. 
These weapons have killed or wounded 15,000 military and civilian 
personnel in Iraq, and IEDs are becoming increasingly prevalent in 
Afghanistan.
    To counter this threat, and working with the interagency and our 
coalition partners, we are fielding jammers, specialized route 
clearance vehicles and equipment, and improved vehicle and personnel 
protective armor. These initiatives have reduced IED effectiveness. We 
must continue to develop new technologies, tactics, techniques, and 
procedures. Of particular importance to CENTCOM is rapid fielding of 
Mine Resistant Armor Protected vehicles, and further research and 
development to improve the detection of mines, IEDs, and unexploded 
ordnance.
Personnel
    Sustained operations in the CENTCOM AOR depend on personnel who 
have foreign language proficiency and cultural awareness competency in 
addition to military skills. Retention is a critical issue, and we 
depend heavily on quality of life enhancements such as Combat Zone Tax 
Relief, Imminent Danger Pay, and Special Leave Accrual. The Rest and 
Recuperation program continues to be a success, serving more than 
470,000 troops to date. Over the past year, we have conducted a 
comprehensive review of the manning of our headquarters, which, after 5 
years of war, is still highly reliant on temporary individual 
augmentation personnel. My subordinate warfighting headquarters are 
also heavily manned with individual augmentees. I am committed to 
working with the Services and the Joint Staff to properly size and 
resource all of these headquarters.
    CENTCOM is also working to address requirements for low density 
skills. Our present inventory of language and intelligence specialists 
(especially human intelligence) and counterintelligence agents does not 
support current requirements. Language expertise is crucial in 
counterinsurgency, counterterrorist, and counterintelligence 
operations, and will continue in high demand. Contracting language 
expertise provides interim capability, but in the long run, we need 
service members and career civilians with the requisite language and 
cultural skills.
                            vii. conclusion
    Despite difficult and often dangerous conditions and lengthy 
absences from home and family, our military men and women in the 
CENTCOM AOR persevere in their efforts and demonstrate courage, 
professional skill and uncommon dedication to duty. Whether engaged in 
combat, providing humanitarian relief, or supporting operations, they 
represent Americans at their very best. While we fight tirelessly 
against those who would do us harm, we also stand equally ready to 
assist those who would help bring peace to this region. The American 
people and Congress have provided staunch and steady support, and we 
sincerely appreciate your advocacy and assistance. I am proud and 
honored to represent the men, women, and supporting families of 
CENTCOM. On their behalf, I thank you for your support, and for this 
opportunity to testify regarding our defense posture.
    Chairman Levin. Thank you so much, Admiral Fallon.
    Admiral, as I mentioned in my opening statement, the 
Washington Post reported on Monday that the Iraqi office of the 
commander in chief played a leading role in the arrest and 
removal of some Iraqi army and national police officers who 
apparently worked aggressively to combat the Shia militias. The 
article quotes our General Pittard as saying that the only 
crimes or offenses that they committed were that they were 
successful against the Mahdi Army and that, in his words, ``I 
am tired of seeing good Iraqi officers having to look over 
their shoulders when they do the right thing.''
    Can you comment on that? Is that report accurate, that 
those Iraqi officers were removed because they were doing the 
right thing?
    Admiral Fallon. Senator, I think that, as with most things 
in Iraq, there are a lot of complexities here. I can certainly 
understand the frustration of our people that are working with 
the Iraqi forces, particularly when they see people that are in 
their eyes helpful to making progress, particularly working 
with our people.
    The reports that this office of the commander in chief is 
in fact working behind the scenes to set up a parallel 
organization to the Ministry of Defense is disturbing, because 
it seems to me that if the Iraqi people are going to have 
confidence in their government and their leadership, the 
processes by which these appointments are made is one that is 
going to be indicative of the likelihood of people believing in 
their government.
    There are many Iraqi army leaders that we have been exposed 
to and that our people have met. We are making our own 
assessments of these people in terms of their competence and 
their corruption or lack of and their willingness to actually 
do things. I do not know all the details of the particulars 
that this general was quoted as saying, but I will say that we 
are certainly aware of the continuing stories of this office of 
the commander in chief and in my discussions with Ambassador 
Crocker and with General Petraeus it is our intent to make 
clear to the Prime Minister that this kind of an operation 
would be severely degrading to any attempt to move forward in 
the way that we have been certainly working in that country.
    Chairman Levin. Would that also not be, if those actions 
were taken to remove those officers because they were too 
effective against the Shia militias, would that not also be a 
violation of Prime Minister Maliki's commitment to President 
Bush of ``noninterference in operations'' of Iraqi security 
forces, if they were true?
    Admiral Fallon. Senator, I do not know the details of the 
specifics that we are talking about.
    Chairman Levin. If they were true, if they were removed for 
that purpose, would that not be a violation?
    Admiral Fallon. Clearly the Prime Minister has told us that 
he will try to have people in place that are going to work with 
us to try and reach the security objectives that we would like.
    Chairman Levin. Admiral, you said in your opening statement 
that the most important need in achieving our strategic goals 
would be good leadership by the Government of Iraq.
    Admiral Fallon. Right.
    Chairman Levin. Do you agree that the solution in Iraq has 
to be a political solution based on compromise among the Iraqis 
themselves and that that agreement is essential if we are going 
to end the violence?
    Admiral Fallon. Senator, it is very clear that success in 
Iraq is going to be greatly dependent, and I believe not 
possible without the firm commitment and demonstration by the 
political leadership in that country that they are acting in 
the interests of the entire population. But there is a certain 
requirement for security and stability as a foundation for 
these desires.
    Chairman Levin. Here is what Secretary Rice wrote to me in 
her letter of January 30. She said that ``Iraq's policy 
committee on national security has agreed upon a set of 
political, security, and economic benchmarks and an associated 
time line in September 2006. These were reaffirmed by the 
presidency council on October 16, 2006, and referenced by the 
Iraq Study Group. They also were posted on the President of 
Iraq's web site.''
    Now, these benchmarks included the following: By September 
2006, the Iraqi's were supposed to form a constitutional review 
committee, approve law and procedures to form regions, agree on 
a political timetable, approve the law for an independent high 
electoral commission, approve provincial election laws and set 
date for provincial elections and approve a de-Baathification 
law by November. The constitutional review committee was 
supposed to complete its work by January 2007, and by March 
2007 the constitutional amendments referendum was supposed to 
have been held.
    Were any of those things accomplished as far as you know?
    Admiral Fallon. Senator, they have been working all of 
these issues. There has been progress made, at least from their 
reports to me and my understanding. They are not moving in my 
opinion fast enough to support what we are trying to do in that 
country and I think that making sure that the leadership of 
Iraq understands that we do not have unlimited time, that we 
must move forward, that they are going to have to make these 
tough decisions, is important.
    I understand it is complex. I understand it is challenging. 
But they are going to have to make the kind of progress that 
will give the people in this country the confidence that they 
can believe in this government.
    Chairman Levin. My question was were those specific 
benchmarks met within the timeline that they set for 
themselves?
    Admiral Fallon. Clearly, they have not been able to stay on 
there, what they originally hoped to do there.
    Chairman Levin. It was more than hope. They had set those 
specific timelines, did they not, for themselves?
    Admiral Fallon. My understanding is that they had in 
conversation with our people outlined the things that they 
wanted to do. I have not seen anything in writing on these, but 
all these things have been discussed. I have talked to them 
about the majority of these things when I met with them. They 
tell me they are working these in various committees.
    But it is challenging. For example, the suicide bomber that 
walked into the Council of Representatives (COR) several weeks 
ago, was very destabilizing. I think it indicates the 
challenge, the biggest challenge here, is to make progress in 
the political vein, to have these people make the decisions. We 
have to have a framework of security and stability that gives 
them the confidence to be able to work.
    So it is a daunting challenge. I think we are making 
progress. We have not only a big push with additional forces 
going in there, but the way they are operating we have good 
indications that they are having success on the ground in 
expanding areas of stability and security. But we need the 
parallel effort, as you indicate, to make the political 
decisions to move us forward.
    Chairman Levin. Admiral, assuming that Secretary Rice is 
accurate in her letter, in your judgment have the Iraqis 
fulfilled those commitments? I just want you to make an 
assumption that Secretary Rice in her letter to me is accurate 
as to what commitments were made. On that assumption, in your 
judgment have the Iraqis fulfilled their commitment?
    Admiral Fallon. Senator, I believe they are working on 
them. They have not completed this agenda that they have laid 
out for themselves.
    Chairman Levin. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    First, Admiral, there are two programs I have personally 
been involved in and feel very strongly about throughout the 
Middle East as well as Africa, and they are the International 
Military Education and Training (IMET) program and the Train 
and Equip, sections 1206 and 1207. We have made an effort to 
take off the requirement of the Article 98 from the IMET. I 
think originally it made sense to have that because we viewed 
that program as doing them a favor. I have felt that they are 
doing us a favor by coming over here and training.
    I would like to have your feeling about the IMET program, 
its success, and also the Train and Equip and how it is 
working, such as in the area of Ethiopia.
    Admiral Fallon. Senator, the IMET program is one of the 
most valuable tools we have for engaging with countries around 
the world, for exposing their military leaders to our 
processes, to our standards, to the ways in which they can help 
to build capacity in their countries. There are countless 
examples in which this has been extremely useful for us, so I 
strongly support the program. I think it is terrific. In my 
recent job in the Pacific we were able to use 1206 money in a 
way that was very helpful to achieve our long-term objectives, 
which of course are security and stability. So I really support 
it.
    Regarding Ethiopia, I intend to head down there next week. 
That will be my first visit since I have been in, so I will be 
interested in looking and seeing how things are going in this 
country, which by all appearances prior to my visit is a 
country that is actually trying to help in the HOA.
    Senator Inhofe. I would like to ask you to let someone give 
me a little review of what happens down there. I just got back 
from Ethiopia and they are very proud of the way that they used 
our help in going down to help us again. So I think that is 
perhaps somewhat of a model.
    Just briefly, we are all concerned now about the 
supplemental. That is the current problem that we are having. I 
will go ahead and quote Secretary Gates: ``It is a simple fact 
of life that if the supplemental is not enacted soon the Army 
faces a real and serious funding problem that will require 
increasingly disruptive and costly measures to be initiated, 
measures that will inevitably negatively impact readiness of 
the Army personnel and their families.'' Then he went on to 
elaborate how specifically that would impact negatively our 
efforts in Iraq.
    Do you have any comments to make about that?
    Admiral Fallon. Senator, in my discussions with the 
Chairman of the Joint Chiefs of Staff and the Secretary of 
Defense, my understanding is that the continuing funds to 
support our efforts in the CENTCOM are being taken from the 
Services. So the extent to which they can continue to sustain 
the expenditures that we are running on a daily basis, I do not 
know exactly when they are going to run out of money, but I 
know that this has to be detrimental to the Services as they 
continue to support us.
    Senator Inhofe. In your opening remarks you addressed some 
of the foreign impact on al Qaeda. Last week, General Petraeus 
said Iraq is in fact the central front of al Qaeda's global 
campaign. I would assume you agree with that. I would like to 
get a handle and bring out and discuss a little bit about how 
many foreign fighters do you believe are supporting al Qaeda in 
Iraq and where they are coming from, where they are getting 
their equipment, and are there more there now than there were 
in Iraq, let us say, a year ago?
    Admiral Fallon. Senator, I cannot honestly tell you how 
many are there. From the data that I have seen and talking to 
General Petraeus, our commanders there, and our intelligence 
sources, my sense is that there are probably less coming in now 
than were last year. We are working very hard against this. 
There are several factors, I believe. One, there is little 
doubt that there was a pipeline coming through Syria that was 
enabling these people to get into the fight. But in the last 
couple of months, the significant turn to the government and 
coalition side by people in Anbar I believe has to be having a 
detrimental effect on this, because that is the conduit, if you 
would, of where these people were coming by our best 
intelligence assessment. Now that this is not particularly 
hospitable to al Qaeda or foreign fighters, we would expect to 
see some positive results from that.
    Senator Inhofe. That is good.
    African Command (AFRICOM) is working closely with both 
CENTCOM and EUCOM. I would like to get your impression as to 
how you see that working. I was in Djibouti in the HOA 
recently, and I have always felt that they should have their 
own command. That was one that we talked about a number of 
years ago.
    Can you tell me how you think that is going to impact your 
potential there?
    Admiral Fallon. I would expect minimal impact and maybe 
some positive. The expectation is we would have a positive 
effect if somebody is on the staff working this full-time. A 
fair chunk of the existing CENTCOM AOR is in Africa, and as 
this standup occurs we are going to be working closely with 
them to make sure there is nothing dropped in the handoff to 
the new AFRICOM. But I think it should be overall beneficial to 
the countries and our interests in the continent of Africa.
    Senator Inhofe. I think so, too.
    I mentioned being with General Jones on his last trip down 
to Afghanistan. I have always gotten the impression down there 
that there is great progress, but one of the greatest problems 
is corruption at the local level, the fact that you are not 
dealing with some central area that can really impact the 
entire country, but instead you have little areas of corruption 
around.
    Have you had a chance to get in there and evaluate our 
progress there, and would you elaborate on anything in terms of 
Afghanistan that you did not get a chance to talk about in your 
opening statement?
    Admiral Fallon. Sure, Senator. I have been there twice and 
last week spent 3 days in the country. Starting at the top, 
President Karzai is very, very charismatic, a very eloquent 
spokesperson and leader in his country. I think he has a good 
grip on the reality of that place. It is complex. It is 
certainly riddled with corruption. That is a way of life. It 
has been that way for quite a long time and it is something we 
have to deal with.
    There are some very positive signs in Afghanistan. First 
and foremost is my assessment of the people. They are grateful 
for the assistance that we and the coalition have given them. 
They support us by and large. They do not like the Taliban. 
They have had a dose of that and they realize how they treat 
people and what they do and they do not like them. So we have a 
strong support base in the population.
    I am also encouraged by the leadership in their security 
forces, particularly the army, their Minister of Defense, 
Bismillah Kahn, the Chief of the Army. These people are 
instinctively good leaders. They have a good grasp of reality 
in dealing with their people. I was impressed as I looked at 
the quality of the training.
    We have people that are working this very hard. My 
impression of their leadership is one that gives me a lot of 
confidence. We have a ways to go. I do not know what it looked 
like a year ago. I was in Afghanistan, but not really focused 
on the training of Afghan forces. What I see now I like. In 
fact, we have a new commander that is headed to Iraq to take 
over the training there, General Dubik. I called him yesterday 
and asked him if he would please stop in Afghanistan on the way 
to get a sense of this. Afghanistan is smaller, smaller than 
Iraq, in many ways I think easier to get a grip on because of 
the size and complexity issues compared to Iraq. But I am very 
happy with what I see there and I would like him to take note 
of it.
    As we move forward, we have trained substantial numbers of 
people there and that is good. I am very interested now in 
assessing how good they really are and what their capabilities 
are going to be. When I was there we talked about coming up 
with a program that we can accurately do that, and I want 
General Dubik to take a look at it before he goes into Iraq so 
that he can have that baseline. But I am pretty confident.
    Senator Inhofe. Thank you.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Senator Reed. Admiral, what is the time horizon for your 
operational planning in your command? Several years, 5 years?
    Admiral Fallon. I will tell you that I am trying to push it 
out. I am trying to get the staff to be more focused 
strategically, first of all on this region and the future here, 
and to look down the road at, operationally at Iraq a year, 2 
years, 5 years down the road. The same thing for Afghanistan. 
What kind of relationship do we really want? What do we 
envision for a future? How do these places play in the region? 
So I am trying to get beyond. General Petraeus is working the 
tactical to operational side. I want to work operational to 
strategic.
    Senator Reed. What planning guidance are you giving your 
planners for force levels in Iraq 3 years out?
    Admiral Fallon. I have not gotten to that level of detail. 
Right now we are working very hard to try to give General 
Petraeus the support he needs to complete the influx of forces. 
But I have asked them to start taking a look at alternatives 
for where we might want to be in the future. I envision that we 
will want to be and we will be asked to be in Iraq for some 
period of time with some representation of U.S. capability, 
just as we do in other countries. Now, what that is going to 
be, how soon we transition to what might be an enduring 
presence there to do the kind of things we do in other 
countries, I think is something we need to be thinking about 
right now and start doing at least the initial planning for.
    Senator Reed. In that context, are you developing plans for 
redeploying forces out of Iraq, as a contingency at least?
    Admiral Fallon. I do not have plans right now to do that. 
But it is certainly something that we are going to think about 
and take under advisement, as we should.
    Senator Reed. Do you not think that is a key responsibility 
you have as the CENTCOM commander, to have contingency plans in 
place at all times?
    Admiral Fallon. Senator, we have dozens of contingency 
plans in the region. Yes, sir, we will do that. But right now 
we are focused on trying to do everything we can to make this 
surge successful and to support General Petraeus.
    Senator Reed. One of the criticisms of the operations to 
date, and I think it is with increasing strength, is the fact 
that CENTCOM did have very detailed plans for operations with 
respect to Iraq, but those plans were totally disregarded. 
Improvisational, ad hoc methods were used which turned out to 
be, frankly, disastrous in many cases.
    I do not think we can afford to repeat that experience 
going forward and that is why I would urge that this planning 
process be accelerated and we operate with detailed plans from 
military commanders and not improvisation from political 
appointees here and over there.
    Admiral Fallon. Senator, I do not know the detail of what 
went on in the past, but I can tell you that if we have plans 
on the books my intention is to make sure these plans are 
credible.
    Senator Reed. Admiral, are you satisfied with the 
contribution to date from non-DOD elements that are integral 
parts of this approach, the State Department, other agencies of 
the national government?
    Admiral Fallon. I do not know whether you could ever 
satisfy my desire for more and better assistance, better 
coordinated. I will tell you that we are working it very hard. 
I have met with Secretary Rice and her many assistant 
secretaries with our people in Baghdad to try and coordinate. 
We have thousands of people that are trying to work this issue.
    My sense right now is the biggest challenge for us is to do 
the best job we can to integrate these many capabilities on the 
ground in the near-term so that we can follow up this major 
change in our force disposition and in the way they are 
actually being employed on the ground, with the economic, 
political, and other infrastructure incentives and initiatives 
on the ground. I think it is really important, very complex, 
and I am spending probably as much time looking at that piece 
of it as the strict security piece because I think it is so 
important.
    Senator Reed. It has been my impression as I have gone out, 
and I know you have also, to go down to division commanders and 
brigade commanders who are continually critical of the lack of 
support. They understand the constraints, but that message 
seems to be diluted when it gets here to Washington. Everyone 
is working together and trying to coordinate and harmonize.
    We have reached a point I think where we have to be pretty 
blunt about whether we have all the components in place to 
attempt this proposed strategy.
    Admiral Fallon. Senator, I agree. Time is of the essence 
and it is right now. There have been a lot of changes. I know 
there have been historically complaints about this. There are 
Provincial Reconstruction Teams (PRTs) in operation. They are 
well-intended. They have tremendous goals. They are working at 
governance and putting in place those structures. My perception 
is that we need actions right now that are going to show 
results in the very near-term, over the next 6 months say that 
can be a direct follow-on to the security push that is ongoing.
    There are now these new PRTs that are being very closely 
aligned to the brigade leadership, the military leadership. In 
fact, General Petraeus and I were talking about this just the 
night before last, and doing everything we can to try to sync 
these people on so that what the security leaders, the military 
leaders, see as they move into these neighborhoods, for 
example, in Baghdad is going to be acted upon, we have the 
capabilities in place to actually have this thing coordinated.
    So I think it is very complex. I think we are much better 
than we were before. But I will believe it when I see the 
results. I want to have this thing much tighter and we are 
working on that right now.
    Senator Reed. Admiral, one potential analysis of what is 
going on in the country is that the Government of Maliki, Shia-
dominated, has essentially talked down the Shia militias, got 
them to go underground, biding their time, not taking effective 
steps against them but letting them bide their time because of 
political considerations, while at the same time they are quite 
eager to engage the Sunni insurgents, and we are doing that, 
and quite successfully because of efforts in Anbar and 
elsewhere, but the overall goal of this government is simply to 
let us fight their enemies while they consolidate their power 
and emerge at some point down the road dominating Iraq, which 
is contrary to all of the discussions about benchmarks, about 
reconciliation, about fairly distributing oil.
    What is your view on that?
    Admiral Fallon. Senator, I think that is a view. My 
perception from 6 weeks on the job is that certainly Prime 
Minister Maliki and other senior officials are taking a broader 
view of this, that they are trying to address the needs of the 
country as a whole rather than just these narrow sectarian 
views.
    I think it is a real challenge. Just look at the Prime 
Minister himself. He does not come from an experience base of 
dealing with other than his party and his interests. He 
acknowledges the need to do this, to be representative of the 
whole country.
    They are not making every decision that we would like them 
to make, as quickly as we would like them to make it. It is 
pretty easy for me to go over there and say, Mr. Prime 
Minister, if only you would do this, then I think this would be 
better. He reminds me that there are many issues and that there 
is a long history here, a perception in the minds of the now-
majority Shia that they have been oppressed for a long time by 
Saddam and his Sunni-dominated government, and that in his 
dealing with the country as a whole that he has to take into 
consideration these very strong opinions and memories and the 
reality of the suffering that they have endured.
    So I can see this every day as he tries to balance this. We 
have with our ambassador, Ryan Crocker, and General Dave 
Petraeus there virtually every day, sitting down with the Prime 
Minister, working through him to try to continue to encourage 
him. It is tough with all these special interests that are 
gnawing at him.
    My sense is that, of all the things going on in Iraq, we 
are making some tremendous progress in many areas across the 
country. You look at the provinces as a whole, the number of 
provinces where there is substantial violence ongoing are 
relatively small, 4 or 5 out of the total of 18. I see real 
success with our troops, particularly since this surge and the 
number of forces have really increased in the conflicted areas 
in and around Baghdad.
    The destabilizer is the continuing ability of the Sunni, 
allied with al Qaeda insurgents, to use these big bombs to 
provide or to send a signal of insecurity. The reaction on the 
Shia side is to point to the Prime Minister and say: See, they 
are still at it. This gives them a substantial base in arguing 
to the Prime Minister that he be very careful about reaching 
out to the Sunnis.
    It is the biggest challenge. If we can break this link 
between the Sunni and al Qaeda, I think we will have a pretty 
good chance of a substantial turn. The dramatic shift in the 
atmospherics and the reality in Anbar from 6 months ago to 
today I think is indicative of what could happen in this 
country. Very complex.
    The Shia have not responded in a major retaliatory way to 
these big attacks. We literally hold our breath. I think one of 
the reasons is the Prime Minister and his leadership are trying 
to keep this tamped down. We need to convince him that taking 
steps to give some sense of inclusion to the Sunnis so they 
will then lessen their support, passive or otherwise, for al 
Qaeda would be the biggest and most important thing that could 
happen in the political realm in this country. This is my 
message to the Prime Minister.
    Senator Reed. Thank you very much, sir.
    Chairman Levin. Thank you, Senator Reed.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    That last discussion you had with Senator Reed is 
important. I just returned from this weekend with Senator Ben 
Nelson's delegation. One of my impressions was that it is 
indeed the spectacular Sunni, but driven, plotted by al Qaeda, 
attacks, often by suicidal persons recruited by al Qaeda from 
outside the country, that is causing the greatest instability 
and insecurity there; and that this lack of security has 
provided a legitimatization of the Shia militia.
    Admiral Fallon. That is exactly right.
    Senator Sessions. Would you agree with that?
    Admiral Fallon. Absolutely right. It gives them an argument 
that I believe has clearly been persuasive to some degree with 
the Prime Minister that this is the insurance policy. 
Regrettably, even though there may be some good intentions with 
these militias to work first and foremost to defend their 
segment of the population, there is little doubt that there are 
very evil, murderous people that are involved in these militias 
as well, they care much more about getting even or getting 
revenge or wreaking havoc on somebody else than they do about 
taking care of people.
    So these competing interests are the biggest challenge.
    Senator Sessions. Al Qaeda and their allies we have to 
assume are just not compromisable. They are just not into 
negotiations. Ideology is pretty much their only way.
    Admiral Fallon. I am not sure I would be that strong. It 
looks like in Anbar there are people who were clearly fighting 
against us who have now stopped doing that and have gone over 
to the other side.
    Senator Sessions. These would be the allies or partners 
with?
    Admiral Fallon. These are disaffected, unhappy, 
disenfranchised Sunnis who were the beneficiaries of certain 
things under the Saddam regime, who when they lost all this saw 
that their best interests were served by fighting the coalition 
and fighting the government. After several years of this, it is 
very clear that they realize this is a mistake, and so they 
have opted to come over and help the coalition and the 
government.
    Now, I do not believe for a minute they have suddenly 
decided that we are the most lovable folks in town and this is 
what they are doing it for, that that is the reason. I think 
the reason is self-interest. Frankly, they see that their 
future, a future with al Qaeda, is a loser and that they have a 
much better chance of now working and trying to influence this 
government to be more representative of them, and that is why 
they are doing it.
    Senator Sessions. Senator Levin, Senator Warner, and I were 
in Al Anbar in October of last year and I was very troubled. I 
have heard reports of major progress as the tribal leaders have 
turned against the al Qaeda and that was confirmed this 
weekend. We met with General Gaskins, the Marine commander 
there in Fallujah. He talked about how they met with tribal 
leaders who said they wanted to cooperate with us and they 
asked our marines what they needed and they said we needed 
young people to join the police and the military, and he said: 
I will have 500 Tuesday. They came Tuesday and there were 550 
who signed up.
    It has been a very real change. Now, that was the area, and 
I guess remains the area of the strongest al Qaeda influence, 
is that correct?
    Admiral Fallon. This has been the traditional support base 
for al Qaeda in Iraq. It has also been the conduit for support 
from the outside in foreign fighters and equipment and no doubt 
money. I was there 6 months ago and found the same thing. It 
was very disheartening, a troubled region, and nobody was on 
our side except our own people.
    Every one of these towns and cities now, the major towns 
and cities, from the Syrian border all the way down to the 
Euphrates towards Baghdad are now largely in the hands of the 
Iraqi security forces and/or U.S. forces, and they are 
remarkably quiet compared to just a few months ago. There has 
been a steady decline in level of incidents in these cities and 
there is tremendous progress.
    I was out 2 weeks ago walking the streets of Haditha, a 
place where I was in December and it was not hospitable in any 
way, shape, or form. I was actually out with General Gaskins 
and General Odierno walking, meeting with the mayor. Very 
encouraging to see that the leadership, the tribal leadership 
in particular, has been forthcoming in encouraging their people 
to join the security forces, because that is going to make all 
the difference.
    Senator Sessions. I certainly agree, and we were told the 
same about Ramadi, a very tough area that now the General said 
they walked the streets and talked to people and it is not 
perfect, but a lot, huge progress has been made there.
    Admiral Fallon. You can see the tremendous difference in 
the population as they now begin to have confidence, they are 
starting to rebuild, do other things. But it is not over yet. I 
will be very honest with you.
    Senator Sessions. It is not over yet, and there are a 
number of concerns that I believe we have. But this is the kind 
of advance that can happen if you work at it and adjust and 
think and conditions change.
    I would just note, our marines, our soldiers, our airmen, 
our Navy personnel, deserve the absolute finest support this 
Congress can give them. But they also have to have support from 
the Iraqi government. We do not need to be doing things here 
that undermine their effectiveness and I think on occasion we 
have. Things that have been said here cannot have been helpful 
to those soldiers on the ground.
    But I am concerned about this government. We were there and 
they kept telling us: We want more time for this and more time 
for that, and a sense that they just would not understand the 
urgency of it. I understand that there is a plan for a 2-month 
summer recess in the Iraqi parliament. Can you give us your 
impressions on that summer recess, which I think is 
unacceptable, and your evaluation of the sense in which this 
government is capable of making the decisions on oil and 
reconciliation that really are important to us?
    Admiral Fallon. Senator, that is the number one question in 
my mind, is their ability as well as willingness to do this. 
The heads are nodding affirmatively, yes, we understand, yes, 
we are going to do this. When these things come up like this 2-
month holiday, immediately I know Ambassador Crocker and 
General Petraeus have pushed back on it.
    I think it was Dr. Rubai, the National Security Adviser, 
the other day said this will be addressed; they are not going 
to take a 2-month vacation; we are going to get them to work, 
which is clearly necessary. How can we have our people out 
there fighting and dying if they are off on vacation, instead 
of addressing the most pressing issue, which is getting the 
kind of reconciliation sense in the minds of the people.
    Senator Sessions. That certainly worries me, I have to tell 
you. This government has to be functional if we are going to 
support it.
    Admiral Fallon. I think we need to be steadfast in our 
messages from here and from all of our coalition forces that 
the only acceptable behavior here is going to be them stepping 
up to take those tough decisions, however difficult they may 
be, to give their people the confidence that they can trust and 
believe in their government.
    Senator Sessions. Admiral Fallon, I have raised a number of 
times my concern about increasing the system of law in Iraq and 
the need for order and a judicial system and a prison system 
that works. We had a meeting for several hours one night with 
the Iraqi judge, Iraqi lawyers, defense lawyers, Department of 
Justice (DOJ) personnel, General Gardner, who is building the 
prison system there. I just have to tell you that I am of the 
view that we still are not where we need to be.
    General Gardner talked about doubling the prison capacity 
in fairly short order. I think he is committed to that. I 
believe General Petraeus understands that. Probably it needs to 
be more than doubled, and soon. I think that is confirmed by an 
article by Bing West in the Atlantic Monthly of a few weeks ago 
that talked about the catch and release, that 80 percent of 
insurgents that are arrested are usually released, other 
problems.
    Have you been able to examine how critical this is, because 
if the local people see individuals that have murdered their 
relatives or conspired with them be apprehended and then 
released, it has a tremendously demoralizing effect. I just 
cannot stress how strongly I believe that that is critical to 
creating stability in Iraq.
    Admiral Fallon. Senator, I agree, the need for a justice 
system, for law and order, for a host of reasons--as you 
indicated, to give the Iraqi people some confidence that there 
is some real justice going to occur, as well as dealing with 
thousands of detainees right now, is really important. Dave 
Petraeus is trying to jump-start this, as I think you are 
aware. He has stood up or helped to facilitate standing up a 
court system in the Green Zone in a protected area.
    One of the biggest challenges here is every time a person 
of courage stands up to do the right thing in this country he 
becomes immediately the target of those zealots that want chaos 
and do not want a justice system. So they are very vulnerable 
and their families are vulnerable. So Dave is trying to jump-
start this by setting up a court with a lot of help from folks 
in this country, legal experts and judges and prosecutors and 
so forth, to be able to get something going to address these 
things.
    Senator Sessions. We had discussed that late last year. I 
believe that is happening, where the judges go out to safe 
zones and try cases and come back to Baghdad or otherwise, 
because they are at great risk and cannot live within the 
community if they impose substantial sentences.
    But what I want to say to you, Admiral, is my impression is 
that that is a good start, but it probably needs to be a ten-
fold increase.
    Admiral Fallon. I agree.
    Senator Sessions. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Bill Nelson.
    Senator Bill Nelson. Admiral, good morning.
    Admiral Fallon. Good morning, sir.
    Senator Bill Nelson. My question is with regard to Baghdad, 
what is the electricity production as to what is needed at this 
point?
    Admiral Fallon. That is pretty tough to judge. I had this 
same question for my staff and for General Petraeus' folks as I 
flew around Baghdad, over Baghdad at night, in the last couple 
of weeks. I saw quite a bit of light, which was indicative of 
power.
    Senator Bill Nelson. Okay, would you supply that for the 
record, yes, sir?
    Admiral Fallon. Sure, yes, sir.
    [The information referred to follows:]

    Baghdad's first quarter average daily demand was  cents2,100 MW, 
with the average daily electricity supply of 897 MW, which supplies a 
first quarter daily average of 5.4 hours of power. The difference is 
due to the large number of generation units that are in scheduled and 
unscheduled maintenance, long-term outages, the inability to provide 
fuel supplies for power generation, and the interdiction of the 400kv 
transmission grid between the Baghdad Metropolitan Area and the power 
production centers in the adjacent regions of Iraq. Since June 2006 the 
Government of the United States has provided +7.6B USD to upgrade the 
Iraqi Electricity Sector, which suffered through +25 years of 
mismanagement and neglect by the previous regimes. The Iraqi Ministry 
of Electricity has developed a long range plan to redevelop and expand 
the power sector to meet the demands of not only Baghdad, but of the 
entire Iraqi nation. Electricity demands of the Iraqi people and 
economy will not be met, however, until the security situation 
improves, until the climate of corruption moderates, and until the 
Iraqi government develops and implements necessary laws to allow the 
massive needed international investment ($20 billion+ USD) to develop 
the power sector.

    Senator Bill Nelson. Now, with regard to Baghdad, my 
impression here is that you think that the surge is working in 
Baghdad. This is not a question about Anbar; it is a question 
about Baghdad.
    Admiral Fallon. In and around Baghdad, I can see very 
positive effects of the additional forces and the methods and 
the way that they are being used with the Iraqi forces. There 
are substantial areas of that city that are now no longer under 
the influence of the kind of daily chaos that was going on 3 or 
4 months ago.
    Senator Bill Nelson. The judgment on whether or not it did 
or did not work in Baghdad would be rendered when?
    Admiral Fallon. There is still another couple of months to 
go before the total of the forces that have been allocated for 
that area, before they are actually in place. So I could not 
imagine even trying to make a judgment until after they have 
been in place for a couple of months. So I think by the end of 
this summer we will have a pretty good feel for how we are 
really doing.
    The challenge, Senator, that I see is I can see the 
momentum, I have been there, I have gone on the streets and I 
have seen what is going on, and our people are reaching out and 
steadily making these neighborhoods more secure. But the 
destabilizers again are these big bombs and the ability of 
zealots to penetrate that security and to make people feel 
insecure.
    Senator Bill Nelson. Are these mixed neighborhoods that 
they are going in, securing, and then they hold?
    Admiral Fallon. The areas that were less mixed have been 
easier to deal with. We are now, General Petraeus and General 
Odierno and his teams are tackling these mixed neighborhoods, 
which are more of a problem, because this is where the zealots 
on both sides are still hard at work and they are still 
intimidating the population and they are the toughest nuts to 
crack right now.
    Senator Bill Nelson. The ones that have been cleared, are 
they held?
    Admiral Fallon. In fact, I was looking with my staff 
yesterday at the metrics that we have been using and the way we 
have been depicting this, and I gave them my opinion that that 
might have been good prior, but right now it is not enough 
because it does not give me enough context, a sense of how well 
we are actually doing, once we think we have cleared these 
areas what is really going on.
    So it is a work in progress. I could show you at a 
classified level a depiction of Baghdad with General Petraeus' 
assessment right now, but I think we are digging down deeper in 
that to see how well we are really extending the security.
    Senator Bill Nelson. For the committee what I am trying to 
understand is that originally the theory was clear, hold, and 
build.
    Admiral Fallon. Right.
    Senator Bill Nelson. Now, going into this surge we were not 
even getting to the build part. We were going to clear a 
neighborhood and then we were going to hold it. So my question 
is, of the neighborhoods that you have cleared, are those same 
neighborhoods being held?
    Admiral Fallon. Yes, sir.
    Senator Bill Nelson. Are they being held by the Iraqi army?
    Admiral Fallon. In large measure, yes, with a very strong 
U.S. presence.
    Senator Bill Nelson. Can you give a percentage? Is it 60-
40? Is it 70-30?
    Admiral Fallon. I would be winging it. I do not want to 
give you a percentage, but there are substantial Iraqi forces 
and U.S. forces in these areas.
    Senator Bill Nelson. Are there any areas or neighborhoods 
that we cleared that we are not holding?
    Admiral Fallon. I think it is too simplistic to say just 
holding. Have we eliminated all incidents and all violence in 
these neighborhoods? No. Has the level of violence gone down 
dramatically? Yes. There are some that I feel pretty confident 
that I do not have to look at day to day to see how much 
bloodshed is going on, that other areas are the focal point.
    These are really big neighborhoods and lots of stuff going 
on.
    Senator Bill Nelson. Right.
    Admiral Fallon. But generally, we have had very good 
success in many of these neighborhoods so far.
    Senator Bill Nelson. You want to give us a concept of how 
many?
    Admiral Fallon. No, I do not want to. I think I would 
rather wait a little bit and get the rest of our forces in 
there.
    Senator Bill Nelson. No, I am talking about how many we 
have cleared.
    Admiral Fallon. Oh, in terms of numbers?
    Senator Bill Nelson. That is correct.
    Admiral Fallon. I believe you cannot just look at Baghdad 
because you have to take this; it is not an isolated entity 
here. There are lots of lines of communication in and out of 
there. My sense is, first glance, about half of the area looks 
dramatically improved and levels of violence lessened. There is 
a distinctly active area of mixed neighborhoods that runs 
generally west of the Green Zone, that is certainly an area in 
which we are working very hard right now. The level of 
incidents is up, but there is little doubt that one of the 
reasons for those levels of incidents is because we are pushing 
very hard into these neighborhoods with the Iraqi forces.
    Senator Bill Nelson. Mr. Chairman, I think that would be 
most helpful to the committee as we are trying to evaluate, to 
what degree in what was laid out to us by General Petraeus, 
this clear and then hold, to what degree has it been 
implemented and where has it been, the degree of progress. It 
is hard for us to evaluate without having some specifics.
    Admiral Fallon. I understand.
    Chairman Levin. Would you provide those, Admiral?
    Admiral Fallon. We will work on it. Senator, I do not think 
it is appropriate to declare that we have done this and we have 
gotten this percentage until we get the rest of the force in 
there, because this is a work in progress. As additional forces 
come in, there are different things taking place at the 
tactical level that are very significant in regard to these 
neighborhoods.
    Senator Bill Nelson. You have said within a couple of 
months you are going to have all of your troops deployed, and 
so at that point clearly we would want to know. But we do not 
want to wait 2 months to get this information to get an idea.
    Admiral Fallon. I will get back to General Petraeus and we 
will give you an assessment of where we think we are right now.
    [The information referred to follows:]

    Since Operation Fardh Al-Qanoon began in February 2007, 146 
neighborhoods (muhallas) have been cleared by coalition forces and 
Iraqi security forces and are now in the ``control'' or ``retain'' 
status. This represents 32 percent of the total number of neighborhoods 
(457) in Baghdad. Currently Multi-National Division-Baghdad (MND-B) is 
in the process of clearing 155 neighborhoods (34 percent) through a 
combination of operations conducted from the division through company 
level. MND-B is shaping the remaining 156 muhallas (34 percent) through 
disruption operations. These muhallas will either be cleared or 
transition directly to control status.
    MND-B classifies all muhallas within its area of responsibility 
according to a categorization scheme that identifies each mulhalla as 
in the ``disrupt,'' ``clear,'' ``control,'' or ``retain'' status. MND-B 
executes disruption operations to keep enemy forces off balance until 
sufficient clear and control forces are available. Clearing operations 
seek to remove enemy forces and organized resistance within an assigned 
area. An area transitions to control status when coalition and Iraqi 
forces can maintain physical influence over a specified area to prevent 
its use by insurgent forces and protect the populace. Finally, an area 
enters retain status when friendly actions render the area free of 
enemy influence. The doctrinal reference for these tactical terms is 
Army Field Manual 3-90 (Operations). The categorization of each 
mulhallah is set using assessments made by the coalition force brigade 
commander responsible for that area.

    Senator Bill Nelson. Alright. What is your strategy to 
combat the terrorist threats in Africa?
    Admiral Fallon. I am headed to the HOA on Monday to go down 
and look at it first-hand. Africa is a huge area. We are 
focused on the HOA. Somalia has been pretty much ungoverned for 
many years. It is clear that this is a lawless territory which 
is fertile ground for terrorists. We are trying to pay 
attention to what is going on there.
    The Ethiopian Government has sent troops in to try to 
disrupt some of the more harmful elements there. There is an 
African Union force that has gone on the ground in Mogadishu to 
try and put some semblance of stability in there. My sense is 
from a distance that they are having some effect, but not great 
effect. So I am interested in going down myself to visit some 
of these places and get my own assessment.
    Senator Bill Nelson. That is my question, your strategy in 
preventing al Qaeda from strengthening its presence. So since 
you need to take that trip, I would appreciate it if you would 
respond to us after that particular factfinding trip.
    Admiral Fallon. I sure will.
    Senator Bill Nelson. Thank you.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Martinez.
    Senator Martinez. Admiral, it is good to see you again. I 
know how proud we are in Florida to have CENTCOM in our State 
and we are delighted to have you there and look forward to you 
continuing to be one of our most distinguished citizens.
    I wanted to begin by framing where we are. We started a 
Baghdad security plan a couple of months ago under the 
leadership of General Petraeus. We had an increase in troop 
strength relating to that plan, which is still incomplete. In 
other words, the troop strength will be fulfilled in another 
couple of months.
    Would it be not a little difficult to assess the success of 
a plan that is still in the process of being implemented?
    Admiral Fallon. Sure, which is why it is really very 
difficult. I can give you a snapshot, but I am not sure how 
useful that snapshot would be until we get the full force of 
our intended changes in place. So it is going to be a couple 
months to get the forces there and then I think I would 
certainly be interested in letting them have the full effect of 
that force and the follow-on non-military aspects of this plan 
before we really make an assessment or a judgment on how we are 
really doing.
    Senator Martinez [presiding]. That is called the Baghdad 
security plan, which is really focused on Baghdad itself, 
correct?
    Admiral Fallon. It is Baghdad and environs.
    Senator Martinez. Now, the success we have had in Al Anbar 
Province, and to be sure there has been significant success 
there----
    Admiral Fallon. True.
    Senator Martinez.--is unrelated to the Baghdad security 
plan. Of course, it is part of what we are trying to accomplish 
in the whole country, but it is a success that is somewhat 
unrelated, is it not?
    Admiral Fallon. I think they are related and that the 
degree to which we can capitalize on the change of sentiment 
and the changes on the ground in Anbar will be very telling in 
Baghdad, because the al Qaeda-Sunni connection has by every 
indication primarily been down through Anbar and into the 
Baghdad area. So making progress in changing the ability of the 
enemy to use this area as a sanctuary and as a means to funnel 
people and equipment down into Baghdad I think is going to be 
very telling on the situation.
    Senator Martinez. Al Qaeda was using Al Anbar as a staging 
area, safe area if you will, a place of headquartering their 
operation?
    Admiral Fallon. It got support from the population.
    Senator Martinez. Right. But then they were operating 
outside of that area, including in Baghdad, correct? Al Qaeda 
even then and today continues to operate in Baghdad as well?
    Admiral Fallon. They will try to go anyplace they can in 
the country.
    Senator Martinez. But in fact, do they go into Baghdad?
    Admiral Fallon. They do.
    Senator Martinez. When we are fighting in Baghdad, we are 
at times fighting al Qaeda?
    Admiral Fallon. It is our belief that they are the primary 
instigators of terror, particularly the suicide bombings.
    Senator Martinez. Part of this new strategy, this new 
security plan that is in the process of implementation, had a 
political component. I know you were asked this morning about 
some of the benchmarks that the Iraqi government had set out 
for itself, obviously some of them unmet. It does seem to me 
that it has been very difficult for the Iraqi government to 
come together and operate as a nucleus of a unity government. I 
was struck when I was in Baghdad how disjointed it was and 
about the influence in some ministries by those who really did 
not have the same goals as perhaps the Prime Minister.
    Why is it so difficult for the Iraqis to come together 
politically? What is it that has made it so difficult for there 
to be the political success that is so integral to the overall 
success of Iraq?
    Admiral Fallon. Senator, my understanding is and belief 
that the sectarian differences that divide this country are 
quite significant. The short version is that a Sunni minority 
has dominated the country for decades under Saddam Hussein. 
They inflicted a lot of pain on the Shia majority and that has 
now been reversed in a representative process. Since the Shia 
outnumber the Sunni, they are the dominant political entity in 
the country.
    The Sunni are feeling the pain of being the former top dogs 
and now they are not. They enjoyed many benefits under Saddam 
that they certainly do not enjoy now. This is very difficult 
for them to accept.
    The Shia, on the other hand, having been persecuted and 
severely maligned by the prior government, in some respects 
certainly want to enjoy the benefits of being the majority and 
to get things that they would like to have done to their part 
of the country and their people. There is certainly a segment 
of the population that is out for revenge and would like 
nothing better than to try and settle scores.
    You have a Kurdish part of the country in the north that 
has its own special interest related to itself, and the ability 
of these three major factions to work together is going to be 
the tale of the tape here. This is challenging for them because 
they have historically only looked after their own interests. 
There have not been national leaders who have a broader view 
that would, I think, take into consideration all the interests 
and desires of the population. That is what Prime Minister 
Maliki is trying to do.
    My sense is that most of the leaders understand that, but 
they have a lot of difficulty in making the decisions that are 
going to be necessary to really move forward. It is clearly a 
work in progress. The idea that they have benchmarks and they 
have not met them, it is like many other things, even our own 
government: We set goals and objectives; sometimes we make 
them, sometimes we do not.
    The intent is to work towards these goals. I have not had 
any of the senior leadership tell me that they are not 
interested in working. There is no doubt that there are people 
in this country, in that country, that feel this way, but the 
senior leadership has told me they understand, they know what 
they need to do, and they are going to continue to work it, but 
it is difficult.
    Senator Martinez. We in the U.S. Senate understand about 
benchmarks not met in terms of goals of what we can achieve.
    But I think no doubt that the political dilemma that they 
are in would be much easier dealt with in an atmosphere of less 
violence, which is what our hope is and part of our strategy, I 
suppose.
    Admiral Fallon. This is why the enemies, they understand 
this very well. They are now working hard to focus their 
activities on things that would be destabilizing and things 
that would undermine the confidence of the leaders to make 
those decisions.
    Senator Martinez. Admiral, we are going to have to adjourn 
the hearing at this time so that I might go vote in the 2 
minutes that I have left to get to the floor. So we thank you 
and we stand adjourned.
    Admiral Fallon. Thank you, Senator.
    [Recess.]
    Senator Webb [presiding]. The committee will come to order.
    I would first just like to say that I was pleased to 
support your confirmation, Admiral Fallon. I think that you 
have unique credentials and from my perspective you were 
dropped into the middle of what I view to be the results of an 
abysmal strategic failure, with constantly shifting 
justifications for our involvement, vague objectives, and 
overuse of our military, as opposed to a tandem diplomatic 
process that should have been in place, that hopefully we are 
now getting into place.
    The great strength of your more recent background 
particularly has been your diplomatic skills. I think that 
anyone who observed your previous tenure knows of those 
strengths and of the approaches that you took, particularly 
with our relations with China; and that this is something that 
has been sorely lacking in our approach to the situation in 
Iraq. I think that, absent a small percentage of people in this 
administration, there is a genuine acceptance of the fact that 
this is the direction that we need to go.
    I spent a good bit of time yesterday with Iraq's ambassador 
to this country, and we obviously did not agree on everything, 
but it was surprising to me the things that we did agree on. 
One of those was his belief, and I think this is the belief of 
most of the people involved in the Iraqi governmental process, 
that you simply cannot resolve this problem inside Iraq, that 
for all the talk about the reconciliation of the factions 
inside Iraq, that this is only going to be resolved with the 
strong participation of other countries internationally and 
particularly countries in the region.
    He spoke to me of the efforts of this current Iraqi 
government to reach out in their own missions to Tehran and 
Syria and the difficulties that they were having, quite 
frankly, being taken seriously. This only strengthened my view 
that the solution that is going to come about is going to have 
to come about through strong diplomatic participation.
    I say this at a time when we know that Secretary Rice for 
the first time is at a conference, the first time in 28 years, 
a conference where at a minister level the United States and 
Iran are present. I think it is properly a multilateral 
conference.
    But I am curious as to your viewpoints on this and what you 
see as the prospects for the outcome of this conference and 
this approach.
    Admiral Fallon. Thanks very much, Senator. I share your 
conviction that real success, not just in Iraq but in the 
region, is going to require engagement and help from countries 
out there. My initial impression is after speaking with the 
leaders from Egypt to Pakistan, and throughout the Gulf area, 
there is a general feeling that we have not paid much attention 
or enough attention to the opinions of the folks there. 
Whatever happened in the past, we have to deal with today. So a 
solution for Iraq in the positive manner in which we would like 
to see it is going to need help from the neighborhood.
    In general terms, there is a lot of anxiety and I think it 
has probably not been ever too much different over there. But 
most of the Gulf countries on the Arabian Peninsula are very 
concerned about Iran, about Iranian intentions, about the 
growth in power and the implications for their countries. There 
is a sense that because the majority government in Iraq now is 
a Shia government that the alignment or potential alignment 
with Iran would be to the detriment of other countries, is one 
of their major concerns.
    There is a skepticism about the Maliki government based on, 
I think understandably in many respects, that Maliki's track 
record is as a representative of a party rather than a country. 
There is a certain affinity amongst these Gulf nations for the 
Sunni in the west of the country, and it goes on and on. There 
is an hour's worth of issues here.
    Be that as it may, my message to each of these leaders has 
been, after listening carefully to their recommendations and 
their complaints in many cases, is to ask for them to help. 
They do not necessarily need to be doing earth-shattering 
things, but the most useful thing would be some overt support 
to the Maliki government, which would give them some sense of 
their own importance and credibility.
    They are very nervous about their neighborhood as well 
because they sense this feeling of distrust. I think it is a 
really good sign, to segue into these two meetings this week, 
that the meetings are being held in Egypt. When I spoke to 
President Mubarak about this and encouraged him to not only 
host these meetings, but to meet with Maliki to give him some 
encouragement to proceed and to stand up as a representative 
for the whole country of Iraq, he agreed. I am very pleased to 
see that that meeting did occur. No earth-shattering, 
monumental declarations after that, but just the image of the 
two of them sitting down and talking. At the time, of course, 
it gives the President an opportunity to impart a message to 
Prime Minister Maliki that he needs to be looking out for these 
minorities in his country.
    Senator Webb. I would suggest also that the image of the 
United States at a ministerial level having some sort of 
discussions with people that this administration has refused to 
deal with is a very powerful, symbolic message as well. That is 
one thing that I was hearing even from the Iraqi ambassador 
yesterday, that Iran, Syria, do have an interest in stability 
in Iraq and that it is up to us to overtly push that and bring 
them to the table as a part of a solution.
    I wanted to ask you two other things really quickly here. 
One is, when President Bush announced the surge in January he 
said: ``The Iraqi government plans to take responsibility for 
the security in all of Iraq's provinces by November.'' Is that 
still your goal?
    Admiral Fallon. We are working towards the turnover of each 
of these military districts to Iraqi leadership and as fast as 
we can get this accomplished I think the better off we are 
going to be. This is not without challenge.
    Senator Webb. Would you say that it is still the 
administration's goal to do that by November?
    Admiral Fallon. I have not heard anything to the contrary, 
Senator.
    Senator Webb. The other is a comment about the dialogue 
that has been going back and forth with respect to al Qaeda and 
the Sunnis. I mentioned to you when I started the frustration 
that I and so many other people have had with the constantly 
changing justifications for our involvement, from the pre-
invasion rhetoric about weapons of mass destruction and Saddam 
Hussein. The average troop who went into Iraq thought they were 
going to be there 3 months. The average person who planned this 
figured we were going to be there for 30 years. People like 
myself and others were saying that at the time.
    Now we have yesterday the President saying it is not 
whether we ought to take sides in a civil war, it is whether we 
stay in the fight against the same international terrorist 
network that attacked us on September 11. I think the truth of 
the matter is that network was not even actively operating in 
Iraq until we got there. In fact, their philosophy went against 
the grain of Saddam Hussein's secular government, even though 
it was a violent and repressive government.
    What we are seeing really is the Sunnis as the people in 
the middle here. It is good news that they have decided more 
overtly to go after al Qaeda, but there is not really a natural 
alignment between the Sunnis in Iraq and al Qaeda, in that the 
old saying in this region, the enemy of my enemy is my friend. 
I think that what the Sunni insurgency has apparently decided 
is that they will cooperate with us to the point of getting rid 
of an entity that really was not dominant in their communities 
before we got there. That is good, but I think they would like 
to see us leave, too. They want us both out.
    Admiral Fallon. We would like to dramatically change the 
presence we have in this country as well. If I could go back to 
your first comment, it has been fascinating to me to get into 
this and to find how interesting the arrangements are between 
various groups and factions. Some pretty unlikely alliances 
here or least cooperation between factions that on the surface 
you would think have absolutely antithetical views of life.
    But look at the reality of Lebanon and the fact that 
Hezbollah have been supported and sustained by the Iranians, 
working through Syria, who appear to be on two different 
religious levels, and then the reality of terrorists working 
together inside Iraq, indications that potentially al Qaeda may 
be working with Iranian elements that are destabilizing areas 
in the country, the fact that in Afghanistan we are seeing 
Iranian support to the Taliban, again at the opposite ends of 
the ideological spectrum.
    Senator Webb. I take your point. My time has run out. Just 
to finish on that point, however, that is one thing I saw in 
Lebanon when I was a journalist there in 1982, is that people 
used to sit back and say, do not get involved in a five-sided 
argument. You could have a firefight start between, say, the 
Druze and a piece of the Lebanese army and all of a sudden the 
Syrians would be over here and then the Christian Falange would 
be shooting at the Syrians. In microcosm that is what we are 
seeing right now.
    Thank you for your testimony. I am sorry that my time has 
run out.
    Chairman Levin [presiding.] Thank you, Senator Webb.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Admiral Fallon, I have one question to start with and some 
other things I would like to talk about. The commander of the 
Multi-National Force-Iraq may soon have to submit reports to 
the President and to Congress regarding progress on certain 
conditions for staying in Iraq. On that note, where does the 
authority lie in submitting recommendations for troop 
redeployment? Who has the authority for troop redeployment or 
troop withdrawal?
    Admiral Fallon. I would expect General Petraeus would make 
recommendations to me.
    Senator Ben Nelson. Recommendations, yes, but who would 
have the authority?
    Admiral Fallon. I would make the recommendations to the 
Secretary.
    Senator Ben Nelson. The Secretary of Defense would have the 
authority for redeployment and/or withdrawal?
    Admiral Fallon. It is my understanding. I am sure he would.
    Senator Ben Nelson. I am not saying he would do it. I am 
just saying he would have the authority to make that decision.
    Admiral Fallon. I believe so.
    Senator Ben Nelson. As Senator Sessions said, we went on a 
trip to Iraq this last weekend, and we were definitely 
encouraged by what we saw in Al Anbar Province with the 
cooperation of the sheiks with our military against the al 
Qaeda. It is very remarkable, but I suppose it was bolstered by 
the fact that there are no Shia down there to have any kind of 
sectarian violence of any consequence or civil war. Is that 
accurate?
    Admiral Fallon. Yes, sir.
    Senator Ben Nelson. So when we went to Baghdad we should 
not have been surprised to find out that the sectarian violence 
or civil war type sectarian violence was well under way; is 
that fair?
    Admiral Fallon. The vast majority of violence is along the 
sectarian fault lines, where the instigators on both sides are 
trying to antagonize the other to retaliate, and in their view 
out of this chaos they somehow achieve their objectives.
    Senator Ben Nelson. That is the center, but like the spokes 
of a wheel it radiates out of Baghdad as much as anything; is 
that fair?
    Admiral Fallon. Large areas of the north, west, and south 
are predominantly one sect. The mixed areas are Baghdad, 
Diyallah, the Fiya areas.
    Senator Ben Nelson. Those areas could be more quiet and 
have less internal strife, is that fair?
    Senator Ben Nelson. Where you have a single sectarian 
population, you do not end up with this same sort of thing that 
you have in Baghdad?
    Admiral Fallon. Competition, yes, sir. They are pushing, 
each of them, particularly the Shia and Sunni, to try to expand 
their areas, to basically control as much of the territory as 
they can.
    Senator Ben Nelson. Now, with respect to the surge, which I 
supported, in large number for the Al Anbar Province at the 
time that we talked about it earlier this year, and still do 
support any kind of additional military support to help the 
sheiks defeat the al Qaeda there, for obvious reasons. I did 
not support and do not support the surge as it relates to 
Baghdad because I have not been able to square the circle of 
how you put our troops, not coalition troops but our troops, in 
between the Sunnis and the Shias and not have our troops have 
to have the primary responsibility, even though they may have 
Iraqi troops with them, the primary responsibility for that 
combat mission.
    Is it not accurate that they have the primary 
responsibility for that combat mission?
    Admiral Fallon. We are trying to enable the Iraqi security 
forces to be the dominant guarantors of security in this area.
    Senator Ben Nelson. How long will that take?
    Admiral Fallon. Senator, it is a work in progress right 
now.
    Senator Ben Nelson. Are we looking at 1 year or 2 years, or 
do we know?
    Admiral Fallon. Senator, we are going to make every effort 
to, several months after we get this, the rest of the surge 
force in place, to make our best assessment of how we are doing 
and make our recommendations from there.
    Senator Ben Nelson. Is it fair to say that during this 
period where we build up the surge, because of the location of 
our troops in between the Sunnis and Shias, that we will most 
likely take on even more casualties than we have so far?
    Admiral Fallon. I do not know about that.
    Senator Ben Nelson. Percentage wise.
    Admiral Fallon. We are certainly heavily engaged in this 
now in and around Baghdad. There are a lot of moving parts. We 
are working hard to, at the same time that we are providing the 
backbone for security and stability, bring and put the Iraqi 
security forces in the lead here. They are doing a remarkable 
job in some areas.
    Senator Ben Nelson. I support the backbone. I support what 
General Dempsey told us in terms of helping the Iraqis build an 
infrastructure so that they can use their own money to buy 
their own equipment, because they were unable to do that, with 
no structure in place that would permit them to do it. If they 
had $100 to buy equipment, by the time it all got pilfered off 
they might buy it with $40. Now we are getting 97 cents out of 
every dollar going for, out of their money, the purchase of 
equipment and setting themselves up so that they can have the 
competence to manage the equipment as well as buy it. Is that 
fair?
    Admiral Fallon. Yes, sir.
    Senator Ben Nelson. That is the backbone of the kind of 
support that makes a great deal of sense for the Iraqi army and 
for us to support the effort.
    When we met with, let us see, two deputy vice presidents, 
Tariq Al-Hashimi and Adil Abdul Mahdi--Hashimi is a Sunni, 
Mahdi is a Shiite--we also met with Deputy Prime Minister 
Saleh, a Kurd, and Prime Minister Maliki. My conclusion after 
sitting in those meetings was that there was a question of 
competence or a question of willingness to move forward to 
develop a reconciliation process that could be successful.
    From what I hear from you today, you have some questions 
about how fast things are moving. Do you have an opinion about 
whether it is willingness or competence?
    Admiral Fallon. Each of these people appear to be competent 
in a number of areas.
    Senator Ben Nelson. Individually.
    Admiral Fallon. Individually. They acknowledge and have 
told me, because I have met each of them myself, that they are 
willing to work towards accommodation, reconciliation, noble 
objective. This is a real challenge. To make the accommodations 
in the near-term that are going to start them down the road to 
reconciliation I think is critical.
    Senator Ben Nelson. Deputy Prime Minister Hashimi does not 
feel that there is any significant movement toward 
reconciliation or accommodation. He feels isolated from Prime 
Minister Al-Mari and largely ignored.
    Then in the conversation with the Prime Minister, I could 
not determine whether--although I did suggest it was a question 
that people were asking about the ability of his government--he 
had the capability of doing it or whether he had the 
willingness to do it. I told him the American people were 
looking and I think Congress is looking for three things from 
their government: the commitment, the effort, and results or 
progress; and that the benchmarks that will in my opinion 
ultimately be in the package will be the conditions for 
staying. General Petraeus' reports will be the report cards and 
the consequences of what happens will depend on what those 
report cards show about commitment, effort, and progress.
    Is that a fair way to analyze what you think we should be 
doing?
    Admiral Fallon. Senator, I think that is a pretty good 
summary. I would make a couple of comments. Hashimi is a Sunni 
and I have talked to him as well. He feels that his minority is 
not being given the recognition and things that would make them 
feel comfortable in this environment. The Prime Minister, on 
the other hand, says: ``I recognize that we need to work with 
them,'' and so forth.
    I think it is not just willingness or competence. It is an 
ability to actually forge the kinds of compromises, and this is 
all politics, that will be successful in pulling these people 
close enough to be able to work their way down the road. I 
think it is challenging to look at this. Easy for us to push. 
We know what we want and we want results, there is no doubt 
about it. Let us go guys; get moving. Their ability to craft 
these kinds of compromises--these are not like gentlemen and 
ladies like yourselves, who have much experience and a 
tremendous legacy which we inherit in a process. They have none 
of this.
    So to expect them to be able to just stand up and tomorrow 
say, ``okay, we will cut this deal,'' is definitely a 
challenge. It is not competence, it is not willingness, as much 
as it is their ability to actually get this job done.
    Senator Ben Nelson. How confident are you of their 
acquisition of the ability to be able to do this? Because I 
think that is the question about the government ultimately.
    Admiral Fallon. That is something that every time I go to 
meet with them I am evaluating and getting my own sense of how 
well we are doing. When I feel that I have this thing to the 
point where I feel comfortable in making a judgment on it, I 
will be very happy to tell you, sir.
    Senator Ben Nelson. You will volunteer that to us? We will 
not have to pry it out of you, I am sure.
    Hopefully you will help them be able to understand that the 
American people are not going to sit by while they play king of 
the hill and look down on the Sunnis at the present time, 
unable to work out an oil revenue agreement, all the other 
things, rights of the minority parties, everything that we are 
looking at in benchmarks.
    Admiral Fallon. Senator, I agree. As you speak to each of 
these people individually, they are more forthcoming in their 
fears and concerns about the others. I think a good sign is 
when they get together in a group with a mixed sectarian 
audience, at least their remarks in public are more 
conciliatory, and hopefully that can be leveraged into the kind 
of results we need.
    Senator Ben Nelson. I do know that I must have gotten 
through to the Prime Minister because after our meeting he 
issued a terse news bulletin that he would not be pushed around 
by foreign interests. So I do know that he heard what I said.
    Admiral Fallon. Yes, he heard it.
    Senator Ben Nelson. Thank you, Admiral.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Clinton.
    Senator Clinton. Admiral, during your confirmation hearings 
as we discussed my and the committee's concerns with the level 
of force protection currently available at the time for our 
troops that were going to deploy as part of the President's 
announced escalation, we discussed that as Commander of Pacific 
Command you had been asked to review your equipment stocks in 
order to identify what items could be cross-leveled with 
CENTCOM. In fact, since that dialogue Admiral Keating has 
testified that prepositioned equipment sets in the Pacific had 
been depleted to fill your new command's requirements.
    You mentioned that you and General Petraeus would review 
the issue and determine whether the right sets of equipment 
were available and if the current process for equipment 
transfers were in place.
    Within the last 2 months, there have been two attacks where 
Americans have lost their lives while exposed in vulnerable 
joint security outposts. These two attacks were with vehicle-
borne suicide bombs and small arms fire. Last week's attack 
resulted in nine paratroopers killed as a result of the 
attackers penetrating the perimeter of the outpost.
    Admiral, now that you have had some time to review the 
situation in your new command, can you give us any thoughts as 
to what additional steps can be and will be taken to provide 
the required force protection and to mitigate the risks from 
these new kinds of deployments and the devastation of these 
attacks?
    Admiral Fallon. Really good question, Senator. There are 
several factors here. One is the ability of our enemies to 
observe carefully and to calculate and adjust to our changing 
tactics on the ground, and they are really good at this and the 
ability to take note of what we do and to try to adjust to it 
is pretty remarkable.
    On the other hand, we are pushing hard. First of all, there 
is some risk. There is no doubt about it that as we implement 
this new strategy, the tactical aspects of it on the ground, 
that by leaving the big forward operating bases, or FOBs, as 
they call them, and getting out and about in the population 
there are some additional risks.
    The calculation going into this, the assumptions are that 
those risks are going to be offset by the potential gains of 
actually being out there and amongst the population. This 
tragic attack you referenced, in which we lost nine Americans 
last week, I was up with those troops 2 days before that 
happened in Diyallah, talking to them and getting their 
perspectives on just how this could work and what we might do 
in the way of adjustment. I do not want to get into the 
tactical adjustments now, but we are taking really three, three 
lines here I will talk to you about generally.
    One is to look at these joint security stations. These are 
great ideas in theory because we have our forces, Iraqi forces, 
Iraqi police forces, and they are out in neighborhoods or areas 
and towns where we should be able to have a presence that 
people can see and then take advantage of that by having our 
people network with folks there and get their confidence so 
they will start telling us more about the enemy, so we can 
neutralize it.
    Another thing, though, is that as we put these places out 
there is a bit of a dilemma here, because the desire clearly is 
to be able to integrate and get information from the people as 
well as provide the confidence of our presence, our visible 
presence. We still have to protect our people. So how we do 
this is an interesting challenge for the tactical forces. They 
are working on this and as we evolve this we are going to be 
doing a couple of different things to show them some different 
faces.
    In the business of protection for our troops in these 
vehicles, it is very clear that the enemy has taken note of the 
most ubiquitous vehicle over there, the Humvee in its various 
varieties, and their approach to this has been to come up with 
bigger and bigger IEDs.
    We have information now that indicates, and data that 
proves this, that certain designs of our own can mitigate a lot 
of the effects of these heavy blasts. I just last week got a 
request for a review of this entire business from General 
Odierno, endorsed by General Petraeus, and we have sent it on 
just today to try to adjust the acquisition system to try to 
get more of these, which appear to be much more effective.
    Is this going to be the end of the day? Of course not. 
There are going to be adjustments made on the part of the 
enemy, and the emerging challenge is this different type of 
projectile that is being used by, clearly coming with Iranian 
support, the so-called EFPs, which are a different thing 
altogether.
    But back to the business of the joint security stations and 
trying to link up with the people, it seems to me that we are 
going to be adjusting and trying to figure out the best way to 
do this, and it is probably going to vary by neighborhood and 
by town. We have to get general security in the area and then 
to the best of our ability the intent is to open this up and 
get Iraqi forces primarily in the lead, but with us backing 
them up, to be able to get in with the people.
    Senator Clinton. Thank you, Admiral.
    I would like to turn now to Saudi Arabia. In your prepared 
testimony you state that Saudi Arabia remains a vital partner 
and its campaign against terrorists has significantly degraded 
al Qaeda operations on the Arabian Peninsula. But as we all 
know, the Saudi King recently told the Arab League that in Iraq 
``The bloodshed is continuing under an illegal foreign 
occupation.'' Just this last week, King Abdullah declined to 
meet with Prime Minister Maliki to discuss the critical issue 
of political reconciliation, the point that my colleague 
Senator Nelson was speaking about a few minutes ago.
    Admiral, I would like to ask about our relationship with 
the Saudis. I know this is a delicate area of inquiry, but let 
me, if I can, ask you to comment about the King's recent 
statements and what impact they have in Iraq and in the region, 
and whether you believe that the Saudis share the American goal 
of a stable Iraq in which the Shiites, the Sunnis, and the 
Kurds share both power and oil revenue; and finally, whether 
you think the Saudis are doing all they can to promote 
stability in Iraq, including preventing the cross-border flow 
of weapons, money, and foreign fighters that support the Sunni 
insurgency?
    With respect to that last question, what is the identity, 
insofar as it can be determined, of the suicide bombers in 
vehicles and in vests, and of the Sunni insurgent fighters 
associated with al Qaeda whom you either capture or kill?
    Admiral Fallon. Senator, to Saudi Arabia first, I believe 
that the Saudi government, certainly the King, shares with us a 
common interest in security and stability in the region. I also 
believe that they recognize the importance of a stable Iraq as 
a linchpin of security in this region. But then there are 
differences of opinion.
    I spent about an hour and a half with King Abdullah a 
couple of weeks ago subsequent to his remarks at the Arab 
summit. I think we had a very frank discussion. He told me 
several times in the course of that discussion his opinion that 
our policies had not been correct in his view. He also told me 
that he had severe misgivings about the Maliki government and 
the reasons for that.
    He felt, in his words, that there was a significant linkage 
to Iran. He was concerned about Iranian influence on the Maliki 
government. He also made several references to his unhappiness, 
uneasiness with Maliki and the background from which he came.
    Nonetheless, we agreed on the importance of trying to work 
whatever way we can together to get stability in this area. For 
my part, I encouraged him very strongly to at least show some 
support of the Maliki government. He does not have to like 
them. I know he does not really have a lot of trust there. I 
think it was my opinion it is unrealistic to expect us to 
change that government. We are not going to be the puppeteers 
here. It also, given the many constraints that we are under, 
that it was not very realistic to expect that a new government 
is going to do any better in a short period of time.
    Although he has made public statements and he also made--
apparently declined to meet with Maliki, on the other hand it 
is my understanding that they are in the process of agreeing to 
waive a very substantial part of the debt that they hold for 
Iraq. That is extremely useful in my opinion. So out of this 
compact meeting that is going on today in Sharm el-Sheikh, I 
certainly hope that we can get that behind-the-scenes 
cooperation that will provide a foundation to Maliki and his 
government.
    They are craving some kind of recognition from the Sunni 
majority in this region so that they can have some confidence 
to move ahead. I tried to explain my view to the King: Your 
Sunni minority within Iraq would benefit from some signs of the 
Sunni governments in these neighboring countries that give some 
support to the government. It may not be the best government. 
It may not last beyond whatever the term is. But they have to 
start down this road, and to date they have largely just been 
sitting on the sidelines, just watching this.
    I tried to make the point that unless they get engaged we 
are not going to be successful and you are going to have a good 
chance of an unstable Iraq that will lead to one thing. So it 
is encouraging to see in recent weeks that in fact they are 
doing some things that I think hopefully--there were three 
items that were on the agenda for this neighbors conference. 
One is dealing with the refugee problem. There has been an 
outflow of millions of people from the troubles in Iraq.
    There is another real need, a practical need to do 
something to be able to get fuel sources. It is really ironic, 
is it not, that this country of Iraq which has this vast 
resource of oil and gas and exports billions of dollars and 
they have billions sitting in the bank still cannot get enough 
fuel to run their automobiles and for heating and for cooking 
and things. So there was an agreement to at least approach this 
issue and hopefully there will be progress here this week to 
actually make some arrangements from the neighbors. Again, it 
is the neighbors. We cannot succeed, I believe, by isolating 
Iraq. It is going to have to include the neighbors.
    Anyway, I am talking too long. But I find this is an 
amazing requirement for just dialogue. People need to sit down. 
They need to talk. They need to hear the other views and at 
least to make some recognition and accommodation to those other 
views. I think anything is possible if they can get there. This 
is the Middle East. There are many different vectors, many 
concerns, but people have had a history of making deals with 
one another for centuries and I think there is no reason why we 
could not expect to have something, enough come together right 
now to give this fledgling government of Iraq a start, and then 
take it a step at a time.
    Senator Clinton. Admiral, what about the identity of the 
suicide bombers and others?
    Admiral Fallon. Our belief is that the vast majority of 
these are al Qaeda-connected. It is tough because most of them 
are suicide bombers now and there is not much left when they 
are over. But the fingerprints, maybe not literally, are 
certainly indicative of al Qaeda, connected to Sunni. There is 
no doubt. You look at the targets, the big targets are all Shia 
targets.
    Senator Clinton. Are they mostly non-Iraqi?
    Admiral Fallon. I cannot tell you that. Instincts are that 
if they are not Iraqi--if they are not foreign fighters, then 
they are certainly people that have been somehow coopted by al 
Qaeda into doing these things.
    Senator Clinton. Thank you.
    Chairman Levin. Thank you, Senator Clinton.
    Admiral, I was a little troubled by your reluctance to 
acknowledge that the benchmarks which the Iraqis set for 
themselves, the ones that I enumerated specifically, were not 
met within the time line that the Iraqis set for themselves. 
That is a question of fact.
    I must tell you, that reluctance troubles me for a number 
of reasons, but not the least of which is if we are really 
serious, as you even say, that the Government of Iraq must move 
towards inclusion by passing legislation, and if Ambassador 
Crocker says that the Iraqis need to make progress on national 
reconciliation and to make it fairly quickly, and as the 
Secretary of State says in her letter to me, that the Iraqis' 
policy committee on national security agreed upon a set of 
benchmarks and an associated time line in September 2006, and 
that these were reaffirmed by the presidency council on October 
16, 2006, I do not understand your reluctance to acknowledge 
that, number one, the benchmarks were adopted by the Iraqis and 
that the ones that I identified and read to you have not been 
met. That is number one.
    Why that reluctance? It is a factual issue.
    Admiral Fallon. I am not sure--the Iraqis have certainly 
laid out an agenda and set goals for themselves.
    Chairman Levin. I read that.
    Admiral Fallon. They have had difficulty meeting those 
goals.
    Chairman Levin. Why not say they have not met them? Why the 
reluctance? Because that message then to the Iraqi leaders is 
that we are not willing to at least tell them what they have 
not done that they committed to do. My heavens, how are we 
going to get them to adopt benchmarks and meet them and have 
consequences if they do not meet them, if we are not even 
willing to tell them they have not met the ones that they set 
out for themselves according to a timetable that they set out 
for themselves?
    Again, I do not know why that reluctance.
    Admiral Fallon. I guess we in our own institutions have 
schedules and we set goals and objectives and dates by which we 
would like to have things, like a budget, and we fail for one 
reason or another to achieve those. There should be no doubt 
that my opinion and my message is to the Iraqi leadership is 
they need to make these things happen. They need to push as 
hard as they can to achieve these as quickly as they can.
    Chairman Levin. That message does not carry much weight if 
you will not even tell them they did not live up to the 
benchmarks they previously set for themselves, according to a 
timetable which they set for themselves, if you cannot tell 
them that. That is history. Why can you not tell them that and 
tell us that?
    Admiral Fallon. I would have liked to have seen them 
achieve all these things. I would like to see all of these 
pieces of legislation passed. I would like to see the enabling 
legislation passed.
    Chairman Levin. So far we are with you. We all would like 
that. But you cannot take the next step, which is factually 
correct, that they have not met those benchmarks that I laid 
out for you?
    Admiral Fallon. They have not enacted the legislation in 
each of these areas that apparently is necessary to move them 
forward.
    Chairman Levin. That they set out for themselves in their 
own, according to Secretary Rice? These are benchmarks, 
economic, security, and political benchmarks with an associated 
time line, that were reaffirmed by their presidency council on 
October 16. It is on their web site, at least was. That is what 
troubles me, because it seems to me you at least have to be 
willing to tell them, ``folks, you have not carried out the 
commitments you made.'' If you cannot start with that, then the 
rest of your message it seems to me is muted because it is, you 
have to do this, unless you tell them what the consequences are 
if they will not or do not meet the benchmarks, or at a minimum 
be willing to tell them that they have not met their 
commitments that they made for themselves.
    I think your message is very much weakened and it is 
troubling to me because you meet with the leaders of Iraq.
    Admiral Fallon. I do not pass up any opportunity to not 
only encourage them, but tell them they really need to continue 
to work and they have to get this done.
    Chairman Levin. If they do not? Do you ever tell them 
consequences?
    Admiral Fallon. We do not have an open-ended support. We 
just are not going to be there forever.
    Chairman Levin. What does it mean unless there is 
consequences? What does it mean to them? It is open-ended 
because they made the commitments before. The President told 
them we will be there as long as you need us. The President has 
told them that. The President on another occasion told them we 
will be there as long as you want us.
    They set benchmarks for themselves. We did not impose these 
on them. They set these. Their presidency council adopted it. 
But it is as a matter of fact open-ended. You can rhetorically 
say it is not. But as a matter of fact, reality, it is if there 
are no consequences other than, we want you to do it, you need 
to do it. But if you do not set out consequences--but even more 
fundamentally, if you are unable to tell them that they have 
not met their previous commitment--and that is what you are so 
reluctant to say. Your message is hollow, I believe, unless you 
can at least state the historic facts as well as what they need 
to do, and I believe on top of that that there will be 
consequences if they do not in terms of our response and our 
behavior.
    Admiral Fallon. I think they understand that there are 
going to be consequences. They can watch, they have watched 
this debate and discussion in Washington.
    Chairman Levin. It has not had consequences so far, except 
a veto of a bill which said that we were going to begin to 
reduce forces in 4 months.
    By the way, in that regard, I think you also let them off 
the hook when you say that--you used the words ``expecting them 
to cut a political deal tomorrow is unrealistic.'' I think that 
is not what anybody expects. I think we expect them to make 
political compromises, as they have promised to make them--they 
have not--and then to set a realistic timetable to make those 
compromises, not tomorrow, but within X number of days, a 
couple months, to do things that they have not done as promised 
before.
    I think that you diminish the pressure when you talk about 
we should not expect them to cut a deal tomorrow, because I do 
not think anybody does. We do expect them to cut a deal within 
a reasonable period of time. We set 60 days since these 
commitments have been made to have been carried out already, 
and to keep the pressure on them to do it and to identify that 
there is going to be consequences if they do not.
    Do you not think that is a fair amount of pressure to put 
on people who for year after year after year have not carried 
out the commitments that they have made and have not had a 
political settlement in terms of amending their constitution? 
Is that not a fair kind of amount of pressure to put on them, 
not in terms of dictating to them, because we do not dictate 
the benchmarks. These are their benchmarks.
    What we do say, it seems to me have to say, is in terms of 
our actions there will be consequences in terms of what we do 
if you folks do not carry out your own commitments. Is that not 
a fair message to deliver to them?
    Admiral Fallon. Senator, we are trying to balance 
encouragement and strong messages to enact the kinds of 
legislation which is the majority of the things I think you are 
talking about, as a necessary measure to move this country 
forward. The down side of this is if they get the perception 
that we are not going to stand by them, that we are going to 
walk away from them, then this just encourages the factional 
militias, among others, to stay in being as a way to preserve 
the interests of these more narrow interests.
    Chairman Levin. The way you say that message, the way you 
state that message, it is that we are going to stand by you 
even if you do not carry out your commitments. Do you want them 
to get that impression?
    Admiral Fallon. No, sir. We want them to move forward. We 
are trying to help them in every way possible. They want us 
there. They want us to help. They have to figure out the way to 
make these political compromises. These are political actions 
of political leaders and this is an area that I think we need 
to all encourage them in every way we can to take the right 
steps as soon as they can, because every day that they do not 
costs us in blood and treasure.
    Chairman Levin. You have to add what consequences will take 
place if they do not do what is so essential, and that is what 
is missing in your testimony and in the administration's 
position.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Admiral, thank you for being here, for your testimony, and 
for your leadership. You had mentioned I think in your written 
testimony the destabilizing effect that Iran and Syria play in 
Iraq and the role that cross-border operations launched by 
extremists from Pakistan play in Afghanistan. It seems that we 
consistently are hampered because of inadequate border 
security, and I guess I would like to have you describe the 
steps that the coalition forces in conjunction with the Iraqi 
border police and the Afghan border patrol are taking to 
mitigate the negative effects of illicit border activity.
    Admiral Fallon. Two different cases. I will talk to Iraq 
first, Senator. There is little doubt that the insurgency and 
the terrorists' activities in Iraq have been supported and in 
many ways sustained by route lines that run into Syria. With 
the change in the situation on the ground in Anbar, there is 
every expectation that that support is going to be made more 
difficult. The fact that the Iraqi security forces are now 
deployed and operating in numbers along that border is also 
helpful, and we have put ourselves in an overwatch situation on 
the ground where we are backing them up and working hard to 
reduce this infiltration from Syria.
    The Iranian influence is a little more difficult to get a 
grip on. It is very troubling because of the lethal 
consequences of the type of material support that the Iranians 
are evidently supplying to the militias on the Shia side. The 
overall impact in destabilizing the country so far has been 
much greater with the Sunni al Qaeda influence from the west. I 
think it is a good sign that Syria is participating in the two 
external conferences that are taking place this week, and the 
reports that I have seen today indicate that Secretary Rice may 
have a meeting with her counterpart foreign minister from 
Syria, which might lead to at least an explanation of an 
understanding of how we might go forward here.
    The situation in Afghanistan is very interesting on the 
Pakistani border. I spoke to President Musharraf when I was out 
there recently about this and asked for his cooperation, as we 
have consistently. Secretary Gates was out there a couple of 
months ago. The reports that I have from our commanders on the 
ground tell me that there has been an improvement certainly in 
cooperation along the Afghan-Pakistani border.
    There is in place now a tripartite arrangement whereby we 
from the U.S. side, working through International Security 
Assistance Force, the NATO international command there on the 
ground, is set up to regularly meet with Pak and Afghan 
counterparts and the three discuss and actually go on the 
ground on both sides of the border to address issues of 
concern.
    Now, the information I have from our commanders there, U.S. 
commanders, is that there has been an improvement in this 
situation, in that the Paks have been much more forthcoming in 
providing information and support and communication between our 
forces. There was an acknowledgment of this challenge by 
President Musharraf to me. He indicated that he had authorized 
the Pak army to delegate decisions to be able to exchange 
information down from the central government to the battalion 
level.
    Our commanders tell me that this is in fact what is 
happening. We have common radios that have been distributed to 
the commanders and there have been several instances in the 
past couple of weeks where we have received information that 
has enabled our people to put themselves in a position to cut 
off some of this infiltration.
    So I see progress along those lines. This is still a work 
with a lot yet to be done. You may have seen that a couple of 
weeks ago there was a substantial fight on the Pakistani side 
of the border between foreign fighters, al Qaeda-linked folks 
who had taken up residence in the FATA just inside the 
Pakistani border. There was a major push by the local tribes to 
get rid of these foreign fighters, and evidently quite 
successful by the accounts I have seen in South Waziristan. It 
would be wonderful from my view if this kind of activity 
continued in the north, and we might be able to talk about that 
in a different setting.
    But my sense is there is a lot to be done, but there are 
significant signs of increased cooperation and results along 
this border right now.
    Senator Thune. I was encouraged too by some of the 
reporting that came out of Waziristan, but that has been a real 
concern, and that the Pakistani government because of these 
previous agreements was just letting that ungoverned space go. 
That is a real problem.
    Admiral Fallon. I do not think they are letting it go. This 
is a challenge for Pakistan. This is an area in which they have 
never had government influence, certainly from the Musharraf 
government. This place has been semi-autonomous for a long 
time. It is very tribal. There has been a reluctance to get 
engaged. I think there are bigger fish here in this whole 
business.
    My perception of the situation in and about Pakistan is 
that the major issue with them is still India and the Indian 
border, which consumes most of their military's attention, and 
the majority of their forces are along the line of control with 
India. I see another sign of movement in the right direction, 
though, is that President Musharraf directed that two brigades 
of troops be pulled out of that eastern area and moved to the 
west, and in fact my understanding is they are in position just 
outside the FATA--again, I think a pretty good sign. This is a 
tough issue for Musharraf and the Government of Pakistan.
    Senator Thune. It is a tough area to police, but it is also 
ripe for all the kinds of shenanigans of the foreign fighters 
and the terrorists and the Taliban and all the organizations 
that are active in that region. So I am glad they are stepping 
it up and hopefully that will meet with some ongoing success.
    On April 29 the New York Times published an article 
describing the alliance of U.S. forces and Sunni tribal leaders 
as ``an uneasy alliance.'' That alliance, as you have noted, 
seems to be the result of Sunni leaders who are recognizing 
that their alliance with al Qaeda is not beneficial to either 
Anbar Province or to Iraq as a nation.
    In order to resist al Qaeda, the Sunni leaders have formed 
the Anbar Salvation Council, which has sought assistance from 
both Iraqi and American governments. Are you familiar with that 
council and, if so, are you confident that their goal is to 
resist al Qaeda in Iraq?
    Admiral Fallon. I do not know the details of that council 
or the makeup of it. But when I was out in Anbar, I spoke with 
our military commanders out there and they were actively 
engaged with the tribal sheiks to get their allegiance to work 
together cooperatively to fight al Qaeda and to help spread 
security and stability, so the people out there had a chance.
    So the commanders were very optimistic that they are making 
progress and they are working on the remaining tribes that have 
still not come over and thrown their support. I think the most 
telling aspect of this to date has been the willingness of the 
leaders there to offer their sons to join the Iraqi security 
forces, which they absolutely refused to do until just a few 
months ago. I think that is the most encouraging thing because 
that is betting on the future.
    Senator Thune. The last time I was there it was a dramatic 
improvement over that, which has been several months now, I 
think December. But even at that point it was starting to turn. 
We were getting the buy-in.
    Admiral Fallon. I was there in December. It was not pretty 
at all. I was just out there now twice in the last few weeks 
and it is really moving.
    Senator Thune. The President vetoed the emergency 
supplemental because he disagreed with the troop withdrawal 
language. If for the sake of argument, if that troop withdrawal 
language were adopted, could the Sunni leaders defeat al Qaeda 
without coalition support?
    Admiral Fallon. I think that is just a piece of the 
challenge in Iraq, and getting them to be able to prevail over 
the terrorists and al Qaeda in one area is certainly helpful, 
but we need a bigger solution. We need the whole country of 
Iraq. We need funding to carry out the plans that we have and 
we are going to need a solution for the whole country, not just 
a piece of it.
    Senator Thune. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    I understand that Senator Sessions had yielded to Senator 
Martinez for questions.
    Senator Martinez. Thank you, Mr. Chairman. Thank you, 
Senator Sessions. I will be very brief.
    Admiral, I just thought I would point out, my understanding 
is that the Maliki government has been in place something in 
the order of 9 months; is that correct?
    Admiral Fallon. Less than a year.
    Senator Martinez. Less than a year. It is also correct that 
he does not enjoy the governance over either an established 
government or even a government of national unity, but that 
there are factions within the government, not all of which 
necessarily coincide in points of view on the way forward?
    Admiral Fallon. This is certainly not a national unity 
government. It is a representational government of many 
factions within the country.
    Senator Martinez. It is also true that the principal 
officer in charge of dealing with the political side of the 
Iraq situation would be our Ambassador Crocker on the scene?
    Admiral Fallon. Sure.
    Senator Martinez. So with respect to the overall plan for 
Baghdad, I failed earlier in my line of questioning to get to 
the third part--which is the economic reconstruction. What can 
you tell us in the update on that situation during your recent 
visit and did you observe whether that is making the kind of 
progress that we would hope?
    I know it is difficult, particularly in an unsecured area, 
but how much progress are we making on the PRTs and other 
civilian reconstruction type efforts?
    Admiral Fallon. My opinion is there is a tremendous amount 
of good that can come out of these PRTs. They are certainly 
dedicated people. They have the best interests of the Iraqi 
government and our objectives at heart. The challenge I see is 
that we need results in the near-term. We have to have things 
that happen on the ground in the next several months to 
complement the security initiatives of our military and the 
Iraqi security forces, so that the people gain the confidence 
that this government and their future, particularly their 
future, is going to be better than the past.
    So as we move forward we are working very hard to see how 
we can best coordinate the activities of the PRTs, the new PRTs 
that have been assigned to the combat, U.S. military combat 
brigades, working through our ambassador the many initiatives 
that have already been begun to try to optimize the delivery of 
improved services and economic benefits to the people of this 
country.
    My engagement with the Iraqi people when I recently visited 
Baghdad and went out, I went to one of these markets that had 
been provided barricades to enable people to come back in and 
use them without fear of the big suicide bombs. I was swamped 
with people, Iraqi citizens, who probably had no clue who I 
was, but assumed an old guy with grey hair and a bunch of 
people carrying guns must have some message here. I was 
interested to see how they reacted to me. They swarmed me. 
There was not a single person that said, ``we want you to go 
away, get out of here.'' Every one of them said to me what they 
really need is more security, because they want to go about 
their daily lives.
    I had requests, ``do you think it is safe now that I can 
open my store? Can I restock my shop? Can my wife and children 
come here? Is this going to get better? Will your people really 
be successful in giving us''--that was the line of questioning.
    It is very clear to me they are eager for it, they are 
ready for it. The degree to which the government can reinforce 
that or provide the major message to them that their future is 
going to be enhanced over what they had in the past is really 
critical. There are a lot of initiatives that are being 
considered. This is a delicate decision in trying to make sure 
we have enough security so they can go forward with these 
economic incentives.
    But I saw a dozen, quite a number of initiatives that I 
thought looked pretty interesting, that were Iraqis actually 
doing things on their own, Iraqis improving their neighborhood, 
Iraqis that were engaged in commerce. There were a lot more 
people on the streets and a lot more people, particularly in 
these protected areas, that appeared to be doing things that 
were closer to normal life than had been in the past.
    The degree to which we can expand this and quickly is going 
to be very, very influential, I think, in turning the tide in 
Baghdad.
    Senator Martinez. Admiral, thank you for your service and 
through you I want to thank all of the men and women who serve 
in the CENTCOM and, frankly, all of the allied forces. It is 
always reassuring to come to the CENTCOM and see a variety of 
uniforms from all over the world if our coalition partners that 
are there working side-by-side with our men and women in 
uniform. So thank you very much for your service.
    Admiral Fallon. Yes, sir.
    Chairman Levin. Thank you, Senator Martinez.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I had a markup 
in the Judiciary Committee that I had some matters on and I am 
sorry to miss some of the hearing.
    I talked to a mother recently and had an email from her 
son, who is in Baghdad. He said: ``they do appreciate us here; 
the women and children, they feel safer when we are in the 
neighborhood and I feel like this is a good cause.''
    But we are leaders and we have to make evaluations about 
whether we can continue to ask our soldiers to serve in a 
situation like this. So I guess my question to you in that 
regard is, what about this idea that we are in a civil war? My 
impression is that most people want peace and security and do 
not participate in killing their neighbors. But we had a surge, 
and it was destabilizing, of murders, primarily I believe from 
Shia militias in retaliation to attacks from Sunni Baathist al 
Qaeda attacks, killed people in Baghdad.
    How would you evaluate the change in that level of violence 
and killing as the surge has gone forward, recognizing we still 
have another brigade or two that has not arrived on the scene?
    Admiral Fallon. Senator, the data I have shows that there 
is a substantial decrease from the last year as we began to 
move new forces and take this new approach to the Baghdad area. 
I think the reason for that is very clear, the presence of our 
forces and the Iraqi forces in large numbers in these areas 
have reduced the opportunities for people to do this.
    Senator Sessions. You were asked a bit about other agencies 
and I remain troubled by what I think is either a lack of 
coordination or a lack of ability in other agencies to be 
effective. I am just going to ask you frankly--I think I know 
the answer, but let us take these PRTs. That is in design a 
State Department public reconstruction community support 
effort, is that correct?
    Admiral Fallon. Yes, sir, although there are some PRTs--in 
fact, I visited one in Afghanistan just the other day and it 
was actually lead by a U.S. Navy officer, of all things. They 
are primarily led by Department of State folks.
    Senator Sessions. But tell us frankly, is it not a fact 
that the staffing of those PRTs are overwhelmingly military 
personnel?
    Admiral Fallon. I know that there have been substantial 
numbers of reservists that are manning these things. Whether 
that is the majority or not, I do not know.
    Senator Sessions. My impression is that most of the PRTs, 
virtually you may have one or two State Department leaders 
sometimes, but most of the work is by the military.
    Admiral Fallon. There are a lot of other interagency folks 
there. As I go to Baghdad, I try on every trip to ask to meet 
with or see one of the other PRTs. As I get around, the senior 
spokesperson for each has been a Department of State employee. 
But they have also introduced me to other members from many 
other agencies in addition to DOD.
    Senator Sessions. I felt good and have encouraged the 
President and the White House to select someone to be a 
coordinator. They have referred to it as ``the Iraq Czar,'' but 
someone who can be a point of contact to ensure that there is 
prompt response from various agencies.
    I think one of the problems is when you are in Baghdad and 
if the military is given the responsibility of security and the 
Department of Justice is given the responsibility of courts and 
the courts become a key matter in the life and safety of our 
troops and the success of our mission, we are not always--since 
it is not the military's responsibility, it could be 
undermining the military mission if that does not move along 
rapidly.
    Do you think some sort of leadership coordinator would be 
helpful?
    Admiral Fallon. Yes, sir, I think it would be very helpful 
to provide the day-to-day attention, provided the person had 
the influence, access, cooperation, and guidance from the 
Commander in Chief to get this done.
    Senator Sessions. I am glad the President seemed to be 
interested in that. I hear he has talked to people and some 
have declined apparently to take the job. I think it could be 
very helpful and I hope you will pursue that.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Sessions.
    Admiral, thank you. It has been a long morning. It has been 
very helpful to us and I very much appreciate your coming by 
and your service. We all are grateful to you and the troops 
that you command. Thank you. We are adjourned.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Daniel K. Akaka
                           regional conflict
    1. Senator Akaka. Admiral Fallon, in his January 10 speech 
regarding the surge, the President stated that we will ``interrupt the 
flow of support from Iran and Syria,'' and that ``we will seek out and 
destroy the networks providing advanced weaponry and training to our 
enemies in Iraq.'' During your confirmation hearing, I indicated my 
concern that Iraq could escalate into a regional conflict, and I asked 
you if you believed that we can interrupt Iranian and Syrian support 
from within the borders of Iraq. I believe your response indicated that 
you believed we could isolate the flow of support from Iran and Syria, 
but that you felt we needed to engage other nations in the region, so 
that we could utilize the full range of options available to accomplish 
this task. What have we done to interrupt the flow of support from Iran 
and Syria to the insurgents, and what is your assessment on how we are 
doing?
    Admiral Fallon. [Deleted.]

    2. Senator Akaka. Admiral Fallon, what specific strategies have 
been developed to protect our troops if the conflict in Iraq escalates 
to a regional conflict?
    Admiral Fallon. [Deleted.]

                              deportation
    3. Senator Akaka. Admiral Fallon, the British Broadcasting 
Corporation reported on May 2, 2007 (as did the Washington Post on May 
3, 2007), that the U.N. estimates that Iran has deported 36,000 Afghans 
back to Afghanistan in the previous 10 days. In addition, it appears 
that they intend to deport an additional 14,000 of what they call 
``illegal'' Afghans. Have you received any confirmation that this mass 
deportation is occurring? If so, what are the repercussions to our 
operations in Afghanistan from Iran's sudden deportation of large 
numbers of Afghans?
    Admiral Fallon. We at Central Command (CENTCOM) are concerned about 
the forcible expulsion of Afghans by Iran. Fortunately, the Office of 
the U.N. High Commissioner for Refugees has the assets in country to 
mitigate the risk and prevent it from having a noticeable effect on the 
coalition or U.S. forces, or from becoming a humanitarian crisis. 
Initially, it appears there are minimal impacts on International 
Security Assistance Force. Negotiations are underway between the 
governments of Iran and Afghanistan to alleviate the refugee situation.
    We assess that a significant increase in forcible expulsions from 
Iran could pose a risk of destabilizing the larger cities and towns in 
western and southern Afghanistan. The speed and circumstances of these 
forced repatriations could potentially overwhelm authorities. Since 
Afghanistan's economy has so little absorption capacity, the influx 
could further exacerbate the very high current unemployment rate, as 
well as the housing shortage. While few returnees from Iran are likely 
to join the Taliban, large numbers of unemployed single males could 
significantly contribute to crime rates. It will be critical to 
successfully reintegrate returning refugees to avoid further risk to an 
already fragile security situation.
    Finally, Afghanistan's government has itself been severely affected 
by these humanitarian issues. The Ministers for Refugees and Foreign 
Affairs each lost no-confidence votes, and the issue has stressed the 
government's ability to function.

    4. Senator Akaka. Admiral Fallon, there are an estimated 1.5 
million Afghans living in Iran. If Iran is deporting large numbers of 
Afghans, and continues to do so, what would the impact be on coalition 
or U.S. operations in Afghanistan?
    Admiral Fallon. Any shortfall in the Government of Afghanistan's 
ability to absorb a large influx of displaced persons may, in the long 
run, be measurably detrimental to coalition and U.S. operations.
    We assess that a significant increase in forcible expulsions from 
Iran could pose a risk of destabilizing the larger cities and towns in 
western and southern Afghanistan. The speed and circumstances of these 
forced repatriations could potentially overwhelm authorities. Since 
Afghanistan's economy has so little resiliency, the influx could 
further exacerbate the very high current unemployment rate, as well as 
the housing shortage. While few returnees from Iran are likely to join 
the Taliban, large numbers of unemployed single males could 
significantly contribute to crime rates. It will be critical to 
successfully reintegrate returning refugees to avoid further risk to an 
already fragile security situation.

                               resources
    5. Senator Akaka. Admiral Fallon, do our troops, or the coalition 
forces, need additional resources? If so, what do they need?
    Admiral Fallon. Robust coalition participation in Operations 
Enduring Freedom and Iraqi Freedom remains critical to our success in 
both campaigns. Enabling our partners by supporting coalition support 
funds ensures their successful participation in key military 
operations.
    CENTCOM requires continued and additional support of train and 
equip authorities to ensure we have fully enabled coalition members 
helping advance our shared security interests abroad. Building states' 
capacities to secure and govern their own countries is a central task 
in the larger war on terrorism.
    Our ability to succeed is also enhanced by key military 
construction authorities. These in turn depend on continued 
congressional support of the Contingency Construction Authority, and 
raising the Minor Unspecified Military Construction limits.
    Lastly, increases to the DOD Rewards Authority will provide me with 
the flexibility, agility, and responsiveness I need to tailor my 
rewards program for greater success in the CENTCOM area of 
responsibility. It will allow me to rapidly adjust rewards 
authorizations to address emerging threats, and is essential to the 
program's operational effectiveness and tactical implementation.

                                strategy
    6. Senator Akaka. Admiral Fallon, according to a new State 
Department report, terrorists are changing their tactics. Specifically, 
the report states that ``Early terrorist attacks were largely 
expeditionary. The organization selected and trained terrorists in one 
country, then clandestinely inserted a team into the target country to 
attack a pre-planned objective.'' The report further states that ``We 
have seen a trend toward guerilla terrorism, where the organization 
seeks to grow the team close to its target, using target country 
nationals.'' Finally, the report states that there is a ``shift in the 
nature of terrorism, from traditional international terrorism of the 
late 20th century into a new form of transnational non-state warfare 
that resembles a form of global insurgency. This represents a new era 
of warfare.'' This report suggests that the battlefield for the war 
against terror is not limited to Iraq and Afghanistan. This concept of 
terror turns the entire world into a battlefield. How do you think this 
change in strategy from the terrorists affects our military strategies 
in Iraq and Afghanistan, and what are we doing to adapt?
    Admiral Fallon. Our current military strategy in Iraq and 
Afghanistan allows us to constantly assess and adapt our capabilities 
in response to this extremely flexible and tenacious enemy. Expanding 
on these efforts, I recently met with a select group of subject matter 
experts drawn from inside and outside the military to examine our way 
forward. They helped me develop five major focus areas to anchor and 
prioritize our short- and mid-range efforts. The first three directly 
address efforts to deny terrorist objectives and combat their methods 
in Iraq and Afghanistan. Specifically, we are concentrating on setting 
the conditions for stability in Iraq, expanding governance and security 
in Afghanistan, and degrading violent and extremist networks, with the 
priority being to defeat al Qaeda. These focus areas allow us to 
prioritize our efforts, and to respond to changes in the enemy's 
behavior that we perceive from constant feedback in both Iraq and 
Afghanistan. In addition to addressing this most recent evolution in 
the enemy's methods, focusing on top priorities in this way will help 
us adapt to whatever they try next.

    7. Senator Akaka. Admiral Fallon, what changes to our overall 
national strategy in the global war on terror would you recommend?
    Admiral Fallon. The current National Security Strategy specifically 
addresses the war on terrorism. Its premise is that deterrence alone is 
not enough, that we must take the fight to the terrorists, and that we 
must also deny them safe havens, financial support, and support and 
protection from certain nation-states.
    The enemy is continually changing how he operates, therefore we are 
always reviewing our tactics, operational plans, and strategies. The 
principles of the National Security Strategy are the foundation for the 
CENTCOM theater and regional war on terrorism strategies. These are 
based on four pillars. First, we must improve our relationships with 
national and international partners and our interoperability with their 
security forces. This includes a range of activities from synchronizing 
war on terror responsibilities within DOD, to building partner 
capacity. Second, we must promote development and cooperation among 
nations, foster international collaboration, and improve intelligence 
sharing. Third, is to actively deter state and transnational 
aggression. And fourth, is to do more to promote regional security and 
stability.

    8. Senator Akaka. Admiral Fallon, in recent months, the British 
have announced their intention to withdraw 1,600 troops from Iraq. In 
addition, Denmark announced their intention to withdraw their 450 
troops from Iraq. I understand that Lithuania is also considering 
pulling completely out. What impact do these withdrawals have on our 
operations in Iraq?
    Admiral Fallon. [Deleted.]

    9. Senator Akaka. Admiral Fallon, what additional risk do they 
place on our troops?
    Admiral Fallon. [Deleted.]

    10. Senator Akaka. Admiral Fallon, have we requested these 
countries to consider utilizing their troops to assist in the surge? If 
not, why not? It seems that their assistance could minimize the need to 
extend deployments of our troops.
    Admiral Fallon. All three countries' military establishments were 
contacted through their Senior National Representatives. All three 
declined to offer additional troops and forces, on the grounds that 
this is a matter that must be taken up at the diplomatic level and not 
military-to-military. We value each partner's contributions, and 
regularly review each nation's participation according to each one's 
total contribution to the coalition. This means valuing not only 
military resources, but also political and economic assistance, both to 
operations in Iraq and to other war on terror efforts.
    The nature of each nation's involvement changes over time, 
commensurate with its available resources. Our strategy is to maximize 
overall international contributions to Iraq. As the Iraqi security 
forces assume greater responsibility, some coalition forces have 
shifted from the direct security mission to training and support, 
whereas others have redeployed to their home stations. Contributors 
have also changed the nature of their involvement, but continued their 
partner relationships. At the same time, other countries have increased 
their troop contributions. For example. Georgia is deploying an entire 
brigade later this year; Australia has recently increased their troop 
commitment; and Tonga will again deploy troops to Iraq.

                       iraqi military and police
    11. Senator Akaka. Admiral Fallon, who has the greater numbers in 
Iraq, the Iraqi military or al Qaeda in Iraq (AQI)?
    Admiral Fallon. The Iraqi military is the better armed. However, 
AQI has ample arms, access to military ordnance, and the ability to 
make homemade explosives with which to wage protracted, asymmetric 
warfare.

    12. Senator Akaka. Admiral Fallon, which organization is better 
armed, the Iraqi military or AQI?
    Admiral Fallon. The Iraqi military is the better armed. However, 
AQI has ample arms, access to military ordnance, and the ability to 
make homemade explosives with which to wage protracted, asymmetric 
warfare.

    13. Senator Akaka. Admiral Fallon, who has greater numbers, the 
Iraqi police or AQI?
    Admiral Fallon. [Deleted.]

    14. Senator Akaka. Admiral Fallon, which organization is better 
armed, the Iraqi police or AQI?
    Admiral Fallon. [Deleted.]

    15. Senator Akaka. Admiral Fallon, what is your current assessment 
of the morale of the Iraqi military and the Iraqi police?
    Admiral Fallon. [Deleted.]

    16. Senator Akaka. Admiral Fallon, who has the greater support 
within the country of Iraq, the government or AQI?
    Admiral Fallon. The government has far greater support than AQI. 
Demographically Iraq is over 60 percent Shia, a population that has 
been routinely targeted by AQI with high-profile attacks in order to 
aggravate the sectarian divide. The elected officials chosen by the 
populace are mostly Shia as well. The Kurds enjoy relative stability in 
their semi-autonomous state, and have no interest in AQI's violence. 
They arc much better served through legislative action. Even Iraq's 
Sunni Arabs, many of whom tacitly supported AQI for nearly 4 years, 
have been rejecting local terrorists in the overwhelmingly Sunni 
province of al-Anbar. Tribal sheikhs have turned to the Iraqi 
government for equipment and training to defeat AQI, and Prime Minister 
Maliki has supported their efforts.

    17. Senator Akaka. Admiral Fallon, it has been reported that the 
Sunnis are no longer allied with AQI and are assisting coalition forces 
with fighting against AQI. Can you confirm this?
    Admiral Fallon. [Deleted.]

    18. Senator Akaka. Admiral Fallon, has AQI allied itself with 
either the Kurdish or the Shiite factions in Iraq?
    Admiral Fallon. [Deleted.]

                              iraqi people
    19. Senator Akaka. Admiral Fallon, is it your opinion that the 
people of Iraq would prefer to live under a terrorist regime?
    Admiral Fallon. The vast majority of Iraqis do not prefer to live 
under a terrorist regime. However, there is a very small minority of 
people in Iraq that want their government to implement a very strict 
interpretation of Sharia law.

    20. Senator Akaka. Admiral Fallon, in your statement, you indicated 
that insurgent groups in Iraq have multiple and often competing 
motivations for perpetuating violence. However, you indicate that they 
are united in opposition to U.S. and coalition forces, and their 
refusal to accept the legitimacy of an inclusive, representative 
government. If we were to remove U.S. and coalition forces from Iraq, 
would that strengthen or weaken their unity against the government?
    Admiral Fallon. [Deleted.]

                              redeployment
    21. Senator Akaka. Admiral Fallon, is it your professional opinion 
that if the United States were to begin phased redeployment of our 
troops out of Iraq, then AQI would likely defeat all other parties in 
Iraq and assume control of the country, creating a terrorist state? If 
so, why?
    Admiral Fallon. It is unlikely AQI would defeat all other factions 
and assume control of the country. However, under certain conditions it 
might be able to establish and maintain a sanctuary in a Sunni majority 
area, from which it would be able to conduct terrorist operations 
locally, regionally, and globally. In so doing, AQI would attempt to 
replicate the conditions its parent organization enjoyed in Afghanistan 
prior to Operation Enduring Freedom.

                               insurgency
    22. Senator Akaka. Admiral Fallon, you indicate in your posture 
statement that insurgency groups in Iraq have multiple and often 
competing motivations for perpetuating violence; however, they are 
united by two things: opposition to U.S. and coalition forces; and 
refusal to accept the legitimacy of an inclusive, representative 
government. Why is it that these groups are unwilling to accept the 
legitimacy of an inclusive, representative government?
    Admiral Fallon. For over 38 years the former Baathist regime 
enforced national unity to facilitate control and national pride, and 
to serve its regional ambitions. After Saddam was overthrown, Iraqi 
unity was fractured.
    The various Sunni, Shia, and Kurdish insurgency groups differ in 
their motivations for violence, and their acceptance of the 
government's legitimacy. Fear is each group's defining quality. 
However, they're afraid of different outcomes, and the goals of each 
group can stoke the fears of another. Sunnis fear political 
marginalization and domination by the Shia, whom they consider to be 
agents of Iran. Shia fear a loss of control over the Government of Iraq 
(GOI), a Baathist (Sunni) resurgence, a loss of the ability to protect 
of Shia holy sites, and losing control of national resources. Kurds 
fear the loss of their semi-autonomy and their ability to control 
Kirkuk. The disputes over the status of Kirkuk and the boundaries of 
the Kurdish region are likely to be significant sources of violence in 
the future.

    23. Senator Akaka. Admiral Fallon, what have we done to try and 
bring these groups to the table to discuss their differences, and 
potentially address the underlying problems causing their resistance?
    Admiral Fallon. Coalition forces in al-Anbar have approached local 
tribal sheikhs and imams to garner support, but until recently this 
effort has made little progress. Now with the changing atmosphere in 
places like Ramadi and Fallujah, these efforts are becoming more 
successful. However, in the long-term such initiatives will require 
support from the GOI in the form of essential social services, 
agricultural support, and infrastructure construction for the 
population of al-Anbar. Iraq's leaders must continue to engage all 
groups and overcome the perception that they do not represent Sunnis. 
Otherwise, local groups and tribes may resume acts of violence towards 
the coalition and the government.
    The religious, tribal, and secular actors/politicians must all come 
to an agreement on the role of the central government, distribution of 
the country's wealth, and other political and economic issues before 
the central government is widely accepted as legitimate. The Iraqi 
Constitution addresses the role of the central government, but to many 
in the country it is only a document, at least for now. The GOI must 
provide fairly for essential needs of all Iraqi citizens, and not 
disproportionably favor one or two groups. Insurgents will come to the 
table when an outcome is demonstrated to be in the best interests of 
their respective communities.

                                al qaeda
    24. Senator Akaka. Admiral Fallon, yesterday, the President gave a 
speech in which he said that the al Qaeda terrorists in Anbar are ``the 
same people that attacked us in America,'' apparently referring to the 
September 11 attacks. Is there evidence that Osama bin Laden is 
providing direct support to AQI? If so, what kind of support is being 
provided, and what level of confidence do we have in the supporting 
evidence?
    Admiral Fallon. [Deleted.]

                                 raids
    25. Senator Akaka. Admiral Fallon, Reuters reported on May 2, 2007, 
that President Karzai has stated that Afghans are losing patience over 
killing of civilians by western forces hunting Taliban guerrillas. 
According to the report, ``Around 50 civilians have been killed in 
raids by U.S.-led troops in the past week, Afghan officials say, 
sparking 4 days so far of anti-American, anti-Karzai protests.'' 
Reuters further reports that ``Karzai said he had repeatedly told U.S. 
and North Atlantic Treaty Organization commanders to coordinate their 
anti-Taliban raids with his government, stop searching civilian houses, 
and exercise caution to avoid civilian deaths.'' Can you confirm the 
information in this report? If so, can you explain what the problems 
are that are getting so many civilians killed in our raids on the 
Taliban, and what is being done to fix the problem?
    Admiral Fallon. President Karzai did state on 2 May that Afghans 
arc losing patience with civilian deaths but we have discovered no 
evidence to corroborate the Reuter's report that 50 had been killed 
during the week in question.
    We go to great lengths to prevent civilian casualties incidental to 
our operations. We operate in compliance with the law of armed 
conflict, and take great pains to avoid collateral damage. Our strict 
targeting process accounts for and mitigates the risk to civilians. To 
better safeguard them, we carefully review that process and investigate 
all relevant actions when we receive reports of civilian casualties. 
During this specific engagement, and in nearly every such instance, 
contact is initiated by insurgents deliberately using civilians as 
shields, with the intent of causing the civilian casualties that they 
can then exploit in the media.

    26. Senator Akaka. Admiral Fallon, are we coordinating our raids 
with the Afghan government per President Karzai's request? If so, why 
is he speaking out? If not, why not?
    Admiral Fallon. All of our operations have an Afghan component--and 
in many we are in support of Afghan forces--and are coordinated with 
Afghanistan's government authorities. Prenotification with the 
Afghanistan authorities is not always possible when combat is initiated 
by the enemy. In those cases we leverage the Provisional Reconstruction 
Teams to help inform Afghan leaders at the earliest possible time.
    Afghans believe it is President Karzai's job to voice their 
grievances to western nations, and to prevent civilian casualties. When 
civilians are killed or injured, President Karzai quite rightly speaks 
out, and any failure to do so could weaken popular support for his 
administration and international forces.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
                          brigade combat teams
    27. Senator Pryor. Admiral Fallon, the 39th Brigade Combat Team 
(BCT) of the Arkansas Army National Guard was recently alerted to 
prepare for another deployment to Iraq. The BCT modular force concept 
is a standardized, stand-alone, larger, more powerful, more flexible, 
and more rapidly deployable force that allows the Army to effectively 
transform the way it operates. Its success, however, depends largely on 
its unity, cohesiveness, and collective training. The 39th is only one 
of 15 National Guard BCTs, and its maneuver battalions are currently 
vulnerable to being broken up, deployed to different locations, and 
tasked with missions for which the unit was not designed. What is the 
strategic significance of this action, and is this common practice for 
deployed Active Duty BCTs as well?
    Admiral Fallon. This mission is common practice for at least one 
BCT in Iraq. Tasking of BCTs within Iraq is done based on the 
capability that each BCT brings to the force and not necessarily 
National Guard, Reserve, or Regular Army BCT, BCTs deployed to Iraq are 
given specific tasks according to their level of training and organic 
structure. The 39th BCT from Arkansas will be employed as a Security 
Force Brigade. Its mission will require it to conduct decentralized 
operations at several locations within Iraq. The modular nature of the 
39th BCT makes it ideal for this mission as it is able to conduct 
operations as a BCT, Battalion Task Force, or any level deemed 
appropriate by the 39th BCT Commander. The operational requirement to 
provide security at numerous locations while simultaneously retaining 
other organizations at full combat capability is critical to retain the 
lines of communication security as well as freedom of maneuver for 
friendly forces. The strategic impact of this mission not being 
accomplished is far reaching and will have an adverse impact on our 
ability to retain the initiative across the Iraq theater.

                               body armor
    28. Senator Pryor. Admiral Fallon, personnel and equipment issues 
for our forces deployed in combat overseas have been the topic of much 
debate in the Senate. I have received phone calls from concerned 
mothers and fathers from Arkansas whose sons and daughters are deployed 
to the Middle East, and who believe the current body armor in use today 
is inadequate. Are our troops operating with a full complement of 
effective body armor on the battlefield?
    Admiral Fallon. Yes, U.S. military servicemembers and U.S. 
Government civilian personnel are operating with a full complement of 
effective body armor. The Interceptor Body Armor (IBA) consists of one 
outer tactical vest, two small arms protective inserts, a set of 
deltoid and auxiliary protectors, and a set of side ballistic inserts. 
As of 01 March 07, the CENTCOM area of responsibility is supplied to 
100 percent of the requirement for IBA.

    29. Senator Pryor. Admiral Fallon, have you ever heard of Dragon 
Skin body armor? If so, what is your opinion of its effectiveness and 
feasibility?
    Admiral Fallon. Yes, I have heard of the Dragon Skin body armor 
produced by Pinnacle Armor. Over the past 18 months, elements within 
the Department of Defense have expressed concerns about the 
effectiveness of Dragon Skin. It is my understanding that the Program 
Executive Office soldier and the Army Test and Evaluation Command have 
conducted tests on the Dragon Skin body armor but have yet to release 
the final results.

                               iraqi army
    30. Senator Pryor. Admiral Fallon, how many Iraqi army personnel 
are trained and capable of fighting today?
    Admiral Fallon. [Deleted.]

    31. Senator Pryor. Admiral Fallon, how far is the Iraqi army from 
being certified as a self-sustaining military force?
    Admiral Fallon. [Deleted.]

    32. Senator Pryor. Admiral Fallon, what are the capabilities of the 
Iraqi military leadership?
    Admiral Fallon. The Iraqi military leadership is capable of small 
scale, relatively simple operations. At the most senior level, the 
Iraqi Ministry of Defense and Joint Headquarters do not yet have the 
capability to independently plan, conduct, or support large, complex 
operations. The new Iraqi army is only 3 years old, and there remains a 
lack of confidence among some of its senior leaders. This can result in 
a reluctance to delegate authority without a specific directive from 
the most senior level.
    However, the Iraqi Ground Forces Command (IGFC) controls six Iraqi 
army divisions and the Baghdad Operational Command (BOC) controls two 
more. All divisions arc expected to fall under Iraqi control by the end 
of 2007. With significant coalition assistance, the IGFC and BOC direct 
Iraqi-led operations, which are in turn conducted by these divisions 
and their subordinate units. Iraqi ground forces' recent tactical 
successes, and the successful execution of a complex relief in place 
and transfer of authority in Baghdad, demonstrate their increasing 
capabilities.
    On the small unit level, capabilities vary greatly from unit to 
unit. However, we are seeing progress in the development of a capable 
leadership corps, as leaders are more often promoted based on merit and 
capability rather than personal connections.

    33. Senator Pryor. Admiral Fallon, where is the Iraqi military 
leadership in the decisionmaking process during combat operations?
    Admiral Fallon. Iraqi leadership is involved at every step of 
planning and execution. Transition teams teach, coach, and assist, and 
partnered units mentor the leadership. But the Iraqis make the 
decisions. As each unit's commander and staff mature, its assessment 
ratings will increase and the amount of coalition assistance required 
will decrease.

    34. Senator Pryor. Admiral Fallon, how prepared is the Iraqi 
military leadership to lead troops in battle?
    Admiral Fallon. [Deleted.]

                            troop embedding
    35. Senator Pryor. Admiral Fallon, what significance has General 
Petraeus' concept of embedding troops within the local populace had on 
civil and military operations?
    Admiral Fallon. The concept of embedding is already having positive 
effects throughout Iraq. It has led to increased trust in Iraqi and 
coalition forces by the populace, drawing them closer to their 
government, while at the same lime severing linkages to anti-coalition 
forces. The constant presence of coalition forces amongst the 
population enables this, yet is also dependent upon the GOI to provide 
essential services equitably to all communities.

                           irregular warfare
    36. Senator Pryor. Admiral Fallon, our military forces whose 
conventional capability was designed to fight on the western shores of 
Europe are now assigned to fight in irregular warfare. How closely are 
our troops prepared for what they are asked to do in the global war on 
terrorism?
    Admiral Fallon. In conducting the war on terror, our conventional 
forces conduct counterinsurgency tasks while our Special Operations 
Forces conduct counterterrorism tasks. In both cases, our troops have 
received the preparation they need to be exceptionally capable and 
effective.

                      improvised explosive devices
    37. Senator Pryor. Admiral Fallon, the Air Force has stated that 
``C-130s are doing a magnificent job reducing the improvised explosive 
device (IED) threats by removing 9,000 ground troops and 3,500 convoys 
from the road each month.'' What impact has this had on our ability to 
counter the IED threat?
    Admiral Fallon. [Deleted.]

    38. Senator Pryor. Admiral Fallon, are we consequently seeing less 
IED attacks?
    Admiral Fallon. The answer is no. IED attacks continue to increase, 
resulting in increased causalities and fatalities.

    [Whereupon, at 12:07 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                         THURSDAY, MAY 17, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                     UNITED STATES EUROPEAN COMMAND

    The committee met, pursuant to notice, at 10:18 a.m. in 
room SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Bill Nelson, E. 
Benjamin Nelson, Webb, Warner, Inhofe, and Thune.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Evelyn N. Farkas, 
professional staff member; Richard W. Fieldhouse, professional 
staff member; Gerald J. Leeling, counsel; Peter K. Levine, 
general counsel; and William G.P. Monahan, counsel.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; Derek J. Maurer, minority counsel; 
and Lynn F. Rusten, professional staff member.
    Staff assistants present: David G. Collins, Fletcher L. 
Cork, and Benjamin L. Rubin.
    Committee members' assistants present: Benjamin Rinaker, 
assistant to Senator Ben Nelson; Gordon I. Peterson, assistant 
to Senator Webb; Sandra Luff, assistant to Senator Warner; and 
Stuart C. Mallory, assistant to Senator Thune.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    General Craddock, we want to welcome you. We had a meeting 
with the Secretary of Defense, which is the reason we are 
starting later than usual, and we also are going to have a 
couple of votes that are coming up, I believe, at 10:30 a.m. or 
10:45 a.m., which is going to make this even a more complicated 
session than usual.
    We appreciate, not just your being here today, we 
appreciate your long service to this Nation. You've been before 
this committee on a number of occasions, so you're familiar 
with the way in which our schedule operates, but this is the 
first time that you appear before us as Commander, U.S. 
European Command (EUCOM) and the Supreme Allied Commander 
Europe, so we will welcome your insights into the developments 
within your area of responsibility (AOR) and within the North 
Atlantic Treaty Organization (NATO) as new missions and new 
challenges face both NATO and EUCOM.
    I normally try to set out some of the parameters for our 
hearings, but I'm not going to do that today, because of the 
late start and because of the votes, which will interrupt us in 
a few minutes. I think we're all familiar with the large AOR 
that you cover, the huge number of challenges that you have, 
and we look forward to your testimony.
    [The prepared statement of Senator Levin follows:]
                Prepared Statement by Senator Carl Levin
    General Craddock, welcome and thank you for your patience while the 
committee met with the Secretary of Defense. You have testified before 
the committee on a number of occasions, so you are familiar with how 
this institution operates.
    Today, however, is the first time General Craddock appears before 
the committee as Commander, U.S. European Command (EUCOM) and Supreme 
Allied Commander Europe. We welcome your insights into developments 
within the EUCOM's area of responsibility (AOR) and within the North 
Atlantic Treaty Organization (NATO), as the alliance takes on new 
missions and transforms itself to meet today's challenges.
    First among these challenges in General Craddock's AOR is the 
mission of bringing security and stability to Afghanistan. Last year 
the security situation in Afghanistan steadily deteriorated: overall 
attacks on coalition forces were up three-fold in 2006 over the 
previous year; the number of roadside bombs almost doubled; suicide 
attacks jumped nearly five-fold. A recent State Department report on 
terrorism states that in 2006 the Taliban-led insurgency remained ``a 
capable and resilient threat to stability.''
    In response, earlier this year the NATO-led International Security 
Assistance Force (ISAF), and Afghan National Security Forces launched a 
major operation in the south to counter an anticipated spring 
offensive. The committee would be interested in getting an update on 
the security situation in Afghanistan, and whether coalition and Afghan 
forces have begun to create stability in the provinces.
    A critical question has been whether U.S. and coalition forces 
levels in Afghanistan are sufficient for the mission. British General 
David Richards, former ISAF Commander, wrote this spring that ``Our 
force levels in 2006 were just sufficient to contain the insurgency. . 
. . As a result of too few forces, we have found it difficult to 
maintain security where we have gained it. . .'' In January, Secretary 
Gates increased U.S. troop commitments in Afghanistan, and the 
Department of Defense (DOD) has announced its intention to maintain 
those troop levels into next year.
    One of General Craddock's first tasks as Supreme Allied Commander 
was to review and assess what level of troops and equipment the NATO-
led ISAF needed to carry out its mission in Afghanistan. When General 
Craddock made his recommendations in February, he said that to succeed 
in Afghanistan, ``you must clear, you must hold, you must build.'' 
According to news reports, General Craddock's recommendations included 
increasing NATO troop levels and equipment, in particular helicopters 
and transport aircraft. We would be interested in hearing this morning 
whether NATO members have made the necessary commitments of troops and 
equipment to meet your recommendations for NATO's military 
requirements; if not, what shortfalls remain; and whether those 
commitments have come with strings in the form of national 
restrictions, or caveats, placed by NATO members on the deployment of 
their troops or equipment in Afghanistan.
    We would also like your assessment of the readiness of Afghan 
Security Forces, and whether current ISAF and Afghan Security Force 
levels are sufficient to clear and hold areas to prevent the Taliban 
from returning.
    An important component of our strategy for building a more stable 
Afghanistan are the Provincial Reconstruction Teams (PRTs) deployed 
throughout the country. The PRTs are working to expand the authority of 
the Afghan Government through reconstruction and development 
operations. I am concerned, however, that efforts to build the support 
of the Afghan people are being undermined in a number of ways. These 
include the explosive growth in the drug trade; public corruption 
within the Karzai government; the lack of economic opportunity; and 
growing popular resentment over reports of civilian casualties 
resulting from U.S. airstrikes and other operations.
    Another major issue in EUCOM's AOR is the proposed deployment of 
long-range missile defense interceptors in Poland and a high-power 
radar in the Czech Republic. The administration is requesting $310 
million this year to start this proposed deployment. The total cost of 
the proposed European missile defense deployments is $4 billion through 
fiscal year 2013, all of which the administration proposes the United 
States should pay. I gather from General Craddock's prepared testimony 
that there may be additional expenses--as yet undetermined--for these 
proposed deployments.
    However, there are a number of problems with this requested 
funding. First, the United States is just beginning the negotiations 
with the governments of Poland and the Czech Republic and if the 
negotiations are successful, the Czech and Polish parliaments would 
have to give final approval before the deployments could proceed.
    A second problem with the missile defense funding request is that 
the interceptor proposed for deployment is a new missile that has not 
yet been developed and is not even planned to be tested until 2010.
    Third, this proposed deployment while apparently designed to 
counter a potential future threat from Iran, does not address the 
existing and real threat of short- and medium-range missiles Iran has 
today, which could target our forward-deployed forces, allies, and 
friends.
    Fourth, there are concerns within NATO about this proposal. 
According to the NATO Secretary General, ``NATO is the right place to 
have this discussion on missile defense.''
    The United States finds itself at odds with Russia not only over 
missile defense but also over the issue of Kosovo. Russia continues to 
oppose Kosovo's independence from Serbia, but Secretary Rice in Moscow 
this week delivered the message that keeping Kosovo part of Serbia 
would be ``impossible.'' The 16,000-strong NATO force is likely to be 
called upon to provide security as U.N. administration of the region 
ends and Kosovo makes the transition to its new status.
    An additional challenge within the EUCOM AOR is the growing 
strategic importance of Africa. The Department has recognized this 
strategic shift and, in February 2007, announced the creation of U.S. 
Africa Command. According to the Department, this new command will be 
fully operational by the end of September 2008. In the mean time, the 
vast majority of Africa remains within EUCOM's responsibilities.
    Africa is growing in strategic importance. At the same time, unrest 
in some African nation states, like Nigeria, is also growing. The 
recent Nigerian elections, widely regarded as rigged, threaten to stir 
up even more violence. In response, the U.S. Navy has increased its 
footprint in and around the Gulf of Guinea and has begun working with a 
number of nations along the coast of West Africa on maritime security.
    On the issue of readiness in the European theater, this committee 
has learned, in a series of hearings since the beginning of this year, 
that personnel and equipment shortages in nondeployed units assigned to 
EUCOM exacerbate the challenges of meeting our security commitments and 
challenges in Europe and Africa, or in other areas where EUCOM forces 
may be deployed. Lower basic readiness in our nondeployed forces 
increases the costs and time required to get ready for worldwide 
contingencies and increases the likelihood of deploying our forces 
underprepared or unprepared. This increases the risk that we fail to 
accomplish our missions, and almost certainly means increased 
casualties. This situation is what former Army Chief of Staff, General 
Schoomaker, described when he talked about the U.S. military's lack of 
`strategic depth.' I hope to hear from General Craddock how he 
evaluates and manages this risk.
    The committee looks forward to receiving your testimony.

    Chairman Levin. Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. I associate myself 
with your remarks. I had a very pleasant visit, a very 
informative visit, with General Craddock yesterday in my 
office.
    But you have taken on a very, very major responsibility, as 
you full well know. Even in the brief period that you've been 
there, there have been some rather dramatic unfolding events, 
particularly in Afghanistan. So, we'll proceed to hear from 
you.
    But, Mr. Chairman, I think you want to clarify, for members 
who may be following, that we might continue after the vote, if 
other members were not able to get here before the vote?
    Chairman Levin. Oh, no, we will be working right through 
the votes, if we can. Otherwise, we'll have to recess until 
after the votes, because I expect those votes will start in 
about 10 or 15 minutes.
    Senator Warner. How many votes are there?
    Chairman Levin. I think there are two votes. So, we'll have 
to try to work around them the best way that we can. Our 
statements will be made part of the record.
    We now call upon you, General Craddock.

  STATEMENT OF GEN BANTZ J. CRADDOCK, USA, COMMANDER, UNITED 
 STATES EUROPEAN COMMAND, AND SUPREME ALLIED COMMANDER, EUROPE

    General Craddock. Thank you.
    Chairman Levin, Senator Warner, and distinguished members 
of this committee, it's indeed a privilege to appear here today 
before you as the Commander of the United States EUCOM.
    Mr. Chairman, I've submitted a written statement that I ask 
be made a part of the official record.
    Chairman Levin. It will be.
    General Craddock. If you would permit me, I'd like to 
introduce my senior noncommissioned officer in the EUCOM, 
Command Sergeant Major Mark Farley. Mark, would you stand up, 
please?
    Chairman Levin. Welcome.
    Senator Warner. Welcome.
    General Craddock. I think it's important he's here today. 
He represents all the soldiers, sailors, airmen, and marines, 
and he is, as the senior enlisted advisor, continually out and 
about in the command, checking on quality-of-life, training 
conditions, and, every day, is very essential to all the 
leaders in the command and what we do. So, I'm glad to have 
him.
    Chairman Levin. We're grateful for your service, and 
appreciate your being here.
    General Craddock. Since taking command of EUCOM, I've been 
struck by the command's expanse and diversity, the dedication 
and the quality of our servicemembers, the transformation of 
NATO in the 21st century, and our Nation's commitment to this 
great alliance. EUCOM is conducting a broad range of activities 
to assure both EUCOM's and NATO's continued relevance.
    I will provide a brief overview of our activities, 
highlighting the vital role EUCOM servicemembers play in this 
vast theater.
    While support for the global war on terror is our 
overarching priority, EUCOM is also focused on sustaining 
Europe as a global partner and furthering the U.S. security 
relationship with Africa. The EUCOM's strategy of active 
security seeks to defeat transnational terrorist entities and 
violent extremists who threaten the United States, its allies, 
and our interests. We will do that by denying our enemies 
freedom of action and access to resources, and by building 
partner-nation capabilities that promote stability.
    Security cooperation remains the cornerstone of this 
strategy. Our programs represent a proactive approach to 
building able partners. From airborne to nonlethal weapons 
training, EUCOM personnel and facilities provide practical and 
state-of-the-art education and training that assist our allies, 
and our partners, in developing their capabilities to conduct 
effective peacekeeping and contingency operations as well-
trained disciplined forces. These efforts mitigate the 
conditions that lead to conflict, prepare the way for success, 
and reduce the need for substantial U.S. involvement.
    Security cooperation programs, such as the international 
military education and training, foreign military financing, 
foreign military sales, the Georgia Sustainment and Stability 
Operations Program, and the Section 1206 Security Assistance 
Program, are just a few of the critically important tools that 
you provide, and resources you provide, to execute our security 
cooperation activities throughout Europe, Eurasia, and Africa.
    EUCOM's ongoing transformation initiatives highlight the 
military effectiveness of forward-based and rotational forces 
that are powerful and visible instruments of national 
influence.
    In addition to our conventional forces, Special Operations 
Forces (SOFs) are essential. They enable EUCOM to develop and 
maintain trust and long-term relationships with partner nations 
as we help build their capabilities and their capacities.
    NATO remains an alliance committed to the collective 
security of its member states and, increasingly, to a broader 
and more comprehensive view of security in an interdependent 
world where the threats are increasingly nontraditional and 
more global in nature.
    While political consultations among the 26 nations help 
sustain a unity of purpose, the men and women of the alliance, 
plus 17 other troop-contributing nations, are redefining NATO's 
role by their actions and operations across Afghanistan, the 
Balkans, the Mediterranean, Iraq, the Baltics, and Africa.
    Today, over 50,000 NATO military forces are deployed in 
support of NATO operations. This is a visible and effective 
demonstration of NATO's resolve to meet those security 
challenges, both in Europe and in areas of strategic distance.
    In the current strategic environment, collective security 
is an essential factor in achieving national security. NATO, 
with the proper resources and political will, remains the 
preeminent security alliance in the world. It is in our 
national interest to ensure that NATO succeeds. The leadership 
and the capabilities our Nation contributes to the NATO 
alliance remain fundamental to preserving the Transatlantic 
Partnership.
    Continued congressional support for our efforts is 
essential to ensure that the EUCOM remains capable of effective 
engagement throughout our AOR, that we can provide sustained 
support to the NATO alliance and to our regional partners, and 
that EUCOM meets the broad tasks set forth in the national 
military strategy. The dedicated men and women of the United 
States EUCOM are committed to achieving our national goals and 
objectives.
    Mr. Chairman, I thank you for holding this hearing, and I 
look forward to the opportunity to address your questions.
    Thank you.
    [The prepared statement of General Craddock follows:]
            Prepared Statement by GEN Bantz J. Craddock, USA
                              introduction
    United States European Command (EUCOM) area of responsibility (AOR) 
comprises 92 diverse nations in Europe, Eurasia and most of Africa. The 
forward defense of the United States largely depends on our ability to 
work with our partners and allies to ensure common security. EUCOM's 
theater Strategy of Active Security supports the national defense 
strategy through a series of broad cooperative and engagement 
initiatives.
    As the EUCOM Commander, I believe there are fundamental priorities 
that characterize our involvement in this AOR. While support to the 
global war on terror is the overarching priority, EUCOM is dedicated to 
retaining Europe as a global partner and furthering the U.S. security 
relationship with Africa through a new unified command. Embedded in 
these strategic priorities are our efforts to transform ourselves into 
a more expeditionary command, while cultivating and sustaining 
relations with numerous regional security organizations, such as the 
North Atlantic Treaty Organization (NATO), the African Union (AU), and 
the European Union (EU).
    In addition to my role as Commander EUCOM, I have responsibilities 
as the Supreme Allied Commander, Europe, commanding all operational 
NATO forces. While these two roles have distinct mandates, there are 
many linkages between them. One fundamental linkage is transformation--
both EUCOM's and NATO's transformation efforts are aggressive, 
ambitious, and geared toward realizing agile, flexible, and 
expeditionary forces capable of operating at strategic distances.
    To fully capture how EUCOM will address these priorities I will 
provide an overview of the strategic environment in which we operate, 
explain our strategy and initiatives, highlight the contributions and 
requirements of my component commanders, and underscore the importance 
of the transatlantic security relationship.
                         strategic environment
    EUCOM's AOR is a vast geographic region covering over 21 million 
square miles and 16 time zones, extending from the Barents Sea in the 
north to the waters stretching south to Antarctica, and from Greenland 
to Russia's Pacific coastline (See Enclosure 1). The scope and 
diversity of these 92 sovereign nations include approximately 1.4 
billion people, constituting 23 percent of the world's population. 
These 1,000 plus ethnic groups speak more than 400 languages, profess 
over 100 religious affiliations, and encompass the full range of human 
conditions and governments. The trends and issues which define the 
current environment in our theater include terrorism in all its forms, 
frozen conflicts, unresolved territorial disputes, complex geopolitical 
relationships between Russia and the Nations of the former Soviet 
Union, the use of energy as a tool of foreign policy, weapons of mass 
destruction (WMD), and illegal immigration.
    Because the challenges in this theater are not confined to a single 
nation, EUCOM takes a regional approach at analyzing this strategic 
environment. Our analysis is structured around three European and five 
African regions (See Enclosure 2). Europe's regions are Western Europe, 
Southeast Europe, and Eurasia. Africa's regions are North Africa, West 
Africa, Central Africa, East Africa, and South Africa.
Political Geography
    Western Europe is home to some of our oldest and closest allies. 
For six decades, its mature democracies have experienced an 
unprecedented period of security and stability. A major contribution to 
this stability lies in the NATO Alliance and multinational institutions 
that have successfully addressed numerous security challenges over the 
past almost 60 years. NATO remains Europe's premier security 
organization and the international security instrument of choice. 
However, not all trends are positive. The defense budgets of many of 
these NATO nations have fallen to levels that jeopardize their ability 
to make long-term strategic military commitments to meet the Alliance's 
21st century ambitions.
    In Southeastern Europe, the political and military situations are 
improving, but there are unresolved issues which could destabilize the 
region. The Balkans remain somewhat volatile as new democratic 
governments attempt to deal with suppressed ethnic tensions, 
corruption, illegal immigration, and assimilation of citizens from 
different cultural backgrounds. The United Nations (U.N.)-led process 
to determine the future status of Kosovo is now in its critical and 
concluding stage, with discussions ongoing in the United Nations 
Security Council to address the Comprehensive Proposal for a Kosovo 
Status Settlement. Agreement and successful implementation of the 
provisions of a Status Settlement will be essential in maintaining 
stability in the Balkans.
    As a regional leader, Turkey's European orientation for political 
and military security, along with its enduring relationship with the 
U.S., make it a catalyst for stability in Southeast Europe, the 
Caucasus, Afghanistan, and the Black Sea region. Its key international 
lines of communication and proximity to Iran, Iraq, and the Russian 
Federation ensure Turkey will continue to play a vital role in 
international efforts to combat terrorism.
    In Eurasia, some nations are at a decisional crossroads in terms of 
economic, political, and military reform. Other nations, such as 
Azerbaijan and Georgia, continue to pursue a positive trend towards 
economic sector, military, and political reform. After decades of life 
under the Soviet model, nations of this region struggle with balancing 
the challenging process of reform and the fundamental need for 
stability and predictability. Some nations have elected to freeze, 
stall, or reverse reform, placing a greater priority on the maintenance 
of political power, internally and externally. Economic turmoil, 
unsettled interstate conflicts, insurgency, deteriorating 
infrastructure, and negative demographic trends exacerbate an already 
difficult and complex process of reform.
    Despite continuing tensions from historical and unresolved ethnic 
and national enmity, the Caucasus is striving to gain regional 
stability and is of growing strategic importance to the U.S. and its 
allies principally due to its geostrategic location and the increasing 
flow of Caspian Sea hydrocarbons to the world energy market. In close 
proximity to Iran and Russia, Azerbaijan's geostrategic location is key 
for access to Caspian Sea energy resources. An example of Azerbaijan's 
and the region's growing importance to the global energy market is the 
recently opened Baku-T'blisi-Ceyhan Pipeline, bringing oil from the 
Caspian Sea to the Mediterranean. Additionally, the future Caucasus 
pipeline currently under construction will carry natural gas along much 
of the same route.
    Regional security in the Caucasus and Moldova is challenged by four 
frozen conflicts: Azerbaijan and Armenia's dispute over the status of 
Nagorno-Karabakh, South Ossetia and Abkhazia's separatists' attempts to 
gain independence from Georgia, and Transnistria's movement to separate 
from Moldova. Left unresolved, these conflicts remain the most 
significant obstacle to long-term stability in the Caucasus and have 
the potential to ignite into a high-intensity conflict in Europe's 
neighborhood.
    As the dominant regional power in Eurasia and central Asia, 
Russia's cooperation with the U.S. and NATO is a strategic element in 
fostering security in the Euro-Atlantic arena. Progress has been made 
in engaging the Russian military to build interoperable capabilities, 
instill western operational concepts, and strengthen the bilateral 
military relationship. Russia demands specific concentration not only 
because of its influence in its ``near abroad'' border nations, which 
affects European stability, but globally because of its formidable 
nuclear capability, an extensive weapons trade program and influence on 
the international energy market.
    While military-to-military relations with Russia are for the most 
part positive, much work remains to enhance cooperation and mutual 
understanding on key 21st century issues such as threats posed by 
ballistic missiles, WMD proliferation, terrorism, and the disruption of 
energy supplies. Russian objections to U.S. missile defense plans and 
programs will require continued U.S. Government consultation and 
engagement. Additionally, recent Russian strategies to exert influence 
run counter to U.S. and NATO security. As the world's largest producer 
of natural gas and a critical supplier of energy to Europe, Russia has 
demonstrated that it is prepared to use its position in the energy 
sector to impose its will on other nations. Also, Russia's recent 
aggressive tactics with Georgia and Ukraine raise concerns about its 
long-term security intentions. It is unclear to what future extent 
Russia may use energy or its military as leverage to achieve foreign 
policy goals, but it is a dynamic that needs to be monitored closely.
    Ukraine's strategic location, contributions to international 
operations, and policy of Euro-Atlantic integration make it an 
increasingly important regional ally. Ukraine is at the nexus of its 
Cold War past and achieving western standards of political, economic, 
and defense reform. Internal and external opposition since the 2004 
Orange Revolution have slowed the pace of Ukraine's reform efforts. 
Ukraine's ability to attain its reform objectives remains a central 
focus of both U.S. and Alliance efforts.
    In the Middle East, Israel is the U.S.'s closest ally that 
consistently and directly supports our interests through security 
cooperation (SC) and understanding of U.S. policy in the region. 
Providing a platform of stable governance in the region, Israel 
steadfastly promotes democratic ideals and pro-western economics and 
values. A steward of the largest Foreign Military Financing (FMF) 
program with well-established agreements with the U.S. Government, 
Israel is a critical military partner in this difficult seam of the 
Middle East.
    On the Continent of Africa, we face a complex environment with 
enormous challenge and potential. While Africa is rich in both human 
potential and mineral resources, it has historically struggled with 
relatively unstable governments, internal political strife, and 
economic problems. Many states remain fragile due to a variety of 
factors, including corruption, endemic and pandemic health problems, 
historical ethnic animosities, and endemic poverty.
    In North Africa, broad expanses of minimally governed areas remain 
havens for extremists, terrorists, and criminals. Authoritarian 
political structures inhibit political progress and reform on the 
continent. Developing economic systems have difficulty meeting the 
needs of a youthful and growing populace, hindering the emergence of an 
economically independent middle class. Additionally, an increasing 
percentage of Europe's oil and natural gas imports come from North 
Africa, tying European security to North African stability.
    In West Africa, specifically the Gulf of Guinea, the energy 
potential defines this as a region of emerging U.S. strategic interest. 
West Africa now supplies over 16 percent of U.S. hydrocarbons and by 
2015 it is estimated that it will supply more than 25 percent. In the 
next 10 years the Gulf of Guinea will provide the bulk of U.S. imports 
of sweet crude oil. Threatening this potential are corruption, economic 
privation, political instability, and the challenges of potential civil 
unrest. This scenario has played out most recently in the crisis in 
Guinea. The civil unrest, subsequent martial law, and resultant 
departure of U.S. citizens highlight the fragile nature of democratic 
systems throughout the region. Ethnic and religious violence within and 
across porous borders also threatens Gulf of Guinea stability. With 
only marginal adherence to the rule of law and with no meaningful legal 
structures or political will present, the maritime security challenges 
in this region become almost insurmountable. Additionally, the security 
situation in the Niger Delta and other ``promising'' areas has been 
historically unstable and continues to demonstrate symptoms indicative 
of future problems. Violence between criminal gangs, often backed by 
powerful political or ethnic figures, makes the delta one of the most 
violent places in the region. Conflict will likely escalate further as 
the country approaches presidential elections in 2007.
    Much of Central Africa and East Africa have been mired in armed 
conflicts that have defied the international community's capacity for 
crisis response and management since the mid- to late-1990s. Numerous 
wars have been fought there, causing massive human suffering as well as 
political and economic stagnation. The Rwandan genocide of 1994, in 
which over 800,000 people lost their lives, left a devastated country 
in its wake and had a profoundly destabilizing effect on the region. 
Rwanda's neighbor Burundi, embroiled in ethnic warfare between 1993 and 
2003, has completed its political transition and entered a critical 
peace-building period. Meanwhile, the Democratic Republic of Congo, 
facing the end of its postwar transition, remains plagued by active 
militia, insufficient infrastructure and poor governance practices. 
Hopes for long-term peace in the long-running conflict between the 
government of Uganda and the Lord's Resistance Army rebels were given 
new life in August 2006 after a cessation of hostilities between the 
two sides. However, many significant stumbling blocks remain.
    Southern Africa's great potential is threatened by widespread 
corruption and unequal distribution of resources, which undermine 
efforts to develop a transparent and healthy economy. While AIDS 
affects the entire continent of Africa, Southern Africa is the most 
HIV-AIDS afflicted region in the world, with HIV infection rates 
averaging in the high 20 percent range. According to U.S. Population 
Reference Bureau estimates, South Africa's population will decline from 
44.2 million to 41.9 million in 2009. The human costs aside, the AIDS 
epidemic has a direct negative impact on the region's stability and 
security. Security forces are being decimated as key personnel are 
lost, the ability to conduct operations is reduced, and nations are 
hard pressed to field and deploy healthy soldiers for participation in 
peacekeeping operations.
Transnational Terrorism in EUCOM's AOR
    Like all combatant commands, EUCOM is dealing with terrorism in all 
its forms. Many terror networks are integrally tied to criminal and 
smuggling networks. Illegal activities such as drug smuggling, document 
forgery, and credit card fraud help fund extremist operations while 
Europe's open borders facilitate their travels across the region.
    In Northern Africa, al Qaeda-affiliated groups exploit ungoverned 
spaces to gain sanctuary, recruit, indoctrinate, train, equip, transit, 
and mount operations. The Trans-Sahara region, in particular, offers 
sanctuary to Islamic extremist terrorists, smugglers of drugs and 
contraband, and insurgent groups. There is evidence of an increasing 
trend of North Africans being recruited as foreign fighters in Iraq; in 
addition, we are seeing increasing collaboration between al Qaeda and 
North African terrorist groups. These negative developments are 
occurring despite many successful host nation security efforts. In the 
Trans-Sahara region, violent extremists continue to coordinate 
activities and interact with their associated networks in Europe. These 
groups take advantage of vast ``ungoverned'' spaces to attack their 
host governments and advance their anti-moderate, anti-western agendas.
    Western Europe, Southeast Europe, and Eurasia are increasingly used 
as a sanctuary and logistics center for extremists. Due to the 
exploitation of well-established civil liberties and the capacity to 
travel freely across many borders, Europe's ability to identify, 
arrest, and prosecute transnational terrorists is an important element 
in the global war on terror.
    Another key characteristic of terrorism in the EUCOM AOR relates to 
the low-risk/high-consequence aspect of the use of WMD. With the 
majority of the world's nuclear weapons in the EUCOM AOR, the loss of 
control of any associated weapon or material could lead to catastrophic 
results, making the security of these items a significant aspect of the 
EUCOM WMD effort.
Demographic Trends within Africa
    Changing population demographics increasingly challenge good 
governance. Rapid population growth, particularly a disproportionate 
``youth bulge'' in the developing world, especially Africa, will 
significantly strain governments' ability to provide basic goods, 
services, and jobs. This could lead to a large pool of undereducated 
and unemployed youth presenting a potential source of instability and a 
lucrative target for violent extremist exploitation in countries where 
governments fail to meet the public's needs.
Immigration Issues
    Europe has become a magnet for people who see European countries as 
lands of refuge as well as lands of plenty. Inevitably, with 15 million 
people unemployed in the EU alone, the influx of outsiders has been 
resented in some areas. Over 100,000 illegal immigrants enter Europe 
from Africa each year. Many EU citizens fear that asylum seekers are 
too great a burden for their countries' social welfare systems to bear. 
Others voice alarm that economic migrants may take their jobs. Some 
resent the dilution of traditional local culture from the influx of new 
arrivals. Coupled with legal immigration challenges are those 
associated with illegal immigration.
Criminal Issues
    Directly connected to both immigration and organized crime is human 
trafficking. Human traffickers make annual profits of some $7 billion 
in prostitution alone. Only the drug trade is more profitable. In 
Europe, human traffickers run the spectrum of criminal organizations. 
From complex networks like the Italian and Russian organized crime 
elements to countless small ``freelance'' family groups, modern slavery 
continues to be a big-profit business.
    Around Africa, vast coastal areas provide havens for smuggling, 
human trafficking, illegal immigration, piracy, and oil and fisheries 
theft. Piracy and theft are major concerns along the nearly 2,000 
nautical miles of the Gulf of Guinea coastal area. Large-scale illegal 
oil theft in the Niger Delta has become significant over the last 
several years. Industry analysts estimate up to 200,000 barrels of oil 
per day are siphoned from pipelines in a process known as ``hot-
tapping'' and sold to Nigerian or foreign buyers at approximately $15 a 
barrel--well below world oil price levels. Shipping ports, transit 
areas, harbors, oil production, and transshipment areas are largely 
uncontrolled, raising concerns regarding vulnerability to attacks by 
terrorist groups, criminal gangs, or separatist militias. Corruption 
and complicity in local, regional, and national governments only serve 
to exacerbate this problem.
    A key challenge is drug use in Western Europe, and smuggling of 
drugs through Western Africa and Eurasia to the area of consumption. 
European cocaine use is at an all-time high (1.5 million users) and 
Europe is now the second most important destination for cocaine in the 
world.
Weapons of Mass Destruction
    On the periphery of the EUCOM's AOR, Iran's continued nuclear 
program poses a potential risk to U.S., NATO, and partner interests. 
Ballistic missile threats to the EUCOM AOR are well-researched. Russian 
ballistic missile programs are historically documented, well 
understood, and continually reviewed for changes. Evolving threats from 
nations such as Iran pose new challenges. Furthermore, in Europe and 
Eurasia, there are stockpiles which are vulnerable to international and 
internal threats posed by corruption, criminal activity, or rogue 
actors. Strategic weapons, including conventional missiles, WMD, and 
weapons of mass effect are capabilities sought after by our adversaries 
who desire the capability to attack the U.S., its allies, and its 
strategic interests.
                         u.s. european command
    The U.S. EUCOM's developing Strategy of Active Security addresses 
the unique problems of EUCOM's nations and regions and the illegal 
networks that span those nations and regions. The goal is to 
marginalize the enemies of peace and foster the growth of good 
governance, strong institutions, and civil society that promotes 
lasting security and stability. Our strategy addresses theater 
challenges and opportunities by employing the full range of military 
activities, from building and sustaining peace to prosecuting war if 
necessary.
EUCOM's Support to the Global War on Terror
    EUCOM's number one theater-wide goal is to defeat transnational 
terrorist entities and violent extremists that threaten the U.S., its 
allies, and interests. We seek to do this by denying them freedom of 
action and access to resources, building partner capacity to combat 
terrorism, and working with partners to promote regional stability and 
diminish the conditions that foster violent extremism. We focus on 
deterring and defeating these imminent threats across our AOR, 
stretching from the Caucasus, through U.S. Central Command's (CENTCOM) 
Middle East, across North Africa and into the Gulf of Guinea.
Regional War on Terrorism
    Operation Enduring Freedom-Trans-Sahara (OEF-TS) is the Department 
of Defense component of the Department of State's Trans-Sahara Counter 
Terrorism Partnership (TSCTP). TSCTP is a ground-breaking program that 
seeks to leverage the capabilities of those U.S. Government agencies 
involved in building security on the African continent, with an 
emphasis on counterterrorism (CT) in North Africa. TSCTP seeks to 
maximize the return on investment by implementing reforms to help 
nations become more self-reliant in security and more stable in 
governance. OEF-TS--the military component--uses Special Operations 
Forces (SOFs) to train partners on the conduct of CT operations.
    The need for TSCTP stems from concern over the expansion of 
operations of Islamic terrorist organizations in the Sahel region, a 
region that approximates the size of the United States. OEF-TS is a 
preventive approach to combat terrorism and enhance partner nation 
border security and military capabilities in Trans-Saharan Africa. It 
is designed to assist governments seeking better control of their 
territories and to prevent terrorist groups from utilizing the vast 
open areas as safe havens.
    TSCTP's overall approach is straightforward: to build indigenous 
capacity and facilitate cooperation among governments in the region. 
Participating nations: Algeria, Chad, Mali, Mauritania, Morocco, Niger, 
Senegal, Nigeria and Tunisia. These countries have joined in the 
struggle against Islamic extremism in the Sahel region. OEF-TS builds 
upon the successful 2002 Pan-Sahel Initiative which helped train and 
equip forces in four Sahel states: Mali, Mauritania, Niger, and Chad. 
OEF-TS is a follow-on complementary effort, more ambitious in both 
programmatic and geographic terms.
    This cooperation strengthens regional counterterrorism capabilities 
and assists participating nations in halting the illegal flow of arms, 
goods, and people through the region. OEF-TS has the added effect of 
institutionalizing cooperation among the region's security forces and 
reinforcing the military's subordinate role to democratic governance. 
It also helps nations better protect vast borders to contribute to 
common security.
    In the past, instability in Africa has often required costly, 
reactive, and repeated interventions (e.g., Liberia). An upheaval in 
one nation has often resulted in destabilizing neighboring states. 
Today, in an age of globalization, the damage individual states or 
groups within those states can do is unprecedented. For a relatively 
small investment, TSCTP has the potential to produce significant, 
positive results in countering terrorism. It can be a powerful brake on 
future terrorist expansion.
Security Cooperation
    Security Cooperation (SC) programs remain the cornerstone of our 
Strategy of Active Security to promote common security, which 
ultimately supports national objectives in the global war on terror. 
These programs contribute to building key relationships which support 
U.S. strategic interests, enhance partner security capabilities, 
provide for essential peacetime and contingency access and en-route 
infrastructure, and improve information exchange and intelligence 
sharing.
    Our SC programs represent a proactive approach to building 
partnership capacity with the aim of enabling emerging democracies to 
defend their homelands, address and reduce regional conflicts, defeat 
terrorist extremists, develop common economic and security interests, 
and respond to emerging crises. From airborne to nonlethal weapons 
training, EUCOM personnel and facilities provide practical and state of 
the art training. Assisting our allies and partners in developing their 
capabilities to conduct effective peacekeeping and contingency 
operations with well-trained, disciplined forces helps mitigate the 
conditions that lead to conflict, prepares the way for success, and 
reduces the potential burden of U.S. involvement.
    EUCOM SC efforts require consistent, predictable investment in 
order to impact the multitude of strategic, security, economic, and 
political challenges we face.
Security Cooperation Activities
    Key among U.S. combatant commands' SC tools are programs which 
provide access and influence, help build professional, capable 
militaries in allied and partner nations, and promote interoperability. 
We execute larger security assistance programs using our 44 Offices of 
Defense Cooperation in concert with U.S. Embassy Country Teams, while 
smaller programs are executed by Defense Attaches and Embassy Offices.
    International Military Education and Training (IMET) and Expanded 
IMET (E-IMET) provide education and training opportunities for foreign 
military and civilian personnel. The EUCOM portion of the fiscal year 
2008 IMET request is approximately $40.5 million. IMET remains our most 
powerful SC tool and proves its long-term value every day. For a 
relatively small investment, IMET provides foreign military and 
civilian leaders' access to U.S. military training, builds 
relationships, and enhances influence. Indeed, today's IMET graduates 
are tomorrow's Chiefs of Defense, Ministers of Defense, and Heads of 
State. Today, we continue to see the value of this program in the 
professional development and transformation of militaries in such 
establishing partners as Poland, Tunisia, Romania, and many other 
countries. In Africa, we assess IMET and E-IMET to be the most 
successful programs in promoting democracy and human rights.
    However, we face stiff competition in Africa, most notably from 
China. Beijing clearly understands the importance of building 
relationships to help shape the future landscape of the continent. The 
importance of IMET cannot be overstated, and we seek Congress' help in 
sustaining this excellent program.
    FMF provides critical resources to assist strategically important 
nations without the financial means to acquire U.S. military equipment 
and training. This year's FMF request for nations in the EUCOM AOR 
totals approximately $2.5 billion, of which more than 93 percent is 
earmarked for Israel. FMF is an essential instrument of influence, 
building allied and coalition military capabilities, and improving 
interoperability with U.S. and allied forces. When countries buy U.S. 
military equipment through the FMF program, they buy into a long-term 
commitment with the U.S. for spare parts and training. If FMF funding 
is reduced or forfeited as a result of U.S.-imposed sanctions, long-
term military ties may be affected. A number of strategic EUCOM 
countries face this situation as a result of the American 
Servicemembers Protection Act. An example is the deterioration in our 
SC relationship with South Africa.
    In 1965 and 1978, the U.S. sold C-130 and Boeing 707 aircraft, 
respectively, to South Africa. Due to ASPA sanctions against South 
Africa, we are no longer able to provide spare parts or training under 
the FMF program. One consequence is that South Africa now has very 
limited capability to transport AU peacekeepers into Darfur and other 
peacekeeping missions in Africa. As a result, the U.S. and a number of 
allies must provide air transport at great cost. Another consequence is 
the compromise of our once-solid relationships due to a perception that 
the U.S. is an unreliable and mercurial security partner over the long-
term.
    Foreign Military Sales (FMS) and Direct Commercial Sales (DCS) 
demonstrate our Nation's continued commitment to the security of our 
allies and partners by allowing them to acquire U.S. military equipment 
and training. FMS and DCS sales are vital to improving interoperability 
with U.S. and NATO forces, closing capability gaps, and modernizing the 
military forces of our allies and partners.
    Section 1206 of the National Defense Authorization Act, to Build 
the Capacity of Foreign Military Forces, is an experimental initiative 
provided by Congress in 2006. It couples the authorities of the 
Department of State with the resources of the Department of Defense to 
rapidly build and enhance military capacity of our key allies and 
partners. In 2006, EUCOM was provided over $11 million to build 
intelligence-sharing capacity for Pan-Sahel countries along with 
maritime domain awareness systems for countries in the Gulf of Guinea. 
In 2007, EUCOM has requested funding for innovative Train and Equip 
programs for partners interested in assisting the U.S. in the global 
war on terror and to provide security and stability throughout the AOR. 
This bold effort has laid the foundation upon which SC reform can be 
built. The National Guard State Partnership Program (SPP) continues to 
be one of our most effective SC programs. By linking our States and 
territories with designated partner countries, we promote access, 
enhance military capabilities, improve interoperability, and advance 
the principles of responsible governance. The unique civil-military 
nature of the National Guard allows it to actively participate in a 
wide range of SC activities. For example, the National Guard conducted 
over 89 SPP events and members of the National Guard and Reserve 
participated in over 50 of 150 Joint Contact Team Program activities in 
2006 alone. Both National Guard and Reserve personnel have added depth 
and breadth to our effects in the EUCOM AOR.
    In 2006, Serbia and Montenegro entered into SPP agreements with the 
Ohio National Guard and the Maine National Guard, respectively. 
Enclosure 3 details countries in the EUCOM AOR that have active SPP 
partnerships. Like the comprehensive SPP programs in place in Europe, 
we strongly encourage National Guard units to expand the number of SPP 
relationships with Africa.
    Combating WMD is among our highest priorities as the majority of 
the world's nuclear weapons are located in the EUCOM AOR. In some 
cases, these weapons and their related systems and technology are 
inadequately secured or maintained. The Defense Threat Reduction Agency 
(DTRA) works in concert with EUCOM to cover the entire spectrum of this 
unique mission: Cooperative Threat Reduction programs address the 
nonproliferation of known WMD; detection programs address 
counterproliferation, particularly interdiction of unknown items; and 
DTRA's exercise programs address our consequence management 
responsibilities, reassuring our partners and allies regarding EUCOM 
capabilities.
    Georgia Sustainment and Stability Operations Program focuses on 
enhancing the capabilities of military forces to assist in preparing 
deployments in support of U.S.-led coalition and NATO Operations. The 
utility of this program has been proven in Georgia. U.S. and Georgia 
have developed a solid, cost-effective partnership dedicated to 
promoting peace and stability and countering terrorism. With three land 
force brigades forming the core of their armed forces, Georgia is the 
largest per capita contributor of forces to Operation Iraqi Freedom 
(OIF) after the U.S. Additionally, for the past 3 years, USAREUR has 
provided tactical human intelligence (HUMINT) collection and management 
training to our NATO Allies, to include Lithuania, Estonia, and Latvia. 
Recently, this initiative led to the training of the HUMINT force in 
the Romanian Army and for the last two Balkans rotations has allowed 
Romanian HUMINT teams to be embedded within the U.S. Task Force. We 
look forward to expanding this program to other countries eager to 
build needed military capabilities.
    HIV-AIDS Prevention Programs continue to be an activity of key 
importance within our AOR. EUCOM works with DOD and other governmental 
and nongovernmental HIV-AIDS programs to improve the health and medical 
well-being of the African people. We advocate projects and programs 
sponsored by the country teams and work to incorporate these into our 
theater SC plans. These programs are designed to stem the spread of 
HIV-AIDS and improve the readiness levels of African military units.
    EUCOM is an active participant in the U.S. Humanitarian Mine Action 
(HMA) Program, executed by Departments of Defense and State and the 
U.S. Agency for International Development. HMA assists in relieving the 
plight of civilian populations experiencing adverse effects from 
landmines and explosive remnants of war. EUCOM's efforts span 15 
nations on 3 continents, with a focus on training the trainer and 
providing a mine action force multiplier capacity.
    EUCOM's Clearinghouse Initiatives ensure that U.S. SC actions are 
coordinated with other nations involved in the same region or issue. 
Clearinghouse Initiatives help deconflict programs to avoid duplication 
and find ways to collaborate on matters of mutual interest. They are in 
place for Africa, the South Caucasus, and Southeast Europe, and enable 
interested countries to share information about security assistance 
programs. The goal is to capitalize on limited resources by merging 
various SC programs into a comprehensive, synchronized regional effort.
    Global Peace Operations Initiative (GPOI) is a Department of State 
program, planned in consultation with, and implemented by DOD to train 
and equip peacekeepers. In Africa, GPOI funds supplement the existing 
Africa Contingency Operations Training and Assistance (ACOTA) program 
to provide training, equipment, and logistical capability to meet 
U.N.'s peace operations standards. The bulk of GPOI activities in EUCOM 
lies within the framework of ACOTA, which assists 19 ACOTA ``partners'' 
in developing the ability to participate in peace support operations.
    In the coming months, the ACOTA program will provide multilateral 
battalion and brigade-level training for African sub-regional 
organizations. It will also increase training support to the AU staff 
and forces in joint operations.
    ACOTA remains a crucial African engagement program, directly 
supporting U.S. national objectives of promoting stability, 
democratization, and military professionalism in Africa. GPOI funding 
sustains African peacekeeping forces to enable these units to address 
the multiple crises on the African continent.
    With Caspian Maritime SC, EUCOM seeks to coordinate and complement 
U.S. Government maritime SC activities in Azerbaijan and Kazakhstan. 
Our maritime SC efforts enhance the capabilities of Azerbaijan and 
Kazakhstan to prevent and, if needed, respond to terrorism, nuclear 
proliferation, drug and other trafficking, and additional transnational 
threats in this littoral.
    We are working with U.S. CENTCOM, the DTRA, the Department of 
State, and the Department of Energy to improve Azerbaijan's and 
Kazakhstan's capacities in these vital areas of mutual interest. 
Related projects include providing maritime special operations training 
and equipment as well as WMD detection and response training and 
equipment. We are also assisting in the upgrade of operations centers, 
naval vessels and communications in order to develop rapid reaction 
capabilities. Finally, we are building their capacity to counter 
narcoterrorism and conduct border control training, naval 
infrastructure development planning, and inter-ministry information 
exchange.
    EUCOM has regional centers providing professional development of 
emerging civilian and military leaders, reinforcing ideals of 
democratic governance and stable apolitical militaries, and 
facilitating long-term dialogue with and among current and future 
international leaders. The George C. Marshall European Center for 
Security Studies and the Africa Center for Strategic Studies (ACSS) 
play a central role in our engagement strategy by building trust and 
cooperative relationships with the leaders of nations across Europe, 
Eurasia, and Africa.
    The Marshall Center, co-sponsored by and located in Germany, is the 
preeminent transatlantic security and defense educational institution. 
In addition to offering a robust resident program, the Center is 
working to expand its non-resident activities to provide increased, 
shorter-term focused events conducted in nations across the AOR. The 
Marshall Center alumni network includes approximately 5200 graduates 
from 89 nations who are linked through the Regional International 
Outreach Web site. This network preserves partnership capacities for 
the future with minimal additional investment. Since its inception, 92 
graduates have been promoted to general officer or serve in civilian 
equivalent or senior positions.
    The ACSS counters ideological support for terrorism, fosters 
regional cooperation on security issues, promotes democracy and good 
governance, and assists nations in improving their security. However, 
as the ACSS is located in the U.S, its effectiveness would be enhanced 
by a permanent presence in the region it is designed to influence. A 
significant increase in the effectiveness of the ACSS was achieved in 
the Fall of 2006 when a small regional office was established in Addis 
Ababa, Ethiopia. This office will serve to demonstrate our purpose and 
give Africans a sense of ownership. Additionally, committing personnel 
and resources in these regions enhances relationships with African 
leaders, the AU, and sub-regional organizations by providing a 
continuous, efficient, low-cost presence on the African continent.
    EUCOM's Maritime Domain Awareness initiatives are designed to 
assist partner nations in their efforts to address numerous maritime 
challenges. The West Indian Ocean and Gulf of Guinea regions of Africa 
demonstrate complex maritime challenges such as illicit and criminal 
activity, piracy, environmental and fisheries violations, resource 
theft, and trafficking.
    The nations of the West Indian Ocean region of Africa, with over 
4,750 miles of coastline, have only 25 boats to provide maritime 
security. The region possesses virtually no capability to interdict 
fishery theft, piracy, narco-trafficking, or any other illicit activity 
in the maritime domain. Like the Western Indian Ocean region, the Gulf 
of Guinea region lacks significant naval forces, coastal security 
forces or security structures to provide any meaningful or realistic 
deterrent to the lawlessness that is currently the status quo. These 
threats are particularly relevant to U.S. national strategic interests 
given the Gulf of Guinea's energy potential.
    EUCOM is committed to building strategic partnerships in order to 
expand our warfighting capabilities. Through funding activities such as 
the Coalition Warfare Program, we expect to extend our relationships 
with existing allies, and develop new relationships with countries 
eager to become members of the transatlantic alliance.
    In short, though each region's issues are unique, their needs for 
comprehensive maritime security and domain awareness solutions are the 
same. Through these maritime security initiatives, EUCOM is assisting 
partners to build the naval capacity to effectively combat and counter 
these threats.
Strategic Theater Transformation
    EUCOM is also applying our Active Security strategy towards our 
ongoing transformation. This strategy relies on a mix of forward-based 
and deployed U.S. presence to provide security and stability with 
governments and countries located in the AOR. Our forward-based and 
rotational forces are powerful and visible instruments of national 
influence. Central to EUCOM's efforts is the continuation of our 
Strategic Theater Transformation (STT) plan. This involves a basing 
strategy that seeks to sustain and leverage commitments to our long-
standing allies and U.S. operations in other theaters, such as 
Operation Enduring Freedom (OEF) and OIF.
    EUCOM's STT plan, in execution since 2002, ensures that operational 
forces and prepositioned logistics are correctly postured to meet 
current and potential challenges. We have consolidated forces from 
broadly dispersed locations to Main Operating Bases and Forward 
Operating Sites in the United Kingdom (U.K.), Germany, Italy, Spain, 
Turkey, Greece, Belgium, The Netherlands, Bulgaria, and Romania. 
Currently approved EUCOM plans include retaining two permanently 
stationed brigade combat teams in Germany and Italy respectively along 
with eight fighter aircraft squadrons in the U.K., Germany, and Italy. 
Despite recent political turmoil within Italy, we expect the government 
will continue to abide by its agreement with the U.S. and avoid any 
unnecessary delay in approving infrastructure projects. We will 
continue to monitor the situation closely. EUCOM has requested 
rotational forces in Romania and Bulgaria for Joint Task Force-East 
(JTF-E) using the Global Force Management Process (GFMP).
    The EUCOM AOR has experienced numerous changes in the security 
dynamic. Over the past 4 years since decisions to adjust U.S. Force 
Posture in Europe were made, the Defense Department has embraced 
Theater SC and issued a strategy to guide our operations. The global 
war on terror is now guided by established and approved regional plans. 
NATO is no longer a static defensive alliance, but has commenced a 
transformation in its approach to new and emerging threats that has 
resulted in operations at strategic distance and a serious effort to 
transform its nations' military forces. Our current operations in Iraq 
and Afghanistan have also altered the calculus in EUCOM's ability to 
source forces to address our theater's operational requirements. 
Finally, the decision to establish a combatant command in Africa will 
ensure that our current robust engagement on that continent, especially 
OEF-TS, achieves tangible results.
    These dynamics, individually or in combination, compel us to review 
the previous assumptions and document changes in the security and geo-
political environment to ensure our planned posture fully supports the 
tasks and missions we have been given--to include assessments on 
effectiveness and efficiency.
    In addition to our conventional forces, SOFs help enable EUCOM to 
develop and maintain trust and long-term relationships with partner 
nations as we help build their capabilities and capacities. Rotational 
SOF reinforces our ability to meet operational requirements and conduct 
large-scale exercises involving multiple partners.
    EUCOM Transformation is not only happening in Europe, but in Africa 
as well. EUCOM has identified 13 Cooperative Security Locations (CSL), 
four of which have recently been utilized in support of OEF-TS. These 
CSL's secure our ability to respond to actual or potential future 
instability. CSL sites such as Libreville, Gabon, are located in 
nations where traditional examples of bilateral cooperation exist. 
Sites have also been established through fueling contracts in places 
where EUCOM is seeking increased engagement. CSLs in Africa represent 
minimal investment in infrastructure/operating cost, but provide access 
and broad freedom of action in times of crisis.
    With STT, contributions of the Reserve component (RC) are 
increasingly important in maintaining EUCOM's operational capability. 
On any given day, 4,500 members of the RC, which includes 10 percent of 
the uniformed personnel on the EUCOM staff as well as over 50 percent 
of the community law enforcement for U.S. Army theater-wide 
installations are deployed across the theater.
    EUCOM's STT has been closely synchronized with the Office of the 
Secretary of Defense (OSD), the Joint Staff, Services, and NATO to 
ensure that global efforts of other combatant commands, NATO, and the 
results of the Base Closure and Realignment Commission process in the 
United States are mutually supportive. We have closed 43 bases and 
installations and returned approximately 10,000 servicemembers and 
13,800 family members to the U.S. Subject to developments in the geo-
political environment, by 2012, current plans anticipate the closure of 
several hundred bases and installations, and the return of over 44,000 
military personnel and over 57,000 family members, and the downsizing 
of 14,500 DOD civilians and host nation employee positions.
    Strategically, relocating our forces at the Joint Multinational 
Training Center (JMTC) and at CSL's within our AOR, and establishing 
JTF-East in Eastern Europe, better positions EUCOM forces to conduct SC 
activities and operations with our allies and partners.
Ballistic Missile Defense (BMD)
    As highlighted in the strategic environment, an increasingly 
important aspect of EUCOM's Strategy of Active Security is to defend 
against threats posed by emerging ballistic missile capabilities in 
Southwest Asia. EUCOM is working with the Joint Staff, U.S. Strategic 
Command, and the Missile Defense Agency to help field capabilities, 
consisting of a mix of interceptors, sensors, and command and control 
that will counter this threat. The right combination of these systems 
is vital to protecting U.S. interests and sending a strong signal to 
our partners and allies as well as potential adversaries.
    EUCOM is planning to assist in the deployment of long-range Ground-
Based Interceptors and supporting radars to Europe to enhance the 
defense of the U.S. homeland, U.S. forces stationed in Europe, 
partners, and allies from Intercontinental and intermediate range 
ballistic missiles. While the acquisition and planned/projected 
deployment of these systems to the Czech Republic and Poland will be 
funded through the Missile Defense Agency, the infrastructure 
requirements to support personnel and other site requirements remain 
undetermined. Once resolved, future military construction requirements 
will need to be programmed within the Department of Defense and 
submitted to Congress for its consideration. Additionally, we are 
planning for the potential deployment of AEGIS ballistic missile 
defense capable ships, Terminal High Altitude Area Defense Fire Units, 
and other systems to provide expanded coverage and improved levels of 
protection against Medium and Intermediate range threats. Finally, the 
planned upgrade of PATRIOT forces from PAC-2 to PAC-3 will improve 
EUCOM's ability to defend against short-range ballistic missiles 
significantly.
Component Command Activities
    U.S. Army, Europe (USAREUR)
    For the past several years, USAREUR has aggressively pursued two 
initiatives to strengthen the combatant commander's ability to execute 
the global war on terror and interoperability between the U.S. and our 
allies and partners. First, EUCOM is restructuring the Army posture 
further south and east in Europe to ensure strategic access to 
geopolitically unstable areas and protect lines of communication 
critical to sustaining operations on the front lines of the global war 
on terror. Second, we are promoting the transformation of European 
ground forces into effective expeditionary partners through military-
to-military engagement activities, exercises, and exchanges. 
Substantial progress has been made in both areas despite heavy 
commitments to ongoing conflicts in Iraq and Afghanistan.
    USAREUR remains heavily engaged supporting the global war on 
terror. During the past year, more than two-thirds of the soldiers 
assigned to USAREUR were either preparing to deploy, were deployed, or 
had recently returned from a deployment. V Corps, the warfighting 
headquarters of USAREUR, deployed to OIF as the Multinational Corps-
Iraq Headquarters. The Southern European Task Force (SETAF) served as 
joint task force headquarters, along with the 173d Airborne Brigade 
Combat Team (ABCT) in Afghanistan from March 2005 to February 2006, and 
returns to Afghanistan in June 2007.
    Since 2005, USAREUR has integrated an infantry company into a 
Romanian Infantry Battalion in Afghanistan. USAREUR soldiers have 
conducted two 6-month deployments to the Republic of Georgia to train 
three Georgian Infantry Battalions in support of OIF.
    In line with the transformation of EUCOM's strategic posture, we 
are consolidating the 173rd ABCT at Vicenza, Italy. Additionally, 
USAREUR is establishing FOSs in Romania and Bulgaria to accommodate the 
rotational presence of a brigade-size unit. The JTF-East headquarters 
will represent USAREUR and U.S. Air Forces, Europe (USAFE) in Eastern 
Europe and provide the command, control and support for rotational 
forces. SETAF will man the headquarters for the ``proof of principle'' 
phase of JTF-East in the summer of 2007. The First of the Ninety-fourth 
Field Artillery (1-94 FA) (MLRS) will serve as the training unit for 
that rotation. Subsequent rotational forces will be scheduled through 
the Department of Defense's GFMP. From these FOSs, U.S. rotational 
forces will conduct SC activities and training exercises with our NATO 
allies and partner nations in both bilateral and multinational training 
exercises. When this rebasing process is complete, two-thirds of 
USAREUR's maneuver forces will be positioned in southern and eastern 
Europe, closer to areas of instability in the Caucasus, the Balkans and 
Africa.
    As USAREUR's transformation continues, the end-state will be a 
smaller, strategically mobile force postured to meet the needs of EUCOM 
and other geographic combatant commanders through the GFMP. Future 
transformation efforts include combining USAREUR and V Corps 
Headquarters into a single headquarters--7th Army. In addition to the 
main 7th Army Headquarters, the objective command and control structure 
includes two rapidly deployable JTF capable headquarters. Combat 
capability will be provided by two permanently assigned combat 
brigades, the 2d SCR in Vilseck, Germany, and the 173d ABCT in Vicenza, 
Italy. These two brigades, along with a combat aviation brigade, an 
engineer brigade, a military police brigade, a sustainment brigade, an 
air defense artillery battalion, and a rocket artillery battalion 
comprise the in-theater Army forces that are available for the GFMP.
    Along with the arrival of the 2d SCR in Vilseck, Efficient Basing 
Grafenwoehr (EB-G) project consolidates a majority of the remaining 
permanently stationed Army forces in Germany and co-locates them with 
the Army's best training facilities in Europe. Completion of EB-G 
infrastructure investments will allow for the repositioning of 3,500 
soldiers and begins the closure of non-enduring installations.
    The Government of Italy (GOI) appears committed and approves the 
U.S. plans to base the 173rd Brigade Combat Team (BCT) Joint Task Force 
at Vicenza, Italy. The explicit technical approvals should be signed by 
the GOI in the near future. Plans are in place for the consolidation of 
the six battalions of the 173d ABCT from their current positions in 
Vicenza, Italy, Bamburg and Schweinfurt, Germany, into new facilities 
at Vicenza once all required MILCON has been completed by fiscal year 
2011. This consolidation better positions U.S. forces for SC in regions 
to the south and east of Western Europe. The 173d ABCT expanded into a 
full modular Airborne Brigade Combat Team in 2006. This conversion 
doubled the size of the brigade creating a greater capability for rapid 
deployment and forced entry operations and enhances the brigade's 
ability to sustain itself during joint and coalition operations.
    Additionally, our land forces transformation efforts include 
returning Army personnel, family members, and units from Europe to the 
United States. One brigade of the First Infantry Division headquarters 
returned to the U.S. in 2006. A First Armored Division Brigade and the 
Third Corps Support Command will return to the U.S. in 2007. The 
headquarters and remaining units of First Armored Division will return 
to the U.S. when preparations for receiving installations are complete.
    A key initiative for USAREUR is assisting European ground forces in 
their efforts to break from the Cold War model and become more 
expeditionary. USAREUR is playing a leading role in their 
transformation through a wide variety of SC programs, mission rehearsal 
development assistance, OIF deployment assistance, noncommissioned 
officer development, senior leader interaction, unit partnerships, and 
intelligence sharing. The conversion of USAREUR's training center in 
Germany into the Joint Multinational Training Command (JMTC) has 
greatly contributed to the acceleration of European ground force 
transformation. The JMTC exports high quality collective training, such 
as International Security Assistance Force (ISAF) mission rehearsal 
training to prepare NATO staffs to direct and conduct combat operations 
in support of OEF. The NATO Observer Mentor Liaison Training mission 
trained teams from Germany, The Netherlands, France, Italy, Norway, 
Sweden, Croatia, Slovenia, and Afghanistan to enable them to operate 
and survive in a counterinsurgency environment. This training and 
logistics support has been indispensable to allies and partners which 
have deployed units to Iraq and Afghanistan.
U.S. Naval Forces, Europe (NAVEUR)
    In 2006 NAVEUR moved forward rapidly in executing the vision to 
develop partner nation maritime capability and capacity in areas south 
of the Mediterranean and in the Black Sea to the east and will 
accelerate that trend in 2007.
    Africa continues as an area of increased Naval emphasis. Last year 
our naval presence in Africa was nearly continuous in contrast to 2004, 
a presence limited to some 20 days. The 2006 engagements include the 
deployment of the U.S.S. Emory S. Land, which provided training to 
eight Gulf of Guinea countries, consisting of over 750 African military 
personnel in a variety of subjects, such as: small boat maintenance, 
leadership, and C2 organization. Coupled with Mobile Training Teams, 
these deployments are representative of our future cooperation with 
these nations. Additionally in August 2006, U.S.N.S. Apache conducted 
harbor survey operations in the Port of Monrovia, Liberia, to 
significantly increase the port's capacity to support commercial 
maritime trade. In the summer of 2007, NAVEUR will serve as a test bed 
for the Global Fleet Station concept with the long-term deployment of 
an amphibious ship to the Gulf of Guinea to provide the U.S. an 
opportunity to build upon previously established relationships.
    NAVEUR has made significant progress in the military-to-military 
cooperation with Gulf of Guinea countries. Working with the U.S. 
Department of State, EUCOM, and the ACSS, NAVEUR led a ministerial 
level conference on Maritime Safety and Security in the Gulf of Guinea 
that was attended by representatives from each of the 11 Gulf of Guinea 
nations. The resulting communique provided a framework for future 
regional initiatives with commitments from these countries at the 
ministerial level. The overall goal of these efforts is to develop the 
capacity of Gulf of Guinea nations to provide regional maritime safety 
and security solutions.
    Much of NAVEUR's focus is centered on activities designed to 
positively demonstrate our commitment to maritime safety and security 
by educating and exposing partners to issues and potential solutions. 
These missions require non-traditional skill sets of U.S. Navy 
professionals. Language and cultural training for Navy personnel will 
remain priorities in preparing them for service in the strategically 
important areas of Africa and the Black Sea.
    Maritime Domain Awareness (MDA) is a key building block of maritime 
safety and security. Critical to the success of MDA is the information 
sharing among participating nations on the detection and identification 
of possible maritime threats at sea. The Automatic Identification 
System (AIS) is the first step to achieving MDA and will provide a 
critical foundation to the U.S. Navy's ``Global Maritime Partnership.'' 
AIS shares data similar to the International Civilian Aeronautical 
Organization system used by civilian and military aircraft throughout 
the world. NAVEUR's goal is to bring this system to all maritime 
nations in the EUCOM AOR. Improving MDA and Maritime Interdiction 
capability will result in improved maritime safety.
    In addition to engagement activities, NAVEUR conducts traditional 
naval operations. This was demonstrated in August 2006 when a 
substantial portion of the NAVEUR staff embarked on the Sixth Fleet 
flagship, U.S.S. Mount Whitney, to form the core of EUCOM's Joint Task 
Force-Lebanon (JTF-L). JTF-L took over from U.S. Naval Forces, CENTCOM 
Task Force 59, with the mission of supporting the U.S. Ambassador in 
Beirut during the Israeli-Hezbollah conflict in southern Lebanon. As 
the noncombatant evacuation operation drew to a close, JTF-L provided 
U.S. Embassy Beirut with security, logistical support, and contingency 
evacuation capability, ensuring the U.S. Embassy could continue 
operating throughout the crisis.
    Like its fellow components, NAVEUR is maintaining its ability to 
execute its missions while continuing force transformation. NAVEUR has 
reduced its end strength from 14,000 in 2004 to nearly 8,000 today. The 
departure of the U.S.S. Emory S. Land this October and the pending 
closure of NSA La Maddalena continue NAVEUR's transformation.
U.S. Air Forces, Europe (USAFE)
    Over the last year, USAFE continued comprehensive transformation 
efforts: restructuring and streamlining its major command headquarters; 
enhancing and improving its warfighting headquarters support of EUCOM; 
working on joint transformation initiatives, while continuing to 
conduct current operations and support the global war on terror. USAFE 
also continued to foster Theater SC relationships in key geographical 
areas.
    In 2006, over 4,500 USAFE airmen deployed in support of OIF and 
OEF. USAFE's number one priority continues to be providing 
expeditionary-ready airmen. In addition to providing forces, USAFE 
infrastructure plays a major role in supporting global war on terror 
operations in the EUCOM AOR as well as in support of CENTCOM. For the 
majority of aircraft entering and exiting CENTCOM's AOR, USAFE 
installations serve as the primary en-route support for combat 
aircraft, as well as the mobility aircraft that sustain our ongoing 
operations. Ramstein Air Base, and specifically the 435th Contingency 
Aeromedical Staging Facility, processed over 61,000 patients since 
March 2003, supporting our servicemembers hospitalized at Landstuhl 
Regional Medical Center as well as those returned to the U.S.
    USAFE supported JTF-Lebanon by deploying personnel to man the JTF 
Headquarters and provided medical support with initial primary care 
capability, a level II resuscitative surgery team, and aerial port 
operation, to include air terminal operations center, joint inspection, 
load team, in-transit visibility and equipment maintenance, and was 
prepared to provide KC-135 aerial refueling and C-130 transport 
aircraft. In November 2006, 3rd Air Force and its associated Air 
Operations Center effectively deployed personnel, equipment and 
aircraft to the Baltics to support NATO's Summit in Riga, Latvia. 
Augmenting and enhancing NATO's air policing function in the Baltics 
again demonstrated USAFE's ability to rapidly adapt to multinational 
airspace command and control.
    USAFE, together with USAREUR, is providing warfighter integrated 
constructive simulations with virtual and live fire instrumented 
ranges. This provides theater forces and NATO allies training 
opportunities in both joint and combined operations at the operational 
and tactical level. By linking warfighters in live, virtual or 
constructive scenarios, the Warrior Preparation Center and Joint and 
Multinational Training Center is able to link warfighters from across 
Europe and around the world to each other in conducting exercises and 
training initiatives.
    Consistent with EUCOM's shifting focus to the south and east, USAFE 
has joined with USAREUR in leading the way toward establishment of JTF-
E in Romania and Bulgaria. Leveraging 2002 OIF investments to 
infrastructure in Romania, USAFE will provide a small number of forward 
stationed personnel to support Air Force, joint and combined air and 
ground operations as well as to stage bilateral and multilateral 
engagement exercises.
    USAFE's leadership in SC and the Joint Exercise Program support 
EUCOM's Strategy of Active Security. In 2006, USAFE participated in 438 
SC events in 61 countries, including 24 Joint Staff-sponsored 
exercises. A key example of USAFE's SC engagement was Exercise Medflag 
06, supporting Economic Community of West Africa States (ECOWAS) and 
the Gulf of Guinea region. This USAFE-led joint and combined exercise, 
with strong Reserve component participation, provided medical outreach 
and humanitarian assistance to approximately 14,000 patients in Ghana, 
Nigeria, Benin, and Senegal. Bilateral medical and civil assistance 
training was also conducted with 355 host nation and ECOWAS staff 
personnel.
    SC also extends to the operational arena. In order to further 
interdependence and extend the capacity of limited U.S. Intelligence, 
Surveillance, and Reconnaissance (ISR) assets, USAFE has taken a two-
pronged approach to SC. First, it has almost doubled its traditional 
intelligence exchanges and added new contacts with our partner nations. 
Second, because USAFE currently operates a limited number of airborne 
ISR assets in this theater, it has aggressively pursued working with 
partner nations who have or are developing airborne ISR capabilities. 
ISR collection shortfalls can be partially mitigated by building 
relationships and working with these nations to standardize tactics, 
techniques, and procedures while simultaneously pursuing methods to 
integrate ISR architectures and leverage coalition assets to satisfy 
mutual requirements.
    As part of NATO assistance to the AU in Darfur, USAFE conducted 
airlift for African nations participating in peacekeeping operations. 
In February and April, 2006, USAFE supported the Botswanan Defense 
Force (BDF) with operational airlift mission planning, maintenance 
contingencies, airfield site surveys, and logistics efficiencies. These 
efforts directly supported successful joint BDF and USAFE airlift 
missions to Darfur in September 2006.
    USAFE has added depth to its engagement with the Russian Federation 
Air Force. Starting with a visit to Moscow and their main fighter 
training base, USAFE is developing that high-level relationship that 
will lead to more cooperation along with improved transparency and 
trust.
    USAFE's comprehensive transformation program, critical 
infrastructure, development, wide-ranging SC initiatives, coupled with 
a focus on the joint and combined prosecution of the global war on 
terror, continue to make lasting contributions to EUCOM's efforts 
throughout the AOR. USAFE will continue to be a leader of air, space, 
and cyberspace for EUCOM, its allies, and partners.
U.S. Marine Forces, Europe (MARFOREUR)
    With a small headquarters of approximately 100 personnel, but no 
permanently assigned forces, MARFOREUR integrates its active duty and 
civilian staff with Reserve marines to augment its headquarters 
activities. MARFOREUR supports EUCOM's theater initiatives in OEF-TS; 
participates in numerous SC activities; assists with troops and 
equipment transiting the theater; facilitates strategic pre-positioning 
programs; supports the Regional Medical Center in Landstuhl, Germany; 
and serves as EUCOM's Executive Agent for non-lethal weapons.
    Supporting EUCOM's efforts in OEF-TS, MARFOREUR has been 
instrumental in helping to build the operational-level capacity of the 
militaries in the countries of Chad, Niger, Mali, Senegal, Algeria and 
Morocco. MARFOREUR instituted an intelligence capacity building program 
to close the gap between unit-level intelligence training provided by 
SOF, and the headquarters-level expertise needed to employ those 
tactical forces. MARFOREUR is also providing tactical level support to 
this year's Exercise Flintlock, the premier SOF training exercise in 
OEF-TS.
    MARFOREUR's SC activities provide maximum impact with minimal 
forces. In Africa, efforts are focused upon stability and capacity 
building in key countries through the Department of State's ACOTA 
program where MARFOREUR is one of the largest military contributors. 
MARFOREUR is an important participant in EUCOM's military-to-military 
programs, focusing its efforts in the OEF-TS countries, West Africa, 
the Gulf of Guinea states, and in the Black Sea/Caucasus region. In 
fiscal year 2007, MARFOREUR is expanding its involvement in Africa, and 
plans to conduct two to three events per month over the course of the 
year. MARFOREUR will also provide support to the Humanitarian Mine 
Action program and the International Military Assistance Training Team 
in Sierra Leone.
    Conducting exercises involving units up to the battalion/squadron-
sized level, MARFOREUR supports EUCOM's Joint Exercise Program which 
relies largely on the Marine Corps Reserve. This exercise program 
offers U.S.-based reservists unique annual training opportunities, 
while offsetting the impact of limited Active-Duty Force availability. 
Major exercises conducted by Marine forces include Exercise Shared 
Accord in Senegal, Exercise African Lion in Morocco, and Exercise Sea 
Breeze in Ukraine. Additionally, MARFOREUR was the most active 
component in Exercise African Endeavor, which conducted 
interoperability and capacity building training in the area of 
communications.
    MARFOREUR also facilitates Marine operations in support of OEF and 
OIF. The majority of deploying Marines and Marine equipment and 
supplies pass through Europe--via both air and maritime means--and is 
expedited by the MARFOREUR headquarters staff. In fiscal year 2006, 
some 91,000 marines and 4,000 tons of equipment and supplies flowed 
through the EUCOM AOR. MARFOREUR has also assisted with the deployment 
of our coalition partners to Iraq in support of U.S. efforts in OIF, 
having last year moved 1,150 troops and 40 tons of equipment and 
supplies from Republic of Georgia to Iraq. The two strategic 
prepositioning programs managed by MARFOREUR are largely committed to 
OIF and OEF. Of note, MARFOREUR has facilitated the current deployment 
of about 65 percent of the equipment from the Marine Corps Geo-
Prepositioning Program-Norway (MCPP-N) to the CENTCOM AOR. MARFOREUR 
also helped deploy equipment from the caves of Norway in support of 
JTF-Lebanon.
    The first faces that our wounded Marines see after being evacuated 
out of Iraq and Afghanistan are the MARFOREUR Hospital Liaison Team at 
Landstuhl Regional Medical Center. This extraordinary team facilitates 
the in-theater visits of family members with their wounded marines. 
Since January 2003, approximately 930 marines have been treated at 
Landstuhl.
    As EUCOM's executive agent for nonlethal weapons, our forces enjoy 
a wider range of flexible response options. Nonlethal weapons provide 
another tool to help foster cooperative relationships with countries in 
the AOR. We will continue to expand our nonlethal weapons program 
through Mobile Training Teams, Professional Military Education, and the 
introduction of new and improved technologies.
U.S. Special Operations Command, Europe (SOCEUR)
    Throughout 2006, SOCEUR remained focused on the global war on 
terror. By executing a series of synchronized humanitarian, train and 
equip, and information operations under OEF-TS, the command enhanced 
the security capabilities of partners in the Trans-Sahara region of 
Africa and thereby enabled them to better enforce their sovereignty 
across ungoverned border regions. SOCEUR deployed an assessment and 
advisory team to Chad in response to a crisis in April 2006. SOCEUR 
performed a key role in the interagency effort to ensure security of 
American citizens during the Winter Olympics in Turin, Italy. 
Additionally, SOCEUR components and staff continue to deploy in support 
of Operations OEF, OIF, and the International Security Assistance Force 
(ISAF) in Afghanistan. Finally, SOCEUR has a commitment to the NATO 
Response Force and will soon lead the transformation of NATO's SOF 
capability.
    SOCEUR's main effort in 2006, and for 2007, is support of the 
Trans-Sahara Counterterrorism Partnership through EUCOM's OEF-TS. 
SOCEUR completed its Phase I assessments and analysis and established a 
Joint Special Operations Task Force-Trans-Sahara (JSOTF-TS) that will 
command and control all U.S. and assisting outside partner nation 
military elements participating in OEF-TS. In addition, liaison 
elements in U.S. embassies and Joint Planning and Advisory Teams linked 
to host nation counterterrorism units have been very successful at 
facilitating coordination, solidifying partner nation relationships, 
and ensuring continuity of effort. The austere geographic conditions 
and challenging political nature of working in Africa make the 
environment ideal for specialized SOF. U.S. Army Special Forces and 
Navy SEALs are continuously engaged in the role of training, advising, 
and assisting host nation forces to build capacity and to patrol and 
control vast desert regions. Marine Special Operations Command Foreign 
Military Training Units are adding to security capabilities in the 
theater and the Air Force Special Operations Command is increasing the 
number of Aviation Advisor forces to assist partner Air Forces. SOCEUR 
also deployed Military Information Support Teams to several African 
countries in support of U.S. public diplomacy efforts and conducted 
various Humanitarian Assistance and Civic Action projects targeted at 
reducing the underlying conditions that contribute to violent 
extremism.
    In 2006, SOCEUR conducted a major European counterterrorism 
exercise in the Baltic States to improve multi-national 
interoperability with these new NATO members, further improving 
SOCEUR's contingency response capabilities. In 2007, SOCEUR plans to 
deploy almost 1,000 personnel to Africa for Exercise FLINTLOCK to work 
with our African partners on eliminating terrorist sanctuaries within 
their borders. With major operations ongoing in U.S. CENTCOM's AOR, 
SOCEUR has focused its SC efforts on coalition SOF development. In 
fiscal year 2006, SOCEUR executed 19 Joint Combined Exchange Training 
(JCET) events in 11 different countries, building the capability of 
U.S. and partner nations' Special Forces. The JCETs as well as other 
bilateral and multi-lateral engagement events, targeted primarily OEF-
TS nations, with secondary emphasis on Caucasus and Baltic regional 
partner development and traditional NATO cooperation. In fiscal year 
2007, SOCEUR plans to conduct 47 events with 21 countries across the 
EUCOM AOR.
    SOCEUR continues to promote theater transformation, in particular 
the transformation of NATO SOF. Recently, SOCEUR's role was expanded to 
become the chief proponent for efforts to establish a NATO SOF 
Coordination Center and NATO Federation of SOF Training Centers, both 
intended to develop, organize, and train interoperable SOF across the 
Alliance.
    As SOCEUR recognizes that many of its successes to date have 
resulted from the trust earned from partner nations through focused, 
consistent engagement, we are working closely with U.S. Special 
Operations Command to plan the transition from forward-stationed SOF to 
the new rotational Joint Special Operations Groups under the Global SOF 
Posture. This planning will ensure that rotational SOF are ready to 
support our need for persistent presence in priority countries, 
operational flexibility to respond to emerging crises, and supporting 
our NATO SOF transformation initiatives.
Theater Investment Needs
    Theater Infrastructure
    EUCOM's ability to transform and achieve U.S. national security 
objectives depends in large measure on the investment provided for 
military construction. This investment will also enable the U.S. to 
continue the recapitalization of our Main Operating Bases (MOBs), as 
well as establish new and, by design, relatively austere FOSs in 
Eastern Europe. We are not investing MILCON resources in non-enduring 
installations.
    To continue EUCOM's effort to transform the theater in concert with 
the Department's Global Defense Posture, the fiscal year 2008 
President's budget requests a total of $645.6 million in military 
construction (MILCON) funds for EUCOM (Enclosure 5). This investment 
will enable us to continue the recapitalization of our enduring MOBs, 
as well as establishing new, austere FOSs along the Black Sea. It also 
includes projects that will pay dividends as we divest non-enduring 
bases and consolidate our forces into more efficient communities.
    STT and Operational Programs
    The fiscal year 2008 MILCON request includes $400.1 million for 
five significant STT and operational programs:

        <bullet> $173 million for completion of Army infrastructure at 
        MOB Vicenza, Italy, and continued consolidation of the 173rd 
        Airborne Brigade Combat Team (ABCT), the only split-based 
        brigade in the Army;
        <bullet> $73.6 million for completion of expeditionary Army 
        infrastructure at FOS Mikhail Kogalniceanu (MK) Air Base, 
        Romania and to establish a FOS in Bulgaria in support of Joint 
        Task Force-East, (formerly called Eastern European Task Force 
        (EETAF));
        <bullet> $62 million for completion of Army operational 
        facilities at MOB Grafenwoehr and to complete the Efficient 
        Basing-Grafenwoehr (EB-G) program;
        <bullet> $50.5 million for five USAFE operational projects at 
        MOB Ramstein, Germany and MOB Lakenheath, U.K.;
        <bullet> $41.0 million for National Security Agency (NSA) 
        infrastructure improvements at MOB Menwith Hill, U.K.

    EUCOM Quality of Life (QoL) construction investments affirm our 
commitment to our servicemembers and families. Our request for Family 
Housing renovation and replacement projects and unaccompanied service 
member facilities will ensure our forces are afforded quality housing 
and barracks. Investment in medical facilities ensures our 
servicemembers and their families receive first-rate medical care. In 
addition, continued investment in our Department of Defense Education 
Activity (DODEA) schools provides high quality education facilities for 
tomorrow's leaders.
    Quality of Life
    We are requesting the following QoL projects in the fiscal year 
2008 MILCON request:

        <bullet> $166.8 million for family housing renovation and 
        replacement:
        <bullet> $52.0 million in MILCON funds to construct 138 
        replacement housing units at MOB Ansbach, Germany;
        <bullet> $114.8 million for new construction and renovation of 
        688 housing units to meet the family housing requirements at 
        MOB Ramstein, Germany; FOS Incirlik, Turkey; and FOS Croughton, 
        U.K.
        <bullet> $14.9 million for unaccompanied dormitory at MOB 
        Ramstein, Germany;
        <bullet> $1.8 million as the U.S. cost-share for construction 
        of a dormitory at Albacete, Spain;
        <bullet> $30.1 million to construct a replacement medical/
        dental clinic at MOB Spangdahlem, Germany;
        <bullet> $6.0 million for construction of a gymnasium and 
        classrooms at Brussels, Belgium;
        <bullet> $5.4 million for construction of a gymnasium and 
        expansion of a multi-purpose room at MOB Ramstein, Germany;
        <bullet> $20.5 million for expansion and renovation of 
        classrooms at MOB Wiesbaden, Germany.

    Family Housing in the EUCOM AOR will meet Defense Planning Guidance 
Standards with an additional investment in fiscal year 2009. NAVEUR and 
USAREUR continue to improve their housing inventory through the Build-
to-Lease (BTL) program. USAREUR is in the progress of constructing over 
1,600 BTL houses in the Grafenwoehr area and is planning to construct 
over 215 in Vicenza. All Service components continue to explore 
additional BTL housing opportunities throughout Europe to meet our 
housing requirements.
    EUCOM continues to aggressively pursue the common funding of 
operational facilities for U.S. forces that support approved NATO plans 
through the NATO Security Investment Program (NSIP). NSIP has a long 
history of supporting NATO infrastructure in Europe. In the future it 
will be key to leverage the necessary resources to strategically 
transform NATO from a static posture to one that is flexible and 
expeditionary, able to meet emerging security threats thousands of 
miles from Europe.
Quality of Life (QOL) Programs
    Taking care of our most precious resource, our people, is 
fundamental to the character of the American Armed Forces and a key 
combat multiplier that positively affects our warfighting 
effectiveness. The global war on terror has called for significant 
sacrifices on the part of our servicemembers and places a tremendous 
burden on their families. As we transform our defense posture in 
Europe, our military communities must continue to be able to provide 
predictability and capacity to meet the needs of our soldiers, sailors, 
airmen, marines, civilians, and their families.
    While there are many facets to QOL, few are more important to our 
servicemembers, and their continued service to our Nation, than those 
affecting their families. EUCOM's QOL focus continues to identify and 
improve critical family issues. One identified area of need involves 
providing needed child, youth, and teen services. To that extent, we 
are requesting $3.2 million in ``direct,'' non-construction 
supplemental funding to support the higher costs of doing business in a 
high deployment, transforming environment with few off-base options and 
unique joint service challenges. Off-base child care subsidies at 
remote sites and joint youth/teen summer camps to support at-risk youth 
would benefit from these funds. We are committed to executing MILCON 
requirements by identifying joint support options and construction of 
purpose-built facilities at enduring locations for school age, youth 
and teen programs which promote easy access to services and support 
healthy lifestyles and fitness.
    Family member access to both health and dental care is challenging 
as military facilities must ensure a ready military force. Family 
members must often use services in a local community characterized by a 
different culture, language and medical practice standards. 
Additionally, family members are required to navigate complex insurance 
claim systems which can involve costly upfront payments. These unique 
circumstances overseas dictate reliance on U.S. medical care 
professionals and liaisons to assist in accessing care in an often 
cumbersome system. Our ability to strengthen programs and deploy 
beneficiary awareness campaigns will lead to a healthier community.
    The EUCOM operational tempo has increased counseling service needs 
and thus created shortfalls across disciplines for servicemembers, 
spouses and children. Supplementing overseas counseling through off-
base providers is extremely challenging due to language differences, 
standards of care and the inability to access the OSD sponsored 
Military One Source counseling referral program. We look forward to the 
DOD Mental Health Task Force team visit to the EUCOM theater to assist 
in determining our counseling shortfalls or needed improvements. We 
will continue to provide any service men and women, their families, and 
our support personnel the right services.
    Overseas spouse education and career opportunities remain a 
concern. As employment opportunities are limited and not expected to 
grow, EUCOM and the Department of Defense have partnered in the past 
year to broaden the focus on improving both programs and resources. As 
a result, the Spouses to Teachers program has expanded to include 
European Theater spouses. While that is a step in the right direction, 
there is much more that can be done. Family readiness, and ultimately 
force readiness, can be best served by improving tuition assistance and 
targeted scholarship options for OCONUS spouses.
    The quality of the Department's dependent education programs is a 
major contributor to the quality of life of EUCOM servicemembers. The 
2006 TeraNova standardized test results show DODEA students scored 10 
to 26 points above the national average in all subject areas at all 
grade levels tested (3rd through 11th grades). We are very proud that 
this system is recognized as a benchmark for other public school 
systems and we need your continued support and funding to ensure high 
educational standards are maintained.
    Education is not only important to our students, but also to our 
national interests and our NATO partners. We are most grateful for 
Congress' help to provide educational support for school-aged family 
members of foreign military personnel assigned to Supreme Headquarters 
Allied Powers Europe, in Mons, Belgium, which demonstrates your 
commitment to furthering our joint nation partnership. An international 
education begins the process of bridging diverse cultures and creating 
a joint mission-focused team.
Theater C2, Communications Systems, and ISR
    In much of the EUCOM AOR, terrorist groups and support networks 
exploit international lines of communication with limited interference 
from U.S. and allied security. Moreover, the threat of a potential 
surprise attack on U.S. and partner nations remains very real. To 
minimize an adversary's use of these lines of communication and the 
likelihood or impact of an attack, command and control (C2) and 
communications systems, as well as ISR assets, provide necessary 
preventative and responsive safeguards against such threats. A critical 
investment need relates to the dissemination, analysis, and sharing of 
information. It is imperative that our C2 and communication system 
requirements include information sharing, electromagnetic spectrum 
access, assured information networks, and a robust and reliable 
satellite communications (SATCOM) architecture to operate in today's 
environment.
    Our theater transformation plan places operational forces in 
regions not currently supported on a day-to-day basis by the DOD Global 
Information Grid (GIG). Establishing and sustaining a network and 
information sharing capacity with our allies and partners is a critical 
step to mitigate this problem. We need long-term investment in 
persistent ISR capability with assured electromagnetic spectrum access. 
Using up-to-date collection technologies to find, track, and interdict 
mobile and technologically competent terrorist groups and platforms 
operating within the vast regions of Africa, Europe, and Eurasia, 
including both air and maritime environments, is key to achieving 
information dominance with regard to ongoing and future contingencies.
    SATCOM is a critical enabler to both our information sharing 
initiatives and ISR capabilities. However, with aging military 
communications satellite constellations and the high and growing 
demands on limited satellite availability, all combatant commanders are 
burdened with greater risk in their areas of operation. We need to 
maintain funding for SATCOM programs that meet both near-term 
requirements and the longer term goals of Transformational 
Communications Architecture, maintaining the continuity of current and 
future services.
    Interoperability is crucial in the current operational environment 
because the likelihood of deploying unilaterally is low. EUCOM 
continues to execute the largest command, control, communications, and 
computer interoperability SC events in the world through Exercises 
Combined and African Endeavor. Both the U.S. and partner nations 
successfully used experiences/lessons learned from Exercise Combined 
Endeavor to integrate multinational command, control, and 
communications in Iraq, ISAF, and U.N. Humanitarian Relief missions. 
Likewise, Exercise African Endeavor participants successfully used 
skills developed to support OEF-TS C2 integration efforts. Long-term 
funding is essential to sustain the Endeavor series of exercises which 
enhance multinational interoperability and prepare partner nations for 
U.S.-coalition deployments with 71 of the 92 nations in our AOR. 
Specifically in Exercise African Endeavor, we are working with Africans 
to develop and plan collaborative communications links, as well as 
developing a leadership capable of organizing C2 planning, execution, 
and modernization. In coordination with the Joint Interoperability Test 
Command (JITC), we provide all Endeavor exercise participants a 
resource guide that identifies all known compatibility issues between 
their collective architectures and systems. Groundwork laid today 
through documentation of technical interoperability issues and exercise 
of C2 architectures will prove to be a key enabler to future success 
with multinational forces.
    We need to address the chronic shortage of information assurance 
personnel and the tools needed to defend networks that are critical to 
enabling theater command and control, both for warfighting and 
stability operations. All information professionals must be trained and 
certified to manage DOD networks securely. Information assurance tools 
must be procured in an enterprise-wide managed manner that operates 
across spectrum of conditions.
Strategic Mobility and Maneuver
    Our ability to respond rapidly to crises depends greatly on 
strategic lift. The distance from central Europe to southern Africa is 
equivalent to that between Europe to California. This vast distance, 
combined with limited civilian rail, road, and air transportation 
infrastructure, constrains the full range of EUCOM engagement and 
contingency activities. Due to the expanse of the African continent and 
our desire to engage in Eastern Europe, we are expanding our enroute 
infrastructure system to respond to emerging contingencies in the 
underdeveloped regions of Africa and Eastern Europe.
    The requirement to deploy troops and cargo rapidly across Africa 
and Europe has increased dramatically. The size of the EUCOM AOR and 
our operational experience requires strategic reach for intra-theater 
operations. EUCOM's fleet of C-130s does not possess the range or 
capacity to support rapid movement of forces throughout our theater.
Prepositioned Equipment
    Continued support of the Services' Prepositioned War Reserve 
Materiel (PWRM) programs demonstrates commitment through presence and 
provides a broad spectrum of traditional crisis response and irregular 
warfare options globally. As EUCOM and the Services transform and 
transition to a more expeditionary posture, there is a heightened need 
for PWRM equipment sets in strategically flexible locations.
    All four Services maintain PWRM in EUCOM's AOR, either on land or 
afloat. Attesting to the value of this program, and as validation of 
its continuing requirement in the EUCOM AOR, much of these stocks have 
been drawn down to support OEF and OIF and will not be reset prior to 
the end of combat operations. Over two-thirds of the Marine Corps 
Prepositioning Program-Norway (MCPP-N) and the Maritime Prepositioned 
Force (MPF) programs have directly supported OIF and OEF with weapon 
systems, ammunition, and equipment. Additionally, the Department of the 
Army's Heavy Brigade Combat Team prepositioned set at Camp Darby near 
Livorno, Italy, has also been used to support OIF and OEF. 
Reconstitution and reconfiguration of these programs are essential to 
support future contingency operations while improving our flexibility 
to support irregular warfare and Theater SC initiatives.
    Continued service investment against this capability is necessary 
to ensure that a fully flexible range of options remains available to 
combatant commanders globally. EUCOM is actively involved in DOD-led 
studies examining the global disposition of PWRM and is working to 
ensure our strategic direction and operational requirements are 
incorporated in the study reviews and ultimately in an overarching DOD 
PWRM strategy.
Enhancing EUCOM's Mission
    Congressional support enables EUCOM to perform a wide range of 
operations and engagement that advance U.S. national interests 
overseas. Beyond the provision of budgetary funding and authorities, 
your oversight has been and will continue to be indispensable as EUCOM 
continues to represent U.S. commitment to its European and African 
allies and partners.
    There are three principal areas where legislative assistance would 
yield a considerable increase in the capabilities of combatant commands 
to affect change and achieve goals throughout the AOR: support a U.S. 
long-range Ground-Based Missile Defense site in Europe, provide 
combatant commanders budgetary flexibility, and reform the current SC 
structure to allow for more rapid and responsive activities.
    Long-Range Missile Defense, a U.S. long-range Ground-Based Missile 
Defense site in Europe is necessary to enhance the defense of the U.S. 
homeland, U.S. forces stationed in Europe, partners, and allies from 
intercontinental and intermediate range ballistic missiles. The 
Department of Defense recommends continued congressional support to 
provide funding for a ground-based interceptor site and supporting 
radars in Europe. Congressional support for associated MILCON will also 
be needed once planning has progressed to the point that detailed 
estimates are available.
    Combatant Command Budgetary Authority Flexibility is essential to 
maximize combatant command responsiveness and agility in confronting 
the constantly changing geostrategic landscape in which we operate. 
Budgetary authority flexibility does not require an increase in the DOD 
top line, but rather a redirection of resources to align the financial 
authorities with the operational responsibilities of the theater 
commander.
    One recent example of this is the Department of Defense's 
consolidation of joint training resources to establish the Combatant 
Commander's Exercise Engagement and Training Transformation (CE2T2) 
program under a single Defense-wide account. The DOD, the Joint Staff 
and COCOMs believe this will effectively align joint training 
initiatives that enhance the ability of the COCOM to conduct necessary 
joint training. This initiative may provide an example for how to 
provide more effective constructs for future COCOM resource 
flexibility.
    Reform of the SC Structure is crucial to streamline the process 
where geographic combatant commanders (GCCs), in coordination with the 
interagency, plan and conduct SC activities. We need reforms that will 
significantly improve our ability to help friendly nations develop 
capabilities to better govern and defend themselves and to work 
effectively in concert with our forces. A reformed SC structure must 
increase the speed and efficiency with which we can start programs to 
meet emerging requirements and ensure we have the right material on 
hand. It must assist our partners deploying alongside or instead of our 
own forces with logistical support and equipment. It must enhance 
mutual understanding and build relationships by increasing shared 
education, facilitating common doctrine, and increasing our ability to 
work closely with allies through international institutions. It must 
also increase our flexibility for both planned humanitarian and 
stabilization activities and for commanders to provide immediate 
assistance during operations to meet the critical needs of local 
populations.
    There are a number of programs and activities over which the GCC 
currently has been assigned responsibility for execution but it has 
little to no influence or control due to its inability to control 
prioritization and allocation of resources. Additionally, there exist 
government and nongovernmental organization (NGO) programs of which the 
GCC has limited visibility. Better synchronized policy and legislative 
lines of authority are necessary to achieve greater efficiencies within 
the interagency. This synchronization will lead to a more effective SC 
process.
    Specifically for the combatant commander, SC initiatives 
conceptualized in the field often require nearly 3 years to move 
through the interagency approval and resource allocation process. 
Additionally, our unwieldy SC processes are increasingly compelling 
nations to turn elsewhere for their security assistance needs, thereby 
reducing America's overall influence in the region and providing 
``strategic opportunities'' for near-peer competitors, especially in 
Africa.
    Legislation geared toward streamlining current title 10 and title 
22 SC authorities would certainly increase the agility and 
effectiveness of the designated agency responsible for executing these 
programs. Section 1206, Building Capacity of Foreign Military Forces, 
legislation enacted in 2005, is a step in the right direction and could 
serve as a framework for a more comprehensive SC reform effort. An 
improved process will better achieve our Nation's foreign policy 
objectives.
                        africa command (africom)
    Africa is becoming a continent of increasing strategic importance 
to the U.S. and our allies. Africa's vast potential makes African 
stability a near term strategic imperative. It is in our national 
interest to help Africa achieve broadbased and sustainable economic, 
security, political and social development. The DOD, in collaboration 
with other U.S. agencies, is seeking more effective ways to mitigate or 
respond to humanitarian crises, sustain African unity and stability, 
and improve cooperation on such transnational issues as terrorism and 
HIV-AIDS. There is little doubt that Africa will occupy an increasingly 
larger amount of our national attention in the years ahead.
    As announced by the President and the Secretary of Defense on 
February 6, 2007, the U.S. will work aggressively with our interagency 
partners, allied nations, and African regional organizations to advance 
our common interests and values through the establishment of a new 
Unified Command focused on the African continent. We are currently in 
the throes of considering adaptive and nontraditional options to 
optimize collaboration with interagency and coalition partners, 
regional security organizations, international organizations, and NGOs. 
This headquarters is projected to contain an innovative mix of U.S. 
military, DOD civilians, U.S. Government, and international partners.
    While the eventual goal is to establish Headquarters, U.S. Africa 
Command on the African continent, there are no plans envisioned in this 
effort to base operational U.S. forces in Africa. The kinds of 
rotational forces deployed will be largely based on the capabilities 
needed to counter the challenges Africa faces--among them humanitarian 
assistance, disaster relief, security sector reform, and 
counterterrorism. They will work with host nations to build up African 
militaries, as well as reinforce the importance of civilian control 
over the military.
                             eucom and nato
    We recognize that many of the challenges in the current security 
environment exceed the capacity of any one nation to resolve and that 
today's threats require a comprehensive approach by the international 
community, involving a wide spectrum of civil and military instruments. 
EUCOM's efforts are coordinated and complementary with a broad range of 
national, international and regional actors. Most notably, EUCOM is the 
focal point of the U.S. military commitment to the NATO Alliance. 
Across the NATO Military Command Structure, U.S. military leaders are 
privileged to hold key positions of influence, helping to develop the 
Alliance agenda and execute its operations (See Enclosure 6).
Operational Imperatives within the Alliance
    NATO's contributions to both current and future security challenges 
consist of a wide range of initiatives and practical activities. While 
political consultations among nations help sustain a unity of purpose, 
men and women of the Alliance plus 16 other troop-contributing nations 
are essentially redefining the role of NATO by their actions in 
operations across Afghanistan, the Balkans, the Mediterranean, Iraq, 
the Baltics, and Africa. The 50,000 deployed NATO military forces 
currently under my command as Supreme Allied Commander Europe (SACEUR) 
are a visible and effective demonstration of NATO's resolve to meet 
both in- and out-of-region security challenges collectively.
    International Security Assistance Force (ISAF) remains NATO's most 
important and challenging mission. With over 36,000 forces, including 
almost 15,000 soldiers, sailors, airmen, and marines from the United 
States, the Alliance has responsibility for ISAF operations throughout 
Afghanistan. Working alongside an additional 12,000 U.S.-led coalition 
forces of OEF and other international actors, ISAF's mission is to 
provide security and stability until Afghan National Security Forces 
(ANSF) are trained and capable of doing so. The 25 Provincial 
Reconstruction Teams (PRT) under ISAF are the leading edge of NATO's 
efforts for security and reconstruction, supported by military forces 
capable of providing the security and stability.
    The Kosovo Force (KFOR) mission continues under NATO leadership, 
with the U.S. contributing just over 10 percent of the 15,800 KFOR 
troops currently in Kosovo. KFOR remains committed to maintaining a 
safe and secure environment while the political process to determine 
the future status of Kosovo continues to run its course. U.N. Special 
Envoy Ahtisaari has presented his final report with the proposed Status 
Settlement to the U.N. Security Council for their consideration. NATO 
forces are prepared to respond quickly to security contingencies and 
fully expect to play a significant role in the implementation of the 
security provisions of a Status Settlement. We expect that NATO forces 
will remain in Kosovo as the designated International Military Presence 
(IMP) to provide a safe and secure environment, in conjunction with the 
International Civilian Presence (ICP) and in support of Kosovo 
institutions, until such time as those institutions are capable of 
assuming responsibility for Kosovo's security.
    Operation Active Endeavour (OAE), the only operation currently 
conducted under Article V of the Washington Treaty, is focused on 
defending against terrorist-related threats in the Mediterranean. 
Maritime forces of OAE are patrolling sea lines of communication, 
sharing relevant intelligence and information with littoral nations, 
escorting ships, and conducting compliant boarding of suspect ships, 
when required. The first non-NATO contribution to this mission occurred 
in September 2006, when a Russian frigate was employed as part of a 
NATO Task Force. Additionally, we expect to integrate Ukrainian assets 
in OAE in 2007. Algeria, Israel, Morocco, Georgia, Croatia, and Albania 
are also involved in exploring ways they may contribute to this 
mission.
    NATO's Training Mission-Iraq (NTM-I) The Alliance supports Iraqi 
security forces through training, both in Iraq and at educational 
facilities across Europe. Its training efforts complement the work of 
the U.S.-led Multinational Security Transition Council (MNSTC-I). NATO 
focuses on strategic and operational level training, strengthening the 
Iraqi Training and Doctrine Command, and providing command and staff 
training for mid-level and senior officers. Additionally, NATO has 
facilitated the acquisition and delivery of military equipment donated 
by NATO nations for use by Iraqi security forces. We expect that future 
efforts will likely include gendarmerie training.
    African Mission in Sudan (AMIS) NATO has assisted the AU with 
expanding its AMIS peacekeeping mission in Darfur by providing airlift 
for troop rotations of peacekeepers, and staff capacity-building 
activities in key AU headquarters, and deploying mobile training teams 
to work with their AU counterparts. NATO's capacity-building approach 
to increase stability and security on the continent complements EUCOM's 
efforts to deliver long-term effects with minimal, focused resources.
NATO Transformation
    In parallel to EUCOM's transformation, NATO is embracing an 
ambitious transformation agenda to develop more agile, flexible, and 
expeditionary military forces. Allied Command Transformation (ACT), 
NATO's strategic headquarters based in Norfolk, Virginia, has the lead 
role in developing concepts and managing NATO transformation programs. 
It is in our Nation's interests to ensure that our collective efforts 
are complementary and contribute to joint and multinational 
interoperability.
    The NATO Response Force (NRF), an initiative proposed by the U.S. 
and adopted by the Alliance at the 2002 Prague Summit, is a vital part 
of the Alliance's ability to rapidly respond to emerging crises and 
conduct the full range of military missions at strategic distances. 
This joint and multinational force further serves as a catalyst for 
transformation and interoperability, improving NATO's expeditionary 
capability in key areas such as multinational logistics and deployable 
communications. Following a comprehensive and successful live exercise 
in June 2006, with further contributions of critical capabilities by 
nations, NATO declared at the Riga Summit the NRF to have attained Full 
Operational Capability (FOC). At FOC, the NRF is capable of deploying 
at strategic distance and supporting the full range of potential 
Alliance missions, to include evacuations and disaster management, 
counterterrorism, and acting as an initial entry force for a larger, 
follow-on force. The future viability of the NRF, as it is currently 
structured, will depend on member nations' willingness to resource the 
necessary forces and commit to a more realistic structure of common 
Alliance funding to support the NRF. Challenges remain in securing 
adequate Alliance commitments to fill future 6-month NRF rotations, 
particularly with respect to critical logistics, communications, and 
support capabilities. EUCOM provides a substantial part of the U.S. 
force and operational enabler contributions to the NRF.
    At the 2006 Riga Summit, NATO nations approved the SOF 
Transformation Initiative, aimed at increasing the capabilities of SOF 
forces throughout the Alliance. EUCOM's Special Operations Command 
(SOCEUR) actively leads this effort to achieve closer cooperation, more 
effective training, and increased interoperability with the intent of 
strengthening NATO's SOF capacity.
    EUCOM has additionally served as the lead agent in establishing an 
Intelligence Fusion Center, co-located with the U.S. Joint Analysis 
Center at Molesworth, England. This multi-national center, formally 
activated in 2006, will improve information and intelligence sharing in 
support of Alliance operations.
    One of NATO's most significant transformation initiatives is the 
decision to develop new capabilities for strategic airlift. In 2006, 
nations agreed to purchase three, perhaps four, C-17 aircraft to be 
flown by multinational crews with a multinational command and control 
structure. The goal is to receive the first C-17 aircraft in late 2007, 
with full operational capability in 2009, operating out of Ramstein Air 
Base in Germany. The 16 nations participating in the program will use 
the aircraft to address national airlift requirements. While these 
airlift missions will often be used for requirements of a strictly 
national character, they will also support NATO operations or other 
international obligations.
Partnerships and Engagement
    As with U.S. national engagement initiatives, there is a strategic 
value to NATO's partnership framework. The varied partnership 
mechanisms in place continue to deepen and broaden to meet both NATO's 
new priorities in the evolving security environment as well as the 
aspirations of the Nations with which the Alliance engages. Partnership 
programs and initiatives cover the full spectrum of efforts, to include 
promoting dialogue with interested nations, building stable democratic 
structures, and developing defense capabilities that are interoperable 
with those of NATO. EUCOM provides the preponderance of U.S. forces 
that contribute to the success of many of these Alliance programs, most 
notably the Partnership for Peace (PfP). Building upon the success of 
the program to date, Serbia, Bosnia-Herzegovina, and Montenegro are now 
full members of the PfP.
    NATO additionally maintains special relationships with Russia and 
Ukraine. NATO's establishment of Military Liaison Missions in Moscow 
and Kiev has improved communications and facilitated day-to-day 
coordination of activities. Notably, Russia, a Partner Nation, has a 
full delegation of personnel permanently assigned to my NATO 
headquarters at Supreme Headquarters Allied Powers Europe. The U.S. 
military-to-military relationship with Russia, both bilaterally and in 
the NATO-Russia context, aims to develop and institutionalize the 
ability of Russia to operate alongside NATO forces to address common 
security issues, such as the defense against terrorist threats. Our 
ambitious agenda for practical cooperation with Russia has not yet been 
realized, in part due to the failure of the Duma to ratify the PfP 
Status of Forces Agreement, which would allow Alliance forces to 
exercise on Russian territory.
    NATO remains an Alliance committed to the common defense of its 
member states. It increasingly recognizes the concept of common 
security, a broader and more comprehensive view of security in an 
interdependent world where the threats are non-traditional and more 
global in nature. In a strategic environment marked by terrorism, 
failed states, and the proliferation of WMD, common security is an 
absolutely essential factor in achieving individual national security. 
NATO is well-placed and, with the proper resources and political will, 
capable of accomplishing great things. It is in our national interest 
to ensure that NATO succeeds.
                               conclusion
    The United States EUCOM is fully and actively engaged in addressing 
the challenges of this diverse and expansive AOR. Even as EUCOM 
supports combat operations in other theaters, we are transforming our 
posture to shape the evolving security landscape in our AOR.
    While the U.S. military can help set the conditions to create a 
stable environment, it is but one part of the effort required to 
achieve lasting, effective solutions. New and deepened partnerships 
within the U.S. Government and among combatant commands are required to 
more dynamically counter the transnational trends and issues which 
define our theater: threats of terrorism and WMD, frozen conflicts, 
unresolved territorial disputes, complex geopolitical relationships, 
humanitarian needs, and disease. Moreover, global partnerships are 
required to better counter the threats to our collective security. 
EUCOM remains committed to working with European, African, and Eurasian 
partners in collaborative efforts that meet our common security 
challenges. Finally, the leadership and the capabilities our Nation 
contributes to the NATO Alliance will remain fundamental to preserving 
trans-Atlantic security, now and into the future.
    Global posture shifts and U.S. military transformation have 
fundamentally changed our strategic positioning in the EUCOM theater. 
These efforts will culminate in a force posture capable of operating 
across the broad spectrum of conflict. The success of our engagement 
hinges on ensuring the presence of relevant capabilities in our 
theater. In parallel to EUCOM's transformation, NATO is restructuring 
itself to become more expeditionary and able to operate at strategic 
distance, as evidenced by its current deployments of over 50,000 troops 
on 3 continents.
    Continued congressional support for our efforts is essential to 
ensuring EUCOM is capable of effective engagement and sustained support 
to the Alliance and our regional partners to meet the broad tasks 
assigned to EUCOM in the National Military Strategy. The assistance of 
the members of this committee is essential in ensuring EUCOM's 
effectiveness in its ongoing programs, operations, and initiatives. The 
dedicated men and women of the United States EUCOM are committed to 
achieving our national goals and objectives.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Levin. Thank you so much.
    I think we'll try an 8-minute round and see how it goes, 
before we're interrupted by votes.
    General, in testimony before the House Armed Services 
Committee--I believe it was in March 2007--you expressed 
reservations about the significant proposed reduction of U.S. 
forces that were stationed in the EUCOM AOR. Under the 
restructuring plan that had been announced in 2005, the number 
of U.S. troops stationed at the main operating bases in Europe 
would be cut from over 100,000 to around 60,000 soldiers. Since 
then, your command has been committed to providing forces in 
support of rotations in Iraq and Afghanistan.
    There is going to be an increase, we believe, in the size 
of the Army and Marine Corps, and the Army proposes to create 
six new light infantry combat brigades. Given the role of our 
forces in Europe, and the role that they play in operations in 
Afghanistan and Iraq, would it be in our strategic interest to 
base one or more of those six additional brigades in Europe, 
where they are easily deployable to the Central Command 
(CENTCOM) region, or perhaps to the new Africa Command 
(AFRICOM) region?
    General Craddock. Thank you, Mr. Chairman.
    I have asked--and tasked, actually--the staff of EUCOM to 
do a study to determine--I call it a troop-to-task study--if 
the forward-deployed forces available to EUCOM are adequate to 
the task and missions assigned by the Department. When I took 
over--knowing that we were in the midst of a theater 
transition, in terms of downsizing, I acknowledge that--the 
first few months, as I went about my duties and visited other 
countries, I was continually asked questions, struck by the 
engagement with chiefs of defense and ministers of defense of 
nations of NATO, primarily, among others, as to why it is that 
we were still not--``we,'' EUCOM and the components there--not 
exercising and engaging, exchanging troop units on a regular 
basis for training, as we had done in the past. This was not 
occasionally, this was a persistent theme, both with the new 
NATO states and others.
    I then looked at the exercise schedule over the past 
several years that the components and that EUCOM does, and I 
looked at the reduction in the number of exercises, and I 
looked at the cancellation rate in the execution year of the 
number of exercises. I became concerned that right now the 
major task assigned to EUCOM is theater security cooperation, 
and that is building partner-nation capacity, in Europe, 
Eurasia, and Africa. I was uncertain at the time, and remain 
uncertain, that we have adequate forces to do that. As you 
said, we are providing forces for Iraq and Afghanistan. So, 
I've tasked the command to study that, to come back and 
validate the assumptions made, and the assessment of the impact 
of the changing geopolitical system. I expect the results of 
that within about the next 10 days, and then I will look at 
that, and, if we have adequate forces, then we will go about 
engaging, to the maximum extent; if not, I'll report to the 
Secretary of Defense my findings.
    Chairman Levin. Thank you. Relative to Afghanistan, now, 
are there shortfalls in meeting NATO's Afghanistan mission 
requirements?
    General Craddock. Yes, Mr. Chairman, the requirements for 
troops is governed by a combined joint statement of 
requirements. There is a troop list there. It has not been 
fully sourced by the NATO nations. We continue to engage with 
the nations routinely, both personally, my engagement with 
chiefs of defense, and through Supreme Headquarters Allied 
Powers Europe, my headquarters, with national entities, to gain 
further subscription by NATO forces to fill up that 
requirement.
    Chairman Levin. How far short are you?
    General Craddock. I don't want to get into numbers.
    Chairman Levin. All right, that's fair.
    General Craddock. But roughly three to four battalions, I 
think, would be main force, and there are some other shortages.
    Senator Warner. Could he give the percentage, then, of the 
total projected force, what that represents?
    General Craddock. Senator, it's very difficult, because 
we're dealing in capabilities here, and oftentimes, there are 
very small units that have enormous enabling capabilities, such 
as forward air controllers.
    Chairman Levin. Are we saying roughly 5 to 10 percent? 
Would that be a fair estimate of the shortfall?
    General Craddock. I would say, as a minimum, 5 to 10 
percent.
    Chairman Levin. As a minimum, all right.
    One of your first tasks as Supreme Allied Commander Europe 
was to provide an assessment of military requirements, as we've 
just talked about. The assessment which was made was promised 
to us--it was called a combined joint statement of 
requirements, and that was promised to us at a March 1 meeting, 
where I think Senator Warner requested that the committee be 
provided with a copy of that assessment. Can you make sure that 
we get a copy of it?
    General Craddock. I will, Mr. Chairman.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Chairman Levin. All right.
    I'd like to ask you a question about civilian deaths. 
There's been a series of incidents involving U.S. air strikes, 
or attacks by SOFs, that are reported to have resulted in the 
deaths of at least 90 civilians over the last month. According 
to the news reports, the issue of civilian deaths is leading to 
tensions between our commanders and the NATO commanders who are 
concerned that NATO forces are being blamed for deaths 
resulting from U.S. counterterrorism operations. In early May, 
President Karzai, of Afghanistan, declared that his government 
can, ``no longer accept the civilian casualties resulting from 
U.S.-led operations.'' Are you concerned about this issue, this 
problem, and by the reports of growing Afghan resentment and 
NATO tension over civilian deaths? What steps are you taking in 
response to those concerns?
    General Craddock. I am always concerned about noncombatant 
deaths. Obviously--I hope it's obvious, it is to me and to the 
chain of command--we work very rigorously to ensure that the 
coordination that is needed is done in every instance. The fact 
that it happens in a combat zone is unfortunate, but it is a 
very complex combat zone, with asymmetrical attacks by forces 
that oftentimes are hard to identify, because they are not 
uniformed and they're not conventional forces. I do not think 
that there is a tension--I'm unaware of a tension, if you will, 
between coalition and NATO commanders. I think that there is 
always room for greater cooperation and coordination, and 
that's what we need to focus on. I know of no fingerpointing. 
But I do know that there are occasions where, when one or the 
other of those forces is surprised and engaged in an operation, 
and they need to call for assistance from the other force, then 
we have to do so, we have to coordinate it, and work it to the 
best of our ability. So, we've redoubled our efforts to do 
that. I've talked to the Commander of International Security 
Assistance Force (ISAF). I have talked to Admiral Fallon at 
CENTCOM. We both agree we need to ensure we retain good 
visibility on that, that we bore into the tactics, the 
techniques, and the procedures for that.
    Now, the last part is, with regard to the feelings of the 
Afghan President Karzai.
    Chairman Levin. Just add to that part of President Karzai--
it would seem to me that these casualties would harm our 
efforts to win the hearts and minds of the people of 
Afghanistan for the mission. I'm sure that it's being used by 
the Taliban in support of their goals. Can you talk about 
whether or not these civilian losses have made it more 
difficult for our hearts-and-minds effort?
    General Craddock. It's my assessment that they have. I 
think that we need to redouble our efforts to avoid that. We 
need to ensure there is no collateral damage, to the extent 
that we can ever ensure that. I think we are working towards 
that end. We do know--it's documented--that people of 
Afghanistan are now talking about the Taliban using their homes 
and their villages as a safe haven when they're under duress. 
So, this is not a black-and-white situation, and we just need 
to understand it better and make better decisions.
    Chairman Levin. Thank you. My time is up.
    A 15-minute roll-call has just begun. We just need to keep 
that in mind, and see how this works out here.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    I want to follow on the chairman's question about the 
civilian deaths and the impact on the image of our Nation and 
other NATO nations who are trying to work towards supporting 
the sovereignty of Afghanistan.
    Are not some of the contributing causes in this complex 
formula, one, the shortfall in the full complement of NATO 
forces, and those forces were primarily ground-operated forces, 
so they could be doing ground operations. Given that shortfall 
and the complexity of the national caveats preventing those 
ground forces from performing the tough assignment of 
extracting Taliban from villages and houses, thereby 
necessitating a greater use of air assets, and the utilization 
of the air assets that apparently is contributing to a 
significant part of the deaths of civilians. I just see all of 
this interrelated.
    Now, do you find it interrelated?
    General Craddock. Senator, to an extent, yes, I do. I agree 
with your first point, the shortfall of NATO forces. If we had 
full sourcing of the statement of requirement, I believe that 
would provide commanders greater flexibility, where they would 
have contingency reaction forces available. It is just recently 
that we have, for the Commander of ISAF, a theater reserve that 
he has available for such use, in extremis use. So, I think 
that is, indeed, part of it. We find that, oftentimes, when 
forces are out on patrol, and they are ambushed or under 
attack, that, because of the vast distance, because of the need 
for air mobility--and we're short of helicopters in part of 
that requirement--that there is not time, then, to move, by 
ground, a reaction force, and we have to call in either rotary- 
or fixed-wing air support. It is less precise, obviously, and 
that becomes an in extremis situation at high altitude, and 
it's more problematic. So, I agree.
    With regard to caveats, the nations have agreed in Riga 
that there would be no caveats for in extremis support. 
However, as I said, it's a large country, and there is a time-
distance factor that, even though there is no restriction on 
moving some unit from the north to the south in extremis to 
help a unit that's in contact, the time and distance will 
likely preclude that, so we will then default to close air 
support. So, there are contributing factors there.
    Senator Warner. It is a difficult equation for you to 
manage, and we've simply got to resolve it, because it's not 
fair to the U.S. soldier to bear the heavy burden, whether he's 
operating an aircraft as an airman or on the ground, that the 
deficiencies of NATO partners could be contributing to this 
problem. That's a combination of caveats and not having a full 
complement.
    How do you view NATO as a whole in terms of their 
contributing forces, training forces, and particularly the 
necessary equipment to bring NATO up to its projected standing 
and capabilities? What is the curve? Is it a less and less 
emphasis on military training and conscription in these NATO 
countries? Or is it about level? Or is there some increase? 
Because NATO is a composite of all of the nations, and it can 
be really no stronger than the contributions being made.
    General Craddock. Senator, there is a diversity among the 
nations, in terms of their equipment and level of training. 
However, when they commit to the NATO mission in Afghanistan, 
to the ISAF mission, there are some stringent requirements, in 
terms of training and equipment, that are provided to them, 
they must meet. By and large, they do that.
    Now, the newer nations that may not have the depth of a 
budget, obviously turn to the United States or to Great Britain 
for support and equipment and training. That is provided. So 
that when they come in--after days and weeks of coordination--
they come in capable, by and large, assuming a mission in the 
area of which they are given. Partner nations, non-NATO, that 
come in, also go through the same process. So, I think, from 
that perspective, that they are very capable and can do the 
job. The question becomes the caveats that they come with from 
their capitals, and the impact of those caveats, then, on the 
flexibility of the commander on the ground.
    Senator Warner. All right. We have pretty well addressed 
that.
    Chairman Levin. Senator Warner, if you could then put us in 
recess when you're done.
    Senator Warner [presiding]. Going back to NATO, as a whole, 
as an entity, is it growing stronger? Is there more fervor 
among the nations of NATO to keep it strong and viable? Or are 
they just accepting it, and there's really no basic threat on 
the European continent, and they're not really beginning to 
make it a strong, viable operation? These are intangibles, but 
we all watch it. We look at the contributions, we look at the 
defense budgets. They've been on a decline, the NATO nations, 
for some many years.
    General Craddock. Senator, I've said this in other forums 
before, I think the level of ambition of NATO is not matched by 
its political will. I think there is again, among the nations, 
a different level of ambition, some matched with will, and 
others not. I think the fact is that only 6 or 7 of the 26 
nations meet the 2 percent benchmark we've put on the defense-
budget-to-GDP, that we think is about right. We have a couple 
of benchmarks. NATO has decided it would like to see armed 
forces of the nations have about 40 percent of their force 
available for deployment, and be able to sustain 8 percent of 
their force over time in a sustained deployment such as ISAF or 
Kosovo. That is a mixed bag. We have probably, right now--I 
don't know the exact numbers, but as many do that as not, so we 
are continually going in to work with nations and ask them, 
``Here are your numbers, here's what we know you have as your 
capabilities. We need your contributions.'' We need to do that. 
Sometimes we're successful. Since Riga, we have either had 
additional contributions to ISAF, on the ground or en route, of 
between 7,000 and 8,000 additional soldiers in various type 
units, some of them very capable and needed. That's a big plus. 
The majority of that is not the United States.
    Senator Warner. You recognize full well that NATO's on 
trial. This is their first significant out-of-area, truly-
combatant situation. If they don't measure up, I think that 
it's going to require a very serious and in-depth reexamining 
the nations of NATO.
    Now, let's turn to the Balkans. You have a problem up there 
in Kosovo. Where do you fit in that situation?
    General Craddock. Thank you, Senator.
    The Ahtisaari proposal has been submitted to the U.N. They 
have it under consideration. The Security Council 
representatives have had a factfinding visit to Europe, Serbia, 
Kosovo. I would tell you that, from my headquarters, my 
perspective is that a resolution soon is a good thing, sooner 
rather than later, will be helpful.
    Senator Warner. What do you mean by ``resolution''? 
Resolution on what?
    General Craddock. The U.N.
    Senator Warner. The issue of statehood?
    General Craddock. The U.N. resolution affirming or adopting 
the Ahtisaari proposal on future status.
    Senator Warner. Right.
    General Craddock. That would be helpful. Then there will be 
other events that may or may not occur. But the point is we're 
now operating under a U.N. resolution, 1244, that we know that, 
upon adoption of the Ahtisaari, will be outdated, and we will 
have to transition to a new mode of operation for NATO. I 
believe that the longer the resolution is delayed, the longer 
it takes to come to closure in the Security Council, the 
greater the opportunity for mischief, and the more likely there 
will be civil disturbance and violence in Kosovo.
    Senator Warner. Do you have adequate forces under your 
supervision and control to meet the contingencies of the level 
of insurrection that might occur?
    General Craddock. Senator, at this time, we have about 
16,000 NATO forces, no caveats. They are well-led, well-
trained, arranged properly, and they are capable.
    Senator Warner. Thank you.
    I must depart for the vote. I hope to return, and thank you 
very much, General, for your outstanding service, and that of 
your family.
    General Craddock. Thank you. [Recess.]
    Chairman Levin [presiding]. We'll be back in order again.
    General Craddock, thank you for your understanding of the 
way the Senate operates.
    Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman. Let me time myself 
here.
    General Craddock, I'll repeat what everybody else said, 
thank you for the individual time you've given me and the rest 
of this panel.
    As we talked about before, I have an intense interest in 
both Vicenza and Aviano. I was there--and, Mr. Chairman, you're 
probably not aware of this--in 2003, when they had to deploy 
the 173rd to Northern Iraq, since we could not get through 
Turkey--and the staging area, of course, for Vicenza, is down 
in Aviano. We were down there when that happened. It occurred 
to me that they were sitting out in this open field. If it had 
been raining, we couldn't have done it, I don't believe. I 
asked the question, How could we do this if it's really bad 
weather? We couldn't. Since then, we came back right after that 
and inserted into the authorization bill the deployment 
processing facility, which I went over and viewed last week. 
It's a beautiful thing. It's much better and bigger than I 
thought it would be. It appears to me it has the capacity to 
take care of our long-term needs in the way of staging over 
there. Would you comment on that? How do you see the future of 
that?
    General Craddock. Thank you, Senator.
    No, I agree. The facility, as designed and implemented, is 
exactly what's required. There has been some concerns here 
recently over the receptivity and the approval now for the 
permission to proceed with the expansion of the airborne 
brigade into the Dal Molin facility near Vicenza. I, right now, 
today, would tell you I'm encouraged. I think that there's been 
much engagement. I think the misunderstandings, to a great 
extent, have been resolved. There will always be those who 
disagree. We understand that.
    Senator Inhofe. Disagree with what?
    General Craddock. With the expansion of the brigade into 
the Dal Molin facility.
    Senator Inhofe. Okay.
    General Craddock. In the business we're in, there will be 
competitors for resources and scarce facilities that obviously 
might have a different perspective. However, I think there's 
been a good engagement. I think there's an understanding by the 
Italian Government that it is in probably their best interest, 
and it will support U.S. forces there. They know that, and I 
think that we will see their agreement very shortly.
    Senator Inhofe. I hope so. As I mentioned to you before, I 
think if they see all this new construction taking place, 
they're thinking, ``You know, there's no threat that they'd 
leave.'' We have to communicate to them that we need to have 
their cooperation. We went through this when we were trying to 
replace the live range at Vieques.
    General Craddock. Right.
    Senator Inhofe. I think it was down at southern Sardinia, 
and at that time we were not getting cooperation.
    But, anyway, I think those are great facilities. I always 
say to these guys that are stationed over there, they are 
really in a pretty good area.
    Now, I want to get you on record on a couple of things that 
are important, because these are programs that I have been 
active in.
    First of all, International Military Education and Training 
(IMET). Since you currently have most of Africa--and we're 
going to talk about that new command in a minute--when we first 
started the IMET program, it was almost as if we were doing 
them a favor, these countries, when, in fact--and so, we had 
restrictions, like in Article 98. Unless they'd sign an Article 
98, we would not allow them to be in the IMET program. Now we 
see other countries, like China, that if they're not in our 
program, they're going to be in their program. This has worked 
since we took away that obstruction. I'd like to have a comment 
by you, in terms of the IMET program, and then also the 1206 
and 1207 program, particularly as it works in Africa.
    General Craddock. Senator, the IMET program may be the most 
important instrument in theater security cooperation. It is our 
ability to work with friends and partners, to have them come to 
our institutions, understand our culture, understand democratic 
institutions. We learn from them, they go back, they have built 
relationships that last for years and years. I have seen that 
in my previous assignment as the Southern Command (SOUTHCOM) 
Commander. I'm convinced that when we bring those people here, 
when we engage in that program, everyone involved is a winner. 
We need to ensure we sustain it, and, where possible, we can 
add to it. It is critically important; again, the most 
important tool in the theater security cooperation toolbox.
    Senator Inhofe. All right.
    General Craddock. It should be sustained. I think there 
will be opportunities in the future, potentially, in certain 
areas, to grow up even more.
    Senator Inhofe. Okay.
    General Craddock. 1206/1207, again, another important new 
addition, if you will, that I've found critical to the ability 
for us to build partner-nation capability. It gives us some 
authorities where we can provide capabilities, training, some 
levels of equipment that we did not have before. I would hope 
it is sustained. From my perspective, it should be enlarged, 
because it is so important, both from the perspective of 
building the capability, but also sustaining over time.
    Senator Inhofe. How about the Commanders Emergency Response 
Plan (CERP)?
    General Craddock. In Afghanistan, the difference between 
the haves and the have-nots is startling. Those nations who 
provide a CERP-like capability, the quick-reaction capability, 
for their military forces are doing such a favor for them; and, 
in giving them such a critical enabler, that it's startling, 
the difference. If you would look at regional commanders where 
U.S. forces are, and the CERP investment and what it has done 
in reconstruction and development, and what it has done 
combined with the security effort, and look where that's not 
there, it is startling. Every nation's military who doesn't 
have it is jealous and wants it. We are trying to get a NATO 
fund in place to provide that type of capability. But it is 
critically important. Again, it's, in many cases, better than 
bullets.
    Senator Inhofe. The fact that you can get to it, the 
commander has the discretion, he can get to it immediately. 
Would you agree with the statement that a dollar in that 
program is probably worth $5 if you have to go through the 
process in--of going to--wait until you can really get 
something done? It's a good program. You have answered the 
question. I appreciate it.
    General Craddock. I would agree, and that's the problem 
with other techniques. There's too many levels of approval and 
too much red tape; it's not instantaneous.
    Senator Inhofe. I am very interested in the IMET, the 1206/
1207, and the CERP programs.
    Now I am also interested in Africa. I've spent a lot of 
time there, and I've always thought it was confusing. My last 
trip, which was about a week ago in Africa--it was Ethiopia, 
Uganda, Kenya, Djibouti, and Tanzania. Now, half of those were 
in one command, and half in another command. So, I'm anxious 
for this to take place. It's my understanding that it's going 
to be October 2008 by the time you actually have a segregated 
command. Is that about right? Is that what we're shooting for?
    General Craddock. Yes, Senator, that's the target date. In 
between October 2007 and October 2008, there will be a transfer 
of task, consecutive conceding over time, from EUCOM to 
AFRICOM. But by about October 2008, they will have the mission 
set complete.
    Senator Inhofe. Okay. You're going to be in charge of 
almost all of it, except up in the Horn, during that time. Do 
you want to make any comments about what is ongoing there right 
now that is in the current command that you have assumed, in 
terms of the African brigades, how they're coming along, and so 
forth?
    General Craddock. EUCOM has worked for many years with the 
African Contingency Operations Training Assistance, which 
targets several countries to build battalions, then into 
brigades for peacekeeping operations. We have trained over the 
years about 75,000 African soldiers. We are now in the mode 
where we provide mentors to their trainers. We've trained their 
trainers. It's a consistent follow-up effort, if you will, to 
make sure that the standards are maintained, the equipment is 
maintained, and the effort is enduring. So, that continues, and 
that will transfer over to AFRICOM once they are fully mission 
capable.
    In addition, in northwest Africa we have Operation Enduring 
Freedom Trans Sahel. It's a counterterrorism work that we're 
doing to build capacity with nations there. There's about nine 
nations throughout that region, where they have some terrorism 
problems. We nest that underneath the counterterrorism program 
with the State Department for that area, so that is providing 
some combined effects and working well.
    Then, throughout the remainder of the region, the 
subregions, whether it's the south, the east, central Africa, 
we are working with unique either functional or geographical 
efforts, then, for train-and-equip, if you will, and some 
mentoring and advice to the militaries there.
    Senator Inhofe. Yes, I know what you're doing in Uganda, 
and it's working real well all the way down.
    Mr. Chairman, my time is expired, but, just for the record, 
I'd like to have him tell us his opinion as to the cuts that 
took place in both missile defense and Future Combat System, in 
the record.
    Chairman Levin. Thank you very much, Senator Inhofe.
    General Craddock, you would supply that for the record, 
please?
    [The information referred to follows:]

    The ballistic missile threat from Southwest Asia to U.S. forces, 
interests, and allies is significant and growing. The EUCOM AOR 
requires a mix of systems (interceptors, radars, and command and 
control) that provide defense against short, medium, intermediate and 
intercontinental missiles in all phases of flight (boost, mid-course, 
and terminal). Recent European Site Initiative missile defense funding 
reductions impede U.S. efforts to put a system in place before the 
arrival of longer range missile threats from Southwest Asia. It could 
also damage important, ongoing diplomatic initiatives with the Czech 
Republic and Poland. In addition, these reductions call to question our 
credibility within NATO and could make the U.S. approach more difficult 
for NATO to accept. Cutting funds also sends the wrong message to 
Russia--that its campaign to use missile defense as a wedge between the 
U.S. and our allies is working.
    I defer to the Office of the Secretary of Defense or the Army 
regarding funding cuts to Future Combat Systems.

    Chairman Levin. Senator Nelson?
    Senator Ben Nelson. I thank you, Mr. Chairman.
    General Craddock, thank you for being here today, and for 
your service to the United States and to our efforts to keep 
the world free.
    I'd like to go to the missile defense system, because that 
is an area of some interest, particularly since I'll be leading 
a congressional delegation to Russia over the Memorial Day 
weekend. In connection with the missile defense system, the 
House Armed Services Committee tied further advancement of the 
European sites with reaching agreements with the host countries 
and further engagement of NATO. Now, will this slow down the 
process? But, if it does slow down the process, will it build 
stronger support for the sites? That's my first question.
    General Craddock. Senator, thank you.
    Obviously, much of the groundwork for the missile defense 
in Europe went on before I assumed command 5 months ago; 
however, I don't know if it will slow down. I think there has 
already been some official acceptance for the proposal from 
both the Czech Republic and Poland. Now it's a matter of 
continuing to cement the agreement, and then, from my 
perspective, EUCOM, we would work in a team to develop a 
defense cooperative agreement and then the technical 
arrangements under that.
    I think if there were--again, this is my opinion--a 
perception of wavering support for such an effort in the United 
States, it may well create wavering support in those countries. 
I don't know that. But that could slow things down.
    With regard to NATO, the Secretary General held a series of 
meetings, the end of April and early May, with the North 
Atlantic Council. He indicated that the allies are in agreement 
with regard to the nature of the threat. I think that's a 
significant thing in a consensus organization. So, my sensing 
there is, that's in the political arena of North Atlantic 
Council, but agreement among 26 is a positive indicator.
    Senator Ben Nelson. Now, earlier this week the Washington 
Post quoted Secretary Rice, who is in Russia this week, as 
saying that ``no country could veto''--and that's a quote--
``U.S. plans to set up a missile defense system in Europe.'' 
It's my understanding that both Poland and the Czech Republic 
were chosen as sites, because they're optimal locations for 
combating, at least in part, some sort of an Iranian long-range 
ballistic missile attack.
    Are you concerned with respect to Russia's position 
regarding this, the location in the Czech Republic, as well as 
the location in Poland, for those sites?
    General Craddock. Obviously I'm concerned when any nation 
has the vehement disagreement with the proposal that we have 
heard.
    Senator Ben Nelson. Excuse me, do you think their 
disagreement is vehement? Because I'll be with the Russian 
Foreign Minister, Sergei Lavrov.
    General Craddock. Lavrov, yes. Senator, I'm not going to 
want to judge the political arena. I think, from a military 
perspective, there has been transparency in consultations with 
the Russian military. I think the physics and the geometry of 
this are understood. Now I think it's a political issue, not a 
military issue.
    Senator Ben Nelson. This would call for a political 
resolution on your part, but if you were in my shoes, going to 
see Foreign Minister Lavvov, what would you suggest that I say 
to him?
    General Craddock. Oh, goodness. Is this on the record? No, 
just kidding. [Laughter.]
    Senator Ben Nelson. I ask you not to lie, but it's going to 
be difficult to tell the truth, as well.
    General Craddock. Well, I don't know. Again, I'm not in the 
political arena. That's very difficult.
    Senator Ben Nelson. What I was thinking is--apart from the 
politics, is there anything, in terms of the metrics here, or 
the--as you say, the geometry and the physics of it, that would 
argue against their concerns about the location? In other 
words, does this represent any significant threat to them? Or 
is there less threat because of the location?
    General Craddock. Again, I wasn't there, but, as I 
understand, when the initial consultations occurred between the 
Missile Defense Agency and the Russian experts--and I think 
there will be more of those expert group meetings--it was laid 
out as to where and why--the geometry, the physics--and there 
was very little pushback. The notion that the location and the 
orientation of this is a threat to a Russian strategic 
capability is mindless. It's just not there.
    Senator Ben Nelson. That's what I'm getting at, yes.
    General Craddock. It's just not there. The notion that 10 
interceptors would make a difference against the Russian 
strategic capability, again, is baseless.
    Senator Ben Nelson. So, really, the logic behind the 
placement is for the purpose that we've stated, and that is to 
protect against something coming from Iran.
    General Craddock. Indeed.
    Senator Ben Nelson. That should be demonstrable to the 
Russians, so there may be political considerations, as you have 
suggested, for their position right now.
    General Craddock. That's what I personally believe. Again, 
I have not been involved in the discussions and the dialogue 
personally, but I can't come to any other conclusion than that, 
and, because, again, as I've been told by those who were there, 
initial consultations and discussions were not of this nature.
    Senator Ben Nelson. That's the main question that I had, to 
ask you today.
    In terms of the House, the House Armed Services Committee 
cut $160 million, which was mostly construction funds, as I 
understand it, from the proposal. But that, apparently, was on 
the basis of some criticism from some of the NATO allies about 
the system. Or is that information not accurate?
    General Craddock. I'm not aware of the rationale for the 
cut. According to the Secretary General, the fact that the NATO 
North Atlantic Council was in agreement on the threat, I think, 
is a significant indicator with regard to, then, any other NATO 
reason for being against it--would have to be location. I'm not 
aware of that at all.
    Senator Ben Nelson. It certainly doesn't involve not having 
had discussions and seeking a consultation with the NATO 
allies.
    General Craddock. There have been several. I know 
Ambassador Edelman, the Under Secretary for Policy, has been 
there; Defense Missile Agency Director, General Obering--there 
have been several, recently and prior. So, this has been 
ongoing and, as I said, late April/May, quite a few consecutive 
meetings.
    Senator Ben Nelson. In your opinion, what will happen with 
a reduction from $310 million cut by $160 million, leaving a 
balance there of, really, less than half of what was requested? 
What does that do to the program?
    General Craddock. Directly, it will delay implementation. 
How long will be dependent upon how much is restored and how 
fast the recovery could be. I think indirectly there may be 
some problems created with regards to perceptions of how 
serious we, the United States, are about this effort.
    Senator Ben Nelson. Is the cut so significant that you 
can't use the balance to go ahead with construction, pending 
additional money coming at a later time?
    General Craddock. Senator, I don't know, because we have 
yet to receive the full concept for logistics implementation, 
in terms of how the Missile Defense Agency would want to do it, 
whether it would be a government-owned/government-operated or a 
government-owned/contractor-operated facility.
    Senator Ben Nelson. So, restoration is really what you 
would be seeking.
    General Craddock. To stay on a timeline.
    Senator Ben Nelson. Yes.
    General Craddock. Again, the Missile Defense Agency has 
laid out, I don't know that restoration would allow recovery. I 
would have to see where the cuts were, and then have the 
Missile Defense Agency, the Department, decide how to do that, 
then we would know--EUCOM--how to proceed, then, with the 
technical agreements to implement that.
    Senator Ben Nelson [presiding]. Thank you, General.
    Senator Webb.
    Senator Webb. Thank you, Senator Nelson. General, welcome.
    I'd like to ask you a few questions, General, about the 
implications of some of these international power shifts that 
are going on, and how you perceive some of these pressures from 
the perspective of your command. Actually, the best starting 
point would be to carry on a little bit from what Senator 
Nelson was asking about the Russian situation. We might--or 
there may be among us people who believe that it's mindless, to 
use your word, for the Russians to perceive missiles in those 
countries as a threat, but, at the same time, there's a lot of 
history in play when we see NATO expansion into those countries 
that traditionally have been buffer nations, or viewed by the 
Russians as buffer nations. It's a whole lot closer to Russia 
than it is to Iran, when you have a missile in Poland. So, 
while, on the one hand, the size of those deployments, and the 
nature of them, we may see as rather benign. I think certainly 
there's some logic from their perspective, in terms of history, 
that there's something of a threat of one nature or another 
going on. Actually, before I even heard that exchange, it was a 
note that I made myself that I wanted to ask you to give me 
your thoughts on the impact, in military terms, of United 
States/Russian relations as a result of these NATO expansions 
that have gone into areas that are fairly close to Russia.
    General Craddock. Thank you, Senator.
    It is, indeed, a complex issue. We've had, from my 
perspective over the past several years, reasonably good 
military-to-military relations. There are obviously lingering 
tendencies from days past, at old-timer levels like me, guys 
who have been around a long time and spent many years on the 
ground in Europe, looking across the border, and now those days 
are over, and we want to work together and establish those 
relationships to complement each other.
    I know that, indeed, there is this NATO expansion and a 
concern that--from the Russians--they are being surrounded by 
NATO, if you will. I, quite frankly, look at NATO, and every 
nation there is a democracy. If I'm concerned about being 
surrounded by democratic nations, I don't know why. It may be, 
again, these age-old tensions and beliefs, that we have to get 
over.
    Senator Webb. We are seeing an escalation of rhetoric from 
the political leadership of Russia; it's undeniable--would you 
say that, since 2004, with the latest NATO expansion, that 
there has been any visible increase, in terms of the military 
attitudes of Russia? You mentioned this old-time and I'm 
wondering what we're seeing on the ground.
    General Craddock. I don't think there's been an increase of 
any tension or shrillness, militarily. I would say there maybe 
has been not as much progress as we would like to have, maybe a 
stagnation of progress that we had in years before that, I felt 
we were moving. Again, my time, previous assignments, we were 
engaging, we had some more exercises. Now we've been a little 
bit stalemated, and it's not that we're regressing or more 
shrill, but we're having to work harder to push the ball 
farther. Now, EUCOM, right now, is having a bilateral meeting 
with Russian Federation officers--we do this routinely--in 
Stuttgart, I believe, now. So, we have some things on our 
table, exercises we need to work through, arrangements. How can 
we engage? It's not getting any easier, but we're holding our 
own.
    Senator Webb. Would you see any visible difference in the 
evolution of relations with other European countries, as 
opposed to the United States, vis-a-vis Russia?
    General Craddock. I'm not sure I understand the context of 
``visible relations with.''
    Senator Webb. The attitudinal environment, in terms of how 
Russia is dealing with the militaries of other European 
countries as opposed to the United States.
    General Craddock. I think there are some tensions. 
Obviously, Estonia, here recently, with a statue and some 
tensions that were raised over that--I don't know of any 
military-to-military tensions, if you will, or degradation of 
relations. But, again, I guess my assessment would be, I don't 
see a strengthening or an increasing embrace of those 
relations.
    Senator Webb. I've followed for a long time with alarm the 
way that China has been evolving into a world power. I've been 
speaking, for some 20 years really, about China's conscious 
strategic axis with the Muslim world, that was very apparent to 
a lot of people who have spent time in Asia, as I have. I've 
been watching, along with a lot of others, the economic 
expansion of China into Africa, which you mentioned in your 
testimony. I'm wondering if you are seeing any military 
implications that are coinciding with this economic expansion 
in Africa.
    General Craddock. Senator, I have not got the level of 
detail in the African continent now to be able to determine if 
the economic expansion and engagement is paralleled by 
military. I expect it is, and I'll dig into it to find out in 
the coming days and months. But let me harken back, in my 
previous assignment, U.S. SOUTHCOM, South America. My judgment 
there is, yes, there was significant military engagement, and 
it paralleled the economic engagement. The Chinese were 
economically engaged throughout the region, the Caribbean 
Basin, South America, not in Central America, because most of 
those nations still recognize Taiwan. There was considerable 
economic engagement, but not necessarily investment. It was 
extractive in nature--foodstuffs or minerals--resources. 
Generally, the Chinese come in, they bring their own workers, 
they execute the contracts that they have, they extract 
whatever product it is they're after. Sometimes the workers 
leave, and sometimes they stay. They're engaged in several--
throughout the region--humanitarian projects that provide some 
services or capabilities to nations who have no other way to 
get that. Parallel with that, there was an engagement, 
militarily, very few strings, mostly nonlethal, in terms of 
equipment that was provided, and a robust training capability, 
which essentially opened up the doors in China for South 
American leaders and military forces to go to China and train. 
When I checked into it, I found out that the Cubans were the 
translators in the schools, providing the translation between 
Chinese and Spanish.
    Senator Webb. Fine. I have been following South America, as 
well, and I would agree with your assessment. Although I think 
that what you're going to be seeing more of is, with the 
incredible trade surplus that China has, and the cash reserves 
that they have on hand, you're going to see a lot more direct 
investment, even in South America.
    What I would appreciate is, perhaps, rather than asking for 
something for the record, which sometimes happens and sometimes 
doesn't quite happen the way we anticipate that it might, if I 
might get a visit from someone on your staff who could do a 
look at what's going on in Africa with this respect, and come 
in and sit down with me and my staff so we can gain an 
understanding of where things are.
    General Craddock. Absolutely.
    Senator Webb. Thank you very much. Thank you for your 
testimony.
    Chairman Levin [presiding]. Thank you, Senator Webb.
    I just have a few additional questions. If you have a few 
additional questions, Senator Webb, we'll just turn it right 
back to you. Or are you all set?
    Senator Webb. Mr. Chairman, I'm fully satisfied. Thank you.
    Chairman Levin. On the question of missile defense 
agreements with Europe which has been raised here, the estimate 
of the Missile Defense Agency is that the parliamentary 
approval could take until 2009 to be completed. Does that sound 
about right?
    General Craddock. Mr. Chairman, I don't know. I can't opine 
on that.
    Chairman Levin. All right.
    The interceptor which is proposed for deployment in Poland 
has not been developed yet, as I understand it. Is that your 
understanding, or are you not familiar with that aspect of it?
    General Craddock. I know there's been several tests of an 
interceptor. I don't know if that's the model tested or not.
    Chairman Levin. Right. I don't think it's even planned to 
be tested for a year, or a couple of years, at any rate. So, 
we're not going to know for, actually, several years whether 
it's going to work effectively. As a military man, would you 
want to have confidence that the interceptor would be 
operationally effective before we would deploy it?
    General Craddock. Yes, I'd want it to work.
    Chairman Levin. The question of the cost, if this is going 
to happen, the Missile Defense Agency's estimated the cost of 
the European missile defense deployments at $4 billion through 
2013. I think your prepared testimony indicated there may be 
some additional costs related to undetermined infrastructure 
requirements. So, the cost could even be higher. Have there 
been any discussions with NATO about NATO burden sharing or 
NATO paying a portion of the cost if there's going to be this 
defense that is going to be deployed on their territory?
    General Craddock. Not to my knowledge. Again, there have 
been discussions here recently. I don't know if it's gotten 
into the next step, which is not what to do, but how to do it. 
Essentially, you said ``deployed on their territory,'' you're 
right, but that's Poland and Czech Republic territory.
    Chairman Levin. Correct.
    General Craddock. As opposed to NATO territory.
    Chairman Levin. Oh, I'm sorry. Okay. But it's a part of a 
NATO defense system.
    General Craddock. But it's a sovereign issue with the 
Czechs and the Poles both.
    Chairman Levin. With both. No, I respect that very much. 
That's why we talked about parliamentary approval.
    General Craddock. Right.
    Chairman Levin. But in terms of payment, in terms of any 
kind of apportioning of cost, of burdensharing, it's either 
going to be a NATO burdenshared, because it's proposed for NATO 
as a weapons system, or a defensive system. Before I even get 
to the individual countries, shouldn't there be discussion, 
either within NATO or those individual countries, or both, 
about paying the cost for the defense of territory, which is 
Polish and Czech territory, and which is part of a NATO defense 
system?
    General Craddock. If NATO, again, these are political 
decisions in North Atlantic Council, but if NATO embraces this, 
and approves this, and wants to be a part of it, then it would 
be eligible for common funding, it would seem to me. I don't 
know if that'll be the decision.
    Chairman Levin. Okay. We've heard some testimony here about 
some real readiness problems faced by our ground forces, and 
the efforts of the Army and Marine Corps, in particular, to 
deal with these readiness challenges. I'm just wondering--and 
you're familiar, I know, with the situation, up close and 
personal--what impacts have the readiness degradation had on 
your accomplishing, or you ability to accomplish missions?
    General Craddock. Mr. Chairman, in looking at the forces 
from EUCOM that rotate through, there are--Operation Iraqi 
Freedom and Operation Enduring Freedom are largely Army and Air 
Force--I would say that the effects on readiness of those 
forces has been minimal. The effects--because these forces are 
rotating on a continual basis into Iraq and Afghanistan, then 
they come back for their dwell period. There's adequate 
equipment to train, to get back, then, for the next rotation. 
Obviously, time is always the issue. The training areas are 
adequate in Germany at the U.S. Army training facilities there. 
So, from that perspective, I think that even though there is 
high tempo, and it is a burden, I think it's adequate, because 
we are in a little bit of a different set there with the 
overseas posture. Beyond that, I think that the fact that they 
are rotating through creates fewer forces available to do some 
of our traditional missions--theater security cooperation, the 
engagement. We have to work through that. Oftentimes, then, we 
request forces back from continental United States Reserve 
Forces, obviously, to do those types of missions, when we can 
program it out to do that. So, I think the wear and tear, if 
you will, is probably more on the manpower of the force than on 
the equipment and the training areas.
    Chairman Levin. Okay, thanks.
    Back to Afghanistan and Pakistan. In February, the Director 
of National Intelligence, Mike McConnell, in his written 
testimony to the committee, said that the elimination of the 
safe haven that the Taliban and other extremists have found in 
Pakistan's tribal areas is a necessary step to end the 
insurgency in Afghanistan. It's not a sufficient step, but it's 
a necessary step. Would you agree with Director McConnell's 
assessment that eliminating extremist sanctuaries in Pakistan's 
tribal areas is necessary to end the insurgency in Afghanistan?
    General Craddock. I don't know that that will end it, but 
it will be a necessary step to enable us to end it, yes.
    Chairman Levin. Do you believe that Pakistan can do more to 
eliminate those sanctuaries?
    General Craddock. Mr. Chairman, I believe they are doing 
more, recently; and I think they can continue to do more.
    Chairman Levin. They could do even more than they're now 
doing?
    General Craddock. I believe so.
    Chairman Levin. Again, thank you for your testimony, for 
being here today, for your service. You have a huge 
responsibility, and we are very grateful for the way you attend 
to it.
    General Craddock. Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    We stand adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                   redeployment of troops from europe
    1. Senator Levin. General Craddock, in testimony before the House 
Armed Services Committee in March, you expressed reservations about the 
Department of Defense's (DOD) plans to significantly reduce the number 
of U.S. forces stationed in the European Command's (EUCOM) area of 
responsibility (AOR). Under the DOD base-restructuring plan announced 
in 2005, the number of U.S. troops stationed at main operating bases in 
Europe would be cut from over 100,000 to around 60,000 soldiers. Since 
then, your command has been heavily committed to providing forces in 
support of rotations to Iraq and Afghanistan. In addition, the 
administration has announced plans to increase the size of the Army and 
Marine Corps. As part of this increase, the Army proposes to create six 
new light infantry combat brigades. Given the role our forces in Europe 
have played in operations in both Afghanistan and Iraq, do you believe 
it would be in our strategic interest to base one of more of these six 
additional brigades in Europe where they are easily deployable to the 
Central Command (CENTCOM) region, or the new Africa Command (AFRICOM) 
region?
    General Craddock. I have directed EUCOM to conduct a ``Troops to 
Task'' assessment to reconcile the assigned missions and tasks of EUCOM 
and its components with planned force strength levels and composition. 
The inspiration for the study comes from the recent National Military 
Strategy Risk Assessment in which the Chairman of the Joint Chiefs of 
Staff (CJCS) stated, ``We will continue to build partner capacity and 
strengthen unity of effort with our interagency and international 
partners to defeat common enemies.'' To ensure EUCOM is ready to meet 
the Chairman's expectations, I tasked my EUCOM staff to determine if 
the troops available to EUCOM were adequate to meet the demands of the 
tasks implied in the CJCS risk assessment.
    The study consists of two parts, first the study determined if the 
assumptions and conditions that served as the basis for the 2001-2003 
force structure decisions remain accurate. Where assumptions and 
conditions have changed, the study will identify the implications of 
those changes. Second, the study focuses on the capabilities required 
to support EUCOM missions in the future. When possible, it identifies 
actual forces required to meet those missions. In addition to those 
specific missions addressed in EUCOM Contingency Plans (CONPLANs), this 
study reviews requirements to execute other EUCOM missions such as 
Theater Security Cooperation. The study also addresses requirements 
associated with the maintenance of U.S. leadership in the North 
Atlantic Treaty Organization (NATO). The results of the study will be 
informed by the ongoing development of campaign plans for the EUCOM 
Theater Strategy for Active Security. The study is not finalized at 
this time.

    2. Senator Levin. General Craddock, what role are you playing in 
the decision of how many, if any, of these additional 65,000 Army 
personnel should be based in Europe?
    General Craddock. Those decisions are up to the Department of the 
Army and the Office of the Secretary of Defense (OSD). The Troops to 
Task assessment will identify required capabilities, not particular 
units or end strengths. We will then ask the Service components to 
provide those capabilities as needed. It will be a Secretary of Defense 
and Military Service Department's decision for how best to provide the 
capabilities required for EUCOM.

    3. Senator Levin. General Craddock, is DOD going to make a 
recommendation on where to base these forces before we make any 
irrevocable decisions to return property in Germany?
    General Craddock. I cannot comment on this for the DOD. I will 
provide my study findings to the CJCS and the Secretary of Defense.

    4. Senator Levin. General Craddock, do you believe the DOD's base 
restructuring plan for Europe needs to be reexamined?
    General Craddock. EUCOM continually conducts internal assessments 
of base restructuring plans in Europe. The results of EUCOM's 
assessments may form the basis for the Secretary of Defense to 
reexamine the basing plan, resulting in adjustments to the size and 
composition of forces slated to remain in Europe under Global Defense 
Posture Phase I. Any adjustments to the original base structure will be 
communicated to Capitol Hill.

                               readiness
    5. Senator Levin. General Craddock, the lower basic readiness in 
our nondeployed forces has increased the costs and time required to get 
ready for worldwide contingencies. As EUCOM Commander, you are facing 
the increasing likelihood that ground forces deployed at your bases in 
Europe or from the United States will be slower to arrive and less 
prepared than your current CONPLANs assume. This lack of strategic 
depth in our ground forces carries significant operational risk that it 
would take longer to achieve a military victory and that would result 
in increased casualties. What are your views of the readiness 
challenges faced by our ground forces and the efforts of the Army and 
Marine Corps to deal with them?
    General Craddock. Unit readiness and the resultant impacts on rapid 
response and the deployability of our forces are current challenges and 
are a concern to all the combatant commanders (COCOMs), myself 
included. This situation is not one that can be overcome quickly, but 
the Department, General Conway, and General Casey are addressing these 
challenges through the end strength increases and readiness funding 
authorized by Congress. The specifics of how and when we will be able 
to mitigate these challenges are of interest to me, but best 
articulated by the Army and the Marine Corps.

    6. Senator Levin. General Craddock, how do these challenges impact 
your ability to accomplish your missions today? Is the risk acceptable 
and how will you know when it crosses a line and becomes unacceptable?
    General Craddock. The risk is significant, given the size of the 
EUCOM AOR, the numbers and types of activities ongoing, the continuing 
instability in a number of our countries/regions, and the operations 
that we feel are critical in meeting our Theater Strategy of Active 
Security. As I noted in an earlier response, the forces required to 
execute missions essential to our Theater Security Cooperation 
requirements are in the most part unavailable due to current and 
projected deployments of EUCOM assigned forces to support Operation 
Iraqi Freedom (OIF) and Operation Enduring Freedom (OEF).
    The net result, initiatives either unexecuted or delayed, truncates 
both the progress we have made to date and hinders our ability to 
commence new actions with partners who desire improved capabilities. In 
real terms this denies us the leverage to either bring along others who 
are willing to operate with us in the Middle East or those who need our 
training and support to address issues within their own borders--
thereby reducing the overall future demand signal for direct U.S. 
military involvement. With respect to our NATO partners, activities and 
exercises that bolster our relationship within the alliance are 
adversely affected by our inability to fully participate in bilateral 
events that reinforce our commitment, that promote NATO operational 
transformation, and that foster stronger relationships with key 
nations.
    Given the current mission set U.S. EUCOM is tasked to support, the 
risk to our ability to address those emerging threats and challenges 
within the EUCOM AOR with minimal forces and resources has dramatically 
increased. It is important to emphasize that providing the necessary 
resources and capabilities now greatly reduces the very likely 
possibility of a significantly greater resource requirement in the 
future because we are unable to adequately address current threats and 
emerging challenges. Ongoing requirements for OIF and OEF, while real 
and necessary, have severely impacted our Theater Security Cooperation 
activities--what I see as my priority mission in this AOR.

    7. Senator Levin. General Craddock, what are the long-term 
implications of these lower levels of readiness for your command? What 
are you doing to manage this risk and at what cost? How long can you 
sustain this level of risk, assuming it does not get worse before it 
gets better?
    General Craddock. The risk is manageable, but only in the short-
term. The lack of adequate forces in EUCOM needed to conduct a rigorous 
Security Cooperation (SC) program threatens our leadership role in NATO 
and with the Partnership for Peace (PfP) nations. We were able to 
secure the robust contributions of Poland and Romania to OIF because we 
had acted decisively to help them rebuild their militaries from the old 
Soviet model to one compatible with NATO. We used U.S. forces already 
in Europe to develop habitual relationships with the PfP nations that 
built trust between our Nation's military and those of the PfP nations. 
These interpersonal relationships continue to be very important in 
securing partner cooperation. If we do not continue these programs we 
risk not having capable and willing partners in the future.

                      troop levels in afghanistan
    8. Senator Levin. General Craddock, British General David Richards, 
former International Security Assistance Force (ISAF) Commander, has 
recently written that as a result of a shortage of forces in 2006, 
coalition forces ``found it difficult to maintain security where we 
have gained it, and we were using the Afghan security forces (ASF) more 
than is ideal for its development and growth.'' The town of Musa Qala 
in Helmand Province was overrun by Taliban forces after British troops 
withdrew under an agreement with local elders. Last month, it was 
reported that Afghan soldiers and police retook an Afghan town 
approximately 100 miles from Kabul, a town which had been overrun by 
Taliban fighters earlier. Do we have sufficient ISAF and ASF to be able 
not only to clear Taliban forces from provincial towns but also to hold 
on to those areas once they've been secured? If not, what steps are you 
recommending to address this shortfall?
    General Craddock. With the forces currently available, Commander, 
ISAF (COMISAF) generally has the ability to initially ``secure'' an 
area but must rely on Afghan National Security Forces (ANSF) to 
``hold'' it. The Combined Joint Statement of Requirements (CJSOR) for 
ISAF still has significant shortfalls, to include maneuver battalions 
in the southern region, air-transport capability, counterimprovised 
explosive device (C-IED) equipment, and intelligence, surveillance, and 
reconnaissance assets. One of our most significant shortfalls and my 
highest priority lies in commitments of observer, mentor, and liaison 
teams (OMLTs), which are central to building the Afghan National Army 
(ANA) capacity to provide security for their own country. In my 
experience as SACEUR, I am continuously--along with subordinate NATO 
leaders--engaging with NATO members and partners for greater ISAF 
contributions.

                            missile defense
    9. Senator Levin. General Craddock, the long-range missile defense 
system proposed to be deployed in Europe would be part of the Ground-
based Midcourse Defense (GMD) system, designed to defend the U.S. 
Homeland against long-range ballistic missiles. The GMD system was 
never designed to be integrated into any NATO missile defense system. 
It is designed to be controlled by the United States, from the United 
States. On April 19, 2007, the NATO Secretary General said that all 26 
NATO allies share the view that ``any U.S. system which will be 
negotiated with our Polish and Czech colleagues, should be 
complimentary to any NATO missile defense system.''
    The Missile Defense Agency (MDA) has estimated the cost of the 
proposed European missile defense deployments at $4 billion through 
fiscal year 2013. Your prepared testimony indicated that there may be 
additional costs related to undetermined infrastructure requirements. 
If so, the cost would presumably be higher. So far, it appears that the 
United States is expected to pay the full cost of this proposal to 
defend European territory. How will the proposed long-range U.S. system 
be integrated with NATO missile defense systems?
    General Craddock. OSD and the MDA are leading U.S./NATO Ballistic 
Missile Defense (BMD) cooperation. EUCOM has not received authorization 
or guidance from OSD/Joint Staff to engage in BMD cooperation 
activities with NATO.
    The United States fully supports designing the U.S. missile defense 
assets in Europe to be compatible with future NATO BMD system. The NATO 
Active Layered Theater Ballistic Missile Defense (ALTBMD) program will 
provide a common command and control architecture to integrate systems 
for defending NATO deployed forces against short- and medium-range 
ballistic missile threats. Since the United States is considering a 
long-range missile defense system, whereas the ALTBMD program is 
focused on shorter-range systems, the U.S. system could be used to 
complement the NATO layered defense program. The United States has 
consulted closely with NATO allies and staff throughout this process 
and will continue to do so as we move forward.

    10. Senator Levin. General Craddock, what role would EUCOM and NATO 
have in decisionmaking about the operational use of the proposed long-
range system?
    General Craddock. Due to the short flight time of ballistic 
missiles (approximately 15 minutes from the Middle East to Central 
Europe), operational commanders are unlikely to have time to consult 
with NATO and host country authorities in real-time before engaging a 
threat. As an integral part of the U.S. BMD system tasked to protect 
the United States and allies both within and outside of NATO, U.S. BMD 
assets fielded in Europe would remain under U.S. command and control to 
allow them to address these multiple commitments. The United States 
will continue to consult with NATO and host countries in advance to 
share perspectives on operational issues such as command and control of 
U.S. interceptors based in Europe.

    11. Senator Levin. General Craddock, have there been any 
discussions of NATO burdensharing, or NATO paying a portion of the 
costs for the defense of their territory? If not, why not?
    General Craddock. Burdensharing has been an important topic for the 
alliance over the years. For example, the emergence of a European 
Security and Defense Identity within NATO was prompted by alliance 
discussions in the 1990s on Europe taking on a greater share of the 
defense burden. NATO expenditures for command structure, routine and 
crisis management operations, and infrastructure are funded commonly by 
the NATO nations, with the share of funding determined by a preset 
formula. National defense budgets are not set by NATO, although defense 
spending of 2 percent of the gross domestic product (GDP) within the 
alliance is an agreed upon target. In this context, national defense 
spending or alliance expenditures are a regular topic of discussion 
within the North Atlantic Council.

         impact of potential military counternarcotics mission
    12. Senator Levin. General Craddock, my understanding is that the 
U.S. military does not currently have a counternarcotics mission in 
Afghanistan. Our forces have been instructed to seize narcotics and 
destroy labs that they come across during the course of their normal 
operations, but they do not have an explicit order to seek and seize or 
destroy narcotics, drug lords, or narcotics labs. Should U.S. forces 
have an explicit counterdrug mission in Afghanistan?
    General Craddock. Other than the forces assigned to the ISAF 
mission, U.S. military units come under the control of CENTCOM. I will 
therefore defer to Admiral Fallon on the issue of direct use of U.S. 
military forces in counterdrug activities.
    The Government of Afghanistan (GOA) is responsible for planning and 
programming the overall Afghan National Counternarcotics strategy and 
law enforcement elements of the counternarcotics campaign. The 
international community supports the GOA through a variety of bilateral 
and multi-national programs. NATO/ISAF supports Afghan counternarcotics 
efforts through the sharing of information/intelligence, logistics and 
transportation, and can assist with training ANSFs in related skills.

    13. Senator Levin. General Craddock, if the U.S. military were to 
take on the mission of capturing drug lords and dismantling drug labs 
in Afghanistan, what would be the impact on the drug trade in 
Afghanistan?
    General Craddock. EUCOM defers to CENTCOM on matters concerning 
non-ISAF U.S. military units operating in Afghanistan.

                 shift from eradication to interdiction
    14. Senator Levin. General Craddock, in November 2007, the United 
Nations (U.N.) and World Bank released a report on the drug industry in 
Afghanistan that concluded that international efforts to combat opium 
production--including almost $400 million just in DOD counternarcotics 
funds have failed. The report recommended focusing on interdiction, and 
targeting opium refining facilities and wealthy drug lords. Last month 
a Center for Strategic and International Studies (CSIS) report on 
Afghanistan also recommended shifting the effort from eradication to 
interdiction and paying farmers for poppy, and not to grow poppy. Have 
you read these reports, and do you agree with their conclusions?
    General Craddock. I have read both the CSIS and U.N./World Bank 
studies and believe that while many of the study's recommendations have 
merit, a balanced approach to confronting the drug industry on all 
fronts is required. As I have stated above, the United States and NATO 
play a supporting role to the Government in Kabul which will craft a 
national counterdrug strategy.

    15. Senator Levin. General Craddock, should international forces 
focus on interdiction, capturing drug lords, and destroying drug 
facilities?
    General Craddock. The international community agreed that, in its 
support to Afghanistan, the British would undertake lead nation efforts 
in counterdrug activities. While the results thus far have been less 
than desired, success in countering this highly destabilizing condition 
will require the assistance of all nations committed to seeing 
Afghanistan succeed as an independent and capable partner in the 
future.

  american servicemembers protection act--impact on foreign military 
                           financing program
    16. Senator Levin. General Craddock, in your written statement you 
assert that a number of countries forfeit Foreign Military Financing 
(FMF) from the United States because a lever used by the U.S. 
Government in the American Servicemembers Protection Act (ASPA) is 
prohibiting countries from receiving FMF if they have ratified the 
Treaty of Rome establishing the International Criminal Court without 
also signing a so-called ``Article 98'' agreement exempting U.S. 
personnel from being brought before that court by their governments. 
Could you elaborate on the impact of the ASPA restriction on FMF in 
your AOR?
    General Craddock. The ASPA restrictions on FMF have both direct and 
indirect negative effects on our SC program in the EUCOM AOR. It has 
directly cut some countries out of the program. More significantly, it 
has indirectly discouraged countries from participating in FMF 
programs. Flexibility in applying its restrictions would help EUCOM's 
SC actors build partnerships that achieve our country-specific and 
regional goals and increase host nation support to the global war on 
terror.
    From 2001-2003, Croatia, Malta, and Moldova, all with significant 
existing SC programs, received a total of $27 million in FMF funds. 
Since the enactment of ASPA, they have received none, to the detriment 
of our cooperative relations.
    In Africa, following a similar pattern, more than $330,000 in 
allocated FMF funds were unable to be executed due to ASPA 
restrictions. These restrictions have put a damper on relations with 
key African coastline nations, such as South Africa and Tanzania.
    Most directly, ASPA sanctions on FMF punish a country's military, 
which often has little influence over the political structure of that 
country. More importantly, sanctions on FMF can severely restrict our 
ability to positively influence events in a country and gain or 
strengthen U.S. strategic access.

     global peace operations initiative--sudan and recent missions
    17. Senator Levin. General Craddock, the Global Peace Operations 
Initiative (GPOI) was initiated by the President in 2005 in order to 
ensure that the available pool of peacekeepers would be increased, 
especially in Africa. To your knowledge, how many of the countries who 
have participated in the GPOI have sent peacekeepers trained under the 
program to U.N. peacekeeping missions, and how many of them do we 
believe will contribute to the U.N. mission in Sudan or other upcoming 
missions?
    General Craddock. Currently 19 African countries are partners in 
the GPOI African Contingency Operations Training and Assistance Program 
and 18 of them are currently supporting U.N. peacekeeping missions. Of 
these 18 countries, 15 are supporting the U.N. mission in Sudan. There 
continues to be a considerable amount of support for this program and I 
believe contributing countries will continue the U.N. mission in Sudan 
and/or other upcoming missions. Current GPOI countries include: Benin, 
Botswana, Ethiopia, Gabon, Ghana, Kenya, Mali, Malawi, Mozambique, 
Namibia, Niger, Nigeria, Rwanda, Senegal, South Africa, Tanzania, 
Uganda, Zambia.

                             africa command
    18. Senator Levin. General Craddock, in the coming months, you and 
your partners on the AFRICOM transition team will be working to 
finalize how this new Combatant Command will operate, the composition 
of its command structure, and the interagency model that it follow. The 
committee staff has been told that the new command will have a State 
Department civilian in the position of deputy commander. What is your 
opinion of this proposal?
    General Craddock. I strongly support this proposal. Having a senior 
State Department official in the position of deputy commander is an 
innovative way to synchronize defense activities with diplomatic and 
development efforts. This is a critical function for a command whose 
mission includes unity of effort towards security, stability, and 
peaceful development.

    19. Senator Levin. General Craddock, do you think a State 
Department official should be in the military chain of command?
    General Craddock. Our intent is that a senior State Department 
official will hold one of two deputy positions as the Deputy Commander 
for Civil-Military Affairs (DCMA), on par with the Deputy Commander for 
Military Operations (DCMO). The DCMA will direct and serve as the focal 
point for policy, planning, and execution for AFRICOM regional Theater 
Security Cooperation, including humanitarian assistance, disaster 
relief, peace and security programs, medical and health assistance, and 
strategic outreach.
    Per title 10 of the U.S.C., the DCMO will assume command 
responsibility in the absence of the commander and will issue military 
orders.
    We will also place other interagency personnel into leadership and 
management positions within the headquarters structure to direct the 
activities of the command, but, by law, they will not be able to issue 
military orders.

    20. Senator Levin. General Craddock, what decisionmaking authority 
do you believe interagency members of the command should be given? 
Should they be more than liaison officers?
    General Craddock. Decisionmaking authority for interagency members 
of the command should be the same as that of military staff, i.e., 
commensurate with their position, rank, and expertise. They will be 
more than liaison officers--they will be command staff, undertaking 
command duties and functions, as well as providing needed perspective 
and expertise from their respective home agencies. Interagency 
personnel in leadership and management positions will direct and guide 
activities within the scope of the responsibilities of their position. 
Interagency staff will not have special authority over home agency 
personnel, programs, or resources, unless that authority is granted by 
the home agency.

    21. Senator Levin. General Craddock, what roles and 
responsibilities should the interagency members of this command have?
    General Craddock. Interagency members of AFRICOM will hold 
positions in areas where military activities overlap with the expertise 
of civilian agencies; e.g., in areas of Theater Security Cooperation, 
including humanitarian assistance, disaster relief, peace and security 
programs, medical and health assistance, and strategic outreach. 
Interagency personnel will be in functional, advisory, and management 
positions within the command. As with military and DOD civilian staff, 
their responsibilities will be commensurate with their position, rank, 
and expertise.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                         missile defense system
    22. Senator Akaka. General Craddock, the Russians are not happy 
about the administration's plan to build a missile defense system in 
Poland and the Czech Republic. Administration officials have stated 
publicly that the system is relatively small and designed to protect 
the United States and its allies from a missile attack from Iran. 
Russian officials, however, have stated their suspicions that the 
system could ultimately be expanded and become a defense against 
Russia's huge strategic missile forces. Secretary Rice said the United 
States would build the system with or without Russia's agreement, 
although she says we want to do it ``in a cooperative way.'' Have you 
had any discussions with senior Russian military officers regarding the 
proposed missile defense system? If so, have they indicated any 
concerns to you from the military perspective?
    General Craddock. EUCOM's discussions with Russian military 
officers have been focused on practical bilateral cooperation and 
developing military interoperability. During the U.S.-Russia General/
Flag Officer Consultations 22-23 May 2007, leadership from both sides 
agreed to leave discussion of the U.S. Europe-based BMD initiative to 
the political level.

    23. Senator Akaka. General Craddock, in your opinion, has there 
been any impact on the military-to-military relations between our two 
countries since we announced our intention to build these systems in 
Europe?
    General Craddock. EUCOM has not noted any substantive impact in our 
practical military-to-military relations with Russia since we announced 
our intentions to establish a BMD system in Europe. Despite media 
reporting on the Europe-based BMD issue, the Russian legislature 
approved observance of the NATO-PfP Status of Forces Agreement on 23 
May 2007. President Putin signed this agreement and it will enter into 
force 1 month after submission to the Department of State. During U.S.-
Russia General/Flag Officer Consultations 22-23 May 2007, the senior 
Russian delegate (a two-star general) stated that U.S.-Russia military 
cooperation continues on a positive trend.

    24. Senator Akaka. General Craddock, if you were a Russian general, 
what do you think your reaction would be to our plan to build this 
system next door to your country?
    General Craddock. [Deleted.]

    25. Senator Akaka. General Craddock, in the spirit of building the 
system ``in a cooperative way,'' what type of assurances do you think 
we could give the Russians that might reduce their discomfort over the 
plan to build this system in Europe?
    General Craddock. The United States has consulted with the Russians 
at senior levels on numerous occasions regarding U.S. BMD plans, 
including the NATO-Russia Council and several bilateral discussions. In 
those discussions, the United States offered to explore Russian 
participation and contributions to missile defense initiatives. The 
U.S. consultative process has been transparent and has actively engaged 
Russia regarding our missile defense policy, plans, and programs. The 
proposed European system is not technically capable of threatening 
Russia's ballistic missile assets. Russia's ballistic missiles could 
easily overwhelm the United State's limited number of deployed 
interceptors. Also, the physics and trajectories of Russian launches 
toward the United States make it clear that interceptors placed in 
Central Europe could never catch a Russian missile. European MD assets 
are designed to address a threat that comes from the Middle East, not 
from Russia. Of particular note, Secretary of Defense Gates recently 
sent a letter to Minister Serdyukov asking him to carefully consider a 
U.S. invitation for Russian experts to visit missile defense facilities 
in the United States Secretary Gates also suggested that a Russian 
expert-level delegation provide the United States with Russian views 
about possible areas of missile defense cooperation.

    26. Senator Akaka. General Craddock, in a March 26 interview with 
Der Spiegel Online International (see attached article), Philip E. 
Coyle, who had been in charge of weapons testing and evaluation under 
President Clinton, indicated that he had strong reservations about the 
administration's deployment of anti-missile systems in Europe. 
Specifically, when asked ``who would a U.S. missile defense system in 
Poland protect? Europe or the East Coast of the United States?'', he 
responded, ``For all we know, neither one. The missile defense systems 
already deployed in California and Alaska have not demonstrated the 
capability to destroy enemy missiles under realistic conditions. The 
equipment to be deployed in Poland is no different.'' When the 
interviewer pointed out that ``The U.S. military claims that the system 
has been tested and works fine,'' he responded that, ``all you have to 
do is look at their most recent test. It was successful, but it was 
also the least difficult test they have ever conducted. They are no 
further along today than they were back when I was in the Pentagon 
during the Clinton administration.'' Do you agree with the statements 
made by Mr. Coyle? If not, why not? If you do agree, then do you 
believe that it is a good policy to risk antagonizing the Russians (and 
potentially the Chinese) in order to field a system that has not been 
demonstrated to be very effective?
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    General Craddock. I am not familiar with the allegations made in 
this article, nor can I question the methodology the MDA employs to 
design the most effective missile defense systems possible. However, 
based on the threat we face, I believe it is vital that we field and 
continue to update/improve missile defense technology as it becomes 
available to ensure we are doing everything within our power to protect 
U.S. interests at home and overseas.

    27. Senator Akaka. General Craddock, in your view, is deployment of 
two of these systems to Europe, as well as in Alaska, really an 
effective use of tax dollars? If so, please explain why.
    General Craddock. The EUCOM AOR requires a mix of systems 
(interceptors, radars, and command and control) that provide defense 
against short, medium, intermediate, and intercontinental missiles in 
all phases of flight (boost, mid-course, and terminal). The European 
Site Initiative, one component in this ``mix of systems,'' would 
supplement defense of the United States and defend most of Europe, 
deployed forces, friends, and allies from emerging long-range ballistic 
missile threats in Southwest Asia.

    28. Senator Akaka. General Craddock, the 1972 Anti-Ballistic 
Missile (ABM) treaty was developed between the Soviet Union and the 
United States in order to reduce nuclear proliferation. The idea being 
that if we and the Soviets were not developing ABM systems, we would 
not need to keep increasing the numbers of intercontinental ballistic 
missiles (ICBMs) in our inventories in order to maintain a capability 
to overwhelm the opponent's ABM systems. It seems safe to say that 
history has shown this to have been an effective treaty. Strategic 
deterrence or fear of nuclear retaliation prevented aggression between 
the two nations. The administration has changed the U.S. posture on ABM 
systems, withdrawing from the ABM treaty and developing a layered 
approach to missile defense. What are your views of the changes in our 
missile defense policy?
    General Craddock. Withdrawal from the ABM treaty 5 years ago was 
not a change in our missile defense policy as it pertains to Russia--
the United States remains committed to limiting the strategic 
inventories of both nations, and is not intending to pursue ABM systems 
to defend against Russian missiles. As is stated in the question, 
historically, it was the threat of strategic retaliation that prevented 
aggression between Russia and the United States, not the development of 
ABM systems. The impracticality of any ABM system to defeat a nuclear 
inventory such as is possessed by Russia has been acknowledged by both 
nations. This is still true today, and any current or future ABM system 
would therefore not logically be designed for defense (or conversion to 
offense) against an overwhelming number of Russian missiles.
    Withdrawal from the ABM treaty was a recognition of, and response 
to, an entirely different and new threat--that of missile attack by 
rogue nations and/or terrorist organizations. Pursuit of a missile 
defense program is an appropriate and necessary response to this 
threat. Although the treaty was with Russia, we withdrew from it not to 
develop weapons against Russia, but to free us to develop defenses 
against a very real and emerging threat.

    29. Senator Akaka. General Craddock, if fear of a nuclear 
retaliatory response from the United States was enough to keep the 
Soviet Union from attacking the United States, and the Soviets were a 
super power, why do you think that rogue nations like Iran and North 
Korea would be unafraid of the same type of response were they to 
launch a missile against the United States? In other words, why is 
nuclear deterrence an inadequate policy for protecting our Nation now 
when it was a central basis for our security for decades?
    General Craddock. Against the Soviet Union, nuclear deterrence was 
based on the assumption that both sides, when faced with the potential 
consequences of nuclear conflict, would make the rational and 
responsible decision that the outcome of such a conflict would leave 
both sides devastated. The Soviets could be trusted to ``do the right 
thing.'' Whether or not nuclear deterrence was by itself responsible, 
the fact is that not only were there no nuclear engagements, there also 
were no direct conventional conflicts between the two nations. It could 
be said that nuclear deterrence forestalled any conventional conflicts 
over fears of escalation.
    In today's environment, the threat of rogue nations and terrorist 
organizations cannot be dealt with in the same manner as the Soviet 
Union because they cannot be counted on to act according to the U.S. 
concepts of rationality. There is a significantly lower confidence 
level in the idea that the threat of a nuclear retaliation by the 
United States would prevent an attack, nuclear or otherwise, on our 
country, our allies, or our interests by a rogue nation or nonstate 
actor. In fact, we have been attacked despite the fact our enemies knew 
of our nuclear strike capabilities. There is less reason to believe a 
non-state actor or even perhaps a rogue nation would not employ weapons 
of mass destruction (WMD)--if not by a rogue nation directly, then via 
the transfer of such weapons to entities with little to lose by using 
them. Deterrence will not work against an adversary that has nothing to 
lose. We therefore must focus our efforts on nonproliferation and 
defense against potential attacks. Such efforts will provide a layered 
alternative to nuclear retaliation.

    30. Senator Akaka. General Craddock, in your opinion, does our 
backing out of the ABM treaty have any negative consequences? For 
instance, what does it tell our allies, or other nations in the world, 
when we back out of a successful anti-proliferation treaty, such as the 
ABM treaty?
    General Craddock. The ABM treaty was not directly a 
nonproliferation treaty. It was not designed to prevent the spread of 
nuclear weapons to other countries, but rather to maintain the balance 
of power between the United States and Soviet Union and prevent the 
need for massive weapons buildup, as was stated in a previous question. 
In any event, our withdrawal from the treaty occurred 5 years ago and 
at the time it seemed the biggest potential consequence was that 
without the treaty, the events it was designed to prevent would begin 
to occur. This has not happened. The most significant impact has been 
the perception by Russia and a few others nations that the United 
States wishes to gain an advantage, and that perception has created 
some negative political ramifications. In the 5 years since the end of 
the treaty, we have been able to, through dialogue and by our actions, 
convince most parties that we only want to respond to the emerging 
rogue and terrorist threats we now face. The current need for a missile 
defense system affects not only us but our allies and partners, 
including Russia. We want to work together on this issue, and as a 
result we continue to invite a cooperative approach.

                             eucom and nato
    31. Senator Akaka. General Craddock, what are the views of our NATO 
allies (both military and civilian) regarding our missile defense 
actions implemented under the Bush administration?
    General Craddock. I believe that there is a shared perception 
amongst allies of a common threat from ballistic missiles and that any 
U.S. and NATO systems deployed should be complementary. The issue of 
missile defense is not new to NATO and the position of the alliance is 
clear. NATO is pursuing a three-track approach to missile defense, to 
include: (1) the ongoing NATO project to develop by 2010 a `theater 
missile defense' for deployed troops; (2) NATO's 26 nations have agreed 
to assess by February 2008 the implications for the alliance of the 
U.S. missile defense system; and (3) NATO will continue its existing 
cooperation with Russia on theater missile defense as well as on 
related issues.

    32. Senator Akaka. General Craddock, according to a new State 
Department report, terrorists are changing their tactics. Specifically, 
the report states that early terrorist attacks were largely 
expeditionary, with terrorists selected and trained in one country, 
then secretly inserted into the target country to conduct their attack. 
The report further states that the new trend is toward guerilla 
terrorism, where the terrorist team is grown close to its target, using 
target country nationals. Finally, the report states that this trend is 
a shift in the nature of terrorism, from traditional international 
terrorism into a new form of transnational, non-state warfare that 
resembles a form of global insurgency. According to the report, this 
represents a new era of warfare.
    This report, as well as information you provided in your statement, 
suggests that the battlefield for the war on terror can no longer be 
limited to Iraq and Afghanistan. Indeed, while our military is tied 
down in Iraq and Afghanistan, the terrorists are expanding the 
battlefield throughout the world. How do you think the change in 
terrorist strategy should affect our military strategies in Iraq and 
Afghanistan, and what do you think we should do to adapt?
    General Craddock. I would refer the committee to Commander, U.S. 
CENTCOM, regarding evolving threats in Iraq and Afghanistan and any 
intended changes in the U.S. approach. Throughout the 92 sovereign 
countries in EUCOM's AOR, we are actively engaged with allies and 
partners to defeat violent extremist organizations and their supporting 
infrastructure.
    In North Africa the U.S. Government is currently focused on 
capacity building activities aimed at changing the strategic 
environment in order to deny terrorists freedom of action and access to 
safe havens. As a supporting element of the Department of State's 
Trans-Sahara Counterterrorism Program, EUCOM near-term efforts are 
focused on the nine OEF Trans-Sahara (OEF-TS) nations, building their 
capability to combat terrorism and promoting regional stability. EUCOM 
continues to conduct operations and activities in support of Combined 
Joint Task Force-Horn of Africa. Throughout the EUCOM AOR, our SC 
activities continue to support U.S. Government efforts to address 
sources of instability and populations susceptibility to extremist 
messaging and calls to violence.
    In the long-term, I recommend a forum between U.S. Government 
agencies and key partners be established to develop solutions to the 
expansion of operational trans-national networks. The U.S. Government 
must also strengthen legal institutions to better enable countries to 
prosecute terrorists. We will be successful through effective 
cooperation with partners and allies, and with unity of effort across 
all elements of U.S. national power.

    33. Senator Akaka. General Craddock, has EUCOM's or NATO's 
strategies in the war on terror adjusted to the new terrorist tactics? 
If so, how? If not, why not?
    General Craddock. EUCOM recognizes that the war on terrorism is 
continually evolving. In studying the diverse characteristics of the 
EUCOM AOR, I am convinced that EUCOM has to make a strategic shift from 
``prediction'' to ``positioning.'' The strategic shift to positioning 
includes not only predicting where the next event will occur but also 
postures the U.S. Government to act in an agile and flexible manner 
with the appropriate authorities. Additionally, the U.S. Government 
strategy to combat the global terrorist must encompass more than just 
largely a DOD approach--it will take a full governmental effort, over 
time, to preclude the conditions that give rise to terrorist 
organizations and activities.

                   eucom and the global war on terror
    34. Senator Akaka. General Craddock, what changes to our overall 
national strategy in the global war on terror would you recommend?
    General Craddock. We will be successful through effective 
cooperation with partners and allies, and with unity of effort across 
all elements of U.S. national power. In January 2007, the National 
Security Council's Counterterrorism Security Group directed the DOD and 
the Department of State to lead interagency efforts to develop regional 
priorities for the global war on terror. EUCOM supports efforts aimed 
to: make hard, logical choices for where and how to focus U.S. 
Government efforts in a world of scarce resources; define regional 
priorities according to violent extremist threat and capability, U.S. 
interests, and the capabilities of partner nations; and integrate 
regional prioritization into agency budget formulation processes and 
the Office of Management and Budget review of agency budgets.

    35. Senator Akaka. General Craddock, since September 11, the United 
States has relied heavily on our military for prosecuting the war on 
terror. Our invasions of Afghanistan and Iraq have placed a heavy toll 
on the readiness of our military, and on the ability of the National 
Guard to provide disaster relief at home. What has been the impact of 
the Iraq and Afghanistan wars on the readiness of troops in the EUCOM 
AOR?
    General Craddock. The question for EUCOM is more one of 
availability versus readiness. The frequent deployments and need to 
provide adequate dwell time affect all forces sourced to OEF and OIF. 
However, in this case EUCOM is actually more fortunate than other 
commands in that we have excellent facilities at Grafenwohr and 
Hohenfels for our units to conduct their pre-deployment training. The 
negative impact upon EUCOM is that forces are unavailable to conduct 
Theater Security Cooperation with potential partner nations. We cannot 
expect these nations to continue to support us in Iraq and Afghanistan 
if we cannot provide training and equipment they need to fight 
effectively alongside the United States and other wealthy NATO nations. 
To build partner capacity we must have forward positioned forces able 
to set the example and train with our partners. By stationing them in 
Europe, our forces develop the habitual relationships that build the 
trust and confidence so vital in combat operations. When we take these 
units out of Europe to conduct operations in the short-term, we give up 
many times their number in partner nation capacity in the long-term.

    36. Senator Akaka. General Craddock, the United States does not 
have unlimited resources to fight the war on terror. As such, I am 
interested in your views on our approach to the global war on terror so 
far. In your opinion, has the war in Iraq been the most effective and 
efficient use of our taxpayer resources in fighting the global war on 
terror?
    General Craddock. We will be successful in fighting the global war 
on terror through effective cooperation with partners and allies, and 
with unity of effort across all elements of U.S. national power. In 
January 2007, the National Security Council's Counterterrorism Security 
Group directed the DOD and the Department of State to lead the 
interagency effort to develop regional priorities for the global war on 
terror. EUCOM supports efforts aimed to make hard, logical choices for 
where and how to focus U.S. Government efforts in an environment of 
constrained resources; define regional priorities according to violent 
extremist threats and capabilities, U.S. interests, and the 
capabilities of partner nations; and integrate regional prioritization 
into agency budget formulation processes and Office of Management and 
Budget review of agency budgets.

    37. Senator Akaka. General Craddock, do you think we have 
implemented the best possible strategy for this war? For instance, do 
you think we might have gotten a bigger bang for our buck by using an 
alternate strategy instead of using the military as the primary weapon 
against terrorists?
    General Craddock. The military has an important role in supporting 
U.S. Government efforts to disrupt or defeat violent extremist attacks 
at home, to disrupt their networks and support infrastructure abroad, 
to deny them possession or use of WMD and associated technology, and in 
building partner capabilities. The aim of these efforts is to establish 
a global environment inhospitable to violent extremism. While the DOD 
has an important role to play, the U.S. Government will be successful 
in fighting the global war on terror through effective cooperation with 
partners and allies, and with unity of effort across all elements of 
U.S. national power.

    38. Senator Akaka. General Craddock, could we have utilized our 
limited resources more efficiently by stepping up our efforts in other 
areas, such as law enforcement, intelligence, and support to allies and 
partner nations, to fight terrorist organizations, with surgical use of 
our military to make strikes when needed (e.g., for destruction of 
rogue nation weapons production facilities, terrorist training 
facilities, or WMD research facilities, et cetera)? In your answer, I 
would like you to consider not only the monetary and military readiness 
impacts of the war in Iraq, but the effect that U.S. efforts in the 
Iraq war has had politically and militarily on our allies in the EUCOM 
AOR and their willingness to support us in the war on terror.
    General Craddock. I would defer to Admiral Fallon, Commander U.S. 
CENTCOM, to address specific questions on Iraq.
    There remains considerable support for U.S. efforts in the global 
war on terror. Most recently, the Government of Georgia announced plans 
to increase their military presence in Iraq--nearly tripling the number 
of Georgian coalition forces providing support to OIF. Additionally, 
all 26 NATO member nations have deployed personnel to support the ISAF 
in Afghanistan. However, our time there is finite--the military 
capacity of the Afghanistan government must at some point be capable of 
defending itself and its people. Getting the Afghanistan government on 
its feet is the fundamental prerequisite to our eventual exit from that 
country.

    39. Senator Akaka. General Craddock, the President says we must 
fight them in Iraq or else they will follow us back. Given the 
successful al Qaeda attacks in Spain and the UK, as well as attacks 
that have been foiled, it seems they have already followed us back. Do 
you agree? If not, why not?
    General Craddock. Our nation is at war with violent extremist 
organizations who pose a threat to our security and to that of all 
societies that cherish the principles of pluralism and self-government. 
As evidenced by numerous attacks and disrupted plots, violent extremist 
organizations continue to seek weakness in the national security 
structure of the United States and our allies. Where they find such 
weakness, I am confident they will seek to strike with all means at 
their disposal.

                international security assistance force
    40. Senator Akaka. General Craddock, how much are the national 
caveats placed on allied forces in the ISAF hindering the effectiveness 
of the operations in Afghanistan compared to what ISAF capabilities 
could be if there were no national caveats?
    General Craddock. The effects of caveats have been reduced in the 
past year, providing Commander ISAF (COMISAF) with more flexibility. 
COMISAF has been able to work around existing caveats to successfully 
conduct his mission. Caveats regarding in-extremis support were removed 
by all nations and provide for a greater degree of security for NATO 
forces in Afghanistan. Removal of all caveats would provide COMISAF 
with greater flexibility in the conduct of ISAF's mission.

    41. Senator Akaka. General Craddock, why have our allies placed 
caveats on the use of their troops in support of ISAF operations in 
Afghanistan?
    General Craddock. The reasons for caveats vary from nation to 
nation. In general there are several major reasons:
    Use of a force only in a specific area:

         Too expensive/no logistic mechanism to support the unit at a 
        distance from their home base
         Inability to provide effective command and control at 
        extended distances from their base

    Use of force for specific types of missions:

         National decisions on the types of missions they provided 
        their forces to perform--security, support for development, et 
        cetera

    Use of force only in conjunction with another specific country's 
force:

         Some nations lack the enablers to support their forces in 
        theater; therefore, they made bilateral agreements with another 
        nation for support
         Some nations have confidence in working with other nations 
        due to previous experiences, shared languages, or shared 
        cultures.

    42. Senator Akaka. General Craddock, have you, your staff, or your 
predecessors attempted to negotiate with our allies to have these 
restrictions lifted or reduced? If not, why not? If so, what has been 
the basis for our allies refusing to remove or relax these 
restrictions?
    General Craddock. Deputy SACEUR, the SHAPE staff, together with the 
Military Committee Chairman, the Secretary General, and I work 
continuously with representatives of NATO member nations to reduce or 
remove caveats, where possible. In some cases, nations have very 
specific reasons why they apply a caveat to their force contribution. 
See Question 41 above.

    43. Senator Akaka. General Craddock, have we placed similar 
restrictions on the use of our troops in support of U.N. peacekeeping 
missions?
    General Craddock. I know of no similar restrictions placed on U.S. 
troops assigned to support U.N. peacekeeping missions. U.S. command 
over U.S. forces is maintained while supporting U.N. peacekeeping 
missions and all details concerning U.S. participation, as to logistics 
and rules of engagement (ROE) (to include required supplements--may 
allow the use of riot control agents and various forms of mines, for 
instance) is in place prior to U.S. forces execution of the mission.

    44. Senator Akaka. General Craddock, during the hearing, you stated 
that our allies had not fully resourced the statement of requirements 
for the ISAF, and that you believe that being under-resourced may have 
contributed to the significant number of recent Afghan civilian 
casualties incurred while the United States is conducting operations 
against the Taliban. Please provide a list of unfilled requirements 
from the statement of requirements. Include which nations were 
committed to filling each requirement and what their original scheduled 
deadline was.
    General Craddock. Force generation by NATO is an ongoing process, 
with nations producing and deploying capabilities to the theater on a 
constant basis. The statement of requirements is a document approved by 
NATO nations of forces needed to execute the mission. It, too, 
undergoes modification over time as my strategic headquarters reviews 
and updates the CJSOR in coordination with ISAF headquarters. The 
current CJSOR for ISAF still has significant shortfalls, to include 
maneuver battalions in the southern region, air-transport capability, 
counter-IED equipment, and intelligence, surveillance, and 
reconnaissance assets. One of our most significant shortfalls and my 
highest priority lies in commitments of OMLTs, which are central to 
building the ANA capacity to provide security for their own country. 
With regard to commitments from nations--it is not a case of 
unfulfilled promises by individual nations, but rather a case of no 
nation signing up for some specific requirements.

    45. Senator Akaka. General Craddock, have you inquired with our 
allies as to why they have not fulfilled their commitments? If so, what 
was their explanation?
    General Craddock. NATO nation contributions to NATO agreed 
operations vary with each nation, as do the reasons behind their 
respective level of contribution. Several common reasons include:

         Nations may simply not have the needed asset
         Nations do not have the financial ability to support the 
        requested force in theater
         Nations do not have the backing of their people for further 
        support--risk aversion
         Nations resources are committed to other NATO and non-NATO 
        operations

    The formal decision to commit and sustain forces to a NATO 
operation is a national one, taken at the highest levels of civilian 
and political leadership of our respective nations. In addition to our 
efforts to work with allied militaries to determine the most effective 
resources and means to accomplish the missions assigned by our 
governments, I would encourage members of this committee to talk to 
their counterparts in allied and partner parliaments, urging them to 
contribute to our common objectives.

                    deportation of afghans from iran
    46. Senator Akaka. General Craddock, the BBC reported on May 2 that 
the U.N. estimates that Iran had deported 36,000 Afghans back to 
Afghanistan in the previous 10 days. In addition, it appears that they 
intended to deport an additional 14,000 of what they call ``illegal'' 
Afghans in the near future. Have you received any confirmation that 
this mass deportation occurred? If so, what are the repercussions to 
our operations in Afghanistan from Iran's sudden deportation of large 
numbers of Afghans?
    General Craddock. The return of displaced Afghans is a complicated 
economic, social, and political process. This matter requires the 
concerted effort of all governments involved and international 
organizations that wish to assist and facilitate the return of Afghans. 
It would be unwelcome and unfortunate, if this process of returning 
Afghans to Afghanistan would also facilitate the insertion of militants 
or opposition military forces with the goal of destabilizing the 
important gains achieved by the international community in Afghanistan.

    47. Senator Akaka. General Craddock, do our troops, or the ISAF, 
need additional resources? If so, what do they need?
    General Craddock. Speaking from a NATO perspective, I believe that 
the greatest current equipment need for ISAF is intelligence, 
surveillance, and reconnaissance capabilities to support our expanding 
operations. ISAF air-transport capability, both fixed wing and rotary 
wing, are highly valuable in this operation and always in need. NATO 
nations could also enhance their national forces deployed by improving 
their C-IED equipment, and expanding their armored truck capacity. With 
respect to the NATO Provincial Reconstruction Teams (PRTs), the non-
U.S. PRTs could benefit from increased financial resources to fund 
reconstruction and development projects similar to the way U.S. PRTs 
use Commanders Emergency Response Program funds for quick impact 
projects.

    48. Senator Akaka. General Craddock, there are an estimated 1.5 
million Afghans living in Iran. If Iran is deporting large numbers of 
Afghans, and continues to do so, what would the impacts be on ISAF or 
U.S. operations in Afghanistan?
    General Craddock. Speaking from a NATO perspective, I believe the 
return of displaced Afghans is a complicated economic, social, and 
political process. This matter requires the concerted effort of all 
governments involved and international organizations that wish to 
assist and facilitate the return of Afghans. It would be unwelcome and 
unfortunate if this process of returning Afghans to Afghanistan would 
also facilitate the insertion of militants or opposition military 
forces with the goal of destabilizing the important gains achieved by 
the international community in Afghanistan.

                impact of civilian deaths in afghanistan
    49. Senator Akaka. General Craddock, Reuters reported on May 2 that 
President Karzai stated that Afghans are losing patience over killing 
of civilians by western forces hunting Taliban guerrillas. According to 
the report, approximately 50 civilians were killed in raids by U.S.-led 
troops in the previous week, sparking 4 days of anti-American, anti-
Karzai protests. Reuters further reported that ``Karzai said he had 
repeatedly told U.S. and NATO commanders to coordinate their anti-
Taliban raids with his government, stop searching civilian houses, and 
exercise caution to avoid civilian deaths.'' Can you confirm the 
information in this report? If so, can you explain what the problems 
are that are getting so many civilians killed in our raids on the 
Taliban, and what is being done to fix the problem?
    General Craddock. I have read these press reports, but cannot 
confirm the specific information referred to in the 2 May report. 
Speaking from a NATO perspective, civilian casualties are an important 
matter to the Afghan government and for ISAF. During ISAF planned 
operations, ISAF conducts a very rigorous process to avoid civilian 
casualties. ISAF has cancelled or postponed military operations when 
they clearly posed a risk to civilians. While every attempt is made by 
our soldiers to predict and ascertain the location of civilians, 
unforeseen situations occasionally occur, which find a civilian in an 
unexpected location. In these ``in-extremis'' situations ISAFs are 
invariably at risk of injury, death, or capture. We rely on the 
judgment and ability of commanders and soldiers on the ground to 
operate with the ISAF ROE and use proportional force to maneuver out of 
the situation. Our priority must be to maintain their safety while 
doing everything possible to minimize civilian deaths. We review every 
incident, and in all cases our reviews have shown that ISAF has 
operated within the approved ROE.

    50. Senator Akaka. General Craddock, have we coordinated our raids 
with the Afghan government as requested by President Karzai? If not, 
why not?
    General Craddock. Speaking from a NATO perspective, I believe that 
COMISAF, his staff, and regional commanders work and coordinate with 
Afghan forces to ensure that their operations are conducted in harmony 
with ISAF operations. ISAF operations routinely include ANSFs which are 
increasingly capable of both supporting ISAF, and conducting more 
independent operations. There is extensive consultation with senior 
Afghan military officials on ISAF and ANA operations, and numerous, 
routine meetings between COMISAF and Afghan Ministry of Defense and 
Chief of Defense staff. As the ANSFs grow in capability and competence 
they will conduct more independent operations.

         security situation in the eucom area of responsibility
    51. Senator Akaka. General Craddock, on May 22, Reuters reported 
that the leaders of Belarus and Iran pledged to act jointly to counter 
attempts to exert pressure on either of the individual nations. In your 
opinion, does this pact potentially impact the security situation in 
the EUCOM AOR? If so, what is your assessment of the impacts?
    General Craddock. Belarus and Iran's pledge will not significantly 
affect security in the EUCOM AOR. Minsk and Tehran continue to 
strengthen financial, political, and possibly military ties. Their 
collaboration will likely include restrictions on diplomatic ties with 
western countries involved in the disruption of oil/gas supplies 
through its territory to Europe or suspension of trade with U.S. allies 
altogether. The current poor state of Belarusian finances, its already 
strained relations with the west, and existing western sanctions 
preclude Minsk from responding with a significantly economically 
damaging response.

    52. Senator Akaka. General Craddock, what is your assessment of the 
recent cyber attacks on the Estonian government? Are there implications 
for regional security? If so, what are they?
    General Craddock. The Estonian cyberspace attacks are best 
characterized as a Cyber Riot, an emotional and violent response by 
ethnic-Russian professional and amateur hackers inside Estonia and 
Russia, instigated in response to Estonia's decision to move a Russian 
World War II memorial. Attacks were launched at three categories of 
targets: Web sites and internet servers operated by the government of 
Estonia, Information Technology (IT) infrastructure owned and operated 
by telecommunications firms, and commercial targets such as online 
retail banking Web sites and news corporations. Overall, effects of the 
Cyber Riot were moderate. Web sites were defaced or briefly taken off 
line, there were brief outages of network routers, and some sites 
suffered sustained denial of service attacks. Since peaking on 9 May, 
the attacks have diminished in intensity and the combined efforts of 
the government of Estonia and its commercial partners are sufficient to 
mitigate the attacks' effects. Most Estonians have not been affected by 
the attacks and likely would not have been aware of the attacks absent 
press reporting. Finally, the intensity of attacks did not rise to a 
level sufficient to pose a serious threat to Estonia's internet 
operations. Although the Kremlin's direct role as facilitator is 
unknown, there are indications that Moscow has resorted to cyber 
attacks during previous disputes with other countries. Future disputes 
between Russia and its neighbors will likely involve similar cyber 
attacks, particularly if the issue resonates with the Russian populace. 
However, the frequency and sophistication will probably be limited and 
carry little implication for regional security.

    53. Senator Akaka. General Craddock, it was recently reported that 
President Nursultan Nazarbayev was effectively declared Kazakhstan's 
president-for-life in a move condemned by the nation's opposition as 
undemocratic. The Kazakhstan parliament voted overwhelmingly to allow 
Nazarbayev, in power since 1989, to run for the presidency an unlimited 
number of times. Kazakhstan has never held elections considered to be 
free and fair by western monitors. Could you please provide your 
assessment of the significance of this move by the Kazakhstan 
government?
    General Craddock. I would defer to Admiral Fallon and the CENTCOM 
assessment on this with respect to specific military equities as 
Kazakhstan lies in the CENTCOM AOR.

                                 russia
    54. Senator Akaka. General Craddock, Vladimir Putin has also taken 
actions to consolidate his power in recent times, obviously having a 
negative effect on democracy in Russia. How many other former Soviet 
states are pulling back from democratic principles, and is this a trend 
over which you believe we should be concerned?
    General Craddock. [Deleted.]

    55. Senator Akaka. General Craddock, with democratic principles 
being threatened in Russia and other former Soviet states, Putin's 
willingness to use energy as a weapon, Russia's problems with some 
former Soviet states (e.g., Estonia), and Russian relations with the 
United States and NATO becoming ``frosty'' over our anti-missile 
system, is there potential, in your opinion, for U.S.-Russian relations 
to slide back into a Cold War mode?
    General Craddock. [Deleted.]

    56. Senator Akaka. General Craddock, what is your assessment 
(political and military) of the implications for EUCOM regional 
security, if Russia follows through on its threat to withdraw from the 
Treaty on Conventional Armed Forces in Europe?
    General Craddock. [Deleted.]

    57. Senator Akaka. General Craddock, what is your assessment of the 
implications if Moscow follows through on its threat to opt out of the 
treaty with the United States banning intermediate-range missiles?
    General Craddock. [Deleted.]
                                 ______
                                 
               Questions Submitted by Senator John McCain
                  quality-of-life and family readiness
    58. Senator McCain. General Craddock, the Subcommittee on Personnel 
and the Subcommittee on Readiness and Management Support had a joint 
hearing this year on military family readiness. It is clear from the 
testimony received that families and volunteers, though resilient, are 
under high stress as a result of 5 years of war, and multiple, 
lengthened deployments. Could you comment on the impact of funding 
family readiness programs principally through supplemental 
appropriations, rather than in the core budget of the Services; the 
need for additional professional counseling services; and the 
perception that when resources are stretched, family readiness support 
programs suffer?
    General Craddock. While families, volunteers, and community support 
staffs continue to shoulder the burden of maintaining supportive, safe, 
and productive communities in the wake of extended deployments, they 
cannot continue to do so while programs and resources are impacted by 
Services' mission resource priorities. Additional and consistent 
support is needed in the European theater for Chaplain-led marriage and 
reintegration retreats, Family and Community Support Center staffs, 
Family Readiness Group assistants, Ombudsmen, as well as child, youth, 
and teen programs, particularly in the area of clinical child and 
adolescent mental health services, to help children deal with longer 
and more frequent deployments of their parents. Such programs are the 
first line of defense to ensure families are supported. The impact of 
funding such programs through supplemental appropriations results in 
uneven levels of support and uncertainty regarding the future of these 
programs. The perception that family readiness support programs are 
suffering directly impacts troop readiness and retention. While 
Services are forced to make hard choices in stretching core budgets to 
meet competing mission priorities, we are asking much from our 
servicemembers and their families.

    59. Senator McCain. General Craddock, do you agree with these 
concerns, and how are you addressing them in EUCOM?
    General Craddock. I strongly agree with these concerns and will 
continue to stress the need for the consistent support of programs such 
as those discussed above. One specific action taken by EUCOM earlier 
this year was to identify the need and ask the OSD for an allocation of 
$3.2 million to provide additional child, youth, and teen program 
support. EUCOM is working with OSD to ensure appropriate programs and 
activities are available for children of deployed servicemembers, 
improve current childcare resources, and extend support resources for 
children of wounded servicemembers.

        military health and mental health care assets in europe
    60. Senator McCain. General Craddock, your testimony indicates that 
families are having problems accessing health care services overseas, 
and that increased counseling services are needed. What are your 
overall requirements for health and mental health care? Are the medical 
facilities adequately maintained?
    General Craddock. EUCOM military healthcare professionals are doing 
an outstanding job balancing the medical requirements of preparing our 
warfighters for deployments while simultaneously serving the needs of 
our beneficiary community. Due to our own medical deployments, military 
treatment facilities experience fluctuations in appointment 
availability--particularly in the specialty areas--and rely on host 
nation medical facilities and providers to fill appointment voids. 
While overall access to healthcare is good, the challenge is for our 
beneficiaries to understand their local country's cultural differences. 
We continue to strengthen awareness programs through the media and 
health care access marketing campaigns.
    In the area of counseling, EUCOM has utilized several Quality-of-
Life Conferences, Tiger Teams, and the recent EUCOM Deployment and 
Community Counseling Support Conference to identify, resource, and 
process requirements to improve counseling support to servicemembers 
and their families. Our early analysis has been provided to the DOD 
Mental Health Task Force, but current clinical child and adolescent 
mental health resources are not sufficient to meet the growing need as 
children deal with the deployment of their parents. Throughout the 
EUCOM AOR we closely monitor and assess the condition of our 
facilities.

    61. Senator McCain. General Craddock, where are the shortfalls in 
facilities or services? How can the committee assist in meeting those 
shortfalls?
    General Craddock. In addition to funding currently planned medical 
military construction projects, clinical mental health resources 
supporting servicemembers, spouses, and dependents dealing with the 
deployment of their parents, are not sufficient to meet the growing 
need. As in the United States, we are caring for a population under 
stress that is beyond the norm. Additionally, by being in Europe, we 
have unique challenges in hiring the professionals needed to supplement 
our mental health specialists. While we rely on host-nation healthcare 
partners, the particular nature of mental and behavioral health 
requires special dependence on both cultural and language familiarity. 
EUCOM and our components have developed an initiative to contract child 
care and adolescent mental health special needs. Finally, we continue 
to seek improvements in the healthcare process to better manage 
appointment systems and track access. This ensures family members get 
timely healthcare services they need when not available on base because 
of the deployment of our medical servicemembers.
                                 ______
                                 
              Questions Submitted by Senator Mel Martinez
                     morocco and the western sahara
    62. Senator Martinez. General Craddock, last month, Morocco 
announced a plan for autonomy of the Western Sahara region, a proposal 
that the State Department characterized as ``a serious and credible 
proposal to provide real autonomy for the Western Sahara.'' I share the 
view of the international community that the Western Sahara dispute is 
long overdue for settlement. Morocco receives considerable United 
States SC assistance. Can you comment on the military-to-military 
relationship we have with the Moroccan armed forces?
    General Craddock. The United States and Morocco maintain a strong 
military-to-military partnership, with annual and biannual joint force 
exercises including land, sea, and air forces, and a model State 
Partnership Program executed by the Utah National Guard. The United 
States has completed 19 military-to-military events with Morocco and 11 
more are scheduled for the remainder of this fiscal year. The Utah 
National Guard State Partnership Program sponsored 13 of the 30 events.
    Morocco is the United States' oldest ally in North Africa. It 
possesses a significant regional military capability and the ability to 
operate in a multi-national environment, as demonstrated by its 
participation in U.N. peacekeeping operations worldwide. Morocco 
currently supports the U.N. missions in Democratic Republic of Congo, 
and Ivory Coast. Earlier Moroccan peace keeping operation deployments 
went to Zaire (current Democratic Republic of Congo (DROC)), Somalia, 
Bosnia, Haiti, and Kosovo. Additionally Morocco sent troops to support 
Operation Desert Storm.

    63. Senator Martinez. General Craddock, can you give any insight on 
the possibility for compromise based on what you are seeing on the 
ground?
    General Craddock. I do not expect settlement of the Western Sahara 
issue in the near-term. However, Morocco's formulation of a viable 
autonomy plan and the commitment of the Saharawi Arab Democratic 
Republic (SADR) government and the leadership of the POLISARIO Front 
(Frente Popular para la Liberacion de Saguia El-Hamra y Rio de Oro) to 
participate in bilateral talks with the Government of Morocco to 
discuss these issues is a major breakthrough and can serve as the basis 
for an eventual compromise.
    The SADR government and POLISARIO continue to express their 
opposition to any imposed solution that does not involve their ability 
to exercise the right of self-determination. The status quo favors 
Morocco and I believe the SADR and POLISARIO recognize this and are 
formulating a strategy to move things in the direction of an eventual 
settlement.

                  military spending in nato countries
    64. Senator Martinez. General Craddock, in your testimony, you note 
with concern that the defense budgets of many of our NATO partners have 
fallen to levels that jeopardize their ability to meet their 
commitments to the alliance. Can you give an update on the effort to 
get the members of NATO to invest adequately in their defense 
structure?
    General Craddock. NATO nations have agreed to a defense budget 
target of 2 percent of GDP. These national defense budget decisions are 
taken by sovereign nations at the highest level of government. NATO 
nations are frequently encouraged to meet the agreed 2 percent target 
during North Atlantic Council meetings at the level of defense 
ministers. However, a very small number of nations within the alliance 
meet this 2 percent target and inadequate defense budgets can directly 
and indirectly impact on NATO's collective ability to meet alliance 
goals with respect to `useable land force' targets of 40 percent and 8 
percent for the deployability and sustainability (commitment to 
operations). These ambitious `useable force' goals, combined with 
national force transformation objectives, require substantial defense 
budgets to maintain capabilities and finance the necessary 
transformation of national forces to meet 21st century security 
requirements. Defense spending and the need to meet the 2 percent 
target will continue to be an essential part of the transatlantic 
security dialogue.

    65. Senator Martinez. General Craddock, can you give some examples 
of how this lack of investment may be constraining the alliance in 
Afghanistan or elsewhere?
    General Craddock. Robust defense budgets that meet the 2 percent 
targets of GDP would be better able to sustain modern force 
capabilities, including those forces that are deployable for NATO 
operations, and adequately finance the transformation of national 
defense structures. NATO nations have unevenly implemented defense 
transformation, and in so doing not fully developed the capabilities to 
meet and sustain deployable force levels. For operations like those in 
Afghanistan, modern forces capable of operating at strategic distance 
are required. NATO's force requirements for the ISAF mission are 
significant and diverse. PRTs, observer, mentor, and liaison teams, 
rotary wing aircraft, fixed-wing transport aircraft, and maneuver 
battalions are examples of the diverse force capabilities identified to 
support the ISAF mission. Unfortunately the alliance has been unable to 
source all the forces and capabilities for the overall operation. 
Enhanced defense budgets would contribute to addressing shortfalls in 
the ISAF pool of forces and capabilities, including those capabilities 
and infrastructure projects that the alliance funds on a common basis.

    66. Senator Martinez. General Craddock, how can Congress assist in 
gaining further support from NATO member countries?
    General Craddock. Members of the U.S. Congress could provide 
assistance in U.S. efforts to convince the 20 of 26 NATO alliance 
nations that do not spend the agreed upon 2 percent of their GDP on 
their militaries to increase defense spending. Members of Congress 
should take advantage of opportunities, including NATO Parliamentarian 
Assembly meetings, to articulate the alliance's military spending 
goals, both in public and in private. These opportunities also include 
office calls during congressional delegation trips to Europe, 
conferences with alliance leadership in both the United States and 
Europe (such as the annual Davos World Economic Forum and the Munich 
Security Conference), and meetings Members of Congress take from 
European leadership visiting Washington, DC. Additionally, submission 
of editorials by influential Members of Congress to European newspapers 
such as the International Herald Tribune (U.S.), Financial Times (UK), 
the Times of London (UK), Corriere Della Sera (IT), Le Monde (FR), and 
Der Spiegel (GE) could influence the European public and leadership.

 legislative assistance with united states security assistance programs
    67. Senator Martinez. General Craddock, you note in your written 
statement that you have three concerns that you would appreciate 
congressional assistance with. One area of concern is that the SC 
system structure needs to be streamlined. You note that you are 
concerned that the current system is slow and inefficient. It is not 
clear what the problems are or how to fix them. You note that there are 
a number of U.S. Government Security Assistance programs and activities 
that the COCOM is assigned responsibility for execution of that you 
have little or no influence/control of. It is well known that the U.S. 
Foreign Military Sales (FMS) system is slow and cumbersome. Is that 
what you are referring to? How would you recommend changing the current 
arrangements?
    General Craddock. My concerns regarding TSC reform extend beyond 
that of FMS. The FMS process is complicated by statutory requirements 
(Foreign Assistance Act, Arms Export Control Act, and annual 
appropriations acts) as well as being impacted by foreign affairs 
issues (e.g., human rights). In addition, technology transfer issues 
can delay major system sales in both FMS and Direct Commission Sales. 
The processing time requirements within different agencies have 
extended some FMS cases over 1 year. This time needs to be shortened. 
There should be one person selected for the oversight and management of 
a program from initiation to completion.

    68. Senator Martinez. General Craddock, if your concerns are more 
than FMS, then what are those concerns and what would you like to see 
change?
    General Craddock. EUCOM lacks the ability to efficiently and 
effectively meet TSC objectives due to legal restrictions, complex 
funding sources, and multiple program authorities. Reforming our TSC 
processes would promote greater efficiencies, and expand U.S. 
influence, agility, and competitiveness in accordance with the National 
Military Strategy and OSD Security Cooperation Guidance (SCG). Within 
DOD, a variety of strategic guidance documents, including the SCG and 
Contingency Planning Guidance (CPG), are being merged into the Force 
Employment Guidance (FEG) to better integrate planning activities and 
streamline objective prioritization and resource allocation.
    We need to create unity of effort with respect to title 10 and 
title 22 authorities to allow efficient execution of train and equip 
programs. Title 22 FMF/IMET money is bilateral, so if regional 
priorities change, the GCC does not have the authority to redistribute 
funds as necessary. The GCC needs expanded discretionary authority to 
fund emergent needs within the AOR. The long lead time of budgetary 
processes coupled with the current legislative restrictions limits 
COCOM flexibility.
    GCCs have insufficient influence over the vast majority of SC 
funding and require more visibility among TSC activities within their 
AORs. An interagency process that synchronizes strategies and 
engagement plans would be indispensable for effective TSC execution.

                                  iran
    69. Senator Martinez. General Craddock, while Iran is not in the 
EUCOM AOR, it is in your area of interest, since its policies and 
actions affect the countries in your AOR. Can you outline your 
assessment of the threat Iran poses today in terms of sponsoring 
terrorist organizations, and in the future as they continue their 
effort to develop nuclear weapons?
    General Craddock. The main threat to EUCOM from Iran's continued 
sponsorship of terrorist organizations is from Lebanese Hizballah. 
Since the 1980s, Hizballah, as Iran's proxy, has historically directed 
its actions against Israel, though we cannot rule out operations 
against other countries at Iran's behest. Today, Iran remains 
Hizballah's main source of funding and supplies and some militias 
receive training in Iran. However, the Iranian-Hizballah relationship 
has evolved past the point where Hizballah's Secretary General 
Nasrallah takes direction from Iran's Supreme Leader and would not act 
unless directed by Supreme Leader Khamenei. Today, the relationship is 
much more of a partnership. I would agree Nasrallah does take some 
direction from Khamenei, but I would also say in some situations 
Nasrallah will act in Lebanese Hizballah's best interest even if that 
means going against Iranian desires.
    Additionally, it is likely Iran has other proxy networks worldwide 
capable of conducting terrorist operations upon Tehran's orders.
    Regarding the Iranian nuclear threat, I will focus my response on 
the most probable systems which could be used to strike targets within 
EUCOM. Currently, the Iranians possess an indigenously produced 
missile, the Shahab-3, which is based upon a North Korean missile 
design. Depending upon the specific variant and payload, the Shahab-3 
has a range of 1,100-1,500km, which at the outer ranges would enable 
Iran to target Turkey, Cyprus, and Israel as well as Egypt and Saudi 
Arabia in CENTCOM. Taken in conjunction with Iran's nuclear program, 
the Shahab or the acquisition of other medium range ballistic missile 
systems represent a clear and serious threat.

     competition for military-to-military relationships from china
    70. Senator Martinez. General Craddock, in your testimony, you 
express concern about the effort that China is making to establish 
relationships with the countries/militaries in the EUCOM AOR. Can you 
give an update on China's effort to establish military-to-military 
relationships in your AOR?
    General Craddock. China is using enhanced military relationships 
with African states as a means to pursue its economic and diplomatic 
interests. China uses a range of military programs, including arms 
sales, military training, exchanges of military attaches, military 
infrastructure projects, medical and maintenance assistance, and 
contributions to African peacekeeping missions, to gain access to 
natural resources (oil, copper, cobalt, et cetera) and markets, and 
political leverage in many African states in support of these 
interests.
    Although Beijing was sub-Saharan Africa's number one supplier of 
military arms and equipment from 2002 to 2006, China is not 
intentionally creating, encouraging, or supporting conflicts in Africa 
or seeking to start a regional arms race.
    Chinese military sales, programs, and development projects rarely 
compete directly with U.S. initiatives in Africa, but they sometimes 
interfere with U.S. objectives by undermining sanctions against rogue 
regimes and increasing the military options of some African rulers. 
African countries prefer the higher quality western and U.S. military 
equipment, but they often opt for China's low-to-mid technology 
weapons, including aircraft, heavy weapons, small arms, and patrol 
boats. Most African countries only consider the initial purchase cost 
as the primary criteria, and long-term maintenance is often not taken 
into consideration.
    China's training and military assistance in Africa includes 
equipment maintenance programs, professional military training, 
education, aviation training, barracks construction, and sending 
Chinese doctors to military hospitals. Chinese training tends to be 
superficial, designed to engage foreign military officers more than to 
develop military skills. Additionally, China supports all ongoing U.N. 
peacekeeping operations in Africa. 1,300 of the 1,800 Chinese U.N. 
peacekeepers are in Africa, mostly in engineering, transportation, and 
medical units.

    71. Senator Martinez. General Craddock, where is China focusing 
their efforts to compete for access to the militaries in your AOR?
    General Craddock. Within the EUCOM AOR, China is also focused on 
Africa, although Chinese military sales, programs, and development 
projects rarely compete directly with U.S. military initiatives. 
African needs are so great for the kinds of assistance favored by the 
United States, such as capacity building, professionalizing militaries, 
and technical assistance, that African states cannot afford to refuse 
either American or Chinese help. Given a choice, most African states 
show a strong preference for U.S. and other western equipment and 
training.
    Since China uses military engagement activities as one tool to gain 
access to African resources and markets, it focuses those efforts on 
countries with the most resources and mature markets. Topping the list 
are Sudan, Nigeria, Equatorial Guinea and Angola for their 
hydrocarbons, and Zimbabwe, the Democratic Republic of the Congo, 
Kenya, Tanzania, and Zambia for their minerals. Among these, Nigeria, 
Angola, and Kenya, along with South Africa are important trading 
partners and markets for Chinese goods and businesses. Many of these 
countries, especially the energy rich states, have strained or, as in 
the case of Sudan, hostile relations with the west.

    72. Senator Martinez. General Craddock, is our cumbersome FMS 
system part of the handicap you face?
    General Craddock. It is true that the current FMS system is often 
slow, cumbersome, and, at times, unwieldy. However, the FMS system was 
not designed as a contingency procurement process. Instead, it was 
designed to ensure that technology is protected and sensitive items are 
safeguarded from inappropriate release.
    A military-to-military FMS program can often be delayed by a single 
approval authority in the chain. The need for a deliberate process is 
understandable and justified given the frequent importance of swift 
action and the nature of the items sold. Without question, the current 
security environment requires a more responsive and flexible system and 
the recent authority given to COCOMs in section 1206 comes closest to 
providing that responsiveness. The section 1206 program allows the DOD 
to address urgent and emergent needs in the realm of SC. This tool 
enables ``phase zero'' operations that alleviate the underlying 
conditions for terrorism by addressing the capacity of partner nations 
to ensure their own defense. By allowing rapid employment of resources, 
through an integrated interagency approach, section 1206 funding 
enables the U.S. Government to adapt and respond to the rapidly 
changing threat environment characteristic of the global war on terror.
    EUCOM is successfully using this authority to fund infrastructure 
improvements for information sharing among partner nations in Africa 
collaborating with the U.S. on counterterrorism. Additionally, it has 
enabled certain African nations to build maritime awareness 
capabilities along the West African coastline.
    Improvements to the FMS process to make it more transparent and 
valuable are still required. Managers at every step of the process need 
to be empowered with the ability to interface with both the requestors 
and providers to rapidly correct data and correspondingly adjust 
decisions. As an example, a sale of unmanned aerial vehicles to a NATO 
partner is facing delays of up to 2 years over communications security 
issues. Such delays directly affect the ability to enhance partner 
capacity. This capacity is vital to the sustainment of both coalition 
contributions to the global war on terror, as well as the U.S. ability 
to interoperate with willing partners.

    73. Senator Martinez. General Craddock, are China's moves primarily 
commercial or political or both?
    General Craddock. China's main interests in Africa are both 
commercial and economic. Chief among these are gaining and maintaining 
access to the natural resources needed to drive China's rapidly growing 
economy. As the world's second largest oil consumer (behind the United 
States), hydrocarbon interests dominate China's agenda in Africa. China 
leads the world in the demand for copper, cobalt, steel, and aluminum, 
and it is investing heavily in the mineral sectors of Africa's mineral 
rich countries. China uses military arms sales, military grant aid, 
training, and other programs to build good will and gain favor with the 
elites of those countries to facilitate access to Africa's oil and 
mineral wealth.
    While China's political and diplomatic interest is promoting its 
``One China'' policy, it no longer dominates Beijing's agenda on the 
African continent. In Africa, China has largely succeeded in isolating 
Taiwan as only five of the 50 African states recognize Taiwan 
diplomatically. China also looks to Africa to shore up its influence in 
the Non-Aligned Movement and in the United Nations, where Africa 
comprises about a third of the General Assembly.

   military-to-military relationship with the armed forces of georgia
    74. Senator Martinez. General Craddock, we have in place a robust 
SC program with the Armed Forces of Georgia (Georgia Sustainment and 
Stability Operations Program). It appears that this is a successful 
program and I note that Georgia is the largest per capita contributor 
of forces to OIF. Can you give an update on the successes of our SC 
programs with Georgia and tell about progress on Georgia's NATO 
Membership Action Plan?
    General Craddock. The success of our SC programs in Georgia has 
allowed Georgia to increase its OIF contribution from 858 to 2,000 
personnel. When this force deploys this summer, Georgia will not only 
be the largest per capita contributor, but they will also be the third 
largest coalition contributor (behind the United States and United 
Kingdom). The Georgian brigade will be integrated as a complete brigade 
within a U.S. infantry division area of operation and be able to 
execute any missions that could be assigned to a U.S. brigade. We 
intend to build upon this success by training and equipping Georgia's 
Special Forces battalion for service in Afghanistan, training the 
Afghanistan National Army. We are also enhancing the capabilities and 
infrastructure of Georgia's national training center at Krtsanisi, 
giving them the capacity to sustain their training and to eventually 
utilize this facility to help train other coalition members for future 
operations.
    Georgia continues to make significant progress in achieving its 
NATO Individual Partnership Action Plan (IPAP) objectives in pursuit of 
receiving a NATO Membership Action Plan. Georgian units are operating 
successfully as coalition members in Iraq and Kosovo. Moreover, Georgia 
has made important improvements across a broad range of the defense 
sector to include financial management, training, logistics, and 
infrastructure.

    75. Senator Martinez. General Craddock, how close is Georgia to 
meeting the military requirements of being admitted to NATO?
    General Craddock. NATO is pleased with the progress Georgia is 
making in achieving its IPAP objectives. Georgia is making significant 
headway in establishing systems for English language skills training, 
human resources management, and defense planning, programming, and 
budgeting, though more work is still required. Moreover, they have made 
noteworthy improvements in establishing civilian control of the 
military and restructuring their joint staff. Georgia is also enhancing 
their professional military education system and developing the 
necessary concepts and training to establish a professional 
Noncommissioned Officer Corps. If Georgia maintains this level of 
commitment, the potential for NATO membership is good. That decision 
is, of course, one of political nature by member nations.

                       ballistic missile defense
    76. Senator Martinez. General Craddock, we've heard a lot in the 
news and you mention in your testimony about the proposed missile 
defense installations in Poland and the Czech Republic. Our friends in 
Russia have made their displeasure with our plans quite apparent and it 
has even been claimed that our efforts will plunge the world back into 
a second Cold War. Could you outline why the proposed missile defense 
sites are not a threat to Russia?
    General Craddock. The United States has consulted with the Russians 
at senior levels on numerous occasions regarding U.S. BMD plans, 
including the NATO-Russia Council and several bilateral discussions. In 
those discussions, the United States offered to explore Russian 
participation and contributions to missile defense initiatives. 
Contrary to Russian public claims, the United States has been 
transparent and actively engaged with Russia regarding our missile 
defense policy, plans, and programs. The Russians have been told on 
numerous occasions that the proposed European system is not technically 
capable of threatening their ballistic missile assets. Russia's 
ballistic missiles could easily overwhelm the U.S. limited number of 
deployed interceptors. Also, the physics and trajectories of Russian 
launches toward the United States make it clear that interceptors 
placed in Central Europe could never catch a Russian missile. European 
missile defense assets are designed to address a threat from the Middle 
East, not from Russia. Of particular note, Secretary Gates recently 
sent a letter to Minister Serdyukov asking him to carefully consider a 
U.S. invitation for Russian experts to visit missile defense facilities 
in the United States Secretary Gates also suggested that a Russian 
expert-level delegation provide the United States with Russian views on 
possible areas of missile defense cooperation.

    77. Senator Martinez. General Craddock, how do these installations 
differ from those built during the height of the Cold War?
    General Craddock. The European Site Initiative is purely defensive 
in nature and focused on a ballistic missile threat from a specific 
geographic region, Southwest Asia. Cold War-era installations were 
generally offensive or both offensive and defensive in nature and were 
designed to defend against or counter a range of threats.

    78. Senator Martinez. General Craddock, do you feel that this line 
of defense will adequately protect our allies and interests in the 
region from rogue states?
    General Craddock. The EUCOM AOR requires a mix of systems 
(interceptors, radars, and command and control) that provide defense 
against short, medium, intermediate, and intercontinental missiles in 
all phases of flight (boost, mid-course, and terminal). The European 
Site Initiative, one component in this ``mix of systems,'' would 
supplement defense of the United States, and defend most of Europe, 
deployed forces, friends, and allies from emerging long-range ballistic 
missile threats in Southwest Asia.

                                 russia
    79. Senator Martinez. General Craddock, in late April, Russian 
President Vladimir Putin proposed a moratorium on the treaty on 
Conventional Armed Forces in Europe. This is a concerning action by the 
Russian government and could be viewed as a response to our plans to 
build ABM sites in Poland and the Czech Republic. Do you believe that 
the Russian President's comments are potentially threatening to our 
interests abroad and those of our allies?
    General Craddock. Russia has consistently stated that it values the 
CFE Treaty as much as the Europeans and wants to move on to the Adapted 
CFE Treaty. Russia argues that any loss of the Treaty's viability is 
due to U.S. moves. Despite these comments, there has been no impact 
thus far on CFE Treaty implementation activities.
    Political consultants in Russia have noted that President Putin is 
just tired of perceived accumulated U.S. slights, including: missile 
defense, Secretary Gates' testimony placing Russia and North Korea in 
the same threat category, U.S. criticism over Russian efforts to 
transition Belarus to market prices for gas, and western failure to 
condemn Estonia's removal of the Soviet-era World War II monument as 
feeding this anger. Despite the rhetoric, President Putin continues to 
characterize the United States as a friend, to dismiss anti-Americanism 
as harmful, and to reiterate his respect and friendship for the 
President.

    80. Senator Martinez. General Craddock, should we be concerned that 
President Putin may desire to increase Russian military presence on the 
European continent?
    General Craddock. [Deleted.]

    [Whereupon, at 11:39 a.m., the committee adjourned.]

                                 <all>

</pre></body></html>
